<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2018 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-448, Part 1]
[From the U.S. Government Publishing Office]





                                               S. Hrg. 115-448, Pt. 1


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 1

              U.S. CENTRAL COMMAND AND U.S. AFRICA COMMAND

                         U.S. EUROPEAN COMMAND

                         U.S. STRATEGIC COMMAND

            U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND

               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                      U.S. TRANSPORTATION COMMAND

                    U.S. SPECIAL OPERATIONS COMMAND

                           U.S. CYBER COMMAND

                              ARMY POSTURE

                           AIR FORCE POSTURE

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

                              NAVY POSTURE

                               ----------                              

    MARCH 9, 23; APRIL 4, 6, 27; MAY 2, 4, 9, 25; JUNE 13, 15, 2017


            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
         
         Printed for the use of the Committee on Armed Services


               


                                                 S. Hrg. 115-448, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1519

      TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2018 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION,
    AND FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 1

              U.S. CENTRAL COMMAND AND U.S. AFRICA COMMAND

                         U.S. EUROPEAN COMMAND

                         U.S. STRATEGIC COMMAND

            U.S. SOUTHERN COMMAND AND U.S. NORTHERN COMMAND

               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                      U.S. TRANSPORTATION COMMAND

                    U.S. SPECIAL OPERATIONS COMMAND

                           U.S. CYBER COMMAND

                              ARMY POSTURE

                           AIR FORCE POSTURE

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

                              NAVY POSTURE

                               __________

    MARCH 9, 23; APRIL 4, 6, 27; MAY 2, 4, 9, 25; JUNE 13, 15, 2017

                               __________

         Printed for the use of the Committee on Armed Services


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Available via http://www.govinfo.gov/

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-567 PDF                   WASHINGTON : 2020 
                              



                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman		 JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma		 BILL NELSON, Florida
ROGER F. WICKER, Mississippi		 CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska			 JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas			 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota		 RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa			 JOE DONNELLY, Indiana
THOM TILLIS, North Carolina		 MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska			 TIM KAINE, Virginia
DAVID PERDUE, Georgia			 ANGUS S. KING, JR., Maine
TED CRUZ, Texas				 MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina		 ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska			 GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama
				     
                                     
                Christian D. Brose, Staff Director
                Elizabeth L. King, Minority Staff Director

                                  (ii)



                            C O N T E N T S
 
                             March 9, 2017

                                                                   Page

United States Central Command and United States Africa Command...     1

Votel, General Joseph L., USA, Commander, U.S. Central Command...     5
Waldhauser, General Thomas D., USMC, Commander, U.S. Africa          29
  Command.

Questions for the Record.........................................    74

                             March 23, 2017

United States European Command...................................    87

Scaparrotti, General Curtis M. USA, Commander, U.S. European         91
  Command/Supreme Allied Commander, Europe.

Questions for the Record.........................................   133

                             April 4, 2017

United States Strategic Command Programs.........................   141

Hyten, General John E., USAF, Commander, U.S. Strategic Command..   144

Questions for the Record.........................................   188

                             April 6, 2017

United States Southern Command and United States Northern Command   193

Robinson, General Lori J., USAF, Commander, U.S. Northern Command   196
  and Commander, North American Aerospace Defense Command.
Tidd, Admiral Kurt W., USN, Commander, U.S. Southern Command.....   205

Questions for the Record.........................................   249

                             April 27, 2017

United States Pacific Command and United States Forces Korea.....   261

Harris, Admiral Harry B., JR., USN, Commander, U.S. Pacific         264
  Command.

Questions for the Record.........................................   321

                              May 2, 2017

United States Transportation Command.............................   341

McDew, General Darren W., USAF, Commander, U.S. Transportation      343
  Command.

Questions for the Record.........................................   376

                                 (iii)

  


                              May 4, 2017

United States Special Operations Command.........................   395

Whelan, Theresa M., Acting Assistant Secretary of Defense for       398
  Special Operations/Low-Intensity Conflict.
Thomas, General Raymond A., III, USA, Commander, U.S. Special       403
  Operations Command.

Questions for the Record.........................................   445

                              May 9, 2017

United States Cyber Command......................................   457

Rogers, Admiral Michael S., USN, Commander, U.S. Cyber Command;     460
  Director, National Security Agency; Chief, Central Security 
  Services.

Questions for the Record.........................................   517

                              May 25, 2017

The Posture of the Department of the Army........................   521

Speer, Honorable Robert M., Acting Secretary of the Army.........   524
Milley, General Mark A., USA, Chief of Staff of the Army.........   526

Questions for the Record.........................................   562

                              June 6, 2017

The Posture of the Department of the Air Force...................   573

Wilson, Honorable Heather A., Secretary of the Air Force.........   576
Goldfein, General David L., Chief of Staff of the Air Force......   578

Questions for the Record.........................................   628

                             June 13, 2017

The Department of Defense Budget Posture.........................   649

Mattis, Honorable James N., Secretary of Defense, Accompanied by    653
  David L. Norquist, Under Secretary of Defense, Comptroller, 
  Chief Financial Officer, U.S. Department of Defense.
Dunford, General Joseph F., Jr., U.S. Marine Corps, Chairman of     662
  the Joint Chiefs of Staff.

Questions for the Record.........................................   712

                             June 15, 2017

Navy Posture.....................................................   723

Stackley, Honorable Sean J., Acting Secretary of the Navy........   727
Richardson, Admiral John M., USN, Chief of Naval Operations......   743
Neller, General Robert B., USMC, Commandant of the Marine Corps..   747

Questions for the Record.........................................   790

Appendix A.......................................................   804

                                  (iv)
                                  
                                  
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

     UNITED STATES CENTRAL COMMAND AND UNITED STATES AFRICA COMMAND

    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the posture of U.S. Central Command and 
Africa Command.
    We are pleased to welcome our witnesses: General Votel and 
General Waldhauser. We thank each of you for your decades of 
distinguished service and for your leadership of our men and 
women in uniform.
    More than a decade and a half since the September 11th 
terrorist attacks, our Nation is still at war with terrorists 
that seek to attack our Homeland, our interests, our allies, 
and our partners. In this fight, our military servicemembers 
are doing everything we ask of them from North Africa to the 
Middle East to South Asia. Thanks to their tremendous talent 
and dedication, we have made important tactical and operational 
progress.
    Our military has gradually eroded ISIS's [Islamic State of 
Iraq and Syria] territorial control and removed key personnel 
from the battlefield. ISIS has been expelled from its Libyan 
stronghold in Sirte, and I am confident that soon the same will 
be true in Mosul and Raqqa. Our military has kept up the 
pressure on terrorists operating in countries like Yemen and 
Somalia. In Afghanistan, we have kept al Qaeda on the run and 
helped our Afghan hold the line against renewed Taliban 
assaults.
    But much to the frustration of the American people, this 
hard-won tactical progress has not led to enduring strategic 
gains. In fact, the sad reality is America's strategic position 
in the Middle East is weaker today than it was 8 years ago. The 
positions of Vladimir Putin's Russia and the Iranian regime and 
its terrorist proxies have improved. This is not a military 
failure. Instead, it is a failure of strategy, a failure of 
policy, and most of all, a failure of leadership.
    The fact is for at last the last 8 years, we have tried to 
isolate the fight against terrorism from its geopolitical 
context. Or as General Mattis put it 2 years ago, we have been 
living in a ``strategy-free environment'' for quite some time. 
The result is that we have failed to address and, at times, 
exacerbated the underlying conflict, the struggles for power 
and sectarian identity now raging across the Middle East. We 
have been unable or unwilling to either ask or answer basic 
questions about American policy in the region. We have been 
reluctant to act, and when compelled to do so, we have pursued 
only the most limited and incremental actions.
    We are fighting ISIS in Syria but ignoring the Syrian civil 
war that was its genesis and fuels it to this day. We are 
fighting ISIS in Iraq but failing to address the growing 
influence of Iran. We are fighting al Qaeda in Afghanistan but 
pretending the Taliban is no longer our problem. We are 
fighting al Qaeda in the Arabian Peninsula in Yemen but 
refraining from confronting the threat posed by Iran's Houthi 
proxies. In short, we are treating the symptoms and ignoring 
the disease, and we should not be surprised at the results: a 
Middle East aflame, America's influence squandered, America's 
adversaries emboldened, America's friends disheartened, and 
America's policy options narrowed and worsened.
    This is the unfortunate inheritance of the new 
administration. Yet as difficult and complex as our challenges 
are in the Middle East, we have an opportunity to chart a new 
and different course. Seizing this opportunity will require 
more than just a plan for the accelerated defeat of ISIS. We 
have to raise our sights, look beyond the tactical and 
operational fight, and start answering some basic but difficult 
strategic questions. What enduring objectives do we hope to 
achieve across the Middle East? How will we achieve those 
goals, and on what timeline, and at what cost?
    In Iraq, Mosul will be retaken eventually, but that will 
only likely reignite the battle for the future of Iraq, a 
battle in which we have an important stake. What is America's 
policy and strategy to deal with the problems that lie ahead: 
combating the malign influence of Iran and its militias, 
addressing the future of the Kurds and their place in Iraq, and 
attenuating the disenfranchisement of Sunni Iraqis that gave 
rise to ISIS in the first place?
    Likewise in Syria, I believe Raqqa will eventually be 
liberated. But the closer we come to that day, the more it 
becomes clear that we cannot avoid difficult questions about 
Syria any longer. What is America's policy and strategy 
concerning a political transition in Syria, the future of Assad 
and his regime, the fate of the Kurds in Syria, and the 
influence of extremist forces from Sunni terrorists to Iranian-
backed militias? In short, what is America's vision of an end-
state in Syria?
    In Libya, the ISIS stronghold in Sirte has been degraded. 
But what remains is a divided nation littered with independent 
militias, flooded with arms, and searching in vain for 
legitimate governance and political unity. What is America's 
policy and strategy for addressing these conditions, which 
unless confronted will make Libya fertile ground for extremism 
and anti-Western terrorism?
    In Afghanistan, we have settled for a strategy of ``don't 
lose.'' The result is that last month, General Nicholson 
testified before this committee that this war is now in a 
stalemate after 15 years of fighting. After 15 years of 
fighting, we are in a stalemate. What is America's policy and 
strategy for rolling back a resurgent Taliban, for addressing 
the terrorist sanctuaries within Pakistan's borders, and 
pushing back against Iranian and Russian meddling? In short, 
what does victory look like in Afghanistan, and what is our 
strategy for achieving it?
    Across the region, Russian and Iranian influence is growing 
at America's expense. Russia and Iran even hosted Syrian peace 
talks in Moscow last year without America present at the table.
    Russia's cruise missiles crisscross the region while its 
aircraft indiscriminately target Syrian civilians. Iran's 
proxies wield lethal rockets and ballistic missiles with 
impunity, sensing that the nuclear deal shields them from 
American pressure. What is America's policy and strategy to 
counter Russian and Iranian malign influence that often 
manifests itself below the threshold of open conflict? How do 
we restore the trust of our regional allies and partners and 
convince them to forego hedging strategies that only add to 
uncertainty and instability?
    These are the major policy and strategy questions hanging 
in the balance. The stakes are high, not just for the stability 
of the Middle East and Africa, but for America's national 
security. It is not the job of our witnesses to provide answers 
to these questions. That is the job of the President, his 
administration, and the Congress. We owe our witnesses and the 
men and women they lead unambiguous national security 
priorities, clarity in our strategic thinking, and an 
unwavering commitment to provide them the resources required to 
support the necessary courses of action.
    Once again, I want to thank our witnesses for appearing 
before the committee today and look forward to hearing how the 
military efforts will help us achieve favorable strategic 
outcomes.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you, Mr. Chairman, and thank you 
to our witnesses not only for your appearing here today but for 
your extraordinary service to the Nation over many, many years. 
Also please relay our thanks to the men and women that you 
lead, and we appreciate their efforts extraordinarily so.
    You are in a situation of very challenging times in all of 
the areas of operation. This hearing is especially timely, 
given unfolding events on the ground in Iraq and Syria and the 
reported completion of a proposed strategy to accelerate 
efforts against ISIS. Our assistance to partners on the ground 
is helping them to make steady progress in reclaiming areas of 
Iraq and Syria once held by ISIS, most notably in Mosul.
    However, the situation in Syria seems to get more 
complicated by the day as different actors on the ground pursue 
divergent goals. Russia's continued support for the Assad 
regime fuels the country's civil war, enables the abuse and 
killing of the Syrian population, and allows ISIS to exploit 
the resulting instability for its own gains. Chairman of the 
Joint Chiefs of Staff General Dunford met with his Russian and 
Turkish counterparts just this week to discuss deconflicting 
operations in Syria, a battlespace that has become increasingly 
complicated as United States, Turkish, Russian, Iranian, Assad 
regime, and local partner forces converge in northern Syria. 
General Votel, we look forward to your update on these 
particular issues.
    According to public reports, the Defense Department has 
presented the White House with a draft strategy to accelerate 
progress against ISIS. While details of the strategy have not 
been publicly released, reports indicate that it retains many 
of the core elements of the strategy put in place under the 
Obama administration. General Dunford has described the 
strategy as a ``political-military plan'' and a ``whole-of-
government approach'' requiring important contributions from 
other non-DOD departments and agencies, most notably the State 
Department.
    This is why it is so concerning to me that the Trump 
administration's budget would apparently cut the State 
Department by a reported 37 percent at the very time that we 
need a surge of diplomatic and other assistance efforts to 
achieve the political conditions necessary to ultimately 
prevail in our fight against ISIS. As then General and now 
Secretary of Defense Mattis warned this committee, ``if you 
don't fund the State Department fully, then I need to buy more 
ammunition.'' We just cannot keep buying bullets as the Trump 
administration is proposing.
    General Waldhauser, the importance of a robust interagency 
is perhaps of even greater importance in your area of 
responsibility, where you are primarily working by, with, and 
through partner military forces in conjunction with United 
States interagency efforts. General, as you share your 
assessment of current and future AFRICOM [United States Africa 
Command] efforts in places like Libya and Somalia, I look 
forward to hearing the ways you are incorporating a whole-of-
government approach into your planning. Such incorporation is 
particularly important in places like these where conflict 
resolution will ultimately rely less on the military toolkit 
and more on generating the proper political conditions to 
sustain and build upon security gains.
    Turning back the CENTCOM [United States Central Command] 
AOR [Area of Responsibility], over the last few years, there 
has been a persistent focus on Iran's nuclear program and 
appropriately so. We passed the 1-year anniversary of the 
implementation of the Joint Comprehensive Plan of Action, or 
JCPOA [Joint Comprehensive Plan of Action], in January, and 
Iran appears to be living up to its commitments under this 
agreement. However, the JCPOA only addresses one facet of the 
challenge posed by Iran. Its destabilizing activities in the 
region, ballistic missile development efforts, and 
unprofessional and dangerous behavior in the maritime 
environment continue.
    Sanctions related to Iran's nuclear program were successful 
because of the extraordinary unity within the international 
community. We must approach the remaining challenges in a 
similar way if we are to be successful in changing Iran's 
behavior. Any new sanctions must be carefully applied in 
concert with our international partners so that we do not give 
Iran a pretext to withdraw from the JCPOA and risk reversing 
the progress that has been made on limiting their nuclear 
ambitions.
    Last month, as the chairman indicated, General Mick 
Nicholson, Commander of Resolute Support and United States 
Forces-Afghanistan, testified that despite significant security 
gains and political efforts, Afghanistan is currently facing a 
stalemate. Further complicating the security landscape are the 
range of external actors, including Iran, Russia, and Pakistan, 
who seem intent upon interfering with the stability in 
Afghanistan. It was General Nicholson's assessments that 
increased troop levels for the NATO [North Atlantic Treaty 
Organization] train, advise, and assist mission, as well as the 
continued growth in the size and capability of the Afghan Air 
Force, would be necessary to break the stalemate.
    General Votel, the committee would benefit from hearing 
your assessment of the current situation in Afghanistan and 
what can be done to protect the hard-won progress that has been 
achieved and ensure that further progress is made.
    Again, thank you both for your continued service to the 
Nation, and I look forward to your testimony.
    Chairman McCain. I welcome the witnesses. Your written 
statements will be made part of the record. We will begin with 
you, General Votel. Welcome and thanks for the service that you 
both render to our Nation.

  STATEMENT OF GENERAL JOSEPH L. VOTEL, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Votel. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, good morning, and thank 
you for the opportunity to be here today to discuss the current 
posture and state of readiness of the United States Central 
Command.
    I am very pleased to appear today with my good friend and 
highly respected brother in arms, General Tom Waldhauser.
    I come before you today on behalf of the outstanding men 
and women of the command, military, civilians, and contractors, 
along with our coalition partners representing nearly 60 
nations. Our people are the very best in the world at what they 
do, and I could not be more proud of them and their families. 
Without question, they are the strength of our Central Command 
team.
    I have been in command of CENTCOM for about a year now. It 
has been an incredibly busy and productive period. Over the 
past 12 months, we have dealt with a number of significant 
challenges in Iraq and Syria, Afghanistan, Pakistan, Yemen, 
Egypt in the Sinai, the Bab al Mandeb Strait, and elsewhere 
throughout our area of responsibility. We are making progress 
in many areas, but as you know, there is much work that 
remains.
    We are also dealing with a range of malign activities 
perpetrated by Iran and its proxies operating in the region. It 
is my view that Iran poses the greatest long-term threat to 
stability for this part of the world.
    Generally speaking, the central region remains a highly 
complex area, widely characterized by pervasive instability and 
conflict. The fragile security environments, which reflect a 
variety of contributing factors, including heightened ethno-
sectarian tensions, economic uncertainty, weak or corrupt 
governance, civil wars, and humanitarian crises are exploited 
by violent extremist organizations and terrorist groups such as 
al Qaeda and ISIS. These groups have clearly indicated their 
desire and intent to attack the U.S. Homeland, our interests 
abroad, and the interests of our partners and allies.
    At the same time, the central region is increasingly 
crowded with external nation states such as Russia and China, 
and they are pursuing their own interests and attempting to 
shift alliances.
    The point that I would emphasize to you is this, that while 
there may be other more strategic or consequential threats in 
regions in the world today, the central region has come to 
represent the nexus for many of the security challenges our 
Nation faces. Most importantly, the threats in region continue 
to pose the most direct threat to the U.S. Homeland and the 
global economy. Thus, it must remain a priority and be 
resourced and supported accordingly.
    The team at U.S. Central Command remains appropriately 
focused on doing what is necessary to protect our national 
interests and those of our partners. Our strategic approach is 
straightforward: prepare, pursue, and prevail. I will explain 
what I mean by that.
    We prepare the environment to ensure an effective posture. 
We actively pursue opportunities to strengthen relationships 
and support our interests, and when we do put our forces into 
action, we prevail in our assigned missions.
    I would also point out to you that today to the credit and 
professionalism of our armed forces and coalition partners, we 
are executing campaigns in the central region with 
significantly fewer U.S. Forces on the ground than in previous 
years. As you have seen clearly demonstrated in Iraq and Syria, 
Afghanistan, Yemen, and elsewhere throughout our area of 
responsibility, we have adopted a by, with, and through 
approach that places a heavy reliance on indigenous forces. 
While this approach does present some challenges and can be 
more time-consuming, it is proving effective and is likely to 
pay significant dividends going forward. Indigenous force 
partners continue to build needed capability and capacity and 
they are personally invested in the conduct of operations and 
thus inclined to do what is necessary to preserve the gains 
they have achieved going forward.
    We also have a vested interest in ensuring increased 
stability and security in this strategically important central 
region. To this end, I will close by highlighting three areas 
where I do believe, if we apply the appropriate amount of 
energy and effort, we can and will have a lasting impact in 
this part of the world.
    First, we must restore trust with our partners in the 
region while at the same time maintaining the strong trust of 
our leadership here in Washington. The fact is we cannot surge 
trust in times of crisis, and we must do what is necessary now 
to assure our partners of our commitment and our staying power.
    Second, we must link our military objectives and campaigns 
as closely as possible to our policy objectives and our other 
instruments of national power. In other words, we must rely on 
our military objectives and our soft power capability with 
desired national and regional strategic end states, recognizing 
that if we do not do this, we risk creating space for our 
adversaries to achieve their strategic aims.
    Finally, we must make sure that we are postured for purpose 
in the region. We must have credible, ready, and present force, 
coupled with foreign military sales and foreign military 
financing programs that serve to build and shape partner 
nations' capability in a timely and effective fashion.
    Ours is a challenging and important mission. Much is at 
stake today in the central region. We recognize this fact, and 
I assure you that the CENTCOM team stands ready and willing to 
do what is necessary to protect our national interests and the 
interests of our allies and partners.
    Let me close by thanking the committee for the strong 
support that you continue to provide to the world-class team at 
United States Central Command and particularly to our forces 
located forward in the region. As I said at the outset, the 
80,000-plus soldiers, sailors, airmen, marines, coast 
guardsmen, and civilians that make up the command are truly the 
very best in the world at what they do, and I could not be more 
proud of them and their families. I know that you are proud of 
them as well.
    Thank you again, and I look forward to answering your 
questions.
    [The prepared statement of General Votel follows:]

             Prepared Statement by General Joseph L. Votel
                             introduction.
    The outstanding men and women who make up the U.S. Central Command 
(USCENTCOM) Team are the very best in the world at what they do. The 
incredibly dynamic, volatile and tumultuous Central Region presents a 
complex convergence of compounding multi-faceted security challenges. 
Such an environment generates near continuous crisis action planning 
and response. These conditions demand a highly capable, vigilant 
capability at USCENTCOM Headquarters and our Service Component 
Headquarters, as well as forward throughout our area of responsibility 
(AOR). The exceptional individuals on the USCENTCOM Team expertly 
navigate this challenging environment. In doing so, they effectively 
protect and promote our Nation's interests and they represent our 
values wherever they go around the world. They work selflessly each day 
in support of our mission and the exceptional men and women serving in 
harm's way around the globe. We could not be more proud of them and 
proud of their families. They truly are the strength of our USCENTCOM 
Team.
    The Central Region is a fascinating area of the world. Spanning 
over 4 million square miles it is populated by 550+ million people from 
more than 20 ethnic groups representing multiple religions and speaking 
eighteen languages with hundreds of dialects. The region lies at the 
intersection of three continents and important commercial sea lanes, 
flight corridors, pipelines, and overland routes run across it 
supporting regional and global economic networks.
    It is also a highly-complex area, widely characterized by pervasive 
instability and conflict. The 20 nations that make up the Central 
Region have various forms of government, ranging from absolute and 
constitutional monarchies to theocratic, parliamentary, and 
presidential republics. The economic and social-political landscape is 
diverse, volatile at times, and rivalries often create tensions that 
affect security and stability. Violent extremist organizations (VEOs), 
such as the terrorist organizations al Qaeda and the Islamic State of 
Iraq and al-Sham (ISIS), exploit these conditions to foment unrest, 
challenge or destabilize governments, and threaten the global economy 
and U.S. national interests.
    The turbulence across the region reflects a number of contributing 
factors or ``drivers of instability,'' including ethnic and sectarian 
hostilities between Shiite and Sunnis, and Arabs and Persians; economic 
uncertainty and sustained low oil prices that severely strain energy-
based economies across the region, contributing to reduced government 
services and weakened prospects for economic growth; a 
disproportionately large youth population facing increasing poverty and 
unemployment, which may make them susceptible to unrest, radical 
ideologies, and VEO recruitment; expanding ungoverned or under-governed 
spaces, exploited by VEOs; civil wars, which are ``engines of 
instability'' all by themselves; worsening humanitarian crises, 
contributing to growing refugee and internally displaced person (IDP) 
populations; and, competition among outside actors, including Russia 
and China, seeking to promote their interests and supplant U.S. 
influence in the region. While we must take the necessary actions to 
counter immediate threats, such as ISIS in Iraq and Syria, we also need 
to find ways to address these and other root causes of instability if 
we hope to achieve lasting positive effects in that part of the world. 
This cannot be accomplished solely through military means. The military 
can help to create the necessary conditions; however, there must be 
concomitant progress in other complementary areas (e.g., 
reconstruction, humanitarian aid, stabilization, political 
reconciliation). There are a variety of interagency programs and 
efforts underway that are essential to translating military gains into 
actual achievement of stated goals and objectives. Support for these 
endeavors is vital to our success.
    The current evolving security environment in the Central Region is 
further complicated by the fact that most challenges transcend borders; 
they are trans-regional (cutting across multiple combatant commands 
(CCMD)), all-domain (land, sea, air, space, cyberspace), and multi-
functional (e.g., conventional, special operations, ballistic missile 
defense, cyber). Of note, the Middle East remains the global epicenter 
for terrorism and violent Islamist extremism. According to the 
Institute for Economics and Peace's 2016 Global Terrorism Index, the 
U.S. Central Command (USCENTCOM) AOR accounted for 78 percent of all 
terrorism incidents worldwide, and the turmoil stretches across CCMD 
seams into Africa, Europe, South Asia, and beyond.
    The security environment is further challenged by the emergence of 
a ``virtual caliphate'' and increased access and activity in the cyber 
domain. Ready access to the Internet, social media, and other messaging 
platforms has enabled a new generation of extremists to spread their 
radical Islamist views, incite widespread violence, and recruit new 
followers to their cause. As we have seen with the ongoing campaign to 
defeat ISIS, diminishment of the physical organization does not equate 
to the dismantlement of their virtual presence. To the contrary, 
terrorist organizations' activities in cyberspace enable them to remain 
relevant despite setbacks on the battlefield, while reaching out to 
direct, enable, and/or inspire audiences well beyond the region's 
geographic borders. Countering the ``virtual caliphate'' will require a 
concerted ``whole-of-government'' effort led by the people of the 
region. We can support our partners' activities, but their voices and 
influence will be required to achieve enduring positive results.
    We also acknowledge, particularly in the current resource-
constrained environment, the need to find additional means for 
countering existing and emerging threats and deterring potential 
adversaries. No other country in the world has a military with a 
greater ability than the U.S. to achieve kinetic and non-kinetic 
effects and sustain those effects. Through the application of ``hard'' 
and ``soft'' power capabilities, including kinetic strikes, raids, and 
information operations, we have been very effective at degrading and 
disrupting violent extremist networks in the USCENTCOM AOR and 
elsewhere around the world. It is an important and a necessary 
competency. However, a solely military response is not sufficient. We 
must continue to look for ways to further enhance our effectiveness 
through the application of military and non-military activities. 
Ultimately, we want to increasingly involve other elements of the U.S. 
Government and the International Community, recognizing that it is only 
through a combination of capabilities that we will achieve and sustain 
our strongest deterrence posture.
    This is especially true today given the changing character of 
warfare. For much of the past 15+ years our Nation has increasingly 
operated in the ``gray zone'' of military confrontation--that range of 
activities short of conventional conflict; a dangerous space in which 
miscalculation can easily occur, leading to escalatory conflict and 
misunderstanding. In the ``gray zone,'' adversaries employ 
unconventional methods that include cyber warfare, propaganda, and 
support to proxy elements in an effort to achieve their objectives 
while minimizing the scope and scale of actual fighting. At the same 
time, these unconventional methods increase tensions between partners 
by emphasizing competing priorities that detract from support for our 
common objectives (e.g., Turks and Syrian Kurds). To be successful in 
this ambiguous environment, we must find alternate ways to compete 
against our adversaries in the ``gray zone'' short of conflict, while 
collaborating with our partners to achieve our desired end-states.
    We must--and will--continue to pursue the many opportunities that 
exist today throughout the Central Region, recognizing that by pursuing 
these opportunities we will achieve improved stability and security in 
that challenged part of the world. As Sir Winston Churchill wisely 
stated, ``Difficulties mastered are opportunities won.'' The key to 
success is ensuring that we remain ready and capable of effectively 
countering all threats. We need to make sure that we have an accurate 
understanding of the situation. We must take care to build and 
cultivate strong relationships, here at home and abroad. We need to be 
responsive to our partners and always listen and strive to understand 
their points of view and priorities. We also need to be properly 
postured with the necessary capabilities, resources, and appropriate 
authorities to protect and promote U.S. and partner nations' interests.
    In recent years, we have been encouraged to see many of our 
regional partners take a more active role in providing for the security 
of their sovereign spaces. Ultimately, we want to empower our partners 
and allies by helping them build additional capability and capacity 
while strengthening relationships and improving cooperation and 
interoperability among nations. This is--and will remain--a top 
priority for the USCENTCOM Team at our headquarters in Tampa, Florida, 
as well as among our Component Commands, combined/joint task forces, 
and forward in the region.
    U.S. Central Command's Mission. ``USCENTCOM directs and enables 
military operations and activities with allies and partners to increase 
regional security and stability in support of enduring U.S. 
interests.''
    Our Strategic Approach. Our strategic approach is focused on 
protecting our national interests and those of our partners. It is 
designed to reflect our values, align our behaviors, and support the 
National Military Strategy. It is proactive in nature and endeavors to 
set in motion tangible actions in a purposeful, consistent, and 
continuous manner. Each aspect of our approach--Prepare--Pursue--
Prevail--enables the next and collectively contributes to the 
successful achievement of our goals, objectives, and overall mission.
    Prepare the Environment--The volatile nature of the Central Region 
requires that we be well-postured to protect our enduring national 
interests. ``Well-postured'' means that we are ready to execute 
military tasks; physically and virtually present in the AOR; integrated 
in all our actions; responsive to the needs of our partners; and, able 
to provide options for our leadership. Proper preparation in advance of 
crises creates decision space for leaders and allows for the 
responsible and effective employment of available resources and forces. 
Well-prepared and motivated personnel with shared values provide a 
comparative advantage over our adversaries and competitors. Preparation 
of the environment--including agreements for assured access, basing, 
and overflight and the ability to adapt our expeditionary and enduring 
footprint--ultimately ensures a high level of readiness, increased 
responsiveness, and strong and productive relationships with partners 
and allies, all of which serve to enable our success in our various 
endeavors.
    Pursue Opportunities--In a region beset by myriad challenges we 
must always be on the look-out for opportunities to seize the 
initiative to support our objectives and goals. Pursuing opportunities 
means that we are proactive--we don't wait for problems to be 
presented; we look for ways to get ahead of them. It also means that we 
have to become comfortable with transparency and flat communications--
our ability to understand our AOR better than anyone else gives us the 
advantage of knowing where opportunities exist. Pursuing opportunities 
also means we have to take risk--by delegating authority and 
responsibility to the right level, by trusting our partners, and being 
willing to trust our best instincts in order to move faster than our 
adversaries.
    Prevail in Conflict--There are no easy victories or quick wins in 
the USCENTCOM AOR--ours is an area of protracted struggles and 
conflicts. Our overriding objective, despite these challenges, is to 
prevail. Prevailing means winning; coming out on top of our 
adversaries. We prevail when our national interests and objectives are 
preserved; when we maintain decision space for our leaders; and, when 
we maintain and sustain our access, posture, and relationships with our 
vital partners. We choose to prevail ``by, with, and through'' our 
partners. Prevailing in this AOR requires resolve and resiliency--and 
continued momentum.
                    u.s. central command priorities.
    Ensure an Effective Posture--An effective posture with trained and 
ready forward-stationed forces and equipment demonstrates our 
tremendous capability and enduring commitment to our partners and 
allies in the region. It reassures them; it enables access and 
influence; and, it positions us to secure our enduring national 
interests. An effective posture also optimizes freedom of movement, 
deters state aggressors, and provides decision space and flexible 
response options for national-level decision makers.
    Strengthen Allies and Partnerships--A coalition approach--at home 
and abroad--expands our ability to operate on multiple fronts. Strong 
relationships based upon shared values create greater cohesion and 
enhance the effectiveness of available resources and capabilities. 
Integration with partners, within the region and beyond, enriches the 
benefit of our presence, mitigates resource constraints, and expands 
the reach of the force. By building the capacity of regional partners, 
we enable them to assume a larger share of the responsibility for 
securing their sovereign spaces.
    Deter and Counter State Aggressors--Effectively posturing to 
maintain freedom of movement, freedom of action, and freedom of 
navigation is essential to securing our enduring national interests and 
the interests of our partners and allies. We must also actively counter 
malign influence, and be prepared to confront aggression, while 
reducing the freedom of action of surrogates and proxies operating in 
the region.
    Disrupt and Counter Violent Extremist Organizations and their 
Networks--We must protect our Homeland from terrorist threats that 
emanate from the Central Region. We will accomplish this by degrading 
and defeating VEOs and their networks, including ISIS and al Qaeda and 
their associated forces, and by preventing the further spread of 
sectarian-fueled conflict and VEOs. Ultimately, our goal is to achieve 
a Central Region where improved security leads to greater stability, 
and where regional cooperation counters actors that threaten U.S. 
interests.
    Desired End States. Our efforts in support of partners throughout 
the USCENTCOM AOR are designed to achieve our desired end states. These 
end states include: USCENTCOM properly postured to protect U.S. 
interests; free flow of commerce and access to areas in accordance with 
international law; strong and supportive allies and partners; state 
aggressors deterred or countered; WMD safeguarded and use prevented; 
VEOs degraded and their influence eroded; and, lasting increased 
regional stability and security. The key to achieving these ends is the 
effective use of available ways and means to address challenges and 
pursue opportunities in the region.
    Challenges and Opportunities in the Central Region. Many conditions 
exist in the strategically-important Central Region that threaten 
stability, access to the region, and transit via maritime chokepoints. 
The resulting challenges--to include the ongoing conflicts in Iraq and 
Syria, Afghanistan, and Yemen, rising tensions with Iran, and increased 
provocative behavior by Iranian-backed elements in and around the Bab 
al Mandeb (BAM) Strait--clearly demand our attention and directed 
efforts. Among the dynamics contributing to the complexity of the 
current security environment are the same socio-political factors that 
caused the Arab Awakening, fomenting social unrest and creating 
conditions for sectarianism, violence, and extremism. In parts of the 
region, reforms have fallen short, politics remain exclusive, economic 
growth stagnates, education systems under-deliver, and/or social 
contracts are falling out of balance. Opportunities for youth remain 
limited. Concurrently, large-scale displaced populations stress already 
fragile economies, social welfare systems and security architectures. 
The resulting instability provides opportunities for VEOs and 
insurgents and those who actively provide support and sanctuary to 
them. Competition for water, oil, and other natural resources are other 
drivers of instability and conflict. Resurgent geopolitics and the 
continuation of national rivalries fuels inter-state hostility and may 
potentially hasten the pursuit of nuclear weapons. As we look to 
address the multitude of challenges present today across the USCENTCOM 
AOR, it is absolutely essential that we understand the conditions and 
root causes of the instability and turmoil. If not, our efforts are 
likely to be insufficient or even misdirected and any gains achieved, 
temporary.
    In addition to addressing challenges, we must pursue the many 
opportunities present today throughout the Central Region. Doing so 
will enable us, working together with our partners, to shape the 
security environment and increase stability across our AOR. 
Opportunities manifest in a variety of ways, including bilateral and 
multilateral exercises and training programs, Foreign Military Sales 
(FMS) cases, Foreign Military Financing (FMF) assistance, information 
operations and messaging, and other cooperative endeavors in support of 
common objectives. Most notably, by supporting and enabling partner-led 
operations we achieve shared goals while limiting U.S. investment and 
troop presence and increasing regional partners' capability, 
confidence, and overall stake in providing for the security of their 
sovereign spaces. For example, we continue to support the Iraqi 
Security Forces (ISF) and the Syrian Democratic Forces in their efforts 
to counter ISIS in Iraq and Syria. Also, in recent months we supported 
successful United Arab Emirates (UAE)-led operations in Yemen against 
the al Qaeda affiliate, al Qaeda in the Arabian Peninsula (AQAP). In 
terms of future opportunities, we need to find ways to increase 
information sharing with key partners, like the UAE, to further enable 
their efforts. Enhanced information sharing with regional partners can 
also advance efforts against ISIS and other terrorist facilitation 
networks. We should pursue increasing our support for the Lebanese 
Armed Forces (LAF), which have demonstrated tremendous return on 
investment in recent years. The need for improved communication between 
and among elements, particularly regarding common regional disputes 
(e.g., Sunni-Shiite tensions, Kurdish expansionism) also presents 
opportunities and should be pursued by relevant elements of the U.S. 
Government (USG). The key outcomes achieved through the pursuit of 
these and other opportunities present in the Central Region are 
improved awareness and information-sharing, enhanced capability, and 
increased trust and confidence among partner nations, all of which are 
key components underpinning our mission in pursuit of our national 
interests. Thus, it is essential that we view all challenges with an 
eye for corresponding opportunities that provide the best means for 
addressing those challenges and achieving desired end-states.
    Given the trans-regional nature of the current security environment 
coupled with the competing demands for limited resources and 
capabilities, it is essential that we find efficiencies and alternative 
means for accomplishing stated objectives. This includes building and 
enabling coalitions comprised of willing partners, recognizing that 
collaboration enhances overall capability while providing a stronger, 
united front against potential adversaries; the sum of the parts is 
greater than the whole. The initial building blocks for strong 
coalitions are relationships. The cornerstone for effective enduring 
collaboration among coalition members is information-sharing which 
enables coalition compliant planning, resulting in successful execution 
of campaign goals and objectives. One quick-yield way to enhance the 
capability and effectiveness of our partners is by expanding our 
intelligence sharing with them. To date, we have seen significant 
return on investment each time we have made such allowances in support 
of our partners.
    Key Focus Areas. While the USCENTCOM Team manages a broad range of 
difficult challenges on a daily basis, a significant portion of our 
efforts and resources are necessarily focused in five priority areas. 
These five areas are: Operation Inherent Resolve (Iraq and Syria), 
Operation Freedom's Sentinel and Resolute Support Mission 
(Afghanistan), Iran, Yemen, and Countering Terrorism and Violent 
Extremism. Below are summaries, highlighting substantial challenges and 
efforts underway aimed at improving stability and security in each of 
these critical areas.
    Operation Inherent Resolve (Iraq and Syria). The Counter-ISIS (C-
ISIS) Campaign has entered its third year and we are on track with the 
military plan to defeat the terrorist organization in Iraq and Syria. 
Our ``by, with, and through'' approach and operational level 
simultaneity strategy are working, and our partner forces continue to 
build momentum across the battlespace as we pressure the enemy on 
multiple fronts and across all domains. Together we are forcing the 
enemy to deal with multiple simultaneous dilemmas (e.g., ground 
operations, airstrikes, cyber activities, information operations, and 
discrete interdictions of resource flows). This is putting increased 
pressure on their operations and command and control capability while 
stretching their limited resources.
    The strength of the C-ISIS Campaign is the C-ISIS Coalition 
consisting of all branches of service and our Interagency and 
international partners, and the many contributions they willingly make 
to the fight against our common enemy--``The whole is greater than the 
sum of its parts.'' Without the support of the Coalition, our ``by, 
with, and through'' approach would not be doable.
    Our stand-off fires, including Coalition air and artillery, remain 
another lynchpin of the C-ISIS Campaign. Improved intelligence has 
enabled the Combined Air Operations Center (CAOC) to increase the 
number of deliberate strikes conducted in recent months, targeting 
ISIS's infrastructure, oil revenue sources, etc. Over the past year, 
the Coalition's precision effects campaign has removed dozens more ISIS 
senior leaders from the battlefield, attrited large portions of the 
organization's forces, further disrupted its command and control 
capability, and greatly degraded its pool of resources and access to 
replacements and personnel reinforcements. As the campaign progresses, 
and as ISIS shifts actions and behaves increasingly like a terrorist 
organization, hiding amongst civilians as a force protection measure, 
we will continue to make the necessary adjustments to our air 
operations. We want to target the enemy effectively, while also 
ensuring that we minimize collateral damage. International law requires 
it; and, when America's sons and daughters go to war, they go with our 
values. Thus, it is imperative that when we conduct operations we do so 
in such a way that we limit the loss of innocent lives.
    Over the past year, ISIS lost a significant amount of capability 
and large swaths of territory. The Iraqis are now in control of eastern 
Mosul, although clearing operations continue in several areas. In 
Syria, operations are ongoing in three key geographic areas--Raqqa, 
Manbij, and al Bab; it remains a very complex fight given multiple 
simultaneous activities and the management of partners and battlefield 
effects. In Iraq, in the coming weeks and months we will continue to 
support the Iraqi Security Forces as they complete the seizure of 
western Mosul. After Mosul operations are complete, we expect the 
Government of Iraq to prioritize military operations to recapture Tal 
Afar, Sinjar, and Hawija, and to secure the border in order to diminish 
ISIS' freedom of movement and ability to target major population 
centers. In Syria, the Syrian Democratic Forces have almost completed 
the isolation phase of Raqqa operations and will, in the coming months, 
begin operations to seize Raqqa, dismantling a key node in ISIS' 
external operations network. Additionally, we would look to continue 
our security operations along the Jordanian border to prevent re-
infiltration of ISIS remnants.
    The cumulative effect of operations in Iraq and Syria has cut off 
key lines of communication for ISIS, while restricting their ability to 
bring in additional fighters and curbing their flow of financial 
resources. The terrorist organization is struggling financially and is 
experiencing low morale in its ranks and steady leadership attrition 
due to coalition airstrikes. There has also been a nearly 75 percent 
decline in ISIS's media and propaganda as compared to a year ago.
    Our efforts, in conjunction with our interagency and international 
partners' efforts, to stem the flow of foreign terrorist fighters--both 
into Syria and Iraq and also those attempting to return to their 
countries of origin--continue to bear fruit. The U.S. and Coalition 
member nations are highly concerned about the threat these experienced 
fighters present to our respective Homelands. We have made considerable 
progress identifying and targeting fighters and insurgent networks, 
principally through our Joint and Interagency targeting processes, and 
this will remain a priority.
    These processes will also help to combat the evolving hybrid threat 
(conventional and irregular warfare). U.S. Special Operations Command 
has been designated lead for external operations (EXOPs) for the U.S. 
military efforts and this has contributed greatly to organizing the 
broader efforts against this threat. Whole of government efforts and 
collaboration with partners have also played a key role in stemming the 
flow of foreign terrorist fighters (FTF). Spurred by the adoption of UN 
Security Council Resolution 2178 in September 2014, more than 60 
nations have enacted laws to restrict FTF travel. The U.S. now 
collaborates through information-sharing agreements with 59 
international partners to identify and track travel of suspected 
terrorists in real time.
    While we continue to make great strides towards countering ISIS 
trans-regionally, we recognize that we are dealing with a highly 
adaptive enemy. In particular, ISIS' use of chemical weapons and its 
evolving application of available off-the-shelf technologies that 
include unmanned aerial systems now used for both observation and to 
achieve lethal effects, poses a growing threat. For example, ISIS has 
reportedly used chemicals, including sulfur mustard and toxic 
industrial chemicals, in attacks more than 50 times in Iraq and Syria 
since 2014. Although the threat of chemical weapons has not slowed the 
Counter-ISIS Campaign, ISIS could further develop its chemical weapons 
capability. We are committed to working with partners to locate, 
secure, render harmless, eliminate or destroy any chemical and 
biological weapon materials found during the course of operations in 
Iraq and Syria, and to effectively remove this threat from our troops 
and civilian populations.
    We will defeat ISIS militarily; however, a lasting defeat of this 
enemy will not be achieved unless similar progress is made on the 
political front. Instability all but guarantees a resurgence of ISIS or 
the emergence of other terrorist groups seeking to exploit conditions 
to advance their own aims. We remain fully committed to the ``whole-of-
government'' approach and continue to ensure our actions are 
synchronized with and supportive of the efforts of our partners across 
the Interagency and the International Community.
    This also holds true on the humanitarian front. UN-led efforts to 
date are having positive impacts and thousands of internally displaced 
persons (IDPs) have already returned to their homes. However, tough 
work remains, given the enormity of the humanitarian crises in Iraq and 
Syria and in neighboring countries. The growing number of displaced 
persons presents a unique set of challenges that include protection and 
assistance to civilians caught in the various conflicts, as well as 
assistance to those seeking asylum in neighboring countries.
    Regional actors--There is a significant number of players currently 
operating in Iraq and Syria with both common and competing interests. 
While they have been present for many years, several of them have 
become emboldened and have taken a more active role in addressing 
regional issues.
    In Iraq, we have seen encouraging progress made in the relationship 
between the leadership of the Government of Iraq (GoI) and the Kurdish 
Regional Government (KRG). This past year, for the first time since 
2013, Prime Minister al-Abadi met with President Barzani in Baghdad to 
discuss expanded cooperation between the ISF and the Kurdish Peshmerga. 
We also see increased collaboration between the ISF and elements of the 
Popular Mobilization Forces (PMF). In November 2016, Iraq's parliament 
voted to fully legalize elements of the PMF, including but not limited 
to Shiite militias. While they are achieving some positive effects, 
their participation does present challenges, particularly post-Mosul 
offensive, as Iranian-backed elements of the PMF seek to increase their 
influence in the country through both military and political channels.
    Turkey remains an important NATO ally and Counter-ISIS Coalition 
member that supports the campaign through its operations and by 
providing access, basing, and overflight permissions. Some Turkish 
activities and rhetoric, however, have the potential to impact campaign 
momentum. Turkey's actions in northern Iraq continue to strain 
relations between the GoI and the KRG, which serves to further 
complicate the C-ISIS Campaign. Likewise, in Syria, Turkey has helped 
clear ISIS from its border, but Turkish-backed forces have also clashed 
with the Syrian Democratic Forces near Manbij and al Bab and we 
continue efforts to resolve tensions.
    Since Russia's entry into the Syrian conflict en masse in 2015, 
they have negatively impacted the regional balance of power. Russia's 
primary goal is to maintain Syria as a client state in the future and 
they have propped up the Assad Regime to support this overarching 
objective. Also very concerning is the fact that Russia's air 
operations have targeted civilians and U.S.-supported opposition 
groups. Without effective de-confliction measures, we see increasing 
opportunity for miscalculation and potential for unintended, counter-
productive engagement between nation states. We are not currently 
coordinating or cooperating with the Russians; we are simply de-
conflicting our air operations. This has become increasingly difficult 
in the crowded airspace as our operations come into closer proximity. 
In recent months, the Russians also introduced a number of new surface-
to-air systems which can be employed to impact our freedom of maneuver. 
While our de-confliction efforts have been effective to date, as the 
fight expands in northern Syria and the battlespace becomes more 
congested, we should consider enhancing our de-confliction mechanisms 
with the Russians.
    We continue to see Iranian malign influence across Iraq and Syria. 
While they currently are focused on countering ISIS in Iraq, we remain 
concerned about Iran's efforts to prop up the Syrian regime against the 
opposition and its desire to exploit Shiite population centers to 
increase their malign influence, not just in Syria, but also in Arab 
states across the region. This supports their long-term aspiration to 
achieve regional hegemony. Moreover, we are watching closely for 
indications and warnings of decreasing Iranian concern regarding the 
threat posed by ISIS, leading to a potential shift to targeting U.S. 
and coalition personnel and infrastructure in an effort to influence a 
potential long-term U.S. security presence. Furthermore, we must take 
care to ensure that our actions do not unintentionally strengthen the 
Iranian position within the region.
    The military campaign plan to defeat ISIS is on track in both Iraq 
and Syria. The coalition's ``by, with and through'' approach is proving 
effective. Recognizing that ISIS will be defeated militarily, we want 
to ensure that we have an enduring posture in the region to support and 
enable partners' efforts to preserve security and stability. Iraq 
remains an anchor in the region and we would be wise to continue to 
support their efforts going forward. We have a willing partner in Iraq 
and Prime Minister al-Abadi has clearly articulated a desire for 
continued United States support post-ISIS. We are working with the GoI 
to finalize a Five-Year Plan to ensure enhanced cooperation. This 
presents an opportunity to preserve gains achieved to date, while 
strengthening key relationships and countering malign influence in the 
region.
    Operation Freedom's Sentinel and Resolute Support Mission 
(Afghanistan). The Afghan National Defense and Security Forces (ANDSF) 
are beginning their third year with full responsibility for security 
with limited United States or coalition support. They continue to take 
the fight to the Taliban and, despite some territorial losses, have 
retained control of major population areas and key lines of 
communication. While the Taliban made gains in 2016, namely in the 
north and south, in most cases, the ANDSF quickly responded to and 
reversed some of those gains over the past year. While the balance of 
power favors the government, neither side is currently able to achieve 
its stated objectives. Looking ahead, it is essential that we continue 
to assist the ANDSF in addressing their capability gaps, particularly 
in the areas of aviation, casualty evacuation (CASEVAC), personnel 
management and development, logistics, and sustainment. Our sustained 
force presence, over 8,400 U.S. military personnel, will allow us to 
conduct counter-terrorism operations and meet our requirements for 
staffing the North Atlantic Treaty Organization (NATO)-led Resolute 
Support (RS) Mission. However, the RS Mission still has a shortfall of 
a few thousand personnel needed to conduct the complementary mission of 
training, advising, and assisting the ANDSF.
    In 2015, United States Forces-Afghanistan (USFOR-A) worked with the 
Afghans to develop a Sustainable Security Strategy based upon three key 
tenets: ``Fight, Hold, Disrupt.'' The strategy identifies areas the 
Afghans will hold, areas they will fight to retain, and areas where 
they will conduct an economy of force effort and disrupt the enemy if 
they appear, Afghan resources permitting. The ANDSF continues to make 
progress in implementing this strategy, thereby assuming a more 
proactive stance in addressing multiple threats while securing the 
population and denying terrorist safe havens. As General Nicholson, the 
commander of the RS Mission and USFOR-A stated, ``[The Afghans'] 
ability to deal with simultaneous crises . . . is a sign of an army 
that's growing in capability, [and] that's maturing in terms of its 
ability to handle simultaneity and complexity on the battlefield.''
    While the ANDSF continues to make progress, they do face a number 
of significant challenges. Poor leadership and corruption are two key 
factors that need further improvement and President Ashraf Ghani has 
made addressing these issues a top priority for the Government of the 
Islamic Republic of Afghanistan (GIRoA). The GIRoA established the 
Anti-Corruption Justice Center in 2016 with the help of the 
international community and has already tried, convicted, and sentenced 
senior Afghan officials for corruption. Below are other challenges and 
critical capability gaps must be addressed.
    ANDSF casualty rates--High ANDSF casualties remain a concern. This 
can be attributed to several factors, including poor leadership, 
corruption, tactics, and training. Deficiencies in ANDSF leadership 
occur primarily because of patronage vice merit-based appointments. The 
extensive use of static checkpoints and the lack of training on how to 
defend them, as well as a more aggressive posture--which has resulted 
in the ANDSF more frequently taking the lead and actively taking the 
fight to the enemy--have also contributed to an increased number of 
casualties. The ANDSF also experienced an increase in the number of 
insurgent attacks on inadequately protected fixed positions, and poor 
and corrupt leadership also may have contributed to higher casualty 
rates. The ANDSF lacked an operational readiness cycle (ORC) to ensure 
forces are well-rested and well-trained before returning to the fight. 
During the Winter Campaign this year, many ANDSF units successfully 
established ORCs, and our advisors have fostered an increased focus on 
company-level training and leadership development.
    Afghan Air Force--The Afghan Air Force (AAF) and Special Mission 
Wing (SMW) continue to build capability. Their ability to provide 
airlift, casualty evacuation, and aerial fires has steadily improved as 
the United States provides more aircraft to the AAF and as its pilots 
and crew gain additional operational experience. The Afghans are 
proving effective at integrating their AAF aviation assets as evidenced 
by a number of successful operations conducted over the past year. 
However, significant capability gaps remain. The current rotary wing 
fleet consisting primarily of the Russian-made Mi-17 is both undersized 
and proving to be more expensive and difficult to sustain than 
originally envisioned and is experiencing a higher than expected 
attrition rate. Going forward, transitioning from Russian to United 
States airframes will ensure Afghan forces have a more sustainable 
fleet that is interoperable with U.S. forces and will enhance the 
Afghans' ability to operate independently of coalition forces. The 
United States Government is considering a critical AAF initiative to 
replace the unsustainable Russian-manufactured aircraft fleet and make 
up for combat losses in Afghan transport helicopters by providing U.S. 
UH-60s. The DOD-request of $814.5 million for fiscal year 2017 for the 
first year of our plan to recapitalize the Afghan fleet provides 
funding to procure 53 UH-60s, with refurbishment and modification of 
the first 18; 30 additional armed MD-530F helicopters; 6 additional A-
29 attack aircraft; and five AC-208s. The requested fiscal year 2017 
Afghan Security Forces Fund (ASFF) budget, including the additional 
funds for the first year of this proposed aviation initiative, went to 
Congress on 10 November 2016. The fiscal year 2017 proposal is pending 
approval and we appreciate your support in reaching resolution as soon 
as possible to mitigate the gaps in Afghan aerial fires and lift 
capabilities. Transition from Mi-17 to UH-60 airframes will eventually 
eliminate reliance on Russian sourced parts for maintenance 
requirements. With our support, we can expect the AAF will continue to 
build needed capability over the next few years and into the future.
    Influence of external actors--Stability in Afghanistan is further 
challenged by the malign influence of external actors. The enablement 
of violent extremist groups operating inside of Afghanistan and along 
the Afghanistan-Pakistan border region, receiving sanctuary or support 
from outside governments, is of particular concern. So long as these 
elements remain, they will threaten our hard-earned gains and regional 
stability writ large.
    Pakistan's shared border with Afghanistan remains a safe haven for 
terrorist and violent extremist elements. There are 20 United States-
designated terrorist organizations present today in Afghanistan and 
Pakistan. The Taliban serves as a facilitator to some of these groups' 
operations. The death of Taliban Supreme Leader Mullah Akhtar Mansour 
in a U.S. strike on 21 May 2016 had a disruptive impact on the Taliban 
and gave a psychological boost to the Afghans. However, the group still 
presents a formidable threat to stability in the Afghanistan-Pakistan 
(Af-Pak) sub-region. The convergence of these groups and, in 
particular, the convergence of the Afghan Taliban and its component, 
the Haqqani Network, and Lashkar-e-Tayyiba, is of particular concern 
given the direct threat posed to United States and Coalition personnel 
and the Afghan Government. Key to improving the security environment in 
Afghanistan is eliminating sanctuary of militant groups in Pakistan's 
territory. The United States maintains consistent diplomatic pressure 
on Pakistan to take appropriate steps to deny safe haven and work to 
improve the security of the tumultuous Af-Pak border region.
    Illicit narcotics production and trafficking--Illicit narcotics 
production and trafficking continue to flourish in Afghanistan, 
particularly in areas where state institutions are weak. The United 
Nations Office on Drugs and Crime estimated 2016 Afghanistan poppy 
cultivation to be 201,000 hectares with a net opium yield of 4,800 
metric tons and a farm gate value of $900 million, which is a 57 
percent increase in revenue generated from the opium trade. In 
Afghanistan, a symbiotic relationship exists between the insurgency and 
narcotics trafficking where traffickers provide weapons, funding, and 
material support to the insurgency in exchange for protection. 
Additionally, some insurgent commanders traffic drugs to finance 
operations. However, trafficking is not limited to insurgent-controlled 
areas. The narcotics trade undermines governance and rule of law 
throughout Afghanistan and plays a critical role in underwriting 
corruption and a loss of confidence by the Afghan people in the GIRoA.
    Regionally, USCENTCOM supports law enforcement counterdrug and 
border security training, equipping of regional partners, construction 
activities, and information sharing initiatives to build the capacity 
of our security force partners that aid in the regional response to 
illicit drugs trafficking. Counterdrug activities are a critical 
component of USCENTCOM's theater security cooperation strategy; provide 
for regional engagement and comprise a significant source of security 
assistance funding in Central Asia. These efforts improve regional 
illicit drug detection and interdiction and improve overall border 
security for the detection of other forms of contraband, including 
weapons and IED materials.
    Amidst the challenges confronting Afghanistan today are many 
opportunities. Most notably, we have willing partners in the GIRoA and 
ANDSF and our collaboration in support of common objectives continues 
to pay significant dividends. Following are three areas in particular 
where potential ``game-changing'' opportunities exist and merit our 
sustained commitment.
    Government of National Unity--The Government of National Unity 
(GNU) survived several political crises in 2016. President Ashraf Ghani 
and Chief Executive Officer Abdullah Abdullah provided the leadership 
that has enabled progress to be made in a number of areas, as well as 
the development of the framework for enduring partnerships with NATO 
and the United States. Nevertheless, significant challenges still exist 
and must be addressed. While the NUG provides needed structure and a 
source of stability for Afghanistan, it remains fragile. Although the 
ANDSF has remained apolitical so far, failure of the NUG could threaten 
ANDSF cohesion and the progress achieved throughout the country. Our 
message to the political elites of Afghanistan has been that ``we 
respect your political progress, but please do not allow political 
tensions to undo the hard fought gains you have made.''
    The International Community's Demonstrated Commitment to 
Afghanistan--Thirty-nine NATO allies and partner nations committed more 
than 13,500 troops to sustain the Resolute Support Mission beyond 2016. 
Thirty nations have also pledged more than $800 million annually to 
sustain Afghan security forces through 2020. Combined with the 
requested United States commitment of $3.5 billion for fiscal year 2017 
and additional funding from Afghanistan, a total of more than $4.3 
billion has been pledged for the ANDSF for 2017. Additionally, 75 
countries and 26 international organizations confirmed their intention 
in 2016 at the Brussels Conference on Afghanistan to provide $15.2 
billion for Afghan development during the 2017-2020 period. The 
International Community's strong showing, coupled with the continued 
commitment of United States troops in Afghanistan beyond 2016, has 
bolstered Afghan confidence and resolve and will surely pay dividends 
going forward.
    Counter-terrorism (CT) Platform--The existence of violent extremist 
groups in Afghanistan requires a United States presence in the region 
that can monitor and address threats, even as the United States helps 
to build the Afghans' capability to deter terrorist exploitation of 
Afghan territory. As we adjust the U.S. CT mission, our support to the 
NATO TAA [Train, Advise, and Assist] mission will also evolve in the 
coming year. Currently, advisory efforts are at four of the six corps 
and police zone levels, in addition to the Afghan Special Security 
Forces (ASSF) and the AAF. In 2017, we will advise all six corps and 
police zones to provide critical support where needed to capitalize on 
the success and continued implementation of the sustainable security 
strategy.
    Although we see encouraging progress being made in Afghanistan, it 
remains a very challenging environment. While the ANDSF confronts 
difficulties in a number of areas, they are providing for the security 
of their country, achieving good effects against the Taliban, and 
building much-needed capacity and momentum while gaining increasing 
confidence in what is still a tough fight. Additionally, although it 
does face significant challenges, the GIRoA, under the leadership of 
President Ashraf Ghani and Chief Executive Abdullah Abdullah, has 
proven to be a reliable and willing partner. The United States and our 
coalition partners have invested greatly in Afghanistan over the last 
15+ years. The country merits our continued demonstrated commitment 
given our national security interests in the sub-region, namely 
protection of the U.S. Homeland. By strengthening our partners and 
weakening our enemies we will achieve increased stability in that 
strategically important part of the world.
    Iran. Iran poses the most significant threat to the Central Region 
and to our national interests and the interests of our partners and 
allies. We have not seen any improvement in Iran's behavior since the 
Joint Comprehensive Plan of Action (JCPOA), addressing Iran's nuclear 
program, was finalized in July 2015. Iran aspires to be a regional 
hegemon and its forces and proxies oppose United States interests in 
Iraq, Yemen, Lebanon, Gaza, and Syria, and seek to hinder achievement 
of United States objectives in Afghanistan and some Central Asian 
States. They also are working to subvert the GoI by establishing a 
long-term presence within Iraq's security forces. Of note, Iran exerts 
influence and a degree of control over the majority of the nearly 
100,000 Shiite militias within the PMF. Furthermore, Iran has expanded 
cooperation with Russia in Syria in ways that threaten United States 
interests in the region.
    The JCPOA removed a key threat posed by Iran for at least a number 
of years. Unfortunately, the agreement has led some to believe that we 
have largely addressed the Iranian problem set and that is not the 
case. In addition to its nuclear weapons potential, Iran presents 
several credible threats. They have a robust theater ballistic missile 
program, and we remain concerned about their cyber and maritime 
activities, as well as the activities of Iran's Islamic Revolutionary 
Guard Corps--Qods Forces (IRGC-QF) and their network of affiliates.
    Iran implements its strategy primarily within the ``gray zone,'' 
the space short of conventional conflict where miscalculation can 
easily occur, leading to escalatory conflict and misunderstanding. Iran 
fosters instability by funding and promoting a threat network that 
employs provocation, violence, and covert arms transfers that serve as 
the stimulants for a range of conflicts across the region. It 
complements this subversive arm with conventional military provocation 
and overt threats to close key maritime sea lanes, especially at 
critical international economic chokepoints, namely the Strait of 
Hormuz and the BAM Strait, which puts global political stability and 
economic prosperity at risk.
    Recognizing that Iran poses the greatest long-term threat to United 
States interests in the Central Region, we must seize opportunities to 
both reassure our allies and shape Iran's behavior. In order to contain 
Iranian expansion, roll back its malign influence, and blunt its 
asymmetric advantages, we must engage them more effectively in the 
``gray zone'' through means that include a strong deterrence posture, 
targeted counter-messaging activities, and by building partner nations' 
capacity. Through both messaging and actions, we must also be clear in 
our communications and ensure the credibility of U.S. intentions. Iran 
must believe there will be prohibitive consequences if it chooses to 
continue its malign activities designed to foment instability in the 
region. The United States Government should also consider communicating 
directly with Iran's leadership to improve transparency and lessen the 
potential for miscalculation.
    To further strengthen deterrence against Iran, we must also take 
the necessary proactive measures to build the capacity of partners and 
allies in the region. Ideally we want to improve interoperability, 
expand communication, and enhance security mechanisms. Stronger, more 
capable partners, able and willing to assume a greater role in 
countering Iran, will serve to further enhance deterrence and improve 
stability in the region.
    In addition to ready military actions, we must support the broader 
USG strategy with regard to Iran which should include new diplomatic 
initiatives that provide Iran with viable alternatives to its present 
course. While Iran continues to pose the most significant threat to 
regional security, we remain optimistic and believe that by taking 
proactive measures and reinforcing our resolve we can lessen Iran's 
ability to negatively influence outcomes in the future.
    Yemen. Yemen remains a critically unstable state engrossed in a 
civil war that has produced a significant humanitarian crisis and 
growing instability ripe for exploitation by VEOs, most notably al 
Qaeda in the Arabian Peninsula (AQAP) and the ISIS affiliate, IS-Yemen. 
The lack of a comprehensive peace agreement that leads to a durable 
resolution of the conflict under a unified Yemeni Government further 
contributes to continued uncertainty in the country.
    The civil war between the Republic of Yemen Government (RoYG) and 
the alliance of Former President of Yemen Ali Abdullah Saleh- and 
Huthis has entered its third year with little progress made towards 
achieving an enduring resolution despite concerted efforts by the 
United Nations, the broader International Community, and regional 
stakeholders. While the United States is not directly involved in the 
civil war, we are providing limited assistance to the Kingdom of Saudi 
Arabia (KSA)-led coalition in an effort to help protect their 
territorial integrity and sovereign borders. Huthi forces have seized 
and attacked military border outposts inside KSA territory and continue 
to occupy Saudi lands. Ballistic missile attacks launched from Yemen 
have struck deep into the country causing casualties and potentially 
threatening the Islamic holy sites in Mecca. We will continue to work 
to resolve the conflict as an ending to the war through a comprehensive 
political agreement provides the surest security of Saudi's Arabia's 
border and territorial integrity, enables us to conduct counter-
terrorism operations, allows the population to receive food and 
medicine, and blocks Iranian malign activities. Until the war is over, 
we will assist Saudi Arabia in its efforts to defend against these 
attacks and restore the territorial integrity of their country.
    Our primary focus in Yemen remains protecting the United States 
Homeland from threats posed by VEOs operating within Yemen's ungoverned 
spaces, while ensuring freedom of navigation and commerce through the 
southern Red Sea and the Bab al Mandeb (BAM) Strait. Al Qaeda in the 
Arabian Peninsula has indicated clear desire and ability to conduct 
attacks on the U.S. Homeland. Ongoing U.S. unilateral counter-terrorism 
operations and determined efforts by UAE in leading RoYG and Yemeni 
tribal forces, as demonstrated during the Mukalla offensive in April 
2016, have degraded and disrupted AQAP's operational networks and 
reduced their access to sources of financial support. Despite the 
complexity of the environment, our efforts aimed at degrading AQAP 
remain critical to protecting our national security interests in the 
region and must continue.
    In October 2016, the Iranian-supported BAM Maritime Threat Network 
(BMTN) demonstrated the ability to threaten freedom of navigation by 
successfully attacking a UAE vessel and a Saudi warship, and attempting 
to attack U.S. Navy warships in the southern Red Sea. We responded 
swiftly and decisively, destroying several Huthi coastal defense radar 
sites. While the origin of these attacks is found in the ROYG-Huthi 
conflict, the threats posed by the BMTN to the safe passage of vessels, 
either through deliberate action or unintentional acts, has the 
potential for significant strategic and economic impacts throughout the 
region. We continue to closely monitor the BMTN and remain prepared to 
promptly and decisively respond to any threats.
    Going forward, our efforts against violent, non-state actors and 
support for similar efforts by our regional partners will remain our 
primary focus in Yemen. At the same time, we continue to do what we can 
to enable ongoing diplomatic efforts aimed at achieving a resolution to 
the hostilities that pose an enduring threat to stability in the 
country and the region writ large.
    Countering Terrorism and Violent Extremism. The Central Region 
remains the global epicenter for terrorism and violent Islamist 
extremism and the resulting turmoil continues to bleed across 
geographic combatant command ``seams.'' Terrorism and violent extremism 
represent trans-regional threats, where malign actors seek to exploit 
ungoverned and under-governed spaces and vulnerable, disenfranchised 
populations worldwide.
    One aspect of this threat that makes it particularly challenging is 
the terrorists' and VEOs' ability to operate across multiple domains 
and in both physical and virtual spaces. Today, the unprecedented 
global access achieved through the use of the Internet and various 
social media platforms enables terrorist and violent extremist groups 
to promulgate their radicalized ideologies while reaching a vast pool 
of potential recruits, many willing to conduct lone wolf-style attacks 
on behalf of these groups. Also, as we have seen with ISIS, the ability 
of violent extremist groups to operate effectively in the virtual 
battlespace, makes them more challenging to defeat due to the nature of 
that domain. As we degrade their physical capability, groups often 
shift focus to the virtual battlespace while their forces consolidate 
and regroup. We must continue to identify attributable and non-
attributable methods and techniques for combatting groups in the 
virtual domain.
    We must also find ways to address the drivers of instability that 
create the conditions that allow these groups to flourish. The root 
causes of instability must be dealt with if we hope to achieve a 
lasting defeat of terrorist and violent extremist groups operating in 
the USCENTCOM AOR. The people of the region must lead this effort; we 
cannot do it for them. However, we can and will continue to support and 
promote their efforts wherever possible.
    We cannot allow terrorist groups and violent extremist 
organizations to operate uncontested, enabling them to grow stronger 
and expand their global reach. By working together with our Interagency 
Partners and the International Community, operating from multiple 
strategic platforms around the globe and across all domains, we will 
reduce the gaps and ``seams'' exploited by these groups and better 
protect our interests against this common threat.
    Our Partner Nations in the Central Region. Below are synopses of 
the current state of affairs, including challenges, opportunities, and 
status of our military-to-military (mil-to-mil) relationships with 
partner nations, except Afghanistan, Iraq, Syria, Iran, and Yemen which 
were addressed in the previous section, ``Key Focus Areas'' (see pages 
13-31).
    The Gulf States--The Gulf States are among our best partners in the 
region. The Gulf Cooperation Council's (GCC) willingness to provide 
basing and access for U.S. forces is crucial to our ability to operate 
militarily in the USCENTCOM AOR. The GCC countries provide critical 
nodes for achieving operational objectives and continued success 
against ISIS. Their troops and aircraft continue to play a key role in 
the ongoing fight against this terrorist organization. At leader-level 
summits in 2015 and 2015, the GCC countries committed to pursue 
collective defense initiatives, including joint counter-terrorism and 
ballistic missile defense; however, progress towards those ends has 
been relatively slow. Nevertheless, the GCC's desire to create a 
unified military command and more closely coordinated economic policy 
could create opportunities for greater interoperability between GCC and 
coalition forces over the medium- to long-term. While individual GCC 
nations' sometimes divergent foreign policies present an obstacle to 
achieving a unified defense posture, we remain committed to helping 
them achieve this desired end state through senior leader engagements, 
combined exercises, and more standardized equipment and training. As 
agreed upon at the May 2015 Camp David Summit, we have increased 
cooperation on maritime security, military preparedness, arms 
transfers, cybersecurity, counter-terrorism, and logistics 
interoperability. Our total GCC FMS open case portfolio is valued at 
over $150 billion and continues to help our partners defend their 
sovereignty and economic interests against emerging threats. As Gulf 
countries look to the United States for military equipment, training, 
and assistance, it is essential that we reinforce efforts to include 
them in our joint endeavors to defeat regional threats posed by violent 
extremism and Iran's malign influence. Through our continued support 
for and collaboration with our GCC partners we will positively impact 
stability and security in the strategically important Central Region.
    Bahrain is an important partner in the region, hosting USCENTCOM's 
naval component, United States Navy Central Command (NAVCENT) and U.S. 
Fifth Fleet Headquarters and Combined Maritime Forces in Manama at the 
Naval Support Activity Bahrain and Isa Air Base, respectively. The 
Bahrainis have actively supported coalition operations against ISIS in 
Syria since the start of the C-ISIS Campaign in September 2014, 
primarily by allowing us continued use and access to these facilities. 
They also continue to support Saudi-led operations in Yemen. We are 
making strides in our collaborative efforts to enhance the Bahraini 
Coast Guard's capacity, which aim to enable Bahrain to expand its role 
in countering piracy and violent extremism in the region's maritime 
domain. Internally, the Bahrainis are dealing with a tough domestic 
economic hit by low oil prices and a persistent, low-level threat from 
Iranian-backed militant groups, and we continue to provide appropriate 
assistance to help them address the security threat. While we have 
historically enjoyed a strong mil-to-mil relationship with our Bahraini 
counterparts, the slow progress on key FMS cases, specifically 
additional F-16 aircraft and upgrades to Bahrain's existing F-16 fleet, 
due to concerns of potential human rights abuses in the country, 
continues to strain our relationship. We continue to urge the 
Government of Bahrain to reverse steps it has taken over the past year 
to reduce the space for peaceful political expression in its Shiite 
population and have encouraged the Bahrainis to implement needed 
political reforms in the country while reassuring them of our strong 
commitment to our valued partnership.
    The Kingdom of Saudi Arabia (KSA) is undertaking potentially far-
reaching economic and related reforms under the banner of Vision 2030 
and the National Transformation Plan. The goal of these measures is to 
diversify the Saudi economy and generate increased economic growth in 
the wake of low oil prices, as well as expanded opportunities for the 
nation's burgeoning youth population. The Kingdom is a key regional 
leader, calling upon partner nations to join them in addressing 
regional challenges, including Iranian malign influence. Having 
actively supported the fight against ISIS in the early stages of the 
campaign, KSA shifted its priority of effort to Yemen in 2015 where it 
leads the coalition against the Saleh- and Iranian-backed Huthis, who 
continue to pose a threat to Yemen's internal stability, security in 
KSA's southern border region, and the flow of commerce through the Bab 
al Mandeb Strait. The Saudis also are concerned about the threat posed 
by VEOs operating in Yemen, including the al Qaeda affiliate, AQAP, and 
the ISIS affiliate, IS-Y. We are principally focused on helping KSA to 
improve its target development and accountability processes in order to 
reduce incidence of civilian casualties, while also providing them with 
focused logistics and intelligence sharing support. Our long-standing 
partnership with KSA remains critical to maintaining stability in the 
region given their influence in the GCC and among many Muslim-majority 
countries. Our mil-to-mil relationship represents the strongest 
component of that partnership and continues to serve as the foundation 
for productive collaboration. By continuing to provide opportunities 
for the Saudis to enhance their defense capabilities, mainly through 
our substantive training and exercise program and robust FMS valued at 
$109 billion in open cases, we aim to improve interoperability while 
effectively addressing challenges in pursuit of our shared security 
goals and objectives.
    Kuwait continues to be one of our strongest allies in the Central 
Region. Owing to the generous provisions of the Defense Cooperation 
Agreement, the Kuwaitis provide one of the most permissive environments 
in the USCENTCOM AOR with respect to access, basing, and overflight in 
support of U.S. and coalition presence in theater. Kuwait hosts the 
forward headquarters of USCENTCOM's army component, U.S. Army Central 
Command (ARCENT). Kuwait is also the most active combat support 
logistics hub globally and plays a critical role in support of ongoing 
operations in Iraq, Syria, and Yemen. Kuwait utilizes its leadership 
role in the GCC to help mediate internal GCC rifts while promoting a 
regional response to crises. Kuwait has also led the GCC in helping to 
address the regional refugee crisis emanating from Syria and been an 
invaluable partner in supporting the Iraqi Government's C-ISIS efforts. 
Our mil-to-mil relationship with the Kuwaitis remains strong. Going 
forward we will look to pursue additional opportunities for joint 
training and further collaboration in support of common objectives.
    The relationship between the United States and Oman remains strong, 
strengthened by our shared interests in the region and expanding access 
to Omani bases and ports. Oman is consistently viewed as a source of 
stability in the Gulf Region, and its neutral stance has enabled it to 
serve as a key interlocutor, most notably with Yemen and Iran. Of note, 
in October 2016, Oman's leadership facilitated the release of two 
United States citizens held by the Huthis in Sanaa, Yemen. 
Additionally, Oman's strategic location on the Arabian Sea, outside of 
the Bab el Mandeb Strait and the Strait of Hormuz provides USCENTCOM 
with access to key logistical, operational, and contingency 
capabilities that are crucial to maintaining open sea lines of 
communication. While Oman does face significant challenges, namely a 
growing threat from VEOs in neighboring Yemen and a declining economy 
that could potentially impact its youth population, the leadership of 
the country is taking appropriate steps to address these and other 
issues. We enjoy a good relationship with the Omani military and will 
continue to work closely with them in support of shared interests.
    Qatar remains a highly valued partner, providing critical access 
and basing in support of coalition forces and operations being 
conducted in Iraq, Syria, Afghanistan, and elsewhere in the Central 
Region. The country hosts more than 10,000 U.S. and Coalition 
servicemembers at Al-Udeid Air Base, home of USCENTCOM's Forward 
Headquarters, our air component, U.S. Air Forces Central Command 
(AFCENT), and its Combined Air Operations Center (CAOC). Qatar's Armed 
Forces also continue to support external operations in Syria and Yemen. 
In Syria, given their relationships with a wide range of actors, 
including more moderate elements, the Qataris are well-positioned to 
play an influential role in facilitating a political resolution to the 
conflict. Like most GCC countries, they continue to demand the removal 
of Bashar al-Assad as part of any resolution. Qatar has indicated a 
strong desire to enhance its partnership with the United States, both 
in terms of training engagements with U.S. forces and procurement of 
U.S. military equipment. Our continued role in their military 
modernization and development presents an invaluable opportunity to 
help expand their capability while strengthening our mil-to-mil 
relationship with a key and critical partner in the region.
    The United Arab Emirates (UAE) is one of our most steadfast and 
capable partners in the USCENTCOM AOR. The Emirates have clearly 
demonstrated a willingness and ability to take an active role in 
shaping outcomes in the Central Region. The country hosts more than 
4,000 U.S. servicemembers and provides critical support for U.S. 
operations, goals, and objectives. The UAE was among the first 
countries to join the Counter-ISIS Coalition in 2014. While their 
primary focus has since shifted to support the ongoing KSA-led military 
campaign in Yemen, UAE continues to provide support to several of the 
C-ISIS Coalition's key lines of effort, including counter-messaging, 
counter-financing, and stemming the flow of foreign fighters. In Yemen, 
the UAE serves as the leading ground element in ongoing operations 
against the Saleh- and Iranian-backed Huthis. The Emirates are also 
supporting our efforts to counter the al Qaeda affiliate, AQAP. In 
April, using local fighters and tribal militias, the Emirates played a 
critical role in liberating Mukalla, driving AQAP elements out of the 
port city and thereby denying them a key source of revenue. In 
conjunction with its military efforts, the UAE is heavily focused on 
providing humanitarian assistance to ease the crisis facing Yemen's 
population. We value our strong relationship with the Emirates and seek 
to build upon our robust mil-to-mil relationship, including by 
concluding a new Defense Cooperation Agreement that could serve as a 
foundation for expanded, mutually beneficial defense cooperation. We 
will work to expand our collaboration, specifically in the areas of 
security cooperation and foreign military sales. Additionally, we will 
work with the Emirates to promote their leadership role among partner 
nations in the region.
    The Levant--The Levant represents the epicenter of ethno-sectarian 
tension and conflict in the USCENTCOM AOR. Partner nations in this sub-
region continue to struggle with the impacts of the fight against ISIS, 
as well as the ongoing civil war in Syria, which is an ``engine of 
instability'' in and of itself. The persistent conflict and resulting 
widespread unrest have caused an expanding humanitarian crisis with 
ramifications that reach far beyond the USCENTCOM AOR. Stability in the 
Levant is further complicated by competition for influence therein from 
outside actors, principally Iran and Russia. Many of the challenges 
present today in the Levant originate from or affect neighboring 
countries and thus are trans-regional in nature and require cross-COCOM 
coordination. We routinely work closely with our colleagues in United 
States European Command, United States Africa Command, and other USG 
agencies and organizations to ensure that our various efforts are 
complementary and well-synchronized.
    With its strategic location, control of the Suez Canal, enduring 
peace treaty with Israel coupled with a religious and cultural Pan-Arab 
influence, Egypt remains a stalwart partner in pursuit of shared Middle 
East policy objectives that include counter-terrorism, counter-violent 
extremism, and improved regional stability. Of particular concern is 
the threat posed by the ISIS affiliate, IS-Sinai which conducts 
frequent attacks against the Egyptian Armed Forces (EAF) and security 
services. While the EAF has managed to contain violence in the Sinai 
Peninsula without a comprehensive strategy to defeat IS-Sinai, we have 
a vested interest in helping them to effectively address this threat to 
ensure that the Sinai does not become a safe haven for extremist 
elements, including by providing additional bilateral military and 
security training. Egypt is further challenged by a weak economy and 
widespread unemployment or under-employment, as well as an aggressive 
approach to countering internal threats which makes its population 
highly susceptible to radicalization by extremist elements. Continued 
United States support to Egypt is crucial to our strategic partnership, 
and our long-standing, resilient mil-to-mil relationship represents a 
key pillar of that partnership. Over the past several months, we have 
expanded our collaboration while taking steps to bolster our force 
protection measures and rebalance the Multinational Force Observer 
(MFO) mission in the Sinai. In the coming months, we will continue to 
work closely with the EAF to further enhance their counter-terrorism 
capabilities and improve the security of their borders through 
continued engagement and our robust assistance and security cooperation 
programs.
    The Hashemite Kingdom of Jordan is one of our strongest and most 
reliable partners in the Levant sub-region. Jordan provides access, 
basing, and overflight equal to or greater than that provided by any 
other partner in the USCENTCOM AOR. The Jordanian Armed Forces (JAF) 
and the Royal Jordanian Air Force (RJAF) continue to make key 
contributions in support of the Counter-ISIS Campaign. With United 
States and coalition assistance, the JAF have fortified Jordan's 
borders with Iraq and Syria, while enabling the International 
Community's ongoing efforts to address the burgeoning humanitarian 
crisis manifesting inside of Jordan (8650,000 refugees) and in two 
camps located along the border in southern Syria (855,000-65,000 IDPs) 
. It is imperative that we remain actively engaged with our Jordanian 
partners. Jordan provides a much-needed moderate Islamic voice in the 
region and is a trusted intermediary in efforts to advance progress 
between the Israelis and Palestinians. Our strong mil-to-mil 
relationship and continued demonstrated support for the Government of 
Jordan, the JAF, and the RJAF remains critical to ensuring that Jordan 
is able to effectively manage the broad range of challenges facing the 
country and the region now and in the future.
    Lebanon remains a key partner in our efforts to counter violent 
extremism in the Central Region, and their ground forces offer one of 
the greatest returns on investment in the region. They are routinely 
countering groups that include ISIS and Al Nusra Front, denying them 
freedom of movement, and strengthening the country's border defenses 
with our continued support. United States security assistance to 
Lebanon has enhanced the Lebanese Armed Forces' (LAF) ability to 
counter malign influences and terrorist elements operating within the 
country. A strong and capable LAF acts as a counterweight to the 
militant arm of Lebanese Hezbollah (LH), while diminishing LH's claim 
as the sole ``resistance'' in Lebanon. While LH has been preoccupied 
with its involvement in the fight in Syria in support of the Assad 
Regime, the LAF has gained increasing credibility among the Lebanese 
populace as the most respected institution in the country. On 31 
October 2016, the Lebanese parliament ended the over two-year 
presidential vacancy with the appointment of President Michel Aoun, a 
Maronite Christian and leader of the Free Patriotic Movement Party. 
While this positive development ended political gridlock and restored 
government functions, significant challenges remain, exacerbated by the 
civil war in neighboring Syria. Of particular concern are the 
approximately 1+ million Syrian refugees in Lebanon. This population 
presents political, economic, and security challenges to Prime Minister 
Hariri and his newly formed government. In addition to straining 
national resources, the Syrian refugee population is mostly Sunni and 
thus could threaten the fragile sectarian balance of power in the 
country. The humanitarian burden facing Lebanon will require 
significant international assistance to bolster limited local 
resources. Our continued support for this valued partner is both 
merited and has proven to pay tremendous dividends as the LAF has 
routinely demonstrated the ability to make best use of U.S. assistance 
to increase its capability and capacity and bring about positive, 
measurable results.
    Central and South Asia--Our primary interests in the Central and 
South Asia (CASA) sub-region are to prevent the establishment of 
terrorist safe havens, assure continued United States access, and 
support the sovereignty and independence of partner nations. Our 
engagement strategy is focused on these three interests and 
strengthening our bilateral relationships with the seven partner 
nations. We also encourage multi-lateral cooperation amongst these same 
seven nations, and our annual CASA Chiefs of Defense Conference serves 
as a mechanism for facilitating expanded dialogue and increased 
cooperation. This past year, we also held the highly successful 
inaugural CASA Directors of Military Intelligence Conference. The 
increased participation and elevated levels of mil-to-mil discussions 
clearly convey increased appetite for further U.S.-led engagement.
    Despite increasing Russian, Chinese, and Iranian pressure designed 
to limit United States influence in the sub-region, the U.S. maintains 
its regional position by focusing on security cooperation areas where 
we have a comparative advantage such as counter-terrorism, border 
security, defense institution building, and professional development. 
Several CASA governments support transit of supplies to United States 
troops in Afghanistan through the Northern Distribution Network. We 
anticipate a continued need for these access routes. In this regard, 
our CASA partners have been and continue to be strong partners in our 
efforts to stabilize Afghanistan. Other areas of shared interest 
include countering violent extremism and counter-narcotics. Our 
training and exercise programs in the CASA sub-region clearly 
demonstrate our strong commitment to addressing these and other common 
challenges. For example, Exercise Steppe Eagle, traditionally a 
trilateral exercise with the United States, U.K., and Kazakhstan, has 
become more regional in scope with Tajikistan and the Kyrgyz Republic 
also now taking part. Additionally, we are increasing multilateral 
collaboration with our CASA-wide annual USCENTCOM Exercise Regional 
Cooperation.
    We share two primary concerns with our CASA partners regarding 
stability and security in the region: 1) persistent worries about the 
long-term stability and viability of Afghanistan and 2) the threat 
posed by returning foreign fighters. The United States and NATO's 
continued commitment to the ongoing Resolute Support Mission in 
Afghanistan is helping to assuage these concerns, primarily by 
bolstering the Afghan security forces' ability to defend their security 
interests. At the same time, we continue to pursue opportunities that 
would allow for increased information sharing, improved border 
security, and enhanced training and multi-lateral collaboration to 
support our shared interests.
    While our efforts in Afghanistan and Pakistan continue to require 
significant investment, elsewhere in the CASA sub-region we have 
clearly demonstrated the ability to achieve good effects with modest 
investments in terms of building partner nations' capabilities, 
improving multi-lateral cooperation, and addressing common security 
threats. Going forward, we intend to strengthen relationships and build 
on previous accomplishments while working together with our Interagency 
Partners to explore and pursue new opportunities in this strategically 
important part of the world.
    The United States-Kazakhstan relationship is our most advanced 
military relationship in Central Asia. We are making notable progress 
as the Kazakhstani Ministry of Defense continues to focus on 
institutional reform of its NCO corps, training management, human 
resources administration, and professional military education system. 
This progress continues despite enduring Russian influence and a 
Kazakhstani economy that is still recovering from the recent downturn 
in oil and gas prices. Kazakhstan remains the most significant regional 
contributor to Afghan stability, donating money to the ANA Trust Fund, 
continuing to provide educational opportunities to Afghans, and 
offering technical support services. Kazakhstan is also moving closer 
to a United Nations peace-keeping operations deployment with a unit 
that has been trained with U.S. assistance. Looking at future 
opportunities to strengthen our partnership, Kazakhstan has expressed 
interest in working with the United States to improve its logistical, 
medical, and engineering military branches. Kazakhstan also partnered 
with the Arizona National Guard through our State Partnership program, 
providing us the ability to assist in this effort.
    The Kyrgyz Republic, Central Asia's sole democracy, faces a number 
of challenges including economic and border security issues. The Kyrgyz 
Republic sees political pressure from its larger, more powerful 
neighbors, including Russia, hosting a small Russian airbase outside 
the capital, Bishkek. Despite ongoing challenges in our bilateral and 
security cooperation, we continue to seek opportunities to improve our 
mil-to-mil relationship. After a lengthy period of time during which 
few bilateral activities occurred, the Kyrgyz military may be 
increasingly receptive to higher level military engagements and 
expanded cooperation in the areas of border security, counter-
narcotics, counter-terrorism, and countering violent extremism. 
Furthermore, we continue to assist the Kyrgyz in building a deployable 
peace-keeping (PK) hospital capability that should be ready to support 
United Nations PK operations in the near future. Looking ahead, we 
intend to pursue opportunities for increased cooperation while taking 
steps to strengthen our relationships with the Kyrgyz.
    Pakistan remains a critical partner in the counter-terrorism fight. 
Twenty U.S-designated terrorist organizations operate in the 
Afghanistan-Pakistan sub-region; seven of the 20 organizations are in 
Pakistan. So long as these groups maintain safe haven inside of 
Pakistan they will threaten long-term stability in Afghanistan. Of 
particular concern to us is the Haqqani Network (HQN) which poses the 
greatest threat to coalition forces operating in Afghanistan. To date, 
the Pakistan military and security services have not taken lasting 
actions against HQN. We have consistently called upon the Pakistanis to 
take the necessary actions to deny terrorists safe haven and improve 
security in the Federally Administered Tribal Areas (FATA) along the 
Afghanistan-Pakistan border region. We have seen some promising 
coordination between the Pakistan and Afghanistan militaries aimed at 
addressing instability in the Afghanistan-Pakistan border region. The 
Pakistan military in particular continues to conduct counter-terrorism 
and counter-insurgency operations in the FATA and facilitate, via 
ground and air lines of communication, the sustainment of coalition 
operations in Afghanistan.
    This past year we became increasingly concerned about the growing 
threat posed by the ISIS affiliate, Islamic State-Khorasan (IS-K). 
Although their operational capacity has diminished as a result of 
United States, Afghanistan, and Pakistan military operations, we remain 
focused on defeating the group in both countries. Of note, we were 
encouraged to see the Pakistani military plan and execute a recent 
named operation in which they set up simultaneous multiple blocking 
positions along the Afghanistan-Pakistan border in order to reinforce 
ANDSF efforts to disrupt IS-K activities.
    We also continue to see ongoing tensions between Pakistan and 
neighboring India. India remains concerned about the lack of action 
against India-focused militants based in Pakistan and even responded 
militarily to terrorist attacks in India-held territory earlier this 
year. We assess that these types of attacks and the potential 
reactions, increase the likelihood for miscalculation by both 
countries. Furthermore, India's public policy to ``diplomatically 
isolate'' Pakistan hinders any prospects for improved relations. This 
is especially troubling as a significant conventional conflict between 
Pakistan and India could escalate into a nuclear exchange, given that 
both are nuclear powers. Additionally, Pakistan's increased focus on 
its eastern border detracts from its efforts to secure the western 
border with Afghanistan from incursion by Taliban and al-Qaida 
fighters. Security along the western border will nevertheless remain a 
priority for Islamabad, as the Pakistani military seeks to expand 
border control and improve paramilitary security.
    While there are challenges with respect to the United States-
Pakistani relationship, we have endeavored to maintain a substantial 
level of engagement with our Pakistani military counterparts. We 
continue to execute a robust joint exercise program. Most recently, the 
Pakistani Air Force sent airmen and aircraft to participate in Exercise 
RED FLAG and GREEN FLAG at Nellis Air Force Base in Nevada this past 
summer. The Pakistani military also continues to support our efforts 
elsewhere in the region; most notably, the Pakistani Navy is the most 
consistent and longstanding participant, second only to the United 
States, in Combined Task Force (CTF)-150 (counter-terrorism operations) 
and CTF-151 (counter-piracy operations) led by U.S. Naval Forces 
Central (USNAVCENT). Our relationship with Pakistan remains a very 
important one. We look forward to continuing our engagement with the 
Pakistani military leadership, to include the new Chief of the Army 
Staff, General Qamar Javed Bajwa, in the days ahead as we work together 
in pursuit of shared interests.
    Our mil-to-mil relationship with Tajikistan is deepening despite 
Moscow's enduring ties and the presence of the 201st Military Base near 
Tajikistan's capital of Dushanbe, Russia's largest military base 
outside of its borders. China has also initiated a much stronger 
military cooperation partnership with Tajikistan, adding further 
complexity to Tajikistan's multi-faceted approach to security 
cooperation. Tajikistan's long border with Afghanistan remains the 
nation's top concern, as the Taliban intermittently fights for control 
of Afghanistan's Kunduz province, which is less than 160 miles from 
Dushanbe. These border concerns remain a focus area for U.S. security 
cooperation as we continue to develop the Tajiks' capacity to address 
violent extremism, terrorism, and narco-trafficking; enhance border 
security; and, confront other trans-regional threats.
    Turkmenistan's UN-recognized policy of ``positive neutrality'' 
presents a challenge with respect to U.S. engagement. Our efforts to 
date have focused primarily on training, including in the areas of 
counter-narcotics and medical services. Due to Turkmenistan's shared 
border with Afghanistan, the Turkmen remain concerned about the 
continuing instability in Afghanistan and, separately, the potential 
for the return of foreign fighters. We are encouraged somewhat by 
Turkmenistan's expressed interest in increased mil-to-mil engagement 
with the U.S. within the limits of their ``positive neutrality'' 
policy.
    We are cautiously optimistic about the possibility of Uzbekistan's 
improved relations with its neighbors in the region following the first 
presidential succession in the nation's 25-year history. This is a 
promising development given Uzbekistan's central and strategic 
geographic location, in the heart of Central Asia and bordering 
Afghanistan. President Mirziyoyev has reaffirmed the country's 
unwillingness to allow other nations to establish military bases in 
Uzbekistan, its restriction against aligning with foreign military or 
political blocs, and its self-imposed restriction against any type of 
expeditionary military operations. Despite these limitations, our 
bilateral mil-to-mil efforts are focused on helping the Uzbeks improve 
border security, enhance their counter-narcotic and counter-terrorism 
capabilities, and prevent the return of foreign fighters into the 
country, which are shared U.S. interests in the region. We remain 
committed to these security assistance efforts. We also are helping the 
Uzbek military, which is the largest military in Central Asia, to 
professionalize its forces through advisory support and assistance to 
its professional military institutions.
    Required Programs, Capabilities and Resources. The security 
environment in the Central Region remains complex and highly volatile. 
To ensure we are able to effectively achieve our mandate to protect our 
national interests, we must be properly postured with the necessary 
capabilities and resources to pursue opportunities in support of our 
goals and objectives, and to prevail in our various endeavors 
throughout USCENTCOM's 20-country area of responsibility. Below are the 
programs, capabilities, and resources most critical to our success.
    Building Partner Capacity. Building Partner Capacity (BPC) is 
essential to achieving our objectives in the Central Region. To improve 
stability in the USCENTCOM AOR and mitigate the need for costly U.S. 
military intervention, we must be forward-leaning and empower our 
partners to meet internal security challenges and work collectively to 
counter common threats. BPC is a lower-cost alternative to U.S. boots 
on the ground, has longer-term sustainability, and is necessary for 
interoperable, combined coalition operations. As such it represents a 
high return investment in the future of the Central Region. By building 
capacity and enabling partners to assume a larger role in providing for 
the stability and security of their sovereign spaces, we will enhance 
regional stability while still maintaining our critical access and 
influence in the region. Other tangible by-products achieved through 
our BPC efforts include enhanced interoperability, improved security 
for forward deployed forces and diplomatic sites, continued access and 
influence, and more professional regional militaries comprised of 
forces learning the importance of rule of law and compliance with human 
rights norms. Continued support of key partners engaged in the ongoing 
military campaign to defeat ISIS in Iraq and Syria is particularly 
important. As important as long-term regional stability is BPC's focus 
on the threat environment and shaping the region is critical to better 
prepare and deter and counter state and non-state aggression. Our key 
partners' ability to procure U.S. weapons and equipment and increase 
interoperability with U.S. and coalition forces is critical to our 
success. Any reduction of U.S. assistance risks undermining our allies 
and creating a security vacuum for exploitation by state and non-state 
actors with counter-U.S. or violent intentions.
    Foreign Military Financing and Foreign Military Sales. For decades, 
United States security assistance provided to countries including Saudi 
Arabia, Jordan, Yemen, Kuwait and Egypt, has helped create lasting 
partnerships and improve regional stability. Foreign Military Financing 
(FMF) assistance and the Foreign Military Sales (FMS) program enable 
countries to meet their defense needs, while also promoting U.S. 
national security interests by strengthening coalitions and enhancing 
interoperability between and among U.S. and coalition forces. When we 
provide defense systems through U.S. security assistance, we are not 
just providing our partners with capabilities, we are committing to a 
long-term relationship that includes sustainment of those capabilities. 
The complex and technical nature of advanced defense systems often 
require continuous collaboration between countries. This may include 
training and support in the use of the equipment, maintenance 
assistance, and, in some cases, continuing help to update and modernize 
the equipment throughout its life-cycle.
    Nevertheless, we must better anticipate our partners' requirements 
and find ways to improve our FMF and FMS programs' processes to better 
meet demand in today's high-paced global security environment. Delays 
in procurement and delivery can, over time, jeopardize relationships 
with buyer nations and the potential for future FMS and FMF 
transactions. It is imperative that we make the FMF and FMS processes 
more responsive to partner needs.
    In recent years we have seen an increase in restrictions placed on 
assistance provided to partner nations, limiting their ability to 
acquire U.S. equipment based on human rights and/or political 
oppression of minority groups. While these are significant challenges 
that must be addressed, the use of FMF and FMS as a mechanism to 
achieve changes in behavior has questionable effectiveness and can have 
unintended consequences. We need to carefully balance these concerns 
against our desired outcomes for U.S. security assistance programs--
both DOD and State-funded--to build and shape partner nations' 
capability, interoperability, and self-reliance in support of broader 
U.S. foreign policy. We should avoid using the programs as a lever of 
influence or denial to our own detriment.
    USCENTCOM Exercise and Training Program. The USCENTCOM Exercise 
Engagement Training Transformation (CE2T2) program enhances U.S. 
capability to support contingency operations while improving readiness 
and maintaining presence and access to the region. At the same time, 
the program indirectly increases partner nations' operational 
capability; demonstrates mutual commitment to regional security; 
ensures an effective coalition posture; strengthens relationships; and, 
improves combined command, control, and communications interoperability 
(C3I). More importantly, in light of the fact that today's conflicts 
are increasingly trans-regional, all-domain, and multi-functional in 
nature, bilateral and multilateral exercises support the unity of 
effort requirement for coalition operations.
    The USCENTCOM CE2T2 program continues to grow in complexity and 
relevance with expanded participation throughout the USCENTCOM AOR 
during fiscal year 2016 and into fiscal year 2017. Last year, the 
command conducted 45 USCENTCOM- and/or Component-sponsored bilateral 
and multilateral exercises with 41 partner nations and spanning seven 
Geographic and Functional Commands. These exercises shape the 
perceptions of key audiences in the USCENTCOM AOR to support U.S. 
strategic goals of reassuring partners and deterring aggressive and 
malign behavior. Exercise objectives and outcomes include maintaining 
key relationships while demonstrating multilateral, as well as 
unilateral, capabilities. They also enable increased cooperation and 
interoperability with our partners and help to reinforce a strong 
military posture in the region. This helps counter any false perception 
of the U.S. ``abandoning'' the region.
    Continued, robust, and reliable funding is necessary to fully 
support exercises as planned. For example, insufficient resourcing of 
component requirements can result in curtailment or even cancellation 
of efforts like Exercise EAGER LION, an annual multi-lateral training 
event in Jordan. This sub-optimization of the USCENTCOM exercise and 
training program ultimately will affect U.S. Joint and Combined Force 
readiness and create a perceived lack of commitment to our coalition 
partners. Combined with BPC, FMS, and FMF, the USCENTCOM CE2T2 program 
also actively promotes and supports regional stability through 
increased partner action and capability. These engagements not only 
build interoperability at the highest levels of command, but the 
benefits derived at the lowest, tactical levels of command and 
logistics manifest in long-term professional and personal relationships 
among participating country staffs.
    Information Operations. Information Operations (IO) will continue 
to serve as a key element in shaping the environment to reduce or avoid 
conflict and as a force multiplier in the information space during and 
after major combat and counter-insurgency operations. We have an 
enduring responsibility to employ IO to counter trans-regional threats. 
By utilizing IO as a comprehensive, long-term capability to degrade 
VEOs' effectiveness and counter state-sponsored destabilizing 
activities across the USCENTCOM AOR, the USG [United States Government] 
helps to improve regional stability while reducing the requirement for 
deployed U.S. forces. The Department of Defense (DOD), in concert with 
other USG agencies, has developed several IO campaigns, leveraging the 
latest technologies, which operate in the information domain. These 
campaigns include counter-propaganda messaging in print media, radio, 
television, short message service, Internet, and social media, and take 
a proactive approach to coordinating these activities with the country 
teams and embassies in our AOR. The nature and scope of threats 
prevalent today in the USCENTCOM AOR necessitates a robust response, 
and IO is a cost-effective application of DOD resources to deter 
aggression, counter destabilizing behavior, and decrease the potential 
for kinetic operations in order to protect USG and partner nation 
interests in the Central Region.
    Cyberspace Operations. USCENTCOM cyberspace operations are built on 
the foundation of cyber readiness and include both Department of 
Defense Information Network (DODIN) Operations and command-centric 
Defensive Cyberspace Operations. Our top cyberspace priority is mission 
assurance; the goal is to preserve freedom of maneuver in cyberspace to 
assure access to both U.S. and foreign assets critical to military 
operations. Efforts include, but are not limited to, helping to set 
priorities and contributing to the desired end-state of denying 
adversaries the ability to operate on our networks and impact our 
missions. We recognize the importance of maintaining a holistic 
approach to this evolving capability that emphasizes the need for a 
synchronized effort across the whole-of-government. While the full and 
proper implementation of all available USG/DOD technical defenses plays 
a vital role, the human element is the most important factor to protect 
and defend from malicious cyber activity. Looking ahead, USCENTCOM will 
continue to adapt our network defenses to detect, deter, and better 
react to known or anticipated threats.
    Anti-Access Area Denial. Potential adversaries are actively 
investing in competitive responses that include anti-access/area denial 
(A2AD) systems to minimize U.S. influence and abilities. Adversaries 
are also pursuing ``layered defenses'' to directly challenge U.S. 
diplomacy and presence. An enemy may use combinations of kinetic (e.g., 
ballistic/cruise missiles, moored/floating mines, small boat swarms, 
submarines, aircraft, drones, irregular warfare using proxies, 
terrorism, WMD) and non-kinetic (e.g., GPS jamming, spoofing, cyber 
hacking, EMP, underground facilities, dispersal/camouflage of weapons/
assets, shielding from aerial/satellite surveillance, decoys) 
capabilities to inhibit projection of force and/or precision strikes.
    Intelligence, Surveillance, Reconnaissance Assets. USCENTCOM holds 
daily requirements for over 2,800 hours of full-motion video, thousands 
of still images, thousands of hours of signal intelligence, and other 
key intelligence collection sources. These requirements do not reside 
only in Afghanistan, Iraq, and Syria, but span the entirety of the 
USCENTCOM AOR. It is the layering, synchronization, and prioritization 
of national, theater, and tactical ISR capabilities that enable 
USCENTCOM force protection of transition, stability, and combat forces. 
This critical capability also performs several key functions including: 
battlespace awareness for partner and U.S. operational commanders, as 
well as indications and warning to guard against strategic threats and 
miscalculation; identification of fixed ground networks and facilities; 
location and tracking of adversary operational elements and units; 
mapping and development of adversary command and control; interdictions 
of facilitation entities, suppliers, and supply routes; and, 
characterization and targeting of funding centers and other support 
nodes. Our greatest difficulties in this fight remain in the 
development of enemy networks, groups, cells, and nodes that fight from 
within the populace. There are critical airborne ISR functions that 
must be present to map this unconventional threat. In priority order 
they are: 1) full-motion video, 2) signals intelligence, and 3) 
geospatial intelligence. USCENTCOM's requirements consistently outpace 
theater airborne ISR capacity and capability and the demand will 
continue to grow. We are able to address some of the shortfall through 
cross-CCMD and partner-nation coordination and capacity development. We 
also need to explore innovative ways to develop capabilities for 
persistent ISR through experimentation and technology maturation and 
demonstration projects. Additionally, we need to address the shortfalls 
associated with processing, exploitation, and dissemination of 
collected intelligence. For the foreseeable future, in the absence of 
additional much-needed ISR assets, maintaining operational awareness on 
threats, risks, regional stability, and humanitarian crises will 
require constant attention, creative application of ISR, hard choices 
on the prioritization of resources, and the determination of acceptable 
risk to mission and forces.
    Precision Munitions. Highly accurate munitions are vital components 
of our kinetic strike and integrated air and missile defense 
capabilities, to dominate and counter our adversaries' increasingly 
sophisticated networks of coastal and air defenses coupled with 
precision ballistic missiles. Missile interceptors, air- and sea-
launched cruise missiles, precision air-to-ground and air-to-air 
missiles, and long-range precision ground-to-ground missiles work in 
concert to counter the growing threats we face today. We appreciate 
Congress' continued support for the procurement/replenishment, 
development, and forward positioning of precision and specific purpose 
munitions that are critical to the way we currently fight--in urban 
areas, with very specific rules of engagement designed to protect 
civilians and limit damage to infrastructure.
    Counter Unmanned Aerial Systems (C-UAS). The enemy Unmanned Aerial 
Systems (UAS) threat and employment in the USCENTCOM AOR is rapidly 
evolving. Numerous non-state actors including ISIS, al Qaida, Taliban, 
Lebanese Hezbollah, and Fatah al-Sham are using both commercial-off-
the-shelf and military drones to conduct operations against United 
States and coalition forces. This threat has evolved from 
reconnaissance and surveillance missions to weaponized drone attacks 
resulting in battlefield casualties. State actors continue to increase 
the sophistication of their UAS with all countries in the USCENTCOM AOR 
utilizing various classes of UAS for operations. Given the evolving 
threat, the need for an effective Counter-UAS capability that can 
defeat all classes of UAS remains a top priority. To address this 
problem, USCENTCOM is working with various defense agencies and 
industry through the Joint Urgent Operational Need (JUON) process to 
develop and acquire an effective system to employ against UAS. The 
ability to rapidly respond to this emerging threat is critical to 
mission success and requires increased funding to promote innovative 
solutions with expedited testing and rapid acquisition.
    Joint and Interagency Partners. To ensure success in the pursuit of 
shared goals and objectives, our Joint and Interagency Partners must 
also be properly postured with the necessary capabilities and 
resources. Below are two key partners that play a significant role in 
support of USCENTCOM's mission and merit continued Congressional 
backing.
    Joint Improvised-Threat Defeat Organization (JIDO)--JIDO, an 
element of the Defense Threat Reduction Agency, is an invaluable 
organization that is even more important as we fight by, with and 
through our partners with fewer resources, but more exposed U.S. 
personnel and equipment in the fight. Their ability to rapidly respond 
to emerging threats is essential to enabling our efforts to counter 
improvised threats (e.g., counter-facilitation, counter-tunneling, 
counter-UAS) and build partner capacity in support of our deployed 
warfighters. The expert JIDO personnel embedded within our formations 
at USCENTCOM's headquarters in Tampa, forward deployed, and across the 
globe, provide mission-critical analytical, planning, and rapid 
acquisition support. Having this invaluable joint organization that can 
expose the broader counter-IED network, identify future disruptive 
threats, stay in front of technological changes, and integrate our 
efforts across the Interagency to rapidly implement solutions is 
essential to our ability to protect our forces, defeat threat networks 
and build partner national capacity.
    Global Engagement Center--The best way to defeat an idea is to 
present a better, more appealing idea to vulnerable and undecided 
audiences. The State Department's Global Engagement Center (GEC) 
effectively coordinates, integrates, and synchronizes messaging to 
foreign audiences designed to undermine the disinformation espoused by 
violent extremist groups, including ISIS and al Qaeda, while offering 
positive alternatives. The Center is focused on empowering and enabling 
partners, governmental and non-governmental, who are able to speak out 
against these groups and provide an alternative to ISIS's nihilist 
vision. To that end, the Center offers services ranging from planning 
thematic social media campaigns to providing factual information that 
counters disinformation to building capacity for third parties to 
effectively utilize social media to research and evaluation.
    Required Authorities and Appropriations. Fluid environments require 
flexible authorities with sustained and timely funding to respond to 
changes in conditions and maintain momentum of operational forces. We 
sincerely appreciate Congress' continued support for key authorities 
and appropriations needed for current and future operations and 
response to unforeseen contingencies. The required authorities and 
resources listed below enable USCENTCOM to accomplish its mission and 
stated objectives in support of U.S. national interests and the 
interests of our partners in the Central Region.
    Iraq Train & Equip Fund (ITEF). Iraq's ability to defeat ISIS 
requires professionalizing and building the capacity of the Iraqi 
Security Forces (ISF), including military or other security forces 
associated with the Government of Iraq, such as Kurdish and tribal 
security forces or other local forces with a national security mission. 
Most notably, the ongoing Coalition Military Campaign to defeat ISIS 
relies on indigenous Iraqi Security Forces to conduct ground operations 
against the enemy and liberate ISIS controlled territory. They have 
risen to the task and are making progress in this ongoing endeavor. 
While the initial training and equipping of the ISF focused heavily on 
developing Iraqi Army (IA) Brigades to conduct offensive operations, 
future efforts will shift to sustainment of combat capability and hold 
forces to ensure that liberated areas remain under the control of the 
GoI and that these forces are able to counter remaining ISIS pockets 
and any other VEOs which may emerge and attempt to fill the void 
created by the defeat of ISIS. These hold forces will be a combination 
of local tribal fighters and police forces.
    Syria Train & Equip Program. Protecting the United States from 
terrorists operating in Syria and setting the ultimate conditions for a 
negotiated settlement to end the conflict in that country will require 
the continued training and equipping of Vetted Syria Opposition (VSO) 
forces. Additional recruitment, retention, resupply, and support are 
central to our strategy to defeat ISIS in Syria. Our revised training 
approach is proving successful, improving the effectiveness and 
lethality of the force on path to a projected strength of up to 35,000 
by the end of fiscal year 2017 and growing to 40,000 in 2018. 
Procurement and manufacturing lead times for non-standard weapons and 
ammunition and delivery from various foreign vendors complicates the 
already complex train and equip mission, so we appreciate as much 
flexibility as possible in authorizing and appropriating funds for this 
effort. The SDF and VSOs continues to advance in defeating ISIS and 
holding and defending liberated areas, while also assisting local 
authorities in providing humanitarian and security assistance to the 
populace.
    The Afghanistan Security Forces Fund (ASFF). Since 2005, United 
States provision of funds executed through ASFF has provided training, 
equipment, infrastructure, sustainment and salaries for a generated 
force of up to 352,000 Afghan National Defense and Security Forces 
(ANDSF) and 30,000 Afghan Local Police (ALP). ASFF plays a critical 
role in enabling the ANDSF to secure Afghanistan with an effective and 
sustainable force that is central to the United States strategy to 
prevent a Taliban or al Qaeda resurgence, defeat VEOs, and deny safe 
haven for external plotting against the United States Homeland and U.S. 
and partner nation interests in the region.
    Afghanistan Aviation Transition Funding--The proposed Afghan Air 
Force (AAF) and Special Mission Wing (SMW) aviation transition program 
is critical to addressing capability gaps in Close Air Support (CAS) 
and lift for the ANDSF. The program is designed to address the 
shortfall in available aircraft and trained pilots to ensure Afghan 
forces have the required aviation support and maintenance pipeline to 
move toward self-sustainment and increased independent operations. DOD 
plans to achieve these results by transitioning the AAF and SMW to 
U.S.-manufactured rotary wing platforms. Although the availability of 
trained pilots remains a particular challenge for the ANDSF, recent 
successes are producing capable pilots and the recap plan is designed 
to ease the human capital burden over time. The additional capability 
that would be gained through the aviation transition program will 
provide the Afghans needed overmatch against insurgents and terrorists 
while improving ground forces' effectiveness and reducing ANDSF's 
casualty rates.
    Coalition Support. The authorities and funding that underpin our 
ability to effectively conduct Coalition operations, including in 
support of partners whose contributions are critical, but who lack the 
resources to participate without our assistance, are key to our 
continued success. The Coalition Support Fund (CSF) provides the 
authority to reimburse certain Coalition partners for logistical and 
military support provided by that nation in connection with Iraq, 
Syria, and Afghanistan operations. The CSF also funds the Coalition 
Readiness Support Program (CRSP) which authorizes supplies, the loaning 
of equipment, and specialized training assistance to coalition forces. 
The CSF relieves the operational burden on U.S. forces and enhances the 
visibility of Coalition presence. This authority remains critical to 
our strategic approach to Coalition operations, including, but not 
limited to, the ongoing military campaign to defeat the terrorist 
organization, ISIS in Iraq and Syria, and our transition in 
Afghanistan. The capability and interoperability that CSF funding 
facilitates is crucial to our bilateral relations, Coalition operations 
and training with partner nations, and to the success of our broader 
strategic and trans-regional objectives. The Global Lift and Sustain 
and successor authority further complements this approach by enabling 
us to provide transportation and life support to select Coalition 
partners.
    Commanders' Emergency Response Program (CERP). CERP is authorized 
for local commanders to respond to urgent humanitarian relief and 
reconstruction requirements in Afghanistan, and may be used to make 
condolence payments for the loss of life, injury, or property damage 
resulting from U.S., coalition, or supporting military operations. The 
NDAA for fiscal year 2017 provides authority for ex gratia payments in 
Iraq, Afghanistan, and Syria for damage, personal injury, or death that 
is incident to United States combat operations. CERP funded projects 
directly benefit the indigenous civilian populations in Afghanistan and 
demonstrate the positive effects of our presence, while also providing 
tangible, quick mitigation when coalition actions result in casualties 
or property damage to civilians during the course of military 
operations. CERP is a proven force multiplier and a key enabler in 
responding to urgent humanitarian needs and promoting security. Going 
forward, we want to ensure commanders engaged in the Counter-ISIS 
missions can provide immediate, but limited, small scale humanitarian 
assistance to ISIS liberated areas, until national and international 
relief agencies can provide that support. Our responsiveness is 
critical to quickly stabilizing those areas in order to begin the 
holding phase of the campaign and to counter ISIS messaging.
    Military Construction (MILCON). USCENTCOM stewards constrained 
resources and maintains an expeditionary approach to posturing 
capabilities in theater. We leverage existing infrastructure and host 
nation support and funding where possible, as well as maritime posture 
and reach back capabilities to meet steady state and surge 
requirements. In some instances, MILCON is required to establish 
infrastructure to support forces and equipment in the execution of 
their missions. Of note, USCENTCOM requires support for development at 
Muwaffaq-Salti Air Base (MSAB), Jordan and construction of the new 
Consolidated Squadron Operations Facility at Al Udeid, Qatar. These two 
projects are essential to our contingency and steady state operations 
and support the Defense Strategic Guidance. The projects will support 
executing our priority war plans by providing critical dispersed, 
resilient and flexible capacity to accept both steady state and 
enduring joint forces, multiple aircraft types and provide critical air 
C4I (command, control, communications, computers and intelligence) for 
current and future contingencies, theater and strategic surge and 
maritime operations within the USCENTCOM AOR. MILCON development is 
critical to support the realignment of U.S. forces operating from an 
expeditionary approach at various contingency bases scattered across 
the AOR to the required enduring posture approach necessary to protect 
U.S. interests and to sustain key bilateral relationships.
    Prepositioned War Reserve Materiel (PWRM). Service Prepositioned 
War Reserve Materiel and capability sets remain critical force 
multipliers required to execute USCENTCOM's most dangerous and critical 
contingency plans. The Services and Defense Agency prepositioned 
capacity provides a shock absorber in rapidly emerging contingencies, 
buys critical decision space for our national leadership, and mitigates 
the risk associated with the tyranny of distance when we are called 
upon to rapidly aggregate and reintroduce forces into the region.
    The U.S. Central Command Team. The outstanding men and women who 
comprise the USCENTCOM Team truly are our most important assets. They 
continue to make tremendous contributions on behalf of our Nation and 
our partners and allies around the globe. We must ensure they have 
everything they need to do their jobs effectively, efficiently, and as 
safely as possible.
    We also continue to benefit from the unique capability provided by 
our Coalition Coordination Center, which consists of more than 200 
foreign military officers from nearly 60 partner nations. They, too, 
are important members of our USCENTOM Team and play a critical role in 
strengthening the partnerships between our nations.
    We remain mindful of the fact that success requires that we work 
together, not just within the command, but also with our teammates from 
other combatant commands, our Component Commands, established combined/
joint task forces, the Central Region's 18 county teams, and various 
agencies and organizations throughout the USG and the Interagency. Our 
close collaboration with counterparts at the U.S. State Department, the 
U.S. Treasury, CIA, FBI, and JIDO, for example, has paid enormous 
dividends in the pursuit of shared national goals and objectives. We 
look forward to continuing to work with them and others on behalf of 
our Nation.
    We also are incredibly grateful for the support of our families. 
They are highly valued members of our USCENTCOM Team and we could not 
do what we do without them. They make important contributions and 
tremendous sacrifices each and every day in support of us and on behalf 
of the command and a grateful Nation.
    The upcoming year promises to be a busy and challenging one in the 
Central Region. You can be assured that the world-class team at U.S. 
Central Command--which includes more than 80,000 soldiers, sailors, 
airmen, marines, coastguardsmen, and civilians stationed today 
throughout the USCENTCOM area of responsibility--is up to the task, and 
is highly-skilled, motivated, and stands ready to do whatever is 
necessary to accomplish the mission: defend our Nation and our 
interests, the interests of partners and allies, and improve stability 
and security in that strategically important part of the world.

                    USCENTCOM: Prepare, Pursue, Prevail!

    Chairman McCain. Thank you.
    General Waldhauser?

  STATEMENT OF GENERAL THOMAS D. WALDHAUSER, USMC, COMMANDER, 
                  UNITED STATES AFRICA COMMAND

    General Waldhauser. Thank you, Mr. Chairman. Chairman 
McCain, Ranking Member Reed, and distinguished members of the 
committee, thank you for the opportunity to update you on the 
activities and efforts of United States Africa Command.
    I would like to also say it is an honor for me to sit next 
to my battle buddy here, General Votel.
    For the past 9 months, I have been honored to lead the men 
and women of this geographic combatant command. Africa is an 
enduring interest for the United States. Small, but wise 
investments in the capability, legitimacy and accountability of 
African defense institutions offer disproportionate benefits to 
America, our allies, the United States, and most importantly, 
enable African solutions to African problems.
    Parts of Africa remain a battleground between ideologies, 
interests, and values. Equality, prosperity, and peace are 
often pitted against extremism, oppression, and conflict.
    Today trans-regional violent extremist organizations on the 
continent constitute the most direct security threat to the 
United States. To address this threat, our military strategy 
articulates a long-term, regionally focused approach for a safe 
and stable Africa.
    Specifically, the strategy outlines an Africa in which 
regional organizations and states are willing and capable 
partners addressing African security challenges all while 
promoting United States' interests. The Africa Command strategy 
builds our partners' abilities to direct, manage, and operate 
capable and sustainable defense institutions. While we have 
achieved progress in implementing our strategy, threats and 
challenges still remain.
    In East Africa, we support African Union and European Union 
efforts to neutralize al-Shabaab and other violent extremist 
organizations operating in Somalia. We also support the 
eventual transfer of security responsibilities from the African 
Union mission in Somalia to the Somali National Security 
Forces.
    In 2016, al-Shabaab regained some previously held Somalia 
territory, and today the group continues to conduct attacks on 
AMISOM [African Union Mission in Somalia] forces, the national 
security forces of Somalia, as well as the federal government 
of Somalia.
    Additionally, we have also seen elements of ISIS begin to 
make inroads into Somalia, which will further test AMISOM 
forces and the federal government of Somalia as well.
    The instability in Libya in North Africa caused by years of 
political infighting may be the most significant near-term 
threat to the U.S.'s and allies' interests on the continent. 
Stability in Libya is a long-term proposition. We must maintain 
pressure on the ISIS-Libya network and concurrently support 
Libya's efforts to reestablish a legitimate and unified 
government. This is a significant challenge, and we must 
carefully choose where and with whom we work and support in 
order to counter ISIS-Libya and not to shift the balance 
between various factions and risks of sparking greater conflict 
in Libya.
    In West Africa, our primary focus is countering and 
degrading Boko Haram and ISIS-West Africa. Since 2011, Boko 
Haram has consistently carried out attacks against civilians 
and targeted partner regional governments and military forces 
in the Lake Chad Basin region. With forces from Benin, 
Cameroon, Chad, Niger, and Nigeria, we are working with the 
multinational joint task force located in Niger to enable 
regional cooperation and expand partner capacity to ensure Boko 
Haram and ISIS-West Africa do not further destabilize the 
region.
    The multinational joint task force has been successful in 
enabling multinational cooperation and coordinating 
multinational operations and placed a significant pressure on 
Boko Haram and ISIS-West Africa.
    In Central Africa, through the combined efforts of military 
forces, civilian agencies, and nongovernmental organizations, 
we work to build the capacity of our partners to address 
regional threats, such as maritime security, illicit 
trafficking of goods and persons, the Lord's Resistance Army, 
and other criminal networks and enterprises.
    Africa-wide we support the efforts to enable African 
partners to respond to humanitarian crises, mass atrocities, 
disaster contingencies, and to support peace operations. 
Through the United States National Guard's State Partnership 
Program, along with their African partners, we have improved 
disaster management competency and readiness to assist 
civilian-led efforts. We continue to see great value in the 
National Guard's persistent engagement and fully support the 
State Partnership Program's efforts.
    Africa's security environment is dynamic and complex 
requiring innovative solutions. Even with limited resources or 
capabilities, Africa Command aggressively works with partners 
and allies to execute our missions and mitigate risk. Moving 
forward, we continue to focus our decisive effort on building 
African partner capacity and will continue to work closely with 
the international and interagency partners to make small, wise 
investments which pay huge dividends in building stable and 
effective governments, the foundation for long-term security in 
Africa.
    I am confident with your support Africa Command will 
protect and promote United States' interests and keep the 
United States safe from threats emanating from the African 
continent.
    Finally, on behalf of the United States Africa Command, I 
want to thank you for the opportunity to be with you this 
morning, and I also look forward to your questions. Thank you.
    [The prepared statement of General Waldhauser follows:]


           Prepared Statement by General Thomas D. Waldhauser
    Chairman, ranking member, distinguished members of the committee, 
thank you for the opportunity to update you on the activities and 
efforts of United States
Africa Command to protect and promote United States national security 
interests in Africa. Since I last spoke with the Senate, I have had 9 
months to examine the opportunities and challenges the United States 
and our partners face in Africa. As expected in an area of 
responsibility covering 53 countries, issues are complex and varied. I 
am confident we have the right strategic approach to meet these 
challenges, and our efforts, in coordination with the efforts of our 
allies and partners, will have a lasting impact on the security and 
stability of the African continent. It is an honor to lead the efforts 
of the men and women of United States Africa Command in this dynamic 
and rapidly changing strategic environment.
    Africa remains an enduring interest for the United States, and the 
53 nations in the Africa Command Area of Responsibility look to the 
United States for assistance but, more importantly, for leadership--
leadership that advantages our partners as they turn challenges into 
opportunities. We can meet our military objectives and advance American 
interests with a combination of strategic patience, targeted 
investments, and strong partnership to achieve shared security 
objectives and maintain our long-term approach which contribute to the 
conditions for development and good governance to take root. If we 
focus on working with our African partners on developing local 
solutions to radicalization, destabilization, and persistent conflict, 
we will remain the security partner of choice for the next decade, all 
while upholding our American values. Africa, our allies, the United 
States, and, indeed, the world will benefit from our actions to promote 
stable and effective nation states and defense institutions in Africa.
    In order to accomplish this goal, the United States must remain 
engaged on the continent, investing in the capability, legitimacy, and 
accountability of African
defense institutions. We must continue to enable African solutions by 
building partner capacity, instilling professionalism within defense 
forces, and increasing their respect for the rule of law. When 
necessary, we must be ready to conduct military operations to protect 
U.S. interests, counter violent extremist organizations, and enable our 
partners' efforts to provide security. To protect and promote United 
States national security interests in Africa, diplomacy and development 
are key efforts, and our partnership with the Department of State and 
the U.S. Agency for International Development (USAID) is key to achieve 
enduring success. Together, we work to address the root causes of 
violent extremism, lack of accountable government systems, poor 
education opportunities, and social and economic deficiencies to 
achieve long-term, sustainable impact in Africa. More specifically, I 
want to thank Congress for the authority to support other USG agencies 
under the 2017 National Defense
Authorization Act. We now have the flexibility to facilitate a whole-
of-government approach, which is the best opportunity to assist Africa 
in creating sustainable African solutions. This approach benefits 
Africans and Americans and mitigates the considerable security risks we 
currently face.
                         strategic environment
    Africa's sustained economic growth, improved social development, 
and growing entrepreneur class are unlocking the continent's potential 
for international investment and trade, raising its geostrategic 
importance to the U.S while also attracting international competition 
for access, influence, and trade. Africa's continued commitment to 
democracy, evidenced by the January 2017 actions of the Economic 
Community of West Africa (ECOWAS) to uphold the election results in The 
Gambia, reinforces the strong foundation of shared values and 
commitment to good governance the United States has with its African 
partners. As the United States pursues opportunities for greater 
partnership with Africa, we must be cognizant of the negative
external and internal forces seeking to counter our shared goals and 
not be constrained by them.
    Africa links directly to United States strategic interests as the 
continent strives for inclusion in the rules-based international order. 
Just as the United States pursues strategic interests in Africa, 
international competitors, including China and Russia, are doing the 
same. Whether with trade, natural resource exploitation, or weapons 
sales, we continue to see international competitors engage with African 
partners in a manner contrary to the international norms of 
transparency and good governance. These competitors weaken our African 
partners' ability to govern and will ultimately hinder Africa's long-
term stability and economic growth, and they will also undermine and 
diminish United States influence--a message we must continue to share 
with our partners.
    Parts of Africa remain a battleground between ideologies, 
interests, and values: equality, prosperity, and peace are often pitted 
against extremism, oppression, and conflict. The strategic environment 
includes instability that allows violent extremist organizations to 
grow and recruit from disenfranchised populations. Currently, the 
greatest threat to United States interests emanating from Africa is 
violent extremist organizations (VEOs). Furthermore, these VEOs are 
competing for primacy over other extremist movements in Africa and 
aspire to incorporate large portions of the continent into their 
respective ideologies. They build partnerships with regional VEOs; 
exploit the vulnerability of Africa's youth population; and take 
advantage of ungoverned and under-governed spaces to target our 
partners, our allies, and the United States Africa's population faces 
large scale unemployment and disenfranchisement from corrupt 
governments and abusive security forces, making them prime targets for 
exploitation by criminal and terrorist organizations across the 
continent.
    In addition to the transregional threats of terrorism, Africa is 
vulnerable to conflict and instability from political, social, 
economic, and environmental challenges. These forces are driving the 
current migrant crisis. The migrant flow between Africa and Europe 
greatly concerns our European allies. Europe views the migrant crisis 
as its preeminent security and economic issue. The International 
Monetary Fund estimates the initial cost of direct support to refugee 
inflow into the EU [European Union] will average approximately $16-32 
billion annually. When the secondary costs of migrant integration, 
border policing, and regional support are added, the cost increases to 
an additional $150 billion annually for the EU. Unfortunately, this 
crisis will most likely continue in the near future, as many African 
countries are not able to stem the flow at home.
    Globally, 15 of the top 25 most fragile countries of the world are 
in Africa, according to the 2016 Fund for Peace ``Fragile State 
Index.'' At the root of this fragility is weak governance. While 
governance is not a core mission of the Department of Defense, we 
recognize that building professional, legitimate defense institutions 
is critical to enabling a population-centric approach to governance 
that prioritizes the security of the population over the security of 
the regime. Because of this, our work continues to support the efforts 
of the Department of State and USAID to develop legitimate, rights-
respecting security forces and address the root causes of instability.
                            command approach
Theater Strategy (5-20 Years)
    In order to address the challenges and secure United States 
interests in the Africa, our strategy articulates a long-term, 
regionally-focused approach for a safe and stable Africa. Specifically, 
the strategy outlines an Africa in which regional organizations and 
states are willing and capable partners addressing security challenges, 
the security of the African population, and United States interests in 
Africa.
Although our strategy is regionally focused, many programs and 
activities are executed bilaterally further stressing the importance of 
willing and capable partners. Transregional VEOs not only constitute 
the most direct security threat to the United States emanating from 
Africa but are also the most dangerous threat to stability in East, 
North, and West Africa. The 2015 National Security Strategy calls on us 
to work with Congress to train and equip partners in the fight against 
VEOs, and the United States Africa Command Area of Responsibility one 
theater in that broader fight. However, training and equipping African 
partners for the tactical fight is insufficient to achieve long-term 
stability. United States and international assistance must build our 
African partners' ability to direct, manage, sustain, and operate their 
own defense sectors over time. Capable and sustainable defense 
institutions are critical in providing a secure environment for the 
deepening of democracy and broad-based development, which together can 
diminish some of the factors that attract vulnerable persons into 
violent extremism and criminality.
    Our approach assumes the continuation of limited available 
resources, both financial and personnel, to accomplish U.S. objectives. 
Thus, Africa Command will continue to operate with security force 
assistance as the decisive effort of our strategy. However, any 
reduction to our already optimized (but limited) resources would impact 
Africa Command's ability to support the National Security Strategy and 
National Military Strategy objectives.
Theater Posture
    Our command approach is driven by a light, adaptable footprint 
enabling joint operations, protection of U.S. personnel and facilities, 
crisis response, and security cooperation. We continue to maintain one 
forward operating site on the continent, Camp Lemonnier, Djibouti, home 
of Combined Joint Task Force Horn of Africa, Africa Command's lead for 
East Africa efforts. This base is essential to United States efforts in 
East Africa and the Arabian Peninsula. Camp Lemonnier serves as a hub 
for multiple operations and security cooperation activities, assuring 
access in the region, freedom of movement through the Gulf of Aden, and 
protecting U.S. interests. The importance of our forward operating site 
was evident during the execution, the past summer, of Operation Oaken 
Steel, the reinforcement of the United States Embassy in Juba, South 
Sudan, to ensure the protection of embassy personnel during the 
conflict between rival factions. For this operation, United States 
Forces based out of Camp Lemonnier, as well as Moron, Spain, deployed 
to our cooperative security location in Entebbe, Uganda, which provided 
an effective staging location for rapid crisis response.
    As part of the 2017 Theater Posture Plan, Africa Command closed 
five contingency locations and designated seven new contingency 
locations on the continent due to shifting requirements and identified 
gaps in our ability to counter threats and support ongoing operations. 
These contingency locations strive to provide the necessary access in 
crucial areas aligned with the Theater Campaign Plan.
Theater Campaign Plan (2-5 Years)
    Africa Command's Theater Campaign Plan seeks to disrupt and 
neutralize transnational threats by building African partner defense 
capability and capacity, as directed in the 2015 National Security 
Strategy, in order to promote regional security, stability, and 
prosperity, while always protecting U.S. personnel and facilities and 
the United States' access on the continent. This approach balances 
efforts to strengthen defense institutions and conduct counterterrorism 
operations with African partners and international allies, such as 
France and the UK, in order to disrupt, degrade, and eventually defeat 
extremists. Additionally, Africa Command conducts assessments to 
measure the effectiveness of our security cooperation activities to 
ensure our Theater Campaign Plan is achieving the desired results.
    Africa Command is currently operating along five Lines of Efforts 
(LOE) 1) Neutralize al-Shabaab and transition the security 
responsibilities of the African Union Mission in Somalia (AMISOM) to 
the Federal Government of Somalia (FGS); 2) Degrade violent extremist 
organizations in the Sahel Maghreb and contain instability in Libya; 3) 
Contain and degrade Boko Haram; 4) Interdict illicit activity in the 
Gulf of Guinea and Central Africa with willing and capable African 
partners; and 5) Build peacekeeping, humanitarian assistance, and 
disaster response capacity of African partners.
LOE 1:  Neutralize al-Shabaab and Transition AMISOM to the FGS
    In 2015, AMISOM recaptured significant territory from al-Shabaab, 
al-Qaeda's pre-eminent affiliate in East Africa. In 2016 after 
Ethiopian forces, operating independently from AMISOM, withdrew from 
Somalia, al-Shabaab regained some territory, and, today, the group 
continues to conduct attacks on AMISOM forces, the FGS, and the Somali 
National Security Forces (SNSF). We have also seen followers of ISIS 
begin to make in-roads into Somalia, which will further test AMISOM 
forces and the FGS. Sustained conflict and prolonged food insecurity 
have driven approximately one million refugees out of Somalia and into 
neighboring countries, like Kenya, who struggle with overflowing 
refugee settlements. Current and anticipated drought conditions have 
led to poor harvests and increased food insecurity throughout East 
Africa that has increased the risk of famine in Somalia. Large scale 
refugee migrations can destabilize regions already stressed to meet the 
basic needs of its own populations.
    Ten years of operations in Somalia have left AMISOM troop 
contributing countries fatigued. Somalia is dependent on AMISOM forces 
to provide security and conduct counter-terror operations. AMISOM is 
scheduled to begin withdrawing in 2018, and if this departure begins 
prior to Somalia having capable security forces, large portions of 
Somalia are at risk of returning to al-Shabaab control or potentially 
allowing ISIS to gain a stronger foothold in the country.
    Africa Command supports our partners' efforts to neutralize al-
Shabaab and other violent extremist organizations operating in Somalia 
and supports the transfer of security responsibilities from AMISOM to 
the SNSF once conditions allow. Africa Command and the Department of 
State, working with a substantial international security assistance 
effort well-coordinated by the UN Special Representative to the 
Secretary General, operates through the venue of the Security Six (UN, 
European Union, United States, UK, Turkey, and the United Arab 
Emirates). This international effort aims to demonstrate sufficient 
progress in building the SNSF in 2017 to justify an extension of AMISOM 
beyond 2019. Central to the United States approach in Somalia is our 
partnership with the FGS. Working with the Department of State, we are 
encouraging the FGS to come to an inclusive agreement on its security 
architecture in order to build a sustainable SNSF that accounts for 
regional dynamics and continue to reach out to the regional and local 
governments of Somalia.
    Africa Command continues to support the counter-terrorism efforts, 
assist AMISOM troop contributing countries, assist in equipping and 
training the SNSF, enable international partners in their training 
efforts, and protect United States personnel in Somalia and the region. 
Our advise, assist, and accompany efforts, paired with our deliberate 
targeting of top-level al-Shabaab leadership, have had a significant 
impact in degrading al-Shabaab's effectiveness in East Africa, but 
those two efforts are not enduring solutions to Somalia's problems.
    With the inauguration of President Mohamed Abdullahi ``Farmajo'' 
Mohamed in February 2017, Somalia has seen its first-ever peaceful 
transition of power and first non-transitional government since 2006. 
President Farmajo's platform promotes good governance and anti-
corruption, and he has indicated further opening the door for increased 
coordination with the United States and the international community. 
His widespread popularity within Somalia suggests he has a personal 
interest in helping push the country towards one-person one-vote 
elections in 2020.
    While we continue to work with the Security Six partners to 
coordinate our efforts in support of the SNSF, our support to AMISOM 
troop contributing countries is constrained by the use of security 
cooperation funding and associated processes designed to train and 
equip forces over the long term rather than to support current 
operations. The new Chapter 16 authorities in the 2017 National Defense 
Authorization Act provide the needed funding flexibility--multi-year 
monies and up to five years sustainment monies--to further the progress 
of degrading and ultimately defeating al-Shabaab while protecting 
United States interests in East Africa. Africa Command is working with 
OSD and Congress to accelerate the notification and approval timelines 
to better tailor our training and equipping efforts with our AMISOM and 
Somalia partners.
LOE 2:  Degrade Violent Extremist Organizations in the Sahel Maghreb 
        and Contain Instability in Libya
    The instability in Libya and North Africa may be the most 
significant, near-term threat to United States and allies' interests on 
the continent. The multiple militias and fractured relationship between 
factions in east and west Libya exacerbate the security situation, 
spilling into Tunisia and Egypt and the broader Maghreb, allowing the 
movement of foreign fighters, enabling the flow of migrants out of 
Libya to Europe and elsewhere. Africa Command is working to ensure 
United States interests are protected and to enable our African 
partners to contain instability originating in Libya, counter violent 
extremist organizations in the Sahel-Maghreb, and develop the requisite 
defense institutions to maintain security in the region.
    Stability in Libya is a long-term proposition requiring strategic 
patience as the Libyan Government of National Accord (GNA) forms and 
develops. We must maintain pressure on the ISIS-Libya network 
concurrently with Libya's efforts to progress with political 
reconciliation. This is a significant challenge given Libya's 
absorption capacity for international support remains limited, as is 
our ability to influence political reconciliation between competing 
factions, particularly between the GNA and the House of 
Representatives. We must carefully choose where and with whom we work 
with to counter ISIS-Libya in order not to shift the balance between 
factions and risk sparking greater conflict in Libya.
            Degrade ISIS-Libya Network
    Our operations in Libya support the global coalition's efforts to 
defeat ISIS-Libya. Operation Oddysey Lightning (OOL) enabled GNA-
aligned forces to successfully liberate the city of Sirte from ISIS 
control. However, even with the success of Sirte, ISIS-Libya remains a 
regional threat with intent to target United States persons and 
interests. We will continue to support Libyan partners and an 
international coalition to defeat ISIS-Libya and build the capacity of 
the region while limiting civilian casualties. OOL can serve as a model 
for future U.S. operations in the region by improving the battlefield 
capabilities and ethics of a partnered force, working on the partner's 
timeline without following planning-mandated timelines, remaining 
flexible to keep an international force together and most importantly, 
limiting civilian casualties.
            Support the Government of National Accord (GNA)
    Despite its success in Sirte, the GNA continues to struggle with 
controlling Tripoli, providing basic services, and exercising authority 
over security forces. The political situation in Libya remains 
extremely dynamic, and the GNA faces a host of political, economic, and 
security challenges. We continue to support the diplomatic, 
stabilization, and development activities of the U.S. Interagency. We 
must also continue to promote development of responsive and effective 
governance and ensure the rights of all Libyans are respected. These 
are foundational to long-term regional security. Additionally, the 
House of Representatives (HoR)--and their military arm, the Libyan 
National Army (LNA)--must play a constructive role in the development 
of a unified, functioning Libyan Government. While we recognize Libya's 
struggle for a unified government remains uncertain and may not 
materialize within the foreseeable future, a national security 
structure solution accommodating the HoR and LNA provides a path 
forward.
    In an effort to counter regional instability, Africa Command 
supports partners like Tunisia, a major non-NATO Ally. Africa Command 
is assisting the Tunisian military to develop and sustain Special 
Forces, border security capabilities and Tunisia's intelligence 
capability. Working with the intelligence community and our component 
commands, Africa Command is training Tunisian intelligence 
organizations through train, advise, and assist mentors. Our efforts 
include helping Tunisia to establish an intelligence school, an 
intelligence fusion center, and the development of a professional 
intelligence career field within the Ministry of Defense. This model 
demonstrates an effective means of building initial counterterrorism 
intelligence capacity, and then transitioning to sustainable 
intelligence capacity building within a partner's intelligence 
organizations, all focused on unit vice individual development. We also 
work with Tunisia to develop and enhance its rotary wing capabilities. 
Through foreign military sales and excess defense articles programs, 
Tunisia has procured eight UH-60M Blackhawks and 24 OH-58D Kiowa 
Warrior helicopters. Tunisia expects the Blackhawks to function as a 
multirole aircraft providing casualty evacuation, troop transport, and 
air assault capabilities, and the Kiowas to provide much needed 
reconnaissance, precision strike, and close air support capabilities. 
With the assistance of ongoing U.S.-provided air-to-ground integration 
training, these helicopters, added to the Tunisian operational 
inventory, sustained in part by the Department of State's Foreign 
Military Financing will provide better speed and response time during 
crises and a major boost to the modernization and capabilities of the 
Tunisian Armed Forces to conduct counterterrorism and border security 
operations in Tunisia.
            Al Qaeda in the Lands of the Islamic Maghreb (AQIM)
    Along with the threat posed by ISIS, AQIM remains a significant 
threat to United States interests and the security of our African 
partners. AQIM in Mali continues to exploit ethnic resentments in 
central Mali and spread their influence rendering large areas of the 
country ungovernable. With Operation BARKHANE, France continues to lead 
the fight to counter violent extremists throughout the Sahel region. 
However, Mali's path toward greater stability and security remains 
unclear. The government, ex-rebel armed groups, and pro-government 
militias have demonstrated little political will to implement the peace 
accord signed in June 2015 and continue to commit human rights 
violations against civilians. The framework of political reforms and 
security measures, though imperfect, are the only existing solution for 
Mali to emerge, without further bloodshed, from the crisis that began 
in 2012.
    We continue to support France's counterterrorism operations in Mali 
against al-Qaeda affiliate groups and seek to increase our 
synchronization and coordination with their efforts. Continued airlift 
and logistical support is essential to France's efforts, and we must 
continue to provide this support if progress is to happen in this 
volatile region. Additionally, with the Department of State, we 
continue to support the troop contributing countries to the UN 
Multidimensional Integrated Stabilization Mission in Mali, which 
currently provides some measure of security in northern Mali. We 
continue to look for opportunities to take a more active role in 
defeating AQIM and supporting the accountable, inclusive governance 
that is key to durability and protecting our interests throughout the 
regions.
LOE 3:  Contain and Degrade Boko Haram and ISIS-West Africa
    A primary focus for Africa Command in West Africa is containing and 
degrading Boko Haram and its offshoot since last year, ISIS-West 
Africa. Since 2010, Boko Haram has carried out attacks against 
civilians and directly targeted partner regional governments and 
military forces in the Lake Chad Basin (Nigeria, Niger, Cameroon, and 
Chad). Africa Command works with our Lake Chad Basin partners to expand 
partner capacity and capabilities to support regional cooperation and 
expand our African partner capacity and capabilities to ensure Boko 
Haram and ISIS-West Africa does not threaten partner, allied, or United 
States interests and do not destabilize the region.
    The Multinational Joint Task Force (MNJTF), an African-inspired and 
African-led initiative that includes Benin, Cameroon, Chad, Niger, and 
Nigeria, provides a critically important venue for planning and 
coordinating security operations and for linking intelligence to these 
operations. As a result, the MNJTF and its member states have 
considerable successes in enabling multinational cooperation and 
coordinating multinational operations, and have placed significant 
pressure on Boko Haram and ISIS-West Africa. Thanks to this pressure, 
Boko Haram and ISIS-West Africa are less able to inflict mass 
casualties than in the past, and they control only a fraction of the 
territory they occupied in 2014 and early 2015. Nonetheless, through 
the continuing threat of asymmetric attacks, Boko Haram and ISIS-West 
Africa sustain a reign of terror across much of Northeastern Nigeria 
and the border areas of the neighboring Lake Chad Basin countries, thus 
preventing millions of displaced persons from returning to their homes.
    The advent of ISIS-West Africa adds a new dimension to the 
insecurity of the Lake Chad Basin. This group, with official ties to 
ISIS, operates in a more disciplined fashion than Boko Haram; by 
avoiding attacks against Sunni Muslims and by forging relations with 
the local population, ISIS-West Africa could take deeper root in the 
Lake Chad Basin region, thus making it a greater threat to our 
partners. Although determined to defeat Boko Haram and ISIS-West Africa 
and return stability to the region, the MNJTF faces significant 
challenges in maintaining pressure on Boko Haram and ISIS-West Africa 
while simultaneously addressing competing individual security 
requirements in the face of individual financial constraints.
    Africa Command, while not engaged in direct military operations, 
supports the efforts of our Lake Chad Basin partners to counter Boko 
Haram and ISIS-West Africa by providing advisors, intelligence, 
training and equipment to complement other United States-provided 
equipment and logistical support. The P3 (France, U.K., United States) 
Cellule de Coordination et de Liaison (Coordination and Liaison Cell-
CCL) coordinates international support to the MNJTF and its member 
states to ensure that such support is complementary and effective. This 
past December, the U.S. assumed 6-month rotational leadership of the 
CCL for the first time, and we are taking full advantage of this 
opportunity to strengthen P3 support for the MNJTF and its member 
states.
    Africa Command provides security force assistance directly to 
regional military partners in order to enable operations and build 
institutional capacity over the long term. For example, in 2016, we 
provided Niger two ISR-equipped Cessnas to enhance Niger's capacity to 
collect ISR to support its efforts to fight terrorism. This added 
capacity has had an important impact in bolstering Niger's ability to 
fight the terrorists. In 2017 we intend to provide Chad and Cameroon 
each with two ISR-capable Cessnas. Additionally, in Chad, we are 
working to strengthen border reconnaissance forces with training and 
equipment to bolster its intelligence, surveillance, and reconnaissance 
(ISR) capabilities. Cameroon likewise is a major recipient of United 
States security assistance via train and equip programs. In fiscal year 
2016 and fiscal year 2017, the United States invested over $123 million 
to expand Cameroonian ISR, command and control, and counter-terrorism 
force and logistics capabilities.
    While regional partners have assisted in slowing the progress of 
Boko Haram and ISIS-West Africa, long-term success requires Nigeria to 
address development, governance, and economic deficiencies exacerbated 
by the humanitarian emergency, which serve as drivers of violent 
extremism in northeastern Nigeria and throughout the Lake Chad Basin 
region. Under the current Government of Nigeria's leadership, Nigeria 
is making progress but must still overcome systemic corruption and 
build the trust of civilian populations, including by protecting human 
rights abuses and holding accountable those who are responsible for 
abuses. Nigeria's success in addressing these governance and 
development issues is key to an enduring solution in the Lake Chad 
Basin.
    Despite gains made against Boko Haram and ISIS-West Africa, nearly 
two million people remain displaced from their homes in Nigeria, and 
over 400,000 others are displaced in Niger, Chad, and Cameroon. 
Moreover, the international humanitarian community has identified 
famine conditions throughout the areas of hostility in northeast 
Nigeria, and continued violence in these areas prevents responders from 
delivering life-saving assistance, prolonging a man-made food crisis. 
Refugees and internally displaced persons mostly reside informally in 
makeshift camps or mixed in with host communities, which are themselves 
under great stress to meet basic needs and are vulnerable to 
exploitation. The large numbers flowing into receiving communities--
some already stressed to meet basic food and security needs--may have a 
destabilizing effect on these communities. Africa Command continues to 
coordinate with the Department of State and USAID, who work closely 
with the United Nations and non-governmental organizations to alleviate 
suffering, implement reintegration programs, and promote stability in 
the region.
LOE 4:  Interdict Illicit Activity in the Gulf of Guinea and Central 
        Africa with Willing and Capable African Partners
    Africa Command also supports our African partners, international 
partners, and Interagency partners to interdict and counter illicit 
actors and their activities in Central Africa and the Gulf of Guinea. 
Our priority effort is to build the institutional capacity of our 
African partners to address the many forms of illicit activity that 
threaten their security and regional stability. This mission requires a 
whole-of-government approach, and we work closely with the Department 
of State, Department of Treasury/FBI, and components of the Department 
of Homeland Security to synchronize our approach and complement each 
other's efforts. These efforts are enhanced by having the Interagency 
embedded within Africa Command, a benefit to our mission.
            Countering the Lord's Resistance Army
    In Central Africa, led by the efforts of Special Operations 
Command-Africa, we have focused on working with the African Union 
Regional Task Force (AU-RTF) to counter the Lord's Resistance Army 
(LRA), one of the many illicit actors operating in the region. Uganda, 
the Democratic Republic of the Congo, the Central African Republic, and 
South Sudan have contributed forces to the AU-RTF, which has led 
military efforts to reduce the LRA's safe havens, capture key leaders, 
and promote defections. With advice and assistance from U.S. forces, 
the AU-RTF has been largely successful.
    Through the combined efforts of military forces, civilian agencies, 
and non-governmental organizations, the LRA is not a threat to central 
governments and populations centers, but reduced to areas of ungoverned 
spaces. Today, although the group's leader, Joseph Kony, remains at 
large, we estimate fewer than 150 Lord's Resistance Army fighters 
remain, and communities are better prepared to protect themselves.
            Maritime Security in the Gulf of Guinea
    Despite decreased United States reliance on African oil imports 
over the past three years, the resource-rich Gulf of Guinea region 
remains a strategic interest to the United States due to its role in 
the global oil market, its strategic location close to a major maritime 
trade route, the more than 74,000 American citizens in the area, and 
its exploitation as a transit point for illicit trafficking from the 
Americas to Europe. In the Gulf of Guinea, maritime security sector 
assistance consists of long-term efforts to build the capacity of 
African partners to achieve combined maritime law enforcement 
operations between the partners. Africa Command strongly supports the 
implementation of the 2013 Yaounde Code of Conduct through regional 
strategic zone agreements. The agreements promote shared law 
enforcement responsibility against piracy and armed robbery at sea; 
trafficking of drugs, arms, and persons; and illegal, underreported, 
and unregulated fishing. Cross-water boundary tracking and interdiction 
missions have been widely successful, and we look forward to working 
with our partners in the region to expand the capability in the coming 
years.
    In 2017, the Gulf of Guinea Commission will meet to finalize the 
Code of Conduct, converting the document into a binding agreement 
providing a valuable mechanism to build accountable governance, 
strengthen port and vessel security, and improve transparency. 
Furthering the building of maritime capacity, Belgium, France, Germany, 
and the UK regularly participate in regional maritime exercises and 
operations. Africa Command's efforts, led by United States Naval Forces 
Africa, target assistance and capacity building through the African 
Partnership Station, Exercise Obangame Express, and the Africa Maritime 
Law Enforcement Partnership Program.
LOE 5:  Build Peacekeeping, Humanitarian Assistance, and Disaster 
        Response Capacity of African Partners
    Africa Command supports United States Governmental efforts that 
enable African partners across the African continent to support 
disaster response and peace operations within their region or 
throughout Africa. Through the Defense Threat Reduction Agency (DTRA), 
our implementing partner, we build our partner's capacity to secure 
pathogens of security concern and improve partners' capabilities to 
respond to the deliberate or accidental release of materials of concern 
and to support civilian-led responses to infectious diseases. The 
Africa Partner Outbreak Response promotes effective military-civilian 
partnerships in the health and security communities and leverages best 
practices among African partners. Africa Command's support to this 
initiative maintains health security and mitigates the risks of another 
epidemic emanating from the continent.
    Another important implementing partner to Africa Command's crisis 
and disaster response efforts is the National Guard's State Partnership 
Program (SPP). The SPP and their African partners have improved 
disaster management competency and readiness to support civilian-led 
efforts. Currently, SPP has established partnerships with thirteen 
African nations to advance Africa Command and partner objectives. 
Africa Command continues to see the value of the National Guard's 
continuous engagement and fully support SPP's efforts.
    Additional programs building the capacity of our African partners 
are the Global Peace Operations Initiative (GPOI), the African 
Peacekeeping Rapid Response Partnership (APRRP) and the Women, Peace, 
and Security (WPS) programs. In partnership with the Department of 
State, GPOI is working to strengthen international capacity and 
capabilities to execute UN and regional peacekeeping operations. Though 
it is a global program, the preponderance of GPOI work is on the 
African continent, with 22 active African partner countries. Through 
GPOI, we aim to build sustainable, self-sufficient peace operations 
proficiencies in almost half of the countries in Africa to deploy and 
operate in UN and regional peace operations. We are also working 
collaboratively with U.S. and international stakeholders to improve the 
operational effectiveness of these missions. APRRP supplements the work 
we do through GPOI, enabling a deeper investment in six of the most 
capable African peacekeeping contributing countries to build their 
capacity to rapidly respond to emerging crises on the continent. 
Through APRRP, we are developing key enabling capabilities such as 
aviation; medical; engineering; logistics; command, control, 
communications, and information systems; and formed police units. GPOI 
and APRRP do not only help us to build the peacekeeping capabilities of 
partners in Africa (both for long-term sustainment or expansion of 
current contributions and for rapid response to emerging crises), but 
they also help to professionalize militaries through our training and 
equipping support, enhance defense institutions through their capacity 
building approach, and deepen our mil-mil partnerships.
    Africa Command recognizes for capacity building efforts to be 
effective, they need to align with Women, Peace, and Security (WPS) 
objectives. We do this by integrating a gender perspective into our 
military activities through two main efforts: 1) staff training and 
awareness, and 2) integration into the Theater Campaign Plan. For 
training and awareness, Africa Command hosts the Gender in Military 
Operations program, which solicits perspectives from African partners 
on gender issues within their military and during operations. For 
campaign planning, we integrate WPS concepts into peacekeeping capacity 
building, mil-to-mil engagements; training on human rights, rule of 
law, gender-based violence; and peacekeeping exercises. WPS works to 
professionalize our partners' militaries and build their effectiveness 
to meet security challenges.
    Africa Command's primary engagement with Southern Africa is also 
through this line of effort. Along with being the most stable region in 
Africa, the region fields some of the most professional and capable 
military forces on the continent. For example, at the August 2016 
Southern Africa Regional Leaders Seminar, topics such as climate 
change, environmental issues, uncontrolled migration, and health and 
disease capacity building were discussed, which speaks to Southern 
Africa's capacity to address advanced, global security issues. In the 
past year, South Africa, Zambia, and Malawi have contributed to United 
Nations peacekeeping operations in Sudan, South Sudan, the Central 
African Republic and the Democratic Republic of the Congo. Furthermore, 
Malawi will host the upcoming Africa Land Forces Summit and Exercise 
Africa Endeavor, and South Africa is hosting Exercise Shared Accord to 
further develop its capacity to support peacekeeping operations. We are 
complementing Department of State efforts to train and deploy 
peacekeepers with development of the defense institutions necessary to 
promote sustained regional stability over time. Africa Command will 
also continue to develop the capacity of Southern African troop 
contributors to the UN Missions in the Central African Republic, the 
Democratic Republic of the Congo, and South Sudan.
    Our efforts, and those of the Department of State to build 
sustainable and self-sufficient peace operations capacity, to include 
rapid response capabilities, sustainable force generation and training 
institutions, and modest improvements to strategic mobility, enable our 
partners across East, North, West, Central, and Southern Africa to lead 
the response to the threats, man-made or natural, facing their regions.
                       implementing our approach
            Synchronization with Partners
    Africa Command relies on our strong international, interagency, and 
multinational relationships to achieve our objectives. Africa Command 
works with international partners to synchronize operations and 
security force assistance on the continent. Fourteen of our 
international partners are represented at Africa Command, co-located in 
our Multi-National Coordination Cell (MNCC). One particularly powerful 
enabler is the Regionally Aligned Forces (RAF) concept (managed via 
United States Army Africa), which allows for relatively easy access to 
unassigned forces. The RAF executes a significant share of the Theater 
Security Cooperation activities in Africa, contributing meaningfully to 
mission success. Additionally, the United States leads and participates 
in multilateral planning groups for East Africa, North Africa, the 
Sahel Maghreb, and Naval Forces Africa recently concluded flag-level 
staff talks with its French service component counterpart to 
synchronize our combined strategic approach in the Gulf of Guinea. In 
East Africa, we are synchronizing security force assistance to AMISOM 
troop contributing countries and the SNSF. In North Africa, 
international partners are positioned to support international planning 
in support of stabilization efforts in Libya as conditions allow. In 
the Sahel Maghreb, we have begun to coordinate activities and do 
multilateral planning in support to the MNJTF in the Lake Chad Basin 
and operations in Mali.
    Also important to Africa Command's efforts are the diplomatic and 
development efforts of our Interagency partners, Department of State 
and USAID. Over the past three years, we have established an annual 
Africa Strategic Dialogue and Africa Strategic Integration Conference 
to coordinate and integrate our activities with the Department of State 
and USAID, working hand in hand to build the capacity of our partners 
and strengthen African defense institutions. In partnership with the 
Department of State, the Security Governance Initiative (SGI) builds 
the capacity of civilian and defense institutions who provide oversight 
to the security sector. With the six SGI partners (Ghana, Kenya, Mali, 
Niger, Nigeria, Tunisia), we support efforts to strengthen governance 
across the security sector. These long-term SGI efforts will improve 
the effectiveness and sustainability of U.S. security assistance 
investments and activities.
    Also essential to our mission is our relationship with other 
combatant commands. We coordinate with European Command for shared 
response forces. We rely heavily on our European allies such as Spain, 
Italy, and Greece for force projection out of southern Europe. Without 
these relationships, we could not execute our missions on the 
continent. We also coordinate with Central Command for shared response 
forces as well as Egypt and Arabian Peninsula equities. Lastly, we 
coordinate with Special Operations Command (through Special Operations 
Command-Africa) for counter-terrorism strategy and operations. An 
example of our cooperation with other combatant commands, both 
Operation Odyssey Lightning and Operation Oaken Steel required assets 
outside of Africa Command's assigned forces for extended periods of 
time, and this close cooperation helped achieve mission success in an 
efficient manner.
            Security Force Assistance Resources
    Our recent success in building the capacity and defense 
institutions of our African partners was only possible with funding 
provided by Congress through the Counter-Terrorism Partnership Fund 
(CTPF) and other programs. This funding, and the authorities provided 
to build the capacity of foreign security forces, has been essential to 
our success in enabling African partners and enhancing their capability 
to counter extremist organization within their borders and in support 
of collective regional efforts. Africa Command appreciates the 
flexibility provided by Congress with the new section 333 authority. We 
will continue to prioritize crucial airlift, ISR, command and control 
systems, sustainment, and force structure development of our African 
partners. We will ensure our investments in African defense 
institutions continue to directly support United States national 
interests.
    Programs such as the before-mentioned Security Governance 
Initiative and Counter-Terrorism Partnership Fund provide us the 
ability to work with our partners to strengthen their institutions. 
Institutions fashioned in accordance with the rule of law, protecting 
African citizens, and providing inclusive opportunities. Sustaining our 
efforts at current if not increased level of priority will ultimately 
determine if building partner capacity succeeds and if our African 
partners can improve security environments and progress toward good 
governance.
            Capability Constraints
    Africa's security environment is dynamic and complex requiring 
innovative solutions. Even with limited resources or capabilities, 
Africa Command leans forward, working with partners and allies, to 
execute its mission and mitigate risk. While the command has been able 
to succeed in multiple efforts, our mission is impacted by inconsistent 
resourcing of key requirements and capabilities. These constraints risk 
our soldiers, sailors, airmen, marines, coast guardsmen, and civilians 
executing activities on the African continent. For example, only 
approximately 20-30 percent of Africa Command's ISR requirements are 
met. This limits situational understanding, support to operations, and 
fails to offer threat indications and warnings. For personnel recovery, 
Africa Command relies heavily on contract Search and Rescue assets due 
to lack of dedicated assets to support operations. Furthermore, African 
partners lack the capability and capacity to assist with personnel 
recovery missions. Integrating personnel recovery and surgical 
stabilization/medical sustainment capabilities are a moral obligation 
and essential for the proper care of U.S. servicemembers who risk their 
lives to protect our nation. Africa lacks a theater distribution 
network to support our forces. This issue manifests itself most 
significantly in West Africa where we have approximately 1,000 
personnel conducting 12 named operations across a nine nation region. 
This capability gap forces our personnel to revert to costly and 
ineffective ad hoc solutions. An effective hub and spoke distribution 
system would consolidate cargo, replace multiple commercial contracts, 
and eliminate the use of heavy military cargo planes and deliver an 
efficient low volume/low frequency sustainment solution. In Operation 
Odyssey Lightning (OOL), the United States military effort to support 
the Libyan Government against the ISIS, incorporating Afloat Forward 
Staging Base and amphibious ship capability into operational planning 
added to the successful execution of the mission. Currently, Africa 
Command has an unfilled requirement to maintain this capability, which 
would serve to fill critical personnel recovery and casualty evacuation 
shortfalls. Additionally, this amphibious capability, during OOL, 
supported maritime-based ISR operations, and Africa Command could 
further exploit this capability to support additional operations 
against regional threats.
    Our capability constraints are most profound in our support to the 
Department of State-led mission to protect U.S. personnel and 
facilities. Flexible posture through our cooperative security locations 
and contingency locations, complemented by the highly-valued Special 
Purpose Marine Air Ground Task Force-Crisis Response at Moron Air Base, 
Spain the United States Special Operations Force-led Crisis Response 
Force in Baumholder, Germany and the East Africa Response Force in 
Djibouti, provide response options during crises. However, the tyranny 
of distance posed by the continent challenges that responsiveness, and 
we knowingly accept risk for operations. To mitigate this risk, 
finalizing the development of key cooperative security locations 
through Defense Cooperation Agreements with host nations, coupled with 
accurate indications and warnings from increased ISR and the ability to 
recover and evacuate our personnel, will ensure swift crisis response 
to all our embassy locations in Africa.
Looking Toward the Future
    Moving forward, United States Africa Command continues execute its 
mission on the African continent. We continue to focus our decisive 
effort on building African partner capacity--and supporting African 
solutions to African problems. We continue to work closely with 
international and Interagency partners to make small, wise investments 
which pay huge dividends in building stable and effective governments--
the foundation for long-term security in Africa. I am confident that 
with your support, Africa Command will protect and promote United 
States interests and keep the United States safe from threats emanating 
from Africa. Thank you for your continued support to our mission and to 
the soldiers, sailors, airmen, marines, coast guardsmen, civilians, 
contractors, and families of the United States Africa Command.

    Chairman McCain. Thank you, General.
    General Votel, do you agree that we are in a stalemate in 
Afghanistan after 15 years?
    General Votel. Mr. Chairman, I do.
    Chairman McCain. In some measurements, maybe you could 
argue that when we go from control of 72 percent of the country 
to 52 percent, that is worse than a stalemate.
    Would you agree that one of the most disturbing things 
about the attack on the hospital yesterday--that attack was 
carried out by ISIS, not by the Taliban, which shows at least 
to this person that we are seeing an increase in influence of 
ISIS, as well as Russia providing weapons and the Iranians 
playing a greater role than in the past.
    I guess my question is, are we developing a strategy to 
break the stalemate, and is it going to require additional U.S. 
troops?
    General Votel. Mr. Chairman, the answer to your question is 
yes, we are developing a strategy, and we are in discussions 
with the Secretary and the Department right now. Both General 
Nicholson and I are forming our best advice and recommendations 
to the Secretary, and we look forward to moving forward with 
that.
    I do believe it will involve additional forces to ensure 
that we can make the advise and assist mission more effective.
    Chairman McCain. Already you have received a capability on 
rules of engagement which enhance your abilities to combat the 
enemy. Is that correct?
    General Votel. That is correct.
    Chairman McCain. We have got a very interesting and 
challenging situation in Syria, and that is the whole issue of 
the Kurds, our relationship with them, Erdogan's relationship 
with them, the importance of the use of Insurlik, the 
importance of our relationship with Turkey. I met with 
President Erdogan in Ankara recently. He is passionately 
opposed to Kurdish involvement and our support of the Kurds 
that I understand are going to be a very vital element in 
expediting the retaking of Raqqa.
    This is a complex situation, and it would take all my time, 
as you know, to go through all this. But I think there is a 
possibility of an impending conflict between Turkey and the 
Kurds as opposed to us all working together to try to defeat 
ISIS and remove them from Raqqa. Do you see that as a scenario 
that we should be concerned about?
    General Votel. I do, Mr. Chairman, and to that end, we are 
trying to take actions to prevent that from occurring.
    Chairman McCain. Well, we find ourselves in kind of a 
strange situation that we and the Russians are allied against 
the Turks, as far as the Kurds are concerned. Is that a correct 
assessment?
    General Votel. I would not necessarily say that we are 
aligned against the Turks. We certainly understand what their 
interests are and we understand their concerns about the 
partners that we are working with. Turkey is a vital partner in 
this effort here. We could not do what we are doing without 
them. Our efforts are to try to work through this tension 
through dialogue, through information, and through identifying 
alternatives that give us a way to move forward against ISIS 
without damaging the long-term relationship with a NATO 
partner.
    Chairman McCain. Well, as you know, we are working with the 
Kurds and arming and training them, and they are a very 
effective fighting force, the same Kurds that Erdogan has 
labeled as a terrorist organization and, in the view of some, a 
greater threat to Turkey than ISIS is.
    Who is going to sort all this out?
    General Votel. Well, I think there certainly has to be an 
effort, Mr. Chairman, at the military level, and there has to 
be an effort at the political level to address this.
    Chairman McCain. I am not sure there is an understanding of 
how seriously Erdogan views this issue, and I am not sure we 
appreciate the importance of the role that Turkey plays in our 
effort to retake Raqqa particularly in the use of Insurlik and 
other activities that require Turkish cooperation. Unless 
something changes, I foresee a train wreck here, and I am not 
sure that the administration recognizes how seriously 
particularly President Erdogan views the threat that he views 
that the Kurds oppose.
    Finally, General Waldhauser, let us talk about Libya a 
second. Who is the most powerful influence in Libya today? 
Briefly, what is the answer to this chaos?
    General Waldhauser. Thank you, Senator.
    It is difficult to say who is the most powerful partner 
right now inside Libya. If you took polls, you would see that 
the Libyan National Army has got great support in the east and 
the GNA [Government of National Accord] has support in the 
west. There needs to be accommodation of those two 
organizations in order to get to a political solution there.
    Chairman McCain. Does it bother you that Haftar has been 
visiting with the Russians and went out to a Russian carrier? 
Obviously, now the Russians may be assuming a role in Libya 
that they never had before.
    General Waldhauser. It is very concerning, Senator. Haftar 
has visited, as you said, on the carrier with the Russians. He 
has also visited in the country of Russia. Also this week, as 
reported in the open press, Siraj from the Government of 
National Accord has also visited Russia.
    Chairman McCain. As is the case with Afghanistan that I 
mentioned, I hope we will be developing a strategy as regards 
to Libya as the volatility of that situation can clearly lead 
to the rise of ISIS and other extremist organizations, as I 
know you are well aware, General.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    General Votel, you are now in the process of evaluating the 
mission and the strategy. For many years, the mission seemed to 
be very clear with respect to Syria and to Iraq of degrade and 
defeat ISIS. Now there are activities particularly around 
Manbij where you are in the process of trying to separate 
forces. The issue here really is not only define the mission, 
but preventing mission creep in terms of starting to find 
ourselves committed not just to destroying ISIS but to somehow 
refereeing a very complicated situation with Russians, Assad 
forces, anti-Assad forces, Turkish forces, Kurdish forces, and 
an array of other forces that you can allude to.
    How are you going to prevent that mission creep, or is 
there that possibility?
    General Votel. Well, thank you, Senator. Yes, I do agree. 
If we are not careful, we could find ourselves in a different 
situation. The presence of our forces in Manbij is not new to 
just the current situation. They have actually been on the 
ground since Manbij was secured here six or 7 months ago. They 
are principally there to ensure that ISIS is not able to 
reestablish itself in the area. We have undertaken a number of 
operations in that particular regard.
    As the situation is currently played out, that is the 
principal focus of our elements there. They do have the benefit 
by virtue of being there to also provide overwatch and, I would 
add, a measure of assurance not just for our local partners on 
the ground there, but I would also suggest for our Turkish 
partners. We understand what their concerns are about undue 
Kurdish influence in this particular area. The best way that we 
can keep an eye on that I think is through our well trained SOF 
[Special Operations Forces] forces on the ground.
    Senator Reed. One of the areas I touched upon in my 
comments was the interagency. General Waldhauser, can you 
accomplish your mission in AFRICOM if you do not have rather 
robust support by the State Department and other agencies, 
including our European allies?
    General Waldhauser. The short answer, Senator, is no, we 
cannot. We work very closely with various agencies, USAID, the 
State Department, and the like. I could give numerous examples 
if you would like of how we partner with them and how they 
contribute to development, which is so important in our 
mission.
    Senator Reed. Thank you.
    General Votel, likewise?
    General Votel. I absolutely agree.
    Senator Reed. As we go forward in terms of the new strategy 
that the President is asking for, one point he made was 
requesting a recommendation to change any U.S. rules of 
engagement and other U.S. policy restrictions that exceed the 
requirements of an international war. My sense is that the 
requirements and the authorities that the military has asked 
for is, one, they can do the job, but two, they also do things 
like minimize civilian casualties, provide for an appropriate 
relationship with the local populations, which helps you rather 
than hurts you. Is that still the sensitivity that you have? I 
mean, adherence to the minimum international law might not be 
the smartest military approach.
    General Votel. Well, we conduct all of our operations, of 
course, in accordance with the Law of Armed Conflict, and we 
bring our values to the fight wherever we are.
    I do not think those are particular limitations on us at 
this particular point. My advice here moving forward has been 
to ensure that our forces have the operational agility to 
maintain pressure and sustain our approach of presenting ISIS 
with multiple dilemmas and really pursuing a military strategy 
of simultaneous operations to really overwhelm them quickly. 
The preponderance of our discussions and our recommendations 
really fell within that area.
    Senator Reed. But again, the rules that we have adopted 
have been based on best military policy, not just adherence to 
arbitrary rules. We minimize casualties because it has an 
effect on the population that will hurt our operations. Is that 
correct?
    General Votel. Senator, that is absolutely correct. Seven 
hundred fifty thousand people in the west portion of Mosul. We 
certainly have to conduct our operations with the full 
knowledge that that is the situation.
    Senator Reed. Again, gentlemen, thank you for your service, 
and I look forward to continuing these discussions. Thank you.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    General Waldhauser, as you and I discussed in my office, 
Senator Rounds and I just returned from several areas in your 
command. You know, when you stop and look at it, it seems like 
it has been shorter than that, but it has been ten years since 
we started AFRICOM. The continent used to be divided in three 
different commands. Now, since that time, we have had a lot of 
successes.
    General Rodriguez, one of your predecessors said, ``Africa 
is an enduring interest to the United States and its importance 
will continue to increase as African economies, population, and 
influence grow.'' Do you agree with that statement?
    General Waldhauser. Senator, I do.
    Senator Inhofe. It was not long ago when Chuck Wald had the 
job that you have right now. He talked about the significance 
of Phase Zero. He actually wrote an article about the Phase 
Zero campaign, why is Phase Zero important, and how does it 
apply to AFRICOM. Could you make any comments about that?
    General Waldhauser. Senator, thank you. What I would say to 
that question is that the ability to engage with the population 
and have such exercises and engagements with agencies, as was 
previously described, things like education, health care, jobs 
for the significant youth bulge that is in Africa is very, very 
important. We have got to get at these drivers that make these 
individuals, young men especially, want to join groups like al-
Shabaab. In order to get at that part of the problem, we need 
to be engaged with education, health care, jobs, and the like.
    Senator Inhofe. To preclude something from happening, head 
it off at the pass. I would agree with that.
    We were also in Afghanistan, General Votel, and we met with 
our servicemembers and, of course, the new President. General 
Nicholson and I--I think maybe we might be in my opinion--and I 
might be influenced by the fact that I knew the new president's 
predecessor, and there is no comparison. Summing up kind of 
what General Nicholson said--I will read this--a need for a 
long-term coalition commitment to Afghanistan, a need for 
increased coalition forces for training and assisting the 
Afghan military, the strength and the commitment of the Afghan 
people who want to take their country back from the insurgents, 
shifting the focus to winning versus not losing, the high 
casualty rate among the Afghan forces, the increase in 
territory controlled by the Taliban, the importance of cutting 
the Taliban's access to financing their operations.
    Do you pretty much agree with his assessment with what the 
situation is there?
    General Votel. I do, Senator.
    Senator Inhofe. Do you think that maybe, when we get some 
of these less than optimistic reports in these committee 
hearings that we have, that you get a little bit different idea 
when you are actually there? One of the things that I think we 
are not factoring in enough would be President Ghani. I would 
like to have your idea as to what a difference that can make 
because I can remember sitting there with his predecessor and 
then evaluating the situation, what his commitment is right now 
and what he really believes his people are going to be able to 
do.
    General Votel. Senator, I absolutely agree with you. I do 
think we cannot overestimate the strategic advantage of having 
a leader like President Ghani in place. His willingness to 
partner, his visionary ideas about this, and his general 
approach to bringing the coalition on board I think have been 
very good, and I think they provide us a very good opportunity 
to build upon.
    Senator Inhofe. With him and with your experience from the 
last fighting season that we had, since we are coming up now to 
the next fighting season, do you have any projection as to 
differences we might see with that leadership and where we are 
right now?
    General Votel. I think that we will continue to see very 
steady leadership from President Ghani and his government 
through the next fighting season. I think the challenge that we 
will have will be sustaining the Afghan forces as they move 
forward. As you have noted, as others have noted, they have 
absorbed a lot of casualties, and yet they have been resilient 
through that. But there is a need to ensure that they get into 
a normal operational cycle that allows them to recover, to 
rebuild themselves, to reset themselves, and then get back into 
the fight. I think that as we move forward, that will be the 
challenge that General Nicholson and I will have to manage.
    Senator Inhofe. I would agree with that. I think that there 
is an effect that the new president has on the fighting troops 
over there, on theirs, that will yield a better performance.
    Thank you, Mr. Chairman.
    Chairman McCain. The fighting season has begun earlier than 
ever in Afghanistan. True, General?
    General Votel. I think the fighting season does not end. I 
agree with you, Senator.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to both of you today for testifying. I appreciate 
all that you do. You have a very difficult job and both of you 
do it with honor. Thank you so much for your service to our 
country.
    I represent in Michigan probably the largest Arab American, 
Muslim American community here in the United States and had an 
opportunity just recently to meet with a number of community 
members at the Islamic Center and heard some great concern from 
the Yemeni American community as to what they are seeing in 
Yemen in terms of Saudi Arabia and the operations, what seems 
to be indiscriminate bombing, the killing of large numbers of 
civilians. I think, according to some estimates, close to 4,000 
civilians have been killed in Yemen by a Saudi Arabian-led air 
campaign, which appears to them as indiscriminate and, 
according to them, does great damage to the United States. 
People see those Saudi attacks as related to the United States. 
There has been increasing recruitment for folks who want to do 
harm to the United States because of the actions that are being 
undertaken by the Saudi Arabians.
    So if you could comment, General Votel, a little bit about 
what is happening there to us, and what do you assess the cause 
of the large number of civilian casualties that we are seeing 
in Yemen and what can we do to reduce that?
    General Votel. Thank you for the question, Senator.
    I attribute those types of situations more to the 
competence of the forces that are operating there and their 
ability to properly target. As you are aware, we do not provide 
intelligence for those things. We do not make decisions for 
them.
    But yet, we have a relationship with Saudi Arabia. At my 
level and at levels below me, my air commander, a variety of 
subordinate commanders, we have engaged with our partner 
leaders in Saudi Arabia to talk to them about the effects of 
this and to provide opportunities for them to learn from our 
experience in terms of this and improve their capabilities in 
this particular regard. I think they have done that.
    In addition, I personally have reached out and talked to my 
counterpart about the importance of reaching out to 
international organizations like the ICRC [International 
Committee of the Red Cross], Doctors Without Borders, who also 
operate in these areas, and ask that they establish 
relationships and begin a discussion between the Saudi Arabian 
Government and Ministry of Defense and these particular 
organizations so we can better understand what is happening on 
the ground and we can begin to work through this. I am very 
happy to tell you that that is taking place now.
    Senator Peters. So you would characterize this as a 
training issue as opposed to some other factor that is 
causing----
    General Votel. I do not attribute it to deliberate 
decisions to target civilians. I attribute it to a growing need 
to develop a better and more precise targeting process for 
their operations.
    Senator Peters. Are we able to assist them in that?
    General Votel. We do not assist them directly with 
targeting on the ground, but we are able to, through our 
experience and through our people, engage them and help with 
their professionalism and give them the benefit of our 
experience and tactics, techniques, procedures, processes that 
we use to try to absolutely minimize those types of events. We 
are doing that.
    Senator Peters. Well, it is good to hear. Thank you.
    General Votel, to move to Syria now, you were recently 
quoted in The New York Times about saying that we want to bring 
the right capabilities forward, not all of those necessarily 
resident in the special operations community. If we need 
additional artillery or things like that, I want to bring those 
forward to augment our operations. I note today in the news 
there was an artillery unit that I believe is being positioned 
in Syria now.
    In your estimate, what is the right mix of conventional and 
special operations forces that are going to be required to 
succeed in Syria?
    General Votel. Senator, I am not sure I can give you an 
exact percentage-wise mix of this. But what I can tell you is 
that the way that we operate today with our special operations 
forces and unique capabilities they bring, through our 
experience of the last 15 or 16 years, we have become very 
comfortable and capable of operating together.
    What I have pledged to our commanders and what I expect 
from them is for them to ask for the capabilities that we need 
and then for us to ensure that we have the right command and 
control, the right force protection, the right resources in 
place to ensure that it can function properly together. That to 
me is much more important than a particular mix of whatever the 
capabilities are. I think as we move more towards the latter 
part of these operations into more of the stability and other 
aspects of the operations, we will see more conventional forces 
requirements perhaps.
    Senator Peters. Thank you, General.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Let us get back to Afghanistan, General 
Votel. Do the Afghan people support the presence of the United 
States there?
    General Votel. I believe that they do, Senator.
    Senator Wicker. How do you measure that?
    General Votel. I think we measure that by favorability 
ratings that we see of them for the Government of Afghanistan 
and the activities that they are pursuing. I think we measure 
that through our direct contact with them with teams that we 
have out there on the ground and others that interact with the 
Afghan people on a regular basis.
    Senator Wicker. As a matter of fact, several years ago, 
there was a loya jirga convened of most Afghan leaders, and 
they overwhelmingly were in support of the United States 
presence there to protect them against what had happened 
before.
    Has there been another loya jirga, or do we simply assume 
that the elected leadership of the government represents them?
    General Votel. There has not been another loya jirga I 
think of the same scope that you referenced, Senator. But we do 
pay attention to the polling. I would note in some recent polls 
that I have seen, the favorability ratings for the Taliban are 
very low in the 6 to 7 percent range as opposed to much, much 
higher for the Government of Afghanistan.
    Senator Wicker. You had strong praise for President Ghani. 
How is the relationship there between the president and Mr. 
Abdullah who is his nearest competitor?
    General Votel. It has improved significantly. I contribute 
that directly to the engagement of our ambassadors on the 
ground who have personally invested in that and worked that 
relationship, and it has had a positive impact on our 
operations.
    Senator Wicker. Well, that is good to hear.
    Now, the information we have--and the chairman alluded to 
this--the Afghan Government controls 57 percent of the 
country's districts. A year and a half ago, that figure was 72 
percent. What happened?
    General Votel. Senator, I would tell you that there are 
other numbers out there. We have some slightly different ones, 
but they are in the general ball park of what you are saying.
    Senator Wicker. Generally, those numbers are correct.
    General Votel. In general.
    Senator Wicker. There has been a significant drop, as the 
chairman said, in a year and a half.
    General Votel. There have been areas that we would put into 
the contested space area here that have increased over the last 
year.
    Senator Wicker. Your testimony would be that this has not 
happened because the support among the Afghan people of our 
efforts has diminished.
    General Votel. I do not think so.
    Senator Wicker. Something we did?
    General Votel. I think this is the effect of the fighting 
that is taking place and of the efforts by the Taliban to be 
more resurgent in specific areas in Afghanistan.
    Senator Wicker. Well, okay. General Nicholson said in 
talking about the stalemate that what will break the stalemate 
are offensive capabilities such as special forces and allowing 
the air force to overmatch the Taliban. Also he said we have a 
shortfall of a few thousand troops in Afghanistan for the 
train, advise, and assist mission. Would you talk about those 
two aspects, and would you support a few thousand more American 
troops to get the job done in this mission?
    General Votel. Senator, with respect to the last part of 
your question, that is certainly a discussion we are having 
with the Secretary right now. I will not pre-stage a decision 
here. That is certainly his regard. But certainly I agree with 
what General Nicholson's approach is. I do agree that one of 
our efforts to improve the capabilities and equipment of the 
Afghan Air Force is a big part of this, as is improving and 
expanding their special operations capability.
    Senator Wicker. Thank you.
    General Waldhauser, the Wasp amphibious expedition did over 
100 consecutive days of strikes. It is considered to be an 
impressive success. What lessons have we learned from that 
deployment, and are we sending you what you need to get the job 
done in that respect?
    General Waldhauser. The Wasp and Marine aviation that was 
on board that ship was a significant contributor to the GNA 
forces and ridding Sirte of ISIS.
    Lessons learned at the tactical level have to do with 
coordination on the ground and special forces who were there on 
the ground, but I think it is important to point out that from 
1 August until middle of December there were nearly 500 
strikes. Most of them came from ISR platforms, but a lot of 
them, as you said, came from the ship. I think the ability to 
have zero civilian casualties in a very, very dense urban 
environment underscores the training and the professionalism of 
those who were conducting that operation.
    In sum, that was a huge asset for us. We actually borrowed 
it from CENTCOM in order to make it happen, but that is how we 
have to do business these days. AFRICOM and CENTCOM coordinate 
on various trans-regional asset changes, and that was an 
example where it worked very well.
    Senator Wicker. Thank you, sir.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General Votel and General Waldhauser, thank you both for 
your testimony and for your service.
    General Votel, there has already been reference to the 
marines who have arrived in Syria. The Washington Post story 
this morning reports that the battalion landing team, 1st 
Battalion, 4th Marines, will man the guns and deliver fire 
support for U.S.-backed local forces who are preparing an 
assault on the city.
    First of all, is that accurate, and should we take that to 
mean an assault is imminent in Raqqa?
    General Votel. Well, certainly we will not talk about any 
timings of any of our particular operations. But our intention 
here with this--and this fell within the authorities that are 
provided to me right now was to ensure that we had redundant 
capable fire support on the ground to support our partners and 
ensure that we could take advantage of opportunities and ensure 
the continued progress that we have been seeing.
    Senator Shaheen. Are you comfortable that that gives us 
that progress and support that we need?
    General Votel. In conjunction with our excellent coalition 
air forces, yes, I am very confident that that will help us.
    Senator Shaheen. Thank you.
    Yesterday in our meeting--and we heard similar comments 
from General Nicholson when he was here talking about Russian 
influence in Afghanistan. They are trying to legitimize the 
Taliban and undermine our mission and NATO's mission there. Can 
you talk about what alternatives we have to respond to Russian 
activities there?
    General Votel. I think the best alternative that we have is 
to ensure that we demonstrate our commitment to the mission 
that we have in place here with the Government of Afghanistan. 
Certainly with our twofold mission, we focused on 
counterterrorism and then, of course, the train, advise, and 
assist mission. The most important thing we can do is send a 
very clear message that we are going to see this mission 
through and support the Government of Afghanistan in the way 
that they require with military capabilities and other things 
to ensure that they can be successful.
    Senator Shaheen. To what extent does our effort in Eastern 
Europe with NATO affect Russia's ability to undermine what we 
are doing in Afghanistan? How much do they need to be focused 
on what is happening in Eastern Europe?
    General Votel. From my perspective, I would like them 
totally focused on Eastern Europe and not on Afghanistan. I am 
being a little facetious here. I am not sure that I can comment 
that there is necessarily a direct relationship between that, 
Senator. Certainly I think if their attention can be drawn to 
other challenges, other problems that they are focused on, that 
helps us.
    Senator Shaheen. General Waldhauser, in your statement, you 
point out that long-term success in slowing the progress of 
Boko Haram and ISIS in West Africa requires Nigeria to address 
development, governance, and economic deficiencies, which are 
drivers of terrorism in that region. As we look at the future 
where one in four Africans are Nigerian, what happens in 
Nigeria has a huge impact on what happens throughout the rest 
of Africa. Do you agree with that?
    General Waldhauser. I most definitely do. With 182 million 
people in that country--it is the seventh largest country in 
the world--what happens there has a significant impact not only 
on the continent, but it could be in Europe and the United 
States as well.
    Senator Shaheen. To what extent do we feel like they are 
addressing the threat from Boko Haram and also addressing those 
deficiencies that have existed there?
    General Waldhauser. Senator, two weeks ago, I was in Abuja 
and talked with the acting vice president, and he is very, very 
aware of the fact that there is still much work that needs to 
be done in northeastern Nigeria both with Boko Haram and ISIS-
West Africa. I came away from that visit in a positive way 
because there have been some human rights issues with the 
Nigerians, but they are taking that on. I mean, they are making 
some progress there. But I think the acting vice president or 
acting president understands there is still a threat. Boko 
Haram has weakened a bit, but they are still a threat. ISIS-
West Africa is still there and they are still a threat. But 
this Lake Chad Basin region task force has been doing fairly 
well with at least trying to keep the problem inside the 
Nigerian borders.
    Senator Shaheen. Are they working to address the historic 
divisions between the Christian southern part of the country 
and the Muslim north? Are there any initiatives underway that 
help to resolve some of those historic conflicts?
    General Waldhauser. Senator, I am not aware of any per se. 
I would just say that in my discussions with senior leadership 
there two weeks ago, they have a fairly wide-ranging and 
overarching strategy of where they want to go which ultimately 
will turn over northeastern Nigeria to the police forces.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    General Votel, since the nuclear deal with Iran was 
announced, Iran's behavior in the region, its support for 
terrorism, and its domestic repression--it appears to have 
gotten worse. Iran wields significant power in Syria, Lebanon, 
Iraq, and Yemen, and it seeks to destabilize our key allies. 
What do you see as Iran's goal in the region?
    General Votel. Senator, I believe Iran seeks to be the 
regional hegemon, to be the most influential country in the 
region.
    Senator Fischer. How would you characterize Iran's regional 
behavior since the nuclear agreement? Has it improved or has it 
worsened?
    General Votel. I would describe it as destabilizing to the 
region. It has not been helpful to anything that I can see 
going on across the region.
    Senator Fischer. How would you characterize Iran's 
relationship with Russia in the region?
    General Votel. Again, not having firsthand knowledge on 
that, I guess I would characterize it as they find areas of 
cooperation. I am particularly concerned how both Iran and 
Russia have cooperated to prop up the Assad regime and make 
them stronger. That is certainly of some concern. I do see that 
level of cooperation being very unhelpful to the things that we 
are doing across the region. I do not know what the long-term 
views of each of these countries might be and how that might 
play out, but it certainly looks like they are taking the 
opportunity of convenience to join efforts in some regard.
    Senator Fischer. I wanted to ask you your long-term view 
with regards to the United States and our position in the 
region, first of all, just with Iran's destabilizing activities 
but also with their relationship with Russia. Can you give us 
in your best opinion how that affects the United States and our 
involvement?
    General Votel. I can, Senator, and I will offer you my 
observation. It is based on my travels throughout the region 
over the last year and meeting with our partners across many of 
the countries. My consistent takeaway here is that the partners 
in the region would strongly prefer to have a relationship with 
the United States over any other nation that might be external 
to the Middle East. I think that is an opportunity for us to 
move forward on. We have long-term historical relationships 
with many of these countries, and we should capitalize on that 
as we move forward. I think that offers us the best 
opportunity.
    Senator Fischer. As we look over the last year, we have 
seen Iran has escalated its harassment of our vessels, our 
personnel in the Persian Gulf. Just last week, multiple fast 
attack vessels from the IRGC came close to a U.S. Navy ship in 
the Strait of Hormuz, and they forced it to change direction.
    What is CENTCOM doing to address that harassment that we 
are seeing by Iran?
    General Votel. First off, we are ensuring that our maritime 
forces have all the right rules of engagement and capabilities 
and training and techniques to deal with that, and I do believe 
they are effectively doing that. One of the first things I did 
after coming into command was get on a ship and go through the 
Straits of Hormuz so I could see it with my own eyes, and I was 
extraordinarily impressed with the maturity of our sailors and 
the judgment of our leaders as we went through that.
    More broadly, I think we have to hold Iran accountable for 
their actions. No other nation operates the way they do in the 
Arabian Gulf. Nobody does that in the Arabian Gulf. They need 
to be held accountable for that and they need to be exposed for 
those types of unprofessional, unsafe, and abnormal activities.
    Senator Fischer. It sounds like you are very concerned with 
Iran's growing asymmetrical capabilities, and that includes its 
acquisition of advanced cruise missiles, I would assume.
    General Votel. It does, Senator.
    Senator Fischer. What about naval mines, ballistic 
missiles, and UAVs [Unmanned Ariel Vehicles]? I guess when we 
are looking at our interests in the Persian Gulf and our 
allies' interests in the Persian Gulf, how do those growing 
threats affect that?
    General Votel. The way they affect us is they provide Iran 
with a layered capability where they can use their fast boats, 
they can use cruise missiles, they can use radars, they can use 
UAVs to potentially dominate specific areas. So this is a 
concern, and it is something that certainly we look at in our 
capabilities and it is something that we have engaged our 
partners in the region on on how we work together to mitigate 
the effects of that layered approach that Iran pursues in these 
critical chokepoints.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you for being here.
    I would like to return to an issue raised by Senator Reed. 
There is a big debate going on right now, as you know, about 
military spending, and of course, we need a strong military. 
But the military is not the only element of our national 
security strategy. Spending on security outside the military 
budget is very small. Diplomacy and development combined is 
about 1 percent of our annual budget, but it includes programs 
that promote democracy, human rights, the rule of law that 
boost economic growth, that improve access to education, that 
fight hunger, that treat infectious diseases, and it provides 
disaster relief around the world.
    General Votel and General Waldhauser, you command our armed 
forces in some of the most active and dangerous parts of the 
world. Do you think the activities of the State Department and 
other civilian partners are a waste of time and taxpayer money?
    General Votel. I do not, Senator.
    Senator Warren. Thank you.
    General Waldhauser. Senator, nor do I. They are a big part 
of what we do.
    Senator Warren. Thank you. I agree. But the Trump 
administration's blueprint budget would increase defense 
spending in some areas by massively slashing through other 
programs that are critical for our national security. Not every 
international problem is the same and the right tool is not 
always a military response. Recapping our State Department by 
cutting an already small foreign aid budget makes America less 
safe, and that is just not smart.
    I would like to turn to another issue, and that is the 
ongoing fight against ISIS in Iraq and in Syria. General Votel, 
you contributed to the Pentagon's plan to accelerate the fight 
against ISIS which Secretary Mattis delivered to the White 
House last week. I have every confidence that the U.S. military 
can defeat ISIS on the battlefield and help retake 
strategically important cities.
    But what I want to ask you is about what comes next. You 
are going to be mediating between armed opposition forces that 
dislike each other intensely in cities where existing 
infrastructure has been completely destroyed with a population 
that has been traumatized and displaced. What will it take to 
create conditions for normal life to resume in Mosul and Raqqa?
    General Votel. I think it starts certainly following up our 
military operations with good local governance and addressing 
humanitarian aid, addressing issues like demining, of restoring 
basic services to the people, of trying to bring additional aid 
in there so small businesses and other things can get going, 
and then the bigger aspects of governance can begin to take 
place. As we look at our military operations, particularly as 
we look at places like Raqqa or Mosul, what we have tried to do 
is ensure that our military planning is very closely linked to 
the political planning, what comes next so that we do not just 
finish a military operation and then just leave. It is 
important that we have local hold forces. It is important that 
we predetermine local governance that is going to come in and 
begin to take this over. I think that is an extraordinarily 
important point. The transition from military operations to the 
stability operations and things that come next I think is a 
significant lesson learned for us--relearned for us many times, 
and it is something that we have specifically focused on in 
this campaign.
    Senator Warren. Thank you. I am very glad to hear that, 
General. Planning for peace is hard. We did not do it after we 
toppled Saddam Hussein, and we are still paying a price for 
that blindness today. I do not want to see us turn around and 
make that same mistake again. I think we need to be very 
careful that we do not create an environment that breeds the 
next generation of extremists, and I am grateful for your work 
in this area. I am grateful to both of you for all that you are 
doing. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator Cotton.
    Senator Cotton. Thank you.
    Gentlemen, welcome back to the committee.
    General Waldhauser, you were speaking with Senator Shaheen 
about Nigeria and the role that it plays not just in the 
African continent but around the world. Could you speak a 
little bit about what President Buhari's absence from the 
country means and what the status is right now of Nigerian 
politics for the committee?
    General Waldhauser. Senator, I would just have to say that 
open source reporting indicates that he is still in London 
receiving medical help. That was a topic that was not discussed 
with officials when I was there.
    But what I did observe was acting President Osinbajo has 
done extremely well. He is very competent. He has a, I would 
say, very wide view of the problems and issues, and he seems to 
want to get after them. He was definitely genuinely interested 
in making things happen, and I thought we had some very frank 
discussions with him on the way ahead with regard to our 
support for the defeat of ISIL-West Africa and Boko Haram.
    Senator Cotton. What is the level of political consensus 
and stability between the north and the south in that country 
right now?
    General Waldhauser. I really could not give you a fair 
assessment of that. It was not part of the discussion. We did 
not have that topic.
    Senator Cotton. I understand.
    Looking to the east, would you please discuss the strategic 
implications of China's new base in Djibouti and what it means 
for our presence there and throughout the Horn of Africa?
    General Waldhauser. The Chinese base is right outside Camp 
Lemonnier, about 4 miles or so from our base. The intention for 
that location was to provide a port for their ships to have in 
the area. They have about 2,200 peacekeepers on the continent. 
This is the first time for them that they have kind of 
journeyed in that direction. So right now, it is due to be 
completed later this summer.
    I would just say the concern that I have from an 
operational perspective is the operational security when we 
operate so close to a Chinese base. The Camp Lemonnier-Djibouti 
area is not only AFRICOM, but CENTCOM uses it, SOCOM uses it, 
TRANSCOM, EUCOM, and the like. It is a very strategic location, 
and visiting Djiboutian officials twice, I have talked with 
their president and expressed our concerns about some of the 
things that are important to us about what the Chinese can or 
cannot do at that location.
    Senator Cotton. Thank you.
    General Votel, you have already spoken with several 
Senators this morning about the stalemate in Afghanistan. For 
many years now, we on this committee and many leaders in the 
executive branch have been lamenting the existence of 
sanctuaries for the Taliban and other terrorist groups in 
Pakistan. As you think about the strategy to break this 
stalemate, what is the role of eliminating those sanctuaries 
inside of Pakistan? How do you plan to get after this 
longstanding problem?
    General Votel. Thank you, Senator.
    Pakistan, of course, remains a key partner in this fight 
here. I have been encouraged by my meetings with the new Chief 
of Army Staff, General Bajwan, and his commitment to help 
address this. They have done some things that have been helpful 
to us. Most recently they have supported General Nicholson in 
some operations along the border, making sure that they were 
well coordinated and doing the activities on their side of the 
border. That is a very positive sign and a move in the right 
direction. They have done things against the principal concerns 
that we have, the Haqqani Network and Taliban. But what we do 
need is we need that to be more persistent and continue to 
focus in that particular area. We will continue to engage with 
Pakistan throughout this.
    I think it is key to ensure that Pakistan and Afghanistan 
have a very good relationship. There certainly are tensions 
along the common border between those countries. I think a key 
role that we can play is in helping move that relationship 
forward.
    Senator Cotton. Let me ask you about a seam on the map 
between you and Harry Harris, but it is an important seam 
because it involves Pakistan and Afghanistan and India and 
PACOM [United States Pacific Command]. To what extent do you 
think Pakistan's Afghan policy is driven in part by its India 
policy and, in particular, whether an independent Afghanistan 
conducting its own foreign policy might be adverse to Pakistani 
interests?
    General Votel. Senator, I think Pakistan's view of the 
region I think as they look at their interests, it plays very 
largely in how they look at both sides of their country.
    Senator Cotton. One final question. Since the 1970s, 
Russia's influence throughout the Middle East has been minimal, 
thanks in large part to the diplomacy of Henry Kissinger and 
Presidents Nixon and Ford. How would you assess the level of 
Russia's influence in the region today?
    General Votel. Russia is attempting to increase their 
influence throughout the Middle East, as we have seen in Syria. 
We have seen them do things certainly with our longstanding 
partner Egypt and others across the region. It is my view that 
they are trying to increase their influence in this critical 
part of the globe.
    Senator Cotton. Do you think they have been successful in 
any of those attempts thus far?
    General Votel. Well, they certainly have been successful in 
supporting the Assad regime, and so that is certainly an 
example of that. I am hopeful that we will be able to reassert 
our own relationships as well.
    Senator Cotton. Thank you, gentlemen.
    Senator Reed. On behalf of Chairman McCain, let me 
recognize Senator King.
    Senator King. Thank you, Senator Reed.
    General Votel, let us talk about four areas where we are 
engaged in conflict: Iraq, Syria, Yemen, and Afghanistan.
    By the way, I want to compliment you on your written 
statement. It is a primer on the region that I think should be 
required reading for everyone in this body. It is very well 
done, very thoughtful, and comprehensive.
    Who are our allies in Iraq? Who are we fighting next to? 
The ISF [Iraqi Security Forces]. Right?
    General Votel. That is correct, Senator.
    Senator King. And the Kurds.
    General Votel. The Peshmerga in the northern part of Iraq.
    Senator King. What religion are the members of the ISF and 
the Kurds?
    General Votel. They are Muslims.
    Senator King. In Syria we have got the Syrian Democratic 
Forces and also the Kurds?
    General Votel. We have Syrian Kurds and we are working with 
local Syrian Arabs, Turkmen and in some cases local Christian 
forces.
    Senator King. But the vast majority of those forces are 
Muslim. Is that correct?
    General Votel. That is correct.
    Senator King. In Yemen, UAE [United Arab Emirates], Saudi 
Arabia, those forces are Muslim?
    General Votel. Absolutely.
    Senator King. In Afghanistan, the ANSF, the Afghan National 
Security Forces, also Muslim?
    General Votel. They are Muslim.
    Senator King. One of the statements you made in your 
opening comments was that our strategy rests upon, quote, a 
heavy reliance on indigenous forces. Is that correct?
    General Votel. That is correct, Senator.
    Senator King. It is fair to say that the vast majority of 
those indigenous forces are Muslim.
    General Votel. That is the case today.
    Senator King. So it would be a mistake as a matter of 
national policy, rhetoric, or discussion if we attempted to 
alienate or marginalize Muslim citizens of anywhere in the 
world because these are our allies in all of the fights that we 
are engaged in in your area. Is that not correct?
    General Votel. I believe it is correct, Senator.
    Senator King. You talked about restoring trust with our 
partners in the region. Our partners in the region are all 
based upon Muslim societies. Is that not correct?
    General Votel. They largely are. It is largely a Muslim 
area.
    Senator King. The second area--and this has been discussed 
to some extent but again it is in your report on page 3 and 5 
of your statement. The goals that you define cannot be 
accomplished solely through military means, you say. The 
military can help create the necessary conditions. There must 
be concomitant progress in other complementary areas, 
reconstruction, humanitarian aid, stabilization, political 
reconciliation. On page 5, you say, however, solely a military 
response is not sufficient. This must be accomplished through a 
combination of capabilities if we are going to achieve and 
sustain our strongest deterrence posture.
    Again, just to put a fine point on what has been discussed 
previously, to solely rely on military strength in solving 
these very complex and difficult problems would be a serious 
mistake. Would you agree?
    General Votel. I would agree, Senator. I think we have to 
have a combination of all of our elements of power, hard power 
and soft power.
    Senator King. Thank you.
    Next question. This is a slightly different subject. You 
work with a lot of these allies. You work with these countries, 
with Iraq and other countries in the region. How would it be 
received in the Arab world if the United States relocates its 
embassy from Tel Aviv to Jerusalem without a settlement of the 
Palestinian-Israeli conflict?
    General Votel. I think from my personal discussions with 
some in the region, I think that it would create some 
challenges for some of those countries.
    Senator King. Some challenges? Can you expand? Serious 
challenges?
    General Votel. It could potentially be very serious.
    Senator King. Does that include our staunch ally Jordan?
    General Votel. I believe, yes, sir, it does, Senator.
    Senator King. Thank you.
    Final question to both of you. Foreign military sales and 
foreign military financing programs--are they appropriately 
calibrated to meet your needs in the region? My sense is that 
that is an area where we could use some work.
    General Votel. From my perspective, Senator, the importance 
of the foreign military sales and foreign military funding 
programs is to help build capability for our partners that is 
interoperable with us. They generally want to buy U.S. 
equipment because it comes along with training. It comes along 
with sustainment, and it makes them more interoperable with us. 
I think we have to take a long-term view in terms of this, and 
I think it is in our interests for our partners in the region 
to use capabilities that are interoperable with ours.
    Senator King. General Waldhauser, in just a few seconds I 
have left, a quick update on the status of ISIS in Libya.
    General Waldhauser. The status of ISIS in Libya is they 
right now are regrouping. They are in small numbers, small 
groups. We tried to develop the intelligence, but after they 
left Sirte, we developed intelligence. We bombed them on 
January 18th and they were in the southern part of Libya. They 
have scattered again now. They are in small groups trying to 
regroup.
    Senator King. No longer control Sirte.
    General Waldhauser. Correct. No longer control Sirte. They 
were out of Sirte in the middle of December.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. By the way, General Votel, 
just to complicate things further, Barzani, the leader of the 
Iraqi Kurds, does not support the KRG, the Syrian Kurds. Right?
    General Votel. That is correct, Chairman.
    Senator King. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here today and your time 
and attention to all of our questions.
    General Votel, we had an interesting conversation the other 
day, and as the chair of the Emerging Threats and Capabilities 
Subcommittee, you mentioned something to me that I thought was 
very interesting and something that I am concerned about. That 
is the increasing threat that is posed by ISIS's ability to use 
drones. We had a great conversation about that. What they are 
using you say was kind of a modified commercial, off-the-shelf 
drone. Can you tell us about that emerging threat and maybe 
describe for those on the committee exactly what they are using 
and what those capabilities are?
    General Votel. Thank you, Senator.
    What we are seeing I think are commercially acquired 
drones. They are generally quadcopters that are available I 
think very easily by anybody online or at other places, 
hobbyist locations. What they are able to do is, obviously, 
operate them for purposes of their own surveillance, and as we 
have seen in the news, in some cases they have been able to rig 
grenades and other things to them. They have been able to 
achieve some effects with that.
    It is concerning to our partners. It is certainly 
concerning to us. I think it is a reminder of just how savvy 
and challenging of an enemy that we are dealing with here, and 
I think it requires us to make sure that we are equally savvy 
in our approach to this, making sure we have the right tools to 
defend against these types of threats.
    Senator Ernst. Absolutely. Thank you. It reminds me of the 
early part of the Iraq war when the forces were using remote 
controlled cars with explosives as a first form of IEDs 
[Improvised Explosive Device]. Of course, through the years, 
they grew technologically advanced. I see something so simple 
as this that could become much more complicated over time.
    Do the Iraqi forces have the capabilities to defeat those 
drones?
    General Votel. We are working on providing them the 
capabilities. Right now, they enjoy protection against these 
threats in a number of areas largely because we have 
capabilities with our forces that are accompanying them and are 
located in their locations.
    Senator Ernst. Very good. Thank you.
    We also spoke about troop numbers yesterday and how random 
some of those numbers tend to be when you have that artificial 
boundary of a country line between Iraq and Syria. If you 
could, please share with the committee what is our role in 
that. Should that role of troop numbers and where those troops 
are located be left up to our on-the-ground combatant 
commanders? If you could just share a little bit of that 
conversation.
    General Votel. Senator, I think the more we can provide 
agility for our commanders on the ground to make decisions 
about where they need forces and when they need it, I think 
that is the most appropriate thing that can be done. I think we 
are most successful when we enable our very good and well 
qualified leaders and people on the ground to make decisions in 
the situations in which they see it. I am for making sure that 
we try to provide them the agility and the process around that. 
We certainly understand why it is important to look at things 
like numbers and stuff like that. It certainly drives our 
resources and budgeting and other aspects of that. That 
certainly has to be taken into consideration. But I look at 
this more from a flexibility and agility standpoint for our 
commanders on the ground.
    Senator Ernst. Thank you very much.
    General Waldhauser, thank you as well.
    As you know, Tunisia has sent more foreign fighters than 
any other country to join the ranks of ISIS abroad. In addition 
to supplying the foreign fighters, Tunisia struggles with 
containing the terrorist activity on their own soil, so much 
that they have had a physical wall built along the border with 
Libya in an attempt to deter terrorists from entering their 
country.
    Is AFRICOM currently equipped to address the potential 
influx of ISIS fighters returning home to Tunisia as we strike 
them elsewhere, whether it is in the Middle East or other 
places?
    General Waldhauser. Senator, I would have to characterize 
Tunisia as one of the bright spots on the continent. They are 
in the process of transforming their military to be more 
capable of dealing with terrorist threats. They have purchased 
equipment from the United States, which we are helping them 
with right now, helicopters and the like. We have people on the 
ground who are training, advising, and assisting their special 
operations forces. I believe the wall that you refer to is 
technical equipment provided by DTRA [Defense Threat Reduction 
Agency], as well as Germany, to help them contain the foreign 
fighter flow back and forth between especially Libya and 
Tunisia.
    But the bottom line is they are a bright spot. I visited 
them twice, and they are headed in the right direction. They 
are struggling with what to do with foreign fighters who 
return, but again, I think that is not a negative against them.
    Senator Ernst. Very good. Well, I appreciate it. Gentlemen, 
thank you very much for your input.
    Senator Reed [presiding]. Thank you.
    On behalf of Chairman McCain, let me recognize Senator 
Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to thank both of you for your service and, as you 
did in your testimony, General Votel, the outstanding men and 
women under both your commands who make us proud and who are 
doing such great work under your command. I want to join 
Senator King in thanking you for your testimony, which is a 
very, very enlightening for me, elucidating outline of the 
challenges and I would note for my colleagues particularly in 
your description of the next generation of cyber warriors or 
the use of cyber warfare by our adversaries going from the 
rather rudimentary weapons of the roadside bombs to the much 
more sophisticated use of cyber and, as my colleague has 
pointed out, drones and other challenges that face us there.
    I want to focus on Iran. In response to Senator Fischer's 
question about whether Iranian aggression has increased since 
the nuclear treaty, you pointed out that their conduct there 
has been destabilizing--the word you used was 
``destabilizing''--and abnormal. Of course, we know Iran has 
tested an anti-ship ballistic missile there, a new Russian made 
S-300 missile air defense system, as well as harassing a Navy 
ship, the USS Invincible, in the Strait of Hormuz by sending an 
Iranian frigate within, I think, 150 yards, smaller boats 
within 600 yards. Last month, the Iranians fired a medium-range 
ballistic missile in violation of the U.S. Security Council 
resolution resulting in United States sanctions enforcement 
against 25 individuals and entities. That action was in 
violation of the U.N. resolution. But none of these other 
activities are in violation of the nuclear agreement. Are they?
    General Votel. My understanding, Senator, is the nuclear 
agreement did not address any of those other aspects of the 
Iranian threat.
    Senator Blumenthal. But would you agree with me that they 
do demand a response from the United States?
    General Votel. I would absolutely agree, Senator.
    Senator Blumenthal. Much more aggressive not only sanctions 
but warnings and actions against their partners in this effort, 
most prominently the Russians.
    General Votel. I would agree. I think we should use a 
combination of both diplomatic and other security-related tools 
here, economic tools to address this concern.
    Senator Blumenthal. Would you agree with me that the 
Russians through the Iranians, in effect, are testing us in 
that area because they are, in effect, aiding and abetting the 
Iranians in this increasing destabilizing activity?
    General Votel. Well, I would, Senator, and I would 
certainly point to a place like Syria where these two countries 
have essentially propped up a regime here and made them more 
capable, more powerful, and kept them from collapsing.
    Senator Blumenthal. But when we complain about the 
Iranians--and all of us probably in this room would agree with 
you that they are the major destabilizing influence in that 
area--we are talking as much about the Russians as we are about 
the Iranians.
    General Votel. Senator, in my comments here I was 
specifically talking about the Iranian threat. That is the one 
that we confront with. Certainly, as I mentioned also in my 
opening statement here, we are concerned about external actors 
and what their interests are in the region as well, and those 
can contribute to more destabilizing aspects as well. I think 
they have to be addressed--they both have to be addressed.
    Senator Blumenthal. How would you suggest that we should 
address the Iranian destabilizing influence of this regime?
    General Votel. I think there are a variety of things. I 
think the most important thing is to work with our regional 
partners here to ensure that we have a common approach to this. 
I think in some cases we should look at ways that we can 
disrupt their activities through a variety of means, not just 
military means. We have to expose them for the things they are 
doing. They should be held accountable for those things. I 
think we have to contest their revolutionary ideology, and it 
is not just the United States, but it has to be those in the 
region. Iran has a role in the region. They have been around 
for a long period of time. Nobody is trying to make Iran go 
away, but we are concerned about the destabilizing behavior 
that they pursue on a regular basis.
    Senator Blumenthal. My time has expired, but this topic is 
one that I think is profoundly important. I will have some more 
questions that I hope you and your staff perhaps can answer and 
maybe in a different setting as well.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    On behalf of Chairman McCain, let me recognize Senator 
Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    It is an honor to be here before you two gentlemen. Thank 
you for your great careers and what you are doing for our 
country today. I hope you will take this message back to your 
troops, that everything they do over there is not missed on us.
    I have a question about ISIS. General Votel, first of all, 
I think one of the first things that the President has done is 
ask for a 30-day review of the current strategy and so forth. 
Where are we in that process? What types of things can we 
expect to see in terms of our strategy there? I would like you 
also to address what is our end game, and can you talk about 
that today or should we wait until we see the 30-day review?
    General Votel. Senator, I think it is most appropriate for 
the Secretary who I believe has presented his findings to the 
new administration, and I think he is probably the person who 
is most appropriate to talk about the decisions and end states 
that will come out of that.
    Senator Perdue. Fair enough.
    With regard to ISIS in the Sinai, right now Egypt--there 
are daily efforts there I think. Can you give us an update on 
what is being done and what other countries are involved in the 
fight with ISIS? Give us an order of magnitude of the size of 
that action in the Sinai.
    General Votel. The Egyptians several months ago have 
deployed forces into the Sinai and specifically around the area 
where the multinational force is. That has been helpful. That 
has helped address a threat that was emerging there, and they 
are engaged on a regular basis in fighting ISIS in that 
particular area.
    Egypt is addressing this. We are helping them in some 
areas, particularly with some of our expertise in improvised 
explosive devices. They have asked for that, and so we have 
been key to help them with that in this particular area.
    Senator Perdue. Do we have any troops on the ground in the 
Sinai?
    General Votel. We do not have any troops on the ground that 
are fighting ISIS. We do have troops on the ground in the Sinai 
that are associated with the multinational force mission.
    Senator Perdue. Thank you.
    General Waldhauser, I want to go back to a question that 
was earlier asked of you about China's presence in Africa and 
particularly the base at Djibouti. Given what Russia has done 
with Crimea and now at Latakia and at Tartus, are you concerned 
that we will see other activity of base building in Africa? 
Have you had any other indications of either Russia or China 
developing permanent positions or presence in that theater?
    General Waldhauser. Senator, in 2013, the Chinese laid out 
a strategic plan of One Belt, One Road where they will have 
commerce that starts in China, goes down to Indonesia, the 
Malacca Straits, across over to Djibouti, up into Europe and 
back. That is roughly 60 countries and 40 percent of the global 
GDP [Gross Domestic Product] that goes on in that area. It is 
all about trade. This is their first endeavor in an overseas 
base, and it will not be their last.
    Senator Perdue. Thank you, sir.
    I want to ask one more question real quick. I am about out 
of time. But in Somalia and Sudan, there is a growing threat 
that there is a real serious famine that is about to happen if 
it has not already started there. What will that do to the 
military situation in that area?
    General Waldhauser. Well, first of all, in Somalia, 
Senator, this right now is the most pressing issue to the brand 
new president who was just elected this last month. Right now, 
there are over 6.2 million individuals who have been affected 
by it, and it has not been, to my knowledge, actually declared 
a famine yet. But in terms of combating al-Shabaab and the 
like, movement of people in those large masses has an impact on 
military operations.
    But the bottom line in Somalia is right now--and we have 
counterterrorism operations. We are trying to build up the 
national security forces. But that famine for the brand new 
president and this fledgling national government is the biggest 
thing on their plate. They have to do well in this because if 
they cannot provide for this famine, then Somalia, who has been 
without a national government for over 20 years, is going to 
question what the purpose and what contributions they will 
make.
    Senator Perdue. Thank you, sir.
    One last real quick question. In Moron, Spain, I was 
fortunate enough to meet and visit with some of your great 
marines there. They have got a very strong mission. 
Unfortunately, late last year, they had to move about half of 
their air assets back to the U.S. for training. Can you talk 
about readiness with regard to their mission in Africa?
    General Waldhauser. Senator, the impact right now is really 
capacity for us. We have had to kind of center their activity 
mostly on western Africa. Some of the missions we have in 
eastern Africa that they would have been able to deploy to in 
the past, we would have to coordinate with CENTCOM, and we have 
actually used marines from the Oregon MEU [Marine Expeditionary 
Unit] in CENTCOM on the ground in Djibouti to take care of 
crisis response activities, specifically South Sudan, that we 
had at that time. The readiness of the airplanes has gotten 
better, but when you go from 12 to 6, the capacity is cut in 
half. The impact is we have got to do a better job coordinating 
and sharing assets because the Africa continent is extremely 
large.
    Senator Perdue. Yes, sir. Thank you. Thank you both.
    Chairman McCain [presiding]. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you both for your service. We are so grateful for 
your hard work.
    General Votel, as we move forward in Mosul and some of the 
ISIS fighters head out, what efforts do we have in place to try 
to capture them before they head to Raqqa or to other areas, or 
where are they heading out to?
    General Votel. Well, Senator, thank you for the question.
    Our intention, of course, is to prevent them from getting 
out. The first part of all of our operations is to isolate the 
areas where we are, where our attacks are taking place by our 
partners, and where we are bringing our enabling capabilities 
so that we do not let anybody get out or get in. Being a 
desert, this is obviously a very porous area, so there probably 
are some that get out. I think they are generally moving into 
the middle Euphrates River valley, which is a location that is 
equidistant between Mosul and Raqqa.
    Senator Donnelly. A while ago, we were just outside 
Hadditha in Anbar Province meeting with the Iraqi leaders 
there. I just wanted to follow up. At that time, they were 
close to starvation, for a lot of their citizens. It was 
extremely difficult for all of their families. Where are we now 
in terms of solidifying Hadditha, Fallujah, Ramadi, those 
areas, and are they working with us and with the central 
government?
    General Votel. Senator, they are and we are making progress 
with the humanitarian aid and the needs of the people out in 
all of those areas. This I think is an area that we have to pay 
particular attention to as we move forward, particularly in the 
large urban areas. Our military operations--planning for those 
has to be done in conjunction with the humanitarian aid 
planning and providing for the needs of the people that will be 
left behind. I think this is a key aspect for us.
    Senator Donnelly. As we head toward Raqqa, we have seen 
that marines have come in. Are you getting everything that you 
need in terms of equipment, manpower, all of those things to 
take Raqqa back?
    General Votel. We are, Senator, and I am certainly in 
discussions with the Secretary about what we might need going 
forward.
    Senator Donnelly. Because I think our feeling is we do not 
want to not get this done as soon as possible because we did 
not provide you with the necessary equipment, necessary 
personnel.
    As we look at Raqqa and moving forward, obviously there is 
a lot of complication with the Turks and with others. How are 
all those pieces coming together for you?
    General Votel. Well, as you know, Senator, this is an 
extraordinarily complex area here. We are trying to work with 
an indigenous force that has tensions with a NATO ally. That is 
not an easy situation to move through. But I think the way we 
are addressing it is in the right way. We are being as 
transparent as we can. We are providing information. We are 
looking for options on a day-to-basis to ensure we can mitigate 
and minimize the tension that exists in this area. I will not 
try to tell you that there is an easy way through all this 
complexity. There is not. It is going to take a lot of hard 
work. It is going to take military work. It is going to take 
diplomatic work as we move forward. I do believe that is the 
approach that we are taking and I think that ultimately it will 
work for us.
    Senator Donnelly. I was going to follow up--you were kind 
enough to come by my office--to follow up and say I think your 
idea of complete transparency, here is what we are doing, here 
is what we are working on, here is how we plan to do it and to 
try to cooperate as much as we can with other countries, but to 
tell them this is the plan and this is where we are going seems 
to make a lot of sense to me.
    As you look at what has gone on in the Arabian Gulf, we 
just saw another incident with our ships recently. As we move 
forward, the distances seem to be less. They get closer. They 
get closer. Do we have a plan ready to go where at some point 
we say, you know, you have crossed the red line, and if they 
continue, that we take appropriate action?
    General Votel. Senator, I am very confident in our ship 
captains and in our crews for them to deal with the situation. 
I do believe they have the right rules of engagement. They have 
the right tools to prevent things, and in the case that 
prevention does not work or deterrence does not work, then they 
have the capabilities to defend themselves and take action. I 
am very confident in our people.
    Senator Donnelly. My guess is that there will become an X 
crosses Y point, and I just want to make sure that our captains 
and all of them are ready. I have the same confidence.
    General Waldhauser, as you look at your area of command, 
what do you see as our biggest challenge right now that you are 
dealing with?
    General Waldhauser. Senator, I think the biggest challenge 
perhaps is the development piece for the demographics of a very 
youthful population. 41 percent of the continent is under the 
age of 15. We have got to find a way to get at education, 
health care, hopelessness, livelihood, and the like in order to 
give those individuals a future because we could knock off all 
the ISIL and Boko Haram this afternoon, but by the end of the 
week, so to speak, those ranks would be filled. We know from 
those who have kind of come out of the forest and given 
themselves up, so to speak, that the reason they joined was 
they needed a job, they needed a livelihood. It is not, for the 
most part, in those regions about ideology. That is not the 
driver. It is those factors I just talked about that drive them 
into that line of work because there is nothing else for them 
to do. I think the youth bulge and the demographics and 
providing development and a way ahead for those youth are very, 
very important.
    Senator Donnelly. We cannot fight our way out of it. What 
we have to do is to try to give them hope and dignity and 
purpose I guess.
    General Waldhauser. Exactly. I am not the first. Many 
people, especially those in uniform, have said we cannot kill 
our way to victory here. This is about the long-term investment 
in capacity building because at the end of the day, that is 
what is going to try to help solve the problem especially on 
the African continent.
    Senator Donnelly. Thank you. Thank you both for your 
service.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General Votel, thank you for spending the time with me in 
my office this week. General Waldhauser, welcome to the 
committee. Thank you both for your service.
    I will ask this of both of you. One area that I would like 
to get your feedback on is foreign military financing, foreign 
military sales and to what extent do we need to focus on that 
with some of our partner nations that you believe is helpful to 
you completing your missions in each of your commands. General 
Votel, we will start with you.
    General Votel. Thank you, Senator.
    I think foreign military funding, foreign military sales 
are extraordinarily important.
    Senator Tillis. Can you get more into specifics about 
certain areas where we need to really look at on a more 
immediate basis?
    General Votel. Yes, I do. I think certainly looking at 
ballistic missile capabilities for some of our Gulf partners is 
an important area. Certainly some of the aircraft programs out 
there--there is a great desire to have U.S. programs in many of 
these countries, and those are certainly areas where we have to 
pay strong attention.
    Senator Tillis. What sort of capabilities in Egypt? Senator 
Perdue asked you questions about the Sinai and increasing 
threat in that region because of the consolidation of ISIS and 
other entities. What kinds of things would be helpful in 
particular to Egypt in that area?
    General Votel. Well, certainly the suite of counter-
improvised explosive device equipment we have out there, 
running from jammers to protected vehicles and a variety of 
things in between, I think would be extraordinarily helpful to 
them.
    Senator Tillis. Do you have any specifics? General 
Waldhauser, I want to go to you with the same line of 
questioning. But any specific things that you can provide us, 
any specific areas where we need to take a look at and maybe 
get back to where we are helping build that partnership with 
Egypt?
    General Votel. Senator, we do, and with your permission, we 
will look for an opportunity to come and talk with you 
specifically about that so we can get into some detail about 
what we think would be most useful for Egypt and in fact for 
other partners across the region.
    Senator Tillis. Thank you.
    General Waldhauser, same line of questions.
    General Waldhauser. Thank you, Senator.
    Interestingly, in Africa, the foreign military sales is a 
very interesting choice. Many of the countries that we deal 
with are not financially in good shape, and consequently the 
ability to pay and the ability to fund for long-term parts 
blocks behind that is a difficult task. I am not suggesting 
that we should alter the rules or change the rules, but I think 
we need to be very flexible when we deal with some of these 
poor countries and make sure we understand their absorptive 
capability so that what we are selling them they not only can 
use them in the first few years, but there will be a parts 
block behind that, if you will. There will be an institution, a 
logistical infrastructure behind that, that will allow them to 
keep these pieces of equipment, whether they be vehicles or 
maybe C-130 airplanes, keep them in good shape for years ahead 
and years to come.
    Senator Tillis. Thank you.
    On another subject--and it relates to foreign military aid. 
General Votel, when you were in my office, we were talking 
about Afghanistan. When I was there the year before last, at 
the time there was a concern that there was going to be a drop-
off in foreign investment and the tools that Afghanistan needed 
for its economic development, which is a key part of 
stabilizing the country--what is the current situation there?
    General Votel. I think the situation looks good, both from 
a NATO [North Atlantic Treaty Organization] standpoint and from 
a much broader international standpoint. The donation 
conferences and other things that have been convened here over 
the last year----
    Senator Tillis. Are we building a reliable stream, or is 
there another cliff that we have to be concerned with?
    General Votel. I think we are building a reliable stream 
out to the 2020 time frame and in some cases beyond that. I 
think the international community has stepped up to the plate 
in this particular area.
    Senator Tillis. Thank you.
    General Waldhauser, when General Votel and the people that 
we have assisting countries in CENTCOM are successful in Mosul 
and Raqqa, it seems to me the good news is maybe we are getting 
some level of success there. But I have got to believe that 
that is going to potentially cause some additional challenges 
for you. Can you talk about the ones that you are specifically 
concerned with?
    General Waldhauser. Senator, anytime you put pressure on 
the network and disrupt or dislodge ISIL from a certain area, 
movement will occur. That means the border countries toward 
that took place are very concerned about foreign fighters 
moving back and forth. That is one of the big concerns that we 
have. One of the issues that we have to deal with when we 
conduct operations, it is important that the neighbors of those 
countries know what we are trying to do and understand why we 
are trying to do that so we can help them with the foreign 
fighter flow if movement should occur.
    Senator Tillis. Thank you, Mr. Chair.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses.
    The Marine Corps doctrinal publication entitled 
``Strategy'' has this phrase in it. What matters ultimately in 
war is strategic success, attainment of our political aims, and 
the protection of our national interests. History shows that 
national leaders, both political and military, have failed to 
understand this relationship, sow the seeds for ultimate 
failure, even when their armed forces achieve initial 
battlefield success. Battlefield brilliance seldom rescues a 
bad strategy.
    I have been heartened by the American military's 
performance on the battlefield. Very heartened with our 
partners against ISIL in Iraq and now Syria. Although we would 
not want to predict anything about timing, I think that we are 
going to continue to have battlefield success.
    What is our political strategy, say, following the fall of 
Raqqa that would lead us to have a belief that there is going 
to be a better next chapter to follow in Syria especially?
    General Votel. Senator, I am not sure I can comment on what 
the political strategy is. I do believe this is a key aspect of 
what Secretary Mattis and the administration are discussing 
right now with respect to what this looks like long-term.
    Senator Kaine. General Votel, I think that is a good 
answer. You are not commenting because the political strategy 
is really for the political leadership not the military 
leadership. The administration and Congress. You understand 
that Congress has a role in this as well, not just the 
administration.
    General Votel. I do, Senator.
    Senator Kaine. We are pursuing a war now based on an 
authorization that was passed in September of 2001. It is now 
nearly 16 years old. Do you think it would be helpful in terms 
of articulating a political strategy that would put the 
military mission into a context and to find an end result and a 
potential desired future state if Congress were to grapple with 
the question of the authorities and this desired end political 
strategy?
    General Votel. Senator, I think the current AUMF 
[Authorization for Use of Military Force] has provided what we 
needed, but I do believe an updated authorization certainly 
would send a stronger commitment to uniformed military of our 
commitment and desire to support them.
    Senator Kaine. In the CENTCOM space, if the military 
mission succeeds and Raqqa were to fall, do you still believe 
that the American mission against ISIL and al Qaeda will take a 
long time?
    General Votel. I do. This is a very savvy enemy, and they 
are adapting. Like we are adapting on the battlefield, they are 
adapting on the battlefield.
    Senator Kaine. Just like the ISIL attack----
    General Votel. Right.
    Senator Kaine.--in Afghanistan dressed as doctors attacking 
the hospital. This is a threat that is not going to go away 
just because Raqqa were to fall. Correct?
    General Votel. That is right. They will begin to adopt 
other forms, and we will need to be persistent against that and 
we will need to work with our partners to address that in both 
Iraq and Syria.
    Senator Kaine. Well, my colleagues know because I have said 
it a lot and others view it the same way, that this question of 
authorities--I do think it is past time for Congress to address 
it. Whether you think the 9-14-01 AUMF legally covers the 
battle against ISIL or not, I think there are prudent reasons 
at a minimum and I think legal reasons as well that we should 
tackle it.
    On the question of legal authorities, traditionally you 
need two kinds of legal authorities to be engaged in a military 
mission. You need a domestic legal authority and you need an 
international legal justification as well. The most common 
international legal justification for military action in 
somebody else's territory is that they invited you. We are 
conducting military actions in Iraq with the request and 
support of the Iraqi Government. We are conducting military 
operations in Afghanistan with the support and request of the 
Afghan Government. We just conducted a DOD ground operation for 
the first time in Yemen with the request and support of the 
Yemeni Government.
    Are we deploying marines in Syria at the request or with 
the permission of the Syrian Government?
    General Votel. We are not, Senator.
    Senator Kaine. What is the international legal 
justification for the U.S. taking military action in another 
country without the request of that country? We have criticized 
nations such as Russia, for example, for undertaking military 
actions in the Ukraine or Crimea without the request of the 
government.
    General Votel. Thank you, Senator. I think we certainly 
make a judgment about the ability of the government to make a 
decision. In that case I think what we are doing in Syria, we 
are looking at that as an extension of the authority to operate 
from Iraq.
    Senator Kaine. Iraq has had us in and we are cooperating 
with Iraq. We are there in Iraq at their request. But I guess 
the bottom line is there is no such request from Syria. We do 
not judge that government capable of making such a request, and 
we do not really recognize the legitimacy of Bashar al Assad's 
government. But you are saying that the international legal 
justification for American military action in a country that 
has not asked us is the fact that we are engaged in a military 
action in a country next door that has asked us?
    General Votel. I believe we are being extended that 
authority by our leadership to conduct those operations 
principally because we are operating against an enemy that 
operates on both sides of that border.
    Senator Kaine. If I might, one last question with respect 
to Yemen. We have had hearings in this committee about the 
ground operation in Yemen, which to my knowledge was the first 
ground operation by DOD forces in Yemen. There were a number of 
questions raised by that. I do not want to go into the 
classified briefing we had, but questions about was the mission 
compromised in some way in the advance. What intel was gained? 
There was some after-the-fact justification of the mission 
using video that actually had been taken in another mission. Is 
the DOD conducting an ongoing investigation of that mission to 
determine all lessons learned, what worked, what did not, and 
what we can do better?
    General Votel. Senator, thank you, and let me answer this a 
little more comprehensively.
    First and foremost, I am responsible for this mission. I am 
the CENTCOM Commander and I am responsible for what is done in 
my region and what is not done in my region. I accept the 
responsibility for this. We lost a lot on this operation. We 
lost a valued operator. We had people wounded. We caused 
civilian casualties. We lost an expensive aircraft.
    We did gain some valuable information that will be helpful 
for us. Our intention here was to improve our knowledge against 
this threat, a threat that poses a direct threat to us here in 
the Homeland. That was what we were focused on.
    There have been a number of investigations that have been 
initiated. Most of these are regulatory or statutory in terms 
of things that we normally do.
    When we lose an aircraft, there is both a safety 
investigation to ensure that we disseminate lessons learned for 
the broader fleet, and there is also a collateral investigation 
that tries to determine the specific reason why that happened 
and establishes accountability over that.
    We have done an investigation into the civilian casualties. 
That has been completed. The helicopter investigations are 
ongoing. The civilian casualty aspect has been completed, and 
we have made a determination based on our best information 
available that we did cause casualties, somewhere between 4 and 
12 casualties that we accept--I accept responsibility for.
    We have done a line of duty investigation, again a 
statutory investigation, on the death of Senior Chief Owens 
that determined that he was in the line of investigation.
    The key mechanism that I have, Senator, is the after-action 
review, and this is something we do with every operation we do. 
The intention here is to review the operation in great detail 
to understand exactly what happened. It is done with the chain 
of command in place. We have done that and I have presided over 
that. Based on my experience, nearly 37 years of service, I 
have certainly appointed a lot of investigations and I have 
been through a lot of these after-action reviews. When I go 
through these things, there are some specific things that I am 
looking for. I am looking for information gaps where we cannot 
explain what happened in a particular situation or we have 
conflicting information between members of the organization. I 
am looking for indicators of incompetence or poor decision-
making or bad judgment throughout all of this.
    What I can tell you is that we did an exhaustive after-
action review on this. I presided over that. It went down to a 
level that included people who were on the specific objective. 
As a result of that, I was satisfied that none of those 
indicators that I identified to you were present. I think we 
had a good understanding of exactly what happened on this 
objective, and we have been able to pull lessons learned out of 
that that we will apply in future operations. As a result, I 
made the determination that there was no need for an additional 
investigation into this particular operation.
    Senator Kaine. The only investigation that continues is the 
investigation--or the loss of the helicopters is still not 
complete.
    General Votel. That is correct, Senator.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Just to follow up, General, there has been 
a lot of conversation about this particular mission and the 
point that some of us are trying to make that the heroism and 
sacrifice of those who served has nothing to do with the 
mission itself. In other words, we honor their sacrifice no 
matter what happened in the mission.
    When you have women and children killed, as you pointed 
out, the loss of a $70 million aircraft, you did not capture 
anyone as was part of the mission, that mission is not a 
success. But that happens in war. There is a thing called the 
fog of war. They did the best they could under very difficult 
circumstances. I hope in the process of your investigation, 
when heavy fire was encountered why the decision was made to 
continue the mission--I still do not think this committee has 
an answer to that question. But it does not question the 
loyalty and sacrifice and bravery when we question the mission.
    Unless we tell the American people the truth, the absolute 
truth, then we are going to revisit another war a long time ago 
where we did tell the American people the truth and we paid a 
very heavy price for it. There are 55,000 names engraved in 
black granite not far from here, and the American people were 
not told the truth about whether we were succeeding or failing 
in that war. Then because of that, it all collapsed. I hope 
that we will not forget that lesson, and in no way does it 
detract from the heroism and professionalism and sacrifice of 
the brave men and women who serve under your command.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman. I just want to 
underline the comments you just made, and I do think it is 
important that we get answers to the questions about what 
happened at that moment in very difficult circumstances, 
admittedly, that heavy fire occurred and the decision was made 
to continue. I am also anxious to have the questions answered 
about the real value of the intelligence that was gathered. I 
think there have been some mixed signals about the value of the 
intelligence that was gathered.
    I want to talk to you today. I have spent an awful lot of 
time working on contracting in contingencies. I remember my 
very first trip to Iraq included a stop in Kuwait to look at 
contracting. I had an encounter with a general there that I 
will never forget. I will always admire him for being so honest 
with me because I was pointing out all of these massive 
problems with contracting, especially Log Cap 1, Log Cap 2 and 
all of those associated contracts. He looked at me and he said, 
Senator, I wanted three kinds of ice cream in the mess 
yesterday, and I do not care how much it costs.
    Now, while I admired him for his honesty, it kind of 
underscored for me that contracting oversight was not a core 
capability many times within commands within contingencies. If 
it were, we would not have this long trail of mistakes made 
going all the way back to Kosovo on contracting.
    I was upset yesterday when I saw the DOD IG [Inspector 
General] report coming out of Kuwait where they said that 
ineffective monitoring of contractor performance for the Kuwait 
base operations--a particular concern that the contracting 
officer representatives, which we have worked very hard--I 
mean, at the point in time I was over there, it was the worst 
guy in the unit got handed the clipboard, had no idea what he 
was supposed to do in terms of contracting oversight and did 
not do much. We have done a lot of work on this, training, and 
making sure people understand and with the standing up the 
Contracting Command.
    The fact that there is no consistent surveillance of these 
contracts in Kuwait, no assurance that the contract 
requirements have been met, and the entire $13 million 
performance bonus was paid even though it is not clear that it 
was earned, and maybe most worrisome, this environmental and 
health hazard that has been allowed to languish. It is fairly 
clear from reading this report that a stagnant wastewater 
lagoon went unresolved, that it was probably never constructed 
correctly, and it is really impacting the health and safety of 
some of our men and women that are stationed there.
    I need you to reassure me that we have not taken our eye 
off the importance of contracting oversight. This is not just 
you. This is also the ACC [Army Contracting Command] and the 
408th Contracting Support Brigade.
    General Votel. Thank you, Senator.
    I absolutely agree with you, and I recognize my 
responsibility as the CENTCOM Commander and as a senior leader 
in the Department of Defense to ensure that the expenditure of 
our national treasure and our resources is done in an effective 
and efficient manner. I look forward to an opportunity to talk 
with you specifically about this situation in Kuwait.
    Senator McCaskill. I would like that very much, and we will 
look forward to hearing from you directly. The thing that was 
the most frustrating about the contracting through much of the 
Iraq conflict before we did the contracting reforms that the 
Wartime Contracting Commission set out--and we codified all of 
those, most of them in this committee--the amount of money that 
was wasted was astounding. We just cannot afford it. We just 
cannot afford it.
    Let me briefly, in the time I have remaining--I know that 
they have covered Russia as it relates to what has been going 
on in Afghanistan. I am not sure that it has been touched on, 
what is going on in Nigeria, and would love you to speak to 
that, General Waldhauser, about the fact that we refused to 
sell them the Cobra attack helicopters because of the history 
of human rights problems. Undeterred by that history, of 
course, Russia stepped up and now sold them attack helicopters. 
They are now training the Nigerian military, including the 
special forces, instead of the United States.
    Could you give us any assessment of the impact of that, 
that Russia has stepped in where our better judgment said it 
was not a good idea and is now taking on that primary role with 
the Nigerian special forces?
    General Waldhauser. Senator, not only Nigeria but other 
countries on the continent. If there are easier ways to get to 
military sales, if countries come in, China, Russia, North 
Korea, for example--if they come in and do not have a lot of 
strings attached, then sometimes it is easier for those 
countries to purchase weapon systems from others than the U.S.
    We try to accommodate certain financial situations. I know 
the DSCA people that work for OSD try hard to accommodate that. 
When you look closely at the absorption capabilities of these 
countries--but again in many occasions, human rights is not an 
issue when it comes to weapon sales from countries other than 
the United States.
    Senator McCaskill. Well, I think it is something we need to 
worry about because it is, obviously, a powerful way to spread 
the influence and power of Russia. I think we all, no matter 
what our party is, have figured out in the last 6 months that 
this is a real threat to our country and to our national 
security.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    I think you have been asked about soft power and the need 
for it. Both of you said it is an important tool in the toolbox 
to win the war. Is that correct?
    General Votel. That is correct, Senator.
    General Waldhauser. Yes, Senator. Yes.
    Senator Graham. You are warfighters extraordinaire. I 
appreciate you putting a plug in for soft power. Let me dig in 
with it. Can you win the war without it?
    General Waldhauser. I do not believe you can, Senator. 
Everything comes from security. Once you have a secure 
environment, development needs to take place, and that is where 
soft power kicks in.
    General Votel. I agree with, General Waldhauser.
    Senator Graham. Really, this war is about a glorious death 
being offered by the terrorists and a hopeful life by the rest 
of the world. Is that a pretty good description of what we are 
trying to do is offer a hopeful life to compete with a glorious 
death?
    General Votel. I think in very general terms, I think it is 
about that. It is about offering alternatives to people to the 
situations that they find themselves in.
    Senator Graham. The good news is that most people over 
there do not want what ISIL is selling. There is not a big 
demand for that product. Is that a fair statement?
    General Waldhauser. Certainly on the African continent that 
is true, very true.
    General Votel. I would agree with that, Senator.
    Senator Graham. Very few fathers and mothers want to turn 
their daughters over to ISIL if they do not have to. Is that a 
fair statement?
    General Votel. It is, Senator.
    General Waldhauser. Yes, Senator, it is fair.
    Senator Graham. Is it a fair statement we are not going to 
win this war without partners in the faith? The only way you 
can win this war is to have fellow Muslims fighting with us 
against ISIL.
    General Votel. It is my view that we have to have local 
forces engaged in this.
    General Waldhauser. That is what by, with, and through is 
all about, Senator.
    Senator Graham. Is it fair to say that most people in the 
faith reject this hateful ideology?
    General Votel. That is true, Senator.
    General Waldhauser. I agree.
    Senator Graham. I want the committee to understand that any 
budget we pass that guts the State Department's budget, you 
will never win this war. As a matter of fact, ISIL will be 
celebrating.
    What is Russia trying to do in Libya, General Waldhauser?
    General Waldhauser. Senator, Russia is trying to exert 
influence on the ultimate decision of who becomes and what 
entity becomes in charge of the government inside Libya. They 
are working to influence that decision.
    Senator Graham. They are trying to do in Libya what they 
have been doing in Syria?
    General Waldhauser. Yes. That is a good way to characterize 
it.
    Senator Graham. It is not in our national interest to let 
that happen. Is it?
    General Waldhauser. It is not.
    Senator Graham. The political situation in Libya is pretty 
fractured?
    General Waldhauser. It is very fractured, Senator.
    Senator Graham. The commander of their military is at odds 
with the political leader supported by the U.N. Is that fair?
    General Waldhauser. That is fair, yes.
    Senator Graham. If we do not fix that, it is going to be 
tough moving forward?
    General Waldhauser. We have got to get the entities, 
specifically Haftar and the government of national accord, 
together to make an accommodation in order to get any 
government moving forward.
    Senator Graham. Would you say that Secretary Tillerson is 
very important in this regard?
    General Waldhauser. Very important, Senator.
    Senator Graham. We need to put that on his radar screen.
    General Waldhauser. Yes, we do.
    Senator Graham. Syria. The Kurds that we are training, 
General Votel, are they mostly in line with the YPG [Popular 
Protection Units]? Are they YPG Kurds?
    General Votel. They are, Senator.
    Senator Graham. Is it fair to say that in the eyes of the 
Turks, the YPG Kurds are not much better, if any better, than 
the PKK [Kurdistan Workers' Party]?
    General Votel. Senator, that is the view of the Turks.
    Senator Graham. Is it fair to say that the YPG Kurds have 
sort of a communist/Marxist view of governing? That is what 
their manifesto says anyway.
    General Votel. Senator, I think it is fair to say that 
there is some affinity back towards that.
    Senator Graham. Is it fair to say that we have got to be 
careful about over-utilizing the YPG Kurds? Not only will it 
create problems for Turkey, other Kurds in the region do not 
buy into their agenda also.
    General Votel. I think it is important. That is why as we 
look to a place like Raqqa, we are attempting to do that with 
majority Arab forces.
    Senator Graham. Is it fair to say that how we take Raqqa 
can determine the outcome of Geneva in terms of a political 
settlement?
    General Votel. It is certainly a key operation. We will 
support that.
    Senator Graham. Is it fair to say that the balance of power 
on the ground in terms of Assad's regime that he is in a good 
spot?
    General Votel. He is in a better position than he was a 
year ago.
    Senator Graham. That the opposition has basically melted 
away because Russia, Iran, and Assad have gone after them full 
throated.
    General Votel. The support that has been provided by Russia 
and Iran has certainly enabled the regime.
    Senator Graham. Is it fair to say that most Syrians want 
two things: to get rid of ISIL but also to get rid of Assad 
because he slaughtered their families?
    General Votel. The Syrians that I have talked to I think 
would agree with that.
    Senator Graham. Is it fair to say it is in our national 
security interests for Damascus not to be handed over to Assad, 
a proxy for Iran, in any final settlement, that you cannot have 
Iran dominating Damascus?
    General Votel. Senator, I think that is certainly a 
decision for our political leadership to make, but I think 
there is a strong consensus.
    Senator Graham. Final thought. How we take Raqqa will 
determine if we can get a political settlement in Geneva if we 
do not change the balance of military power on the ground, go 
outside of this Kurdish construct, reassure the Arabs that we 
are a better partner than we have been in the past, we are 
going to give Damascus to the Iranians, if we help those Syrian 
Arabs who want to fight and take their country back from Assad 
and his brutal dictatorship, I think we can change the balance 
of power on the ground and get a better deal in Geneva. If the 
Trump administration is listening, how you take Raqqa will 
determine how successful we are in neutralizing Iranian 
influence and Russian influence.
    Mr. Chairman, you have been terrific on this issue. I want 
to thank you for your leadership.
    Chairman McCain. I thank you.
    I thank you, Generals, for your appearance here this 
morning. It has been very helpful to the committee and to
    the United States Senate. I know it is not your favorite 
pastime, but I think it is very important that we hear directly 
from you. Thank you for your leadership, and we do want you to 
be assured that we will do everything we can to support you as 
we go through what is a very complicated and difficult 
challenge.
    Senator Reed?
    Senator Reed. I simply want to thank you, gentlemen, for 
your service and for your testimony today. Please relay our 
thanks to the men and women who serve so well with you. Thank 
you very much.
    Chairman McCain. This hearing is adjourned.
    [Whereupon, at 11:40 a.m., the committee adjourned.]

              Questions Submitted by Senator David Perdue
                     avoiding past mistakes in iraq
    1. Senator Perdue. General Votel, I am concerned that we have not 
been setting conditions to make sure our grand gains against ISIS will 
hold and prevent al Qaeda in Iraq and Syria (AQAP) or other jihadists 
from backilling after the campaigns for Mosul and Raqqa are completed. 
How do we prevent this scenario going forward to ensure we do not 
repeat the mistakes of our force withdrawal from Iraq?
    General Votel. Our Coalition forces are employing the military 
instrument of power to defeat ISIS militarily in Iraq and Syria. It is 
important to note that the successful defeat of ISIS in Raqqah and 
Mosul does not mark the military defeat of ISIS; there remains more 
work to be done in Iraq and Syria to militarily defeat ISIS. That said, 
it is important to recall that the Coalition Military Campaign Plan to 
defeat ISIS is one part of the broader ``whole-of-government'' effort 
that is required to achieve a sustained defeat of the enemy. An inter-
agency and inter-ministerial approach is required to address political, 
diplomatic and other underlying issues that Iraq and Syria will 
continue to face after the military defeat of ISIS. By defeating ISIS 
militarily, we set the conditions that will allow other agencies and 
ministries to take the necessary actions to achieve improved social, 
governance, and economic advancements in both countries.

    2. Senator Perdue. General Votel, in the counter-ISIS fight in Iraq 
and Syria, how should our plans take into account the political end-
state for Iraq and Syria?
    General Votel. As we seek to defeat ISIS in Iraq and Syria, it is 
vital that we coordinate closely with our Interagency partners and 
particularly the Department of State, as well as with our Coalition 
partners to ensure that our military efforts to defeat ISIS contribute 
toward the achievement of broader political endstates in Iraq and Syria 
and enduring improved stability and security in the region. Our 
military actions help set the conditions for broader political and 
diplomatic efforts. In Iraq, for example, we actively work with our 
Embassy to ensure the mix of Iraqi forces engaged in the counter-ISIS 
fight will not complicate post-Defeat governance issues. In Syria, our 
forces have worked with both our Syrian Democratic Forces partners and 
our NATO ally Turkey to mitigate tensions and set the stage for 
locally-rooted governance structures in the aftermath of liberating 
territory previously seized by ISIS. In Iraq, we are also actively 
discussing our longer-term security engagement with the Government of 
Iraq, which can help ensure the lasting security Iraq needs to 
establish greater political and economic stability. Longer-term 
political objectives in Syria are more complicated, but we will ensure 
close alignment of our military and diplomatic efforts as we move ahead 
in the counter-ISIS campaign.
             campaign against isis and its impact on syria
    3. Senator Perdue. General Votel, I understand that your efforts 
are directed at defeating ISIS in Iraq and Syria. If ISIS is defeated 
how does that affect the Assad Regime, and what will be the impact on 
the civil war in Syria?
    General Votel. The military defeat of ISIS will not, in and of 
itself, resolve the civil war in Syria. Our mission is the defeat of 
ISIS because it poses the greatest threat to U.S. national interests. 
The defeat of ISIS will serve to remove one threat from what is a 
crowded battlespace in Syria where a number of different elements are 
fighting one another. While we cannot presume that all of the same 
players will shift their focus and continue to fight in some capacity 
after ISIS is defeated, the removal of this threat may serve to 
increase pressure on the Assad Regime.

    4. Senator Perdue. General Votel, a post-conflict Syria with the 
murderous Assad regime at the helm will only serve to fuel extremism 
and instability in the region. What is the desired end-state in Iraq 
and Syria and how do we achieve that?
    General Votel. CENTCOM has been directed to militarily defeat ISIS 
in Iraq and Syria. We continue to work by, with and through our 
partners on the ground to ensure a lasting defeat of this enemy. 
Ultimately, we would like to see increased stability and security in 
both countries, borders that are respected by all parties, and 
inclusive governance in place that is characterized by the rule of law. 
To achieve this will require a ``whole-of-government'' effort led by 
the people in the region. We cannot do it for them.
intelligence, surveillance, and reconnaissance (isr) needs for centcom 
                              and africom
    5. Senator Perdue. General Votel and General Waldhauser, last year, 
I wrote both your commands to inquire about the importance of the Joint 
Surveillance Target Attack Radar System (JSTARS) platform to operations 
in your areas of responsibility. You both indicated that JSTARS was 
important to accomplishing your mission objectives. In your estimation, 
what percentage of ISR requirements are being met in your areas of 
responsibility with the current resources at your disposal, including 
the JSTARS fleet?
    General Votel. [Deleted.]
    General Waldhauser. USAFRICOM currently receives approximately 1 
percent of its fiscal year 2017 Ground Moving Target Indicator (GMTI) 
requirement. When JSTARS deployed in support of Operation ODYSSEY 
LIGHTNING, the additive collection sourced an additional 6 percent of 
AFRICOM's GMTI requirement. More importantly, JSTARS provided key 
refinement of collection areas, allowed new target discovery, and 
enabled multiple, simultaneous cross-cue events with other collection 
platforms, directly supporting the liberation of Surt, Libya from 
Islamic State in Iraq and al-Shams in Libya (ISIS-L).

    6. Senator Perdue. General Votel and General Waldhauser, despite 
your responses on the importance of JSTARS to your ISR capabilities, 
the JSTARS fleet is in need of recapitalization, and that recap is 
already behind schedule. As currently planned, there will be at least 
one year without any JSTARS online and a decade of decreased fleet size 
and readiness. What would a potential gap in the availability of the 
JSTARS fleet mean for you and your combatant commands' ISR 
requirements?
    General Votel. [Deleted.]
    General Waldhauser. AFRICOM's current ISR allocation is limited in 
number, and is an economy of force fleet, where each new crisis 
requires trading priority of effort against ongoing counter-VEO 
activities. Adding in the tyranny of distance inherent to the continent 
of Africa, any additional allocated asset that can synchronize 
capabilities, economize time and resources, and maximize operational 
flexibility of AFRICOM's current ISR footprint is an exponential 
enabler. JSTARS is that type of platform, providing that capacity. With 
the wide area search capability and vast sensor array of JSTARS, it 
enables AFRICOM to maximize our other ISR platform capabilities that 
have inherently smaller collection area footprints, reduces required 
collection times for other already overtasked assets, and increases 
correlation and accuracy of actionable intelligence.
                       root causes of instability
    7. Senator Perdue. General Votel, in your written testimony you 
state that, ``While we must take the necessary actions to counter 
immediate threats, such as ISIS in Iraq and Syria, we also need to find 
ways to address these and other root causes of instability if we hope 
to achieve lasting positive effects in that part of the world. This 
cannot be accomplished solely through military means.'' Can you expand 
upon that, and discuss what non-military means you have in mind for 
complementing our military efforts to address threats emerging from 
your area of responsibility?
    General Votel. Our non-military means must fully integrate our 
interagency capabilities. To address the root causes of the 
instability, our primary goal must be to promote good governance and 
stability. Our interagency efforts could include: disrupting terrorist 
finances by working to enhance our partner nations' finance and money 
laundering laws; encouraging our allies to establish strict border 
security initiatives and synchronizing foreign fighter and facilitator 
lists; deny terrorist freedom of movement by standardizing visa 
security programs and initiatives for better maritime container 
security; and enhance and reinforce the rule of law through expanded 
international law enforcement cooperation including the introduction of 
biometric equipment/training, expanded cooperation on drug enforcement, 
and expanded extradition authorities.

    8. Senator Perdue. General Waldhauser, what do you see as the role 
of non-military means to combat root causes of instability in Africa?
    General Waldhauser. Non-military solutions are necessary, if not 
always sufficient, to combat the root causes of instability in Africa. 
Instability can be caused by numerous factors, including demographic, 
social, economic, and environmental challenges that are further 
exacerbated by poor governance. Crises, including insecurity caused by 
violent extremism, further complicates already volatile circumstances. 
The extent to which African governments are able to meet the 
expectations of their citizens is key to enhancing stability. At United 
States Africa Command, we recognize that the development of 
institutions, both military and civilian, capable of responding to 
near-term crises while concurrently overcoming long-term challenges, is 
a key starting point to building stability. This is fundamentally a 
non-military task for which the Department of State, the U.S. Agency 
for International Development, and other civilian agencies, have the 
lead. As our Theater Campaign Plan says, United States Africa Command 
operations are intended to create the time and space for institution-
building to occur. Our decisive efforts are building African partner 
capacity and strengthening partnerships. While these efforts are 
directed to building military capacity, we understand that this can 
only be effective if civilian institutions are improving at the same 
time. We therefore seek to work with colleagues from the Department of 
State and U.S. Agency for International Development to ensure that our 
efforts are well coordinated and working towards similar end states. 
More directly, United States Africa Command relies on Embassies to 
provide administrative support for housing, transportation, and 
assistance in visa issuance. These activities ensure host nation 
political actors understand and support United States Africa Command 
efforts, and they fulfill congressional requirements, including Leahy 
vetting.

    9. Senator Perdue. General Votel, can you talk about how the ``gray 
zone'' of warfare that you described (where adversaries employ 
unconventional methods that include cyber warfare, propaganda, and 
support to proxy elements in an effort to achieve their objectives 
while minimizing the scope and scale of actual fighting) necessitates a 
whole-of-government approach?
    General Votel. The ``gray zone'' of military confrontation 
represents the range of activities short of conventional conflict; a 
dangerous space in which miscalculation can easily occur, leading to 
escalatory conflict and misunderstanding. In the ``gray zone'' 
adversaries employ unconventional methods that include cyber warfare, 
propaganda, and support to proxy elements in an effort to achieve their 
objectives while minimizing the scope and scale of actual fighting. At 
the same time, these unconventional methods increase tensions between 
partners emphasizing competing priorities that detract from support for 
our common objectives. To be successful in this ambiguous environment, 
we must find alternate ways to compete against our adversaries short of 
conflict, while collaborating with our partners to achieve our desired 
end-states. This requires synchronized diplomatic, economic, 
intelligence, information, and law enforcement engagement at the 
national level to maximize the effects of a limited military engagement 
and to reduce the strategic risk.
                            syria safe zones
    10. Senator Perdue. General Votel, earlier this year, President 
Trump said that he would, ``absolutely do safe zones in Syria'' to stem 
the flow of refugees into other countries. What impact would the 
establishment of safe zones in Syria have on the counter-ISIS fight and 
the destabilizing refugee crisis?
    General Votel. Safe zones require enforcement; if we are going to 
implement a safe zone, we will need to clearly determine what it is we 
are trying to accomplish with the establishment of the safe zone and 
dedicate sufficient resources to enforce the zone. If the U.S. military 
is the enforcement mechanism, it would expand our current mission from 
defeating ISIS to countering any actor(s) that poses a threat to 
protected elements within the safe zone. Given the complexity of the 
current security environment in Syria, that may include other extremist 
organizations, Syrian Regime elements, Russian forces, or other Syrian 
opposition elements. Effective protection of a safe zone requires 
significant air and ground assets as well as the requisite command and 
control. The need for additional capabilities would necessitate pulling 
resources away from the counter-ISIS fight and other operations and 
thus would potentially negatively impact the C-ISIS Campaign.
                           virtual caliphate
    11. Senator Perdue. General Votel, in your written remarks, you 
stated concern over the ``virtual caliphate'' that is emerging from 
terror groups' ready access to internet platforms to spread their 
messages of terrorism and hate. You also stated that, ``Countering this 
virutual caliphate will require a concerted `whole-of-government' 
effort led by the people of the region.'' Can you describe what you 
think this approach would or should look like?
    General Votel. Ready access to the Internet, social media, and 
other messaging platforms has enabled a new generation of radicalized 
Islamists to spread their extremist views, incite widespread violence, 
and recruit new followers to their cause. Countering this ``virtual 
caliphate'' will require a concerted `whole-of-government' effort led 
by the people of the region. We can support our partners' activities, 
but their voices and influence will be required to achieve enduring 
positive results. By promoting the voices of moderates in the region 
and helping our regional partners to increase opportunities available 
to their citizens, particularly young, educated and unemployed or 
under-employed individuals, we will help to provide an alternative to 
counter violent extremists. The U.S. should also assist and encourage 
efforts such as the Islamic Coalition, a group of 34 predominately 
Muslim nations formed to fight the ``disease'' of Islamic extremism. 
Partnerships such as this are invaluable to developing effective means 
to protect young people from radicalization and to spread positive 
alternative narratives to ISIS's malevolent story.

    12. Senator Perdue. General Votel, what can we do to support this 
endeavor?
    General Votel. Across the U.S. Government, we have made significant 
progress to counter social media messaging due in part to Congressional 
support for programs such as WebOps. Continued Congressional 
authorities and resourcing are imperative to enhance interagency 
efforts; specifically, the Combatant Command Information Operations and 
the Department of State Global Engagement Center capabilities.
                      iranian influence in africa
    13. Senator Perdue. General Waldhauser, I've seen concerning open 
source reports regarding growing Iranian influence and popularity among 
Nigeria's Muslim population. Our allies, the Saudis, are reportedly 
alarmed regarding the development of Iran's growing foothold in Africa. 
Could you comment on Iran's influence in Africa?
    General Waldhauser. Overall, Iran's efforts on the continent are 
minimal. Iran maintains embassies and cultural centers throughout 
Africa, and has been reaching out predominantly to the Shiite Muslim 
populations in Africa. Further, they claim Sunni Arabs treat Sunni 
Africans poorly and cite this as a reason for their continent-wide 
Islamic education effort. Some of their engagements appear to be aimed 
at improving Iran's image within Africa, and they leverage Joint 
Comprehensive Plan of Action (JCPOA) to promote more open political and 
economic engagement and, possibly, to reduce Tehran's reputation as a 
foreign sponsor of terrorism.

    14. Senator Perdue. General Waldhauser, is Iran's growing influence 
in Africa of concern to you?
    General Waldhauser. Iran's efforts on the continent have trended 
more toward diplomatic and economic engagements. Saudi- and UAE-led 
financial contributions in African countries have targeted these 
engagements, and this to some degree is part of the Iran-Saudi (Shia-
Sunni) rivalry. After the Shiite cleric execution in Saudi Arabia, a 
diplomatic row ensued and several African countries severed ties with 
Iran, opting for increased ties with Sunni states.

    15. Senator Perdue. General Waldhauser, do you think Iran has any 
intention of being a force for good in Nigeria?
    General Waldhauser. At this time, Iran probably wants to continue 
to provide ideological support and diplomatic protection to Nigeria-
borne Shiite. Iran has rejected some Nigerian elite's labeling of the 
Islamic Movement of Nigeria (IMN)--the predominant Shiite group in 
Nigeria--as a violent extremist organization and has expressed concern 
over IMN's treatment. Iran will likely continue to support Shia 
communities in Africa.
                     magtf/marines in moron, spain
    16. Senator Perdue. General Waldhauser, last April I had the 
pleasure of visiting with the Special MAGTF that is based in Moron, 
Spain. These Marines are truly at the tip of the spear, especially as 
it relates to crisis operations and embassy emergency response in 
Africa. However, Marines are truly at the tip of the spear, especially 
as it relates to crisis operations and embassy emergency response in 
Africa. Can you speak to how this reduction impacts your ability to 
fulfill the mission?
    General Waldhauser. The January 2017 reduction of the SPMAGTF 
aviation assets by 50 percent has the potential to impact AFRICOM's 
ability to respond to multiple crisis events. The reduction included 
reducing twelve MV-22s to six, and four KC-130s to three. Further, the 
SPMAGTF must still fulfill two simultaneous roles: Operation New Normal 
response, and Personnel Recovery and CASEVAC response. This is not 
ideal, as combined alert and flight times will be over two-times 
greater than our current response time from notification to being 
overhead Misrata, Libya, from Moron, Spain. This makes EUCOM basing in 
Sicily and Souda Bay absolutely crucial as a way to reduce these 
response times.

    17. Senator Perdue. General Waldhauser, how has the reduction in 
aircraft impacted your ability to conduct training and exercises to do 
capacity building with African forces?
    General Waldhauser. The 50 percent reduction in the SPMAGTF 
aviation element limits AFRICOM's ability to incorporate this force 
into joint exercises that are designed to sustain readiness of our 
rotational forces and build African partner capability. A full 
complement of aircraft would permit their participation in additional 
exercises to improve partner capacity while also providing enough force 
structure to respond to a crisis.

    18. Senator Perdue. General Waldhauser, what are some of the top 
successes of this MAGTF that you'd like to highlight?
    General Waldhauser. Before their 50 percent reduction direct 
support aviation assets in January 17, the SPMAGTF had the capacity to 
operate from two separate and independent locations for an extended 
period in support of three named operations for AFRICOM. While forward 
deployed to Camp Lemonier, Djibouti during the unrest in Juba, South 
Sudan they were postured to provide faster response if tasked to 
increase protection of the United States Embassy. In addition to crisis 
response, SPMAGTF-CR-AF conducted 18 theater security cooperation 
missions in Uganda, Gabon, Cameroon, Ghana, Senegal, Togo, Benin, and 
Tunisia. The SPMAGTF also participated in 11 exercises and bilateral 
engagements with partner nations in the USAFRICOM and USEUCOM area of 
responsibility. They conducted six site surveys to support our 
embassies with validation, planning, and assessment of their Emergency 
Action Plans, thereby providing Department of State with an awareness 
on how DOD can support in operation New Normal reinforcement or 
evacuation.

    19. Senator Perdue. General Waldhauser, can you speak more broadly 
to the resourcing issue for AFRICOM--are you getting the resources you 
need to meet your requirements?
    General Waldhauser. The vast distances associated with the African 
continent combined with the remote distribution of our forces and 
diplomatic outposts makes resourcing for crisis response and Personnel 
Recovery a challenge. While resources across the continent are limited, 
the safety of our forces are a primary concern, and Personnel Recovery 
will continue as AFRICOM's top priority. We have agreements in place 
for mutual support with several partner nations, and the AFRICOM 
component forces are well integrated to support our requirements as 
best as possible to include those of interagency and international 
partners. In East Africa, we are currently sourced at 50 percent for 
Personnel Recovery Task Forces (PRTFs). A second PRTF is validated by 
the SECDEF as a requirement but is unsourced. With a second PRTF, 
AFRICOM could adequately cover the personnel who are operating outside 
the directed 6-hour response requirement. Risk is mitigated in North 
Africa by relying on the SPMAGTF as a multi-purpose solution; however, 
the aviation element of the SPMAGTF was reduced by half for fiscal year 
2017, limiting its response to a single crisis or operation such as 
either supporting New Normal crisis response or Personnel Recovery for 
Libya. In West Africa, where we have no pre-positioned Response Forces, 
AFRICOM mitigates risk through commercial Search and Rescue and 
casualty evacuation (CASEVAC) contract assets. As operations continue 
to expand, AFRICOM will likely require additional contracts at 
approximately $45 million per year.
             kenya, somalia, and counter-al-shabaab efforts
    20. Senator Perdue. General Waldhauser, last week, the Military 
Times reported that the DOD sent recommendations to the White House to 
increase assistance to the Somali National Army in their fight against 
al-Shabaab militants. Reports indicate that this would include giving 
U.S. special operations forces greater ability to accompany local 
troops on military operations against al-Shabaab and easing 
restrictions on when the U.S. can conduct airstrikes against the group. 
Could you discuss the current support we are giving to the Somali 
National Army and African Union forces?
    General Waldhauser. Currently in Somalia, our efforts center on 
enhancing the Somalia National Army and supporting the African Union 
Mission in Somalia (AMISOM). We are providing Advise/Assist/Accompany 
teams to facilitate the development of the Somalia National Army, as 
well as providing security force assistance, by way of equipment and 
training, with a focus on logistics, sustainment operations, medical 
capabilities, and institution building. Additionally, Somalia is 
receiving training and equipment from the United Kingdom, United Arab 
Emirates, Turkey, United Nations, and European Union, of which AFRICOM 
is linked. The role of the United Nations Special Representative of the 
Secretary General for Somalia and the emergence of the Security Six 
(S6) group of international donors (U.S., UK, Turkey, UAE, EU, and UN) 
has led to a more cohesive international support structure. With 
regards to African Union forces, or AMISOM, we are enhancing their 
capabilities in Somalia with training in preparation for their 
deployment, non-lethal equipment for the mission, maintenance training 
on that equipment, as well as mission-specific equipment and training 
that address medical needs, counter improvised explosive devices, force 
protection, and information gathering. USAFRICOM efforts focus on 
facilitating AMISOM's mission success while not duplicating efforts of 
the other contributing entities.

    21. Senator Perdue. General Waldhauser, where does this fall in 
your priority list for the continent?
    General Waldhauser. Enabling the Somali National Security Forces to 
neutralize al-Shabaab and assume responsibility for securing Somalia is 
one of my top priorities. Additional authorities that allow AFRICOM, 
AMISOM, and the SNA to put pressure on al-Shabaab are important. 
Simultaneously, improving Somali governance is equally important.

    22. Senator Perdue. General Waldhauser, what results are you seeing 
from the Partnership for Regional East Africa Counterterrorism program?
    General Waldhauser. The Partnership for Regional East Africa 
Counterterrorism (PREACT) is a State Department program, which began in 
2009, and is funded at $10 million providing multi-year authority to 
build sustainable partnership capacity and enhance the long-term 
resilience of governments and communities in East Africa to contain, 
degrade, and ultimately defeat the threat posed by al-Shabaab and 
affiliated violent extremist groups. Twelve countries are eligible for 
PREACT funding: Djibouti, Ethiopia, Kenya, Uganda, Somalia, Tanzania, 
Rwanda, Seychelles, Sudan, South Sudan, Comoros, and Burundi. PREACT is 
a critical element of AFRICOM's counterterrorism resourcing strategy by 
providing additional resources to current DOD-funded programs. PREACT 
supports training and equipping of East African partner nation military 
units, specifically communications, logistics, intelligence and 
aviation advisors. Additionally, PREACT has improved regional 
coordination and interoperability by providing regional military 
intelligence training, regional vehicle maintenance and logistics 
training, regional combat medical training and Defense Institution 
Building (DIB). We see positive results from the PREACT program. 
USAFRICOM has used PREACT to the benefit of our CT and CVE initiatives 
in Somalia, Kenya, Ethiopia, Uganda and other countries in the region. 
These initiatives include incorporating USAID, Department of Justice, 
and Department of State towards our security cooperation relationship. 
The program provides partner nations with both hard and soft power 
capabilities through their military, law enforcement, and public 
diplomacy and development tools to 1) Neutralize al-Shabaab; 2) Elevate 
Governance Reform, Human Rights, and Inclusive Economic Growth; and 3) 
Strengthen Regional Cooperation. Between fiscal year 2009 and fiscal 
year 2016, PREACT funds have trained over 2100 counterterrorism 
personnel in a range of skillsets including military intelligence, 
civil-military operations, logistics, communications, and Counter-
Improvised Explosive Device (C-IED). Partner nation personnel train 
both bilaterally and regionally, encouraging network building and 
collaboration in CT operation.

    23. Senator Perdue. General Waldhauser, can we realistically expect 
the Somali National Army to assume responsibility for security across 
the country by the time African Union forces are expected to withdraw 
by 2020?
    General Waldhauser. A complete transfer of responsibility from 
AMISOM to the Somali National Army will be difficult by 2020. However, 
there are two reasons for optimism in expecting significant progress 
toward this goal. In February, Somalia elected its first non-
transitional government in over a decade. President Farmaajo ran on a 
platform of reform and is making great strides to establish a national 
security architecture and to push his government to develop and sustain 
Somali National Security Forces that are able, accountable, affordable, 
and appropriate. Additionally, the international community, to include 
AMISOM, has made great strides in expanding and synchronizing training 
pipelines for Somali National Security Forces, and will continue to do 
so through 2018. The combined thrust of institutional reform and 
increased training capacity will result in a significantly larger and 
more capable Somali National Security Force by 2020. While this may not 
be enough to fully replace AMISOM, it should be enough to enable 
conditions-based drawdown planning and persuade some AMISOM troop 
contributing countries to remain beyond 2020, if required--possibly 
through the next election in 2021. That said, AMISOM's declared 
departure date has been helpful in spurring Somalia and international 
planning efforts. Additionally, AMISOM's drawdown and eventual 
departure will also remove a Somali population grievance that al-
Shabaab has been able to use in its information operations. Finally, 
there is potential for al-Shabaab to be degraded via reconciliation if 
broad Security Sector Reform gains steam. Al-Shabaab reductions via 
reconciliation would reduce the number of Somali National Security 
Forces required to replace AMISOM.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
            chain of command for counterterrorism operations
    24. Senator Gillibrand. General Votel and General Waldhauser, news 
reports indicate that the Administration is considering delegating the 
decision-making authority for counterterrorism operations to lower 
levels of the chain of command. Presumably, many of these operations 
will occur within your areas of responsibility. If this is done, how do 
we ensure that the impact of tactical and operational decisions made at 
your level do not have unintentional strategic consequences in the 
Middle East and Africa?
    General Votel. Regarding operational authorities, I can assure you 
that delegation occurs at levels that are wholly commensurate with the 
appropriate levels of military experience. Additionally, the rigorous 
processes and procedures ingrained through all levels of the Department 
of Defense--from the Secretary of Defense through the combatant 
commanders to the Combined/Joint Forces Commanders--ensure that, when 
given increased authorities, we have proactive measures in place to 
ensure that actions taken are responsible, appropriate and aligned with 
national objectives. I have the utmost faith in the men and women of 
CENTCOM to accomplish our directed missions. In addition, I'm in 
routine contact with my fellow combatant commanders and my subordinate 
commanders on day-to-day operations. COCOM commanders, including me and 
the commanders of EUCOM and AFRICOM work closely together to ensure 
that actions taken in our individual areas of responsibility do not 
have unintended strategic consequences in other areas.
    General Waldhauser. If there is a policy adjustment (changing the 
Presidential Policy Guidance for Procedures for Approving Direct Action 
Against Terrorist Targets Located Outside the United States and Areas 
of Active Hostilities (CT-PPG)) whereby the President delegates 
decision-making authority for CT operations, there are several existing 
and proposed mechanisms and strategies that ensure the effects of local 
tactical decisions within my area of responsibility do not have 
unintentional [negative] consequences in Africa or in other areas. At 
AFRICOM we exercise a rigorous decision making process whereby we 
continuously question the pros and cons of contemplated actions. We 
``Red Team'' pending operational decisions to determine any unintended 
consequences our actions may have in Africa or other parts of the 
globe. We question whether our adversaries may capitalize on our 
actions in social media or other forums; and then, having decided the 
pros outweigh the potential cons, we use deliberate planning processes 
to develop mitigation strategies against those potential negative 
effects. On a more global basis, the new administration has charged DOD 
with a 30-day push to develop a strategy for the global defeat of ISIS 
and other violent extremist organizations. This effort complemented an 
endeavor ongoing for roughly the last 18 months to develop a DOD plan 
to counter transregional terrorist organizations, having recognized 
that our regionally focused efforts created seams between the Combatant 
Commands that our adversaries were able to exploit. DOD is developing a 
revised Global Campaign Plan to Counter Violent Extremists in response 
to the new administration's direction and policy guidance. This plan is 
designed specifically to ensure that the department applies a global or 
transregional view to its activities and operations to create 
synchronization of our efforts. Organizationally, the Joint Staff 
created a staff section led by a general officer to align our efforts, 
and has reaffirmed Special Operations Command as the combatant 
commander charged with ensuring global coordination of CT efforts. The 
strategies, plans, and organizations within DOD are designed to ensure 
that our local actions do not negatively impact global efforts.

    25. Senator Gillibrand. General Votel and General Waldhauser, are 
you getting the strategic guidance you need to plan and execute these 
types of operations?
    General Votel. Yes, we are getting the strategic guidance necessary 
to plan and execute these types of operations. I'm in frequent contact 
with Secretary Mattis and General Dunford and appreciate their 
continued support.
    General Waldhauser. From my perspective, we are getting the 
strategic guidance necessary to execute CT operations. The Secretary of 
Defense (SECDEF) provides the necessary military guidance. 
Additionally, there is emergent strategic guidance from the 
administration based on National Security Presidential Memorandum-3 
(NSPM-3). At USAFRICOM we seek to link these operations to a whole-of-
government effort that address the long-term drivers of terrorism. The 
strategic guidance is necessary for the effective coordination of USG 
and international partner efforts across a planning horizon that 
includes post-conflict guidance on desired future conditions--both 
political and military. The political end-states also provides guidance 
for follow-on whole-of-government efforts after CT operations have been 
completed. Parts of Africa remain a battleground between ideologies, 
interests, and values. Equality, prosperity, and peace are often pitted 
against extremism, oppression, and conflict. Today, transregional 
violent extremist organizations (VEOs), coupled with an expanding youth 
bulge on the African continent, constitute the most direct security 
threat to our national interests. To address this threat, our military 
strategy articulates a long-term regionally focused approach for a safe 
and stable Africa. However, the military is not the only element of 
national power required to ensure stability on the continent. The 
robust support of our European allies and USG agency partners--the 
Department of State and U.S. Agency for International Development, in 
particular--are essential for building and maintaining stability. This 
soft power is critical for USAFRICOM to achieve our long-term military 
strategy. Programs that promote democracy, human rights, the rule of 
law, economic growth, improved access to education, and addressing food 
instability are vital to the development of African countries. Factors 
such as lack of education and healthcare, hope for a future, and a 
clear path to an honest livelihood will all impact the expanding youth 
bulge in Africa. Providing a viable alternate path, and thus preventing 
those youth from being radicalized by VEOs, is the biggest challenge in 
Africa.

    26. Senator Gillibrand. General Votel and General Waldhauser, even 
if the authority to make operational decisions is delegated, do you 
believe that the President, as Commander in Chief, retains 
responsibility for an operation's success or failure?
    General Votel. As Commander-in-Chief, the President provides 
strategic guidance to military and civilian leadership, along with the 
authorities required to execute operations as directed. Military 
commanders retain ultimate responsibility for an operation's success or 
failure.
    General Waldhauser. Yes, the President's role as Commander in 
Chief, as articulated in Article II of the Constitution and further 
codified in the Goldwater-Nichols Act of 1986, clearly establishes his 
position as the senior ranking member in the operational chain of 
command of our armed forces.

    27. Senator Gillibrand. General Votel and General Waldhauser, 
please explain the process by which you and your fellow combatant 
command colleagues will ensure that the President has the necessary 
information to make informed decisions about such operations.
    General Votel. As a combatant commander, I provide regular updates 
to the Secretary of Defense who reports to the President. Through these 
updates, along with other routine engagements with the Secretary and 
the Chairman of the Joint Chiefs of Staff, General Dunford, I and my 
fellow combatant commanders provide our best military advice and 
recommended courses of action for addressing issues and conducting 
operations. Additionally, major changes to existing operations or the 
introduction of new operations are coordinated through the interagency 
process which allows for concerns from outside Department of Defense to 
be voiced and for all elements of national power to be considered.
    General Waldhauser. The President can delegate to the SECDEF, who 
may further delegate to the combatant commanders a measure of decision 
authority bounded by time and geography to remove adversaries from the 
battlefield. When delegated, every measure will be taken to ensure our 
actions are limited to the minimum necessary to successfully engage 
individuals whose actions pose a threat to U.S. persons and interests 
around the globe. When delegated these counterterrorism authorities, 
current targeting principles will be employed:

    1.  The proposed action must clearly articulate why the targets 
need to be removed from the battlefield based on the threat they 
present to U.S. persons and interest.
    2.  We will ensure there is legal basis to target the individuals 
through consultation with combatant command judge advocates general, 
Office of General Counsel, and the National Security Staff legal 
advisors.
    3.  We will maintain the standard of near or reasonable certainty 
of positive identification of the targeted individuals or groups.
    4.  We will exercise extreme caution to ensure to best of our 
ability that non-combatants are not affected by our actions. AFRICOM 
regularly reports all its operations to senior leadership through the 
Chairman of the Joint Chiefs of Staff.
                                somalia
    28. Senator Gillibrand. General Waldhauser, Americans still 
remember how a routine raid to capture two Somali rebels in 1993 
disintegrated into one of the most lethal attacks on United States 
troops on African soil. Recent news reports indicate that the United 
States military may be taking a more active role in supporting African 
Union and Somali troops' counter-al-Shabaab efforts. What are the 
criteria by which ``self-defense'' strikes against al-Shabaab are 
currently selected and executed?
    General Waldhauser. Self-defense actions against al-Shabaab are 
conducted pursuant the ground force commander's inherent right and 
obligation to exercise self-defense under the Chairman of the Joint 
Chiefs of Staff Standing Rules of Engagement (SROE). Under the SROE, 
the U.S. may exercise self-defense to neutralize a hostile act or 
hostile intent when the lives of U.S. forces are at risk. The U.S. 
remains committed to our partners in eliminating terrorism and 
advancing security in the region. In certain circumstances, the U.S. 
may exercise self-defense of a properly designated partner force. In 
every case in which the U.S. takes military action, we are bound to 
adhere, as a matter of international law, to the law of armed conflict. 
This includes, among other things, adherence to the fundamental law of 
armed conflict principles of distinction, proportionality, necessity, 
and humanity.

    29. Senator Gillibrand. General Waldhauser, are news reports of 
Pentagon plans to increase U.S. offensive involvement in counter-al-
Shabaab operations accurate?
    General Waldhauser. USAFRICOM has requested additional authority 
that will add flexibility and timeliness to the targeting and decision 
making process. If approved, these authorities will allow us to 
prosecute targets in a more rapid fashion. Employment orders will not 
be given unless we know exactly who we are attacking on the ground.

    30. Senator Gillibrand. General Waldhauser, if so, can you tell us 
what the President's response has been to that recommendation?
    General Waldhauser. We are pleased the President approved our 
request for the additional authority on March 29th. This strike 
authority, to be used in conjunction with the Federal Government of 
Somalia, will enhance our ability to support the AMISOM mission and 
troop contributing countries, as well as help us to maintain pressure 
on the VEO network in Somalia.

    31. Senator Gillibrand. General Waldhauser, how will the military 
incorporate lessons that we learned from the 1993 operation into any 
such plans?
    General Waldhauser. The 1993 Battle of Mogadishu, to include 
missteps and mistakes, has been a case study from which the Special 
Operations Community and the entire U.S. military has used to learn. In 
today's operating environment, updated tactics, techniques and 
procedures and advanced technologies are now incorporated during 
operations to implement the lessons learned from the Battle of 
Mogadishu.
                              isil in iraq
    32. Senator Gillibrand. General Votel, media reports indicate that 
ISIL is returning to areas previously cleared by Iraqi security forces, 
such as Anbar and Salahuddin provinces, due to police authorities' 
inability to hold those areas, and a corrupt judiciary that allows some 
ISIL collaborators to abscond. Please share with us any additional 
information on this development that you have. I understand that you 
have a police force training effort underway in Mosul to guard against 
ISIL's resurgence after the city falls.
    General Votel. [Deleted.]

    33. Senator Gillibrand. General Votel, are you planning to expand 
this training effort to other Iraqi provinces?
    General Votel. [Deleted.]
                                  isr
    34. Senator Gillibrand. General Waldhauser, one of the issues that 
was raised wherever we went in Africa during a visit in 2015 was the 
limited amount of intelligence, surveillance and reconnaissance assets 
and the ability to share the intelligence we gathered with our partners 
on the ground. Do you currently have the necessary ISR capabilities for 
the operations you have described?
    General Waldhauser. AFRICOM's current ISR allocation partially 
satisfies operational requirements. AFRICOM has a Joint Staff validated 
23 Full Motion Video (FMV) orbit requirement, and is currently sourced 
with 7.75 FMV orbits. AFRICOM's current ISR allocation requires monthly 
prioritization for countering violent extremist organizations (VEOs) 
and monitoring emerging crises. Maximum flexibility for steady-state 
operations is achieved through active mission management of apportioned 
ISR platforms. AFRICOM utilizes the Global Force Management process to 
obtain additional ISR enablers appropriate for the threat and mission.

    35. Senator Gillibrand. General Waldhauser, are you now able to 
quickly share relevant information with our partners?
    General Waldhauser. Yes, USAFRICOM has established a number of 
sharing processes and procedures in order to support more agile 
information sharing with our partners on the ground. There has been a 
lot of work in the DOD and Intelligence Community Policy realm which 
have supported our efforts. On average, we are turning much of the 
information production the same day and in some instances can surge to 
support in near real time, as dictated by operational requirements.

    36. Senator Gillibrand. General Waldhauser, if not, what more can 
be done to make this process easier?
    General Waldhauser. USAFRICOM still requires input and programmatic 
funding from OSD to support a more robust architecture with which to 
disseminate and share classified information electronically to AFRICOM 
partners. In addition, annually supported OSD led security surveys 
would assist in ensuring information is managed and providing the 
appropriate level of security protection by the host nations. Lastly, 
support from the Air Force Battlefield Information Collection and 
Exploitation Systems (BICES) program office is necessary in 
accelerating AFRICOM's acquisition of the necessary communications 
architecture to be able to share classified information electronically.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                          iranian belligerence
    37. Senator Blumenthal. General Votel, Iran's continued and 
disturbing malign influence and actions over the last several weeks 
remain a key concern of mine. Within the last week, Iran has reportedly 
tested anti-ship ballistic missiles, tested a new Russian-made S-300 
missile air defense system, as well as harassed a U.S. Navy ship in the 
Strait of Hormuz by sending an Iranian frigate within 150 yards and 
smaller boats within 600 yards. Last month, the Iranians fired a 
medium-range ballistic missile in violation of a UN Security Council 
Resolution, resulting in U.S. sanctions enforcement against 25 
individuals and entities. What is CENTCOM doing to address Iran's 
recent actions?
    General Votel. Despite ongoing reductions in U.S. force posture in 
the region, CENTCOM addresses Iranian malign naval actions by 
maintaining a forward presence in the area of responsibility and is 
working to ensure that naval forces are enabled through appropriate 
rules of engagement, capabilities, and training. U.S. and partner 
forces in the region engage regularly in robust planning and training 
exercises to ensure readiness and to leverage complimentary 
capabilities. CENTCOM will continue to expose Iran's unique and 
unprofessional naval actions in order to hold them accountable.

    38. Senator Blumenthal. General Votel, how concerned are you with 
Iran's acquisition and testing of the S-300 missile air defense system 
and what is CENTCOM doing to address it?
    General Votel. Senator, it is a significant concern. Delivery of 
the S-300 culminated a sales agreement between Russia and Iran that 
CENTCOM has been monitoring since 2007. This system represents a 
significant improvement to Iranian lethality against conventional and 
fifth-generation advanced aircraft; however, I am confident in our 
tactics, techniques and procedures to defeat the S-300 in an open 
conflict. Of equal concern is how to deal with this system in peacetime 
should Iran choose to employ it to challenge U.S. or Coalition air 
superiority in the Arabian Gulf. While legacy Iranian surface to air 
missile systems, such as the S-200, could be used to threaten or harass 
commercial and military aviation in the Arabian Gulf, the S-300's 
increased lethality and capabilities could significantly expand their 
ability to impact routine CENTCOM operations in international airspace. 
We will continue to monitor the basing and movement of the S-300, 
ensure our aircrews continuously review their capabilities to operate 
safely and effectively in support of our current operations and will 
only alter mission profiles when absolutely necessary.

    39. Senator Blumenthal. General Votel, it is well known that Iran 
strongly backs and supports Hezbollah. What steps are you taking to 
counter the threat posed by Hezbollah?
    General Votel. CENTCOM works to Build Partner Capacity through 
Foreign Military Sales, Foreign Military Loans, exercises and training 
with regional partners in our area of responsibility to enable their 
ability to counter the military threat posed by Lebanese Hezbollah as 
part of the Prepare component of our regional strategy. Our mil-to-mil 
activities focus primarily on the Lebanese Armed Forces, to eventually 
provide a viable alternative to Lebanese Hezbollah. These efforts also 
contribute to diminishing the perception and narrative that Lebanese 
Hezbollah exists to defend Lebanon against the Israeli threat.
                                  isil
    40. Senator Blumenthal. General Votel, United States forces in 
Syria are authorized to operate to train, assist, and advise coalition 
partners to defeat ISIL. ISIL is no longer in Manbij. What authority 
justifies the Army's 75th Ranger Regiment's presence?
    General Votel. As part of the campaign against ISIS, the United 
States is using force against elements in Syria. The Coalition Forces 
Commander exercises authority as outlined in Joint Staff order to 
employ his forces in Syria as part of the overall campaign to defeat 
ISIS. As part of the overall campaign plan, small teams of United 
States special operations forces have also deployed to Syria to help 
coordinate United States operations with some of these indigenous 
ground forces. One of these indigenous partnered forces, the SAC/Syrian 
Defense Force, successfully liberated Manbij from ISIS and then 
transitioned governance to the Manbij Council. Coalition forces remain 
to ensure that ISIS is not able to reestablish itself in the area as 
part of the assigned complementary mission to advise and assist partner 
security forces operating in liberated areas, in this case--Manbij. 
Additionally, these forces provide over watch of the situation in 
Manbij and provide a measure of assurance to our partners. Currently, 
elements of the 75th Ranger Regiment are fulfilling this requirement, 
because they constitute the most appropriate and available force for 
the mission.

    41. Senator Blumenthal. General Votel, Marines have arrived in 
Syria to establish an outpost near Raqqa to fire artillery in support 
United States-backed forces fighting to retake Raqqa from ISIL. Between 
the Army and the Marines, this is a noticeable escalation of our 
involvement in Syria. How large is our force presence in Syria now?
    General Votel. [Deleted.]

    42. Senator Blumenthal. General Votel, Secretary Mattis presented a 
classified plan to the White House to defeat ISIL, as requested by 
President Trump in an Executive Order earlier this year. Although we 
have not seen the plan, there are reports that it could include an 
increased U.S. ground presence and military equipment. What was your 
role in the development of this plan?
    General Votel. Our Coalition Military Campaign Plan remains the 
Coalition's plan to defeat ISIS in Iraq and Syria, and of course we 
have shared our plan as well as other contingency plans with Secretary 
Mattis and his staff. My staff is working with the Joint Staff and the 
Office of the Secretary of Defense on the planning efforts to help 
inform the new administration, and I feel comfortable with my level of 
coordination, collaboration, and alignment with the Secretary, the 
Chairman, and our staffs.

    43. Senator Blumenthal. General Votel, to defeat ISIL, do you 
believe we need a more robust ground presence? If so, what would it 
consist of?
    General Votel. Our approach of providing advice, assistance, and 
key enabling capabilities in support of the indigenous forces in Iraq 
and Syria is working. Not only is it working, but the approach is 
important for a sustainable victory over ISIS, as it places the 
responsibility of defeating ISIS on those who continue living in the 
area. The ``by, with and through'' approach does require operational 
patience, but the indigenous forces have a vested interest in getting 
it right. I am satisfied with the force structure that we currently 
have in place to support our indigenous partners. However, if 
conditions on the ground dictate that we need additional assets to 
enable their maneuver better, we will make the necessary requests 
through appropriate channels.
                                djibouti
    44. Senator Blumenthal. General Waldhauser, a new Chinese base is 
being built just a few miles from Camp Lemonnier. How will it impact 
our own installation and operations? Will we need to make operational 
adjustments? Are you concerned about security risks--be it physical or 
cyber?
    General Waldhauser. From an operational perspective, we have 
concerns about the Chinese presence in Djibouti. We will continue to 
remain vigilant in order to ensure every aspect of our operational 
security is in place and our operations are not degraded or 
compromised. In the meantime, we will continue to engage with the 
Government of Djibouti on issues that impede an amenable China-United 
States co-existence within their country. We will also look for 
opportunities to engage with China in meaningful ways to support our 
mutual interests for a stable and secure Africa.

    45. Senator Blumenthal. General Waldhauser, Djibouti is a strategic 
location for China, with half its oil imports passing through the 
Mandeb Strait providing a potential choke point. This creates a 
vulnerability requiring escorts for these ships. Do you have concerns 
that China will increase its naval presence in the area? What impact 
will that have on our operations?
    General Waldhauser. Djibouti is not only a strategic location for 
China but for the United States as well. China has contributed some 
naval assets to the Combined Task Force in the counterpiracy effort off 
Somalia, and this has helped the unified international effort. On the 
other hand, we have concerns about China's increasing presence in 
Djibouti. Though China is referring to its base as a ``support 
facility,'' this facility will be an operations base. As the Chinese 
begin to increase their naval presence at this facility, we must be 
vigilant on the possible impact on our operations and the likelihood 
that China could potentially use its base to support forward deployed 
assets, as well as grant access to Russia. With the distinct 
possibility of more naval assets in the area, we may have to increase 
our engagements with the Chinese to deconflict space for our 
operations.
                     military presense/force levels
    46. Senator Blumenthal. General Votel, an Afghan official disclosed 
to the Wall Street Journal that in December then President-elect Trump, 
in a conversation with Afghan President Ashraf Ghani, said he would 
support Afghan forces and entertain increasing troops following an 
assessment. Has an assessment been ordered?
    General Votel. Yes, there are parallel efforts ongoing within the 
National Security Council, Department of Defense, and CENTCOM. My 
staff, in conjunction with General Nicholson, is conducting a review 
and will provide recommendations to Secretary Mattis and General 
Dunford.

    47. Senator Blumenthal. General Votel, how important is the 
continuance of the NATO Resolute Support Mission in training, advising 
and assisting the Afghan Security Forces and institutions?
    General Votel. Senator, it is essential that there is a continuance 
of the NATO Resolute Support Mission. I'll echo comments made by 
General Nicholson, commander, Resolute Support that the 39 nations' 
four-year commitment made at the 2016 Warsaw Summit and Brussel's donor 
conference served to strengthen the Afghans' resolve and sent a strong 
message to the enemy. This support demonstrates that the international 
community remains committed to the success of both the mission and the 
Government of the Islamic Republic of Afghanistan.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, MARCH 23, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                     UNITED STATES EUROPEAN COMMAND

    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Rounds, Ernst, Tillis, Sullivan, Cruz, Sasse, Reed, 
Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Hirono, Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the posture of United States European 
Command. I would like to welcome General Scaparrotti, who is 
back before the committee. I am sure he has been eagerly 
awaiting that opportunity. We thank you for your decades of 
distinguished service and for your leadership of our men and 
women in uniform.
    This morning, our thoughts and prayers are with the loved 
ones of the four innocent people killed and dozens more injured 
in an attack in the heart of London that police believe was 
inspired by radical Islamist terrorists. We stands in 
solidarity with the British people, committed as ever to our 
special relationship and to the common defense of our security 
and our values.
    Three years ago this last week, Russia violated Ukrainian 
sovereignty and annexed Crimea, a seminal event that revealed 
what had already been increasingly obvious for years: that the 
United States and our European allies confront an aggressive, 
militarily capable Russian Government that is hostile to our 
interests and our values and willing to use force not as a last 
resort but as a primary tool to achieve its revisionist 
objectives. Many believe this challenge had been consigned to 
the history books. Indeed, the United States operated under 
that assumption for far too long, drastically reducing our 
military presence, allowing our intelligence capabilities to 
wither, and unilaterally disengaging from the information 
fight.
    I might add that yesterday we received information that 
Sergei Magnitsky who was murdered by Vladimir Putin's thugs--
his lawyer was thrown from a fourth floor room. I mean, this 
kind of stuff you cannot make up. It is an indication of 
Vladimir Putin's feeling of impunity that he can go around 
killing people without any penalty to pay. I am sure that what 
Mr. Putin was trying to do is send a message to anybody else in 
Russia who wants to stand up against him. I digress.
    Three years later, I regret to say the United States still 
has not adjusted to the scope, scale, and severity of the new 
strategic reality we face in Europe. We continue to lack 
coherent policy and strategy to deter conflict and prevent 
aggression in Europe. Despite important progress made through 
the European Deterrence Initiative, we still have no long-term 
vision for United States force posture in Europe, one that 
accounts for Russia's rapid military modernization, evolving 
nuclear doctrine, violations of the INF [Intermediate-Range 
Nuclear Forces] Treaty, advanced anti-access/area denial threat 
concentrated in Kaliningrad, and significant military buildup 
along its western border.
    Indeed, as General Scaparrotti points out in his written 
testimony--and I quote--``the ground force permanently assigned 
to EUCOM [United States European Command] is inadequate to meet 
the combatant command's directed mission to deter Russia from 
further aggression.''
    The new administration has an opportunity to turn the page 
and design a new policy and strategy in Europe backed by all 
elements of American power and decisive political will. General 
Scaparrotti, we hope you can help this committee begin to think 
through the basic requirements for such a policy and strategy 
and what resources and authority you need both as European 
Commander and Supreme Allied Commander, Europe to deter and, if 
necessary, defeat aggression against the United States and our 
allies.
    Some of the features of a new approach in Europe are 
already clear. For example, the need to enhance the forward 
presence of United States military forces and provide defensive 
lethal assistant to Ukraine. But we still have a lot of work to 
do in other areas, particularly in countering Russian 
disinformation and devising gray zone strategies for 
competition below the threshold of major conflict.
    What is also clear is that no United States policy or 
strategy in Europe can be successful without our NATO [North 
Atlantic Treaty Organization] allies. At the 2014 NATO Summit 
in Wales, the leaders of every NATO ally pledged to reach the 
goal of spending 2 percent of their GDP [Gross Domestic 
Product] on defense by 2024. The good news is that according to 
NATO Secretary-General Jens Stoltenberg, defense budgets across 
Europe and Canada increased by 3.8 percent last year, or by 
some $10 billion.
    This is important progress, but we must be careful not to 
reduce the NATO alliance of the notion of burden sharing to 
simply 2 percent. Our allies do not just need to spend more, 
they need to spend better. One senior European official 
recently said that Europe spends roughly 50 percent of the 
United States on defense, but produces just 15 percent of the 
capability because defense purchases are uncoordinated, 
duplicative, and inefficient. That is why enhancing European 
security is not just a job for NATO but also for the European 
Union, which has an important role to play in encouraging 
cooperative defense acquisition and operation of modernized 
defense equipment.
    Finally, we must never forget that the essential 
contributions America's allies make to our national security 
are not measured in dollars alone. After the September 11th 
attacks killed 2,600 Americans and 135 citizens of NATO 
countries, for the first time in history, our NATO allies 
invoked article 5 of the North Atlantic Treaty. NATO troops 
went to fight side by side with American troops in Afghanistan, 
and over 1,000 of them made the ultimate sacrifice.
    The price our NATO allies paid in blood fighting alongside 
us should never be diminished. We must never forget that 
America is safer and more secure because it has allies that are 
willing to step up and share the burden of collective security.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, for 
holding this timely and important hearing.
    I join you in solidarity with our British allies and 
applaud your comments.
    Thanks also to General Scaparrotti for your nearly 40 years 
of service in the military, your leadership in Afghanistan, 
Korea, and now at United States European Command. Also, please 
pass along our sincere gratitude for the outstanding service of 
all the men and women who serve with you in EUCOM. Thank you, 
General.
    The transatlantic relationship is a cornerstone of U.S. 
national security and the international order established at 
the end of World War II. Our European allies and partners have 
stood with us in maintaining the peace, including in coalition 
operations in Afghanistan and fighting terrorist extremists in 
Iraq and Syria. The NATO alliance remains strong and is 
grounded in a shared vision of an integrated and stable Europe 
rooted in respect for sovereignty and political and economic 
freedom.
    I am concerned, however, about the mixed signals that the 
current administration seems to be sending regarding the United 
States commitment to NATO and the willingness to cut a deal 
with Russia. Secretary Tillerson's reported decision to skip a 
NATO foreign ministers meeting next month and take a trip to 
Moscow prior to a NATO summit in May has raised concerns in 
some European capitals. I urge Secretary Tillerson to 
reconsider his attendance at NATO next month and send a strong 
signal of our unwavering support for the alliance.
    The broad and growing challenges facing the EUCOM Commander 
mean that alliance unity is more important than ever. The 
cohesion of NATO is being directly threatened by Russia. 
President Putin has repeatedly shown he will use military force 
to assert a Russian sphere of influence over its neighbors and 
to undermine their further integration into Europe. Nowhere is 
this more evident than in Ukraine where Russia has used hybrid 
warfare tactics to seize Crimea and continues to support 
militarily and financially Russian-led separatists in eastern 
Ukraine, in violation of Russia's commitments under the Minsk 
agreements. As we heard at Tuesday's panel of distinguished 
former government officials, it is critically important that we 
assist Ukraine in resisting Russian pressure and instituting 
democratic reforms. A successful, reformed Ukraine would 
provide a powerful alternative to Putin's autocratic rule.
    The United States has taken significant steps in recent 
years to rebuild its military presence in Europe and reassure 
our allies and partners threatened by renewed Russian 
aggression. The European Deterrence Initiative, or EDI, and the 
NATO enhanced forward presence have increased the rotational 
presence of forces in Eastern Europe. In addition, while many 
NATO members to fall short of the 2 percent of GDP target for 
defense spending, defense budgets among NATO nations are 
increasing and a number of allies are making significant in-
kind contributions as well. Questions remain, however, whether 
we have the appropriate mix of forces in Europe, both 
quantitatively and qualitatively, and I hope you will address 
these questions this morning.
    Russia is deploying the full array of tools in the Kremlin 
playbook to challenge the West. This includes aggressive 
actions in the nuclear realm. I agree with the experts on 
Tuesday's panel regarding the importance of responding strongly 
to Russia's fielding of a missile system in violation of the 
Intermediate-Range Nuclear Forces, or INF, Treaty. In addition, 
Russia's nuclear doctrine of escalate to deescalate is not only 
deeply disturbing but potentially catastrophic.
    Also disconcerting is Russia's increasing boldness in using 
non-military tools to target Western democracies and advance 
Putin's strategic aims. Russia is employing an array of covert 
and overt asymmetric weapons in the gray zone short of military 
conflict, including cyber hacking, disinformation, propaganda, 
economic leverage, corruption, and even political 
assassination. To counter this insidious Russian interference, 
we must begin by recognizing it as a national security threat. 
Further, the intelligence community has warned that the kinds 
of Kremlin-directed malign activities witnessed in last year's 
United States presidential election are likely to re-occur in 
the future, including during elections in France, Germany, and 
elsewhere in Europe this year. Responding to this national 
security threat will require a whole-of-government approach and 
a comprehensive strategy for pushing back against Russia 
broadly.
    EUCOM faces a number of other challenges as well. This 
includes increasing instability in the Balkans where Russian 
influence operations are feeding Serbian resentments both in 
Serbia and among Bosnian Serbs. In addition, in the Balkans, 
where traditionally a moderate form of Islam has been 
practiced, there are growing Islamic Salafist influences as a 
result of a mosque-building campaign funded by Saudi Arabia. On 
its southeastern border, EUCOM must contend with the 
instability arising from Syria and the transnational threats 
emanating from that conflict. To the south, the migration 
crisis in the Mediterranean countries continues to strain 
European resources for security. General, I am interested in 
hearing how NATO is handling these myriad of problems and how 
the United States can be helpful.
    Again, I want to thank General Scaparrotti for his service 
and I look forward to this morning to his testimony.
    Chairman McCain. Good morning, General.

  STATEMENT OF GENERAL CURTIS M. SCAPARROTTI, USA, COMMANDER, 
     U.S. EUROPEAN COMMAND/SUPREME ALLIED COMMANDER, EUROPE

    General Scaparrotti. Chairman McCain, Ranking Member Reed, 
and distinguished members of the committee, I am honored to 
testify today as the Commander of the United States European 
Command. On behalf of over 60,000 permanently assigned 
servicemembers, as well as civilians, contractors, and their 
families who serve and represent our Nation in Europe, thank 
you for your support.
    Before starting, I would like to also express my condolence 
on behalf of the entire European Command team for the civilians 
and policemen killed and wounded in yesterday's terrorist 
attack in the UK [United Kingdom]. Our thoughts and prayers go 
out to these victims and their families impacted by this 
senseless attack. We strongly condemn this attack and will 
continue to stand shoulder to shoulder with our NATO ally and 
our partners to defeat terrorism.
    Chairman, the European theater remains critical to our 
national interests. The transatlantic alliance gives us a 
unique advantage over our adversaries, a united, capable 
warfighting alliance resolved in its purpose and strengthened 
by shared values that have been forged in battle. EUCOM's 
relationship with NATO and the 51 countries within our AOR 
[Area of Responsibility] provides the United States with a 
network of willing partners who support global operations and 
secure international rules-based order. Our security 
architecture protects more than one billion people and has 
safeguarded transatlantic trade which now constitutes almost 
half of the world's GDP.
    However, this security architecture is being tested, and 
today we face the most dynamic European strategic environment 
in recent history. Political volatility and economic 
uncertainty are compounded by threats to our security system 
that are trans-regional, multi-domain, and multi-functional. In 
the east, a resurgent Russia has turned from partner to 
antagonist as it seeks to reemerge as a global power. Countries 
along Russia's periphery, including Ukraine and Georgia, 
struggled against Moscow's malign activities and military 
actions. In the southeast, strategic drivers of instability 
converge on key allies, especially Turkey, which has to 
simultaneously manage Russia, terrorists, and refugee flows. In 
the south, violent extremists and transnational criminal 
elements spawn terror and corruption from North Africa to the 
Middle East, while refugees flee to Europe in search of 
security and opportunity. In the high north, Russia is 
reasserting its military presence and positioning itself for 
strategic advantage in the Arctic.
    In response to these challenges, EUCOM has shifted its 
focus from security cooperation and engagement to deterrence 
and defense. Accordingly, we are adjusting our posture, our 
plans, our readiness so that we remain relevant to the threats 
we face. In short, we are returning to the historic role as a 
warfighting command focused on deterrence and defense.
    EUCOM's transition would not be possible without the 
congressional support of the European Deterrence Initiative. 
Thanks in large measure to ERI, or EDI, over the last 12 
months, EUCOM has made clear progress with an enhanced forward 
presence or force presence, complex exercises and training, 
infrastructure improvements, increased prepositioning of 
equipment and supplies, and partner capacity building 
throughout Europe.
    But we cannot meet these challenges alone. In response to 
Russian aggression, EUCOM has continued to strengthen our 
relationship with strategic allies and partners, including the 
Baltic nations, Poland, Turkey, and Ukraine. EUCOM has also 
strengthened ties with Israel, one of our closest allies. Above 
all, EUCOM has supported the NATO alliance which remains, as 
Secretary Mattis said, the bedrock of our transatlantic 
security.
    Thus, EUCOM posture is growing stronger, and I remain 
confident in our ability to affect this transition. But there 
is much work to do. We must not only match but outpace the 
modernization and advances of our adversaries. We must invest 
in the tools and capabilities needed to increase effectiveness 
across the spectrum of conflict. We must ensure that we have a 
force that is credible, agile, and relevant to the dynamic 
demands of this theater.
    To this end, EUCOM has identified the following focus 
areas: ISR collection platforms that improve timely threat 
information and strategic warning; land force capabilities that 
deter Russia from further aggression; enhanced naval 
capabilities for antisubmarine warfare, strike warfare, and 
amphibious operations; prepositioned equipment to increase our 
responsiveness to crisis and enhance missile defense systems.
    Let me conclude by again thanking this committee's members 
and staff for their continued support of EUCOM not only through 
increased funding but also by helping us to articulate the 
challenges that lie before us. Support from other senior 
leaders and, above all, the public at home and across Europe is 
vital to ensuring that we have a ready and relevant force.
    This remains a pivotal time for EUCOM as we transition to 
meet the demands of a dynamic security environment. I remain 
confident that through the strength of our alliances and 
partnerships and with the professionalism of our 
servicemembers, we will adapt and ensure Europe remains whole, 
free, and at peace.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Scaparrotti follows:]

          Prepared Statement by General Curtis M. Scaparrotti
                            i. introduction
    Mr. Chairman and distinguished members of this Committee, I am 
honored to testify before you in my first year as the Commander of 
United States European Command (EUCOM). It is a privilege to lead the 
great soldiers, sailors, airmen, marines, coast guardsmen, and 
civilians in this Command. They continue to demonstrate remarkable 
commitment, dedication, and selfless service both in Europe and across 
the globe. We all appreciate your continued support.
    The European theater remains critical to our national interests. 
The transatlantic alliance gives us an unmatched advantage over our 
adversaries--a united, capable, warfighting alliance resolved in its 
purpose and strengthened by shared values that have been forged in 
battle. EUCOM's relationship with NATO and the 51 countries within our 
Area of Responsibility (AOR) provides the United States with a network 
of willing partners who support global operations and secure the 
international rules-based order that our nations have defended together 
since World War II. Our security architecture protects more than one 
billion people and has safeguarded transatlantic trade, which now 
constitutes almost half of the world's combined GDP.
    Nevertheless, today we face the most dynamic European security 
environment in history. Political volatility and economic uncertainty 
are compounded by threats to our security system that are trans-
regional, multi-domain, and multi-functional. In the East, a resurgent 
Russia has turned from partner to antagonist. Countries along Russia's 
periphery, especially Ukraine and Georgia, are under threat from 
Moscow's malign influence and military aggression. In the Southeast, 
strategic drivers of instability converge on key allies, especially 
Turkey, which has to simultaneously manage Russia, terrorists, and 
refugee flows. In the South, violent extremists and transnational 
criminal elements spawn terror and corruption from North Africa to the 
Middle East, while refugees and migrants fleeing persecution to Europe 
in search of security and opportunity. In the High North, Russia is 
reasserting its military prowess and positioning itself for strategic 
advantage in the Arctic.
    EUCOM fully recognizes the dynamic nature of this security 
environment, and in response, we are regenerating our abilities for 
deterrence and defense while continuing our security cooperation and 
engagement mission. This requires that we return to our historical role 
as a command that is capable of executing the full-spectrum of joint 
and combined operations in a contested environment. Accordingly, we are 
adjusting our posture, plans, and readiness to respond to possible 
future conflicts.
    This shift would not be possible without congressional support of 
the European Reassurance Initiative (ERI). Thanks in large measure to 
ERI, over the last 12 months EUCOM has made demonstrable progress. 
United States tanks have returned to European soil. United States F-15s 
and F-22s have demonstrated air dominance throughout the theater. 
United States naval forces have sailed throughout European waters. 
EUCOM has operationalized its Joint Cyber Center. With the approval of 
former Secretary Carter, EUCOM delivered the first new operational plan 
for the defense of Europe in over 25 years.
    ERI also supports high-end exercises and training, improved 
infrastructure, and enhanced prepositioning of equipment and supplies, 
while State Department and DOD funds build partner capacity throughout 
Europe.
    EUCOM has also continued to strengthen our relationship with allies 
and partners. Our relationship with Turkey endured a coup attempt with 
minimal disruption to multiple ongoing operations. EUCOM has 
strengthened ties with Israel, one of our closest allies. Above all, 
EUCOM has supported the NATO Alliance, which remains, as Secretary 
Mattis has said, the ``bedrock'' of our transatlantic security. Overall 
EUCOM is growing stronger.
              ii. theater assessment--risks and challenges
    Over the past year I have highlighted three signature issues facing 
us in this dynamic security environment: Russia, radicals or violent 
extremists, and regional unrest--leading to refugee and migrant flows. 
At the same time, managing the political, economic, and social 
challenges posed by refugees and migrants is a consuming concern of our 
allies and partners.
Russia
    Russia's malign actions are supported by its diplomatic, 
information, economic, and military initiatives. Moscow intends to 
reemerge as a global power, and views international norms such as the 
rule of law, democracy, and human rights as components of a system 
designed to suppress it. Therefore, Russia seeks to undermine this 
international system and discredit those in the West who have created 
it. For example, Russia is taking steps to influence the internal 
politics of European countries just as it tried to do in the United 
States in an attempt to create disunity and weakness within Europe and 
undermine the transatlantic relationship. Furthermore, Russia has 
repeatedly violated international agreements and treaties that underpin 
European peace and stability, including the Treaty on Intermediate-
Range Nuclear Forces (INF) and the Treaty on Conventional Armed Forces 
in Europe (CFE), and it is undermining transparency and confidence 
building regimes such as the Vienna Document and Open Skies, which 
provides greater transparency of posture and exercises in the region
    Russia's political leadership appears to seek a resurgence through 
modernization of its military. Russia is adjusting its doctrine, 
modernizing its weapons, reorganizing the disposition of its forces, 
professionalizing its armed services, and upgrading capabilities in all 
warfighting domains. Russia desires a military force capable of 
achieving its strategic objectives and increasing its power.
    Russia's aggression in Ukraine, including occupation and attempted 
annexation of Crimea, and actions in Syria underscore its willingness 
to use military force to exert its influence in Europe and the Middle 
East. In Ukraine, Russia's willingness to foment a bloody conflict into 
its third year through the use of proxy forces in the Donbas, and 
elsewhere, is deeply troubling to our allies and partners, particularly 
Russia's closest neighbors. In Syria, Russia's military intervention 
has changed the dynamics of the conflict, bolstered the Bashar al-Assad 
regime, targeted moderate opposition elements, and compounded human 
suffering in Syria, and complicated United States and coalition 
operations against the Islamic State of Iraq and Syria (ISIS). Russia 
has used this chaos to establish a permanent presence in the Middle 
East and eastern Mediterranean.
    This past year saw other significant demonstrations of Russia's 
renewed military capability, including the first ever combat deployment 
of the KUZNETSOV Task Force, nation-wide strategic exercises, joint 
air, ground, and maritime operations in Syria using new platforms and 
precision-guided munitions, and the deployment of nuclear-capable 
missiles to Kaliningrad. Russia's deployment in Ukraine and Syria also 
revealed increased proficiency in expeditionary combat and sustainment 
operations.
    Another key component of Russia's military advancement is its 
Integrated Air Defense Systems (IADS). For example, in connection with 
its deployment to support the Assad regime in Syria, Russia fielded 
advanced Anti-Access / Area Denial (A2/AD) systems that combine command 
and control and electronic warfare capabilities, and long range coastal 
defense cruise missiles with advanced air defense platforms. EUCOM 
assesses that Russia plans to meld existing and future IADS systems 
into a central command structure to control all air defense forces and 
weapons.
    In the High North, Russia continues to strengthen its military 
presence through equipment, infrastructure, training, and other 
activities. Russia is positioning itself to gain strategic advantage if 
the Northern Sea Route opens and becomes a viable shipping lane between 
Europe and Asia.
    Most concerning, however, is Moscow's substantial inventory of non-
strategic nuclear weapons in the EUCOM AOR and its troubling doctrine 
that calls on the potential use of these weapons to escalate its way 
out of a failing conflict. Russia's fielding of a conventional/nuclear 
dual-capable system that is prohibited under the INF Treaty creates a 
mismatch in escalatory options with the West. In the context of Putin's 
highly centralized decision-making structure, Moscow's provocative 
rhetoric and nuclear threats increase the likelihood of 
misunderstanding and miscalculation.
    In addition to recent conventional and nuclear developments, Russia 
has employed a decades-long strategy of indirect action to coerce, 
destabilize, and otherwise exercise a malign influence over other 
nations. In neighboring states, Russia continues to fuel ``protracted 
conflicts.'' In Moldova, for example, Russia has yet to follow through 
on its 1999 Istanbul summit commitments to withdraw an estimated 1,500 
troops--whose presence has no mandate--from the Moldovan breakaway 
region of Transnistria. Russia asserts that it will remove its force 
once a comprehensive settlement to the Transnistrian conflict has been 
reached. However, Russia continued to undermine the discussion of a 
comprehensive settlement to the Transnistrian conflict at the 5+2 
negotiations. Moscow continues to play a role in destabilizing the 
Nagorno-Karabakh dispute by selling arms to both parties--Armenia and 
Azerbaijan--while maintaining troops in Armenia, despite an 
international pledge to co-chair Minsk Group charged with seeking 
resolution of the conflict.
    Russia fiercely opposes one of our strongest EUCOM partners, 
Georgia, in its attempts to align with the European and transatlantic 
communities. Russia's occupation of Abkhazia and South Ossetia since 
its 2008 invasion the Georgian regions of has created lasting 
instability.
    In the Balkans, Russia exploits ethnic tensions to slow progress on 
European and transatlantic integration. In 2016, Russia overtly 
interfered in the political processes of both Bosnia-Herzegovina and 
Montenegro.
    Additional Russian activities short of war, range from 
disinformation to manipulation. Examples include Russia's outright 
denial of involvement in the lead up to Russia's occupation and 
attempted annexation in Crimea; attempts to influence elections in the 
United States, France and elsewhere; its aggressive propaganda 
campaigns targeting ethnic Russian populations among its neighbors; and 
cyber activities directed against infrastructure in the Baltic nations 
and Ukraine. In all of these ways and more, Russia is attempting to 
exert its influence, expand its power, and discredit the capability and 
relevance of the West.
Radicals
    Violent extremists, most notably ISIS, pose a serious, immediate 
threat to United States personnel, our allies, and our infrastructure 
in Europe and worldwide. In 2016, there were major terrorist attacks in 
Berlin, Brussels, Istanbul, Nice, Paris, and elsewhere. ISIS has made 
its intentions clear: it seeks to overthrow Western civilization and 
establish a world-wide caliphate.
    While it's footprint in Iraq and Syria shrunk in 2016, since 2014, 
ISIS has significantly expanded its operations throughout Europe and 
now leverages its network to enable and inspire attacks by European-
based extremists in their resident countries. Further, ISIS has 
exploited the migration crisis to infiltrate operatives into Europe. 
Since Turkey expanded its counter-ISIS role and advocacy for coalition 
operations in Mosul, it has experienced an increased number of 
terrorist attacks, and ISIS's leaders have called for more. We do not 
expect the threat to diminish in the near future.
    As a consequence of this threat, European nations have been forced 
to divert financial resources and military personnel to internal 
security. The impact of this reallocation is not yet fully appreciated 
and will likely persist for years. In short, violent extremism poses a 
dangerous threat to transatlantic nations and to the international 
order that we value.
Regional Volatility
    In EUCOM's AOR, Russia's indirect actions have sought to exploit 
political unrest and socioeconomic disparities. Russian aggression in 
Ukraine has led to the deaths of approximately 10,000 people since 
April 2014. Recently in eastern Ukraine, Russia controls the battle 
tempo, again ratcheting up the number of daily violations of the cease 
fire and--even more concerning--directing combined Russian-separatist 
forces to target civilian infrastructure and threaten and intimidate 
OSCE [Organization for Security and Co-operation in Europe] monitors in 
order to turn up the pressure on Ukraine. Furthermore, Moscow's support 
for so-called ``separatists'' in eastern Ukraine destabilizes Kyiv's 
political structures, particularly as Ukraine undertakes politically-
difficult reforms to combat corruption and comply with IMF 
requirements.
    Ukraine seeks a permanent and verifiable ceasefire, the withdrawal 
of heavy weapons and Russian forces, full and unfettered access for 
OSCE monitors, and control over its internationally-recognized border 
with Russia. Russian-led separatist forces continue to commit the 
majority of ceasefire violations despite attempts by the OSCE to broker 
a lasting ceasefire along the line of contact.
    Turkey has long been and remains an ally of the United States. It 
now occupies a critical location at the crossroads of multiple 
strategic challenges. To its west, it implements the Montreux 
Convention, which governs transit through the Turkish Straits, and is 
committed to local solutions for Black Sea issues. To its north and 
east, Turkey maintains a complicated relationship with Russia. Ankara 
seeks to resume the level of trade with Moscow that it enjoyed prior to 
Turkey's November 2015 shoot down of a Russian fighter. Turkey has 
absorbed the largest number of refugees from Syria--almost three 
million. Despite these challenges, EUCOM continues to work closely with 
Turkey to enable critical basing and logistical support to the counter 
ISIS fight and supports Turkey to counter its terror threat.
    Although the flow of refugees to Europe has slowed, the refugee 
situation remains a significant challenge to our European allies and 
partners. The strain on the social systems of European nations, 
especially along the Mediterranean Sea, diverts resources that could 
otherwise go toward military and defense spending, and finding 
solutions has tested political relationships. EU [European Union] 
member states struggle to find a common, ``shared'' approach to admit 
and settle migrants. Both NATO and the EU, in conjunction with Turkish 
and Greek authorities, have committed law enforcement and military 
assets to this issue, including a maritime force in the Aegean Sea to 
conduct reconnaissance, monitoring, and surveillance.
    The Syrian civil war and the risk of spillover into neighboring 
states, including Israel, continue to threaten stability in Europe and 
the Levant. Despite assistance from the USG [U.S. Government] and the 
international community, the refugee population in Jordan and Lebanon 
has placed significant burdens on the government and local residents. 
Additionally, factional fighting in Syria has resulted in occasional 
cross-border fire into the Israeli-occupied Golan Heights. Israel has 
avoided being drawn into the conflict in Syria but has taken military 
action to deny the transfer of advanced weapons to Hezbollah.
    The Balkans' stability since the late 1990's masks political and 
socio-economic fragility. Russia promotes anti-European views in this 
region by exploiting corrupt political systems, poor economic 
performance, and increased ethnic polarization. Additionally, Islamic 
radicals seek to take advantage of high unemployment rates, political 
turmoil, and socioeconomic disparities to recruit violent extremists.
    Iran's regional influence in the Levant continues to grow through 
its ongoing support to radical groups such as Lebanese Hezbollah, 
Hamas, Palestinian Islamic Jihad, and paramilitary groups involved in 
the Syrian conflict and in counter-ISIS efforts across Iraq. Iran, 
which Israel views as its greatest existential threat, continues to 
transfer advanced conventional arms to Hezbollah and is clearly 
committed to maintaining Syria as the key link of the Iran-Hezbollah 
axis, which sustains a terrorist network in Syrian-regime controlled 
territory. Furthermore, Iran has taken advantage of the Syrian crisis 
to militarily coordinate with Russia in support of Assad.
          iii. theater assessment--strengths and opportunities
    EUCOM will meet these challenges and adapt to the new security 
environment by capitalizing on our strengths and building new 
capabilities. We are developing a credible and relevant force structure 
built for deterrence and defense and leveraging a unified and adaptive 
NATO Alliance, and transitioning into a command able to address the 
strategic challenges before us.
Deter Russia
    EUCOM activities, facilitated by ERI funding, continue to be the 
primary demonstration of our deterrent capability.
    Increased Rotational Forces. ERI has directly supported an increase 
in the rotational presence of United States forces in Europe, a 
critical augmentation to EUCOM's assigned forces. For example, ERI 
funded Fort Stewart's 1st Armored Brigade Combat Team's deployment to 
Europe from March to September 2016. Also, ERI funded the deployment of 
F-22 fighters, B-52 bombers, and additional combat and lift aircraft to 
Europe as part of the ERI Theater Security Package. Looking ahead, 
continued congressional support for ERI will sustain these rotations 
and enable additional anti-submarine warfare capabilities complementing 
maritime domain awareness assets in Iceland that are included in the 
fiscal year 2017 ERI request. Additionally, rotational Marine units 
will operate from Norway and the Black Sea region.
    Trained and Equipped Component Commands. EUCOM has also used ERI to 
fund and field Army Prepositioned Stocks (APS), providing a rapid 
mobilization capability for additional armored units in Europe. 
Separately, EUCOM advocated for and received full support for a $220 
million NATO Security Investment Program project (i.e., paid for by 
NATO common funding) that will build warehousing and maintenance 
capability for staging APS stocks in Poland. Additionally, ERI funds 
dozens of projects to upgrade flight-line and munitions-storage 
infrastructure across eight NATO nations to support not only rotational 
presence but also training events in Eastern Europe. The Navy is using 
ERI to fund capability enablers and force rotations to support EUCOM 
and NATO exercises, including Mine Countermeasure Teams and additional 
flying hours specifically to enhance EUCOM's deterrence posture.
    Persistent Presence. ERI increased funding for United States forces 
in the Baltics, Poland, Romania, Bulgaria, and the Mediterranean during 
2016. In addition, ERI allowed EUCOM to continue our contribution to 
NATO's Air Policing mission by funding a continued fighter presence in 
theater with the 493rd Fighter Squadron at RAF Lakenheath in the UK.
    Complex Exercises with Allies and Partners. ERI expanded the scope 
of EUCOM's involvement in over 28 joint and multi-national maritime, 
air, amphibious, and ground exercises across 40 countries. In June 
2016, EUCOM participated in the Polish national exercise ANAKONDA, 
which involved approximately 31,000 Allied troops--including over 
14,000 U.S. personnel--and provided a robust demonstration of Allied 
defensive capabilities, readiness, and interoperability. ERI also 
supported Navy-led BALTOPS 16, the premier maritime exercise in the 
Baltic region with over 6,100 troops from participating nations. 
Utilizing ERI resources, the Air Force took part in over 50 exercises 
and training deployments across Europe. An Acquisition and Cross-
Servicing Agreement concluded with the EU last December enables EUCOM 
to cooperate better with EU missions in the Balkans and elsewhere.
    Russia Strategic Initiative (RSI): EUCOM leads the Department of 
Defense's Russia Strategic Initiative (RSI), which provides a framework 
for understanding the Russian threat and a forum for coordinating 
efforts and requirements. RSI allows us to maximize the deterrent value 
of our activities while avoiding inadvertent escalation. In just over a 
year, RSI has created a number of analytic products for combatant 
commanders that will enable a more efficient application of existing 
resources and planning efforts.
    Deterring Russia requires a whole-of-government approach, and EUCOM 
supports the strategy of approaching Russia from a position of strength 
while seeking appropriate military-to-military communication necessary 
to fulfill our defense obligations in accordance with the Fiscal Year 
2017 National Defense Authorization Act. Going forward, we must bring 
the information aspects of our national power more fully to bear on 
Russia, both to amplify our narrative and to draw attention to Russia's 
manipulative, coercive, and malign activities. Finally, NATO and U.S. 
nuclear forces continue to be a vital component of our deterrence. Our 
modernization efforts are crucial; we must preserve a ready, credible, 
and safe nuclear capability.
Enable the NATO Alliance
    As the United States manages multiple strategic challenges, our 
enduring strength remains NATO, the most successful alliance in 
history. NATO's leadership understands that the security environment 
has radically changed over the past few years. The Alliance has placed 
renewed emphasis on deterring further Russian aggression, countering 
transnational threats, such as violent extremist organizations, and 
projecting stability in the Middle East and North Africa, while 
fulfilling its commitments in Afghanistan.
    The Warsaw Summit last July was a significant demonstration of 
unity, cooperation, and strategic adaptation. As the member nations 
declared in NATO's Warsaw Summit Communique, ``We are united in our 
commitment to the Washington Treaty, the purposes and principles of the 
Charter of the United Nations (UN), and the vital transatlantic bond''. 
This unity is NATO's center of gravity, and the United States must 
continue to support solidarity among the Alliance nations.
    Enhanced Forward Presence (eFP). The signature outcome of the 2016 
Warsaw Summit was the decision to establish an enhanced Forward 
Presence (eFP) in the Baltics and Poland to demonstrate NATO's cohesion 
in defense of the Alliance. Canada, Germany, the United Kingdom, and 
the United States have begun deploying multinational battalion task 
forces to Latvia, Lithuania, Estonia, and Poland respectively on a 
rotational basis. Defense Cooperation Agreements (DCAs) signed in 2017 
with Estonia, Latvia, and Lithuania are facilitating the deployment of 
U.S forces to the three Baltic states. The United States serves as the 
framework nation for eFP in Poland and is working closely with the 
other framework nations and their host nations to ensure NATO's key 
deterrence and defense measures are capable and integrated.
    European Phased Adapted Approach (EPAA). EUCOM continues to 
implement the EPAA to defend European NATO populations, territory, and 
infrastructure against ballistic missile threats from threats outside 
the Euro-Atlantic region. In July 2016, the United States-funded Aegis 
Ashore facility in Romania became operational and transferred to NATO 
operational control. Work on the Aegis Ashore site in Poland 
(authorized and appropriated in fiscal year 2016 legislation) is 
underway and on track for completion by the end of calendar year 2018 
and operational under NATO operational control in mid-2019.
    Projecting Stability. NATO is a key contributor to ensuring 
security and projecting stability abroad. It is worth remembering that 
the first and only time the Alliance invoked the mutual defense 
provisions of its founding treaty was in response to the 9/11 attacks 
on the United States. Today, through NATO's Resolute Support Mission, 
over 12,000 troops (including over 5,000 non-U.S. personnel) provide 
training and assistance to Afghan security forces and institutions. 
NATO is committed to ensuring a stable Afghanistan that is not a safe 
haven for terrorists.
    Additionally, it is notable that all 28 NATO nations participate in 
the Counter-ISIS coalition. NATO committed AWACS surveillance aircraft 
and actively contributes to capacity building in Iraq. EUCOM actively 
supports NATO's goal of expanding its operations against this terrorist 
threat.
    Support to Washington Treaty. EUCOM provides support for key 
articles of the Washington Treaty, enabling NATO members to meet their 
collective security commitments. EUCOM conducts activities, such as 
security cooperation, to help allies meet their article 3 commitment to 
``maintain and develop their individual and collective capacity to 
resist attack.'' We have been able to reduce allies' dependencies on 
Russian-sourced, legacy military equipment thanks to ongoing 
congressional support for critical authorities and funding that provide 
shared resources. EUCOM also actively assists the Alliance when an ally 
declares, under article 4, that its territorial integrity, political 
independence, or security is threatened. The last time an ally invoked 
article 4 was 2015, when Turkey sought consultation following terrorist 
attacks. Most importantly, EUCOM is the force that backs the United 
States' commitment to article 5, which declares that an armed attack on 
one ally is an attack on all.
    NATO Spending Trends. At the Wales Summit in 2014, the allies 
pledged to reverse the trend of declining defense budgets and invest in 
the development of highly-capable and deployable forces. Today, in 
addition to the United States, four allies (Estonia, Greece, Poland, 
and the United Kingdom) meet the NATO guidelines for 2 percent of GDP, 
up from three in 2014. Allies' defense expenditures increased in 2015 
for the first time since 2009 and grew at a real rate of 3.8 percent in 
2016, with 22 member nations increasing defense spending. Allies are 
showing demonstrable progress toward their commitment to contribute 2 
percent of their GDP within a decade (by 2024).
    This is a positive trend, but allied nations must meet the 2 
percent mark with 20 percent allocated to the modernization of 
equipment and infrastructure. Critical ally and partner capability 
shortfalls remain, including strategic lift; intelligence, 
surveillance, and reconnaissance (ISR); deployable command and control; 
air to air refueling; and air and missile defense. Further, both EUCOM 
and NATO are hampered by inadequate infrastructure that affects the 
ability to maneuver across the continent. The expansion of the Alliance 
to include former Eastern Bloc countries has exacerbated the lack of 
common transportation networks between the newer NATO members in the 
east and the more established allies in the west. EUCOM is working 
closely with NATO to identify and address infrastructure requirements 
to improve U.S. and NATO freedom of movement throughout the theater.
Build Partner Capacity
    EUCOM has spent several decades working with the Department of 
State to help allied and partner nations develop and improve their 
military and other security forces. This partner capacity building has 
been accomplished with the support of this Committee, which has been 
generous in providing us the authorization we need to accomplish this 
critical task. I would highlight two activities in particular.
    Defense Institution Building (DIB). DIB helps partner nations build 
effective, transparent, and accountable defense institutions. For 
example, EUCOM fully endorses the work of the Defense Reform Advisory 
Board in Ukraine, which is helping to bring about both political and 
military reform as the Ministry of Defense, General Staff, and Armed 
Forces transition from centralized Soviet-style systems and concepts 
towards a Euro-Atlantic model. We also support defense institutions in 
Georgia, helping them improve their strategic logistics, human and 
material resource management, and institutional aspects of their 
training management system. Overall, our DIB efforts lay the groundwork 
for broader security cooperation activities.
    Joint Multinational Training Group Ukraine (JMTG-U). Together with 
forces from Lithuania, Latvia, Estonia, the UK, and Canada using State 
Department-provided Foreign Military Financing and Ukraine Security 
Assistance Initiative funds, EUCOM trains, advises, and equips Ukraine 
security forces, helping them build the capacity to defend their 
sovereignty and territorial integrity. Our team, working through the 
Multinational Joint Commission, has developed Ukraine's institutional 
training capability so that Ukraine can create a NATO-interoperable 
armed force. Our efforts include the training of both conventional and 
special operations units, as well as advising Ukraine on defense reform 
priorities.
Assist Israel
    EUCOM's mission to assist in the defense of Israel, one of our 
closest allies, remains a top priority. Success will depend on the 
continued support of Congress and our strong relationship with the 
Israel Defense Forces. Many aspects of our bilateral relationship have 
been guided by the Strategic Cooperation Initiative Program (SCIP) 
framework, which dates to the Reagan Administration. SCIP enables 
robust cooperation and coordination on a vast range of security 
matters. Going forward, we are working to update the SCIP to 
incorporate an examination of all major exercises to ensure each meets 
the three major pillars of our security relationship: (1) missile 
defense, air operations, and counter-terrorism; (2) managing the Weapon 
Reserve Stockpile for Allies-Israel (WRSA-I); and (3) ensuring Israel's 
qualitative military edge.
Counter Transnational Threats
    Adopting a whole-of-government approach, EUCOM, together with its 
interagency partners, conducts initiatives to counter transnational 
threats including countering terrorism and the flow of foreign 
fighters, countering illicit finance networks, combatting the 
trafficking of persons and illicit substances; and building allied and 
partner security, investigative, and judicial capacity. In conjunction 
with the Departments of State, Justice, Homeland Security, and other 
federal law enforcement agencies, EUCOM works to monitor and thwart the 
flow of foreign fighters, support the dismantlement of facilitation 
networks, and build partner nation capacity to defeat violent 
extremism.
    Through our counter terrorism cell, EUCOM strengthens the global 
Counter-ISIS efforts in coordination with and support of U.S. Central 
(CENTCOM), Africa (AFRICOM), and Special Operations (SOCOM) Commands. 
We have focused on those who facilitate the ISIS brand and network 
through radicalization, financing, and propaganda.
    Also, EUCOM and NATO are working to increase ties with the EU to 
enhance the capabilities Europe can collectively bring to bear against 
transnational threats. These three organizational nodes foster a shared 
understanding of the threats, help match resources accordingly, and can 
address all elements of national power including diplomatic, 
informational, military, and economic. In order to realize this 
networked approach, EUCOM will support NATO efforts to expand the 
capability and capacity of Allied Joint Forces Command--Naples.
Enable Global Operations
    EUCOM personnel actively support operations in AFRICOM and CENTCOM 
AORs. EUCOM's well-developed and tested infrastructure provides 
critical capabilities in strategic locations such as Incirlik, Turkey; 
Sigonella, Italy' and Moron and Rota, Spain. Basing and access in 
Germany, Greece, Italy, France, Spain, Turkey, and the United Kingdom 
enable more timely and coordinated trans-regional crisis response.
                       iv. resource requirements
    Significant United States force reductions following the collapse 
of the Soviet Union were based on the assumption that Russia would be a 
strategic partner to the West. These reductions now limit United States 
options for addressing challenges in a changing European strategic 
environment. The strategic rebalance to Asia and the Pacific, combined 
with budget limitations in the Budget Control Act of 2011, have 
contributed to substantial posture reductions across our land and air 
domains. For example, between 2010 and 2013, two fighter squadrons and 
a two-star numbered air force headquarters were inactivated, along with 
associated critical enablers and staff personnel. In addition, the last 
two heavy Brigade Combat Teams (BCT), a two-star division headquarters, 
and a three-star corps headquarters were removed from Europe, leaving 
only one Stryker and one airborne brigade. As a result of the BCT 
losses, without fully-resourced heel-to-toe rotational forces the 
ground force permanently assigned to EUCOM is inadequate to meet the 
combatant command's directed mission to deter Russia from further 
aggression.
    Deterrence Posture. Going forward, we will need to continue 
maintaining capable forces for effective deterrence. EUCOM is 
coordinating across the DOD to obtain the forces we need in every 
warfare domain. This may include additional maneuver forces, combat air 
squadrons, anti-submarine capabilities, a carrier strike group, and 
maritime amphibious capabilities. We will continue to enhance our plans 
for pre-positioning equipment across the theater as a flexible 
deterrent measure and to exercise the joint reception, staging, and 
onward integration of CONUS-based forces into Europe.
    ERI Requirements. EUCOM's continues to require the ability to deter 
Russian aggression and counter malign influence while assuring allies 
and partners. We anticipate needing to continue deterrence measured 
initiated in previous ERI submissions to include: Army and Air Force 
prepositioning, retention of F-15 presence, improved airfield 
infrastructure improvements, and to address some new capabilities 
needed in the theater.
    Indications and Warnings (I&W). EUCOM's ability to provide 
strategic warning is critical to credible deterrence. A robust 
intelligence capability enables accurate analysis and rapid response in 
a changing theater security environment. This capability also supports 
the design of realistic exercises, posture alignment, and future 
requirements. Furthermore, when completed, EUCOM's Joint Intelligence 
Analytic Center at Royal Air Force Croughton will provide a dedicated, 
purpose-built intelligence facility collocated with NATO and AFRICOM's 
analytic centers that will enhance capability and capacity in both 
combatant commands and NATO. Finally, additional intelligence 
collection platforms in theater, such as the U-2, the RQ-4, and the RC-
135, are required for accurate and timely threat information to support 
strategic decisions.
    Recapitalization Efforts. The European Infrastructure Consolidation 
effort announced in January 2015 enables EUCOM to divest excess 
capacity and consolidate missions and footprints at enduring locations. 
However, with aging infrastructure and little recent investment, 
recapitalization and consolidation projects are required to support 
warfighter readiness, command and control requirements, deployments, 
training, and quality of life. This Committee has been key to these 
critical efforts. We continue to modernize communications facilities 
and schools across Europe. Last year, Congress authorized the final 
increment for the Joint Intelligence Analysis Center, which enables the 
closure of RAFs Molesworth and Alconbury.
                             v. conclusion
    Let me conclude by again thanking this committee's Members and 
staff for their continued support of EUCOM, not only through providing 
our requested funding, but also by helping us to articulate the 
challenges that lie before us. Support from other senior leaders and, 
above all, from the public at home and across Europe is vital to 
ensuring that we remain ready and relevant. This is a pivotal time for 
EUCOM as we transition to meet the demands of a dynamic security 
environment. I remain confident that through the strength of our 
alliance and partnerships, and with the professionalism of our 
servicemembers, we will adapt and ensure that Europe remains whole, 
free and at peace.

    Chairman McCain. Since a quorum is now present, I ask the 
committee to consider a list of 62 pending military 
nominations. All of these nominations have been before the 
committee the required length of time. Is there a motion to 
favorably report these 62 military nominations?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Nelson. Second.
    Chairman McCain. All in favor, say aye.
    [Chorus of ayes.]
    Chairman McCain. The ayes have it.
    [The list of nominees follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on May 23, 2017.
     1.  BG Sean L. Murphy, USAF to be major general (Reference No. 
92).

     2.  In the Navy there are 2 appointments to the grade of rear 
admiral (lower half) (list begins with John A. Okon) (Reference No. 
109).

     3.  In the Navy there are 19 appointments to the grade of rear 
admiral (lower half) (list begins with Edward L. Anderson) (Reference 
No. 111).

     4.  In the Navy there is 1 appointment to the grade of captain 
(Susan M. McGarvey) (Reference No. 147).

     5.  In the Navy there is 1 appointment to the grade of commander 
(Sheila I. Almendras-Flaherty) (Reference No. 168).

     6.  In the Navy there is 1 appointment to the grade of captain 
(Adrian D. Ragland) (Reference No. 170).

     7.  In the Marine Corps Reserve there are 5 appointments to the 
grade of colonel (list begins with Mark S. Jimison) (Reference No. 
171).

     8.  In the Navy there is 1 appointment to the grade of captain 
(Christopher R. Desena) (Reference No. 207).

     9.  In the Navy there is 1 appointment to the grade of captain 
(Kenneth L. Demick, Jr.) (Reference No. 212).

    10.  In the Navy there is 1 appointment to the grade of captain 
(Michael C. Bratley) (Reference No. 214).

    11.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Jason G. Lacis) (Reference No. 233).

    12.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Kevin J. Goodwin) (Reference No. 235).

    13.  MG Bradford J. Shwedo, USAF to be lieutenant general and 
Chief, Information Dominance and Chief Information Officer, Office of 
the Secretary of the Air Force (Reference No. 300).

    14.  MG Giovanni K. Tuck, USAF to be lieutenant general and 
Commander, Eighteenth Air Force, Air Mobility Command (Reference No. 
302).

    15.  LTG James C. McConvi11e, USA to be general and Vice Chief of 
Staff of the Army (Reference No. 303).

    16.  BG Stuart W. Risch, USA to be major general (Reference No. 
304).

    17.  MG Thomas C, Seamands, USA to be lieutenant general and Deputy 
Chief of Staff, G-1, U.S. Army (Reference No. 305).

    18.  Col. Mark E. Black, USAR to be brigadier general (Reference 
No. 306).

    19.  Col. Matthew V. Baker, USAR to be brigadier general (Reference 
No. 307).

    20.  BG Chris R. Gentry, USAR to be major general (Reference No. 
308).

    21.  BG Robert A. Karmazin, USAR to be major general (Reference No. 
309).

    22.  BG Marion Garcia, USAR to be major general (Reference No. 
310).

    23.  BG Joseph E. Whitlock, USAR to be major general (Reference No. 
311).

    24.  Col. Miguel A. Castellanos, USAR to be brigadier general 
(Reference No. 312).

    25.  Col. Windsor S. Buzza, USAR to be brigadier general (Reference 
No. 313).

    26.  Col. Randall V. Simmons, Jr., USAR to be brigadier general 
(Reference No. 314).

    27.  Col. Michael D. Wickman, USAR to be brigadier general 
(Reference No. 315).

    28.  In the Army there are 32 appointments to the grade of major 
general (list begins with Carl A. Alex) (Reference No. 316).

    29.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Kalie K. Rott) (Reference No. 317).

    30.  In the Army there is 1 appointment to the grade of major 
(Norma A. Hill) (Reference No. 318).

    31.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Frank C. Pescatello, Jr.) (Reference No. 319).

    32.  In the Army there is 1 appointment to the grade of major 
(Basim M. Younis) (Reference No. 320).

    33.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Stanley F. Gould) (Reference No. 321).

    34.  In the Army there is 1 appointment to the grade of major 
(Scott W. Fisher) (Reference No. 322).

    35.  In the Army Reserve there are 16 appointments to the grade of 
colonel (list begins with Gary L. Beaty) (Reference No. 323).

    36.  In the Army Reserve there are 2 appointments to the grade of 
colonel (list begins with Daniel J, Convey) (Reference No. 324).

    37.  In the Army there are 2 appointments to the grade of major 
(list begins with Sophia Dalce) (Reference No. 325).

    38.  In the Army there is 1 appointment to the grade of colonel 
(Dawn E. Elliott) (Reference No. 326).

    39.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (DO12528) (Reference No. 327).

    40.  In the Army there is 1 appointment to the grade of major 
(Benjamin W. Hillner) (Reference No. 328).

    41.  In the Army there is 1 appointment to the grade of major 
(Celina S. Pargo) (Reference No. 329).

    42.  In the Army there is 1 appointment to the grade of major (Paul 
R. Ambrose) (Reference No. 330).

    43.  In the Army there are 2 appointments to the grade of major 
(James L. Dungca) (Reference No. 331).

    44.  In the Army there is 1 appointment to the grade of colonel 
(Charles R. Burnett) (Reference No. 332).

    45.  In the Navy there is 1 appointment to the grade of commander 
(Evan M. Colbert) (Reference No. 333).

    46.  In the Navy there is 1 appointment to the grade of captain 
(Luciana Sung) (Reference No. 334).

    47.  In the Navy there is 1 appointment to the grade of captain 
(William A. Schultz) (Reference No. 335).

    48.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (William L. McCoy) (Reference No. 336).

    49.  In the Navy there is 1 appointment to the grade of Captain 
(Chris F. White) (Reference No. 337).

    50.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Karl M. Kingry) (Reference No. 338).

    51.  In the Navy there is 1 appointment to the grade of commander 
(Michael A. Polito) (Reference No. 339).

    52.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Raymond J. Carlson, Jr.) (Reference No. 340).

    53.  In the Marine Corps there is 1 appointment to the grade of 
lieutenant colonel (Javier E. Vega) (Reference No. 341).

    54.  In the Marine Corps there is 1 appointment to the grade of 
major (Sergio L. Sandoval) (Reference No. 342).

    55.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Christopher M. Allen) (Reference No. 343).

    56.  In the Army there are 3 appointments to the grade of brigadier 
general (list begins with Susan K. Arnold) (Reference No. 377).

    57.  Col. Richard J. Lebel, USAR to be brigadier general (Reference 
No. 378).

    58.  Col. Todd W. Lewis, USAR to be brigadier general (Reference 
No. 379).

    59.  In the Army there are 2 appointments to the grade of brigadier 
general (list begins with George N. Appenzeller) (Reference No. 380).

    60.  MG Steven R. Rudder, USMC to be lieutenant general and Deputy 
Commandant, Aviation, Headquarters, U.S. Marine Corps (Reference No. 
381).

    61.  In the Air Force Reserve there is 1 appointment to the grade 
of colonel (James E. Thompson) (Reference No. 382).

    62.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Pablo F. Diaz) (Reference No. 383).

    63.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Craig A. Nazareth) (Reference No. 384).

    64.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Brian C. McLean) (Reference No. 385).

    65.  In the Army there is 1 appointment to the grade of major 
(Raymond C. Casteline) (Reference No. 386).

    66.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Daniel J. Shank) (Reference No. 387).

    67.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Christopher W. Degn) (Reference No. 388).

    68.  In the Army there is 1 appointment to the grade of colonel 
(Jason T. Kidder) (Reference No. 389).

    69.  In the Army there is 1 appointment to the grade of colonel 
(Tito M. Villanueva) (Reference No. 390).

    70.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Philip J. Dacunto) (Reference No. 391).

    71.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Stephen R. November) (Reference No. 392).

    72.  In the Army there is 1 appointment to the grade of colonel 
(Luisa Santiago) (Reference No. 393).

    73.  In the Army Reserve there is 1 appointment to the grade of 
colonel (Robert J. Bonner) (Reference No. 394).

    74.  In the Air Force there is 1 appointment to the grade of major 
(Johanna K. Ream) (Reference No. 411).

    75.  In the Air Force Reserve there are 118 appointments to the 
grade of colonel (list begins with Paul R. Aguirre) (Reference No. 
412).

    76.  In the Army there is 1 appointment to the grade of major 
(Mohamad El Samad) (Reference No. 413).

    77.  In the Army there is 1 appointment to the grade of major (Lana 
J. Bernat) (Reference No. 414).

    78.  In the Army there is 1 appointment to the grade of lieutenant 
colonel (Patrick K. Sullivan) (Reference No. 415).

    79.  In the Army Reserve there are 207 appointments to the grade of 
colonel (list begins with Derek L. Adams) (Reference No. 416).

    80.  In the Army Reserve there are 230 appointments to the grade of 
colonel (list begins with Rodney Abrams) (Reference No. 417).

    81.  In the Army Reserve there are 58 appointments to the grade of 
colonel (list begins with Christine N. Adams) (Reference No. 418).

    82.  In the Navy there is 1 appointment to the grade of lieutenant 
commander (Aaron L. Witherspoon) (Reference No. 430).

    83.  In the Navy there is 1 appointment to the grade of captain 
(John E. Fritz) (Reference No, 437).

    84.  In the Marine Corps there is 1 appointment to the grade of 
major (Michael S. Stevens) (Reference No. 451).

    85.  In the Marine Corps there is 1 appointment to the grade of 
major (Patrick J. Mullen) (Reference No. 452).

    86.  In the Marine Corps Reserve there are 45 appointments to the 
grade of colonel (list begins with Raymond L. Adams) (Reference No. 
453).

    87.  MG Laura J. Richardson, USA to be lieutenant general and 
Deputy Commanding General/Chief of Staff, U.S. Army Forces Command 
(Reference No. 467).

    88.  BG Charles N. Pede, USA to be lieutenant general and Judge 
Advocate General of the Army (Reference No. 468).

    89.  RADM Phillip G. Sawyer, USN to be vice admiral and Commander, 
Seventh Fleet (Reference No. 469).

    90.  MG Brian D. Beaudreault, USMC to be lieutenant general and 
Deputy Commandant for Plans, Policies, and Operations, Headquarters, 
U.S. Marine Corps (Reference No. 473).

_______________________________________________________________________
                                                                    
TOTAL: 818

    General, do you have any general comment about the attack 
yesterday in London and the significance of it?
    General Scaparrotti. Sir, the attack in London underscores 
again the dynamic environment in Europe. Europe is challenged 
by both a flow of terrorists returning to Europe from Syria and 
other places. They are challenged by an internal threat of 
those inspired by ISIS or directed by ISIS. This is an example 
of the attacks that we have seen in Europe in the past year. It 
is a difficult challenge. As I said, we remain solid and stand 
shoulder to shoulder with our allies in NATO to defeat this 
threat.
    Chairman McCain. The likelihood of further actions like 
this, particularly some that are self-indoctrinated, is very 
hard to stop.
    General Scaparrotti. It is, sir. I would just say that the 
number of threat streams that we have of this type within 
Europe is probably higher in Europe than any other part of the 
globe with the exception of the places that we are actually 
physically fighting in like Syria and Afghanistan and Iraq.
    Chairman McCain. Is there a connection between that and 
refugees?
    General Scaparrotti. The flow of refugees and those who 
move them, particularly criminal activities that will help move 
them--they also are more than willing to move both equipment, 
personnel, weapons, and people.
    Chairman McCain. As you know, there was an attempted coup 
in Montenegro by the Russians. The Montenegrin membership in 
NATO is pending, and 26 of the 28 nations I believe have 
already registered their approval. It is a small country, only 
650,000 people. It is very strategically located, as you know. 
What is your view of the importance of Montenegro especially 
since they have completed all of the very difficult procedures 
necessary to become eligible--what is your view of the 
importance of their inclusion in NATO?
    General Scaparrotti. Chairman, it is absolutely critical 
that they be brought into NATO. They have had this desire. They 
have met the map. It underscores NATO's outreach and ability to 
bring in those who want to determine their own means of 
government and become a part of NATO. If we were to lose this, 
it would set back many of the other countries and peoples, 
particularly in Eastern Europe, who are looking forward to and 
have their eyes set on the West and becoming a part of NATO.
    Chairman McCain. So it is very important.
    General Scaparrotti. I think it is critical, yes.
    Chairman McCain. I thank you.
    Finally, you talked about the military presence necessary 
for additional forces in Europe, but one of the problems we 
continue to face--for example, one of the causes of the 
attempted coup in Montenegro is the saturation of propaganda 
emanating from Russia. We all know the controversy here in the 
United States about our election, but we now see them active in 
the French election apparently, in the German election. But 
more importantly, they are inundating the Baltics in 
particular. What are our ideas other than ask for a strategy? 
What are our ideas as to how to counter what has emerged as one 
of the greatest threats to stability in Europe?
    General Scaparrotti. Chairman, I think, first of all, we 
have to confront this threat as it is, be sober-minded about 
it. We have to do it as an alliance and with our partners, and 
we have to call it out. We have to confront it. There seems to 
be a reluctance in many of the nations to actually confront it 
when we see it, publicly take it on. I think we as partners 
have to form together and begin to do this. As you said, it is 
prolific, and I believe we have got to confront it.
    Chairman McCain. We countered Russian propaganda during the 
Cold War with Radio Free Europe and Voice of America. All I 
have seen so far is disarray in Prague about the role, the 
funding, the strategies and all that. What do you think we need 
to do there to have our own effective counter-message to be 
sent? I know that is not exactly in your area of 
responsibility, but I think it is a kind of warfare.
    General Scaparrotti. Sir, it is. The Russians see this as a 
part of that spectrum of warfare. That is their asymmetric 
approach.
    I will start here. We have information operations that are 
military, and I have those that are countering malign influence 
in Europe. But what we really need is we need a whole-of-
government approach, a whole-of-government information 
campaign, of which I am a small part of that. We need somebody 
in the lead of that, and then we need to finance it and form a 
governmental strategy. As you said, in the Cold War, we had 
one. There is a start on that. We have what is called the RIG, 
the Russian Information Group, which is the beginnings of that. 
But that has to be reinforced. It has to be financed. They have 
to have the authorities that they need to lead that forward.
    Chairman McCain. The lead on that would probably be the 
State Department. Right?
    General Scaparrotti. The RIG is co-chaired with EUCOM and 
the State Department is the lead. Yes, sir.
    Chairman McCain. So it would not help you any if we slashed 
the spending for the State Department.
    General Scaparrotti. No, sir.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman.
    In fact, you anticipated one of the questions I wanted to 
raise about the malign influences in elections and 
institutional capacity that are evident in Europe today. I 
think I can safely say that we are really not organized to deal 
with it at this point. Is that correct?
    General Scaparrotti. Yes, sir. I agree we can get much 
better organized to deal with this than we are today.
    Senator Reed. Let me just go a step further and say that in 
your estimate, what are the strategic effects that the Russians 
are trying to achieve by these activities? This is not sort of 
a random kind of just stir up trouble for the sake of stirring 
up trouble. What are the strategic objectives?
    General Scaparrotti. Sir, their overall objective is to 
undermine the governments that oppose them, to reinforce the 
political parties in each of those countries that might be 
aligned with them, to demonstrate the weakness of the West and 
undermine the U.S. and the West. They want to ensure that they 
can dominate particularly their periphery. They are doing that 
through this asymmetric approach.
    Senator Reed. Now, you have indicated that particularly 
with the European Defense Initiative and with the response 
initiative, we are beginning to reorganize, re-equip, et 
cetera. Can you give us a sense of your priorities? You had a 
long list of activities that you feel you have to undertake. 
But the top three issues that you have to get accomplished in 
the near future.
    General Scaparrotti. Sir, the top three that we have to get 
accomplished--I think, first of all, is we have to get our 
posture correct for deterrence, and that is across all the 
services. It not just--we tend to focus on the Army part of 
this, but each of the services play a role in that.
    Secondly, we have to ensure that our command has made the 
transition to a command that can command and control in the 
dynamic environment against an aggressor like Russia. We just 
recently had our command post exercise we have every 2 years. 
It was a great exercise, but what it laid out is the changes we 
have yet to make within the component commands in Europe in 
order to fight a foe like Russia.
    Senator Reed. With respect to Ukraine, our expert panel on 
Tuesday, who did a superb job, suggested that is really the 
critical arena at the moment. If they are able to subvert 
Ukraine, then that will send shock waves throughout Europe. Is 
that in your assessment? Just generally, how are we 
collectively, both NATO, the United States, EUCOM, and the EU, 
doing in terms of our efforts in the Ukraine?
    General Scaparrotti. I think the good news with respect to 
Ukraine is that we are unified and we are organized. NATO has a 
defense fund that supports it along very similar lines to the 
United States We are thankful to Congress for its funding of 
our activities there. In fact, we lead a multinational joint 
commission, which is actually the vehicle that among our allies 
and the United States, assesses and then directs the reform 
that needs to take place in conjunction with Ukraine. They also 
do the assessment of the needs in terms of equipment and 
training and guide that training. So we are actually doing that 
together with our partners, as well as NATO through that one 
body. I think it is very effective.
    Senator Reed. In that regard, a great deal--my impression 
is--of the civilian capacity building and the anti-corruption 
efforts is being done by the European Union. So their efforts 
are absolutely critical to U.S. success. Is that fair?
    General Scaparrotti. That is true, sir, and it is critical. 
Our connection to EU, as well as NATO's, has been in the 
forefront here for the past year or so for many reasons, and 
that is one of them.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, General. It is nice to see you again.
    As you know, last week General Selva confirmed Russia's 
deployment of a weapon system that violates the INF Treaty. He 
went on to say that, ``the system itself presents a risk to 
most of our facilities in Europe, and we believe that the 
Russians have deliberately deployed it in order to pose a 
threat to NATO and the facilities within the NATO area of 
responsibility.''
    You touched on this in your opening statement on page 5, 
and you said that the system creates a mismatch in escalatory 
options. Could you please elaborate on what you mean by that 
and what the implications are of this deployment?
    General Scaparrotti. Well, this deployment gives them some 
advantage in terms of reach and precision within their systems. 
When we talk about escalation management, if there is a tension 
or a crisis with Russia, because of their doctrine and their 
view that they will escalate to dominate or escalate to 
deescalate, it creates a very tight range of options when we 
work through escalation management. So an enhancement like that 
just makes this a very restrictive and difficult management 
process you through in deterrence. It is that much more 
pressurized. So it is a critical enhancement. It is one that we 
need to respond to.
    Senator Fischer. You say we need to respond, and you just 
mentioned options, the word ``option.'' Secretary Carter talked 
about options. He mentioned counter-force, countervailing 
capabilities, active defenses, but we did not see any real 
action in order to pursue those. Do you think that we need to?
    General Scaparrotti. Yes, I think we do.
    Senator Fischer. Which of these options do you think would 
be the most effective in dealing with this?
    General Scaparrotti. If I could, I would like to take that 
for a response for the record. I need to think about the 
comparison of those actually and tell you the best response.
    [The information referred to follows:]

    General Scaparrotti. [Deleted.]

    Senator Fischer. Okay. Thank you.
    General Scaparrotti. Thank you.
    Senator Fischer. At a recent hearing of the Strategic 
Forces Subcommittee, which I chair, we discussed the 
implications of Russia's nuclear strategy, often referred to as 
the escalate/deescalate. General Koehler, who is a former 
Commander of the U.S. Strategic Command, made the point that 
the Russian approach reinforces the value of NATO remaining a 
nuclear alliance, as well as the need for the deterrent value 
provided by United States nuclear weapons that are stationed in 
Europe.
    In your written statement, you say that NATO and U.S. 
nuclear forces continue to be a vital component of our 
deterrence. Our modernization efforts are crucial. We must 
preserve a ready, credible, and safe nuclear capability.
    Do you agree that NATO must remain a nuclear alliance and 
that the United States must continue to station those nuclear 
weapons on the European continent?
    General Scaparrotti. Yes, Senator, absolutely I do.
    Senator Fischer. Can you outline to us specific benefits 
that we receive by having those stationed there?
    General Scaparrotti. Well, first of all, it provides an 
immediate response that is within the NATO alliance as opposed 
to just the U.S. It represents the alliance in a response by 28 
nations, a commitment by 28 nations that we will deter and we 
will deter their nuclear forces. I think that alone is 
significant.
    Secondly, it gives us some other options because we have 
not only the U.S. but other contingents that provide essential 
capabilities within that nuclear capability. So there is more 
agility there as well.
    Senator Fischer. It recognizes the importance of 
deterrence. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, General Scaparrotti, for being here this morning 
and for your service to the country.
    I want to follow up on the line of questioning that 
Senators McCain and Reed started on the whole information 
warfare issue. When former General Breedlove was before the 
committee earlier this week, he pointed out that recently 
Russia has established an information warfare division within 
its armed forces. Do you think NATO should be looking at 
something like that? Are there already efforts underway? You 
talked about the RIG group, but should we be doing more within 
NATO to address the propaganda that Russia is putting out 
throughout Europe and the United States, by the way?
    General Scaparrotti. Yes, Senator. I think in the United 
States, we have organization I think to effectively operate. 
What we need to do is policy and then actions that flow from 
that within the United States. That is a whole-of-government 
approach. That is probably not the structure that we have in 
the way that we need it today. So it is more of a whole-of-
government response I would tell you. I think we are pretty 
agile in the military, rather than establishing some 
information command, et cetera. We have smaller units that 
tactically execute these kinds of missions. I have them in 
EUCOM.
    Within NATO, NATO has taken this on as well, but it is 
somewhat nascent at this point. I think we do have to pursue 
that. I mean, we have got an adversary here who is using this 
to very good benefit, and we have to compete short of conflict 
in this area as well.
    Senator Shaheen. But as you point out, we do not really 
have a strategy to do that, and we do not have anybody in 
charge of that in the United States Government. I mean, we have 
the Global Engagement Center that is starting up in the State 
Department. I have spoken, as I am sure others have, with the 
continuation of the efforts we had during the Soviet Union when 
we had the Cold War and we had Radio Free Europe, and they did 
a terrific job in those days. But we do not have a continuation 
of that that is part of sharing and cooperating with factually 
presenting what is happening in the West compared to what is 
going on with Russia's propaganda.
    Where should that effort be located? Do you have thoughts 
about who should participate in that and how we better 
coordinate what we are doing?
    General Scaparrotti. Yes, Senator, I do. I think actually 
that the RIG, the Russian Information Group, which I mentioned, 
is actually a good structure to start with. It has State as the 
lead, co-chaired with European Command. It has all of the other 
agencies involved in that. The GEC is a key leader in that, 
which has been empowered to do the communication piece of the 
State. But, you know, it is not robustly supported. I do not 
believe that it has the kind of focus and priority that we need 
to have. So, therefore, it exists but it needs to really be 
reinforced, funded. Then as you said, I think we have all the 
talent and creativity we need in this Nation to do this better 
than anybody else. We just need to decide to do it.
    Senator Shaheen. Thank you.
    There was a report. Actually I agree with you. I just want 
to make that clear.
    There was a report earlier this week about Russia training 
Kurdish fighters. It was not clear to me to what extent they 
were doing that. But how is Turkey responding to that report? 
Are they concerned about what Russia is doing, and how does 
that affect their sort of growing rapprochement with Russia?
    General Scaparrotti. Senator, I have not talked to my 
counterpart, the CHOD in Turkey, since this report came out. So 
we have not talked directly. I cannot tell you exactly what 
their response on this would be.
    But given my association with them and their concern about 
the PKK [Kurdistan Workers' Party] and associated groups, Kurd 
groups, that are aligned with them, I think they would have 
great concern about it. They want to ensure that the attacks 
that they have from the PKK are not reinforced in any way--
Turkey does. They also want to ensure that they do not have--
the cantonments in Syria are not connected in Syria so they 
have Kurdish entity across their entire across their entire 
southern border. Given those two objectives, I think they are 
very concerned about it probably.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    General, last weekend, I was in the Ukraine and was 
observing their training. The 45th does a great job. In fact, 
that is the same group that not long ago was providing the same 
training of training in Afghanistan and Iraq. They are going to 
be there for a year long. I watched that, and there is really 
an art to that. They are doing a great job because most people 
will think that they are there to train the Ukrainians or 
wherever they are stationed, but they really there to train 
them to train the others, and there is a big difference. So I 
wanted you to know that they are really doing a good job.
    During the parliamentary elections in 2014, I was with 
Poroshenko and the crowd when, of course, they had that huge 
success, the first time in 96 years. No Communist is in the 
parliament there. As you know, it became very controversial 
after that took place and Putin started killing Ukrainians, and 
we wanted to provide the lethal defensive assistance. Our 
committee was pretty much unanimous on that. The administration 
was not that excited about it. So in both the fiscal year 2016, 
we authorized $300,000, in fiscal year 2017, authorized 
$350,000 for the security assistance for Ukraine, including 
lethal assistance such as anti-armor weapons.
    General Dunford during his nomination hearing said this. 
``I think it is reasonable that we provide that lethal support 
for the Ukrainians. Frankly, without that kind of support, we 
are not going to be able to protect themselves against the 
Russia aggression.''
    So I would kind of like to get your idea. Do you agree with 
him? Do you agree also that we need to provide that assistance? 
What are we providing now and how much more should we?
    General Scaparrotti. Senator, thank you. In short, yes, I 
do agree with him. I have been there twice recently.
    I would note that I agree. The Guard is doing a very good 
job there and an important one in their training relationship 
with the Ukrainians.
    In terms of lethal support, the Ukrainians are in a very 
tough fight, which you saw. They are very disciplined soldiers. 
But they are facing what we say are separatists. They are 
actually Russian proxies in my mind. They are being provided 
very lethal equipment. The Russians are providing the 
separatists that. The Russians are also testing some of their 
new TTPs there. So we need to reinforce the Ukrainian military 
as much as we can and provide them the best opportunity to 
fight what is a very lethal Russian proxy at this point.
    Senator Inhofe. I agree with that. I have a question for 
the record as to what kind of equipment specifically we should 
do.
    But I want to mention one thing. Do you happen to know--his 
name is Fatmir Mediu. He was the Secretary of Defense in the 
Albanian defense. They had a meeting, and I happened to be 
attending that meeting--it was on January 31st--kind of a 
roundtable talking about ISIS and the threat in the Balkans. It 
was kind of revealing. Apparently a lot of the ISIS recruiting 
is taking place in the Balkans right now. Do you have any 
comment to make as to what our activity is there in terms of 
what the threat is there? Are we working with them as closely 
as we should?
    General Scaparrotti. I am very concerned about the 
stability in the Balkans, and one of the reasons is that what 
is generally a moderate or a Western-looking Islamic population 
is increasingly being affected by extremist influence there. 
Part of that is recruiting for ISIS. It is a trend right now. 
It is one I think we have to pay very close attention to.
    Senator Inhofe. Okay. That is good. I appreciate it.
    Now, my time has expired, but for the record, I would like 
to get as specific information as we could as to what best we 
could afford to send over there against the aggression that 
they have. Okay?
    General Scaparrotti. Yes, sir. Thank you.
    [The information referred to follows:]

    General Scaparrotti. [Deleted.]

    Senator Inhofe. Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Welcome, General.
    As was mentioned earlier, it is being reported that our 
Secretary of State will be missing the NATO summit of foreign 
ministers in a couple weeks. This obviously comes at a time 
when the administration has criticized the value of NATO. 
Russia is meddling in European elections, and Russia is 
threatening our NATO allies in the Baltics.
    Do you have any opinions on whether this sends the right 
signal to our NATO allies? What kind of messages do you think 
we should be sending to our NATO allies at this time?
    General Scaparrotti. Senator, I think it is essential that 
our allies in NATO understand that we are absolutely committed 
to the alliance and continue to be a key leader within the 
alliance.
    I noted this morning that the Secretary-General and the 
Secretary had met, and they are looking for a date that all of 
the allies can meet for the foreign ministers conference. I 
hope that is, in fact, worked out and that becomes a reality.
    Senator Heinrich. As do I.
    General, Russian denial, deception, disinformation were all 
important parts of the hybrid warfare campaign that we saw 
during the illegal seizure of Crimea and its Russian support 
for separatists in eastern Ukraine. As EUCOM Commander, you 
lead much of the effort to identify and attribute Russian 
disinformation operations. Can you describe for us how Russia 
is organized to conduct this kind of information warfare and 
what techniques you are seeing on display in the Ukraine?
    General Scaparrotti. Thank you.
    When you are talking about this, you think about it in a 
military organization, but frankly, what I think is important 
is that Russia actually has a very broad set of groups to 
include their intelligence groups that are doing this. So they 
actually have a whole-of-government approach on this, which I 
think makes it one more difficult. It is one of the reasons 
that we also see what I think is a pretty rapid or agile use of 
social media, TV----
    Senator Heinrich. Absolutely.
    General Scaparrotti.--cyber, et cetera. So it is a force to 
be reckoned with at this point. I think it is that organization 
that gives them the ability.
    Senator Heinrich. Do you have recommendations in terms of 
building our capacity or that of our allies and partners in the 
region to be able to resist these kinds Russian influence 
activities?
    General Scaparrotti. Well, I think, first of all, in EUCOM 
we have elements that today have missions to counter Russian 
malign influence, both to identify it, counter it, and then, 
third, we are building partner capacity. We are exchanging 
techniques, et cetera. Estonia has an excellent cyber center of 
excellence, for instance. That is a key node in NATO. We work 
very closely with that. So we need to continue those kinds of 
partnerships and exchange of skill and understanding how they 
are working. I think, particularly as an alliance, we can 
counter this.
    Senator Heinrich. I think because of their proximity, we 
actually have a lot to learn from our Balkan partners, and 
given what we have seen even in our own elections, it is time 
to learn those lessons.
    Russia's air defense systems like the S-300 and S-400 
threaten to block our ability to be able to project power in 
the event of a conflict in the European region, particularly in 
the Baltics. This certainly undermines the United States and 
NATO's article 5 commitment to the defense of these allies and 
raises concerns about the alliance's ability to deter an 
increasingly aggressive Russia.
    How capable are the Russian air defense systems 
particularly in Kaliningrad?
    General Scaparrotti. Sir, I would just state in an 
unclassified venue, they are very capable. The newer systems 
like the S-400 is a definite enhancement in their capabilities. 
That is why we are concerned about it. As you stated, their 
location in Kaliningrad and Crimea and the Mediterranean 
provides difficulty for our access and mobility. We can counter 
this. I am confident of that.
    Senator Heinrich. Do you have opinions in that regard on 
what types of next generation technologies, for example, we 
will need to effectively counter the Russian A2/AD 
capabilities?
    General Scaparrotti. Up front what I talked about in terms 
of our advanced aircraft, fifth generation, enhanced munitions, 
particularly long-range precision munitions, electronic 
warfare, those things generally is what we need to continue our 
modernization efforts on. If you would like, I could give you a 
more specific in a classified response, obviously.
    Senator Heinrich. I would appreciate that, General.
    Thank you, Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General, thank you for your service. I appreciate the 
opportunity to visit for just a few minutes today.
    With regard to Montenegro, the chairman had begun the 
discussion in terms of the possibilities that they could become 
a member of NATO. If they were to become a member of NATO, what 
would you expect the Russian response to be and how would you 
prepare for it?
    General Scaparrotti. Senator, I think we have probably seen 
their response in terms of their activity and their attempt to 
block that. I think to a certain extent, they know this is 
going to happen. I trust it will.
    In a conversation with one of NATO's ministers, one of the 
countries that has communication with Russian leadership, he 
shared with me that a Russian leader told him that Putin had 
said he lost Montenegro, but there will not be another 
Montenegro. I think that is an indication of how they think and 
how important it is to them that these other nations that seek 
to have a democratic government and turn to the West are under 
threat. It is one of the reasons that I think Russia continues 
to have frozen conflicts and be present in places like Georgia 
and Ukraine because it is their means of controlling that.
    Senator Rounds. You have got extensive background in 
Europe. You know a number of the European leaders. With the 
change in administrations, naturally there are going to be some 
questions in terms of policy changes, decision-making 
processes, and so forth. What questions are you getting from 
your European contacts in terms of leaders and what concerns do 
they have?
    General Scaparrotti. Well, I think, first of all, as a new 
administration comes in, they want to ensure that we are 
committed to the alliance and the security of the transatlantic 
AOR. For instance, Secretary Mattis at the first NATO meeting 
at the defense ministers conference made our commitment very 
clear, as did Vice President Pence, at Munich. I think that is 
critical. They look to that.
    They also now look to what are the policies and are the 
policies consistent with security in the transatlantic region. 
Of course, in a new administration, they are looking forward to 
policies with respect to NATO, policies with respect to 
Afghanistan and others.
    Senator Rounds. When it comes to doing your job, you 
clearly have to have the tools and the tools in proper working 
order in order to get the job done. If you could give us a list 
of those areas that you have the most concern with our 
capabilities today. I will just give you an example. The fact 
that right now if we have one task force leaving the 
Mediterranean coming through and another one going in, in some 
cases we are actually stopping in the middle of the 
Mediterranean and trading ammo because we do not have enough 
ammo to literally maintain operational capabilities in multiple 
task forces. Those types of things concern us. We have a 
nuclear submarine sitting at the dock because literally we 
cannot get the maintenance done on it so that it is certified 
to die at this stage of the game--a nuclear submarine. The 
readiness clearly is not there in some cases.
    Do you have issues right now under your command that you 
would share with us that you have concerns with?
    General Scaparrotti. Senator, I would like to get into 
detail in a classified or closed session. But generally I would 
say this. The demands of our security strategy today in the 
dynamic world that we are working in requires us to have more 
capacity than we have today in our armed forces. You noted the 
Navy. So in Europe, I do not have the carrier or the submarine 
capacity that would best enable me to do my job in EUCOM. It is 
sufficient, but it is not what ideally I would like to have to 
deter Russia, assure our allies, build their capacity, work 
with them on the basis that we need to work with them. So that 
is an example of the areas.
    Now, you mentioned munitions. I am concerned about that as 
well because we are using munitions today in those places where 
we are in conflict. The adversaries that we face, for instance, 
Russia or China or North Korea, will be high intensity 
conflicts. We have to invest in the stockpiles that we need, 
and we also have to invest in enhancing those munitions so as 
we look to the future, we do not find ourselves in a position 
where our adversaries have outpaced us.
    Senator Rounds. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you, General Scaparrotti, for being here today. I 
certainly appreciate your testimony and also wanted to thank 
you for being very generous with your time at the Munich 
conference where we had an opportunity to discuss many of these 
issues at length.
    General, as you are well aware, we are increasingly relying 
on space, cyberspace, and fiber optic communications cables in 
all aspects of our lives. These systems are also critical for 
social and economic activity, and their assured access and 
availability is vital to the U.S. strategic stability. When you 
look at Russia's navy operations right now in the EUCOM 
theater, which includes a significant footprint in the Arctic, 
which is growing dramatically without necessary response from 
us, and a $2.4 billion expansion of the Black Sea fleet by 
2020, Russia appears committed to bolstering their military 
infrastructure on EUCOM's flanks. This increased OPSTEMPO 
includes naval activity that suggests that Russia right now is 
exploring undersea cable vulnerabilities at much greater 
depths, depths where the cables are difficult to monitor and 
breaks are harder to repair.
    So my question is, in general, what is your assessment as 
to whether or not we have sufficient redundancy within EUCOM's 
command and control architecture, to include ballistic missile 
defense systems, to withstand a coordinated attack on our 
undersea, terrestrial, and space-based communication systems 
that you rely on?
    General Scaparrotti. Sir, what I would like to do is 
respond to that in a classified venue so I can give you a very 
accurate answer.
    Senator Peters. Sure.
    General Scaparrotti. I am confident of our ability to 
operate today. As I just said, we just did our command post 
exercise, and we were looking at that. But we need to modernize 
what we have today in terms of command and control, as you 
noted, in order to have the right kind of resilience with the 
adversary that we face. You need a good deal of redundancy to 
be sure. That is one of the areas. If you note in a classified 
venue, what I have asked of OSD [Office of the Secretary of 
Defense], that is one of the key areas that I think we need to 
work on is the C-4 structure within Europe.
    Senator Peters. Well, I would appreciate that and actually 
following up on Senator Heinrich's questions too as you come 
back to brief on some of the A2/AD capabilities. I would be 
interested in learning more about that, particularly when it 
comes to next generation, what we need to be investing in today 
to be ready for the years ahead as warfare changes dramatically 
in the next few years.
    But based on capabilities, to follow up my last question 
here related to capabilities, in the fiscal year 2016 NDAA 
budget, I co-led an effort to enhance lethality of the Stryker 
vehicles with a 30 millimeter cannon. This was in response to 
an operational needs statement from the 2nd Cavalry Regiment 
where the Strykers were the heaviest vehicles permanently 
stationed in Europe at that time. I understand that the work to 
add the 30 millimeter cannon to Strykers is going well. The 
first prototype was successfully delivered last October, and 
training is beginning on those vehicles.
    The ERI also provides funds for upgrading the Abrams tanks 
to be prepositioned in Europe as well.
    So could you just provide an update on the need for this 
capability and if we need to continue to be moving forward and 
that any lapses in that upgrade either of the Abrams or the 
Stryker is a problem or not for you?
    General Scaparrotti. Senator, thank you very much.
    It is not a problem for me, but it is a priority----
    Senator Peters. Right.
    General Scaparrotti.--given the adversary that we have who 
continues to modernize. Particularly Russia is modernizing 
their armored force, as well as in each one of their services, 
they are making advancements. So it is critical that we outpace 
that, that we provide our soldiers in this case the very best 
equipment that we can and we continue to upgrade it.
    Abrams is a fine tank, but as technology changes, we can 
make upgrades to it and make it better, and we make it better 
in terms of defense as well. We owe that to our soldiers.
    Senator Peters. The Stryker as well?
    General Scaparrotti. The Stryker as well, absolutely.
    Senator Peters. Great. Thank you, General. I appreciate it.
    General Scaparrotti. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General, good to see you. Thanks for spending time with a 
number of us in Munich.
    Do you agree that one of the most important strategic 
advantages we have in terms of our national security is that we 
are an ally-rich nation, our adversaries are ally-poor?
    General Scaparrotti. Senator, absolutely.
    Senator Sullivan. Do you also agree that the ally-poor 
nations like Russia, China, North Korea, Iran--that they 
recognize that--they do not have many allies at all--and that 
they try to undermine our alliances? Is that not what certainly 
Vladimir Putin is up to?
    General Scaparrotti. Yes, sir. I think his intent is 
actually to fracture NATO, and I think it is because he does 
fear NATO. He knows the power of that alliance.
    Senator Sullivan. So given that, are we doing enough 
diplomatically, militarily right now--the Trump 
administration--to reinforce our alliances, expand our 
alliances, deepen our alliances? What is your assessment of 
what we are doing and what we could be doing better whether it 
is in the military realm or diplomatic realm? How are we doing 
on that?
    General Scaparrotti. Sir, I think we absolutely have a 
focus on building partner capacity, building our relationships 
with our partners. We are a leader in NATO. From a EUCOM 
perspective, that is something--I mean, we work on this every 
day. I do not think there is any question of that particularly 
on the military side. It is a very close relationship with our 
partners. It is day to day. It works both ways. We learn from 
our alliance partners as well.
    Senator Sullivan. Are there things that you recommend that 
we could do more of or better in that regard? It is really, 
really an important issue--or the Senate? We play a big role in 
terms of our allies, treaties.
    General Scaparrotti. Well, I think in terms of the alliance 
itself, here again, I keep coming back to it, but I think it is 
whole-of-government in the sense that every agency in the 
government does their part and it is clear to our allies that 
from every agency in the United States, that the alliance is 
important and it shows and demonstrates in its actions that the 
alliance is the bedrock of transatlantic security. So there is 
no disagreement in what they see in terms of action, not just 
on the military side but in terms of our diplomacy, our 
information, our economics, et cetera.
    Senator Sullivan. I wanted to switch over to an issue that 
a number of us have been focused on and we have had discussions 
on it, is what is happening in the Arctic and the increasing 
importance of that region in terms of strategic resources, 
transportation, a lot of concerns of our NATO allies like the 
Norwegians and others about the significant Russian buildup in 
the Arctic. As you know, it does not look like a friendly 
buildup: four new brigade combat teams, a new Arctic military 
command, very aggressive actions in the high north, including a 
military exercise that was a SNAP exercise with close to 50,000 
troops that EUCOM was barely aware of, which is kind of, in and 
of itself, not a good sign.
    A number of us, Senator King, the chairman, were concerned 
enough that we did not have a strategy on that. So we required 
the Secretary of Defense to actually put forward a new Arctic 
strategy. There is a classified and unclassified version. Have 
you read that?
    General Scaparrotti. I have not read it, no.
    Senator Sullivan. So I would highly recommend that you take 
a look at it because it is the new DOD strategy. It is not 
perfect, but it is a heck of a lot better than the one that was 
previously published by DOD, which was pretty much a joke. Of 
course, EUCOM has a lot of important elements to play in that 
strategy.
    But one of the things it emphasizes, it does talk about our 
strategic interests, which the last strategy did not even 
bother to do. But one of the things it emphasizes is looking at 
freedom of navigation operations, the ability to actually push 
back on the Russian buildup, which includes 40 icebreakers, 13 
more under construction, several new seaports and harbors.
    But although it emphasizes FONOPS [Freedom of Navigation 
Operations], do you think right now if Russia decided to deny 
access to vital United States or Arctic shipping lanes in the 
Arctic region, that you as the Commander of EUCOM--could you 
provide the President an option of conducting a surface FONOP 
to challenge that act like we are trying to do in the South 
China Sea, given our assets right now? Because the strategy 
emphasizes FONOPS, but it certainly seems like the means that 
we have right now would not enable you to make such a 
recommendation to the President. What do you think about that, 
General?
    General Scaparrotti. I think it is would depend as well on 
the circumstances in terms of location and time of year because 
of the assets that we have as well. As you know, the northern 
sea route lays in closest proximity to Russia's coastline as 
well, which complicates that given their military buildup. So 
we clearly need to invest more in the kind of assets that help 
us in the Arctic. So that is how I would respond to that, 
Senator.
    We can give options. We certainly need to improve our 
capabilities. I am concerned as well about our capabilities 
with respect to the high north and security of the North 
Atlantic, et cetera.
    Senator Sullivan. That is just a diagram of what the 
Russians are doing. It is pretty significant.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    First, General, I want to thank you and your staff for 
preparing and presenting to the committee this map which I 
think is extraordinary. I am a great believer that you cannot 
confront your adversaries unless you understand them, unless 
you understand how they think. To me the amazing or very 
interesting and illuminating part of this map it shows the 
borders of the Soviet Union in 1989 and today the borders or 
Russia. Essentially from Putin's point of view, his border 
retreated about 1,000 miles across a whole front of eastern 
Europe. Clearly that is part of his world view in terms of 
Russia's proper place in the world. Would you agree?
    General Scaparrotti. Yes, sir, I agree. That is why I think 
the map is illustrative because I think if you are Putin, you 
are looking out for Moscow and you see what I think he would 
consider to have been his strategic buffer. It tells you a bit 
about his mindset, and from what we know about him, he feels as 
though he has been encroached upon, that he has this sphere of 
influence that he believes is rightfully his. Of course, these 
are nations that have a right to determine their own 
government.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator King. Part of Russia's history is a kind of 
paranoia about the West, going back to Frederick the Great and 
probably Napoleon. They have, in fact, been invaded from the 
West. Again, that contributes to this mindset. Would you not 
agree?
    General Scaparrotti. I agree, sir. Yes, sir.
    Senator King. That gets to my real concern--and I have 
raised this in other hearings--both in the South China Sea or 
in Europe, is the danger of an accidental war, a danger of 
misunderstanding, confusion, leading to some kind of 
escalation.
    What protections do we have from a misunderstanding? For 
example, we deploy what we consider a defensive rocket battery, 
missile battery in Poland, and the Russians read that as an 
aggressive act, and it goes from there. How do we ensure that 
does not happen? As I view the world today, I think this is our 
gravest sort of state-to-state danger, is misunderstanding and 
leading to accidental conflict.
    General Scaparrotti. Yes, sir. The thing that I worry about 
the most just day to day is that there is a miscalculation or 
an issue where we have forces in close proximity. So how do we 
deal with that?
    First of all, there are international norms in the air, at 
sea, et cetera that day to day the Russians adhere to as well. 
We have seen violations of that on their part. But it enables 
us----
    Senator King. Deconfliction.
    General Scaparrotti. It is deconfliction. That is correct. 
It is a good word.
    The second thing is I think it is important that we 
communicate with them. Today we do that primarily through the 
media, et cetera. But we have, as you know, connection with the 
Russians for deconfliction. I think that communication is 
important because what I try to do in EUCOM----
    Senator King. Do you have direct lines of communication 
with your opposite number in Russia, for example?
    General Scaparrotti. I do not today.
    Senator King. Do you not think that would be a good idea? 
You could say, wait a minute, that missile was launched by 
accident, do not get alarmed. I mean, I think having that kind 
of communication and at the higher level, at the State 
Department or at the White House level, there should be the 
opportunity anyway for this kind of communication.
    General Scaparrotti. We do have communication for 
deconfliction within OSD today. It is limited. I agree with 
you. I think communication is an important component of 
deterrence, for instance. But I think also given Russia's 
behavior, there is some limitation to that. We should not 
reward them for some of their bad behavior as well. So we 
should do what we need to do to ensure we are safe and we 
deconflict.
    Senator King. I am not suggesting warning them. I am just 
suggesting if something occurs, you could get on the line and 
say, wait a minute. Do not misinterpret that. That is where the 
concern comes.
    General Scaparrotti. That is correct.
    Senator King. We talked a lot--and I just want to associate 
myself with many of the other comments about the information 
war. To me, the specific answer to our failure to engage 
successfully in the information war goes back to, I think, 1998 
or 1999 when we abolished USIA [United States Information 
Agency]. There is no single point in the United States 
Government today that is in charge of information, and I think 
it is inexcusable that the country that invented Hollywood and 
Facebook is being defeated on the information battlefield. 
Clearly, that is part of the war that we are engaged in. Putin 
is achieving great success in Europe and across the world and 
one would argue in many areas without firing a shot through 
effective use of information. I think our friends on the 
Foreign Relations Committee perhaps can consider that. But USIA 
was the point and now we do not have it. So I hope we can 
recover that capacity sooner rather than later.
    Thank you very much, General.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Cruz please.
    Senator Cruz. Thank you very much, Senator Reed.
    General, good morning. Thank you for your service.
    The European theater continues to be a vital concern, a 
critical and complex region that will always be near the top of 
our national security priorities.
    I want to begin by focusing on the repeated reports we are 
seeing of Russia's growing support for the Taliban and for 
ISIS. General Nicholson testified last month that Russia is 
attempting to legitimize the Taliban and undermine the Afghan 
Government. Just a few weeks ago, General Votel expressed his 
concerns regarding the extent to which Russia has managed to 
prop up the Assad regime. In the same hearing, General 
Waldhauser said that Russia is trying to exert influence on the 
outcome of which entity emerges with control of the government 
inside Libya. That is a fairly comprehensive list of radical 
Islamic terrorist hotspots across the globe from Afghanistan to 
the Middle East to Africa and Russia seeking additional 
influence with each.
    How should this inform our future strategic choices with 
respect to Russia, and what impact would that have on your AOR?
    General Scaparrotti. Senator, thank you. I think those are 
all accurate. I agree with all their statements.
    I think actually that it is a part of Russia's intent to 
present themselves as a global power. In my view, where they 
are involved, they are not necessarily so concerned about the 
outcome, just that they can be a part of it. They can be seen 
as being a part of that. Whether it is an effective outcome I 
do not think it is as much of a concern to them.
    So that is what we need to take from this, more so from our 
point of view the fact that they are a spoiler often in many of 
these cases. So we also have to engage them in this manner, and 
we have to engage globally as well in these places in order to 
ensure that we have the proper influence.
    Senator Cruz. If Russia were to succeed in undermining the 
Afghan Government, what would the effect of that be on the NATO 
alliance?
    General Scaparrotti. It would be significant. I mean, NATO 
and the United States in my view must win in Afghanistan. I 
agree. I have seen the influence of Russia of late, an 
increased influence in terms of association and perhaps even 
supply to the Taliban.
    Senator Cruz. We have also seen over the past few months 
numerous instances of Russian aggression or hostile behavior 
such as Russian jets buzzing the United States Navy destroyer 
Porter and numerous intercepts of United States aircraft in the 
Baltic Sea. Some of these incidents have been exceedingly 
unsafe. Recently Russia also deployed a land-based cruise 
missile in clear violation of the INF Treaty. Also, a Russian 
spy auxiliary, gathering intelligence, ship conducted 
operations off the United States coast near our submarine 
bases.
    General, in your professional opinion, what should be the 
U.S.'s responses to these actions? How do we reduce Russia's 
flouting of international norms?
    General Scaparrotti. Senator, first of all, we must be 
strong in all that we do. We should confront them in each of 
these occasions or each of these incidents. Then we need to 
sail and fly every place that is within international norms and 
international airways and maritime. We just need to keep doing 
that. For instance, in the Baltic or in the Black Sea, these 
encounters are their means of showing us their displeasure for 
us being there. We have every right to be there. We have, in 
fact, increased our presence, and I think that is the right 
step, increase our presence and insist on the fact that we have 
every right within international law to operate there and 
continue to do so.
    Senator Cruz. Let me shift to a different question. 
American forces have conducted several deployments in support 
of Operation Atlantic Resolve to demonstrate our commitment to 
the stability of Europe. Recently 400 soldiers and 24 AH-64 
Apache helicopters deployed to Europe from Fort Bliss. However, 
earlier this month, the Army's Deputy of Chief for Operations, 
Lieutenant General Joseph Anderson, expressed concerns 
regarding sustainable readiness for the Army's future 
rotations. In essence, it sounds like soldiers that are coming 
home from one deployment will have less time to get ready and 
train before re-deploying to the European theater. That or the 
Army will be forced to reduce its global commitments.
    General, do you share the same concerns as General Anderson 
regarding this rotation of forces. What impact do you see in 
your AOR, and what do you recommend to improve the situation?
    General Scaparrotti. Senator, first of all, it is crucial 
that we continue the rotations within Europe for deterrence of 
Russia and for assurance and support of our allies, the 
commitments that we have made. But I do agree with General 
Anderson that, for instance, in the Army, as an Army officer, 
we are less than a 1-to-2 dwell. We are turning our people very 
quickly. It is the reason that our Chief has said that we need 
to grow our force, and we need to focus on readiness, as he is 
doing, because we are committed today at a very high rate.
    Senator Cruz. Thank you, General.
    Senator Reed. Thank you, Senator Cruz.
    On behalf of the chairman, Senator Donnelly please.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you very much for being here.
    We talk a lot about Russia's escalate to deescalate 
strategy or the idea that Russia has indicated through its 
words and its exercises that it sees the use of tactical 
nuclear weapons to supposedly deescalate a conflict as a 
realistic option.
    How should NATO respond to this? Does the United States 
have the capabilities whether through dual-use aircraft or 
strategic bombers to deter such an escalatory move?
    General Scaparrotti. Senator, thank you.
    As I have said, we should be strong in the face of both 
their rhetoric, their actions, and their modernization. We do 
have the capability to deter this. But we must remain strong 
and we must continue to modernize given the pace of their 
modernization so that in the future we continue our dominance.
    Senator Donnelly. I am just wondering personally. Do you 
think that Vladimir Putin and/or the Russians believe that they 
could use a nuclear weapon without a similar scaled response?
    General Scaparrotti. That is a good question. I think that 
about that a lot.
    They have said publicly that they see the potential of the 
use of a nuclear weapon in what we would consider a tactical 
and conventional means. That is just alarming.
    Senator Donnelly. I think it is a clear misunderstanding of 
who we are as well----
    General Scaparrotti. Exactly.
    Senator Donnelly.--is what I think.
    I was privileged to be over in Georgia and Ukraine not too 
long ago. My friend and fellow Hoosier, Senator Lugar, helped 
create the Nunn-Lugar Cooperative Threat Reduction program to 
combat the spread of weapons of mass destruction. While we were 
there, we spent a lot of time working with the Georgian and 
Ukraine Government in efforts to counter the smuggling of those 
materials.
    Russia has destabilized borders in both these countries, 
and I am concerned about the impact that has had on the ability 
to smuggle nuclear material through uncontrolled regions like 
eastern Ukraine. In Georgia, in fact, the special police unit 
calls those kind of areas the black holes. It is a serious 
threat given that the smuggling networks in these regions reach 
to the terrorist networks in the Middle East. That is the 
pipeline.
    I was wondering what EUCOM is doing to counter this effort 
at the present time.
    General Scaparrotti. Thank you, Senator. Your pipeline that 
you described is accurate.
    We have a transnational threats element within EUCOM. It is 
whole-of-government. It relies mostly on not just the military 
piece but mostly on other agencies within our government 
connection with our partners and allies, with Europol within 
EU, et cetera. It is a network essentially to help us highlight 
criminal networks. They are often very closely aligned and 
working with our terrorist networks. So that is one of the 
major things that we do. It is an important function, and it is 
a central part of our counter-transnational threats line of 
effort, which is one of our five lines of effort.
    Senator Donnelly. I want to follow on some of the questions 
my colleague, Senator Fischer, asked earlier about Russia's INF 
violations and their deployment of nuclear-armed ground-
launched cruise missile. They have similar air and sea launch 
capabilities that do not violate the INF. Why do you think they 
are deliberately choosing to deploy a seemingly redundant 
capability on land?
    General Scaparrotti. Well, I think that it would provide 
them a capability internal to their country that gives much 
great reach, simply put.
    Senator Donnelly. Do you feel that all of the steps being 
taken in Kaliningrad with the Iskander short-range missiles--
that the goal of all of that is to divide us, to undermine 
NATO, to try to separate the commitment from one to the other?
    General Scaparrotti. Senator, I think that is part of it. I 
think much of what they do is to undermine confidence in NATO, 
undermine confidence in the West. It is to threaten them with 
the idea that we can have control over a swath of your country 
or a number of countries in the region with these systems.
    Senator Donnelly. I want to thank you. You have a real 
challenge on your hands at this time, but we want you to know 
we are 100 percent behind you, that we will do everything we 
can to provide you with all you need and that you can tell all 
of our friends and allies over there that we have their back.
    General Scaparrotti. Thank you, Senator.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, Senator Ernst 
please.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, General Scaparrotti, very much.
    It is good to know that you do support providing lethal aid 
to our Ukrainian friends. It seems like we all do agree that 
there should be that lethal assistance out there. I have made 
this clear to this administration. I made it clear to the last 
administration as well. But I do hope that this administration 
decides to provide the assistance as soon as possible.
    Recently I have grown increasingly concerned about Russia's 
use of tactical drones to spot for artillery and advanced 
technology for communication and GPS jamming. What types of 
advanced technologies are the Russians using against Ukraine 
and in other places as well? Is there specific technology that 
we should be considering when we are providing Ukraine the 
opportunity to counter that technology?
    General Scaparrotti. Thank you, Senator.
    Actually in Ukraine what we see the Russians do is somewhat 
what they have done in Syria, and that is use the Ukrainian 
conflict as a place that they can test some of their new 
technologies or TTPs, and one of them, as you mentioned, is the 
sensor to shoot our linkages between weapon systems and the use 
of drones, et cetera. That is a problem that we are working on 
hard ourselves because we are seeing a proliferation of that 
not just with the Russians but in some limited ways as well 
with terrorists. So we are working those technologies. The work 
with Ukraine provides us an opportunity to test some of the 
things that we are doing as well. We simply need to make EW 
[Electronic Warfare] and those kinds of things available to 
them that can help counter what the Russian proxy forces are 
bringing to bear there.
    Senator Ernst. Absolutely. Thank you.
    You also mentioned that you were concerned about the 
stability in the Balkans. On Tuesday, Ambassador Burns joined 
us here and highlighted Russia's increasing influence in 
Serbia. Specifically he did mention the recent coup and 
assassination attempt in Montenegro that was orchestrated by 
the Russians in Belgrade. In light of that effort targeting 
NATO interest, do you think we should have a more robust 
presence in Kosovo as a means to deter the Russians in the 
Balkans?
    General Scaparrotti. Senator, I do. I have been to the 
Balkans several times in recent months primarily to learn more 
myself about the actual situation there, but also to bring 
focus to it. The Russians are active in undermining our efforts 
in the Balkans today, and we need to provide additional 
interagency focus. I think this is a matter of not just the 
military support with, say, the Kosovo security force, et 
cetera, which we have troops in. I think it is also a 
diplomatic and informational effort with us and importantly 
with our partners because, as you know, NATO and the EU have a 
large role to play in the Balkans as well today and lead many 
of these organizational efforts. So we all need to work 
together. The military is a part of it. On that point, I would 
say we should not reduce our force size particularly the Kosovo 
security force because it is kind of the bedrock of stability 
right now. But we do need a much more robust diplomatic/
informational effort among the alliance there.
    Senator Ernst. Absolutely. I think everything should be on 
the table at this point in reassuring and assisting our allies, 
our friends in the Balkans.
    Then just very quickly, you have mentioned the cyber center 
and how great it is, the cyber center that we have in Estonia. 
I will be meeting with their ambassador later to discuss their 
cyber defense center of excellence. So I am really excited 
about that opportunity.
    Can you just tell me very briefly how well EUCOM and NATO 
are prepared to defend against cyber attacks, especially those 
that are aimed at disrupting the elections that we will see 
ongoing in Europe?
    General Scaparrotti. Well, first of all, within EUCOM I 
think we are postured well to deal with cyber. Cyber Command 
works very closely with us, and literally it is a dynamic 
relationship because within the cyber domain, things change so 
rapidly. We just had our exercise here last month, we had an 
element from Cyber Command that acted as a component per se in 
EUCOM reporting directly to me. I think we are modernizing, we 
are moving forward. We have got good support. We have got a lot 
of work to do particularly in capacity.
    Within NATO, NATO recently determined that cyber was a 
domain at the Warsaw Summit. That was important because what it 
did is it provided direction to work doctrine and policy in a 
much fuller way which is the commander within NATO I need, and 
it gave me authorities to do more within cyber in NATO, which 
we need to do. So on the defensive side, pretty good. Beyond 
that, we are at the beginning of this in terms of NATO complete 
cyber capability.
    Senator Ernst. I do hope that is something that we can work 
on with them.
    Thank you for your great service, sir. Thank you.
    Chairman McCain [presiding]. Senator Warren?
    Senator Warren. Thank you. Thank you, Mr. Chairman.
    Thank you for being here, General.
    I want to quickly ask about the importance of our non-
military foreign assistance to your mission. When you appeared 
before this committee last year for your nomination as EUCOM 
Commander, you said--and I am going to quote you here--I 
strongly support the collaborative interagency approach. In my 
experience, it takes a network with all required agencies to 
defeat a threat network.
    So, General, do you still agree with that statement?
    General Scaparrotti. I do, absolutely.
    Senator Warren. The budget proposal put out by the Trump 
administration last week calls for a 29 percent cut to the 
State Department and significant cuts to other agencies with 
international responsibilities. General, would funding cuts to 
agencies that conduct diplomacy and development make your job 
as EUCOM Commander easier or more difficult?
    General Scaparrotti. It will make the job more difficult. I 
rely heavily on our relationships with the other agencies in 
our government. Within my headquarters, my POLAD is essentially 
one of my deputies, Ambassador Elliott. That gives you an 
example of the importance we place on it in EUCOM. Many of the 
things I have talked about this morning, counter-transnational 
terrorism--that is predominantly agency personnel from State 
and Treasury. It is not uniformed personnel that do those 
actions for EUCOM in the United States and Europe.
    Senator Warren. Thank you, General. I agree strongly on 
this.
    Russia is actively working to destabilize countries along 
its border and undermine unity within the European Union and 
NATO. They are doing this through a lot of indirect tactics 
like enabling separatist forces and disseminating propaganda 
and fake news. They even launched a cyber attack to influence 
the results of our election recently.
    But Russia is also investing in other kinds of asymmetric 
capabilities like disrupting communications through electronic 
warfare or working to evade United States and NATO surveillance 
and investing in space and cyber tools. According to press 
reports and arms control analysis, they violated the 
Intermediate-Range Nuclear Forces Treaty by deploying ground-
launched cruise missiles.
    The European Reassurance Initiative, ERI, has helped to 
counter some of these destabilizing activities. The United 
States has deployed equipment and rotated forces into Central 
and Eastern Europe, but I am wondering if this standard display 
of force is the best way to deter Russia now that Putin seems 
to rely more on indirect tactics.
    What I want to ask, General, is let us set aside 
conventional forces and prepositioned equipment for just a 
second, that it is there. What more can we do through ERI to 
address Putin's indirect and asymmetric tactics?
    General Scaparrotti. Through ERI, we are actually using 
these funds in some of the areas for the asymmetric activities 
to counter those malign influences. We have special operations 
forces that are supported by this that do military information 
support operations and activities in support of U.S. 
Government, particularly the embassy and the ambassadors in 
each of the countries. It supports us as well in cyber in 
operations. In other ways, there are means that perhaps--for 
instance, support in naval forces are seen as a ship, et 
cetera, but they are actually supporting those capabilities and 
those ships support us in other ways in terms of asymmetric 
means. So I agree with you, and we do have a focus on that.
    I would last say that part of this is we are learning too. 
I mean, part of that effort through ERI is to make sure we 
understand how they operate in this gray zone or hybrid 
activity. That is supported here as well.
    Senator Warren. Thank you very much, General. I think we 
need to be smart about responding to and deterring Russia's 
asymmetric aggression. It seems to me that we cannot think 
solely about deploying more troops and conventional military 
assets in Europe in order to counter Russia. We have got to 
have a very wide perspective on this. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. General, you mentioned on page 8 of your 
testimony the ceasefire violations in Ukraine, that the 
majority of them are being committed by Russian-led forces. 
Senator Warren mentioned fake news. How helpful are the OSCE 
monitors in giving us the correct picture there? Then I have a 
couple of other questions about OSCE.
    General Scaparrotti. Senator, thank you.
    OSCE is very important to this. One of the issues is that 
their job is to monitor activities and compliance with the 
agreement on both sides of the line of contact. In fact, 
Russia--it is well known that they intimidate and restrict the 
mission monitors in their job, which is one of the things that 
we need to encourage and insist that Russia stop doing and 
begin to allow the OSCE to do its job properly.
    Senator Wicker. What can we do in that respect?
    General Scaparrotti. Well, I think in that respect, sir, we 
need to bring the international community together with respect 
to Russia and their lack of movement on the Minsk. They say 
publicly they are in support of the Minsk agreement, but 
personally I think if you watch their actions, there does not 
seem to be steps taken on their part to do just that.
    Senator Wicker. They are doing a lot of exercises there and 
in all of Europe. One of the techniques they use to try to get 
around their commitments is the SNAP exercise designation. Can 
you tell us about that?
    General Scaparrotti. These exercises reflect Putin's focus 
on his modernization. It reflects his intent to make their 
forces more responsive to improve their mobilization, but it 
also is a part of intimidation I would say.
    The SNAP exercises themselves are typically broadcast as 
much smaller than they end up being. Some of them are not 
announced at all in contravention to the Vienna document and 
the treaties that we have there. So that is very disturbing, 
and it is a way that you can have miscalculation. We know in 
the past, at least with Crimea, they have used an exercise to 
shield what was a violation of the sovereignty of Ukraine.
    Senator Wicker. But they also continue to do exercises in 
Crimea. What is the significance of the most recent Russian 
exercise in Crimea?
    General Scaparrotti. To me the significance is that--well, 
there are several of them. One is that they do both defensive 
and offensive operations as a part of that SNAP exercise. They 
rehearsed attacks on the eastern border, actually flew toward 
it, those kinds of activities which are very disturbing and 
create a lot of angst along the eastern border and within EUCOM 
being able to watch this and understand what is their real 
intent. So it is the way they run the operations and without 
transparency that creates the problem.
    They have the right to do military exercises. They need to 
do them in a way that is constructive and aligned with our 
agreements.
    Senator Wicker. But they do not have a right to do the no-
notice exercises under their agreements.
    General Scaparrotti. Under the agreement, it has to be 
announced if it is over 9,000 troops, and it has to be observed 
if it is 13,000 or more. There has to be an allowance for 
observers if we choose to do so. Their SNAP exercises are much, 
much larger than that, almost 100,000 if you take them in all 
the different exercises that happen simultaneously.
    Senator Wicker. Should we be concerned about trends in 
Russian activity in the North Atlantic?
    General Scaparrotti. Yes, we should. They are more 
aggressive. They are reestablishing bases in the Arctic and 
North Atlantic. We have to go back to establishing the same 
deterrence that we practiced during the Cold War in my view.
    Senator Wicker. Is there a forum where we are engaging with 
them diplomatically about that?
    General Scaparrotti. I do not know the forum personally. I 
know that we have engaged with them diplomatically, but I could 
not tell you the forum, sir.
    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General, you have mentioned several times the importance of 
the whole-of-government approach particularly to reassure our 
NATO allies and your concern that the contemplated cuts to the 
State Department, for example, and the Treasury Department by 
this administration would raise major concerns for you, also 
shared by Secretary Mattis. Is that concern that you express 
shared by our other combatant commanders?
    General Scaparrotti. Senator, I would say that you would 
have to ask them directly for their own personal opinion, but I 
will answer it this way. We operate with our interagency, and 
most of what we do today, even in the more direct actions that 
we have taken in, say, Afghanistan or Iraq have relied upon an 
interagency approach, a whole-of-government approach. That is 
the way we traditionally operate.
    Senator Hirono. It sounds as though that your concern or 
your commitment to the importance of a whole-of-government 
approach is one that is shared by our other commanders.
    You mentioned that there is a possibility, of course, of 
Russia's use of nuclear weapons, and there is always that 
possibility. But on the other hand, Russia has cyber capability 
that can be very effective, and one wonders why they should 
resort to conventional warfare if they can use cyber to do all 
kinds of damage. So, for example, Russia is currently 
conducting cyber operations in various countries, such as the 
Ukraine, Montenegro, by attacking military communications and 
secure databases, as well as power grids. In addition, they are 
using fake news and information operations to impact elections 
across the globe. This has magnified a wave of populist 
nationalism in Europe and impacted the recent United States 
elections.
    I think that you mentioned or you described that you are 
working with our allies to create a defensive approach to the 
cyber operations that Russia has deployed.
    I am wondering, though, has the question of what the U.S. 
would do if Russia's activities in affecting and disrupting the 
elections of our NATO allies, whether the question has come up 
where at some point we would say that these kinds of cyber 
attacks rise to the level of an act of war that would trigger 
reaction from us to support our NATO allies.
    General Scaparrotti. Senator, that is a matter of policy, 
but I think we are a member of NATO. NATO has said that article 
5 could be triggered by a cyber event. We are a member of that. 
So I think there is the occasion that that could occur. But, 
again, what we would do and what level that would be that would 
create a response is a policy decision.
    Senator Hirono. Something that we need to definitely 
discuss at the policy level.
    I think you mentioned in response to another question 
regarding our mil-to-mil communications with Russia that we do 
not necessarily want to reward their bad behavior. I am 
wondering, based on your communication with the administration, 
do you know what the administration's position is on the 
current Russian sanctions? Would rescinding these sanctions 
affect stability in Europe in your view?
    General Scaparrotti. I have not had the discussion with my 
leadership on the sanctions, Senator. I think that we must 
retain the sanctions. We put them in place as a result of their 
annexation of Crimea. It is another way that we, both the 
United States and the alliance in Europe, strongly show that 
that is unacceptable and we will maintain strength in the face 
of Russia's activities.
    Senator Hirono. So would any kind of cutting back on those 
sanctions not signal some kind of a retreat or weakness on the 
part of our U.S. commitment to NATO, for example?
    General Scaparrotti. Well, I think personally that if we 
were to relieve or cut back on those, Putin would see that as a 
very good thing, and it would reward him standing fast long 
enough to perhaps survive the sanctions themselves.
    Senator Hirono. Thank you, Mr. Chair.
    Senator McCaskill [presiding]. I am the acting chairman 
right now, and I have the pleasure of calling on myself.
    I am going to say for the record what needs to be said 
here, and that is that if we want to send the right signal to 
Russia, all of the work that we are doing, that you and your 
command are doing, which is so important, is an integral piece 
of that. All of the work we do with our allies in Europe is an 
integral piece of that. But a big piece of it is having a 
Commander in Chief that will say that right things to Russia. 
We do not have a Commander in Chief right now who is willing to 
say out loud what everyone knows about Putin and what he is 
doing in Europe and what he tried to do in the United States. 
Until we have a Commander in Chief that is willing to speak out 
against this thug and his behavior, I do not know that all the 
great work that you and your command can do is ever going to 
move the needle enough.
    I have said it, and I feel better. You do not have to say a 
word, not your place to say a word. I understand the role of 
the Commander in Chief in your life. But I wanted to say it and 
put it on the record.
    I was in Estonia. I would like to talk a little bit about 
what is going on in other places in nontraditional warfare. I 
was in Estonia last summer, and I was shocked how many 
Estonians told me--you know, we went to a coffee shop and we 
were talking to those who spoke English. They were saying how 
they really wanted to be part of NATO, but they were worried 
about the NATO soldiers being able to rape the citizens of 
Estonia and not be held legally accountable. I, of course, 
went, what?
    As it turns out, this is the other thing Russia is doing, 
that Russia is pushing propaganda through Estonia that NATO is 
somehow going to damage their sovereignty in terms of the 
enforcement of rule of law.
    Could you speak to that, General, that method that they use 
to try to undermine the support of NATO in the countries that 
they have designs on?
    General Scaparrotti. You stated it clearly. In fact, we are 
now in NATO--the first forces are going into the four nations, 
Estonia being one of them. We have already had a couple of 
incidents of just complete untruth--the incident never 
occurred--within days of the troops arriving. We prepared for 
this. We expected it. We were able to respond to those 
truthfully and quickly and debunk the false story. But it is 
something that I expect will continue.
    As you said, it obviously has--their disinformation 
obviously has some influence. If there is a consistent message 
from Russia in the east, it is to undercut the credibility of 
the United States and NATO at large, consistently.
    Senator McCaskill. Do we have a robust enough response to 
this kind of disinformation campaign? Are we focusing enough on 
this part of the warfare?
    General Scaparrotti. I think we are focused on it. I do not 
think we have a robust enough response at this point. I think 
we have to, both as the U.S. and also as allies, come together 
and take a more aggressive confrontation of Russia particularly 
in this gray area.
    Senator McCaskill. Yes. I would certainly hope that would 
be on NATO's agenda as to strategies moving forward to combat 
this kind of insidious disinformation that really does 
strengthen the efforts of Russia to use military might to 
intimidate and eventually move into countries that have no 
desire to be occupied.
    I also want to take a brief moment to talk about something 
I am like a broken record on and that is OCO [Overseas 
Contingency Operations]. The Congressional Research Service 
recently published an extensive report on OCO funding, and it 
states the obvious that those of us who are on this committee 
are painfully aware of, that this began truly for a contingency 
after 9/11 and has now morphed into something very ugly off the 
books in that we now have the European Reassurance Initiative 
in the OCO budget. We now even have base budgeting in the OCO 
budget.
    Talk, if you will, from your perspective, as you are asked 
to draw up your financial needs for your command, how you all 
are making a decision inside the Pentagon what you put in OCO 
and what you put in the base budget.
    General Scaparrotti. Well, ma'am, for instance, I will 
start with EUCOM. We have the outline of the use of ERI, what 
it is intended to do based on Congress' direction. I have a 
process where my component commands, the other services, make 
recommendations for funding in ERI. I have a board that 
eventually comes to me for a decision that, first of all, asks 
the question, is that in support of the intent of ERI, and if 
not, why is it in here. We will push it off to the base budget. 
Or even those areas where I think, you know what, that is a 
broader activity we are funding. It really ought to be in the 
base, not in ERI. So I have that system myself within EUCOM, 
and we draw that line hard because we appreciate ERI. We want 
to maintain the credibility of it and how we use it. It is 
fundamental to doing our job in EUCOM.
    Within OSD, there is a very deliberate process run by the 
DepSecDef and the Vice Chairman that all of us as combatant 
commands take part in. It is very detailed in terms of a look 
at each command and what we propose for a budget, what we 
intend to put in, and it looks at a cross section, as well, a 
comparison of each other. So it is a deliberate process.
    I would just say that I am in favor of moving funds into 
the base. We need predictable funding----
    Senator McCaskill. Right.
    General Scaparrotti.--so that we can actually make longer-
term decisions and have more continuity. That would be better I 
think for the force as a whole as well.
    Senator McCaskill. This would be a good time for us to have 
the discipline, as the President has presented a budget that 
is--frankly, it is not a huge increase in the military. I think 
he is trying to make everybody believe it is a big increase to 
the military. I think it is only three percent higher than what 
President Obama recommended in his budget. But nonetheless, it 
is an increase. When everything else is getting cut, I think 
this would be a good time for us to bite the bullet--pardon the 
use of that particular analogy, but I think it would be time 
for us to be honest with the American people and put all of 
these items into the base budget so the American people 
understand what we are spending on the military as it compares 
to other parts of our budget.
    I thank you for your service. I thank all of the men and 
women who serve under your command. I think you have got a 
really important job now. I understand the importance of what 
you do now has been exacerbated by what Russia has done over 
the last 12 months and what they continue to do in democracies 
across the world. We are depending on you to be our front line 
eyes and ears to their aggression. I thank you very much.
    Chairman McCain [presiding]. Senator Blumenthal?
    Senator Blumenthal, Thanks, Mr. Chairman.
    I want to join in thanking you and the men and women under 
your command for their service in a critical area of the world 
for us and our national security.
    I understand you have just come back from a trip to Israel, 
and I would like to ask you what security concerns the Israelis 
raised with you, focusing specifically on the Iranian 
development, continuing development, of their ballistic 
missiles.
    General Scaparrotti. Yes, sir. Well, first of all, Israel 
is an extremely close ally of ours, a special ally. We in EUCOM 
have an excellent relationship with them. It is nearly daily 
contact. One of my missions is support of Israel and their 
defense.
    As I visited, their CHOD and I and their senior leaders 
obviously talked about their concerns about Iranian malign 
influence, as well as their missile capabilities. We work 
closely with them to support and complement their missile 
defense, for instance. In fact, one day of that trip, I met 
their air missile defense commander and went to look at some of 
their sites to ensure that we in EUCOM were supporting that 
fully.
    Beyond that, we discussed, for instance, their concern 
about Hezbollah and fighters gaining experience in Syria and 
other places and returning and what that might mean in the 
future, a concern about, obviously, Syria and the tri-border 
region as the conflict in Syria continues. So they live in a 
very tough neighborhood, and you can look in nearly every 
direction and have a threat.
    Senator Blumenthal, Is there more that we can and should be 
doing to strengthen their defenses against that kind of missile 
threat?
    General Scaparrotti. Senator, we are doing all that we can. 
I mean, we work with this closely to ensure that we do, in 
fact, reinforce their defense. In fact, there are more things 
we can do with their missile defense. We have people there this 
week working on that as well. I mean, it is a matter of 
modernization, change in environment. But we are doing that. To 
maintain their military edge is very, very important and also 
to maintain the war stocks that we have committed to them for 
use.
    Senator Blumenthal, But there is more that we can do and we 
are doing it.
    General Scaparrotti. We are, and we are focused on support 
of Israel.
    Senator Blumenthal, I take it, speaking of ballistic 
missiles, that you would agree with General Selva who testified 
earlier this week during the House Armed Services Committee 
that Russia is violating the INF Treaty.
    General Scaparrotti. Yes, I agree.
    Senator Blumenthal, I think in your testimony you used the 
word ``concerning.'' This is an extraordinarily important area. 
Is it not?
    General Scaparrotti. Yes, sir, it is. It is an enhancement 
in capability that has a direct impact throughout the theater 
from my perspective.
    Senator Blumenthal, That is because, as you put it well in 
your testimony, it increases Putin's asymmetric options as this 
missile capability is built. The whole reason that the treaty 
exists is to stop this kind of development because it threatens 
to destabilize the whole confrontation--not confrontation, but 
the array of forces in that part of the world. Correct?
    General Scaparrotti. That is correct.
    Senator Blumenthal, Have you made recommendations as to 
what we should be doing about it?
    General Scaparrotti. I have made recommendations in the 
sense that we need to respond to this. We need to be strong in 
the face of it. I think the actions that we have recommended in 
EUCOM, in terms of posture, force structure, et cetera, are all 
a part of this, a part of the response that we need to have for 
Russia at large.
    Senator Blumenthal, Is there consideration, to the extent 
you may know of it, about additional diplomatic or military 
action that the administration may be taking to counter this 
threat to our security?
    General Scaparrotti. At this time, I have not had that 
discussion yet with that specific topic in terms of policy 
actions or actions that might be taken.
    Senator Blumenthal, Have you any expectation that that 
discussion will occur?
    General Scaparrotti. Yes, I do.
    Senator Blumenthal, Can you give us a general time frame?
    General Scaparrotti. No, I cannot, but I would expect we 
will have it. Yes, sir.
    Senator Blumenthal, Well, I would urge that it be done 
sooner rather than later. With all due respect, I am not nearly 
as well informed as you, but I am extremely alarmed by this 
violation of the INF Treaty and what it represents 
strategically in that part of the world and what it reflects in 
the way of Russian intentions around the world. Thank you, 
General.
    General Scaparrotti. Thank you, sir.
    Senator Blumenthal, Thank you, Mr. Chairman.
    Chairman McCain. Apparently Senator King has not had 
enough.
    Senator King. Thank you, Mr. Chairman. Fortunately, your 
microphone was off for the editorial comment.
    General, a couple of quick questions. Do you consider RT, 
Russia Television, an agent of the Russian Government?
    General Scaparrotti. Yes, I do, sir.
    Senator King. It is my understanding that not only are they 
using RT in Europe, but they are also sniffing around or, in 
fact, looking into acquisitions of commercial television and 
radio capacity in Europe.
    General Scaparrotti. That is correct. I have been told in a 
number of countries that they are using fronts, but essentially 
buying local TV, and in one case recently, a social media 
network that is influential particularly with the young in the 
Baltics.
    Senator King. When you say buying local TV, you are talking 
about TV stations, not airtime.
    General Scaparrotti. That is right. They are buying TV 
stations and a social network company that does work on social 
media.
    Senator King. This is one more area of their what I 
consider very effective playing of a weak hand. They are 
aggressing upon us at a low dollar cost, but aggression 
nonetheless.
    General Scaparrotti. Yes, sir. I agree.
    Senator King. Different subject. Iceland. I was in Iceland 
recently, and it struck me as an incredible strategic location. 
Keflavik air base was dismantled--or not dismantled. It is 
still there, but it was deactivated around 2004 or 2005. It 
strikes me that this is such a strategic location. Do you 
believe that we should at least consider, subject to the 
approval of the people of Iceland, some reconstitution of our 
capacity there? I know we have rotational forces there but 
something more than that.
    General Scaparrotti. Senator, we do have rotational forces 
through there, but I think we should consider it. Again, it 
comes back to my concern about the high north, North Atlantic, 
and the increasing Russian threat from the North Atlantic fleet 
there. So that area is important to us to increase our 
activities with our allies to ensure that we deter Russia and 
we are very knowledgeable of their activities as well.
    Senator King. It struck me as a large, unsinkable aircraft 
carrier in the midst of the most strategic spot in the North 
Atlantic.
    General Scaparrotti. Yes, sir.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King, I met with the President of 
Iceland, and I know that General Scaparrotti has too. We have a 
PR [Public Relations] challenge there as well with the people 
of Iceland. Is that not true, General?
    General Scaparrotti. Yes, I believe we do. I think NATO 
could do more work there as well in terms of perspective or 
receptiveness, Senator.
    Chairman McCain. They would be more receptive if it were a 
NATO kind of commitment rather than just the United States.
    General Scaparrotti. Well, in discussions, that is what has 
been discussed with me as the SACEUR [Supreme Allied Commander 
Europe].
    Chairman McCain. Well, I thank you, General, and I 
appreciate, obviously, the important information you have 
provided the committee.
    I would just like to mention again what Senator King 
brought up, and that is this whole issue of this information 
warfare that is going on right now is something that crosses a 
lot of boundaries between State and Defense and intelligence 
and other agencies of government. Yet, every time I turn around 
and talk particularly to one of the smaller countries, that is 
one of their biggest issues is this propaganda that the 
Russians--and fake news, et cetera, ranging from what their 
obvious attempts at changing the outcome of the French election 
to the pressure on Latvia to alienate their Russian speaking 
population. So I hope we will move that issue up on our 
priority list. It seems to me it is kind of like the weather. 
We talk about it but we really do not do anything about it.
    There is a precedent for it. It was called the Cold War. 
How many people do we know that after The Wall came down who 
said I listened to Radio Free Europe? I listened to the Voice 
of America. It kept hope alive. Why can we not reconstitute 
something along those lines to get the message out? I do not 
think it would be hard to counter Russian propaganda given the 
kind of lifestyle they have in Russia.
    So I hope you will think about it, and we will continue to 
think about it. But whenever you get one of these issues that 
involves more than one agency of government, as you know, we 
have much more difficulty, whether it be cyber, or whether it 
be this information challenge that we are facing now.
    So we thank you, General, for visiting with us again and 
thanks for the great work. Senator King will come to Brussels 
and spend time with you as well. Thank you.
    General Scaparrotti. Thank you, Chairman. My privilege.
    [Whereupon, at 11:35 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
colocation of the nato intelligence fusion center (nifc) with the eucom 
               joint intelligence assessment cell (jiac)
    1. Senator McCain. General Scaparrotti, hybrid threats challenge 
the NATO political decision making process because they obfuscate 
attribution. What is your assessment of intelligence sharing in NATO 
and what steps can be taken to improve it?
    General Scaparrotti. The quality and quantity of intelligence 
sharing between allies and NATO varies based on national interests and 
capabilities. There are a number of examples of timely and high quality 
intelligence sharing, such as in Afghanistan and Kosovo. Sharing within 
military organizations and Allied Command Operations is robust. 
However, even in the military spectrum, there are high interest areas 
that suffer from a dearth of intelligence sharing. There is also 
significant room for system based virtual collaboration tools to 
improve sharing of NATO products within the U.S. intelligence community 
that would allow more efficient IC exploitation of NATO intelligence 
collection and production. Encouraging nations to share intelligence 
with NATO is a persistent effort. Allies have varying levels of 
capacity and interoperability of systems to share national intel with 
NATO. NATO intelligence production is conducted on both BICES and the 
NATO Secret Wide Area Network (NSWAN), but often, the systems are 
unable to access the other systems data. NATO is hampered with an 
inability to organize, search and discover existing intelligence 
information within the NATO intel system. There is also no central 
designated management authority for that responsibility between the 
civilian and military sides of NATO. This includes RFIs, collection, 
and significant portions of production by NATO elements. Finally, 
outdated processes and system verification of U.S. ``read-ons'' to NATO 
SECRET limits efficient sharing of NATO data back to the U.S. 
Government and thus limits the effectiveness of sharing between the 
U.S. and NATO. Potential Areas for Improvement:

    <bullet>  Encourage allies with robust intelligence capabilities to 
contribute to NATO commensurate with capability.
    <bullet>  Ensure expanded use of BICES and that NSWAN workstations 
are cross-domain enabled.
    <bullet>  Central management and a more organized RFI process 
across NATO. The improvement of tools to allow more robust discovery of 
existing RFIs, finished production, and other structured intelligence 
data is necessary to prevent duplication and lack of access of 
available relevant information.
    <bullet>  Quicker implementation of a PKI-enabled solutions to 
allow those with access to NATO SECRET to access NATO-produced 
intelligence production on U.S. classified networks.

    2. Senator McCain. General Scaparrotti, in the preface to the book 
by General Sir Richard Shirreff, former Deputy SACEUR, titled ``War 
with Russia'', he wrote: ``Back in March 2014, there was a sense of 
incredulity among us western military leaders when it became 
increasingly clear that the ``annexation'' of Crimea was no less than a 
Russian invasion . . . In the days that followed we received regular 
updates from NATO's Intelligence Fusion Centre, as they listed the 
Russian tank armies and airborne divisions now preparing to invade the 
rest of Ukraine.'' It sounds like the NATO Intelligence Fusion Center 
was a vital source of intelligence during the Ukraine crisis in 2014. 
In your opinion and experience, why is the NATO Intelligence Fusion 
Cell important to NATO?
    General Scaparrotti. As a Memorandum of Understanding (MOU) 
organization, the NIFC operates outside of the NATO Command Structure, 
which allows it greater flexibility than other NATO intelligence 
organizations. The agility of the organization to provide timely 
intelligence and establish a common picture facilitates NATOs ability 
to detect and understand the geopolitical and military challenges in a 
complex and dynamic environment. Additionally, the NIFC's unique 
position as an international military headquarters outside the NATO 
command structure allows the NIFC to serve as a hub for coalition 
intelligence production. In this capacity the NIFC acts as a center for 
Processing, Exploitation, and Dissemination (PED) of all-source 
intelligence production. Outside of Operation RESOLUTE SUPPORT, NIFC 
intelligence production has accounted for a majority of all NATO 
intelligence enterprise production over the past twelve months. The 
NIFC is the principle producer of GEOINT and targeting intelligence for 
Allied Command Operations. The NIFC continues to build capacity through 
sharing of tradecraft, process and methodology, enhancing 
interoperability and enabling intelligence sharing amongst allies and 
NATO partners.

    3. Senator McCain. General Scaparrotti, why is it important that 
the NATO Intelligence Fusion Cell be collocated with EUCOM's Joint 
Intelligence Analysis Center? What is lost if it is not collocated with 
the Joint Intelligence Analysis Center?
    General Scaparrotti. There are several reasons why it is important 
for the NATO Intelligence Fusion Center (NIFC) to remain collocated 
with the EUCOM Joint Intelligence Analysis Center (JIAC). If NIFC were 
to relocate independent from the JIAC, it would require the U.S., as 
the framework nation, to spend additional money to replicate the 
administrative and operational support presently provided. At a 
minimum, the U.S. would be required to re-create, and in some cases 
replicate, operational and administrative capabilities. NIFC relocation 
to an alternate facility would require increased manpower to sustain 
operations. NIFC relocation outside of the UK would require the 
consensus of all Allied nations, as well as legal and treaty 
negotiations with a new host nation. From an operational standpoint, 
collocation is a key enabler for U.S.-NATO intelligence collaboration. 
This includes promotion of U.S.-NATO intelligence interoperability, 
shared views of common threats, enhanced intelligence sharing, 
federation and burden-sharing, as well as smooth operational transition 
from unilateral/multilateral to NATO operations. Separating the NIFC 
from the JIAC and other collocated intelligence elements within the 
JIAC would degrade these operational advantages and require additional 
investment by the U.S. to replicate the core support capabilities and 
infrastructure.
              u.s. force structure requirements in europe
    4. Senator McCain. General Scaparrotti, General Breedlove told the 
committee last year that: `` . . . our current force posture in Europe 
has been based on Russia as a strategic partner . . . '' This year your 
written testimony said: `` . . . the ground force permanently assigned 
to EUCOM is inadequate to meet the combatant command's directed mission 
to deter Russia from further aggression.'' In your opinion, what 
changes must we make to our current military posture in Europe to 
adjust to the current threat reality?
    General Scaparrotti. EUCOM force posture must continue to adapt to 
meet the complex and dynamic strategic challenges in our security 
environment. As I stated in my testimony, this means developing a 
relevant force structure across multiple domains and warfighting 
functions. We need additional Intelligence, Surveillance and 
Reconnaissance (ISR) capabilities, not only additional platforms, but 
the ability to analyze and disseminate their intelligence information. 
We also need additional land force capabilities, most notably a 
division-sized armor presence that includes a headquarters element; 
enablers such as fires, engineering, and combat aviation; and 
preposition equipment sets. Our naval capabilities must also increase, 
especially in anti-submarine warfare. We need to enhance our integrated 
air and missile defense to meet the strategic challenge of countering 
Russia's growing anti-access area denial capabilities. Lastly, we need 
to modernize and increase our munition stockpiles as our planning and 
targeting processes mature.

    5. Senator McCain. General Scaparrotti, NATO's missile defense was 
designed only to stop Iranian missiles. Do we need a reevaluation of 
European air and missile defense against Russia?
    General Scaparrotti. EUCOM views Russia as a significant threat 
with mature and growing capabilities to conduct comprehensive and 
coordinated attacks in our AOR. To counter this we should reevaluate 
ways to address our air defense capability gaps against advanced 
Russian air and cruise missile threats, but only in ways which will not 
destabilize the region geopolitically. EUCOM supports current U.S. 
national defense policy for Ballistic Missile Defense (BMD).

                               __________
               Questions Submitted by Senator Jim Inhofe
                     u.s. force structure in europe
    6. Senator Inhofe. General Scaparrotti, EUCOM has been described as 
a lily pad, a forward staging area for multiple COCOMs to include 
EUCOM, AFRICOM, CENTCOM and PACOM. Is that true and why?
    General Scaparrotti. EUCOM's role in enabling global operations for 
not only the Geographic Combatant Commanders but also TRANSCOM, 
STRATCOM and SOCOM is pivotal for the efficient execution of worldwide 
military operations. EUCOM personnel routinely support operations in 
the AFRICOM and CENTCOM areas of responsibility. EUCOM's well-developed 
infrastructure provides critical capabilities in strategic locations 
like Incirlik, Turkey; Sigonella, Italy; Souda Bay, Greece; and Moron 
and Rota, Spain. Basing and access in many European countries (e.g., 
Germany, UK, Italy, Spain, Greece, and Turkey) enable more timely and 
coordinated trans-regional crisis response.

    7. Senator Inhofe. General Scaparrotti, is a rotational force as 
effective and efficient as a deterrent force as permanent basing?
    General Scaparrotti. For the challenges we face in the EUCOM 
theater, no, permanent force structure is preferred over rotational 
forces. The Department of Defense evaluates numerous factors, such as 
operational requirements, costs, force management, readiness and 
political-military relationships, in their deliberations of whether to 
permanently station or rotationally deploy forces to a Combatant 
Commander. Numerous benefits would accrue to having additional 
permanent forces structure in Europe:
    1)  Increase operational flexibility and responsiveness;
    2)  Provide persistent presence for deterrence and response;
    3)  Enable dynamic presence for other Combatant Commands;
    4)  Enhance habitual relationships and interoperability with allies 
and partners;
    5)  Improve coalition partner capacity;
    6)  Demonstrate U.S. commitment and resolve;
    7)  Ensure access and bases for global operations;
    8)  Enable U.S. leadership of the NATO Alliance; and
    9)  Decrease costs associated with Operations and Maintenance and 
sustaining readiness of rotational forces.

    8. Senator Inhofe. General Scaparrotti, do you support permanent 
basing and additional infrastructure in Europe and specifically Eastern 
Europe? If so, what would that look like?
    General Scaparrotti. I support additional basing of U.S. Forces in 
Europe. Current U.S. national policy prohibits the permanent basing of 
U.S. Forces in parts of Eastern Europe due to the NATO-Russia Founding 
Act. Rotational U.S. and Allied forces in Eastern Europe provides a 
level of deterrence, posturing and assurance without violating U.S., 
NATO and international agreements. Our efforts to provide the austere 
infrastructure in Eastern Europe is to support rotational U.S. forces. 
The European Reassurance Initiative (ERI) program is the current 
funding tool to improve infrastructure in Eastern Europe, both in 
support of rotational presence and to provide infrastructure 
capabilities that may be needed in a crisis.

    9. Senator Inhofe. General Scaparrotti, what concrete steps do you 
think need to be taken to change our force posture in Europe to deter 
Russia?
    General Scaparrotti. To change the force posture in Europe, we 
would need to establish whether we are going to rely on permanent or 
rotational forces, or a mix of the two. Based on that policy decision, 
I believe we need to develop the right mixture of permanent and fully-
resourced heel-to-toe rotational forces in the various combat domains. 
In the land domain I believe we need a Division's worth of armored 
ground power, in addition to the two brigades presently stationed in 
Europe (the 173 Airborne Brigade Combat Team and the 2nd Cavalry 
Regiment). Additionally, a division headquarters element is required in 
theater, along with enablers such as fires, engineering, and combat 
aviation to support an armored division. Finally, the requisite 
preposition equipment sets are necessary for rapid deployment of combat 
capability into the European theater. In the sea domain, our naval 
capabilities must also increase, especially in anti-submarine warfare. 
We need to enhance our integrated air and missile defense to meet the 
strategic challenge of countering Russia's growing anti-access area 
denial (A2AD) capabilities. In the air domain we need to ensure we have 
air assets with the ability to defeat Russian A2AD systems. EUCOM needs 
to modernize and increase our munition stockpiles as our planning and 
targeting processes mature. Finally, EUCOM needs additional 
Intelligence, Surveillance and Reconnaissance capabilities, not only 
additional platforms, but the ability to analyze and disseminate their 
intelligence information.

    10. Senator Inhofe. General Scaparrotti, would it be useful to 
fully exercise NATO's ability to mobilize for combat in Europe, similar 
to what NATO used to do with its REFORGER Exercise from 1967 to 1993, 
to fully task NATO's combat capabilities and identify shortfalls?
    General Scaparrotti. Yes, NATO, including the U.S. forces that 
support NATO, should more fully exercise the ability to mobilize for 
combat in Europe. Exercising Allied capabilities alongside the U.S. is 
absolutely central to this effort. ERI has allowed EUCOM to exercise 
more U.S. forces on the European continent. One recent example is the 
Baltic exercise SABER STRIKE 2017 where 22 allies and partners 
participated. In addition to NATO and partner exercises, ERI is also 
facilitating U.S. units' deployment to Europe to train and exercise 
with NATO's Very High Readiness Joint Task Force in that unit's 
training and validation events. Finally, as EUCOM rotates forces into 
Europe, it is actively sharing its Joint Reception, Staging, Onward 
Movement, and Integration lessons learned with allies to help inform 
NATO's own efforts to improve mobilization, mobility and freedom of 
movement across Alliance territory.
                      russia inf treaty violation
    11. Senator Inhofe. General Scaparrotti, on 8 March, General Selva, 
the Vice Chairman of the Joint Chiefs of Staff, confirmed that Russia 
is deploying nuclear-tipped ground-launched cruise missiles in 
violation of the 1987 INF (Intermediate-Range Nuclear Forces) Treaty. 
And you reaffirmed that violation in your opening statement. This is 
the same missile that was tested in 2014 in violation of the INF 
Treaty. These missiles will add to existing Russian nuclear capable 
air- and sea-launched cruise missiles that can range most of Europe and 
the United States when launched off bombers and submarines. General 
Scaparrotti, what should be the U.S. response to their violation?
    General Scaparrotti. Russia's violation of the INF Treaty is but 
one example of their malaign military activity, and the U.S. should use 
all elements of its national power to respond strongly to this INF 
Treaty violation. The Treaty has a provision for a Special Verification 
Commission to resolve questions of compliance. When asked by the 
Chairman of the Joint Chiefs of Staff, I will provide my best military 
advice. As you know, the Department of Defense is in the infancy stages 
of conducting its comprehensive Nuclear Posture Review as directed by 
the President in his 27 January 2017 memorandum on Rebuilding the U.S. 
Armed Forces. I am confident the review will yield a posture 
recommendation that ensures our nuclear deterrent addresses the Russian 
nuclear situation, and other 21st Century threats while maintaining our 
support to friends and allies.

    12. Senator Inhofe. General Scaparrotti, what is the military 
advantage provided to Russia by the deployment of these missiles?
    General Scaparrotti. Russia is developing intermediate-range 
missiles systems, such as the SSC-X-8 ground-launched cruise missile 
and the SS-X-28 ballistic missile, to strike critical infrastructure 
throughout Europe and Asia from behind Russia's air defense umbrella. 
These systems allow Russia to conduct strategic strikes at the same 
time reducing the vulnerability to counterattack.

    13. Senator Inhofe. General Scaparrotti, given the threats posed by 
Russian nuclear cruise missiles and other short-range nuclear systems, 
do you believe U.S. and NATO nuclear forces are adequate to counter 
Russian nuclear threats and strategy while assuring allies?
    General Scaparrotti. Yes, the U.S. and NATO nuclear deterrent 
posture is credible against the Russian threat. The U.S. strategic 
nuclear forces are the supreme guarantee of the security of the 
Alliance and ensure our ability to respond to Russian nuclear 
developments. In Europe, the combination of modern dual-capable 
aircraft, reliable forward-deployed B61 nuclear weapons, and NATO 
supporting infrastructure assures our allies of continued U.S. support 
for nuclear deterrence in Europe.
                 anti-access, area denial capabilities
    14. Senator Inhofe. General Scaparrotti, Russia is developing Anti-
Access and Area Denial, or `A2-AD', capacity in Kaliningrad, Crimea, 
and the Eastern Mediterranean Sea. General Scaparrotti, what is your 
assessment of Russian military modernization efforts and what worries 
you most?
    General Scaparrotti. [Deleted.]

    15. Senator Inhofe. General Scaparrotti, in your opinion, what 
should or can NATO do to counter it?
    General Scaparrotti. NATO will require adding new capabilities and 
increase readiness levels to counter the advancing A2/AD defense 
networks. NATO requires a holistic approach which must be implemented 
in peacetime, crisis and conflict. In my 2016 final assessment on 
implications of Russia's evolving A2/AD, I underlined three key 
requirements:
    1)  NATO has to relook at its peacetime activities and force 
presence.
    2)  In crisis, NATO will have to develop military measures to 
sustain a strategic coupling bridge to threatened nations.
    3)  In conflict, NATO will have to possess the right capabilities 
and quantities, also the required readiness to weaken or neutralize 
opposing A2AD. After the 2014 Wales Summit, NATO started to improve its 
strategic and operational plans. NATOs five Graduated Response Plans 
are tailored to specific threats, in which A2AD is addressed. The NAC 
has also tasked the NATO Military Authorities (SHAPE and ACT) to 
conduct an in-house simulation study. This will provide a deeper 
assessment of any potential additional measures, including forces, 
capabilities and readiness levels, required to counter A2/AD in 
conflict.
                               __________
               Questions Submitted by Senator Deb Fischer
               response to russia's inf treaty violation:
    16. Senator Fischer. General Scaparrotti, with respect to 
responding to Russia's recent deployment of a ground-launched cruise 
missile in violation the INF Treaty, Secretary Carter previously 
described three sets of options: counter-force capabilities, 
countervailing capabilities, and active defense. Which of these options 
do you think would be the most effective response in dealing with 
Russia's recent missile deployment?
    General Scaparrotti. [Deleted.]
                               __________
              Questions Submitted by Senator David Perdue
                         nato defense spending
    17. Senator Perdue. General Scaparrotti, there has been a lot of 
attention placed on the 2 percent of GDP spending targets for NATO 
allies. How many of our NATO allies are currently meeting the 2 percent 
target?
    General Scaparrotti. Besides the United States, the United Kingdom, 
Greece, Estonia, and Poland are the other allies that currently meet 
the 2 percent spending targets. Romania is on track to meet 2 percent 
by the end of 2017, and we anticipate Lithuania and Latvia will meet 
the guideline by the end of 2018.

    18. Senator Perdue. General Scaparrotti, do you believe that the 2 
percent spending target is the right way to measure adequate defense 
spending in NATO? If not, what should the benchmark be?
    General Scaparrotti. It is essential that allies display the 
political will to provide required capabilities and deploy forces when 
they are needed. Allies also need to ensure forces are deployable, 
sustainable, and interoperable. The Defense Investment Pledge 
(guideline to spend a minimum of 2 percent of their GDP on defense and 
20 percent of their defense budgets on major equipment, including 
related R&D) agreed at the Wales Summit was an important step in this 
direction and today NATO reaffirms its importance. Derived in 2006, the 
2 percent and 20 percent guidelines were based on ``an average Ally'' . 
. . not those that have underinvested in defense for some time. Many 
allies have numerous capabilities which need replacement that requires 
prioritization and increased investment. Some allies that have endured 
years of military cuts and downsizing would likely have a challenge 
managing a large influx of funds as they no longer have sufficient 
expertise and numbers of staff in requirements, procurement, contract, 
quality assurance and acquisition management. Deployability and 
sustainability of Allied forces is also important. Allies continue to 
make important contributions to NATO operations, missions, and 
activities, as well as the NATO Command and Force Structures. Allies 
invest considerable resources in preparing their forces, capabilities, 
and infrastructure for Alliance operations, missions and activities 
that contribute to our collective security.

    19. Senator Perdue. General Scaparrotti, is there a story we're not 
getting when we see an ally is or is not meeting the 2 percent target 
or not?
    General Scaparrotti. Every nation spends to meet their individual 
National Defense plans and to meet their national security objectives. 
These are independent of NATOs spending target of 2 percent. 
Additionally, many nations measure defense spending differently, such 
as taking into account personnel costs operational costs, and costs 
associated with developing and retaining capabilities. Allies also 
measure the adequacy of their spending differently. Some view this in 
terms of capabilities or output, particularly deployability to support 
operations, missions, and activities to meet their own national 
commitments, within NATO, and in other international organizations such 
as the EU and UN.
                        relationship with turkey
    20. Senator Perdue. General Scaparrotti, during the attempted coup 
d'etat in Turkey last summer, the Turkish government cut off power to 
Incirlik Air Base leaving it without a commercial power supply for more 
than four days. Since the coup attempt, the Turkish government and 
state-controlled media have fueled anti-American sentiment and blamed 
the United States for a myriad of issues. At the same time, Turkey's 
relations with Russia have warmed considerably. Given these troubling 
trends, do you believe it would be prudent to assess alternative basing 
options for the Incirlik Air Base?
    General Scaparrotti. For the purposes of flexibility, we have 
assessed alternative basing options, not only for Incirlik Air Base but 
throughout the EUCOM AOR. Other combatant commands are doing this sort 
of contingency planning as well. While EUCOM is prepared to shift our 
assets from Incirlik if required, we are working closely with Turkish 
military and political leadership to ensure a long, continued basing 
and access relationship with our Turkish Ally.
                      communication with russians
    21. Senator Perdue. General Scaparrotti, Chairman of the Joint 
Chiefs of Staff General Dunford met with his Russian counterpart twice 
this year--the first such meetings since the two militaries cut off 
communications in the wake of Russia's annexation of Crimea in 2014. 
Could you describe to me the status of mil-mil relations and 
communications since 2014?
    General Scaparrotti. Military-to-military activities and 
communications with the Russians is limited by current United States 
law and policy. Section 1233 of the 2017 NDAA prohibits mil-to-mil 
engagement unless Russia ceases occupation of Ukrainian territory and 
abides by the terms and is taking steps to support the Minsk Protocols. 
Exceptions to the NDAA are authorized for items deemed in the U.S. 
national interest, but require a waiver from the Secretary of Defense 
and submission of a report to the appropriate congressional committees. 
We continue to follow Department guidance and coordinate with other 
combatant commands as required to support communications requirements 
in the Middle East, which includes de-confliction procedures for United 
States Forces operating in Syria.

    22. Senator Perdue. General Scaparrotti, do we know who to call 
should we need to de-escalate a situation?
    General Scaparrotti. Yes, we have the ability to communicate with 
Russian military officials based on previous agreements and 
communications systems that we have continued to maintain.

    23. Senator Perdue. General Scaparrotti, are you aware of 
communications occurring among your State Department counterparts?
    General Scaparrotti. The RAND sponsored wargame, Reinforcing 
Deterrence on NATO's Eastern Flank, conducted in September 2016, was a 
unclassified wargame. As such, it was a good overview of the possible 
conflict, but is not fully accurate as it did not include a number of 
classified items that have been used in refining EUCOM's OPLAN such as 
the base planning facts and assumptions. The military OPLAN 
classification prevents us from sharing the full details with RAND and 
others. ERI had also not been fully developed when the study was 
completed. Adding these deterrence forces would have certainly had an 
impact on the outcome. Wargaming is an effective tool to test 
assumptions, synchronize activities and identify gaps in plans and 
operations. While valuable insight was collected from this wargame, it 
must be noted that the outcome represents only one outcome based upon 
one set of variables and conditions.
      rand study on reinforcing deterrence on nato's eastern flank
    24. Senator Perdue. General Scaparrotti, the RAND Corporation 
recently conducted a study entitled Reinforcing Deterrence on NATO's 
Eastern Flank: Wargaming the Defense of the Baltics (September 2016). 
This study explored the hypothetical consequences that could occur if 
Russia decided to reclaim the territory of the three Baltic republics. 
Using a war-game model, the study determined that, as presently 
postured, NATO cannot successfully defend the territory of the Baltic 
states. It also concluded that successful defense of the Baltics would 
require a force of about seven brigades, including three heavy armored 
brigades supported by airpower, land-based fires, and other ground 
combat enablers, to prevent the ``rapid overrun'' of the Baltic states. 
These conclusions are extremely troubling. In your view, were there 
things this study didn't take into account? Do you feel that this war-
game framework presents a full and accurate picture of true military 
capabilities and outcomes?
    General Scaparrotti. The UK will remain a staunch United States 
ally and leading European military power. We expect the UK will 
strengthen their resolve within NATO as the country exits the European 
Union. The UK will also strengthen bilateral agreements, including with 
the United States, Germany and France. In the short-term, we don't 
anticipate defense investment will be affected by Brexit, however, if 
the pound does not recover, the UK will likely need to relook their 
defense spending plans.
                  impact of brexit on european defense
    25. Senator Perdue. General Scaparrotti, the United Kingdom serves 
as our storngest transatlantic ally and is the leading souce of NATO 
hard power in Europe. With the UK's exit from the European Union, many 
questions remain regarding whether the UK will still be willing (and/or 
able) to provide the same level of military and defensive capabilities 
to NATO in mainland Europe. In your view, what might be the short and 
longterm impacts of Brexit on European defense?
    General Scaparrotti. The UK will remain a staunch United States 
ally and leading European military power. We expect the UK will 
strengthen their resolve within NATO as the country exits the European 
Union. The UK will also strengthen bilateral agreements, including with 
the United States, Germany and France. In the short-term, we don't 
anticipate defense investment will be affected by Brexit, however, if 
the pound does not recover, the UK will likely need to relook their 
defense spending plans.

    26. Senator Perdue. General Scaparrotti, what impact might Brexit 
have on intelligence sharing and development of shared competencies and 
effectiveness across the continent?
    General Scaparrotti. We don't expect the UK's intelligence 
capability will diminish post Brexit. They will remain an effective and 
capable partner to the U.S., NATO and bilaterally across the continent.

    27. Senator Perdue. General Scaparrotti, should Britain be forced 
to scale down its support of NATO in Europe, do you believe Germany 
and/or France would be willing and able to fill the void of security 
and defense?
    General Scaparrotti. We don't expect the UK will scale down its 
support of NATO, rather, we think that the UK will strengthen their 
resolve within NATO as the country exits the European Union. The UK's 
requirements for continued collective defense and intelligence 
capability will not diminish post-Brexit, and NATO will remain the 
primary vehicle for the UK to address those requirements. In the 
unlikely event that the UK were to scale down NATO support, I believe 
that France and Germany will provide strong support to NATO well into 
the future. In reality, as allies increase capabilities with progress 
toward the Alliance's Wales goals to increase defense spending, this 
will result in increased capabilities available to NATO--including from 
Germany and France.
   counterterrorism (need to focus nato efforts more here to support 
                                europe)
    28. Senator Perdue. General Scaparrotti, counterterrorism is a main 
topic at every NATO gathering. According to NATO's website, NATO 
counterterrorism efforts focus on ``improving awareness of the threat, 
developing capabilities to prepare and respond, and enhancing 
engagement with partner countries and other international actors.'' 
However, as we have seen over the last several years with the rise of 
the number of terrorist attacks--including coordinated attacks--across 
Europe, European countries still struggle with coordination of 
counterterrorism efforts and intelligence sharing. Do you feel that the 
United States should encourage NATO to place more of a focus on 
counterterrorism efforts? If so, how can the U.S. better assist our 
NATO allies in this regard?
    General Scaparrotti. Yes, although the U.S. is encouraging NATO to 
do more to combat terrorism, there is more to be done. NATO's role in 
counterterrorism in European countries is limited due to the fact that 
sovereign nations retain the primary responsibility for their own 
domestic security. In short, NATO's mandate is external defense, not 
internal security. At the same time, NATO has an active role in the 
international community's fight against terrorism outside Europe by 
projecting stability along its periphery. This includes NATOs continued 
support of the Defeat ISIS Coalition, training and capacity building in 
Iraq, and operations in Afghanistan. The U.S. is actively challenging 
allies to further identify ways to increase NATO's support to global 
counter terrorism efforts. As the threat has increased in Europe, the 
U.S. is taking steps to increase assistance through intelligence 
sharing and encouraging allies to reciprocate through participation in 
emerging counter-terrorism structures within NATO. Two examples are the 
establishment of a terrorism intelligence cell within the Joint 
Intelligence and Security Directorate at SHAPE in Belgium, and the 
Regional Hub for the South being stood up at Allied Joint Force Command 
in Naples, Italy. These efforts require additional resources from all 
allies and NATO itself.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 4, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                UNITED STATES STRATEGIC COMMAND PROGRAMS

    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Strange, Reed, Nelson, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Senate Armed Services Committee meets today to receive 
testimony on the posture of U.S. Strategic Command.
    We would like to welcome back General Hyten, who is making 
his first appearance before this committee as the Commander of 
U.S. Strategic Command. We thank you for your many years of 
distinguished service, General.
    Over the last 2 years, civilian and military leaders at the 
Department of Defense, from the Secretary of Defense on down, 
have warned this committee about, quote, a return to great-
power competition. Nowhere is this reality more evident than in 
Russia's and China's intensifying efforts in the nuclear, 
cyber, and space domains, which are the focus of Strategic 
Command's mission.
    Russia continues to wield nuclear threats against allies 
that stand up to its aggression in Ukraine. It is well on its 
way toward completing the modernization of its strategic 
nuclear forces and has gone out of its way to deploy new 
nuclear capabilities not limited by the New START [Strategic 
Arms Reduction Treaty].
    Russia's deployment of a new nuclear ground-launched cruise 
missile in violation of the 1987 INF [Intermediate-Range 
Nuclear Forces] Treaty is a clear signal of the elevated role 
of tactical nuclear weapons in Russian military doctrine. 
Moreover, this violation leaves the United States as the only 
country in the world abiding by treaty limits on its 
intermediate-range missile forces, a dangerous asymmetry that 
has implications for effective deterrence not only in Europe, 
but the Asia-Pacific as well. Merely hoping that Russia will 
return to treaty compliance is insufficient to the seriousness 
of this threat. That is why Russia's violation of the INF 
treaty is so significant because it calls into question basic 
assumptions about United States nuclear policy, assumptions we 
must be prepared to reevaluate given the new realities of our 
strategic environment.
    China has one of the world's largest and most comprehensive 
missile forces, continues to modernize its nuclear capabilities 
by adding more road-mobile systems and submarine-carried 
nuclear weapons, and continues to pursue counter-space 
capabilities designed to limit our use of space.
    Beyond Russia and China, the breakneck pace of North Korean 
ballistic missile and nuclear testing in the past few years 
means that a North Korean missile tipped with a nuclear warhead 
capable of reaching our Homeland is no longer a distant 
hypothetical but an imminent danger. Iran's continued 
development and testing of advanced ballistic missiles suggests 
that its nuclear ambitions may have been delayed, but they have 
not been dashed.
    These growing nuclear threats from great powers and rogue 
states indicate that whatever well-intentioned hopes we had 
after the end of the Cold War, the United States can no longer 
seek to reduce the role of nuclear weapons in our national 
security strategy, or narrow the range of contingencies under 
which we would have to consider their use.
    That is why Congress has demonstrated its support for 
modernizing each leg of the nuclear triad, including a 
replacement for the air-launched cruise missile, through annual 
authorization and appropriations acts. Modernization is not 
cheap, but it is affordable: just 2 percent of the defense 
budget over the next 10 years, according to the CBO 
[Congressional Budget Office].
    General Hyten, you told the committee last year that any 
program delays or reductions in funding will increase the risk 
to strategic and extended deterrence mission requirements, 
negatively impacting global stability and our national 
security. We look forward to your assessment as to whether 
there may be any such delays.
    Finally, we understand that the Department of Defense will 
conduct a nuclear posture review, the first since 2010. That 
previous nuclear posture review stated: ``Russia and the United 
States are no longer adversaries, and prospects for military 
confrontation have declined dramatically.'' What a relief. 
General Hyten, the committee is interested in your assessment 
of how the strategic landscape has changed since the last 
review and what assumptions need to be reexamined.
    With respect to space, after years of prodding from this 
committee, I am pleased and, in some respects, impressed with 
Strategic Command's enhanced focus on responding to Chinese and 
Russian activities in space. We have come a long way in the 
past few years. But the fundamental fact remains: our space 
superiority is at risk. Russia and China are intent on 
exploiting our dependence on space to achieve an asymmetric 
advantage. To that end, both countries are investing 
significant resources and achieving real progress as they 
pursue, test, and demonstrate a full range of capabilities such 
as anti-satellite missiles, co-orbital weapons, jamming, and 
cyber.
    General Hyten, you were the architect of the Space 
Enterprise Vision when you were Commander of Air Force Space 
Command. I look forward to hearing more from you on what is 
required to sustain our space-based military advantage.
    Senator Reed?

                       SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming General Hyten to the committee. We are 
grateful for your service and for the dedication of the many 
men and women who serve with you.
    General, in a speech you gave earlier this year at 
Stanford's Center for International Security and Cooperation, 
you talked about the enormous responsibility you have assumed 
in ensuring our nuclear deterrent is capable of deterring 
threats that are existential to our Homeland. It is a sobering 
responsibility to be the one who will give advice to the 
President on the options before him and then be the one who 
must direct the execution of those options, and we appreciate 
the skill and the fidelity you bring to that task. Thank you, 
sir.
    The President has directed the Department to conduct a 
nuclear posture review to outline our strategy and posture. I 
look forward to considering that review when it is completed. 
As the chairman noted, the last one was done in 2010 and the 
threat environment today is considerably different. The most 
significant developments are Russia's nuclear modernization and 
its bellicose threats about its nuclear capability and the 
significant advancements made by North Korea in its nuclear 
missile programs.
    But there are other troubling advances. China is fielding 
its own SSBN [ballistic missile submarine] that will patrol the 
Pacific, which will hold most, if not all, of our Homeland at 
risk. In addition, Pakistan and India continue to develop their 
nuclear capabilities with tactical and long-range missiles, 
which in some cases reach well beyond their borders, affecting 
nations to which we have made security commitments.
    In other words, General Hyten, while Russia with its near-
peer nuclear standing is and should be the focus of the next 
nuclear posture review, the landscape is quickly shifting. It 
has become multi-polar, and how we structure our deterrence and 
the military options are changing rapidly.
    Finally, we are now coming to grips with our own nuclear 
modernization. Because of the existential threat it deters, 
there has been bipartisan support for modernization of the 
nuclear triad in this committee. I am hopeful that this 
consensus continues because this is a 20-year acquisition 
program extending well beyond this and future administrations.
    Let me touch on a few other topics.
    In the area of space, we will value your expertise to 
develop long-term requirements and plans to counter the 
asymmetric threats to our space assets. I assume that will be 
discussed further in tomorrow's closed session.
    In the area of missile defense, you are responsible for 
synchronizing global missile defense planning and operations. I 
look forward to hearing your thoughts on the state of our 
Homeland and regional systems. The administration has called 
for a missile defense review, which also needs to address the 
topics contained in a provision of the fiscal year 2017 Defense 
Authorization Act, which include left-of-launch missile defeat 
capabilities, cruise missile defense of the Homeland, and the 
role of deterrence in missile defeat policy. We look forward to 
hearing your thoughts on this review and the ongoing 
improvements to our interceptors, sensors, and command and 
control system.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Chairman McCain. Welcome back, General Hyten.

   STATEMENT OF GENERAL JOHN E. HYTEN, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Hyten. Thank you very much.
    Chairman McCain. By the way, your complete statement will 
be made part of the record.
    General Hyten. Thank you, Mr. Chairman.
    Good morning, Chairman McCain and Ranking Member Reed, 
members of the committee.
    Since the end of World War II, strategic deterrence has 
underwritten our Nation's security and preserved our way of 
life. Our nuclear force has been and always will be the 
backbone of our Nation's strategic deterrence.
    Today the nuclear force of the United States is safe, 
secure, reliable, and ready. It is the foundation of the 
combatant command I am honored to lead.
    However, in the 21st Century, strategic deterrence is more 
than nuclear. It is the integration of all our capabilities in 
all domains across all the combatant commands, other 
governmental organizations, and alongside our allies.
    The global security environment we operate in has changed. 
Our adversaries are developing advanced nuclear and 
conventional weaponry that rivals our systems and capability 
and capacity. They fully understand the warfighting capability 
that cyber and space can enable. To maintain technological and 
operational superiority, our military must stay ahead of our 
adversaries. We must adapt and modernize.
    The primary focus of our deterrence modernization efforts 
must address the entire nuclear infrastructure: first, the 
platforms, the ICBMs [Intercontinental Ballistic Missiles], the 
submarines, nuclear capable heavy bombers with their associated 
tankers. Second, the actual nuclear weapons themselves; and 
finally, the nuclear command and control architecture that 
enables the entire enterprise. They are all essential to this 
security of our Nation.
    At a time when our adversaries have significantly 
modernized and continued to upgrade their nuclear forces, 
nearly all elements of the nuclear triad are operating beyond 
their designed service life. Any recapitalization program 
delays will further diminish these capabilities and affect our 
ability to execute our mission.
    Space is a warfighting domain just like air, ground, 
maritime, and cyber. We must normalize how we plan and operate 
in space. The same concepts that govern other military 
operations also apply in space. Efforts taking place with the 
interagency, allies, partners, and commercial industry to 
develop capabilities, integrate, and execute operations is 
beginning to pay dividends. Our integrated missile defense 
network continues to disseminate across the globe as a sign of 
our commitment to our allies and shared common defense.
    Ballistic missile proliferation is increasing as more 
countries acquire greater numbers of ballistic missiles while 
simultaneously advancing technical sophistication to defeat 
U.S. defense systems. In response, we must continue to advance 
our missile defense capabilities and forces to assure allies 
and deter adversary aggression.
    We are managing the unified command plan elevation of U.S. 
Cyber Command, which I fully support and engage with on a daily 
basis. Meantime, we also remain engaged with the Joint Staff 
and with United States Special Operations Command as they 
assume primary responsibilities to previous STRATCOM [Strategic 
Command] missions of joint intelligence, surveillance, and 
reconnaissance and combating weapons of mass destruction.
    U.S. Strategic Command is a global warfighting command. All 
of our deterrent forces remain safe, secure, reliable, and 
ready. The morale of the force is also very high. They 
understand again the critical importance of our missions. 
Nevertheless, the U.S. faces significant challenges in 
sustaining the critical capabilities that underpin our 
strategic deterrent. Our Nation's strategic capabilities must 
be a core focus of our national security spending, and I am 
sure that sustained congressional support, support from this 
committee, combined with the hard work of the exceptional men 
and women who support U.S. Strategic Command will ensure we 
remain ready, agile, and effective against both current and 
future threats.
    I look forward to engaging with you today and throughout my 
time as the U.S. STRATCOM Commander. Thank you for this 
opportunity, and I look forward to your questions.
    [The prepared statement of General Hyten follows:]

                  Prepared Statement by John E. Hyten
                              introduction
    Strategic deterrence has underwritten our nation's security and 
preserved our way of life since the end of World War II. The early 
deterrence theorists in the 1950s and 1960s were able to make their 
ideas practical during a time of turbulence, rapid technological 
change, and a contest of two starkly different ideologies that divided 
the world in half. During this critical time, our theorists--hand in 
hand with our practitioners--helped carry the Cold War to a successful 
conclusion.
    Today, strategic deterrence is still foundational, but it is also 
different. Its core principles are the same. Our nuclear capabilities 
are the foundation and the bedrock for our defense.
    USSTRATCOM is a global warfighting command. All our forces, in all 
domains, stand ready today. Our nuclear forces are safe, secure, 
reliable, and ready--capable of responding wherever necessary and 
whenever our nation calls. These forces compel all potential 
adversaries to realize that any benefits they see in an attack on our 
nation, or our allies, will be far outweighed by the cost. Our nuclear 
triad provides military capabilities that give our leadership the 
flexibility and decision space to respond to any strategic attack. We 
also have space and cyberspace forces that are critical to the American 
way of war in every theater. We must employ them decisively, to include 
defending the space and cyber domains from threats.
    USSTRATCOM accomplishes seven assigned Unified Command Plan (UCP) 
missions; Strategic Deterrence, Space Operations, Cyberspace 
Operations, Joint Electromagnetic Spectrum Operations, Global Strike, 
Missile Defense, and Analysis and Targeting. Our vision is to improve 
our ability to effectively integrate these disparate missions to create 
an even more effective deterrent. We are working to identify gaps, and 
work with the services to program and organize for success. With this 
in mind, USSTRATCOM will continue to change to respond to this dynamic 
world. We are transitioning to a new Command and Control Facility and 
will continue to advocate for essential modernization programs. 
Simultaneously, we are ``in the fight'' every day, everywhere--which 
requires a constant focus on today with an eye toward tomorrow.
    Our ability to deter major power conflict also depends on our 
ability to deter in all domains--particularly space and cyber. We must 
think about any future national security construct from a multi-domain 
perspective and this involves strategic deterrence. Since 1992, 
USSTRATCOM has been the primary combatant command responsible for 
providing strategic deterrence for the United States. The ways and 
means have evolved, but the end state has endured. Peace is still our 
profession.
                      global security environment
    Russia warrants constant attention. Its security strategy makes 
clear that it is re-asserting itself as a global power. It is 
modernizing its conventional and strategic military programs, 
emphasizing new strategic approaches, declaring and demonstrating an 
ability to escalate, maintaining a significant quantity and variety of 
nuclear weapons, and according to Russian media reports, is developing 
hypersonic glide vehicles. Furthermore, Russia has engaged in 
destabilizing actions in Syria and Ukraine, while also developing and 
deploying weapons that violate the Intermediate-range Nuclear Forces 
(INF) Treaty. Russia is also advancing development of counter-space and 
cyber capabilities.
    China is pursuing a long-term military modernization program across 
a range of conventional and strategic domains with implications in the 
Pacific region and beyond. Simultaneously, it is modernizing nuclear 
missile forces, and building out a secure, second-strike capability. 
Although China still professes a ``No First-Use'' doctrine, it is re-
engineering its long-range ballistic missiles to carry multiple nuclear 
warheads. It also continues to develop and test its hypersonic-glide 
vehicle capability. China's pursuit of conventional global strike 
capabilities, offensive counter-space technologies, and exploitation of 
computer networks also raises questions about its global aspirations. 
These developments--coupled with a lack of transparency on nuclear 
issues such as force disposition and size--impact regional and 
strategic stability.
    Although North Korea is not an existential threat to the United 
States, it remains the most dangerous and unpredictable actor in the 
Pacific region. Pyongyang's evolving ballistic missile and nuclear 
weapons program underscore the growing threat. It continues to defy 
international norms and resolutions, as demonstrated by a number of 
provocative actions this past year, including their fourth and fifth 
nuclear tests. North Korea is also pursuing development of 
Intercontinental Ballistic Missile (ICBM) and Submarine Launched 
Ballistic Missiles capabilities, and an improved Intermediate Range 
Ballistic Missile. These developments highlight its commitment to 
diversify its missile forces and nuclear delivery options, while 
strengthening missile force survivability. North Korea also continues 
efforts to expand its stockpile of weapons-grade fissile material and 
has demonstrated its capability and willingness to conduct destructive 
cyber-attacks against the United States and its allies.
    Iran continues to develop ballistic missile, space, and cyberspace 
capabilities--and we remain focused on preventing the development of 
new threats in the region. While Iran continues to follow the mandates 
of the Joint Comprehensive Plan of Action, we must remain vigilant to 
any Iranian intentions that indicate it will pursue nuclear weapons.
    Ungoverned or ineffectively governed regions remain incubators for 
those who seek to attack the world's peaceful societies. Transregional 
Terrorist Organizations (TTOs) recruit and operate freely across 
political, social, and cyberspace boundaries. The effect of weapons of 
mass destruction (WMD) in the hands of TTOs could be catastrophic, 
which highlights the importance of our national non-proliferation and 
counter-WMD efforts. The counter-WMD mission is now led by U.S. Special 
Operations Command (USSOCOM) but USSTRATCOM is committed to maintaining 
a close partnership. It is another essential element of deterrence.
                              the problem
    For decades now, we have held a military advantage over our 
adversaries, both from a nuclear and conventional standpoint. That is 
starting to change. As our nation rightly focused on combating violent 
extremist organizations and the states that support them, other 
adversaries have taken the opportunity to develop advanced nuclear and 
conventional weaponry that rival many of our systems. That is not all: 
our adversaries are learning from each other and demonstrating advanced 
understanding of the cyber and space domains.
    One of our biggest challenges in the future will be staying ahead 
of the pace of change we see in our adversaries. We have a problem 
delivering timely responses to new threats. We don't move fast enough 
from concept to capability. The pace of change is rapid and demands us 
to change ahead of the evolving threats, but our processes favor 
preserving the status quo. We are risk averse, while our adversaries 
have not. Our industrial base is also fragile in many areas, which 
complicates our ability to stay ahead of, or in some regards stay even 
with, our adversaries.
                               priorities
    I have three fundamental priorities in my command.
    Above all else, USSTRATCOM will provide strategic deterrence 
against any potential adversary. Our operations must be ceaseless, 
deliberate, and enabled by a focus on today's operations and a 
commitment to modernize our triad, our weapons, our command and 
control, our space, cyberspace, and missile defense capabilities. Our 
deterrence efforts must include proactively shaping and messaging any 
potential adversary.
    If deterrence fails, the nation counts on us for a decisive 
response. These responses must defeat any adversary with all the 
elements of our command's power, in all domains. We must work with all 
our components and task forces to achieve this outcome. However, mere 
execution will not suffice in the current strategic environment.
    Neither strategic deterrence nor decisive response will function 
without a resilient, equipped, trained, and combat-ready force. To that 
end, we must embrace the mentality that USSTRATCOM is a warfighting 
command. Our fight is each day, around the globe. This requires our 
forces to have depth in capability and breadth in capacity--we cannot 
do it alone. We must constantly challenge ourselves to integrate with 
allies, partners, the interagency, DOD, the Joint Staff, and other 
commands to cover our seams and gaps, and to ensure we capitalize on 
the unique capabilities that USSTRATCOM can bring to bear.
                           the nuclear force
    All elements of our nuclear forces will be assessed in the 
Administration's coming Nuclear Posture Review--but we have an 
excellent basis to begin this analysis.
    With regard to our nuclear weapons, I serve as a principal member 
of the Nuclear Weapons Council (NWC): the interagency organization 
responsible for maintaining and managing the Nation's nuclear weapons 
stockpile. To ensure synchronization and unity of effort across the 
Department of Defense and the Department of Energy's National Nuclear 
Security Administration (NNSA) priorities, the NWC-approved Strategic 
Plan outlines an approach to sustain the enduring stockpile, align 
warhead and platform modernization efforts, and identify the essential 
NNSA industrial capacity required to maintain the Triad. A key element 
of the current strategy is the ``3+2'' vision to transition the 
stockpile of 11 warheads to three ballistic warheads and two air-
delivered warheads. Assuming it remains consistent with the current 
Nuclear Posture Review, full realization of ``3+2'' requires long-term 
sustained commitment to the modernization and recapitalization of 
NNSA's infrastructure, as well as continued development of the human 
capital and science-based stewardship tools needed to certify and 
assess the stockpile.
    Our land-based ICBMs, sea-based Ballistic Missile Submarines 
(SSBNs), and nuclear-capable heavy bombers--with their associated 
tankers--provide strategic deterrence and stability. Considering this, 
our ICBM's are the most responsive, our submarines are the most 
survivable, and our bombers are the most flexible. Each element is 
essential to the security of our nation. The synergistic capabilities 
of the Triad present adversaries with a complex, multi-layered 
challenge that also hedges against unforeseen technical problems or 
changes in the security environment.
    The U.S. faces significant challenges to sustain the capabilities 
that will meet our enduring national security objectives. At a time 
when Russia and other countries continue to modernize and upgrade 
nuclear capabilities, nearly all elements of the U.S. nuclear weapon 
stockpile, delivery systems, and other infrastructure are operating 
beyond their designed service life. Maintaining strategic deterrence, 
assurance, and escalation control capabilities requires a continuing, 
multi-faceted, long-term investment approach.
    The investment in, and commitment to, our Nation's strategic 
capabilities must continue and planned sustainment and modernization 
activities must be completed on schedule. Any recapitalization program 
delay will adversely impact the execution of our strategic deterrence 
mission and degrade our ability--and ultimately our credibility--to 
deter and assure. Sustained Congressional support, stable and timely 
budgets, combined with the hard work of the exceptional men and women 
who support United States Strategic Command, will ensure that we 
continue to effectively deter strategic attack, assure our allies and 
partners, and address both current and future threats.
           nuclear command, control, and communications (nc3)
    Our nation's nuclear deterrent is only as effective as the command 
and control networks that enable it to function. Therefore, the NC3 
system must also be assured, reliable, and resilient across the full 
spectrum of conflict. Maintaining a credible nuclear deterrent requires 
modernization and recapitalization of key systems and capabilities 
throughout the NC3 architecture. The challenges posed by today's 
security environment make it increasingly important to optimize our NC3 
systems architecture while leveraging new technologies. Through 
continued funding for NC3 modernization programs, we will ensure 
effective command and control of the Nation's forces for many years to 
come.
    USSTRATCOM requires a NC3 capability comprised of interdependent 
systems, facilities, and platforms operating throughout the space, air, 
and terrestrial domains to both effectively execute strategic 
deterrence operations and provide support for the President as an 
essential component of the National Leadership Command Capability. As 
an example of this, USSTRATCOM is working with the White House, 
national laboratories, and the private sector to improve decision 
support capabilities, setting the conditions for timely and informed 
senior leader decision-making under any circumstance, in transit or at 
fixed locations.
    In the space domain, we are transitioning from the Milstar 
satellite communications system to the Advanced Extremely High 
Frequency (AEHF) satellite communications systems. AEHF, coupled with 
the requisite ground node and airborne platform Family of Advanced 
Beyond Line-of-Sight terminals (FAB-T) will extend capabilities to 
enable collaboration between the President and senior advisors under 
any circumstance to improve connectivity with our nuclear forces.
    Within the air layer, we are continuing efforts to replace the 
communications systems on the E-6B Airborne Command Post (ABNCP) and 
Take Charge and Move Out (TACAMO) aircraft as well as the E-4B National 
Airborne Operations Center (NAOC) to provide world-wide connectivity to 
the nuclear forces. In conjunction with communications update efforts 
such as the Low Frequency Transmit System (LFTS), the Air Force is 
pursuing a course of action to recapitalize the E-4B platform, which is 
approaching its end of service life. The selected platform must be 
capable of meeting all mission requirements assigned to the E-4B NAOC. 
Additionally, the Air Force continues efforts to field a very low 
frequency (VLF) and AEHF capability for the B-2 bomber fleet that will 
ensure beyond line-of sight connectivity throughout the spectrum of 
conflict.
    Within the terrestrial domain, the Air Force completed high 
altitude electromagnetic pulse hardening upgrades to its early warning 
radar sites and continues to modernize its Nuclear Planning and 
Execution Systems (NPES). The construction of the new USSTRATCOM 
Command and Control (C2) Facility, which will be a key component of 
nuclear and national C2 architecture. Although we still have some 
funding challenges and schedule risks, we remain on track for occupancy 
in 2018. This new facility will serve as a visible reminder to 
adversaries of our national commitment to maintain modern and effective 
NC3 capabilities.
                                 icbms
    With smart and consistent sustainment, modernization, and 
recapitalization, the ICBM force will continue to provide a responsive, 
reliable, safe, secure, and effective deterrent force for many decades. 
However, the Minuteman weapon system is far beyond its intended 
lifespan. Launch Facilities and Launch Control Centers require 
investment in repair and modernization. Additionally, vehicles and 
equipment used to support the Minuteman weapon system require an 
immediate, long-term investment. USSTRATCOM supports ongoing 
sustainment and modernization investments in the current Minuteman 
weapon system.
    Minuteman recapitalization is necessary to address the issues 
associated with operating a weapon system beyond its planned design 
life, and we must continue that sustainment until the deployment of the 
Ground Based Strategic Deterrent (GBSD), which will begin initial 
deployment in 2028.
    The GBSD program successfully completed Milestone-A last year and 
is progressing toward an integrated weapon system solution, including 
the flight system, weapon system C2 ground launch systems, and 
facilities. We continue to encourage cooperation between the Air Force, 
Navy, and industry as they develop the technologies to meet our 
deterrence needs.
    Protecting our force remains a top priority and USSTRATCOM supports 
completing the UH-1N Helicopter Replacement program, Payload 
Transporter Replacement, and the ICBM Cryptographic upgrade. These 
programs should not be difficult and the need is now. Additionally, we 
must update legal guidance, policy frameworks, and Rules of Engagement 
to defend all threats, particularly new threats like unmanned aerial 
systems.
                                 ssbns
    The Ohio-class submarine has been life-extended from 30 to 42 
years. Starting in 2027, one Ohio-class SSBN will retire each year, 
with no margin to extend them further. Continued support for staffing 
and improvements at naval shipyards, Trident Refit Facilities, and 
Strategic Weapons Facilities are critical to maintaining the necessary 
operational availability of the Ohio-class as it approaches end-of-
life. USSTRATCOM continues to support and work with the Navy as it 
modernizes their SSBN force. As the Navy's ``number-one'' priority and 
USSTRATCOM's top modernization item, the design and production of the 
Columbia-class SSBN must continue for on-time delivery to meet its 
first strategic deterrent patrol in 2031. The 12 submarines in the 
class will serve as the survivable leg of the Triad through the 2080s. 
Ensuring that the Columbia-class SSBN remains on schedule and funded 
throughout the next decade is vital to prevent any capability gaps. Any 
delay will assert unacceptable risk on our sea-based nuclear deterrent.
    We fielded the Trident II D5 missile more than 25 years ago. The 
Navy has taken steps to extend the life of the Trident missile through 
the life of the Ohio-class, which enables it to serve as the initial 
baseline ballistic missile for the Columbia-class submarine. We share 
the Trident II system with the United Kingdom, as well as the design 
for the Common Missile Compartment for both countries' ballistic 
missile submarine classes. We must continue our commitment to the 
United Kingdom to ensure our strategic forces are equipped with the 
weapons systems needed to meet operational requirements into the 
future.
                                bombers
    To ensure our bombers provide a credible deterrence and assurance 
capability, ongoing sustainment and planned modernization activities 
must remain on track. I support and appreciate the Air Force's 
continued emphasis to provide an effective and ready force.
    The B-52 will receive a radar system upgrade that will enhance 
weapons delivery, improve weather detection and avoidance, and aid 
aerial refueling operations. Potential advantages include range 
improvements, reduced air refueling demand, longer time-on-station, and 
a reduced maintenance footprint. The B-52's radar is a 1960s analog 
system, updated in the 1980s, and is now more than 20 years beyond its 
service life. Its Current Mean-Time-Between-Failure rate indicates a 
likelihood the radar will delay, degrade, or fail during a 20-hour 
mission.
    The B-52's structural life extends beyond 2050, but the B-52 TF-33 
engine has been in service since 1961 and is facing component wear and 
diminishing manufacturing sources. USSTRATCOM supports Air Force 
studies investigating the benefits of replacing B-52 engines. I support 
an engine upgrade for the B-52, as the result will be increased range, 
longer combat time-on-station, smaller maintenance footprint, and less 
of a tanker bill. The upgrade will ensure that the B-52 remains a 
viable component of the bomber force in the face of advanced threats.
    The B-2 fleet will receive the next generation of assured and 
survivable communication, VLF receivers, and survivability upgrades 
against modern threats to retain the platform's stealth attributes. 
Difficulty maintaining stealth attributes is the primary reason for 
downtime on B-2 aircraft. USSTRATCOM supports Air Force initiatives to 
fund upgrades to B-2 survivability, communications, and 
maintainability--this is critical to mission effectiveness and 
longevity of the nation's only penetrating bomber.
    As potential adversaries develop and deploy increasingly 
sophisticated anti-air defenses, the new B-21 will ensure we maintain 
an effective penetrating bomber capable of striking any target around 
the world. The B-21 is a key component of the Air Force Family of 
Systems portfolio, including ISR, electronic warfare, and long-range 
strike. It will provide the President with capabilities to hold targets 
at risk around the globe regardless of anti-access/area denial 
environments. Coupled with the Long Range Standoff (LRSO) cruise 
missile, the B-21 will deny adversaries safe havens and sanctuary.
    As is the case with other Triad systems, our bombers and their 
associated weapons are well beyond their intended service lives, 
requiring attention to maintain combat readiness. Legacy gravity bombs 
and the Air Launched Cruise Missile (ALCM) meet current military 
requirements, but declining sustainability and survivability challenges 
require replacement systems. The B61-12 gravity bomb and LRSO must 
deliver on schedule to avoid any strategic or extended deterrence 
capability gaps.
    The B61-12 Life Extension and tail-kit adaptor programs are 
currently on schedule to deliver on time and preclude a capability gap, 
as both have progressed satisfactorily in engineering, manufacturing, 
and development. Both programs met fiscal year 2012-2016 milestones. 
The first production unit is planned for March 2020. Testing to date 
has shown the B61-12 accuracy requirement is achievable and the weapon 
will function as designed against required target sets. The B61-12 is a 
key element of the future air-leg of the strategic Triad and is 
required to maintain a continuous gravity nuclear capability by arming 
the B-2, B-21, legacy dual capable aircraft, and the F-35A. It will 
ensure continued support to NATO and our other partners around the 
world.
    The ALCM carries the W80-1 warhead and is launched solely from the 
B-52. Intended for Soviet-era threats, the ALCM's survivability in 
modern air defense environments is deteriorating. Designed in the 1970s 
and fielded in the early 1980s with an expected 10-year service life, 
the ALCM is encountering sustainability and viability issues from age 
related material failures, advancing adversary capabilities and 
diminishing manufacturing sources. Parts and materials designed for a 
10-year service life are now 35 years old, and are obsolete. Three 
Service Life Extension Programs (SLEP) are funded, but cannot keep pace 
with the rate of discovery of deficiencies. Funding for SLEPs and other 
sustainment issues are straining Operation & Maintenance funding. 
Operational and surveillance testing will reduce ALCM quantities below 
operational needs in 2030.
    The LRSO cruise missile will replace the ALCM. It will provide the 
President with a range of deterrent options consistent with nuclear 
policy objectives. It provides an effective counter to adversary 
capabilities and a challenge to their own defenses. The LRSO is the 
first missile system developed in unison with a nuclear warhead for 
many decades. Limiting resources or funding of either component will 
disrupt its entire concept-to-capability timeline. To conclude, the 
LRSO and W80-4 LEP programs must remain in synch and on time to 
preclude a capability gap.
                                 space
    Space is a warfighting domain just like the air, ground, maritime, 
and cyber domains. The DOD with the National Reconnaissance Office and 
Air Force Space Command have embarked on implementing their shared 
Space Enterprise Vision, which supports the National Space Policy and 
focuses on the concepts of operation, crew force, and systems required 
to prevail in a conflict that extends into space. I support this effort 
because we must normalize how we think of space, how we operate in it, 
and how we describe it to each other. It is unique for many reasons, 
but the concepts that govern other military operations: intelligence, 
maneuver, fires, protection, logistics, and C2 apply just the same.
    As of November of 2016, the Joint Interagency Combined Space 
Operations Center (JICSpOC) entered its initial phase of operations. 
The JICSpOC is a center that synergizes the National Reconnaissance 
Office, the National Intel Community and the DOD. It is focused on 
achieving interagency unity of effort while defending against space 
threats. In coordination with our partners and to eliminate confusion, 
we have decided to rename the JICSpOC to better describe its actual 
purpose. As of 1 April 2017, the JICSpOC will be called the National 
Space Defense Center. (NSDC).
    We have a combined space operations initiative with Australia, 
Canada, New Zealand, and the United Kingdom. The MOU, signed in 2013, 
continues in the spirit of cooperation with regular boards that make or 
recommend space policy decisions. A board in November 2016 directed the 
formation of general officer-led working groups for operations and 
exercises, capabilities and architectures, and policy. These working 
groups cross military and policy positions reside in the participant 
countries.
    We have other multi-national space operations initiatives as well. 
Notably, France and Germany were included for the first time in the 
Schriever Wargames in 2016.
    We conducted a Space Situational Awareness Table-Top Exercise in 
September of 2016, with partner nation participation from the UK, 
Canada, Australia, Japan, France and Germany. We are examining the 
prospect of inviting Italy and the Republic of Korea to follow-on 
exercises later this year. These initiatives are part of the multi-
national collaborative environment we are fostering to expand 
international cooperation, strengthen stability in the space domain, 
and increase assurance and resilience.
    While we continue to build partnerships, new satellite 
communication (SATCOM) capabilities face significant funding 
challenges. These fielding issues must be resolved to prepare the U.S. 
to fight effectively in future conflicts. SATCOM capabilities 
associated with the Mobile User Objective System (MUOS) Wideband Code 
Division Multiple Access (WCDMA) are constrained by the availability of 
tactical terminals and issues in bringing the MUOS Radio Access 
Facility gateways into operation. The fielding of new AEHF Extended 
Data Rate (XDR) capabilities is improving over time, but delayed XDR 
terminal programs are hampering the transitions from Milstar to AEHF. 
Protecting wideband communications is essential to fighting effectively 
in the future. We must unify these separate service efforts under an 
interoperable standard to enable joint operations in contested 
environments. I support future operations leveraging the burgeoning 
commercial SATCOM industry.
    Joint force capability development notwithstanding, we have been 
successful in integrating the three-year Cooperative Research and 
Development Agreement (CRADA) initiative at the Joint Space Operations 
Center (JSpOC), with six commercial industry satellite systems and 
services owner operators. These owner operators are DigitalGlobe, 
Eutelsat, Intelsat, Inmarsat, Iridium, and SES-GS; and our objective is 
to improve the ability to deliver operational capability, lower cost, 
and reduce risk.
    These commercial partners are not under contract. The industry 
provides representatives to collaborate directly on the JSpOC floor in 
the areas of space operations and resiliency, decision support, threat 
mitigation, automated tools analysis, exercise participation, space 
catalog, common data standards and protocols. Current law does not 
allow government sponsorship of security clearances, badging and 
accesses unless under contract, and we could use some help in this 
area.
    USSTRATCOM is also actively engaged in DOD support to the Civil 
Space Traffic Management effort directed by the National Security 
Council, and led by the Federal Aviation Administration on behalf of 
the Secretary of Transportation. USSTRATCOM must continue to track all 
objects in space for national security purposes but we can share the 
data with others. We see a potential where the DOD and DOT jointly 
operate a mutually-supportive U.S. space traffic management enterprise 
that will foster more enhanced spaceflight safety for all operators 
including from government, civil, and commercial sectors across the 
globe, but we must be careful to do so in a way that does not adversely 
impact our national security.
                        joint electronic warfare
    Our peer and near-peer adversaries have studied U.S. capabilities 
and our ability to dominate the electro-magnetic spectrum is at risk. 
Many countries have organized for spectrum warfare with specific EW/
spectrum warfare units. They have built electronic attack capabilities 
to counter virtually all of our spectrum dependent systems. Our 
military once had a focus and drive in this area, but we have lost much 
of our expertise. We must recommit our investments in systems, 
personnel, and training.
    The EW Executive Committee (EXCOM) is a step in the right direction 
to address the criticality of gaining and maintaining EMS superiority, 
which affects all domains. The Joint Concept for EMSO (JCEMSO), signed 
by the Chairman of the Joint Chiefs in March 2015 provides an initial 
concept vision for future electromagnetic spectrum operations. With a 
global perspective and UCP Joint EW mission area responsibilities, 
USSTRATCOM is engaged in Joint Electromagnetic Spectrum Operations 
(JEMSO) advocacy across the doctrine, organization, training, materiel, 
leadership and education, personnel, facilities and policy on behalf of 
the Department.
                            missile defense
    Ballistic missile proliferation and lethality continues to increase 
as more countries acquire greater numbers of ballistic missiles and are 
increasing their technical sophistication to specifically defeat U.S. 
ballistic missile defense systems. In the past year, we continue to see 
missile tests from North Korea and Iran that cause us and our allies 
continued concerns. Their efforts to advance missile technologies 
threaten stability. In response, we must continue our efforts to 
advance capabilities and missile defense forces to assure allies of our 
commitment for a common defense and to deter further aggressions from 
these regional and transregional actors.
    As an essential element of the U.S. commitment to strengthen 
strategic and regional deterrence against states of concern, we 
continue to deploy missile defense capabilities and strengthen our 
missile defense postures. During the past year, we have operationally 
deployed the Aegis Ashore Missile Defense Complex in Romania as part of 
the European Phased Adaptive Approach Phase II and added additional 
Ground Based Interceptors (GBIs) as we remain on track to meet the 
objective of 44 GBIs by end of this calendar year. Continued 
investments toward our warfighter missile defense priorities are 
essential. Priority missile defense upgrades and capability 
advancements include:

    <bullet>  Increase of reliability and lethality of our interceptors 
to include the continued development of the Redesigned Kill Vehicles 
(RKV) for the GBI, completion of testing and deployment of the SM-3 
Block IIA capability, and future enhancements to the GBI, most notably 
the Multi-Object Kill Vehicle (MOKV).
    <bullet>  Sensor and discrimination capabilities to include the 
continued development of the Long Range Discrimination Radar (LRDR) and 
increasing the sensor network based on the conclusion of the 
Department's Sensor Analysis of Alternatives. At some point soon our 
nation must commit to deployment of a global space-based sensor system 
with discrimination capability.
    <bullet>  Increase the robustness of regional missile defense 
capability and capacity to include continued deployment of the Aegis 
Ballistic Missile Defense and the Terminal High-Altitude Area Defense 
(THAAD) capabilities and implementation of the recommendations from the 
Department's Joint Regional Integrated Air and Missile Defense 
Capability Mix (JRICM) study.

    We cannot be successful in this endeavor by investing solely in 
active missile defense capabilities--we must strengthen all pillars of 
missile defense including the capability to enable a left-of-launch 
capability in the Missile Defeat enterprise. We are exploring 
efficiencies that can be gained by fusing non-kinetic, cyber, 
electromagnetic, and kinetic capabilities to deny, defend, and defeat 
adversary threats. Furthermore, additional efforts should be invested 
in the Department's ability to find, fix, track, target, engage, and 
assess (F2T2EA) threats and the adoption of corresponding policy and 
organizational constructs.
    We must strengthen our collaboration with our allies and explore 
further integration of our collective capabilities toward an effective 
mutual defense. We are investing in collaboration with our allies 
across multiple venues, including the USSTRATCOM-hosted Nimble Titan 
wargame. This biennial wargame is conducted with our key allies in 
partnership with the Department of State and our Geographic Combatant 
Commands. We continually explore and experiment with potential 
collaboration and integration approaches with our allies to inform 
development of policy, military, and investment options.
    Finally, we depend on flight-testing--it is critical to assessing 
and validating the performance of the operational system in actual 
flight environments. The high cost of flight-testing often limits the 
number of flight test opportunities. The Missile Defense Agency 
endeavors to maximize the opportunity for learning to advance 
capability development through flight test success or failure. The body 
of data collected in flight-testing is robust, and we discover 
unexpected findings in every test. Flight test failures are unplanned, 
but when failures happen--learning occurs. The root cause is 
determined, corrective actions are implemented, and the overall 
capability of the system improves.
                                 cyber
    Cyber is still a critical mission assigned to USSTRATCOM. We 
continue to work closely with U.S. Cyber Command to ensure our nation 
is prepared to respond to any and all challenges within this domain. I 
applaud the direction signed into law in the fiscal year 2017 National 
Defense Authorization Act and remain committed to the elevation of U.S. 
Cyber Command to be a unified command as soon as possible. They will be 
providing a detailed posture statement on cyber in the near future.
                              initiatives
    To ensure U.S. conventional power and deterrence are just as strong 
in the future as they are today, technological and operational 
innovation is crucial. The pace at which potential adversaries are 
improving their capability is a challenge. Holding adversary targets at 
risk will continue to be challenged as advanced offensive and defensive 
systems hinder our ability to effectively maneuver in anti-access/area 
denial environments. One of my top priorities is anticipating change 
and confronting uncertainty with agility and innovation. USSTRATCOM has 
been a participant with Third Offset Strategic Portfolio Reviews that 
ultimately lead up to Investment Decisions. One example of USSTRATCOM's 
contribution is the Global Operations Innovation Initiative (GOII).
    USSTRATCOM continues to be the lead advocate for development and 
deployment of Conventional Prompt Strike (CPS) weapons systems, which 
can influence all forms of conflict and offset adversary advantages. 
While there are many hypersonic activities ongoing within the 
Department, I support CPS as the leading technology maturation effort 
in the realm of hypersonics.
    The challenge of holding adversary targets at risk will continue to 
grow as advanced offensive and defensive systems hinder our ability to 
maneuver in anti-access / area denial (A2AD) environments. CPS weapons 
will provide a responsive, long-range, non-nuclear strike capability 
against distant, defended, time-critical threats. Having a hypersonic 
strike capability enhances our overall deterrent posture by providing 
the President additional options to hold targets at risk that do not 
justify crossing the nuclear threshold.
    I support ongoing Department efforts to mature hypersonic boost-
glide vehicles and non-nuclear warhead technologies through ground and 
flight-testing, as well as modeling and simulation efforts--we foresee 
an operational need for a CPS capability by the mid-2020s. While the 
next CPS flight test, scheduled for the 4th quarter of 2017, will 
demonstrate operationally representative flight components, our 
adversaries are developing similar long-range hypersonic strike 
weapons.
                               conclusion
    USSTRATCOM is a global warfighting command. Today's deterrence 
forces remain safe, secure, reliable, and ready. Nevertheless, the U.S. 
faces significant challenges in sustaining the required capabilities to 
continue to provide strategic deterrence on behalf of our nation. Our 
Nation's strategic capabilities must be a core focus of our national 
security spending. I am sure that sustained Congressional support, 
combined with the hard work of the exceptional men and women who 
support United States Strategic Command, will ensure that we remain 
ready, agile, and effective in deterring strategic attack, assuring our 
allies and partners, and addressing both current and future threats.

    Chairman McCain. General Hyten, as we discussed and has 
been made well known, the Russians are in violation of the INF 
treaty. Is that true?
    General Hyten. Yes, Chairman, that is true.
    Chairman McCain. What does this mean for the threat to the 
United States and our European allies?
    General Hyten. It is a concern that we have to look at 
across the entire spectrum of what Russia has been doing. 
Russia has been modernizing their entire nuclear force. They 
started an aggressive effort in 2006. They continue that to 
this day. This breach of the INF Treaty that caused the 
deployment of a ground-launched cruise missile is a concern to 
us because we have not seen that for quite some time. It is 
another element we are going to have to consider as we look 
forward to how we deal with Russia.
    Chairman McCain. How would we deal with the ground-launched 
cruise missile itself?
    General Hyten. A single ground-launched cruise missile is 
not a significant threat to the United States or our allies. It 
shows the beginning of a deployment of a structure that could 
be a threat in the future.
    Chairman McCain. If it is deployed in a significant number, 
what does that do?
    General Hyten. We have no defense for it, especially in 
defense of our European allies. That system can range and 
threaten most of the continent of Europe, depending on where it 
is deployed. We will talk about that in detail in the closed 
hearing tomorrow, Senator. But it is a concern, and we are 
going to have to figure out how to deal with it as a Nation.
    Chairman McCain. There is certainly a compelling argument 
for Vladimir Putin's disregard for most norms of behavior that 
Russia, post Soviet Union, used to adhere to or even during the 
Soviet Union times.
    General Hyten. I believe that the United States has only 
effectively dealt with Russia over the years from a position of 
strength. I think the only way we can deal with them in the 
future is from a position of strength. I think the work of this 
committee and the work of my command can help that strength be 
established so we are in a good position to have future 
discussions with the Russians.
    Chairman McCain. It seems to me to regain that position of 
strength, we need to give you some help. Is that right?
    General Hyten. Yes, sir. I am asking for help on 
modernizing our entire forces and making sure we have the force 
structure that is needed to make sure we can deter not only 
today but in the future.
    Chairman McCain. What would be your priorities?
    General Hyten. Senator, my priorities are, first, to 
modernize the platform elements of the triad. I think when you 
look across the force----
    Chairman McCain. Which are?
    General Hyten. The platform elements of the triad are, 
first, the submarine, the Ohio-class replacement program, the 
Columbia. That is number one. The next is the GBSD, the ground-
based strategic deterrent, the replacement for our Minuteman 
ICBMs. The third piece is the B-21 bomber, which the long-range 
standoff weapon associated with that. That is the replacement 
to the air-launched cruise missile.
    The second piece of the puzzle is the modernization of the 
nuclear weapons. The nuclear weapons themselves have to be 
modernized so they can last well into the coming decades.
    Finally, a very important piece that I am probably most 
concerned about right now is the nuclear command and control 
modernization that we have to have as we move into the coming 
decades.
    Chairman McCain. Under the present circumstances of 
sequestration, do you see any way of achieving all those goals?
    General Hyten. Senator, if we do not get stable budgets--
when I spread all those programs out across the table--and I 
have--and I look at when they all deliver, they all deliver 
just in time. Take one example. The Columbia submarine. Every 
year that that program--if it slips 1 year, then the future 
commander of STRATCOM is down one nuclear submarine. Two years, 
two nuclear submarines. We know that because there is a certain 
time in the future where the Ohio-class submarine just will not 
go under the water anymore. Just the pressure on the vessel 
itself will not allow it to go down. That has to stay on time. 
If each of those programs delivers just in time and we do not 
have stable budgets, we know we already have a broken program. 
I am very concerned about the ability to have stable budgets to 
support those programs.
    Chairman McCain. What does a continuing resolution do to 
you and your plans that you just outlined?
    General Hyten. A continuing resolution makes it very hard 
to start new programs, which many of these programs will be new 
program starts. Each of these programs will ramp up in terms of 
funding over the years as we move from the development phase 
into a production phase. Every time you have a continuing 
resolution, you cannot ramp up the funding you need in order to 
do that. Every time that happens, you have a delay to the 
program. Every time that happens, you have a break to a 
contract. It is a very significant issue in terms of cost to 
the taxpayers, as well as risk to our national security.
    Chairman McCain. The men and women who are serving under 
your command?
    General Hyten. Yes, sir. I talked a while ago about the 
improved morale. One of the great things I saw when I came back 
to U.S. Strategic Command was the morale in the submarines and 
the missile fields and the bombers and the space capabilities, 
the cyber capabilities. They understand how important it is 
what they do, but they also are dealing with very old 
equipment. We have a commitment to them as a Nation that we 
need to give them the tools that they need in order to do their 
job. Their enthusiasm can only last a certain amount of time. 
If we do not follow through on that commitment, that morale 
will be brought into question.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Again, General, thank you for your service.
    In last year's National Defense Act, we asked for a review 
of all the options against our potential threats left-of-launch 
and right-of-launch. One of the issues that I think you will 
talk about in detail tomorrow but in public is the very little 
short time between a warning and a launch in many of our 
adversaries. The left-of-launch is something we have to look 
at. Right-of-launch, the first issue is boost phase.
    Can you give us an idea here of where we are with respect 
to boost phase interceptors?
    General Hyten. I can give more information in the closed 
hearing tomorrow. But at a general level, we do not have a 
significant or really any boost phase intercept capability. It 
is a very challenging technology because you basically have to 
be properly positioned with the right kind of weapons 
capability in order to respond to an immediate launch. If you 
look at the North Korean launch on February the 11th, out of a 
new location, a new capability, a new transporter, erector, 
launcher, all those things bring the time of warning down to a 
very small number. Therefore, you have to be properly 
positioned.
    Now, I will talk tomorrow about some new technologies that 
are becoming available that I think can begin to address that 
for the first time. But it is not in the near term, Senator.
    Senator Reed. But if we can pursue these technologies 
successfully, it would provide a significant advantage given 
the current deterrence we have.
    General Hyten. Yes, Senator. I cannot think of a better 
thing than if somebody launched a threat missile, to drop it 
right back on their head.
    Senator Reed. The nuclear posture review, as we both noted, 
is underway. Can you give us kind of an overview of the 
significant threats that this review will deal with and 
illustrate for us?
    General Hyten. The nuclear posture review just kicked off a 
6-month timing asked for by the administration and the 
Secretary of Defense. We are going at that. The first thing we 
will look at is the threat scenario. We will look at Russia, 
China, North Korea, and Iran in particular to make sure we 
understand what those threats are. Iran is in compliance with 
JCPOA [Joint Comprehensive Plan of Action Iran] right now, 
which is keeping that nuclear capability down, but they still 
have aggressive missile programs that we need to look at. We 
will look across that spectrum of the threat. We will look at 
what Russia is doing in terms of violation of the INF treaty, 
and then we will look at military options in order to respond 
to what we see in the threat. That is the basic structure of 
the nuclear posture review.
    Senator Reed. One of the disconcerting comments that the 
Russians continue to make is that they have a strategy now of 
escalate to deescalate with nuclear weapons. I think you quite 
succinctly describe that escalate to deescalate is not that. It 
is escalate to win, which forces us to escalate to stop them 
from winning. You know, no pun intended, but it is an escalator 
to catastrophe in my view.
    Can you comment upon that statement? You know, how do we 
deal with that?
    General Hyten. I think it is one of the most challenging 
military questions you have. The good news is that we are 
addressing it with our geographic combatant commanders in 
large-scale exercises. We just did one with the European 
Command. We will do one with the Pacific where we actually 
address what those situations really would look like. It is 
important that we look at them seriously, understand what those 
pieces are. When we say escalate to win, what does that really 
mean? In order for us to win, we have two choices: one, to 
prevent that escalation; or two, respond in such a way after 
that escalation that they would want to stop any aggression 
that they have going on. Both of those are challenging 
situations, and we have to walk through the various options, 
which we are.
    Senator Reed. It would seem to me also that there has to be 
some means to communicate to avoid sort of the misstep, if you 
will. Is that part of the gaming you are doing, kind of how do 
we communicate our intention not to accept this but to engage 
again? Is that part of it?
    General Hyten. I continue to advocate engagement. I know 
Secretary Mattis has said we have had a long history of 
engagement, not a long history of success. I certainly agree 
with that statement. But, nonetheless, I would like to have an 
aggressive State Department engagement, an aggressive 
Department of Defense engagement that includes mil-to-mil 
engagements with my counterparts in Russia, China in 
particular. I think it is always better to be able to pick up 
the phone and talk to somebody before something bad really 
happens to have some kind of relationship. Also I want to look 
across the table and make sure they understand I am very 
serious about this business.
    Senator Reed. Thank you very much, General.
    General Hyten. Thank you, Senator.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. General Hyten, I think we would all ask 
about the same questions that have been asked by the previous 
two members, and it is always a surprise when people find out 
that there is some question as to whether or not we have the 
capability that we know around this table and that you know we 
do not. You have said, of course--you made it very clear we 
have the oldest nuclear arsenal in the world, warheads and 
bombs produced 30-40 years ago, B-52 and all of that.
    The last time the 10-year posture review took place, there 
were assumptions. The chairman mentioned this in his opening 
statement. One of the assumptions--and this was for the 2010. 
Number one, Russia is no longer an adversary, and number two--
and this is kind of disturbing--though the role of nuclear 
weapons in the United States national security and U.S. 
military strategy has been reduced significantly in recent 
decades, further reductions can and should be taken. How do you 
respond to those two assumptions? Bring that forward to the 
current day.
    General Hyten. From a military perspective, I think it is 
always important that anybody that has the threat to 
fundamentally destroy your nation, which is what Russia and 
China both have, they have to be considered an adversary. I 
think not considering them an adversary causes you to make 
decisions that could put the Nation at risk. Therefore, I have 
always considered Russia to be an adversary, a strategic 
competitor. I think it is important for us to look at Russia 
that way.
    The second piece of the equation. If you look back not just 
to the 2010 nuclear posture review, but if you look back 20 
years--and that is across multiple administrations, multiple 
Congresses, change of leadership in the military--you see a 
fundamental de-emphasis of nuclear weapons in our national 
security strategy. Then look at what our adversaries have done 
in response to that.
    I think the assumption would be if we lower the reliance on 
nuclear weapons and our adversaries do the same thing, they did 
just the opposite. Russia in 2006 started a huge, aggressive 
program to modernize and build new nuclear capabilities. They 
continue that to this day. New ballistic missiles, new weapons, 
new cruise missiles, significant air-launched cruise missile 
capabilities, now the ground-launched cruise missile 
capabilities. China has done the same thing. Hypersonic glide 
vehicles on both sides that bring new threats to bear. Our 
adversaries have taken the exact opposite view of our de-
emphasis and have emphasized those nuclear capabilities once 
again.
    Senator Inhofe. That is right. They say further reductions 
can and should be taken. That is where we have been. It is very 
disturbing. I think tomorrow in a closed session, you might be 
thinking about an answer to the question because you say that 
Russia has always operated from a position of strength. We need 
to talk about the relative strength between us and Russia.
    The last thing I would mention is we have not spent quite 
as much time that I feel would be justified with North Korea. 
Admiral Gortney said it was prudent to assume--now this is a 
year ago--that North Korea could conduct a nuclear strike on 
the United States despite assessments of a very low probability 
of success. Well, that has changed now I think. They have 
advanced a long ways.
    I think in your statement, North Korea are actively 
developing ballistic missiles that could range the continental 
United States, conducted a nuclear test in September of last 
year, and appeared to be preparing to conduct another test in 
the near future. It is very disturbing.
    If you were to look at Russia, China, and North Korea and 
Iran, what would you believe would be the greatest threat? What 
bothers you the most?
    General Hyten. I think Russia is the greatest threat. What 
I am concerned about most nights is North Korea because we do 
have an effective deterrent today that I believe deters our 
adversaries, and if you watch the way Russia acts, every step 
is slow, but they are taking steps forward. China. They are 
acting, but every step is measured. North Korea. I am not sure 
exactly what they are going to do tonight. Every time there is 
a launch, February 11th, March the 5th this year, the whole 
network comes up. We bring the entire power of my command to 
bear on the problem, the power of Northern Command. We are 
looking at what we have to do. The Pacific. They are all 
involved. Those are very concerning moments to me because every 
time they launch, we are not sure if this is a threat missile 
or not.
    Senator Inhofe. Well, yes. I think you could probably say 
that North Korea is different from the rest in that they are 
totally unpredictable. Is that accurate?
    General Hyten. They are. I guess totally unpredictable 
would be a fair statement, sir, because every time they launch, 
I am not sure what that launch is going to be. That would be 
the definition of unpredictable.
    Senator Inhofe. Thank you, General.
    General Hyten. Thank you, Senator.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, General, for being here today.
    I want to follow that line of thinking because in your 
statement, you have been clear with us that our nuclear 
capabilities are the foundation and the bedrock of our defense. 
Certainly we saw that deterrence model during the Cold War, and 
you talked about it just now in terms of China and Russia. But 
do we have any reason to believe that North Korea is deterred 
at all by our nuclear armaments?
    General Hyten. I would have to say that they are deterred 
to a certain extent because fundamentally the existence of 
their nation is threatened by our strategic deterrent 
capability. There is a deterrent value.
    But their actions clearly show that the deterrent is 
fundamentally different when we think about North Korea. What 
impacts Kim Jong-un, what impacts the North Korean actions is a 
very difficult thing to understand, to get after. But the thing 
about North Korea is that given where it is on the globe, it is 
very important that our actions are in line with our allies, 
especially South Korea and Japan, because talk about in your 
back yard, it is in the back yard of South Korea and Japan.
    Senator Shaheen. As we look at what options we have to 
respond to what North Korea is doing, clearly sanctions are 
one, and we have imposed those and there is an effort to look 
at even stricter sanctions. What other options do we have in 
response to what North Korea is doing?
    General Hyten. I think any solution to the North Korean 
problem has to involve China. I am a military officer. My job 
is to provide military options to the President, and along with 
the other combatant commanders, I will always have military 
options ready for the President if he deems, in association 
with Congress, that there is something that we have to do. I 
will provide those military options. That is my job.
    But I look at it from a strategic perspective, and I cannot 
see a solution that does not involve China.
    Senator Shaheen. But China has suggested they do not have 
as much influence as we think that they do. Do you think that 
is accurate?
    General Hyten. Again, if you talk about in your back yard, 
China is the definition of North Korea's back yard. The trade 
that North Korea has really goes north across the Chinese 
border and south from China into North Korea. That is a 
significant element. But I am a military officer, not a State 
Department official or an economic expert. But I just look at 
the world and it is hard for me to see a solution without 
China.
    Senator Shaheen. You briefly touched on cybersecurity in 
your opening statement. More and more we are seeing that cyber 
is being used as a weapon by our opponents. I have asked this 
question to several generals and have not gotten a very clear 
answer about how we better coordinate our cyber activities and 
whether we have a cyber strategy that involves not just 
responding but also being aggressive about how we use cyber. 
How should we be thinking about that? Do you think that is an 
accurate assessment, or am I missing something?
    General Hyten. I think it is still an element that is the 
subject of significant discussion. I will try to clarify it 
from my perspective, and hopefully that is helpful to you.
    From my perspective, there are two elements of cyber. One 
is the military element, and the other is the broader civilian 
use of cyber. They require two different sets of authorities. 
But when I look at the cyberspace domain, the authorities that 
I think we need as a nation are no different than any of the 
authorities that we have in space, and air and land and 
maritime. We need to have the authorities that if there is a 
bad actor, a bad guy that is in the cyberspace domain, the 
focus of our military has to be to attack and eliminate the bad 
actor. But we cannot do that in a way that impacts the domain 
that we are operating in. But we should not be restricted on 
following that actor, wherever that actor goes.
    Senator Shaheen. Well, in fact, do we not have blurred 
lines when it comes to cyber today because we have--or at least 
based on what I have read, it appears that we have cyber actors 
that are doing the work for nation states, but they may not be 
in the military. How do we address those kinds of threats?
    General Hyten. To me, if the question is what effect are 
they trying to create, if the effect they are trying to create 
is a military effect, then it is the responsibility of U.S. 
Cyber Command to be able to respond to that. If it is a 
criminal effect, it is not the responsibility of Cyber Command. 
It is the responsibility of the Department of Homeland 
Security, working with the FBI [Federal Bureau of 
Investigation] and other elements to work with those kind of 
pieces. We need to draw those lines clearly and focus on the 
effect and the target not on the domain itself. When we just 
focus on the domain itself, that is when we get all the 
confusion because cyber is everywhere. Why should we stop a 
military action because a server happens to be located in a 
specific territory, including the United States? We have to 
look at it as an operating domain. The effect and the target 
are the key.
    Senator Shaheen. Thank you very much.
    General Hyten. Thank you, ma'am.
    Chairman McCain. Senator Wicker?
    Senator Wicker. General Hyten, thank you for your service 
and for your testimony today.
    Mr. Chairman, I would like to add into record at this point 
an article in DOD [Department of Defense] News by Jim Garamone, 
published March 31st of this year.
    Chairman McCain. Without objection.
    [The information referred to follows:]



      STRATCOM COMMANDER MAKES CASE FOR MODERNIZING NUCLEAR TRIAD

March 31, 2017
News
By Jim Garamone
DOD News, Defense Media Activity

    ROSSLYN, VA--Nuclear capabilities are the bedrock of American 
defense and will remain so, the commander of U.S. Strategic Command 
said at the Military Reporters and Editors annual meeting here today.
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Air Force General John E. Hyten, commander of U.S. Strategic Command, 
and members of his staff depart a 37th Helicopter Squadron UH-1N Huey 
near a missile alert facility on the F.E. Warren Air Force Base, 
Wyoming, missile complex, February 22, 2017. Hyten toured the facility, 
giving him insight into the responsibilities of the airmen executing 
the nation's nuclear deterrence mission. Air Force photo by Staff Sgt. 
Christopher Ruano

    Air Force General John E. Hyten said the United States has about 
the right numbers of nuclear weapons, but they need to be modernized.
                       Saluting Stratcom's People
    Hyten saluted the sacrifices of the servicemembers under his 
command who stand watch as they maintain America's nuclear deterrent 
and other missions.
    ``Deterrence will always be cheaper than war, and there is nothing 
more expensive than losing a war,'' the general said, quoting from Air 
Force Chief of Staff General David L. Goldfein.
    Hyten said it will take roughly 6 percent of the defense budget to 
modernize the country's nuclear arsenal. Right now, nuclear arms take 
about 3.5 percent of the budget.
    ``We have to increase [spending] somewhere between 2.5 and 3 
percent,'' he said. ``That leaves 94 percent of our defense budget to 
do the things we have to. When you think of the survival of our 
nation--and I think that is the most important reason we have a 
military . . . the backstop of all of that is the nuclear enterprise.''
            Nuclear Deterrent: Backbone of Homeland Defense
    The general said it would irresponsible to not fund nuclear 
modernization, as the nuclear deterrent is the backbone of Homeland 
defense.
    Hyten said people often ask him if it is possible to eliminate 
nuclear weapons. They want to know if he can imagine a world without 
nukes. ``And the answer is yes, I can imagine a world without nuclear 
weapons,'' he said. ``In fact, I know what a world without nuclear 
weapons looks like, because we had a world without nuclear weapons 
until 1945.''
    He asked the reporters to imagine what the world was like in the 6 
years preceding the atomic bombings of Hiroshima and Nagasaki. ``In 
those 6 years, the world in conflict killed somewhere between 60 
million and 80 million people,'' he said. ``That's about 33,000 people 
a day, a million people a month.''
    As horrible as the world is today, he said, there is nothing 
remotely resembling this situation. The world has seen bloody 
conflicts--Korea, Vietnam, Desert Storm, Enduring Freedom and Iraqi 
Freedom were awful, but nowhere near the level of carnage the world had 
experienced, he said.
    What changed in 1945, Hyten said, was the reality of nuclear 
weapons. Nuclear weapons, he added, prevented the major power conflict 
that had plagued the world in previous centuries.
    ``They prevented the kind of wanton destruction that you saw in 
World War II, and somehow the world has stayed that way,'' the general 
said.
             Necessity to Modernize Nation's Nuclear Triad
    Hyten said nuclear weapons undergird the motto of Strategic Command 
and its predecessor organization, the Strategic Air Command: Peace is 
our profession.
    Deterrence has changed in the 21st Century, Hyten said, and the 
command must modernize the nuclear triad and the command-and-control 
systems that are part of them.
    ``The submarines are the most survivable element of it; the ICBMs 
are the most ready; the bombers are the most flexible,'' he said. 
``When you put those pieces together, it gives our nation the ability 
to withstand any attack and respond if we are attacked, which means we 
won't be attacked.''

    Senator Wicker. General, in this article, you state that we 
need to spend roughly 6 percent of the defense budget to 
modernize our country's nuclear arsenal. That would be an 
increase from 3.5 percent currently. Over what period of time 
do we need to increase from 3.5 percent to 6 percent of the 
defense budget?
    General Hyten. In broadest terms, it is 30 years, but that 
is not perfectly accurate because there will be a peak and a 
valley. It will peak as we go into significant production 
levels. That will happen in approximately 10 years. That 
production peak will continue for roughly another decade as we 
deploy the new capabilities across each of the platforms I 
discussed earlier. Then it will drop off again over the last. 
But roughly, it is a 30-year time frame.
    Senator Wicker. Well, how about for the next few years?
    General Hyten. For the next few years, there will be a 
significant plus-up, but it will not grow to 6.5 percent until 
we actually get into the development programs, which are a 
couple years away.
    Senator Wicker. You quote approvingly the Air Force Chief 
of Staff General Goldfein in this article. Is this a position 
of General Goldfein?
    General Hyten. That is the position of the United States 
Air Force and General Goldfein and the Acting Secretary 
Disbrow.
    Senator Wicker. Is it the position, to your knowledge, of 
the Secretary of Defense?
    General Hyten. To my knowledge, the Secretary of Defense 
supports--I know he supports modernizing the triad. He 
testified in front of this committee to that effect. But we 
will address all those issues in the nuclear posture review 
with the new administration. Just to emphasize that point 
again, I think it is a point to remember. The new 
administration will take a look at the entire threat posture, 
the entire modernization plan, but the Secretary of Defense, 
the Air Force leadership, and the Navy leadership have all 
pledged support to modernizing the triad.
    Senator Wicker. Now, in mentioning your priorities in 
response to an earlier question, you mentioned five priorities 
in modernization, and the first one you mentioned was 
submarines, the Ohio replacement or the Columbia-class. I was 
interested to see that you listed that first. Would it be 
correct to say that not only is the first thing you mentioned, 
but it is your first priority?
    General Hyten. The first priority is the triad. Inside the 
triad, the first priority is the submarine. But it is important 
to note that the triad as a whole has to be modernized. 
Nonetheless, if we do not get after the submarine, then we run 
a very precipitous risk in about a decade as the Ohio-class 
reaches end of life.
    Senator Wicker. That was going to be my next question. You 
painted a painted a pretty grim picture of the future of the 
Ohio-class if we do not start moving. I think you said that it 
will be dangerous to actually put it under the water.
    General Hyten. You can probably tell from my uniform I am 
not a naval officer.
    Senator Wicker. I do see that.
    General Hyten. But I do have good friends who are naval 
officers, who are submariners, and they have gone through the 
analysis with me in detail, including my deputy, Vice Admiral 
Chas Richard. We have gone through that in detail, and they can 
tell me that each submarine is built to go down under pressure 
a certain number of times, and once you reach the end of life, 
you know when that is and you can predict very accurately when 
that is. Once you reach the end of life, it cannot go down 
anymore. A submarine on the top of the water is not an 
effective deterrent.
    Senator Wicker. That end of life might occur as soon as 
when?
    General Hyten. It starts towards the end of the next 
decade. I can go into the details of when that would be in the 
closed hearing tomorrow, but it is towards the end of the next 
decade.
    Senator Wicker. What can you tell us in this venue today 
about the modernized features of this new Columbia-class 
submarine?
    General Hyten. I think the most significant element of the 
modernized feature is the actual nuclear reactor. The nuclear 
reactor on the Ohio-class systems basically required refuel and 
refit midway through its service life. The Columbia-class will 
have a 42-year reactor. Once it goes in service, besides the 
normal maintenance and routine servicing, it will not have to 
come back for a refueling of the reactor, which will allow us 
to operate with 12 Columbia submarines versus 14 of the Ohio-
class.
    Senator Wicker. What about advanced materials in these new 
subs?
    General Hyten. There will be significant advanced 
materials, but I cannot talk about that in detail in this 
hearing. But it will be materials that will increase the 
survivability and performance of the submarine in a threat 
environment.
    Senator Wicker. Thank you, sir.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, General Hyten.
    For the hearing last year, this posture hearing, the 
written testimony had this quote in it. There is continued 
adherence to the new strategic arms reduction, New START, by 
both nations. That is a quote, and that meant the United States 
and Russia. Is that still the case?
    General Hyten. That is still the case, Senator. The next 
key date is 2018. That is when we have to meet the New START 
limits. We are on track to do that. As far as we can tell, the 
Russians are on track to do that. But that 2018 date, early 
2018, we will watch that very closely.
    Senator Kaine. That testimony was also in the testimony 
from last year. We are on track to achieve New START limits of 
1,550 deployed warheads and 700 deployed delivery systems by 
February 2018. As far as you know, we are on track and the 
Russians are on track for their obligations as well.
    General Hyten. I know we are on track, and the reports I 
get from the intelligence community and from the State 
Department is the Russians are on track as well.
    Senator Kaine. Have you been directed to review the 
agreement or in any change our plans for compliance with the 
agreement?
    General Hyten. I have not been directed to review the New 
START agreement. I am reviewing the INF agreement based on the 
recent----
    Senator Kaine. Russian activity.
    General Hyten. Russian activity.
    Senator Kaine. But in terms of compliance with the New 
START agreement, you have not been directed to review or offer 
advice about changing strategies on compliance with New START.
    General Hyten. No specific direction on that, Senator.
    Senator Kaine. In your opinion, would it be in the U.S.'s 
strategic interests to increase our nuclear weapons stockpiles?
    General Hyten. I have stated on the record multiple times--
I will state it on the record again today--I support the limits 
that are in the New START. I also look out to the future and 
understand there are non-accountable weapons especially in the 
Russian side that we need to start addressing. But from a 
strategic weapons perspective, I support the limits that are in 
the New START.
    Senator Kaine. Senator Wicker was asking you about the 
Columbia-class. Will the Columbia-class require a change in the 
design and plans for the Trident missile, kind of a design 
change?
    General Hyten. It will not require a design change. We will 
be able to walk into that. But Admiral Terry Benedict, the 
Director of Strategic Programs in the Navy, has begun to look 
at the Trident to make sure that we have a plan for how we 
would modernize that capability sometime in the future. But 
that is not on the near term list or on my priority list to 
worry about right now.
    Senator Kaine. Thank you for that.
    You have a brief section of testimony at page 13 of your 
written testimony about cyber. I applaud the direction signed 
into law in the fiscal year 2017 National Defense Authorization 
Act and remain committed to the elevation of U.S. Cyber Command 
to a unified command as soon as possible.
    Could you talk a little bit about what is the status of 
efforts to do that? Are there milestone dates that have been 
set, and what is our progress towards those milestones?
    General Hyten. Admiral Rogers, the Commander of U.S. Cyber 
Command--we have submitted our plan to the administration. It 
is now going through their evaluation. The administration gets 
a vote. The Secretary of Defense gets a vote. I will just say 
that both Admiral Rogers and I would like that to happen sooner 
rather than later just to normalize that command and make sure 
that we can kind of develop normal command relationships 
between Cyber Command and all the combatant commanders, 
including U.S. Strategic Command.
    Senator Kaine. This is a consensus set of recommendations 
that you have delivered to the administration.
    General Hyten. We have.
    Senator Kaine. The last question is this. Anti-access/area 
denial systems are more commonplace now. Does that render 
weapons like the B-61 sort of becoming obsolete, and is there a 
need for additional systems like gravity bombs as part of a 
future deterrent to take care of the A2/AD [Anti Access/Area 
Denial] systems?
    General Hyten. I think from the air perspective of the 
triad, the three elements: a stealth bomber, which is the B-21 
that can penetrate air defense systems; a gravity bomb that 
could provide flexible options because that provides the most 
flexible element of the triad because that gives the President 
the most time to make a decision; and then the air-launched 
cruise missile, which basically improves the flexibility of the 
B-21 because really the last thing you want to do is have a 
bomber that is only able to attack a target right below it. You 
want it to be able to reach out. Those three elements together 
create the most flexibility in the air leg of the triad, and 
that is our recommended program that the Congress has 
supported.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, General. It is a pleasure to see you again.
    We have had some discussion on this in previous questions 
about the different geopolitical landscape that we are living 
in today, and some describe it as a return to the great-power 
competition. Russia and China are deploying far more capable 
nuclear systems than they were in 2010.
    What implications do you think that this has on our nuclear 
forces? Specifically, do you believe it increases their 
importance and the need to modernize them? You have touched on 
this, but I would like to hear your firm answer.
    General Hyten. The key element is always having a ready, 
reliable strategic deterrent. We have that today. Even though 
our adversaries have modernized their nuclear capabilities, we 
still have an effective deterrent. The question will we have an 
effective deterrent 10 years from now and 20 years from now. 
The answer to that has to be yes. That is why we have to 
modernize, and that is why it has to be a significant priority 
for this country.
    Deterrence is going to be expensive, but war is always more 
expensive than deterrence.
    Senator Fischer. The chairman asked you about the platforms 
and the need to modernize those. You were referring to the B-1 
and the GBSD [Ground Based Strategic Deterrent], the LRSO [Long 
Range Stand-Off], the Columbia-class, and the need to continue 
on and meet those deadlines and meet them in a timely manner to 
make sure that we do have the resources necessary.
    When we look at the new posture report that is going to be 
coming out, do you believe that that report should validate 
those programs?
    General Hyten. I do, and I have stated that to the 
administration. I have stated that to my boss. But the nuclear 
posture review should look at the entire enterprise. It should 
also look at things beyond what is in the triad. We should look 
at what do we have to do to respond to the INF breakout. What 
do we have to do to respond to now a ground-launched cruise 
missile? Hypersonic glide vehicles are threats that both Russia 
and China are building now. They are very significant in terms 
of our ability to see them and provide warning. We need to 
figure out how to deal with those. But I think the baseline is 
the triad, and the baseline is modernizing the triad.
    Senator Fischer. In response to Senator Inhofe, you were 
talking about the escalate/deescalate in our relationship with 
Russia. A former Secretary of Defense Harold Brown said in 1979 
that the Soviet spending has shown no response to United States 
restraint. When we build, they build. When we cut, they build.
    From your comments, I would assume that you agree with 
those remarks from Secretary Brown.
    General Hyten. Well, I look at the evidence, and the 
evidence is when we de-emphasize nuclear weapons, both our 
primary adversaries, Russia and China, have both increased 
their focus on nuclear weapons. Advanced capabilities. They 
also looked at now threatening space and threatening 
cyberspace. They went a significant direction and a different 
deterrent element than we did. I believe you always have to 
look at your adversaries and understand what they do and then 
make sure you are in a position of strength relative to your 
adversaries. That is what deterrence is all about.
    Senator Fischer. The chairman also asked you about Russia's 
violation of the INF treaty. Do you believe that we need to 
respond to that violation? The previous administration talked 
about counterforce options and countervailing capabilities, 
active defenses, but ultimately took no action to develop 
those. Do you think that we need to now?
    General Hyten. I think every step that Russia takes has to 
be responded to. This is just the next step, and we have to 
figure out as a Nation how to respond. It is not necessarily a 
military response, but the Nation has to figure out how to 
respond.
    Senator Fischer. In this setting, can you tell us which 
options you believe would be the most effective?
    General Hyten. No, ma'am, not in this setting. Those 
choices are my boss' choices as well. But I will be glad to 
talk to that in a closed hearing tomorrow.
    Senator Fischer. Thank you.
    In your opening statement, you note the unauthorized 
flights of unmanned aerial systems over Navy and Air Force 
installations. Can you discuss this in greater detail? Are 
these incidental activities, or do you believe they are 
deliberate actions?
    General Hyten. I think so far they have been incidental 
activities, but the fact that they are occurring and then if 
you watch what is happening overseas in the CENTCOM [Central 
Command] theater with the use of lethal UAVs [unmanned aerial 
vehicles] and the use of UAVs for surveillance on the part of a 
terrorist adversary, I am very concerned that those same kind 
of UAVs could be employed against our weapon storage 
facilities, especially on the nuclear weapon storage 
facilities.
    Just in the last week, I have signed out guidance to my 
forces to give them kind of parameters on how they should 
respond if they see a threat UAV or a surveillance UAV and to 
give them specific guidance. A young marine at King's Bay or an 
airman at F.E. Warren does not have to worry about what should 
I be doing when I see that. I provided very specific guidance 
that is classified guidance, but I would be glad to share that 
with the committee.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, General Hyten, for your leadership and for your 
generosity with your time yesterday visiting my office.
    I just quickly want to ask you about the importance of our 
non-military foreign assistance and other civilian instruments 
of national power to your mission. General, is it accurate to 
say that you work with the State Department and other civilian 
partners on nuclear nonproliferation and other efforts to 
detect and deter strategic threats to the United States?
    General Hyten. We have a very active role with the State 
Department not just on the nuclear side but on space and cyber 
as well because each of those is a very international set of 
issues, and the State Department has been very aggressive in 
working those issues along with U.S. Strategic Command and the 
other combatant commands as well.
    Senator Warren. Thank you.
    The budget proposal put out by the Trump administration 
calls for about a 29 percent cut to the State Department and 
significant cuts to other agencies with international 
responsibilities.
    General, I want to ask you a narrower question. Would 
funding cuts to agencies that conduct diplomacy and other 
civilian functions make your job easier or more difficult?
    General Hyten. I am not an expert on the budgets----
    Senator Warren. I am not asking you to be one.
    General Hyten. But I can tell you that I feel I desperately 
need and all the military commanders need an active foreign 
engagement process that uses the Department of State. We need 
that kind of partnership. We need the State Department reaching 
out into the international community. It cannot be left to the 
military to do those kind of pieces. The State Department does. 
I have had great relationships with men and women in the State 
Department that have helped us significantly over the years. We 
need to have that continue into the future, as well as other 
departments that reach out.
    Senator Warren. I take it from what you are saying--I am 
sorry to interrupt, but I just have limited time here--that 
significant cuts would make it more difficult for you to do 
your part of your job.
    General Hyten. I would have to look at where the cuts are, 
and I have not looked at where the cuts are. But I need that 
support.
    Senator Warren. You need that support.
    Let me ask you another question, General. As you know, the 
nuclear command, control, and communications, NC3 [Nuclear 
Command and Control], system is critically important to 
providing secure and agile communications between our field 
forces and the President in case of a nuclear attack or other 
nuclear-related emergency. You expressed concern before this 
committee last year about the aging capabilities of the NC3 
system and the need to modernize it. As Chairman McCain noted 
earlier, you publicly said just last month that, quote, any 
delay, deferment, or cancellation of NC3 modernization will 
create a capability gap potentially degrading the President's 
ability to respond appropriately to a strategic threat.
    I assume you still feel that way. Is that right?
    General Hyten. I do. It is my biggest concern on the 
modernization effort.
    Senator Warren. Biggest concern.
    Let me ask you, are you confident that the Department is 
providing the funding and staffing necessary to keep NC3 on 
track?
    General Hyten. I am confident that the Department has taken 
the right steps. The funding is now rolling in the right place. 
The staffing is not quite there yet, especially on the Air 
Force side. We had a hiring plan that was delayed slightly by 
the hiring freeze. We were given authority to waive that for 
critical nuclear missions. We have done that through the Air 
Force. The Air Force is now beginning to hire those folks.
    But the challenge is once you start hiring those people, it 
is not like overnight that all of a sudden the problem is 
solved. They have to come on board, become experts. That takes 
a matter of time. Even though the funding is flowing, we have a 
good plan, people are coming, it is not an overnight solution 
to the problem which is why it requires constant attention.
    Senator Warren. I appreciate that.
    We need to have a secure and reliable NC3 capability, which 
is why I agree that NC3 modernization without delay should be a 
top priority. We have the most potent nuclear triad on earth, 
but it becomes much less useful if NC3 ages out and does not 
work effectively.
    I have just under a minute left, but I would like to ask 
you very briefly about the resiliency of the satellite 
constellations that we rely on for civilian and military 
communications. Do you have confidence in the ability of our 
communications satellites to withstand jamming? How are you 
thinking about integrating our satellites into the Department's 
overall operational plan?
    General Hyten. I have not been happy with how we are 
structured from a resilient perspective with satellite 
communications. There are two elements. Number one, I think we 
need to change our architectures and build a more resilient 
architecture so that we can more effectively fight in the 
future. The second piece of that is that we have to figure out 
how to use the capabilities we have today in a better way. We 
have actually built significant anti-jam and warfighting 
capability into many of our satellites, but we do not have the 
means to effectively command and control it at the time of a 
fight. We need to work both of those things, Senator, in the 
future.
    Senator Warren. Thank you, and we can do more follow-up on 
this later. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General Hyten, first of all, thank you for your service to 
our country.
    In the Defense Science Board's February of 2017 task force 
report on cyber deterrence, two recommendations are provided to 
improve the cyber resilience of the U.S. nuclear forces. One 
recommendation was that the Secretary of Defense direct you to 
conduct an annual assessment of the cyber resilience of the 
U.S. nuclear deterrent, including all essential nuclear 
components. These would include nuclear command, control, and 
communications, as Senator Warren was alluding to, the 
platforms, the delivery systems, and the warheads. 
Specifically, you would be directed to state your degree of 
confidence in the mission assurance of the nuclear deterrent 
against a top tier cyber threat.
    What do you consider to be a top tier cyber threat to our 
Nation's nuclear systems?
    General Hyten. I see a top tier cyber threat being Russia 
and China in particular because they have the ability to 
threaten the existence of this Nation. One of the reasons you 
have to be able to protect the nuclear command and control 
capability is that is fundamental to deterrence. If that is 
ever brought into question, that lowers our deterrent posture 
to top tier threats, and we have to make sure we never allow 
that to happen.
    Senator Rounds. What can Congress do to help you mitigate 
this threat to our nuclear systems?
    General Hyten. I think the Congress can be very demanding 
of the services to make sure that as we modernize our nuclear 
command and control capability, we just do not modernize a 20th 
century architecture, in other words, move from 8\1/2\-inch 
floppy disks to 5-inch floppy disks. That is really not of 
interest. We have to modernize the entire architecture. As you 
see the modernization plans coming in, make sure, number one, 
it is a 21st Century information architecture, and number two, 
make sure that we are cyber secure as we go through that 
because we will introduce cyber vulnerabilities as we walk into 
that. But if you work it right from the beginning, you can make 
sure that that threat is mitigated as we go forward.
    Senator Rounds. The Defense Science Board also recommended 
that the DOD acquisition executive oversee immediate 
establishment of a program of action with milestones to support 
cyber certification of U.S. nuclear forces, as well as nuclear 
command, control, and communications. This certification 
process would assume considered adversary attack against 
nuclear systems based on extensive preparation. Examples are 
attacks via the supply chain, insider threats, and physical 
sabotage or attack, in addition to remote cyber attacks.
    Are you confident that the timeline for initial and full 
operational capability of the cyber mission teams that are 
tasked to support your command are proceeding at a pace that 
would enable you to meet such a certification? I noticed that 
you indicated that perhaps the Air Force is a little bit behind 
in their time frame.
    General Hyten. The answer is yes and no, Senator. Yes, I am 
happy with where the cyber mission force is going right now, 
but the no part is that I do not think the cyber mission force 
currently has the capacity necessary to meet all of the 
requirements that we have across the Department.
    We have also divided the cyber mission force, you know, 
assigned to different combatant commanders. I have certain 
assigned elements of the cyber mission force. General 
Scaparrotti does. Admiral Harris does. I think we have to start 
looking at cyber like we look at special operations, as a high-
demand, low-density element that we need to allocate to the 
highest priority, and we have to look at that from the top 
level down. I will work inside the Department to advocate for 
those kind of capabilities because the demand signal is going 
to go nowhere but up and the capacity is not sufficient to meet 
all of the demand.
    Senator Rounds. As you know, until now, DOD has envisioned 
a force of up to 100 combat-coded B-21 bombers. I am very 
concerned this number may be a budget rather than strategy-
driven determinative. Also I have heard discussion within the 
Air Force circles of the need for a larger number of these 
aircraft based purely on operational requirements. Do you think 
we may need more than 100 of these aircraft?
    General Hyten. I have not seen the bomber vector road map 
yet from the Air Force. I put a demand signal out from my 
command to the Air Force to let me see that plan because I want 
to be able to support that plan, but I have to see it. I have 
to see the details to understand it.
    From the top level, I think 100 is sufficient from an 
operational perspective, not a budget perspective. The reason I 
think it from a top level is that I have a certain requirement 
in the New START for a certain number of nuclear capable 
bombers, and then we have an additional capacity on the 
conventional side. When you put that together, you come to 
about 100.
    Nonetheless, I have not seen the details yet from the Air 
Force. I will see the details shortly. I know it is done. 
General Rand and General Goldfein have both told me it is about 
done. But I need to see that so I can better answer that 
question, Senator.
    Senator Rounds. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    General Hyten, thank you for being here. Thank you for your 
leadership as well.
    General Hyten, in your response to advance questions that 
you submitted to this committee last September, you agreed that 
additional analysis is needed before making a decision on 
whether to deploy an additional missile defense site, including 
an analysis of the missile threat specifically from Iran. You 
have also indicated that you believe the response to missile 
threats must consider, quote, the entire package of capability 
from additional interceptors to supporting sensors and command 
and control.
    In your testimony today, you identify three necessary 
missile defense upgrades including upgrading the kill vehicle 
of ground-based interceptors, continued development of long-
range discriminating radar, and improving regional missile 
defense capabilities. I understand that some of these 
investments would improve a potential additional missile 
defense site. It would also be a part of that package and may 
make sense to make that investment.
    But in a March of 2015 briefing to the Subcommittee on 
Strategic Forces, Lieutenant General Mann, former Commander of 
the U.S. Army Space and Missile Defense Command, affirmed that 
the ground-based mid-course defense system remains our Nation's 
only defense against an ICBM attack.
    Without making a judgment--the question is without making a 
judgment on deploying an additional missile defense site--I do 
not expect that today. But if the decision is to deploy a new 
missile defense site, how long do you expect that construction 
would take? How long would it take to come online?
    General Hyten. The specific question is once you make a 
decision on an additional site, you are many years, 5 to 10 
years, away from that site being able to come online.
    Based on my confirmation hearing and my lack of full depth 
into it, I met with Admiral Sering, the Director of the Missile 
Defense Agency a few times now. We have gone through his 
programs. We can talk about that in a little more detail in the 
closed hearing. But fundamentally I see a need to have a 
reliable kill vehicle, a multi-object kill vehicle, better 
sensors, including a space-based layer for the mid-course 
discrimination, and then additional capacity.
    But I want to make sure that those priorities are 
understood to the committee because those priorities are 
important to me because if we just go for the additional 
capacity, I am not sure we are going to be making the right 
architectural decisions about how we deal with the pending 
threat in the future. I want to make sure we do that right. We 
have some time, not a lot of time, but we have some time to 
make those decisions.
    We will have a ballistic missile defense review in this 
administration in addition to the nuclear posture review. That 
will be another 6-month study that is not yet to kick off but 
will soon.
    Senator Peters. I want to expand a little on the `some 
time.' As you mentioned, you have to make the decision first to 
go forward with the site, but then you are looking to anywhere 
from 5 to 10 years before that site actually becomes 
operational. My concern is that if we wait until a country like 
Iran, for example, develops missiles that threaten the 
Homeland, we may be too late given that long timeline. That is 
why I know the work on an environmental impact study for 
potential sites is already underway.
    But maybe your assessment--are you confident that even if 
we started today, over 5 years or the 10 years, we would be 
able to construct these sites, that the missile threat from 
Iran and elsewhere will not continue to grow or eventually 
outpace our ability to bring these defenses online?
    General Hyten. I am always concerned about timelines 
because our acquisition system has not been very effective in 
the last 10 years in delivering things on time. When I give 
broad statements like 5 to 10 years, it is broad because the 
acquisition system is not very reliable in terms of defining 
what those pieces are. It is broad because there are policy 
debates that have to happen. But I think we are going to have 
to make that decision pretty soon about where we are going to 
go.
    I think we have the data we need, and we will feed that 
into the ballistic missile defense review. I would expect 
coming out of the ballistic missile defense review some very 
specific recommendations about what we have to do that will 
probably come from the Missile Defense Agency.
    Senator Peters. Thank you, General.
    General Hyten. Thank you.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thanks for your testimony today, General Hyten. I 
appreciate your candid comments, the comments that we had in 
our discussion yesterday in the office. I am grateful that we 
can have an open session so the folks in the Midwest can hear 
how important STRATCOM is to our global safety. The fact that 
STRATCOM is only 45 minutes from my hometown of Red Oak makes 
it even that much more important to the folks living in 
southwest Iowa. I look forward to hearing more on your answers 
today.
    We did talk a little bit about the Emerging Threats and 
Capabilities Subcommittee that I chair. I do appreciate your 
comments about STRATCOM and its contribution to developing the 
third offset strategy. That is very important in our 
discussions in that subcommittee.
    Yesterday in the meeting, you highlighted the need to also 
incorporate the concept of operations associated with the third 
offset strategy as we look towards defining it. From our 
nuclear triad to the stealth capabilities, it is vital to 
national security that the United States continues to stay 
ahead of its adversaries. You have talked about a number of 
those today.
    Can you explain the importance of developing a third offset 
strategy specifically as we watch our adversaries develop 
capabilities that match our own?
    General Hyten. I think the third offset strategy in its 
most simple terms is what is the next fundamental step that we 
have to take as a Nation to jump ahead of our adversaries. That 
is what the first two offsets basically were when you look back 
in time. I think the opportunity we have right now is how do we 
fundamentally change the human-machine interface. How do we 
change the whole command and control structure? How do we 
actually get to new capabilities?
    But as we look at these technologies and we look at the 
technologies both in Silicon Valley and Cambridge and a number 
of places where the Department of Defense is engaging, we have 
to put that in an operational context. You just cannot take a 
commercial technology and say, boom, there is your magic third 
offset. You have to figure out what is the operational 
construct that we are going to use in order to do that.
    In space, the Deputy Secretary of Defense has said that the 
interagency space operations center, which we just renamed the 
National Space Defense Center, so that everybody can understand 
finally what it is--it is a national space defense center--was 
the first operational element of that because basically we put 
a bunch of smart people in the room with a bunch of 
capabilities and said figure out how to go faster. It is 
amazing how fast they have been able to go when you break down 
all the barriers. This Nation can go fast. That is what the 
third offset is really about.
    But our acquisition process likes to go slow. That will be 
the challenge. How do we go fast in defining what the third 
offset is? How do we define those things and build them 
quickly, how to deploy it in the force to stay ahead of our 
adversaries and not become too bureaucratic about the next 
step?
    Senator Ernst. I appreciate that.
    You mentioned breaking down the barriers. We had a great 
conversation, a little off topic, but a great conversation 
about acquisition yesterday in the office. Do you think our 
failing acquisition system is impacting our ability to develop 
and procure the new technologies that are necessary for that 
third offset?
    General Hyten. I think the challenge that we have is it is 
not the people that do the acquisition. They are still 
spectacular people. But we have not delegated them the 
authority and responsibility, and we do not hold them 
accountable for making the decisions to deliver capabilities. 
All those decisions are brought up into this town into the 
Pentagon, into the Capitol, and it hurts the ability of a 
program director to actually make the decisions, work with the 
industry, and deliver those capabilities. They spend all their 
time trying to get a program through the Pentagon, not trying 
to deliver the capability we need as a Nation. I think 
fundamentally we have to change that focus to let those great 
people that do that business every day focus on delivering 
those capabilities and then hold them accountable because I 
grew up in that business as a young lieutenant and a captain 
and my bosses were held accountable. There were some 
spectacular failures. But I always remember there are 10 people 
in line to step and take those jobs because they wanted the 
authority and responsibility.
    Senator Ernst. I absolutely agree, and I think that is 
something that this committee should work on. Thank you, 
General Hyten, for your time.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    I know that you recently toured the 37th Helicopter 
Squadron at Warren Air Force Base, and my question really 
concerns the fleet that protects the ICBM fleet and the 
national capital region. In early February, the Air Force 
announced their anticipated request for proposal for the Huey 
replacement program--as you know, that was to be released at 
the end of February--would not occur until this summer because 
none of the companies offering a replacement helicopter were 
able to meet all the threshold requirements. The Huey 
replacement program has been discussed in some form or fashion 
since, I think, 2001. The most recent acquisition strategy had 
the first operational helicopter delivery scheduled for the 
first quarter of fiscal year 2020, and it is now another year 
delayed by Air Force estimates to the second quarter of fiscal 
year 2021.
    In my view, we can ill afford this kind of delay. I have 
written numerous letters to the previous administration urging 
that they expedite this replacement.
    Do you have any opinions as to what can be done to expedite 
this program? Do you agree that it should be expedited I guess 
is the first question.
    General Hyten. Of all the things in my portfolio, I cannot 
even describe how upset I get about the helicopter replacement 
program. It is a helicopter, for gosh sakes. We ought to be 
able to go out and buy a helicopter and put it in the hands of 
the people that need it, and we should be able to do that 
quickly. We have been building combat helicopters for a long 
time in this country. I do not understand why the heck it is so 
hard to buy. I wrote the requirements document for that 
helicopter when I was Director of Requirements at Air Force 
Space Command in 2007, and now it is 2017, 10 years later, and 
we are still arguing about a helicopter.
    We had a request for forces in to provide a temporary 
replacement. I pulled that request for forces from STRATCOM 
because I want all hands on deck to get a new helicopter into 
the force that we should--as soon as possible. All I can tell 
you, Senator, as the Commander of Strategic Command, I will put 
every influence I can on the United States Air Force to deliver 
that capability sooner rather than later. I cannot tell you how 
upset I was when I pulled the RFF and shortly thereafter was 
told that there would be a delay in the program. That is just 
unacceptable to me.
    Senator Blumenthal. Well, your very forthright and valuable 
response has just eliminated a whole line of questions that I 
was going to have for you.
    [Laughter.]
    Senator Blumenthal. But I do have one more question which 
concerns the Columbia-class.
    By the way, very seriously, I welcome your focus on this 
issue, and if there is anything I can do or I hope the 
committee can do--I do not mean to speak for the committee, but 
it is a simple but profoundly important problem to safeguard 
the ICBMs in the north capital region.
    General Hyten. Hugely important.
    Senator Blumenthal. Thank you.
    On the Columbia-class, are you satisfied with the pace of 
development of the Columbia-class, which is so important, as 
you mentioned earlier, to the triad program?
    General Hyten. I am. I am very appreciative of the United 
States Navy for making it the number one program in the United 
States Navy. I certainly agree with that priority. But there 
are a lot of challenges in the Navy portfolio, and the fact 
that they have made that the number one priority and the fact 
that the Chief of Naval Operations, Admiral Richardson, is 
going to be looking at that very closely gives me confidence 
that we will get there.
    Nonetheless, we require a stable budget, stable funding, 
aggressive approach by the United States Navy in order to do 
that. All those things are challenging in today's environment. 
But I am comfortable with where the Navy is right now.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. I would like to associate myself with the 
remarks of Senator Blumenthal on the helicopter program. I 
appreciate that you take the issue so seriously, General.
    Some claim that the long-range stand-off cruise missile, a 
new air-launched cruise missile, would be destabilizing. Do you 
believe the LRSO would be destabilizing, and if so, why? If 
not, why not?
    General Hyten. Senator, I do not believe it is 
destabilizing. I believe it is a critical element of our 
architecture. We have had air-launched cruise missiles, nuclear 
cruise missiles since 1960. The current fleet was first 
declared operational in 1981. An element of our architecture 
that our adversaries have significant numbers of like and 
modernized air-launched cruise missiles that can bring a threat 
to the United States tells me that we have to be able to have 
that capability as we look to the future. I do not believe it 
is destabilizing. I think it is a critical element of the 
architecture, and it has been an element of the architecture 
for many, many decades.
    Senator Cotton. Your recommendation is that we proceed with 
an LRSO program.
    General Hyten. I think it is essential to the modernization 
of the triad.
    Senator Cotton. You touched briefly earlier on the concept 
of having a stealth aircraft that has to be directly over the 
target. You are referring to the B-21 I presume.
    General Hyten. Yes, sir.
    Senator Cotton. Without a new air-launched cruise missile, 
you foresee a future in which that B-21 might have to penetrate 
into advanced air defenses rather than being able to use a 
stand-off cruise missile?
    General Hyten. I can show you the details tomorrow. I will 
bring a map tomorrow to show you why we need a mix of 
capabilities, B-21, gravity bombs, as well as the air-launched 
cruise missiles, so you can see the details. But those three 
elements are a critical part of the architecture. You want a 
bomber to be able to range beyond single point targets. It is 
not the survivability of the bomber. It is the ability of the 
bomber to access targets.
    Senator Cotton. But in an unclassified setting, it stands 
to reason if you do not have an air-launched cruise missile and 
the bomber has to be essential over the target, which means----
    General Hyten. It has to be over the target.
    Senator Cotton.--over the air defense systems.
    General Hyten. Which is over the air defense systems in 
many cases. But it also means that I am limited to the number 
of targets I can access.
    Senator Cotton. Stealth technology has advanced 
considerably over the last 30 years. Are our adversaries' 
radars advancing as well to counteract our advances in stealth 
technology?
    General Hyten. They are, and it is a game of point and 
counterpoint. We make an advance; they make an advance. The B-
21 will stay ahead of those advances. We have to continue to 
stay ahead of those advances. That is another reason why the B-
21 is an important element of the architecture.
    Senator Cotton. Another reason why the long-range stand-off 
cruise missile is an important development because we have to 
expect our adversaries' radars will continue to improve?
    General Hyten. There is always the opportunity of a 
breakout too. You do not want to be stuck in a one-solution 
game when you have the opportunity to have multiple solutions.
    Senator Cotton. I want to turn to the Intermediate-Range 
Nuclear Forces Treaty. You touched on that briefly earlier. 
General Selva has stated to the House Armed Services Committee 
that now Russia has deployed in operational mode a ground-
launched cruise missile that violates the INF Treaty.
    How destabilizing is it to Europe and how threatening is it 
to our citizens and troops and interests in Europe for Russia 
to have that capability?
    General Hyten. The single missile is--and I will show you 
were it is deployed tomorrow. A single missile is not that 
destabilizing. The action of breaching that treaty and moving 
into that area and if they deploy large numbers and they move 
them into the west of Russia, that creates a very significant 
threat to our European allies. That is why I believe we need to 
address it right up front. As a whole-of-government, how do we 
respond to that decision by the Russians to break out of that 
treaty?
    Senator Cotton. Is it fair to say the INF Treaty is a 
treaty that is more beneficial to the United States than it is 
to Russia or was for the Soviet Union since we do not have many 
enemies on our borders who want to fire ground-launched cruise 
missiles at us?
    General Hyten. We have notified Congress and the 
administration that we are going to do a detailed assessment of 
the INF Treaty from all military aspects. We will do that as 
part of the nuclear posture review. But we are also going to do 
that as a--provide our military judgment to the political 
leadership of what that INF Treaty really means to the United 
States.
    Senator Cotton. When you say a whole-of-government effort, 
your point there is that the Department of State and the 
various international and economic agencies and organizations 
in our government have some role to play as well in determining 
what the American response to these INF Treaty violations will 
be?
    General Hyten. Especially the Department of State.
    Senator Cotton. From a military standpoint, is it 
threatening to U.S. interests to have potential Russian ground-
launched cruise missiles counteracted only by 30-year-old 
aircraft and aging warheads in Europe?
    General Hyten. It is a concern to the European theater, a 
concern to NATO [North Atlantic Treaty Organization]. We have 
to work it as well inside the NATO alliance. Again, I am not in 
NATO. I do not have a NATO hat. I am not a diplomat. But 
fundamentally all of those elements have to look at the problem 
of a ground-launched cruise missile again which we have not 
seen in that part of the world for quite some time.
    Senator Cotton. Thank you, General. My time has expired.
    General Hyten. Thank you, Senator.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    I would appreciate it, General, if you scientists could 
figure out a way that we could be in two places at once. This 
morning ironically there is a hearing upstairs in the Energy 
Committee where I just went and came back on cyber and our 
vulnerability.
    Let me ask a couple of questions. CYBERCOM is being 
elevated to a full combatant command, and you have talked about 
how that is proceeding. The next question is splitting CYBERCOM 
and NSA [National Security Agency] of the dual hat role. What 
has to happen for that to occur? In other words, where is the 
benchmark where we can start to talk about it? Because a full 
combatant command in CYBERCOM is a big responsibility.
    General Hyten. I will describe that in kind of two levels. 
We can have a more detailed discussion in the closed hearing 
tomorrow.
    But at the broadest level at the unclassified side, before 
we separate Cyber Command from the National Security Agency, we 
need to have Department of Defense service-owned cyber 
platforms to operate on. Again at the broadest unclassified 
terms, one of the reasons that Cyber Command and the National 
Security Agency are combined today is because they use the same 
platform. We need to have a different set of platforms.
    Now, there are acquisition programs of record being 
instituted to build those capabilities. Once those capabilities 
are built, I would be supportive of separating the two. But I 
will not advocate separating the two until we have a separate 
platform in the services that Cyber Command can operate on.
    Senator King. I appreciate that, and we can go into that in 
more detail.
    This is an interesting hearing because we are talking about 
cyber. We are also talking about nuclear. When we talk about 
nuclear, all the discussion is about a deterrent. That is what 
you have been talking about all morning. As near as I can 
tell--I have been going to these hearings for 3 or 4 years 
now--there is no coherent cyber deterrent strategy or doctrine. 
Do you agree that that should be a priority for our country to 
develop that strategy and doctrine and to make it public so our 
adversaries know that there will be consequences to results 
from a cyber attack?
    General Hyten. I think what is missing is a broader 
discussion of what 21st Century deterrence really means. That 
involves the nuclear capabilities as the backstop, but 
fundamentally space, cyber, conventional, all the other 
elements as well.
    When we talk about deterrence, we tend to fall back 50 
years ago to the deterrence model of the 1960s, 1970s, and 
1980s when it was a very broad nuclear deterrence discussion 
where we had mutually assured destruction----
    Senator King. It was a binary analysis.
    General Hyten. It was a binary analysis. Now it is a multi-
variable analysis. Each of those has to be put in context. The 
context has to be the fact that we are actually not deterring 
cyber. We are not deterring space. We are deterring an 
adversary that wants to operate and do damage in those domains. 
That is what we have to deter.
    Senator King. We are deterring aggression, which may come 
in a variety of forms, one of which could be cyber.
    General Hyten. Yes, Senator. That is exactly right. At 
STRATCOM, we have created an academic alliance now with 35 
academic FFRDC partners to look at what 21st Century deterrence 
really means and trying to stimulate that debate in the Nation 
because I think it is an important discussion to have inside 
this Nation. What do we really mean by deterrence in the 21st 
Century? I think it is fundamentally different, but we have not 
fully defined it, thought through it, and had that public date.
    Senator King. I agree with you, but I agree that we need to 
have that public debate sooner rather than later.
    General Hyten. Yes, sir.
    Senator King. These attacks are occurring virtually daily.
    General Hyten. Yes, sir.
    Senator King. One other point on the CYBERCOM elevation. 
When you are talking about EUCOM [European Command] or NORTHCOM 
[Northern Command], you are talking about bombers and tanks and 
submarines and aircraft carriers. One of the different parts of 
cyber, it seems to me, is the interrelationship with the 
private sector, and that a cyber attack most likely will come 
on the private sector. The hearing we are having upstairs is 
about cyber in the energy sector. CYBERCOM cannot be simply 
military. There has got to be some, it seems to me, structural 
relationship to the private sector, particularly critical 
infrastructure. Would you agree?
    General Hyten. I think when it comes to cyber, we need to 
focus on the effect that is being created. There has got to be 
a common shared situational awareness in the cyber domain of 
what is going on. But the action to respond to whatever the 
issue happens to be has to be what the threat is and what that 
threat is trying to create in terms of harm to the United 
States. If it is criminal, then that is the Homeland Security 
side. If it is a military action against the United States, 
then it is the Cyber Command side. But the situational 
awareness has to be common.
    Senator King. But the defensive side of it may often take 
place within the private sector.
    General Hyten. The defensive side may be in the private 
sector. It may be in the private-public sector. It may be in a 
number of different places. But the situational awareness is 
the key.
    Senator King. I am just suggesting that the new CYBERCOM, 
when it is elevated, needs to think more broadly than simply 
within the Pentagon. It has to think in terms of relationships 
to these private sector critical infrastructure. It is not a 
typical guns and tanks analysis because you are dealing with so 
many of these--the threats are in the private sector.
    The nuclear posture review that is going on--I am looking 
forward to the results of that. Are there things we could and 
should be doing now on nuclear command and control? That seems 
to me one of the most serious vulnerabilities.
    General Hyten. It is. We have been a little slow in 
stepping up the hiring for the NC3 center inside the United 
States Air Force. That is now proceeding. But we have the 
resources going to the right place. We are hiring the right 
people, but it is not going to be an overnight solution because 
once you hire new people, they still have to figure out what 
they are going to do so they can move forward.
    But we need to be aggressive and have very tight oversight 
of what is going on there to make sure that that does not slow 
down. I think both the Air Force and the Navy have taken it 
seriously now, but it is building up from a very deficient 
state.
    Senator King. I just do not want command and control to be 
lost when we are talking about submarines and bombers.
    General Hyten. Absolutely. It is my number one concern from 
a modernization perspective.
    Senator King. Thank you, General.
    Chairman McCain. Senator Perdue?
    Senator Perdue. Thank you, Chairman.
    General, thank you for being here.
    I want to echo Senator Blumenthal's comments about your 
forthrightness. It is very refreshing. Thank you, sir.
    I want to pursue the nuclear development in Russia just a 
little bit. General Robinson in February of this year told the 
Toronto Star--and I quote--today Russian cruise missiles can 
reach us from ranges we are not used to. No longer do they have 
to enter or come close to North American airspace. That is a 
game changer. Do you agree with that observation, sir?
    General Hyten. I do agree with that.
    Senator Perdue. Sir, in 2012, the National Intelligence 
Council report stated, quote, nuclear ambitions in the United 
States and Russia over the past 20 years have evolved in 
totally opposite directions. Reducing the role of nuclear 
weapons in the United States strategy is a United States 
objective while Russia is pursuing new concepts and 
capabilities for expanding the role of nuclear weapons in its 
security strategy.
    Do you identify with that observation, sir?
    General Hyten. I do, and I cannot help but look at history 
and say when we started to de-emphasize nuclear weapons, our 
adversaries, not just Russia, but all our adversaries, started 
to modernize and build up their nuclear capabilities.
    Senator Perdue. There is some correlation to the North 
Korean development and Iran and China.
    General Hyten. China.
    Senator Perdue. Yes, sir. What we have seen in Russia then, 
by 2020 it is projected, I think, that Russia's nuclear triad--
70 percent of its nuclear forces will be replaced by new 
systems. Sir, if we continue on the current path without a 
major radical change, what percentage of our triad will be 
supported by new systems?
    General Hyten. By what date?
    Senator Perdue. By 2020, which is the estimate in Russia. 
2020, 70 percent of their triad will be new.
    General Hyten. We will not be modernized by 2020.
    Senator Perdue. Right.
    General Hyten. Then I look at the INF Treaty to develop 
nuclear--these are all things they are doing just in the last 4 
years. They violated the INF Treaty. We talked about that. 
Their expanded deployment of air- and sea-launched nuclear 
cruise missiles not limited by the New START--you know, what 
they did in Crimea. They are threatening our allies with 
nuclear attack. They are actually using it in rhetoric openly 
now about intermediate-controlled nuclear acceleration to--
accelerated to get a deceleration in aggressive posture. But 
they have also developed things in the sea, the underwater 
nuclear drone, the new nuclear submarine.
    My question is all of this rhetoric, the buildup in cruise 
missiles, intermediate-range nuclear-tipped cruise missiles, 
and their modernization of their nuclear force--what does all 
this suggest about the role of nuclear weapons in Russia's 
nuclear or their total national security strategy?
    General Hyten. It suggests that the nuclear weapons are a 
primary element of their overall national security strategy. 
You have to look at their investment. You look at their 
finances and how much money they are spending in this 
capability and the vast majority of their capability is going 
at strategic forces. That is primarily nuclear but also space 
and cyberspace to a smaller amount. But when you put those 
pieces together, you cannot help but say that that is their 
strategy for national security.
    Senator Perdue. What does that say to us in terms of our 
strategy of de-emphasizing this deterrent that we have had for 
70 years?
    General Hyten. Well, I believe that the last 20 years we 
have de-emphasized nuclear weapons, and that has created an 
imbalance in the approach of our adversaries that we have to 
address. That is why we need to modernize our capabilities 
across the board. We have to meet strength with strength. I 
never want to be able to have to sit down with a potential 
adversary and have a negotiation from a position of weakness.
    Senator Perdue. I agree, sir.
    General Hyten. Ever.
    Senator Perdue. Given that, how long will it take us, given 
the current procedures of acquisition and development to 
modernize the ICBMs over the entire triad?
    General Hyten. Sir, we are talking about a 30-year 
modernization program. We are talking about 15 years of 
development and production, and then modification and support 
as we go into----
    Senator Perdue. What we are really saying--I know that we 
are not in a classified environment, and I look forward to that 
conversation. What we are saying is from the reality today, 
given our past practice, is that from 2020 going forward, 
Russia is in a much more modernized position of acuity than the 
United States, and that will occur over the next 20 to 30 
years. Is that correct?
    General Hyten. Then we will modernize and then we will have 
a modernized capability.
    But the thing about a deterrent capability is it does not 
matter how old it is. It just matters whether it works.
    Senator Perdue. You are confident today that the triad is--
--
    General Hyten. The stuff that we have today will work. The 
question is will it work 10 years from now, 15 years from now, 
20 years from now. That is where the risk comes in. That is why 
modernization has to be a priority. But we are ready today. The 
force is ready today. The force is motivated and understands 
they are the critical element of our Nation's security.
    Senator Perdue. That is comforting.
    I have one last question in my time remaining. You 
addressed it earlier about the helicopter, and I appreciate 
your anger about that, to be candid, sir.
    But we have also got a situation where in modernizing, you 
have to go through 60 stakeholders basically. I think that has 
been documented. You have said we do not move fast enough from 
concept to capability. What can we do to help you? What can you 
do to help us accelerate our ability to be fast?
    General Hyten. To me, the fundamental change that has to be 
is we have to put somebody in charge and just hold them 
accountable and let them go do their job. If they fail, get 
somebody else to go do that job. But we have so many people 
that make decisions. That takes forever to get through the 
process and get everybody to dot the I's and cross the T's and 
make sure everything is okay. It is almost impossible with the 
structure that we have created to go fast.
    That structure was created because of problems in the 
acquisition business. It was created because we had overruns 
and problems in the past. The way we fixed the problem is we 
did not hold somebody accountable. We created a new oversight 
mechanism to make sure that whether it is test or development 
or whatever it is, we have an oversight mechanism to look at 
everything and make sure that it is right. We have got to get 
back to the point where we put somebody in charge and hold them 
accountable.
    Senator Perdue. Well, that is very refreshing, General. 
Thank you for your testimony and your service.
    Thank you, Chairman.
    Chairman McCain. I would point out we made some progress in 
that direction by putting the service chiefs in the position of 
responsibility, but we certainly have a lot more to do.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman McCain.
    Welcome, General Hyten.
    For starters, I want to ask, given the very real budget 
pressures that we find ourselves in, in your professional 
opinion should our priority at this point be modernization of 
our nuclear forces through completion of our life extension 
programs or should we be prioritizing the expansion of our 
nuclear forces with brand new weapon designs at this juncture?
    General Hyten. Are you talking about the nuclear weapons 
themselves or the----
    Senator Heinrich. Not the personnel. The weapons 
themselves.
    General Hyten. The weapons themselves. I think the focus 
has to be always ready, reliable weapons. The priority has to 
be the service life extension before we get to new weapons. But 
fundamentally at some point in the future, we have to be able 
to transition to those new weapons. The labs are very engaged 
in making sure we know exactly what the status is. I think the 
lab directors are some of the most incredible people that I 
have probably ever met, and they give me very good advice about 
how to do that. But the priority has to be the life extension 
first because you always have to be ready, and then when and if 
do we have to modernize and change the structure.
    Senator Heinrich. Well, I share your sentiments about the 
lab directors. We had a good briefing with them recently.
    Do you want to say anything else about the sort of sequence 
of the LEPs [Life Extension Programs] to ensure that we 
continue to have the near-term risk mitigated, or would you 
rather save that for another setting?
    General Hyten. I think I would like to save that for a 
closed session.
    Senator Heinrich. That is fine.
    Let us go on to talk a little bit about New START. What are 
the defense and intelligence benefits of the inspections, the 
database, the unique identifiers of Russia's strategic nuclear 
forces that we have secured through that arrangement? What 
would be the implications if those provisions went away?
    General Hyten. I cannot give you the details of what we 
learned in this forum, but what I can say at an unclassified 
level is that we get huge value from a bilateral verifiable 
treaty that allows us to see exactly what our adversaries are 
doing from a strategic weapons perspective. Now, the thing 
about a bilateral verifiable treaty is they also get that kind 
of insight from us. That always has to be part of the 
calculation as you go through.
    But we have an understanding of exactly what those 
capabilities are. They have those understandings of what our 
capabilities are. I think when they look at them, they get an 
assessment of the readiness of our force and the ability to 
provide a deterrent. I think that is a powerful message, and we 
get a message in return.
    Senator Heinrich. Do you think that both sides obviously 
get a little bit of a window into intent and posture that 
mitigates risk so that unintended consequences do not lead to 
an unnecessary escalation?
    General Hyten. Absolutely. I think every time that--well, I 
will just say when you walk in and you see a nuclear weapon for 
real and you see the readiness of the force to do that, you do 
not want that to be employed against you. That is an element of 
deterrence that is I think one of the most powerful elements of 
deterrence there is. You actually have to see it to embrace it. 
When the Russians see it, when we see it when we go there, that 
helps the deterrent posture across the globe.
    Senator Heinrich. Yes. I have to say I think that is a very 
insightful comment, and I would encourage all of my colleagues 
to make the effort to see our deterrent up close and personal. 
It is a very sobering impact that that has, and as somebody 
whose father lived through some of the test phases, I think the 
closer people can come to seeing the reality of that, I think 
the better their decisions will be made down the road.
    I want to ask you one last question before my time expires. 
Los Alamos Lab is the designated center of excellence for 
plutonium research. In your view, does our current strategy 
maintain the critical facilities and the capabilities for 
plutonium technology? Are we on schedule to meet the required 
production of plutonium pits by the late 2020s?
    General Hyten. The answer is yes, but I have concerns about 
the requirement in the late 2020s. I cannot remember if the 
number is classified. I just will not say the number.
    Senator Heinrich. That is fine.
    But the focus on those facilities needs to be acute.
    General Hyten. The focus on that facility has to be there 
all the time. In the near term, I am very comfortable with 
where we are. It is really 10-15 years from now that I have 
concern about maintaining the necessary capability to generate 
what we need for weapons.
    Senator Heinrich. Thank you, Mr. Chairman. I will yield 
back.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General Hyten, thank you for being here, and thank you for 
wearing that Carolina blue shirt. The Tar Heels wore it last 
night when they won the national championship or a similar 
color.
    General Hyten. I am glad I could help you out, Senator.
    Chairman McCain. It is breaking news.
    [Laughter.]
    Senator Tillis. I wanted to really follow on to some 
questions that I think Senator Perdue got to at the end of it 
and it really made me think about asking you when you responded 
to the question from Senator Blumenthal regarding the 
helicopters. You know, we have got an acquisition environment 
now across all of DOD that thinks it is okay to take 10 years 
and 700 pages to spec the next generation handgun, fairly 
simple. The kind of weapons you are talking about are slightly 
more complicated.
    I would like to talk more about things that you would like 
for us to consider in terms of authorities or constraints that 
we have placed on you or the Department to really get to the 
root causes of some of these problems and delays that are very 
costly and, at the end of the day, threaten our national 
security.
    General Hyten. It is interesting for me. I started off in 
the acquisition business and then I went into operations, and I 
was happily an operator for almost 2 decades. Then the Air 
Force called me back in to be in acquisition again as a two-
star.
    I came back in, and there were all these things that were 
broken. The first thing I did is I read the federal acquisition 
regulations. I actually read them. It was quite painful, but I 
read them. Then I read the JCIDS process for requirements, the 
DOD instruction that talks about--the chairman's instruction 
that talks about how you do requirements.
    What struck me as interesting is the law, the regulations, 
and the policy that has been put in place for requirements and 
acquisition actually allows you to be as streamlined as you 
want to be. It is all written right there. It is legal. You can 
do all those things. We just have chosen to implement a process 
that is not responsive.
    Senator Tillis. How do we fix that?
    General Hyten. I think what we have to do is you have to 
eliminate a lot of the bureaucracy that is in the middle.
    Senator Tillis. Who is that on?
    General Hyten. I think most of it is in--well, I will just 
describe from my perspective the way it was built. The way it 
was built was first we said we are going reform acquisition 
with the Defense Acquisition Workforce Improvement Act, and 
that was about 25 years ago. We said we are going to have a 
streamlined authority from a program director to a program 
executive officer to a service acquisition executive to a 
defense acquisition executive. At that time, those staffs were 
very small. In fact, the PEO staffs, the program executive 
officer's staffs, were in some cases 9 to 14 people.
    But then the OSD [Office of the Secretary of Defense] staff 
grew, and then the service staff had to grow to match the OSD 
staff. Then the PEO [Program Executive Office] staff had to 
grow to match the service staff. Then the program office had to 
grow in order to match those pieces.
    To me, you have to take every one of those and cut it out 
and go back to what was the intent of the law 25 years ago, 
which is the chain of command is the program director to the 
PEO, to the SAE [Service Acquisition Executive], to the DAE 
[Defense Acquisition Executive], and nobody else can get in 
between.
    Senator Tillis. Do you see any evidence that that is being 
addressed seriously?
    General Hyten. No, sir.
    Senator Tillis. Without that, then our modernization, the 
things that we are doing for service extension, they all suffer 
because there is an inherent cost in delay in new capabilities. 
Is that correct?
    General Hyten. That is correct.
    Senator Tillis. Somebody needs to own that. Actually 
somebody somewhere in these organizations--they need to own it. 
It is remarkable to me in just the 2 years that I have been 
here that we are having the same circular discussions at the 
expense of you being able to do your job even better than you 
are already doing it.
    General Hyten. The other thing I will point is we also need 
stable budgets.
    Senator Tillis. Well, I agree. That is where I think we 
have become the root cause of the problem because if you are 
making long-term investments and we are living paycheck to 
paycheck through 1-year CRs and we consider that success, we 
are a part of that problem.
    But it would really help us I think to get some incites 
into exactly what you talked about. We will follow up with your 
office.
    The last question I had--and it just reminded me based on 
something you said earlier about you have certain weapons that 
have reached their end of life or appear to. There were some 
people in the prior administration who were concerned that that 
maybe we were moving too quickly to decommission certain 
weapons. I thought I heard from you all that in fact they had 
reached their usable life, and if you did not decommission 
them, that there was just going to be additional cost and risk 
in maintaining them. Is that still a problem?
    General Hyten. I do not think it is a problem. We have a 
significant weapons inventory. When we get down to 1,550 
accountable warheads, we have significant warheads in the 
inventory to allow us to do that now and for the foreseeable 
future. I supported the decommissioning of those weapons. My 
predecessor did as well just because we have a number that we 
have to meet and we have the capabilities that were needed to 
meet it. We do not have to walk down any further.
    Senator Tillis. Thank you. I look forward to the hearing 
tomorrow.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General, thank you for your testimony and your service and 
your frank assessment on some of these issues.
    I appreciate your written testimony focusing on missile 
defense, and I would like to dig into some of those issues this 
morning.
    It is when, not if that North Korea is going to be able to 
range the continental United States with an intercontinental 
ballistic nuclear missile. Is that not correct?
    General Hyten. I believe it is, sir. I think they already 
have the capability to deploy an intercontinental ballistic 
missile. The question is when will they be able to mate a 
nuclear weapon to it.
    Senator Sullivan. It is going to happen. We have classified 
estimates of when it is going to happen, but you can say 
publicly that is going to happen.
    General Hyten. Yes. I will show you the dates the 
intelligence community predicts that it will happen when we 
talk tomorrow. It is fairly broad, but I will show you those 
dates.
    Senator Sullivan. One of my concerns has been if we know 
that that is going to happen, which we do, and the day that 
that does become public that they can do that, I think there is 
going to be a big demand that will be on the front page of all 
the newspapers and magazines that the leader of North Korea can 
range Chicago or Miami or New York City with a nuke. There will 
be a lot of demands to do something immediately because of 
that.
    If we know that is happening, it is my view that we should 
be focusing a lot on missile defense to make sure that we will 
have a 99.9 percent chance of shooting one or two or three of 
those down and be able to say publicly if you do do that, we 
will retaliate massively. That will buy whoever is in the White 
House some time.
    We talk about sooner. I think it is sooner rather than 
later. Can you give the committee a sense of why the date, 
February 11th, was so important in terms of this very troubling 
issue?
    General Hyten. Thank you, Senator. I am a big supporter of 
missile defense. I have been for my whole career.
    But February 11th was a very important date because that is 
the date----
    Senator Sullivan. February 11th of this year.
    General Hyten. Of this year. The North Koreans launched a 
new, solid, medium-range ballistic missile off a new 
transporter-erector-launcher. They published pictures for the 
entire world to see out of a place we had never seen before. 
That showed a new technology, a new North Korean capability to 
employ a very challenging technology for us because a liquid 
missile has----
    Senator Sullivan. Liquid fuel you are talking about.
    General Hyten. A liquid fueled----
    Senator Sullivan. Versus solid fuel.
    General Hyten.--versus solid has to be stacked, fueled. It 
takes time and we can watch. A solid rocket can be rolled out 
and launched at a moment's notice. If you noticed our history 
of building ballistic missiles, in the early days we built 
liquid fueled rockets, and we had some challenges because 
liquid fuel is a dangerous thing to try to keep ready and on 
alert. A solid is a much better solution. All of our inventory 
now is solids.
    Senator Sullivan. That was a major advancement by North 
Korea.
    General Hyten. It was. They moved what was demonstrated at 
sea onto land, onto a new launcher, and did it in a very quick 
way.
    Senator Sullivan. Let me ask you a related question. You 
talked about the history of our programs in terms of rockets. 
Do you think there is a culture that we have now with regard to 
missile defense? We had a provision in the NDAA last year that 
required the Missile Defense Agency to test at least once a 
year--try to test at least once a year. Do you believe we have 
a culture that focuses too much on always having successful 
operations in terms of testing? Why is it important to also 
allow us to fail?
    General Hyten. I think I have become part of that problem 
too because when Admiral Sering tests, I am either on the phone 
or waiting for that email that said did it work, did it work, 
did it work. That fundamentally creates the wrong kind of test 
environment.
    If you look at what North Korea is doing, test/fail, test/
fail. I look at what I did when I was a younger officer in the 
space business. That is how you go fast. Von Braun in the early 
days of the rocket business--he had a 60 percent failure rate, 
maybe the greatest rocket scientist of all time. Can you 
imagine, if Admiral Sering in the Missile Defense Agency had a 
60 percent failure rate, what the newspapers would say? In 
reality, we should be asking was that a successful test. Did we 
learn what we needed to do to advance the system? Are we 
testing fast enough? Because North Korea is going fast, test/
fail, test/fail, test/succeed, and they are learning. You can 
see them learning because that is the way you do the rocket 
business.
    Senator Sullivan. You think we should be doing at least 
testing once a year? Can we help with regard to that narrative 
and culture to make sure you are learning but not always having 
to make sure it is, quote/unquote, a successful test? Can a 
test that does not hit the target still be a successful test?
    General Hyten. In many case, we will create conditions 
where we do not want to hit the target, and then somehow it 
will still be portrayed as a failure. But we need to understand 
how long the interceptor can fly. We need to understand various 
things about a test. A test program is not just about hitting 
the target. Ultimately, the system is about hitting the target, 
and we have to learn fast as we go through that.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    General, it is good to see you. Thank you for your service. 
Thank you for being here. I enjoyed our visiting last month 
about the priorities for strategic deterrence and how to 
improve our capacities going forward.
    I want to focus a few minutes on questions involving space, 
which is one of the topics you and I discussed. Last week, your 
deputy, Vice Admiral Richard, testified before a Space Security 
Conference about offensive space capabilities and weapons that 
are being developed by China and Russia. He said that, quote, 
while we are not at war in space, I do not think we can say we 
are exactly at peace either. With rapidly growing threats to 
our space systems, as well as the threat of a degraded space 
environment, we must prepare for a conflict that extends into 
space.
    General, in your judgment, how significant is the threat to 
our space-based assets, and what would the impact be to our 
operations if they were degraded?
    General Hyten. It is significant and it is growing. You 
have to ask yourself why we have adversaries that are building 
weapons in space, weapons that can deploy into space, weapons 
that can jam our satellites, weapons that can jam GPS [Global 
Positioning System]. Why are they building that entire 
infrastructure? It is not because they are interested in the 
peaceful use of outer space. It is because they are looking to 
threaten the United States, and they have watched us for the 
last 20-plus years, ever since Desert Storm. They have watched 
us employ space to create a fundamental asymmetric advantage on 
every battlefield we are in. They understand if they are ever 
in a conflict with us, if they cannot challenge that advantage, 
they have a significant potential to lose. That is why they are 
committing such a huge amount of their national treasure to 
building those kind of weapons and capabilities.
    Our job is to make sure that we can always respond, always 
defend ourselves, always make sure that the asymmetric 
advantage that we have built over the years can be maintained 
in any conflict. We have to do that.
    Now, we hope to deter that conflict by demonstrating that 
to our adversaries, but nonetheless, if it does extend into 
space, we have to be ready to fight it.
    Senator Cruz. To what extent does our weapons targeting and 
navigation depend upon active GPS and live satellites?
    General Hyten. You know, it is interesting. The first space 
war is often referred to as the Desert Storm, the first Gulf 
War. But in that war, very few precision munitions--in fact, no 
precision munitions were dropped with GPS guidance. The only 
precision munitions were laser-guided munitions. Everybody 
remembers the video on television from that.
    But now almost every weapon we drop is a GPS-guided weapon. 
Almost our entire force structure is built on GPS guidance as 
we go through that. Our dropping of logistics off of aircraft 
are GPS-guided air drop systems now. The timing system for many 
of our weapons is GPS. Our artillery systems are guided by GPS. 
The guided multiple launcher rocket systems, the MLRS [Multiple 
Launch Rocket System], is a GPS-guided system in the Army. The 
Navy systems are GPS-guided. We have basically taken that huge 
advantage.
    In the future, we have to look at precision navigation and 
timing as a mission and build a resilience into that 
architecture, as well as defending GPS on orbit.
    Senator Cruz. What failsafes are there in the event of GPS 
or other satellite systems going down for our weapon systems 
still being able to operate, or for that matter, to what extent 
are our troops drilling in a no-satellite environment regarding 
navigation or weapon systems or otherwise?
    General Hyten. About 6 years ago, the Air Force did a study 
called a Day Without Space, and in that, they basically went to 
Nellis and on the range took GPS and satellite communications 
away from the aviators. It was not good. We were not ready to 
do that.
    But since that time, we have basically relearned how to 
operate in a GPS-denied environment, in a SATCOM-denied 
environment. We actually have a lot of those capabilities built 
in. We have the ability to use inertial navigation systems. We 
have the ability to use a compass and a map. Maybe we were 
spoiled because space was a benign environment. GPS was always 
there, and so we just assumed that it was going to be there.
    We cannot assume that anymore. We have to train for that. 
We have to train in all services and then build resilient 
systems to make sure that we have the capability to fight in 
any situation.
    Senator Cruz. Russia's aerospace forces are potentially 
working to deploy an anti-satellite weapon on its interceptor 
aircraft. A VKF [Russia's Aerospace Forces] squadron commander 
was quoted as saying, quote, a new missile is being developed 
for this aircraft capable of destroying targets in near space.
    General, how realistic is the threat to our satellites from 
Russia, and how should the United States respond to that 
threat?
    General Hyten. The threat from China is actually more near-
term than Russia. I will show you the specifics tomorrow in the 
closed hearing of what those threats are.
    But I can tell you that it is real and they would not be 
committing resources to building that if they did not have some 
intent to use it in a conflict. When you see statements by 
Russian officers and Russian leaders about building 
capabilities to do that, I mean, why would they do that unless 
they were sending a message?
    Senator Cruz. What should we be doing about it?
    General Hyten. Number one, we have to always defend 
ourselves. We have to build the ability to defend ourselves 
against any of those threats. Number two, we have to build an 
offensive capability to challenge their capabilities in space 
as well. We will talk about what we are doing in that in the 
closed hearing tomorrow as well, Senator.
    Senator Cruz. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. General, thanks very much, and we look 
forward to tomorrow. Thank you for a very informative and 
helpful and important hearing. Thank you.
    We are adjourned.
    [Whereupon, at 11:26 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Richard Blumenthal
                             uk submarines
    1. Senator Blumenthal. General Hyten, in 2014, Scotland held an 
independence referendum in which they voted to remain in the UK. When 
the Brexit referendum was held last year, the majority of Scotland did 
not support leaving the EU. Just last week, the Scottish Parliament 
held a non-binding vote in favor of holding a second independence 
referendum. Although the actual independence vote may be some time off, 
the leader of the Scottish Parliament would like to hold a vote between 
fall 2018 and spring 2019, while Prime Minister Theresa May would like 
to postpone until after Brexit in 2019. Scotland will need 
Westminster's consent to hold the independence vote. Scotland has 
expressed its desire to be a nuclear weapons-free state if it becomes 
independent. Currently, all four of the UK's Vanguard-class ballistic 
missile submarines are based in Scotland and there is no other base 
able to home port these boats in the UK. The Vanguard-class boats are a 
critical element of NATO deterrence, particularly when we are seeing 
increased Russian submarine patrols. Could this issue have any 
potential implications for the operations of our own ballistic missile 
submarines?
    General Hyten. We do not foresee a decision on Scottish 
independence and/or a nuclear free state impacting U.S. ballistic 
missile submarine operations.

    2. Senator Blumenthal. General Hyten, have you engaged with EUCOM 
or the UK regarding the basing of the UK's ballistic missile submarines 
or discussed contingency operations to address this potential issue?
    General Hyten. Yes, my staff and I conduct regular dialogues with 
the UK Ministry of Defense with respect to a wide range of contingency 
operations.
                          inf treaty violation
    3. Senator Blumenthal. General Hyten, Russia has deployed two 
brigades of ground-launched cruise missiles that United States 
officials say violate the INF Treaty (Intermediate-Range Nuclear Forces 
Treaty). The INF Treaty was signed in 1987 to eliminate land-based 
intermediate and short-range ballistic and cruise missiles (310-3,400 
mile range). The Obama Administration claimed since 2014 that Russia 
had been developing this ground-launched cruise missile in violation of 
the INF Treaty, and Russia has continued to deny wrongdoing. By not 
voluntarily withdrawing from the treaty, and violating it instead, 
Russia's actions put the United States in a precarious predicament. 
Does the United States remain bound by the treaty when Russia is 
clearly not abiding by the terms, do we withdraw, or do we respond with 
sanctions or other countermeasures? Last month at the EUCOM hearing, 
GEN Scaparrotti told me that he agreed that Russia had violated the INF 
Treaty and had provided internal recommendations to DOD. This past 
Friday at a joint news conference with the British Defense Secretary, 
Secretary Mattis said, ``On the INF issue, we're in consultation with 
our allies and we are still formulating a way ahead. In fact, it will 
be addressed, I think, very, very soon as a matter of highest-level 
concern.'' In what ways can the United States pressure Russia to return 
or come into compliance? How can we convince Russia that violating this 
treaty is not worth the cost?
    General Hyten. We have no doubts that Russia possesses and is 
deploying weapons in direct violation of the INF Treaty. Russia shows 
no signs of coming back into compliance with its obligations. The 
status quo is untenable and the United States must consider all 
possibilities including a world without the INF Treaty Our nuclear 
modernization efforts are central to minimizing any advantages Russia 
seeks through violation of the INF Treaty The United States is also 
pursuing a strategy to improve coordination and integration among NATO 
states, while USSTRATCOM and USEUCOM work collaboratively to enhance 
integration and planning to mitigate any threats posed by this INF 
violation.

    4. Senator Blumenthal. General Hyten, how can we best protect our 
troops and allies from these deployed missiles without escalating the 
situation and while staying in compliance with the INF Treaty?
    General Hyten. The Department is examining this issue and potential 
response options within the series of ongoing strategy reviews In 
January, the President ordered a Ballistic Missile Defense Review to 
identify ways of strengthening missile-defense capabilities, 
rebalancing Homeland and theater defense priorities, and highlighting 
priority funding areas. How to best protect U.S. equities along with 
those of our allies from emerging threats such as these missiles will 
be considered in the review.

    5. Senator Blumenthal. General Hyten, how does Russia's violation 
of the INF Treaty impact efforts to renew New START (New Strategic Arms 
Reduction Treaty), which reduces Russia and our strategic nuclear 
arsenals? Do you believe we should continue to implement this treaty?
    General Hyten. It is too early to consider extending New START. We 
are focused this year on completing our reductions under the Treaty and 
ensuring Russia meets its obligations by February 2018 when the 
Treaty's limits go into effect Russia remains in compliance with New 
START and I support continued implementation. New START continues to 
provide predictability of, and transparency into, Russia's strategic 
forces However, I anticipate Russia's violation of its international 
commitments such as the INF Treaty will be a consideration in any 
future arms control discussions.

                            huey replacement
    6. Senator Blumenthal. General Hyten, at the hearing you testified 
that STRATCOM had a request for forces in to provide a temporary 
replacement. You pulled that request from STRATCOM because you wanted 
``all hands on deck to get a new helicopter into the force as soon as 
possible.'' You went on to note, ``I can't tell you how upset I was 
when I pulled the RFF and shortly thereafter was told there would be a 
delay in the program. That's just unacceptable to me.'' Can you please 
explain why this request was rescinded?
    General Hyten. My rescission of the Request For Forces (RFF) was 
not intended to diminish the need for a replacement helicopter, but to 
support a focused effort on fielding a replacement aircraft as soon as 
possible As I stated in my hearing, this should be a simple and 
straight forward acquisition; I will continue to monitor this closely
                               __________
              Questions Submitted by Senator Joe Donnelly
                    conventional prompt strike (cps)
    7. Senator Donnelly. General Hyten, you dedicated a significant 
portion of your written testimony to efforts by both the U.S. and our 
adversaries to develop hypersonic capabilities. Is the United States 
leading the way in the development of hypersonic glide vehicles, or are 
we behind the curve relative to countries like Russia and China?
    General Hyten. [Deleted.]

    8. Senator Donnelly. General Hyten, the conventional prompt strike 
activity is developing a non-nuclear capability for U.S. forces to hit 
highly defended, time-critical targets. In your testimony for this 
hearing, you wrote, ``Having a hypersonic strike capability enhances 
our overall deterrent posture by providing the President additional 
options to hold targets at risk that do not justify crossing the 
nuclear threshold.'' Do you see value in addressing conventional prompt 
strike in the upcoming nuclear posture review or other similar 
dialogues on deterrence?
    General Hyten. It would be premature for me to comment on the 
issues or scope of the Nuclear Posture Review (NPR). However, I see 
utility in the role conventional prompt strike (CPS) capabilities 
provide towards enhancing U.S. deterrence or influencing strategic 
stability. Ongoing Departmental discussions on CPS policy and 
operations will continue and may be informed by the NPR or broader 
strategy reviews.

    9. Senator Donnelly. General Hyten, you stated in your written 
testimony that STRATCOM foresees an operational need for CPS by the 
mid-2020s. What factors are driving that timeline from your 
perspective?
    General Hyten. Proliferation of advanced air defense systems, 
development of long-range strike weapons, coupled with a long standing 
Combatant Command requirement to hold time sensitive targets at risk 
necessitate delivery of an operational CPS capability as soon as 
practical.

    10. Senator Donnelly. General Hyten, would a sea-based CPS 
capability meet STRATCOM's operational needs?
    General Hyten. Yes.

    11. Senator Donnelly. General Hyten, what are the advantages and 
disadvantages from your perspective of a sea-based versus land-based 
CPS capability?
    General Hyten. A flexible mix of sea and land-based capabilities 
offers important deterrent and warfighting attributes Land-based weapon 
systems provide a responsive, visible and persistent capability to 
address challenging targets Sea-based option allows global presence and 
an ability to operate in a contested environment to hold additional 
targets at risk.
                               __________
              Questions Submitted by Senator Mazie Hirono
             partnering with industry for space technology
    12. Senator Hirono. General Hyten, we continue to see rapid growth 
in both the commercial and government space sector. U.S. Strategic 
Command has been successful in developing a cooperative research and 
development agreement with six commercial industry satellite systems 
and services operators to develop new space technologies. What 
additional ways can the DOD leverage the commercial sector capabilities 
in the growth of space technologies and advanced resources?
    General Hyten. To ensure our military can dominate in all phases of 
conflict, we need to think bigger and go faster to address rapid 
improvements in space and we can best do this by harnessing industry 
Low cost / rapid launch services, big data analytics, visualization 
tool and algorithm development, artificial intelligence, self-
protecting networks, space debris removal, and satellite servicing are 
all areas ripe for further commercial sector partnering opportunities.
                      maui space surveillance site
    13. Senator Hirono. General Hyten, the Maui Space Surveillance Site 
combines operational satellite tracking facilities with a research and 
development facility. It is a unique facility with state-of-the-art 
electro-optical capabilities. How does this facility impact national 
security objectives and how important is it to keep this facility 
modernized and capable can this facility grow and modernize to retain 
the military advantage in the ever changing threat picture?
    General Hyten. The Maui Space Surveillance Site (MSSS) is an 
integral part of the Space Surveillance Network (SSN) designed to 
detect, identify, catalogue and track on-orbit man-made objects to 
facilitate safety of flight operations and/or provide warning of 
hostile actions in space MSSS hosts a unique mix of operational and 
research assets provisioned with visible and infrared sensors, adaptive 
optics, and telescopes to collect imaging and signature date on objects 
ranging from near-earth to deep space The geographic location and 
unique SSN capabilities provided by MSSS mandate continued sustainment 
and modernization of the facility.
                         threat of north korea
    14. Senator Hirono. General Hyten, it is clear that North Korea is 
committed to developing long-range missile technology. Most recently 
North Korea tested a solid-propellant SLBM variant. These types of 
weapons have very few indications and warnings. How well is the United 
States protected from the North Korean threat? What future requirements 
would you identify as necessary to defend the United States and in 
particular Hawaii from these types of threats?
    General Hyten. I believe we are postured to defeat a limited ICBM 
threat from North Korea with our current sensor architecture and 
Ground-based Midcourse Defense System In the future, as threats from 
North Korea evolve and grow more complex, continued and predictable 
funding is needed for persistent sensor tracking and advanced 
discrimination improvements; improved Ground Based Interceptor 
capacity; and programmed production of next generation Aegis BMD 
capable ships and interceptors, such as the Standard Missile (SM) IIA & 
SM-6. Finally, we need to continually invest in all pillars of missile 
defense (including passive defense, offensive operations, and command 
and control) to holistically address the evolving ballistic missile 
threats. Our priorities are improved sensors, improved kill vehicles, 
then increased capacity.
                        relationship with allies
    15. Senator Hirono. General Hyten, relationships with allies in the 
Asia Pacific are important to our overall national security in that 
region. Both Japan and Korea have Aegis equipped ships and the SM-3 
Block II missile is being developed in cooperation with Japan. How 
important are cooperative efforts such as this to improve missile 
defense capabilities? As space becomes more and more important to the 
United States and our allies, how important is cooperation in this 
arena?
    General Hyten. These activities are very important; one of the best 
ways we can mitigate potential adversary missile programs is to 
establish cooperative air and missile defense efforts with our partners 
and allies Moreover, improved cooperation in the space domain with 
foreign nations and commercial companies will preserve the space 
environment for the responsible, peaceful, and safe use for all.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                               new start
    16. Senator Warren. General Hyten, Russian President Vladimir Putin 
is reported to have raised the idea of extending the New START beyond 
its current end date. But some have called for the United States to 
build and deploy new nuclear weapons, potentially even above New START 
levels. Do you believe that this would adversely affect United States 
national security and strategic stability with Russia?
    General Hyten. It is too early to consider extending New START. We 
are focused this year on completing our reductions under the Treaty and 
ensuring Russia meets its obligations by February 2018 when the 
Treaty's limits go into effect Russia remains in compliance with New 
START and I support continued implementation. New START continues to 
provide predictability of, and transparency into, Russia's strategic 
forces However, I anticipate Russia's violation of its international 
commitments such as the INF Treaty will be a consideration in any 
future arms control discussions.

    17. Senator Warren. General Hyten, the United States has said that 
it will retain no more than 60 nuclear-capable deployed bombers in 
order to comply with New START. Yet the Air Force plans to acquire 100 
B-21 bombers. Will only 60 of them be nuclear-capable, or are we 
planning for a fleet that will violate New START?
    General Hyten. Fielding of a nuclear capable B-21 does not 
represent a violation of New START. The planned fleet of 100 B-21s will 
be both conventional and nuclear capable. The New START provides each 
side with the flexibility to alter its force mix of strategic offensive 
arms to stay within applicable treaty limits. The United States will 
adjust its force structure as necessary to meet its arms control 
obligations
                                  lrso
    18. Senator Warren. General Hyten, you testified that the proposed 
new nuclear-armed cruise missile, the Long-Range Stand-Off weapon 
(LRSO), is not destabilizing because it replaces an existing weapon 
system. However, the current nuclear-armed Air-Launched Cruise Missile 
(ALCM) was only deployed on the B-52, not the B-2. In contrast, the Air 
Force plans to deploy LRSO on both its stealthy and non-stealthy 
bombers. Will our adversaries consider the deployment of a new stealthy 
bomber with a new stealthy nuclear-armed cruise missile to be a new and 
potentially destabilizing development?
    General Hyten. No, this development does not represent a 
significant change to an adversary's strategic decision calculus. Air-
launched cruise missiles are not destabilizing because they do not pose 
the threat of disarming first strikes against Russia or China, 
regardless of whether they are deployed on penetrating or non-
penetrating bombers The AGM-86B Air-Launched Cruise Missile, which has 
been deployed since 1982, and the low observable Advanced Cruise 
Missile in-service from 1990-2012, significantly complicated adversary 
air defense problems and posed a key element of the unsolvable dilemma 
essential to maintaining strategic stability Failure to recapitalize 
our bomber and cruise missile fleet in the face of continued 
advancements in integrated air defense systems (IADS) negates the 
effectiveness of the air leg of the Triad and simplifies the 
adversary's problem set. This, in turn, would incentivize a potential 
adversary to develop capabilities to degrade or defeat our remaining 
legs--an outcome which could be viewed as destabilizing on the face.

    19. Senator Warren. General Hyten, if China was developing a new, 
stealthy long-range bomber in combination with a stealthy long-range 
nuclear-armed cruise missile, would the United States consider that 
development destabilizing?
    General Hyten. Such a development would not impact strategic 
stability because it would not provide China the capability to conduct 
a disarming first strike against the United States.

    20. Senator Warren. General Hyten, the Air Force plans to produce 
LRSO cruise missiles in numbers roughly equal to the size of the 
current ALCM arsenal. The ALCM was fielded in the early 1980s when 
there was little conventional long-range standoff capability for 
bombers. Since then, several conventional standoff weapons have been 
introduced, and others have been significantly enhanced. Given these 
developments, can some of the LRSO scenarios be covered by conventional 
systems?
    General Hyten. The nuclear cruise missile force is sized to meet 
enduring strategic deterrence requirements; the unique contributions 
provided by a nuclear cruise missile (range, penetrating capability and 
destructive power) cannot be replicated using conventional weapons LRSO 
provides flexible options across the full range of threats, provides 
the ability to respond rapidly to technical challenges in other legs of 
the triad, and is a visible United States signal to deter adversaries 
and assure allies.
                          strategic stability
    21. Senator Warren. General Hyten, last week, you indicated that 
Strategic Command programs have made the world more stable. Do you 
believe that State Department and other international programs also 
contribute to international stability?
    General Hyten. Yes, military commanders rely on a whole-of-
government approach to achieve national security objectives, including 
active foreign engagement from the Department of State.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 6, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

   UNITED STATES SOUTHERN COMMAND AND UNITED STATES NORTHERN COMMAND

    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Sasse, Reed, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

                 SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    Since there is going to be a vote starting at 11:00, I 
believe we will try to expedite the process here, and I will 
forgo my opening statement except to welcome the witnesses and 
ask Senator Reed if he has an opening statement so we could get 
right through the witnesses after he completes that.
    Senator Reed. I am tempted to say yes, but smart enough to 
say no.
    Would you please include my opening statement in the 
record, Mr. Chairman?
    Chairman McCain. Both moving and important opening 
statements will be made part of the record.
    [The prepared opening statements of Chairman McCain and 
Senator Reed follows:]

           prepared opening statement by senator john mccain
    Washington, D.C.--U.S. Senator John McCain (R-AZ), Chairman of the 
Senate Armed Services Committee, delivered the following opening 
statement today at a hearing on the posture of U.S. Northern Command, 
U.S. Southern Command and U.S. Strategic Command:
    ``The Committee meets today to receive testimony on the posture of 
U.S. Northern Command, Southern Command, and Strategic Command to 
inform its review of the Defense Authorization Request for Fiscal Year 
2017. I'd like to extend our appreciation to the witnesses for their 
many years of distinguished service and to the men and women of our 
military who defend our Nation every day.
    ``Admiral Tidd, this is your first time testifying before the 
Committee as the Commander of U.S. Southern Command. After nearly two 
months in command, I look forward to your assessment of the challenges 
within your area of responsibility as well as your strategy to confront 
them. It's clear that you face a daunting array of security and 
governance challenges in the region, yet SOUTHCOM continues to suffer 
from persistent resource shortfalls that undermine efforts to confront 
these challenges. I hope you will outline for the committee where you 
are being forced to accept the greatest risk as a result of these 
shortfalls.
    ``Of particular concern is the deteriorating situation in Central 
America, where feeble governance, endemic corruption, and weak security 
institutions are allowing transnational criminal organizations to 
operate with impunity. We of course must improve and adequately 
resource our drug interdiction strategy to combat these groups, but we 
must also renew our efforts to combat the real driver of drug 
trafficking--the demand here at home. The demand for the drugs that 
these groups traffic-heroin, methamphetamine, and cocaine--is too high 
and the profits too great to dissuade these criminals from their 
illicit actions.
    ``To be clear, the threat posed by these groups extends beyond the 
drugs they smuggle into our communities. The smuggling routes they 
control are also used to traffic weapons, bulk cash, and human beings. 
And as your predecessor General Kelly testified before this committee, 
`terrorist organizations could seek to leverage those same smuggling 
routes to move operatives with intent to cause grave harm to our 
citizens or even bring weapons of mass destruction into the United 
States.'
    ``On a more positive note, I am interested in your assessment of 
the ongoing talks in Colombia, and how you believe the United States 
can best support our partners as they enter a new and likely more 
challenging era. Colombia, once on the cusp of becoming a failed state, 
has emerged from decades of conflict as a stark example of what 
sustained United States support and engagement can achieve. It's 
vitally important that we continue to invest in our relationship during 
this critical period so as not to squander the extraordinary progress 
that has been achieved.
    ``I would like to take a moment recognize the military 
servicemembers conducting detention operations at Guantanamo Bay. Too 
often in the course of debating the future of the detention facility we 
lose sight of the remarkable men and women who serve honorably under 
extraordinarily difficult conditions. Admiral, please convey our 
deepest appreciation for their service and the professionalism they 
display each and every day on behalf of our nation.
    ``Admiral Gortney, I look to you for an update on the current state 
of United States-Mexican security cooperation and opportunities for our 
two nations two to strengthen this vital partnership. While Mexico's 
efforts to combat transnational criminal organizations have resulted in 
notable successes by capturing or killing senior cartel leaders such as 
El Chapo, the security situation remains highly volatile and continues 
to directly impact the security of our southern border. Heroin, largely 
produced in Mexico, continues to ravage communities all across the 
nation and demands a renewed effort to combat this scourge both in our 
streets and also at its source. I also look forward to your assessment 
of the increasing threat posed to the Homeland by the development of 
advanced missiles capable of carrying nuclear payloads by Russia, Iran, 
and North Korea.
    ``Admiral Haney, strategic threats to the United States and its 
allies have increased exponentially in just the few short years since 
you've taken the helm of Strategic Command. While nuclear, cyber, and 
counter-space threats generally have been on the rise, Secretary 
Carter's warning that `we're entering a new strategic era' has great 
implications for STRATCOM.
    ``The `return to great power competition' noted by the Secretary 
means that deterring Russia and China once again assumes primacy in 
your planning and operations. Whatever President Obama may have hoped 
for, the United States can no longer seek to reduce the role of nuclear 
weapons in our national security strategy, or narrow the range of 
contingencies under which we would have to consider their use.
    ``U.S. Strategic Command faces significant near and longer-term 
challenges. In about 15-20 years, U.S. nuclear submarines, ICBMs, air 
launched cruise missiles, heavy bombers, and nuclear-capable tactical 
fighters will have to be withdrawn from operational service, having 
been extended well beyond their original service lives. Modernization 
programs are in place to replace these systems, but there is no slack 
left in the schedule. Today's Congress supports fully the modernization 
of the United States nuclear deterrent. Any reduction in funding over 
the next decade, however, could delay the development of these 
replacement systems, increasing strategic risk at a time when Russia 
and other countries continue to modernize their nuclear capabilities.
    ``Russia, then, is your near term challenge. Russia's aggression in 
Ukraine and destabilizing actions in Syria take place under a nuclear 
shadow. Russia has threatened our NATO allies with nuclear strikes, is 
developing a new nuclear ground-launched cruise missile capable of 
ranging most of Europe, and has fired air- and sea-launched cruise 
missiles against targets in Syria--missiles that could be armed with 
nuclear warheads and flown against European and United States targets. 
So your task, Admiral Haney, is to ensure that Strategic Command is 
prepared to deter Russian nuclear provocations. This requires better 
intelligence about Russian nuclear capabilities and plans, a nuclear 
planning process tied to EUCOM and NATO operations, and a survivable, 
well-exercised, and ready nuclear force.
    ``Finally, as this Committee continues its review of the Goldwater-
Nichols Act, we are interested to hear your views as to whether our 
defense enterprise is organized properly to perform the missions that 
cut across the functional and geographic boundaries we have drawn. We 
also welcome any ideas on reforms we might consider to make our defense 
enterprise more effective without minimizing the vital tasks that must 
be done.''

            prepared opening statement by senator jack reed
    Thank you, Mr. Chairman. I also want to welcome our witnesses, 
General Robinson and Admiral Tidd. Thank you for your many years of 
service. I also want to thank your families, and the many men and women 
who serve in your commands for their commitment to our nation.
    General Robinson, your mission is to protect the Homeland, to deter 
and defeat attacks on the United States, and to support civil 
authorities in mitigating the effects of potential attacks and natural 
disasters. You are also dual-hatted as the Commander of the North 
American Aerospace Defense Command (NORAD), which brings unique 
responsibilities and partnering opportunities with Canada to deter and 
defend against threats to our nations. I look forward to hearing about 
your collaboration with Canada, especially as they prepare to unveil 
their defense review in the coming month.
    You are also responsible for the operation of our Homeland 
ballistic missile defense system. We look forward to hearing about your 
priorities for further improvements to the ground-based missile defense 
system. This is particularly important in light of North Korea's 
missile launches, which are occurring with increased frequency.
    Lastly, your relationship with the military leadership in Mexico, 
along with your collaboration with Admiral Tidd and other federal 
agencies, is critical to promoting security across our southern border. 
A number of problems along that border originate in the SOUTHCOM AOR, 
and efforts to address those problems require a whole-of-government 
approach.
    Admiral Tidd, I am quite concerned that the proposed cuts to the 
budget of non-defense agencies would be devastating to SOUTHCOM's 
mission, which is primarily a counter-narcotics and threat networks 
mission. While SOUTHCOM is focused on the supply of drugs, perhaps the 
larger problem is drug demand in this country. In 2015, more than 
52,000 Americans died from drug overdoses--more people than homicides 
and car crashes combined. We have lost half a million people in the 
last 15 years to the opioid epidemic. My state, Rhode Island, along 
with New Hampshire, West Virginia, and Ohio have been particularly hard 
hit by this epidemic.
    If we are serious about the drug epidemic in this country, we need 
to adequately fund not only fund our crucial military effort in 
SOUTHCOM, but also Health and Human Services, the FBI, the DEA, the 
Coast Guard, the FDA, and all the other agencies that are working to 
ensure the health and safety of the American public. Admiral Tidd, I am 
interested in hearing about how you work with other government agencies 
in your AOR.
    Finally, Admiral Tidd, we are all observing the humanitarian crisis 
in Venezuela and would like your perspective on how much longer the 
regime there can survive and how the crisis might spill over into 
neighboring countries.
    Admiral Tidd, General Robinson, thank you again for your service 
and appearing here today. I look forward to your testimony.

    Chairman McCain. Welcome to the witnesses, Admiral Tidd and 
General Robinson. Please proceed, General Robinson.

 STATEMENT OF GENERAL LORI J. ROBINSON, USAF, COMMANDER, U.S. 
   NORTHERN COMMAND AND COMMANDER, NORTH AMERICAN AEROSPACE 
                        DEFENSE COMMAND

    General Robinson. Good morning, Mr. Chairman, Ranking 
Member Reed, distinguished members of the committee. I 
certainly am honored to be here today, pleased to testify with 
my very, very good friend, Admiral Kurt Tidd.
    North American Aerospace Defense Command (NORAD) and United 
States Northern Command (USNORTHCOM) are two distinct commands, 
but they are unified in a common purpose. Every day, the men 
and women of NORAD and USNORTHCOM, soldiers, sailors, airmen, 
marines, coast guardsmen, and civilians, Americans and 
Canadians, stand ready to defend two great countries, the 
United States and Canada.
    Today our adversaries are seeking ways to extend their 
operational reach into North America and to hold us at risk. 
The men and women of NORAD and U.S. Northern Command stand 
watch, ready to defend against these adversaries. Today we have 
a competitive advantage against them.
    This advantage will not continue in the future, however, if 
we continue to operate under continuing resolutions. I echo the 
Secretary, the Chairman, the service chiefs in saying that 
developing the joint force we need in the future requires an 
actual budget this year. Continuing resolutions do not enable 
continuity of effort. We need an appropriations bill 
unrestricted by sequestration to upgrade our warfighting 
capabilities against threats to us here in the Homeland.
    These adversaries include North Korea, where Kim Jong-un 
continues his provocative behavior. He has conducted nearly 
three times as many ballistic missile tests as his father and 
grandfather did combined. North Korea uses what they learn from 
each test to make improvements to their missile capabilities. 
We are watching them very closely.
    We are also watching Iran as it develops a space program 
with potential dual-use technology.
    NORTHCOM is prepared to counter ballistic missiles should 
North Korea attempt to launch an attack on the United States. 
While I am confident in our ability to defend the Homeland 
today, we must keep improving. We are working in close 
partnership with the Missile Defense Agency to improve our 
sensors and the reliability of our ground-based interceptors.
    Also today, Russian cruise missiles can reach us from 
greater ranges than ever before. No longer do they have to come 
close to North American airspace to hold us at risk. But I am 
also confident in NORAD's layered approach to cruise missile 
defense. But again, we must evolve and we are doing so as our 
adversaries' capabilities increase.
    Senator McCain, at my confirmation hearing, you asked if I 
had ever visited the southwest border. 1 year later, I can tell 
you that I visited our southwest border on foot, by boat, by 
air, in a tunnel, and yes, sir, even on horseback. I have 
gained an appreciation for the incredible variety of terrain 
along the southwest border and how transnational criminal 
organizations and their networks can exploit that terrain.
    I have also stood with my great friend, Kurt, on the 
Guatemalan soil looking north to see firsthand the network 
challenges that SEDENA [Secretariat of National Defense] and 
SEMAR [Secretaria de Marina] face and what they are going to 
strengthen Mexico's southern border.
    To counter these threat networks, NORTHCOM [Northern 
Command] partners with law enforcement agencies, SOUTHCOM 
[Southern Command], other combatant commands, the intelligence 
community, military partners such as SEDENA and SEMAR, all the 
while supporting Secretary Kelly's requests. The men and women 
of NORTHCOM stand united in a common purpose, ready to face the 
threats of the United States and Canada today, and we are 
evolving to face the threats of tomorrow. Sir, we have the 
watch.
    Thank you again for giving me the opportunity to speak, and 
I look forward to your questions.
    [The prepared statement of General Robinson follows:]

             Prepared Statement by General Lori J. Robinson
                              introduction
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to appear before you to 
provide my assessment of the posture and future of United States 
Northern Command (USNORTHCOM) and North American Aerospace Defense 
Command (NORAD). I am here today on behalf of the active soldiers, 
sailors, airmen, marines, coast guardsmen, National Guardsmen, 
Reservists, DOD civilians, and members of the Canadian Armed Forces who 
are the foundation and the future of the defense of the United States 
and Canada. Strengthened by robust relationships with our interagency 
and regional partners, the men and women of USNORTHCOM and NORAD are 
dedicated to defending the United States and Canada; we accept this 
obligation as the most fundamental and enduring of our 
responsibilities.
    USNORTHCOM and NORAD operate in a strategic environment that is as 
ambiguous and dangerous as any in our recent history. Threats to the 
United States and Canada are increasingly global, transregional, all-
domain, and multi-functional in nature. Forged by an indispensable 
partnership, the Commands operate both independently and 
synergistically, conducting complementary missions with a shared 
purpose of common defense. The synergies that exist between the two 
Commands enable us to conduct our missions expeditiously and seamlessly 
in the face of very real threats.
    As those who would do harm to our two countries develop new 
capabilities and harden their intentions, we have never had a greater 
need for agile, responsive capabilities to defend and protect our 
citizens. In the long term, strained resources, competing priorities, 
and emerging threats challenge our ability to meet all of our 
commitments, a dilemma that requires innovative solutions, including 
new ways of cooperating with allies and trusted partners. I believe our 
ability to maintain a resilient and flexible force that can respond in 
a crisis requires prudent and stable funding. As a Combatant Commander, 
I rely on the Services to provide me with ready and capable forces and 
equipment to defend the United States and Canada. While I am grateful 
for the support of this Committee, sequestration and a series of 
Continuing Resolutions have introduced resource uncertainty and 
compelled the Services to prioritize current readiness over end-
strength and modernization, a decision that translates into risk to our 
strategic advantage and technological edge in future conflicts.
    USNORTHCOM and NORAD--two distinct Commands with a common purpose--
remain steadfast in our responsibility to provide for the defense of 
the United States and Canada. Our Commands are working diligently with 
fellow Combatant Commands, our North American neighbors, and our 
interagency partners to defend the United States and Canada in depth.
                         strategic environment
    Today, the strategic environment we face is complex, characterized 
by a growing number of strategically significant actors who represent 
real challenges and risks to the United States and our regional 
partners. Russia, China, North Korea, Iran, and non-nation-state 
violent extremist forces are capable of varied attacks against North 
America in multiple domains, from multiple approaches, and at 
increasingly greater ranges. States and non-state actors have devoted 
significant research and resources to erode our physical standoff and 
decision space. The Homeland is no longer a sanctuary protected by 
oceans and other geography.
    Globalization and access to advanced technology gives a greater 
number of adversaries, both state and non-state entities, the ability 
to reach us conventionally and asymmetrically while obscuring their 
intentions. I believe a range of competitors will confront the United 
States and its partners and interests through intimidation, 
destabilization, and the use of force. The threats to the Homeland 
remain diffuse, less attributable, and increasingly complex. This 
outlook is challenging but not insurmountable, and it serves to 
reinforce the importance of USNORTHCOM and NORAD readiness to adapt and 
evolve to meet the demands of tomorrow.
                                 russia
    In an attempt to retain a sphere of influence in the post-Soviet 
era, Russia continues to exhibit increasingly aggressive behavior, both 
regionally and globally. Despite a declining economy and domestic 
pressures, Vladimir Putin continues to expand and diversify Russia's 
long-range strike capability, including land- and sea-based ballistic 
missiles, cyber weapons, and most recently, a new generation of highly 
precise, conventionally armed cruise missiles that can reach the United 
States and Canada. I know that these advanced capabilities provide a 
range of strike options that Russia could use to hold targets at risk 
in the United States and Canada in a crisis. Russia has chosen to be a 
strategic competitor with the United States, and their capabilities 
present an all-domain threat to USNORTHCOM and NORAD interests.
                                 china
    China's efforts to achieve regional preeminence and undermine U.S. 
influence are a growing concern. Beijing continues to modernize its 
military and pursue an expansion and diversification of its strategic 
forces capable of holding the United States at risk. China has added 
dozens of road-mobile intercontinental ballistic missiles to its 
longstanding force of silo-based intercontinental ballistic missiles 
and has begun operating its first viable class of ballistic missile 
submarines, which adds a long-range, sea-based leg to China's nuclear 
retaliatory capability.
                              north korea
    As part of its decades-long quest for strategic nuclear weapons, 
North Korea continues its provocative, coercive patterns and aggressive 
weapons development activity. 2016 was one of North Korea's most active 
years in terms of nuclear weapon and missile program development in 
pursuit of weaponizing a nuclear ballistic missile capable of reaching 
the United States. Pyongyang completed its fourth and fifth nuclear 
detonations, as well as its second consecutive successful satellite 
launch using an intercontinental ballistic missile-class booster, and 
conducted the nation's first successful tests of an intermediate-range 
ballistic missile and a submarine-launched ballistic missile. In his 
five years as Supreme Leader, Kim Jong Un has conducted nearly three 
times as many ballistic missile tests as his father and grandfather did 
in their combined 63 years in power.
    In 2016, North Korea suffered a series of embarrassing test 
failures, which could lead to some dismissive conclusions about the 
maturity of their development. However, it is Kim Jong Un's willingness 
to accept public failure that worries me the most. In contrast to his 
father, who used missile and nuclear tests primarily to extract 
diplomatic concessions, Kim is pursuing a systematic program to 
develop, test, and field a viable weapon system as a deterrent to a 
regime-ending attack. In many cases, failed tests provide just as much 
insight, if not more, than a successful test.
    Amidst an unprecedented pace of North Korean strategic weapons 
testing, our ability to provide actionable warning continues to 
diminish. North Korea's closed society and robust denial and deception 
capabilities challenge our ability to observe missile and nuclear test 
preparations, a concern that would be exacerbated in crisis or in 
wartime and complicate our ability to defend the United States.
                                  iran
    In contrast to Russia, China, and North Korea, Iran does not 
possess a nuclear weapon. Iran has committed considerable resources to 
a space launch program that has achieved technological milestones that 
could contribute to the development of longer-range missiles including 
intercontinental ballistic missiles. Iranian officials have announced a 
self-imposed 2,000 kilometer limit on missile ranges, providing the 
capability to strike Israel from launch sites in central Iran, but 
insufficient to threaten Western Europe or North America. However, Iran 
is developing advanced missile capabilities and conducting flight tests 
of systems--such as the medium-range missile Iran launched on January 
29th--that incorporate technologies that could be used to develop 
longer range systems. Those advancements could include future 
intercontinental ballistic missile technology capable of holding the 
United States at risk.
                            threat networks
    The emergence of adaptive threat networks introduces a range of 
challenges to the United States and our regional partners. Threat 
networks tend to operate in the seams of society and may traffic in 
licit or illicit goods and services. These networks are sophisticated 
and resilient, joining with other networks around the world and 
engaging in a wide array of threatening activities. The destabilizing 
and corruptive influence of these networks creates vulnerabilities that 
can be exploited by our adversaries and threaten our national security.
    I am concerned by an increasing convergence of activity over threat 
networks resulting in a multi-layered and asymmetric threat to our 
national security. The nexus between transnational criminals and 
transnational terrorists is not an operational one--the two groups do 
not appear to be actively collaborating today to conduct attacks in the 
United States. What concerns me more are the ways the transnational 
terrorists may be able to leverage the pathways established by threat 
networks, especially as their capabilities are diminished from 
operational setbacks overseas.
                          usnorthcom and norad
    USNORTHCOM and NORAD, in collaboration with key stakeholders, 
defend the United States and Canada from threats and aggression through 
an adaptive, flexible, and resilient defense enterprise underpinned by 
strong relationships, ready Commands, and responsive capabilities to 
fulfill the Commands' roles in the shared responsibility of the defense 
of our nations. Our combined and complementary USNORTHCOM and NORAD 
defensive capabilities must counter threats across all domains and be 
able to adapt and outpace evolving threats. We are proud of the 
histories of our Commands, but we will not rest there. Looking to the 
future, we will continue to adapt and evolve to meet ever-changing 
threats.
                            homeland defense
Ballistic Missile Defense
    One of the prominent aspects of my role as the Commander of 
USNORTHCOM is our Ballistic Missile Defense mission. North Korea's 
unprecedented level of nuclear testing and ballistic missile 
development offers a sobering reminder that the United States must 
remain vigilant against rogue nation-states that are able to threaten 
the Homeland. I am confident in our ability to employ the Ground-based 
Midcourse Defense element of the Ballistic Missile Defense System to 
defend the Homeland against a limited long-range ballistic missile 
attack from North Korea. As adversaries continue to pursue credible and 
advanced capabilities, we too must evolve our missile defense 
capabilities to outpace increasingly complex threats. The relationship 
between USNORTHCOM, supporting Combatant Commands, and the Missile 
Defense Agency is the cornerstone of our ability to outpace these 
evolving threats.
    Today's Ballistic Missile Defense System's Ground-based Midcourse 
Defense is designed to intercept incoming threats in the midcourse 
phase of flight, a strategy which provides the largest window of 
intercept and maximizes the use of our interceptors. Synergistic and 
comprehensive improvements across the entirety of the Ballistic Missile 
Defense System, including advanced sensors and enhanced interceptors, 
are foundational to maximizing system performance. I support the 
Ballistic Missile Defense System development path set by Vice Admiral 
Jim Syring and his team at the Missile Defense Agency, whose priorities 
include, improving our persistent sensor architecture, operational 
effectiveness of our interceptors, lethality of our kill vehicles, and 
robust sustainment and testing.
    Modernization of our sensor architecture is essential to 
maintaining our strategic advantage and confidence in our ability to 
defeat evolving, more complex threats. Thanks to the men and women at 
the Missile Defense Agency, and the support of this Committee, we are 
on track to deploy the Long Range Discrimination Radar. This critical 
midcourse sensor will improve persistent coverage of the United States 
and improve our target tracking and discrimination capability against 
potential countermeasures, thereby improving the effectiveness of our 
ground-based interceptors.
    The Missile Defense Agency is in the final phase of fielding 
additional ground-based interceptors, which will result in a total 
inventory of 44 by the end of calendar year 2017. This robust inventory 
is essential to our ability to engage multiple threats, but it alone is 
not sufficient to address evolving future threats. In addition to 
continued modernization of the current Exo-atmospheric Kill Vehicles, I 
believe it is imperative we continue with the engineering, design, and 
test work currently underway on the Redesigned Kill Vehicle. 
Furthermore, we need to explore innovative technical solutions such as 
the upgraded tactical ground-based interceptor booster with a 2- or 3-
stage selectable mode designed to increase battlespace and, as we learn 
more from the Redesigned Kill Vehicle, explore the development of 
interceptor variants like the Multi-Object Kill Vehicle.
    Foundational to our confidence in the Ballistic Missile Defense 
System, and how we operationally employ it, are robust test and 
sustainment programs. I support the Missile Defense Agency's efforts to 
maintain a regular ground-based interceptor flight test cadence and a 
vigorous ground test program. With every flight and ground test, we 
learn more about the system's capabilities and discover new ways to 
optimize its performance.
    Our ability to defend the United States against ballistic missile 
threats is underpinned by the dedication of Missile Defenders like 
Staff Sergeant Caroline Domenich. Staff Sergeant Domenich is a member 
of the Alaska Army National Guard assigned to the 49th Missile Defense 
Battalion. She has served as a communications officer, is now a weapons 
officer in the Fire Direction Center at Fort Greely, Alaska, and was 
recently named the Missile Defender of the Year. I am grateful for the 
professionalism and proficiency of Staff Sergeant Domenich and her 
fellow Missile Defenders who stand ready to engage inbound threats when 
called upon to protect the United States.
Aerospace Warning and Aerospace Control
    NORAD's Aerospace Warning and Aerospace Control missions are a 
vital component of the defense of the United States and Canada. Through 
the execution of Operation NOBLE EAGLE, NORAD defends our Nations' 
airspace around the clock and accomplishes this critical mission with a 
combination of armed fighters on alert, air patrols, aerial refueling, 
Airborne Warning and Control System surveillance platforms, the 
Integrated Air Defense System in the National Capital Region, and our 
ground-based Air Defense Sector surveillance detection capabilities. 
These assets allow NORAD to respond to both symmetric and asymmetric 
air threats to the United States and Canada.
    Since 9/11, more than 70,000 sorties have been flown in support of 
Operation NOBLE EAGLE. Continuous improvement of air domain awareness 
and intercept capabilities will ensure that NORAD forces can protect 
our most critical national infrastructure and maintain a basing 
architecture that defends key terrain and our most critical national 
infrastructure.
    With almost 58,000 general aviation aircraft registered within 250 
miles of the National Capital Region, we continue to look for ways to 
ensure we are using our Operation NOBLE EAGLE assets efficiently and 
effectively. In the years after 9/11, NORAD was frequently launching 
Operation NOBLE EAGLE assets to intercept general aviation aircraft 
that unintentionally violated restricted airspace around the National 
Capital Region. In an effort to reduce preventable intercepts, we 
started working with our interagency partners on a proactive outreach 
campaign to educate the general aviation community about restricted 
airspace and notify aircraft owners and pilots of upcoming airspace 
restrictions. The foundation of our ability to conduct meaningful 
community outreach is the tenacity of airmen such as Major Andrew 
Scott, a Public Affairs Officer assigned to our 601st Air Operations 
Center. Major Scott has been a member of the Florida Air National Guard 
since 2005 and is a key leader in our combat information cell. Major 
Scott and the 601st team have fostered strong relationships with our 
interagency partners, including the Federal Aviation Administration, 
the U.S. Coast Guard, and the Civil Air Patrol. As a result of the 
community outreach program, we are seeing a significant decrease in 
accidental airspace incursions, which lead to an 80 percent reduction 
in unnecessary launches of intercept aircraft and other tactical 
actions.
    In the late 1950s, when NORAD was established to defend North 
American airspace, the Soviet Union was the only nation-state capable 
of striking North America militarily. We were able to maintain physical 
standoff from our adversary by keeping Russian bombers out of missile 
range of North America. Today, that physical standoff has eroded due to 
technological advancements by our adversaries. Commanders today have 
much less decision space, in part because hostile actions can occur 
from greater ranges with little or no warning.
    Russia continues to use heavy bombers, surface vessels, and 
submarines to demonstrate its ability to launch advanced, long-range, 
conventionally-armed cruise missiles. These emerging capabilities 
constitute a real challenge to our air defense architecture, and NORAD 
faces an increased risk to our ability to defend the United States and 
Canada against Russian cruise missile threats. The increased standoff 
capability, low altitude, and small radar signature of cruise missiles 
make defending against them a technical and operational challenge. I am 
confident in the layered approach provided by our family of systems to 
conduct cruise missile defense. We continue to work with the Joint 
Integrated Air and Missile Defense Organization, the Missile Defense 
Agency, and other stakeholders to pursue improvements to our 
indications and warnings, surveillance, and engagement capabilities to 
meet the evolving challenges posed by advanced threats.
    We are nearly finished with the first part of our three-phase 
Homeland Defense Design effort, which is intended to enhance our 
ability to detect, track, and investigate suspicious aircraft, cruise 
missiles, and unmanned aircraft systems, and when necessary, cue our 
defense systems against the full spectrum of air threats. This year, we 
will continue to integrate advanced sensors in the National Capital 
Region and are on track to begin the second phase of the Homeland 
Defense Design in FY18 to expand aerospace surveillance capabilities. 
Phase 3 of our Homeland Defense Design is in concept development and is 
intended to validate and incorporate emerging technology and explore 
scalable and deployable options for the rest of North America.
    Our ability to find, fix, and finish air threats is largely 
dependent on the capability of the fighter aircraft that conduct 
NORAD's Aerospace Control Alert mission. Fundamental to the aircrafts' 
detect and track capability is the modernization of its radar systems. 
We are working with the U.S. Air Force to procure and field Active 
Electronically Scanned Array radars for our Aerospace Control Alert 
fighters, starting with the aircraft that defend the National Capital 
Region.
    In recent years, Russia's Long Range Aviation Command has assumed 
an increasingly significant role in Russia's military assertiveness, 
starting with regular out-of-area patrols in 2007 and spiking in 2014 
with more out-of-area patrols than in any year since the Cold War. 
Russian heavy bomber activity in the approaches to North America 
declined sharply in 2016, but a closer look reveals troubling new 
capabilities. Russia's strategic air forces spent much of the year 
cycling bombers through a modernization program that enables their 
aircraft to carry an advanced family of cruise missiles capable of 
holding the United States and Canada at risk.
    With our Canadian teammates, we continue to capitalize on existing 
synergies and identify opportunities to evolve NORAD into a more agile 
Command capable of outpacing the full spectrum of threats. We will 
continue to prioritize investments in detection and surveillance 
through advanced indications and warning technology to ensure we are 
able to deter and, if necessary, defeat the full spectrum of aerospace 
and other attacks on the United States and Canada.
The Arctic
    The harsh Arctic environment and polar icecap have long enhanced 
North American security by providing a physical barrier in the northern 
approaches to the United States and Canada. Today, receding sea ice and 
growing interest in Arctic economic prospects are increasing human 
presence and activity in the region. I consider the foundation for 
defense, security, and safety in the Arctic to be whole-of-government 
cooperation and collaboration with our trusted partners. In 2016, 
USNORTHCOM and NORAD supported the development of the 2016 DOD Arctic 
Strategy and we will continue to focus on ways to ensure the Arctic is 
a secure and stable region where U.S. national interests are 
safeguarded, the U.S. homeland is defended, and nations work 
cooperatively to address challenges. For USNORTHCOM and NORAD, the 
Arctic remains a strategic avenue of approach and a region with 
evolving challenges. I believe it is important that USNORTHCOM and 
NORAD be prepared to operate in the this harsh environment for missions 
such as search and rescue, patrolling, or maintaining Aerospace Warning 
and Aerospace Control along the Alaskan and Canadian coastlines.
    In the near term, increased human activity in the region will 
demand close maritime coordination and unity of effort between 
international, interagency, and industry partners in response to an 
emergency. Last year, the U.S. Coast Guard and USNORTHCOM sponsored the 
Arctic-focused search and rescue exercise ARCTIC CHINOOK, a partnership 
field training exercise based on a maritime mass rescue scenario 
involving an adventure-class cruise ship operating in the Arctic that 
is forced to abandon ship after a catastrophic event.
    One of my roles is to be the DOD advocate for Arctic capabilities. 
I am responsible for collaborating with Arctic stakeholders to enable a 
holistic view of Arctic capabilities. Our Arctic Capabilities Advocacy 
Working Group provides a forum for DOD, interagency, and trusted 
international partners to identify requirements, capabilities, and 
shortfalls across the spectrum of DOD Arctic operations. Constrained 
budgets and demands from competing global priorities compel us to 
identify prudent opportunities to invest in material and non-material 
capabilities that enable us to ensure security and support safety in 
the Arctic.
    We are primarily focused on improving fundamental operational 
capabilities that support domain awareness, communications, 
infrastructure, and sustainable presence in the Arctic. For instance, 
with the support of the working group, we successfully advocated for 
the construction of an open-bay barracks in Utqiagvik (formerly known 
as Barrow), Alaska. This 40-person facility opened in January and is 
supporting Alaska Army National Guard exercises and training. In 
addition, through NORAD's collaboration with the Department of Defense 
and the Canadian Department of National Defence, we facilitated the 
release of the Mobile User Objective System to Canada, which will 
provide better communications commonality among the bi-national NORAD 
enterprise.
                  defense support of civil authorities
    As the Commander of USNORTHCOM, I provide DOD assistance to 
federal, state, local, territorial, and tribal authorities. Defense 
Support of Civil Authorities is a unique mission in that we facilitate 
DOD support in response to requests for assistance from civil 
authorities for a range of needs, including domestic emergencies, law 
enforcement support, man-made incidents, and natural disasters. Our 
civil partners are charged with the direct responsibility to respond to 
these crises and we work hard to develop and maintain the relationships 
necessary to deliver responsive capabilities when our partners request 
assistance.
                           natural disasters
    Our disaster response actions are most often in support of the 
Federal Emergency Management Agency, with whom we plan and train to be 
ready to provide timely and tailored DOD capabilities for a spectrum of 
contingencies.
    One of our key DOD partners in this endeavor is U.S. Transportation 
Command, on whom we rely to provide timely support of Federal Emergency 
Management Agency requirements. In addition to the transportation 
support they provide, their Joint Enabling Capabilities Command 
provides a trained and ready cadre of key subject matter experts to 
augment our Headquarters and deployed command and control forces with 
specialized transportation planning and communications capabilities.
    In 2016, we partnered with the Federal Emergency Management Agency 
and a host of other federal, state, local, and Canadian provincial 
authorities to conduct Exercise ARDENT SENTRY, our annual Tier 1 
disaster response exercise. The exercise simulated a 9.0-magnitude 
earthquake occurring in the Cascadia Subduction Zone, followed by a 
tsunami and several aftershocks along the coast of Washington, Oregon, 
Northern California, and British Columbia. This complex, integrated 
training environment offered USNORTHCOM an opportunity to practice our 
procedures and validate our processes with our federal, state, local, 
and multinational emergency responders.
    This year, our ARDENT SENTRY exercise will give us an opportunity 
to plan and exercise a bilateral and whole-of-government response to an 
improvised nuclear threat in the New York City region and in Halifax 
Canada. The scenario will enable Canadian and United States forces to 
practice collaboratively rendering safe several devices near Halifax. 
The next phase of the exercise will challenge our consequence 
management procedures with Canada, our Federal Emergency Management 
Agency Region II partners, the Department of Justice, and our 
interagency partners in response to two subsequent improvised nuclear 
device detonations and the resulting counterterrorism crime scene.
    DOD capabilities are only useful if they are accessible and 
responsive to emergent relief requests. Our rigorous training regimen 
was put to the test in October, 2016 when Hurricane Matthew was 
developing in the eastern Caribbean. To provide ready support to the 
Federal Emergency Management Agency's response plan, USNORTHCOM 
coordinated with the Services to provide six DOD installations as 
incident staging bases to facilitate the deployment of commodities 
(e.g. water, food, blankets, cots, and generators) by staging these 
items closer to the expected impacted areas, thereby reducing response 
time.
                            threat networks
    In my first eleven months as Commander of USNORTHCOM and NORAD, I 
have invested highly productive time visiting our southwest border and 
Mexico, garnering an increased appreciation of the threats to our 
borders. Transnational Criminal Organizations and their networks 
continue to affect conditions in Mexico and Central America, which 
introduces instability and creates challenges for our U.S. law 
enforcement partners responsible for securing our borders.
    The threat is fueled primarily by Transnational Criminal 
Organizations which function through vast networks that transcend 
physical, geographic, and societal boundaries. These networks are able 
to operate in legitimate society, which increases the likelihood of 
their survival despite the best efforts of law enforcement 
professionals. This challenge exists in the seams among U.S. 
institutions and far exceeds the ability of any one agency or nation to 
confront it. The global nature of these networks necessitates an 
unprecedented level of cooperative effort among federal, state, local, 
international law enforcement, and intelligence community partners and 
combatant commands. I believe countering threat networks is a long-term 
proposition that will require continuous effort, creative solutions, 
and a strengthening of the unified network of law enforcement, DOD, 
intelligence community, and international partners.
    USNORTHCOM continues to develop strong strategic security 
partnerships and foster opportunities to support to our domestic law 
enforcement partners. Our subordinate command, Joint Task Force North, 
recruits and employs Title 10 units to provide support to federal, 
state, and local law enforcement agencies. When requested, DOD assets 
are employed in support of an intelligence-driven, counter-network 
approach that simultaneously enhances unit readiness by allowing units 
to train on their mission essential tasks in a setting that 
approximates the environment common to many forward-deployed locations. 
In 2016, USNORTHCOM supported more than 150 all-domain, multi-agency 
domestic law enforcement operations, providing detection and monitoring 
capabilities, ground sensor platoons, unmanned aerial systems, mobility 
support, and analytical services. Our support contributed to law 
enforcement interdiction of $150M in illicit goods.
    The support we provide to our law enforcement partners is enabled 
through the determination and expertise of patriots like Sergeant 
Tanner Richie, a U.S. Marine Corps maintenance chief assigned to the 
2nd Ground Sensor Platoon at Camp Lejeune, North Carolina. Originally 
from Santa Cruz, California, Sergeant Richie is a trained ground sensor 
operator and sensor system maintainer who has deployed on four Joint 
Task Force North missions in support of the U.S. Border Patrol. As the 
maintenance chief for the platoon, Sergeant Richie identified a way to 
leverage satellite communications infrastructure to provide expanded 
sensor capability in areas along the border that were previously 
unreachable by Very High Frequency radio employment. Through Sergeant 
Richie's ingenuity, USNORTHCOM is now able to provide increased ground 
sensor support to our law enforcement partners. The technical solution 
he tested along the border will have a lasting positive impact on 
ground sensor employment in the future.
    We continue to pursue opportunities to mature synchronization and 
interoperability among all the stakeholders operating on both sides of 
the U.S.-Mexico border. What began as an annual Border Commanders 
Conference to conduct senior-leader dialogue has developed into monthly 
cross-border coordination engagements, facilitated by USNORTHCOM's 
component command, United States Army North, to enable collaboration 
among U.S. law enforcement agencies and Mexican Military Region and 
Zone Commands. These engagements are an opportunity to share best 
practices and bilateral solutions designed to disrupt Transnational 
Criminal Organizations along the border. This bilateral collaboration 
further matured into concurrent patrols conducted by U.S. law 
enforcement and Mexico's Secretariat of National Defense (SEDENA) on 
respective sides of the border. The information sharing conducted 
through these concurrent patrols resulted in a recent seizure by SEDENA 
of 10,000 pounds of marijuana at the border.
    I see the DOD support role in this highly complex problem as 
critical, and I intend to improve the relationships and strengthen the 
support USNORTHCOM is able to provide to domestic law enforcement 
agencies and our international partners. In the near term, we will 
continue to explore options for enhancing our support to our law 
enforcement partners at the ports of entry who work tirelessly to stem 
the flow of illicit trafficking into the U.S. In addition, we will 
pursue synchronized planning and coordinated operations with our 
partners to illuminate the networks that threaten our National 
security.
                      theater security cooperation
Canada
    The United States and Canada share the longest international border 
in the world, and our collaborative relationship is one of the closest 
and most extensive in history. This relationship reflects a unique 
friendship, underpinned by common values, that has evolved over the 
course of the last century. Our bi-national command, NORAD, is the gold 
standard for military collaboration providing for the common defense of 
our nations and people.
    A critical component of our operational defense framework is the 
tri-command relationship between USNORTHCOM, NORAD, and the Canadian 
Joint Operations Command. This steadfast relationship extends beyond 
our integrated USNORTHCOM and NORAD headquarters at Peterson Air Force 
Base to the Canadian commanders who have established relationships with 
U.S. counterparts across the border to ensure our countries can support 
each other when needed. Together, we are working to further integrate 
our operational framework into an adaptive continental defense 
arrangement that can function across multiple domains to defend the 
United States and Canada, while preserving each nations' unilateral 
ability to conduct national missions.
    As NORAD approaches our 60th year defending the United States and 
Canada, we need to evolve our bi-national defense to deter, and if 
necessary, defeat potential future attacks. We will continue to 
prioritize interoperability and all-domain command and control through 
regular operations, combined training and exercises, combined planning, 
information and intelligence sharing, and personnel exchanges to ensure 
we are capable of conducting operations together, across the spectrum 
of conflict.
Mexico
    The relationship USNORTHCOM enjoys with Mexico's Secretariat of 
National Defense (SEDENA) and the Secretariat of the Navy (SEMAR) 
continues to evolve as a strategic institutional partnership. We 
routinely collaborate with the Mexican military as it seeks to prepare 
for and respond to internal security crises, contribute to regional 
security, and assume greater global responsibilities. They share our 
concerns over the negative impact of illicit flows on both sides of the 
border, and we are on a path toward a common military-to-military 
vision and strategy to address the mutual challenges that impact the 
security of both Nations.
    USNORTHCOM continues to pursue opportunities to build 
interoperability with our Mexican military partners through combined 
training and exercises. We focus on ensuring the timely delivery of a 
record Foreign Military Sales of over a billion dollars in UH-60 Black 
Hawk helicopters and High Mobility Multipurpose Wheeled Vehicles. We 
work closely with the U.S. interagency community and Mexican 
interagency organizations to support the Government of Mexico's 
Southern Border Strategy to improve security on their border with 
Guatemala and Belize.
    USNORTHCOM's ability to provide focused engagements, professional 
exchanges, and military training with Mexico is dependent on the many 
warrior-diplomats who build trust and confidence with their military 
counterparts. Master Gunnery Sergeant Cesar Huezo, is a U.S. Marine 
Corps Reserve liaison officer assigned to the Theater Security 
Cooperation Detachment at Marine Forces North. Master Gunnery Sergeant 
Huezo draws upon his personal experiences as an infantryman, light 
armored reconnaissance section leader, and intelligence Marine--as well 
as his civilian career as a trauma nurse--to develop a cadre of combat-
skills instructors who provide focused training to the Mexican Marines. 
Since 2012, Master Gunnery Sergeant Huezo has developed instructional 
material and overseen training programs that enhanced the capacity of 
nearly 8,000 Mexican Marines.
    Today, we are witnessing an evolution of the Mexican military from 
an internally focused force to one that is willing and increasingly 
capable of providing security leadership in Latin America. Recently, 
and for the first time in their institutional history, Mexico agreed to 
co-host the April 2017 Central American Security Conference with U.S. 
Southern Command and USNORTHCOM. This forum will reinforce Mexican 
Armed Forces regional leadership throughout Central America, and I am 
confident it will serve as a catalyst for greater involvement in 
strengthening regional security. In the near term, both SEDENA and 
SEMAR are actively preparing to become force providers in United 
Nations Peacekeeping Operations.
The Bahamas
    The U.S. and The Bahamas share a strong bilateral relationship 
founded on common interests in security, trade, and disaster response. 
Like many nations in the region, The Bahamas suffers from a surge in 
human and narcotics trafficking that contribute to a corresponding rise 
in violent crime. The Bahamian government is committed to close 
cooperation with the United States on law enforcement and maritime 
security concerns, as well as ways to counter illicit trafficking. This 
past December, we conducted our annual bilateral security cooperation 
table-top exercise with the Royal Bahamas Defence Force and mission 
partners in the Government of the Commonwealth of The Bahamas. The 
exercise challenged command and control structures, validated plans and 
procedures, and improved the Royal Bahamas Defence Force capability to 
provide maritime domain awareness, interdiction, and military 
assistance to civil authorities. We will continue our security 
cooperation efforts with the Royal Bahamas Defence Force with a 
priority focus on emphasizing maritime domain awareness, interdiction 
capabilities to counter illicit flows, and increasing disaster response 
capabilities.
                               conclusion
    The men and women of USNORTHCOM and NORAD remain diligent and 
undeterred as we stand watch. The evolving nature of global, 
transregional, all-domain, and multi-functional challenges have erased 
the lines on the map, necessitating an integrated and synchronized 
approach to defending the United States and Canada. To meet the 
challenges ahead, we actively pursue opportunities to strengthen our 
relationships with fellow combatant commands, our North American 
partners, and the interagency community. We will emphasize precision, 
agility, and resilience to ensure we are ready to execute in the 
ambiguity of a crisis.
    We defend our countries by remaining ever vigilant, ever watching, 
and ever training as we fulfill our Commands' roles in the sacred 
responsibility of defending the United States and Canada. I am grateful 
for the support this Committee has provided our Commands and am truly 
honored to serve as the Commander of USNORTHCOM and NORAD. I look 
forward to your questions.

    ``We have the watch''

    Chairman McCain. Thank you.
    Admiral Tidd?

    STATEMENT OF ADMIRAL KURT W. TIDD, USN, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    Admiral Tidd. Chairman McCain, Ranking Member Reed, members 
of the committee, thank you for the opportunity to address you 
today.
    I am pleased to be here with my NORTHCOM teammate, General 
Lori Robinson. Although we focus on distinctly different 
mission sets, our teams work together to keep our Nation safe 
from a range of challenges. While General Robinson and her team 
are directly responsible for defending our Homeland, SOUTHCOM 
extends that defense well beyond our borders throughout our 
southern approaches.
    Now, I want to do something a little bit different today 
with my opening remarks. I want to tell you a story. Picture 
this. We gain information on a group of individuals who are 
planning to make their way to the United States. They are 
carrying a weapon that will kill dozens of people and put 
hundreds more in the hospital. This powerful weapon will drain 
millions from our economy in terms of health care costs, crime, 
and lost productivity. It is neither high-tech nor new. We know 
exactly how dangerous it is. This weapon passes freely through 
our defenses as do hundreds more just like it.
    Chairman, members, I tell you this true story to point out 
an uncomfortable fact. Those people are members of a threat 
network, and the weapon that they move today is drugs. On 
average, 1 metric ton of cocaine will kill 10 Americans every 
year and harm hundreds more. Last year, we watched almost 450 
tons pass freely towards our country. What made it through 
translates into American lives lost and illicit profit that 
fuels instability and violence.
    Now, I tell you this story focused on drugs today because 
it is the scenario on which we have the best information, but 
these adaptive threat networks can move anything. What keeps me 
up at night is the potential for even more deadly cargo moving 
through these networks and directly into our cities. ISIS has 
encouraged its followers to exploit the vulnerability of the 
pathways leading directly into the United States in order to 
move weapons of mass destruction.
    To address this challenge, we are changing our approach to 
better understand and disrupt the immediate threats. We are 
working with our partners to reduce the vulnerabilities that 
allow these networks to exist in the first place, and we are 
expanding information sharing and building the capacity of our 
partners so that they can better secure their territory against 
these challenges.
    Now, today I also look forward to talking to you about 
other issues that we are addressing. Extremist networks like 
ISIS are radicalizing and recruiting individuals, and they are 
encouraging them to conduct attacks on U.S. and partner 
interests in our region. Russia, China, and Iran are actively 
engaging in Latin America. While most of their activities are 
not military threats yet, some do warrant examination.
    Even seemingly benign activities can build malign 
influence. With the peace accord now final in Colombia, a firm 
anchor for regional stability and one of our most trusted 
partners, Colombia still faces a challenging road ahead. We 
continue to stand together in defense of our shared interests.
    Lastly, detention operations at Joint Task Force Guantanamo 
remain a sensitive and a demanding mission that our men and 
women continue to execute with discipline and professionalism. 
Now it is time to address the infrastructure requirements that 
we have been putting off. The safety and the security of our 
troops depend on it.
    Finally, I would like to thank this committee for its 
unwavering support to the men and women both in uniform and out 
who serve our country. I look forward to answering your 
questions. Thank you.
    [The prepared statement of Admiral Tidd follows:]

               Prepared Statement by Admiral Kurt W. Tidd
                              introduction
    Chairman McCain, Ranking Member Reed, and distinguished Members of 
the Committee, thank you for the opportunity to address you today. On 
behalf of the men and women of U.S. Southern Command (USSOUTHCOM), we 
appreciate your support to our team and to our partners in Central 
America, South America, and the Caribbean. I look forward to providing 
an update on our work defending the southern approaches to the U.S. 
homeland and promoting regional security and stability.
    Although other regions may figure more prominently on U.S. foreign 
policy and national security agendas, Latin America and the Caribbean 
is the region most connected to our own society, prosperity, and 
security. We are inextricably linked by our shared values, cultures, 
and the rapid flows of goods, services, people, and information 
throughout our hemisphere. Coupled with geographic proximity, these 
interconnections mean there's no such thing as a purely ``Latin 
American and Caribbean problem.'' Simply stated, security challenges in 
the region are likely to become security challenges to the U.S. 
homeland.
    Just consider the following. Threat networks aggressively operate 
across borders (including our own), moving anything and anyone and 
fueling violent crime on the streets of Tegucigalpa and Tucson. 
Individuals from across the world--some fleeing conflict and 
insecurity, some seeking economic opportunity, and some with possible 
ties to terrorism--can exploit the region's security vulnerabilities to 
attempt illegal entry into the United States. A mosquito-borne virus 
crosses an ocean and causes a regional and domestic health crisis. 
China, Russia, and Iran seek to expand their influence and challenge 
the international order and democratic principles of transparency, good 
governance, and rule of law abroad--and much closer to home.
    Although USSOUTHCOM has a tradition of excellence in interagency 
and regional cooperation, we believe `business as usual' is no longer 
sufficient to address these types of transregional challenges, or to 
embrace transregional opportunities. Higher-level guidance also demands 
we adjust our approach; the National Military Strategy directs the 
entire Joint Force to work in a more integrated manner to address the 
increasingly transnational, transregional, multi-domain, and 
multifunctional nature of today's security challenges. In response, 
USSOUTHCOM is becoming a more agile organization and redoubling our 
commitment to--and integration with--our partners. This isn't a matter 
of altruism; it's a matter of our national interests, because in this 
uncertain world our security partnerships are more important than ever 
before. Trust and understanding can't be surged when crisis hits, and 
complex threats can't be addressed by any one nation or agency. Mr. 
Chairman, it's simple, really: our security partnerships help create a 
layered defense of our homeland by keeping our shared home stable and 
secure.
                              our approach
    USSOUTHCOM's main effort is countering threat networks. We also 
prepare for and respond to disasters and crises; and we build 
relationships to meet global challenges. We employ a networked approach 
that stops threats before they reach our nation's borders, destabilize 
our partners, or undermine the security of the Western Hemisphere. Our 
components and task forces--U.S. Army South, U.S. Air Forces Southern/
12th Air Force, U.S. Naval Forces Southern Command/U.S. Fourth Fleet, 
U.S. Marine Corps Forces South, U.S. Special Operations Command South, 
Joint Interagency Task Force (JIATF) South, Joint Task Force (JTF) 
Bravo, and JTF Guantanamo (GTMO)--are often at the forefront of these 
efforts, and we appreciate the Committee's continued support to the 
entire USSOUTHCOM team.
                 security environment (the challenges)
    Threat Networks. Mr. Chairman, Members, if I were appearing before 
you in 1987, 1997, or even 2007, I would tell you that drug trafficking 
is the most significant security challenge in Latin America and the 
Caribbean. But it's 2017, and drugs--or any of the illegal commodities 
that move through our hemisphere--are not the only thing we have to 
worry about. The illicit flows of goods and people, and the violence 
and corruption these flows fuel at home and abroad, are the visible 
manifestations of complex, adaptive, networked threats. Transregional 
and transnational threat networks are now the principal threat to 
regional security and stability. These networks operate unconstrained 
by legal and geographic boundaries, unimpeded by morality, and fueled 
by enormous profits. Their interests, influence, capabilities, and 
reach extend beyond the responsibilities of any one Geographic or 
Functional Combatant Command, undercutting our national interests in 
multiple domains and many regions. They prey on weak institutions and 
exploit the interconnected nature of our modern financial, 
transportation and communication systems and the seams in our 
organizational boundaries. \1\
---------------------------------------------------------------------------
    \1\ Convergence: Illicit Networks and National Security in the Age 
of Globalization. Center for Complex Operations, National Defense 
University, 2013.
---------------------------------------------------------------------------
    Threat networks engage in a range of destabilizing illicit 
activities that further dangerous ideologies or generate profit. 
Violent extremist organizations like ISIS seek to radicalize and 
recruit vulnerable populations in the Caribbean and parts of Central 
and South America. Hezbollah members, facilitators, and supporters 
engage in licit and illicit activities in support of the organization, 
moving weapons, cash, and other contraband to raise funds and build 
Hezbollah's infrastructure in the region.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Criminal networks, in contrast, are motivated by wealth and power. 
Some are globally-integrated enterprises with worldwide reach--and 
profit margins that rival Fortune 500 companies. Some smuggle precursor 
chemicals and fentanyl from China into Central America and Mexico, 
where they produce extremely potent heroin that is driving overdose 
epidemics across the United States. Other networks move large shipments 
of cocaine to markets in the United States, West Africa, Europe, and 
Australia, while some reap enormous profits by illegally mining gold in 
Guyana, Peru, and Colombia. Many dabble in poly-crime activities, 
including kidnapping, money laundering, and extortion. Still other 
networks have diversified into the smuggling of weapons and people, 
including individuals who pose a potential threat to national 
security--through the region and into the United States.
    Although each of these activities undermines regional security, the 
most dangerous scenario is that terrorist organizations will exploit 
criminal capabilities or human smuggling routes to enter the United 
States. The most chilling manifestation, of course, is the possibility 
that terrorists with chemical or biological weapons--or the knowledge 
of how to build and employ them--will move through the region and 
attempt to infiltrate our Southwest border. This potential threat 
raises the question of criminal-terrorist collusion, which has been a 
topic of significant debate within the U.S. Government. I'd like to 
share my view on the subject.
    Conventional wisdom downplays the possibility that criminal and 
terrorist networks would actively collaborate in this part of the 
world. Observers are correct when they say that drug traffickers are 
likely reluctant to work with terrorists, and vice-versa. But here are 
the shortcomings I and many of our interagency partners see with this 
view: it presumes criminal networks exercise absolute oversight and 
control over their smuggling routes. It presumes they conduct thorough 
background checks and screen everyone and everything that moves along 
the region's illicit superhighways. It presumes that just because 
witting collaboration might not take place, unwitting collaboration 
couldn't. While this scenario may be unlikely, we and our partners know 
it is also not totally impossible.
    Mr. Chairman, I think about those smuggling routes that thread 
through our southern approaches and into our Homeland. Despite the 
heroic efforts of law enforcement, these are highly efficient systems 
that can move just about anything and anyone into our country. And what 
keeps me up at night is knowing I'm not the only one thinking about 
those routes--extremist networks like ISIS are thinking about them too, 
and how to use them.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ultimately, the argument about whether criminal and terrorist 
networks collaborate or keep their distance from one another in Latin 
America distracts from the most important point. Both groups inhabit 
the same illegal orbits. They both seek to circumvent or subvert the 
rule of law. They both exploit the same permissive environment and 
could use the same key facilitators (money launderers, document 
forgers, and corrupt officials) to support their operations. By 
affecting the permissive environment, functions, and enabling 
activities that both types of networks rely on, we can help degrade 
criminal and terrorist networks alike.
    Regional Stability. In addition to the challenge posed by threat 
networks, Latin America and the Caribbean are also vulnerable to 
disasters, including earthquakes, hurricanes, droughts, and the 
outbreak of infectious diseases with the potential for secondary impact 
in the United States. Varying prevention, management, and response 
capabilities in the region--coupled with underlying challenges like 
chronic poverty and economic insecurity--can amplify the impact of 
disasters, contributing to other `push factors' that drive illegal 
migration.

                                         Apprehensions and Interdictions
                                      Source: Customs and Border Protection
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal Year 2015          Fiscal Year 2016
----------------------------------------------------------------------------------------------------------------
Cubans (land and sea).......................................                   48,549                    60,311
Haitians (land and sea).....................................                    3,435                     7,932
Unaccompanied Children (from Northern Triangle).............                   28,396                    42,405
----------------------------------------------------------------------------------------------------------------

    Overall the region is stable, although the gap between public 
expectations and government performance manifests itself in social 
protests, most often against corruption and mismanagement of public 
resources. Bolivian citizens have engaged in mass protests to demand 
resolution to a severe water shortage, while Venezuela faces 
significant instability in the coming year due to widespread food, and 
medicine shortages; continued political uncertainty; and a worsening 
economic situation. The growing humanitarian crisis in Venezuela could 
eventually compel a regional response.
    Activities of China, Russia, and Iran. While threat networks and 
potential crises are immediate concerns, we also face strategic 
challenges. Over the past decade, China, Russia, and Iran have 
established a greater presence in the region. These ``external actors'' 
require separate and serious consideration, especially as it relates to 
the broader global security environment. Knowing the political 
establishment in China, Russia, and Iran will likely scrutinize this 
testimony--and in the case of Russia, attempt to distort it--I'm going 
to choose my words with care.
    Mr. Chairman, I'll speak plainly: if we care about what's going on 
in the South China Sea, Eastern Europe, and the Middle East, it's worth 
keeping an eye on Chinese, Russian, and Iranian activity in this part 
of the world, too. For Russia, China, and Iran, Latin America is not an 
afterthought. These global actors view the Latin American economic, 
political, and security arena as an opportunity to achieve their 
respective long-term objectives and advance interests that may be 
incompatible with ours and those of our partners. Their vision for an 
alternative international order poses a challenge to every nation that 
values non-aggression, rule of law, and respect for human rights--the 
very same principles that underlie the Inter-American system of peace 
and cooperation. Some of what they're doing--while not a direct 
military threat--does warrant examination. Even seemingly benign 
activities can be used to build malign influence.
    Now the region's number two trading partner, China has courted 
Latin America through economic diplomacy, importing more and more raw 
materials, offering loans, and pledging billions in investments in 
infrastructure development. It sees its own development as contingent 
on the development of other countries, including those in Latin America 
and the Caribbean. \2\ Beijing cooperates with Latin America on space, 
potential nuclear power projects, and telecommunications networks, 
which could pose security concerns to the United States. China's 
military soft power lies in its ability to engage through offers of 
all-expenses-paid training, no-strings-attached defense sales and 
financing to regional militaries, and donations of equipment and 
humanitarian aid. China prioritizes engagement with regional 
organizations like the Community of Latin American and Caribbean States 
(CELAC) that exclude the United States, and seeks to leverage regional 
relationships to reshape international economic and financial 
institutions to its advantage. \3\
---------------------------------------------------------------------------
    \2\ The People's Republic of China, Policy Paper on Latin America. 
November 24, 2016.
    \3\ Ibid.
---------------------------------------------------------------------------
    As part of the Kremlin's aim to regain its status as a global power 
and prove its prowess to domestic audiences, Russia uses soft power 
tools in an attempt to challenge United States leadership in the 
Western Hemisphere and displace traditional U.S. Goodwill initiatives. 
Examples include the construction of an international police training 
facility in Nicaragua that will be used to provide regional 
counternarcotics training and the funding of a vaccine production plant 
that will supposedly make drugs accessible and affordable throughout 
Central America. Additionally, Russia seeks to discredit the United 
States through state-owned media like RT-Espanol and SputnikMundo, 
which spread misinformation to create doubts and distrust about U.S. 
intentions and policy towards the region and other parts of the world. 
The Russians are also engaging in some disquieting behavior, such as 
providing battle tanks to Nicaragua, which impacts regional stability 
and could cause its neighbors to divert vital resources (needed to 
fight threat networks and address developmental challenges) to maintain 
parity.
    As a continuing state sponsor of terrorism, Iranian involvement in 
the Western Hemisphere is always a matter of concern. With the easing 
of economic sanctions, Iran may be seeking to rebuild its relationships 
in the region. Tehran uses cooperative technological, economic, and 
diplomatic interests as the centerpiece of its regional diplomacy. 
Although on the surface it portrays its actions as innocuous, Iran 
could exploit its cultural centers to build networks, which could be 
leveraged to extend its influence and advance its interests.
    Broadly speaking, some of this outreach is concerning, especially 
to those of us who care about advancing human rights and promoting 
regional peace and stability. Keep in mind there's no Chinese, Russian, 
or Iranian equivalent of a Leahy Law, no comparable conditions on 
security assistance, no independent domestic media that carefully 
scrutinizes their activities. Their arms sales aren't tied to 
international protocols or human rights vetting. Their loans don't come 
with requirements to follow strict environmental or anti-corruption 
standards, or even clear terms and conditions for repayment. Their 
unscrupulous business practices and disregard for rule of law 
facilitates corruption, reduces trust in governments, and poses 
challenges to the norms and values that have brought prosperity and 
security for millions of people across our hemisphere.
    It's also worth noting that in recent years these actors have 
capitalized on the perception that the U.S. is disengaging from the 
region. Our partners plainly see that we are conducting fewer 
engagements; holding smaller and less frequent exercises; and that we 
have smaller U.S. military presence in regional embassies and fewer 
forces and platforms than ever before. When budget constraints limit 
our ability to engage with our regional partners, it sends a message 
that others can, and do, exploit.
    And while we should work harder to understand the true intentions 
of these actors, whatever they intend, in most cases our best response 
is to strengthen our own security relationships, rather than focus on 
``countering'' or ``competing'' with the likes of China or Russia. At 
times--when it supports our interests and those of our partners--we 
should follow avenues for cooperation. At others, we might find we need 
to work with our partners to address negative influence or 
destabilizing actions. At all times, we should focus on being the best 
possible partner to the region.
    So it's on us to demonstrate our commitment by being an equal and 
principled partner; it's on us to earn, and keep, the region's trust. 
It's on us, because we lose relationships not as a result of any 
Chinese or Russian actions; we lose them, in large part, by not 
demonstrating the depth of our commitment to the region. Our leadership 
is weakened not because China or Russia offer compelling alternatives, 
but because it's not always clear to our network of allies and partners 
what's important to us. American (and Inter-American) principles are 
undermined not because they no longer matter, but because we and our 
partners don't do everything we can to protect and promote them. Mr. 
Chairman, it comes down to this: we have a choice. Success or failure 
in this region depends on us, what we stand for, and what we do, much 
more than it depends on anyone else.
     defending our southern approaches (what we're doing about it)
    To address many of these security challenges, we work with our 
network of interagency, regional, and non-governmental partners. I look 
forward to describing how our networked approach keeps our southern 
approaches defended, our nation safe, and our shared home secure.
    Countering Threat Networks. To keep pace with the challenge of 
threat networks, we must do more than just stop illicit commodities, 
and our Southwest border must be our last--not our first--line of 
defense. To that end, we are working with our interagency and regional 
partners to pressure threat networks along multiple fronts. We aim to 
degrade threat network capabilities, disrupt their operations, and 
affect the underlying conditions that allow them to flourish.
    Strengthening Interagency Partnerships. We have stood up 
communities of interests (COIs), meetings that bring together 
stakeholders from across the U.S. Government to share information and 
intelligence, expand understanding and awareness about networks and our 
activities to counter them, and predict how our efforts will affect 
their illicit operations. Last year, information sharing and support to 
tactical operations through our Central America COI--which is hosted by 
Joint Task Force (JTF) Bravo and includes over 700 participants from 
various U.S. Government agencies--helped dismantle major threat 
networks by targeting their leadership structure. While we've always 
supported our interagency partners, what's changed is how we're 
supporting them--and the combined effect we're having, together.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
Last year, our Countering Weapons of Mass
 Destruction (CWMD) COI, hosted the first of its
 kind regional conference on non-proliferation
 and WMD.
------------------------------------------------------------------------

    By sharing information in the Central America COI, interagency 
participants are better prepared to enable one another to apply 
pressure across threat networks, forcing them to adapt on our terms--
not theirs. As we put pressure on these networks, they are forced to 
move their operations and change their tactics, exposing them and their 
vulnerabilities. As law enforcement is able to arrest individuals, the 
group quickly analyzes and predicts the expected reaction across the 
entire network, which leads to a better understanding of how members of 
one network interact with each other and with other networks in the 
region.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
In 2016, the CENTAM COI supported a multinational
 intelligence-driven operation that resulted in
 the arrest of Wilter Blanco (the head of the
 Atlantic Cartel who reportedly plotted the
 assassination of the U.S. Ambassador and the
 Honduran President) by Costa Rican law
 enforcement.
------------------------------------------------------------------------

    Building on this COI success, we are establishing a permanent 
counter-threat network team inside our headquarters. In support of U.S. 
Government and regional partners, this team will analyze, fuse, and 
synchronize intelligence and operations to illuminate and affect threat 
networks. Through network mapping and outreach, elements of this team 
will also provide an amplifying capability to efforts by U.S. country 
teams, U.S. and partner nation law enforcement, U.S. Special Operations 
Command (USSOCOM) and other Combatant Commands to disrupt the flow of 
SIAs and the potential return of foreign terrorist fighters to the 
region. As part of this effort, we're partnering with the Intelligence 
Community to pursue innovative approaches to integrate unclassified 
open source, social media, and publicly available information (PAI) to 
better characterize the regional security environment and facilitate 
increased information and intelligence exchanges with regional and 
interagency partners.
    We also collaborate with the Department of State to encourage our 
partner nations to define and develop legal instruments against 
terrorism. Such legislation is critical to addressing radicalization 
and the return of battle-hardened ISIS fighters with combat experience. 
These individuals pose a significant threat, as they will be well-
positioned to spread an extremist message and potentially execute acts 
of terror against our partner nations and U.S. citizens in the region. 
As this Committee knows, ISIS is emphasizing external attacks in 
response to increasing pressure in Syria and Iraq, and some of our 
partners have expressed concerns over the potential for ISIS-directed 
or inspired attacks in this part of the world. I share these concerns.
    To complement these efforts, we are expanding our coordination with 
U.S. Northern Command (USNORTHCOM) and USSOCOM to support the 
Department of Homeland Security (DHS) as they target the smuggling 
operations of individuals who may pose terrorist risks. Last year we 
expanded our support to Homeland Security Investigation's (HSI) 
Operation CITADEL, a multi-year, multi-agency effort to dismantle human 
smuggling networks and identify migrants that may represent security 
threats while undertaking protection screening for those who may have a 
credible fear of persecution. Our planning support, intelligence 
capabilities, and airlift are enhancing HSI's ability to prevent 
persons of interest from transiting the region, reaching our borders, 
and potentially gaining entry into the U.S. Homeland.
    As this Committee knows, JIATF South is the gold standard of 
interagency cooperation. They were doing counter-threat network 
operations (if by a different name) long before the term existed. JIATF 
South supports interdiction operations that are force multipliers for 
evidence collection, grand jury proceedings, indictments, and 
extraditions, all of which lead to the eventual dismantlement of threat 
networks. While JIATF South's core detection and monitoring mission 
continues to support law enforcement efforts to stem record detected 
flows of cocaine and other illicit drugs, the task force is also 
broadening its support to interagency operations targeting global money 
laundering, bulk cash smuggling, and counter proliferation.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
In FY16, JIATF-S operations resulted in the
 detention of 780 drug traffickers and the
 disruption of 282MT of cocaine valued at over
 $5.5 billion.
------------------------------------------------------------------------

    Enabling partner nations. One key to addressing the illicit pathway 
and threat networks in the region is to help improve the capability of 
partner nations in the region to investigate, interdict and dismantle 
the networks. Enabling partner nation capacity is essential if we hope 
to address the permissive environment that permits these networks and 
pathways to operate.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
In 2016, USSOUTHCOM's DOD Rewards Program enabled
 our Colombian, Peruvian, and Panamanian partners
 to bring 26 members of terrorist organizations
 to justice.
------------------------------------------------------------------------

    Cooperation with Colombia remains essential as the National 
Liberation Army (ELN) and criminal networks seek to move in on former 
Revolutionary Armed Forces of Colombia (FARC) held zones to fill the 
power vacuum and take over the lucrative global cocaine market. With 
coca cultivation and production in the Andean region approaching all-
time highs, these networks could jeopardize recent Colombian security 
gains. To help Colombia contain this threat, we will continue to train, 
equip, and sustain key specialized units with Department of Defense 
authorities as well as via our partnership with the Department of 
State's Bureau of Political Military Affairs and Foreign Military 
Financing. We're also leveraging the U.S.- Colombia Action Plan for 
Regional Security (USCAP) to synchronize the delivery of counter-
network capacity building efforts to confront the effects of 
transnational criminal networks and drug trafficking in the region. 
This program helps deepen the partnership between USSOUTHCOM, the State 
Department, the Colombian Ministry of Defense, and the six Central 
American and Caribbean recipient countries \4\ to improve 
interoperability against criminal networks.
---------------------------------------------------------------------------
    \4\ The six USCAP recipient countries are Costa Rica, Dominican 
Republic, El Salvador, Guatemala, Honduras, and Panama. To date, the 
USCAP program has trained 4,008 partner nation personnel (3,095 
military and 912 public security forces).
---------------------------------------------------------------------------
    Elsewhere, USSOUTHCOM and the Defense Threat Reduction Agency 
(DTRA) joined the Department of State and the Federal Bureau of 
Investigation in cooperating with Brazil during the Rio Olympics. This 
successful partnership has provided new opportunities to work with 
Brazil in the areas of threat networks, CWMD, cyber, space, and 
information sharing. In the Caribbean, we are partnering with the 
Caribbean Community's Implementing Agency for Crime and Security 
(CARICOM IMPACS) and the Regional Intelligence Fusion Center (RIFC) to 
facilitate greater information sharing and close our capability gaps in 
addressing illicit flows of drugs, people with potential ties to 
terrorism, and foreign fighters. Along with the State Department, we 
are also supporting the Caribbean Community (CARICOM) in their 
development of a regional counterterrorism strategy and working with 
key partners like Trinidad and Tobago to illuminate and degrade 
extremist networks with global ties to ISIS and other dangerous groups.
    With the help of this Committee, our counternarcotics (CN) programs 
in Central America--including train and equip, infrastructure, and 
building partner nation capacity--play an important role in stabilizing 
the sub-region from the effects of threat networks. Our maritime 
capacity building efforts in the region have better enabled us to meet 
our detection and monitoring statutory obligations while ensuring the 
layered defense of the U.S. homeland. Central American partners are 
increasingly capable, playing a significant role in almost a quarter of 
JIATF South's maritime interdiction operations and conducting 
operations on their own, and with one another.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We've also helped enhance their land interdiction capabilities 
through training, essential infrastructure, and mobility and 
communication equipment. As a result, we've seen significant 
improvements across Central American security and military forces. 
Guatemala's Interagency Task Forces (IATFs) combine the best of 
military and law enforcement authorities and capabilities, helping 
control Guatemala's borders and stopping the illegal flow of people, 
drugs, and other threat network activity. Honduras has also made a 
concerted effort to dismantle threat networks, extradite suspected drug 
traffickers to the U.S., and eliminate corruption. Panama is coming off 
a record year disrupting threat network operations. As we seek to 
intensify combined operations, Panamanian efforts to counter a wide 
spectrum of threats showcase them as an increasingly capable partner 
and force multiplier at a critical geographic chokepoint. In the coming 
year, we will expand our support to Panama and Costa Rica to deter 
threat networks from moving into the southern portion of Central 
America's isthmus.
    Empowering public-private collaboration. Since threat networks are 
enabled by exploiting socio-economic vulnerabilities in the region, we 
seek to integrate the efforts and expertise of the private sector, 
NGOs, and civil society to mitigate those vulnerabilities and help 
create communities less vulnerable to criminal exploitation. We 
routinely conduct community support activities in Central America, 
South America, and the Caribbean as part of our humanitarian assistance 
program. Rather than the U.S. Government repairing schools, wells, and 
improving local hygiene and sanitation on its own, we instead work 
alongside our partner nations and NGOs, business, and academic partners 
to expand the reach and effect of these programs. This also supports 
our partner nations in acquiring these skills, which they can use to 
demonstrate state presence and reduce the influence of criminal 
networks.
    Preparing for and Responding to Disasters and Crises. Given the 
inevitability of natural disasters in Latin America, we work with our 
partners to improve our collective preparedness and response 
capabilities. Within our headquarters, we are focused on 
institutionalizing our own capabilities to provide agile and effective 
support to our interagency and regional partners. Within the region, we 
are strengthening our linkages to the very network of regional 
militaries, civilian agencies, and experts that we will cooperate with 
in the event of a crisis.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
During the early stages of last year's Zika
 outbreak, the U.S. Naval Medical Research Unit 6
 (NAMRU-6) became the only U.S. Bio Safety Level
 III laboratory capable of testing for the Zika
 virus in South America, helping the Centers for
 Disease Control, Health and Human Services, and
 the Pan American Health Organization quickly
 track the progress of the virus.
------------------------------------------------------------------------

    Strengthening Interagency Partnerships. That cooperation starts 
with trust; it is the lynchpin of our ability to rapidly respond and 
work seamlessly with our partners. We build this trust during routine 
exercises and deepen it during crisis response operations. While most 
of our exercises involve multiple partner nations, INTEGRATED ADVANCE 
is dedicated to improving our integration with DHS, the Departments of 
State and Health and Human Services, and the State of Florida in the 
event of a Caribbean mass migration. This year's exercise stressed our 
ability to conduct migrant operations at Naval Station Guantanamo Bay 
and support interagency partners in responding to migrant landings in 
the United States.
    Last year, we deepened our already strong partnership with the U.S. 
Agency for International Development's Office of Foreign Disaster 
Assistance (USAID/OFDA). In April, we immediately responded to a 
request from USAID/OFDA to support the government of Ecuador in the 
aftermath of a devastating 7.8 earthquake. We deployed an airfield 
assessment team and a mobile air traffic control tower to increase the 
flow of humanitarian aid into Manta, one of the hardest-hit areas. In 
October, USSOUTHCOM stood up and rapidly deployed Joint Task Force 
(JTF) Matthew to support USAID/OFDA's Hurricane Matthew response 
efforts in Haiti.
    By leveraging forward-deployed forces already in the region, JTF 
Matthew provided a tailored, rapid response that was critical during 
the early stages of relief operations. Utilizing our presence at Soto 
Cano Air Base in Honduras and the U.S. Naval Station Guantanamo Bay, we 
moved elements from JTF-Bravo and a Special Purpose Marine Air-Ground 
Task Force (SPMAGTF) to Haiti within 24 hours. JTF-Bravo and the 
SPMAGTF team--which had previously been conducting security cooperation 
activities in Central America--provided unique U.S. military 
capabilities that significantly aided the delivery of humanitarian 
supplies and alleviated the suffering of hundreds of thousands of 
Haitians.
    Additionally, the immediate deployment of elements from U.S. 
Transportation Command's (USTRANSCOM) Joint Enabling Capabilities 
Command (JECC) was absolutely critical to our effective response. U.S.-
based forces deployed aboard the USS MESA VERDE and USS IWO JIMA also 
provided robust relief from the sea. During the relief mission, we also 
coordinated with our U.S. Coast Guard (USCG) partners to deter 
potential migration in the aftermath of the hurricane and supported the 
Department of State's outreach to regional partners seeking to 
contribute to the response effort.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Finally, one of the most important response tools lies in our 
ability to predict crises and, if possible, avert their onset or 
mitigate their impact. We are analyzing early-warning signs of latent 
risks and underlying vulnerabilities to better identify potential 
instability or crises. This understanding will help us plan and execute 
activities that align with USAID's Disaster Risk Reduction Strategy and 
enhance our longstanding partnership to build local, national, and 
regional response capabilities. We have also partnered with the Pacific 
Disaster Center to utilize their risk management tool to simplify, 
integrate, and expedite the flow of information before, during, and 
after disaster strikes. Our assessments, which we conduct with our 
partner nations' FEMA-equivalents, civilian ministries, NGOs, and 
universities, provide a comprehensive understanding of partner nation 
disaster preparedness capabilities.
    Enabling Partner Nations. Exercises like PANAMAX, FUSED RESPONSE, 
TRADEWINDS, and FUERZAS ALIADAS HUMANITARIAS test multinational 
responses to an attack on the Panama Canal, the trafficking of WMD, a 
terrorist act, and natural disasters. Multinational exercises are the 
most important way we train with our partner nations and Allied 
military and security forces, helping improve interoperability, 
institutionalize preparedness and response measures, and building 
confidence in the United States as a reliable partner. These 
relationships and trust can help reduce the scope and duration of a 
crisis and increase the likelihood our partners can respond to crises 
on their own.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
2,500 personnel from 20 nations participated in
 PANAMAX 2016. Brazil, Chile, Colombia, and Peru
 played major leadership roles in the
 multinational and functional commands.
------------------------------------------------------------------------

    Along with DTRA, we are working with a diverse group of nations--
Chile, Colombia, Guatemala, Honduras, Panama, Peru, Dominican Republic, 
and Brazil--to develop and enable WMD crisis response capabilities for 
both military and civilian first responders. This year, we look forward 
to deepening our collaboration with Chile and Argentina in this 
important effort. These partnerships demonstrate our enduring resolve 
and commitment to our partners in the face of the worst of potential 
disasters. We also include Proliferation Security Initiative (PSI) 
workshops in exercises like PANAMAX and UNITAS to help our partners 
understand and respond to the growing challenge posed by proliferation 
of WMD, their delivery systems, and related materials.
    Regionally, our health and medical readiness engagements build 
partner nation capacity--including infrastructure, equipment, and 
skilled personnel--to prevent, detect, and respond to disease 
outbreaks. At the early stages of the Zika outbreak, the U.S. Naval 
Medical Research Unit 6 (NAMRU-6), based in Peru, established research 
sites in partnership with Colombia, Guatemala, Honduras, Paraguay, 
Bolivia, Venezuela, and Peru to actively support partner nation Zika 
response efforts. We also implemented a disease surveillance tool that 
strengthens Honduras' capabilities to address global health threats, 
and are working with Guatemala to do the same this year.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Many of our capacity-building efforts would not be possible without 
the dedication of our Active Duty, Guard, and Reserve forces, 
especially in our Components and the National Guard State Partnership 
Program (SPP). Last year, the partnership between the Florida National 
Guard and Barbados strengthened the Barbadian government's ability to 
respond to natural disasters with a focus on critical infrastructure 
and interagency collaboration. Massachusetts' partnership with Paraguay 
allows governmental agencies to access outlying communities that are 
often far from first responders. We appreciate the support Congress 
provides to SPP, which enables us to leverage the strength of our 
National Guard.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
USSOUTHCOM is proud of the newest SPP
 partnership between Argentina and
 Georgia's National Guard, our 23rd
 State Partnership.
------------------------------------------------------------------------

    Empowering public-private collaboration. In addition to 
collaborating with our interagency and regional partners, we also seek 
to build a culture of crisis management and trust across our network of 
non-governmental partners. During the lead-up to the Rio Olympics, we 
partnered with international cruise lines and law enforcement agencies 
to share information about potential threats and ensure security 
protocols were in place. We are beginning work with the College of 
William & Mary's Violent International Political Conflict and Terrorism 
(VIPCAT) lab to help predict violence in partner nations, assess 
deterrence option effectiveness, and forecast tactical successes. We 
also regularly join chaplains in our partner nation militaries to 
engage religious leaders in the region about their role in disaster 
recovery and potential opportunities to work together when crisis hits.
    Led by U.S. Army South and U.S. Air Forces Southern/12th Air Force, 
our Beyond The Horizon and New Horizons humanitarian and civic 
assistance exercises incorporated more than 2,000 U.S., partner nation, 
and public/private participants from seven nations. This network 
treated nearly 30,000 patients, conducted 242 surgeries, and 
constructed schools and clinics in remote areas. Similarly, our 
training missions like JTF-Bravo's medical engagements and Continuing 
Promise bring together U.S. military personnel, partner nation forces 
and civilian volunteers to treat tens of thousands of the region's 
citizens. We are also building basic infrastructure like schools, 
medical clinics, and emergency operations centers and warehouses for 
relief supplies. These activities provide training opportunities for 
our own personnel, while also improving the ability of our partners to 
provide essential services to their citizens and meet their 
humanitarian needs during a disaster or emergency response, enhancing 
the legitimacy of regional governments.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Building relationships to meet global challenges. Whether we're 
remaining vigilant of the activities of Russia, China, and Iran, 
fostering greater regional and multinational cooperation against shared 
challenges, or reinforcing the rules-based international order, 
security partnerships are the foundation of everything we do. These 
partnerships--based on shared values, mutual respect, and principled 
U.S. and regional leadership--ensure our hemisphere remains a beacon of 
peace and prosperity.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
Last year we integrated 18 different U.S. and
 regional NGO, private sector, and academic
 organizations into various exercises and
 humanitarian missions. In total, these groups
 provided $2.5 million in gifts-in-kind donations
 of services and goods like medicine and food.
------------------------------------------------------------------------

    Strengthening interagency partnerships. Over the past year we have 
expanded our support to our interagency partners and fellow Combatant 
Commands to address the global challenges of Russia, China, and Iran. 
We work with the Intelligence Community and our diplomatic colleagues 
to build a better shared understanding of what they intend by their 
actions and how their activities in Latin America advance their 
respective global strategies. We routinely share information with U.S. 
European Command (USEUCOM), U.S. Pacific Command (USPACOM), and 
USCENTCOM on issues of mutual interest and concern. We also contribute 
to Department of Defense-wide deliberations on our strategic approach 
to the Russian problem set, and to the USPACOM-led China Strategic 
Initiative (CSI) to inform whole-of-government efforts. In the coming 
year, USSOUTHCOM and USPACOM will host a meeting with our Allies and 
partners in Southeast Asia and South America to share information on 
Asia-Pacific security and transregional threat networks.
    Enabling partner nations. While our capacity building efforts help 
partner nations address immediate threats, over time we seek to 
encourage a network of capable partners who contribute to international 
security and advance shared principles like good governance and human 
rights. Chile is a regular participant in USPACOM's annual RIMPAC 
exercise and will assume a greater exercise leadership role in the 
future. Colombia is leading an effort to integrate a block of Pacific 
Alliance nations into the Western Pacific Naval Symposium, and is 
expanding defense cooperation with South Korea, Japan, and potentially 
Vietnam. Colombia has entered into a partnership agreement with NATO, 
and we are working closely together on deepening this cooperation. 
Brazil is deepening its maritime security cooperation with West Africa, 
focusing on countering illicit trade between the South American and 
African continents. Many nations in the hemisphere have joined many 
other regional leaders in supporting UN peacekeeping operations around 
the world, including the UN mission in Haiti. Through the Global Peace 
Operations Initiative (GPOI), we have helped sustain critical partner 
capabilities for Guatemala and Uruguay peacekeepers in the Democratic 
Republic of Congo and Haiti; helped El Salvador deploy helicopters to 
the UN mission in Mali; and supported Peruvian airfield engineers to 
the Central African Republic.
    In Colombia, the 52-year conflict has also left the country among 
the world's most heavily contaminated by landmines, improvised 
explosive devices (IED), and unexploded ordnance (UXO), which affect 31 
of Colombia's 32 departments. As part of an interagency effort, 
USSOUTHCOM's Humanitarian Mine Action program provides `train-the-
trainer' courses to instructors at the Colombian military's 
International Demining Training Center (CIDES), helping meet the 
Colombian government's goal by training 41 Army Platoons and 5 Marine 
Platoons. In this effort we are joined by the Department of State and 
the twenty other countries and European Union that came together as 
part of the Global Demining Initiative for Colombia. Humanitarian 
demining will spare thousands of additional victims, facilitate land 
restitution and resettlement of internally displaced persons, and help 
lay a foundation for rural economic opportunity--all essential steps 
for this valued partner to consolidate lasting peace. As they work 
through this process, Colombia and the Colombian people are counting on 
our steadfast commitment, and I thank the Congress for its continued 
support to this important bilateral partnership.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    We also promote the continued professionalization of regional 
defense and security institutions. Transparent, accountable militaries 
and security forces help reinforce good governance by being responsive 
to civil authority and respectful of the rule of law. They are also 
better able to resist unwelcome coercive pressure by state (and non-
state) actors. We have identified four key military imperatives to 
enhance professionalism in militaries across the region: respect for 
human rights; the institutionalization of a culture of enhanced 
`jointness;' \5\ the development of a professional non-commissioned 
officer (NCO) corps; and the pragmatic integration of gender 
perspectives into military operations. We consider these 
``imperatives,'' as these interlocking, interdependent, and mutually 
supporting characteristics are the hallmarks of modern security forces, 
the foundation for successful coalition operations, and the bedrock of 
legitimacy with civilian populations.
---------------------------------------------------------------------------
    \5\ As part of enhanced `jointness' we encourage our partners to 
embrace inter-service, interagency, and inter-organizational mindsets.
---------------------------------------------------------------------------
    We advance these four areas in several ways. Now in its 20th year, 
our landmark Human Rights Initiative brings together representatives of 
military, security forces, civilian government, and civil society to 
work together to develop and strengthen human rights programs within 
the region's armed forces. We continue to see significant progress in 
this area; Guatemala recently announced its military will begin to 
withdraw from civilian policing duties, an important step heralded by 
many human rights NGOs. Educational institutions like the Inter-
American Defense College (IADC), the William J. Perry Center for 
Hemispheric Defense Studies, and the Western Hemisphere Institute for 
Security Cooperation (WHINSEC) help our partners institutionalize these 
concepts and build their own network of civilian and military defense 
professionals. In Belize, Trinidad and Tobago, Guatemala, Chile, and 
Colombia, our Defense Institution Building and Defense Institution 
Reform Initiative programs promote the development of effective 
institutions that embrace interagency, joint, and public-private 
approaches.

------------------------------------------------------------------------
 
---------------------------------------------------------------------------
Since its creation, the IADC has graduated 2,732
 students from 26 nations. Alumni from the region
 include 3 presidents, 31 Ministers of State, 11
 senior level government officials, and 775
 generals and admirals.
------------------------------------------------------------------------

    Through our NCO development program, we supported the development 
of a Senior NCO Course in the Dominican Republic; the first designated 
Sergeant Major of the Army for Brazil and Chile; and joint senior 
enlisted meetings across multiple countries. We have also brought on a 
dedicated combat-proven Gender Integration Advisor to promote the 
inclusion of diverse perspectives in partner nation military 
operations. As part of this effort, we will host our second Women in 
the Military Conference in Guatemala, which will focus on effectively 
integrating fully trained and qualified military women into operational 
and peacekeeping units.
    Empowering public-private collaboration. We routinely engage with 
U.S. and regional academic centers and the private sector to discuss 
the implications of Chinese, Russian, and Iranian engagement in the 
region. This network of experts, economists, and business 
representatives can also help us, and our partners in the region, 
better understand potentially exploitative behavior by state and non-
state actors alike. We also hold regular dialogues with members of the 
human rights community, including routine outreach to influential (and 
often critical) NGOs. This frank exchange of perspectives helps us 
better understand and address NGO concerns, and has also led to 
improved NGO awareness and support of USSOUTHCOM's mission and human 
rights efforts.
    Our no-fail mission: detention operations. Although most of our 
efforts are focused on engaging with our partners in Latin America, we 
also continue the safe, humane, legal, and transparent care and custody 
of the remaining detainees at JTF-GTMO. As many members of Congress 
have witnessed firsthand, the medical and guard force at JTF-GTMO are 
not merely caring for these detainees; they are providing the best of 
care. Our troops in close contact with detainees face periodic assaults 
and threats to them and their families, yet they remain steadfast in 
their principled care and custody role. Every day they demonstrate the 
same discipline, professionalism, and integrity as they confront the 
same dangerous adversaries as our men and women fighting in 
Afghanistan, Iraq, and elsewhere around the world. I know this 
Committee, our Secretary of Defense, and our President applaud their 
commitment and share my pride in these young troops serving in this 
enormously sensitive and demanding mission, and we thank you for your 
continued support.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     initiatives: harnessing innovation & taking care of our people
    To support our efforts, we've dedicated ourselves to becoming a 
platform for experimentation and innovation. We actively collaborate 
with our partner nations and the Services, and the defense technology 
enterprise, including the Office of the Assistant Secretary of Defense 
for Research and Engineering and the Defense Innovation Unit 
Experimental (DIUx), private industry, and academia to test a range of 
technologies in the region. These collaborations have yielded some 
promising and ongoing experimentation with unmanned platforms, advanced 
sensor and communications systems, and small spacecraft technologies.
    In addition to embracing a culture of innovation, we're 
implementing several initiatives to improve how we support our team 
members. We deeply value the investment made by our partners in 
strengthening hemispheric cooperation by placing foreign liaison 
officers in our headquarters and subordinate staffs. We do not take 
those partnerships for granted, and are doing everything we can to 
strengthen and deepen them. We now include our partner nation liaison 
officers in many of our operations and intelligence briefings. Along 
those same lines, we are also expanding the use of communication 
platforms in our multinational exercises to improve real-time 
information sharing with participating partner nations and Allies.
    At USSOUTHCOM our people are more than just our most important 
asset; our people are largely our only assets and they are absolutely 
essential to our ability to do our mission. Previous reductions have 
had a disproportionate impact on our ability to engage with the region 
and within the U.S. Government. As an example, without intervention or 
staff realignment, we will soon have no liaisons placed with several 
key interagency partners--something I'm committed to fixing. So while 
we are not seeking to expand our headquarters staff, we are seeking to 
strengthen it. In an effort to improve interagency integration, we are 
committed to finding the right people from within our headquarters to 
serve as liaison officers across different agencies in the U.S. 
Government and in regional information-sharing centers. Not only does 
this improve awareness and collaboration, but also realigns our 
headquarters staff to maximize effectiveness and efficiency. We're also 
working to develop an agile workforce by equipping our team with 
skillsets and technologies needed to address complex challenges.
                              requirements
    As we continue adapting to the evolving security environment and 
supporting efforts to enhance the defense-in-depth of our Southwest 
border, I will work with Congress to secure our southern approaches and 
enable our regional partners to address our common challenges. We 
appreciate the greater flexibility provided in the FY17 National 
Defense Authorization Act, as well as this Committee's efforts to 
codify the counterdrug authorities that are so critical to our efforts 
in the Western Hemisphere. We are concerned, however about some 
potential negative impacts these changes may have on our ability to 
equip our partner nations. We look forward to working with the 
Committee to ensure we minimize disruption to these effective programs 
that help build a layered defense of our homeland, and to discussing 
the best ways to support an effective counter-threat network approach.
    As this Committee knows, USSOUTHCOM has historically received 
minimal allocated and assigned forces. Until capabilities like 
intelligence, surveillance, and reconnaissance (ISR), maritime support 
platforms; and analysis of open source/publicly available information 
(PAI) no longer outpace supply, commercial alternatives will remain the 
only immediately feasible options available to USSOUTHCOM.
    Mr. Chairman, I'd like to provide a more detailed overview of our 
main requirements.
    Countering threat networks. A critical element of dismantling 
threat networks involves affecting their financial and transportation 
sub-networks. Cocaine remains a source of enormous profit for many 
networks operating in the region, but we face significant limitations 
in stopping the deluge of drugs that reach our shores and streets. As 
this Committee knows, USSOUTHCOM has traditionally faced significant 
resource constraints. For the past several years, our Intelligence, 
Surveillance and Reconnaissance (ISR) and other force requirements have 
not been met due to competing global priorities. We have felt these 
impacts most acutely in our Detection and Monitoring (D&M) mission, 
where we have long received less than a quarter of our maritime and 
airborne requirements. The consequence is well-known to this Committee: 
although JIATF South detected a record amount of cocaine moving in the 
maritime domain last year, they were unable to target 75 percent of 
validated events due to a shortage of forces. That equates to hundreds 
of tons of additional cocaine on our streets, and nodes in that network 
that continue to operate rather than face disruption and prosecution. 
To that end, we greatly appreciate the additional funding from the 
Congress that allowed us to work with the U.S. Air Force to purchase 
contract aircraft to off-set the loss of Maritime Patrol Aircraft 
(MPA).
    Our detection and monitoring challenges are due in part to the low 
number of U.S. Navy platforms available to support JIATF South's 
mission. Since 2007, Navy long and medium range ship allocation has 
steadily decreased. The last time we were above 1.0 was 2014--and not 
by much. Since 2015, when the Navy's frigates were decommissioned, we 
have averaged a Navy presence of less than .50. Under the Commandant's 
superb leadership, our Coast Guard partners are doing everything they 
can, punching well above their weight by helping us partially fulfill a 
portion of our Title 10 detection and monitoring obligations. The USCG, 
however, cannot be the indefinite bill-payer for our statutory mission. 
This Committee is well aware of the maritime platform gaps we have 
experienced for the past few years. In the near term, we are exploring 
non-traditional alternatives to fill these requirements until more 
Littoral Combat Ships are in the fleet and available for assignment to 
USSOUTHCOM.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A biometrics machine, similar to this one used in a board, search 
and seizure exercise aboard the USS Jason Dunham, is used to confirm 
identity. This technology catches people using fraudulent passports to 
travel and exposes criminal records. (U.S. Navy photo by Mass 
Communication Specialist 2nd Class Deven B. King/Released)
    To effectively counter threat networks, we need two types of tools: 
interoperable, multi-domain, tools that help us understand the 
environment, capture weak signals, and anticipate change (all-source 
intelligence capabilities and analysis); and tools that help us conduct 
sustained engagement and build capacity (Civil Affairs, MISO, medical 
teams, SOF capabilities, and SCO personnel). We also require biometrics 
equipment to identify and track individuals who may represent security 
threats; biometrics analytical capability to process, exploit and 
disseminate biometric collected data; and visualization technology to 
better coordinate and integrate operations with our partners. With 
these capabilities, we can do more than just chase after shifting 
trafficking routes or disrupt illicit commodities--we can have a more 
lasting and transformative effect countering the networks doing those 
activities. We also need staying power on land and at sea. A sustained 
Special Purpose Marine Air Ground Task Force (SPMAGTF) deployment and 
maritime forces would generate endurance and increase reach and impact 
in all of our counter-network operations. Given its dual use that 
supports both rapid response and countering threat networks, the 
SPMAGTF is extremely valuable, and we greatly appreciate Congressional 
support to the U.S. Marine Corps to resource this multi-mission force.
    As the Congress takes steps to address border security, I urge 
Members not to forget about the Caribbean. Like our USNORTHCOM 
partners, we are concerned by the vulnerability of this ``Third 
Border''--the Caribbean, where documented cocaine flow is the highest 
in 10 years. Improved security along the U.S.-Mexico border will likely 
increase security challenges in the Caribbean. Our island nation 
partners are ill-equipped to deal with an influx of threat networks and 
our force limitations hinder our ability to fully secure the Caribbean 
from illicit flows of SIAs, weapons, and narcotics.
    On a related note, our current long-distance radar solution in the 
Caribbean and Central America--the Relocatable Over-The-Horizon Radar 
(ROTHR) radar system--faces operational challenges. I am becoming very 
concerned over the construction of several hundred wind turbines as 
part of wind farms in Virginia and Texas. These farms could, and likely 
will, adversely impact our radar systems that provide a critical 
detection and monitoring capability to track illicit aircraft. This 
interference will degrade our capability to use these same systems to 
detect and track threat network operations in the maritime domain. We 
are working within the Department of Defense and with developers and 
stakeholders to develop potential mitigation solutions and exploring 
alternative technical solutions. Current law, however, dictates the 
Department assume the operational risk as well as the cost burden for 
testing, modeling, and risk mitigation for these types of projects--a 
potentially unlimited drain on resources.
    I would also like to go on record to express my unqualified support 
for resourcing our U.S. law enforcement, diplomatic, and development 
partners. Effectively securing our southern approaches requires a true 
team effort. The Department of Defense is just one contributor to the 
counter-network fight in the Caribbean and Americas; DHS, the 
Department of Justice, the Department of State, the USAID, and members 
of our Intelligence Community are key for any lasting success. 
Degrading threat networks requires effective partner nation law 
enforcement, judicial, and prison systems. A balanced package that 
includes assistance to strengthen governance, economic development, 
intelligence, and security is needed, as well as comprehensive efforts 
to stem our country's insatiable demand for illicit goods.
    Preparing to and responding to disasters and crises. Unfortunately, 
previous budget constraints on the Department of Defense's Combatant 
Commanders Exercise and Engagement (CE2) Program have forced us to 
reduce or significantly de-scope our exercise program. This impacts the 
readiness of our force and limits our ability to build and strengthen 
relationships. It's also a missed opportunity to project U.S. presence, 
which can affect the calculations of threat networks and potential 
competitors alike.
    When it comes to presence, the Naval Station at Guantanamo Bay 
plays a major role in the interception, screening, and repatriation of 
migrants as well as a place of protection for those who have a credible 
fear of persecution. It is also a critical distribution and staging 
area for humanitarian assistance and disaster relief operations in the 
Caribbean, as well as logistical support for forces conducting our 
detection and monitoring mission. Similarly, Soto Cano Air Base--which 
houses JTF-Bravo, Special Operations Forces, and the SPMAGTF 
headquarters--provides our only forward presence in Central America and 
allows us to efficiently support willing regional partners, provide 
continuous, adaptive support to counter-network operations, and respond 
immediately to natural disasters. Both these assets are critical to 
USSOUTHCOM, and we thank the Committee for its support to their 
continued operations and for the additional MILCON to address migrant 
operations at Guantanamo.
    Given the minimal forces traditionally allocated to USSOUTHCOM, it 
would be impossible for us to respond effectively to a crisis absent 
the depth and breadth of expertise available via U.S. Transportation 
Command's Joint Enabling Capabilities Command (JECC). I would like to 
go on record expressing my unqualified support for this capability. Any 
move to disestablish and redistribute those resources back to 
individual Combatant Commands could deprive USSOUTHCOM of this 
invaluable resource.
    As this Committee knows, the U.S. military's unique capabilities, 
while exceptional, play a small role of short duration in any disaster 
response. We appreciate the support of the Congress to USAID, whose 
OFDA office provides our nation's frontline responders. These partners 
are the appropriate lead for addressing humanitarian crises and long-
term development challenges that affect regional stability.
    Building relationships to meet global challenges. Programs like 
Foreign Military Financing (FMF), Foreign Military Sales (FMS), and 
International Military Education and Training (IMET) will remain 
foundational tools for building partner capacity, sustaining trust, and 
improving interoperability. Compared with the U.S. defense industry, 
Russian and Chinese arms are less reliable, significantly less capable, 
and come with almost non-existent maintenance or logistical support. 
They beat us handily, however, when it comes to faster and more 
efficient procurement.
    IMET is a critical program in this region that helps build a 
network of former students who understand our approach, share our 
values, and are willing and eager to work with us. Every seat in one of 
our courses is an opportunity to build partnerships with a new 
generation of leaders. The IMET experience also demonstrates that what 
we build lasts and that we are committed to the long-term investment of 
developing strong regional institutions.
    Detention Operations. Troop housing for our JTF-Guantanamo forces 
remains a priority concern. The facilities still fail to meet 
standards, and routinely suffer leaks and structural damage with every 
passing storm. While we escaped the brunt of Hurricane Matthew last 
year, a direct hit (even by a Category 2 storm) will have significant 
consequences. Our men and women deserve better.
                               conclusion
    Mr. Chairman, some may ask if we can afford to remain engaged in 
Latin America, especially given the scope of challenges we face across 
the world. I believe, quite frankly, that we can't afford not to. To 
echo Secretary Mattis' statements during his confirmation hearing, 
``islands of stability in our hemisphere are under attack by non-state 
actors and nations that mistakenly see their security in the insecurity 
of others.'' \6\ As I said earlier, when it comes to this region, we 
have a choice. With the support of the Members of this Committee, I am 
confident we will choose wisely. Thank you for your continued support 
to the men and women of USSOUTHCOM as they work to defend our southern 
approaches. I stand ready to answer your questions and look forward to 
our discussion.
---------------------------------------------------------------------------
    \6\ James N. Mattis, Nomination Hearing Statement before the Senate 
Armed Services Committee

    Chairman McCain. Thank you very much, Admiral.
    General Robinson, North Korea tested another medium-range 
ballistic missile this week. Kim Jong-un, known to some as the 
crazy, fat kid, has stated his intention to test an ICBM. How 
confident are you that you can intercept a North Korean ICBM 
targeting the Homeland?
    General Robinson. Senator McCain, I am extremely confident 
of our capability to defend the United States of America and be 
able to intercept an ICBM should it reach our Homeland. Right 
now, as you know, he cannot reach our Homeland, but I am 
confident, should he do that.
    Chairman McCain. Admiral Tidd, your predecessor once 
testified before the Homeland Security Committee that he 
watches drug trafficking take place, particularly in the 
Caribbean, but does not have the equipment and funding 
necessary to intercept some of that drug trafficking. What is 
your assessment of your ability to intercept and stop drug 
trafficking that you can see but do not have the capability to 
address?
    Admiral Tidd. Senator, we continue to have those 
shortfalls. We continue to be able to see a significant amount 
of traffic heading towards the Central American peninsula. 
Unfortunately, we only have the resources to be able to 
intercept about 25 percent.
    Chairman McCain. Would you supply for the record what you 
need in order to be able to intercept 100 percent?
    Admiral Tidd. Simply put, more ships, more aircraft.
    Chairman McCain. Again, would you be a little more 
specific?
    Admiral Tidd. Yes, sir. For the record, we will provide the 
exact calculations.
    [The information referred to follows:]

    Admiral Tidd. [Deleted.]

    Chairman McCain. I think we all know that there is an 
epidemic of fatalities due to some of these drugs being used by 
more and more Americans such as oxycontin, et cetera. So I 
think it is even more important now for us to have the ability 
to intercept these drug shipments.
    Are you seeing an increase or decrease or the same?
    Admiral Tidd. Senator, we are seeing the volume continuing 
to go up. We are seeing some significant improvement on the 
part of some of our partner nations in their ability to be able 
to conduct intercepts. But we still watch far more go by than 
we can actually act on.
    Chairman McCain. The volume of what drugs have you seen?
    Admiral Tidd. We are focusing on cocaine. That is what we 
principally see because it departs the SOUTHCOM region and 
heads north, but we are also aware that these threat networks 
that I spoke of previously are also actively engaged in the 
movement of precursor chemicals that produce the other drugs 
that you mentioned.
    Chairman McCain. In the NDAA, we called for greater 
cooperation with our military assets with our Border Patrol and 
other civilian agencies of government. Have we seen any 
progress in that area, General Robinson?
    General Robinson. Sir, I would say we actually have. In 
fact, last summer when I went down on the southwest border, I 
saw Marine Corps ground sensor platoons providing information 
to Border Patrol folks. I saw UASs on the border.
    Chairman McCain. Drones?
    General Robinson. Drones on the border providing 
intelligence capability, and I watched Army reconnaissance 
units----
    Chairman McCain. Are you satisfied with the level of the 
use and cooperative effort, understanding we have posse 
comitatus and we do not put our military in direct contact, but 
we are utilizing the assets of the military as well as we 
could?
    General Robinson. Sir, we are looking at ways, how can we 
continue to maximize our capability and capacity. I am working 
very closely with Army North Commander, Jeff Buchanan, 
specifically with Fort Huachuca and the drone capability and 
capacity there.
    Chairman McCain. Finally--and both of you may answer--if we 
continue sequestration, what does that do to your ability to 
carry out these responsibilities? I am specifically speaking 
about this flood of Mexican manufactured heroin, opioids, and 
others that are creating havoc in some parts of our society. 
Whichever one. Admiral Tidd?
    Admiral Tidd. In our case, anything that restricts the 
ability of the services to provide forces----
    Chairman McCain. Yes, but I am talking about sequestration 
specifically.
    Admiral Tidd. Sequestration will further limit the ability 
of the services to provide any resources to us.
    Chairman McCain. General?
    General Robinson. Sir, I totally work closely with the 
interagency, and so anything that takes away from----
    Chairman McCain. I am talking about sequestration 
specifically.
    General Robinson. Yes, sir.
    Chairman McCain. What are the effects of it on your ability 
to carry out your mission?
    General Robinson. Sir, the President nominated me and you 
confirmed me to defend the Homeland. If I looked at what the 
United States Air Force talks about in their ability to provide 
pilot capability, trained, ready pilots to defend the United 
States of America and in a year or so, they will be down 1,000 
pilots, will I be able to have the aircraft availability that I 
need to.
    If I look at ballistic missile defense and our ability to 
look at long-range discriminating radar and the capabilities as 
we move forward, I get concerned that that will have an effect 
on that.
    Those would be two things that I would say to you 
specifically.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, Admiral Tidd and General Robinson, for your 
service. Please thank the men and women who every day support 
you and support us.
    Your commands depend significantly on other federal 
agencies. You both brought up the issue of drugs infiltration 
to the United States. That involves the Treasury Department in 
terms of going after the financial backers that are involved. 
Obviously, Homeland Security, the Coast Guard. Those are the 
ships I think you are talking about, Admiral, in terms of the 
more ships you need. They are not Navy ships. They are Coast 
Guard ships and aircraft.
    We have to reduce the demand. That means health care in the 
United States so that someone who has a problem does not go to 
the street and get drugs. They go to a health clinic and get 
rehabilitation, one hopes.
    So the point I would ask both Admiral Tidd and General 
Robinson is just the essential need to adequately fund and 
resources for other agencies that you work with. Is that 
essential to your mission? That is, even if we gave you 
everything you asked for, if you did not have those other 
components, you could not accomplish your mission.
    Admiral Tidd. Senator, that is correct. Particularly in the 
SOUTHCOM region, it is a team effort, and that team requires 
significant contributions to be made by the State Department, 
by the intelligence community, by our federal law enforcement 
agencies. The Department of Homeland Security is probably our 
staunchest ally in the work that we do. As I point out 
frequently, because of the commitment of Navy ships to other 
regions around the world, my Navy in the SOUTHCOM region all 
has white hulls and orange stripes. We could not do our job 
without the U.S. Coast Guard.
    Senator Reed. Thank you.
    General Robinson, your comments?
    General Robinson. Yes, sir. If you go back to Admiral 
Tidd's conversation about the networks and understanding about 
the commodity on the network, I want to understand what the 
commodity is on the network because everything I do to 
illuminate it, the disruption part of it comes to other lead 
federal agencies, whether it is DHS or CBP or whomever, and so 
any cuts that any of those folks take does not allow that 
disruption and end game of what happens to the information that 
I provide to them. So it is incredibly important as a team that 
we bring this together.
    Senator Reed. Thank you very much.
    Admiral Tidd, one of the interesting things in your 
testimony and in our discussions is the presence of China and 
Russia. It is interesting that Russia has built an 
international police training facility in Nicaragua so that 
they are actively training Nicaraguans. That is a surprise to 
me because that used to be sort of a no-go zone. The only 
trainers were the United States.
    But the point is that it comes down to matching and 
exceeding that with our IMET program, which is a State 
Department program. Is that a fair judgment?
    Admiral Tidd. Senator, programs like IMET that you 
mentioned are critical to our ability to build the partnerships 
with the countries throughout the region to ensure that they 
have the trained individuals. It also creates partners who have 
a profound understanding of the United States because they come 
and they spend time in our schools. It pays enormous dividends. 
It is an investment often that does not pay off for 10 or 20 or 
sometimes 30 years, but it is an incredible investment in 
future relationships for our countries.
    We do watch closely what Russia and China and Iran are up 
to. They are countries that are countries of global concern, 
and it is important that we pay attention to what they do here 
in this theater.
    Senator Reed. Just a final question, Admiral Tidd, if I 
could. Venezuela is under huge pressure because of economics, 
politics, everything. Can you give us sort of a sense of the 
outlook?
    Admiral Tidd. Senator, the entire region is watching 
closely what happens in Venezuela. As you are well aware, when 
I mention the word ``Venezuela,'' tomorrow in the newspapers of 
Caracas will be stories that USSOUTHCOM is engaged in 
operations against Venezuela. Nothing could be further from the 
truth, but the reality is that the enormous economic 
instability that is taking place in Venezuela affects the 
entire region. The OAS is watching that very closely and taking 
very, I think, important action.
    Senator Reed. Just quickly. Are there Chinese, Russian 
interests in Venezuela? Would they take advantage of that type 
of disruption?
    Admiral Tidd. Both countries have significant economic 
involvement in Venezuela, and it would be difficult to imagine 
that they would not look to take advantage of further 
instability in that country.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    General Robinson, first of all, I am sure that you 
developed your horse skills during your tenure as the wing 
commander at Tinker Air Force Base. It has obviously come in 
handy.
    As I mentioned to you when you were in my office, I wanted 
to lay the groundwork for a question that I think is 
significant. Before this committee, General David Mann had 
said, and this is his quote. He said that there are nearly 30 
countries that possess ballistic missile capability. Together 
these countries have approximately 50 different variants of 
ballistic missiles. Additionally, there are currently 13 new 
intermediate-range and 8 intercontinental ballistic missile 
variants under development.
    Now, in 2009, the administration cut the missile defense 
budget by $1.4 billion, and then ultimately terminated the 
system that had been set up in both the Czech Republic and 
Poland for a ground-based interceptor. They terminated the 
multiple-kill vehicle and decreased the number of ground-based 
interceptors from 44 to 30.
    Now, you testified that the MDA [Missile Defense Agency] is 
really doing four things right now. One would be to increase 
the interceptors back to 44 from 30; secondly, upgrading the 
ground system hardware and software; number three, continuing 
development efforts on the re-designed kill vehicle; and number 
four, to deploy the long-range radar.
    Now, my question would be, do you think that these actions 
are sufficient to overcome the problems that you and I talked 
about and that you mentioned in your opening statement, if you 
do these things like additional improved sensors, additional 
improved ground-based interceptors? What else needs to be done, 
or is this enough?
    General Robinson. Well, sir, first of all, Happy Quail 
Breakfast Day. I apologize for not being there.
    Senator Inhofe. It is our 55th consecutive year I might 
add.
    General Robinson. Yes, sir, I know that, and it is a 
wonderful event.
    I believe the MDA strategy as they have laid out, improving 
the sensors for better discrimination, improving the 
reliability of the kill vehicle, and then looking at the number 
of ground-based interceptors is exactly the strategy that we 
should go based on what we see today.
    Senator Inhofe. I appreciate that.
    Admiral Tidd, I think it is safe to say that the under-
resourced commands would be your command and AFRICOM. That is 
my opinion. Do you agree with that?
    Admiral Tidd. I do.
    Senator Inhofe. If you look at some of the programs--and 
Senator Reed mentioned the IMET [International Military 
Education & Training] program. I often look at these programs 
in the under-resourced area of AFRICOM such as the IMET 
program, which I have always thought is great. Once you develop 
a relationship at that stage of the careers of individuals, you 
got them. The obvious point is if we do not do it, China will.
    Secondly, the foreign military sales and foreign military 
financing. Is that something that should be expanded?
    So on those two programs, what do you think can be 
expanded, and are there any barriers to you from being able to 
expand those programs?
    Admiral Tidd. Senator, I think that the IMET program, as 
you describe, is probably one of the single most important, 
long-term investments that we can make in establishing 
positive, constructive relationships based on trust with our 
partners. There is nothing like an officer coming or a senior 
enlisted coming and studying in our schools and living in the 
United States and experiencing for themselves all that this 
country represents to be able to counteract the sometimes 
negative messages that they might see in the international 
press. When we have those opportunities, they are absolutely 
priceless. They pay off because we see time after time after 
time, particularly throughout our region, the senior military 
leaders of many of the services in the countries have trained 
in the United States. They have lived in our country. They know 
who we are. Frankly, I think our country and our culture sells 
itself. So I cannot place enough value on a program like IMET. 
We could always use more.
    One of the challenges is it is like most of the resources 
allocated based on a regional prioritization, and SOUTHCOM 
typically comes in at the bottom of that prioritization.
    Senator Inhofe. What about barriers to you improving these 
programs?
    Admiral Tidd. Thus far, we have not run into any other 
barriers except that we run out of money.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here and for your service to this 
country.
    You both mentioned the threats that transnational crime 
networks pose to the United States and to global stability for 
that matter. Admiral Tidd, you started out with a story about 
drug traffickers, which we have seen very directly in the State 
of New Hampshire where the heroin and opioid epidemic is a huge 
threat where we have the third highest overdose rate in the 
country. As Senator McCain pointed out, your predecessor talked 
about his inability to be able to intercept some of those 
traffickers because he did not have the equipment and the 
resources to do that.
    Can you talk about what you are doing currently to work 
with authorities in this country to intercept those drug 
traffickers?
    Admiral Tidd. I will address the southern most part of that 
point, and then I would defer to General Robinson to address as 
it comes closer to our border.
    Because we recognize the shortfall in U.S. platforms 
available to conduct the detection and monitoring mission, that 
is one of the reasons why we have shifted our focus from 
exclusively on the commodity itself to a focus on the networks 
that engage in the trafficking, thinking that if we can focus 
on those networks and find the areas where the networks overlap 
and then working with partner nations so that their law 
enforcement or their military or, in some cases, our U.S. 
federal law enforcement agencies have the authorities to be 
able to engage in that end game, we use our abilities to build 
the picture and then to share that picture in a way that can be 
used by those with the authorities to be able to conduct the 
disruption action.
    We think that by building a stronger interagency team that 
we will be able to apply pressure across the length and the 
breadth of the networks, recognizing that we may not directly 
touch the networks that are directly responsible for the 
movement of the opioids that are wreaking such havoc in your 
State but that any pressure that we apply across these networks 
will have a beneficial effect across the length and breadth.
    General Robinson. So, ma'am, you heard Admiral Tidd talk 
about that. One thing I think that is incredibly important for 
you and this committee to know, that Admiral Tidd and I meet 
about every other month to sit down and discuss what he just 
talked about. So the information that he has and that he is 
sharing with the lead federal agencies with his partner nations 
is the same information that I am sharing. So as we stood in 
Guatemala and the river that defined the barrier between 
Guatemala and Mexico, that information does not stop at that 
river.
    If you think about it then as a larger network, the things 
that he shares with my staff and my folks, whether it is intel 
sharing at border points, whether it is building partnership 
capacity to help partner nations, or whether it is direct 
linkages with Border Patrol and DHS, that information that he 
gets, that I get, that I provide either to lead federal 
agencies or partner nations so that they can take care of 
business at the end game.
    This relationship between the two of us is very strong, and 
we have a third partner that we bring into it, General Tony 
Thomas of Special Operations Command, to talk to us what is 
happening overseas to help inform that larger network.
    Senator Shaheen. The National Guard has a counter-drug task 
force that has provided critical support to law enforcement in 
New Hampshire. Do you all work with that counter-drug task 
force with the Guard as well?
    General Robinson. Ma'am, we work very closely with the 
Guard. The information that we get that I provide to lead 
federal agencies goes out to other agencies throughout the 
States.
    Senator Shaheen. When you and I met yesterday--and I 
appreciated the opportunity to sit down with you--one of the 
things we talked about was the northern border and the fact 
that what we have seen in New Hampshire is that there are some 
drugs going back and forth across our northern border as well, 
and I think that is less well known.
    General Robinson. Yes, ma'am. Again, I would say, as I 
mentioned yesterday, we have a very close relationship with the 
lead federal agencies in Canada as well with us. So that 
information not just stops at our southern border, but also 
goes to our northern border to share with our partners there.
    Senator Shaheen. Thank you.
    Just quickly. I am almost out of time, but I know you 
talked yesterday and again today in response to Senator Inhofe 
about sensors and kill vehicles and the need to continue with 
those programs. Are there any other improvements that you think 
we should take in order to address missile defense given North 
Korea's rising capabilities?
    General Robinson. Ma'am, I think we are on a very good, 
solid track where we are going and the strategy that we have 
today. Again, I would urge for a budget to have predictability 
so we can keep on that track.
    Senator Shaheen. I agree. Thanks very much.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Admiral Tidd and General Robinson, first of all, let me 
thank you both for your service to our country.
    General Robinson, on page 12 of your statement, you say the 
increased standoff capability, low altitude, and small radar 
signature of cruise missiles make defending against them a 
technical and operational challenge. Yet, in the very next 
sentence, you say I am confident in a layered approach provided 
by our family of systems to conduct cruise missile defense.
    What is this layered family of systems that we would be 
using in cruise missile defense? If you could describe those 
family members for me, please.
    General Robinson. Sir, I would tell you it comes on two 
approaches. If you look on the northern approach from Russia 
over Canada and Alaska, we are doing an analysis of 
alternatives to upgrade the radars that are there so that we 
can be able to detect, track, identify, and if necessary, 
engage at ranges to defend Canada and the United States.
    Senator Rounds. These are land-based radar systems.
    General Robinson. Sir, right now they are, but what I have 
done from a requirements process is defined, hey, I want to be 
able to do that at ranges to defend. I do not want to just say 
upgrade my radar because then you do not allow the people that 
think differently or different ways to look at that problem. So 
that is from the northern approach.
    Now here in the National Capital Region is the first part 
where we have sensors and capability here in the National 
Capital Region. If I go back out and then I look at my F-16's 
with the AESA radars and the ability to use them to be able to 
detect at longer ranges, we can do that.
    Senator Rounds. These are found in Block 50's?
    General Robinson. Yes, sir. I think it is Block 50's. All I 
have asked for the requirement is to be AESA radars. So we can 
be able to detect at ranges but, most importantly, sir, to be 
able to identify at ranges to be able to defend the National 
Capital Region.
    Then the last part of the layer for phase one is to what 
kind of radar or what kind of capability can I get to be able 
to look at longer ranges out over the eastern part of the 
United States and the ocean to be able to detect at even 
longer.
    So those are some of the layers that I talk about.
    As we go further, phase two and three is now more part of 
the country.
    Senator Rounds. I understand.
    You did not mention the F-15C models. Do they play into the 
when defending against the cruise missile threat?
    General Robinson. The F-15's? Yes, sir, they play into 
defending where in the United States. Yes, sir.
    Senator Rounds. My understanding is that there is a 
possibility that we will be looking at perhaps reducing the 
number of F-15C's due to the increasing costs of maintaining 
the structural integrity of that aircraft between now and the 
year 2020. Is that figured into your plans?
    General Robinson. Sir, from the conversations that I have 
had with the Air Force, which have been very small, I know that 
that is something they are looking at. Obviously, my voice 
would come into this to make sure that we have enough capacity 
to defend the United States from an air threat.
    Senator Rounds. What is the split between the number of F-
15's that you have available versus the current number of Block 
50 or the F-16's that have the appropriate radar in them today?
    General Robinson. Sir, I do not have that number. I will 
take it for the record.
    Senator Rounds. Would you please?
    General Robinson. Yes, sir, I will.
    [The information referred to follows:]

    General Robinson. The U.S. Air Force provides NORAD with Aerospace 
Control Alert (ACA) alert fighter aircraft. 58 of the USAF F-15C 
aircraft are equipped with Active Electronically Scanned Array (AESA) 
radar. At this time, no NORAD ACA F-16 aircraft are equipped with AESA 
Radar. The U.S. Air Force is in the process of modifying an additional 
47 F-15C ACA aircraft with AESA radar. In addition, the NORAD Joint 
Emergent Operational Need (JEON) for all 72 ACA F-16s was fully funded 
in H.R. 244, the Consolidated Appropriations Act of 2017. Phase 1 of 
the NORAD JEON is scheduled to modify 24 aircraft (8 aircraft at the 
first three ACA bases). The first three ACA bases to receive AESA 
radars in Phase 1 are: 177th Fighter Wing, Atlantic City Air National 
Guard Base, NJ (F-16 Block 30); 113th Fighter Wing, Joint Base Andrews, 
MD (F-16 Block 30); and 169th Fighter Wing, McEntire Joint National 
Guard Base, SC (F-16 Block 52). In Phase 2 of the AESA fielding plan, 
48 additional F-16 ACA aircraft (of various Blocks, including 30, 40, 
and 42) from NORAD's other main operating bases will be modified with 
the AESA radar.

    Senator Rounds. I am just curious. Is there a plan in place 
to begin using F-35A's in the middle of this for this 
particular defense system?
    General Robinson. Sir, I know as the Air Force brings the 
F-35's on board, that will be a conversation that we will have, 
making sure that I have the right capability and the right 
capacity to defend in the air domain.
    Senator Rounds. The reason that I ask is it appears to me 
that this is one of the more serious threats that we have with 
air-launched cruise missiles. The second part is you have 
currently got F-15's and apparently there is some concern about 
their long-term viability. Your F-16's, which you have right 
now--you have got Block 30's, Block 40's and some Block 50's I 
understand.
    General Robinson. Yes, sir.
    Senator Rounds. The Block 40's which we have in South 
Dakota may very well be--if properly equipped with the 
appropriate radar, may very well be stand-in or at least be 
capable of handling part of that as the F-15's go on.
    I guess I am getting back down to is that part of the 
discussion that you are having, or are we not that far along?
    General Robinson. We are not that far along. The Air Force 
I think is just looking into that. As I can tell you, sir, I 
will assure you my voice will be a part of that conversation 
because of the importance of defending in the air domain the 
United States. Those are the capabilities that I use.
    Senator Rounds. Thank you.
    General Robinson. Yes, sir.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to our witnesses. I appreciate, Admiral Tidd and 
General Robinson, your patriotism and your work in a very 
difficult job, and you do it with distinction. Thank you so 
much.
    First, Admiral Tidd, I want to have you kind of elaborate a 
little more on a point that you brought up to a question that 
Senator Reed asked related to the U.S. Coast Guard. In 
addition, to serving on this committee, I am the ranking member 
of a subcommittee that oversees the Coast Guard and am very 
concerned, as I know you have expressed, with some potential 
budget cuts for the Coast Guard.
    I would like you to elaborate a little more on what I think 
is a very powerful statement that you made that your Navy has 
white hulls and orange stripes, as to the impact that the Coast 
Guard has. Certainly we need to protect their resources so they 
continue to execute that mission. But I would like you to go a 
step further as to what additional resources do you think would 
be necessary for them to enhance their capabilities to support 
you.
    You have talked in your testimony about how this maritime 
border is certainly one that we have to pay a great deal of 
attention to, and perhaps our discussion should not be about 
defending funding for the Coast Guard. It should be about 
additional resources they need or could use to supplement the 
great work that you are doing now.
    Admiral Tidd. Well, Senator, obviously, I would defer to 
the expertise of the Commandant of the Coast Guard in terms of 
building the plan that would be required. But as I have said 
before, because of higher priority commitments for U.S. Navy 
warships in other parts of the world, the U.S. Coast Guard has 
surged additional capacity, almost doubling the number of 
cutters devoted to the USSOUTHCOM region. I know that that is a 
challenging responsibility that they are shouldering. We are 
very concerned that we are already shorthanded in the number of 
ships that we have available on the high seas and the Caribbean 
and in the eastern Pacific to be able to deal with the known 
cases of movement along those pathways. My concern is that the 
Coast Guard be able to continue to meet the commitments that 
they have established.
    Senator Peters. Well, I appreciate that.
    In your written testimony, you discussed as well the impact 
of your Navy ships in the area, and you talk about exploring 
nontraditional alternatives to fill these requirements until 
more littoral combat ships are in the fleet.
    Could you describe some of these nontraditional 
alternatives and also explain how they may compare to the 
capabilities of the littoral combat ship?
    Admiral Tidd. Not having yet had the luxury of having a 
littoral combat ship down in our region, I cannot tell you 
exactly how it would compare. But what we are trying to do is 
sensors on other types of platforms that come down there to be 
able to share information, working very closely with our 
partner nations, ensuring that they have the capability to be 
able to be out and to operate in the seas. We have tremendous 
support provided by other countries that also have interest in 
the region. For instance, France, the Netherlands, and Canada 
all periodically provide warships that contribute to that 
mission.
    But I very much look forward to the arrival of the first 
littoral combat ships in our theater. I think they have 
capabilities that are ideally suited for the theater that we 
are talking about.
    Senator Peters. Very good.
    General Robinson, also talking about Coast Guard assets but 
in the area of responsibility that you have, which is the 
Arctic, and the receding ice and the opening up of those sea 
lanes and the very significant Russian presence that exists up 
there. Could you speak a little bit about the importance of the 
U.S. Coast Guard in the Arctic region and how assets certainly 
cannot be reduced? In fact, we should be thinking about having 
a larger presence to counter a growing Russian presence.
    General Robinson. Sir, I would tell you that the Coast 
Guard presence in the Arctic is very important. If you recall, 
last summer, the cruise ship, Crystal Serenity, that went 
through for the first time having a cruise ship go through the 
Arctic, it talks about the need for the Coast Guard there in 
the Arctic. So I certainly support the Coast Guard and all 
their endeavors to be a part of that.
    Senator Peters. Great. Thank you very much.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Admiral. Thank you both for being 
here, Admiral Tidd, General Robinson. Thank you so much for the 
great work that you are doing on behalf of NORTHCOM and 
SOUTHCOM.
    Admiral Tidd, I will start with you and want to thank you. 
I see that the great State of Iowa has been able to provide yet 
a second sergeant major to SOUTHCOM. We are pleased that you 
are both here with us.
    I did appreciate meeting with you last week--last month. 
Excuse me. We had a very good conversation. During that 
conversation, you brought up the fact that you have seen more 
activities from the Russians. You mentioned that just a little 
bit earlier, as well as some other countries. You stated that 
it may not be with a military bent, but that there were some 
other activities that they were engaging in. Can you enlighten 
us as to the types of activities you are seeing from the 
Russians and why that would be of a national security interest 
to us?
    Admiral Tidd. Thank you, Senator.
    We have seen the deployment of ships, particularly frequent 
deployment of intelligence collection ships, that we know 
operate frequently on the east coast of the United States and 
then spend time down in the Caribbean. We have seen 
periodically the deployment of long-range aviation that comes 
down and spends a bit of time down in our theater.
    But probably of greater long-term concern is the very 
aggressive arms sales programs where Russia is down and talking 
with our traditional partners and attempting to displace the 
United States as the partner of choice.
    The part that I think is most troubling is we see they are 
engaged in a very aggressive misinformation campaign, basically 
peddling the story that the United States is not a reliable 
partner in Latin America, that we are not interested in the 
region, and that we are withdrawing from the region. It is 
troubling because of resource constraints that we have had and 
the requirement for the number of forces available in our 
theater. As that has declined, that plays directly into that 
narrative that Russia has been peddling.
    So these are relationships that we have with strong 
partners, and it is just up to us to be able to prove that we 
are the partner of choice.
    Senator Ernst. So not only do we need to maintain a 
presence there, but we also need to reinforce our own message 
to those areas.
    Admiral Tidd. Absolutely.
    Senator Ernst. Admiral Tidd, in February of 2017, the 
Associated Press reported that Trinidad and Tobago has become 
the largest per capita source of ISIS recruits in the western 
hemisphere. According to the report, as many as 125 fighters 
have traveled from the island to ISIS-controlled areas over the 
past 4 years.
    So are you concerned about the rise of ISIS [Islamic State 
of Iraq and Syria] in SOUTHCOM?
    Admiral Tidd. Senator, we are very concerned. There is, I 
think, a tendency often to think that ISIS is only present in 
the Middle East or North Africa, and the reality is ISIS is 
present here in the western hemisphere.
    You cited the case of foreign fighters that have gone over 
to Iraq and Syria to fight. Obviously, we are very concerned 
about the return of those fighters. But what has become more 
troubling is an active effort on the part of ISIS to 
communicate to radicalized individuals telling them stay home 
and conduct attacks in your home countries against your 
countries and the United States and our interests in this 
region. So you cited Trinidad and Tobago, but that is not the 
only country where we know that there is a presence of 
radicalized individuals to whom the ISIS message is very 
appealing, and I think it is an area that we have to pay close 
attention.
    Our counter-network approach that we are applying enables 
us to recognize this presence of ISIS in the theater when 
previously, when we focused exclusively on commodities, 
oftentimes we focused more on the criminal networks and did not 
pay attention to the fact that there are also terrorist 
networks as well.
    Senator Ernst. So those terrorist networks--they understand 
those pathways that are being used by various cartels and so 
forth, moving goods into the NORTHCOM area. Do you think those 
could be exploited then by those terrorist organizations?
    Admiral Tidd. ISIS, in one of the recent issues of Dabiq 
magazine, communicates directly in English language to 
radicalized individuals to attempt to exploit those pathways 
into the United States. So we have to assume that they are 
going to try.
    Senator Ernst. Those that are fighting in Iraq and Syria--
how are they able to reach back into the Caribbean and 
radicalize the folks there? What do you think is the primary 
means of communication?
    Admiral Tidd. I think it is Internet. It is by cyber means.
    Senator Ernst. Cyber is something that you believe we 
should pay attention to then.
    Admiral Tidd. I think we all recognize that it is a domain 
that must bear increasing attention.
    Senator Ernst. Absolutely. I appreciate that.
    Do you think we are doing enough to counter ISIS's 
recruiting efforts in the SOUTHCOM region?
    Admiral Tidd. That is probably one of the areas of greatest 
work that we are engaged in. In order to work with our partner 
nations and in our discussions with them, they now recognize 
that they must pay attention to the radicalization phenomenon. 
We all, I think, had a wakeup call with the attacks that 
occurred in Paris, in Brussels, but also in San Bernardino and 
in Orlando that individuals can become radicalized and can 
conduct horrific attacks. It is up to all of us to work 
together, exchange information, and attempt to remove the 
conditions that lead to radicalization.
    Senator Ernst. Thank you. I appreciate that. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Before I call on Senator King, I just want 
to make it clear to everyone, Admiral Tidd, if we are really 
serious about addressing this issue of flow of drugs into the 
United States of America that Senator Shaheen has described as 
so dramatically affecting her State, that we need to provide 
the assets. It is not something that is a mystery. Is that 
right? If we want to be far more effective, you would need the 
assets in order to do that. Is that correct?
    Admiral Tidd. Senator, that is correct.
    Chairman McCain. Senator King?
    Senator King. Thank you for asking my first question, Mr. 
Chairman.
    [Laughter.]
    Senator King. Admiral Tidd, your opening statement was very 
powerful and also disturbing, powerful because you describe 
this in terms of an attack, and that is what it is. It is an 
attack on our country. To talk about the numbers, since we have 
been sitting here, four people have died of overdoses in the 
United States. It is about four an hour, 37,000 people a year, 
one a day in my State of Maine. It is absolutely unacceptable 
to know that that is happening and to couple it with your 
testimony that you are only able to interdict 25 percent of the 
shipments you know of because of a lack of resources in the 
Coast Guard. Couple that with a proposed 15 percent cut in the 
Coast Guard budget, I just do not know how we can possibly turn 
a blind eye to the implications of this.
    I just want you to reiterate. Your testimony was that you 
are only able to interdict 25 percent of shipments you know of 
because of a lack of essentially Coast Guard assets. Is that 
correct?
    Admiral Tidd. Senator, it is due to a lack of any surface 
assets, whether it is U.S. Navy, U.S. Coast Guard, partner 
nations. I mean, it is a shortfall of platforms that are 
capable of conducting intercepts on tracks that we know are out 
there.
    Senator King. A cut in the Coast Guard budget, which would 
further constrain the provision of those assets, would not be 
in the national interest. Would it?
    Admiral Tidd. Senator, all I will say is I am absolutely 
dependent on the Coast Guard to conduct the operations that we 
are able to conduct.
    Senator King. There are not sufficient assets today. Is 
that correct?
    Admiral Tidd. That is correct.
    Senator King. Thank you. Your answer was very diplomatic.
    General Robinson, let us go to missile defense. You 
testified you have confidence in the missile defense structure 
that we have today, but we do not live in a static world. The 
North Koreans just in the last few months have gone from liquid 
fuel to solid fuel, which drastically cuts our warning time. 
Are we continuing to develop our capability, and what are the 
gaps? Where should we be focusing in order to strengthen our 
nuclear defense system?
    General Robinson. Sir, thank you for that.
    As you so rightly said, our lack of indications of warning 
is increasing. As we look to the future how do we ensure not 
just that but then when something launches to make sure that we 
have the right radar in the right place.
    Senator King. And discrimination in radar is also----
    General Robinson. You took the words right out of my mouth. 
I was going to talk about the ability to ensure that we have 
discrimination as we move to the future. So when you talk about 
our radars, it is to ensure that we have discrimination and 
ensure that we have an architecture that today is terrestrial, 
but tomorrow or maybe even more in the future will move to 
space. Those are the things that we need to continue looking as 
we move to the future is ensuring we have got the right radar 
at the right place at the right capability and with reliable 
kill vehicles.
    Senator King. So if you were granted a billion dollars to 
spend in this area, do you I take it that radar and 
particularly the discrimination radar would be where you would 
go first?
    General Robinson. That is where I would go first, sir.
    Senator King. Thank you.
    General, do you have any idea offhand an approximate number 
of Russian icebreakers that they have available in the Arctic 
region?
    General Robinson. No, sir, I do not. But I know they have 
more than we do.
    Senator King. If I said it was a low of 17 and a high of 
40, would that sound reasonable?
    General Robinson. Yes, sir.
    Senator King. How many icebreakers do we have available?
    General Robinson. I believe it is one.
    Senator King. One and a half.
    General Robinson. Okay, one and a half.
    Senator King. But the one that we have actually transits 
between Antarctica and the Arctic. Is that not correct?
    General Robinson. Yes, sir.
    Senator King. So the icebreakers, the essential 
infrastructure of the Arctic region, is the road builder in 
effect.
    General Robinson. Yes, sir.
    Senator King. This is a place where we really are in a 
serious deficit situation. The prior administration proposed 
the additional building of one icebreaker, but that is still a 
long way off.
    But do you see this as an important priority even though 
this would not be a naval asset but probably be a Coast Guard 
asset? But it is one that is crucial to our future in the 
Arctic. Is it not?
    General Robinson. Sir, I absolutely support the Coast 
Guard's endeavors to bring more icebreakers to the Arctic. As 
you suggested, it is a pathway for them.
    Senator King. One of the things that you are seeing in your 
command is a significant Russian buildup of military assets 
along their shore of the Arctic.
    General Robinson. Sir, I have seen their buildup. What I 
have also seen is Russian long-range aviation that comes east 
of the Urals that often does out-of-area flights that are in my 
AOR [area of operation].
    Senator King. That is another threat. We talked prior about 
the North Korean threat, but that is another threat that is--
particularly that is the NORAD [North American Aerospace 
Defense Commnad] mission. Is it not?
    General Robinson. Yes, sir. You are exactly correct, 
defending the airspace both for the United States and Canada 
from the air domain.
    Senator King. A final short question. We have a seamless 
cooperation and agreement, arrangement, and working 
relationship with the Canadians in terms of NORAD?
    General Robinson. Absolutely, sir. It is a bi-national 
command.
    Senator King. Thank you.
    General Robinson. Yes, sir.
    Senator King. Thank you, Mr. Chairman.
    Chairman McCain. Senator Perdue?
    Senator Perdue. Thank you, Chairman. I really appreciate 
you bringing both these combatant commanders together.
    I have a particular concern about what Russia is doing in 
our hemisphere. I have a quick question for both of you.
    When you look at Russia--how they bracketed Europe with 
their facilities in Murmansk, Kaliningrad, Crimea, now Tortus 
and Latakia, I see them attempting to do the same thing here. 
So the Arctic, which was just mentioned--it looks like to me 
they have opened up a new Arctic command. They have got four 
Arctic BCTs [Brigade Combat Teams] they have now assigned up 
there. They have got 16 deep water ports north of the Arctic, 
40 icebreakers, plus 11 more on order, and we are down to one 
and a half icebreakers. I would like to know what your 
assessment--first of all, do you agree with that assessment, 
General? What is our--that you can talk about here--what is our 
tactical response to that buildup in the Arctic?
    General Robinson. So, sir, I would agree with your 
assessment. What I would tell you about response--I will parse 
it in a couple of different bins.
    First, as we watch the Russians come east of the Urals in 
the air domain, I ensure on my NORAD side that I have the right 
capability and capacity with adequate indications and warnings 
to make sure that we can defend Canada and the United States, 
specifically Alaska. So in the air domain, I do that.
    From a policy perspective, at the end of 2016, the 
Department policy put out an Arctic strategy, and that Arctic 
strategy talked about ensuring security, promoting safety, and 
promoting defense cooperation.
    Senator Perdue. I am sorry. Do we have an Arctic command 
today?
    General Robinson. No, sir. My job as the Commander of 
Northern Command is to provide--I am the advocate for Arctic 
capabilities. That is what I do. But I am in the process of 
writing a strategic estimate for the Arctic where I will be 
able to talk about theater security cooperation, talk about 
capabilities, and then kind of put my role out there with----
    Senator Perdue. Will you share that with the committee?
    General Robinson. I will when we are done. In fact, we 
should probably be done this fall, and I would be happy to 
share that estimate with you.
    Senator Perdue. Thank you.
    Admiral, in the Southern Command likewise--and this is not 
a recent development. It looks to me it is very obvious what 
Russia is trying to do here. They are bracketing us. They are 
already playing in our elections the same way they are playing 
in cyber warfare in Eastern Europe.
    In Latin America between 2001 and 2013, Russia sold Latin 
America $15 billion worth of arms. That is about 40 percent of 
what was sold in the region. When I look at what they are doing 
with Nicaragua particularly--oh, and between 2008 and 2011--I 
did not know this. If you look at what Russia sold, they have 
sold more than 3,000 surface-to-air missiles to the region, 
just in that 3-year period.
    In the last couple of years, particularly since 2014, in 
Nicaragua alone 50 combat tanks, an established ground station 
for a Russian satellite network, and they are talking about 
Russian-made fighter jets now to add to their fleet. As was 
reported last week in TASS, they are announcing joint military 
drills together in Nicaragua. I find this to be very 
destabilizing.
    Do you agree with that assessment? If so, what is our 
response to Russia specifically in Nicaragua and Venezuela 
relative to the fact that we have got troubled governments 
there anyway? How do we manage the diplomatic development and 
defense efforts in that area specifically relating to what 
Russia is doing?
    Admiral Tidd. Well, Senator, I think the first 
responsibility we have is to pay attention to it and not to 
ignore it and to ensure that if we are concerned about what 
Russia is engaged in in Eastern Europe, that we pay at least as 
much attention to what they are engaged in in our own 
hemisphere.
    As you point out, they have got historic relationships 
going back to the era of the Soviet Union with Nicaragua and 
with Cuba. They have developed them with Venezuela. They are 
one of the largest suppliers of high capability arms to 
Venezuela. So it is very troubling that as they establish 
themselves and become I suppose both the arms supplier but also 
having greater influence in those two countries right close to 
our own Nation, that ought to be a matter of some concern. We 
have to continue to pay attention to it.
    Our relationships with the countries in Latin America is 
strong, but they are relationships that must be tended to. We 
must continue to engage and we must continue to demonstrate not 
just by words but also by our action, our engagement, that we 
are reliable partners.
    Senator Perdue. Thank you both.
    Chairman, General Milley this week said that the lack of a 
budget and the potential danger of going to a CR [Continuing 
Resolution] bordered on professional malpractice. I want you 
two combatant commanders to know that at least one Senator here 
agrees with that 100 percent.
    I do not fully understand what a CR does to tie your hands 
in terms of moving money back and forth, but I take you at your 
word that it totally limits you from doing that. That to me is 
more dangerous than the total number. For one, I am standing 
firm with the chairman here that this is the most dangerous 
thing that we are facing right now.
    General Mattis said earlier this year that the debt was the 
greatest threat in the national security. Well, here is where 
the rubber meets the road. I want to pledge to both of you guys 
my personal full support to do whatever we can to make sure 
that we avoid that debacle.
    Thank you, Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you, Admiral Tidd and General Robinson for being here 
and for your leadership.
    I just want to quickly underline a point that was raised by 
Senator King and Senator Reed, and that is about the importance 
of our non-military foreign assistance and other civilian 
instruments of our national power to your missions.
    So is it accurate to say that you work with the State 
Department, the Department of Homeland Security, and other 
civilian agencies in efforts to maintain security and stability 
in your regional areas of responsibility? General Robinson?
    General Robinson. Yes, ma'am.
    Senator Warren. Thank you.
    Admiral Tidd?
    Admiral Tidd. Absolutely.
    Senator Warren. You know, the budget proposal put out by 
the Trump administration calls for about a 29 percent cut to 
the State Department and significant cuts to FEMA [Federal 
Emergency Management Agency] and other domestic agencies. I 
just want to ask in general, would funding cuts to agencies 
that conduct diplomacy, provide disaster relief, and perform 
other civilian functions make your job easier or make your job 
more difficult? General Robinson?
    General Robinson. It would make it more difficult, ma'am.
    Senator Warren. Admiral Tidd?
    Admiral Tidd. More difficult.
    Senator Warren. Thank you. I agree.
    Admiral Tidd, I want to turn back, if I can, to something 
you said last year. In your posture statement, you expressed 
concern about economic conditions and persistent threats to 
people's safety that caused the mass migration of unaccompanied 
children from El Salvador, Guatemala, and Honduras back in 
2014. Are you still concerned about these underlying factors?
    Admiral Tidd. We think that we must continue to pay 
attention to the push factors. Insecurity in Central America is 
a significant push factor.
    Senator Warren. But are you worried about the gangs and 
other criminal networks that take advantage of these conditions 
to be able to recruit and to stay in business?
    Admiral Tidd. Yes, we are.
    Senator Warren. Do you think that lack of security and 
economic opportunity provide an opening for some of our 
adversaries to exert influence in these areas?
    Admiral Tidd. I think we are seeing that in a number of 
countries in Central America.
    Senator Warren. So let me ask you, Admiral Tidd. What more 
should the United States Government be doing to address these 
underlying conditions?
    Admiral Tidd. I think the efforts to provide some limited 
resources that are available in the case of Guatemala, 
Honduras, El Salvador, for them to develop a regional solution 
to a regional problem is very important. A very high bar 
condition has been set for them to receive those resources, but 
I think we must be realistic and we must help them achieve 
those standards because it is ultimately in all of our 
interests that they achieve them.
    Senator Warren. This is something you are working on now 
actively?
    Admiral Tidd. Senator, it is.
    Senator Warren. I appreciate it.
    I also want to note that in your posture statement last 
year, you thanked Congress for funding the State Department and 
USAID to implement the U.S. strategy for engagement in Central 
America to help address these root causes of migration.
    There has been a lot of talk about how to address unlawful 
immigration. By itself the tallest wall in the world will not 
help us if we choke off funding for non-military strategies to 
address the root causes of migration from Central America. I 
think that would be bad for regional stability and for our 
security.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman.
    Admiral Tidd, you state that the southern border should be 
the last line of defense not the first. Given the diminishing 
Navy presence dedicated to Southern Command, is the Coast Guard 
an increasingly valuable partner as a forward line of defense?
    Admiral Tidd. Sir, you know, we also talk about there is a 
third border, and that is the maritime border up through the 
Caribbean. The Coast Guard right now is the principal U.S. 
maritime force that is present in the Caribbean.
    Senator Wicker. I think they do a good job for you.
    Your testimony states that SOUTHCOM lacks the forces 
necessary to interdict about 75 percent of identified and 
validated drug trafficking targets. A successful interdiction 
requires two things: an end game asset, a boat or a helicopter, 
to stop the trafficker, and law enforcement authority to make 
the arrest. Does the Coast Guard's new national security cutter 
have these two attributes?
    Admiral Tidd. Senator, they do. The national security 
cutters are a superb platform, very capable, and frankly, they 
also have the sea-keeping abilities to operate in the eastern 
Pacific further offshore where the vast majority of the 
trafficking is occurring today. They are very valuable 
platforms.
    Senator Wicker. A U.S. national security cutter recently 
seized 16 tons of cocaine worth $400 million. In fact, the 
Coast Guard has reportedly seized about 100 metric tons of 
cocaine, about $3 billion worth since its first operational 
deployment.
    Do these national security cutters arguably pay for 
themselves in this regard?
    Admiral Tidd. Senator, I would never turn down an 
additional national security cutter operating in the SOUTHCOM 
region.
    Senator Wicker. One other thing. Your testimony states that 
Southern Command is dedicated to becoming a platform for 
experimentation and innovation, and this includes unmanned 
platforms and advanced sensors. So tell us about that. Expand 
on that testimony, if you will, sir.
    Admiral Tidd. Senator, in our efforts to find new and 
innovative ways to get after the resourcing problem, we have 
aggressively discussed with services and with the research and 
development organizations that we would be an ideal region to 
come and test out new technologies, perhaps new technologies 
that are being developed for a different theater, for a 
different problem set, but that we have a meaningful 
operational mission. We can provide real feedback and that my 
commitment as the combatant commander is to ensure that we 
eliminate any bureaucratic impediments to being able to bring 
them down and operate them, test them out for a period of time, 
and provide that feedback.
    Senator Wicker. Well, thank you very much, Admiral. I would 
like to invite you down to the Gulf Coast to the Stennis Space 
Center to see the cutting-edge research being done at the Naval 
Research Lab with regard to unmanned underwater vehicles and 
also the Navy Meteorological and Oceanographic Command 
operating a large fleet of UUVs [Unmanned Underwater Vehicles]. 
You might want to come down and visit us, and perhaps you could 
leverage these installations as you push for new innovations.
    Admiral Tidd. Thank you very much, Senator.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank you both for being here today.
    I appreciate you taking the time to come by my office, both 
of you, to talk about the heroin crisis that is impacting 
Indiana and so many other States. We have heard from other 
members here today. It may be the single biggest threat to the 
safety and security of the people of my State, and I am 
convinced we need to everything--everything we can--to stop it. 
This is a whole-of-government effort.
    We heard the chairman talking about the 75 percent figure, 
and we have been talking about that for a while.
    As we look at this, in Indiana in 2015, we lost more people 
to opioid and heroin deaths than in car crashes, which forever 
was the biggest thing. Now this has changed it. The heroin is 
coming in from Mexico and it is coming in across borders that 
we actively monitor. It is not coming through the desert or 
over hills or over here or over there. It is coming through our 
cross points.
    So as we look at this, Admiral Tidd, we talk about the 25 
percent figure, that we catch 25 percent of what is coming in. 
The other 75 percent are killing my friends and neighbors. We 
have lost so many families, children and brothers and sisters.
    What I would love to see is, as the chairman was talking 
about, a plan. If we had all the resources, how much resources 
do you need? How much time will it take? What will we do? How 
do we stop it? Can you put that together for us?
    Admiral Tidd. Senator, we will be happy to work with our 
partners in Northern Command.
    I think as we discussed in your office, though, the 
challenge that we have is we are not going to interdict our way 
out of this crisis. This is going to be a challenge that will 
require a significant amount of work on the demand reduction 
side of the problem, as well as on----
    Chairman McCain. Could I interrupt, Admiral? We are not 
asking you to address the demand side. But if you are capable 
of stopping some of the flow, let us have that.
    Sorry, Senator Donnelly.
    Senator Donnelly. That is okay, sir.
    Admiral Tidd. Yes, Senator.
    General Robinson. Sir, if I could add. As we discussed in 
your office too, all the support that we give to Department of 
Homeland Security on the border is incredibly important, 
whether it is intel sharing or providing detection and 
monitoring to help them do their jobs there on the border.
    Senator Donnelly. I know you know the real-world effects. 
Let me tell you just a couple.
    I have a small town in southern Indiana, a town of 4,200 
people. The opioid crisis has hit it so hard--and this was a 
few years ago--174 cases of HIV in a town of 4,200 people.
    In another small town or small county, rural county, we had 
a shipment of heroin come in from Ohio. It was laced with 
fentanyl, which is 10 times more powerful than the heroin. In a 
2-hour period in one county, we had 10 overdoses and 1 death in 
a 2-hour period from this.
    As Senator Shaheen and others have said, this is not just 
an Indiana problem. This is a nationwide problem that is eating 
us alive. I always look and I go this might have been the young 
person who would have cured cancer, who would have found the 
key to ending diabetes.
    If we can stop that other 75 percent--and we can, and it is 
a resource issue. That is why I am so eager to get the plan of 
if we gave you the keys to the kingdom, so to speak, you have 
the resources, you have everything you need, so how do we do 
this because every day as we are sitting here right now, it is 
coming through the checkpoints.
    General Robinson, I wanted to ask you about Mexico's 
ability and willingness to work with us on this in 
collaboration. In your written testimony, you indicated Mexico 
is growing increasingly capable of helping us. What is your 
assessment of the capability and the will of the Mexican 
Government and security forces to work with us on combating 
this?
    General Robinson. Sir, I will tell you, having been on 
Mexico's southern border talking to their senior leadership 
about their strategy on the southern border, in addition to 
working very closely on the border with their military, the 
willingness of the Mexican military and them to work with us is 
very, very great. I have been very impressed.
    Senator Donnelly. The more you can send that message to 
them, the stronger and better off we will be because this 
really is a national emergency.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, Admiral Tidd and General 
Robinson, for your testimony today and for your continuing 
service to our country.
    Admiral Tidd, how different is Russia's activities in Latin 
America today from the Soviet Union's activities there in the 
Cold War, if different at all?
    Admiral Tidd. I think that it is certainly not 
ideologically motivated like it was during the Cold War. It is 
motivated for economic reasons and for the ability to gain 
influence with countries in the region.
    Senator Cotton. To what extent is Russia and, for that 
matter, other hostile powers in the old world aiming to tie 
down the United States, our attention, and our resources in the 
new world so we cannot project power and influence into the old 
world?
    General Robinson. So, sir, I would say if you look 
specifically, as you mentioned, Russia as they have increased 
their capability and capacity, as they continue to work west of 
the Urals, the thing that I watch is them coming east of the 
Urals. On occasions, they will come over and power project or 
do out-of-area operations. That makes me then, as the Commander 
of NORAD, increase my levels of responsiveness and put force 
structure in the right place at the right time, should they 
power project.
    Admiral Tidd. I think if I could add to that, certainly in 
Latin America, they do not have vital strategic interests, and 
so they see these as opportunities to take advantage of at 
least a perception of the United States being focused in other 
crises in other parts of the world.
    Senator Cotton. Speaking of countries without vital 
strategic interest in Latin America, let us turn to Iran. 
Admiral Tidd, you state on page 9 of your written testimony, 
with the easing of economic sanctions, Iran may be seeking to 
rebuild its relationships in the region. Tehran uses 
cooperative technology, economic and diplomatic interests as a 
centerpiece of its regional diplomacy. Although on the surface, 
it portrays its actions as innocuous, Iran could exploit its 
cultural centers to develop networks, which could be leveraged 
to extend its influence and advance its interests.
    To your knowledge, are there deep cultural, historical, 
religious ties between Latin Americans and Persian Shiites?
    Admiral Tidd. No, Senator, not longstanding.
    Senator Cotton. I did not think so.
    You state earlier in your written testimony on page 4 and 
5, Hezbollah members, facilitators, supporters engage in licit 
and illicit activities in support of the organization, moving 
weapons, cash and other contraband to raise funds and build 
Hezbollah's infrastructure in the region. Hezbollah is the 
terrorist organization based in Lebanon, a cat's paw of Iran. 
To your knowledge, do Arab Shiites have deep cultural and 
historical ties with Latin America?
    Admiral Tidd. What I would observe is that Hezbollah has 
been present in this region in small pockets scattered 
throughout the region for decades. They have been actively 
engaged largely in criminal activities to raise funds to 
support the terrorist activities of Hezbollah in other parts of 
the world. But we also recognize that Hezbollah was responsible 
for the two terrible terrorist attacks on Jewish sites in an 
Israeli consular center in Argentina back in the 1990s. So they 
have been present here and we view them as probably the most 
dangerous of the terrorist groups present in this region.
    Senator Cotton. I want to zero in on one phrase in that 
statement: moving weapons, cash, and other contraband to raise 
funds. What kind of other contraband is Hezbollah moving in 
Latin America?
    Admiral Tidd. I think one of the more interesting ones, 
cars, basically movement of cars to raise money, to launder 
money in order to develop the resources to fund Hezbollah 
activities in the Middle East.
    Senator Cotton. What about drugs?
    Admiral Tidd. Yes, sir, drugs also.
    Senator Cotton. So Hezbollah, a declared terrorist 
organization that operates in the Middle East, is responsible 
in part for the drug flow in Latin America that has had the 
impact that you have heard Senators on this dais talk about 
today, killing Americans in our hometowns.
    Admiral Tidd. I would say they are one of a number. They 
certainly are not the largest, but they play a contributing 
role.
    Senator Cotton. Thank you.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to our witnesses for your testimony.
    I want to just follow up on a couple of points that Senator 
Cotton was making. General Robinson, we talked, had a good 
visit in my office yesterday. You talked about the flows of 
drugs on the seam between NORTHCOM and SOUTHCOM as sort of a 
system of systems. We have to look at it as networks and 
systems. If these distribution networks can bring drugs here, 
they could bring human trafficking. They could potentially get 
people in the United States, terrorists in the United States. 
They could bring weapons of mass destruction, biological 
agents. Is that how you both kind of look at this challenge? 
The interdiction of drugs is really important, but also it is 
important to disrupt these networks because they could also do 
us harm in other ways.
    General Robinson. Yes, sir. As we discussed, it is the 
importance of illuminating that network, understanding what is 
on it, and then whatever that commodity is, is making sure that 
the information for the customer of the commodity gets it so 
that can finish whatever activity they are doing. So your point 
is exactly right. That is why it is incredibly important that 
Admiral Tidd and I and our staffs share information because, 
again, it just does not stop at the river.
    Senator Kaine. Let us just focus on the commodity. There 
are all kinds of commodities we could worry about, but just the 
commodity of the drug trade. Admiral Tidd, you have talked 
about this, you know, 25 percent of what you know you can stop, 
and if you had more assets, you could stop more. I am all for 
that. So Coast Guard, military assets to stop more.
    But let us drill down on this. If you had enough assets to 
try to stop everything you knew about but there was still a 
significant demand for drugs in the United States, there would 
still be drugs that would get to the United States. Correct?
    Admiral Tidd. Yes, Senator. Unfortunately, I believe that 
to be true. These networks are very adaptive. If the price is 
right, they will work very, very hard to work around the bars 
that we try and put in their place. So it is a dynamic problem 
that we will continuously have to work at.
    Senator Kaine. Is there anything you can do within your 
military lane that would bring down drug demand, or is that 
other parts of our government?
    Admiral Tidd. I am not aware, at least not in USSOUTHCOM 
[U.S. Southern Command].
    Senator Kaine. So it is other parts of our government. So 
if we are going to deal with this significant national security 
issue, we ought to be funding the interdiction efforts to the 
degree that you talk about. But if we do not do anything on the 
demand side, we are going to continue to see the national 
security problem.
    Ultimately, this is about the budget. In the submitted 
budget, there is not only a proposed cut to the Coast Guard, 
there is a $100 million reduction of funds to SAMHSA, the 
Substance Abuse and Mental Health Services Administration. 
There are dramatic cuts to CDBG [Community Development Block 
Grant] funds, which are often used by community drug 
prevention/drug treatment programs. This is an example of how a 
defense budget, SOUTHCOM, fits together with the non-defense 
budget, Coast Guard, which is under DOT [Department of 
Transportation]. It is part of non-defense discretionary. 
SAMHSA is part of non-defense discretionary. CDBG's funds are 
part of non-defense discretionary.
    So as we look at the sequester, there are so many things 
that are in the non-defense discretionary budget that are 
really about our defense. If we are not wise in those 
investments, we are going to continue to have this challenge of 
drugs flowing south to north and potentially creating networks 
that can move other commodities as well.
    Do either of you disagree with that?
    Admiral Tidd. Senator, what I would just observe is if 
somehow you could wave your hand and the drugs disappeared 
overnight, these same threat networks would engage in other 
activities in order to preserve their power and their access to 
resources. So that is why we focus on the networks. We have got 
to be able to bring pressure to bear on the networks.
    Senator Kaine. The chair and ranking on this committee have 
been so eloquent really since I got here to the Senate about 
the foolishness of the sequester. I understand why it was put 
in place in a vote in the summer of 2011, and then it went 
active March 1, 2013. But it was put in place at a time of a 
political reality where there were significant Republican 
majority in one house and then two but a Democratic President. 
So it was going to be kind of a budgetary check.
    I would just argue the GOP now has all the leverage, the 
White House and both houses. These non-defense expenditures of 
the kind that we are talking about, Coast Guard, SAMHSA 
funding, could help us deal with the drug problem. They are 
really important to our national security.
    I think the time is just to get rid of the caps, not just 
lift the caps on defense and then keep capping non-defense. 
Just lift the caps on both and let everybody make the case for 
what we need to interdict or make the case for what we need to 
bring down the demand on drugs. Especially with power all in 
the hands of one party right now, there is no danger that the 
Dems would sort of roll the majority on the budgetary side.
    But I think lifting the budgetary cap on defense without 
doing it on non-defense means we are going to hurt an awful lot 
of priorities that are in the non-defense side that actually 
directly contribute to some of these national security 
challenges that we are talking about.
    One other quick question. Activity of China in SOUTHCOM, to 
follow up on Senator Cotton. He asked really good questions 
about Russia and Iran. How about activities of China, military 
activities?
    Admiral Tidd. I would say right now that the activity is 
largely economic in nature. The military-focused activities--
they are very aggressively engaged in an IMET-like program 
where they will seek to bring senior military leaders from 
throughout the region to Beijing for all expense paid trips. 
Again, it is an opportunity to influence the region and to 
displace the United States as the partner of choice in Latin 
America.
    Senator Kaine. Thank you.
    Thanks, Mr. Chair.
    Chairman McCain [presiding]. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I appreciate the witnesses' testimony.
    I think you are seeing this is helpful. I think is as 
important to this committee as it is to all of you, some 
bipartisan consensus on some key issues. A lot of us, my State 
of Alaska, is also dealing with the opioid problem in a massive 
way. There is concern about the Coast Guard's budget. I chair 
the subcommittee on the Commerce Committee that oversees the 
Coast Guard. I can tell you it is clear to me Secretary Kelly 
does not agree with cutting the Coast Guard's budget. So we are 
all going to work together on that, and I think it is a seam 
some ways between this committee and the Commerce Committee 
because the Coast Guard is a branch of the U.S. military and it 
is a very important branch of the U.S. military. So I think a 
lot of us are concerned on that.
    Then you have seen a lot of concern and interest in the 
Arctic, not just coming from the Senator from Alaska, but a 
bipartisan group of Senators are concerned about that.
    So, General Robinson, you are the advocate for the Arctic 
in terms of capabilities. There is a lot of talk about 
icebreakers. We have really one and a half. The Russians have 
40, building 13 more. Senator Perdue talked a lot about that.
    Have you actually been on one of the icebreakers that we 
have?
    General Robinson. No, sir, I have not.
    Senator Sullivan. So I was this weekend. The Polar Star, 
which is the heavy icebreaker, and the Healy, which is the 
medium icebreaker.
    I want to mention--and again, I am not sure which 
jurisdiction it is in terms of committees, but they are 
shameful. Shameful. The Polar Star was built in the 1970s with 
technologies from the 1960s. As Senator King mentioned, it 
deploys down to Antarctica. We should never--never--allow the 
men and women who serve in the U.S. military to deploy on such 
a bucket. This ship is a joke and it is dangerous. I encourage 
you as the advocate for the Arctic to go out and look at what 
our men and women who volunteer deploy on. These guys have to 
go on eBay to get parts for this ship. It is shameful. We 
should not have the men and women of the Coast Guard deploying 
on such an unseaworthy vessel, and we need to do something 
about it.
    You mentioned the new strategy on the Arctic. It talks 
about FONOPS [Freedom of Navigation Operations], which I think 
it is important. Do you think we have any remote capability of 
conducting FONOPS if the Russians tried to, say, block off sea 
transportation routes or block off access to resource 
development, all of which I guarantee at some point they are 
going to try and test us on? That is why they are building up 
so much capacity. Do we have any kind of capacity right now to 
conduct a FONOP that would try to push back on Russian 
aggression buildup in the Arctic?
    General Robinson. Sir, we have discussed that briefly, but 
I have not taken it to the next level of discussion.
    Senator Sullivan. I think the answer is no. But that is my 
view having been out there. Do you have an answer on that?
    General Robinson. Sir, we have discussed it briefly, but we 
have not taken it to the next level of discussion. I do watch 
where Russian ships are each and every day. I can tell you 
that.
    Senator Sullivan. Well, it is one of these things. We put 
out a strategy. It is the new DOD strategy. We say we are going 
to do this. My view is we do not have even the remote 
capability to do this. When we have a strategy that says we are 
going to do something and we do not have the capability to 
actually do it, it undermines U.S. credibility in the world. 
Lord knows, we need to get credibility back in our foreign 
policy and national security.
    Let me talk about missile defense. Do you agree that the 
threat to the Homeland is increasing almost daily?
    General Robinson. I think that Kim Jong-un very much wants 
to reach out and touch the Homeland.
    Senator Sullivan. So General Hyten said February 11th was a 
real, real important date, a bad date with regard to the 
security of the continental United States and Kim Jong-un's 
capability because they tested solid fuel rockets.
    I am not convinced at all. As a matter of fact, I do not 
think we have--I think we need to do a lot more with regard to 
missile defense. Do you agree with that?
    General Robinson. Sir, given the budget where we are today 
and today's budget and the strategy that we have of making our 
sensors better and making our kill vehicles better is the right 
strategy. I think if we have a different budget, then we can 
have a different strategy.
    Senator Sullivan. So let me ask you the question without 
your reference to the budget. Given the increasing threat, 
which everybody sees, given the likelihood--not the likelihood, 
the certainty that within 1, 2, 3, 4 years Kim Jong-un is going 
to be able to reach us with an intercontinental ballistic 
nuclear missile--do not worry about the budget. Just give me 
your military answer. Do you think we have done enough? Are you 
satisfied where we are on missile defense right now for our 
Nation?
    General Robinson. Yes, sir, I am.
    Senator Sullivan. I am not and we need to do a lot, lot 
more given this threat is going to be on our shores. He is 
going to have the capability to nuke cities in the Lower 48 at 
some point in the future. We know that. I do not think we have 
done enough on missile defense. I think we need to do a lot 
more.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    General Robinson, if we did a CR, would it substantially 
hurt your capability to defend the Homeland from such attacks?
    General Robinson. Sir, as you know, as a consumer of the 
services? capabilities, the U.S. Air Force--the chief testified 
yesterday about being down 1,000 pilots. I need trained and 
ready and qualified pilots to defend our airspace. If you look 
at the things that we are doing to delay maintenance and AWACS 
[Airborne Warning and Control] being one of those things to 
delay maintenance, I need an E-3 airborne also to help defend--
--
    Senator Graham. So a CR would be hurtful.
    General Robinson. Yes, sir.
    Senator Graham. If we went back into sequestration next 
year, would that be disastrous?
    General Robinson. Yes, sir.
    Senator Graham. The same for you, Admiral.
    Admiral Tidd. Sir, the services are already challenged to 
provide resources for SOUTHCOM, and so anything that decreased 
the available resources is only going to make the matter worse.
    Senator Graham. That would include a CR and sequestration.
    Admiral Tidd. In my understanding, yes, sir.
    Senator Graham. How many ships do you need to cover your 
theater in not a perfect world but in a better world?
    Admiral Tidd. We have had a longstanding requirement for a 
combination of medium and high endurance platforms for as many 
as 23 surface combatants and accompanying aircraft.
    Senator Graham. How many do you have now?
    Admiral Tidd. On any given day, probably about six.
    Senator Graham. So do you think at the time they did the 
survey for 23, things have gotten better or worse in terms of 
the theater?
    Admiral Tidd. Sir, in that particular regard, they are 
worse.
    Senator Graham. So you got six ships. A long time ago, you 
said you needed 23 and things are worse now than they were when 
you said you needed 23. Okay.
    So, General Robinson, let us get back to North Korea. Do 
you believe that it is the intention of the regime to develop 
an ICBM that can hit the Homeland?
    General Robinson. Yes, sir.
    Senator Graham. Do you believe it is just a matter of time 
until they achieve that capability, unless something changes?
    General Robinson. Yes, sir.
    Senator Graham. Do you believe it is just a matter of time 
until they can miniaturize a nuclear to put on top of the ICBM?
    General Robinson. In my discussions with General Hyten, 
yes, sir.
    Senator Graham. So I guess there are two ways to deal with 
that threat. Never let the missile program mature to the point 
it can hit the Homeland. That is one. Is that correct?
    General Robinson. Yes, sir.
    Senator Graham. The other would be to have a missile 
defense system that could knock it down.
    General Robinson. Yes, sir.
    Senator Graham. What do you prefer?
    General Robinson. I prefer both.
    Senator Graham. I agree. That was like the best answer 
anybody could give.
    Do we have both?
    General Robinson. Today we have exactly what we need to 
defend the United States of America against North Korea.
    Senator Graham. So if a missile were launched from North 
Korea next year, we could knock it down?
    General Robinson. Yes, sir.
    Senator Graham. Do you agree with me it is better not to 
let them have that missile?
    General Robinson. Yes, sir.
    Senator Graham. So in terms of Homeland defense, what is 
the biggest threat to the Homeland, starting with North Korea 
and kind of listing threats that you see?
    General Robinson. Yes, sir. I worry about North Korea, as 
we were just discussing, from a ballistic missile defense 
perspective when I look at Kim Jong-un and his lack of 
indications and warning, as General Hyten talked about the 
other day, and all of that.
    I also look at Russia and their long-range aviation and the 
capability that they have provided.
    Right now, I pay attention to Iran because of some of the 
technologies that they are using.
    I also, obviously, watch China as they continue to go 
further and further away from----
    Senator Graham. So these are nation-state threats.
    General Robinson. Yes, sir.
    But I also am very concerned about the homegrown violent 
extremists and the things that can happen with them. This goes 
back to the conversation that Admiral Tidd and I had about the 
networks and what is on the networks.
    Senator Graham. Speaking of emerging threats, are you 
familiar with the increased use of drones by terrorist 
organizations?
    General Robinson. Yes, sir. I read that.
    Senator Graham. Do we need to up our game when it comes to 
dealing with potential drone attacks on the country?
    General Robinson. Sir, so as the person responsible for 
force protection over installations, I pay attention to that 
each and every day. I know that the Department--we are working 
very hard on a policy on what we do with that.
    Senator Graham. Do you think we need to change our laws at 
all to be able to deal with this threat?
    General Robinson. I think we need to understand what it 
could be and what it could do--from an installation 
perspective, what do we need----
    Senator Graham. Is it fair to say that in 5 years, this 
threat, if not unchecked, is going to get worse and more 
lethal?
    General Robinson. Sir, if you just look at the 
proliferation of drones itself and then you add to what you 
were just talking about and you mate those two together, I can 
only imagine.
    Senator Graham. Thank you both.
    Chairman McCain. Admiral Tidd, we would like to have a 
letter from you describing what additional assets that you 
could use effectively to apprehend all of those drugs, 
particularly in the Caribbean. That seems to be an area, as we 
tighten the border, of increased trafficking.
    General Robinson, we would like to know from you also if 
you could write us a letter how we can fully utilize the assets 
of our uniformed military in keeping with the posse comitatus 
rule so that we can maximize border security.
    Finally, General, would you believe that a definition of a 
wall could be electronics, could be towers, could be UAVs, 
could be anti-tunneling capabilities, surveillance towers, in 
other words dramatically increasing our capabilities through 
the use of technology?
    General Robinson. Sir, anything that disturbs, disrupts, 
and gets after the flow----
    Chairman McCain. I am asking would technology--that it be 
more effectively utilized. I am talking about towers. I am 
talking about----
    General Robinson. Yes, sir. Those are helpful as part of a 
wall.
    Chairman McCain. Well, then write us a note, would you, as 
to what assets you think could be used and construction and 
ways of preventing the flow not only of drugs, which has been a 
central theme of this hearing, but also the possible 
infiltration of terrorists as we see Mosul and Raqqa fall. We 
all know that these individuals are spreading out throughout 
the world. So we would appreciate that information from both of 
you, and I hope it is not too tough a task.
    General Robinson. Yes, sir.
    Chairman McCain. I am certainly glad to see this inter-
service cooperation. It is a rare and beautiful event. Thank 
you.
    This hearing is adjourned.
    [Whereupon, at 11:06 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                      support for border security
    1. Senator McCain. General Robinson, how much support has NORTHCOM 
given to law enforcement addressing border security while training in 
terms of flight hours and man hours?
    General Robinson. USNORTHCOM provides title 10 operational support 
to U.S. Law Enforcement Agencies (LEAs) primarily through Joint Task 
Force North, a USNORTHCOM subordinate joint service command. USNORTHCOM 
provides military-unique support to LEAs under Fiscal Year 2019 NDAA 
Section 1004 authority within six support categories: 1) operational, 
2) intelligence, 3) general, 4) interagency synchronization, 5) 
engineering, and 6) technology integration. During fiscal year 2016, 
USNORTHCOM provided 10,417 flight hours and 159,053 man-days in support 
of federal LEA requests, providing support to LEA requests across all 
six categories.
                               __________
             Questions Submitted by Senator James M. Inhofe
                         engagement in southcom
    2. Senator Inhofe. Admiral Tidd, in your written statement, you 
noted that adversarial nations are growing their influence in the 
SOUTHCOM AOR through outreach programs. You pointed out that nations 
like Russia, China, and Iran have no equivalent of a Leahy Law, and 
``no comparable conditions on security assistance.'' How do we overcome 
our potential disadvantage to exert influence in the region?
    Admiral Tidd. It really boils down to being good partners and 
setting a good example that our partner nations will want to emulate--
we must always strive to grow and strengthen our security partnerships 
throughout the region. One of the ways we do this is by building our 
partners' capacity to address shared threats. These efforts are often 
done by small mobile training teams that work closely with partners. We 
don't need brigades of people and aircraft carriers in this region. 
Small teams engaging at the right level are our strongest assets. Cuts 
to our personnel and programs in this theater are quickly noticed and 
feed into the misinformation campaign by Russia that we are no longer 
interested and withdrawing from the region. To thwart this 
misinformation, we need to continue activities like Information 
Operations to counter Russian propaganda and to stay engaged in the 
region by maintaining efforts to build partner nation capacity, to 
include programs funded by other agencies such as the State 
Department's IMET program. These programs allow us to strengthen 
relationships with like-minded nations, advance our security interests, 
share our views on the imperative of respecting human rights, the 
importance of rule of law, and respect for the rules-based, 
international order.

    3. Senator Inhofe. Admiral Tidd, is the Leahy Law impacting your 
ability to influence and shape behavior in the region?
    Admiral Tidd. The United States Southern Command (USSOUTHCOM) is 
strongly committed to the Leahy Law. The law accomplishes our goal of 
ensuring that our partner nation military counterparts understand and 
comply with respect for human rights, a core U.S. value, and as we are 
seeing increasingly a shared value. Overall, we have seen that the law 
has had a net positive effect on a number of our Partner Nation 
military counterparts in the region, such as Colombia, leading them 
over time to place greater emphasis on their responsibility to respect 
and protect human rights. However, implementation of the vetting 
procedures has become increasingly more challenging as we adapt to 
congressionally mandated personnel cuts within the Department of 
Defense. Moreover, budget cuts to the Department of State would also 
significantly impact implementation of the law, and thus our security 
cooperation efforts, curbing our ability to influence and shape our 
partner nation military counterparts' human rights compliance 
throughout the region. If we are restricted from engaging with our 
partners, we can't help them make the very progress that Congress wants 
to see. Notably, our ability to work with partners who would benefit 
most from our engagement to support their continued progress on human 
rights is frequently restricted by conditions unrelated to the Leahy 
Law. One example of this was the conditions placed on security 
assistance for the Guatemalan Armed Forces in fiscal year 2014. Funds 
for security engagement were tied to the Government of Guatemala paying 
reparations for the construction of the Chixoy Dam and to the 
resolution of international private adoption cases between Guatemalan 
children and United States parents. One of the unintended consequences 
of this was that our Human Rights training for the Guatemalan Army had 
to be canceled. Conditions on assistance in fiscal year 2016 for 
Guatemala, Honduras, and El Salvador to implement the U.S. Strategy for 
Engagement in Central America in support of the Alliance for Prosperity 
in the Northern Triangle of Central America came with a series of 
conditions each of the Central American governments had to meet before 
75 percent of funds were able to be released. Withholding such a high 
percentage of funding, and tying it to such a broad list of conditions, 
may send the message to our military partners that the intent of the 
conditions is to withhold assistance, and not to promote positive 
change.
                           southcom resources
    4. Senator Inhofe. Admiral Tidd, in your written statement, you 
highlighted resource shortfalls that have negatively impacted your 
ability to accomplish SOUTHCOM missions. Can you briefly highlight 
national security implications of these shortfalls?
    Admiral Tidd. I support the prioritization of global challenges. 
However, as we resource the higher priority challenges, USSOUTHCOM's 
requirements, closer to the United States, are not being met. In some 
cases, previously allocated assets are being reassigned to Combatant 
Commands with higher priority missions, further exacerbating our 
shortfalls. As to national security implications, to give you one 
example, last year, we had very precise information on 449MTs of drugs 
en route to the United States that we could not target for interdiction 
because of lack of forces. That translates into thousands of American 
deaths and over $5Billion in illicit profits that fuel corruption and 
violence. USSOUTHCOM is also contending with compounding effects 
resulting from several years of undersourcing in the area of 
intelligence, surveillance, and reconnaissance (ISR). As a Combatant 
Command charged with defending the southern approaches to the United 
States, lack of persistent ISR presents significant risk and a clear 
threat to national security. Shortfalls in posture and presence 
continue to present blind spots for us and a vacuum for our rivals to 
exploit.

    5. Senator Inhofe. Admiral Tidd, how would the planned buildup of 
our military across the services--personnel, ships, vehicles and 
aircraft--impact the ability of SOUTHCOM to execute its mission?
    Admiral Tidd. As a Combatant Command (CCMD), our requirements are 
sourced by the Services. Right now, the Services simply do not have 
enough forces to go around to fill all the CCMD requirements. Any 
buildup, maintenance, and modernization efforts for the Services could 
potentially lead to better resourcing of USSOUTHCOM requirements and 
increase our ability to execute our mission.

    6. Senator Inhofe. Admiral Tidd, what are your top three 
prioritized funding shortfalls?
    Admiral Tidd. Broadly speaking, our requirements fall into three 
primary categories--tools that allow us to (1) maintain awareness of 
and ability to effect the threat environment (ISR and analysis, 
maritime force packages, special forces activities, etc), (2) remain 
engaged with our partners (efforts to build partner capacity, special 
forces capabilities, International Military Education and Training, 
information operations, and conventional forces), and (3) 
Infrastructure upgrades and repairs to maintain health and welfare of 
U.S. servicemembers operating in the AOR. More specifically aimed at 
our requirement to execute our title 10 mission to detect and monitor 
illicit traffic heading toward the United States, we need what we call 
force packages. A force package consists of a medium to long range ship 
hosting a Coast Guard Law Enforcement Detachment and capable of 
launching and recovering an over the horizon interceptor boat supported 
by a day/night airborne use of force capable helicopter along with a 
maritime patrol aircraft equipped with wide-area maritime search radar 
and infrared detection set (FLIR). We are required by the White House 
Office of National Drug Control Policy to stop 40 percent of the drug 
flow. Given the total amount of drugs that left the source zone last 
year (3,225 metric tons), we would have required 38 force packages to 
interdict 40 percent. On an average day, we have five. We also require 
ISR outside of the counternarcotics mission; persistent undersourcing 
of ISR over several years has created a serious challenge and lack of 
awareness of a spectrum of threats. People are our greatest resource. 
The personnel that make up USSOUTHCOM headquarters are our maneuver 
force--we have very few assigned or allocated forces in this region and 
rely heavily on headquarters manpower and contractors. We do not 
require a large footprint of forces, but the cuts to our Headquarters/
maneuver force impact our ability to stay engaged in the region, 
feeding directly into the perception that the United States is 
withdrawing from the region, a perception on which Russia is quick to 
capitalize. Finally, after so many years of putting off infrastructure 
replacements at Guantanamo, we owe it to our Servicemembers to ensure 
their housing and other facilities are up to standards.
                 strategic threats to the united states
    7. Senator Inhofe. General Robinson, in February, you told the 
Toronto Star that, ``Today, Russian cruise missiles can reach us from 
ranges we're not used to. No longer do they have to enter or come close 
to North American airspace . . . this is a game changer.'' What are the 
implications of the deployment of these missiles on your ability to 
protect the United States?
    General Robinson. Deployment of Russian cruise missiles challenges 
our air defense architecture. I believe our way forward is to continue 
improving our indications and warning, as well as detection, tracking, 
and engagement capabilities, to enable interdiction of these cruise 
missile threats as far forward as possible.

    8. Senator Inhofe. General Robinson, what are we doing to defeat or 
at least mitigate this threat in the near and long term?
    General Robinson. There are no single-system ``silver bullet'' 
options to address cruise missile threats. Current capabilities against 
cruise missile threats to the National Capital Region include Sentinel 
radars, limited surveillance coverage from advanced sensors, Aerospace 
Control Alert fighter aircraft, and ground-based air defense for cruise 
missile engagement. We are confident in the Department's Homeland 
Defense Design approach going forward, which will provide additional 
capabilities to better detect, track, and engage advanced cruise 
missiles, both within and beyond the National Capital Region.

    9. Senator Inhofe. General Robinson, in March, General Selva 
confirmed that Russia is deploying nuclear-tipped ground-launched 
cruise missiles in violation of the 1987 INF (Intermediate-Range 
Nuclear Forces) Treaty. What are the implications of the deployment of 
these missiles on your ability to protect the United States?
    General Robinson. Cruise missiles are a threat to the United States 
whether they are nuclear tipped or conventional. Our approach to defeat 
them is the same.

    10. Senator Inhofe. General Robinson, you have stated that North 
Korean leader Kim Jong Un is ``unpredictable and volatile'' and that 
``North Korea uses what they learn from each and every test they do to 
make improvements to their missile capabilities.'' Are you able to 
accurately rely on North Korean indicators and warnings in order to 
take actions to protect the United States?
    General Robinson. We've made appropriate adjustments in light of 
shifts in North Korea warning timelines and capabilities, while working 
with our mission partners to enhance our ballistic missile defense 
capabilities to remain in an advantageous position going forward. I 
remain confident we can defend the United States against the current 
threat posed by North Korea.
                               __________
               Questions Submitted by Senator Mike Rounds
                         cruise missile defense
    11. Senator Rounds. General Robinson, I am concerned that progress 
on the issues surrounding cruise missile defense (CMD) have remained 
stagnant over the past few years, after the previous NORTHCOM commander 
and Vice Chairman of the Joint Chiefs of Staff started to sound the 
warning. Just last year Admiral Gortney testified on the need to 
develop effective responses to outpace the cruise missile threat. Yet 
this year's posture statement seems to counter this concern. What has 
changed between last year and this year concerning cruise missile 
defense?
    General Robinson. Nothing has changed from last year regarding the 
need to develop capabilities to outpace the cruise missile threat. This 
threat is very real and becoming more of a challenge each day. We rely 
on indications and warning and require detection capabilities to 
identify the threat as early as possible to engage it before it 
threatens our Homelands. I am confident, however, in our strategy going 
forward to enhance and obtain the required capabilities to defend both 
within, and beyond the National Capital Region, against the cruise 
missile threat.
               layered approach to cruise missile defense
    12. Senator Rounds. General Robinson, when dealing with near and 
long term capabilities and potential gaps, I am concerned there is some 
disconnect between you as the combatant commander, and the Air Force as 
a force-provider. Specifically, this concerns the role of the F-15C and 
F-16 to support the CMD mission. In the context of the layered approach 
to CMD described in your testimony, has the Air Force requested your 
input to define requirements to counter this threat?
    General Robinson. We work closely, and routinely, with all of the 
Services and the Canadian Armed Forces to ensure the capabilities 
required to execute NORAD's layered cruise missile defense (CMD) 
strategy for North America are fully understood. Specifically, within 
the past five years, the U.S. Air Force has made significant 
investments in support of our CMD requirements for enhanced detection, 
tracking, and engagement capabilities against emergent threats through 
the Wide Area Surveillance radar program, F-15C, and F-16 AESA radar 
programs. We currently have F-15Cs that provide NORAD with AESA alert 
fighter capabilities and are working with the Air Force to upgrade F-
16s with AESA capabilities to meet our urgent requirements. In the 
coming year, we are also working with the Air Force in the bi-national 
Northern Approaches Surveillance Analysis of Alternatives. This 
analysis will evaluate alternatives for future persistent, wide area 
air surveillance capabilities as the aging North Warning System reaches 
obsolescence.
            cruise missile defense--urgent operational need
    13. Senator Rounds. General Robinson, in 2015, First Air Force, the 
numbered Air Force tasked to assure air superiority and air sovereignty 
of the U.S., submitted an urgent operational need (UON) request to the 
Air Force Requirements Council. I understand this UON was to update 
block 30 F-16s with APG-83 AESA radars. However, the service did not 
fund it in fiscal year 2015, fiscal year 2016, or fiscal year 2017. I 
understand that having an AESA radar is necessary in performing the CMD 
mission. Are you consulted by the Air Force as they determine the final 
UON priority for all the combatant commands?
    General Robinson. Yes, NORAD works closely with all the Services, 
including the U.S. Air Force, to ensure our requirements are fully 
considered through the Joint Capabilities Integration and Development 
System and the Planning, Programming, Budgeting, and Execution 
processes. NORAD's urgent need addresses a capability gap within our 
Aerospace Control Alert (ACA) mission. This request was validated by 
the Joint Requirements Oversight Council in 2015 and divided into two 
phases of a Joint Urgent Operational Need (JUON). Phase 1 of the JUON 
upgrades 24 Air National Guard (ANG) F-16 aircraft with Active 
Electronically Scanned Array (AESA) radar; Phase 2 of the JUON upgrades 
48 additional ANG F-16 Aircraft with AESA radar. All 72 aircraft are 
projected to be modified with AESA radar by the end of 2020.
                            f-16 role in cmd
    14. Senator Rounds. General Robinson, since this AESA radar UON is 
now going on 2 years old, and given the potential for fighter force 
structure changes to include divestment of the F-15C, acquisition of 
the F-35A and the Air Force's desire to grow from 55 to 60 fighter 
squadrons, would you agree that this UON should be updated to reflect 
these changing conditions? Would one option be to expand the UON to 
encompass other variants of the Air National Guard F-16s beyond the 
block 30s?
    General Robinson. I believe we are on track to address our 
capability requirements as a result of recent activity with our Joint 
Urgent Operational Need (JUON) submission. The 2015 NORAD JUON was 
recently superseded by a NORAD Joint Emergent Operational Need (JEON) 
which was validated by the Joint Requirements Oversight Council on 18 
April 2017. The U.S. Air Force provides NORAD with F-15C, and F-16 
aircraft to support the Aerospace Control Alert (ACA) mission. All of 
the F-15C ACA aircraft are either already equipped or scheduled to be 
equipped with Active Electronically Scanned Array (AESA) radars. Of the 
fourteen NORAD main operating bases included in our JEON, nine bases 
operate various blocks of the F-16 aircraft, including Block 30, 40, 
42, and 52.
                          f-16 radar upgrades
    15. Senator Rounds. General Robinson, a Government Accountability 
Office report released in late 2012 estimated that the F-16 AESA 
upgrades would cost about $1.8 billion for about 350 jets, or about 
$5.2 million per F-16. Recent testimony from the Air Force predicts 
that the F-15C will require upwards of $40 million of structural 
modernization each in order to keep these aircraft flying beyond the 
mid-2020s. F-16s with AESA radars are already sold to Taiwan (F-16V) 
and the United Arab Emirates (F-16 block 60) so it would appear the 
developmental costs and risk reduction have been mitigated. Is the 
decision to not fulfill the UON a fiscal one?
    General Robinson. The decision to not fulfill the JUON in 2016 was 
a fiscal one that is now resolved. The NORAD Active Electronically 
Scanned Array (AESA) urgent requirement for all 72 Aerospace Control 
Alert (ACA) F-16s was fully funded in H.R. 244, the Consolidated 
Appropriations Act of 2017.
             northcom relationship with the force provider
    16. Senator Rounds. General Robinson, I would like to further 
understand the role of a combatant commander as a product consumer vis-
a-vis the services' role to organize, train, and equip. Please comment 
on NORTHCOM's decision making process with regard to accepting risk and 
making ``strategic tradeoffs'' in fulfilling the Homeland defense 
mission if a service does not meet your requirements.
    General Robinson. As the Commander of USNORTHCOM, I advocate for my 
capability requirements throughout a collaborative decision-making 
cycle involving the Combatant Commands, Services, and other 
organizations throughout the Department of Defense. For example, I 
communicate my requirements via the Global Force Management (GFM) 
process in coordination with the Office of the Secretary of Defense 
(OSD), the Joint Staff, and the Services. I also work through the Joint 
Capabilities Integration and Development System (JCIDS) to identify 
gaps and associated capability requirements. We assess and mitigate 
those gaps via the Programming, Planning, Budgeting, and Execution 
(PPBE) process and through continual engagement with the Services and 
relevant entities within the Department of Defense.
                               __________
               Questions Submitted by Senator Bill Nelson
              southcom response to large-scale emergencies
    17. Senator Nelson. Admiral Tidd, given the relative lack of assets 
and resources dedicated to the SOUTHCOM area of responsibility (AOR), 
how does the Command plan to respond to large-scale emergencies, should 
one occur?
    Admiral Tidd. In the event of a large-scale emergency or crisis, we 
follow standard procedures within the Department of Defense to request 
the forces needed to respond once we are directed to do so. We rely 
mainly on capabilities from the Global ResponseForce (GRF) and U.S. 
Transportation Command's Joint Enabling Capabilities Command (JECC) for 
immediate response. These forces remain on a permanent ``Prepare to 
Deploy'' order and can deploy on short notice. For follow-on response, 
we request capabilities via the Global Force Management (GFM) Emergent 
process for requesting forces. Once the Joint Staff validates our 
request, the Services then work to fill those requirements as quickly 
as possible from available/ready forces. One of the most critical 
requirements in responding to a large-scale crisis is the ability to 
anticipate its onset, and if possible, prevent its impact. Capabilities 
that allow us to anticipate crises (visualization tools, analytic 
capability, and awareness gained through ISR and regional engagements 
and persistent presence) can significantly improve decision-making when 
every second counts. Maintaining real time situational awareness of 
potential natural hazards, along with building Partner Nation disaster 
preparedness and disaster risk reduction capacity through our 
Humanitarian Assistance Program, we maintain a posture to respond 
rapidly and mitigate the effects of crises.
proposed cuts to u.s coast guard, department of state, and u.s. agency 
                     for international development
    18. Senator Nelson. Admiral Tidd, effectively addressing the 
challenges you face in SOUTHCOM requires close coordination with and 
the support of agencies and departments like U.S. Coast Guard, the 
Department of State, and the United States Agency for International 
Development. How would cuts to these agencies and departments impact 
the work of SOUTHCOM?
    Admiral Tidd. Security is a team sport, especially in this region, 
where DOD does not have many resources. If we lose players from the 
field, it could have significant effects on our ability to defend the 
Southern approaches. Our partners across the U.S. Government are vital 
to our ability to accomplish this mission, and we are often in support 
of other lead federal agencies as we protect against threats to the 
Homeland. As an example, due to higher global priorities, USSOUTHCOM is 
assigned less than one Navy ship per year to execute our statutorily 
directed mission to detect and monitor illicit drugs heading to the 
United States. However, the U. S. Coast Guard provides an average of 
six ships per year for this mission. We would be completely unable to 
execute our Congressionally-mandated, statutory requirement without the 
support of the Coast Guard. Similarly, with a region at risk for 
natural disasters, drivers of instability and migration, and food 
insecurity, the Department of State and the U.S. Agency for 
International Development sponsor internal security and development 
programs that we complement and support through our theater security 
cooperation programs. Finally, without the professionals in the law 
enforcement and intelligence community, we would not be able to take a 
whole-of-government approach to detect and degrade the threat networks 
that challenge our national security.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                               hezbollah
    19. Senator Blumenthal. Admiral Tidd, Hezbollah has long been known 
for its support and activity--noticeably money laundering, terrorist 
attacks, and drug trafficking--in South America. Hezbollah first 
appeared in the region during the Lebanese Civil War in the 1980s. In 
1992, they were linked to an attack on the Israeli Embassy in Buenos 
Aires (29 deaths, 200+ injured) and in 1994 the bombing of a Jewish 
cultural center in the same city (killing 85). Hezbollah remains 
particularly active in the Tri-Border Area (where Argentina, Brazil, 
and Paraguay meet)--an area plagued by drug smuggling, money 
laundering, arms trading, counterfeiting, and unregulated borders. But 
it does not stop here--Hezbollah also has developed a drug trafficking 
and money laundering networks to launder from South America to the 
Middle East, facilitated by Venezuela. Venezuela's Vice President 
(sanctioned by Treasury for drug trafficking in February) also has 
connections to Hezbollah, as highlighted by press reports alleging his 
involvement in the fraudulent issuance of Venezuelan passports to 
people in the Middle East, noticeably people connected to Hezbollah. 
How would you characterize the threat from Hezbollah in your area of 
operation?
    Admiral Tidd. Hezbollah is the most capable terrorist group in the 
region, maintaining a regional infrastructure capable of supporting 
terrorist attacks with little to no warning. In contrast to al Qaida 
and ISIS, Hezbollah does not ask or expect its supporters and 
sympathizers to conduct terrorist attacks. Instead, Hezbollah has a 
dedicated military unit in Lebanon to accomplish terrorist attacks 
outside of the LEVANT, using that pre-established infrastructure 
throughout the world. Hezbollah is motivated to cultivate a 
relationship with the diaspora to maintain and develop an alternate 
source of funding to augments Iran's primary funding, to garner 
absentee political support and financing, and to develop contingency 
plans for Hezbollah in the event they decide to execute an attack. 
While Hezbollah does employ terrorist tactics, they only attack in 
response to perceived threats. Hezbollah would only escalate to an 
external attack against U.S. interest in the event there was 
significant cause based on potentially geopolitical issues with Iran or 
with the Hezbollah leadership cadre. To accomplish this mission 
Hezbollah develops contingency plans years in advance across the globe 
that would enable Hezbollah's terrorist branch to execute an attack 
with little to no warning, should they feel they need to conduct a 
response to an event. Unfortunately, to defeat any potential Hezbollah 
attack, we must disrupt attack infrastructure development before 
triggers or red lines are crossed.

    20. Senator Blumenthal. Admiral Tidd, what are you doing to address 
the threat--including Hezbollah's terrorist activities, money 
laundering, and drug trafficking?
    Admiral Tidd. As previously mentioned, to defeat any potential 
Hezbollah attack, we must first detect and then disrupt attack 
infrastructure development before Hezbollah employs it. Therefore, in 
order to understand this threat network, USSOUTHCOM has been 
extensively involved in intelligence cooperation and sharing to include 
several multi-lateral and bi-lateral engagements with regional 
partners. Additionally, we routinely collaborate with and provide 
strategic analysis to support other U.S. Government Agencies such as 
the Department of Treasury and the law enforcement community to support 
operations that target Hezbollah and the involvement of Hezbollah 
supporters and members in drug trafficking and other illicit activity. 
We also continue to build our own networks of regional allies, 
organizations and agencies to enhance our partners' capacities to 
address security challenges writ large. Stronger regional allied 
networks build our partners' capacities by giving them access to 
greater resources to detect, attack, and reduce Hezbollah 
infrastructure in the region before it can be leveraged to threaten our 
interests or those of our partners in the region.

    21. Senator Blumenthal. Admiral Tidd, what percentage of Hezbollah 
fundraising is derived from drug trafficking and what are the other 
major sources of profit?
    Admiral Tidd. Hezbollah benefits from funds generated by the 
loosely-connected enterprise of Lebanese Shi'a Muslim, clan-based, 
business networks involved in licit and illicit activity. Hezbollah 
benefits from a portion of these networks profits via family 
remittances, religious tithings, charitable organizations, and direct 
contributions. Collectively this augments Hezbollah's primary funding 
source coming from Iran. There is little risk and long term 
profitability associated with the sale of counterfeit goods vice the 
high risk drug trafficking activities some choose as a means to earn 
money. As a result, there is very likely far more illicit activity 
involving the sale of counterfeit merchandise compared to drug 
trafficking or involvement in weapons smuggling. Lebanese expats in the 
region are also involved in many other illicit businesses, just not 
equal to the extent of sale of all types of counterfeit products that 
range from purses to high end electronics.

    22. Senator Blumenthal. Admiral Tidd, are you working to build the 
capacity of regional allies to address Hezbollah's malign activities?
    Admiral Tidd. Many of the skills gained by our partners from 
USSOUTHCOM's broader capacity building activities to address other 
regional security challenges are transferrable. Skills used to counter 
threat networks, threat finance, and narcotics can be applied across 
many other threats to include Hezbollah. Additionally, working with our 
partners, regional organizations, and other U.S. Government agencies to 
reduce corruption as well as un- and under-governed spaces (while not 
specifically targeted at Hezbollah) will counter many of Hezbollah's 
activities to build and maintain additional infrastructure in the 
region.

    23. Senator Blumenthal. Admiral Tidd, what do you know about the 
links between Venezuela's Government and Hezbollah?
    Admiral Tidd. There have been a number of individuals within the 
Venezuelan government who are ideologically aligned with Hezbollah. A 
very small number of these individuals were involved in illicit 
activity that, via third party donations, likely resulted in an 
insignificant financial profit for Hezbollah. Additionally, Venezuelan 
travel documents have been sold to members of the Lebanese community. 
The Lebanese diaspora in Venezuela likely has relationships with a 
small number of local and regional Venezuelan officials to facilitate 
the transportation and sale of counterfeit merchandise. Additionally, 
some members of the Lebanese community are involved in drug trafficking 
and money laundering which is possibly facilitated by lower level law 
enforcement, military, or government officials. However, there is no 
official relationship between the government of Venezuela and 
Hezbollah.
                               the arctic
    24. Senator Blumenthal. General Robinson, a March 22 article in the 
Washington Post noted that sea ice levels in the Arctic Ocean hit a 
record low--the smallest since record keeping began in 1979. This is 
troubling from an environmental standpoint, but more importantly for 
this hearing, it opens sea lanes in areas we did not have to worry 
about protecting in the past. Russia is expanding its capabilities in 
the arctic, the largest since the end of the Cold War, including 
reopening or building of six military bases. Russia is also expanding 
its reach and laying claim to part of the estimated 22 percent of the 
undiscovered gas and oil reserves located in the Arctic. The disparity 
in our icebreaker fleet is another area of concern. Russia's aggressive 
activity in the Artic is concerning and the U.S. needs to do more to 
assert its presence in the region. How is climate change impacting 
NORTHCOM operations? Is the thawing of the Artic impacted mission 
requirements?
    General Robinson. At this time, climate change and the thawing of 
sea ice in the Arctic do not affect my ability to conduct my Homeland 
defense and defense support of civil authority missions. The Arctic is 
a vast and harsh operating environment that requires uniquely trained 
and equipped forces to operate in this austere region. When we develop 
plans and strategies, we consider many factors, such as Russian 
military capabilities, the capabilities and capacities of our partners, 
and the operational environment. We are cognizant of the differences 
between the Eurasian Arctic and the North American Arctic and 
continuously evaluate changes in the operational environment to 
determine if those changes drive new capability requirements. We 
continue to look for opportunities to advocate for capabilities that 
will enable us to perform missions throughout our Area of 
Responsibility, to include safety, security, and defense of the Arctic.

    25. Senator Blumenthal. General Robinson, if this trend continues, 
there will be additional ocean to patrol and sea lanes to protect to 
our north. Has this impacted the number of ships and patrols required 
in the Arctic?
    General Robinson. Climate change has not impacted the number of 
ships and patrols I require in the Arctic. However, diminishing sea ice 
will eventually open a northern maritime avenue of approach to North 
America, highlighting the importance of the maritime warning mission 
for NORAD and the Homeland Defense mission for USNORTHCOM.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                  impact of partnerships on the region
    26. Senator Hirono. Admiral Tidd, with regard to interagency and 
regional cooperation, in your written testimony you state that ``our 
security partnerships help create a layered defense of our Homeland by 
keeping our shared home stable and secure.'' Would you agree that the 
security of the region is not based solely on military might but also 
on diplomacy and developing relationships with allies?
    Admiral Tidd. Yes, I agree with that statement.

    27. Senator Hirono. General Robinson, what is your opinion of the 
border wall and its impact on relationships with our allies?
    General Robinson. In my role as the USNORTHCOM Commander, I am 
confident in the strength of the military-to-military relationships 
between my Commands and our international military partners within my 
Area of Responsibility.

    28. Senator Hirono. General Robinson, in your opinion, will our 
national security be increased by building a border wall?
    General Robinson. As the Commander of USNORTHCOM, I respectfully 
defer to national civilian leaders on matters of policy.

    29. Senator Hirono. General Robinson, if our relationship with 
Mexico is impacted negatively, how would it affect our ability to 
combat drug trafficking, human trafficking and anti-terrorism on the 
Southern border?
    General Robinson. The military-to-military relationship between the 
United States and Mexico is extremely strong and absolutely at an all-
time high. I am confident in the strength of this important 
relationship and believe our shared goals on the U.S. southern border 
will remain a priority.

    30. Senator Hirono. Admiral Tidd and General Robinson, what impact 
does President Trump's ``America First'' policy have on relationships 
with our allies in the region?
    Admiral Tidd. We have not noticed any difference in our 
relationships with our partners in the region as a result of President 
Trump's policies. With very few exceptions, we enjoy strong 
partnerships with the countries in this region, who want to partner 
with the United States. I will comment that there are other countries, 
namely Russia and China, who are positioning themselves to step in as 
partners to these nations if there is a perception that the United 
States is withdrawing from the region.
    General Robinson. As the USNORTHCOM Commander, I can only speak to 
the mil-to-mil relationships with our partners within my Area of 
Responsibility. Those relationships remain strong, and I will continue 
to place great importance on continually building on our mil-to-mil 
partnerships.
                 funding to supporting federal agencies
    31. Senator Hirono. Admiral Tidd, in your statement you commented 
on the importance of other governmental agencies on the success of your 
mission. President Trump's budget prosed to cut a substantial portion 
of funding to the Department of State and USAID. If Department of State 
and USAID were forced to reduce their mission in the region due to 
funding issues, what impact would that have on your mission, 
particularly the humanitarian missions?
    Admiral Tidd. The United States military is never the lead in the 
event of a response to a humanitarian crisis. If DOD unique 
capabilities are required, we are called in to support USAID, the lead 
federal agency for humanitarian crisis response, with those 
capabilities (such as heavy air-lift). This region is particularly 
prone to natural disasters, averaging about 50 every year. If USAID 
funding is cut, I suspect that cost and duration of U.S. military 
involvement in humanitarian responses could increase, though I defer to 
USAID for more specific information on impact of funding cuts. 
Additionally, the development programs that are sponsored by USAID are 
incredibly important to mitigate the drivers of instability and 
migration in the region. The State Department is also a critical 
partner in this region. State programs such as FMS, FMF, and IMET are 
key to our relationship-building in the region--facilitating long-term 
relationships with future leaders of our partner nations. Also, the 
State Department has a robust program aimed at countering international 
crime, illegal drugs, and instability abroad that very closely 
complements the efforts of USSOUTHCOM in the Western Hemisphere. Given 
the already limited resources of DOD in this region, cuts to these 
vital programs run by our interagency partners would have a significant 
impact on regional security and our bilateral partnerships.

    32. Senator Hirono. Admiral Tidd, another agency that is facing 
potential reductions in the President's budget is the U.S. Coast Guard. 
You stated that the Coast Guard is ``punching well above their weight'' 
by helping fulfill a portion of your title 10 detection and monitoring 
obligations. This is largely due to the maritime platform gaps that are 
occurring across the services and that Littoral Combat Ships play an 
important part in SOUTHCOM's mission. What impact would a Coast Guard 
budget reduction have on the security of the U.S. and defense of our 
nation?
    Admiral Tidd. I would defer to the Commandant of the Coast Guard 
for specifics on how cuts would impact his ability to execute his 
mission. What I can tell you is that the U.S. Coast Guard is currently 
our primary maritime force provider for our title 10 directed mission 
to detect and monitor illicit drugs heading toward the United States. 
If the Coast Guard receives significant cuts to its budget, that could 
impact its ability to source this critical mission.

    33. Senator Hirono. Admiral Tidd, can you describe in more detail 
what those platform gaps include? What additional resources would you 
need to cover all of the title 10 requirements that you have?
    Admiral Tidd. In order to target, detect, and disrupt illicit 
maritime traffic, we require what's called force packages. One force 
package consists of a medium to long range ship (hosting a Coast Guard 
Law Enforcement Detachment with an interceptor boat and one or more 
day/night capable helicopters with aerial use of force capability) and 
a maritime patrol aircraft equipped with wide-area maritime search 
radar and infrared detection set (FLIR). The White House's Office of 
National Drug Control Policy (ONDCP) provides guidance to interdict 40 
percent of the known cocaine flow. This number was deemed the level at 
which the drug trafficking model would break or be seriously comprised. 
Based on the documented cocaine flow (3,225 metric tons) in 2016, we 
would have required 38 force packages to disrupt 40 percent of that 
flow. On any given day, we have five force packages available to 
support interdiction efforts. In addition to force packages, we also 
need to continue our efforts to build the capacity of our very willing 
partners to support the regional efforts to stem the flow of illicit 
traffic. We recognize that we cannot stop this illicit flow alone. The 
better trained and equipped our partners are to support these efforts, 
the more successful we will all be. As an example of our efforts in 
this area, we have provided interceptor boats and communications 
equipment to our partner nations to enable them to directly support the 
interdiction efforts of the Joint Interagency Task Force South (JIATF-
South) in Key West, which leads our mission to detect and monitor. As a 
result, in 2016, 42 percent of all JIATF-South supported disruptions 
involved our partner nations, in most of those, partner nation 
participation was critical to the success of the disruption. Finally, 
it is important that we continue to share intelligence and cooperate 
with the U.S. interagency and our partner nations. One critical 
component of that is to maintain the Relocatable Over-the-Horizon Radar 
system (ROTHR) fully functional and free of interference from wind 
farms that will likely degrade our capability to use these systems to 
detect and track threat network operations in the air and maritime 
domains.
                          littoral combat ship
    34. Senator Hirono. Admiral Tidd, in your written testimony you 
stated that no Littoral Combat Ships (LCS) have been assigned to your 
command so you have had to utilize other means, including relying on 
foreign allies, to accomplish SOUTHCOM's mission. Can you describe the 
importance of LCSs to SOUTHCOM's mission?
    Admiral Tidd. To execute our mission to detect and monitor illicit 
drugs, we require surface assets that have the capability to launch and 
recover helicopters and over-the-horizon interceptor boats. As you 
know, the LCS is equipped with those capabilities, which make it a very 
suitable platform for the missions in this region. Right now, 
USSOUTHCOM is allocated less than one Navy ship per year. Any 
opportunity to use LCS in this region would greatly increase 
USSOUTHCOM's ability to execute its mission.

    35. Senator Hirono. Admiral Tidd, what level of LCS assets would 
best enable SOUTHCOM to accomplish its mission?
    Admiral Tidd. As mentioned above, in order to meet the White 
House's requirement to interdict 40 percent of illicit flow in 2016, we 
would have required 38 force packages that include a surface asset with 
the capabilities available on the LCS--ability to launch and recover 
helicopters and over-the-horizon interceptor boats. As a CCMD, we 
outline our requirements broadly and rely on the different Services to 
source those requirements with appropriate platforms.
              relationship with allies for missile defense
    36. Senator Hirono. General Robinson, relationships with allies in 
the Asia Pacific are important to our overall security strategy in that 
region. Both Japan and Korea have Aegis equipped ships and Japan has 
been a great partner in developing the SM-3 Block II A missiles. What 
additional steps should the U.S. take in order to continue to develop 
missile defense technologies with our allies?
    General Robinson. I defer to ADM Harris regarding efforts in his 
Area of Responsibility and to VADM Syring at the Missile Defense Agency 
regarding the potential benefits of joint program development with our 
allies.

    37. Senator Hirono. General Robinson, how important is the concept 
of working with our allies on missile defense?
    General Robinson. The Ground-based Midcourse Defense system, which 
I use to defend the United States, is not jointly developed with any 
allies. However, some of our supporting radars are located outside of 
the U.S. and provide benefit to our defense, as well as the host nation 
and region.
                             role of china
    38. Senator Hirono. General Robinson, president Trump has stated 
that the U.S. will act alone if China does not take action to intervene 
in North Korea's quest for a nuclear capable ballistic missile. In your 
opinion, what is best policy toward China concerning the North Korean 
issue?
    General Robinson. As the USNORTHCOM mission is focused on the 
defense of the United States, I respectfully defer to others on matters 
of policy.
                      maui space surveillance site
    39. Senator Hirono. General Robinson, the Maui Space Surveillance 
Site combines operational satellite tracking facilities with a research 
and development facility. It is the only facility of its kind in the 
world and provides state-of-the-art electro-optical capabilities. What 
is the importance of this facility to national security and how 
important is it to continue to modernize the capabilities of this 
facility to continue to meet the emerging threats?
    General Robinson. USNORTHCOM relies heavily on space-based assets 
to defend our Homeland. However, because the Department of Defense's 
space surveillance mission falls under the purview of Air Force Space 
Command, I respectfully defer to General John Raymond for a more 
specific response to your question.
                         threat of north korea
    40. Senator Hirono. General Robinson, it is clear that North Korea 
is committed to developing long-range missile technology. Most recently 
North Korea tested a solid-propellant SLBM variant. These types of 
weapons have very few indications and warnings. From a missile defense 
perspective, how well is the U.S. protected from the North Korean 
threat?
    General Robinson. I am confident that we can defend the U.S. from 
the threat currently posed by North Korea. However, we closely monitor 
advancements and evolutions in their missile program to inform best use 
of our current capabilities, as well as capabilities required in the 
future.

    41. Senator Hirono. General Robinson, what future requirements 
would you identify as necessary to defend the U.S. and in particular 
Hawaii from the North Korean missile threat?
    General Robinson. We have the capability to defend the Homeland 
today from the North Korean threat, including Hawaii. My priorities 
remain to improve our persistent sensor architecture, as well as 
interceptor reliability and lethality. We are currently working with 
the Department through the Ballistic Missile Defense Review that may 
identify and prioritize potential improvements to further enhance 
ballistic missile defense protection of Hawaii.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

      UNITED STATES PACIFIC COMMAND AND UNITED STATES FORCES KOREA

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Graham, Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the posture of U.S. Pacific Command and 
U.S. Forces in Korea.
    Admiral Harris, I appreciate your appearance before the 
committee during this tense period in your area of 
responsibility. I want to express the appreciation of this 
committee for the service of the men and women you lead who 
defend our Nation every day.
    America's interests in the Asia-Pacific region are deep and 
enduring. That is why for the past 70 years we have worked with 
our allies and partners to uphold a rules-based order based on 
the principles of free peoples and free markets, open seas and 
open skies, and the rule of law and the peaceful resolution of 
disputes. These ideas have produced unprecedented peace and 
prosperity in the Asia-Pacific, but now the challenges to this 
rules-based order are mounting and they threaten not just the 
nations of the Asia-Pacific region but the United States as 
well.
    The most immediate threat is the situation on the Korean 
Peninsula. Kim Jong-un's regime has thrown its full weight 
behind its quest for nuclear weapons and the means to deliver 
them. Unfortunately, the regime is making real progress. A 
North Korean missile with a nuclear payload capable of striking 
an American city is no longer a distant hypothetical but an 
imminent danger, one that poses a real and rising risk of 
conflict. Indeed, as Admiral Harris said yesterday in testimony 
before the House, North Korea already has the conventional 
capability to strike United States territory. I look forward to 
hearing your assessment of North Korea's nuclear and missile 
programs, the military options your forces offer to our 
Commander in Chief and their readiness to carry them out if 
called upon.
    I welcome the news that the deployment of the THAAD 
[Terminal High Altitude Area Defense] missile defense system to 
South Korea and other capabilities in the region will soon be 
completed. It is shameful that China has retaliated against 
South Korea with economic and cyber means in response to its 
support for this deployment. This committee understands that 
deploying this system is a joint alliance decision that is 
necessary to defend our ally, South Korea. Admiral Harris, we 
welcome your views on whether further enhancements to United 
States missile defenses or our conventional military posture 
are required in Northeast Asia to counter the threat from North 
Korea.
    For years, the United States has looked to China, North 
Korea's longtime patron and sole strategic ally, to bring the 
regime to the negotiating table and achieve progress toward a 
denuclearized Korean Peninsula. We have done so for the simple 
reason that China is the only country that may have the 
influence to truly curb North Korea's destabilizing behavior. 
China has repeatedly refused to exercise that influence.
    I welcome the Trump administration's outreach to China on 
the issue of North Korea. As these discussions continue, the 
United States should be clear that while we earnestly seek 
China's cooperation on North Korea, we do not seek such 
cooperation at the expense of our other vital interests. We 
must not and will not bargain over our alliances or over 
fundamental principles of the rules-based order.
    As its behavior toward South Korea indicates, over the last 
several years, China has acted less and less like a responsible 
stakeholder of the rules-based order in the region and more 
like a bully. It has economically coerced its neighbors, 
increased its provocations in the East China Sea, and 
militarized the South China Sea. Meanwhile, with a rebalance 
policy too heavy on rhetoric and too light on action, years of 
senseless defense cuts, and now the disastrous decision to 
withdraw from the Trans-Pacific Partnership, United States 
policy has failed to adapt to the scale and velocity of China's 
challenge to the rules-based order. That failure has called 
into question the credibility of America's security commitments 
in the region.
    This committee has grown increasingly concerned about the 
erosion of America's conventional military overmatch as states 
like China and North Korea develop advanced capabilities to 
counter our ability to project military power. While America's 
military remains the most powerful on Earth, we must adapt to 
the new realities we face. We must think differently about 
forward basing and force posture, logistics and mobilization, 
and take steps to reshape the capabilities of our joint force 
for the renewed reality of great power competition.
    Specifically on the issue of munitions, this committee has 
heard testimony each year about the qualitative and 
quantitative shortfalls we have in our munitions, but we have 
seen little action from the services to finally turn the corner 
and address this issue with the seriousness it requires. 
Admiral Harris, I am interested in your views on munitions 
requirements and what it will take to meet them.
    The new administration has an important opportunity to 
chart a different and better course. At our hearing earlier 
this week, our panel of expert witnesses agreed there was a 
strong merit for a, quote, ``Asia-Pacific Stability 
Initiative.'' This initiative could enhance U.S. military power 
through targeted funding to realign our force posture in the 
region, improve operationally relevant infrastructure, fund 
additional exercises, preposition equipment, and build capacity 
with our allies and partners. Admiral Harris, I am eager to 
hear your thoughts on this kind of an initiative.
    Admiral, I think there is some symbolism in your appearance 
today and the information that the Chinese are now building 
their own aircraft carrier. I am sure that as an old naval 
aviator, that that has some interest for you.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I want to thank you, Admiral Harris, for being here today. 
We understand how difficult this time must be for you and for 
General Brooks and all the men and women that you lead. We want 
you to express our great appreciation for their efforts.
    It is clear to me, especially after the thoughtful 
discussion we had on Tuesday with our outside panel, that there 
is no set of options that lead to quick and certain strategy on 
North Korea. While I believe that we should pursue and exhaust 
every diplomatic option to bring the North Korean regime to the 
negotiating table, those options are somewhat limited. China 
provides the lifeline for North Korea, and China, for its own 
national security interests, seems unwilling to exert the type 
of pressure that is needed to convince the regime that 
denuclearization is the only path forward. Even if China were 
willing to exert that type of pressure, it seems that Kim Jong-
un is so determined to pursue his nuclear program that he is 
willing to risk impoverishing and starving his own population 
to achieve his dream of becoming a nuclear-capable state.
    There are military options, but they are risky. A 
comprehensive strike on nuclear facilities may precipitate a 
catastrophic retaliation against the civilian population of 
Seoul or against our bases and servicemembers in South Korea or 
Japan. A surgical strike, while less risky, may not deter the 
North Korean regime and runs the risk of emboldening Kim Jong-
un. Complicating factors, of course, are the stockpile of 
chemical and biological weapons at his disposal and road-mobile 
missile launchers spread across the countryside.
    North Korea's nuclear and missile program is an immediate 
and grave national security threat. Admiral Harris, I ask that 
you tell us how you are preparing for every contingency on the 
peninsula.
    While North Korea poses an immediate national security 
threat, we must not lose sight of the potential long-term 
threat that China poses to the rules-based order in the Asia-
Pacific region. Whether it be economic coercion of its smaller, 
more vulnerable neighbors or undermining the freedom of 
navigation that we all depend upon, China has not demonstrated 
a willingness to rise as a responsible global leader. 
Therefore, I believe it is critical that we empower and engage 
countries in Southeast Asia and South Asia to protect their own 
waterways and provide them with economic alternatives to main 
regional stability, preserve United States standing in Asia, 
and allow the economic growth and stability that has 
characterized the region for the last 50 years to continue.
    Again, thank you, Admiral, for your service, and thank you, 
Mr. Chairman.
    Chairman McCain. Admiral?

  STATEMENT OF ADMIRAL HARRY B. HARRIS, JR., USN, COMMANDER, 
                 UNITED STATES PACIFIC COMMAND

    Admiral Harris. Thank you, Chairman McCain and Senator Reed 
and distinguished members. It is an honor for me to appear 
before this committee.
    There are many things to talk about since my last testimony 
14 months ago, and I regret that I am not here with my 
testimony battle buddy, General Vince Brooks, but I think you 
would all agree that he is where he is needed most right now on 
the Korean Peninsula.
    Mr. Chairman, I request that my written posture statement 
be submitted for the record.
    Chairman McCain. Without objection.
    Admiral Harris. As the PACOM Commander, I have the 
extraordinary privilege of leading about 375,000 soldiers, 
sailors, airmen, marines, coast guardsmen, and DOD civilians 
serving our Nation over half the globe. These dedicated 
patriots are doing an amazing job, and thanks to them, America 
remains the security partner of choice in the region.
    That is important because I believe that America's future 
and economic prosperity are inextricably linked to the Indo-
Asia-Pacific, a region that is poised at the strategic nexus 
where opportunity meets the four considerable challenges of 
North Korea, China, Russia, and ISIS.
    It is clear to me that ISIS is a threat that must be 
destroyed now, but as we eliminate ISIS in the Middle East and 
North Africa, some of the surviving fighters will likely 
repatriate to their home countries in the Indo-Asia-Pacific. We 
must continue to work with likeminded nations to eradicate ISIS 
before it grows in the PACOM area of responsibility.
    Then there is North Korea, which remains the most immediate 
threat to the security of the United States and our allies in 
Japan and Korea. North Korea has vigorously pursued a strategic 
strike capability with nuclear tests and ballistic missile 
launches which it claims are intended to target the United 
States, South Korea, Japan, and just earlier this week, 
Australia. Make no mistake. Kim Jong-un is making progress on 
his quest for nuclear weapons and a means to deliver them 
intercontinentally. All nations need to take this threat 
seriously because North Korea's missiles point in all 
directions. North Korea's capabilities are not yet an 
existential threat to America, but if left unchecked, it will 
eventually match the capability to hostile rhetoric.
    I know that there is some debate about North Korea's intent 
and the miniaturization advancements made by Pyongyang, and I 
will not add to that speculation. Regardless, my job is to 
provide military options to the President, and because PACOM 
must be ready to fight tonight, I must assume that Kim Jong-
un's nuclear claims are true. I know his aspirations certainly 
are.
    That is why General Brooks and I are doing everything 
possible to defend the American Homeland and our allies and the 
Republic of Korea and Japan. That is why the ROK [Republic of 
Korea]-United States Alliance decided last July to deploy 
THAAD, the Terminal High Altitude Area Defense System, which 
would be operational in the coming days and able to better 
defend South Korea against the growing North Korean threat.
    That is why the USS Carl Vinson carrier strike group is 
back on patrol in Northeast Asia.
    That is why we must continue to debuted America's newest 
and best military platforms in the Indo-Asia-Pacific.
    That is why we want to continue to emphasize trilateral 
cooperation between the United States, South Korea, and Japan, 
a partnership with a purpose if there ever was one.
    That is why we continue to call on China to exert its 
considerable influence to stop Pyongyang's unprecedented 
weapons testing. While recent actions by Beijing are 
encouraging, the fact remains that China is as responsible for 
where North Korea is as North Korea itself.
    In confronting the reckless North Korean regime, it is 
critical that we are guided by a strong sense of resolve both 
privately and publicly, both diplomatically and militarily. As 
President Trump and Secretary Mattis have made clear, all 
options are on the table. We want to bring Kim Jong-un to his 
senses and not to his knees.
    We are also challenged in the Indo-Asia-Pacific by an 
aggressive China and a revanchist Russia. China continues a 
methodical strategy to control the South China Sea. I testified 
last year that China was militarizing this critical 
international waterway and the airspace above it by building 
air and naval bases on seven Chinese manmade islands in the 
disputed Spratlys. Despite subsequent Chinese assurances at the 
highest levels that they would not militarize these bases, 
today they have these facilities that support long-range 
weapons emplacements, fighter aircraft hangars, radar towers, 
and barracks for their troops. China's militarization of the 
South China Sea is real.
    I am also not taking my eyes off of Russia, which just last 
week flew bomber missions near Alaska on successive days for 
the first time since 2014. Russia continues to modernize its 
military and exercise its considerable conventional and nuclear 
forces in the Pacific.
    Despite the region's four significant challenges since my 
last report to you, we have strengthened America's network of 
alliances and partnerships. Working with likeminded partners on 
shared security threats like North Korea and ISIS is a key 
component of our regional strategy. Our five bilateral defense 
treaty alliances, Australia, Japan, the Republic of Korea, the 
Philippines, and Thailand, anchor our joint force efforts in 
the Indo-Asia-Pacific.
    We have also advanced important partnerships with India and 
Indonesia, Malaysia and New Zealand, Singapore and Sri Lanka, 
Vietnam and others, all with a view toward reinforcing the 
rules-based security order that has helped underwrite peace and 
stability and prosperity throughout the region for decades.
    But there is more work to do. We must be ready to confront 
all challenges from a position of strength and with credible 
combat power.
    I ask this committee to support continued investment to 
improve military capabilities. I need weapon systems of 
increased lethality, precision, speed, and range that are 
networked and cost effective. Restricting ourselves with 
funding uncertainties reduces warfighting readiness. I urge 
Congress to repeal sequestration and to approve the proposed 
Defense Department budget.
    Finally, I would like to thank Chairman McCain and this 
committee for proposing and supporting the Asia-Pacific 
Stability Initiative. This effort will reassure our regional 
partners and send a strong signal to potential adversaries of 
our persistent commitment to the region.
    As always, I thank the Congress for your enduring support 
to the men and women of PACOM and to our families who care for 
us. Thank you very much, and I look forward to your questions.
    [The prepared statement of Admiral Harris follows:]

           Prepared Statement by Admiral Harry B. Harris Jr.
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, thank you for the opportunity to appear before you 
today. This is my second posture assessment since taking command of 
U.S. Pacific Command (USPACOM) in 2015. During this time, I've had the 
extraordinary privilege to lead the soldiers, sailors, marines, airmen, 
coast guardsmen, and Department of Defense civilians standing the watch 
in the vast Indo-Asia-Pacific region. These men and women and their 
families inspire me with their relentless devotion to duty, and I'm 
proud to serve alongside them.
    This past January 1st, USPACOM commemorated its 70th birthday. For 
70 years, our joint military forces have protected the territory of the 
United States, its people, and its interests throughout the Indo-Asia-
Pacific region. Working in close concert with other U.S. Government 
agencies, defending our Homeland and our citizens is always ``Job 
number one'' at USPACOM. It is my top command priority. Together with 
our allies and partners, USPACOM enhances stability in the region by 
promoting security cooperation, responding to contingencies, deterring 
aggression, and, when necessary, fighting to win. This security 
approach is based on shared interests, partnerships, military presence, 
and readiness.
    The United States has enduring national interests in the Indo-Asia-
Pacific. In fact, I believe America's future security and economic 
prosperity are indelibly linked to this critical region, which is now 
at a strategic crossroads where real opportunities meet real 
challenges. Of the five global challenges that currently drive United 
States defense planning and budgeting--ISIS (Islamic State of Iraq and 
Syria), North Korea, China, Russia and Iran--four are in the Indo-Asia-
Pacific. We cannot turn a blind eye to these challenges. We must not 
give any country or insidious non-state actor a pass if they purposely 
erode the rules-based security order that has served America and this 
region so well for so long.
    Rising from the ashes of World War II, the rules-based 
international order, or what I sometimes call, ``the Global Operating 
System,'' has kept the Indo-Asia-Pacific largely peaceful and created 
the stability necessary for economic prosperity in the United States 
and countries throughout the region. Ironically, China is the country 
that has benefitted the most. The collective respect for, and adherence 
to, international rules and standards have produced the longest era of 
peace and prosperity in modern times. These conditions are not 
happenstance. In my opinion, they have been made possible by a security 
order underwritten by seven decades of robust and persistent U.S. 
military presence and credible combat power. This security order has 
been reinforced by America's five bilateral security alliances with 
Australia, Japan, the Republic of Korea (ROK), the Philippines, and 
Thailand. This order is further bolstered by our growing partnerships 
with India, Indonesia, Malaysia, New Zealand, Singapore, Sri Lanka, 
Mongolia, and Vietnam.
    This Global Operating System upholds critical principles--the rule 
of law, adherence to standards, peaceful resolution of disputes, 
freedom of navigation for all civilian and military vessels and 
aircraft, and open access to the sea, air, space, and cyberspace 
domains. Its outcomes are two-fold: enhanced security and unimpeded 
lawful commerce. Sustainable security requires effective and enduring 
institutions, both civilian and military, that are guided by these 
principles. Defense, diplomatic, and development efforts are 
intertwined and continue to reinforce each other to promote stability 
in both conflict-affected and steady state environments to build and 
sustain stable democratic states.
    The Indian and Pacific Oceans are the economic lifeblood linking 
the Indian Subcontinent, Southeast Asia, Australia, Northeast Asia, 
Oceania and the United States Oceans that once were physical and 
psychological barriers that kept us apart are now maritime 
superhighways that bring us together. Each year, approximately $5.3 
trillion in global trade transits the South China Sea and $1.2 trillion 
of this sea-based trade involves the United States fifty-five percent 
(55 percent) of the global gross domestic product (GDP) comes from this 
region (including the U.S.). Five of America's top ten trading partners 
are in the Indo-Asia-Pacific and it's a destination for one-fourth of 
our exports. The diverse region drives global economic growth and is 
home to the world's two largest economies after the United States 
(China and Japan) and led by the three fastest growing large economies 
(China, India, and the `ASEAN Five' (Indonesia, Malaysia, Philippines, 
Thailand, and Vietnam)). Nine of ten megacities in the world are in 
this region (including Karachi, Pakistan).
    The Indo-Asia-Pacific has the world's most populous democracy 
(India), and is home to more than half the world's population. Some 
estimates predict that percentage could rise to near 70 percent by 
2050, which will lead to further competition for dwindling resources. 
Indonesia, an important security partner of the United States, is a 
maturing democracy, and the world's largest Muslim-majority state. 
Eleven of the top 15 largest militaries in the world are in or adjacent 
to the region, as are two-thirds of the nine countries that possess 
nuclear weapons.
    Simply stated, what happens in the Indo-Asia-Pacific matters to 
America. The region needs a strong America, just as America needs the 
region.
    In fact, the need for American engagement in the Indo-Asia-Pacific 
is demonstrated in the long history of United States commitment to the 
region. It's overwhelmingly in America's security and economic 
interests to defend the rules-based order against challengers that 
would seek to unilaterally rewrite it or alter its fundamental 
principles. It's overwhelmingly in America's interests to deepen our 
diplomacy in the region while backing up peaceful resolution of 
disputes with undisputed, credible combat power. It's overwhelmingly in 
America's interests to remain the region's security partner of choice 
by working closely with our allies and partners who share our 
commitment to uphold peace, economic prosperity and security.
    This document is my assessment of the regional security challenges 
and opportunities of strategic value. First, I will outline some of the 
specific challenges we face in the Indo-Asia-Pacific including threats 
to the Homeland. I will highlight critical needs in order to seek your 
support for budgetary and legislative actions to improve United States 
military readiness in the Indo-Asia-Pacific region. I will discuss the 
value of U.S. strategic force posture and forward presence and how 
these preconditions improve the readiness of our joint force to fight 
tonight, enhance our ability to reassure allies and partners, and 
maintain regional stability. Finally, I will discuss how USPACOM 
strengthens existing alliances and cultivates critical partnerships 
with regional actors--both of which deliver strategic benefits and 
improve readiness to protect and defend U.S. interests.
                                overview
    As we look ahead to the next quarter century, if not the next few 
months or years, security and stability are threatened by a range of 
regional state and non-state actors who are challenging the rules-based 
security order that has helped underwrite peace and prosperity for 
America and throughout the region for over 70 years.
    North Korea continues to disregard United Nations sanctions by 
developing, and threatening to use intercontinental ballistic missiles 
and nuclear weapons that will threaten the United States Homeland. 
China has fundamentally altered the physical and political landscape in 
the South China Sea through large scale land reclamation and by 
militarizing these reclaimed features. Beijing continues to press Japan 
in the East China Sea, is stepping up diplomatic and economic pressure 
against Taiwan, and is methodically trying to supplant United States 
influence with our friends and allies in the region. Furthermore, China 
is rapidly building a modern, capable military that appears to far 
exceed its stated defensive purpose or potential regional needs. 
China's military modernization is focused on defeating the United 
States in Asia by countering United States asymmetric advantages. 
China's military modernization cannot be understated, especially when 
we consider the Communist regime's lack of transparency and apparent 
strategy. China is committed to developing a hypersonic glide weapon 
and advanced cyber and anti-satellite capabilities that present direct 
threats to the Homeland. China's near term strategy is focused on 
building up combat power and positional advantage to be able to 
restrict freedom of navigation and overflight while asserting de facto 
sovereignty over disputed maritime features and spaces in the region. 
Russia is modernizing its military and once again exercising its 
conventional forces and nuclear strike capabilities in the Pacific, 
which also threaten the Homeland. Transnational terrorists, inspired by 
and in some cases led by ISIS, have set their sights on the Indo-Asia-
Pacific by supporting and encouraging attacks in Indonesia, Bangladesh, 
Philippines, and Malaysia while recruiting and fund-raising there and 
elsewhere. Drug trafficking, human smuggling, piracy, weapons 
proliferation, natural disasters--as well as illegal, unreported, and 
unregulated fishing--further challenge regional peace and prosperity.
    To counter these challenges, USPACOM is enhancing U.S. force 
posture, presence, and resiliency, while modernizing U.S. force 
capability and training to ensure our forces are ready to fight tonight 
and win in any contingency. USPACOM is working with our many and 
invaluable allies and partners on a bilateral--and increasingly 
multilateral--basis to address these common challenges. The growth in 
multinational ``partnerships with a purpose'' demonstrates that the 
countries in the Indo-Asia-Pacific view the United States as the 
security partner of choice. By working together, we enhance capability 
and capacity to respond to the range of threats endemic to the region.
                             key challenges
    North Korea: North Korea remains our most immediate threat in the 
Indo-Asia-Pacific. It dangerously distinguishes itself as the only 
country to have tested nuclear weapons in this century. As former 
Secretary of Defense William Perry once said, we must deal with North 
Korea ``as it is, not as we wish it to be.'' Kim Jong-un has stated 
repeatedly that denuclearization is not an option. He is on a quest for 
nuclear weapons and the ballistic missiles capable of delivering them 
intercontinentally. The words and actions of North Korea threaten the 
United States Homeland and that of our allies in South Korea and Japan. 
That's North Korea as it is.
    I know there's some debate about the miniaturization and other 
technological advancements made by Pyongyang. An aggressive weapons 
test schedule, as demonstrated by yet another ballistic missile launch 
this April, moves North Korea closer to its stated goals. As a military 
commander, I must assume that Kim Jong-un's claims are true--his 
aspirations certainly are. USPACOM must be prepared to fight tonight, 
so I take him at his word. That means we must consider every possible 
step to defend the United States Homeland and our allies. That's why 
the ROK-United States alliance has decided to deploy THAAD--the 
Terminal High Altitude Area Defense system--in South Korea as soon as 
possible. That's why the United States continues to call on China--
North Korea's principal ally--to exert its considerable influence to 
stop Pyongyang's unprecedented campaign of nuclear weapons ballistic 
missile tests. That's why we continue to emphasize trilateral 
cooperation between Japan, ROK, and the United States That's why 
American leaders and diplomats continue to rally the international 
community to loudly condemn North Korea's unacceptable behavior.
    North Korea vigorously pursued a strategic strike capability in 
2016. We assess that the progress made in several areas will encourage 
Kim Jong-un to continue down this reckless and dangerous path. 
Pyongyang launched more ballistic missiles last year than it did in the 
previous few years combined. This included the first launches of the 
Musudan intermediate range ballistic missile (IRBM) and the 
developmental submarine-launched ballistic missile (SLBM). Both systems 
experienced noteworthy--and often spectacular--failures, but they also 
both achieved some successes. Just as Thomas Edison is believed to have 
failed 1000 times before successfully inventing the electric light 
bulb, so too, Kim Jong-un will keep trying. One of these days soon, he 
will succeed. The 2016 SLBM test and the numerous land-based tests 
employed solid-fuel engines, another indication that Kim Jong-un is 
continuing to modify and improve missile reliability and performance. 
Those successes advance North Korea's technical and operational base 
and allow continued development. Aggressive rhetoric since the New Year 
strongly suggests North Korea will not only continue to test these 
proscribed systems, but is also likely to attempt a first launch of a 
similarly prohibited intercontinental ballistic missile (ICBM).
    At the same time, North Korea's nuclear scientists and engineers 
are hard at work attempting to transform fissile nuclear materials into 
reliable nuclear weapons. Pyongyang defied the international community 
and detonated nuclear devices five times--including two in 2016. Kim 
Jong-un has threatened the pre-emptive use of nuclear weapons against 
the United States and other regional targets. Kim's strategic 
capabilities are not yet an existential threat to the United States, 
but if left unchecked, he will gain the capability to match his 
rhetoric. At that point we will wake up to a new world. North Korea's 
existing capabilities are already a significant threat to several of 
our regional treaty allies and the 90,000 United States troops 
stationed in the Western Pacific.
    North Korea fields the fourth largest conventional military in the 
world. Despite a number of noteworthy shortfalls in training and 
equipment, we must take seriously the substantial inventory of long-
range rockets, artillery, close-range ballistic missiles, and expansive 
chemical weaponry aimed across the Demilitarized Zone at the Republic 
of Korea and United States forces stationed there. North Korea also 
maintains sizeable numbers of well-trained, highly disciplined special 
operations forces. Pyongyang made a point recently of publicizing a 
Special Forces exercise that attacked and destroyed a detailed mock-up 
of the ROK Presidential complex in an attempt to underscore the 
capability and lethality of its forces.
    Pyongyang's emphasis on strategic and military capabilities comes 
at the expense of the North Korean people, who continue to struggle 
with a lifeless economy and international isolation.
    In confronting the North Korean threat, it is critical that the 
United States be guided by a strong sense of resolve both publicly and 
privately in order to bring Kim Jong-un to his senses, not his knees.
    China: The rapid transformation of China's military into a high-
tech force capable of regional dominance and a growing ability to 
support aspirations for global reach and influence is concerning. A 
February 2017 study from the International Institute for Strategic 
Studies (IISS) concluded that Chinese weapons and air power in 
particular are ``reaching near-parity with the west.'' Studies from 
DOD's Office of Net Assessment further confirm this trend in our 
decreasing capability overmatch. I agree with these reports. Our 
dominance in high tech advanced weapons cannot be taken for granted. To 
do so would be a strategic mistake.
    China's activities on the seas, in the air, and in cyberspace have 
generated concerns about its strategic intentions. For the past 2 
years, the People's Liberation Army (PLA) has been implementing an 
extensive reorganization which has so far included the creation of 
geographically focused Theater Commands, each organized and equipped 
for specific regional contingencies. This reorganization may be the 
most important development in the PLA's growing ability to organize for 
modern combat. The structural reforms that created the Theater Commands 
institutionalized a joint command and control concept to allow the PLA 
to maximize the individual services' warfighting strengths into a more 
cohesive joint force. However, it is likely to take several years 
before the full benefit of this change is realized. One early indicator 
that China is already addressing some of the challenges of joint 
operations is the recent unprecedented appointment of a Navy Admiral to 
replace an Army General as the commander of the largely maritime-
focused Southern Theater.
    China's equipment development and fielding programs are 
comprehensive and impressive. The PLA Navy (PLAN) boasts some of the 
most advanced warships in the region, including the Type 052D (Luyang-
III) guided missile destroyer and the Type 039A (Shang) attack 
submarine. Within the next 2 years the first Type 055 (Renhai) guided 
missile cruisers will join the fleet. These modern, multi-functional 
ships can support a range of missions and employ sophisticated air 
defense, surface attack, and subsurface munitions, including anti-ship 
missiles with ranges far exceeding existing U.S. Navy anti-ship 
weapons. The PLAN's aircraft carrier program is progressing with the 
CV-16 (Liaoning) serving as a test and development platform while China 
builds its first indigenous aircraft carrier, anticipated to be at full 
operational capability early in the 2020s, and expected to be a spiral 
upgrade in capabilities. CV-16's deployment to the South China Sea in 
December and January showed China's growing ability to employ carrier-
based aviation. The Type 094 (Jin) ballistic missile submarine can 
launch nuclear missiles capable of reaching parts of the continental 
U.S.
    The PLA Air Force (PLAAF) and Naval Air Force (PLANAF) are 
similarly fielding greater numbers of advanced fighters, bombers, and 
special mission aircraft while aggressively developing new platforms. 
Flying prototypes of J20 and J31 multi-role fighters portend a near-
term capability to field near-5th generation fighters. A new heavy lift 
transport (Y-20) will give China a greater ability to move troops and 
equipment anywhere in the world. New and/or upgraded bombers, 
electronic warfare, command and control, and anti-submarine aircraft 
all expand PLA abilities to conduct a wide range of operations.
    PLA ground forces are large, modern, and well trained. Also 
reorganized in 2016, the PLA increasingly operates in combined arms 
formations--integrating attack helicopters, artillery, electronic 
warfare, and other arms into their training activities. They've 
incorporated some of the training methods used by the U.S. (e.g., 
combat training centers with dedicated opposing forces and 
instrumentation) to increase realism and sophistication in their 
training.
    Another component of the ongoing PLA reorganization is the 
expansion of capabilities and numbers of the PLA Navy Marines. While 
the full scope of the change is unclear--some reports have the number 
of marines increasing five-fold to as many as 100,000 troops--what is 
clear is the growing importance China places on building the ability to 
project power using an expeditionary capability. PRC media has 
highlighted recent marine deployments for training in harsh weather 
conditions and on unfamiliar terrain. Chinese leadership likely 
envisions using the expanded marine capability as an expeditionary 
force to both seize Taiwan and protect Chinese interests overseas.
    The PLA Rocket Force (PLARF) controls the largest and most diverse 
missile force in the world, with an inventory of more than 2,000 
ballistic and cruise missiles. This fact is significant because the 
U.S. has no comparable capability due to our adherence to the 
Intermediate Range Nuclear Forces (INF) Treaty with Russia. 
(Approximately, 95 percent of the PLARF's missiles would violate the 
INF if China was a signatory.) The PLARF is organized for a range of 
missions, with large numbers of missiles targeted against Taiwan, and 
others intended to strike targets as far away as Guam and the so-called 
second island chain, and intercontinental-range missile capable of 
delivering nuclear weapons to strike the continental United States. 
China is also heavily investing in advanced missile technologies like 
hypersonics and, on average, launches more than 100 missiles each year 
for training or research and development.
    The PLA Strategic Support Force (PLASSF) was established last year 
to better manage and employ the PLA's impressive array of cyber, space, 
and other specialized capabilities. The PLASSF is a potential game-
changer if it succeeds in denying other countries the use of space, the 
electromagnetic spectrum, and networks.
    To train and integrate these capabilities, Chinese forces have 
increased the scope of operations in number, complexity, and geographic 
range. Submarine deployments to the Indian Ocean, air exercises in the 
Middle East, and port visits to Europe or South America are on the 
rise. For example, President Xi will travel to Djibouti in the near 
future to officially open the Chinese naval base there. The base is 
strategically positioned on the narrowest point of the strategic strait 
of Bab al Mandeb, a key intersection for international commercial and 
defense related navigation. This base could support Chinese force 
projection through the Indian Ocean and into the Mediterranean and 
Africa.
    An encouraging sign that China is willing to shoulder a greater 
role in international affairs is the expansion of Chinese peacekeeping 
missions, something we promote in our interactions with the PLA. My 
goal remains to convince China that its best future comes from peaceful 
cooperation, meaningful participation in the current rules-based 
security order, and honoring its international commitments.
    Territorial Disputes and Maritime Claims:  A number of friction 
points where competing territorial claims overlap exist throughout the 
Indo-Asia-Pacific, e.g., between Russia and Japan (Northern 
Territories) and between the Philippines and Malaysia (Sabah)--but none 
are as fraught with the potential for escalation and military conflict 
as the South and East China Seas.
    South China Sea: The United States takes no position on competing 
sovereignty claims in the South China Sea, but we encourage all 
countries to uphold international law, including the law of the sea as 
reflected in the Law of the Sea Convention, and to respect unimpeded 
lawful commerce, freedom of navigation and overflight, and peaceful 
dispute resolution.
    There are three notable disputes over territorial sovereignty in 
the South China Sea. The first dispute is between China, Taiwan, and 
Vietnam over the Paracel Islands, which China took by force from 
Vietnam and has occupied since 1974. The second dispute is between 
China, Taiwan, and the Philippines over Scarborough Reef. In 2012, the 
United States brokered a deal between the Philippines and China where 
both countries committed to keep their naval forces away from 
Scarborough. While the Philippines honored the commitment, China 
continued to operate with its Navy and Coast Guard and, soon after, 
expelled Philippine fishermen. The third dispute involves multiple 
claimants within the Spratly Islands where China, Taiwan, Vietnam, 
Brunei, Malaysia, and the Philippines each claim sovereignty over some 
or all of the features.
    The past year included some major developments in the status of 
these disputes. The landmark ruling by the Arbitral Tribunal under the 
Law of the Sea Convention (the Tribunal) in July 2016 addressed the 
status of features and maritime claims specified in the Philippines' 
arbitration case. While the tribunal did not rule on the sovereignty of 
specific features, the tribunal did declare a number of China's 
maritime claims and actions unlawful. However, China ignored the ruling 
and maintains and even articulated new excessive maritime claims 
throughout the South China Sea. All the activities underway before the 
ruling, including the militarization of the artificial landforms 
created by China and the provocative actions of military and law 
enforcement forces, continue unabated.
    China's military-specific construction in the Spratly islands 
includes the construction of 72 fighter aircraft hangars--which could 
support three fighter regiments--and about ten larger hangars that 
could support larger airframes, such as bombers or special mission 
aircraft. All of these hangars should be completed this year. During 
the initial phases of construction China emplaced tank farms, 
presumably for fuel and water, at Fiery Cross, Mischief and Subi reefs. 
These could support substantial numbers of personnel as well as 
deployed aircraft and/or ships. All seven outposts are armed with a 
large number of artillery and gun systems, ostensibly for defensive 
missions. The recent identification of buildings that appear to have 
been built specifically to house long-rang surface-to-air missiles is 
the latest indication China intends to deploy military systems to the 
Spratlys. During my Congressional testimony last year, I reported my 
belief that China was clearly militarizing the South China Sea. China's 
activities since then have only reinforced this belief. We should cease 
to be cautious about the language we use to describe these activities. 
Despite its claims to the contrary, China has militarized the South 
China Sea through the building of seven military bases on artificial 
islands constructed through the large-scale damage of a fragile 
environment in disputed areas.
    The presence of these military capabilities undermines China's 
consistent claim that these massively expanded features are for safety 
and humanitarian purposes. Recently China has tried to obscure the 
military purposes of its Spratly Islands efforts by calling for private 
investment, residential settlement, and tourism. The latter may prove 
especially problematic as China's land creation effort over the past 
few years has destroyed the once vibrant marine ecosystem surrounding 
the features.
    China's naval, coast guard, maritime militia, State Oceanic 
Administration, and air force presence in the South China Sea remains 
substantial. China Coast Guard (CCG) ships remain present near Chinese 
outposts and other features. CCG and PLAN ships also continue to 
control activities near Scarborough Reef, a feature also claimed by the 
Philippines. In February, China announced it was seeking to revise its 
domestic Maritime Traffic Safety Law to empower its maritime services 
to control or penalize foreign ships operating in ``other sea areas 
under the jurisdiction of the People's Republic of China'' beyond those 
allowed under international law as reflected in the Law of the Sea 
Convention. Given China's continued rejection of the Tribunal ruling 
and continued articulation that much of the South China Sea is ``under 
its jurisdiction,'' we can only assume China intends to improperly 
apply its domestic law to foreign ships operating lawfully in the area.
    China protests the legal and long-standing United States presence 
in the South China Sea by falsely claiming Washington is the cause for 
tensions. United States military forces have been operating routinely 
and persistently on, below, and above the South China Sea for more than 
70 years--this hasn't changed. What has changed the status quo in the 
South China Sea in recent years is the increased coercive behavior by 
China's military, Coast Guard, and a vast network of private vessels 
controlled by the PRC that act as a maritime militia of ``little green 
fishermen.'' Furthermore, China's unprecedented artificial island 
construction and land reclamation has increased tensions with other 
claimants and its neighbors. The United States has consistently called 
for all claimants to find a peaceful, diplomatic resolution to their 
land and maritime disputes in the South China Sea.
    Specifically, since 1979, the U.S. Freedom of Navigation program 
has peacefully challenged excessive maritime claims by coastal states 
all around the world (including those of our friends and allies). This 
program consists of diplomatic communications and operational 
assertions, which are not provocative and are not a threat to any 
country. These operations are conducted globally to maintain open seas 
and open skies, which underpins economic prosperity for the U.S. and 
all countries.
    Freedom of navigation operations (FONOPs) are conducted for exactly 
what the title says--to exercise the right of all nations to operate 
freely at sea and in the air wherever international law allows. In 
2016, USPACOM forces conducted three FONOPs near disputed features in 
the South China Sea. These and future routine FONOPs demonstrate that 
the U.S. military will continue to fly, sail, and operate wherever 
international law allows, especially where excessive maritime claims 
attempt to erode the freedom of the seas.
    East China Sea: Tensions between Japan and China over the Senkaku 
Islands continue to worsen. This past year saw a sharp rise in the 
number PLAAF aircraft operating over the East China Sea. China 
persistently challenges Japan's administration over the islands by 
deploying warships into the area, sailing Coast Guard ships inside the 
territorial waters surrounding the Senkakus, and protesting Japanese 
reconnaissance flights. The presence of military and law enforcement 
assets in close proximity to one another and the accompanying rhetoric 
create an environment conducive to miscalculation and unintended 
incidents. United States policy is clear here: the Senkakus are under 
the administration of Japan and we will defend them in accordance with 
the United States-Japan Treaty on Mutual Cooperation and Security. 
Secretary Mattis recently said during his trip to Japan that, `` . . . 
our longstanding policy on the Senkaku islands stands. The United 
States will continue to recognize Japanese administration of the 
islands and as such Article 5 of the United States-Japan Security 
Treaty applies.''
    Russia: Although focused on Europe and the Middle East, Russia is 
engaged militarily and politically in the Indo-Asia-Pacific. I share 
General Lori Robinson's view that Russia continues to exhibit 
increasingly aggressive behavior, both regionally and globally.
    The Russian Pacific Fleet operates and exercises throughout the 
region. The second Borey (Dolgorukiy-class) nuclear ballistic missile 
submarine transferred to the Pacific Fleet last fall, and the Kremlin 
announced the acquisition of 6 new advanced Kilo attack submarines for 
the Pacific by 2021. The Russian Pacific Fleet's five Project 949A 
(Oscar II) nuclear-powered guided missile submarines have a mission to 
track and attack aircraft carriers and other priority targets--
including land targets--in the event of war. In late 2015 Russia 
announced a plan to upgrade the Oscar II to fire new, more-advanced 
long-range missiles. The first Steregushchy-class guided missile 
corvette was commissioned in January 2017 with more planned as part of 
ongoing military modernization efforts. Russian troops and warships 
held combined island-seizure training with China in the South China Sea 
last summer. On land, Russian forces fielded long-range anti-ship 
missiles along the coast, moved S-400 strategic air defense missiles to 
the east, and stationed the advanced Su-34 fighter-bomber to patrol the 
skies. Nuclear-capable bombers continue to fly missions focused on 
rehearsing strikes on the U.S. mainland or regional targets. 
Additionally, Russia has introduced a new generation of highly precise, 
conventionally armed cruise missiles that can reach the United States 
and our allies.
    Of particular note are Russian efforts to build presence and 
influence the high north. Russia has more bases north of the Arctic 
Circle than all other countries combined and is building more with 
distinctly military capabilities.
    Russian economic and political outreach brings both positive and 
negative impacts for the region. Expanding exports of Russian natural 
gas and oil provides new, diversified sources for Asia's growing energy 
demands. Japan and ROK are among the leading importers of Russian coal. 
Japanese investment in the Russian Far East may prove extraordinarily 
helpful to regional growth and stability. Russia also seeks to mitigate 
the effects of international sanctions imposed in response to its 
military operations in Ukraine, and may be trying to wedge itself into 
new relationships by opportunistically providing economic aid packages 
and military assistance (e.g., the Philippines).
    ISIS / Violent Extremist Organizations (VEOs): ISIS is a clear 
threat that must be defeated. The main geographic focus of the United 
States-led counter-ISIS coalition has rightfully been in the Middle 
East and North Africa. As ISIS is defeated in Iraq, Syria and Libya, it 
will undoubtedly seek to operate in other areas. Increasing numbers of 
returning fighters alone have already forced USPACOM to think ahead 
about ``what's next'' in the fight against ISIS. As I mentioned earlier 
in this testimony, there are far more Muslims living in the Indo-Asia-
Pacific than in the Middle East and North Africa. The vast majorities 
are peaceful people who seek to live lives free from the curse of 
terrorism. Even if a very small percentage of the Muslims in the 
USPACOM AOR are radicalized, there could be deadly results.
    In 2016 alone, we witnessed ISIS-inspired terrorism in Bangladesh, 
Indonesia, Malaysia, and the Philippines. Additionally, it's clear to 
me that as our military operations in the Middle East continue to deny 
ISIS territory, some foreign fighters originally from the Indo-Asia-
Pacific will try to return home. They'll come back to their home 
countries radicalized and weaponized. We must stop them now at the 
front end and not at the back end when the threat can become more 
dangerous. We cannot do it alone. To halt ISIS' cancerous spread, we 
must work together with like-minded nations in the region and across 
the globe.
    USPACOM seeks to advance multinational partnerships with a purpose. 
Malaysia, Indonesia, the Philippines, Australia and New Zealand are 
partners we are engaging to tackle the threat against ISIS and other 
VEOs. Many Indo-Asia-Pacific countries like Australia and New Zealand 
have joined the coalition dedicated to ISIS' complete destruction. 
Through multinational collaboration, we can eradicate this disease 
before it metastasizes in the USPACOM area of responsibility.
    Countering violent extremism in the Indo-Asia-Pacific requires 
close collaboration with United States Government interagency partners 
like the Federal Bureau of Investigation (FBI), Department of Treasury, 
and the various agencies of our intelligence community. Through an 
interagency network reinforced by liaison officers embedded in USPACOM 
headquarters and Special Operations Command (SOCOM) we are able to 
leverage tools from across our government to fight terrorist 
organization.
    Transnational Crime: Transnational Criminal Organizations (TCOs), 
many of whom operate as sophisticated global enterprises that traffic 
in human beings, weapons, drugs and other illicit substances, exist 
throughout the Indo-Asia-Pacific. The revenue from criminal endeavors 
threatens stability and undermines human rights. Corruption follows 
wherever these organizations flourish, weakening governments and 
contributing to regional instability.
    Methamphetamine and amphetamine-type stimulants continue to be the 
primary drug threat in to the U.S. from the region. Joint Interagency 
Task Force-West (JIATF-W) reports that while Asia-sourced 
methamphetamine production is significant, methamphetamine produced 
elsewhere supplements the region's increasing demand. Maritime 
container shipments of China-sourced chemicals account for the bulk of 
the precursors used by Latin American drug trafficking organizations to 
manufacture methamphetamine and heroin, most of which is intended for 
the U.S. market--a direct threat to the U.S. Homeland. Additionally, 
China-sourced fentanyl and new psychoactive substances are now a 
growing threat to the United States.
    While much remains to be done, USPACOM forces, including JIATF-W, 
are coordinating with our interagency and foreign partners to address 
these threats.
    Proliferation Issues: The Indo-Asia-Pacific has the busiest 
maritime and air ports in the world. Technological advances have 
outpaced many countries' ability to effectively manage export controls 
to counter the proliferation of component technology. Trade includes 
dual-use technology, such as commercial items controlled by the 
nuclear, ballistic missile, and chemical/biological weapons control 
regimes, including manufactured or re-exported materials from other 
countries with limited export control enforcement. USPACOM's Countering 
Weapons of Mass Destruction (C-WMD) community supports proliferation 
operations throughout the Indo-Asia-Pacific by addressing concerns 
through key leader engagements, combined and joint exercises, and 
international security exchanges focused on counter proliferation 
activities.
    Natural Disasters: The Indo-Asia-Pacific region remains the most 
disaster prone region in the world. 75 percent of Earth's volcanoes and 
90 percent of earthquakes occur in the ``Ring of Fire'' surrounding the 
Pacific Basin. According to a 2015 UN report, disasters over the last 
10 years took the lives of a half a million people in the region, with 
over 1.5 billon people affected and damages of over a half a trillion 
dollars.
    In the 2015 Nepal earthquake response, in coordination with the 
Nepalese government and USAID, USPACOM's Joint Task Force 505 delivered 
about 120 tons of emergency relief supplies and transported 553 
personnel and conducted 69 casualty evacuations. This last fall USS 
Sampson (DDG 102) and Maritime Patrol and Reconnaissance Aircraft 
assisted New Zealand in its response to an earthquake on its South 
Island.
    While disaster response is not a primary USPACOM focus, a key 
element of our Theater Campaign Plan (TCP) is building capacity with 
allies and partners to improve their resiliency and capability to 
conduct humanitarian assistance/disaster response (HA/DR). HA/DR 
cooperation is also an effective means to deepen and strengthen 
relationships. USPACOM's Center for Excellence for Disaster Management 
(CFE-DM) increases regional governments' readiness to respond to 
natural disasters by serving as a node for distribution of best 
practices. Our service components are prepositioning HA/DR stocks to 
facilitate timely response and to build access. When possible, U.S. 
military forces can and do assist with unique capabilities in the areas 
of air and sealift, infrastructure restoration, and emergency medical 
support.
    Budget Uncertainty: Fiscal uncertainty injects substantial risk to 
USPACOM's long-term mission. The Budget Control Act and yearly 
Continuing Resolutions degrade USPACOM's ability to effectively plan.
    I've said this many times before--sequestration must be repealed.
    In 2013, sequestration cut every defense program equally. As a 
result, real readiness suffered. For example, we were forced to cancel 
an important joint exercise, Northern Edge. We need predictable funding 
to meet our current mission requirements and to prepare for the future. 
Keeping self-imposed spending cuts is a long-term threat to our 
national security.
    Fiscal uncertainty and reduced funding levels have forced the 
services to make offsets in crucial investments toward modernization, 
infrastructure, and future readiness. These tradeoffs will continue to 
have a negative impact on the Indo-Asia Pacific Theater strategy. 
Equally important, the uncertainty of the current fiscal landscape 
places a heavy burden of unpredictability onto our servicemembers and 
their families, our government civilians, Department of Defense 
contractors, and supporting industry. The U.S. will experience degraded 
warfighting capabilities unless decisive actions are taken to end 
fiscal uncertainties.
    The strategic priorities from the Services must be funded to 
provide USPACOM what we need in order to provide for the national 
defense.
    Without a bipartisan agreement that provides relief from the Budget 
Control Act caps, the Department of Defense will be forced to decrease 
investments that have given our warfighters the technological edge they 
have enjoyed for decades. Our near-peer competitors like China and 
Russia are quickly closing the technological gap. I need weapons 
systems of increased lethality that go faster, further, are networked, 
are more survivable, and affordable. If USPACOM has to fight tonight, I 
don't want it to be a fair fight. If it's a knife fight, I want to 
bring a gun. If it's a gun fight, I want to bring in the artillery, and 
the artillery of all of our allies. As I said during Congressional 
testimony last year, sequestration could reduce us to wielding a butter 
knife in this fight. We must not let that happen. In order to deter 
potential adversaries in the Indo-Asia-Pacific, we must invest in 
critical capabilities, build a force posture that decreases our 
vulnerabilities and increases our resiliency, and reassure our allies 
and partners while encouraging them to be full and cooperative partners 
in their own defense and the defense of the rules-based international 
order.
                         critical capabilities
    The most technical, high-end military challenges America faces in 
the region continue to grow. While forward presence, alliances, and 
partnerships address these challenges, USPACOM requires our most 
technologically advanced warfighting capabilities to fully meet them. 
The critical capabilities in this section demand our attention and 
treasure. We must preserve our asymmetric advantages in undersea and 
anti-submarine warfare, and we must strengthen our abilities to counter 
strategies designed to limit our freedom of action.
    China has developed and fielded capability and capacity to 
challenge our regional maritime dominance. I need increased lethality, 
specifically ships and aircraft equipped with faster and more 
survivable weapons systems. Longer range offensive weapons on every 
platform are an imperative. Then we must network this force and take 
advantage of man-machine teaming to improve our responsiveness.
    Pacing the threats we face in this region is not an option in my 
playbook. We must work hard and invest the money to outpace the 
competition to develop and deploy the latest technology to USPACOM. 
Examples include Navy Integrated Fires and the AEGIS Flight III 
destroyer and its Air and Missile Defense Radar (AMDR)--essential tools 
in today's complex operating environment.
    Munitions, Fuels, and Logistics Networks: Critical munitions 
shortfalls are my top warfighting concern. Munitions are a large part 
of determining combat readiness in pursuit of national strategic 
objectives. We are short in ``here-and-now'' basic munitions like small 
diameter bombs. Our near-peer competitors continue to modernize their 
weapons systems and leverage new technologies to close capability gaps 
between us and them. We must maintain our capability to operate in 
contested environments. Additionally, we must continue to expand cross 
domain fires capabilities and focus on joint integration to strengthen 
deterrence and enable joint combined maneuver.
    Priorities include long-range and stand-off strike weapons, anti-
ship weapons, advanced air-to-air munitions, theater ballistic/cruise 
missile defense, torpedoes, naval mines, and a Cluster Munitions 
replacement. With respect to ship-to-ship and air-to-ship munitions 
that allow us to defeat an aggressor from greater range, we are looking 
at capabilities similar to Long Range Anti-Ship Missile (LRASM) and 
Joint Air-to-Surface Standoff Missile--Extended Range (JASSM-ER). In 
the air-to-air realm, I am seeking advancements in munitions that will 
provide us an advantage in a denied environment, such as the AIM-120D 
and AIM-9X2 air superiority missiles. We must modernize and improve our 
torpedo and naval mine capabilities to maintain our undersea advantage. 
Continued improvements in the capability and capacity of ballistic/
cruise missile defense interceptors will further enhance Homeland 
defense capabilities and protect key regional nodes from aggressive 
action. In support of the Korean Peninsula, I support efforts to 
acquire a replacement for Cluster Munitions--we need an Area Effects 
Munition replacement now.
    As new inventory becomes available, current storage capacity will 
become critical. Current, legacy storage locations are inadequate to 
store specific types of modernized munitions and meet the requirements 
of fiscal year 2021 Department of Defense Explosive Safety Standards. 
To meet security and safety standards for future inventory, additional 
new military construction (MILCON) will be required. When munitions 
storage MILCON projects lose to competing projects and are not funded 
we put unnecessary risk on our personnel. We must fund these MILCON 
projects.
    Fuel is a critical commodity, and its strategic positioning is a 
key pillar of our logistics posture. Ensuring we have the right fuel, 
in the right amount, at the right location, at the right time, is vital 
to USPACOM's ability to project power throughout the Indo-Asia-Pacific. 
I remain committed to building the capacity of our prepositioned war 
reserve stocks of fuel, including resiliency of the facilities, 
infrastructure, and supply chain on which these stocks depend.
    Finally, our nation's ability to project power rides on the 
backbone of airlift and sealift. This is most true in USPACOM. Our Air 
Force made tough decisions to transition airlift to Backup-Aircraft 
Inventory (BAI) status and transition Active Components to Guard and 
Reserve in order to meet budget constraints. Unfortunately, these 
decisions resulted in a lack of flexibility and readily available 
capacity for combatant command war plans. Today's global competition 
for airlift resources hinders the joint force's ability to promptly 
achieve operational objectives. In war, this shortcoming can result in 
greater loss of life, increased risk on USPACOM-fielded forces, and 
risk to our Nation's credibility with partners and allies. I remain 
concerned about the current airlift posture and support an increase in 
airlift capacity, resources, and innovative deployment technologies. 
The long-term health of the U.S. flag commercial fleet and the 
availability of the merchant marine is also a concern.
    Taken collectively, these individual gaps and shortfalls in our 
logistics capabilities represent overall erosion in USPACOM's 
operational readiness and require an initiative like APSI [Australian 
Strategic Policy Institute] to reverse those negative trends. A 
strategic initiative to arrest and reverse those trends would be 
beneficial and worth consideration.
    Air Superiority: In order to deter potential adversaries in the 
Indo-Asia-Pacific we must possess the capabilities that allow us to 
gain air superiority at a time and place of our choosing and we must be 
able to maintain that air superiority long enough to complete critical 
missions. For the last several decades the U.S. has enjoyed unmatched 
air superiority including 4th generation fighters and air-battle-
management platforms. Our potential adversaries, however, are rapidly 
closing the gap as both Russia and China have fielded their own 
versions of 5th generation fighters just as the United States has begun 
the fielding of our 5th generation platforms in the Pacific. While we 
continue to invest in 5th generation platforms, we must also find 
innovative ways to make our 4th generation aircraft more capable. 
Regardless of the pace of 5th generation fielding, these 4th generation 
platforms will be in our active inventory for years to come and we will 
have to rely on them to address the same threats.
    Undersea Warfare: Roughly 230 of the world's 400 foreign submarines 
are in the Indo-Asia-Pacific, of which approximately 160 belong to 
China, North Korea, and Russia. Potential adversary submarine activity 
has tripled from 2008 levels, requiring a corresponding increase of 
United States activity to maintain undersea superiority. China is 
improving the lethality and survivability of its attack submarines and 
building quieter, high-end diesel and nuclear powered submarines. China 
has four operational nuclear-powered Jin-class ballistic missile 
submarines (SSBNs) and at least one more may enter service by the end 
of this decade. When armed, a Jin-class SSBN will give China an 
important strategic capability that must be countered. Russia is 
modernizing its existing fleet of Oscar-class multi-purpose attack 
nuclear submarines (SSGNs) and producing their next generation 
Severodvinsk Yasen-class SSGNs. Russia has also homeported their newest 
Dolgorukiy-class SSBN in the Pacific, significantly enhancing its 
strategic capability. USPACOM must maintain its asymmetric advantage in 
undersea warfare capability including our attack submarines, their 
munitions, and other anti-submarine warfare systems like the P-8 
Poseidon and ship-borne systems. Additionally, the Integrated Undersea 
Surveillance System (IUSS), including the Surface Towed Array Sensor 
Systems (SURTASS), plays a key role to theater operations and must be 
resourced appropriately to ensure it remains relevant. Maintaining pace 
with submarine activity growth is necessary and I support the Secretary 
of the Navy's 2016 Force Structure Assessment which calls for a 355-
ship navy including 66 attack submarines.
    Intelligence, Surveillance, and Reconnaissance (ISR): The challenge 
of gathering credible deep and penetrating intelligence cannot be 
overstated. The Indo-Asia-Pacific presents a dynamic security 
environment requiring flexible, reliable, survivable deep-look and 
persistent ISR to provide indications and warning and situational 
awareness across a vast geographic area. As previously noted, USPACOM 
faces a variety of challenges and potential flashpoints. Our treaty 
allies rely on U.S. ISR capabilities to support mutual defense 
treaties. ISR is required to prevent strategic surprise, buy decision 
space for national leadership, accurately assess the security 
environment and, if necessary, defeat potential adversaries. Continued 
advancements of our near-peer competitors requires additional 
advancements to how our intelligence is collected and processed--
including the risks involved--to avoid greater long-term risk. Our ISR 
capabilities must be suited to our unique operating environment.
    Space and Cyberspace: USPACOM relies on space based assets for 
satellite communications (SATCOM), ISR, and Positioning, Navigation, 
and Timing (PNT) capabilities to support missions across the range of 
military operations. USPACOM's region spans over half the globe and 
space-based assets are high-demand, low-density resources. As the space 
grows increasingly congested and contested, our adversaries have and 
continue to develop means to deny our space-enabled capabilities. 
USPACOM requires resilient and responsive space based capabilities to 
support operations. China continues to pursue a broad and robust array 
of counter-space capabilities, which includes direct-ascent anti-
satellite missiles, co-orbital anti-satellite systems, cyber-attack and 
exploitation, directed energy weapons and ground-based satellite and 
PNT jammers.
    Freedom of maneuver across the cyberspace domain is critical to 
USPACOM's ability to execute military operation. We face constant 
threats in this domain from both state and non-state actors and must 
ensure we have a robust and capable cyber force, as well as the 
equipment necessary to operate and defend the U.S. military's portion 
of the Department of Defense Information Network within USPACOM's area 
of operations. In addition, USPACOM requires an agile and defensible 
network infrastructure to enable information sharing and collaboration 
with our mission partners. This network infrastructure will foster 
better command and control in joint and coalition efforts, and will 
provide a true fight tonight communication capability that does not 
currently exist.
    Our offensive cyber capabilities, currently under the 
responsibility of USCYBERCOM, continue to develop. As the command and 
control relationships continue to mature between USPACOM and 
USCYBERCOM, and between USCYBERCOM and its subordinate headquarters, we 
continue to advocate for increased unity of effort and unity of command 
for all cyber forces within USPACOM's area of operation. It is 
important that we strike the right balance between maintaining a 
sufficiently capable cyber force within our theater working directly 
for USPACOM and its subordinates and developing a capable cyber force 
under USCYBERCOM.
    Integrated Air and Missile Defense (IAMD): USPACOM faces unique 
IAMD challenges despite efforts to forward station additional IAMD 
sensors and weapons capabilities in the Indo-Asia-Pacific to protect 
our forces and allies. Hawaii, Guam, and our Pacific territories are 
part of our Homeland and must also be defended. North Korea's 
persistent research, development and active testing of both its missile 
and nuclear programs and China's development and operational fielding 
of advanced counter-intervention technologies that includes fielding 
and testing of highly maneuverable re-entry vehicle/warhead (i.e., 
hypersonic weapons) capabilities challenges U.S. strategic, 
operational, and tactical freedom of movement and maneuver. Other 
notable challenges include challenging new cruise missiles and Unmanned 
Aircraft System (UAS) technologies.
    USPACOM's IAMD priority is to establish a persistent, credible, and 
sustainable ballistic missile defense presence by forward deploying the 
latest advancements in missile defense technologies to the Indo-Asia-
Pacific. Accordingly, TPY-2 radars in Japan, the THAAD system on Guam, 
and the Sea-Based X-band Radar (SBX) based in Hawaii defend the 
Homeland and our allies. USPACOM and USFK with the support of the DOD, 
the U.S. Army and MDA are working bilaterally with South Korea to 
ensure the emplacement of a THAAD battery on the Korean peninsula in 
the next few months. The U.S. Navy is moving forward with the port 
shift of the USS Milius from San Diego to Yokosuka, Japan in 2017. 
Since the arrival of the USS Benfold and USS Barry to Japan in fiscal 
year 2016, the U.S. Seventh Fleet is in a better position to support 
the United States-Japan alliance with more flexible missile defense 
capability. USPACOM will continue working with Japan, the ROK, and 
Australia to improve our level of staff coordination and information 
sharing and the goal of creating a fully-integrated Ballistic Missile 
Defense (BMD) architecture that must also address the increasing cruise 
missile threat.
    Innovation: Innovation continues to be critical to addressing 
USPACOM's capability gaps and maintaining our military advantage. 
USPACOM partners with DOD-wide organizations, national laboratories, 
and industry to provide innovative solutions to fill capability 
requirements. USPACOM also continues to work closely with the OSD 
Strategic Capabilities Office (SCO) to develop and field game-changing 
technologies for the Indo-Asia-Pacific. USPACOM recognizes that 
advances in artificial intelligence, machine learning, large data 
analytics, and predictive forecasting will enable our warfighters to 
make better decisions and to confront the challenges of our near-peer 
adversaries. The DOD Third Offset Strategy provides the mechanism to 
invest in innovative capabilities that will enhance the joint 
warfighter given the challenges in the Indo-Asia-Pacific Theater. As I 
have stated, this is not about winning wars on the cheap, as some 
critics may suggest. It's about winning wars on the smart. USPACOM will 
continue to push the boundaries of innovation and ``fail smartly'' so 
that we can ultimately develop and field the best solutions for the 
joint warfighter.
    Fires . . . Achieving Multi-Domain Battle (MDB): Over the past two 
decades, China has developed numerous ground and air launched missile 
systems that far outrange United States systems. They have done this at 
a fraction of the cost of some of our more expensive systems. 
Constrained in part by our adherence to the INF treaty, the U.S. has 
fallen behind in our ability to match the long-range fires capabilities 
of the new era. China is not a signatory to the INF treaty and the 
other main signatory, Russia, has repeatedly violated the treaty as 
they develop capabilities that could prevent the United States from 
fulfilling its alliance obligations.
    Just as our adversaries have adapted to counter our asymmetric 
advantages, we, too must adapt the way we fight to leverage new 
technologies and approaches to operations to maintain our edge. We need 
systems that are fast, long-range, lethal, survivable, networked, 
rapidly deployable, and maneuverable. Given existing technology, such 
systems should be relatively inexpensive.
    With this in mind that I have become a strong advocate for the 
operational concept known as Multi-Domain Battle (MDB). The Deputy 
Secretary of Defense has called MDB, ``the first operational concept of 
the third offset.'' MDB is the ultimate joint concept that allows a 
commander to achieve cross-domain effects. Because of this, it gives a 
commander multiple options from across the joint force and confuses our 
adversaries by making them face multiple dilemmas. MDB calls for 
combined arms operations across all domains with joint force 
capabilities being brought to bear in the long-range fight as well as 
close combat. Recognizing that we may no longer be able to maintain 
broad sea and air control as we did in the past, one benefit of MDB in 
the Indo-Asia-Pacific is the addition of ground, space, electromagnetic 
spectrum, and cyber forces operating across archipelagic regions to 
augment sea and air forces to create temporal pockets of dominance that 
can be exploited to gain tactical and operational advantage.
    We already have much of the capability for MDB in our force. 
However, one of the biggest capability gaps in terms of joint effects 
is the lack of connectivity between the Navy's Cooperative Engagement 
Capability (CEC), Army's THAAD and Patriot Systems, and the USMC's C2 
systems. I know the Services are working on this problem. The 
technology is out there and the proof is in the lethal systems 
developed by our adversaries. More importantly, MDB requires a new 
jointness to bring it all together. MDB conceptualizes bringing 
jointness further down to the tactical levels allowing smaller echelons 
to communicate and coordinate directly while fighting in a 
decentralized manner that still allows for clearance of fires and 
deconfliction of efforts. I have tasked my component commands at 
USPACOM to test this operational concept in a major exercise. We are 
well on our way to meeting that goal thanks to a great team of service 
component commanders and their organizations.
            strategic force posture in the indo-asia-pacific
    The tyranny of distance and short indications and warnings 
timelines place a premium on robust, modern, and agile forward-
stationed forces at high levels of readiness. USPACOM requires a force 
posture that credibly communicates U.S. resolve, strengthens alliances 
and partnerships, prevents conflict, and in the event of crisis, 
responds rapidly across the full range of military operations. 
USPACOM's force posture is also supplemented by the deployment of 
rotational forces and the fielding of new capabilities and concepts 
that address operational shortfalls and critical gaps.
    Global Force Management (GFM): The Department of Defense is 
continuing several GFM initiatives that include adding the Navy's 
newest airborne early warning and control aircraft, the E-2D Advanced 
Hawkeye, to the USS Ronald Reagan Strike Group in Japan, and increasing 
the presence of ballistic missile defense-capable surface ships. The 
Army is stationing a THAAD battery in South Korea and maintains the 
rotation of an Armored Brigade Combat Team (ABCT), plus enabling 
forces, to the Korean Peninsula. The Army also continues to support 
collective training and forward presence across the region through 
Pacific Pathways, thus enhancing partnership opportunities, avoiding 
permanent basing, and increasing Army readiness. The Air Force deploys 
a broad range of assets to the region, including F-22s, F-16s, E-8s, 
RC-135s and strategic bombers, including B-52, B-1 and B-2 bombers, to 
maintain presence in the Indo-Asia-Pacific. The forward stationing and 
deployment of 5th generation airframes to the region continues to be a 
priority for USPACOM--notably the Marine Corps has deployed the first 
F-35B squadron based in Japan. The Marine Corps continues to execute a 
reduction in the footprint on Japan by distribution of the capability 
across the region. Rotational forces west of the International Date 
Line are positioned to deter and defeat potential aggressors in the 
region.
    Force Posture Initiatives: As geopolitical issues and challenges in 
the security environment continue to evolve, the importance of 
infrastructure recapitalization and the fielding of advanced 
capabilities have increased. In support of USPACOM's ability to execute 
national tasking and meet national objectives, fiscal year 2017 
military construction projects support the arrival of next-generation 
platforms and capabilities to include the F-35 Joint Strike Fighter 
(Kadena Air Base, Japan), DDG-1000 Zumwalt-class Destroyers (San Diego, 
California and forward operating locales), RQ-4 Global Hawk (Andersen 
Air Base, Guam), and C-130J Super Hercules transport aircraft (Yokota 
Air Base, Japan). Other investments support increased resiliency for 
the joint force via projects in Japan, Guam, and Australia, increased 
critical munitions storage capacity in California and Guam, and quality 
of life investments for our forces and their families in South Korea 
and Japan.
    Host country support at established locations remains robust. Two 
examples of this include our efforts in Korea (Yongsan Relocation Plan 
and Land Partnership Plan), and Japan (Okinawa Consolidation and the 
Defense Policy Review Initiative). In support of these initiatives, the 
Government of Japan committed up to $3.1 billion to help realign U.S. 
Marines from Okinawa to Guam and other locations. This funding includes 
approximately $300 million for the joint military training ranges 
Commonwealth of the Northern Marianas (CNMI). Additionally, the 
Government of Japan committed $4.5 billion to expand the airfield and 
associated facilities at Marine Corps Air Station Iwakuni. Finally, The 
Japan is also funding Okinawa Consolidation and the Futenma Replacement 
Facility at 8$4 billion. Outside of the above initiatives, Japan and 
Korea continue to provide other support, which play a critical role in 
supporting U.S. presence in the region.
    Furthermore, USPACOM is expanding its activities to include the 
continued execution of the Marine Rotational Force-Darwin (MRF-D), 
Enhanced Air Cooperation (EAC) in Australia, and Bilateral Air 
Contingent Events-Philippines (BACE-P. Additionally, we are attempting 
to increase presence by seeking the assignment of additional ISR and 
BMD assets in the region.
    USPACOM continues to execute five major force posture initiatives: 
(1) United States-Japan Defense Policy Review Initiative (DPRI) / USMC 
Distributed Laydown, (2) United States Forces Korea Realignment, (3) 
Resiliency, (4) Agile Logistics and (5) Agile Communications.
    DPRI/USMC Distributed Laydown: DPRI is a vital part of the larger 
U.S. military Integrated Global Basing and Presence Strategy. A major 
goal of DPRI is to create an environment that supports the enduring 
presence of United States forces in Japan. USPACOM maintains 
significant focus and effort on these initiatives. DPRI is one of the 
largest construction efforts since the end of the Cold War. Much work 
by both the U.S and Japan remain, but progress is being made towards 
realigning United States Marines from Okinawa to Guam and build-up of 
facilities at other locations such as Marine Corps Air Station (MCAS) 
Iwakuni.
    Another critical cooperative effort, the Futenma Replacement 
Facility (FRF) at Camp Schwab/Henoko, will enable the United States to 
fulfill its security obligations to Japan while also enabling the 
return of MCAS Futenma to Okinawa. More than ever before, United States 
troop presence in Okinawa matters today. The presence of U.S. forces 
brings unique capabilities that cannot be replicated. It was 
encouraging to see the 10 February joint statement between President 
Trump and Japan Prime Minister Abe that reaffirmed the commitment of 
both countries to construct the FRF. This solution maintains our 
presence at Marine Corps Air Station Futenma for another decade until 
the FRF is completed.
    USFK Realignment: The consolidation of United States forces in 
Korea via the Land Partnership Plan (LPP) and Yongsan Relocation Plan 
(YRP) continues to move ahead and is a success story. Construction will 
triple the size of Camp Humphreys and increase the base's population to 
846,000 troops and family members. The ROK is bearing the majority of 
the relocation's cost, committing $10 billion. USPACOM appreciates the 
Congress' continued support of DOD's largest peace-time relocation 
project.
    Resiliency: USPACOM resiliency efforts include investment in a more 
robust infrastructure in ally and partner countries, ensuring proper 
dispersal and optimization of critical enablers including communication 
nodes, fuel repositories, medical readiness, logistic support equipment 
and infrastructure, and the hardening of discrete facilities. For 
example, USPACOM continues to harden facilities in Guam as well as 
enhancing airfields at dispersed sites throughout the theater.
    Agile Logistics: USPACOM continues to face significant force 
posture challenges, the largest being the distance and fragility of the 
lines of communication within the Indo-Asia-Pacific. The tyranny of 
distance and short timelines to respond to crises require investment in 
infrastructure to properly preposition capabilities and capacity 
throughout the region. Ensuring that our logistics--munitions, fuel, 
and other war materiel--are properly prepositioned, secured, and 
available to meet requirements is essential to providing flexible and 
rapid force closure in support of national defense planning.
    Agile Communications: The ability to communicate with our allies 
and partners underpins all efforts from command and control 
interoperability through logistics coordination. Today's Defense 
communications systems continue to be hampered by obsolete encryption 
technology that forces us to build or contort information networks to 
comply with restrictive information sharing policies. Our acquisition 
systems cannot support the pace of rapid information technology 
advancements. As a result, we are not fully postured with the latest 
technology to interoperate with multiple partner combinations over all 
the phases of military operations. Furthermore, we will not have the 
communication capacity and sharable encryption capability to support 
the most modern warfighting platforms and associated weapon systems as 
they are built and deployed.
    Readiness: USPACOM is a ``fight tonight'' theater with short 
response timelines across vast spaces. Threats as discussed earlier 
require U.S. military forces in the region maintain a high level of 
readiness to respond rapidly to crisis. USPACOM's readiness is 
evaluated against its ability to execute operational and contingency 
plans, which place a premium on forward-stationed, ready forces that 
can exercise, train, and operate with our partner nations' militaries 
and follow-on forces able to respond to operational contingencies.
    Forward-stationed forces west of the International Date Line 
increase decision space and decrease response times, bolster the 
confidence of allies and partners, and reduce the chance of 
miscalculation by potential adversaries.
    The ability of the U.S. to surge and globally maneuver ready forces 
is an asymmetric advantage that must be maintained. Over the past two 
decades of war, the U.S. has of necessity prioritized the readiness of 
deploying forces at the expense of follow-on-forces and critical 
investments needed to outpace emerging threats. A shortage of ready 
surge forces resulting from high operational demands, delayed 
maintenance periods due to sequestration, and training pipeline 
shortfalls limit responsiveness to emergent contingencies and greatly 
increase risk. These challenges grow each year as our forces downsize 
while continuing to deploy at unprecedented rates. We are at risk of 
overstressing the force if the Services are not assured fiscal 
stability to establish conditions to reset their force elements.
    Fiscal uncertainty requires the Department to accept risk in long-
term engagement opportunities with strategic consequences to U.S. 
relations and prestige. Continued budget uncertainty and changes in 
fiscal assumptions in the FYDP degrade USPACOM's ability to plan and 
program, leading to sub-optimal utilization of resources. Services must 
be able to develop and execute long-term programs for modernization 
while meeting current readiness needs. Budgetary constraints have 
limited procurement and fielding of 5th generation fighter aircraft (F-
35) in sufficient quantities to maintain pace with potential adversary 
advancements. Modernization of 4th generation aircraft (F-15, F-16, F/
A-18) is essential to prevent capability gaps. Much of the supporting 
infrastructure in the Pacific and on the West Coast of the U.S. 
mainland was established during World War II and during the early years 
of the Cold War. The infrastructure requires investment to extend its 
service life but the Services struggle to maintain infrastructure 
sustainment, restoration, and modernization accounts at appropriate 
levels. If funding uncertainties continue, the U.S. will experience 
reduced warfighting capabilities and increased challenges in pacing 
maturing adversary threats.
                          allies and partners
    Strengthening and modernizing alliances and partnerships are top 
USPACOM priorities. USPACOM's forward presence, force posture, and 
readiness reassure allies and partners of United States commitment to a 
stable and secure Indo-Asia-Pacific. USPACOM is building a network of 
likeminded nations committed to the current rules-based order that is 
anchored by our treaty allies. Partnerships with many other countries 
and organizations create an environment of cooperation that allows us 
to work together on the shared challenges we face.
    Bilateral and Multinational ``Partnerships with a Purpose'': 
USPACOM is directly connected to regional leaders. I am in frequent 
communication with my regional counterparts and appreciate the ability 
to reach out at any time to share perspectives. USPACOM maintains a 
close link with allies and partners through staff exchange and liaison 
officers, in addition to a series of formal bilateral mechanisms. In 
Australia, key engagements stem from the ANZUS treaty obligations, and 
are guided by USPACOM's principal bilateral event with Australia, the 
Military Representatives Meeting. Similarly, USPACOM's military-to-
military relationship with Japan is guided by the annual Japan Senior 
Leader Seminar. Military Committee and Security Consultative Meetings 
are the preeminent bilateral mechanisms that guide the ROK and United 
States alliance. Each year, USPACOM, with the Armed Forces of the 
Philippines, co-hosts the Mutual Defense Board and Security Engagement 
Board to deal with 21st-century challenges. USPACOM conducts annual 
Senior Staff Talks with Thailand to address security concerns and 
reinforce United States commitment to democratic principles. Formal 
bilateral mechanisms also exist with non-alliance partners throughout 
the region, including India, Indonesia, Singapore, Malaysia, and 
Vietnam.
    Our multilateral cooperation is further enhanced by numerous Flag 
and General Officer (FOGO) exchange officers that work for the U.S. at 
USPACOM. These foreign officers from our ``Five Eye'' (FVEY) partners 
(Australia, Canada, New Zealand, and United Kingdom) serve under my 
Command as fully integrated members of the USPACOM team. Our operations 
and intelligence watch centers are FVEY environments. Our service 
components also have embedded FOGOs serving as Deputy Commanders and 
senior staff officers.
    The future lies in multilateral security mechanisms. USPACOM is 
broadening key bilateral relationships into multilateral partnerships 
with a purpose that will more effectively address shared security 
concerns. For example, United States-Japan-ROK trilateral coordination 
in response to North Korean provocative behavior is improving. The ROK 
and Japan each recognize that provocative actions by North Korea will 
not be isolated to the peninsula and greater coordination and 
cooperation are required. Historical tensions between the nations have 
lessened and cooperation and collaboration with the ROK [Republic of 
Korea] have improved. United States-Japan-ROK trilateral cooperation is 
benefitting from these developments. The November 2016 signing of the 
Japan-ROK General Security of Military Information Agreement (GSOMIA) 
is a major accomplishment in improving bilateral relations between 
Seoul and Tokyo, and lays an essential foundation for expanding 
cooperation enabling the United States to work more closely with both 
allies. This cooperation also led to two successful United States-
Japan-ROK trilateral missile defense information link maritime 
exercises in 2016. I look forward to increasing the frequency and 
complexity of trilateral information sharing while simultaneously 
enhancing trilateral security cooperation.
    To encourage multilateral cooperation, USPACOM hosts the Chiefs of 
Defense Conference (CHODs) annually. The CHODs conference location 
normally rotates between Hawaii and a regional partner. In 2016, 31 
countries attended the CHODs conference in Manila, Philippines. USPACOM 
also participates in Australia-Japan-United States trilateral defense 
dialogues, including the Security and Defense Cooperation Forum (SDCF). 
The 2017 conference will be held in Victoria, British Columbia, in 
September.
    The trilateral relationship between the United States, Japan, and 
India is growing stronger. All three countries share democratic values, 
interests in protecting sea lanes of commerce, and respect for 
international law. The three sides launched a trilateral HA/DR working 
group at the first Ministerial meeting in 2015 and agreed to establish 
a maritime domain awareness working group. On the security front, all 
three countries participate in India's increasingly complex annual 
Malabar military exercise as well as the multinational Rim of the 
Pacific exercise. As a next step, USPACOM is encouraging the addition 
of Australia to form a quadrilateral partnership with a purpose. India, 
Japan, Australia, and the United States working together will be a 
force for the maintenance of the Global Operating System.
                                 allies
    Australia: The United States-Australia alliance anchors peace and 
stability in the region. Australia plays a leading role in regional 
security, capacity-building efforts and addressing disaster response. 
Australia is a key contributor to global security and a significant 
contributor to counter-ISIS efforts in Iraq and Syria and the Resolute 
Support mission in Afghanistan. With the implementation of force 
posture initiatives, the Marine Rotational Force-Darwin successfully 
completed its fifth deployment while increasing its presence from 1,177 
to 1,250 U.S. Marines. The sixth deployment began this month and will 
include four MV-22 Osprey aircraft, providing a more robust capability. 
Cooperative activities under Enhanced Air Cooperation, another force 
posture initiative, formally commenced in February 2017 with the 
deployment of F-22 aircraft to northern Australia. The United States 
and Australia are increasing collaboration in counter-terrorism, space, 
cyber, integrated air missile defense, and regional capacity building. 
Australia is procuring high-tech U.S. platforms that will further 
increase interoperability. These include the F-35A Lightning II, P-8 
Poseidon, C-17 Globemaster III, EA-18G Growler, Global Hawk UAVs, and 
MH-60R helicopters. To enhance interoperability, the Australian 
Government provides a General Officer and Senior Executive (civilian) 
to USPACOM and a General Officer to United States Army Pacific on a 
full-time basis. Australia has also set a goal of reaching 2 percent of 
its GDP on defense spending over the next decade.
    Japan: The United States-Japan alliance remains the cornerstone for 
peace and stability in the Indo-Asia-Pacific region. Operational 
cooperation and collaboration between USPACOM and the Japan Joint Staff 
continue to increase. Japan's Peace and Security Legislation 
authorizing limited collective self-defense and the revised Guidelines 
for United States-Japan Defense Cooperation have significantly 
increased Japan's ability to contribute to regional stability more 
broadly. Japan continues to support USPACOM activities to maintain 
freedom of navigation in the South China Sea, and remains concerned 
about Chinese activities in the East China Sea.
    Republic of Korea (ROK): The United States-ROK alliance remains 
ironclad. We continue to work with our ROK allies as they move toward 
obtaining the capabilities required under the Conditions Based OPCON 
Transition Plan (COT-P). In response to the evolving threat posed by 
North Korea, the United States and the ROK made an Alliance decision to 
deploy a Terminal High Altitude Area Defense (THAAD) system to the ROK 
to improve the Alliance missile defense posture. North Korea's 
provocative actions, and its refusal to engage in authentic and 
credible negotiations on denuclearization, compelled our Alliance to 
take defensive measures. The decision to deploy THAAD to the Korean 
Peninsula is based solely on our commitment to defend our allies and 
our forces from the North Korean threat.
    The Philippines: The United States-Philippine alliance remains 
resolute. Through frank and frequent dialogue with Philippine 
leadership we continue to maintain a robust defense relationship 
comprised of 258 activities for calendar year 2017, which include joint 
and service-to-service exercises. All plans, activities, exercises, and 
construction in the Philippines are done in close coordination with, 
and with the full approval of, Philippine leadership. On January 12, 
2016, the Philippine Supreme Court ruled in favor of the Enhanced 
Defense Cooperation Agreement and the new Philippine administration is 
also supportive of this agreement. Project development at various 
Philippine bases will improve interoperability and build partner 
capacity of the Armed Forces of the Philippines (AFP) in Maritime 
Security, Maritime Domain Awareness, and HA/DR capabilities. We remain 
committed to supporting the AFP to counter-terrorism not only in the 
Southern Philippines, but in the tri-border area in Sulu and Celebes 
Seas. At the request of several Philippine administrations, Special 
Operation Command Pacific (SOCPAC) continues to provide counter-
terrorism support and assistance. We will continue to consult with the 
Government of the Philippines and tailor our activities and assistance 
to address our shared security concerns. I am convinced that with some 
strategic patience and mutual respect, our Philippine alliance will 
remain strong and continue to stabilize the region as it has for over 
60 years.
    Thailand: The longstanding United States-Thailand alliance is 
supported by deep bilateral military-to-military ties that go back to 
our 1950 Agreement Respecting Military Assistance between the 
Government of the united States of America and Government of Thailand. 
Thailand offers unique training opportunities and essential logistical 
nodes for our forces. The most significant exercise being Cobra Gold, 
the largest multilateral military exercise in Southeast Asia. I spoke 
at the opening ceremony for this year's exercise in February and 
reiterated United States commitment to Thailand. Thailand is committed 
to a return to democracy with national elections in 2018, and we remain 
important alliance partners. I remain convinced that the best way for 
the United Statesto promote security and healthy civil-military 
relations in Thailand is to engage more, not less, with Thai military 
leadership.
                                partners
    India: India continues to emerge as a significant strategic 
partnership in the Indo-Asia-Pacific region. In June 2016, India was 
designated as a Major Defense Partner to the United States This 
declaration is unique to India and places it on the same level as many 
of our closest allies for the purposes of defense trade and technology 
sharing. United States and Indian militaries participated together in 
three major exercises and more than 50 other military exchanges this 
past year, in addition to conducting a joint-course in peacekeeping for 
ten African partners. We signed the Logistics Exchange Memorandum of 
Agreement (LEMOA) after more than a decade of negotiation to further 
deepen our military-to-military relationship and serve as a force 
multiplier during exercises and real world HA/DR operations. We also 
held our first annual 2+2 United States-India Maritime Security 
Dialogue last year to help identify and implement our common strategic 
interests. The United States-India Defense Technology and Trade 
Initiative (DTTI) continues to expand opportunities for cooperation, 
adding new working groups to focus on areas of mutual interest. Defense 
sales are at an all-time high with U.S.-sourced airframes, such as P-
8s, C-130Js, C-17s, AH-64s and CH-47s. We recently concluded a deal for 
145 M777 howitzers. USPACOM will continue to advance the partnership 
with India as the ``new normal'' by strengthening our relationship and 
working toward additional enabling agreements that enhance 
interoperability between our forces.
    Indonesia: Indonesia plays an essential role in the security 
architecture of the region. We maintain a robust defense relationship 
comprising 221 activities for calendar year 2017. USPACOM continues to 
partner with Indonesia, particularly in maritime security. Indonesia 
desires to play a larger role in international economic and security 
issues. Their goal to provide 4,000 deployable peacekeeping troops by 
2020 is another important area where we can engage. Indonesia continues 
to build and exercise in strategic maritime border areas to bolster its 
defense capabilities, and has concerns with Chinese activities in the 
vicinity of the Natuna Islands.
    Malaysia: Our close security ties with Malaysia are based on our 
Comprehensive Partnership. Malaysia's regional leadership role, 
technologically advanced industry, sizeable economy, and capable 
military make it an important partner in securing peace and prosperity 
in Southeast Asia. We continue to assist Malaysia in building an 
amphibious force to address non-traditional threats in and around their 
territorial waters. Malaysia has reached a trilateral agreement with 
the Philippines and Indonesia for improving the maritime security 
environment in the Sulu and Celebes Seas. Malaysia also has an on-going 
dispute with China with respect to the Luconia Shoals, which China also 
claims. Nevertheless, Malaysia has demonstrated the capacity and 
resolve to contribute to regional security, and we continue to support 
Malaysia's emerging maritime security requirements.
    Mongolia: Mongolia endures as a small yet strong partner in 
Northeast Asia and continues to demonstrate staunch support for U.S. 
regional and global policy objectives--especially those linked to the 
Global Peace Operations Initiative and security operations in 
Afghanistan. The government engages with the U.S. and other countries 
as part of their ``Third Neighbor'' policy. Mongolia also markets 
itself as a model for emerging democratic countries such as Burma, 
Nepal, and Timor Leste. I visited Mongolia last summer and spoke at the 
KHAAN QUEST 2016 closing ceremony, reaffirming that USPACOM's goals are 
to assist the Mongolian Armed Forces through their defense reform 
priorities to include development of professional military education 
for officers and non-commissioned officers, developing a professional 
NCO corps, and developing an Air Force and ready Reserve Force. The 
Mongolians punch above their weight and we should continue to support 
them where we can.
    New Zealand: Our military-to-military relationship has reached new 
heights over the past 2 years, despite longstanding differences over 
nuclear policy. Relations remain strong and are the most encouraging in 
decades. The November 2016 visit of the USS Sampson (DDG 102), the 
first ship visit to New Zealand in more than thirty years, marked a new 
milestone. New Zealand remains a respected voice in international 
politics and a leader in the South Pacific that shares common security 
concerns with the United States, including the need to address 
terrorism, transnational crime, and maritime security.
    Singapore: A key strategic partner in Southeast Asia, we depend on 
Singapore for its insights on regional dynamics and its support to 
United States security priorities. Singapore has been a major security 
cooperation partner for over a decade and provides us invaluable access 
including hosting of Littoral Combat Ships, Maritime Patrol and 
Reconnaissance Aircraft, and the Seventh Fleet's Logistics Force 
headquarters. Recently, our partnership expanded into new areas 
including cyber security and counter-proliferation. We conduct dozens 
of military exercises with Singapore each year and Singaporean military 
officers regularly attend United States professional military 
education. This combination of forward deployed forces, logistics, and 
deep training relationships contributes to readiness, builds deeper 
ties and allows the U.S. to promote maritime security and stability 
with regional partners.
    Sri Lanka: President Sirisena, elected in January 2016, is serious 
about addressing Sri Lanka's human rights issues. Throughout the last 
year he continued Sri Lanka's path toward reconciliation and democracy 
following its civil war. I believe it is in America's interest to 
increase military collaboration and cooperation with Sri Lankan forces. 
Accordingly, I visited Sri Lanka last November--the first 4-star to do 
so since 2008. USPACOM has expanded military leadership discussions, 
rule of law training, increased naval engagement, and focused security 
cooperation efforts on defense institution building in areas such as 
demobilizing and military professionalism. I look forward to continuing 
to expand our relationship in the future
    Vietnam: Vietnam continues to expand cooperation with the United 
States at a moderate, but steady pace. USPACOM provides support for 
Vietnam's modernization and capacity building, focusing on maritime 
security, peacekeeping, and disaster response. The United States will 
transfer maritime security vessels including maintenance and training 
packages to Vietnam's Coast Guard over the next few years, which will 
build their capacity for maritime domain awareness. In addition, we are 
discussing a proposal to improve our mutual ability to cooperate in the 
field of HA/DR as well as enhance ongoing bilateral cooperative 
activities.
                            other key actors
    Oceania: Maintaining strategic influence in Oceania is becoming 
ever more important to United States national security. The provisions 
included in the Compacts of Free Association with the Federated States 
of Micronesia, the Republic of the Marshall Islands, and the Republic 
of Palau are important mechanisms that guide the relationships, 
including U.S. obligations for their defense. In return, these 
agreements provide assured access to the three Compact Nations in a 
contingency situation. They also give the U.S. authority to grant or 
deny access to another nation's military forces which allows the U.S. 
to maintain a clear strategic line of communication across the Pacific. 
I strongly urge Congress to pass legislation to approve and implement 
the 2010 Palau Compact Review Agreement at the earliest opportunity. 
The passage of this legislation will have a significant impact on our 
defense relationship with Palau, and will provide a measurable 
advantage in our strategic posture in the Western Pacific. Continued 
U.S. commitment to defend the Compact Nations and to partner with other 
Pacific island countries enhances American influence and sends a strong 
message of reassurance throughout the region.
    ASEAN: ASEAN turns 50 this year and the United States will 
commemorate the 40th year of United States-ASEAN dialogue relations. 
The United States and ASEAN share the common principles of a rules-
based order, respect for international law, and the peaceful resolution 
of disputes. The ten ASEAN member states, under the chairmanship of 
Laos last year and the Philippines this year, continue to seek ways to 
improve multilateral security engagements and advance stability in the 
Indo-Asia-Pacific. During this past year, the United States 
strengthened its commitment to ASEAN with engagements at the Secretary 
of Defense and Presidential levels where agreement on whole-of-
government approaches to shared challenges in areas of maritime 
security and maritime domain awareness were reached. Throughout the 
past year USPACOM participated in ASEAN exercises, key leader 
engagements, and practical multilateral cooperation related to the 
spectrum of shared transnational challenges. Malaysia and the United 
States will co-chair the ASEAN Expert Working Group on Humanitarian 
Assistance and Disaster Relief with Malaysia over the next three years.
    Burma: Aung San Suu Kyi's National League for Democracy's election 
victory was a historic milestone. While challenges remain during the 
transition to civilian leadership, USPACOM's goal is to support and 
empower the civilian government, while encouraging the 
professionalization of its military. Our assistance through defense 
engagement programs is designed to bring together civilian and military 
officials to promote cooperation and understanding. These limited 
programs also promote the development of a professional military in a 
democratic system of government and broaden the exposure of isolated 
military officials to international norms of conduct and civilian 
control.
    China: The United States-China relationship remains complex. While 
Chinese actions and provocations create tension in the region, there 
are also opportunities for cooperation. USPACOM's approach to China is 
to cooperate where we can to collectively address our shared security 
challenges, but remain ready to confront its provocative actions where 
we must. USPACOM's engagements with the People's Liberation Army, 
governed by section 1201 of the fiscal year 2000 NDAA, improve 
transparency and reduce risk of unintended incidents.
    USPACOM conducted numerous bilateral and numerous multilateral 
engagements last year with China. USPACOM co-led the United States-
China Military Maritime Consultative Agreement (MMCA) plenary and 
working group focused on operational safety in November 2016. 
Encounters between our forces at sea and in the air are generally safe, 
but the MMCA provides a forum for continuous dialogue to identify and 
address safety issues when they arise.
    Areas of common interest that allow military cooperation include 
counter piracy, military medicine, and disaster response. USPACOM 
forces participated in the annual Disaster Management Exchange with the 
People's Liberation Army in Kunming, China designed to share HA/DR 
lessons learned from real world events. USPACOM encourages China's 
participation in international efforts to address shared challenges in 
a manner consistent with international law and standards.
    Taiwan: Democratic elections in January 2016 reflect the shared 
values between Taiwan and the U.S. The United States maintains its 
unofficial relations with Taiwan through the American Institute in 
Taiwan and we continue supporting Taiwan's security. USPACOM will 
continue to fulfill United States commitments under the Taiwan 
Relations Act. Continued, regular arms sales and training for Taiwan's 
military are an important part of that policy and help ensure the 
preservation of democratic institutions. As the military spending and 
capability of the PRC grow every year, the ability of Taiwan to defend 
itself decreases. We must continue to help Taiwan defend itself and 
demonstrate United States resolve that any attempt by China to force 
reunification on the people of Taiwan is unacceptable.
        activities, direct reporting units, and mission partners
    Security Cooperation and Capacity Building: USPACOM's Security 
Cooperation approach focuses on building partner readiness, reducing 
partner capability gaps, and building partner capacity. One of the more 
powerful engagement resource tools is the State Department's Foreign 
Military Financing (FMF). FMF enables USPACOM to meet regional 
challenges to include border security issues, disaster response, 
counterterrorism, and maritime security.
    USPACOM will continue to leverage the fiscal year 2016 NDAA section 
1263 ``Southeast Asia Maritime Security Initiative'' authority to 
enhance maritime domain awareness and maritime capacities and 
capabilities of partners and allies in the South China Sea region, 
through assistance to, and training of, partner and allied country 
maritime security forces.
    USPACOM will continue to rely on FMF as a source of providing major 
end items to eligible countries. MSI support notified pursuant to the 
section 1263 authority should be viewed as complementary and additive 
in nature to these FMF plans. Under MSI, PACOM plans to provide niche 
capabilities, more multi-mission types of equipment, and connective 
tissue that will help partners better deploy and employ these maritime 
security capabilities--both domestically to protect their sovereign 
territory and as a means of fostering greater regional 
interoperability.
    Additionally, USPACOM is looking forward to leveraging the 
consolidated Security Cooperation authority in fiscal year 2017 NDAA as 
a responsive tool for building partner capacity as security situations 
and relationships evolve. I am concerned the changes in the fiscal year 
2017 NDAA could impact both operational support to foreign law 
enforcement and capacity building efforts focused on countering 
narcotics flows and transnational crime. We are currently working with 
the rest of the Department of Defense to develop the policies needed to 
implement this new law.
    Maritime Domain Awareness: Southeast Asian partners support United 
States security cooperation efforts in the area of maritime domain 
awareness. USPACOM will continue to leverage MSI and the new section 
1263 authority and other existing authorities to develop multilateral 
approaches to information sharing to develop a regional maritime 
picture. USPACOM and the Daniel K Inouye Asia-Pacific Center for 
Strategic Studies (DKI APCSS) co-hosted a policy level workshop on best 
practice for information sharing. Additionally, the Philippines, 
Australia, and the United States co-hosted an operational level 
workshop to discuss regional maritime security best practices. These 
workshops facilitate whole-of-government discussions on maritime 
challenges that support creation of a regional maritime domain 
awareness network to share information between Southeast Asian 
partners. USPACOM will continue to support these workshops to improve 
regional awareness. We need to go beyond Maritime Domain Awareness to 
improve our partners' and allies' multi-domain awareness and increase 
their domain denial capability so that they can better protect their 
territory and enforce their maritime rights.
    Global Peace Operations Initiative (GPOI): Indo-Asia-Pacific 
countries provide over 30 percent of the world's uniformed peacekeepers 
to United Nations (UN) peacekeeping operations worldwide and of these 
peacekeepers, 62 percent of the peacekeepers come from the 12 GPOI 
partners in the Indo-Asia-Pacific where they support 15 of the 16 UN 
peacekeeping missions. Not only is GPOI helping to build the capability 
and capacity of our partners to deploy forces, the USPACOM GPOI is 
focused on providing high-quality, action-oriented, challenging 
scenario-based training so that peacekeepers are better prepared to 
implement the mandates contained in UN Security Council Resolutions--
protecting vulnerable civilians, halting conflict-related sexual 
violence, working to put a stop to the use of children soldiers, 
addressing misconduct and trying to bring long-term peace and security 
to conflict torn regions. Partners are working towards meeting program 
goals of achieving self-sustaining, indigenous training capability. 
Most recently in March 2017, USPACOM and Nepal cohosted Shanti Prayas-
3--a multinational peacekeeping exercise--training personnel from 34 
countries for deployment to UN peacekeeping missions. USPACOM will 
continue improving partner military peacekeeping skills and operational 
readiness and provide limited training facility refurbishment. This 
program not only supports our efforts to improve UN peacekeeping, it is 
also helping to strengthen interoperability with U.S. forces and builds 
the trust required to improve interoperability in other relevant areas.
    Joint Exercise Program: USPACOM's Joint Exercise Program 
deliberately synchronizes frequent, relevant, and meaningful readiness 
exercises and engagements across the Indo-Asia-Pacific region to ensure 
the joint force is prepared for crises and contingency operations. This 
important joint exercise program, funded through the Combatant 
Commander Exercise Engagement Training Transformation (CE2T2) program, 
provides the critical means and enablers to improve readiness of 
forward deployed assigned forces. It also advances many Theater 
Campaign Plan objectives to include strengthening our alliances and 
partnerships while sustaining USPACOM's military preeminence. USPACOM 
appreciates Congress' continued support of these important programs to 
maintain progress made in joint readiness.
    Joint Interagency Task Force-West (JIATF-W): The drug trade in the 
Indo-Asia-Pacific is a growing concern that threatens regional 
stability as drug trafficking organizations expand into new markets and 
develop new and disturbing partnerships across the globe. USPACOM 
combats drug trafficking in the region through JIATF-W by disrupting 
flows of drugs and precursor chemicals that transit the region and 
hardens the theater against the continued growth of transnational 
criminal organizations.
    Chinese and, to a lesser extent, Indian chemical producers continue 
to be the primary source of precursors for synthetic drugs, including 
powerful synthetic opioids like fentanyl, as well as more traditional 
drugs like cocaine and heroin. JIATF-W identifies avenues of 
cooperation with the government of China on this issue to assist United 
States law enforcement with seizures of these chemicals and drugs. 
JIATF-W identified and tracked chemical flows resulting in the seizure 
of roughly 140,000 kilograms of methamphetamine precursor chemicals in 
2016.
    As demonstrated by its effect on the Philippines, the illicit drug 
trade can have far reaching, and even strategic impacts. The internal 
pressures caused by criminal organizations and their operations, as 
well as the associated corruption and the demands placed on society by 
the need for treatment and prosecution, can and do cause enormous 
stress on governance. These stresses ultimately affect United States 
interests in the region. JIATF-W continues to build partner capacity to 
counter illicit trafficking of narcotics in the coastal areas of the 
Philippines, Vietnam, Cambodia, Indonesia, Malaysia, Maldives, Sri 
Lanka, and the border regions of Bangladesh and Thailand.
    In Australia, cocaine prices reach ten times the retail prices in 
the United States, providing a strong incentive for drug traffickers to 
expand their reach across the Pacific. The drug trade feeds enormous 
amounts of cash back into the Mexican and South American drug cartels. 
This, in turn, contributes to challenges faced by our law enforcement 
agencies on the Southwest border. JIATF-W works closely with agencies 
throughout the South Pacific, including the French Armed Forces in 
Polynesia, as well as both Australian and New Zealand law enforcement, 
military and intelligence services to counter this lucrative drug 
trade.
    Center for Excellence for Disaster Management (CFE-DM): CFE-DM 
increases capacity of U.S. and partner nation military forces to 
respond effectively to disasters through its education training and 
applied research and information sharing programs. The Center annually 
trains about 8,000 military and civilian annually. This includes 
training deployable forces and foreign audiences. Broad based 
partnerships encourage a robust collection of best practices.
    The Daniel K. Inouye Asia-Pacific Center for Security Studies (DKI 
APCSS): While DKI APCSS is no longer a Direct Reporting Unit to 
USPACOM, I have formally designated it as a ``Mission Partner'' to 
underscore its importance to the USPACOM mission set. DKI APCSS builds 
and sustains key regional partnerships and partner nation capacity and 
in enhances cooperation on regional security challenges. The Center's 
courses, workshops, dialogues, and alumni engagements directly support 
OSD-Policy and USPACOM priorities and are integrated into USPACOM's 
Theater Campaign Order. Focus areas include rule-of-law based 
governance emphasizing civilian oversight of militaries, defense 
institution building, enhancing regional security architecture--
particularly ASEAN, collaborative approaches to maritime security and 
domain awareness and counterterrorism, and improved capability and 
cooperation in HADR. DKI APCSS has major competitive advantages in 
location, credibility, convening power, and alumni network. Those 
advantages and the Center's focus on substantive and sustainable 
outcomes have broadly improved security sector governance. 
Specifically, this organization is leading DOD in the implementation of 
UNSCR 1325 (Women, Peace, and Security) and the U.S. National Action 
Plan to achieve greater inclusion of women in the security sector.
    Joint Enabling Capabilities Command (JECC): U.S. Transportation 
Command's JECC responds rapidly and effectively to events in the Indo-
Asia-Pacific. JECC's support is critical to USPACOM's ability to 
facilitate rapid establishment of joint force headquarters, fulfill 
Global Response Force (GRF) execution, and bridge joint operational 
requirements by providing mission-tailored, ready joint capability 
packages. JECC supports real-world real world contingencies and 
operational plans.
    Logistics Support Agreements (LSAs): USPACOM continues to view LSAs 
as critical Theater Security Cooperation (TSC) enablers. We have 14 
agreements in the region, to include the recent agreement with India. 
We continue to actively work with eligible but as yet uncommitted 
partners to conclude as many of these agreements as possible, and I 
personally stress their importance in my engagements with partner 
country leadership. The logistics agreement with Japan was especially 
useful during the Kumamoto earthquake disaster, and I often share this 
experience with our other partners.
    Pacific Area Senior Officer Logistics Seminar (PASOLS): PASOLS is 
an annual forum that brings together senior logisticians from 30 
countries in the Indo-Asia-Pacific. The goal is to strengthen regional 
cooperation, improve interoperability, and develop partner capacity to 
cooperatively address regional challenges. Singapore hosted PASOLS 45 
in November 2016. PASOLS is our most important annual logistics 
engagement event.
    Pacific Amphibious Leaders Symposium (PALS): PALS is an annual 
forum that brings together senior leaders of allied and partner nations 
throughout the Indo-Asia-Pacific to discuss key aspects amphibious 
operations, capabilities, crisis response, and interoperability. 22 
countries participated in PALS 2017, which was hosted by the Republic 
of Korea Marine Corps.
                               conclusion
    United States interests in the Indo-Asia-Pacific are real and 
enduring. The growing challenges to our interests are daunting and 
cannot be overstated. In order to deter potential adversaries in the 
Indo-Asia-Pacific, we must continue to invest in critical capabilities, 
build a force posture that decreases our vulnerabilities and increases 
our resiliency, and reassure our allies and partners while encouraging 
them to be full and cooperative partners in their own defense and the 
defense of the rules-based international order. Our allies and partners 
are hedging and need reassurance. We must demonstrate our commitment in 
actions. The good news is that America's resolve is strong. I ask this 
committee to continue support for future capabilities that maintain our 
edge and prevent would-be challengers from gaining the upper hand.
    Thank you for your enduring support to the USPACOM team and our 
families who live and work in the Indo-Asia-Pacific--a region critical 
to America's future.

    Chairman McCain. Thank you, Admiral, and thank you for the 
outstanding job and your outstanding leadership that you are 
exhibiting in these very difficult and challenging times.
    Admiral, would you say that it is an accurate statement to 
say that the crisis on the Korean Peninsula now is reminiscent? 
It reminds one of a gradual Cuban Missile Crisis.
    Admiral Harris. Sir, I will just say that I think the 
crisis on the Korean Peninsula is real. It is the worst I have 
seen. I am not a student of the Cuban Missile Crisis, but what 
I know of it, it seems that we are faced with a threat and a 
leader who is intent on achieving his goal of a nuclear 
capability against the United States.
    Chairman McCain. That leader does not always behave in a 
rational fashion. Is that correct?
    Admiral Harris. That is correct, sir. I believe to ascribe 
terms like ``rational'' or ``irrational'' to Kim Jong-un is 
probably not helpful because he is what he is and we have to 
deal with the Kim Jong-un that is. I believe that he does have 
some kind of calculus that ends up in decisions. He takes the 
information and makes a decision, and those decisions are often 
brutal and the decisions are there to keep him and his family 
in power in North Korea.
    Chairman McCain. It is clear that his goal is a nuclear 
weapon and the means to deliver it to the United States of 
America. Is there any doubt in your mind?
    Admiral Harris. There is no doubt in my mind, Chairman.
    Chairman McCain. There is some question, given the 
difficulty of getting real reliable intelligence as to how 
close he is to reaching that goal?
    Admiral Harris. There is some doubt or questions within the 
intelligence community whether he has that capability today or 
whether he will soon have that capability. I have to assume 
that he has it, as do my fellow combatant commanders, Lori 
Robinson and John Hyten. We have to assume that the capability 
is real. We know what his intentions are and he is moving 
toward them.
    Chairman McCain. It is not a matter of whether. It is a 
matter of when.
    Admiral Harris. It is clearly a matter of when.
    As I said yesterday, KJU [Kim Jong-un] is not a leader who 
is afraid to fail in public. I talked about Thomas Edison. He 
tried a thousand times before he got the light bulb to work. 
KJU is going to continue to try until he gets his ICBMs to 
work.
    Chairman McCain. What does THAAD do for us in South Korea?
    Admiral Harris. I think the point that KJU's rhetoric--and 
he has threatened the United States and cities by name, and 
just this week, he threatened Australia by name. I think his 
rhetoric, if you were to project it on a graph, is going in one 
direction. Then his capability is approaching--the line of his 
capability is approaching the line of his rhetoric. Where those 
lines cross, I believe we are then at an inflexion point and we 
wake up to a new world.
    Chairman McCain. What does THAAD do for us?
    Admiral Harris. THAAD enables us and our South Korean 
allies to defend South Korea or a big portion of South Korea 
against the threat from North Korea. It is aimed at North 
Korea--the systems. It poses no threat on China.
    Chairman McCain. Is it not incredibly difficult to counter 
the 4,000 artillery pieces that the North Koreans have on the 
DMZ [demilitarized zone] which could attack a city of 26 
million people?
    Admiral Harris. It is, sir, and THAAD is not designed to 
counter those kinds of basic weapons.
    Chairman McCain. What is designed to do that? Anything?
    Admiral Harris. We do not have those kinds of weapons that 
can counter those rockets once they are launched.
    Chairman McCain. They can launch--they have the capability 
of a launch of those rockets.
    Admiral Harris. At this very moment, they have that 
capability, Senator.
    Chairman McCain. What do you make of China's reaction to 
our emplacement of THAAD, a purely defensive system? Does that 
give you an idea of China's real intentions about North Korea?
    Admiral Harris. I have said before, Chairman, that I 
believe it is preposterous that China would criticize South 
Korea or the United States for emplacing a purely defensive 
missile system against the North Korean threat when that North 
Korean threat owes its survival, if you will, to China. I 
believe that China, rather than criticize the United States or 
South Korea for defending ourselves, should rather put that 
energy toward convincing Kim Jong-un to stop his nuclear 
ambitions.
    Chairman McCain. We should be a bit skeptical about our 
ability to persuade the Chinese to break Kim Jong-un's quest 
for nuclear weapons and the means to deliver them.
    Admiral Harris. I have been skeptical up to the recent 
discussions between President Trump and President Xi. I think 
that we are seeing more activity, proactive, positive activity, 
from China in this case than we have seen in a long time. I 
remain cautiously optimistic but certainly hopeful.
    Chairman McCain. You would not rely on that.
    Admiral Harris. It is too early to tell, sir. It has only 
been a month or so, and it is too early to tell.
    Chairman McCain. I mean you would not rely on it at this 
time.
    Admiral Harris. I would not bet my farm on it.
    Chairman McCain. We thank you, Admiral. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman. Thank you, Admiral 
Harris.
    Admiral Harris, I understand yesterday that you, in 
response to the House questions, took responsibility for the 
miscommunication regarding the Carl Vinson carrier group. First 
of all, I commend you for standing up and being accountable and 
responsible. That is what naval officers do. I think we better 
take significant steps to avoid such confusion in the future. 
It was quite detrimental not only here but, as you know, in 
South Korea particularly where there was a great deal of 
concern. In some quarters, they felt that they had been misled, 
indeed. I would urge you to ensure that such a miscoordination 
or miscommunication does not happen in the future.
    Admiral Harris. Yes, sir. Again, as I said yesterday, I am 
accountable and responsible for the communications that came 
out of that evolution. I am sorry that it happened, and all I 
can say is I will do better in the future.
    Senator Reed. Let me raise an issue that is linked to our 
diplomacy. We are asking China to take a much more assertive 
role in urging the North Koreans to decease and desist. Your 
view in terms of what concessions we should make, if any, to 
the Chinese to get them to cooperate. As both the chairman and 
I pointed out and as you pointed out, they are posing 
significant challenges to the rule of law in the Pacific, and 
we cannot ignore that. Your comments on this issue.
    Admiral Harris. Senator, I believe that great powers can 
walk and chew gum at the same time, and by that, I mean I think 
we can compliment and be grateful for China's efforts in North 
Korea even as we criticize them, rightfully so, and hold them 
accountable for actions that run counter to the international 
rules and norms elsewhere, in this case the South China Sea. I 
think we can do both, and we should do both. I do think China 
as a great power can handle that criticism on the one hand 
while they are dealing with this important critical 
international security issue on the other.
    Senator Reed. Thank you.
    Obviously, we are trying to approach the North Korean issue 
with a comprehensive strategy, diplomacy, military action, 
military preparedness certainly. One aspect is information 
warfare. My sense--and I am not the expert you are, but Kim 
Jong-un is paranoid about his own people and what information 
they are getting. Do you think we are making a sufficient 
effort to get information into North Korea through various 
means so that we can begin to bypass the Dear Leader and go to 
the people and that could create pressures on him to forestall 
his nuclear ambitions?
    Admiral Harris. I believe we are making an effort. I am not 
witting of the totality of that effort. I do believe that the 
people in North Korea revere Kim Jong-un. I believe that the 
idea that somehow we could--or somehow that they could rise up 
against Kim Jong-un, if the situation in North Korea became so 
dire, I think that might be a hollow hope. I believe that they 
consider him a god king, and they truly revere him as their 
leader. That is just based on what I have read in the press and 
reports of reporters who see the North Korean people start to 
cry and all of this and get emotional when he comes out on 
stage, and they seem to be real tears. I think that he has a 
hold on his people, that they are not going to rise up from 
beneath and topple him.
    Senator Reed. Again, I think your perception is much closer 
to the situation on the ground, but anything we can do to 
either raise questions--I do not think they will prompt an 
uprising immediately--not only questions among the population 
but questions among the Dear Leader, Kim Jong-un, that his 
people are being sort of influenced or there might be elements 
within the country that are thinking and embracing other ideas 
could be some leverage. I think we have to pursue aggressively 
this information operation. My sense is we are not.
    Admiral Harris. I must agree with you there.
    Senator Reed. Just one other issue. China has refused 
arbitration--to acknowledge the decision of the arbitration 
clause under the Law of the Sea with the Philippines, et 
cetera. We do have a successful example of Timor-Leste and 
Australia of working together, and that might be a model maybe 
just rhetorically that we could use with the Chinese and see if 
we could move them towards more cooperative aspects with the 
Philippines.
    Admiral Harris. I agree with you there.
    Senator Reed. Thank you.
    Admiral Harris. There are several good examples just in the 
Indo-Asia-Pacific where arbitration has worked, both parties 
have given a little and gotten a lot, and the overall picture 
in the region has been one of increased civility rather than 
decreased stability.
    Senator Reed. Thank you very much, Admiral.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Admiral, I think what has happened in the 
last few days has served as a wakeup call to the American 
people. Of course, we had our hearing on Tuesday. Four pretty 
smart people came to the same conclusion. We have you today, 
and of course, we have what happened yesterday at the White 
House, as well as other places in the House.
    We actually talked about this, and it has been obvious to 
those of us at this table that over a period of time, North 
Korea has, going all the way, arguably, back to the Scud, the 
times of the middle 1970s, progressing up to the Nodong and the 
Taepodong 1 and Taepodong 2, and then ultimately coming up to 
the statement that he makes that declares that North Korea--
this is Kim Jong-un declares that, ``It is in final stages and 
preparations to test an intercontinental ballistic missile.''
    I think people now realize that it is an imminent threat. 
They really have not. I know that you deal in military circles 
and you are dealing with people who know what threat is. Those 
of us around this table are dealing with the general public, 
many of whom do not understand that.
    We had the hearing on Tuesday. They agreed that North Korea 
currently represents the single most imminent--they use 
``imminent''--threat. Victor Cha testified, and this was his 
quote. He said the pace of North Korea's development shows that 
it wants to be able not just to field one missile that could 
reach the United States but a whole slew of them. The panel all 
agreed on that. We are getting to really talking about serious 
things here.
    You just now in response to a question or a comment by the 
chairman said that it is not a matter of if, but a matter of 
when.
    I think it is our job, and it is incumbent upon the 
military as well as us to let the American people know the 
nature of the threat that is out there.
    Now, last year, Senator Rounds and I led a group to your 
area, and we talked about some of the things that were taking 
place at that time. We came back and we had that hearing that 
you referred to. In the hearing, you were asked the question as 
to what are your needs there in terms of resourcing yourself 
adequately to meet the threats. Let us keep in mind that was a 
year ago, and the threat has totally been enhanced since that 
time. What would those needs be today as opposed to what we 
thought they were a year ago?
    Admiral Harris. Sir, last year, I commented that I had the 
forces to fight tonight, to respond tonight to any threat from 
North Korea or anywhere else for that matter. I still believe 
that today. I have the forces in place to fight tonight if 
necessary.
    What I am concerned about are those follow-on forces, the 
forces themselves, and also how those follow-on forces would 
get to the region in terms of airlift and sealift. I am worried 
about that.
    I am also worried about things like small diameter bombs 
and other kinds of munitions, anti-air warfare weapons for our 
fighter aircraft, adequate numbers of AIM-9D and AIM-120 
missiles. I worry about the shortage of anti-ship missiles, 
whether it is long-range anti-surface missiles, more Tomahawk, 
whatever, but a long-range anti-surface missile.
    I would like to see a fifth SSN in Guam, but more than the 
fifth SSN in Guam, our Nation is facing a significant shortage 
in terms of submarine numbers. As the combatant commander, for 
example, I only get 50 percent of the submarines that I think I 
need, but that is based on a 52-submarine force, and by the end 
of 2020, the Navy projects that attack submarine force will go 
down to 42. My requirements will not go down, but the pool from 
which they will be sourced is going to drop dramatically. I 
worry about that significantly as I look at the threat from 
North Korea, potential threat from China and from Russia.
    Senator Inhofe. Yes. We are going to be depending on you to 
advise us in not generalities but as you are getting into right 
now, priorities and the needs that you have. We will depend on 
that.
    I am also encouraged that our allies are more dependable 
than what they have been in the past. Is it your impression 
that they see this threat that is out there as we do? Does this 
open the door for maybe even more allies coming in our 
direction?
    Admiral Harris. I believe it does. If we define allies as 
partners like you are talking, you know, we only have five 
defense treaty allies in the world, and they are all in the 
Indo-Asia-Pacific. We have other countries that are close to 
us, that are partners with us. Singapore comes to mind, for 
example, Malaysia, Indonesia, India, Vietnam. These are 
countries that I think seek the United States as a security 
partner of choice.
    Senator Inhofe. Yes. Well, I appreciate that very much. My 
time has expired, but I would like to just ask one more 
question. You made the statement we should cease to be cautious 
about the language we use to describe these activities. Can you 
define that a little bit for us?
    Admiral Harris. I am not sure in what context you are 
referring to.
    Senator Inhofe. Okay. That was a quote. I will do that for 
the record and give you the context because it is something 
that a lot of us did not understand.
    Admiral Harris. Yes, sir.
    Senator Inhofe. Thank you very much.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Admiral, thank you for your service, and 
you are certainly in the center of the action.
    Let me just reiterate here what you have said. You said 
that the Korean leader is intent on accomplishing his goals as 
a nuclearized nation. His goal is a nuclear warhead--these are 
my words, but I think it is what you meant--married to an ICBM 
that would have the capability of getting to the U.S. You said 
it is, in your opinion, not a matter of if, it is a matter of 
when. Is that a correct interpretation of what you have said?
    Admiral Harris. It is correct, sir.
    Senator Nelson. Okay.
    You also offered your opinion that you would not bet that 
China can basically deter the DPRK. Is that correct?
    Admiral Harris. To be clear, I have felt in the past that 
China, though it has the capability to influence and affect 
North Korean behavior, for a number of reasons it has chosen 
not to exert the full range of its influence.
    I think we are in a different place now. I think the jury 
is out. It is early days? We will have to see if China has 
changed its view of its willingness to influence KJU.
    Senator Nelson. Based on their previous activity, there is 
no indication that you think that that is going to occur, 
although you are hopeful.
    Admiral Harris. Right, sir. I mean, past performance is no 
indicator of future productivity. Up to a month or two ago, I 
would agree with that statement completely. After all, I made 
the statement. From a month ago forward, we are seeing some 
positive behavior from China, and I am encouraged by that. I 
think we should let this thing play out a little bit and see 
where it goes.
    Now, part of that, though, Kim Jong-un and the North Korean 
regime--you know, they can do something precipitative in the 
intervening period to test us, so we have to be careful and 
sensitive to that as well.
    Senator Nelson. Precisely.
    Up to this point, has China done anything that would give 
you an indication that they are going to be helpful to the 
United States in getting the Leader to back off of his intent 
to nuclearize an ICBM?
    Admiral Harris. Sir, I do not know for a fact what China 
has done in the last month or so. I know that they are active 
in working the problem set, but I do not know the specifics of 
what they have done. All I see are the activities that Kim 
Jong-un has done in the last month or so.
    Senator Nelson. That is still on his march to a nuclearized 
ICBM.
    Admiral Harris. I think it is, though in the last month, he 
has not tested a nuclear weapon. He has tested five this 
century and he has not tested a sixth. He has not launched an 
ICBM in the last month or ever. I do not know if there is a 
cause and effect or whether it just did not fit his schedule. 
Again, it is early days on this. I think we would be best 
served to see if this has a positive outcome or not and let 
President Xi work this issue as he and the President said they 
agreed they would.
    Senator Nelson. Sure.
    If China does not deter him, there is only one deterrence 
left, and that is the United States kinetic action. Is that 
what it looks like?
    Admiral Harris. I do not want to say that there is only 
that option left. I think if China's efforts fail, then we are 
back to where we were, status quo ante, if you will, to try to 
throw some Latin in there. At that point then, as the President 
has said, all options are on the table. I think he means just 
that: all options are on the table. My job in that framework is 
to provide military options, but there are other options I am 
sure. I would leave it to those experts to come up with those 
options. My options are hard power options.
    Senator Nelson. In your hard power options, you need 
additional materiel.
    Admiral Harris. I need additional materiel in the long run, 
but that is not to suggest that the hard power options that the 
U.S. military can provide the President would not be effective 
tonight, and they would be effective tonight if called upon to 
execute them.
    Senator Nelson. Final question. There was a report in The 
Washington Post--I think it was David Ignatius--several weeks 
ago in essence saying that the failures of the North Korean 
launches are directly attributable to the United States Is that 
anything that you want to talk about here?
    Admiral Harris. No, sir. It is not anything I want to talk 
about here.
    Senator Nelson. Okay.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Admiral Harris, thank you for being here.
    As PACOM Commander, did you participate in authoring the 
2016 Force Structure Assessment?
    Admiral Harris. I participated in the run-up to that.
    Senator Wicker. Okay.
    Well, the Force Structure Assessment (FSA) called for a 
355-ship Navy, and in that regard, I want to follow up on a 
line of questioning from Senator Inhofe and drill down on that.
    Actually what the FSA said is that in a perfect world 
unconstrained by the budget, the requirement is 653 ships 
fleet-wide, but by accepting risk and understanding the 
financial restrictions that we have, the requirement is 355 
ships.
    Now, I want to help you get the ships you need. I want to 
help the Navy get the ships they need. When I am told 355 ships 
is the requirement, I believe that.
    Now, you mentioned to Senator Inhofe that you do not have 
enough submarines. You also mentioned some ammunition there. 
Let us talk about ships. How many submarines do you have now 
and how many do you need?
    Admiral Harris. Sir, I would prefer to give you those in a 
different setting on precise numbers.
    I will say that I only get half of what I need. I have a 
stated requirement that is based on steady state things that we 
do with our submarines today, and then I have a requirement 
that is based on warfighting, so in our war plans, these war 
plans state a requirement for X number of submarines in Y 
number of days. Those are two kinds of metrics. You got a 
number of submarines that you need to fight the war if it 
happens, and then you have got a number of submarines that I 
need today to do the day-to-day operations in the region. In 
today's numbers, I get about half of what my formally stated 
requirement is.
    Senator Wicker. You get half of 52.
    Admiral Harris. No, sir. I get half of my requirement. 
Fifty-two is the total number of attack submarines that the 
Navy has. My number of requirements is irrespective of the 
number of submarines the Navy has, but the number of submarines 
that I get are based on the number of submarines the Navy has. 
It is not just me. It is all the combatant commanders have 
these requirements, Central Command, EUCOM, and every other 
COM.
    Senator Wicker. Let me just ask you. If the Navy gets its 
355 ships and you get your portion of it, what will you be 
capable of doing that you cannot do now?
    Admiral Harris. The first thing is my steady state 
requirements in order to do the things that we do today in the 
climate that we are in will be much better. My fight tonight 
forces that I have to have ready to respond to a North Korean 
aggression or Chinese coercion or something like that--those 
forces will be more robust. Most importantly, the follow-on and 
surge forces will be available on shorter timelines. Today 
those follow-on forces are delayed by any number of reasons, 
and that delay is felt in terms of increased risk, longer 
timelines, and increased depths of Americans. If I have the 
number of ships that the Navy is asking for and the number of 
jets the Air Force is asking for and on and on, then both my 
ready to fight tonight forces will be richer, the timelines to 
get follow-on forces will be shortened, and the density of 
those follow-on forces will be thicker.
    Senator Wicker. Well, let me just say I think at some point 
it is going to be helpful to this committee if you are a little 
more specific about those details.
    Let me just follow up on something that Chairman McCain 
asked about. The threats that we have from North Korea now--
there is the intercontinental ballistic missile. There is a 
better chance than not that we could shoot that down if that 
happened. There are these 4,000 short-range missiles. Your 
testimony is that there is essentially no defense from the 
South for those short-range missiles.
    Admiral Harris. Those are not missiles. Those are mostly 
artillery.
    Senator Wicker. Artillery, okay. There is no defense.
    Admiral Harris. Right. I mean, you are trying to shoot down 
an artillery round.
    Senator Wicker. Then the chairman asked you--and I do not 
think I understood the answer--what does THAAD get us.
    Admiral Harris. THAAD allows us an intercept capability to 
shoot down at the high altitude level ballistic missiles that 
go from North Korea to South Korea. It is a Terminal High 
Altitude Area Defense System aimed at ballistic missiles from 
North Korea against South Korea. That is a short distance 
across the earth, but the missiles have a high atmospheric 
altitude. That is what THAAD gives you.
    THAAD is part of a system that the South Koreans have. They 
have Patriot and they have the like. That is what those systems 
are designed for, to give an umbrella, if you will, to protect 
South Korea.
    Senator Wicker. It seems to me the chairman's point is the 
dramatic point, and that is that there is this short-range 
artillery and we have no defense should North Korea decide to 
unleash those.
    Admiral Harris. I think we should develop that capability.
    Senator Wicker. Thank you.
    Admiral Harris. Yes, sir.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. Admiral Harris, 
thank you very much for your service to the country and for 
your leadership at this challenging time.
    One of the things that we heard from a panel of private 
sector but some former officials on North Korea on Tuesday was 
that the only impetus to encourage China to engage with North 
Korea in the way that we would like in order to help us get 
them to back down on their nuclear program would be if we 
initiated much more extensive sanctions on China with respect 
to their financial system or if they believed that there was 
imminent threat of war on the Korean Peninsula. Do you think 
that is an accurate analysis based on your experience with 
China in the region?
    Admiral Harris. Senator, I think it is an accurate 
analysis. I think there is some room in the sanctions regime, 
but there is not a lot left in there but there are some and we 
should apply all of those that we can before we are left with 
only the other choice.
    Senator Shaheen. Again, to be clear, they were suggesting 
that the sanctions should be on China on their financial 
system.
    Admiral Harris. There are some areas in the sanctions 
regime that we have not yet explored, and I think we should 
explore those before we do the kinetics.
    Senator Shaheen. Thank you.
    Everyone has acknowledged, obviously, that North Korea is 
working towards a nuclear weapon, and that is one of the things 
that has changed in North Korea. Have we seen an escalation of 
rhetoric from Kim Jong-un or are we seeing very much the same 
kinds of rhetoric but we are paying more attention to it today 
because of the nuclear threat?
    Admiral Harris. I think we are seeing increased rhetoric. I 
mean, just this week, he threatened Australia. This week, he 
said he was going to shoot out--sink the Carl Vinson with a 
single shot, which is ridiculous, but he said it. He is 
increasing his rhetoric. At the same time, he is continuing his 
aggressive weapons development. I think they are both going 
hand in hand. He had that parade last week which showed off all 
the weapon systems and stuff like that. I think all of that in 
combination lets me know and should let us all know that he is 
intent on his objective and he is moving toward that objective 
apace.
    Senator Shaheen. How much of a concern is it that at a time 
when we are trying to get China to work with us on North Korea, 
we are also very concerned about what they are doing in the 
South China Sea, their increasing effort to expand control of 
the seas in Southeast Asia? How much of a difficulty does that 
present for us as we are trying to work with them?
    Admiral Harris. As I said earlier, I do not think that it 
poses too much of a difficulty for a Nation like the United 
States. We should be able to compliment and applaud China's 
efforts on the one hand and then be willing to criticize them 
for the bad things they do on the other. I think from China's 
perspective, they can receive that criticism and continue to do 
the thing that benefits not just us but benefits them. A 
nuclear North Korea or the United States response to a nuclear 
North Korea, as you said, affects China almost as much as it 
would affect North Korea. I think it is in their best interest 
to do this and listen to what the international community, not 
just the United States, but the international community is 
saying about this.
    Senator Shaheen. I appreciate that you have taken 
responsibility for the Carl Vinson, and I understand as the 
Commander you would do that. As we are thinking about the 
messages that we send to North Korea, to China, to both our 
allies and enemies, how concerned should we be about that kind 
of a mixed message? Yesterday, one of the things that obviously 
got a lot of attention was the briefing at the White House of 
all of the Senators, which I assume North Korea watched very 
closely, as did most people. How should we think about being 
consistent about the messages that we are sending to the 
region?
    Admiral Harris. I agree with you. I think we should be 
consistent. The messaging was my fault not simply because I am 
the combatant commander, but it was my fault. I take the 
responsibility for it.
    What I said at the time was that we were going to pull the 
Carl Vinson out of Singapore. We were going to truncate the 
follow-on exercise that it was going to have with Australia, 
cancel the Australian port visit, and then send it to Northeast 
Asia. I did not specify a time in there. There was a lot of 
press reporting on that that implied that it was now, now, now. 
I could have stepped in and corrected that, and I did not. I 
feel responsible for that and I am remiss for not doing that. 
That is all on me. The messaging on this comes out of Pacific 
Command. I regret that it happened. I will try to do better, 
but it is on me.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Admiral Harris, for being here today.
    Some believe that our nuclear forces exist only to deter a 
nuclear attack on the Homeland here in the United States, but I 
think the recent events on the Korean Peninsula demonstrate the 
value of our extended deterrence commitments and the role that 
our nuclear forces play in assuring our allies of our resolve 
as well.
    Can you talk about the value that our allies place on our 
nuclear umbrella and the importance of modernizing our nuclear 
forces so that we can continue to deter our adversaries and 
also to reassure our allies?
    Admiral Harris. Ma'am, I think our allies are as dependent 
on our nuclear umbrella as we are. I think the shows of force 
that we provide against our adversaries are important. We have 
the USS Michigan, a guided missile SSGN--it is not a ballistic 
missile deterrent, but it is a guided missile submarine--is in 
Busan, South Korea right now. I think that sends a powerful 
signal of solidarity with our South Korean ally, and at the 
same time it shows the North Koreans that we are serious about 
our defense commitment to our ally on the peninsula.
    I think that the modernizing of our nuclear deterrent is 
absolutely critical to our Nation for our survival, and that 
means the follow-on Ohio-class submarines. That means the long-
range strike bomber and upgraded ground-based ICBMs. I think 
the three together, the triad, is a proven success story. We 
should not experiment with some other formula. It has worked so 
far, and I think it will work well into the future. We must 
commit as a Nation to modernizing that force.
    Senator Fischer. Thank you, sir. If we are going to have 
the message of deterrence and assurance, we need to stick to 
that modernization plan then. Correct?
    Admiral Harris. Yes, ma'am.
    Senator Fischer. Last year, General Scaparrotti, who was 
then the Commander of the United States Forces in Korea, stated 
that the ISR was his top readiness challenge. He said, ``The 
United States Forces Korea requires increased multi-discipline, 
persistent ISR capabilities to maintain situational awareness 
and provide adequate decision space for the USFK, PACOM, and 
national senior leaders.''
    Can you discuss how the ISR enables your operations in the 
PACOM region and also in relation to the Korean Peninsula 
specifically?
    Admiral Harris. Yes, ma'am. I will try to stay on the right 
side of the classification here without getting into too many 
specifics.
    ISR, intelligence, surveillance, and reconnaissance, is the 
term that we apply to our ability to watch our adversaries, and 
we want to watch them all the time. There is not enough ISR to 
go around to meet all of the requirements of all of the 
combatant commanders. I have stated my requirements. This is 
like the submarine discussion. Central Command, who is fighting 
the fight today in the Middle East, AFRICOM in North Africa, 
and so on--they have their requirements for ISR also. It comes 
out of a pool, and all the services contribute to the pool in 
different ways.
    So I do not have what I need. I do not have the ability to 
persistently watch my adversaries all over the Indo-Asia-
Pacific, over half the globe, 24/7. And I need it 24/7. I need 
it whatever 60 times 24 hours is. I need that minute by minute, 
and I do not have that. That is what General Scaparrotti was 
getting at, was persistent ISR. I am convinced that today, even 
though he is the European Command Commander, he would like more 
ISR as well.
    Senator Fischer. Can you give us some kind of idea on what 
percentage of those requirements you have fulfilled, if you 
have half? Do you have two-thirds?
    Admiral Harris. No. I probably have a tenth of my 
requirements are fulfilled.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman. Thank you, Admiral 
Harris, for your testimony here today.
    Admiral Harris, you referenced in your written testimony 
that 9 out of 10 mega-cities in the world are in the Pacific 
Command's area of responsibility, and certainly given our 
conversation here today, Seoul is in the front and center of 
what we are talking about. It is my understanding that the 
number of mega-cities in the world is expected to expand in the 
coming years, and I expect that growth will continue in the 
Indo-Asia-Pacific theater as well.
    I am concerned, as well as I know a number of other folks, 
that our military is not adequately prepared for operations in 
mega-cities, so whether it is to fight or it is to assist in 
humanitarian assistance or disaster relief missions.
    I would like your opinion, Admiral, on how we should 
conduct training, and do you believe that additional training, 
particularly with the Army and Marine Corps, should focus on 
operations within mega-cities?
    Admiral Harris. Thanks, Senator. Just to be clear, that 9 
of 10--I stole a city from Joe Votel. One of those cities is 
Karachi, Pakistan, which is in his AOR but right next to mine.
    I believe the Army and the Marine Corps are getting after 
this issue of fighting in heavily urban terrains. I believe 
that they need to continue to do that for the reasons you have 
outlined, but also we are working with our allies and friends 
in the region to improve their capability at the same time we 
are working to improve our capability to fight in those dense 
urban environments.
    Senator Peters. Admiral Harris, as you know, China's One 
Belt, One Road strategy seeks to secure China's control over 
its continental and maritime interests but with the hopes of 
dominating Eurasia and exploiting natural resources for future 
economic gains. Such designs place the country at odds with the 
United States but also nations like Japan and India. Currently 
China's economy budget is four times greater than those of 
India. I want to talk a little bit about India and its 
importance to us.
    However, India is an ambitious and growing country both in 
population and its economy. China and India naturally have 
competing interests at stake on the continent and adjoining 
maritime domain. India has expressed concerns over China's 
recent expansion into the South China Sea and perceived 
strategic goals in the region, also given the fact that India 
is a democracy, certainly shares many values with us here in 
the United States.
    I would be curious as to how you view India's role in the 
future in the Indo-Pacific region and what we should be doing 
to strengthen that relationship and if there anything in 
particular that you would like to see expanded so that we can 
work more closely with our friends in India.
    Admiral Harris. Thank you, sir.
    I have made India a formal line of effort at Pacific 
Command because I believe it represents a tremendous 
opportunity for the United States at large and for PACOM in 
particular in the mil-to-mil space.
    We share democratic values with India. We are the world's 
two largest democracies. We share cultural values with Indian 
Americans that live and work and lead in our country. I think 
in the mil-to-mil space, we are in a very good place and 
getting better. India is purchasing a lot of American 
equipment. The world's second largest C-17 fleet, for example, 
is Indian. The Indians have P-8 Poseidon aircraft, U.S. 
helicopters, Howitzers, and on and on. I think there is a lot 
of opportunity there, and I think we should continue to work 
that.
    We are heavily involved--when I say ``we,'' the Navy is 
heavily involved in working with the Indians on the development 
of their aircraft carrier, their indigenous aircraft carrier. 
That is an exciting program. I think that India's geostrategic 
interests align perfectly with ours in terms of being concerned 
about China and in terms of the intersection of China and 
India, including along their long land border but especially in 
the Indian Ocean, especially in the approaches to the Indian 
Ocean, the Andaman Islands and the like.
    I welcome an improved relationship with India. They have 
invited me twice in the last 2 years to speak at their Raisina 
Dialogue, which I have accepted, and I want to continue to 
improve and grow the relationship between our two countries.
    Senator Peters. Thank you, Admiral.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Admiral, welcome back. Thanks to you and 
all the men and women you lead in Pacific Command.
    I want to talk today about the strength of missile forces 
in the Indo-Pacific. Given the vast distances in that theater, 
missiles are a critical component of any country's security, 
including ours.
    How many of China's land-based missile forces do you 
estimate have a range of 500 to 5,500 kilometers?
    Admiral Harris. In an unclassified venue, Senator, over 90 
percent fall in that range.
    Senator Cotton. How many missiles do you have that fall 
into that range?
    Admiral Harris. I have none, sir.
    Senator Cotton. You have none.
    Admiral Harris. Right.
    Senator Cotton. Why do you have none?
    Admiral Harris. Because that range, 500 to 5,500 
kilometers, is defined in the INF [Intermediate-Range Nuclear 
Forces] Treaty, the Intermediate Nuclear Force Treaty, which 
prohibits nuclear and cruise missiles and ICBMs--or nuclear and 
conventional cruise and ICBMs or ballistic missiles in that 
range. We adhere to the INF Treaty religiously, as we should. 
It is a treaty that we signed on for.
    China is not a signatory to the treaty. They are not 
obliged to follow that treaty, and we cannot legitimately, in 
my opinion, criticize China for developing weapons that 
contravene the treaty because they did not sign onto it.
    Senator Cotton. The only two parties to the treaty are 
Russia and the United States.
    Admiral Harris. That is correct. There are some successor 
states from the Soviet Union that the treaty applies, but it is 
really us and Russia are the signatories to the treaty. General 
Selva just testified recently that Russia has violated the 
treaty in the conventional sense with a conventional cruise 
missile. At the end of the day, what you have is you have a 
treaty that binds theoretically two countries, one of which 
violates it without being held to account. The other adheres to 
it rigidly, as it should. Then all the other countries in the 
world are not obliged to follow the treaty, and they do not. 
Those countries that are of concern, of course, are China in my 
region and Iran in General Votel's.
    Senator Cotton. Since you mentioned General Selva's 
testimony, I think this is what you are referring to. He spoke 
to the House Armed Services Committee last month in which he 
said the Russians have deployed a land-based cruise missile 
that violates the spirit and intent of the Intermediate Range 
Nuclear Forces Treaty and they do not intend to return to 
compliance. Is that what you were referring to?
    Admiral Harris. It was, sir.
    Senator Cotton. You agree with that assessment?
    Admiral Harris. I do.
    Senator Cotton. The INF [Intermediate-Range Nuclear Forces 
Treaty] Treaty was originally reached between the United States 
and the Soviet Union after the buildup of, first, Soviet forces 
in the late 1970s and then our own forces, along with NATO, in 
1983, so it was geared primarily towards the European theater. 
Is that correct?
    Admiral Harris. It was geared toward the Soviet Union, 
Senator, in a bipolar world. This was at the height of the Cold 
War, and now we are in a multi-polar world where we have a lot 
of countries that are developing these weapons, including China 
that I worry about. I worry about their DF-21 and DF-26 missile 
programs, their anti-carrier ballistic missile programs, if you 
will.
    INF does not address missiles launched from ships or 
airplanes, but it focuses on those land-based systems.
    I think there is goodness in the INF Treaty. Anything you 
can do to limit nuclear weapons at large is a general good 
probably. The aspects of the INF Treaty that limit our ability 
to counter Chinese and other countries? cruise missiles, land-
based missiles, I think is problematic.
    Senator Cotton. As you say, since the United States and 
Russia are the only two parties to the treaty and you and 
General Selva and several other United States Government 
officials have said that Russia is violating the treaty, that 
means the United States is the only country in the world--the 
only country in the world--that unilaterally refuses to build 
missiles that have a range of 500 to 5,500 kilometers.
    Admiral Harris. That is correct.
    Senator Cotton. Do you think that we should consider 
renegotiating or withdrawing from the treaty or declaring 
Russia in material breach?
    Admiral Harris. I would never advocate unilateral 
withdrawing from the treaty because of the nuclear limitation 
part of it. I do think we should look at renegotiating the 
treaty. We should consider that because, as you say, there are 
only two countries that signed onto it, and one of them does 
not follow it. That becomes a unilateral limitation on us.
    Senator Cotton. One final question then. There are three 
scenarios. One is Russia comes back into compliance. The United 
States and Russia comply. Two is we somehow withdraw from or 
abrogate or declare Russia in material breach so we are no 
longer unilaterally controlled. Or we continue the status quo 
where we unilaterally are the only country that refuses to 
develop those missiles. Surely, whatever you think between one 
and two, we cannot accept three going forward. Can we?
    Admiral Harris. Right.
    Senator Cotton. Thank you.
    Senator Reed [presiding]. Thank you.
    On behalf of the chairman, Senator Warren, please.
    Senator Warren. Thank you, and thank you for being here, 
Admiral Harris.
    In your posture statement last year, you described the 
Asia-Pacific rebalance as, quote, a strategic whole-of-
government effort that guides and reinforces our military 
efforts integrating with diplomatic, political, and economic 
initiatives. Do you still agree with that statement, Admiral?
    Admiral Harris. I do, ma'am, but, you know, we labeled it 
``the rebalance'' in the previous administration, and in the 
early days of the previous administration, we labeled it ``the 
pivot.''
    Senator Warren. Yes.
    Admiral Harris. I think the labeling of whatever it is we 
do is less important than the whatever it is we do.
    Senator Warren. That is actually the part I wanted to focus 
on because I agree with you on this.
    I just have a simple question right here and that is 
whether or not funding cuts to agencies that conduct diplomacy 
and development and perform other civilian functions would make 
your job easier or more difficult.
    Admiral Harris. I believe it would make it more difficult. 
I am reminded of what a famous French foreign minister 
Talleyrand said to the head of the French army, Marshal Ney--he 
said when my profession fails, yours must come to the rescue. I 
think that we are not in a good place if we are that 
bifurcated, but also I believe if the State Department fails 
earlier because of funding, then we will have to, ``Come to the 
rescue sooner.'' I would rather push that off to the right 
rather than bring it to the left.
    Senator Warren. Yes. That is a very powerful point.
    I just want to note for the record that the Trump 
administration in its budget blueprint calls for about a 29 
percent cut to the State Department and significant cuts to 
other agencies with international responsibilities. Obviously, 
there is a strong military component to the Asia-Pacific and 
keeping us safe there, but as you say, it takes a lot more in 
this vital region to keep us safe.
    I want to shift, if I can, to North Korea. We are dealing 
here with a real threat from a dangerous, unstable nuclear-
armed state. Despite tough sanctions, North Korea continues to 
be provocative. I am concerned that this is a brewing crisis 
that would escalate without warning.
    We went over to the White House yesterday, and the 
administration said again that the time for strategic patience 
is over. Now, I think it is still not clear precisely what 
their new strategy is. By all accounts, North Korea is 
continuing its effort to develop a nuclear-armed 
intercontinental ballistic missile system that could reach the 
continental United States coastline. In recent days, 
administration officials have talked about shooting down a 
North Korean ballistic missile test.
    So, Admiral, could you talk a little bit about the 
strategic considerations that we must take into account before 
taking such an action? What are the up sides and down sides to 
shooting down one of their test missiles here?
    Admiral Harris. There is a capability issue. There is a 
geometry issue of where that missile is going and all of that. 
If they are launching a test missile that we think is going to 
land in Korea or Japan, then I think we are obligated to do 
what we can.
    Senator Warren. I understand that. Just shooting down a 
test missile in general. You know, as I understand it--I have 
been trying to read about this--experts on North Korea's war 
plans say that Kim Jong-un would likely respond to United 
States military action with massive escalation against South 
Korea, Japan, perhaps even the United States if we shot down a 
test missile. I am just asking. Do you agree with that 
assessment? If so, how is it that the administration should 
take this dynamic into account as it formulates its North Korea 
policy?
    Admiral Harris. A lot of what you are asking, Senator, is 
being deliberated in the administration now. I am in a 
difficult position when asked to comment on ongoing process 
deliberations. I am going to defer on that.
    But I will say that if we do not maintain credible combat 
power to confront Kim Jong-un's testing and his development 
goals, then we are going to be in a position to be blackmailed 
by KJU. I think that is probably a worst place to be. I think 
that we will all agree that everything that has been done up to 
this point has not worked in deterring Kim Jong-un, so all of 
the military capabilities that we have, all of our alliances, 
and all of that, have not deterred Kim Jong-un's desires to 
achieve a nuclear weapon that can reach the United States. We 
must stop that somehow. Those options I think are on the table. 
All of those options are on the table.
    Senator Warren. The ``somehow,'' though, is the question. I 
see that I am out of time. I am going to quit here and we can 
continue this conversation later. That is precisely the 
question we are trying to ask about and why it is that I am 
asking the question about what the up sides and down sides are 
if we take action directly on one of these testing missiles, 
whether or not it escalates and this gives him provocation to 
invade South Korea, to bomb Japan otherwise.
    Admiral Harris. I think he can manufacture whatever 
provocation he wants to attack South Korea or Japan or us. I 
think that the manufacture of provocations resides with him.
    Senator Warren. I appreciate that, but I have to say on 
this one, Admiral, I think that we need the administration to 
be clearer about what they have in mind here. You rightly say 
this is under discussion, but what that means to me at this 
point is that no one knows exactly what it is that we plan to 
do here. If no one knows here in the United States, if the 
American people do not know, if Kim Jong-un does not have some 
idea of what the response will be if he continues this testing, 
I think it is difficult for it to have any kind of deterrent 
effect. Thank you, Mr. Chairman.
    Chairman McCain. On behalf of Chairman McCain, Senator 
Ernst, please.
    Senator Ernst. Thank you, Mr. Chair.
    Admiral, thank you very much for being here today. I know 
the region is in a really precarious time and situation, but we 
do appreciate you taking time out to be with us.
    In a February speech, you warned the audience of the perils 
of linear thinking, saying instead that we need to think 
exponentially in order to develop strategies and technologies 
that give us an asymmetric advantage over regional threats. I 
absolutely 100 percent agree with you.
    As chair of the Emerging Threats and Capabilities 
Subcommittee, I am very, very frustrated with the oftentimes 
slow and very, very expensive nature of our defense 
acquisitions. You have even said this. You said that Lady Gaga 
was able to use over 300 drones during her Super Bowl halftime 
show, and why is it that she has that technological advantage 
and we cannot capitalize on that.
    How important is it that we are able to rapidly develop 
things like directed energy weapons and swarming micro-drones 
and, more importantly, if we had these technologies today, 
would we have more and better options in order to manage 
threats that are posed by North Korea and China?
    Admiral Harris. I think, Senator, that innovation, in 
general, is one of those asymmetric advantages that America 
enjoys over every adversary. We are in a place now where our 
adversaries recognize that, and they are trying to close that 
innovation gap.
    They do it in a number of ways. They send their best and 
brightest students to American universities, and then they get 
educated here and they go back home and they carry that 
knowledge back to them. They also do it illegally. They steal 
our secrets. They steal our industrial processes, and they 
shorten their acquisition timelines dramatically, so they can 
field things at a rate faster than we can.
    We are often encumbered, rightly so, by law, regulation, 
and policy, and I think that we should look at trying to figure 
out how to shorten that process. The law is important, 
obviously. Regulations are important. Policy is important, but 
when the three in combination allow us to be overtaken in 
technological development by those countries that would do us 
harm, I think we should step back and look at that and ask 
ourselves is this the right way forward.
    I am pleased with things like the DIUx effort that has been 
undertaken by the Department, the SCO effort, the Special 
Capabilities Office, that resides in OSD to try to go flash to 
bang quicker, and things like that.
    Senator Ernst. Thank you. I do agree. I think it is 
important that we are able to move rapidly. You are absolutely 
correct about the regulations and the laws. Great. They were 
there for a purpose, but we do have to go back and I think 
scrutinize some of those regulations to make sure that we are 
able to move as rapidly as some of our near-peer competitors or 
even those that are not near-peer competitors with off-the-
shelf technology.
    You mentioned ISIS in some of your comments, and in your 
testimony, of course, active engagement between the United 
States and our partner countries is very critical to 
maintaining the stability in that region, not just with those 
state actors like North Korea but also with partners, engaging 
those partners in the fight against ISIS.
    If you could, can you speak to the importance of engaging 
some of those partners and how we are moving forward in that 
fight against ISIS?
    Admiral Harris. Sure. In the Indo-Asia-Pacific, the 
countries that we work closest with in the ISIS fight are 
Malaysia, the Philippines, Indonesia, and Bangladesh. That is 
us, Australia, and New Zealand that are involved in this effort 
to work with those countries to help them fight that threat 
themselves. The entity that does that for me is SOCPAC, Special 
Operations Command Pacific, and Major General Bryan Fenton and 
his team are actively engaged in providing advice and 
assistance to those countries, most principally right now in 
the southern Philippines. I am encouraged by the work they are 
doing. I think it is God's work and I am pleased with where we 
are in that fight in the Indo-Asia-Pacific.
    Senator Ernst. Thank you very much. Thank you, Admiral. 
Thank you, Mr. Chair.
    Senator Reed. Senator Sullivan has to go to the floor to 
preside. Senator Hirono has graciously yielded to Senator 
Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman, and my 
colleague, Senator Hirono, from Hawaii, I very much appreciate 
letting me jump ahead.
    In Alaska and Hawaii, we have a lot invested in this, as 
you know, Admiral, given that our citizens are going to be 
impacted sooner than anyone else with regard to the 
intercontinental ballistic missile threat.
    I just want to begin by thanking you again for your 
service, Admiral.
    Would you agree that we are clearly in a more direct threat 
phase with regard to the North Korean challenge to our 
citizens?
    Admiral Harris. I agree, Senator.
    Senator Sullivan. We were all over at the White House 
describing a strategy, integrated strategy, that the 
administration is putting together with regard to very focused 
initially on enhanced diplomacy. Do you also believe that the 
threat of military force or at least keeping it on the table 
actually enhances our diplomatic efforts?
    Admiral Harris. It does. I believe that the best 
enhancement to diplomacy is a strong military capability.
    Senator Sullivan. You mentioned the unprecedented weapons 
testing. I have a chart that I want you to take a look at and 
also not if but when North Korea will have a capacity to range 
the continental United States. Again, Alaska and Hawaii would 
be ranged earlier with the ICBM. The chart shows that Kim Jong-
un has actually conducted more tests than his father and 
grandfather combined. Do you see that abating at all?
    Admiral Harris. I do not see it abating at all if the 
trajectory remains as you have depicted it on the graphic.
    Senator Sullivan. He is learning even when he fails.
    Admiral Harris. Right, and he is not afraid to fail in 
public.
    Senator Sullivan. One thing just for my colleagues here, we 
are going to be working on a bipartisan enhanced Homeland 
missile defense bill, and I certainly think that is in order 
and hopefully we will be able to get a number of members on 
this committee to be cosponsors of that.
    Admiral, I next want to turn to the South China Sea and the 
issue of freedom of navigation operations. Earlier you had 
mentioned at high level assurances that the Chinese were not 
doing that. Standing next to the President in the rose garden, 
President Xi stated, ``China does not intend to pursue the 
militarization of these islands.'' What do you make of that 
statement by the President of China?
    Admiral Harris. I wanted to believe him.
    Senator Sullivan. Since he made that I think it was a year 
and a half ago, what has happened?
    Admiral Harris. They have militarized the South China Sea, 
sir.
    Senator Sullivan. Despite the fact that the president was 
standing next to our President, that was not an accurate 
statement.
    Admiral Harris. The reality is that China has militarized 
the South China Sea.
    Maybe it is the other graphic, but if you look at a graphic 
of Fiery Cross Reef, you will see a 10,000-foot runway, weapons 
emplacements, fighter aircraft hangars, and barracks for 
troops. Clearly that facility which is 700 acres, a military 
facility--all that capability does not exist to rescue the odd 
fisherman that gets lost out there.
    Senator Sullivan. This committee, as you know, has been 
very interested in our policies and execution with regard to 
freedom of navigation operations in the South China Sea. The 
Trump administration is developing its own policies. I was 
supportive of Secretary Carter's pronouncements of flying, 
sailing, and operating anywhere international law allows, but 
the execution of that was done rather meekly.
    Could you give us a sense as the new administration is 
developing these policies, what principles they should be 
looking at, the important role of whether we are doing it under 
innocent passage or not? Also when you look at this last graph, 
this last chart, you see that the Scarborough Shoal has not 
been militarized yet, but it is very strategic. What would 
happen if that became militarized by China? What should we do 
to stop that militarization? Should we draw a red line at that 
important geographic point in the South China Sea? Just give us 
a sense on those issues, innocent passage, allies, Scarborough 
Shoal, what we should be looking at, what the new Trump 
administration should be looking at in terms of their FONOPS 
[U.S. Freedom of Navigation Operations] policy in the South 
China Sea.
    Admiral Harris. So, Senator, I have made it clear to this 
committee and other testimonies in other committees that I am a 
supporter of freedom of navigation operations. I think we 
should do them not to send a signal about territoriality or 
sovereignty or anything like that. We should send a signal that 
we do, in fact, fly, sail, and operate wherever international 
allows. The freedom of navigation operations exist just for 
that reason, to exercise our freedom of navigation and the 
freedom of navigation that is exercised or could be exercised 
by all countries in the world.
    One of the beneficiaries of our freedom of navigation 
operations in the South China Sea would be China, for example, 
in other waters. That is the right of all nations to operate in 
accordance with international law. I believe we should continue 
to do those.
    There is a whole range of them, whether you challenge what 
is considered an illegal baseline claim, whether you do 
innocent passage and do not notify a country who maintains that 
you must notify them before you do an innocent passage, or you 
can go within a 12-mile territorial limit of an island or 
feature or whatever that does not deserve one under 
international law. There is any number of ways to conduct 
freedom of navigation operations, and we should not limit 
ourselves to any of those.
    With regard to Scarborough Shoal, I think it is an 
important part of this region for the reasons depicted on that 
chart. It would give China a, ``trifecta of bases in the South 
China Sea with Woody Island, the Paracels to the northwest, the 
Spratlys and their seven bases there to the south, and then 
Scarborough Shoal would give them a key base in the 
northeast.'' They have not done that yet.
    I hesitate to draw red lines. I think red lines are 
problematic for a number of reasons, but we should communicate 
clearly with China that we do not want them to reclaim and then 
militarize Scarborough Shoal.
    Senator Sullivan. Thank you, Admiral. Thank you, Mr. 
Chairman.
    Senator Reed. On behalf of Chairman McCain, Senator Hirono, 
please.
    Senator Hirono. Thank you, Mr. Chairman.
    Aloha, Admiral Harris. Always good to see you. Thank you 
for your service.
    There is a lot of focus, of course, on the ongoing and the 
heightened threat from North Korea, and in light of that, of 
course, I want to ensure that Hawaii is adequately protected.
    PMRF [Pacific Missile Range Facility] is a national 
treasure that cannot be replicated anywhere else with its 
undersea and missile testing ranges. There has been discussion 
about operationalizing Aegis Ashore located at PMRF. Is Hawaii 
adequately protected at this time given intelligence 
assessments of North Korea's current capability and the missile 
defense systems we have in place? Going forward, as North 
Korea's capabilities advance, what will be needed to defend the 
United States and in particular Hawaii from North Korean 
advancements?
    Admiral Harris. Thanks, Senator. I agree with you that 
Pacific Missile Range Facility on Kauai is a national treasure. 
I have gone on record as supporting the idea that we should 
develop and acquire a defensive Hawaii radar that gives Hawaii 
the ability to see the space, if you will, in the face of 
potential ballistic missile attacks. We have the SBX. That is 
the X-band radar that sits on a self-propelled oil platform 
that has to be sustained and refurbished and all of that. I 
think a land-based permanent facility to do that--a defensive 
Hawaii radar--is necessary.
    I believe today General Robinson will tell you that Hawaii 
is adequately defended. I think in the future as North Korea 
continues its weapons development program, that we need to look 
at all ways to improve the defense of Hawaii, including ground-
based interceptors. I think we should study putting ground-
based interceptors in Hawaii. I a not smart enough to know if 
we should or not, but I think we should study it and I think 
that would be the complement to a defensive Hawaii radar.
    Senator Hirono. Do you have any sense as to the time frame 
for moving from the radar capability that you say we need to 
develop right now and going with the ground-based?
    Admiral Harris. No, ma'am. I do not have an idea.
    Senator Hirono. Thank you.
    Congress has called for headquarters reductions in recent 
years, and while I agree with reducing redundancy where it 
makes sense and eliminating waste, I am not a fan of salami 
sliced percentage cuts across headquarters entities. I am a 
strong advocate of taking a look at each headquarters 
operations, the personnel mix, the evolving threats and 
challenges that face us, as well as previous growth of a 
particular headquarters before recommending any cuts.
    As you mentioned in your testimony, PACOM has been in its 
AOR [Area of Responsibility] for four of the five challenges 
which drive United States defense planning and budgeting. That 
is in your AOR. Can you talk about PACOM headquarters in terms 
of staffing levels over the last 20 years or so, reductions you 
have taken or are about to be applied in light of the 
challenges you face, including a hostile North Korea, a rising 
China, Russia, and ISIS in your AOR? How will actual and 
proposed staffing reductions impact PACOM's ability to succeed 
with all of the challenges you face?
    Admiral Harris. Yes, ma'am. Over the past 40 years, PACOM 
has averaged less than 800 personnel, and that is officers, 
enlisted personnel, and DOD civilians. We have been pretty 
consistent over 40 years at that level, and PACOM is the 
largest geographic combatant command with one of the smallest 
staffs.
    That said, I think we all should seek efficiencies where we 
can, but I am not supportive of the idea of salami slicing 
either. Across that 40 years of staff manning levels at PACOM, 
the threat has increased because in that intervening 40 years, 
we do not have a bipolar world anymore. We have the threats I 
talked about in my testimony, China, Russia, North Korea, and 
ISIS. I continue to--and my staff--we continue to work closely 
with OSD, Office of the Secretary of Defense, and the Joint 
Staff on our manning levels.
    Senator Hirono. I would like for us to be very cognizant of 
the kind of impacts the across-the-board types of cuts will 
have.
    You have already mentioned--if you do not mind, Mr. 
Chairman, I would like to get to one more question. You have 
already mentioned the support that you have for AFSEA. In your 
written testimony, you state that you have concerns about some 
of the changes made to security cooperation authorities in the 
2017 NDAA. I just wanted to give you an opportunity to tell us 
how these changes could impact the DOD counternarcotic 
interests, national crime programs in the PACOM AOR.
    Admiral Harris. It could potentially, depending on how the 
cuts are actually effected, it could dramatically affect Joint 
Interagency Task Force West, which goes after counternarcotics 
programs.
    I am also concerned about programs like IMET, International 
Military Education and Training, which I think is one of the 
best foreign assistance programs out there because that is 
where we bring foreign bright, up and coming mid-grade officers 
to the United States for senior military education for a year 
at a time with their families, and they get immersed in 
American culture, ideas and living in an environment where we 
practice daily civilian control of the military. I think it is 
important that we fund these programs, and I am concerned if 
those programs were to be cut.
    Senator Hirono. Thank you for that.
    Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, Senator Rounds, 
please.
    Senator Rounds. Thank you, sir.
    Admiral, first of all, thank you for your service to our 
country. I think the first time that we met was in Hawaii. I 
was on Senator Inhofe's CODEL with him. Your briefing to our 
CODEL that day was alarming, to say the least, and an eye-
opening with regard to the breadth, the scope, the size of the 
area in which your team was responsible for the security not 
just of our forces but in conjunction with our allies as well.
    One item that caught our attention at that time was simply 
the time frame in which to respond to adversarial activity. I 
would like to talk about some of the newer technologies that 
are being employed or that may be very well employed in the 
near future. In particular, when we talk about the unique 
problem set that you have got there, the trifecta of few land-
based areas from which to operate extreme distances, some of 
the most challenging and contested environments to operate in, 
I believe the deterrence value of long-range strike to hold 
targets at risk, targets that are quickly becoming harder and 
harder to access, what are your thoughts on the possibility of 
a conventional warhead variant of the proposed long-range 
stand-off weapon?
    Admiral Harris. So, Senator, I think that we are going to 
have to look at that in terms of INF because currently that is 
the law, that is the treaty that we follow if you are talking a 
land-based capability. We are not limited in air and surface 
launch.
    Senator Rounds. Thinking about air-launched----
    Admiral Harris. I think we should explore all of that 
because more capability against the threats we face is what is 
needed in the Pacific Command.
    Senator Rounds. What about with regard to hypersonics? 
Right now I think in open source documents, there is some 
pretty clear evidence that both Russia and China have been 
looking at hypersonics, the ability to deliver weapons at mach 
5.0.
    Admiral Harris. I have to be careful when I talk 
hypersonics in an open hearing. I am concerned about Chinese 
and Russian hypersonic weapons development, and I have 
expressed those concerns in the right places.
    Senator Rounds. Is this an area where perhaps our own 
technology development needs to be reviewed in terms of our 
ability to respond to those possible threats?
    Admiral Harris. I think that we must improve our ability to 
defend against and conduct--defend against hypersonic weapons 
and develop our own hypersonic weapons. Again, in the 
development of hypersonic weapons, offensive hypersonic 
weapons, we are going to run up against treaty restrictions.
    Senator Rounds. We have been talking now about some unique 
types of new weapon developments, both ours and theirs. At the 
same time when we talk about readiness, it seems that we get 
caught up and we assume that we are simply being able to 
maintain the readiness that is necessary.
    I would like to give you an opportunity to talk a little 
bit about perhaps our lack of readiness in some areas. In 
particular, I am thinking right now, as an example, every time 
we get together with a team of experts such as yourself, we 
hear some perhaps horror stories about the inability to even 
take care of some of our existing assets. In particular, I am 
going to draw attention to the fact that we have got the USS 
Boise sitting at port, not in depot but at port. Here is a 
nuclear-powered submarine, which is not operational at this 
time, and I understand that there are two other boats in the 
same category.
    Can you give us any anecdotal or additional information on 
other areas in which you have seen or have been frustrated by 
our inability to maintain the readiness necessary for you to do 
your mission?
    Admiral Harris. That is one of the issues that fall into 
the service chiefs bailiwicks, if you will. Their 
responsibility is to man, train, and equip the force for use by 
the combatant commanders and meeting the national command 
authority's responsibilities. I too share your concerns when I 
look across the enterprise, not just at the Navy but across the 
enterprise, at shortfalls in follow-on force and surge force 
readiness.
    Senator Rounds. Are you prepared to give us any examples?
    Admiral Harris. No, sir, not in this hearing.
    Senator Rounds. All right. Thank you, sir.
    Admiral Harris. Thank you, sir.
    Senator Rounds. Once again, thank you for your service, 
sir.
    Admiral Harris. Yes, sir.
    Senator Reed. Thank you.
    On behalf of the chairman, let me recognize Senator 
Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Admiral, thank you so much for your service to the country.
    When we were home here in the Senate working in our States 
was when this developed with the aircraft carrier. Based on the 
words of the President and Secretary Mattis, I spent that time 
in meeting after meeting with people in Indiana telling them 
how serious we take this North Korea situation and telling them 
we take it so serious that we have our aircraft carrier, the 
Carl Vinson, heading to North Korea right now. It turned out 
that was wrong. I felt misled and I think my constituents were 
misled as well.
    What I do not understand is that when those comments were 
made, how nobody said anything that, hey, this is wrong. This 
is not correct. My question is how do we make sure this does 
not happen again. I know other members asked about this as 
well. I do not want to be in a position of having the people in 
my State think one thing and the reality is something else when 
we all take a pledge that we will speak truth to power, that if 
we see something that is not correct, we will tell people. We 
will let them know. You know, I have a great concern about 
that.
    Admiral Harris. Sir, I cannot say I am sorry enough, but I 
will try----
    Senator Donnelly. No. I am not asking you to say you are 
sorry.
    Admiral Harris. I am accountable for and responsible for 
the messaging that came out of that Carl Vinson issue. At the 
end of the day, what we said was the Carl Vinson was leaving 
Singapore, truncating its exercise, canceling its port visit, 
and heading to Northeast Asia. That is where it is today. It is 
within striking range of North Korea if the President were to 
call on it.
    Now, that messaging was not done well, and that messaging 
is on me.
    Senator Donnelly. Actually it was--we heard the President 
and Secretary Mattis say exercises are being canceled. It is 
heading to North Korea right now. Some day I am going to the 
cemetery. I hope it is not next week. I hope it is not next 
year, but at some point I am going to the cemetery. I would say 
I am going to the cemetery. That is technically correct. I just 
want to make sure that the information I give to the people in 
my State is accurate, and if you can make sure, if you see 
something that you look at and you go, look, this really seems 
sideways, that it be communicated right away so that the people 
of this country actually know what is going on and our allies 
know what is going on.
    Have you seen any sanctions against North Korea that have 
worked or that have slowed down Kim Jong-un's efforts?
    Admiral Harris. None.
    Senator Donnelly. None.
    Have you seen in the last month or the last couple of 
months Kim Jong-un slow down his efforts to achieve his goals 
of mating up the nuclear warhead with missiles?
    Admiral Harris. I have not seen anything in the last--since 
I have been at Pacific Command. In the last month, though, 
since President Trump and President Xi got together and 
President Xi and China seemed to be more willing to exercise 
their influence on North Korea, North Korea has not done any of 
the testing that Senator Sullivan showed on his graph, the bad 
testing, the nuclear test or ICBM testing. I think it is early 
days yet to draw a direct correlation. I think we are going to 
have to wait and see and give President Xi and China a chance, 
assuming that in that interim period, Kim Jong-un does not do a 
nuclear test or an ICBM test or something like that.
    Senator Donnelly. What is your understanding--and by that I 
mean PACOM's understanding--of China's biggest influence point 
pushing back against North Korea where North Korea will pay 
attention?
    Admiral Harris. Where China's?
    Senator Donnelly. Where China's biggest strength to slow 
down North Korea and their efforts is.
    Admiral Harris. I think their biggest strength in doing 
that is economic. Eighty percent of North Korea's economy is 
China-based. 80 percent. I think China has a powerful lever to 
apply on North Korea. From China's perspective, you know, they 
are concerned about two things. They are concerned about a 
unified Korean Peninsula that is aligned with the United 
States, and they are worried about refugees, should North Korea 
collapse precipitously.
    Senator Donnelly. The time went by so fast. I have a 
million more questions for you, but I will only ask one more 
and that is the rules of engagement for our ships. Are any of 
our ships sailing solo right now near North Korean waters? If 
so, do we have a plan that if they are intercepted or engaged, 
that we have air cover for them immediately, that we have 
fellow ships coming by immediately so that they are protected 
and we do not have another Pueblo type situation?
    Admiral Harris. That is a great question. All of our ships 
that are operating in the Sea of Japan east sea area operate 
under standing rules of engagement. They have what they need in 
my opinion and belief to defend themselves.
    Senator Donnelly. Thank you. Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, Senator Perdue, 
please.
    Senator Perdue. Thank you, Mr. Chairman.
    Admiral, thank you and thank you for all the men and women 
in your theater.
    You know, since the Barbary pirates and our first spy 
frigates, the United States has always dealt with our foreign 
policy and our national interest from a position of strength. I 
am very concerned, as we sit here today, that we are in the 
middle of a paradigm shift relative to the other super powers.
    In your mind since 2000, China has spent or is spending 
today approximately six times more on their military. These are 
constant dollars, 2016 dollars. Is that directionally correct 
in your mind, about six times compared to just 15 years ago?
    Admiral Harris. Probably, sir, but I do not have the data. 
I have sent the curve, and the curve is dramatic in the amount 
of defense spending that they are doing based on just what they 
tell us and they are probably spending higher.
    Senator Perdue. Well, that is what I want to get to. The 
Stockholm International Peace Research Institute--and I believe 
that China is spending more than even these numbers reveal. 
That is an 11 percent compound annual growth rate just since 
2000.
    Here is the real problem. In 2017, they are going to spend 
about $240 billion, but adjusting for purchase power parity, in 
real terms, apples to apples to the United States, that is $826 
billion compared to our $630 billion. Directionally would you 
think that is reasonable to look at it that way?
    Admiral Harris. I think it would be. We have looked at 
purchasing power parity in a general sense with regard to 
China, and they reached that purchasing power parity point 
already in comparison with the United States.
    Senator Perdue. I lived over there. I have manufactured 
over there. I have sold over there. When you adjust the 
currency and the ability that they have to buy their weapons 
and their systems cheaper than we are and I look at the 
developments just this year--you know, you educated me a year 
or so ago about their DF-26, the carrier killer, the first 
aircraft was coming online this year, the fact that 95 percent 
of their missiles violate the INF Treaty, and that they far 
outrange our capabilities today. Would you say today, sir, that 
China is on parity with the United States military capability 
in the Pacific region?
    Admiral Harris. I would not in terms of our asymmetric 
advantages and the quality of our equipment and our people. 
That said, quantity has a quality all its own, and they are 
swiftly moving to exceed the United States in terms of numbers 
of ships and submarines and aircraft and the like, so we have 
to continue to work and resource those asymmetric advantages 
that we have. Certainly China is trying to close that gap in 
every regime.
    Senator Perdue. Within the next five years, if you continue 
that trajectory, there is every reason to believe on a 
purchasing power parity basis that they will actually double 
the amount of investment that we have in the military. That is 
just a projection.
    What I am concerned about is this. Independent of the 
money, I believe we have a supply chain war. You have talked 
about it today. It takes us much longer. It is much more 
expensive. We have many more regulations to go through. Tell us 
what we can do to help you as a combatant commander compete in 
the supply chain war that you have to deal with as well. Your 
quote here today is I do not have what I need today against the 
current threats. We know that their threats are only going to 
increase geometrically over the next 5 to 10 years. I believe 
they have got a 2025 strategy, and I am very concerned. You 
have talked about that as well. Tell us what we can do to help 
you, sir.
    Admiral Harris. Senator, I think that the best thing that 
the Congress can do to help me today is end sequestration and 
give us a budget.
    Senator Perdue. When you look at the China strategy in the 
Southeast Asia region, particularly in the South China Sea, it 
is pretty easy. You have said they militarized it. I agree with 
that. What are there intentions for that outer ring of islands? 
It looks like the next level of national interest--I am talking 
about Marianas and Guam, all the way to Palau in that area. 
Have you see any indications now that they have sights on those 
as well?
    Admiral Harris. Not indications like what we are seeing in 
the South China Sea where they are doing land reclamation 
activities and that kind of stuff, island building. They are 
working to influence countries in that region, small island 
nations, economically to bring them in line with their world 
view.
    Senator Perdue. Two last questions real quick. Are you 
concerned about the PLA's recent reorganization? Then also the 
Russia-China cooperation is at a higher level now than it has 
been in 30 years. Are you concerned about those two 
developments?
    Admiral Harris. I am concerned about the former, which is 
the PLA's reorganization into joint theater commands. We went 
through a period of joint integration, if you will, as a result 
of the Goldwater-Nichols Act in the late 1980s--mid 1980s. 
Since then I think we have become a much more effective joint 
fighting force across our military. I think China is learning 
from that. They watch it, they study. They are going to this 
theater joint combined command structure. I think that will 
make them better. It certainly made us better. I worry about 
that.
    Then your second question?
    Senator Perdue. The Russia-China cooperation, their 
military cooperation.
    Admiral Harris. I think that is more temporary because they 
need each other right now more than anything else. I would not 
be concerned about a long-term alliance with Russia and China 
if history is a guide.
    Senator Perdue. Thank you, sir.
    Admiral Harris. Thank you.
    Senator Reed. On behalf of the chairman, Senator 
Blumenthal, please.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, sir, for being with us again, and thank you to 
you and the men and women under your command for their 
extraordinary service to our Nation.
    When you were here last year, you told me that you were 
concerned about Russian and Chinese undersea warfare 
capabilities, specifically their modernized submarines. You 
noted, number one, the Russians took no break from developing 
submarine capability following the Cold War and they have 
ballistic missile submarines now in their force fleet in the 
Pacific. Number two, the Chinese are building a new class of 
such submarines that may have the capability to threaten us. 
You also told us that your submarine requirement in PACOM still 
has not been met.
    In your testimony this year, you mentioned a second 
ballistic missile submarine in the Pacific and the Russians 
plan to build and send six new attack submarines to the Pacific 
by 2021. You state--I am quoting--``Potential adversary 
submarine activity has tripled from 2008 levels--tripled--
requiring a corresponding increase of U.S. activity to maintain 
undersea superiority.''
    You, I think, support the Navy's 2016 force structure 
assessment which calls for an increase from 48 to 66 attack 
submarines as part of a larger 355-ship Navy. In February, 
Acting Secretary of the Navy Sean Stackley submitted to 
Secretary Mattis an accelerated fleet plan which supports three 
additional Virginia submarines, one more in fiscal year 2021, 
fiscal year 2022, and fiscal year 2023, respectively. Are you 
supportive of this accelerated plan, and do you believe that it 
will give you, give our Nation the necessary capability to 
address these looming and increasing threats from both Russia 
and China in the Pacific?
    Admiral Harris. Sure, sir. I am completely supportive of 
the plan, and I am completely supportive of the effort to move 
to the left construction of these Virginia-class submarines. 
They will clearly increase our Nation's capability and, if 
assigned to PACOM, PACOM's capability. Three or four are 
inadequate in the grand scheme based simply on my requirements, 
which have to be adjudicated with the requirements of all the 
other combatant commands who have legitimate needs for 
submarines in their regions as well.
    Senator Blumenthal. Can you give us an assessment of our 
adversaries' anti-submarine warfare capability?
    Admiral Harris. Today the U.S. reigns supreme in the 
undersea realm and in anti-submarine warfare. Our adversaries, 
particularly China and Russia, are closing that gap because 
they understand that the gap exists and they are working to 
reduce our asymmetric advantage. I think that we have to 
continue to keep that advantage. I do not want it to be a fair 
fight if we have to go into a fight with these folks. That 
means that we have to continue to resource the development and 
to continue development of our undersea capability and our 
anti-submarine warfare capabilities.
    Senator Blumenthal. Does North Korea have significant anti-
submarine warfare capability?
    Admiral Harris. They do not.
    Senator Blumenthal. Are they developing that capability?
    Admiral Harris. They are working on it. They are trying. 
They have submarines. They have a lot of them, a lot smaller 
submarines. They are diesels. They have an SSB which is a 
ballistic missile capable diesel submarine. They recognize the 
advantages and what the submarine gives them in terms of 
warfighting, but they are a long way from developing a 
submarine force that is comparable to any other country that we 
talk about in the region.
    Senator Blumenthal. On the F-35, in your testimony you 
note, ``the forward stationing and deployment of the fifth 
generation airframes to the region continues to be a priority 
for your command.'' Do you continue to believe that the F-35 is 
necessary in that part of the world for the defense of our 
allies? Japan is going to be acquiring them and others.
    Admiral Harris. Senator, I believe that the F-35 is 
critical most in PACOM than any other region of the world 
because of the threat that we face and what the F-35 brings to 
the fight. The F-22's also from Hawaii and Alaska. Those fifth 
generation fighters will allow us to get inside the A2/AD, area 
denial/area defense, capabilities of our adversaries, 
particularly China and the region. We are going to need fifth 
generation fighters to get in there, and they provide that.
    Senator Blumenthal. Thank you very much, Admiral. Thanks 
for your great work at PACOM and throughout your career. Thank 
you.
    Senator Reed. On behalf of the chairman, Senator Graham, 
please.
    Senator Graham. Thank you.
    Admiral, I want to echo that, to thank you for your service 
and all those who are with you here today and in your command.
    Is China's activity in the South China Sea, in terms of 
militarizing the region, getting better or worse or about the 
same?
    Admiral Harris. I am not sure what better means, but they 
are militarizing more now than they were last year.
    Senator Graham. I would say that is worse.
    Admiral Harris. From our perspective, that is worse.
    Senator Graham. Did they understand that we are serious 
about that is a bad thing?
    Admiral Harris. I believe they are.
    Senator Graham. They apparently do not care.
    Admiral Harris. To date.
    Senator Graham. How do we make them care?
    Admiral Harris. I think we have to demonstrate credible 
combat power on the one hand and powerful diplomacy on the 
other.
    Senator Graham. Is it fair to say that unless something 
changes, North Korea is likely to have an ICBM with a nuclear 
warhead that can reach America by 2020?
    Admiral Harris. I do not want to put a timeline on that, 
sir, in this hearing. It is safe to say that they will have one 
soon. They will match rhetoric to capabilities.
    Senator Graham. Okay, great.
    Why do they want that missile?
    Admiral Harris. I beg your pardon?
    Senator Graham. What is the purpose of having that missile?
    Admiral Harris. One, they want to be recognized as a 
nuclear power, and two, they want to ensure their survival.
    Senator Graham. In their mind, it is an insurance policy?
    Admiral Harris. Partly.
    Senator Graham. From an American point of view, what kind 
of threat does that present to us?
    Admiral Harris. It presents today, even though I do not 
believe they have the full capability today, they threaten the 
28,000 American troops in South Korea plus their families, 
55,000 American troops plus their families in Japan, our South 
Korean and Japanese allies and----
    Senator Graham. What about the Homeland? If they get an 
ICBM with a nuclear weapon attached, what kind of threat do you 
see at the Homeland?
    Admiral Harris. Depending on the nuclear weapon, depending 
on the missile, it could reach the eastern seaboard. They could 
reach us right here in this building.
    Senator Graham. Is it fair to say that is what they want to 
do in the western part of the United States? California is 
probably an easier target initially.
    Admiral Harris. I believe they want to be able to threaten 
the United States.
    Senator Graham. Well, what kind of threat would that be to 
us? That would be a bad thing. Right?
    Admiral Harris. That would be a terrible thing, sir.
    Senator Graham. Do you believe it should be the policy of 
the United States never to let that happen?
    Admiral Harris. I beg your pardon?
    Senator Graham. It should be the policy of the United 
States to never allow North Korea to develop an ICBM with a 
warhead that could hit America.
    Admiral Harris. I believe that is correct.
    Senator Graham. Do you believe that the only way they will 
change that policy--their desire--is if they believe that the 
regime could be taken down by us if they continue to develop an 
ICBM? Without credible military threat in the mind of North 
Koreans, they are going to plow ahead.
    Admiral Harris. I believe that generally, but I believe 
that China might be able to exert its influence.
    Senator Graham. Do you believe China could change North 
Korea's behavior absent a belief by North Korea that we would 
use military force to stop their ICBM program?
    Admiral Harris. I do not.
    Senator Graham. Do you believe that China would act 
stronger and more bold if they believed credible military force 
was on the table to stop North Korea?
    Admiral Harris. I do.
    Senator Graham. It seems to me that the policy of the 
United States, given the Admiral's advice--and you are really 
good at what you do--that we should all agree that it is not 
good for America for North Korea to have an ICBM with a warhead 
attached, and it is really not good for China. Is it?
    Admiral Harris. I believe it is not good for China.
    Senator Graham. Why do they not believe that?
    Admiral Harris. Because they have their own calculus, their 
own----
    Senator Graham. Do you think they are beginning to reshape 
their calculus in light of our reaction to North Korea?
    Admiral Harris. I hope so, but it is early days.
    Senator Graham. In terms of China--leverage on North Korea, 
you said it was substantial.
    Admiral Harris. Their leverage is potentially substantial.
    Senator Graham. The best way to avoid a military conflict 
with North Korea over their missile program is for China to 
wake up North Korea to the reality of what threat that presents 
to North Korea and China. Is that fair to say?
    Admiral Harris. That is fair to say.
    Senator Graham. Is it also fair to say that we do not have 
any intentions of invading North Korea at all? Nobody has told 
you get ready to invade North Korea.
    Admiral Harris. That is not fair to say, sir. I believe the 
President has said that all options are on the table.
    Senator Graham. Yes, but I mean we are not going to just go 
in and take North Korea down.
    Admiral Harris. Sir, I do not want to get into what we 
could or could not do.
    Senator Graham. Well, North Korea thinks we are going to 
invade at any moment. Do you think that is part of our national 
security strategy is without provocation to attack North Korea?
    Admiral Harris. I think North Korea has provided 
provocation already in terms of----
    Senator Graham. Without provocation, it is not our policy 
to attack North Korea.
    Admiral Harris. They have provoked us already, sir.
    Senator Graham. I said but if they stopped it, they do not 
have anything to worry about.
    Admiral Harris. Then we will have to look at it.
    Senator Graham. That is all I am saying.
    Admiral Harris. That is a decision that----
    Senator Graham. If North Korea is listening, none of us 
want to invade your country.
    Senator McCaskill. They are.
    Senator Graham. Okay, well, good.
    Here is the point. All of this military force going that 
way is to deter them from being able to hit us and protect our 
allies. Right?
    Admiral Harris. Right.
    Senator Graham. We are trying to deter them from hurting 
us. We are not sending a bunch of people over there to invade 
their country without provocation. Is that fair to say?
    Admiral Harris. Right.
    Senator Graham. Good. I hope they understand that and I 
hope China understands that. Thank you.
    Admiral Harris. Yes, sir.
    Senator Reed. On behalf of the chairman, Senator McCaskill, 
please.
    Senator McCaskill. Thank you.
    Last year, Admiral, General Scaparrotti testified at this 
hearing that North Korea has one of the largest chemical and 
biological weapons stockpiles and research programs in the 
world. Do you agree with that assessment?
    Admiral Harris. I do.
    Senator McCaskill. Do you believe that the facts that we 
know about the death of the half brother to Kim Jong-un was 
likely assassinated with VX nerve agent?
    Admiral Harris. I do, Senator. That is just based on open 
source reporting.
    Senator McCaskill. Right. We have not confirmed that it was 
used.
    Admiral Harris. I beg your pardon?
    Senator McCaskill. We have not independently confirmed that 
it was used.
    Admiral Harris. I have not seen reporting to reflect that.
    Senator McCaskill. Do you know enough about their delivery 
capabilities of chemical and biological weapons at this point 
to adequately be prepared to defend our allies and our American 
soldiers and families in the surrounding vicinities?
    Admiral Harris. I do not know enough about all of their 
capabilities, including those that we saw or probably saw in 
Malaysia. I think that is part of the readiness calculus that 
we have to go through when we consider the threat from North 
Korea.
    Senator McCaskill. Do you have the appropriate CBRN, which 
is an acronym for the record that is our defense, equipment 
necessary for chemical and biological attacks?
    Admiral Harris. I believe that General Brooks does have 
that for the forces that are in Korea now.
    Senator McCaskill. Okay. What about in Japan?
    Admiral Harris. I cannot speak to that.
    Senator McCaskill. I would love a follow-up on that.
    Admiral Harris. Yes, ma'am.
    Senator McCaskill. You know, we do chem Stuff at Fort 
Leonard Wood in Missouri. It is our biological defense center, 
and I am concerned if they are using nerve agents to kill 
family members, they certainly are not going to hesitate to use 
nerve agents to kill American soldiers and our South Korean 
allies and innocent citizens. I would like to follow up on 
that.
    [The information referred to follows:]

    Admiral Harris. [Deleted.]

    Admiral Harris. You bet.
    Senator McCaskill. Do you think we should deploy THAAD to 
Japan?
    Admiral Harris. I believe that is a decision that Japan is 
going to have to make. I think that Japan should have some kind 
of a system like that, but whether it is THAAD or Aegis Ashore 
or both or some other system, they are going to have to make 
that decision.
    Senator McCaskill. As you know, I had the opportunity to 
take an exhausting tour of all of our anti-ballistic missile 
systems last year, and you kindly hosted us when we were at 
PACOM, but had a chance to be in both South Korea to see 
Patriot systems, understand that THAAD was going in and also, 
obviously, in Guam to observe the THAAD. I just want to make 
sure we know what the needs are in terms of THAAD in light of 
what North Korea is up to.
    Admiral Harris. We work with Japan and describe the 
capability that THAAD would provide that would give them also 
Aegis Ashore and potentially other systems. That will be a 
Japanese decision. It could be----
    Senator McCaskill. We indicated to them that we would be 
cooperative in trying to deploy THAAD to Japan.
    Admiral Harris. Right.
    Senator McCaskill. Okay.
    Admiral Harris. To be clear on that, I have not reached an 
agreement with Japan on deploying THAAD.
    Senator McCaskill. Right.
    Admiral Harris. That is a different issue than your initial 
question, which was should Japan buy THAAD.
    Senator McCaskill. Right.
    Admiral Harris. If they buy it, then it is theirs and it 
relieves me of the burden of having to deploy it and the joint 
force.
    Senator McCaskill. Right.
    Admiral Harris. I think that whole decision, whether they 
buy THAAD or Aegis Ashore or asks us to support them or 
whatever, that is a decision yet to be made.
    Senator McCaskill. It seems to me that the discussion that 
we are trying to have about pressure on China to do the right 
thing, especially in light of what I learned from you in terms 
of China's activities, the militarization in the South China 
Sea, that the more talk we have publicly about THAAD more 
places, I think the more it behooves what I think is our policy 
right now as it relates to North Korea.
    Very quickly. I do not think anybody has touched on what I 
have been really confused by and worried by in light of how 
important the Philippines is to the United States military. 
Could you assess the current situation of the United States-
Philippines relations? Because I know what strategic importance 
those islands have to your capability of defending United 
States of America.
    Admiral Harris. So, ma'am, I believe that we are in a 
reasonably good place in the mil-to-mil space with our forces 
in the Philippines, AFP [Phillipine Armed Forces], if you will. 
We have a range of activities that we continue to do with the 
AFP, including Balikatan, which is the big exercise that kicks 
off next month in May.
    Our EDCA, that is Enhanced Defense Cooperation Agreement--
that is the five Philippine bases that we have agreed with the 
Government of the Philippines to improve in some cases for us 
to use. That is proceeding apace.
    Most importantly, our Special Operations Command folks are 
active in the southern Philippines to combat terrorism in 
conjunction with and in support of the armed forces of the 
Philippines. Our guys are doing the advising and assisting but 
not the direct action. That is the responsibility of the armed 
forces of the Philippines there, and I think that is working.
    Senator McCaskill. Duterte is not having a negative impact 
on the mil-to-mil relationship is what you are telling me.
    Admiral Harris. Yes, ma'am.
    Senator McCaskill. Well, that is reassuring because he kind 
of goes in the category with Kim Jong-un in terms of what the 
hell. Right?
    Admiral Harris. We are in a good place in the mil-to-mil 
space with the Philippines.
    Senator McCaskill. Right. Thank you.
    Chairman McCain [presiding]. Senator King?
    Senator King. Thank you, Mr. Chairman.
    First, sort of parenthetically your exchange with Senator 
Ernst about the importance of innovation, the center of 
innovation in this country is, of course, Silicon Valley and 
those innovative industries that are located in other parts of 
the country. We had testimony a couple months ago that Silicon 
Valley essentially will not deal with the Defense Department 
because of the, I would call it, Byzantine--but that would be 
an insult to the Byzantine Empire--the cumbersome and slow 
process in our procurement. That is an urgent national priority 
in my opinion. I just wanted to echo that conversation.
    The second point I think that is important, all the 
discussion we have had in the last few days about North Korea 
and the last few weeks and months have focused on the ICBM and 
the threat to the Homeland via a missile.
    The other problem that I think deserves attention is that 
North Korea is a serial proliferator of nuclear technology, and 
I think as serious a threat as an ICBM is a nuclear weapon, a 
nuclear warhead in the hold of a tramp steamer sponsored by 
ISIS headed into Miami or the Port of Baltimore. That to me is 
an imminent threat that is almost as dangerous as the ICBM 
threat. That has got to be part of this calculation.
    Here is my question. Historically, the regimes in North 
Korea have gone through these cycles of provocation and rising 
tension and then there has been some negotiation and 
concessions. If this is part of that pattern, what does Kim 
Jong-un want?
    Admiral Harris. So, Senator, I do not think it is any 
longer a part of the pattern of his grandfather and his father. 
As you correctly stated, in the past, they have gone into this 
provocation cycle. I have talked about it a lot in Hawaii where 
there is a provocation, there is a negotiation, and there is a 
concession. It is peaceful for a while, and then the cycle 
starts again. I think Kim Jong un has elevated that to a cycle 
of provocation, provocation, provocation. What he is seeking 
his own independent nuclear deterrent in order to threaten the 
United States and to ensure the continuance of his regime.
    Senator King. To follow up on Senator Graham's questions, 
if you go back to history, this situation that we are in now 
has often been analogized recently to the Cuban Missile Crisis. 
Part of the settlement in that case was we had a military force 
and the threat of military force. We had the blockade, but 
ultimately there was an agreement not to invade Cuba. That was 
part of the agreement that ended up with the missiles coming 
out.
    Is this a moment--if regime preservation is his goal, is 
there a moment where we could enter into those kinds of 
negotiations?
    Admiral Harris. Sir, I do not want to limit the President's 
options as he decides which course of action to take. I will 
simply say that in the Cuban Missile Crisis, the key to that 
was credible combat power that allowed diplomacy to act.
    Senator King. I completely agree.
    Admiral Harris. I believe that my part of this problem set 
is to provide that credible combat power in the face of North 
Korean provocation.
    Senator King. I totally accept that. I understand that the 
Vinson has to be there and all the other capabilities that we 
have, and that is part of this process. I am talking about how 
do we eventually get out of this, and that involves some 
discussion of what is it that is necessary to end this.
    China is a little puzzling to me because we have always 
talked about economic pressure. China has, I agree, total 
pressure ability with regard to North Korea. There is no law 
that says that the missiles that he is developing and the 
nuclear weapons only can go south and east. He is as close to 
Beijing as he is Tokyo. If I were China, I would not want a 
nuclear-armed guy right on my border who could threaten me. It 
seems to me that China really has to start to think about the 
threat that--if he achieves this, suddenly he can threaten 
anybody within 1,000 miles.
    Admiral Harris. I agree with you there.
    Senator King. Finally, we talked about the vulnerability of 
Seoul. As I talk to people in Maine, they are surprised to 
learn that Seoul is about 30 miles from the North Korean border 
from the DMZ and the enormous threat from just artillery. We 
talked about that we do not have any defense for that now.
    Do the technologies that have been developed in conjunction 
with the Israelis, David's Sling and Iron Dome, have any 
relevance in this case?
    Admiral Harris. Sir, I do not know. I am not smart enough 
on that. I will have to get back to you on that.
    Senator King. I would appreciate that because that is a 
technology that has been effective in defending Israel from 
short-range rockets, and perhaps it would be something that 
would change the military calculus.
    [The information referred to follows:]

    Admiral Harris. [Deleted.]

    Admiral Harris. I will get back to you, sir.
    Senator King. Thank you, Admiral.
    Chairman McCain. Well, thank you, Admiral. I think that 
what we are talking about that the North Koreans have is 
rockets, which would not lend itself to Iron Dome defenses.
    These are very difficult and challenging times, and it is 
very fortuitous that you are here before this committee 
particularly after the briefing that we had yesterday at the 
White House. You have been able to give us some of the details 
that only a military commander can provide us with and will 
help us to make judgments.
    I do not think any of us are predicting conflict, and I 
think it would be wrong for us to do that, but I also believe 
that we should make every preparation. Although military 
activity would be a last resort, it is something that we cannot 
completely rule out. I emphasize it would be absolutely, I 
know, this President's last resort.
    You are the tip of the spear, Admiral, and so the fact that 
you will have men and women ready, if called upon, in the 
testimony you have given today is reassuring to this member and 
I believe to the other members of the committee. I know how 
much you look forward to coming back and testifying before this 
committee. I know it is one of the highlights of your time as 
Commander in the Pacific, but this testimony today was 
extremely important and I thank you for taking the time and 
speaking in a very informative and articulate fashion.
    Senator Reed?
    Senator Reed. Mr. Chairman, I concur.
    Once again, Admiral, thank you and make sure you thank the 
men and women under your command.
    Chairman McCain. This hearing is adjourned.
    [Whereupon, at 11:48 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Jim Inhofe
                       recent north korea actions
    1. Senator Inhofe. Admiral Harris, how does the recent spike in 
missile and rocket testing by North Korea shape future United States 
plans and requirements on the Korean Peninsula?
    Admiral Harris. [Deleted.]

    2. Senator Inhofe. Admiral Harris, what is your assessment of the 
security challenges East Asia will face if North Korea continues to 
test nuclear weapons and develop longer range ballistic missile 
capabilities in violation of U.N. Security Council resolutions?
    Admiral Harris. [Deleted.]
                      broader asia-pacific region
    3. Senator Inhofe. Admiral Harris, what do you see as United States 
security priorities in the Asia-Pacific region?
    Admiral Harris. USPACOM's first priority is to ensure that the 
United States Homeland, citizens, and critical infrastructure are 
secure from threats and challenges in the Indo-Asia-Pacific region. 
This is accompished by maintaining credible combat power which is 
postured, equipped, and operated in a manner that leaves little doubt 
in adversaries' minds that the U.S. will defeat them should deterrence 
fail. We closely synchronize with USSTRATCOM and USNORTHCOM. Our second 
priority is to be ready to fight tonight. This is accomplished in all 
domains by maintaining high states of materiel and training readiness, 
the presence of power projection capabilities forward in the theater, 
and joint force resiliency generated by the dispersement of our 
capabilities and the decisive aggregation of effects. Our third 
priority is to lead the national focus on the Indo-Asia-Pacific region. 
Resident within this region are the 4 potential adversaries (China, 
North Korea, Russia, and ISIS) that we will either fight tonight or who 
currently represent the greatest, long term existential threats to the 
United States. Only the continuous presence of the United States, by, 
with, and through our allies and partners for the last 70 years has 
kept the Indo-Asia-Pacific region from devolving into major regional 
conflict. Our fourth priority is to have unity of purpose. Unity of 
purpose will be attained by accomplishing the ends specified by the 
National Security Strategy, the National Defense Strategy, and the 
Global Employment of the Force through the execution of the USPACOM 
Theater Strategy, the Theater Campaign Plan, and the Theater Campaign 
Order. This method specifically aligns policies, plans, programs, and 
processes, up and down the chain of command. Our approach to the above 
is based on partnership, presence, and military readiness. USPACOM 
recognizes the global significance of the Indo-Asia-Pacific region, and 
understands that challenges are best met together. Therefore, we will 
remain an engaged and trusted ally and partner, committed to preserving 
the security, stability, and freedom necessary for enduring regional 
prosperity. We will collaborate with the Services and other combatant 
commands to achieve our mission. We must communicate effectively to 
convey our intent and resolve through clearly aligned words and 
actions. We must synchronize externally to achieve unity of effort 
within the Department of Defense (DOD) and the Interagency to enhance 
the effectiveness of our strategic approach, which consists of four 
core elements: Maintain credible combat power and work with the 
Services and DOD to build the right force of the future. Maintain a 
network of like-minded allies and partners to cultivate principled 
security networks which reinforce the rules-based international order. 
Continue to fly, sail, and operate wherever international law allows 
and encourage others to do the same. Be ready to counter the coercive 
actions of regional competitors. Counter transnational threats and 
challenges, including terrorism and illegal/illicit trafficking, and be 
ready to respond to natural disasters.

    4. Senator Inhofe. Admiral Harris, how would you prioritize the 
challenges and threats in the region?
    Admiral Harris. In the near-term, North Korea represents a clear 
danger to regional peace and stability, and remains the most dangerous 
and unpredictable state in the Indo-Asia-Pacific. Pyongyang shows no 
willingness to seriously discuss denuclearization, and I assess that 
Kim Jong-un (KJU) will never do so. He is committed to developing 
nuclear weapons and the technology to make them small enough to 
effectively threaten the U.S. KJU declared in his New Year's address 
that he would test an intercontinental ballistic missle (ICBM) capable 
of reaching the U.S. mainland. We witnessed KJU's apparent successful 
ICBM test launch on July 3, 2017; and although it was not capable of 
reaching the U.S. mainland, it could have reached the state of Alaska. 
For the longer-term, China will be the United States primary strategic 
competitor. China continues to rapidly transform its military into a 
high-tech force capable of regional dominance, with a growing ability 
to support China's desire for global reach and influence. The People's 
Liberation Army implemented an extensive reorganization, which included 
the creation of geographic Theater Commands, each organized and 
equipped for specific regional contingencies. With significant 
investments in advanced military systems, along with unresolved 
territorial and resource disputes, a continued lack of transparency on 
China's strategic intent has many nations in the region concerned about 
future Chinese actions. China is also using its economic power to 
expand its regional and global influence and to weaken United States 
ties with Indo-Asia-Pacific nations. The most significant example of 
this approach is the ambitious ``One Belt, One Road'' initiative, wich 
is China's effort to expand through influence throughout Eurasia and 
across the Pacific and Indian Oceans. Russia's military and political 
commitment to the Indo-Asia-Pacific also continued to grow over the 
past year and it remains an existential threat to the United States. 
The Russian Pacific Fleet has stepped up deployments to promote Russian 
influence throughout the region, to include visits to traditional 
United States allies such as the Philippines. Military forces in the 
Eastern Military District are being modernized after decades of 
neglect. Finally, the Indo-Asia-Pacific is seeing a rise in extremist 
violence inspired, and in some areas supported, by the Islamic State of 
Iraq and Syria (ISIS) in the Philippines, Bangladesh, Indonesia, and 
Malaysia. The recent ISIS-Philippines occupation of the Islamic City of 
Marawi in Mindanao points to the scale of the ISIS threat in the 
region.

    5. Senator Inhofe. Admiral Harris, what more do we need to do to 
regarding our alliances and partnerships in the region?
    Admiral Harris. [Deleted.]

    6. Senator Inhofe. Admiral Harris, are our alliances and 
partnerships on solid footing or do we have reason to be concerned?
    Admiral Harris. I would characterize our alliances with Australia, 
Japan, and ROK as ``solid''; our alliance with Philippines as 
``stable''; and our alliance with Thailand as ``needs work.'' I believe 
our partnerships with India, New Zealand, Singapore, Indonesia, 
Malaysia, and Vietnam are solid. That said, in all cases, we must 
actively nurture and strengthen them. The behavior of North Korea, 
China, and Russia, and the growth of Violent Extremist Organizations 
such as ISIS, are cause for concern for all nations in the Indo-Asia-
Pacific region. These challenges drive our long-standing alliances and 
partnerships closer and present opportunities for stronger security 
cooperation with countries such as Vietnam, India, Indonesia, Malaysia, 
and Sri Lanka. Our alliance with Australia is an anchor of peace and 
stability in the region and globally. We rely heavily on Australia for 
its leadership and advanced military capabilities across all 
warfighting domains. This year marks the 75th anniversary of the battle 
of Coral Sea, as well as the 99th anniversary of World War I's Battle 
of Hamel--the first time the United States and Australia fought 
together and the first time United States troops fought under foreign 
command. No other nation has fought alongside the United States more in 
the 20th and 21st Centuries than Australia. High-level engagements in 
New York in May (POTUS and Australian Prime Minister), and Sydney in 
June (Secretary of Defense, Secretary of State, Chairman of the Joint 
Chiefs of Staff, and me with our counterparts), exhibit the continued 
bond between our two countries. The United States-Japan alliance is a 
principal source of strength in the region and globally, with Japan a 
strong partner in our efforts to pressure North Korea to abandon its 
nuclear ambitions, and in our efforts to improve Chinese behavior in 
the region. I believe the senior leader engagements between Japan and 
the U.S. over the last few months, as evident in President Trump's and 
Prime Minister Abe's recent meetings at the G20, Secretary Mattis' 
visit to Japan in February (his first overseas trip as SecDef), 
SecDef's phone calls with Defense Minister Inada following North Korean 
provocations, and my meetings with Prime Minister Abe, Foreign Minister 
Kishida, and Defense Minister Inada in May 2017, clearly demonstrate 
the commitment our nations have in maintaining regional, as well as 
global, peace and security. I look forward to increased cooperation and 
information sharing among the United States-Japan-ROK trilateral 
partnership, and I see great potential for a future United States-
Japan-Australia-India quadrilateral partnership. The United States-
Republic of Korea (ROK) alliance remains ironclad. North Korea 
continues to present a clear and dangerous threat to the United States, 
the ROK, and Japan, and I continue to call for more trilateral 
cooperation among our three nations. In the Philippines, while I look 
forward to continued and close cooperation in areas central to both our 
national and security interests, including humanitarian assistance and 
disaster relief, counterterrorism, cyber security, and maritime 
security, the new political leadership there continues to send mixed 
signals about how valuable it views its alliance with us. Our Enhanced 
Defense Cooperation Agreement progress remains on schedule and 
conversations between us and the Philippine Armed Forces (AFP) reassure 
us of their continued commitment to the alliance. We are also assisting 
the AFP in their important counter-terrorism campaign against ISIS in 
the southern Philippines. In February 2017, I reiterated the United 
States commitment to Thailand when I spoke at the opening ceremony of 
Exercise Cobra Gold, the largest multilateral military exercise in 
Southeast Asia. This was the first visit by a PACOM Commander since 
their coup in 2014. Also, as with the Philippines, Thailand is sending 
mixed signals regarding its view of the value of its alliance with the 
United States vis-a-vis China. We will continue to work with Thailand 
to advance prosperity and security for our nations and to encourage 
them to return to a fully functioning democracy as soon as possible, 
but I am concerned about China's growing influence. As I've said 
before, the best way to promote security and healthy civil-military 
relations in Thailand is to engage more, not less, with the Thai 
leadership.

    7. Senator Inhofe. Admiral Harris, are there specific areas or 
countries that need particular focus?
    Admiral Harris. Yes, there are several allies and partners in the 
Indo-Asia-Pacific that require additional focus for different reasons. 
Thailand and Philippines United States military engagement in Thailand, 
especially at the senior leader level, was limited in the wake of the 
2014 coup. Only recently have those engagements returned. Our 
engagement with some components of the Philippine security forces was 
limited as result of human rights abuses by their government's counter-
narcotics campaign. In the voids created by the limited military-to-
military engagement with Thailand and the Philippines, China and Russia 
aggressively worked to fill the security vacuum caused by our absence. 
Both political leaderships in Thailand and the Philippines have sent 
mixed signals about the value they place in their alliances with the 
United States, particularly vis-a-vis China and Russia. In the future, 
changes or cancelations of U.S. military engagements should be 
considered to be amongst the last, rather than the first, reaction to 
bad behavior by the government or national security forces. By 
remaining present and engaged with military partners, the U.S. military 
can be an enduring example of proper conduct for militaries and police 
forces, specifically with respect to compliance with human rights and 
international law. Japan and Republic of Korea (ROK) Japan and the ROK 
are dealing with the increased threat posed by North Korea's rapidly 
advancing missile and nuclear programs. Both countries benefit from 
advanced ballistic missile defense (BMD) foreign military sales and 
assistance, which provides the U.S. an opportunity to build trilateral, 
integrated BMD systems. While the tri-lateral relationship between 
United States-ROK-Japan is improving, there is still mistrust between 
Japan and ROK that limits full intelligence sharing and operational 
interoperability. India USPACOM has designated India a priority line of 
effort. While India continues to position itself to take on more of a 
leadership role in the Indian Ocean region, the U.S. should take the 
opportunity to strengthen the United States-Indian relationship. 
Designating India as a Major Defense Partner is the right step in this 
direction. USPACOM continues to grow the military-to-military 
relationship with the Indian Armed Forces. Taiwan We remain steadfastly 
committed to working with Taiwan and its democratic government to 
provide the defense articles necessary and consistent with the 
obligations set out in the Taiwan Relations Act We stand for the 
peaceful resolution of any issues in a manner acceptable to people on 
both sides of the Taiwan Strait.

    8. Senator Inhofe. Admiral Harris, how is China's resurgence 
affecting our longstanding partnerships and alliances in the region?
    Admiral Harris. From a military standpoint, China's resurgence is 
causing anxiety and concern for our allies and partners in the region. 
In some cases, this anxiety is bringing our alliances and partnerships 
closer, and is opening more opportunities to cooperate with our 
partners in the region, especially those partners with whom we have not 
had a historically strong relationship. However, in other cases, a 
combination of enormous economic pressure by China and uncertainty 
regarding United States commitment to the region weakens our alliances 
and partnerships. These countries are hedging their bets.

    9. Senator Inhofe. Admiral Harris, does North Korea's increasing 
belligerence offer opportunities to develop new or strengthen existing 
alliances in the region?
    Admiral Harris. North Korea's provocations, nuclear tests, and 
recent numerous ballistic missile launches have strengthened our 
alliances with Japan and Republic of Korea (ROK), as well as 
strengthened our relationships with other Indo-Asia-Pacific allies and 
partners. Specifically, North Korea's actions have encouraged more 
United States-Japan-ROK trilateral defense cooperation on Ballistic 
Missile Defense, Maritime Security and Interdiction efforts 
(enforcement of UN Security Council resolutions), and cyber and space 
collaboration in the region. These activities strengthen cooperation 
between our two key allies in Northeast Asia. In October 2016, the 
Chiefs of Defense from Japan, ROK, and the United States held their 
first face-to-face meeting to discuss these ongoing threats from North 
Korea. These trilateral events improve teamwork, readiness, and the 
capability to respond quickly to various situations in the Indo-Asia-
Pacific region, ranging from disaster relief to maritime security 
activities. Any opportunity we have to participate together is a 
tangible symbol of U.S. commitment and reflects a shared interest in 
ensuring a climate for regional stability and security.
                      force posture in the pacific
    10. Senator Inhofe. Admiral Harris, do you believe the United 
States currently has adequate forces and assets in Asia-Pacific to 
mitigate risks and respond to any contingencies that may occur?
    Admiral Harris. [Deleted.]

    11. Senator Inhofe. Admiral Harris, if not, what additional forces 
and assets do you need?
    Admiral Harris. [Deleted.]

    12. Senator Inhofe. Admiral Harris, do you think we need to 
continue to expand and/or harden our facilities to ensure our forward 
forces can survive to operate?
    Admiral Harris. [Deleted.]

    13. Senator Inhofe. Admiral Harris, the United States and our 
allies have missile defense capabilities in theater to include Aegis 
and THAAD. Do we need additional missile defense assets to counter the 
growing North Korean threat?
    Admiral Harris. [Deleted.]
                            south china sea
    14. Senator Inhofe. Admiral Harris, what impact does the deployment 
of Chinese military to include surface-to-air missile system and 
continued Chinese expansion into the South China Sea have on United 
States national security and national security of our partners in the 
region?
    Admiral Harris. China's militarization of its Spratly Island 
outposts provides the Chinese military the ability to detect, track, 
target, and strike United States and allied naval and air forces 
throughout Southeast Asia and eastward beyond the first island chain. 
Chinese surface-to-air missiles and anti-ship cruise missiles, if 
deployed to the Spratly Islands, would greatly increase the risk to my 
forces operating in the South China Sea. Equally concerning is the 
potential impact such a capability would have on China's ability and 
willingness to take assertive action toward our allies and partners in 
the Indo-Asia-Pacific region. China desires to exercise control over 
the entirety of its South China Sea claims, deny operational space to 
the United States military, and compel other South China Sea coastal 
states to relinquish their territorial claims. A fully-militarized 
South China Sea will only serve to enable China to more aggressively 
pursue these ends. In any combat scenario in the East and South China 
Seas against China, I will have to devote assets and resources to knock 
out these outposts to ensure I have freedom of maneuver in the South 
China Sea. More broadly, further deployment of military weapon systems 
to Chinese-claimed features in the Spratly Islands will heighten 
regional tensions, pose a direct challenge to the security interests of 
U.S. regional allies and partners, and increase the risk of military 
conflict in the region. Although all Southeast Asian nations seek to 
avoid a military confrontation with China and seek a peaceful 
settlement of the South China Sea dispute, many Southeast Asian 
nations, particularly those with disputed claims in the South China 
Sea, would likely perceive the presence of advanced Chinese weapon 
systems in disputed regions of the South China Sea as the closing of 
negotiating space. While some may acquiesce in the face of Chinese 
militarization, others will likely seek to militarily strengthen their 
own position vis-a-vis China, thereby increasing the risk of a military 
conflict in the region.

    15. Senator Inhofe. Admiral Harris, what actions do you believe 
might be necessary to stop further build-up in the East and South China 
Seas?
    Admiral Harris. Credible combat power offers the greatest potential 
for meeting the Indo-Asia-Pacific region's complex security issues and 
serves as the USPACOM strategy's main effort. Above all else, it 
enables our ability to win in combat. Strengthening our military 
capacity can successfully deter conflict and coercion, and will enable 
us to respond decisively when needed. Enhancing our force posture and 
persistent presence in the region allows USPACOM to maintain a higher 
pace of training, transits, and operations in the East and South China 
Seas. To achieve these goals, I believe the following actions must be 
taken: Modernization will ensure that effective capabilities exist to 
achieve U.S. objectives. Increases in force laydown will provide 
USPACOM the posture presence needed to assure allies and partners of 
U.S. commitment. Physical presence is the most effective means to deter 
the China from escalation in the East and South China Seas. This is 
accomplished through freedom of navigation operations as well as multi-
lateral and bi-lateral exercises. In order to reverse the erosion of 
the United States advantages against China, the Department of Defense 
must enhance credible combat power by investing in new cutting-edge 
capabilities, deploying our most modern air and maritime capabilities 
forward, and distributing these capabilities more widely across the 
Indo-Asia-Pacific region. Develop effective, low-cost Integrated Air 
and Missile Defense capabilities, both ashore and at sea, to preserve 
our capability to fight and win inside the threat envelope against 
Chinese intermediate range ballistic missile, anti-ship cruise missile, 
and air-launched ballistic missile threats. Operationalize the United 
States-Japan Alliance. The United States-Japan alliance is the center 
of gravity for United States military strategy in the Indo-Asia-
Pacific. The recent United States-Japan Guidelines for Defense 
Cooperation, along with recent revisions to Japan's laws, present an 
unprecedented opportunity for a new level of alliance cooperation that 
can be defined as ``integrated'' as opposed to merely ``coordinated.''

    16. Senator Inhofe. Admiral Harris, what are you thought about the 
``South China Sea Initiative'' that provides authority to build 
maritime security and maritime domain in the South China Sea region, 
through assistance to, and training of, partner nation maritime 
security forces?
    Admiral Harris. [Deleted.]

    17. Senator Inhofe. Admiral Harris, in your written testimony, you 
stated [QUOTE] ``We should cease to be cautious about the language we 
use to describe these activities.'' That ``China has militarized the 
South China Sea through the building of seven military bases on 
artificial islands [ . . . ] in disputed areas.'' What do you mean by 
ceasing to be cautious about the language we use?
    Admiral Harris. Words matter. The United States must cease using 
ambiguous language and actions that allow China to reshape the rules 
based international order. Specifically, in regard to the South China 
Sea, the United States must be clear in both our words and our 
operations that the seven artificial features are not entitled to 
claims of sovereignty and therefore the building and militarization of 
them is not in accordance with international law. Secretary Mattis 
emphasized this point on 2 June 2017 at the Shangri-La Dialogue: ``We 
oppose countries militarizing artificial islands and enforcing 
excessive maritime claims unsupported by international law.'' The 
United States must continue to publicly expose China's vast 
militarization of the seven artificial features and counter the PRC 
narrative that the reclamation is only for search and rescue purposes. 
We must continue to fly, sail, and operate in close proximity of these 
artificial features and overfly these features in accordance with 
international law. We should not refer to them as ``reclaimed.'' China 
created them by destroying the fragile ecosystem and pouring concrete. 
Based on the ruling of the International Tribunal of the Law of the Sea 
(ITLOS), we should also cease referring to China's 9-dash line as ``so 
called''; it is ``illegal,'' pure and simple. Finally, we should cease 
referring to the People's Liberation Army (PLA) as a ``near-peer 
competitor.'' They are a peer competitor in the Indo-Asia-Pacific, and 
I deal with them from that perspective.
                     chinese military modernization
    18. Senator Inhofe. Admiral Harris, why do you believe that China 
is investing so heavily in its military in the last 2 years?
    Admiral Harris. China has clearly stated that it has aspirations to 
be the preeminent regional power as part of its ``China Dream.'' Those 
long-term aspirations are driving China's so-called ``strong military 
dream,'' which envisions a People's Liberation Army (PLA) that 
establishes a global presence and assumes the role of the region's 
preeminent military power before the middle of this century. To this 
end, the PLA is focused on building a military that can fight any 
number of regional conflicts; can project power globally; and perhaps 
most importantly, can directly counter U.S. military power. Achieving 
these goals requires sustained investment and build-up, which is 
precisely what we are seeing from China.

    19. Senator Inhofe. Admiral Harris, what are the strategic 
implications of this more capable Chinese military and nuclear force, 
especially in the context of Chinese provocations in the Asia-Pacific 
region?
    Admiral Harris. A more capable Chinese military and nuclear force 
provide credibility to China's narrative that the United States will 
not stand by our alliances and partnerships. China's belief is that the 
United States would be unwilling to accept the elevated risks that a 
more-capable Chinese military and nuclear force could present during an 
armed conflict. This narrative sows doubt within the leadership of our 
allies and partners, which may make them reconsider their levels of 
cooperation with the United States and China. Previously, many of them 
hedged economic cooperation with China against security cooperation 
with the United States. Now these countries find themselves under 
increasing pressure to abandon security cooperation with the United 
States in favor of security cooperation with China. China has many more 
missiles, ships, and combat aircraft in the Indo-Asia-Pacific than we 
do. Qualitatively, they are not as good as we are. They are not 
globally deployed as are we, as approximately 95 percent of the Chinese 
military operates on mainland China or within the first island chain. 
However, this gives them the advantage of an ``interior lines'' battle 
in East Asia. China, therefore, holds the regional quantitative 
military advantage. The United States presently maintains a qualitative 
advantage in terms of military capabilities, but this is being eroded 
rapidly by China's modernization programs. One example is in the area 
of hypersonic glide vehicles (HGV). China has the most aggressive HGV 
research and development program in the world and is on track to 
develop hypersonic weapons against which the United States has little 
ability to detect, and no capability to engage. Continued increases to 
both the quantity and quality of these advanced weapons systems could 
likely enable China to overcome any qualitative advantages we currently 
enjoy. We must continue to maintain our presence and enhance our 
qualitative military advantages in order to defeat China in any future 
armed conflict. The U.S. must also continue to demonstrate commitment 
and resolve to defend our allies and help our partners. Most, if not 
all, of these countries are already tremendously outmatched by the 
Chinese military. Absent a credible United States commitment to defend 
them, they are likely to yield in the face of increasing Chinese 
military and economic pressure. This would shift the regional security 
order to China's advantage and significantly harm the U.S's position in 
the Indo-Asia-Pacific region.

    20. Senator Inhofe. Admiral Harris, how should the U.S. address 
this development?
    Admiral Harris. By ensuring our own military power is credible. 
China is rapidly building a modern, capable military that appears to 
far exceed its stated defensive purpose or potential military needs. 
China's military modernization is focused on countering the United 
States in the Indo-Asia-Pacific by overcoming our asymmetric 
advantages. To address Chinese military investment and modernization, 
the United States must focus on: Sustaining enhanced U.S. credible 
combat power forward. Assuring our allies and partners of unwavering 
U.S. commitment. Widening the U.S. qualitative military advantage 
relative to China. Increasing the security capacities and capabilities, 
collectively and compatibly, of our allies and partners in the region. 
Ensuring freedom to continually access shared domains and use the 
global commons. Encouraging and facilitating the peaceful resolutions 
of sovereignty disputes. Cooperating with China, as permitted, when our 
shared security interests overlap.
                               __________
              Questions Submitted by Senator Roger Wicker
            counter-artillery defense for republic of korea
    21. Senator Wicker. Admiral Harris, you stated that North Korea 
possesses around 4,000 artillery rounds which could strike the Republic 
of Korea and United States forces stationed there. You also stated that 
Pacific Command lacks a defensive capability to intercept artillery 
barrages. What Department of Defense programs, if any, are developing 
counter-artillery defenses? Is fielding such a capability important to 
execute your warfighting mission on the Korean Peninsula? Is the 
Israeli Iron Dome system effective against artillery? If so, would 
Pacific Command benefit from deploying Iron Dome, or a comparable 
system, on the Peninsula?
    Admiral Harris. [Deleted.]
                               __________
              Questions Submitted by Senator Dan Sullivan
               india's role in maritime domain awareness
    22. Senator Sullivan. Admiral Harris, yesterday, you testified that 
``[India] represents a tremendous opportunity for the United States . . 
. in particular in the mil-to-mil space.'' In addition, you stated that 
you do not have the persistent ISR you need to watch our adversaries. 
In your professional military opinion, would increasing India's 
military capability to project power in the Indian Ocean Region--
particularly through maritime domain awareness systems like advanced 
UAVs [Unmanned Aerial Vehicles] and necessary intelligence-sharing 
agreements--help address your current gap in capability in the Indo-
Pacific?
    Admiral Harris. [Deleted.]

    23. Senator Sullivan. Admiral Harris, given Congress' strong 
support for India--including its designation as a major defense partner 
of the U.S. in last year's NDAA--do you agree that the United States 
should be India's defense partner of choice when it comes to advanced 
UAVs and that surrendering this market to foreign competitors would 
weaken our ability to positively influence regional security trends? In 
your professional military opinion, what are the advantages of 
partnering with India on advanced UAVs?
    Admiral Harris. [Deleted.]
                           kc-46 pacom basing
    24. Senator Sullivan. Admiral Harris, Alaska will have over 100 5th 
Generation aircraft by 2020, including F-22s and F-35As. Given the KC-
46A Pegasus' enhanced capability to carry 114 passengers and 18 pallets 
of cargo--over 3 times more in both categories than a KC-135--it has 
the ability to expedite the deployment of fighter squadrons in response 
to any contingency. Critically, this includes the capability to 
virtually self-deploy fighter squadrons with the maintenance and 
support packages needed to hit the ground running upon arrival in 
theater--providing ``Rapid-Raptor'' like capabilities while freeing up 
logistical resources for other uses. What are the possible strategic, 
operational, and tactical advantages of basing the KC-46A in Alaska?
    Admiral Harris. [Deleted.]

    25. Senator Sullivan. Admiral Harris, as the PACOM commander, if 
the Secretary of the Air Force and Chief of Staff of the Air Force--as 
a part of their strategic basing process--asks for your opinion of a 
preferred basing location of a KC-46A squadron in PACOM based on 
current requirements, in your professional military judgement, what 
would your opinion be and why?
    Admiral Harris. [Deleted.]
                               __________
             Questions Submitted by Senator Luther Strange
                   future of the littoral combat ship
    26. Senator Strange. Admiral Harris, I think your comment in your 
testimony on the importance of Pacific Command are spot on: ``what 
happens in the Indo-Asia-Pacific matters to America, and the region 
needs a strong America just as America needs the region.'' To show 
America's commitment in the PACOM (``pay-com'') AOR (Area of 
Responsibility), we must be present and visible with capable assets 
across more than 100 million square miles. I believe this requirement 
is a major driver behind the results of the Navy's latest force 
structure assessment. Would you agree that a 350 ship Navy, or larger, 
is critical to your mission in the Pacific?
    Admiral Harris. [Deleted.]

    27. Senator Strange. Admiral Harris, growing our Navy to such an 
extent will certainly take many years. Would you also agree that we 
must begin that growth at once?
    Admiral Harris. Yes, I do and I echo ADM Richardson's comments from 
The Future Navy White Paper from May 17, 2017, that ``we need this more 
powerful fleet in the 2020s, not the 2040s.''

    28. Senator Strange. Admiral Harris, I note with pleasure your past 
praise for the very successful deployments of Littoral Combat Ships to 
your AOR. Could you repeat for the committee your ideas about the 
important role this ship class will play in the Indo-Asia-Pacific 
region?
    Admiral Harris. I've gone on record as being a fan of the littoral 
combat ship (LCS) in both of its principal hull designs, and I believe 
that the LCS adds to the whole range of operations and missions that 
USPACOM has in the region, to include peace operations and humanitarian 
assistance. All that said, I have also testified that I want a more 
lethal ``up-gunned'' version of the LCS (including backfill of current 
LCS) to include anti-ship missiles and improved self-defense. I 
appreciate the push from Congress for these needed improvements. Once 
outfitted, these LCS upgrades will allow us to increasingly distribute 
our lethality across the Indo-Asia-Pacific region. I want to 
acknowledge our great friends in Singapore who allow us, on a 
rotational basis, to deploy LCSs to their country. This partnership 
helps us to provide a persistent presence in the South China Sea in 
order to to ``normalize'' operations and reinforce the international 
framework of norms, standards, rules, and law.
                       future of missile defense
    29. Senator Strange. Admiral Harris, I found your testimony on Kim 
Jong-un's determination to obtain a nuclear weapon to be most 
interesting. I'm reminded that the Commander, United States Northern 
Command, General Robinson, testified here that he finds the situation 
in North Korea to be increasingly frightening and that he believes that 
Kim Jong-un has transitioned his father's strategy of instability for 
concessions--a sort of blackmail by nuclear testing--to one of nuclear 
and ballistic missile testing to achieve a program that could act as a 
viable deterrent and perhaps give him a first strike capability. Could 
you elaborate on the dangers associated with this apparent shift in 
strategy; the change in motivation from ``bluster for concessions'' to 
an actual objective of successful attack on the U.S. and our allies?
    Admiral Harris. [Deleted.]

    30. Senator Strange. Admiral Harris, can you comment for the record 
on the validity and urgency of this threat?
    Admiral Harris. [Deleted.]

    31. Senator Strange. Admiral Harris, with the rising tensions with 
North Korea and the proximity of Hawaii as the closest state to PRK, 
could you comment for the record on how you would characterize the 
threat to Hawaii and our current defensive capabilities? You have 
previously cited on record your desire to activate the aegis ashore 
site at PMRF with the Standard 3 Missile in order to enhance our 
defense immediately; and a number of subject matter experts have 
publically shared your views. Has your opinion on this or the urgency 
surrounding the need to activate the site changed?
    Admiral Harris. [Deleted.]

    32. Senator Strange. Admiral Harris, MDA has indicated plans to 
develop a new discrimination radar (HDR-H) in order to enhance defense 
of Hawaii against the North Korean threat. Are you concerned that MDA's 
plan is a new development program, in a remote location which will not 
be operational until 2024 at the earliest? While more and larger 
sensors are always desirable, based on the imminent threat, should we 
be more focused on a near-term defense solution? Would you advocate 
spending resources on leveraging the existing assets (Aegis Ashore, AN/
TPY-2, THAAD) and filling the launchers with additional inventory or 
procuring the new discrimination radar?
    Admiral Harris. [Deleted.]

    33. Senator Strange. Admiral Harris, appreciating Hawaii's unique 
location relative to the threat and the challenges that presents from a 
defense perspective (cruise missiles, ICBMs, Sub-Launched Threats, Air 
Threats), should a new radar for HI be designed as strictly an ICBM 
radar or should it be more multi-functional?
    Admiral Harris. [Deleted.]
                               __________
             Questions Submitted by Senator Lindsey Graham
                                  f-35
    34. Senator Graham. Admiral Harris, earlier this year, Marine 
Fighter Attack Squadron (VMFA) 121 deployed ten short takeoff and 
vertical landing F-35B variants to Iwakuni, Japan. In your view, in the 
face of advancing near-peer threats, how critical is increased presence 
of F-35 for your Area of Operations?
    Admiral Harris. [Deleted.]

    35. Senator Graham. Admiral Harris, it is my understanding that the 
Navy has recently demonstrated a beyond the horizon capability with the 
integration of the F-35 as a node to support Naval Integrated Fire 
Control-Counter Air (NIFC-CA). What is the significance of the 
exercise?
    Admiral Harris. [Deleted.]
                               __________
                Questions Submitted by Senator Jack Reed
    36. Senator Reed. Admiral Harris, in your written testimony you 
made the following statement:
        ``The PLA Rocket Force (PLARF) controls the largest and most 
        diverse missile force in the world, with an inventory of more 
        than 2,000 ballistic and cruise missiles. This fact is 
        significant because the U.S. has no comparable capability due 
        to our adherence to the Intermediate Range Nuclear Forces (INF) 
        Treaty with Russia. (Approximately, 95 percent of the PLARF's 
        missiles would violate the INF if China was a signatory.)''
        The INF treaty covers ballistic and cruise missiles in the 500-
        5500 kilometer range that are launched from ground-based 
        systems, but not missiles launched from aircraft or ships. Our 
        aircraft, which provide a continuous bomber presence from Guam, 
        can launch a range of weapons and missile systems and we are 
        replacing our air launched cruise missile system with the long 
        range stand off weapon with very advanced capabilities. Our 
        ships can launch an array of ballistic and cruise missiles from 
        above and below water, in particular with our SSGN fleet and 
        attack submarines deploying Tomahawk missiles. Likewise, the 
        Department is making a considerable investment it a 
        Conventional Prompt Strike Capability, CPS (formerly 
        Conventional Prompt Global Strike) whether from land or from 
        sea. Finally, the best way to counter a particular capability 
        deployed by the Chinese rocket forces may not be to deploy 
        matching rocket systems.

    Senator Reed. Admiral Harris, given these circumstances, it seems 
that withdrawing or renegotiating the INF treaty with Russia may bring 
marginal benefits in the PACOM AOR but could have devastating effects 
for the EUCOM and CENTCOM AORs. Why should the United States take such 
high risk given all of these assets and our concerns about Russia?
    Admiral Harris, in a March 2017 report to Congress by the U.S. Army 
on the use of ballistic and cruise missile systems that violate the 
current INF Treaty, a Table Top Exercise (TTX) was performed for the 
Western Pacific, which U.S. PACOM and its subordinate elements 
participated in.
    Admiral Harris. I will defer questions concerning the USEUCOM and 
USCENTCOM areas of responsibility (AOR) to General Scaparrotti and 
General Votel, respectively, and speak only to the benefits and risks 
associated with the USPACOM AOR. Russia is expanding the deployment of 
its land-based, advanced anti-ship cruise missile batteries within the 
Indo-Asia-Pacific region and into the Arctic. These land-based, 
advanced anti-ship cruise missiles fall into the ranges banned by the 
Intermediate-Range Nuclear Forces (INF) Treaty. These deployments alone 
provide evidence from the Indo-Asia-Pacific theater that Russia has 
abrogated from the INF Treaty. General Selva, Vice Chairman of the 
Joint Chiefs of Staff, testified to this before Congress last March. 
Other nations will be emboldened to embark upon or expand upon their 
own intermediate range weapons programs and deployments should we not 
compel the Russians to fully return to compliance. In 1987-1988, when 
the INF Treaty was signed and became effective, China and North Korea 
were not the threats to the United States that they are today. The 
uninhibited development and fielding of land-based HGV weapons by 
Russia and China tip the qualitative military advantage quickly into 
their favors. Though the INF Treaty permits sea and air launched 
missiles with ranges between 500km--5,500 km, United States planes and 
ships must come inside the Chinese and Russian anti-access/area denial 
(A2AD) umbrellas to deploy missiles. While the U.S. contends with a 
triple threat (air, land, and sea), our potential adversaries contend 
with only a double threat (air and sea). The lack of land-based weapons 
requires U.S. bombers, ships, and submarines (to include SSGNs) in 
quantities we do not have to assure allies, dissuade potential enemies, 
and respond to crisis. With China and Russia aggressively increasing 
the numbers and capabilities of their air and maritime assets, the 
imbalance will continue to increase and put our nation at greater risk. 
For example, the Navy fulfills 50 percent of my stated submarine 
requirements, and the expected reductions from 52 to 42 submarines will 
further exacerbate the problem. Furthermore, there are only four SSGNs 
in the total U.S. inventory, two of them assigned to USPACOM (i.e., USS 
Ohio SSGN-726 and USS Michigan SSGN-727) and all will be phased out by 
2028 as the Virginia Payload Module is designed to replace the SSGN 
capability. The A2AD umbrellas reduce the costs that the U.S can 
impose, while simultaneously raising the level of risks to U.S forces. 
This imbalance reduces our abilities to deter armed conflict and 
presents significant challenges to U.S. forces, should our competition 
turn lethal. Should the United States prove unsuccessful in getting the 
Russians to return fully to INF Treaty compliance, or stop the 
continued growth of Chinese and North Korean missile programs, then we 
should look at renegotiating the treaty so that we can acquire the 
qualitative, intermediate-range advantages, needed to successfully 
deter future armed conflicts or to defeat adversaries should deterrence 
fail. As it is in 2017, the INF Treaty is unilaterally self-limiting 
for the United States--the Chinese are not obligated to follow it and 
the Russians are ignoring it. To hold onto an outdated treaty is to put 
our forces and citizens at risk.

    37. Senator Reed. Admiral Harris, did U.S. PACOM take into account 
in the TTX a possible combined use of existing SSGNs, attack submarines 
using either a CPS or Tomahawk missiles and / or heavy bombers (B-52, 
B-2 and B-21) using JASSM, JASSM-ER and the existing AGM-86 cruise 
missile or LRSO particularly in contested A2AD environments?
    Admiral Harris. The TTX scenario did include the use of existing 
SSGNs, attack submarines using Tomahawk missiles, and heavy bombers (B-
52 and B-2) using JASSM, JASSM-ER and the existing AGM-86 cruise 
missile in contested anti-access/area denial environments. Conventional 
Prompt Strike (CPS), future bomber platforms, and long range stand-off 
weapons (LRSO) were not included in the study since the scenario's 
operational timeframe was set during 2019-2020. CPS, B-21, and LRSO are 
not projected to be fielded in that timeframe; therefore, they were not 
available for the study team and role players to employ during the TTX.

    38. Senator Reed. Admiral Harris, did U.S. PACOM take into account 
the ability of heavy bomber platforms (current and future) to fully 
load out with the LRSO or even the current version of the cruise 
missile the AGM-86, nuclear or conventional?
    Admiral Harris. [Deleted.]

    39. Senator Reed. Admiral Harris, did U.S. PACOM take into account 
in terms of escalation ladders, the role that our existing nuclear 
deterrent plays, particularly our air and submarine legs?
    Admiral Harris. [Deleted.]

    40. Senator Reed. Admiral Harris, did U.S. PACOM take into account 
the combined escalation control of conventional systems discussed so 
far and our nuclear deterrent for escalation dominance?
    Admiral Harris. [Deleted.]
                               __________
           Questions Submitted by Senator Richard Blumenthal
                                 russia
    41. Senator Blumenthal. Admiral Harris, you indicated that there 
were four separate incidents of Russian long-range combat aircraft last 
week near American airspace off of Alaska. These are the first 
instances of such flights since 2015, and the last time a succession of 
flights like this occurred was in 2014. North American Aerospace 
Defense Command (NORAD) noted the flights were not provocative or 
unprecedented. However, American and Canadian jets were scrambled to 
intercept or to simply monitor these Russian bombers that came from 
eastern Russian. We are not the only country experiencing this 
activity, as Japan has scrambled their fighter jets in response to 
Russian aircraft approaching their coastline. Further, Russian and 
Filipino relations seem to be warming just as American-Filipino 
relations are facing difficult times following President Duterte's rise 
to power. While the United States normally conducts war games with the 
Philippines, this year it will focus on humanitarian exercises, while 
reports note that the Philippines and Russia are considering naval 
cooperation and possible drills that are likely to be further discussed 
when Duterte visits Moscow next month. In you testimony you acknowledge 
that Russia is ``engaged militarily'' in your AOR and that, ``Russia 
continues to exhibit increasingly aggressive behavior, both regionally 
and globally.'' Should we be concerned about Russia's activity in the 
Asia-Pacific? How has it changed in recent years?
    Admiral Harris. Yes, we should be concerned about Russia's 
activities in the Indo-Asia-Pacific. Russia's strategic forces based 
within the Pacific threaten the United States. Additionally, Russia's 
increased activities in the Indo-Asia-Pacific divert resources and 
attention that we, our allies, and partners could otherwise place 
against North Korea, China, and Violent Extremist Organizations. 
Russian activity has changed in recent years in the following ways: 
Increased numbers of improved and new attack and ballistic missile 
submarines Increased numbers of modern surface ships Increased numbers 
of upgraded strategic bombers Increased deployments of advanced anti-
ship cruise missiles batteries, in an anti-area access denial umbrella, 
that extend from the Indo-Asia-Pacific region into the Arctic 
Exploitation of strategic seams emerging within United States 
alliances, such as the Philippines Offers of advanced military sales to 
China Cultivation of their existing military relationships with India, 
Vietnam, and Indonesia Exploitation of sanctions imposed on North Korea 
by both the United States and China.

    42. Senator Blumenthal. Admiral Harris, what is your assessment of 
Russia's interest in the Philippines? What do you think it signifies, 
and how concerned should we be?
    Admiral Harris. [Deleted.]
                               __________
              Questions Submitted by Senator Joe Donnelly
                    conventional prompt strike (cps)
    43. Senator Donnelly. Admiral Harris, it is my understanding that 
PACOM--alongside STRATCOM and EUCOM--has identified the development and 
fielding of a Conventional Prompt Strike system as a high priority. Is 
that correct?
    Admiral Harris. [Deleted.]

    44. Senator Donnelly. Admiral Harris, is the United States leading 
the way in the development of hypersonic glide vehicles--or are we 
behind the curve relative to countries like Russia and China?
    Admiral Harris. [Deleted.]
                               __________
              Questions Submitted by Senator Mazie Hirono
              advances to space and satellite technologies
    45. Senator Hirono. Admiral Harris, we continue to see rapid growth 
in both the commercial and government space sector. What additional 
ways can the DOD leverage the commercial sector capabilities in the 
space and imagery industry? Can Pacific Command benefit from access to 
commercial imagery?
    Admiral Harris. USPACOM uses commercial imagery extensively today. 
During natural disasters, USPACOM relies almost exclusively on 
commercial imagery for comprehensive damage assessments for tactical 
responders, partner nations, and nongovernmental organizations. 
Additionally, USPACOM routinely uses commercial imagery to supplement 
government satellite and airborne collection. As new commercial imagery 
systems are fielded that provide greater revisit, larger area of 
coverage, and more diversity in sensor type, I believe USPACOM will 
benefit from access to the imagery. I'm very interested in any advances 
the commercial industry is making in high revisit and radar satellite 
capabilities; however, this data must be available to USPACOM through 
contract and must be accessible through imagery dissemination 
architectures.

    46. Senator Hirono. Admiral Harris, the Maui Space Surveillance 
Site combines operational satellite tracking facilities with a research 
and development capability. Can you talk about the importance of this 
facility to national security as well as the need to ensure that 
capabilities such as this are modernized to keep up with the ever 
changing threat picture?
    Admiral Harris. [Deleted.]
           united states strategic policy toward asia-pacific
    47. Senator Hirono. Admiral Harris, a panel of Asian-Pacific 
experts testified before the Senate Armed Service Committed on the 
current state of United States policy in the region. The consensus from 
the group is that there is no current coherent, holistic strategy to 
address the region. What advice and recommendations would you give to 
President Trump when attempting to develop an Asia-Pacific Strategy?
    Admiral Harris. Concerning the development of an Indo-Asia-Pacific 
Strategy, I am already providing my advice to the Secretary of Defense 
and Chairman of the Joint Chiefs of Staff. They, in turn, will advise 
the President. My responsibility is to ensure the President has a 
powerful, lethal, and ready military force in the Indo-Asia-Pacific in 
the event the other instruments of national power, specifically 
diplomatic and economic, fail. Russia and China specifically have 
assessed that they can ``out cycle'' the United States whole-of-
government decision making cycle during competition short of armed 
conflict. During competition short of armed conflict, the U.S. military 
is a supporting effort. The U.S. military deters conventional and 
strategic attacks against the Homeland and our allies, and preserves 
freedom of access to the shared spaces. U.S. military actions provide 
the President with the opportunity to bring the instruments of our 
national power--diplomacy, information, and especially economics--into 
the competition. Only this will ultimately maintain United States 
primacy in the Indo-Asia-Pacific region and across the globe. 
Currently, we are competing with Russia and China with the military 
instrument alone in many ways, while the Chinese, especially, compete 
holistically with all the instruments of their national power. This is 
inversely reminiscent of the competition short of armed conflict that 
occurred during the Cold War between the United States and the Soviet 
Union, where the U.S. competed with all the instruments of national 
power for decades and prevailed. Ultimately, across the whole-of-
government, we must acknowledge the existential dangers we face from 
China, Russia, and North Korea; convince the American people of these 
real dangers; and then fully commit our people and our resources 
totally toward winning this competition.

    48. Senator Hirono. Admiral Harris, would you agree that a strong 
United States presence in the Asia-Pacific plays a significant role in 
promoting the security and stability of the region and that any 
strategy should include a strong U.S. presence?
    Admiral Harris. Yes, I wholeheartedly agree that a strong United 
States presence in the Indo-Asia-Pacific plays a significant role in 
promoting the security and stability of the region and that any 
strategy must include a strong United States presence in region. A 
strong U.S. military presence deters conventional and strategic attack 
against the U.S. Homeland, and assures our allies and partners of 
unwavering U.S. commitment. Regional stability and sustained access to 
the shared domains and space preserve the established international 
rules-based order and presents opportunities for the U.S. Government to 
holistically employ the main instruments of U.S. national power--
diplomacy, information, and especially economics.
                       missile defense in hawaii
    49. Senator Hirono. Admiral Harris, with the rising tensions with 
North Korea, how do you characterize the missile threat to the United 
States and our current defensive capabilities? You have previously 
supported operationalizing the Aegis Ashore site at PMRF as a possible 
solution to meet the North Korean missile threat. What are your current 
thoughts on the threat as well as the urgency to bolster our missile 
defense capabilities?
    Admiral Harris. [Deleted.]

    50. Senator Hirono. Admiral Harris, the MDA is considering the 
development of a new discrimination radar (HDR-H) to enhance the 
defense of Hawaii against the North Korean missile threat. This would 
likely be a new acquisition program which might not be available until 
2024. While more and larger sensors are always desirable, based on the 
current threat, should we be more focused on a near-term defense 
solution? What are your thoughts on leveraging existing assets to meet 
the current threat?
    Admiral Harris. [Deleted.]

    51. Senator Hirono. Admiral Harris, Hawaii's unique location 
relative to the threat presents challenges from a defense perspective 
(cruise missiles, ICBMs, Sub-Launched Threats, Air Threats), what are 
the pros and cons of developing a radar to solely identify and track 
ICBM's versus a radar that is more multi-functional?
    Admiral Harris. [Deleted.]
                   united states policy toward china
    52. Senator Hirono. Admiral Harris, President Trump met with 
President Xi Jinping of China about reining in its ally North Korea. He 
stated publically that the United States will act alone if China does 
not take action. In your opinion what is best strategic policy toward 
China?
    Admiral Harris. While the United States and China share common 
interests toward denuclearization on the Korean peninsula, I do not 
believe China is doing all it can do to pressure North Korea to abandon 
its nuclear ambitions. I believe we must continue to communicate our 
concerns to China and call on it to exert its influence and stop 
Pyongyang's unprecedented campaign of nuclear weapons and ballistic 
missile tests. If China continues to support the North Korean regime 
economically and politically, then the United States must increase 
pressure on China to do more. Importantly, I believe we must, across 
the whole of our government, view China for what it is--a competitor of 
the United States Beijing certainly views us through this lens.

    53. Senator Hirono. Admiral Harris, the panel earlier this week 
proposed that the use FONOPS be delegated to you, the CMDR PACOM, 
without the requirement to seek guidance from SECDEF. How important are 
these exercises and what are your thoughts on the proposal to delegate?
    Admiral Harris. The U.S. Freedom of Navigation Program is a whole-
of-government effort to protect long-standing principles of freedom of 
navigation. The program involves both diplomatic and operational 
challenges to protest excessive maritime claims, wherever they occur. 
The Department of Defense maintains a comprehensive freedom of 
navigation operations (FONOPS) program that seeks to methodically 
challenge excessive maritime claims in order to preserve the rights, 
freedoms, and uses of the sea and airspace, guaranteed to all nations 
under international law. Since I report directly to SECDEF, delegation 
of Tier III FONOPS against China without direction or guidance from him 
would be problematic (he has delegated to me lesser Tier FONOPS, 
broadly). That said, I am pleased with the new approach to FONOPS of 
late, with less tactical involvement by the National Security Council 
staff--we are conducting these as a military operation under the 
direction of the SECDEF with broad, overarching guidance from the White 
House.
             importance of diplomacy in asia-pacific region
    54. Senator Hirono. Admiral Harris, President Trump has publically 
stated that he intends to cut the budget at the Department of State by 
37 percent. How would such a cut impact your ability to be successful 
in the Asia-Pacific Theater?
    Admiral Harris. I believe it is vital that we continue to integrate 
our military efforts with the other instruments of national power--
diplomatic, information, and economic initiatives. My staff works 
closely with the Department of State (DOS) to ensure our activities and 
messages are mutually reinforcing. The DOS's Foreign Military Financing 
(FMF) program is one of the more powerful engagement tools that we use 
to meet regional challenges, including border and maritime security 
issues, disaster response, and counterterrorism. The International 
Military Education and Training (IMET) program is critical to our 
efforts to identify and train future leaders and increase 
interoperability in the region. As I have said before, it's in 
America's interests to deepen our diplomacy in the Indo-Asia-Pacific 
region, while backing up peaceful resolution of disputes with 
undisputed, credible combat power.

    55. Senator Hirono. Admiral Harris, State Partnership Programs are 
an important part of our mil-to-mil relationships around the world. How 
would you assess their value in the Asia-Pacific theater and are there 
opportunities for establishing new relationships?
    Admiral Harris. Highly valuable. The State Partnership Program 
(SPP) delivers quality, long lasting relationships and capability with 
partner nations in the Indo-Asia-Pacific region through consistent 
security cooperation engagements. The SPP helps partner nations' 
military and civilian organizations conduct security cooperation in 
ways that resonates well and effectively builds trust. The Indo-Asia-
Pacific would benefit from the expansion of the SPP. Additionally, 
expanding SPP will advance USPACOM's Theater Campaign Plan objectives. 
Nepal, Sri Lanka, and Papua New Guinea (preferably as part of an 
Oceania Collective) are USPACOM's top three priorities for inclusion in 
the SPP.
            relationship with allies in asia-pacific region
    56. Senator Hirono. Admiral Harris, in the missile defense realm 
both Japan and Korea have Aegis equipped ships. Japan has spent a lot 
of capital developing the SM-3 Block II missiles. How can we use on 
mil-to-mil and other cooperative ventures to build stronger 
relationships with our allies?
    Admiral Harris. One of the best ways is to improve the policy 
approval process timelines, especially associated with Foreign Military 
Sales of sophisticated U.S.-made military equipment to our high-end 
allies and partners. Many of them are daunted by our processes and 
therefore turn to other countries as sources for similar technologies. 
Technology release reviews, for example, negatively impact defense 
modernization acquisitions of our closest allies and strategic 
partners. Recent F-16 upgrade requests from Singapore, Indonesia, and 
Thailand have been subject to significant delays pending interagency 
technology release approvals and concessions. Similarly, the sale of 
Missile Technology Control Regime Category I Unmanned Aerial System 
(UAS) entails a ``strong presumption of denial'' for export. The recent 
year-long approval process for the sale of the SeaGuardian UAS to India 
demonstrates the difficulties in providing enhanced capabilities to a 
country we have designated a Major Defense Partner. India is the first 
country, outside of NATO and other treaty allies, for which the United 
States has overcome the strong presumption of denial. That said, 
provisos to the sale have compelled India to seek UAS solutions from 
competing nations like Israel.
                          security cooperation
    57. Senator Hirono. Admiral Harris, you mentioned in your written 
testimony that you have concerns with some of the changes to Security 
Cooperation authorities that were made in the fiscal year 2017 NDAA. 
Can you provide more detail on how those changes may affect the DOD 
counternarcotics programs in the USPACOM AOR and if you have any 
recommendations to improve the program?
    Admiral Harris. The NDAA for Fiscal Year 2017 significantly altered 
the Department of Defense's (DOD) longstanding authority to provide 
counternarcotics (CN)-related support to foreign law enforcement 
agencies. These authorities were previously established in section 1004 
of the fiscal year 1991 NDAA, as amended, and were codified by the 
fiscal year 2017 NDAA in 10 U.S.C. Sec.  284 (counterdrug support to 
law enforcement) and 10 U.S.C. Sec.  333 (training and equipping). 
While these changes expanded some of the authorities in limited 
situations, the majority of the changes have limited Joint Interagency 
Task Force (JIATF) West's ability to conduct operations and 
activities--most significantly impacting training, operational 
flexibility and construction--previously conducted under the old 
authority. There are three significant challenges from this 
legislation: First, the law prohibits the use of DOD's dedicated 
counterdrug appropriation to fund capacity building efforts using the 
authorities under 10 U.S.C. Sec.  333, and eliminates dedicated 
counterdrug capacity building authorities. This dedicated, stable 
funding stream has allowed JIATF West to develop long-term, measurable 
programmatic approaches over multiple years to develop strong 
relationships and build effective partners. These efforts have a 
demonstrable track record in developing capable forces to disrupt drug 
related transnational crime, and help to extend governance to under-
governed areas. The transition of these efforts to an annual 
competition for scarce overall DOD security cooperation resources will 
likely result in less consistent performance from the CN program 
efforts, and diminishes the utility of the DOD CN program as an entree 
for DOD with non-traditional partners. This makes it more difficult to 
address non-traditional and asymmetric challenges in the theater. 
Second, the law requires Congressional notification and a 15-day review 
period for actions taken under 10 U.S.C. Sec.  284. In cases where 
support is provided to foreign law enforcement, Secretary of State 
(SECSTATE) coordination is also required. For activities that are 
directly tied to law enforcement operations, such as providing aerial 
reconnaissance, a 15-day wait period, especially subsequent to the 
coordination requirement, would likely render such support untimely and 
useless. Under this requirement, by the time a USPACOM asset, such as a 
maritime patrol aircraft, could be authorized to deploy, it would no 
longer be useful. Third, previous authority for construction of bases 
of operation to support counterdrug operations was capped at $3 
million. This limit was sufficient to allow construction of remote 
outposts in logistically challenging locations and to expand the 
operational reach of partner nation security forces in under-governed 
areas like the Sulu Sea. 10 U.S.C. Sec.  284, however, lowers the cap 
for construction authority to $750,000. The lower cap will still allow 
for smaller projects like training range improvements, which are useful 
and will continue to be done; however, it is insufficient to help push 
security forces into difficult to reach areas, which is extremely 
useful for improving the overall security and stability in the theater, 
and is at least as important as developing sustainable training 
facilities. Recommendations to address each of these areas are as 
follows: Specifically authorize the Drug Interdiction and Counterdrug 
Activities Defense Appropriation to be used when conducting CN 
activities under Title 10 U.S.C. Chapter 16, including Sec.  333. 
Eliminate the requirement for SECSTATE coordination and Congressional 
notification for tactical support provided under Sec.  284. Raise the 
construction limit under Sec.  284 to the unspecified minor military 
construction threshold (currently $3 million).
                              eagle vision
    58. Senator Hirono. Admiral Harris, Eagle Vision is a system 
operated by the Hawaii Air National Guard and several other units 
around the country and overseas. It has proven to be a valuable 
resource in working with our friends and allies in military exercises 
as well as humanitarian assistance and disaster relief efforts. As a 
combatant commander in a theater filled with allies as well as the 
conditions and potential for a variety of natural disasters, what are 
your thoughts on the importance of systems such as this which can be 
used to work with our allies and assist others in times of need?
    Admiral Harris. Eagle Vision is a very capable, mobile imagery 
system that has been proven in the field and has been quite reliable. 
Most recently, we deployed Eagle Vision to the Philippines in support 
of U.S. Pacific Air Forces' (PACAF) Bilateral Air Component Exchange 
(BACE) program with the Philippines. PACAF and Air National Guard 
members assisted the Philippine government with training on how to task 
and employ commercial imagery in response to Humanitarian Assistance/ 
Disaster Relief (HA/DR) operations as well as tasking for imagery of 
the Spratly Islands. During natural disasters, USPACOM relies almost 
exclusively on commercial imagery to provide comprehensive damage 
assessments to tactical responders, partner nations, and 
nongovernmental organizations. USPACOM's primary source for commercial 
imagery is through the National Geospatial Intelligence Agency 
consolidated imagery dissemination architecture. This architecture 
allows for rapid dissemination of commercial imagery to the 
headquarters as well as tactical forces. During most HA/DR operations, 
USPACOM provides imagery support from garrison, sending annotated 
products forward as needed. In the event of a large scale disaster, 
USPACOM may require a forward based commercial imagery dissemination 
and production capability to which deploying Eagle Vision would be an 
option.
                               __________
             Questions Submitted by Senator Martin Heinrich
              impact of a preemptive strike on north korea
    59. Senator Heinrich. Admiral Harris, there has been speculation 
that the United States may conduct a preemptive strike against North 
Korean launch facilities or nuclear infrastructure. Can you talk about 
what kind of military response that we and our allies could expect from 
North Korea in the event of a preemptive military strike?
    Admiral Harris. [Deleted.]

    60. Senator Heinrich. Admiral Harris, what are the costs and risks 
associated with that decision and what could our allies South Korea and 
Japan expect?
    Admiral Harris. [Deleted.]
             commercial remote sensing satellite providers
    61. Senator Heinrich. Admiral Harris, in response to a question at 
the hearing about intelligence, surveillance and reconnaissance, you 
state: ``I don't have the ability to persistently watch my adversaries 
all over the Indo-Asia Pacific, over half the globe, 24/7. I need it 
24/7. I need it whatever 60 times 24 hours is. I need it that minute by 
minute . . . I probably have a 10th of my requirements that are 
fulfilled.'' There has been a growth in U.S.-based commercial remote 
sensing satellite providers in the past few years. These companies 
offer new capabilities for breadth of coverage and revisit rates for 
overhead satellite imagery, with new companies projected to 
significantly increase the total number of satellites operating in 
orbit providing persistent coverage. Can Pacific Command benefit from 
access to this new imagery?
    Admiral Harris. [Deleted.]

    62. Senator Heinrich. Admiral Harris, have you had experience 
working with any of these new providers?
    Admiral Harris. USPACOM is increasing its use of commercial remote 
sensing products every year as the tasking and delivery mechanisms 
improve timeliness. Through the National Geospatial-Intelligence Agency 
(NGA), USPACOM has access to electro-optical imagery from U.S. 
companies such as Digital Globe who provide imaging from the World View 
and GeoEye electro-optical satellites, and synthetic aperture radar 
imagery (SAR) from foreign companies such as Radarsat (Canada), Cosmo/
Sky Med (Italy), and TerraSAR-X (Germany). Foreign electro-optical 
imaging can be provided by Spot (France). These commercial images are 
particularly useful in humanitarian assistance/disaster response (HA/
DR) support because the imagery is unclassified, allowing us to release 
it to non-governmental organizations and foreign nations. Commercial 
imagery can also be used to fill in collection gaps for areas difficult 
to collect with National Technical Means due to collection competition, 
and also to augment National Technical Means in providing coverage 
persistence over high value targets. The commercial electro-optical 
imagery our analysts receive is outstanding and the quality continues 
to improve.

    63. Senator Heinrich. Admiral Harris, whose responsibility is it to 
make sure you have access to these new sources?
    Admiral Harris. The National Geospatial-Intelligence Agency (NGA) 
maintains the contracts to purchase U.S. and international commercial 
imagery and then to make it available for users via their Geospatial 
Intelligence Library Architecture. Existing commercial imagery can be 
discovered and accessed through NGA's Net-centric Geospatial-
Intelligence Discovery Services (NGDS) on both classified and 
unclassified networks. New collection requirements are coordinated with 
NGA via USPACOM's Joint Intelligence Operations Center (JIOC). The 
collection management team within the USPACOM JIOC will then register 
these requirements through NGA collection management tools on either 
network.
                  counter rocket, artillery and mortar
    64. Senator Heinrich. Admiral Harris, during the hearing you 
repeatedly answered that there is no defense against the thousands of 
rockets, artillery, and mortar rounds from North Korea. In the past 
several years, there have been significant advances in directed energy 
weapon systems including high energy lasers that have been tested at 
White Sands Missile Range and elsewhere and successfully engaged dozens 
of artillery and mortar rounds. How could a low-cost per shot C-RAM 
weapon system with infinite magazine capacity and precision targeting 
contribute to your mission?
    Admiral Harris. [Deleted.]

    65. Senator Heinrich. Admiral Harris, do you believe that directed 
energy weapon systems are a solution that could help fill the 
capability gap against RAM that you face on the Korean peninsula?
    Admiral Harris. [Deleted.]

    66. Senator Heinrich. Admiral Harris, if so, as a combatant 
commander, would you consider submitting a UONS or JUONS for this 
capability?
    Admiral Harris. Yes. I would consider all viable options that would 
expedite the fielding of a capability to deter, disrupt, and if 
required, defeat adversary activities against the United States, 
allies, and partners in the Indo-Asia-Pacific region.
                               __________
            Questions Submitted by Senator Elizabeth Warren
              investment in u.s. research and development
    67. Senator Warren. Admiral Harris, last year, the Department 
reported that China is investing heavily in R&D, including in ``applied 
physics, material science, high performance computing, innovative 
electronics/software development, electro-optics, aerospace technology, 
automation/robotics, high-energy physics, and nanoscience, just to name 
a few.''

    Admiral Harris, would we improve our chances of maintaining future 
superiority over China if we increase our R&D investments in similar 
advanced technologies?
    Admiral Harris. Yes. Our chances of maintaining future superiority 
over China would be improved with increased research and development 
investments. USPACOM partners with DOD-wide organizations, national 
laboratories, and industry to provide innovative solutions to fill 
capability requirements against continually evolving threats. 
Specifically, I am supportive of research and development in the areas 
of hypersonic weapons (defensive and offensive), as well as artificial 
intelligence, machine learning, large data analytics, and predictive 
forecasting to enable our warfighters to make better informed decisions 
and confront the challenges of our near-peer adversaries. While I 
believe that American technological superiority is one of our 
asymmetric advantages over China, Beijing also understands this and 
clearly sees this as a gap they must close if they are to realize their 
out-sized ambitions.

    68. Senator Warren. Admiral Harris, what specific areas of 
technology or research do you believe hold the most promise in the 
Pacific theater?
    Admiral Harris. We must strengthen our abilities to counter 
strategies designed to limit our freedom of action and we must preserve 
our asymmetric advantages in undersea and anti-submarine warfare. Our 
near peer adversaries continue to modernize their weapon systems and 
are quickly closing the gap between us. Advanced weapon technologies 
such as hypersonic weapons are vital to help counter the tyranny of 
distance and anti-access/area denial demands in the Indo-Asia-Pacific 
region. We need systems that are fast, long-range, lethal, survivable, 
networked, rapidly deployable, and maneuverable. Priorities include 
long-range and stand-off strike weapons, anti-ship weapons, advance 
air-to-air munitions, theater ballistic/cruise missile defense, 
torpedoes, naval mines, and a cluster munitions replacement.
                             climate change
    69. Senator Warren. Admiral Harris, a Defense Department report 
from 2 years ago observed: ``Global climate change will have wide-
ranging implications for U.S. national security interests over the 
foreseeable future because it will aggravate existing problems--such as 
poverty, social tensions, environmental degradation, ineffectual 
leadership, and weak political institutions[.]'' In short, this DOD 
report described climate change as ``a threat multiplier.''

    Senator Warren. Admiral Harris, do you agree with this assessment?
    Admiral Harris. Yes. Our current and future operational plans, for 
both steady state and conflict, must continue to consider climate 
change impacts.

    70. Senator Warren. Admiral Harris, how are you integrating climate 
change risks into your plans and operations for the Asia-Pacific 
region?
    Admiral Harris. USPACOM integrates climate change risks as outlined 
in the ``All Hazards'' Line of Effort in the USPACOM Theater Campaign 
Plan (TCP). Our focus here is two-fold. First, we must be ready to 
respond to natural disasters throughout the broad Indo-Asia-Pacific 
region. Second, our forces must take into consideration sustainable 
resource management and critical resource security. USPACOM coordinates 
these efforts with a variety of interagency partners, including the 
Office of United States Foreign Disaster Assistance and other USAID 
entities, the Department of State, the Department of Homeland Security, 
and the Department of the Interior. This interagency coordination 
effort helps USPACOM in a number of key operational areas: crisis and 
contingency planning; protection of vulnerable populations in support 
of counter-terrorism efforts; pandemic and infectious disease 
prevention; as well as humanitarian assistance/disaster response. 
USPACOM is also developing partnerships focused on building the overall 
resilience of the State of Hawaii and nesting the resilience of USPACOM 
installations within that framework. A recent example of our efforts 
was in May 2017 when USPACOM hosted the seventh annual Pacific 
Environmental Security Forum in Alaska. This forum seeks to develop 
foreign nation capacity in several environmental security areas through 
combined projects within the USPACOM area of responsibility. Sessions 
on project concept development were followed by three days of 
discussions on the Department of Defense Climate Change Adaption 
Roadmap, the protection of commons in a civilian-military context, and 
military environmental programs. The 2016 forum was co-hosted by Fiji 
and the 2018 forum will be co-hosted by Mongolia. These forums provide 
opportunities for the U.S. and our international partners to identify 
risks and vulnerabilities from the effects of climate change, resource 
scarcity concerns, as well as other environmental challenges, and to 
find areas for collaboration to address these vulnerabilities toward 
securing regional stability.
                       persistent, long-range isr
    71. Senator Warren. Admiral Harris, in your testimony before SASC 
last year, you said that ``the Indo-Asia-Pacific presents a dynamic 
security environment requiring flexible, reliable, survivable deep-look 
and persistent ISR to provide indications and warning and situation 
awareness across a vast geographic area.'' Do you still agree with this 
statement?
    Admiral Harris. Yes. USPACOM's intelligence, surveillance, and 
reconnaissance (ISR) requirements have grown significantly, and become 
even more important over the past year. I fully expect these 
requirements will continue to increase as China's military grows in 
both size and capability, and as North Korea aggressively advances its 
missile and nuclear programs. The actions of both China and North Korea 
threaten peace and stability in the region and present serious 
challenges to U.S. interests. In addition to my requirement to 
continuously monitor China and North Korea, I must also maintain 
awareness on resurgent Russian military activity in the Indo-Asia-
Pacific, along with a growing threat from Violent Extremist 
Organizations. While the requirements have grown exponentially, the ISR 
capabilities and capacity within USPACOM have essentially remained the 
same.

    72. Senator Warren. Admiral Harris, in its Integrated Priority 
List, PACOM identified ISR gaps, which if addressed would better 
support Pacific theater exercises and maritime operations. In this 
context, how important are long-range surveillance capabilities in the 
Pacific, particularly in light of China's deployment of long range 
surface to air missile systems?
    Admiral Harris. [Deleted.]

    73. Senator Warren. Admiral Harris, are you concerned about our 
ability to meet current and future ISR requirements in light of this 
threat?
    Admiral Harris. [Deleted.]

    74. Senator Warren. Admiral Harris, do you have the budget and 
authority necessary to expedite fielding of capabilities to meet these 
needs, and if not, what do you require in order to be able to do so?
    Admiral Harris. No, I do not have the budget or the authority to 
expedite fielding of capabilities to meet persistent, long-range 
intelligence, surveillance, and reconnaissance (ISR) needs. The 
Services are responsible for funding and fielding these capabilities. 
Persistent, long-range ISR was identified as deficient within my area 
of responsibility and was prioritized within my Integrated Priority 
List (IPL) for fiscal year 2019-2023. I will review the full-range of 
IPL concerns and submitting issue nominations during Program Budget 
Review 2019 to address these issues.

    75. Senator Warren. Admiral Harris, is PACOM currently conducting 
any ISR-related demonstrations and experimentation of long range multi-
spectral imaging systems; if not, do you have plans to do so or what 
would be required to allow you to do so?
    Admiral Harris. [Deleted.]



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                          TUESDAY, MAY 2, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                  UNITED STATES TRANSPORTATION COMMAND

    The committee met, pursuant to notice, at 9:31 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Cruz, Sasse, 
Strange, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets today to receive testimony from General Darren 
McDew on the posture of the United States Transportation 
Command [TRANSCOM].
    TRANSCOM is more than just a functional command that moves 
personnel and materiel from place to place. It is a crucial 
asset on which our military's global power projection depends 
and one we must not take for granted.
    As General Patton once said, ``The officer who doesn't know 
his communications and his supply as well as his tactics is 
totally useless.''
    General McDew and his predecessors have warned Congress for 
years that the proliferation of anti-access/area denial 
capabilities pose significant challenges for our transportation 
and distribution networks in contested environments.
    Put simply, any assumption that TRANSCOM will have 
uncontested access to international airspace and sea lanes in a 
future conflict is increasingly outdated.
    Transport ships and aircraft can be held at risk over 
greater and greater distances. Our logistic networks are 
centered on large air and sea ports, which serve as efficient 
hubs, but are also vulnerable to attack. Then there are threats 
on the digital battlefield.
    Even as cyber intrusions have become increasingly 
prevalent, nearly 90 percent of TRANSCOM's missions are still 
executed over unclassified commercial communication networks. 
This vulnerability extends operational risk to every single 
combatant command that TRANSCOM supports on a daily basis.
    This committee understands that efforts are currently 
underway to develop an overarching global plan that would 
articulate how TRANSCOM would operate in a contested 
environment, whether that be in the air, at sea, or in 
cyberspace.
    General, I look forward to an update on this plan today and 
ask that you provide as many details as possible as to 
preliminary findings of this effort.
    I also hope you can discuss TRANSCOM's inaugural wargame, 
which took place last fall and examined mobility and 
distribution operations in a contested environment. Too often, 
operational wargames focus exclusively on combat capability and 
take combat logistics as a given. Combat capability is 
obviously important, but it does not matter much if it never 
arrives to the fight or cannot be sustained once it does. I 
look forward to hearing the lessons learned in TRANSCOM's 
wargame.
    General McDew, it has been almost 2 years since your 
confirmation hearing before this committee, and I am looking 
forward to hearing the steps you have taken to address some of 
our shared concerns and what more needs to be done. In 
particular, this committee understands the readiness and 
modernization challenges across the Department of Defense also 
affect TRANSCOM.
    A look at sealift, for example, reveals the same downward 
spiral we have seen elsewhere in the military. Budget cuts mean 
fewer new ships. Existing ships get older. Maintenance gets 
more expensive and more difficult. Readiness suffers. More 
money is siphoned from future modernization to pay for current 
readiness.
    Military Sealift Command's organic surge sealift fleet is 
essential for rapid response in the event of a crisis or 
wartime scenario. But the average age of ships in our surge 
fleet is now 39 years. Over a recent 5-month period, less than 
60 percent of sealift ships were able to activate during 
planned exercises due to various maintenance problems.
    The requirement for so-called roll-on/roll-off ships has 
been relatively stable since the 1990s. But since Desert Storm, 
the surge sealift fleet has been cut nearly in half to just 27 
ships. We are already 10 ships short of the current 
requirement, enough to move two full armor brigade combat 
teams. Over the next 6 years, another nine will age out.
    So while I look forward to hearing how TRANSCOM plans to 
address its readiness and modernization challenges, I do so 
fully aware that it cannot truly do so unless we in the 
Congress step up and do our jobs, repeal the Budget Control 
Act, and provide full and steady funding to meet our national 
security requirements.
    General McDew, the committee thanks you for your continued 
service to the Nation, we look forward to your testimony today.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Welcome, General McDew, to the committee for your 
testimony. Thank you for your service and the service of all of 
the men and women of TRANSCOM. We are knowledgeable and 
appreciative of the critical role that TRANSCOM plays, and 
thank you for your leadership.
    The work of TRANSCOM may be invisible to many, but it is 
critical because it delivers what our forward-deployed 
personnel need when they need it. While TRANSCOM performs 
thousands of operations successfully, it is facing a number of 
daunting challenges. While all the military works to respond to 
potential and actual cyberattacks, TRANSCOM faces a unique set 
of cyberthreats because it must work with private sector 
entities in the transportation and shipping industries to 
support DOD [Department of Defense] deployment operations.
    Three years ago, the committee issued a report on certain 
aspects of the TRANSCOM cybersecurity situation. General McDew, 
we would like to hear what steps you have taken to respond to 
the issues identified in that report and any others you may 
have identified since you assumed command.
    The Ready Reserve Force, a group of cargo ships held in 
readiness by the Maritime Administration, is aging and will 
need to be modernized over the next decade, as the chairman 
pointed out eloquently.
    DOD also needs to ensure that the Civil Reserve Air Fleet, 
or CRAF, program, which provides as much as 40 percent of 
wartime airlift needs, remains viable after operations in Iraq 
and Afghanistan, and will be able to provide needed surge 
capacity in the future. I would appreciate an update on how 
TRANSCOM intends to ensure these fleets are ready to meet the 
command's requirements.
    Our global transportation capability, owned and managed by 
TRANSCOM, has been one of our asymmetric advantages for many 
years now. However, we cannot assume that potential adversaries 
will allow us free rein in this area in the future.
    General McDew, as you said in your prepared statement about 
future conflicts, we expect contested global sea lanes and air 
routes to a degree we have not faced since World War II. We are 
interested in hearing how you are addressing the growing 
reality that the access you enjoy now may be increasingly 
challenged.
    General McDew, thank you again for your service, and I look 
forward to your testimony.
    Chairman McCain. Welcome, General.

 STATEMENT OF GENERAL DARREN W. McDEW, USAF, COMMANDER, UNITED 
                 STATES TRANSPORTATION COMMAND

    General McDew. Thank you very much, Chairman. I am glad 
that you pointed out that it has been 2 years since I have been 
here. I have a quick opening statement, but I would like to say 
that my daughter-in-law has forgiven you.
    If you remember, 2 years ago, I sat here and I had a chance 
to introduce my family. Over my left shoulder was my brand-new 
grandson, Henry. Henry was a bit of a rotund child at about 6 
months old, and you pointed out that he had not missed many 
meals.
    [Laughter.]
    General McDew. Most of us got a chuckle. My daughter-in-law 
did not get a chuckle from that.
    Chairman McCain. Please ask her to accept my apologies. It 
is a beautiful grandchild.
    [Laughter.]
    Chairman McCain. Oops.
    General McDew. But it is now part of the Congressional 
Record.
    [Laughter.]
    General McDew. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, it is an honor and a 
privilege to be with you here today representing the men and 
women of our United States Transportation Command. I thank you 
for your continued support of our dedicated professionals, all 
working together to provide our Nation with a broad range of 
strategic capabilities and options.
    I also want to emphasize the vital role our commercial 
industry plays, what I call our fourth component in our 
success.
    It is worth noting yesterday was the 30th anniversary of 
USTRANSCOM's core staff standing up at Scott Air Force Base, 
and we have been going strong ever since, 30 years of history.
    I can say confidently that your United States 
Transportation Command stands ready to deliver our Nation's 
objectives anywhere at any time. We do this in two ways. We can 
provide an immediate force tonight through the use of airlift 
and air refueling fleets. We can provide a decisive force, a 
decisive force when needed through the use of strategic sealift 
and surface assets. You see it every time you read or hear the 
news.
    When North Korea increased its provocation of our Pacific 
allies, America responded with assistance. USTRANSCOM delivered 
that assistance in the form of missile defense systems, 
personnel, and support equipment, moving by sea and air 3,000 
miles across the Pacific Ocean.
    When you read about America's brigade combat teams rolling 
through Europe, it was USTRANSCOM's ability to provide a 
decisive force to reassure European allies.
    When America needed B-2 stealth bombers to fly 11,000 miles 
from Missouri to Libya and back, it was our air refuelers that 
got them there.
    From national disasters to epidemics to acts of war, the 
men and women of USTRANSCOM are ready to deliver this Nation's 
aid, assistance, and, indeed, hope to the world. These missions 
must execute without fail.
    All the while, these great professionals quietly manage a 
myriad of daily tasks around the globe, most of which Americans 
will never read about. It takes diligence, skill, and 
innovation to provide that kind of readiness for America, and 
the men and women of USTRANSCOM have never let us down. I am 
proud to serve next to them, and I say with confidence that our 
organization is ready to respond when our Nation calls.
    That confidence, however, is not without concern. The 
environment we operate in today is increasingly complex, and we 
expect future adversaries will be all the more versatile and 
dynamic, forcing us to adapt, change, and evolve.
    Furthermore, we are viewing potential adversaries through a 
transregional, multidomain, and multifunctional lens. Properly 
understanding the potential threats posed by China, Russia, 
Iran, and North Korea, as well as violent extremists, in a 
global context is of utmost concern for our future national 
security. In each of these scenarios, logistics plays a 
critical but often overlooked role.
    Today, USTRANSCOM is critically examining how we execute 
our logistics mission in the contested environments of the 
future, a space we have not had to operate in logistically 
speaking for a very, very long time. We are exercising and 
wargaming these logistic scenario, forcing planners of every 
ilk to account for transportation's vital role and for, for the 
first time, potential loss.
    Earlier this year, USTRANSCOM held its first-ever contested 
environment wargame, imagining a scenario where we did not 
dominate the skies or own the seas. This wargame uncovered a 
surprising amount of lessons learned, which we have already 
started to absorb. We have adapted our tactics, techniques, and 
procedures accordingly, but we still have work to do.
    I am also concerned about our national strategic sealift 
capability. Any further delay to the recapitalization of our 
military sealift fleet creates risk in our future ability to 
deploy forces across the globe.
    These concerns are compounded further by Merchant Marine 
shortages and the reduction of U.S.-flagged vessels.
    With today's resources, we are capable of meeting today's 
logistics needs. However, if we, together, do not take action 
soon, many of our Military Sealift Command vessels will begin 
to age out by 2026. A significant portion of the DOD's wartime 
cargo capability moves on these ships.
    As a bridging solution, and with your approval, we can 
purchase used ships until we can build new ones ourselves. This 
will not solve the problem forever, and we will need your help 
for all of it.
    My final concern is the threat of attack from the cyber 
domain. Although cybersecurity is a DOD-wide focus area, 
USTRANSCOM is distinctly vulnerable because the majority of the 
command's transportation data resides within and travels 
through the unsecure commercial Internet. Furthermore, unsecure 
networks and systems of our commercial transportation service 
providers coupled with critical infrastructure requirements 
almost wholly reside outside of our control.
    In light of these challenges, USTRANSCOM is focusing our 
cyber efforts on discipline, design, and defense, in order to 
ensure we continue to accomplish our mission. The command is 
collaborating with U.S. Cyber Command, DOD agencies, Federal 
cyber organizations, industry, and academia to identify and 
mitigate gaps and shortfalls, as well as to seize opportunities 
to advance our cyber resilience and improve mission assurance.
    I thank you again, Chairman McCain and Ranking Member Reed 
and the members of the committee, for inviting me to speak to 
you today to represent this 30-year-old command, USTRANSCOM. 
Our TRANSCOM team will continue to provide joint solutions to 
ensure our Nation is able to deliver an immediate force tonight 
and a decisive force when needed anywhere in the world.
    I respectfully request my written testimony be submitted 
for the record, and I look forward to your questions.
    [The prepared statement of General McDew follows:]

             Prepared Statement by General Darren W. McDew
                              introduction
    The United States Transportation Command (USTRANSCOM) delivers 
National objectives on behalf of the United States, and has proudly 
done so for nearly three decades. As we near our 30th anniversary, we 
stand ready to deliver an immediate force through our airlift and air 
refueling assets or a decisive force with our strategic sealift assets 
when and where needed. Our delivery of these forces assures an 
unparalleled global expeditionary capability and gives our Nation 
options when needing to respond to a variety of crises. Ultimately, 
this unmatched capability extends a helping hand or projects combat 
power anywhere, at any time and provides a key strategic advantage for 
our Nation. We must continue to invest in and preserve our edge. Our 
ability to sustain strategic power projection is challenged on several 
fronts by potential adversaries growing ever more capable. However, we 
continue to look forward and innovate as we face challenges, 
uncertainties, risks, and complex demands placed upon the unique 
capabilities we provide daily to our Nation.
                                mission
    USTRANSCOM delivers full-spectrum global mobility solutions 
supporting our Nation's requirements in peace and war. In the simplest 
terms, we provide viable national security options to the National 
Command Authorities. Those options range from immediate humanitarian or 
combat deliveries by our airlift and air refueling fleets, to the 
global delivery of the Nation's decisive combat power via our strategic 
sealift fleet. While ensuring the readiness and availability of these 
options on a daily basis, the command also leads the Joint logistics 
enterprise which is the foundation on which every other Department of 
Defense capability rides.
    Although transportation remains USTRANSCOM's core competency, our 
span of influence extends from the source of supply, through each 
segment of the DOD supply chain to any designated point of need. 
Through logistics enterprise forums, the Services, Combatant Commands, 
DOD interagency partners and commercial providers, we continue to 
collaborate with logistics leaders in order to better identify, 
prioritize, and close capability gaps within the enterprise. Since 
2009, these efforts have resulted in efficiencies and cost avoidances 
for the DOD distribution supply chain of nearly $1.6 billion, which 
translates to more buying power for the Services.
    In addition to our primary mission of providing full-spectrum 
global mobility solutions, our subordinate command, the Joint Enabling 
Capabilities Command (JECC), provides decisive, rapidly deployable 
joint command and control capabilities. By doing so, they assist in the 
initial establishment, organization, and operation of joint force 
headquarters.
    The JECC is a unique Total Force joint organization that delivers 
highly effective, cost efficient, joint planning, public affairs, and 
communications capabilities to all combatant commanders. This 
Subordinate Command is alert-postured to respond across the full range 
of military operations. They routinely deliver high-impact mission-
specific teams of experts who produce executable solutions for emergent 
global crises. In fact, they provided more than 40,000 man-days of 
support that touched every combatant command in 2016; notably providing 
key Joint Task Force staff and planning expertise within 72 hours to 
assist Southern Command in responding to Hurricane Matthew. In 
addition, the JECC's robust support to the Chairman of the Joint Chiefs 
of Staff Combatant Command Exercise and Training program improved our 
National proficiency, knowledge, preparation, and response to emergent 
events.
    The JECC continues to have significant forces deployed in support 
of missions around the globe, including direct support to ongoing 
counterterrorism operations in Iraq and Afghanistan. Their ability to 
deliver highly effective joint planning, public affairs, and 
communications capabilities have enabled better integration of DOD, 
U.S. Government, and partner responses to strategic challenges in every 
part of the world.
                         operating environment
    Today's diverse global security environment is dramatically 
different and more complex than the one we operated in for the last 30 
years. China, Russia, Iran, North Korea, and violent extremist 
organizations continue to challenge us in new ways, ultimately 
demanding new and innovative solutions. As we look to the future, we 
expect trans-regional, multi-domain, and multi-functional conflicts 
will define our future operating environment. A global view is 
essential in such conflicts. Fortunately, USTRANSCOM has operated 
globally every day since its inception.
    We also expect that future conflicts will cross regional boundaries 
and potential adversaries and peer competitors will field numerically 
superior forces with near-technological parity. Those adversaries are 
aware the United States has become accustomed to geographically-
isolated conflicts and enjoyed technological superiority over its 
adversaries, so we expect contested global sea lanes and air routes to 
a degree we have not faced since World War II. Potential adversaries 
seek asymmetric means to cripple our force projection and sustainment 
capabilities by targeting critical military and civilian assets, both 
within the U.S. and abroad. Additionally, our enemies continue to use 
our dependence on the cyber domain against us. With those challenges in 
mind, every soldier, sailor, marine, airman, Coast Guardsman and 
Department of Defense (DOD) Civilian of USTRANSCOM and its Component 
and Subordinate Commands recognizes it is our duty to ensure the 
Command remains postured to operate in such an environment and 
effectively answer the Nation's call, should it come.
                              our approach
    To effectively operate in that future environment, we are focused 
on four priorities: ensuring readiness today while advocating for 
future capabilities, advancing our capabilities in the cyber domain, 
evolving the command for tomorrow, and championing an innovative, 
diverse, and agile workforce.
    In prioritizing today's readiness while keeping an eye toward 
future capabilities, we are advocating for the right mix of personnel, 
platforms, systems and training to ensure we can provide the global 
transportation and logistics capabilities our Nation requires. By 
making the right investments today in enhancements for our air, sea and 
surface fleets, we will ensure USTRANSCOM delivers the Nation's 
objectives tomorrow. Through this pursuit, we posture to meet the full 
range of Unified Command Plan roles and missions in current and 
emerging trans-regional transportation, logistics, and patient movement 
requirements.
    Improving our cyber defense allows USTRANSCOM to operate freely and 
effectively. We continue to broaden our scope to actively evaluate and 
mitigate our command and control, weapon system, and infrastructure 
vulnerabilities, while identifying and advocating for the critical 
capabilities, policies, and procedures that ensure mission 
accomplishment.
    As a global Combatant Command charged with delivering national 
objectives in tomorrow's dynamic security environment, we must 
challenge our assumptions, accurately forecast trends that shape that 
future environment, and develop the technologies and ideas that 
maintain our Nation's competitive advantage. In our pursuit to 
continuously evolve for tomorrow, we established a relationship with 
the Defense Innovation Unit Experimental to expedite the implementation 
of logistics- and cyber-based technologies such as commercial cloud-
based technologies which can provide Infrastructure-as-a-Service, 
Platform-as-a-Service, and Software-as-a-Service offerings to host 
USTRANSCOM's unique applications. These and other initiatives will 
increase our responsiveness, agility, efficiency, and operational 
processes, while enhancing transparency with our customers and 
positioning us ahead of emerging challenges and threats.
    Finally, our approach recognizes USTRANSCOM requires a talent rich, 
diverse, creative, adaptive, and innovative workforce to survive today 
and thrive in tomorrow's dynamic environment. We will create this 
workforce by recruiting, developing, and retaining the best talent 
America has to offer. We recognize that doing so requires us to remove 
cultural, procedural, and policy barriers along the way such as 
significant civilian hiring reform. We appreciate the attention 
Congress has placed on this issue with the recent passage of 
legislation in the 2017 NDAA creating a streamlined civilian on-campus 
recruiting authority, fast tracking the ability to hire talented 
personnel for critical positions in an ever-more competitive 
marketplace. Initiatives improving the speed at which talent can be 
hired, and opening aperture to additional fast-tracked hiring 
authorities and policy flexibility, ensures better access to streams of 
talent benefitting USTRANSCOM.
                         state of our readiness
    Without reservation, USTRANSCOM stands ready to deliver on behalf 
of the Nation today. However, as our approach to the future operating 
environment indicates, there are challenges that demand our attention 
to ensure our readiness is never called into question. These challenges 
fall into the following broad categories: airlift and air refueling, 
sealift, surface, budget, and workforce issues.
Airlift/Aerial Refueling
    Air Mobility Command (AMC), a Component Command of USTRANSCOM, 
provides an incredible capability to our Nation and the world. As one 
Total Force team with commercial partners, AMC provides airlift, aerial 
refueling, air mobility support, and aeromedical evacuation around the 
globe, supporting eight combatant commands while operating in 23 
countries.
    On average, tankers are conducting aerial refueling operations 
every 5 minutes over the skies of Iraq and Afghanistan. Additionally, 
AMC refuels fighter squadrons across the Pacific Ocean to ensure a 
constant presence throughout the Pacific and refuels nearly all of our 
North Atlantic Treaty Organization allies during operations and 
exercises around the globe. Yet the scarcity of forces and their 
current distribution, coupled with the high operations tempo placed 
upon them, comes at a cost to the health of the KC-10 and KC-135 
fleets.
    Currently, the KC-46A program is on track to deliver 179 aircraft 
by 2028, which will enhance operational agility. The delivery of these 
aircraft over the next few years remains a critical investment to 
ensure we can continuously project power around the world, whether in 
support of humanitarian relief missions or combat operations.
    The delivery of the KC-46A alone, however, will not address present 
concerns with the allocation and distribution of the global tanker 
fleet. For example, since 2011, the authority of the USTRANSCOM 
commander to manage tankers globally has been constrained by 
congressional language prohibiting changes to command and control of 
scarce KC-135 forces. As global tanker requirements continue to expand, 
we are seeing more cases where the requirements of a given combatant 
command are in competition with others. At the same time, we recognize 
a trans-regional, multi-domain, and multi-functional operating 
environment combined with proliferating anti-access and aerial denial 
threats will only place greater strain on the air refueling force. 
Although we continue to work closely with AMC and the Joint Staff to 
mitigate the effects on the global tanker fleet, the restriction in 
place since 2011 continues to limit the USTRANSCOM commander's ability 
to exercise operational control of high demand Pacific and European 
tanker forces necessary to meet global and national defense 
requirements.
    Also key to air mobility are our airlift assets and the additional 
capabilities commercial industry brings to the fight. For our part, the 
C-17 and C-5 continue to provide strategic airlift the world over while 
our C-130s meet tactical airlift needs in every region of the globe. We 
are seeing stress on the strategic airlift fleets and have some 
concerns about hard choices that have been made to close Active Duty C-
17 squadrons with an eye toward buying that capability back in the 
Reserve component. While both components are capable, maintaining the 
right balance is critical so we do not create a situation where 
mobilization is needed for every new mission that might arise.
    On the commercial airlift side, our Civil Reserve Air Fleet (CRAF) 
partners commit aircraft to augment DOD airlift during contingencies 
and/or emergencies in exchange for government airlift business while 
also providing commercial airlift services to DOD during peacetime. 
USTRANSCOM closely coordinates with the Department of Transportation 
(DOT) in administering the CRAF program. This steadfast relationship 
has historically provided lift for roughly 40 percent of all DOD air 
cargo and 90 percent of all passenger movements in direct support of 
our warfighters. Our 24 CRAF carriers remain ready to support DOD 
readiness requirements with cargo and passenger support worldwide and 
we will continue to rely on viable and healthy CRAF program in the 
future. To ensure the relationship with our CRAF partners remains 
robust, we've begun contracting with them based on early demand 
signals, allowing us to move workload to them which would have 
otherwise been handled by our organic aircraft. This has the dual 
benefit of providing additional workload to our CRAF partners while 
also reducing flying hours in our organic fleet.
Sealift
    Historically, nearly 90 percent of wartime transportation 
requirements are delivered through strategic organic and U.S. flagged 
commercial sealift. In fact, our strategic sealift fleet provides the 
ability to deliver a decisive force over great distances. Our U.S. Navy 
component, the Military Sealift Command (MSC), provides sealift 
capabilities through ship chartering, prepositioning, and sustainment 
operations while also executing operational command over the Maritime 
Administration's (MARAD) Ready Reserve Force ships during 
contingencies. Without a healthy and viable U.S. Commercial Sealift 
Fleet, MSC Surge Fleet, and MARAD's Ready Reserve Force, our Nation's 
military may not be able to deploy as quickly and efficiently as it can 
today.
    The National Security Directive on Sealift and the Sealift 
Emergency Response Programs provide assured access to U.S. flagged 
commercial sealift assets, Merchant Mariners, and the global intermodal 
capability required to augment government owned (organic) sealift 
capabilities during contingencies. This assured access is provided via 
the Voluntary Intermodal Sealift Agreement (VISA) which ultimately 
ensures the U.S. maintains its capability to meet sealift requirements 
in peace, crisis, or war. The VISA program provides a responsive 
transition from peace to contingency operations through pre-coordinated 
agreements for U.S. flagged commercial sealift capacity and systems to 
support DOD's contingency sealift needs. It allows USTRANSCOM to meet 
mobilization requirements in a rapid fashion.
    At the core of the VISA vessels are our Maritime Security Program 
(MSP) partners, who are essential to our wartime U.S. commercial 
sealift capability, and all are participants Sealift Emergency Response 
Programs. Over time, MSP has provided access to required commercial 
U.S. flag shipping assets, while also supporting the pool of Merchant 
Mariners needed to operate MSC's Surge and Ready Reserve Fleet. In this 
way, the MSP significantly contributes to the supply of Merchant 
Mariners available to serve on U.S. vessels in time of war while 
mitigating future risk to our national commercial capacity.
    Along with MSP, The Merchant Marine Act of 1920, also known as the 
Jones Act, provides an additional pool of trained Merchant Mariners and 
sealift capacity. It does this, and contributes to national defense, by 
subsidizing a robust, domestic, maritime industry including U.S. 
industrial shipyard infrastructure for building, repairing, and 
overhauling U.S. vessels.
    Ensuring a healthy U.S. fleet has proven difficult in the larger 
global context where international shipping has slowed while the 
industry as a whole has ended up with an excess of ships. Excess supply 
has caused prices to fall, which has put considerable financial 
pressure on U.S. flagged vessels. Unfortunately, the U.S. flagged 
international commercial fleet and Mariner pool has shrunk over time; 
while we have contingency plans, further reductions may cause us to 
investigate other options such as using more foreign flagged 
international commercial vessels manned by foreign crews during crisis 
or war. American shipping companies continue to re-flag vessels to 
foreign nations, diminishing the size of our commercial fleet, although 
that fleet stabilized in recent years at around 80 today. While the 
U.S. flagged commercial fleet remains the most effective means for us 
to obtain the necessary sealift capability to meet national defense 
needs, we are considering a range of options to ensure that we retain 
the ability to deploy a decisive combat force at the time and place of 
our choosing. Those options may include new approaches to preserving 
essential capabilities in the Ready Reserve Force, which among other 
options, may include non-U.S. built vessels.
Sealift Fleet Recapitalization
    Since the 1990s, DOD mobility studies have indicated a requirement 
for nearly 20 million square feet of Roll-on/Roll-off (RO/RO) capacity 
to promptly transport materiel wherever needed in defense of the 
Nation's interests in major conflicts abroad. This includes over 15 
million square feet of organic RO/RO capacity on 65 total ships and 
nearly 4.5 million square feet of U.S. flagged commercial RO/RO 
capacity gained through VISA. However, we are projecting a loss of 4.5 
million square feet of organic surge RO/RO capacity by 2033 as these 
vessels reach the end of their service life, with an accelerated loss 
expected between 2026 and 2031. The organic vessels tasked to meet this 
requirement are becoming obsolete or unsustainable. Our organic surge 
vessels, for example, have an average age of 39 years and will begin to 
reach their 50-year service life in the 2020s. This will result in a 
critical sealift capacity shortfall, which limits our ability to 
support the national security requirements. In addition to the RO/RO 
capacity loss, 10 of 12 special-capability ships will age out of the 
fleet between 2020 and 2024. These ships provide expeditionary 
capabilities such as over-the-shore fuel distribution and crane lift to 
austere or damaged ports, a critical necessity for the deployment of 
ground forces and for operations in a contested environment. The aging 
and loss of sealift capacity places a particular urgency on the need to 
explore options for maintaining critical capabilities, without which 
the Nation's strategic sealift capability to support future operations 
will be at risk. We are working closely with the U.S. Navy to maintain 
the full spectrum of strategic sealift capabilities required to move 
U.S. forces in current and future operational environments.
    In order to keep the recapitalization strategy on track and achieve 
success in the near term, the used vessel acquisition component must 
start as early as fiscally possible. This component seeks to purchase 
vessels leaving MSP or other commercial vessels regardless of country 
of origin. The acquired vessels would replace the aging organic vessels 
for a fraction of the cost of new construction and could remain in 
service for several decades. Congressional support will be needed to 
gain the necessary authorities and funding for this effort.
    Additionally, DOD's current organic surge fleet is composed of 
several steam-propelled ships. The manning of these ships with seasoned 
steam certified engineers is a growing concern as commercial industry 
is expected to retire all steam ships by the early 2020s, while we need 
to operate them until 2035 unless recapitalization efforts allow us to 
replace them sooner. As commercial industry retires their steam ships, 
our access to a civilian pool of steam-certified engineers and mariners 
may fall severely (and eventually be) eliminated.
Surface
    Since the first stage in delivering a decisive force happens on the 
ground, our Nation's infrastructure of roads, rails, and ports plays a 
fundamental and crucial role in the deployment and sustainment of the 
Joint force. USTRANSCOM closely partners with the Department of 
Transportation (DOT) and other Federal and State entities to ensure 
infrastructure within the continental U.S. is ready to support DOD 
deployment and distribution needs.
    USTRANSCOM, through its Army component the Military Surface 
Deployment and Distribution Command (SDDC) represents the interests and 
requirements of the DOD to access and safely utilize both private and 
public transportation infrastructure and services. Currently, the 
public sector road network remains capable of meeting DOD ground 
transportation needs while providing adequate access to commercial 
trucking capacity to meet current and anticipated surface 
transportation needs.
    Just as the availability and safety of drivers and roadways are 
critical to national defense, our national rail system is of equal 
importance. Through our Railroads for National Defense Program, and 
close collaboration with civil sector rail officials and DOT's Federal 
Railroad Administration, we assess the ability of the U.S. rail system 
to support military needs. Currently the rail network required to 
deploy our force is in place and viable. In the next fifteen years, 
however, we face age-mandated retirements of some of our uniquely 
capable DOD railcars. We are developing a plan in close collaboration 
with the Department of the Army to retain this critical transportation 
capability.
    To successfully execute our deployment mission, USTRANSCOM also 
relies on a collection of both DOD and commercially-owned U.S. 
seaports, designated as Strategic Seaports. The primary mission of the 
Strategic Seaport Program is to ensure DOD has access to sufficient 
seaport infrastructure to meet contingency deployment needs. None are 
more important than the main West and East Coast ports of Military 
Ocean Terminal Concord (MOTCO) and Military Ocean Terminal Sunny Point 
(MOTSU).
    MOTCO on the West Coast is indispensable to USTRANSCOM's support of 
U.S. Pacific Command's operations and DOD's military capability in the 
Pacific Theater. Due to the nature and size of this mission, no 
suitable alternatives exist on this coast and MOTCO's infrastructure 
assets require critical upgrades and maintenance to remain relevant in 
the current military environment. Current efforts are centered on 
preserving the operability of MOTCO's primary pier until it can be 
replaced. We are also examining additional options for MOTCO to become 
a modern ammunition port, fully capable of safe and efficient 
operations to enable uninterrupted delivery of ammunition to the 
Pacific theater.
    At MOTSU, significant infrastructure improvements within the last 
few years have enhanced our ability to support the EUCOM, AFRICOM, and 
CENTCOM combatant commanders' operations and allow the terminal to meet 
throughput requirements. We continue to work with the Department of the 
Army to preserve both seaports by finding and applying resources to 
reduce risk and prevent capability gaps.
    Although our nation's roads, rails, and ports play a fundamental 
role in the deployment and sustainment of our Armed Forces, nothing is 
more important than the people and their families who support and 
execute the mission, at home and abroad. The Defense Personal Property 
Program provides our Service members, DOD Civilians, and their families 
with an effective and efficient system for the relocation, storage, and 
management of their household goods and privately-owned vehicle (POV) 
shipments. As a testament to our partnership with the Deputy Assistant 
Secretary of Defense for Transportation Policy, the Services, and 
commercial transportation service providers, the Defense Personal 
Property Program enables nearly 875 service providers to support the 
movement of approximately 70,000 POVs and around 430,000 household 
goods shipments globally each year.
    An initial review and analysis of the Defense Personal Property 
Program identified that the end-to-end household goods value chain 
lacked proper alignment to consistently produce high quality relocation 
services due to lack of a single program manager and the need for more 
commercial capacity. Consequently, stakeholders from across the 
Department have collaborated on initiatives to recommend to key leaders 
from the military Services. Additionally, the Defense Digital Service 
recently assessed our primary software and customer interface within 
the Defense Personal Property System and found that while we are 
working toward reasonable solutions to the problems our customers have 
with the system, we are plagued by common problems that can be overcome 
by focused effort and assistance from the Defense Digital Service. 
Although still a work in progress, these initiatives are intended to 
improve the move experience for our Service members while 
simultaneously posturing the program for institutionalized and 
sustained continuous improvements. Addressing the challenges of program 
accountability, customer service, entitlements, standardization, and 
automation provides an opportunity to incorporate updated technologies 
and processes that will improve the quality of life and security of our 
Service members, DOD Civilians, and their families.
Budget Uncertainties
    USTRANSCOM's mobility readiness depends highly on our financial 
health, which in turn relies on the financial posture of Services that 
provide the capabilities we use to execute our critical missions. 
Notably, the Budget Control Act and recent Continuing Resolutions have 
forced the Services to prioritize immediate operational needs over 
prudent long-term planning and investment, decisions that ricochet 
inefficiencies through the logistics and transportation enterprises. 
More generally, sequestration's impact on readiness, mission 
operations, and modernization funding will result in the Services being 
unable to adequately man, train, and equip mobility forces thus 
presenting a significant readiness challenge. Irregular budgets 
jeopardize critical mobility acquisition programs like the schedule for 
the KC-46A program which addresses significant challenges with our 
aging aerial refueling fleet.
    Additionally, our overall readiness and that of other combatant 
commands is influenced by the joint training and exercises conducted 
solely through resources provided by the Combatant Commander's Exercise 
Engagement and Training Transformation program. With an increased 
emphasis on trans-regional, multi-domain, and multi-functional 
operations, adequate support to combatant command joint training and 
exercise programs is as critical as ever.
    As we head into fiscal year 2018, we are projecting adequate 
financial levels to ensure our readiness, but remain vigilant in light 
of budget uncertainty. While maintaining our overall readiness, we 
continue to focus on our commitment to becoming audit ready by 
complying with the initiatives of the Financial Improvement and Audit 
Readiness (FIAR) program. At the same time, as we move to multi-modal 
operations and new Plan, Order, Ship, Track and Pay processes, we are 
integrating FIAR throughout those processes to ensure audit compliance. 
Furthermore, we continue to work closely with our DOD counterparts to 
ensure Transportation Financial Audibility throughout the Department. 
In an effort to ensure our business processes remain relevant today and 
into the future, we are striving to be cost-competitive and more 
transparent with our customers while simultaneously seeking ways to 
provide a lower, more predictable rate structure. These actions enhance 
our coordinating role across the deployment and distribution enterprise 
and ultimately enhance the support we provide the warfighter.
Availability of the Transportation Workforce
    Each mode of our transportation network (air, surface, and sea) 
requires commercial and/or military operators such as truck drivers, 
aircraft pilots, and sealift mariners. These operators allow USTRANSCOM 
to transport forces and materiel to the point of need and to return our 
ill and injured to appropriate medical care. Worsening shortages of 
these operators limit our ability to successfully deliver required 
combat power across the globe.
    In order to respond anywhere in the world in a matter of hours, 
appropriate manning levels of both Air Force and commercial pilots are 
essential. In fact, all DOD aerial refueling and nearly all strategic 
aeromedical evacuation capability relies on the availability of the 
U.S. Air Force aircrews from the active and Reserve components. 
Additionally, USTRANSCOM's organic and commercial airlift capabilities 
deliver roughly 10 percent of all transportation requirements and 
continue to be a significant force multiplier for the Nation by 
delivering an immediate force overnight into an area of operations when 
needed. Pilot manning will remain vital for the near and long-term 
future of this critical USTRANSCOM capability.
    Our Mobility Air Forces and commercial airline partners, however, 
are experiencing manning shortages. Reduced undergraduate pilot 
training quotas, changes in force structure, and declining retention 
(along with aggressive airline hiring for the foreseeable future) will 
require a concerted effort if we are to mitigate potential negative 
impacts across the active and Reserve components of the U.S. Air Force. 
By comparison, U.S. commercial airlines, including our partners 
participating in the CRAF program, expect a pilot shortage of roughly 
35,000 pilots through the year 2031. Contributing factors include 
retirements exacerbated by statutory age limits (i.e., max of 65 years 
old), an increase in new airline transport pilot certificate 
requirements, and the continuous growth of the global airline industry.
    While monitoring the health of pilot manning, we are keenly focused 
on the strain the trucking industry continues to feel due to the 
commercial truck driver shortage (current shortage of 75,000 with a 
projection of 890,000 by 2027). The industry's ability to attract and 
retain qualified commercial truck drivers required to move freight for 
the DOD and the Nation is a growing concern. Persistent shortages are 
caused by several factors such as quality of life, younger generations 
not seeking out the truck driving profession, and the pursuit of more 
desirable job alternatives. Due to the shortage of operators, the 
trucking industry is currently operating at greater than 95 percent 
capacity leaving little to no surge capacity for DOD. In an effort to 
address and reverse the shortage of drivers, the DOT Federal Motor 
Carrier Safety Administration implemented initiatives such as granting 
test waivers for military members with previous commercial motor 
vehicle experience and expanding their experience validation timeline 
from 90 days to one year. These efforts are the first steps in 
addressing the shortage; however, they may not be sufficient to 
alleviate likely impacts in times of increased demand for DOD's surge 
requirements. To combat this issue, we are continuously engaged with 
industry and conducting ongoing analysis and reviewing plausible 
alternatives, such as increasing the use of multiple modes (rail and 
truck) and un-manned vehicles.
    We will continue to monitor and manage the manning shortages across 
our three fundamental domains. While supporting DOT's efforts in 
reversing current trends, we remain determined to ensure a sufficient 
pool of transportation operators are available to provide our Nation 
transportation options.
                       advancing the cyber domain
    The greatest challenge USTRANSCOM faces every day is the threat of 
attack from the cyber domain. Although cybersecurity is a DOD-wide 
focus area, USTRANSCOM is distinctly vulnerable because the majority of 
the Command's transportation data resides within and travels through 
the unsecure commercial internet. Furthermore, unsecure networks and 
systems of our commercial transportation service providers, coupled 
with critical infrastructure vulnerabilities around the globe, almost 
wholly reside outside our control and pose significant risk to mission 
assurance. Due to these challenges, USTRANSCOM is prioritizing our key 
cyber concerns. The Command is collaborating with U.S. Cyber Command, 
DOD Agencies, Federal cyber organizations, industry, and academia to 
identify and mitigate gaps and shortfalls, as well as to seize 
opportunities to advance our cyber domain capabilities.
    We have and will continue to encourage industry partners to join 
together in a transportation-related Information Sharing and Analysis 
Organization, focused on supporting DOD's transportation mission. Our 
current partnership with the National Defense Transportation 
Association (NDTA) Cybersecurity Committee and our semiannual 
Cybersecurity Roundtables that have drawn interest from across 
government, industry, and academia are cornerstones of our efforts to 
build a more responsive, aware, and collective approach to mission 
assurance.
    For example, through our partnership with the NDTA Cybersecurity 
Committee, we seek to address: cybersecurity issues of mutual concern, 
rapid sharing of threat information, the application of best practices, 
and, research on existing and emerging cybersecurity technology and 
development activity. The committee provides a mechanism to address 
urgent concerns, such as cybersecurity contract language and the 
exchange of unclassified and sensitive information between USTRANSCOM 
and industry partners.
    However, there is still much more to do in order to address our 
current and future cyber capabilities. People, processes, and 
technology are all key areas where we can enhance our cyber resiliency. 
Specifically, we must grow and retain a highly skilled cyber workforce; 
clarify cybersecurity roles and responsibilities across the critical 
infrastructure sector; implement acquisition policy to provision cloud 
services and other innovative cyber solutions at the ``speed of need.'' 
We also need to ensure that DOD can rapidly share threat and 
vulnerability information with our commercial partners while continuing 
to improve cybersecurity compliance reporting that enables informed 
risk management decisions appropriate to the situation at hand. We will 
continue to work with U.S. Cyber Command, DOD Agencies' cyber 
organizations, Department of Homeland Security, and commercial 
transportation partners to mitigate cyber risks to global distribution 
operations.
                         evolving for tomorrow
    Beyond the contested cyber domain, we recognize we will face new 
challenges across the other domains as well. As mentioned, we expect 
future conflicts are increasingly likely to occur in an environment 
contested across all domains, subsequently restricting our freedom of 
action. Adversaries and geopolitical competitors have the ability today 
to challenge our freedom of movement from deployment to employment 
using kinetic and non-kinetic means to disrupt, delay, or deny 
operations. This creates an environment that places our strategic 
assets at great risk. As our Joint force prepares to face this 
challenge, operational plans must reflect the anticipated attrition of 
both combat and mobility assets and associated personnel.
    Future conflicts within the contested environment will also greatly 
challenge global patient movement operations. USTRANSCOM currently 
operates the best patient movement system in the world, safely and 
efficiently moving thousands of our nation's ill and injured Service 
members to the medical care they need every year. We are not content, 
however, to rest on our successes. Recognizing future adversaries might 
be able to limit our access to the air and cyber domains, we are 
aggressively exploring surface movement solutions to ensure we remain 
the best in patient movement no matter the threat or environment. We 
continue to partner with the Services to expand maritime patient 
movement capabilities and we are working to rebuild our ability to move 
patients by rail. Our Nation's joint casualty stream must be supported 
by joint patient movement capabilities that are interoperable, multi-
modal, and capable of functioning in a cyber-compromised environment. 
Synchronized policies, training, and research and development are 
needed across the DOD to ensure we remain the best in safely moving our 
ill and injured whenever and wherever needed.
    We also conducted a Future Deployment and Distribution Assessment 
focused on deployment and distribution in a contested environment. This 
assessment solidified our concerns about the challenges of conducting 
operations in contested environments and again highlighted that our 
global network (to include partners and allies) is at risk from threats 
in all domains--land, sea, air, space, and cyberspace.
    Finally, we hosted our inaugural contested environment war game 
aimed at creating a common understanding of our operations in contested 
environments. We also sought to recognize the enterprise-wide 
challenges and develop prioritized mitigation efforts to enable future 
operations in those environments. The war game also addressed the 
necessary investments in planning and collaboration with the entire DOD 
logistics enterprise necessary to develop appropriate mitigation 
strategies for these threats. Finally, the war game highlighted the 
need for multiple operating options to ensure resiliency, agility, and 
responsiveness in future conflicts. An important insight from the war 
game is that operational plans and fleet sizing considerations must 
account for the loss of capital assets. These vital principles ensure 
realistic planning and aligned with risk, resulting in operational 
resiliency across all domains in future contested environments.
    Based on these findings and published defense guidance, we will 
work with the Office of the Secretary of Defense, CAPE to initiate a 
new mobility requirements study once defense strategic guidance and the 
supporting elements, such as defense planning scenarios, mature.
         championing an innovative, diverse, & agile workforce
    In light of all of the challenges and opportunities ahead of us, we 
recognize our people are our greatest resources and are the ones who 
will rise to those challenges and seize the opportunities. At the same 
time, it is clear the competition for talent is becoming more acute. 
Given that, we are working to recruit, develop, and retain the best 
talent America has to offer. At the heart of that effort we completed 
our first-ever headquarters Human Capital Strategic Plan setting short 
and long term goals for cultivating and managing our large professional 
civilian workforce. We also entered into an agreement with Defense 
Logistics Agency that created an individual civilian experiential 
development opportunity. Goal of effort is to address how USTRANSCOM 
and Defense Logistics Agency can work together to collectively develop 
the skills, knowledge, and effectiveness of our civilian workforce. We 
expect this initial agreement to serve as a baseline we can expand upon 
in the future. Beyond these early accomplishments, we are positioning 
ourselves to remain competitive in attracting future talent by 
identifying and establishing developmental positions within USTRANSCOM.
                             our commitment
    For nearly three decades, our Nation has turned to USTRANSCOM's 
strategic power projection capability to respond rapidly to global 
threats and disasters. Today, USTRANSCOM continues to deliver 21st 
Century, enterprise-wide, global expeditionary capabilities to the 
joint force. Anticipating and adapting to challenges will allow us to 
perform our missions in an ever-changing security environment. These 
missions continue to trend toward non-permissive, remote, austere, and 
widely-dispersed locations, but this team of transportation and 
logistics professionals always finds a way to deliver our national 
objectives. Our continuous focus on the resiliency and preservation of 
the Joint logistics enterprise while advocating for the right 
investments in our cyber-enabled air, sea, and surface fleets ensures 
we can deliver the Nation's objectives tomorrow.
    Continued Congressional support, coupled with the hard work of the 
professional men and women of USTRANSCOM and our components, will 
ensure we are ready to deliver the Nation's Objectives. We will 
continue to address challenges and vulnerabilities and advocate for 
innovative solutions as we provide the joint force options for 
delivering an immediate force tonight and a decisive force when needed. 
``Together, we deliver!''

    Chairman McCain. Thank you. Without objection.
    Thank you very much, sir.
    A major concern for the Navy is a lack of sufficient U.S.-
flagged ships and robust Merchant Marine to meet future demand. 
Is that a major concern of yours?
    General McDew. Yes, it is, Senator.
    Chairman McCain. Do we have any plans, that you know of, to 
rectify that?
    General McDew. Chairman, I believe that we are working very 
closely with the United States Navy. The Navy understands the 
depth of the problem.
    Chairman McCain. Do we have any plans to rectify that 
shortfall?
    General McDew. There is a Navy recapitalization plan that 
is being built right now. It should be unveiled in the next few 
weeks. I do not want to get ahead of the Navy, but we worked 
very closely with them on that.
    Chairman McCain. The real secret is that our ability to 
move supply and support modern military forces, to a large 
degree, rests on the support it receives from private sector 
companies, right?
    General McDew. It does.
    Chairman McCain. Suppose we are in a combat scenario. Can 
we continue to rely on those private companies or corporations 
to supply us with what we need?
    General McDew. Our U.S.-flagged fleet of ships has been a 
reliable partner for decades. The Merchant Marine force that 
does this work is a viable and proud patriotic unit.
    Chairman McCain. I guess I am talking about having to 
transport troops and materiel into a contested region. Can we 
rely on these nonmilitary companies, such as UPS [United Parcel 
Service] and DHL and Maersk and others to go into combat areas?
    General McDew. Chairman, our first force to go into these 
contested environments is our organic aircraft and organic 
sealift ships.
    Chairman McCain. Yes, and that is some 600 refueling 
tankers to transport one combat team, according to the 
information I have. Do we have the capability to move a 
sufficient number of individuals and materiel into a combat 
zone without relying on civilian sources of transportation?
    General McDew. Chairman, it depends on what sufficient 
means. If we are going to----
    Chairman McCain. Let's take Korea. Suppose that a conflict 
broke out in Korea, and the North Koreans have some limited 
antiship capability. Can we rely on those nonmilitary 
corporations to go into--maritime capabilities to go into 
contested areas, into combat zones?
    General McDew. Today, Chairman, I would not call upon the 
commercial industry to go into a contested environment. We have 
organic----
    Chairman McCain. So you have sufficient capability to move 
what we need without relying on them? Is that correct?
    General McDew. We have a sufficient force today, and I have 
talked to General Vince Brooks and his staff, to provide him 
what he needs in the first 30 days organically. Beyond that, we 
will have to continue to assess how much continues to flow and 
how much of that we can mitigate the threat by the time we have 
to get to the use of commercial vessels.
    Chairman McCain. According to what I am told, it can take 
200 C-17 sorties to deploy a single brigade combat team. Is 
that your correct assessment?
    General McDew. I would not like to argue numbers with you 
at all, but I do know that----
    Chairman McCain. I am not getting into an argument. I am 
saying that this is the information that is provided to us by 
the Department of Defense. It is not my opinion. That is the 
information that we have from the Department of Defense.
    Are you able to ensure that global force projection is a 
primary capability given the assets that we have and not having 
to rely on non-DOD capabilities for, say, a conflict in Korea?
    General McDew. It is not easy. However, with a global 
force, and that is what U.S. Transportation Command is, and we 
use the forces that are available, we can do 200 C-17 sorties.
    Chairman McCain. You can do 200 C-17s, and that gives you 
one brigade combat team. I doubt, if there is a conflict in 
Korea, that one brigade combat team would be sufficient for us 
to reinforce our forces on the ground in Korea.
    What I am saying, General, is that we are reliant to a 
larger and larger degree on the private sector companies, and 
there is great question amongst many experts that we do not 
have the capability, say in Korea, say in Eastern Europe, to 
resupply and maintain our ability to carry out success in 
combat.
    Now are you telling me that we can and are and have that?
    General McDew. We do not have the capability that I wish we 
had, but we have a capability that can provide a force when 
needed. The force that General Brooks is asking me to deliver 
can be delivered initially by our organic fleet. We have put a 
lot of capability into----
    Chairman McCain. In contested areas?
    General McDew. We have put a lot in the commercial sector 
that we cannot rely on in contested areas. But the initial 
force can be brought by organic fleets, and then we will have 
to see what we can do after that.
    It is a challenge because of how we have gotten to where we 
have gotten to.
    Chairman McCain. Well, General, to ``see what we can do 
after that'' is not comforting to this committee.
    Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Let me focus on the issue of cyber, which you brought up, 
and I brought up in my comments.
    As you know, the committee did a report based upon 
incidents of your contractors, private contractors, in June 
2012 through June 2013, where there were cyber breaches. I 
thank TRANSCOM, because they cooperated in the report. Just a 
few points emerged that were very critical, and I wanted to get 
your sense of how much progress you have made.
    First, there appeared to be confusion within DOD about what 
information relating to cyber compromise of private sector 
contractors may be lawfully shared. That is one issue.
    Second, TRANSCOM had not provided other DOD components or 
the FBI [Federal Bureau of Investigation] a list of 
operationally critical contracts about whom the command would 
like to be alerted when a compromise occurs. Then there were 
gaps in cyber reporting requirements contained in TRANSCOM's 
contracts.
    Although I must give you credit, sir, because TRANSCOM was 
the first DOD component to require contractors to report cyber 
intrusions.
    Can you comment on these issues and, in general, where we 
are?
    General McDew. Senator, we have transformed our view of 
cyber. Last year, cyber roundtables that we did, we did three 
separate sets of cyber roundtables to get us to a different 
level of awareness and knowledge. What that has driven us to do 
is that our contracts are now more cyber-aware. The way we deal 
with contractors is more cyber-aware. We are asking industry to 
partner with us to set a higher cyber standard.
    The problem we have is, sitting in the seam between DOD and 
commercial industry, is that the rule sets are different. We 
can defend the Department of Defense networks, but we do not 
have any control over what happens in the civil networks. 
Sometimes, a commercial company is disincentivized to report an 
intrusion. Sometimes, they do not have the wherewithal to know 
that they have had an intrusion.
    Those things need to be squared away. So we are partnering 
with CYBERCOM [United States Cyber Command] and also the 
interagency to see where the FBI and DHS [Department of 
Homeland Security] can maybe look at those intrusions 
differently. I am having a meeting with them later this week 
because I believe the commercial viability of the company is 
one thing. National security is another. Because a company is 
intruded upon, it is not always just a commercial problem.
    Senator Reed. Are you planning to suggest legislative 
proposals that would give the Department of Defense more 
authority in this regard, or clarify its authority? Maybe 
clarification is a better word.
    General McDew. I am not sure that DOD needs more authority, 
but I believe a bridging of the gap between DOD and the rest of 
the Federal Government is needed to happen, and to see where we 
can square that.
    Senator Reed. Let me follow up on two of the questions that 
Senator McCain asked.
    First, as we move to more emphasis on the Pacific, 
particularly North Korea, there is the issue of platforms, both 
air and sea. But there is also the issue of facilities. Do you 
have an assessment of the needs for docks or airfields that 
have to be repaired or remediated so that you can continue to 
operate?
    General McDew. We do a regular annual assessment, a 
rotating assessment through every year. We publish an en route 
master plan of ports and rail all around the world.
    We believe we have sufficient facilities globally to handle 
most contingencies. Unfortunately, until you get into the 
fight, you do not know specifics about which exact ones you are 
going to need when, because you do not know what the enemy is 
going to take away from you.
    So based on initial assessments, we do it, and then we 
continue to assess as the enemy moves and we countermove.
    We believe that, in the early days, as we provide ways to 
mitigate the threat, maybe we have greater access in some 
places that we do not think of using now, and we have to be 
resilient enough to go to those places.
    Senator Reed. With regard to the issue of ships 
particularly, or aircraft going into contested areas, do you 
have any contractual authority to compel them to do that? Or do 
they have an opportunity in the contract to just simply 
decline?
    General McDew. So it is twofold. We also have a 
responsibility to them to not send them into harm's way if they 
are not prepared to go, in particular with the Civil Reserve 
Air Fleet.
    Right now, with the FAA [Federal Aviation Administration], 
the FAA trusts us to make the determination of when a place is 
sufficient to send in a commercial aircraft. We owe that to 
them. We also owe them a little bit better training on tactics 
and procedures, and maybe some way of how to operate in a 
convoy environment.
    My Military Sealift Command commander right now is trying 
to work with commercial industry to see where we can strengthen 
their ability to operate at least on the edges of the contested 
environment.
    Senator Reed. Again, is there any consideration to 
legislation that might give you more appropriate authorities in 
this regard? Because the problem the chairman has pointed out 
is a real problem.
    General McDew. The problem is, indeed, real. We have gone 
down the path of trying to work with industry because they have 
been beside us a long time. We believe they will want to. But 
we do not want to put a ship in harm's way, because losing the 
ship is worse than not sailing the ship.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. General McDew, one of the problems that we 
have when you are trying to move this equipment, the function 
that you perform, it is either by sea or by air. Air, 
obviously, is the one that meets the needs because you do not 
have a lot of the time that you normally would have to be 
dealing with.
    But we also know the risks that are out there. We know the 
surface-to-air capability of the enemy. We know the air-to-air 
capability. We know those problems that exist. As was pointed 
out by the chairman in his opening statement, we are not able 
to handle the capacity by air, so it ends up being by ship. 
Then you have problems there too.
    So with the age of our fleets right now, 39 years for the 
ships, and then when you look at the C-5s, C-17s, you look at 
what we are doing right now at Tinker Air Force Base, trying to 
take the KC-135s down to the skeleton and then just rebuilding 
them, how big of a problem do you see this today and as you 
look into the future, to perform the functions that you are 
supposed to be performing with just the sheer age of this 
stuff? The KC-46 will not be around for some time to relieve 
this. So what kind of a problem is this?
    General McDew. Senator, recapitalizing all of those fleets 
is a problem. Doing it underneath the budget constraints we 
have had will be nearly impossible.
    We owe the Congress possibly better numbers. I have been 
part of propelling some numbers of tankers that are needed to 
provide help around the globe, the number of ships. Our 
contested environment wargames tell us that those numbers may 
not be sufficient, because we have never, in the history that I 
can remember, planned for attrition of our logistics. We have 
not fought for 70-plus years an adversary that can do that to 
us.
    So age is one level of attrition. Enemy action is another 
level of attrition. Lack of sufficient maintenance so that it 
is reliable is another.
    The tanker problem, if we are going to go after 12 
airplanes a year, of the KC-46, of recapping, that is going to 
produce risk long-term as these airplanes continue to age as we 
recap.
    Senator Inhofe. That is true. It is also, as you are making 
the decisions now, I can remember when we were making decisions 
on the C-17. I remember we talked about at one time that it was 
going to be 210. Then it was going to be--anyway, when Cheney 
came along and actually increased that.
    But every time you make those changes, you are affecting 
risk. That is the thing that concerns me.
    Now the chairman brought out our reliance upon the private 
sector in some of these areas. I was reading in your prepared 
statement, and I will just repeat it here: ``Unfortunately, the 
U.S.-flagged international commercial fleet and Mariner pool 
has shrunk over time. While we have contingency plans, further 
reductions may cause us to investigate other options, such as 
using more foreign-flagged international commercial vessels 
manned by foreign crews during crisis or war. American shipping 
companies continue to re-flag vessels to foreign nations, 
diminishing the size of our commercial fleet.''
    Now, we had said that our commercial fleet should be able 
to take care of some 90 percent of the need. My concern is 
every bit as much the reliance upon the other countries as it 
is being reliant upon the private sector. Do you agree with 
that?
    General McDew. Senator, we have always been a Nation that 
has had a large enough maritime fleet, and we have been a 
maritime country, and we have always had the ability to do that 
indigenous to U.S.-flagged vessels.
    Senator Inhofe. Yes, that is what we have always been able 
to do. That is not the case now.
    General McDew. We are in jeopardy now. Now we are at about 
80 ships.
    Senator Inhofe. This is a new threat that was not there 
before, and I agree with that, and I am concerned about that.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General McDew, thank you for being here. I certainly 
appreciate what you said in your statement about the importance 
of TRANSCOM to any action we take anywhere in the world, so 
thank you, and everyone who serves in TRANSCOM.
    As I know you are aware, the 157th Air Refueling Guard Wing 
is at Pease in New Hampshire. We are one of those places that 
is going to first get the KC-46A tankers. I have had a chance 
to go up with the 157th and watch them refuel and am amazed at 
the skill and precision that all of those fliers have and how 
important it is to have that refueling capability as we are 
looking at what we need to do around the world.
    While I appreciate what you said about our problems are not 
going to be solved by the KC-46, can you talk about how 
important it is to have those planes delivered? I know the 
delivery date has slipped a little bit, so what are we doing to 
make sure that they are coming in on time where we need them to 
go?
    General McDew. Senator, behind the cyberthreat, tanker 
recap is probably my number one priority. If there was one 
thing that keeps me awake at night, that is the ability to 
provide the air refueling support that we need globally to 
respond anywhere around the world at the time of our choosing. 
The 157th is one of those units that we count on to do that.
    The KC-46 recap, or recapping takers writ large, is a very, 
very important program that cannot be allowed to slip much 
more. We are already assuming some level of risk, and that is 
before we learned about the things that we have going on in 
contested environments. We do not plan for losing tankers. If 
we do not recap them, any loss is more catastrophic.
    Senator Shaheen. Thank you. I certainly agree with that.
    I know that when we were in Afghanistan and Iraq, one of 
the challenges that we had at the height of those conflicts has 
been the ability to have our fuel keep up with the actions that 
were going on in the field. One of the things that I think the 
military has done an excellent job of is research into 
alternative ways to make us less dependent on those fuel lines 
and particularly foreign sources of oil.
    Can you talk a little bit about how you see the importance 
of those alternative fuels as you are looking at TRANSCOM's 
future?
    General McDew. Senator, I believe that a level of 
resilience across the entire portfolio is needed. The ability 
to have different sources of fuel, the ability to have 
different methods of delivering that fuel, DLA [Defense 
Logistics Agency] and all of our partners really work hard at 
that. I think it is important that we cannot just be relying on 
one source for anything.
    Senator Shaheen. Are you concerned about the progress that 
they are making? How are we doing? Is there any branch that is 
falling behind that we need to be worried about?
    General McDew. You know, with technology, always faster is 
better. But sometimes, the journey is important as you are 
going down new innovative paths.
    So I cannot tell anybody that is falling behind. But I 
think research and development on different ways of doing fuel 
is going to be important.
    Senator Shaheen. Just following up a little bit on the 
cyber concern, what more can we do on this committee to support 
the efforts to address both the intrusions and the cyberattacks 
that we are seeing? How can we help encourage the private 
sector that we are relying on to come to the table? Do we need 
to give you more authority? Do we need to take action that is 
going to address the private sector? What should this committee 
be looking at to support your efforts?
    General McDew. I would ask, Senator, that this committee 
and all the committees in the Congress, as well as the American 
public, become as paranoid about the cyberthreat as I have 
become.
    Senator Shaheen. Oh, I think we are pretty paranoid, 
actually.
    General McDew. I am not sure in the commercial industry 
that every CEO [Chief Executive Officer] sees the cyberthreat 
as something beyond their commercial viability, and I am not 
sure every CEO understands that it is CEO business and not the 
IT [information technology] department's business.
    Senator Shaheen. Thank you, a very important observation.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General McDew, thank you for your service to our country.
    A unique and significant part of the Nation's air mobility 
resource is the Civil Reserve Air Fleet, as the chairman has 
indicated, commonly referred to as CRAF. The average American 
may be surprised to know that, in 1991's Operation Desert 
Storm, 60 percent of all deployed troops and 25 percent of all 
cargo airlift went by commercial carriers, not military 
airlift.
    At the time, the Air Force had about 330 C-5s and C-141s 
for strategic airlift. Today, your posture statement says the 
CRAF requirement has grown from 60 percent to 90 percent for 
all passengers, and from 25 percent to 40 percent of all cargo.
    Meanwhile, the latest numbers that I have been shown, there 
are roughly 280 C-5s and C-17s in the inventory for this 
mission. This reduction of 50 aircraft since 1991, combined 
with the erosion of sealift availability, tells me that our 
ability to project military power is increasingly tied to our 
commercial air segment, blurring the lines between military and 
nonmilitary organizations required for national defense.
    Specifically, you have noted that one of the greatest 
challenges that TRANSCOM faces is from cyberattacks. Because it 
is not a DOD entity, the Civil Reserve Air Fleet resides 
outside the direct reach of CYBERCOM. How can we make certain 
that this fleet receives the same level of cyber defense as our 
strategic air units?
    General McDew. Right now, I have no mechanism to ensure 
that that can happen. I do not have the authority to compel a 
commercial industry to bring their standards up to the level 
that we have inside, nor are we assured exactly what that 
standard is. We do know that inside the Department of Defense, 
USCYBERCOM and others have established a standard that we 
believe that our networks are protected. Outside, I guarantee 
you that every CEO thinks that they have the level that they 
think they need. Reconciling what they think and what the 
reality is is important.
    Sharing information across from DOD to commercial industry, 
the Federal Government to commercial industry, is one. I can 
talk to CEOs, and I have talked to some that have no idea that 
they have been attacked. That is a problem.
    So before you can ensure that they are protected, they have 
to have the wherewithal to know that they have been attacked.
    Senator Rounds. The Department of Homeland Security, which 
is charged with protecting critical infrastructure, defines it 
as the assets, systems, and networks, whether physical or 
virtual, so vital to the United States that their 
incapacitation or destruction would have a debilitating effect 
on security, national economic security, national public health 
or safety, or any combination thereof.
    My question, I guess, would be, given our significant 
reliance on CRAF, would you consider it to be critical 
infrastructure?
    General McDew. I would, and I would also broaden the 
definition. There are many more things, because of the risk we 
have taken in the portfolio over the last couple decades, many 
more things are in the private sector. All of those things I 
rely upon for national security, and many of those things are 
not thought of that way on a regular basis.
    Senator Rounds. Are there any other nonmilitary elements 
critical to TRANSCOM's mission that you would consider critical 
infrastructure?
    General McDew. Critical, I do not want to get into the 
actual definition of critical, but there are elements of 
commercial, everyday use--road, rail, seaports--that are all 
critical. When we need to go to war as a Nation, they are all 
critical.
    Senator Rounds. What interaction does TRANSCOM have with 
the Department of Homeland Security regarding such 
infrastructure?
    General McDew. Most of our links are through the Department 
of Transportation. We do have links to the Department of 
Homeland Security. We meet regularly. I have a liaison officer 
from both the FBI, and we work extensively with the 
interagency.
    The problem is, I do not know if we have sung loud enough. 
We have just learned a number of things ourselves over the last 
year about how vulnerable we are. We have learned some things 
over the last year on how we can protect ourselves better. Now 
we are able to be a better partner, I believe, in the 
interagency.
    Senator Rounds. General, thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General, it is good to see you. Thank you for your service.
    I want to talk about Red Hill. The Red Hill Bulk Fuel 
Storage Facility at Joint Base Pearl Harbor is a key component 
of the Navy's operations in the Pacific and Asia to provide 
secure underground fuel storage for ships and aircraft, and it 
is of vital strategic importance.
    For anyone who has not visited the Red Hill Bulk Fuel 
Storage Facility, it is massive. The engineering feat to create 
that facility is on the order of Hoover Dam, so we are talking 
about a huge facility.
    Can you discuss the impact that this secure storage 
facility has on the reliability and resilience of refueling in 
the Pacific? What would happen if this facility were closed?
    General McDew. I cannot speak directly to that one. That 
would be more in the purview of DLA and partners at the Defense 
Logistics Agency.
    However, anything that lessens our ability to have fuel 
available in the Pacific region is detrimental to our ability 
to go to war.
    Senator Hirono. Have you ever visited this facility?
    General McDew. Not directly, Senator.
    Senator Hirono. If you ever get to Hawaii, please do so. I 
am sure you do get to Hawaii. Please do so.
    The Air Force has been using Active Associate Units for 
many years. These can be very strong units showing the 
collaborative capabilities of joint Active Duty and Guard 
organizations.
    What are your thoughts on Active Associate Units? Could you 
use more in the tanker and airlift fleet?
    General McDew. Senator, Active Associate Units have been a 
part of our DNA [deoxyribonucleic acid] in the transportation 
business since the 1960s. They have been a viable way of 
augmenting and strengthening our ability to provide air 
refueling, in particular in airlift. I think it is vital going 
forward that every unit--and I believe the Air Force has this 
as part of their plan--every unit in the KC-46 will be 
associated in some way. We can do more with many.
    Some units are better at this than others and have a proven 
track record. Some need some help. As we go forward, I believe 
that we will get better and better at doing this in the future.
    Senator Hirono. Admiral Harris testified before SASC 
[Senate Armed Services Committee] last week that, of the five 
global challenges that currently drive U.S. defense planning 
and budgeting, four are in the Asia-Pacific region.
    How does tyranny of distance in the Asia-Pacific region 
impact your planning for the projection of forces and 
sustainment in the region? How would those plans be modified if 
more than one global challenge needed to be immediately 
addressed in the region?
    General McDew. I do not like to disagree with my good 
friend Harry Harris, and I understand why he focuses on that 
particular region. I tend to focus on the globe, and there is 
not one of those problems that is not resident everywhere on 
the globe.
    So for my portfolio, it is a global problem. It is a 
transregional problem. We need to be able to make sure that 
every combatant commander that has a region understands that 
they may not be the primary effort, depending on what is 
happening around the globe.
    Senator Hirono. So since you look at the threats globally--
and, of course, PACOM [United States Pacific Command] 
represents 51 percent of the world's area. So especially with 
the threat of North Korea, how do you go about determining what 
resources you would place with regard to the needs of our 
combatant commanders?
    General McDew. We respond to the priorities set by the 
Secretary of Defense and through the Joint Staff. So the 
priority of effort must be set. Right now, the priority of 
effort is providing General Vince Brooks and Harry Harris the 
resources they need to ensure that they can respond to whatever 
provocative actions are taken by North Korea. If they are no 
longer the priority of effort, we swing to some other part of 
the world. We do not have the resources to be everywhere for 
everybody.
    Senator Hirono. So you say right now the priority area is 
the DMZ [Demilitarized Zone] and Pacific Command, Harry Harris?
    General McDew. I may have misspoken slightly. So I did say 
that. I am giving a lot of effort to Harry Harris and Vince 
Brooks because I know that they have a challenge that they are 
facing immediately. Scaparrotti, Votel, all of them have issues 
that they are dealing with, and we try to work around the globe 
for all of them.
    Senator Hirono. Thank you.
    This question has come up before, our reliance on 
commercial assets for power projection and sustainment. If sea 
lanes and air lanes are compromised, how will the U.S. either 
defend our commercial partners or assume a larger role in 
transportation?
    General McDew. Senator, one of the reasons that I started 
calling the commercial industry my fourth component, I have an 
air component, I have an Army component, I have a Navy 
component, but a very important component that we have not 
looked at in that way is the commercial industry. Some of my 
predecessors actually would not even call them our partners, 
would not say the term out loud. I understand why they did it 
at the time.
    But in today's environment, I have to and must rely on this 
commercial industry to get things done. So we owe them a better 
view of their resilience. We owe them a better view of how they 
are going to contend in contested environments. We owe that to 
them in partnering with them.
    Senator Hirono. So you are taking specific steps to bring 
them more into an understanding of the challenges that we face?
    General McDew. Absolutely. Through organizations like the 
National Defense Transportation Association, which most of them 
are members of, we work on subcommittees to try to get after 
these problems.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    General, it is good to see you. Thanks for being here. Your 
grandson I am sure is quite lovely. My own daughter, we called 
her chubbo-bubbo when she was a baby as well.
    But thank you for your testimony this morning. I do 
appreciate you being here.
    As a transportation officer, I do have a lot of respect and 
understanding of the important role that TRANSCOM plays for all 
of us that have served in uniform, so thank you so much.
    The risk you describe from the cyberthreats to the 
refueling shortfalls could have incredible impacts on our 
national security. I am glad we are addressing those today.
    You mentioned in your testimony that your tankers are 
conducting aerial refueling operations every 5 minutes over the 
skies of Iraq and Afghanistan. When I hear about that, I think 
about how we are misallocating fourth generation fighter jets 
and tankers to bomb a pickup truck when they could be keeping 
Russia or China at bay.
    To me, it highlights why the services need to continue 
pursuing highly lethal and low-cost solutions in one theater to 
allow better use of high-cost technologies where they are 
needed most.
    Can you describe to me, General, how pursuing more cost-
effective tactics on the battlefield can help alleviate some of 
the stress that we have put on TRANSCOM?
    General McDew. First of all, Senator, thanks very much. 
There are a bunch of folks in the cornfields of Illinois right 
now that loved every statement that you had to say about the 
wonders of the transporters.
    What we do, I believe, does keep the 4-plus-1 priorities 
and our enemies at bay. They understand that we still have the 
capacity to bring a decisive force or an immediate force when 
needed. I still believe that most adversaries get that. We are 
challenged in how well we can do it, how long we can do it. But 
I still believe it causes them pause.
    Going forward, how long will it stay that way? Innovation 
will help us. We have to get after autonomy. We have to get 
after a lot of different ways that we can use cheaper methods 
in some regions because we will never have enough resources to 
place them in every region around the world permanently.
    Senator Ernst. Truly. Thank you. I appreciate that.
    General, U.S. special operations teams are some of the most 
utilized forces against our current enemies. But unfortunately, 
their remote locations and need for secrecy create quite a 
unique transportation challenge. As you probably know, the 
special forces team that led the American invasion in 
Afghanistan rode in on horseback.
    Just tying in with that, what challenges do you face in 
TRANSCOM when you are seeking to support our special operators?
    General McDew. One is to let General Thomas know that I do 
not have horses.
    Senator Ernst. No stables, no horses.
    General McDew. General Thomas and his team and our team at 
TRANSCOM talk regularly. We understand that they are in small 
places with small teams doing big business. So we work very 
closely with them on both how they contract, how they supply 
themselves, and we try to make sure that we are giving them the 
value of our expertise. They do a lot of things well. We do 
this well.
    Senator Ernst. Very good. I appreciate that.
    You had given some inspiring remarks on innovative thinking 
last month, telling your servicemembers that you needed true 
innovation and not just technology. I do agree with that.
    I also agree with your remarks about our failing 
acquisition system. As you say, taking 10 years to develop a 
weapons system will leave us behind our adversaries.
    How is that failing acquisition system impacting TRANSCOM? 
What can we do a better?
    General McDew. It is a broad problem as you know, Senator. 
One of the things is it is everything from how we train our 
acquisition professionals who do the best they can with the 
tools they are given to giving them better tools and then 
giving them different expectations.
    Sometimes commanders need to be more involved with setting 
an expectation for what is going to come out of that 
acquisition process and how quickly, and then sometimes we have 
to press the system because on the edges of the regulations are 
opportunities. Maybe we have not explored all the edges, but we 
do need to get after better training and better tools.
    Senator Ernst. Fantastic. Thank you, General, for being 
here today.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    First, General, I did not know until today that you spent 
your first 5 years in the Air Force at Loring Air Force Base.
    General McDew. Actually, 5.5 years, six winters.
    Senator King. Five and a half years, six winters. I always 
knew you were a man of insight, intellect, and character, and 
now I understand where it came from. Aroostook County will do 
that for you.
    I also understand Senator Shaheen mentioned----
    Chairman McCain. I think we need regular order here.
    [Laughter.]
    Senator King. I will not violate Rule 19, Mr. Chairman.
    But I have to mention 101st Air Refueling Wing in Bangor. I 
was with the chairman in Qatar a couple years ago, and they 
were proudly serving there. We affectionately refer to them as 
the Maniacs, and they do a wonderful job.
    In fact, they allowed me to fly the boom in one of the 
planes. For some reason, they did not allow me to fly the boom 
when there was a jet aircraft attached to it.
    General McDew. I appreciate that.
    Senator King. Yes, I thought that you might want to know 
that.
    I know Senator Rounds talked a bit about the cyber issue. I 
am gravely concerned because, as you have testified, your 
capacity is very dependent upon commercial partners. You said 
that every CEO says they are safe, and I do not believe it. I 
hope that you can do more than admonish them. I would hope that 
we have these contracts with them, which they believe are 
profitable, that is why they enter into them, but the 
contracts, in my view, should have conditions that take 
seriously this threat, because this could be a critical 
disruption that would absolutely devastate our ability to 
respond to a crisis.
    General McDew. Senator, one of the first steps we believe 
is setting a clear cybersecurity standard. That standard has to 
continue to evolve as we learn more and the tools get better in 
how we defend networks, so it cannot be a static requirement.
    The next thing we probably need to get to is some level of 
third-party verification that companies are complying with said 
standard, and we are not there yet, but we are working with 
industry right now to try to get after both of those.
    Senator King. Testing the system, wargaming or testing the 
system to be sure that it actually will work under a stressful 
condition, a red team kind of approach, which I know that other 
areas of the government do, and I think it has been very 
effective. So that is an area of vulnerability I hope that you 
will really focus upon, because when we need it, we have to 
have that commercial capacity there.
    General McDew. Right. Senator, as you know, right now, we 
have no authority to compel commercial industry to do that, nor 
am I seeking it. Right now, we are working with them to 
collaboratively get to a place, and also working with DHS and 
FBI to try to help them----
    Senator King. Well, but I would suggest you do have 
contracts with these folks, and they are getting paid high-test 
U.S. dollars, and that gives you some power to make some pretty 
serious requirements. I urge you to set your general counsel 
loose on that issue.
    Let me go back to the wargame, which I understand you 
participated in. Was it successful? Well, I will leave the 
question at that, and then we will explore the answer.
    General McDew. When I first started doing wargames and 
exercises as a young officer, success was defined differently. 
As I am a little bit more senior now and have become a senior 
citizen in the United States military, success is a level of 
knowledge attained at the end of it that you can do something 
with.
    Senator King. Exactly. That was going to be my question. 
Success is not winning. Success is learning.
    General McDew. So that journey was so profitable for us as 
a command that I cannot even put a dollar figure on it. It is 
now driving everything we think about mission assurance in our 
portfolio--everything.
    Senator King. Let me ask about a specific problem that I 
think we are all facing, we are certainly facing in the Air 
Force generally, and it faces you both in commercial and Air 
Force--the pilot shortage, the looming pilot shortage.
    Isn't that essentially a kind of logistical challenge? We 
cannot get troops places if we do not have pilots. There is a 
shortage--Senator Cotton and I are having a meeting on this in 
the next several weeks--in the Air Force, but it is happening 
on the commercial side as well. Is this a concern?
    General McDew. It is a concern. We are actually showing 
shortages across several places in our portfolio, from mariners 
to pilots to truck drivers. Each of those has its own problems 
in the manpower solution area. Right now, the Air Force Chief 
of Staff and the Commander of Air Mobility Command are trying 
to meet with the CEOs of the major airlines to get after how 
they may partner differently to improve that problem.
    Senator King. A final question. Are you comfortable with 
the relationship with the commercial industry on the sealift 
side, on the air side, that they will be there when we need 
them, I guess is the question?
    General McDew. I am. I am confident, Senator. But I am also 
confident that they do not know where ``there'' is. I am 
confident that we have not fully defined the ``there'' for them 
yet enough, and we have not thought our way through, what does 
it mean to go to war reliant upon this much commercial activity 
in a contested environment?
    Senator King. I would suggest that wargaming and stress-
testing would be very important, particularly where you do not 
have direct control over these assets.
    General McDew. We are with you, and we are working on it 
right now.
    Senator King. Thank you very much, General.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    General McDew, thank you for being here.
    Just to briefly touch on the cyber discussion, if I were 
planning a way to disrupt your ability to play your role in the 
logistics chain, it would be one of the first places. I would 
go find a supplier network.
    If you go back and take a look at the exercise, the 580 
Stryker tires, I do not know how much you have in inventory, 
but at that scale, to a large engagement or a large deployment, 
I would go after whatever that supply chain looks like and try 
to disrupt their ability to communicate with your organization.
    The one question I would like to get an answer to, though, 
is that I think if you are going to try to get--you know, it is 
the weakest link. If the DOD feels relatively comfortable that 
they are protecting their systems, that is great. But if major 
suppliers in the supply chain are vulnerable, then it does not 
really matter. It just means that you are not going to be able 
to execute.
    So why wouldn't we start creating, in your acquisitions 
hat, or with your expertise in acquisitions, a tiebreaker? We 
have to come up with standards, and I get the third party. I 
used to be in a firm that did ethical hack testing.
    So you need third party verification, but why not a 
tiebreaker between potential contractors that depends upon 
their level of sophistication and impenetrability? Why wouldn't 
you be seeking the authorities, if it is necessary, for you to 
have that baked into any kind of acquisition contracts or RFPs 
[Requests for Proposals] or selections going forward?
    General McDew. I believe we have the authority right now to 
bake it in. We may not have the full knowledge on how to bake 
it in. So we are working on those very things. I have 
challenged my acquisitions team to some of those very things.
    What we have found over time, if the commercial industry is 
my fourth component, it is better to work with them than 
against them, so we believe that we are working together, maybe 
not as quickly as we want, so I may have to turn the heat up a 
little bit.
    The first heat is to set a clear, definable cyber standard 
that evolves over time, and then go after third-party 
verification to ensure they are in compliance.
    Senator Tillis. Senator King brought up the recent exercise 
with the 12 ships, five failures, and I already mentioned the 
Stryker tires. I am not sure if just learning is winning.
    If you were to scale that, I mean, this is obviously a 
wargame. This is not the added level of complexity of actually 
going into a contested area, and that by itself can create 
distractions and probably cause a higher failure rate just 
because things are moving quickly. It looks like, based on what 
I have read, that it did look like it was a lack of training on 
the part of contractors, at least for the Stryker. I am not 
sure about the ships.
    Where are you getting the resources to do that? How do you 
actually get them trained up to a level to where you can rely 
on this pretty significant component on contractors?
    General McDew. Anyplace that we look inside of our 
portfolio, we are struggling on a regular basis with how you 
get beyond what you can do on a daily basis. I have sufficient 
manpower and expertise to do our job every single day. Under 
sequestration, we lost some manpower, but we are still 
sufficient to do that work every day.
    What we are struggling with right now is our ability to 
think forward, our ability to innovate, our ability to come 
after resiliency standards, and to be resilient ourselves.
    We have gotten so efficient and lean that some of this 
stuff just takes more time because you do not have the people 
there to do it.
    Senator Tillis. It seems to me, based on some responses to 
some of the other members, that we have the ability for a 
short-term--to basically be able to support in a short-term 
environment. But if we got into a protracted environment, it 
does not sound like you have a high level of confidence that 
whatever we may be able to perform over some period of time, 
that we could do it on a sustained basis. Is that fair to 
characterize your comments that way?
    General McDew. I think some of it is I am a bit 
inarticulate. I am trying not to pin myself down by specifying 
a period of time. ``Protracted'' is a word that can mean 
anything to anybody. Is it 1 month, 2 months, 6 months?
    In some of the conflicts, depending on the level of 
classification we can talk, we can go up to 6 months fairly 
easily. Beyond 6 months, there is a challenge. So it depends on 
what conflict and what the level of contested environment there 
is as to how far that protraction can be.
    Senator Tillis. Thank you, Mr. Chairman.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    General McDew, it is great to have you here. Before I ask 
you a few questions, I have to join some of my colleagues in 
giving accolades to Michigan Air National Guard and to our 
127th Air Refueling Group out of Selfridge.
    General McDew. Can I get the chairman to acknowledge one 
thing? During my confirmation hearing, he chastised me because 
I actually said nice things about all the units as every 
Senator brought up their units. I have refrained from doing 
that this time.
    [Laughter.]
    Chairman McCain. An impressive improvement.
    [Laughter.]
    Senator Peters. Well, I will give those accolades, and I 
appreciate your nod. They are doing a great job, General.
    My question is, China has made significant investments 
globally in ports and railways. By some estimates, China has 
some degree of investment in nearly two-thirds of the world's 
top 50 ports, which handle 67 percent of the global container 
volume.
    The Committee on Foreign Investment in the United States, 
or CFIUS, reviews transactions that result in control of U.S. 
businesses by foreign entities to determine if there could be 
an impact on national security. But CFIUS does not have a role 
if there is not a U.S. nexus for an investment, merger, or 
takeover.
    I know you have a very deep understanding of the link 
between investments in strategic assets and U.S. national 
security. But my question is, should analysts in the U.S. 
Government and military pay more attention to foreign 
investment in strategic assets like ports around the world?
    General McDew. Yes, Senator.
    Senator Peters. Could you elaborate, please?
    General McDew. In my business, I did not know the two-
thirds number, but I do not see many ports around the world 
where the Chinese are not investing. I know that on one level 
in this country, we are linked economically, and they are not 
an adversary today, but they have the potential to be one in 
the future.
    Anybody that is investing globally in ports, and if we are 
a maritime Nation, we ought to be concerned about their 
feelings about freedom of access and how we operate around the 
globe, and they have not shown that freedom of access means the 
same to them as it does to us.
    Senator Peters. So are you concerned then about the 
potential for strategic investments by other nations could have 
on your ability to operate? Is that what I am hearing from your 
answer?
    General McDew. I am and that is one of the reasons that I 
spend a great amount of my time traveling around the world, in 
particular working with the State Department, strengthening 
relationships that we have in countries, and having them fully 
understand why those relationships are important, and their 
ports and their rail infrastructure are important to us.
    Senator Peters. We have talked a great deal about some of 
your challenges in terms of capacity to move both fuel and 
heavy material with sealift operations. If you could talk a 
little bit about pre-positioned forces and the importance of 
that? Certainly, one way to deal with the challenges of moving 
something from A to B, is to already have moved it to B prior 
to a conflict. We have challenges in Europe to move heavy 
material, should we see increased aggressive behavior there, 
certainly with what is happening in Korea as well.
    Please discuss the importance of pre-positioned forces. Do 
you believe that perhaps we should consider increasing the 
amount of pre-positioned equipment in various strategic 
locations?
    General McDew. I believe, first, Senator, we need a clear 
strategy of what we want to achieve in a particular region. 
That strategy then needs to be informed by the resourcing to do 
whatever that strategy would call us to do.
    Pre-positioning forces have always been important resources 
for us. They have become more important as we have withdrawn 
forces from places around the world and brought them back into 
the CONUS [Continental United States], because now we are a 
projecting force. With that, as you said, having stuff already 
at B is very, very helpful.
    To ensure that each one of those stocks is fully upgraded--
i.e., is it new equipment? Is it equipment that has at least 
been tested? Is all of the equipment set there? All of that is 
important, and it all plays together.
    Senator Peters. Thank you, General. I appreciate it.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    General, thank you for your service and dedication to the 
country.
    Last week, Admiral Harry Harris addressed the resources 
requirements to conduct military operations in the Asian-
Pacific in the event of hostilities. He told this committee 
that he had the forces in place to ``fight tonight, if 
necessary,'' but that what concerned him was the ``follow-on 
resources'' and how those follow-on resources would get to the 
region in terms of airlift and sealift.
    General, do you share Admiral Harris' concerns?
    General McDew. I believe that Admiral Harris has a right to 
be concerned because it is his AOR [area of responsibility]. I 
believe that he has a point to be made in that any time we have 
to project a force, we ought to be concerned about how it is 
going to get there.
    We are no longer assured that everything that we send from 
the CONUS will arrive at its point of destination. It could be 
because it is old. It could be because of weather. It could be 
because the enemy had a vote. So I am concerned.
    Now, from my discussions with him and with General Vince 
Brooks, the immediate follow-on forces that he needs, we are 
ready to send.
    Senator Cruz. So what most worries you with respect to our 
ability to flow resources into the Asia-Pacific theater?
    General McDew. Our ability to rely upon the commercial 
industry, which we will have to rely on over time, and how long 
the environment remains contested and to what level. Each of 
those are a bit of unknowns, and how we will maneuver through 
that space is going to be vitally important for how long 
protraction is and what protraction will mean.
    Senator Cruz. So let's shift to a different topic.
    In the past decades, the United States has had the luxury 
of having secure air and sea lines of communication. Given the 
increasing anti-access/area denial efforts of China, there is a 
chance we could be denied that luxury in a future conflict.
    A recent article by Dean Cheng, a senior fellow at the 
Heritage Foundation, posited that, ``The ability of the Chinese 
to deploy substantial forces into the central Pacific would 
place American logistics and support forces at risk. The loss 
of one or more underway replenishment ships would rapidly 
curtail the ability of the American surface forces, including 
aircraft carriers, to operate.''
    What is TRANSCOM's plan to replenish ships and aircraft in 
the event that we must fight our way into an area where anti-
access/area denial has succeeded?
    General McDew. Senator, without getting into too much level 
of classification, I can tell you that we are in new territory. 
As you said, we have not been in this place in decades. I 
believe that the Navy, in particular, the Air Force, are both 
working on plans that get back to dominating those domains, but 
realizing that the logistics infrastructure has not been 
challenged for so long, it is just a new place for us, and we 
are having to go after that.
    I believe that we are making progress, not as fast as we 
all want.
    Senator Cruz. On another topic, one of the critical 
backgrounds of Air Mobility Command is the tactical airlift 
capacity of the C-130 Hercules. The 136th Airlift Wing, part of 
the Texas Air National Guard, and you are free to defy the 
Chairman and praise them vociferously, is flying C-130Hs and 
performing extraordinarily well.
    You expressed concern in your House testimony last month 
that, ``Continued modernization efforts in our C-130H fleet 
must be prioritized as a relatively inexpensive means of 
maintaining critical capacity.''
    Could you expand on those sentiments?
    General McDew. I believe that one of the things we have to 
look at as we look at our tactical airlift capability is to 
ensure that all of those units that fly those airplanes have 
the wherewithal to fly in the new airspace and are modern 
enough to continue to be a viable resource.
    I was an old C-130 pilot myself. I flew E models. If anyone 
had E models today, I would say that we need to retire them all 
until they are all gone.
    Depending on which level of H, it is just a matter of a 
software upgrade, so I believe we are okay. I would make sure 
that we are not overprioritizing C-130s to the detriment of 
takers right now, because that is a higher priority need for 
me.
    Senator Cruz. Thank you, General.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Good to see you, General. I know well that cornfield you 
referenced. It looks familiar since it is right across the 
border. I understand the importance of Scott Air Force Base not 
just to TRANSCOM and our military but to the region in St. 
Louis. I am a big fan of all the work you do there, and I am 
pleased that we are having this hearing today.
    Let's talk a little bit about contested environments and 
airlift in contested environments. Since my colleague from 
Texas was talking about his unit, I know you know I am going to 
mention the 139th, because, as you are well-aware, this is an 
international training school for resupplying contested 
environments. That is obviously Rosecrans, once again, right in 
the heart of America. We call it the top gun of airlift. I 
think that is an accurate description since I have run into 
people who have been trained at Rosecrans literally all over 
the world, particularly when I have been to Iraq and 
Afghanistan.
    Could you talk a little bit about the plan for testing new 
equipment that we are going to have dedicated to training 
rather than having to pull these aircraft out of units for 
training that they are trying to site for C-130Hs, each a 
different variant, with a training wing?
    We are hopeful, obviously, that that would get sited at St. 
Joe because of the inherent capabilities we have and the 
advantage of the location and the already international 
clientele we have in terms of our allies getting trained in 
this important resupplying in contested environments.
    Talk to me, if you would, about the 139th Airlift and the 
training that goes on there, and what your view is of that 
capability in terms of training in contested environments?
    General McDew. I believe that the instructors that we have 
at Rosecrans are some of the best in the C-130 business. They 
have a lot of experience. They have been flying the airplane 
for a long time, and they are steeped in tactics, techniques, 
and procedures for the aircraft. So it is a resource that we 
have to rely on as we go talking more broadly about contested 
environments.
    I have tasked Air Mobility Command to lead a contested 
environment summit. I would hope, and I have to believe, that 
they will have Rosecrans members there to help us get after 
solutions to our contested environment wargame level of 
learning.
    We have learned a bunch of things that should scare us. Now 
we are going after what we do about it and how we fix and 
mitigate some of these concerns.
    Senator McCaskill. Let me talk a little bit about your 
testimony, which I found stunning, the shortage of 75,000 
licensed drivers in the trucking industry, and understanding 
how important this is for our capabilities in terms of supply 
and resupply.
    The projected shortfall is due to increase to 890,000 
drivers by 2027. The current shortage has the trucking industry 
operating at a 95 percent capacity every day, which basically 
leaves no surge capacity for high-volume DOD requirements in a 
time of conflict without severely disrupting commercial 
services across the country, which is a whole other price we 
would have to pay in our economy if that were the case.
    While I want to make sure that we are making it as easy as 
possible for trained military to transition into civilian life, 
and, obviously, we have a lot of great truck drivers that are 
trained in the military--once again, trained in my state at 
Fort Leatherwood--I am worried that even if we put every single 
truck driver we train in the military into the civilian 
trucking industry, we are still not going to have enough.
    So let me ask you, have you all looked--I worry about 
driverless trucks, in terms of what it is going to do to jobs 
in this country. But have you all began to talk about, in the 
future, the use of driverless trucks in this capacity? Could 
you speak to that for a few moments?
    General McDew. Senator, we have actually looked at autonomy 
across a broad portfolio, from ships to trains to trucks to 
airplanes. We believe that you must have that level of 
technological advancement as you go forward.
    Somewhere along the way, we are losing the young men and 
women who grew up wanting to be truck drivers and airplane 
drivers and train drivers. With a lack of capacity, the 
technology will have to take over. We just have to have this 
technology going forward.
    I believe the advances being made by some in the civil 
sector is pretty impressive.
    Senator McCaskill. It is. I know that we have some 
autonomous buses going now and other trucks.
    Have you reached out to some of the companies doing this to 
see if it would be possible for you all to do some pilot work, 
maybe over on the base at Scott, to begin to get your arms 
around what driverless trucks would feel like in terms of your 
need to supply our troops?
    General McDew. Most of that work is being done in the 
services, in the organized train and equip role. The Army is 
working a lot on autonomous vehicles. The Navy has some 
autonomous vehicles. The Air Force is also working with some 
semiautonomous and autonomous work through DARPA [Defense 
Advanced Research Projects Agency].
    Senator McCaskill. Great.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you for being here, General.
    I want to quickly ask about the importance of our 
nonmilitary agencies and assistance to your mission.
    TRANSCOM maintains a presence around the world, and we need 
other countries, ports and rail and road networks to be 
upgraded and to be secure, so that those countries can receive 
our military equipment. We rely on diplomatic agreements with 
other countries for our pre-positioned equipment.
    So I just want to ask, General, would a reduction in 
funding to the civilian agencies and programs that enable your 
global distribution networks make your job easier or harder?
    General McDew. Senator, our job as a COCOM [combatant 
command] with global responsibilities relies on every partner 
we can get our hands on. One of our biggest partners is the 
State Department, and a lot of interagency partners around the 
globe, because they help us build relationships in the areas 
that we cannot be at on a regular basis. You cannot build a 
relationship when you need a relationship.
    Senator Warren. Right. So I take it the answer is, it would 
make your job a lot harder.
    General McDew. It would make it a little harder.
    Senator Warren. It would make it a little harder. I agree 
with this, and I point out that the administration is seeking 
significant reduction to the Department of State and to USAID 
[United States Agency for International Development].
    Of course, our military is critically important to our 
security, but we cannot forget that nonmilitary programs are 
critical enablers of the military to do the jobs that you need 
to do.
    Now, General, I also want to ask you another question. When 
you testified in front of the House Armed Services Committee 
several weeks ago, you said that getting C-5s out of the backup 
inventory was your number one priority for the NDAA [National 
Defense Authorization Act]. The upgraded C-5 is currently our 
only cargo aircraft that can make a transcontinental flight 
without refueling.
    So, General, would having those additional C-5s back in 
inventory help mitigate your aerial refueling challenge by 
providing more capacity to move cargo without needing to 
refuel?
    General McDew. I believe we can also do a transcontinental 
flight with a C-17. But the C-5s, we need those additional C-5s 
back in the inventory. I believe the Air Force has just 
recently committed to doing that over the next few years, so 
that will be very, very helpful.
    Senator Warren. All right. Can you just expand just a 
little bit on the importance of the C-5? Why the C-5 is a 
critical piece of equipment for you to get your job done?
    General McDew. It is the totality of the mission set.
    First, we have limited numbers of strategic assets. The C-5 
provides an outsized cargo capability and a long-range 
capability. Having been on the receiving end at a deployed 
location of a C-5's stuff, there is nothing like a C-5 load 
full of the stuff arriving time after time after time if you 
are standing up an operation quickly.
    Senator Warren. Right. I understand it is the only aircraft 
that can carry two Abrams tanks, or that it can carry six 
helicopters simultaneously.
    So I take it that is a good boost to efforts on the ground.
    General McDew. That is a good thing.
    Senator Warren. That is right. Good.
    Well, I just want to say, making sure that we have every 
available C-5 seems pretty important to me, not to mention the 
fact that we have invested a lot of money to upgrade them, and 
now they are sitting on the ramp. The economics of that just do 
not add up.
    Westover Air Reserve Base in Massachusetts has eight of 
these aircraft, and the people there tell me that these planes 
are in use pretty much all the time, and I am sure they would 
welcome additional C-5s to be able to work on their mission.
    So thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, General, for your service. I would like to focus 
a little bit on a topic that has been raised before, the 
cyberthreat, and ask specifically about your experience so far 
with some of the contractors.
    Are they required to report to you incidents or episodes of 
attacks, cyberattacks by a nation-state?
    General McDew. I believe that is a Federal requirement, but 
they are required to report.
    Senator Blumenthal. Do they report to you?
    General McDew. I believe they report to an organization 
called DC3. I am trying to remember. I have to get back to you 
on what that stands for. We speak in acronyms, and sometimes we 
forget what the acronym actually stands for. But they actually 
report through an organization I believe that is part of DHS.
    Senator Blumenthal. Part of what, sorry?
    General McDew. Department of Homeland Security.
    Senator Blumenthal. So they do not report to the Department 
of Defense?
    General McDew. Not that I am aware of.
    Senator Blumenthal. But they are under contract with 
Department of Defense.
    General McDew. Right.
    Senator Blumenthal. Why aren't they reporting to you?
    General McDew. Let me be more clear about that afterward. I 
will get back to on the record for that. I am trying to 
remember exactly the reporting chain. The reporting requirement 
may be dual, and I do not want to misspeak.
    Senator Blumenthal. I am somewhat surprised that they are 
carrying out an essential national security and defense 
mission; they are under attack, just as they would be as if 
they were conducting a convoy in Afghanistan; and the 
Department of Defense is not informed directly.
    General McDew. Well, part of it, Senator, is ``attack.'' 
Let's talk about ``attack'' for a second.
    Let's say today, and I hate to name a company, because it 
will get somebody in trouble. If someone is not necessarily 
contracted with us and they get attacked, that is the same as 
if they are actually contracted with us and they get attacked.
    So I do not care where they report to, because if an 
adversary gets on their network and stays on their network, it 
does not matter whether they are actually doing my work at the 
time when the adversary moves laterally through their network 
and potentially invades my network.
    Senator Blumenthal. That is exactly the reason, General, 
why I think they should be reporting to you, because even if 
they are attacked--well, let me put it differently. It makes no 
difference whether they do civilian as well as military work. 
If they are attacked, it is an attack on a network that is 
performing national security military work and potentially not 
only undermines the function they do for you but gains entry 
into your computer networks----
    General McDew. Absolutely.
    Senator Blumenthal.--the Department of Defense computer 
networks. So I am somewhat at a loss to know why they are not 
instantaneously telling you, we have been attacked by Russia or 
China.
    General McDew. Part of it is I cannot do anything about it. 
This organization that they would report to has partnerships 
and alliances with the Department of Defense. So the Department 
of Homeland Security in their role to have the non-DOD side of 
cyberdefense is partnered with DOD and CYBERCOM.
    So that organization that would respond to an attack is 
linked that way. My organization would be interested to know 
that that company has been attacked, but we would rely on 
others to do something about it. We would like to know because 
then it would tell us what we could do with that organization 
going forward.
    Senator Blumenthal. Well, I would think for a variety of 
reasons you would like to know. Have you ever asked? Have you 
ever sought that information?
    General McDew. So that information-sharing is what I am 
really talking about. We have good information-sharing in some 
areas. It can be better across the entire spectrum, because 
most of the time, the attack or the intrusion takes place and 
no one thinks it is an attack or an intrusion. It can look like 
a harmless mechanical failure.
    Senator Blumenthal. Let me ask you this. Would you like 
that information directly?
    General McDew. I think I do need it directly. I do not need 
it as quickly as CYBERCOM needs it or DHS needs it, but I need 
the information.
    Senator Blumenthal. You do need to directly.
    General McDew. Right.
    Senator Blumenthal. When you talk about it, you do not need 
it as quickly, if it is made available to them, it can be made 
available to you.
    General McDew. Absolutely.
    Senator Blumenthal. Thank you, Mr. Chairman.
    General McDew. The unfortunate thing, Senator, is that the 
speed of this domain does not comport well to how we do 
information-sharing. Things happen so quickly, and we have to 
not think about sharing. We just have to share in a classified 
way.
    Senator Blumenthal. Thank you.
    Chairman McCain. General, all I can say is that we need to 
share. We also need to have an ability, either your 
organization or someone, to respond and to try to prevent, 
which is one of the major issues that this committee is having 
to address since certainly the last administration did not.
    Jack?
    Senator Reed. No, sir. I am fine.
    Chairman McCain. Thank you, General.
    General McDew. Thank you, Chairman. Thank you.
    [Whereupon, at 10:56 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                      big picture transcom issues
    1. Senator McCain. General McDew, at this time, could TRANSCOM 
respond to two concurrent global contingencies?
    General McDew. [Deleted.]

    2. Senator McCain. General McDew, can today's TRANSCOM operate in a 
contested environment?
    General McDew. Yes, TRANSCOM can operate in contested environments; 
however, we expect significant challenges to our freedom of action. We 
expect that future conflicts will cross regional boundaries and 
potential adversaries and peer competitors will field numerically 
superior forces with increasing-technological parity. Those adversaries 
are aware the United States has become accustomed to geographically-
isolated conflicts and enjoyed technological and logistical superiority 
over its adversaries, so we expect contested global sea lanes and air 
routes to a degree we have not faced since World War II. Furthermore, 
we expect significant challenges which could delay and degrade services 
in the support of combatant commanders and its Allies. Potential 
adversaries seek asymmetric means to cripple our force projection and 
sustainment capabilities by targeting critical military and civilian 
assets, both within the U.S. and abroad. Additionally, our enemies 
continue to use our dependence on the cyber domain against us. While it 
is true that a significant cyber related incident has the potential to 
disrupt and/or delay mission timeliness, TRANSCOM does possess the 
means to mitigate these challenges on the Department of Defense 
Information Network. However, unsecure networks and systems of our 
commercial transportation service providers, coupled with critical 
infrastructure vulnerabilities around the globe, almost wholly reside 
outside our control and pose significant risk to mission assurance. 
With those challenges in mind, the Command remains postured to operate 
in such an environment and effectively answer the Nation's call.

    3. Senator McCain. General McDew, do you believe that TRANSCOM can 
facilitate the mobilization sustainment of our armed forces if they 
were called to respond to a contingency in Russia or North Korea?
    General McDew. Yes, TRANSCOM can facilitate mobilization 
sustainment of our armed forces if they were called to respond to a 
contingency in Russia or North Korea. However, the age of the fleet 
across our strategic sealift portfolio drives increased risk to the 
Joint Force--if not recapitalized to retain capacity. For instance, the 
average age of our government-owned fleet exceeds 39 years. Without a 
valid sealift recapitalization plan, more than 50 percent of the 
sealift capacity provided by the fleet will be lost by 2034. The DOD 
will experience elevated risk without a recapitalization plan of the 
organic Surge Fleet, by either degraded power projection or being 
forced to rely on foreign flagged ships. Additionally, the commercial 
fleet has been in decline over the past several decades and while we 
can meet force closure requirements today with acceptable delays, 
additional reductions in the fleet put force closure at risk. 
USTRANSCOM continues to examine how we execute our logistics missions 
in contested environments by exercising and war-gaming logistics 
scenarios, account for transportations' vital roles, and for the first 
time potential losses. Any loss to the military sealift could severely 
impact our logistics mission.

    4. Senator McCain. General McDew, what assumptions do the COCOMs 
make for operational planning as to the readiness and capability of 
TRANSCOM?
    General McDew. COCOMs prepare operational plans (OPLANS) assuming 
an unconstrained environment where the combat forces required to carry 
out those plans and the corresponding sustainment stocks will be 
delivered on time and on target. In the rare case where a gap exists in 
the TRANSCOM deployment and distribution enterprise, the COCOMs assess 
the gap against the requirement to determine acceptability. All OPLANS 
are supportable with or without acceptable risk.

    5. Senator McCain. General McDew, do the Department's operational 
plans for regional and global contingencies assume 100 percent 
logistics, 100 percent of the time?
    General McDew. Yes, past mobility studies have assumed uncontested 
environments with secure air and sea lines of communications based on 
expected air and sea superiority. Future mobility analysis will 
consider contested environment challenges and will incorporate both 
operational readiness and attrition considerations. TRANSCOM advocates 
for cyber awareness for regional and global contingencies. For 
instance, nearly 90 percent of TRANSCOM's missions are still executed 
over unclassified commercial communications networks. TRANSCOM's 
challenge is the requirement that our commercial transportation service 
providers are able to provide critical services during times of crisis. 
It is not only reasonable to expect degradation and disruption of 
services during a crisis--it is expected. Furthermore, disruption of 
services not only could be the result of cybersecurity incidents, but 
also should be considered in the context of any event, man-made or 
natural, that poses significant consequences to mission assurance. Due 
to the large extent upon which TRANSCOM relies upon its commercial 
partners and the subsequent lack of visibility into the applicable 
cyber terrain and authority to monitor and assess their ability to 
operate during disruptions, TRANSCOM assumes a higher risk to mission 
assurance. This vulnerability extends operational risk to every single 
combatant command that TRANSCOM supports on a daily basis.

    6. Senator McCain. General McDew, as it can take 8200 C-17 sorties 
to deploy a single brigade combat team, how will TRANSCOM adapt to 
ensure that global force projection remains a primary capability of the 
armed forces?
    General McDew. TRANSCOM has many authorities that can be brought to 
bear to ensure United States' global force projection in all modes of 
transportation, organic and commercial. We work with the Services and 
our Components (Air Mobility Command, Military Sealift Command, and 
Surface Deployment and Distribution Command) to maintain organic 
transportation capabilities, as well as our commercial partners to 
supplement that capability, and ensure viable transportation solutions. 
On a routine basis TRANSCOM works with CCMD planners to review and 
update their deliberate and contingency operational plan force flow 
actions to assure the most efficient movement of forces into an AOR. 
These movements are a conglomerate of air and surface solutions. When 
an event occurs in an AOR that requires a rapid buildup or movement of 
forces, the priority of that mission is increased. Thus, if capacity is 
not immediately available to transport all requirements, the higher 
priority mission would take precedence and lower priority requirements 
would be adjusted to ensure necessary transportation capacity remains 
intact for remaining global requirements.

    7. Senator McCain. General McDew, what considerations in OPLANs are 
used to account for attrition in our air, sea, and land lines of 
communication during conflicts with a great power competitor?
    General McDew. [Deleted.]

    8. Senator McCain. General McDew, do we have the necessary 
railheads, airfields, and related infrastructure to support the 
European Deterrence Initiative? If not, what is being done to remedy 
this shortfall?
    General McDew. In an uncontested operation we have the necessary 
railheads, airfields, and related infrastructure to support inter-
theater logistics to United States European Command (USEUCOM). However, 
we have identified contested environment challenges as we support the 
European Reassurance Initiative. As planning matures, we continue to 
refine our network and identify CONUS, intra-theater logistics, and 
resilience requirements to meet the maturing demand. Additional 
requirements will be worked with the Services and USEUCOM.
                         contested environment
    9. Senator McCain. General McDew, TRANSCOM has gained considerable 
experience over the past 15 years supporting extended combat operations 
in the Middle East, with the larger operating bases positioned in 
relatively permissive environments.
    General McDew. See answer to question #10.

    10. Senator McCain. General McDew, how will TRANSCOM'S job be 
different when supporting a conflict in a contested environment, and 
what is TRANSCOM doing to prepare for the different set of challenges 
this kind of conflict would impose?
    General McDew. [Deleted.]

    11. Senator McCain. General McDew, does TRANSCOM have the resources 
need to support a conflict in a contested environment? If not, what are 
the primary shortfalls?
    General McDew. While we have a sense of the challenges a contested 
environment would present, we do not yet have the objective data to 
understand critical factors such as attrition. We are building that 
understanding through wargames and exercises. The next Mobility 
Capability Requirements Study (MCRS) will help complete the picture and 
inform a resource discussion. That said, we know current challenges 
such as the readiness of the tanker and the strategic sealift fleets 
will be exacerbated in a contested environment. It is for this reason 
initiatives such as fully funding the strategic airlift fleet, the 
tanker recapitalization and the strategic sealift recapitalization 
remains critical. TRANSCOM's ability to build redundancy in routes, 
nodes, and transportation systems, is critical to assuring the 
deployment mission. In most cases, TRANSCOM does not have its own 
resources to counter contested environments. We depend on joint 
capabilities (such as missile defense, port protection, etc.) to 
protect critical nodes and assets from interdiction. TRANSCOM is also 
dependent on the Department of State and the geographic CCMDs to 
negotiate access to alternate ports and Air/Ground Lines of 
Communication. Additionally, because the TRANSCOM enterprise primarily 
works in the ``chasm'' between the DOD networks and the nation-wide 
commercial networks through which we interface with our commercial 
partners, TRANSCOM requires authority to monitor and assess cyber 
terrain owned and operated by Commercial Transportation Service 
Providers in order to react and respond to disruptions during times of 
crises and thus ensure mission assurance.

    12. Senator McCain. General McDew, in March 2016, you said that 
emerging contested environments pose a significant challenge to 
transportation and distribution networks. However, the assumption that 
the U.S. military will have uncontested access to international 
airspace and sea-lanes between these nodes in the future is no longer 
valid. When a theater of operations is a contested by lack of control 
over air or ground space, who has responsibility for ensuring that the 
needed materiel is delivered to the point of employment--TRANSCOM or 
the services? What responsibilities do host nations have?
    General McDew. TRANSCOM serves as the single coordination and 
synchronization element on behalf of and in coordination with the Joint 
Deployment and Distribution Enterprise (JDDE) to establish processes to 
plan, apportion, allocate, route, schedule, track movements, and 
redirect forces and supplies per the supported commander's intent. The 
supported combatant commander (CCDR) is responsible to plan, identify 
requirements, set priorities, and redirect forces and sustainment as 
needed to support operations within the respective Area of 
Responsibility. Visibility through the JDDE provides the CCDR the 
capability to see and redirect inter-theater and intra-theater force 
and commodity flow in support of current and projected priorities. The 
geographic CCMDs, in coordination with the Department of State, will 
also coordinate with host nation(s) to determine what type of support 
and force protection they can or are willing to provide.

    13. Senator McCain. General McDew, if responsibility is shared 
among TRANSCOM, the services, and host nations, what mechanism(s) 
ensure that gaps in the needed logistics support are not present, and 
can be addressed if discovered after operations commence?
    General McDew. Communication between the supporting CCMD and the 
supported CCMD in prior deliberate planning and then as a crisis or 
contingency unfolds ensures that gaps in the needed logistics support 
are addressed and mitigated. Constant dialogue at CCMD and component 
levels ensure that as gaps appear, transportation solutions are 
developed to meet operational requirements once actions commence. This 
dialogue between CCMD also informs the services, partner nations, and 
industry if there are capability gaps that must be addressed on a 
broader global scale.

    14. Senator McCain. General McDew, what areas of operations would 
be challenging for the joint distribution and deployment enterprise, 
and what mitigations is TRANSCOM planning for those areas? Does it 
require the services to generate more capabilities to counter A2/AD 
environments, such as countermine capabilities or ISR capabilities?
    General McDew. [Deleted.]
                      resiliency versus efficiency
    15. Senator McCain. General McDew, as our adversaries field 
precision guided weapons, we must continue to review if our efficiency 
has hampered our ability to remain resilient in how we approach 
alternative logistics platforms and how the U.S. confronts threats to 
key logistics choke points such as the Panama or Suez Canal. Our 
current approach relies on large and efficient transports moving 
materiel to large efficient hubs. The last tactical mile is a bit more 
distributed, but we rely on large known Aerial Port of Debarkations, A-
PODS, and Sea Ports of Debarkation, S-PODs, in theater until that last 
leg. These are known targets that could be very hard to defend against 
precision weapons in a conflict. How is TRANSCOM ensuring resiliency of 
our crucial lift capability while not losing efficiencies previously 
created?
    General McDew. TRANSCOM is experienced at building a distribution 
network robust enough to endure global events. We are first and 
foremost focused on warfighting effectiveness, but must also account 
for efficiency as good stewards of taxpayer dollars. As we face new 
trans-regional challenges, strategic agility has grown in importance. 
Over the past decade we have seen the patient movement enterprise swing 
from west to east in a matter of hours after a volcanic eruption. Our 
team, in collaboration with the Geographic Combatant Command and 
Department of State, developed an extremely flexible ground lines of 
communications system across Europe and Asia to mitigate reliance on 
the routes through Pakistan. When those routes closed, the entire 
enterprise including vessels enroute to Karachi, shifted to alternate 
ports and routes without impacting the Theater Mission. Our ability to 
pivot is reliant on having sufficient authorities in place to shift the 
enterprise.

    16. Senator McCain. General McDew, additionally, how does TRANSCOM 
plan for disruption to key chokepoints as vulnerabilities to global 
logistics?
    General McDew. [Deleted.]
                            aerial refueling
    17. Senator McCain. General McDew, you have described the KC-46 
tanker, which is expected to replace almost 40 percent of the Air 
Force's tanker fleet, as the highest priority among the command's 
various recapitalization needs. The KC-46 program originally planned to 
make an initial production decision in August 2015, but had to delay 
the decision nine months, to May 2016, because of development problems 
causing changes to test and delivery schedules. Do you have the 
authority you need to exercise operational control of the current and 
future refueling fleet to fulfill your mission requirements?
    General McDew. The ability to globally swing air refueling assets 
is paramount to TRANSCOM's ability to support national objectives and 
fulfill responsibilities as the DOD single manager for transportation. 
There are Congressional restrictions that inhibits TRANSCOM's ability 
to move global air refueling assets quickly to meet emergent needs. 
Section 8072 (b) of the Consolidated Appropriations Act of 2012 states 
that no funds available to DOD may be obligated to modify command and 
control relationships to give TRANSCOM operational and administrative 
control of the C-130 and KC-135 forces assigned to the Pacific and 
European Air Force Commands. While this restriction does not prevent 
the day to day mission from getting done, it does hamper my ability to 
execute the mission in support of combat operations. With current 
scarcity of air refueling aircraft the TRANSCOM Commander needs the 
authority and agility to optimize the utilization of this fleet.

    18. Senator McCain. General McDew, is current KC-46 procurement 
profile sufficient to meet your mission requirements?
    General McDew. [Deleted.]

    19. Senator McCain. General McDew, what will be the impact on 
current operations and the current maintenance of existing air 
refueling aircraft because of the production delays of the KC-46 
program?
    General McDew. The impact of production delays is the increased 
cost of operating and maintaining the legacy fleet. It is important to 
emphasize that our legacy tanker retirement strategy is dependent upon 
the timing of the KC-46 aircraft delivery schedule. As you're aware, 
delays in KC-46 deliveries have postponed legacy tanker retirements to 
now begin no earlier than fiscal year 2019. Even with on-track 
delivery, the current procurement profile may not be sufficient to meet 
rising demands for this capability.

    20. Senator McCain. General McDew, what short to mid-term 
mitigation plans does TRANSCOM have in place to address any air 
refueling shortfalls that may occur?
    General McDew. Mitigation plans, regardless of short-, mid- or 
long-term, is a constant balancing of competing theater priorities in 
which TRANSCOM must both set the theater and set the globe, improve 
utilization, and enhance the agility of our tanker fleet. We simply 
cannot afford to over-source and under-utilize individual theater air 
refueling capabilities. TRANSCOM acknowledges Geographic Combatant 
Commands will require enough air refueling capability to cover their 
fight-tonight risk. But, DOD and TRANSCOM cannot afford to source 
tankers to bring any one individual Geographic Combatant Command's risk 
to zero while increasing risk globally and to other Combatant Commands. 
TRANSCOM, within its existing Unified Command Plan (UCP) authorities 
and with Joint Staff leadership, can foster a holistic effort to 
develop a more agile way to allocate tanker forces across trans-
regional lines and refine utilization standards for allocated forces. 
We are also working closely with the Joint Staff to better de-conflict 
large exercises with large deployment and redeployment of rotational 
forces.

    21. Senator McCain. General McDew, what are some potential steps 
that could be taken in the near and mid-term to ensure that TRANSCOM is 
able to effectively and efficiently meet its requirements?
    General McDew. From the supply side, we need to achieve a 
sustainable operations tempo that will allow us to begin to recover 
readiness for the seasoning and retention of our aircrew and the 
maintenance of our aircraft. This may mean difficult choices to not 
participate in some lower priority exercises or to not support missions 
that can be completed with reduced tanker support. From the demand 
side, we will have to scrutinize the current utilization rates and 
posture of our forces around the globe and eliminate restrictions to 
tasking assets across regional geographical boundaries to increase 
agility and mutual support. For example, currently law prohibits 
USTRANSCOM from exercising command and control of aerial refueling 
tankers in the U.S. Pacific and European Command. Legislative relief 
would enable USTRANSCOM to use air refueling assets more effectively 
and efficiently; enhancing the overall readiness. In the mid-term it 
may be wise to reexamine the balance of our forces that we have placed 
in the Active Component versus the Reserve Component based on the tempo 
we are operating the Joint Force. Additionally, the current mission 
capability rate of the KC-135 must be maintained or exceeded to ensure 
adequate tanker availability since the majority of those forces reside 
in the Reserve Component. Lastly, we must not slip on the timing of 
acquisition and recapitalization programs like the KC-46 and strategic 
sealift.
                    peacetime versus wartime demands
    22. Senator McCain. General McDew, in March 2016, you told the 
House Armed Services Committee that efforts were underway to develop a 
base plan for all phases of TRANSCOM's operations. The effort was to 
result in an overarching global plan that would articulate: how 
TRANSCOM coordinates, synchronizes, and executes its joint distribution 
and deployment responsibilities; and how TRANSCOM would operate in a 
contested environment. What is the status of this effort?
    General McDew. The Global Campaign base plan is on target for the 
end of the summer 2017 completion with the remaining annexes of the 
overarching campaign plan to be completed summer 2018.

    23. Senator McCain. General McDew, assessing the transportation 
feasibility of OPLANs is one of TRANSCOM's major responsibilities. How 
often are OPLANs modeled to determine transportation feasibility?
    General McDew. As directed by Joint Staff, TRANSCOM conducts up to 
two transportation feasibility assessments (TFA) per year for each of 
the current problem sets.

    24. Senator McCain. General McDew, how often are two plans modeled 
for simultaneous transportation feasibility?
    General McDew. For a directed problem set, TRANSCOM models the 
family of operational and concept plans from all the CCMDs, supported 
and supporting, that address the assigned problem. For programmatic 
purposes, TRANSCOM has and continues (at least once per year) to model 
simultaneous execution of multiple problem sets.

    25. Senator McCain. General McDew, in developing the base plan, has 
TRANSCOM identified any areas or issues that merit more attention from 
Congress or DOD?
    General McDew. TRANSCOM areas of concern include (but are not 
limited to):
    1)  Recapitalization of sealift capacity is a need which must be 
addressed now. Some ageing ships in the Ready Reserve Force must be 
replaced to ensure we can meet force deployment requirements until new 
sealift ship construction begins. Part of the recapitalization strategy 
is a bridging solution to allow purchase of used vessels, which may 
include used foreign built vessels, to fill the gap. We are submitting 
a proposal to Congress for that authority.
    2)  We are concerned for the pool of merchant mariners who man our 
ships. As the U.S. flag international fleet continues to decline, the 
mariner labor pool also declines, putting at risk our ability to surge 
forces overseas and to sustain them for the duration of the conflict. 
The risk, due to further decline of available merchant mariners and 
U.S. flag ships, will be increased reliance on foreign owned/operated/
crewed vessels to transport U.S. forces in a contingency.
    3)  TRANSCOM needs the flexibility to manage mobility forces on a 
global scale. The most stressed of those forces today are air refueling 
tankers; yet, the law prohibits from exercising operational control of 
KC-135s in USPACOM and USEUCOM. Relief from that restriction would 
enable TRANSCOM to use air refueling assets more effectively and 
efficiently, and enhance the overall readiness of those forces.
    4)  KC-135 forces remain stressed while KC-46 production is 
expected to remain at 15 per year. KC-46 production is crucial to 
replacing the aging fleet and must stay on track. The current fleet of 
455 tankers (average age of KC-135 is 55 and KC-10 is 3) must grow to 
at least 479 to meet minimum wartime requirements. At this time, 
emerging contested environments continue to put greater demand on the 
global aerial refueling fleet.
    5)  The National Guard and Reserve Component are under increased 
stress from years of high operational tempo (OPTEMPO) at a level that 
is commensurate with Active Duty forces. I am concerned the high 
OPTEMPO, combined with a highly leveraged Guard and Reserve Component 
and length of time for mobilization, will lead to reduced readiness for 
future contingencies. Highlighting our concern with a balance of the 
air mobility forces, over 70 percent of aeromedical evacuation 
capability, nearly 60 percent of the tanker capability, and over 50 
percent of airlift capability reside in the Guard and Reserve 
Component. Specifically for airlift aircraft, 40 percent of C-5s, 32 
percent of C-17s, and 69 percent of C-130s reside in the Guard and 
Reserve; yet, aircrews comprise a much higher percentage: 55 percent of 
C-5 aircrews, 74 percent of C-17 aircrews, and 71 percent of C-130 
aircrews reside in the Guard and Reserve. The planned buyback of C-17 
aircraft currently in backup inventory for the Air National Guard and 
Reserve--will exacerbate the Active Duty/Reserve component imbalance, 
reduce readiness over time, and further limit access to aircraft. The 
C-5M is proving to be a very capable aircraft, but current plans call 
for retaining 12 C-5Ms in backup aircraft inventory. Placing a portion 
of those C-5Ms into the Active Duty force would help meet current 
demand, better balance the strategic airlift fleet, and provide the 
TRANSCOM with greater flexibility.
                       transcom inaugural wargame
    26. Senator McCain. General McDew, in October 2016, TRANSCOM 
conducted its inaugural wargame in to examine mobility and distribution 
operations in a contested environment. TRANSCOM's components, 
subordinate commands, and distribution partners participated in the 
wargame. In discussing the wargame, a TRANSCOM official noted that 
operational wargames tend to focus on combat operations and do not 
consider logistics concerns because TRANSCOM officials participate in 
other DOD wargames to ensure a realistic, transportation, distribution, 
and logistics environment. What were the results of the wargame and 
what challenges, if any, were identified?
    General McDew. In general, the Services' and CCMD wargames are more 
focused on kinetic effects and less on the logistics necessary to 
support those robust kinetic operations. Subsequently, while we've 
enhanced our support to the Services' and CCMDs' wargamers, we've 
injected substantial logistics reality into game designs in an effort 
to help validate plan feasibility. We have discovered through our 
participation in these games, that a future contested environment will 
mandate that logistics planning efforts mirror the rigor of operational 
planning efforts.

    27. Senator McCain. General McDew, did TRANSCOM wargame its 
transportation support for specific operational or contingency plans?
    General McDew. The wargame used regional scenarios, but did not use 
specific operational or contingency plans.

    28. Senator McCain. General McDew, did TRANSCOM's wargame involve 
potential attrition of mobility forces? If yes, what were the results 
and the implications for the current numbers of mobility forces? If no, 
why not?
    General McDew. The wargame involved discussion of potential 
attrition of mobility forces. The discussion highlighted the 
criticality of ensuring operational planners understood the possibility 
and resulting implications of mobility force attrition. The wargame 
also validated the need for an increased emphasis on the need to invest 
in the recapitalization of air refueling, air lift and sea lift assets. 
It also validated the significance of maintaining the readiness of 
existing mobility forces and our Reserve Component.

    29. Senator McCain. General McDew, how often does TRANSCOM plan to 
conduct future wargames?
    General McDew. The plan is, at a minimum, to conduct an annual 
wargame, with additional games dependent on the continued development 
of our wargame staff and funding assistance from the Quad Chairs of the 
Defense Wargaming Advisory Group (DWAG)
                             cybersecurity
    30. Senator McCain. General McDew, cyber intrusions into 
operationally critical contractors pose a threat to defense operations. 
Today nearly 90 percent of TRANSCOM's missions are executed over 
unclassified communication networks, to include communications with 
commercial partners. Further, because TRANSCOM is a supporting command, 
all combatant commands share this risk to operations. A 2014 inquiry by 
the Senate Armed Services Committee into cyber threats facing TRANSCOM 
and its contractors found 50 successful intrusions or other cyber 
events targeting TRANSCOM contractors in 2012 and 2013. The inquiry 
also found gaps in requirements that resulted in many cyber intrusions 
not being reported to the command. Who is targeting TRANSCOM and why, 
and what makes TRANSCOM a particularly attractive cyber target?
    General McDew. [Deleted.]

    31. Senator McCain. General McDew, TRANSCOM planned on 
incorporating cyber incident reporting language into most of its 
contracts by 2016. Where does TRANSCOM stand in terms of achieving this 
goal?
    General McDew. TRANSCOM continues to work closely with its 
commercial partners to incorporate more stringent and timely reporting 
requirements into Transportation Service Provider and information 
system development contracts to create an environment of information 
sharing and collaboration. To that end, TRANSCOM has determined its 
contracts provide operationally critical support in accordance with the 
reporting requirements defined in the Defense Federal Acquisition 
Regulation Supplement (DFARS) clause 252.204-7012, ``Safeguarding 
Covered Defense Information and Cyber Incident Reporting.'' This 
requires reporting of cyber incidents that affect a covered contractor 
information system or the covered defense information residing therein, 
or that affect the contractor's ability to perform the requirements of 
the contract that are designated as operationally critical support and 
identified in the contract. The designation of operationally critical 
support has been incorporated into our readiness contracts and 
continues to be incorporated into TRANSCOM contracts through 
modifications and renewals.

    32. Senator McCain. General McDew, beyond reporting on cyber 
incidents, what mechanisms are in place to enable or require 
contractors to strengthen their cyber defenses?
    General McDew. TRANSCOM contracts follow the requirements set forth 
in DFARS clause 252.204-7012. TRANSCOM is also currently working 
internally and with industry to incorporate additional contract 
language in all TRANSCOM transportation contracts to further address 
the security posture of its industry partners. Additionally, TRANSCOM 
continues to partner with organizations across industry, academia, and 
the Federal Government to increase mission assurance by identifying and 
mitigating gaps, seizing opportunities to advance cyber domain 
capabilities, and enhancing information sharing. TRANSCOM also works 
closely with the Defense Cyber Crime Center (DC3), DHS, and the Federal 
Bureau of Investigation to seek opportunities to keep the command's 
industry and commercial partners informed of cyber threats and 
cybersecurity best practices.

    33. Senator McCain. General McDew, TRANSCOM is increasingly 
challenged by aging and obsolete infrastructure issues that affect 
equipment, ports, IT systems, and more. What are your biggest concerns 
in this area, and how is TRANSCOM addressing and mitigating these 
issues?
    General McDew. My biggest concern is Mission Assurance across the 
entire TRANSCOM Enterprise. To address this concern, we conducted a 
Mobility Strategic Portfolio Review which identified top critical areas 
of concern regarding critical infrastructure and cyber-related 
dependencies. TRANSCOM is currently undertaking an Office of the 
Secretary of Defense Program Decision Memorandum directed Cyber 
Mobility Thin Line Study of two ports identified in the portfolio 
review. This assessment will analyze these two facilities holistically 
to identify critical areas to focus on mitigating the effects of cyber 
disruption and degradation. Additionally, TRANSCOM's Cloud Center of 
Excellence team is partnering with Defense Innovation Unit Experimental 
to evaluate & prototype commercial cloud-based technologies such as 
Infrastructure-as-a-Service, Platform-as-a-Service, and Software-as-a-
Service. These technologies offer TRANSCOM the ability to host its 
unique unclassified applications while offering greater security and 
availability. The team will also evaluate cloud security and 
application development technologies to prototype a TRANSCOM security 
boundary within a commercial cloud environment, satisfying our Cyber 
Security Service Provider responsibilities. TRANSCOM has also 
implemented several cyber resiliency and digital diversity projects 
that will enhance mission effectiveness, improving cyber reliability by 
increasing back-up speed and capacity while eliminating single points 
of failure.
                                sealift
    34. Senator McCain. General McDew, TRANSCOM is responsible for all 
of the U.S. military's sealift assets. Military Sealift Command (MSC) 
provides ocean transportation and sustainment for the Navy and the rest 
of DOD, operating about 115 ships daily around the world. Operated by 
civilians, these ships support ongoing operations around the globe. 
Recently, the Navy has called for a more distributed fleet with 
distributed lethality to extend the global reach of its combatant ships 
although the Navy's distributed lethality concept is new and has not 
been fully incorporated into Navy commands and fleets. The MSC fleet 
will need to provide the logistics support required by globally 
distributed operations, and do so during a period of uncertainty as 
fleets transition to cover a larger geographical area. At the same 
time, MSC platforms, such as the Expeditionary Fast Transport (formerly 
designated the Joint High Speed Vessel), are taking on new roles to 
compensate for the declining numbers of amphibious ships in fleet. How 
are MSC's mission requirements evolving? What implications do these 
have for the command's personnel and force structure?
    General McDew. TRANSCOM is responsible for 61 of the Nation's 115 
strategic sealift assets (15 MSC and 46 MARAD). The maritime system has 
deteriorated, is more stressed, and more contested than ever before, 
and this is the environment in which we must operate. Emerging 
contested environments pose a significant challenge to the personnel, 
ships, ports and Sea Lines of Communication employed by MSC. The threat 
is no longer a ``hypothetical'' in some distant future. Mariners, 
capital assets, and equipment that convey national power are at risk. 
Similarly, advances in technology have created a commensurate reliance 
on its application, creating critical vulnerabilities, particularly in 
cyberspace. We must overcome these evolving challenges and be prepared 
to operate in both communications and cyber contested environments 
while also operating in contested waters requiring tactical proficiency 
and maneuver. We must adapt our force structure, personnel, and 
training to meet these challenges. Implications include increased 
training, more robust self-defense capability and increases in Command, 
Control, Communications, Computers, and Intelligence (C4I) capability.

    35. Senator McCain. General McDew, what personnel and training 
challenges have impacted the MSC, and what effects do these pose to 
maintaining warfighting readiness?
    General McDew. MSC is implementing new training requirements for 
our mariners to better operate in a blue-water contested environment. 
This training runs the gamut of warfare areas (e.g. convoy operations, 
electro-magnetic maneuver warfare, anti-submarine warfare, etc.) 
Additionally, the increasing tempo of harassment and ``Grey War'' 
activities by state and non-state actors, requires adaptation to ensure 
mission accomplishment. This puts a heavy demand on our personnel (both 
military and civilian) to meet the demands to maintain a specific 
warfighting readiness level. As an example, civilian crews are now 
faced with understanding and practicing tactical mission-area skills 
such as Emission Control, Undersea Warfare, Information Operations, 
tactical maneuvering, tactical communications and more.

    36. Senator McCain. General McDew, in what ways will DOD and 
TRANSCOM equip the MSC fleet with technology that ensures secure 
communication in contested environments?
    General McDew. To date, MSC has stood up a Backup Network 
Operations Center (BNOC) to provide redundancy to the command's Afloat 
Network Operations Center (ANOC). The BNOC will ensure seamless and 
uninterrupted communications with the MSC fleet if the primary network 
operations center is disrupted for any reason (cyber-attack, natural 
disaster, power outage, fire, or physical attack). We are updating and 
improving emissions control procedures, guidance, and training on ships 
so crews can minimize and/or avoid detection when operating in a 
contested environment. Additionally, we have plans to install secure, 
anti-jam Global Positioning System (GPS)/Position Navigation Timing 
systems on ships and at ashore facilities. MSC is also currently 
working with Service and Joint commands to explore innovative ways to 
better protect communication systems from external threats when 
operating in a contested environment. Program Objective Memorandum-19 
initiatives have also been submitted to upgrade MSC wideband satellite, 
High Frequency radios, and GPS capabilities on MSC ships to improve the 
fleet's ability to operate in a contested environment. Also, the 
command placed cybersecurity professionals at the TRANSCOM Joint Cyber 
Center and the command's Network Operations Centers to improve 
cybersecurity readiness and information sharing. Finally, we are 
conducting comprehensive vulnerability and threat assessments of 
traditional and non-traditional IT systems in an effort to harden 
communication, navigation, and ship control systems against cyber-
attacks. Furthermore, the command is upgrading the Naval Modular 
Automated Communications system on ships to provide a backup means of 
receiving record message traffic if the primary messaging system fails 
or is degraded when operating in a contested environment.

    37. Senator McCain. General McDew, how will TRANSCOM prepare 
civilian mariners to continue missions in the event of a cyber-degraded 
environment?
    General McDew. The preparation necessary for cyber-degraded 
environments must reside in commercial industry and in the accession 
sources that train and credential mariners for their commercial 
employment. TRANSCOM will continue to work with the Department of 
Transportation, the Maritime Administration and industry partners to 
emphasize the need for mariners to retain the skills necessary to 
operate in cyber-degraded environments including age old maritime 
navigation skills using sextants and current charts. Many MSC ships are 
equipped with multiple or redundant communication capabilities which 
can minimize or mitigate the effects of cyber or other adversary 
threats while operating in a contested environment. In the event of a 
complete communication or business system outage, MSC is developing 
manual backup procedures to ensure critical information or orders 
continue to flow over available communication capabilities. MSC is 
taking a multi-pronged approach to prepare mariners to continue 
missions in the event of a cyber-degraded environment. To increase 
cybersecurity and mission assurance MSC has taken the following 
actions:
    <bullet>  Created enhanced cybersecurity training requirements and 
qualifications for Ships Communications Officer (SCO) / Radio 
Electronics Technician (RET) positions for civilian mariners serving on 
ships supporting TRANSCOM and is working with Operating Company and 
union representatives to establish cybersecurity, computer network, and 
communication system training qualifications and standards for 
Electronic Officers and Electro Technical Officers.
    <bullet>  Formally requested seats in Navy training courses. This 
also applies to SCOs and RETs serving on MSC Fleet Ordnance and Dry 
Cargo vessels supporting TRANSCOM.
    <bullet>  Begun planning for mariners to participate in In Port C4/
IT training events to increase individual and crew proficiency. In the 
fall of 2017, TRANSCOM will conduct its annual cyber exercise ULTIMATE 
GUARDIAN in partnership with the Command's annual staff exercise TURBO 
CHALLENGE. During this event, TRANSCOM and Component staffs will plan 
and execute high-end Joint Deployment and Distribution Enterprise 
operations in a contested cyber environment. Spanning three months, the 
exercise will incorporate a requirement for significant merchant 
mariner support. TRANSCOM has extended an invitation to commercial 
industry partners via the Command's Private Sector Representative to 
participate in addressing the challenges presented to maritime 
operations in degraded or denied cyber environments.
                                 marad
    38. Senator McCain. General McDew, along with other government 
agencies, such as the Maritime Administration (MARAD) and the U.S. 
Coast Guard, TRANSCOM ensures surge sealift vessels are ready to deploy 
in the event they are activated. In addition, these agencies assess the 
availability of mariners who make up the pool of civilian U.S. Merchant 
Mariners available to crew government sealift ships when activated. To 
what extent is TRANSCOM actively monitoring the mariner pool? What are 
the methods by which TRANSCOM identifies the total number of mariners 
in this pool?
    General McDew. The National Security Directive on Sealift assigns 
the Department of Transportation (DOT) the responsibility for 
determining whether adequate commercial maritime manpower is available 
to support the operation of reserve ships during a crisis. This 
responsibility is delegated to MARAD and TRANSCOM who then work closely 
with the Office of Maritime Workforce Development to address mariner 
availability. To determine adequate mariner supply, DOT/MARAD uses the 
U.S. Coast Guard (USCG) Merchant Mariner Licensing & Documentation 
System database, and union and non-union labor information. Although 
TRANSCOM does not access the database for specific individual mariner 
credential information, it collaborates with DOT/MARAD on the number of 
ships in the U.S. flag fleet that employ the mariners with the specific 
credentials necessary to operate DOD surge fleet vessels. In this way, 
TRANSCOM maintains awareness of the size of the mariner pool and its 
trends. To determine the mariner demand, DOT/MARAD and TRANSCOM monitor 
the number of billets required on all Government-owned, Commercially-
Operated and Commercially-Owned, Commercially-Operated vessels that 
sail using mariners with credentials needed for the organic surge 
fleet. The 2017 National Defense Authorization Act requires MARAD to 
convene a Maritime Workforce Working Group to identify the number of 
U.S. citizen mariners that have the necessary USGC merchant mariner 
credentials needed to crew the U.S. flag fleet and surge sealift fleet 
in times of National Emergency; assess the USCG Merchant Mariner 
Licensing and Documentation System; and make recommendations to enhance 
the availability and quality of interagency data. TRANSCOM is an active 
participant in the working group.

    39. Senator McCain. General McDew, does TRANSCOM have a forecast 
concerning whether the available number of qualified and experienced 
mariners will be adequate in the future to support a large-scale 
activation of an extended duration (i.e., beyond 6 months)?
    General McDew. MARAD's, Office of Maritime Workforce Development 
collaborates closely with TRANSCOM to understand trends in the mariner 
workforce to inform future mariner adequacy forecasting. According to 
DOT/MARAD, the number of contract mariners is sufficient to meet the 
initial sealift surge when government reserve sealift ships are 
activated, but will severely challenge our ability to sustain crewing 
requirements over an extended period which requires rotation of crew 
members on both government and commercial vessels.

    40. Senator McCain. General McDew, are there opportunities to 
leverage existing assets--such as MARAD's Ready Reserve Force or MSC's 
organic sealift fleet in reduced operating status--to provide 
experience and train mariners?
    General McDew. Yes, activations of the Ready Reserve Force or MSC's 
surge fleet provide training opportunities for mariners especially for 
steam vessel mariners. However, these activations are insufficient in 
both number and duration to provide sufficient experience and train 
mariners alone. Subsequently, our best opportunity to train and 
maintaining qualified, proficient, and actively sailing mariners is to 
maintain a robust U.S. flagged fleet for both international and Jones 
Act trade.
                         roll-on/roll-off ships
    41. Senator McCain. General McDew, since the early 1990s, mobility 
studies have concluded that the U.S. needs approximately 19 million 
square feet of Roll-on/Roll-off (RO/RO) capacity. However, some have 
noted that DOD may be challenged to meet this capacity requirement as 
the organic surge sealift fleet starts reaching the end of its service 
life in the early 2020s. By 2023, 9 of the 50 RO/ROs in the DOD surge 
fleet--approximately 1.6 million square feet--will likely age out. What 
limitations do TRANSCOM and DOD currently face that impede their 
ability to develop a recapitalization plan for the surge sealift fleet?
    General McDew. In order to maintain the surge capacity and 
expeditionary capabilities provided by the Ready Reserve Force (RRF) 
portion of the National Defense Reserve Fleet (NDRF) and the MSC's 
Surge Fleet, the U.S. Navy has developed a hybrid recapitalization 
strategy. In the short-term this strategy seeks the authority to 
purchase used vessels, regardless of where they were constructed. Used 
vessels may be needed to fill gaps in the event the long-term strategy 
(new construction) is not able to meet the entire capacity requirement. 
In addition to the purchase of used vessels, service life extensions 
will maintain current vessels to bridge the capacity gap until the 
long-term strategy of new construction is able to be implemented to 
provide replacement capacity in the early 2030s to the late 2040s. The 
legislative authority to acquire used vessels is critical to TRANSCOM's 
ability to meet rapid power projection requirements and to the Navy's 
ability to execute its hybrid strategy to replace capacity to meet 
long-standing sealift requirements as validated in the Mobility 
Requirements and Capabilities Study (MRCS). The Navy's hybrid strategy 
provides sufficient capacity and capability in the short-, mid- and 
long-term with the authority provided by this legislative proposal. 
Approval in this legislative cycle is necessary to seek appropriations 
in near-term budget cycles to recapitalize critical mission capability 
and capacity and preserve the Nation's power projection capabilities.

    42. Senator McCain. General McDew, what assessments has TRANSCOM 
completed to understand these issues and what, if any, progress has 
TRANSCOM made to address them?
    General McDew. TRANSCOM has completed multiple assessments starting 
as far back as the 1990s specifically focused on addressing 
Departmental sealift requirements. Individual options these studies 
have highlighted include: New build for the Surge Fleet New build for 
Marine Prepositioning Squadrons (MPSRONs; acquire new builds for 
MPSRONs and rotate MPSRON vessels to Surge Fleet) Extended Service Life 
(ESL) to 60 years Purchase vessels aging out of MSP Purchase vessels on 
world market Charter build Lease-to-purchase (long-term lease of used 
foreign ships, purchase at end of lease) Lease Dual-Use Vessel (DUV) 
The bottom line is that no individual option is acceptable; a hybrid 
recapitalization strategy as outlined previously best sustains sealift 
capabilities for the short-, mid-, and long-term.

    43. Senator McCain. General McDew, are cargo requirements from the 
1990s mobility studies still accurate under current warfighting needs?
    General McDew. The sealift requirement has been and will be 
enduring. All major mobility studies since the early 1990s report a 
total sealift requirement of about 19-20 million square feet of 
capacity, with about 10.2 million square feet required in the current 
Surge Fleet (50 vessels). Most ships must cycle to-from theater 
multiple times to meet anticipated cargo delivery requirements. 
Specifically, the Mobility Capabilities Assessment (MCA), published May 
2013, reported 3+ sailings on average for timely closure of the 
required forces. The sealift requirement is met with a combination of 
organic and commercial vessels; the surge fleet is available for 
tasking in five days and provides the majority of capacity required to 
deliver forces. The Voluntary Intermodal Sealift Agreement (VISA) 
programs average response time is 18 days (8-25 day range) and 
enrollment has been declining in recent years. Once the new defense 
strategy is published, it will be necessary to conduct the thorough 
analysis needed to match strategy to requirements.
                        distribution operations
    44. Senator McCain. General McDew, as DOD's Distribution Process 
Owner, TRANSCOM is responsible for overseeing the overall 
effectiveness, efficiency, and alignment of DOD-wide distribution 
activities. One responsibility of the distribution process owner is to 
oversee the overall effectiveness, efficiency, and alignment of 
department-wide distribution activities. In October 2011, GAO reported 
that there appeared to be confusion over whether TRANSCOM--as 
Distribution Process Owner for DOD--or the services had responsibility 
to get needed materiel to the point of employment. Specifically, GAO 
reported that DOD's view that TRANSCOM as Distribution Process Owner 
should not have any oversight over the last leg of distribution 
indicates confusion within and outside of DOD regarding TRANSCOM's 
role. Has DOD clarified this apparent disconnect in where 
responsibility lies? If so, what actions have been taken to address 
this disconnect/confusion since the GAO report was issued? If not, what 
has prevented DOD from resolution?
    General McDew. The draft 2017 UCP is currently in coordination and 
has updated language to address the role of the DOD's Distribution 
Process Owner (DPO) function and provide clarification with regards to 
responsibilities. Upon approval of the draft UCP, the updated DPO 
language will reflect TRANSCOM's Joint Deployment and Distribution 
Coordinator role subsequently clarifying DPO roles and 
responsibilities.

    45. Senator McCain. General McDew, what other key issues or 
challenges is TRANSCOM currently addressing in its role as the 
Distribution Process Owner?
    General McDew. As the DPO, TRANSCOM is currently addressing the 
lack of a distribution network in Western Africa. USAFRICOM requires a 
logistics network that meets current operational needs in austere 
environments with little to no infrastructure, which provides Low 
Volume/Low Frequency distribution solutions, and is flexible enough to 
meet operational surge requirements. TRANSCOM assisted USAFRICOM in the 
creation of the West Africa Logistics Network (WALN) to provide full 
spectrum common user logistics support in West and Central Africa. 
Another challenge TRANSCOM is addressing as the DPO is finding 
alternate routes to and within the USCENTCOM AOR should the Straits of 
Hormuz or the Bab Al Mandeb Strait become non-permissive. In an effort 
to solve this problem, we are using a network model to simulate the 
effects of closure, determine alternate Aerial Ports of Debarkation 
(APODs) and Sea Ports of Debarkation (SPODs) for delivery options, and 
determine how much volume the Trans Arabian Network is expected to 
handle in order to support normal sustainment flow. The Trans Arabian 
Network is expected to make inter- and intra-movements within USCENTCOM 
countries easier.

    46. Senator McCain. General McDew, what additional tools would help 
TRANSCOM in carrying out these responsibilities?
    General McDew. TRANSCOM is developing a computer model of the 
deployment and distribution network. Once developed, the model will 
simulate the effects of major combat operations on the global 
distribution network and help determine if other transportation nodes 
should be employed. Additionally, TRANSCOM is creating a repository of 
distribution data. This repository will allow TRANSCOM (or any other 
DOD organization) to access a single source to obtain the information 
necessary to perform distribution analytics and recommend changes.

    47. Senator McCain. General McDew, does TRANSCOM have the ability 
to conduct its oversight role through the distribution pipeline all the 
way to final delivery to the warfighter?
    General McDew. To a degree, TRANSCOM leverages processes, 
collaboration, and IT enabling capabilities to influence and monitor 
most distribution activities to the point of need in theater. However, 
we do not yet have the enterprise IT architecture to support the level 
of integrated oversight I would like to provide.

    48. Senator McCain. General McDew, does TRANSCOM have the 
visibility over distribution performance from major bases to outposts 
necessary to fully oversee the effectiveness of the DOD-wide 
distribution system and coordinate potentially necessary improvements 
to the system?
    General McDew. In most cases the answer to this question is no, 
TRANSCOM does not have universal visibility over distribution 
performance from major bases to outposts. TRANSCOM assesses 
distribution performance for wholesale requisitions, the vast majority 
of which originate at Defense Logistics Agency (DLA) depots. TRANSCOM 
collects various Electronic Data Interchange (EDI) events along the 
pipeline until the requisition reaches the service supply activity 
which processes the Materiel Receipt Acknowledgment (MRA). It is these 
EDI events which form the backbone of distribution assessment. The MRA 
is the EDI event which most closely aligns with the designated point of 
need and therefore that is where distribution assessment, and 
associated visibility by TRANSCOM, stop. Further, TRANSCOM does not 
currently receive EDI event data beyond the MRA. To do so would require 
the Services to provide this data.
                         global response force
    49. Senator McCain. General McDew, the Global Response Force (GRF) 
was established with the objective of providing the Secretary of 
Defense with an array of rapidly deployable forces to enhance DOD's 
ability to respond quickly to worldwide contingencies. GRF forces are 
also intended for augmenting the geographical combatant commands' 
capability to respond to unforeseen challenges and opportunities. 
TRANSCOM plays a critical role in the success of the GRF's worldwide 
mission by providing timely and adequate global mobility support and 
other joint capabilities. What approaches, if any, has TRANSCOM taken 
to identify additional capabilities that it may need to enable 
TRANSCOM's capabilities designated for the GRF?
    General McDew. TRANSCOM constantly engages with each Combatant 
Command to determine both current and future joint requirements. The 
analysis of those joint requirements provides insight into possible 
future capabilities which might be developed and added to the existing 
TRANSCOM capabilities designated for the GRF. It is important to note 
that GRF requirements are an important planning factor for current 
TRANSCOM airlift, tanker and sealift recapitalization efforts.

    50. Senator McCain. General McDew, how does TRANSCOM work across 
organizational lines to integrate its capabilities with those of other 
components?
    General McDew. TRANSCOM, and the component commands, are force 
providers for our Joint Task Force--Port Opening (JTF-PO) enabling 
capability. When a requirement comes to us from a GCC, we stand up a 
JPT (Joint Planning Team) with the appropriate component 
representatives to ensure we put the right team size and composition to 
meet the mission. We also integrate on a daily/weekly/monthly basis in 
the development and execution of our Turbo Distribution exercise 
program, published directives, and briefings. External to TRANSCOM, we 
have successfully integrated DLA expeditionary capabilities under the 
authority of TRANSCOM to deploy in tandem with our JTF-PO elements; we 
continue to pursue collaboration with U.S. Army Forces Command and 
Interagency partners to enhance joint mobility capabilities. This 
includes further developing and codifying integrated capability 
relationships with Navy Expeditionary Combat and U.S. Army Forces 
Command for integration of units supporting sea port of debarkation 
(SPOD) operations. Additionally, the Joint Enabling Capabilities 
Command (JECC), a TRANSCOM subordinate command, continually coordinates 
with CCMDs and mission-partners to ensure it understands mission-
partner requirements. These habitual relationships allow JECC to remain 
abreast of joint requirements, anticipate joint priorities, and provide 
support in accordance with integrated planning priorities in order to 
better align its capabilities to support joint force commanders. The 
JECC routinely participates in priority exercises with each CCMD and 
that provides an opportunity for JECC forces to maintain currency in 
each area of responsibility by participating in well-resourced, high 
fidelity environment scenarios. Additionally, it allows CCMDs to 
partially fulfill their training requirements by learning to work with 
other organizations like the JECC, enabling the seamless integration of 
deploying personnel in future operations. The JECC also conducts 
quarterly Mission Rehearsal Exercises (MRXs) in order to validate the 
JECC's ability to fulfill its GRF mission requirements.

    51. Senator McCain. General McDew, how does TRANSCOM determine if 
it is able to provide the necessary airlift to meet the most stressing 
potential GRF employments and where is that readiness captured?
    General McDew. TRANSCOM Joint Distribution Process Analysis Center 
(JDPAC) conducts studies in-house to determine if we are able to 
provide the necessary airlift to meet the most stressing potential GRF 
employments. As an example, the House National Defense Authorization 
Act for Fiscal Year 2016, H.R. 1735, Accompanying Report 114-102, 
recently directed the Chairman of the Joint Chiefs of Staff to submit a 
report on the strategic vision and plan for an adequately resourced, 
trained, equipped, and manned effective global response force. In order 
to support that effort and identify and assess the capacity and 
readiness of aircraft lift and maritime ships to transport the GRF, 
TRANSCOM conducted an end-to-end analysis involving a notional crisis 
for illustrative purposes. The notional scenario involved deploying the 
GRF Infantry Brigade Combat Team (IBCT) to East Africa for a crisis. 
This scenario was chosen because it involved a likely use of and 
location for the GRF. Additionally, the austere nature of the operating 
environment significantly stressed the mobility system. The analysis 
helped us to better understand the process of assessing strategic lift 
for deploying a GRF force package.

    52. Senator McCain. General McDew, to what extent has TRANSCOM 
assessed its ability to muster airdrop-qualified pilots and crews to 
support potential large-scale GRF missions?
    General McDew. Air Mobility Command has conducted a number of 
studies to ensure we have the capacity to support the GRF. From an 
airdrop perspective, we have adequate airlift pilots and aircrews to 
exceed what our war plans call for today, but cannot rest on our 
laurels. The Air Force is experiencing shortages in aircrew and is 
developing incentives and reforms in order to increase retention.

               coordination with other combatant commands
    53. Senator McCain. General McDew, what is TRANSCOM's relationship 
with the Combatant Commands when it comes to managing the distribution 
of materiel onward from air or sea ports of debarkation all the way 
through to the last tactical mile?
    General McDew. TRANSCOM communicates regularly with the Combatant 
Commands. When managing the distribution of material onward from air 
and sea ports of debarkation through the last tactical mile, TRANSCOM 
coordinates with the Combatant Commands. The Combatant Commands are 
responsible for the last tactical mile. Thus, TRANSCOM does not 
maintain visibility beyond the ports of debarkation. That said, when 
requested, TRANSCOM will (and has) helped GCCs manage onward 
integration when requested. The Geographic Combatant Commander and the 
services own the systems which provide visibility beyond the point of 
debarkation to the point of need and they are best suited to direct and 
assess the distribution of that materiel to the Warfighter. The GCC 
owns the theaters assets, processes, contracts, etc. which control 
distribution beyond the point of need. The DPO ends its coordination 
influence at the point of need and the GCC is empowered to use the 
resources at his disposal to exercise the joint function of sustainment 
per the needs of the mission.

    54. Senator McCain. General McDew, how does this collaboration 
happen today, and how do you think it could be improved?
    General McDew. TRANSCOM hosts major reoccurring planning 
conferences and participates in GCC exercises with the Combatant 
Commands to synchronize force deployment, redeployment and sustainment 
operations. Additionally, as a global combatant command, TRANSCOM 
routinely provides extensive planning and execution support to GCC 
exercises, acting in its role as coordinating authority for JDDE 
operations. The goal of this support is to assist CCMDs with training 
for deployment, distribution and redeployment execution. TRANSCOM 
regularly visits GCCs and develops supporting plans and Transportation 
Feasibility Assessments for GCCs' operations plans. TRANSCOM meets 
twice a year with the GCCs to establish a holistic understanding of 
their future deployment requirements. Additionally, the annual Global 
Distribution Synchronizer seminar (attended by representatives from all 
combatant commands, Joint Staff, OSD, and DLA) identifies Global 
Distribution Network issues and develops issue resolution plans. 
TRANSCOM collaborates with the GCCs from the earliest notification of 
distribution requirements and stays engaged through execution to 
measure Time Definite Delivery metrics. Once post execution metrics are 
gathered, TRANSCOM once again collaborates with the GCCs, Suppliers, 
and Transporters to use the results of the metrics to ensure continuous 
process improvement. The new National Military Strategy and the 
Chairman's push for Globally Integrated Operations to deal with the 4+1 
challenges in the Trans-regional, Multi-domain, Multi-functional (TMM) 
operating environment will also drive improvement in collaboration 
across the Joint Force by bringing combatant commanders together to 
work across their historic geographical and functional boundaries.
                          gao high risk report
    55. Senator McCain. General McDew, the DOD Supply Chain Management 
has been on GAO's High Risk Report since 1990. Added to that list in 
2005, Materiel Distribution is one of the two remaining sub-categories 
of Supply Chain Management that GAO assesses to be at risk. As the 
Distribution Process Owner, what aspects of materiel distribution are 
most in need of attention from TRANSCOM?
    General McDew. As materiel distribution is embedded in--and 
therefore reliant on--the cyberspace domain, the security of that 
domain stands out as TRANSCOM's most significant challenge requiring a 
whole-of-government approach to mitigate. Because 90 percent of 
transportation and logistics operations are carried out by commercial 
providers, USTRANSCOM missions rely on unclassified networks and 
systems also used by our numerous commercial partners. The defense of 
these systems is critical to protecting movement information and 
requires a holistic partnership with the Department of Homeland 
Security, other interagency entities, and commercial industry. 
Additionally, we are in the beginning stages of migrating our 
unclassified systems to cloud-based technology with the goal of 
migrating the entirety of our unclassified and classified networks to 
the cloud to increase security, access, and reliability. This risk 
mitigation is my highest priority and represents a first step toward 
reinforcing both our military and commercial providers' readiness, 
resiliency, and ability to secure material distribution activities from 
disruption. A second concerning aspect of materiel distribution is 
management of the massive amounts of data throughout the Joint 
Deployment and Distribution Enterprise. To mitigate our risk in supply 
chain management, we must instill a culture that treats distribution 
data as a precious commodity to be standardized, protected, and 
leveraged as a documented responsibility of TRANSCOM in our Joint 
Deployment and Distribution Coordinator role. Currently, the 
availability, aggregation, and ability to make timely decisions to 
operate a data-centric, predictive materiel supply chain is lacking 
authority, oversight, and technology to drive distribution 
responsiveness required to meet the evolving needs of warfighter 
readiness. Elevating the data culture supporting materiel distribution 
to levels that parallel commercial best practices requires assistance 
from the Strategic Capabilities Office, Defense Innovation Unit--
Experimental (DIUx), and funding to nominate TRANSCOM as the 
``pathfinder'' for big data within the Department of Defense. Finally, 
to ensure materiel distribution readiness in the future, we must 
address the recapitalization of the strategic sealift fleet. Some aging 
ships in the Ready Reserve Force must be replaced to meet future force 
deployment requirements while waiting for new sealift construction. We 
have submitted our proposal to Congress for the authorities to purchase 
used vessels, currently pending NDAA approval, and ask for special 
attention on this matter to ensure TRANSCOM's ability to deploy 
military strength when required.
                    force structure recapitalization
    56. Senator McCain. General McDew, during your confirmation hearing 
in 2015, you said that there were a number of recapitalization efforts 
that would need to take place over the next 5 to 10 years that would 
become problematic if sequester were triggered. Now that our joint fear 
has become our shared reality, what shortfalls will TRANSCOM face in 
the coming years?
    General McDew. [Deleted.]
                       maritime security program
    57. Senator McCain. General McDew, the 2003 Maritime Security 
Program (MSP) provides support for up to 60 active, commercially 
viable, militarily useful, privately-owned U.S.-flag vessels. MSP 
vessels have been key contributors to our nation's efforts in 
Afghanistan and Iraq over the last decade, moving over 50 percent of 
all military cargo--over 26 million tons--to the Middle East. Under the 
MSP program, participating operators are required to make their ships 
and commercial transportation resources available upon request by the 
Secretary of Defense during times of war or national emergency. In 
addition, MSP vessels are required to leave the program once the vessel 
is 25 years old. While the program can support 60 ships, recently the 
program has had as few as 57. In an effort to attract and maintain 
participants in the program, MARAD has requested an increase to the 
stipends provided to participants. To what extent is TRANSCOM 
monitoring the health and viability of the MSP?
    General McDew. TRANSCOM considers MSP critical to meeting our 
ability to deploy and sustain forces across the globe. We closely track 
and report capacity levels monthly and compare it to our mobility 
requirements to ensure the command's strategic sealift portfolio is 
adequately sized to meet any contingency. MSP is a joint program 
between MARAD and TRANSCOM and both organizations are involved in all 
transactional requirements associated with the program to ensure it 
continues to meet national defense needs. In the rare case when the 60-
ship program was filled to 57 ships, TRANSCOM worked closely with MARAD 
to fill the vacancies with modern, efficient, roll-on/roll-off capacity 
which is TRANSCOM's number one priority for vessel type to support our 
force projection capability. The short gap in time to bring the program 
from 57 to 60 ships was required to allow the contractors adequate time 
to strike a balance between meeting TRANSCOM's priority for fill while 
also achieving commercial viability.

    58. Senator McCain. General McDew, what is TRANSCOM's assessment of 
the health of the MSP program at this time?
    General McDew. MSP continues to be a critical component of our 
strategic sealift portfolio and is even more important today as we've 
seen the commercial U.S. flag fleet slowly decline over the past couple 
of decades. Today with only 80 U.S. flag ships engaged in international 
trade, MSP represents 83 percent of the total U.S. flag fleet's roll-
on/roll-off force projection capacity. The importance of the program is 
evident when you compare this to the U.S. flag fleet capacity in 2006 
when the program grew from 47 to 60 ships and 96 ships were engaged in 
international trade and only 62 percent of the roll-on/roll-off 
capacity came from MSP. The provisions within the program ensure that 
not only TRANSCOM has access to 60 of the most militarily useful 
capacity in the U.S. flag fleet, but also has access to an extensive 
network of commercial intermodal capabilities and a pool of qualified 
U.S. merchant mariners available to crew our government-owned fleet 
when activated.

    59. Senator McCain. General McDew, are there opportunities to 
replenish the surge sealift fleet with ships formerly in the MSP?
    General McDew. Yes, the MSP may provide opportunities to 
recapitalize the surge sealift fleet, if section 2218 of title 10 
United States Code is amended to provide the Secretary of Defense the 
discretionary authority to purchase used vessels constructed in 
shipyards outside of the United States. MSP vessels are part of the 
DOD's transportation solution to meet military mobility requirements 
and are full partners in the movement of military equipment. As these 
vessels reach the end of their useful commercial life, they still have 
substantial service life available and proven military utility, making 
them excellent candidates for the Ready Reserve Force and the Military 
Sealift Command surge fleet.
                               __________
              Questions Submitted by Senator Dan Sullivan
                rapid deployment capabilities of kc-46a
    60. Senator Sullivan. General McDew, the KC-46A has over three 
times the pallet and personnel carrying capability of the KC-135. Can 
you explain the strategic capabilities of the KC-46A that make it more 
than simply a new Tanker, but rather a key to increased global 
mobility? Does the U.S. Air Force consider these capabilities when 
deciding main operating base decisions for the KC-46A?
    General McDew. The KC-46 is being procured as part of a tanker re-
capitalization effort and will primarily accomplish the air refueling 
mission. In addition to increased cargo and passenger capacity, the KC-
46A offers additional capabilities to the air refueling mission. These 
include both centerline boom and drogue, wing air refueling pods, 
receiver air refueling, and updated communications, navigation, 
surveillance, and datalink capabilities which provide increased 
flexibility to the global reach air refueling mission. The Air Force 
Strategic Basing Process evaluates potential main operating base 
locations using criteria which includes operational factors.

    61. Senator Sullivan. General McDew, Does TRANSCOM plan to use KC-
46s to rapidly deploy 5th generation fighters to theater with 
maintenance and support personnel as passengers? What are the arguments 
for and against collocating this KC-46A``Rapid Pegasus'' capability 
with the 100 5th gen fighters at Eielson AFB, AK? What type of message 
would that send to North Korea, China, and Russia?
    General McDew. Our tanker fleet will be used in conjunction with 
our airlift fleet to meet our nation's wartime mobility requirements. 
The KC-46A Strategic Basing process is still underway and therefore we 
cannot speculate on the advantages or disadvantages of any particular 
base or location. To date, the Air Force has identified five 
continental United States Main Operating Bases. Bases in Alaska are 
considered part of the United States Pacific Command (USPACOM) area of 
responsibility (AOR) and will be evaluated in future strategic basing 
actions.

    62. Senator Sullivan. General McDew, what TRANSCOM priorities weigh 
heavier in an OCONUS basing decision than the ability to rapidly deploy 
5th generation fighters and meeting local refueling mission 
requirements? What would be the arguments against basing the KC-46A in 
Alaska?
    General McDew. TRANSCOM prioritizes all Defense Transportation 
System movements, to include aerial refueling, based on the Chairman of 
the Joint Chiefs of Staff priority system for that movement. The Air 
Force Air Mobility Command (AMC) must continually balance forces at 
Outside Continental United States (OCONUS) locations with CONUS-based 
forces to plan for and execute missions in any forward area of 
operation worldwide. The KC-46A Strategic Basing process is still 
underway and therefore we cannot speculate on the advantages or 
disadvantages of any particular base or location. To date, the Air 
Force has identified five CONUS Main Operating Bases. Bases in Alaska 
are considered part of the PACOM AOR and will be evaluated in future 
strategic basing actions.
            retain low mileage kc-135's to increase capacity
    63. Senator Sullivan. General McDew, Would you agree that instead 
of simply replacing some of the KC-135 fleet with KC-46s, we should 
retain some of best condition KC-135s and use them to enhance our 
tanker capacity?
    General McDew. In order to maintain the most capable fleet within 
current budget constraints, Air Mobility Command (AMC) carefully 
reviews each aircraft's flying hours, operational capabilities, pending 
sustainment investments, and other critical life limiting factors, such 
as structural fatigue and corrosion. Collectively, these elements will 
help AMC make the best operational and economic decision on the 
remaining KC-135 fleet. The emerging contested environments can put 
greater demands on the global air refueling tankers, which must be 
addressed in the near future. Any attrition would exacerbate the 
stressed aerial refueling fleet, which will only number at 479 by 
fiscal year 2019 if there are no further delays in the KC-46 
production.

    64. Senator Sullivan. General McDew, in result of the fiscal year 
2015 NDAA there was a business case analysis for the 168th ANG Air 
Refueling Wing, which found that the 168th meets only 52 percent of 
mission requirements locally. This was before Eielson was selected to 
receive 54 F-35's in 2020. Would you agree that meeting less than 50 
percent of mission requirements deserves a hard look at adding more 
tanker capacity to Alaska?
    General McDew. The Air National Guard conducted this business case 
analysis and is therefore best positioned to answer this question about 
the 168th ARW local mission support. However, due to the existing 
shortfall in tanker capacity and the growing need for tanker support 
globally, I am seeking authority for operational control of KC-135s in 
U.S. Pacific Command (USPACOM) and U.S. European Command (USEURCOM). 
This authority currently restricted in law will enable more effective 
and efficient use of KC135s and enhance overall readiness of these 
forces.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                         cyber breach reporting
    65. Senator Blumenthal. General McDew, you testified that 
commercial companies that contract with TRANSCOM are required to report 
a cyber breach within their network to DC3. What is the specific 
reporting requirement? Do you believe this reporting requirement is 
sufficient?
    General McDew. TRANSCOM contracts follow the requirements set forth 
in the Defense Federal Acquisition Regulation Supplement (DFARS) 
252.204-7012, Safeguarding Covered Defense Information and Cyber 
Incident Reporting. (DFARS) 252.204-7012: (c) Cyber incident reporting 
requirement. (1) When the Contractor discovers a cyber-incident that 
affects a covered contractor information system or the covered defense 
information residing therein, or that affects the contractor's ability 
to perform the requirements of the contract that are designated as 
operationally critical support and identified in the contract, the 
Contractor shall--(i) Conduct a review for evidence of compromise of 
covered defense information, including, but not limited to, identifying 
compromised computers, servers, specific data, and user accounts. This 
review shall also include analyzing covered contractor information 
system(s) that were part of the cyber incident, as well as other 
information systems on the Contractor's network(s), that may have been 
accessed as a result of the incident in order to identify compromised 
covered defense information, or that affect the Contractor's ability to 
provide operationally critical support; and (ii) Rapidly report cyber 
incidents to DOD at http://dibnet.dod.mil. With regard to sufficiency, 
I believe the current requirement is a positive development for DOD 
contracts, however, this requirement does not fully address the need 
for timely reporting during time of crisis for our most critical 
contracts. For our most critical contracts, we must define and ensure 
we are notified of any cyber-related events that impact our commercial 
partners ability to execute their (and subsequently our) mission in a 
rapid manner. We are working to incorporate more stringent and timely 
reporting requirements into out information system development 
contracts to ensure source code and technology are not compromised 
while in development. This will result in our systems being more secure 
once they are implemented. We plan to add these more stringent 
requirements into our contracts in the coming months as our contracts 
are renewed or completed.

    66. Senator Blumenthal. General McDew, please describe the steps 
required by a commercial company contracted with TRANSCOM if the 
company experiences a breach to their cyber network. Who is a company 
required to report the incident to? What roles do the Department of 
Homeland Security and the Department of Defense play in this reporting 
process? How do these agencies assist in addressing a breach and 
protecting the DOD network?
    General McDew. In addition to the reporting requirements described 
in DFARS 252.204.7012, 2(c) Cyber incident reporting requirement the 
Contractor must also take the following actions pursuant to DFARS 
clause 252.204-7012 and as applicable to the incident: (d) Malicious 
software. When the Contractor or subcontractors discover and isolate 
malicious software in connection with a reported cyber incident, submit 
the malicious software to DOD Cyber Crime Center (DC3) in accordance 
with instructions provided by DC3 or the Contracting Officer. Do not 
send the malicious software to the Contracting Officer. As stated in 
the DFARS excerpt the company must report to the DOD's Defense 
Industrial Base (DIB) Cyber Incident Reporting & Cyber Threat 
Information Sharing Portal via http://dibnet.dod.mil. The DC3 receives 
and disseminates reports on behalf of the DOD. There are several 
organizations that receive the disseminated report based upon their 
assigned DOD roles. TRANSCOM--Receives reporting and performs risk 
determination based upon effected contractor. CYBERCOM--Receives 
reporting for potential situational awareness and indications Defense 
Security Service--May receive report if the contractor is a Cleared 
Defense Contractor. Under Secretary of Defense for Acquisition, 
Technology and Logistics, (USD/AT&L)--If there is an actual breach and 
information is exfiltrated, AT&L is responsible for damage assessment. 
While the Department of Homeland Security (DHS) is not mandated as part 
of the contractually required response, contractors may voluntarily 
provide information to a number of organizations that have reporting 
relationships with DHS. These include: National Cybersecurity and 
Communications Integration Center (NCCIC), United States Computer 
Emergency Readiness Team (US-CERT) and Industrial Control System 
Computer Emergency Readiness Team (ICS-CERT). These organizations 
provide mechanisms to share reporting with the U.S. Government with a 
certain level of protection and anonymity. TRANSCOM subscribes to DHS 
dissemination mechanisms. The DHS has responsibilities to the Federal 
Government, with the exception of DOD, to protect the U.S. Government 
networks. They provide some emergency response capability to the DOD 
depending on the nature of the breach. Finally, TRANSCOM is addressing 
this issue by defining more stringent, timely cybersecurity incident 
reporting requirements to ensure we are notified of any cyber-related 
events that impact our commercial partners' ability to execute their 
(and subsequently our) mission in a rapid manner. We are also 
incorporating more stringent and timely reporting requirements into our 
information system development contracts to ensure source code and 
technology are not compromised while in development. This will result 
in our systems being more secure once they are implemented. We plan to 
add these more stringent requirements into our contracts in the coming 
months as our contracts are renewed or re-competed.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         THURSDAY, MAY 4, 2017

                               U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                UNITED STATES SPECIAL OPERATIONS COMMAND

    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on the 
posture of the U.S. Special Operations Command, known as SOCOM.
    I would like to welcome Ms. Theresa Whelan, who is 
representing the Office of the Assistant Secretary of Defense 
for Special Operations and Low-Intensity Conflict, and General 
Tony Thomas, the Commander of SOCOM. I thank our witnesses for 
appearing before the committee and for their many years of 
dedicated service to the Nation.
    The purpose of today's hearing is to hear directly from the 
senior civilian and military leaders responsible for ensuring 
our special operations forces are trained, equipped, and ready 
to confront what is the most complex and daunting set of 
national security challenges our Nation has faced since the 
Second World War.
    In response to the increasing threats, our combatant 
commanders around the world have developed a seemingly 
insatiable demand for the unique capabilities of our special 
operators. That is especially true in the fight against 
terrorism.
    For the last 15 years, special operations forces have been 
heavily engaged in the fight against global terrorist groups. 
As a result, SOCOM's budget has emphasized optimizing and 
sustaining counterterrorism capabilities. This is unlikely to 
change anytime soon. The United States will remain engaged in 
global counterterrorism operations of varying scope and 
intensity for the foreseeable future, and special operations 
forces will continue to play a vital role.
    But we must be careful never to equate special operations 
with counterterrorism. Special operations forces must be 
prepared to perform a variety of other critical missions beyond 
counterterrorism, missions that will continue to grow in scale 
and importance, and demand more from our special operations 
forces.
    China, Russia, Iran, and North Korea are becoming more 
aggressive in challenging United States interests and partners 
through the use of asymmetric means that often fall below the 
threshold of conventional conflict. The ability of our special 
operators to conduct low-visibility special warfare operations 
in politically sensitive environments make them uniquely suited 
to counter the malign activities of our adversaries in this 
domain.
    Put simply, special operations forces have an indispensable 
role to play in great power competitions and global 
counterproliferation.
    The challenges posed by militarily advanced great powers 
will require the development and employment of new technologies 
and capabilities. It also warrants a serious review of the need 
for additional special operations force structure.
    However, posturing a force to effectively operate in this 
domain will not be possible until we in Congress step up and 
repeal the misguided and disastrous defense spending caps and 
forthcoming defense budget cuts required by law in the Budget 
Control Act. Persistent budgetary uncertainty undermines the 
ability of our military leaders to plan and forces them to 
choose between near-term readiness to support ongoing 
operations and optimizing the force and its capabilities to 
address emerging and future requirements.
    This is not sustainable, and this is not right.
    I look to our witnesses to explain how SOCOM is attempting 
to balance the need to support ongoing operational warfighting 
requirements while also ensuring that the force is prepared to 
deal with emerging threats, as well as describe in detail where 
budget shortfalls are forcing you to accept risk.
    Lastly and most importantly, I expect our witnesses to 
provide the committee with an update on the overall health of 
the force and what is being done to mitigate the impact to our 
operators and their families. Fifteen years of continuous 
combat operations in back-to-back deployments have placed 
enormous strain on the force, challenging readiness, 
resilience, and retention.
    We owe our operators and their families who have given so 
much in defense of our Nation the support that they deserve.
    Again, I thank our witnesses for being with us today and 
look forward to their testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
also join you in thanking our witnesses for appearing today to 
discuss the United States Special Operations Command and the 
readiness of our special operations forces. You are both ably 
leading your respective organizations through a period of both 
high operational tempo and also significant transition.
    The United States Special Operations Command, or SOCOM, 
recently celebrated the 30th anniversary of its establishment 
by Congress. Those 30 years, and particularly the last 15, have 
been characterized by great successes, including the operation 
that killed Osama bin Laden. SOCOM's history also includes 
tragedies that resulted in the loss of brave special operators.
    Fortunately, our special operations forces have learned 
from each of these events and have emerged as a stronger and 
more capable force.
    General Thomas, the high quality of men and women you lead 
today are a testament to that lineage.
    SOCOM is unique within the Department of Defense as the 
only functional combatant command with service-like 
responsibilities for the training, equipping, organization, and 
readiness of special operations forces.
    When Congress created SOCOM, it also established the 
position of the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict, or ASD/SOLIC, to be the 
service secretary-like civilian tasked with day-to-day advocacy 
and oversight of special operations forces. For many reasons, 
including competing responsibility for other policy matters, 
the ASD/SOLIC has not adequately fulfilled the mandate to date.
    The National Defense Authorization Act (NDAA) of Fiscal 
Year 2017 sought to address this issue with a number of reforms 
designed to optimize the partnership between the Commander of 
SOCOM and the ASD/SOLIC for the benefit of special operations 
forces. For that reason, we are pleased to have Ms. Whelan, the 
Acting Assistant Secretary of Defense SOLIC, testifying today 
in the service secretary-like role envisioned by last year's 
reforms.
    We look forward to receiving an update from both of you as 
to the progress you have made toward achieving the goals of 
last year's bill and what we expect over the next several 
years.
    Our special operations forces remain heavily engaged in the 
fight against ISIS [Islamic State of Iraq and Syria], al Qaeda, 
and other violent extremist organizations, sometimes directly, 
but more often in support of local partner forces on the 
ground, as we have seen most prominently in Iraq and Syria. I 
hope both of you will give us your assessment of what, if 
anything, we can do to accelerate progress in defeating these 
groups.
    While the last 15 years of special operations deployments 
have been primarily focused on countering violent extremist 
groups, there is growing realization that special operations 
forces, and the unique skillsets that they possess, may be 
called upon for other missions as well.
    General Thomas, you and many in your community have sought 
to characterize this so-called gray zone of competition short 
of direct military conflict. We saw such tactics most notably 
as part of Russia's eventual illegal annexation of Crimea, and 
should expect more such challenges as adversaries pursue 
efforts against the United States and other countries.
    I hope that you will provide the committee with your views 
on the suitability of special operations to direct gray zone 
challenges today and what changes in special operations 
capabilities and authorities, many of which were designed to 
confront the terrorist threat, may be necessary.
    Given the demand for special operation forces across these 
various mission sets, we must always remain mindful of the 
already high operational tempo faced by our special operators 
and their families. SOCOM has sought to mitigate the stress of 
these repeated demanding deployments through the of the Force 
and Family Initiative. I look forward to an update on the 
lessons learned from this initiative and SOCOM's plans going 
forward.
    General Thomas and Ms. Whelan, I hope you will pass along 
the committee's admiration and thanks to our special operators 
and their families for the tremendous sacrifices they make in 
support of our national security.
    Thank you, Mr. Chairman.
    Chairman McCain. Ms. Whelan?

 STATEMENT OF THERESA M. WHELAN, ACTING ASSISTANT SECRETARY OF 
     DEFENSE FOR SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT

    Ms. Whelan. Thank you, Senator. Chairman McCain, Senator 
Reed, and distinguished members of the committee, I am honored 
to appear before you today in my capacity as the Acting 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict. I am pleased to share the table with 
General Tony Thomas, who has served at the forefront of the 
special operations forces at all levels of command. Our entire 
SOLIC team is proud to partner with him and his command in 
forging the future of DOD special operations.
    I would like to thank you and your predecessors for the 
foresight to create SOLIC and USSOCOM 30 years ago, and for 
your commitment to maintaining that vision over the last three 
decades. We are grateful for this committee's strong support 
for special operations, as evidenced by the resources, 
authorities, and depth of understanding you provide in your 
oversight. Our military is stronger and more capable due to 
your efforts.
    Today, I will focus on three topics: winning the current 
fight and defeating emerging threats, building on the 
foundations of section 922 ASD/SOLIC authorities, and 
continuing to hone the edge of SOF [Special Operations Forces] 
personnel and capabilities.
    SOF is a vanguard force in countering emerging threats at 
the leading edge of the modern security landscape. In the last 
15 years, we encountered a networked enemy, we flattened our 
organizations and accelerated our targeting cycles, and we 
built a network to defeat them. We now face advanced 
transregional threats that demand greater levels of 
coordination and collaboration, and we are redoubling our focus 
on building relationships and international and interagency 
partners.
    Today, SOLIC provides advocacy for the special operations 
budget, which is approximately 1.8 percent of our defense 
budget in 2017. We directly manage over two billion dollars in 
various budgets that support counterterrorism and 
counternarcotics efforts.
    The three decades-long partnership between SOCOM and SOLIC 
has generated a force capable of dealing with emerging threats 
and a force that is able to translate those gains across the 
Department. We will win the fight against VEOs [Violent 
Extremist Organizations] and protect our citizens, vital 
interests, allies, and partners.
    This requires a long-term strategic approach that combats 
terrorists, disrupts terrorist networks, discredits extremist 
ideologies, and diminishes factors that contribute to 
recruitment and radicalization.
    Sustained funding and flexible legislative authorities have 
been instrumental to those efforts. I want to thank the 
committee for establishing section 127(e), formerly known as 
section 1208, as a permanent authority. The maturation of this 
program has provided our warfighters a powerful tool to employ 
to support our allies, attack our enemies, and protect our 
force, and it is a great example of interagency synergy enabled 
by strong congressional support and oversight.
    Congressional support for countering threat finance and 
transnational organized crime is also crucial to our efforts. 
Terrorists, insurgents, and other threat networks depend upon 
illicit revenue streams and criminal facilitators for logistics 
support, money laundering, or obtaining weapons and fraudulent 
documents.
    Thank you also for codifying the responsibilities of ASD/
SOLIC's important oversight role, comprised of the 
complementary tasks of monitoring and advocacy in the fiscal 
year 2017 NDAA.
    USSOCOM has made dramatic advances during wartime in 
response to urgent battlefield demands, gains that require an 
institutional foundation to endure. The service secretary-like 
authorities in section 922 serve as a strategic linchpin 
ensuring that we lock in these hard-won gains.
    These authorities have empowered the Special Operations 
Policy Oversight Council, which we have used over the past year 
to resolve base infrastructure and casualty evacuation issues 
among SOCOM and the services. Ultimately, these gains can be 
leveraged across the entire force with SOF best practices in 
technology and talent management serving as templates for the 
Department in addressing emerging challenges.
    A key part of SOLIC's role is to advance the state-of-the-
art in concepts, technologies, and strategies for both humans 
and hardware. Our Combating Terrorism Technical Support Office 
leads this effort with SOLIC developing cutting-edge 
technologies for SOF, the interagency, and law enforcement.
    The SOF Truths state that humans are more important than 
hardware. As we continue to provide agile and innovative 
capabilities, we must also continue to build and sustain an 
elite work force suited to the unique and diverse demands of 
21st Century warfare.
    We will also continue to work closely with Congress to 
ensure that we have the right policies, agile authorities, and 
necessary resources to employ SOF effectively. I thank Congress 
for its continuing support of our men and women in uniform, and 
their families, and I look forward to your questions.
    [The prepared statement of Secretary Whelan follows:]

             Prepared Statement by Secretary Theresa Whelan
                              introduction
    Chairman McCain, Ranking Member Reed, and other distinguished 
members of the Committee, I am honored to appear before you today in my 
capacity as Principal Deputy Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict (SOLIC). I am pleased to share this 
table with General Tony Thomas, who has served the special operations 
force (SOF) community at all levels of command. Our entire SOLIC team 
is proud to partner with his command in forging the future of special 
operations on behalf of the Department of Defense and the American 
people.
    We are grateful for this committee's strong support of special 
operations, as evidenced by the resources, authorities, and depth of 
understanding you provide in your oversight. We pledge to make the best 
use of these resources to accomplish all special operations mission 
sets--including defeating the threat networks of terrorists, illicit 
traffickers, and transnational criminals; denying the acquisition, 
proliferation and use of weapons of mass destruction; and countering 
unconventional threats. At the same time, we appreciate your support in 
advancing SOF warrior care and force resiliency through the 
Preservation of the Force and Family--which places psychologists, 
counselors, and exercise physiologists into the daily routines of SOF 
to perform 'preventative maintenance,' catching and resolving problems 
before they become chronic--and SOF-for-Life initiatives.
    As part of its roles and responsibilities, the OASD(SO/LIC) 
provides oversight and advocacy for the special operations budget, 
which is approximately 1.8 percent of our defense budget in 2017. 
Additionally, we directly manage over two billion dollars in various 
budgets that support our counterterrorism and counternarcotics efforts, 
such as the Counterterrorism Fellowship Program, the Combating 
Terrorism Technical Support Office, and the counternarcotics budget. We 
ensure that these investments are leveraged to provide return on 
investment across the strategic landscape, the interagency, and across 
the joint force.
    I am here to report to you on the current and anticipated strategic 
environment that our Nation's special operations enterprise will face 
during this time of transformation. As global events shape our 
environment, our special operations mission continues finding, fixing, 
and finishing an innovative enemy while harnessing these trends and 
technologies for our own advantage. Let me begin by discussing that 
rapidly evolving environment and its effect on combating terrorists, 
state-sponsored unconventional warfare, and illicit networks that 
include, but are not limited to, transnational organized crime. I will 
then describe three SO/LIC focus areas that will allow us to: 1) win 
the current fight and defeat emerging threats, 2) build on the 
foundation of the section 922 authorities, and 3) hone the edge of SOF 
personnel and capabilities.
   strategic environment: the megatrends of individual empowerment, 
            diffusion of power, and demographic instability
    When John Arquilla and David Ronfeldt wrote their seminal work 
Networks and Netwars in 1991, they introduced the now-ubiquitous 
phrase: ``it takes a network to defeat a network.'' Their work foresaw 
changes in the nature of warfare, which shaped how both we and our 
enemies encounter each other. Previously, al Qaeda leveraged the 
advantage of flat networks to strike fielded forces and vulnerable 
targets around the world. In response, we built our own global network 
to harness these trends and seize the initiative.
    Where al Qaeda leverages globalization and franchised network 
structures to threaten our interests, the Islamic State in Iraq and 
Syria (ISIS) evolves its threat networks further, presenting new 
analytical and operational challenges by harnessing emerging 
megatrends. ISIS thrives in the volatile space carved out by these 
trends. This generation of VEOs adopts the latest technology to 
communicate on the battlefield and to influence new individuals and 
groups on behalf of the organization. They also use existing tools in 
novel ways--the non-state equivalent of the ``gig economy''--and adapt 
so quickly that they overcome most governmental decision cycles. This 
generation of threats is challenging U.S. national security interests 
in ways we have not seen before. Social media allows ISIS to connect 
with individuals who share alienation and grievances. Digital 
innovation, both in warfighting and communications technologies, is a 
key to their success. Technologies such as 3D printers, mobile 
applications, and the dark web help enable illicit trade on an 
exponentially increasing scale and have contributed to the growth in 
the number and power of illicit groups. As these groups leverage the 
darker side of these megatrends, SOF must adapt and innovate in order 
to disrupt threat networks and deter unconventional adversaries.
30 years of ussocom and asd (so/lic): sof at the intersection of global 
                               megatrends
    This year, we celebrate the 30th anniversary of both USSOCOM and 
ASD(SO/LIC). It is appropriate for us to reflect and build upon the 
past as we look to the future. For the latter half of the past 30 
years, war has transformed our nation's special operations community 
from a unique, specialized force that occupied a crucial niche in our 
security posture into a vanguard force that is reshaping our world. In 
combatting terrorists, special operations forces have built flat 
networks that bridge interagency divides down to the tactical level. 
Inherently joint, our special operations warfighters have continued to 
support global U.S. Government objectives by leveraging critical 
interagency and international partnerships. These boundary-spanning 
networks minimize our tactical response time while radically 
accelerating innovation. They also counter illicit threat networks, 
such as drug, weapons, and human trafficking, that fuel terrorist 
organizations and organized criminal enterprises. SOF support in 
Afghanistan for counter illicit drug trafficking has resulted in 
increased interdiction of opiates in various forms, reducing this 
funding resource for the Taliban and other insurgent and criminal 
groups.
    Transregional threats like ISIS and transnational organized crime 
like drug cartels are demanding greater levels of coordination and 
collaboration from their--including operational planning, resource 
requirements, and information sharing. Effectively disrupting ISIS and 
other threat forces, requires all tools of U.S. national power, 
including diplomatic, intelligence, military, economic, financial, 
information, and law enforcement capabilities. The innovations the 
special operations enterprise has built to defeat adaptive threat 
networks are informing emerging concepts of unconventional and 
conventional warfare alike. In this way, SOF leads in Department-wide 
innovation, fielding, and optimizing emerging technologies and theories 
of warfighting.
           win the current fight and defeat emerging threats
    We must win the protracted fight against terrorist organizations 
and their enabling networks in order to protect our Homeland, our 
citizens, and support our allies and partners. This will require a 
long-term strategic approach to support the U.S. Government and 
international partnerships. Within this DOD strategy, SOF contributes 
its unique capabilities to combat terrorists, disrupt adversary 
networks, discredit extremist ideologies, and diminish those factors 
that contribute to recruitment and radicalization. Sustained funding 
and flexible legislative authorities will continue to be instrumental 
in the defeat of priority terrorist organizations like ISIS and al 
Qaeda.
    In light of U.S. conventional dominance, adversary powers are 
increasingly turning toward unconventional warfare to pursue their 
objectives. State sponsors of unconventional warfare, such as Russia, 
China, and Iran, have doctrinally linked conventional, warfare, and 
cyber warfare, information operations, clandestine, criminal, and other 
activities to undermine United States and allied national security 
objectives, particularly in ways and places that fall below thresholds 
conventional U.S. Government or international response. Our special 
operations forces are exploring the capabilities and authorities 
required to defeat these challenges to our influence and our interests.
    At the same time, I want to thank the committee for establishing 
section 127e--formerly known as section 1208--as a permanent authority. 
The maturation of this program has provided our warfighters a powerful 
tool to employ to support our allies and confront our enemies and is a 
great example of strong congressional support and oversight.
    Congressional support for countering threat finance (CTF) and 
transnational organized crime is crucial to both of these efforts. 
Terrorist, insurgents, and other threat networks depend upon illicit 
revenue streams and criminal facilitators for logistical support, money 
laundering, or the procurement of weapons and fraudulent documents. 
These activities often involve both state and non-state actors in 
spaces between traditional war and peace. As the global synchronizer 
for DOD counter-threat finance, USSOCOM is uniquely positioned to 
synchronize efforts across the geographic combatant commands to disrupt 
the threat finance systems of ISIS, as well as other illicit networks. 
USSOCOM works alongside the National Guard Bureau and USG [United 
States Government] components in CTF teams in each GCC [Gulf 
Cooperation Council]. Together, they provide essential support to 
military operations and to interagency law enforcement partners. The 
CTF teams analyze financial intelligence, integrate intelligence and 
operations, and coordinate and execute CTF activities. Countering 
threat finances disrupts and weakens terrorist and criminal adversaries 
in ways and places that traditional military weapons typically cannot 
reach. This capability is valuable across the full spectrum of 
conflict, including irregular and unconventional warfare. These efforts 
have enabled action against drug trafficking and other illicit 
networks, as emerging counter-network doctrine and technologies help 
unmask dark networks that threaten our national security. CTF efforts 
have proven to be a cost-effective tool to impact threatening forces 
and transnational criminal organizations, whether through law 
enforcement actions, designations, sanctions, or--as in the case of 
ISIS--through military actions against economic and financial targets.
    The unique skills, culture, and capabilities underpinning SOF's 
success against these dark networks enable the command to serve as 
synchronizer against complex problem sets. As with CTF, this expertise 
underwrites the recent transfer of the counter-WMD mission set, which 
USSOCOM recently inherited as a result of changes in the Unified 
Command Plan.
 transform the enterprise: building on the foundations of section 922 
                              authorities
    We appreciate the committee's support in codifying the 
responsibilities of the ASD (SO/LIC) to provide oversight and advocacy 
for SOF. As our force continues to adapt to meet the enduring challenge 
of global campaigns against global threats, we find ourselves at an 
institutional crossroads. SOF has made dramatic advances during wartime 
in response to urgent battlefield demands, gains that require an 
institutional foundation to endure. SOLIC has completed a preliminary 
analysis of previous and newly assigned functions and activities to 
determine where there are gaps and associated risk. Currently SOLIC is 
reviewing whether these functions are directed by law or directed by 
Department guidance in order to make recommendations to our senior 
leaders on the divestiture of non-legally binding responsibilities. In 
overseeing SOF acquisitions, technology, logistics, personnel, 
readiness, and talent management functions, SOLIC will be positioned to 
institutionalize these hard-learned lessons of contemporary conflicts. 
The ``Service-secretary-like'' authorities in section 922 serve as a 
strategic linchpin, ensuring that we lock in these hard-won gains.
    The fiscal year 2017 NDAA codified the Special Operations Policy 
Oversight Council, which we have used over the past year to resolve 
Department-wide SOF-related issues, such as base infrastructure. We are 
already serving in a `Service-secretary-like' role in approving waivers 
for mission-essential positions under the current civilian hiring 
freeze. We now sit alongside our colleagues from USSOCOM at budgeting 
and programming Deputy Management Action Group meetings. Our office is 
currently implementing the full scope of these far-reaching 
authorities, even as we benchmark concepts from these initial gains. By 
leveraging existing Service processes and relationships, we aim to 
minimize administrative burden and focus on architecture building and 
strategic awareness. Ultimately, we intend to leverage these gains for 
implementation across the entire force.
           honing the edge of sof personnel and capabilities
    A key part of ASD(SO/LIC)'s role is to leverage our elite force to 
advance state of the art concepts, technologies, and strategies for 
both humans and hardware. For our operators, we strive to improve 
mental and physical performance on the battlefield and to take care of 
them and their families at home. For hardware, our investments in 
technologies and our policy advocacy for special operations 
capabilities give our SOF the tools they need to get the mission done.
    The Countering Terrorism Technical Support Office (CTTSO) develops 
cutting edge technologies for SOF, the interagency, and law 
enforcement. For instance, we are exploring deep learning and big data 
analytics to sharpen strategies for outcompeting our adversaries. We 
are also investing in better technologies to analyze and present fused 
information to the warfighter. CTTSO's ability to leverage 
crowdsourcing pathways has helped field data tools that support 
operational preparation of the environment in ways we never thought 
possible. The versatility of these tools allows small tactical units to 
conduct a broad spectrum of military, special warfare, and cyber 
operations. Because the CTTSO model is inherently collaborative, these 
gains are leveraged across the interagency, as well as with 
international, state, and local governmental partners.
    The first SOF Truth states that ``humans are more important than 
hardware.'' Therefore, as we provide agile and innovative capabilities 
in support of high-priority U.S. national objectives, we must also 
continue to build and sustain an elite workforce suited to the unique 
and diverse demands of 21st Century warfare. SOF has borne the weight 
of grueling deployments and protracted overseas contingency operations 
over the course of the last decade, and we have accordingly turned our 
culture of innovation toward fostering and protecting our people.
                               conclusion
    As we look back at the last thirty years, we note that SOF has 
consistently remained at the leading edge of global megatrends. This 
past year has been no exception. We have diligently leveraged your 
investment by deriving key concepts for the larger force from that 
experience. The small portion of the budget that supports our nation's 
SOF provides a tremendous return on investment. We are applying your 
support and oversight to institutionalize a decade and a half of hard-
earned warfighting lessons and advances the goal of a joint SOF 
enterprise. With these authorities, we will continue to evolve how we 
man, train, and equip our force in order to: win the current fight and 
defeat emerging threats; transform the special operations enterprise; 
and hone the edge of SOF. We will continue to work closely with 
Congress to ensure we have the right policies, agile authorities, and 
enhanced oversight structure in place to employ SOF effectively.
    I thank Congress for its continuing support of our men and women in 
uniform and their families, and look forward to your questions.

    Chairman McCain. General Thomas?

  STATEMENT OF GENERAL RAYMOND A. THOMAS III, USA, COMMANDER, 
            UNITED STATES SPECIAL OPERATIONS COMMAND

    General Thomas. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today. I am especially 
grateful to be here today with Principal Deputy Assistant 
Secretary Whelan in a session dedicated exclusively to special 
operations as it provides us the opportunity to discuss in 
detail the unique requirements, capabilities, and challenges 
associated with your United States Special Operations Command.
    This body legislated us into existence a little over 30 
years ago to act as a unique Department of Defense 
organization, a dual-hatted, service-like entity responsible 
for the manning, training, and equipping of special operations 
forces, as well as a globally focused, functional combatant 
command.
    In fulfilling the first role, which continues to be our 
primary function, I believe we have consistently provided the 
world's best special operations forces to the geographic 
combatant commanders. However, it is in the second role, as a 
globally focused combatant command, where SOCOM has evolved the 
most.
    As we carry out both of these roles today, special 
operations forces are more relevant than ever to the current 
and enduring threats facing our Nation. We have been at the 
forefront of national security operations for the past three 
decades, to include continuous combat over the past 15.5 years. 
This is historic period has been the backdrop for some of our 
greatest successes, as well as the source of our greatest 
challenge, which is the sustained readiness of this magnificent 
force.
    We are thankful for the resources you have provided not 
only to operate this force but also to perform the critical 
sustainment efforts that underpin our most precious resource--
our people.
    Last month was particularly difficult for the United States 
Special Operations Command, losing its 407th hero, Staff 
Sergeant De Alencar, a father of five, in a firefight in the 
Nangarhar Province of Afghanistan while operating alongside his 
Afghan partners. Then last week, we lost Ranger Sergeants 
Thomas and Rogers, our 408th and 409th casualties, 
respectively.
    This comes on the heels of 16 other combat fatalities since 
I assumed command a year ago. It is a stark reminder that we 
are a command at war and will remain so for the foreseeable 
future.
    My current priorities for the command fall into three broad 
categories. First, we must win the current fight, which 
consists of carrying out assigned missions running the gamut 
from defeating Islamic extremism, both Sunni and Shia, to 
countering Russian aggression, to preparing for contingencies 
in Korea, as well as various security operations to defend the 
Homeland. Second, we must continue to transform our enterprise 
to remain relevant in the rapidly changing security 
environment. Finally, we must take care of our people and their 
families as they form the foundation upon which our force is 
built.
    My first year in command has seen us focused on these 
priorities as we transform the way the Department of Defense 
looks at many of the national military strategy challenges in 
our role as the coordinating authority for countering 
transregional threats. More recently, we have also poured 
significant resources into defining our role as the 
Department's synchronizer for countering weapons of mass 
destruction.
    Both of these substantive roles are additive to the current 
missions, where approximately 8,000 special operations forces 
are deployed in over 80 countries, working with international, 
interagency, and DOD [Department of Defense] partners in 
support of the geographic combatant commanders' priorities.
    This focus is also occurring during a period of 
unprecedented recapitalization of substantive parts of our 
warfighting capability, to include the conversion of our entire 
C-130 fleet to J model C-130s, as well as other major 
platforms. We are extremely thankful to the services for 
enabling this transformation of the force, as it sets us on the 
path for success for decades to come.
    We are equally grateful for the support of Congress for the 
required resourcing that, in turn, has produced a SOCOM which 
is relevant to all the current and enduring threats facing the 
Nation. We appreciate your continued oversight and advocacy for 
your United States Special Operations Command, and I look 
forward to your questions today.
    Thank you.
    [The prepared statement of General Thomas follows:]

          Prepared Statement by General Raymond A. Thomas, III
                            opening remarks
    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to address you today as the 11th Commander of 
United States Special Operations Command (USSOCOM). This is my first 
address on the posture of U.S. Special Operations Forces (SOF). Even in 
the short span of my first year in command we've seen the world evolve 
in complexity and the desire for SOF continue to increase. While 
challenges endure, and new ones emerge our force continues to evolve in 
the attempt to present options and decision space for our national 
leadership. During my remarks, I would like to highlight the breadth of 
missions where SOF is integral to the support of the current National 
Military Strategy (NMS), as well as how we are adapting to future 
challenges and transforming our capabilities. It goes without saying 
that None of this is possible without the professionalism, talent, and 
innovative problem solving capabilities of our most precious asset, our 
people, the decisive edge, who constitute the greatest Special 
Operations Force in history.
                     the formative evolution of sof
    Last month we celebrated the 30th Anniversary of the creation of 
USSOCOM as a result of The Goldwater-Nichols Act and the Nunn-Cohen 
Amendment--prescient pieces of legislation that created U.S. Special 
Operations Command from an ad hoc, individual service-based 
confederation of capability to become both a highly effective service-
like entity and an extraordinarily collaborative and effectively 
networked global functional Combatant Command. USSOCOM's service-like 
responsibilities continue to be the command's primary focus providing 
the world's best SOF to the Geographic Combatant Commanders. We look 
forward to working closely with the Assistant Secretary of Defense/
Special Operations and Low Intensity Conflict's (ASD/SOLIC) assigned 
role in our chain of command in the title 10 role of manning, training, 
and equipping the force.
    USSOCOM has evolved enormously since its inception. Rather than a 
mere ``break-glass-in-case-of-war'' force, we are now proactively 
engaged across the ``battle space'' of the Geographic Combatant 
Commands (GCCs), providing key integrating and enabling capabilities to 
support their campaigns and operations. We operate and fight in every 
corner of the world as an integrated joint, combined and interagency 
force. Today, there are approximately 56,000 Active Duty, 7,400 
Reserve, Guard, and 6,600 civilian personnel across the SOF enterprise. 
On a daily basis, we sustain a deployed or forward stationed force of 
approximately 8,000 across 80-plus countries. They are conducting the 
entire range of SOF missions in both combat and non-combat situations 
with a wide variety of Joint, Interagency, International, and Multi-
national partners.
    We have recently taken on a number of new roles intended to 
leverage our global perspective on problems, and focus our unique 
capabilities in support of not only the GCCs, but also the Department 
of Defense (the Department) as a whole. First, we are the designated 
coordinating authority for trans-regional terrorist organizations and 
other threat networks. Acting in support of the Chairman and the 
Secretary of Defense, our responsibility in this role is to provide a 
coherent global framework for action and synthesize the perspectives 
and inputs of the Geographic Combatant Commanders into a single 
comprehensive military assessment of DOD's global counter-terrorism 
efforts. This assists the combatant commands, the Chairman, and the 
Secretary in understanding and prioritizing efforts to counter violent 
extremist networks that operate across GCC boundaries in pursuit of a 
coherent and effective campaign.
    To date, our team's combined quarterly assessments, supported by 
productive dialogue with our mission partners and the integration of 
dozens of other assessments conducted by combatant commands, combat 
support agencies, and specialized task forces, have led to specific 
recommendations for the conduct of the Counter-Violent Extremist 
Organization effort. Specifically, we have identified the necessity to 
understand and address the underlying infrastructure that terrorist 
organizations use to generate and sustain their ``combat power,'' 
especially their enablers which include foreign fighters, financing and 
strategic communications. We have galvanized international and 
interagency focus on the effort in the form of Operation Gallant 
Phoenix, a SOF-led activity, designed to empower, support and integrate 
the efforts of our international (currently 19 foreign members with 
several others in the queue), interagency, and Joint Force partners to 
disrupt trans-regional terrorist networks and their ability to develop 
and field foreign fighters. Through information sharing, our partners 
support security and law enforcement actions against these networks, 
and inform decision makers on border security, identification of legal 
remedies and tools, and the structuring of counter-messaging campaigns.
    Our second new responsibility is the assumption of the Countering 
Weapons of Mass Destruction (CWMD) synchronization mission for the 
Department of Defense, recently transferred from USSTRATCOM. In this 
role, we are responsible for maintaining the DOD CWMD Campaign, 
establishing intelligence priorities, monitoring global operations and 
conducting assessments. We are publishing a new Global Campaign Plan to 
provide a comprehensive, trans-regional approach which integrates 
ongoing regional and interagency efforts. We have also established a 
CWMD Coordination Center to design, execute and assess this new trans-
regional approach and connect to other USG Departments and Agencies, as 
well as international partners. The Center leverages the resources and 
skills of multiple agencies that will result in a multi-layered 
comprehensive approach to address the CWMD problem set. In coordination 
with the Geographic Combatant Commands, we will conduct this campaign 
attempting to focus more intently on the transregional nature of 
identified portions of the CWMD challenge and assess effectiveness 
towards national objectives, while providing resourcing and strategic 
recommendations to the Chairman and Secretary.
    While the Department is addressing our stated requirements, USSOCOM 
has already implemented temporary manning strategies to mitigate risk 
as we transfer funding and manpower, hire new personnel, and build a 
network of partners. We have an established counter-terrorism (CT) 
network and a committed partner in the Defense Threat Reduction Agency 
to assist us as we move into this mission space. We are no stranger to 
adapting and building our network, and we have embraced this mission as 
we do all others--bringing focus and energy to some of the nation's 
most complex challenges.
    While we have evolved and now field an unmatched capability to 
conduct counter-terrorism operations with our partners and execute a 
select set of niche missions in support of the Joint Force, this 
expertise is not necessarily tailored to compete with near-peer 
competitors. We are focused on transformation as rapidly as possible 
across a broad range of mission capabilities.
               sof in today's competitions and conflicts
    The Chairman of the Joint Chiefs of Staff identified five current 
and enduring threats in the new National Military Strategy (NMS): 
Violent Extremist Organizations (VEOs), Russia, Iran, North Korea, and 
China. Although constituting only 2 percent of the Department's budget 
and about 2 percent of its manpower, as a Combatant Command with global 
responsibilities, USSOCOM plays a critical role in the campaigns 
against each of these. While not a panacea nor a stand-alone solution, 
SOF produces substantive results at low cost, and with a potentially 
low profile / signature. However, none of the challenges can be 
effectively dealt with in isolation as they are interrelated and cut 
across GCC boundaries. USSOCOM is striving to be part of our whole-of-
government efforts to face these threats.
    Violent Extremist Organizations. The threat posed by VEOs remains 
the highest priority for USSOCOM in both focus and effort. Special 
Operations Forces are the main effort, or major supporting effort for 
United States VEO-focused operations in Afghanistan, Syria, Iraq, 
Yemen, Somalia, Libya, across the Sahel of Africa, the Philippines, and 
Central/South America--essentially, everywhere al Qaeda (AQ) and the 
Islamic State of Iraq and Syria (ISIS) are to be found. Our priorities 
are disrupting external attack capability, destroying/neutralizing AQ 
and ISIS, developing a long-term approach to defeat and/or counter 
VEOs, and building partner capacity--helping our partners stabilize 
their environment and secure gains. SOF are also engaged in countering 
aggressive Iranian behavior that not only destabilizes the Middle East, 
but also, stokes sectarianism. SOF activities are in support of the 
GCCs' efforts toward a strengthened deterrence posture, targeted 
counter-messaging activities, and building partner nations' capacity.
    This methodology is more comprehensive than simple counter-
terrorism, and is an important part of an overarching whole-of-
government approach to advance broader national security objectives. 
Organizations such as ISIS and AQ are trans-regional threats that 
require the Joint Force to work with partners across the U.S. 
Government as well as coalition partners. It requires focused effort to 
secure and hold our gains by empowering local entities within and among 
the populations that terrorists exploit. As we move forward in our 
coordinating authority role within DOD, we are committed to further 
developing this comprehensive approach to support the U.S. military's 
integration across the range of activities that like-minded 
organizations are pursuing. In this vein, we appreciate the NDAA 
mandate to expand the role of the State Department's Global Engagement 
Center, with whom we work, which provides critical counter messaging 
against state and non-state actors--a key to ultimately defeating 
organizations such as ISIS.
    Russia. Our second priority in terms of resources and impact is 
supporting United States European Command (USEUCOM) in countering 
Russian aggression in Europe. As Secretary Mattis pointed out, Russia 
is seeking control over the economic, diplomatic, and security 
decisions of its neighbors. Further, Russia has reemerged as a 
strategic competitor of the United States around the globe. This trend 
is most pronounced in the post-Soviet space, where Russia has shown 
itself as willing to act aggressively to limit United States and 
Western institutions there. They are particularly adept at leveraging 
unconventional approaches to advancing their interests and it is clear 
they are pursuing a wide range of audacious approaches to competition--
SOF often present a very natural unconventional response. USEUCOM is 
responding by using European Reassurance Initiative funding to deter 
Russia and reassure Allies, including by working with NATO to build 
more effective defense institutions in partner nations. In support of 
this, we have had persistent SOF presence for over 2 years in nearly 
every European country on Russia's western border (Baltics, Poland, 
Romania, Ukraine, Georgia)--assuring our allies and partners while 
building host nation and NATO capabilities to compete short of conflict 
in a hybrid environment. Our current focus consists of assuring our 
allies through building partner capacity efforts to counter and resist 
various types of Russian aggression, as well as enhance their 
resilience. We are working relentlessly with our partners and the 
Department of State to build potency in eastern and northern Europe to 
counter Russia's approach to unconventional warfare, including 
developing mature and sustainable Special Operations capabilities 
across the region. In support of GEN Scaparrotti, we will continue to 
refine our SOF posture to strengthen these partnerships in order to 
deter or respond to aggression in the region, as well as reassure our 
allies and contribute to a broader deterrent effect.
    North Korea. USSOCOM has recently focused more intently on the 
emerging threat that is of growing concern to us as well as most of our 
DOD teammates--the nuclear threat of an increasingly rogue North Korea. 
Although previously viewed as a regional threat, North Korea's 
relentless pursuit of nuclear weapons and intercontinental ballistic 
missiles, facilitated by a trans-regional network of commercial, 
military, and political connections, make it a threat with global 
implications. In response, United States Pacific Command (USPACOM) and 
United States Forces-Korea (USFK) are focused on sustaining credible 
combat power in the region, maintaining unrelenting resolve in the face 
of multiple provocations, and sustaining partnerships with our closest 
allies. We maintain a persistent and rotational presence on the 
peninsula, working with our increasingly capable South Korean partners 
to prepare for future crises. In the meantime, we are actively pursuing 
a training path to ensure readiness for the entire range of contingency 
operations in which SOF, to include our exquisite CWMD capabilities, 
may play a critical role. As previously noted, we are looking 
comprehensively at our force structure and capabilities on the 
peninsula and across the region to maximize our support to USPACOM and 
USFK. This is my warfighting priority for planning and support.
    Iran. Iran uses both traditional state-based military capabilities 
and a network of terrorist, sub-state, and non-state partners to 
conduct operations, actions, and activities that incite violence and 
threaten U.S. security interests. It relies on militias and a range of 
partner organizations to expand its influence and develop access to key 
areas. SOF activities are in support of CENTCOM's efforts toward a 
strengthened deterrence posture, targeted counter-messaging activities, 
and building partner nations' capacity. Our priority remains 
illuminating this Iranian network in order to understand its 
capabilities as it seeks to expand its influence. We also support and 
assure Israel and regional Gulf partners with foreign internal defense 
and security force assistance, aiding their efforts to counter Iranian 
threats.
    China. China is pursuing a long-term, comprehensive military 
modernization program designed to improve its armed forces' capability 
to fight short duration, high intensity regional conflicts. China is 
intent upon expanding its regional and global influence, while 
developing capabilities to limit our ability to project power in the 
Pacific. SOF actions support USPACOM's efforts to focus on building 
military-to-military relations with China, focused on risk reduction. 
At the same time, we maintain persistent SOF presence in over a dozen 
countries in the USPACOM AOR [Area of Responsibility]--assuring our 
allies and building partner capabilities to address complex threats. 
The SOF community has worked to connect experts across the region, and 
between regions, to share lessons learned that provide opportunities to 
help our partners grow more effectively.
    Other Challenges. Although the five NMS threats are the priority 
challenges for DOD, we remain focused on other parts of the world in 
terms of presence and engagement. The USSOUTHCOM Commander recently 
testified that aspects of the NMS-specified threats in the Southern 
Hemisphere are likely to become security challenges to the U.S. 
Homeland itself. Four out of the five named challenges are active in 
this region. To help mitigate these challenges, USSOUTHCOM's lines of 
effort are focused on countering threat networks, preparing for and 
responding to disasters and crises, and building relationships to meet 
global challenges. SOF are actively supporting Interagency efforts that 
range from counter-threat financing, for which USSOCOM is the DOD lead, 
to counter-terrorism. We will continue to assure allies and support 
efforts to counter malign activities in Latin America while working to 
undermine transnational criminal networks. We have learned that the 
best way to deal with competition short of conflict is to match the 
range of tools we have at our disposal to the needs of the Ambassadors 
and GCCs. We recently hosted a Senior Leader Seminar focused on special 
interest aliens that involved representatives from USNORTHCOM, 
USSOUTHCOM, Secretary Kelly from the Department of Homeland Security 
(DHS), other members of the IA, and various South and Central American 
Country Teams. We enjoy tremendous collaborative efforts as part of the 
team that provides layered security relative to our southern border and 
beyond.
                           the sof advantage
    USSOCOM provides a focused set of unique capabilities to deal with 
the challenges facing our Department and Nation today. Maintaining a 
forward presence in strategically important areas, leveraging 
established relationships, and identifying and addressing problems 
before they become full blown crises. Our ability to see, understand, 
and act across geographic boundaries is what allows SOF to operate 
globally at the speed of war, provide value to the GCCs, and provide 
options and decision space to national leadership. Additionally, we 
have increased the lethality, precision and mobility of our forces over 
time, which assists us in rapidly repositioning and focusing--providing 
enhanced options and effects.
    Although SOF are effective across the spectrum of conflict, we are 
most optimally employed ``left of bang''--pre-crisis. We believe that 
specialized application of SOF alongside partner nations, the Joint 
Force, and the Interagency conducting activities across the spectrum of 
conflict allows us to present options that best serve our national 
interests. In fact, a critical component of our effectiveness in the 
field is the ability to work with the Services, defense agencies, and 
interagency partners to support forward deployed forces. We have 
approximately 30,000 personnel actively engaged in providing support to 
deployed units in the areas of intelligence collection and analysis; 
Intelligence, Surveillance, and Reconnaissance (ISR) operations; cyber 
operations; exploitation activities; and communications and logistics 
support.
               transformation: the next evolution of sof
    While we are fully committed to winning the current fight, we are 
simultaneously working to prepare for the conflicts of tomorrow. We are 
always searching for improvements and relentlessly pursuing our next 
advantage. Key to this effort is USSOCOM's approach to requirements 
validation and acquisition, which allows us to rapidly field resources 
to those forces actively engaged in the fight. We appreciate Congress' 
continued resourcing of these efforts--I assure you we will continue to 
maximize the return on that investment.
    Our current budget supports recapitalizing our platforms as well as 
developing our technological capabilities for dealing with near-peer 
competitors and competition short of armed conflict. Programmatically, 
we remain focused on enhancing Service-provided platforms with Major 
Force Program-11 funds to provide for the unique needs of our force. As 
always, the effectiveness of our investments is highly dependent upon 
the investment decisions of the Services.
    A good example is seen in the success of our critical AC/MC-130J 
aircraft re-capitalization efforts, which include Radio Frequency 
Countermeasures, Terrain Following Radar, Airborne Mission Networking 
and Precision Strike Packages. We have taken delivery of 10 new AC-130J 
Ghostriders and remain on track to declare Initial Operational 
Capability by the end of 2017. In our legacy Gunship fleet, we fielded 
eight up-gunned AC-130W Stinger IIs with 105mm large caliber guns and 
immediately deployed this enhanced capability to the fight in Syria and 
Iraq.
    To improve our intelligence and analysis capabilities, we have 
distributed acquisition efforts across the air, ground and maritime 
domains--particularly for those systems and platforms that support 
operations in remote locations. We are developing and fielding 
interoperable, networked sensors built to enable common operational and 
intelligence pictures as well as feed data into all-source analysis 
tools. This further assists us in leveraging interagency partnerships.
    As previously noted, our effectiveness over the last 15 years does 
not necessarily equate to success against near-peer competitors. We 
also require urgent investments in capabilities necessary for denied 
battlefields of the future. This includes submersibles, terrain 
following / avoidance and all-weather radar, advanced electronic attack 
capabilities, countermeasures, and precision munitions. We must enhance 
our effectiveness in partnership with the services. For example, we 
look forward to continuing work with the Department of the Navy to 
develop and enhance new options to support undersea operations--a key 
SOF capability. This is not a one way relationship. Recently the Army 
leveraged the efforts of our AT&L directorate to determine their future 
ground mobility vehicle. We continue to refine both our tactics and 
technological developments to enhance our man hunting and network 
defeat capabilities.
    To integrate the advantages of rapidly evolving technology, we are 
making investments that will pay dividends for future mission sets. For 
example, ``deep / machine learning'' will help us mitigate thousands of 
man-hours spent on sorting through vast sums of data. The analysis of 
publically available information; the processing, exploitation, and 
dissemination of information, specifically, ISR data; and sensitive 
site exploitation, are all wide-open areas for the application of this 
technology. We are pursuing technology which can be applied to open 
architectures, enabling rapid upgrades and integration of commercial 
off-the-shelf capability to leverage the latest advancements in data 
analytics and machine learning.
    USSOCOM continues to build networks and venues that support 
innovation in our research, development, and acquisition programs. 
These networks include industry, academia, and other government 
organizations. The command also continues to support agile acquisition 
with appropriate venues, including SOFWERX--our open collaboration 
facility that has now been in operation for over a year and has 
successfully brought hundreds of non-traditional partners together to 
work on our most challenging problems.
    A key part of the unique capabilities that SOF bring to the fight 
is the ability to fight in contested areas, often leveraging and 
enhancing the capabilities of indigenous partner forces. Accordingly, 
we continue to invest in ways that allow SOF to assist our partners 
better: command and control; ISR; Building Partner Capacity (BPC); and 
Aviation Foreign Internal Defense. The emphasis for all partner 
capabilities is on systems and infrastructure which is organically 
sustainable. An enhanced ability to leverage local relationships will 
ultimately help us better influence regional outcomes.
    We also continue to invest in safeguarding our networks and 
communication infrastructure. USSOCOM has a unique service-like 
responsibility to provide all of SOF with networks and communications 
capability through the SOF Information Environment (SIE). The Global 
Enterprise Operations Center (GEOC) located at USSOCOM HQ manages 
network operations for over 70,000 SOFNET users around the world, to 
include over 1,200 deployed nodes. The ability to share information 
across our network--from the unit deployed forward to the USSOCOM 
Headquarters--provides us with a key advantage in dealing with the 
information-rich environment we find ourselves in today. Defending the 
SIE requires sustained investment for cyber defense sensors and tools.
    A continuing key area of concern for SOCOM (cited over our last 
five years of testimony) is our reliance on Overseas Contingency 
Operations funding, or OCO. Since 9/11, we expanded the size of our 
force by almost 75 percent in order to take on mission-sets that are 
likely to endure. OCO underwrites much of that growth, which remains 
critical to ensuring SOF readiness. OCO represents about 28 percent of 
our fiscal year 2017 budget--triple the rate of OCO reliance among the 
Services. Approximately 90 percent of USSOCOM's OCO funds enduring 
capabilities, which are applicable to the threats beyond the current 
combat environment. Ultimately, we must reconcile the nature of SOF's 
work, which requires enduring structure and capabilities, with the 
relatively temporary funding achieved through OCO. Migrating this 
funding to the base budget over time will provide SOF a degree of 
certainty in tomorrow's turbulent security environment that enables us 
to better program for, train, and equip our joint force.
                         the sustainment of sof
    Our people are our single greatest resource. The goal continues to 
be to recruit, assess, and select the very best, providing them the 
requisite training and experience, empowering them to exercise their 
initiative and problem solving abilities, while managing them over a 
potential career in SOF. This is underpinned by an ethos and process to 
build in resiliency and provide the best possible care system for 
servicemembers and their families.
    It is critical that SOF preserves its high state of full-spectrum 
readiness in order to support enduring, priority tasks while 
maintaining the ability to surge in support of major contingencies. 
Healthy dwell rates and Personnel Tempo are essential here. Most SOF 
units are employed to their sustainable limit, while some are 
consistently under that goal. Despite growing demand for SOF, we must 
prioritize the sourcing of these demands as we face a rapidly changing 
security environment. As we work to support the GCCs in addressing the 
challenges they face, we are constantly on guard against overcommitting 
this relatively small force.
    Another key aspect of sustainment is our dependence on our Service 
and interagency partners. The Services provide the foundation upon 
which we build our force. This includes recruitment, acquisitions, 
intelligence, mobility, and logistics support--to name just a few. Many 
of the programs we have are based on Service investments and we often 
point out that a major shift in Service priorities will require a 
reassessment of our own. Our purchasing power and our readiness are 
inextricably linked. We will continue to work with all of the Services 
as well as Congress to ensure we preserve these foundations. In support 
of these efforts, we have scheduled annual war fighter talks with all 
of the Services, as well as key interagency partners (DIA, NSA, NGA, 
CIA), to integrate our approach to developing and resourcing the force.
    Our interoperability with the Services also extends to the 
operations we conduct. Today we support the Joint Force in countering 
ISIS in Syria and Iraq, in Afghanistan, and elsewhere around the world. 
Examples of our interoperability occur every day, most recently in 
Sirte, Libya, where Special Operators assisted Libyan forces in re-
taking the city relying heavily on over 450 airstrikes conducted by our 
Joint Force partners. Similar relationships are routine throughout all 
areas of active hostility, such as with the 5th Fleet in the CENTCOM 
AOR and multiple service and IA partners in the Philippines, where our 
SOF Headquarters ensure we remain closely nested with theater service 
components as an integral component of the Joint Force. Today we are 
more than simply interoperable with the Services . . . we are truly 
interdependent.
    We are also highly dependent on the capabilities that reside within 
the defense agencies, such as the Defense Intelligence Agency (DIA), 
the Defense Logistics Agency (DLA), the Defense Information Systems 
Agency (DISA) and the Defense Threat Reduction Agency (DTRA). With 
improvised threats, we continue to see examples of our adversaries 
taking commercial off-the-shelf technologies and manipulating and 
employing them as weapons as well as surveillance systems, such as 
small Unmanned Aerial Systems (sUAS). The recent integration of Joint 
Improvised-Threat Defeat Organization (JIDO) with DTRA provides us with 
an expanded ability to counter the improvised threats confronting our 
force today.
    We invest heavily in developing relationships with our interagency 
partners, as well, such as the Department of State, the Central 
Intelligence Agency, the National Counter Terrorism Center, and others. 
In total, we have 36 Special Operations liaison officers working across 
16 agencies. This is indicative of the importance we place on whole-of-
government solutions to the problems we all share--integrated efforts 
being the objective.
    Operational requirements demand that we recruit, assess and select 
mentally and physically resilient SOF who can anticipate, respond, and 
adapt to any operating environment; excel in ambiguous situations; and 
are skilled at operating in the human domain in order to deal with 
population-centric conflicts. In addition to rigorous training, SOF 
require specialized education in areas related to our unique mission 
sets. SOF-specific education opportunities are an investment in our 
people and we will continue to augment Service-provided career 
development programs. A critical component to how we accomplish this is 
through the efforts of our Joint Special Operations University, or 
JSOU, which shapes the future strategic environment by not only 
providing specialized joint professional military education through 
specific undergraduate and graduate curriculum, but also through 
engagement with partner nations militaries. It is imperative we 
continue to provide the most highly trained and educated force to 
support persistent, networked, and distributed GCC operations to 
advance our nation's interests. Furthermore, it is critical that we 
continuously develop their talent by providing demanding, realistic 
training and placing people in the right jobs at the right times to 
gain valuable experience. In doing so, we empower our people while 
challenging them to exercise their initiative and make difficult 
decisions. Maintaining this highly trained and experienced force is the 
critical objective--it enables everything we do.
    Because USSOCOM is significantly engaged in current operations, we 
continue to incur casualties, along with training injuries and 
illnesses. Caring for over 6,000 Active Duty wounded and ill SOF 
Service Members, our Warrior Care program--a peer program to the 
Service Warrior Care programs--remains the gold standard for SOF 
Service Members and families whose resiliency has been challenged by a 
life-altering wound, injury, or illness. Recognized by Congress as one 
of USSOCOM's Service-like responsibilities, the USSOCOM Warrior Care 
Program (also known as the Care Coalition) executes our mission of 
returning wounded, ill, and injured SOF personnel to their units, 
maintaining their experience within the force and capitalizing on the 
immense investment of time and resources invested in them. The USSOCOM 
Warrior Care Program conserves its Service Members at rates higher than 
the conventional Service programs due to our focus on retention.
    The Preservation of the Force and Family (POTFF) initiative remains 
a command priority, and we are deeply grateful for Congress' support 
for the resources required to execute this effort. The POTFF program 
enables us to build in physical, psychological, spiritual, and social 
resilience in our servicemembers and their families to cope with the 
unique challenges of this demanding profession. The unique demands 
placed on SOF requires specialized attention to reduce injuries, speed 
recovery, and assure the overall well-being of our force. With your 
support, we've been able to place professional staff and equipment at 
our operational units where they have paid huge dividends in sustaining 
our warriors and their families. In partnership with academia, we are 
studying how we can continue to enhance the application of the POTFF's 
holistic approach to improve the effectiveness and sustainment of our 
force.
    Although the command has made progress in reducing suicides, we 
still have a great deal of work to do. Through our partnerships with 
the Services and academia, we are analyzing how to better predict and 
prevent suicidal behaviors. We recently completed an analysis of SOF 
suicides over the past four years and are using what we learned to 
inform our suicide prevention strategy going forward. We will improve 
suicide prevention training for our military members and their families 
by addressing the underlying cognitive processes that lead to suicides 
and providing enhanced screening of our military members.
    One consequence of our high PERSTEMPO is the challenge it creates 
for our families (over two-thirds of our force are married). Ensuring 
our families are cared for is a necessary component of our readiness 
posture. The Department of Defense as well as the Military Services 
have provided outstanding resources and support for USSOCOM families. I 
am also deeply appreciative of Congress's support in allowing the 
command to tailor family programs that are geared toward meeting the 
specific needs of our community. This support enabled the command to 
conduct pre and post-deployment programs, SOF unit orientations, and 
programs that enrich marital and parental relationships. This year we 
are using the pilot family program authority to develop suicide 
prevention training for families, given we have found that spouses are 
often the first to notice when their partners are struggling.
                               conclusion
    In closing, I would like to emphasize my three priorities for SOCOM 
now and into the future. First, SOCOM is fully committed to winning the 
current and future fights. Second, we must transform our force to be 
prepared to deal with all future adversaries. Finally, we must continue 
to place the greatest emphasis on selecting, retaining, and empowering 
our people, and sustaining them and their families.
    I would like to thank you for your continued support of USSOCOM and 
our people. As we adapt to new roles and challenges, I look forward to 
sustaining an open dialogue with Congress on how we can work together 
to safeguard America's security interests.

    Chairman McCain. Thank you, General.
    General, how are the spending caps under the Budget Control 
Act impacting the readiness and capabilities of special 
operations forces?
    General Thomas. Chairman, that has been a consistent 
challenge over the last couple years as two of the things that 
we would endeavor to control in terms of predictability, and 
that is the deployment tempo and the resourcing of our force. 
Resourcing has not been very predictable over the last several 
years, and the potential for continued cuts undermines both our 
readiness and our modernization going forward.
    Chairman McCain. So what does that do to morale?
    General Thomas. Chairman, indirectly, I think, obviously, 
it affects the morale of our servicemembers who are concerned 
about the support of the Nation and this body.
    Chairman McCain. When it is not predictable as to where and 
when they will be required because of budget constraints. True?
    General Thomas. Chairman, it is true. Yes, there is a 
ripple.
    Chairman McCain. How can you plan, in this budgetary 
environment, when we lurch from crisis to crisis?
    I guess I am a little redundant here, but when I look at 
this map of where all of your people are, spread all over the 
world, it seems to me at least we owe them some kind of 
predictability.
    Let me ask, what is your assessment? Do you know when we 
will see an updated counter-ISIS strategy from the 
administration?
    General Thomas. Chairman, we are currently working on 
updating that strategy.
    Chairman McCain. What is your assessment of Russia's malign 
activities aimed at destabilizing Eastern Europe and our NATO 
allies?
    General Thomas. Chairman, as I think you know, we are 
supporting General Scaparrotti's efforts to both discern and 
determine the nature of Russian aggression, as well as to 
compete short of conflict in the various countries where it 
occurs.
    Chairman McCain. Have you seen the Russia malign activities 
increase, decrease, or stay the same?
    General Thomas. Chairman, I would assess they are a steady 
state of aggressive activities.
    Chairman McCain. How do you think we deter that?
    General Thomas. Chairman, I think by, with, and through our 
allies is the primary approach. I think we have great support 
and great opportunity there, and we are continuing to enhance 
that approach.
    Chairman McCain. Has the European Reassurance Initiative 
had a positive impact?
    General Thomas. It has, Chairman.
    Chairman McCain. Do you think we are in a ``stalemate'' in 
Afghanistan, as General Nicholson testified before this 
committee, in light particularly of recent successful, at least 
in their view, Taliban attacks, including the killing of over 
100 Afghans at a base?
    General Thomas. Chairman, I am aware of General Nicholson's 
description of the current status of the fight as a stalemate. 
I recently returned from visiting Afghanistan where you know 
our special operations forces play a key role with our 
associated forces.
    It is, admittedly, a very tough fight, and we are beginning 
yet another fighting season. I would offer, though that, in 
terms of stalemate, the one objective we had for why we went 
there in the first place that we have accomplished over the 
last 15.5 years is the avoidance of another attack from that 
area. That certainly is an accomplishment and something that we 
need to reinforce going forward.
    Chairman McCain. But if you have a ``stalemate,'' that 
means that it does not end, doesn't it?
    General Thomas. Chairman, I understood the commander's 
assessment of stalemate as an opportunity to change the 
strategy.
    Chairman McCain. But that opportunity, if the present 
status quo prevails, then there is no end to it. In other 
words, what do you think needs to be done to end a stalemate?
    General Thomas. Chairman, I think that General Nicholson 
and the Secretary are pursuing new initiatives to----
    Chairman McCain. What do you think is needed, General 
Thomas?
    General Thomas. Chairman, we are integral to the discussion 
on what is needed going forward. Again, I am supporting the 
commander there, and supporting our Secretary of Defense in 
terms of the strategy----
    Chairman McCain. You know, you testified before this 
committee that you would give your opinion, if it is requested 
by this committee. I will ask you again. What do you think 
needs to be done in Afghanistan to end a stalemate?
    General Thomas. Chairman, I think the critical factor is 
the commitment, the commitment to some enduring state that has 
not been described effectively in the past. I think the new 
strategy is going to establish that definition of what----
    Chairman McCain. Does that mean, in your view, additional 
troops commitment?
    General Thomas. Chairman, additional troops are being 
considered, changes to the ROE [Rules of Engagement]----
    Chairman McCain. In your opinion, do you think it requires 
additional troops?
    General Thomas. Chairman, right now, I think we have an 
adequate number of my troops, special operations forces, on the 
ground.
    Chairman McCain. Of your troops, you think you have enough?
    General Thomas. I do.
    Chairman McCain. How often do your average individuals 
under your command serve overseas?
    General Thomas. Chairman, I believe what you are getting at 
is the deployment tempo for folks.
    Chairman McCain. Right.
    General Thomas. It varies across our force. In some cases, 
various parts of our force, various components are in a 1-to-
1.2 worst-case deployment.
    Chairman McCain. Meaning how many months deployed versus 
how many months back in the United States?
    General Thomas. With that ratio I just described, they are 
about a 1-to-1, so 6 months or so deployed, if that is the 
rotation, 6 months back. That is the worst case. In the best 
case, we have been able to establish a balance of 1-to-3, so 
for every 6 months deployed----
    Chairman McCain. Isn't it a significant strain to have half 
your time deployed? Doesn't that put a lot of strain on the 
individuals and their families?
    General Thomas. Chairman, that worst case is actually less 
than the DOD's desired rate, and we are endeavoring to get that 
back in balance.
    Again, that is not our entire formation. That is only parts 
of our formation. But it is unsustainable, to your point.
    Chairman McCain. I thank you, General.
    Senator Reed. Thank you very much, Mr. Chairman.
    To both Ms. Whelan and General Thomas, do you believe that 
both SOCOM and SOLIC have an adequate seat at the table when 
discussions are made about budget acquisition and other issues 
impacting your force, vis-a-vis the other services?
    Ms. Whelan?
    Ms. Whelan. Thanks for the question, Senator.
    Actually, I think that the recent language in the NDAA in 
section 922 has significantly improved the ability of ASD/SOLIC 
to gain a seat at the table. To that point, specifically, we 
recently used that language to justify getting a separate seat 
for ASD/SOLIC on the Deputy Secretary's management action 
group, which previously SOLIC did not have.
    We have also gained a separate seat for SOLIC on the Deputy 
Secretary's SAP [Special Access Program] Oversight Council. 
SOCOM has a number of special access programs that we 
previously had not been able to manage independently.
    Further, within the Department, we have established a tiger 
team to cross departmentwide in order to determine other areas 
in which ASD/SOLIC needs to gain additional authorities and 
abilities within the Department to represent SOCOM and have a 
seat at the table.
    One other recent accomplishment is I think we will have a 
seat for SOCOM in the upcoming defense strategy development 
process.
    Senator Reed. General Thomas, any comments?
    General Thomas. Senator, I would reinforce Theresa's 
points. We very much embrace the recent language that 
reinforces ASD/SOLIC's role as a service-like entity. We are 
well-represented at all of the appropriate venues.
    It sometimes takes reminding that we are unique in that 
case, because we are seen as either one or the other, and we 
sometimes have to remind folks that we are both, a service-like 
entity and a combatant command.
    But you have empowered us to be at the table for all those 
venues, and we are adequately represented. Thank you.
    Senator Reed. Secretary Whelan, are there any 
responsibilities you have that you feel might be more 
effectively and efficiently carried out by another entity? You 
have a broad range of responsibilities. Is there anything that 
should be repositioned?
    Ms. Whelan. Within ASD/SOLIC, I think that there is 
consistency, actually, across the portfolio in terms of the 
types of activities that the Assistant Secretary is responsible 
for. In terms of the Assistant Secretary's role in providing 
policy oversight, all of the activities that ASD/SOLIC has 
purview over are in some way related to either the employment 
of SOF forces or the environments in which SOF forces operate. 
Whether they be SOF MISO [Military Information Support 
Operations] capabilities, civil affair capabilities, foreign 
internal defense capabilities, training capabilities, and, of 
course, counterterrorism capabilities, the portfolio is 
consistent in that context.
    Senator Reed. My understanding, and correct me if I am 
inaccurate, is that you also have responsibility for 
information warfare?
    Ms. Whelan. Yes, Senator, information warfare does fall 
under the purview of ASD/SOLIC.
    Senator Reed. But you do not have responsibility for cyber 
operations. As we know, cyber operations and information 
warfare, on the other side, our adversaries seem to be one, 
merged together, with each day.
    Ms. Whelan. Correct, Senator. It is a seam. There are a lot 
of seams, as you all know, within our organizational structure, 
and it is difficult. If you eliminate one seam, you will create 
another. So it is kind of a difficult balance to strike.
    One of the things that we have done, though, is SOLIC 
recently put out a strategy for operating in the information 
environment. This strategy impacts the entire Department, to 
include the cyber warriors in the Department. So we have an 
integrated interdepartmental approach to implementing that 
strategy.
    Right now, we are going through a capabilities-based 
assessment of that strategy to determine where we have 
additional needs and where we have seams that we need to fix in 
order to operate effectively.
    Senator Reed. Thank you.
    Just a final and very quick question. As the Chairman has 
noted, we have threats that are not strictly counterterrorism 
today with this gray area of operations. Section 1208, which I 
think has been very useful, as you have described it, is 
focused more on counterterrorism. Is there anything we have to 
do to give you that same degree of authority with respect to 
these gray areas in unconventional warfare rather than 
counterterrorism?
    General Thomas, your comments?
    I have no time.
    General Thomas. Senator, we are actively pursuing both the 
authorities and the resources that would enable more enhanced 
unconventional warfare operations. Again, we are very 
appreciative of what 1208 does for us, and that is actually--I 
mean, it is very--kind of enthusiastic. Its similar authority, 
similar resourcing might be advantageous for the force and for 
the Nation for unconventional warfare purposes, and I look 
forward to having that continuing discussion with you and 
others.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    I do want to pursue this a little bit, in terms of your 
response to the Chairman's question in terms of the adequacy of 
the force.
    But I want to first mention your activity in Africa, which 
really surprised me. I can remember when we first brought 
AFRICOM [Africa Command] along, and we started paying attention 
to what is going on over there, the potential threats there, 
the terrorism that is infiltrating the countries. So I know you 
have been active over there. I have talked to a lot of the 
African leaders. Very complimentary on some of the results that 
we are getting.
    This surprises me, because AFRICOM did not even come online 
until the first of 2008, and yet, if you go back to 2006, the 
deployments to Africa have increased by more than 1,600 
percent. It went from 1 percent to 17 percent in terms of 
deployments outside the United States. That is huge. That is a 
lot of increase in activity.
    In addition to combating terrorism and the expanding 
network of violent extremism organizations, General Thomas, 
what impact, what can you elaborate on, on your activities in 
Africa? It is an inordinate increase, in terms of percentage, 
when you realize that some 17 percent of all deployments are 
actually affecting Africa.
    General Thomas. Senator, I would actually attribute that to 
our adversaries' activities. The migration of ISIS and al Qaeda 
to Africa, to ungoverned spaces over the preceding decade has 
been palpable. You know the specific locations. I probably, in 
an open session, should not get into the details of where and 
what. But we have endeavored to move where they have tried to 
establish new provinces, new areas of influence, in support of 
General Waldhauser and AFRICOM.
    So that transition over time has really been driven by 
adversarial action. But I think the good news is that we have 
had the ability to move those locations and attempt to defeat 
and disrupt them where they try to reside.
    Senator Inhofe. I do not think anyone anticipated back in 
2008 or even in the years since then that the activity would 
increase as it has there, so I am interested in following 
through with that.
    On the idea of what you guys are in a position to handle 
right now, most of the deployed SOCOM forces, 55 percent, went 
to the Middle East. Next was Africa, that was 17 percent. Then 
Europe, 13 percent, and 9 percent.
    Now, when you look at the optempo that was involved over 
there, in your written testimony, you acknowledge that 
adversary powers are increasingly turning toward unconventional 
warfare to pursue their objectives.
    But maybe I misunderstood you when you responded to the 
question of the Chairman, that you are adequately staffed to 
carry on these functions. Is that not an accurate recollection 
I am having?
    General Thomas. Senator, we are adequately staffed to 
maintain the current tempo, the current distribution of special 
operations forces. It is a strain. It is certainly not an easy 
burden, but we are adequately resourced.
    Senator Inhofe. I am looking for the quote that we had. 
Yes, this would have been from the House committee yesterday. I 
cannot find it right now, but there were quotes that--here it 
is right here. You said most special operations forces units 
are employed to their sustainable limit.
    Now, to me, that seems a little inconsistent with being 
adequately staffed. You went on to talk about as or more 
challenged as a conventional force by the problem of suicide, 
other problems in the ranks that come with what I consider to 
be over-deployed.
    What are some of the problems that you are facing that give 
you the indication that maybe you are not adequately staffed?
    General Thomas. Senator, again, we can sustain the current 
rate of deployment. It is something we scrutinize every day.
    You mentioned, the Chairman mentioned early on, that there 
is a large demand signal from our geographic combatant 
commanders to do the things they have to do. As a service, one 
of our roles, we aim to meet their requirements. As a global 
combatant command, we also attempt to synchronize special 
operations activity to the greatest efficacy possible. I think 
we are doing that, to the degree we can.
    There are challenges on the force. You mentioned certainly 
some of the more dire symptoms. We address them directly every 
day. That is large focal point for us.
    I would have to thank all of you as well for providing us 
the tools that we did not have a decade ago to build in 
resiliency for our force in terms of our Preservation of the 
Force and Family, and also for our ability to care for our 
warriors in the event of mishaps, injuries, et cetera. We did 
not have that capability. You helped us gain it over time, and 
that is a critical part of how we sustain ourselves.
    Senator Inhofe. Well, as one member of this committee, I 
look at some of the results, some of the problems that you 
have, and I have to question as to whether or not it is 
adequately staffed.
    One short question, I know my time has expired, but you can 
do this for the record, if you like, Ms. Whelan, there is some 
confusion, as I mentioned to you earlier, in the words that you 
use when you are talking about adversary powers increasing, 
turning toward unconventional warfare. You said, ``exquisite 
integration across multiple components of not only the Defense 
Department, also the United States Government, as a key 
challenge to confronting growing threat.''
    You might, for the record, since my time has expired, 
elaborate a little bit on that. Would you do that?
    Ms. Whelan. Yes, Senator. We would be happy to.
    Senator Inhofe. Thank you very much.
    [The information referred to follows:]

    Ms. Whelan. Our adversaries have specifically calibrated their 
model of unconventional warfare to exploit the seams in our interagency 
process. We must bridge seams among U.S. Government departments and 
agencies in ways that go beyond mere procedural coordination, and we 
must operate with a shared purpose. For classification reasons, I 
cannot fully describe the range of these cross-functional teams in this 
document. That said, we have convened experts from across DOD and other 
U.S. Government departments and agencies to understand our adversaries' 
strategy and operations. As we gain insight into one layer of the 
problem, we discover additional layers. After identifying the problem 
and understanding the environment, U.S. Government departments and 
agencies move to develop a solution. We have established new working 
groups to apply novel analytical capabilities, especially in the fields 
of information operations and indications and warning. We develop and 
test response options while drawing on history for operable models. 
Furthermore, many of the principles and structures developed during the 
long war against terror are applicable against other unconventional 
adversaries.

    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I want to thank both of our witnesses for your service. In 
particular, I would like to thank the men and women that you 
lead in our armed services, both in the military and in the 
civilian side, and, of course, particularly the Special Ops 
Command in the Pacific arena who provide great support to the 
Asia-Pacific region.
    Secretary Whelan, guidelines for the use of force were 
established by President Obama in the 2013 Presidential Policy 
Guidance. The rules include the requirement for a ``near 
certainty'' that the terrorist target was present and that no 
civilians would be injured or killed.
    There is no legal requirement that President Obama's 
successors adhere to the same rules. President Trump has 
recently directed you to advise him on any recommended changes 
to the rules of engagement, and there were reports that there 
were a large number of civilian casualties after the raid in 
Yemen recently.
    Have the rules of engagement requirement of near certainty 
that no civilian casualties will result been modified for 
special ops missions?
    Ms. Whelan. Thanks for the question, Senator. Absolutely 
not.
    Senator Hirono. Are there differences in the steps a 
conventional force would take versus special operations to 
prevent collateral civilian loss of life during missions?
    Ms. Whelan. Senator, I will let General Thomas answer that 
question.
    Senator Hirono. General Thomas?
    General Thomas. Senator, no is the answer. We both adhere 
to the Law of Armed Conflict. There are different techniques in 
terms of how we develop targets, but the same absolute standard 
applies.
    Senator Hirono. So these rules of engagement that require 
near certainty that your target is there and that you will 
minimize collateral damage, that was applied in the Yemen case?
    Ms. Whelan. Yes, the rules of engagement were not changed 
for the Yemen case.
    Senator Hirono. Although there was a high number, we were 
told maybe 200 or so civilian casualties, that did not result 
in a review of what happened there?
    Ms. Whelan. There have been extensive reviews of what 
happened, after-action reports, and lessons learned, but the 
casualties were not a result of a change in the rules of 
engagement.
    Senator Hirono. What were they the result of?
    Ms. Whelan. They were a result of operational circumstances 
that the forces on the ground found themselves in.
    Senator Hirono. I see.
    General Thomas, in your testimony, you identify SOFWERX as 
a SOCOM initiative to support agile acquisition with 
appropriate venues. This is an open collaboration facility in 
Florida that has been in operation for over a year and has 
successfully brought hundreds of nontraditional partners 
together to work on your most challenging problems. I think 
that is a really good idea, although we have a lot of 
innovators and idea folks all over the country, also in Hawaii.
    How do you search for ideas, collaborators, and solutions 
outside of your SOFWERX construct?
    General Thomas. Senator, you actually teased out the bigger 
part of the problem. I have the luxury of commanding 70,000 of 
the best, most creative problem solvers in the world. How I 
marry them up with the absolute innovation that is everywhere 
in terms of industrial approaches is the real challenge.
    But SOFWERX is one way we are doing that, where we are 
compressing the space between academia, innovators, 
businessmen, and our operators in the pursuit of very specific 
problems. So you might imagine the whole gamut of issues that 
we are endeavoring to accomplish there that are enabling our 
force. But we are able to do that and go into rapid fielding 
and accelerated fielding of capabilities that enable our force.
    So a relatively new initiative, SOFWERX, about 1.5 years 
old, but also already paying some huge dividends for us.
    Senator Hirono. So based on your experience so far with 
SOFWERX, would you recommend that something like this, maybe a 
physical location for PACOM [Pacific Command] or other 
commands?
    General Thomas. Senator, the Defense Department is actually 
endeavoring to do this at a number of different locations. 
Secretary Carter certainly invested in the valley. There are 
other initiatives around the United States, tapping into the 
various laboratories and academic facilities.
    I cannot speak to where the Department is going in terms of 
the Pacific and where we might invest out there, but I am sure 
we are interested in wherever we can tap into that kind of 
innovative capability.
    Senator Hirono. I hope you all will take a look at 
spreading the opportunity around, because there are a lot of 
small businesses all over the country who could provide the 
kind of innovation that you are seeking.
    The Pentagon has acknowledged more than 100 United States 
special operation forces operating with Iraqi units in and 
around the Mosul with upwards of 600 more playing a support 
role in staging bases farther from the frontlines.
    This is for General Thomas. Can you comment on the 
seemingly ever-increasing use of special operation forces? Do 
you think we are relying too heavily on special ops?
    General Thomas. First and foremost, we are not a panacea. 
We are not the ultimate solution for every problem. You will 
not hear that coming from us. That has been misconstrued in 
some media circles. Everything we are doing is in concert with 
conventional forces, with our allies, completely integrated.
    I just visited Mosul. I was there about 3 weeks ago. Mosul 
was my hometown for 15 months, from 2007 to 2008, so I am very 
familiar with how daunting that challenge is.
    In that area, you have a mix of conventional forces. I met 
with a brigade commander from the Army who was there. We had 
our special operations forces and our forces all integrated 
with the Iraqis, who are doing the majority of the fighting and 
incurring most of the casualties there. So it is an absolute 
blend of all of our forces, and I think the right mix.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you both.
    Let's talk about collaboration with your international 
counterparts. Which one of you would like to discuss the extent 
to which we collaborate with our international allies? General?
    General Thomas. Senator, in a word, extensively. At almost 
every part of our formation, you will see where we are 
endeavoring to bring everyone in who has a part of the problem.
    I am very appreciative that the Director of National 
Intelligence has enabled us to crush through pre-existing 
prohibitions for information-sharing, probably one of the most 
powerful things that we have in this day and age, to be able to 
share exquisite information that the United States has that we 
may or may not be intent on acting on, but be able to share 
that with our allies and enable them to act.
    But that is at almost every point of our formation, where 
that level of collaboration is ongoing right now. So 
``exquisite'' is the best way I can describe the extent of the 
collaboration, and getting better every day.
    Senator Wicker. Is there anything else you need in the next 
NDAA to help you there? Do you have what you need?
    General Thomas. Senator, I believe we certainly have no 
restrictions that I can mention to you nor that I can specify 
to right now. So we feel very enabled there.
    As I mentioned, the intelligence community is finding ways 
to enable us more every day, certainly with the concerns of 
safeguarding methods and sources and things like that, but with 
a lean toward sharing and collaborating more than we have ever 
done before.
    Senator Wicker. I understand you have a particularly strong 
relationship with our neighbors to the north in Canada.
    General Thomas. A phenomenal relationship, yes, Senator.
    Senator Wicker. What can you tell us in this non-classified 
setting about Exercise Vital Archer?
    General Thomas. Senator, hard to go into detail about that 
exercise, which we recently completed, as I think you know. But 
it is part of a cycle, if you will, to ensure our 
interoperability with our neighbors, with one of our greatest 
partners, for a very specific mission set that is of critical 
interest to both Canada and us.
    Senator Wicker. Let me shift then to special boats and say, 
first of all, that we in Mississippi are thankful and honored 
to have Special Boat Team 22 headquartered in our state.
    Would you describe the ways in which these special boat 
teams contribute to different missions?
    General Thomas. Senator, I recently had the privilege of 
running all over Stennis here about a month ago, and getting 
out on the water in some of those capabilities. They are 
integral to many of our activities around the globe. NAVSCIATTS 
[Naval Small Craft Instruction and Technical Training School], 
the institution that you have there as well, is also a critical 
enabler for many of our foreign allies.
    So, again, two phenomenal aspects of our portfolio that are 
important to everything that we are doing.
    Senator Wicker. We are continuing to do a lot of 
significant work in riverine environments.
    General Thomas. Where it applies, Senator, we certainly 
have that capability, and we continue to improve it.
    Senator Wicker. Where does that apply?
    General Thomas. Senator, on several locations around the 
globe that probably would be best to address in a closed 
hearing.
    [The information referred to follows:]

    General Thomas. WARCOM maintains a 1.0 Riverine detachment 
capability. Each detachment consists of 2 x SOC-R Boats and 15 
Personnel. The SOC-R detachment is deployed under Force 
Tracking Number 6170CTS3411 in support of the SOUTHCOM Theater 
Campaign Plan conducting theater security co-operation missions 
as well as prepared to conduct contingency operations and 
directly support the Counter-Drug/Counter Narco-Terrorism lines 
of effort in the SOUTHCOM AOR. The SOC-R detachment is deployed 
to Columbia.

    Senator Wicker. Okay. Let me just say, to follow up on the 
Chairman's line of questioning about Afghanistan, I just think 
it is very important for you to know, and for everyone 
listening to know, that we need to move beyond anything that 
puts us at a stalemate in Afghanistan.
    This is an important fight that we need to win, and there 
is every reason that we should be able to do that. We have a 
populace in Afghanistan who supports our presence there. The 
overwhelming majority of the ethnic groups, of the tribes, 
appreciate what we stand for and look to the United States for 
leadership.
    So to the extent that either of you, both of you, can give 
us correct and helpful information about how to move past what 
some people have described as a stalemate, to me, is very, very 
helpful.
    Ms. Whelan?
    Ms. Whelan. Senator, I think we are actually actively 
looking at adjustments to the approach in Afghanistan right 
now. I expect that these proposals will go to the President 
within the next week, and the intent is to do just that, to 
move beyond the stalemate and also to recognize that 
Afghanistan is a very important partner for the United States 
in a very tricky region. We want to maintain that partnership 
with Afghanistan, and we want to ensure that Afghanistan 
reaches its potential. So that is the objective of the 
strategy, sir.
    Senator Wicker. That is very good to know. Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Thank you both for being here. Please pass along our 
gratitude to everyone who serves in your command. I think the 
work they do every day has an enormous amount of respect from 
all of our constituents, and we should be very grateful for 
that.
    General Thomas, yesterday, I want to thank you for just 
sitting down with me in my office. You and I discussed a number 
of things.
    The high operational tempo was one of the things we touched 
on. One of the things you mentioned to me that really stuck in 
my head are the numbers. You also indicated that now somewhere 
between 28 percent and 30 percent of your funding is now from 
war supplemental, or OCO [overseas contingency operations] 
funding, versus 7 percent across the other Military Services.
    I was hoping you could talk a little bit about what that 
means in terms of that budgetary overreliance on OCO and how 
that impacts your ability to plan and execute your mission.
    General Thomas. Senator, thanks for the question and thanks 
for the opportunity to discuss a number of issues with you in 
more detail yesterday.
    I mentioned the two things that I look to that pressurize 
us most are unpredictable deptempo, and certainly there are 
aspects of that are affecting our force, and resourcing, the 
predictability or not of resourcing, which has been challenging 
over time.
    We are monitoring very closely the budget discussions. We 
are integral to all those budget discussions. Truthfully, I am 
somewhat sanguine that we will get the resources required to 
continue to pursue the tempo and the effects that we are 
producing right now.
    You pointed out my one concern is that we have trended to 
be much, much more dependent on operational contingency funds 
than anybody else in DOD. So the current budget would push us--
--
    Senator Heinrich. If your overall budget were held flat, 
would you rather have that in base budget or would you rather 
see it over in the OCO?
    General Thomas. Senator, I hope that we will be able to get 
consideration to move that into the base over time. Again, I 
have talked with Secretary Mattis, so I do not want to appear 
inconsistent. The Department is not pushing that as 
aggressively for the remainder of the other services because 
they are only leveraged to OCO to about a 7 percent degree. We 
are 30 percent or near 30 percent right now. So that is some 
risk that we certainly would like to mitigate over time.
    Senator Heinrich. One of the other things we mentioned and 
talked a little bit about is the contributions out at Cannon 
Air Force Base. Would you take a moment and talk a little bit 
about the importance of the RPA [Remotely Piloted Aircraft] 
contribution that happens there? Do you have concerns with 
regard to operational tempo? We have made huge investments in 
the facility over the years because of the growing mission, 
but, obviously, the tempo has been incredible.
    General Thomas. Senator, I think this committee is very 
aware that ISR [Intelligence Surveillance Reconnaissance] is a 
significant portion of our portfolio, to the tune of about one-
fifth of our investment strategy on any given annual basis. It 
runs the gamut from tactical ISR all the way to high-end ISR 
that our Air Force component produces, which is the best in the 
world. It is better than anything on the planet.
    Cannon plays a critical role in terms of the basing and 
training of that ISR capability, both manned and unmanned. Then 
the range complex there allows us to work it every night. So, 
again, state-of-the-art ISR capability produced by our Air 
Force and others that we leverage on a consistent basis.
    Senator Heinrich. I also want to commend SOCOM's interest 
in pursuing what General Goldfein described as silent sabotage 
with regard to directed energy. An airborne high-energy laser 
on a C-130 gunship could certainly deliver a number of 
capabilities before and during clandestine ground operations.
    Do you want to share any thoughts you have on how directed 
energy might contribute to your future mission and how SOCOM's 
plans for developing that system are coming along?
    General Thomas. Senator, as we discussed yesterday, we see 
a number of applications for high-energy weapons capabilities, 
so we are interested from a number of approaches. You mentioned 
that we have offered to base it on one of our platforms as a 
test basis. That was relatively easy for us to offer up and 
obviously gives us kind of an immediate developmental 
capability. So, again, very interested, not exclusively a SOCOM 
pursuit----
    Senator Heinrich. Do you feel good about Air Force's 
willingness to get in that game as well?
    General Thomas. I do. We have a phenomenal relationship 
with General Goldfein and the Air Force.
    We have actual annual service talks with all the services 
to talk through how we can crush through our combined equities, 
and the relationship with our sister services is phenomenal. I 
have no concerns.
    Senator Heinrich. My time has expired here, but I also want 
to express a willingness to work with you on the 1208-like 
issues with regard to unconventional warfare.
    Thank you all for being here today.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    To Ms. Whelan and General Thomas, thank you so much for 
being with us today. As a soldier and a citizen, I want to 
thank you very much for your relentless work on the 
battlefield. As the spouse of a former SOF operator, I want to 
thank you for SOCOM's dedication to the health and wellness of 
those operators and especially the commitment that you have to 
those servicemembers' families. So thank you very much for 
being here.
    General Thomas, during your confirmation hearing, we spoke 
about SOCOM's Preservation of the Force and Family, POTFF, 
initiatives. As you know, I am glad to see that SOCOM has done 
a lot in those areas to help our special operations warriors 
and their family members. The wounded warriors especially is an 
interest of mine. I would encourage everybody on this committee 
to take a look at those programs and learn more about them.
    Can you give us just a brief update on POTFF and 
specifically on THOR 3 [Tactical Human Optimization, Rapid 
Rehabilitation and Reconditioning]? I had the opportunity to do 
PT [physical therapy] at a THOR 3 facility with some of your 
operators. It was an experience.
    Can you tell us if SOCOM has the support it needs from 
Congress for these types of programs?
    General Thomas. Senator, thanks for the question. Thanks 
more specifically for your personal support for this critical 
capability.
    It is, admittedly, an awkward acronym, POTFF, Preservation 
of the Force and Family, but it captures the essence of what we 
are trying to enable, focused on both our force and, arguably, 
something that we talked about but did not have the resourcing 
before, the readiness and the preservation of our families.
    It literally builds in or enables us to build in resilience 
prior to and in preparation for potential deployment for both 
our servicemembers and their family members across a broad 
array of approaches--psychological, physical, spiritual--that 
again has paid huge dividends for us.
    You mentioned a specific aspect of that that pertains 
mostly to the physical maintenance and the physical recovery of 
our force. But over time, this committee and the Congress has 
enabled us to put the right infrastructure in place with the 
right technicians, therapists, and psychologists, et cetera, to 
provide state-of-the-art, as good as anything on the planet, 
sustainment capability for our individual operators, our 
individual servicemembers, and their families.
    Command Sergeant Major Patrick McCauley and I go around the 
formation. We get nothing but rave reviews from the force. In 
some cases, in fact, the challenge forces in some of our most 
distant locations where smaller forces, they are looking for 
the same capability, and we are finding ways to parlay that to 
them as well, as opposed to just at the larger special 
operation installations.
    Senator Ernst. Outstanding. It is a great program. Thank 
you, sir, for being so supportive of that.
    It is not surprising that so many of our SOF warriors, even 
after injury, are able to get back into that fight. While I was 
at THOR 3 with a dear friend of mine from Iowa, we met another 
one of his teammates who had also been injured. He had a near, 
at the hip amputation and had a prosthetic. He has been able to 
return to the fight because of those facilities. But he has 
been back to Afghanistan a number of times.
    But we also have those warriors who are not able to deploy 
again. So what is SOCOM doing to utilize their talents and 
abilities even after injury if they cannot deploy? Are there 
things that we should look at as Congress to enable those 
warriors to stay on duty?
    General Thomas. Senator, you touched on one of the unique 
challenges that we have, that most of our servicemembers, even 
despite extraordinary wounds, debilitating wounds for any other 
human being, desire greatly to continue serving. So you 
highlighted one example. I can highlight dozens where we have 
been able to accommodate individuals to stay in the force and 
to continue to contribute.
    You mentioned an amputee. We have amputees that are 
operating as operators, frontline operators, special forces, 
SEALs, the tip of the spear although way through all of our 
supporting functions.
    Again, our goal is, if they want to continue serving, we 
find a way to enable that. You have given us the wherewithal, 
the committee has given us the wherewithal to be able to do 
that through our Warrior Care program.
    Senator Ernst. Very good. I appreciate that very much.
    I do have a few other questions. We will get to those. Just 
a quick yes or no, though.
    President Trump today is saying that he does support 
leaving troops in Iraq in the fight against ISIS. Is that 
something that you would support?
    General Thomas. Senator, I support the strategy, so 
whatever the nature of the special operations support is 
required to obtain our objectives, I am supportive.
    Senator Ernst. Ms. Whelan?
    Ms. Whelan. Yes, actually, we are totally linked, and the 
strategy is based on our requirements of the generals on the 
ground.
    Senator Ernst. Thank you very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses. I have a concern and a question.
    On the concern side, on the SOCOM website, you have a SOF 
Truths, five of them. One of them is, most special operations 
require non-SOF assistance. That seems pretty obvious. I have a 
concern about what I worry is a sort of growing SOF myth, and 
that is you can do special forces and have special forces and 
nothing else to accomplish your goals. Even conversations in 
this body sometimes are, well, we do not want to use ground 
troops, no boots on the ground, but it is okay to use special 
forces.
    I sometimes think that is a little bit of not really a 
military calculation but kind of more of a political one, that 
ground troops are a little bit more notable, special forces 
tend to be more covert, so we can do things with special forces 
and not really have to be accountable for it to the public.
    Am I right to worry about that?
    General Thomas. Senator, I think you are right to worry 
about the perception. It is something that we battle all the 
time. There have been too many books and movies and 
publications that might imply that we go it alone, do it alone, 
and that is completely incorrect.
    Certainly, I share your concern that that is out there, but 
it is something that we push back on all the time. It is just 
not the case.
    Senator Kaine. A question Senator Wicker asked you about, 
collaboration with international partners, I want to focus on a 
piece of that, the training that you do. I think one of the 
best parts of our DOD budget, and it is a very small part of 
the budget, is the training work that we do with other nations, 
either bringing military leaders of other nations here or doing 
training with countries all over the world.
    Senator King and I have done some traveling and have seen 
U.S. special forces doing training in some tough parts in the 
world that are pretty impressive. Without saying anything in an 
open setting that you should not, talk a little bit about the 
scope of the training activities that our special forces are 
involved in with partners all over the world.
    General Thomas. Senator, we are consistently trying to 
align ourselves with the appropriate partner forces where our 
national interests pertain in the interest of building their 
capability to the range of missions that they might be required 
to do.
    I think we are pursuing a much more enlightened training 
approach, all the way through security force assistance. Where 
I think my fellow combatant commanders would tell you that we 
are probably not keeping pace is in terms of the bureaucracy 
that pertains to foreign military sales and things of that ilk. 
I know we are trying to get those to be as coherent as possible 
going forward. That would help us.
    But I think we are doing a much better job of identifying 
partner forces ahead of time that need various capabilities, 
and we are pressing to make sure they have that capability.
    Senator Kaine. This training, when you do it, it is not 
only about just shear military capacity-building. It is also 
about rules of war and human rights and elevating professional 
standards in these militaries around the world, and that is all 
for the good.
    General Thomas. Senator, you are nailing what I think is 
one of the critical aspects of it. It is literally imparting 
our American values to them in the means of a military-to-
military relationship.
    Too often, in my mind, the first billpayer is that 
military-to-military relationship when we have missteps, and we 
are the first to address it. If we even get a scent of 
extrajudicial killings or inappropriate behavior, we address 
that immediately with the respective element. But we are 
attempting to bring their understanding of what we believe is 
the right way to conduct combat operations along as part of our 
training.
    Senator Kaine. One of the most important things I think we 
can do is kind of be the partner of choice as other nations are 
looking to build capacity, and I think there is probably no 
area more than special forces where we are really seen as a 
partner of choice by nations all around the world. That is a 
great way to build relationships and improve capacity, 
compliance with rule of law.
    So I commend you on that and look forward to talking about 
that more as we get into working on the NDAA together.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Ms. Whelan, General, thanks for your testimony.
    General, I appreciated the opportunity to meet with you and 
your team yesterday. I wanted to follow up on some of our 
discussions.
    Obviously, we focus a lot here on ISIS and al Qaeda and 
some of the other terrorist groups. But certainly, one of your 
most important missions is the counter-WMD [weapons of mass 
destruction] mission. As the threat is growing from North 
Korea, Iran, it is not just a direct threat. As you know, it is 
a proliferation threat. I think that is going to be an enduring 
mission for you and your team and the SOF Command for decades.
    So in 2016, in the unified campaign plan, it was amended to 
transfer responsibility from STRATCOM [United States Strategic 
Command] to SOCOM for the synchronization of DOD's global 
counter-WMD strategy. To the extent you can discuss it in an 
open hearing like this, what are the things that we can do to 
support that critically important mission in terms of 
resources? How is the transfer going? Are there any other 
things that this committee should be aware of to help you most 
effectively focus and undertake that critical mission?
    General Thomas. Senator, thanks for the question, and 
thanks for the time yesterday as well.
    As you mentioned, this is an enormous and incredibly 
important mission set that we accepted responsibility for in 
January. So January of this year was when it was officially 
assigned to us from the Department of Defense. We have had 
about 4 months to work our enhanced appreciation for all that 
entails. Obviously, we had studied ahead of time, but there is 
nothing like embracing a mission to really understand it.
    We have had a chance to do our first of what is a 
semiannual synchronization session with all the interagency 
partners that are part of this problem set, all the geographic 
combatant commanders, our international partners, a really, 
really valuable session that we conduct semiannually.
    We are currently now trying to confederate all the ongoing 
activities so that we can provide the Secretary an assessment 
here. I am aiming for the August timeframe to give him a 
comprehensive assessment of where we are in terms of the United 
States Government policies and objectives for countering 
weapons of mass destruction, where we are from a DOD approach, 
and relative to both our interagency and our international 
partners.
    So, again, we are leaning into this mission as aggressively 
as we do most everything at SOCOM. But it is obviously much, 
much bigger than us, and we are honored to have that 
coordinating role for the Department of Defense, and we are 
endeavoring to provide the best product possible for the 
Secretary and the Department.
    Senator Sullivan. As you undertake that analysis and that 
transfer of authority over to you, which has already happened, 
please make sure that this committee--I can almost guarantee 
you that you would get bipartisan support for additional 
responsibilities or resources that you will need with regard to 
that critical mission, so please keep us posted.
    Let me ask this, it is kind of related to Senator McCain's 
and Senator Kaine's question.
    We seem to have, in some ways, adopted a strategy of 
fighting our wars now with a combination of SOCOM forces and 
airpower. But in your professional military opinion, what other 
capabilities would be beneficial to help our forces and our 
country bring success in places like Iraq or Syria or 
Afghanistan?
    I know you are looking at that issue, but there is kind of 
this, and I think it is a theme here, you are hearing a bit of 
a myth that, once the SOCOM men and women are on it, everything 
is good to go. But we know that there are a lot of other 
capabilities and other forces that need to bring to bear.
    Specifically, what do you see as most important in terms of 
other capabilities, supporting or even in the lead?
    General Thomas. Senator, it is kind of ironic, I am running 
through my brain right now 80 different countries, 8,000 
special operations forces forward deployed, and I cannot think 
of a single circumstance where we are not dependent on another 
service, another supporting function out there--not one.
    So if and when it has been described as special operations 
forces by themselves, it is a misconception.
    Now, unfortunately, in some cases, we are too prominent, 
too prominent because it is interesting, it is, again, the 
stuff of too many books and movies. But we are not doing 
anything by ourselves.
    The good news is, as we go into a problem, as special 
operations goes into a problem, I consider the entirety of the 
DOD inventory at our disposal, and vice versa. That is, I 
think, the benefit of the joint force approach, that we do not 
feel constrained that there is nothing available in the DOD 
arsenal that we cannot leverage, and they look at us in the 
same fashion.
    So, again, that is happening about anywhere I can imagine, 
anywhere I have been lately, without any shortcomings.
    Senator Sullivan. So you are integrated, for example, with 
marines who are doing artillery fire missions with you in Iraq 
right now?
    General Thomas. I think I mentioned to you I will not get 
into specifics, but I just visited some marines that were 
shooting more 155 ammo than I can supply them right now, and 
they are integral to everything we are doing.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Ms. Whelan, I could not help notice your former title of 
Principal Deputy Assistant Secretary of Defense for Special 
Operations Low-Intensity Conflict.
    When I was a junior staff member in this body 40 years ago, 
I once called OMB [Office of Management and Budget] for an 
administration witness. They gave me a title. He said I am 
sending you so and so, the principal deputy. I said I do not 
know these titles. What does that mean? The fellow gave me an 
answer, which if I ever write a book about Washington, it will 
be the title of my book. The answer was, ``He is at the highest 
level where they still know anything.''
    [Laughter.]
    Senator King. I just want you to know that you are at that 
level, and I am now above it. So I have never forgotten that.
    General Thomas, there has been a lot of talk about tempo. 
Let me go back to the left about tempo and talk about 
retention, recruitment, and throughput. Do you have adequate 
people in the pipeline to maintain the tempo that you are at 
today?
    General Thomas. Senator, again, something that we look at 
incredibly closely every day. The answer is we are having some 
challenges for portions of the force for recruitment. I 
contribute some in terms of Army special operations forces to 
the downsizing of the Army, partly for some internal challenges 
that I think we have rectified.
    But in some cases, we have had some challenges. I think we 
are trending in the right direction now though going forward, 
but we had some temporary challenges over the last couple 
years.
    Senator King. I certainly hope that you will let the 
committee know about those issues. If there are recruitment and 
retention issues that our actions here can help to alleviate, 
we certainly want to do that.
    General Thomas. Will do, Senator.
    Senator King. Ms. Whalen, the command-and-control is an 
issue that is of some concern. Do you believe that we have 
effective command-and-control of the special operations forces?
    I am concerned about interested parties, your command, 
geographic combatant commanders, service components, all 
receive and share information in a quick and efficient manner. 
Talk to me about command-and-control.
    Ms. Whelan. Certainly. I will actually also let General 
Thomas comment on this as well.
    But I think from our perspective, in the SOLIC oversight 
role, we actually have excellent command-and-control. In fact, 
I think the integration of our forces between SOCOM and the 
combatant commands that they support, the regional combatant 
commands----
    Senator King. So if there is an action of special operation 
forces in a particular geographic area, the combatant commands 
are integrated, they know what is going on.
    Ms. Whelan. Actually, Senator, the way it works is that 
SOCOM forces, the SOF forces actually fall under the command of 
the combatant commander, the geographic combatant commander. So 
the Gulf Cooperation Council (GCC) is fully in charge of the 
operations that take place in their Area of Responsiblity 
(AOR). For example, if you are looking at the CENTCOM [United 
States Central Command] AOR right now, General Votel and his 
subordinate commanders, that is the chain of command that 
operates all of the forces that are in that AOR right now, to 
include special operations forces.
    Not necessarily for this forum, but there are some specific 
elements that operate under a slightly different chain of 
command, although still under General Votel's purview but with 
more direct access to General Votel that belong to General 
Thomas.
    But there is total integration, and nothing happens in a 
geographic commander's AOR that he does not know about.
    Senator King. General Thomas, you are comfortable with the 
structure?
    General Thomas. Senator, absolutely comfortable. I 
reemphasize Theresa's point. There are no special operations in 
the world right now that are not under the command-and-control 
of geographic combatant commander.
    There are provisions for exceptions in some scenarios. 
Truthfully, the exceptions are single digits over the course of 
our history where SOCOM could be the supported commander. But 
day in, day out, all of our operators right now are under the 
control of a geographic combatant commander.
    I have combatant command of all special operations forces, 
and I apportion them to their respective geographic combatant--
--
    Senator King. There is always coordination with the 
combatant command?
    General Thomas. Always, constant, incessant. Senator, our 
role for synchronizing is where these geographic combatant 
commanders get to their prescribed limits. So you might 
imagine, for CENTCOM, for instance, as their borders literally 
butt up to other geographic combatant commanders, Syria to 
Turkey, Yemen to Somalia, Egypt to Libya, that is where we play 
a critical function of synchronizing special operations 
activities across those respective geographic combatant 
commanders.
    Again, they fight the forces. We provide a transregional 
perspective and role.
    Senator King. Ms. Whelan, my time is up, but very quickly, 
you mentioned information warfare. What does that consist of?
    Ms. Whelan. Information warfare is a complex set of 
functions that include some of our military information support 
teams, as well as some of our communications specialties. There 
is a whole list. I know you are short on time, Senator, if you 
like----
    Senator King. Perhaps you could, for the record----
    Ms. Whelan. Absolutely.
    Senator King.--give us a definition of what that is.
    Ms. Whelan. We will take that for the record and get you 
the answer.
    Senator King. Thank you very much.
    [The information referred to follows:]

    Ms. Whelan. Although there have been several references to 
``information warfare'' in this hearing, our current doctrine uses the 
term Information Operations, which is defined as ``integrated 
employment, during military operations, of information-related 
capabilities in concert with other lines of operation to influence, 
disrupt, corrupt, or usurp the decision-making of adversaries and 
potential adversaries while protecting our own.'' Examples of 
information operations-related capabilities include Military 
Information Support Operations, Military Deception, Electronic Warfare, 
and Cyberspace Operations, among others. As I mentioned earlier, we are 
implementing our 2016 Strategy for Operations in the Information 
Environment, which describes the Joints Staff's development of a new 
joint concept that I expect will change some of the terms we associate 
with military operations, actions, and activities in the information 
environment.

    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you both for coming today.
    General Thomas, thank you, in particular, for your service, 
and all the men and women underneath your command.
    Over the last 8 years, there has been some tension between 
civilian and uniformed services over the number of flag 
officers that we have seen grow in all the services. The 
committee made an effort to reduce the number of flag officers 
last year.
    I have heard some generals and admirals, though, say that 
when the civilian command authority reserve decision-making 
power to the highest levels, decision-making power that was 
once delegated to colonels and captains and, heaven forbid, 
even lieutenants on the battlefield in Iraq and Afghanistan in 
the last decade, then we should expect to see an increase in 
the number of flag officers.
    Have we begun to see in the last 4 months more delegation 
of operational decision-making authority back to where I 
suggest it belongs, in the hands of commanders who are on the 
frontlines?
    General Thomas. Senator, the short answer is yes.
    I am a little bit humored by how you described the 
situation in that my youngest son, who just gave up company 
command of the 82nd recently wrote to me and said since when 
did we stop letting company commanders command companies? My 
response to him was, Michael, that question has been asked 
since time immemorial. Where and how are you restricted right 
now?
    But I think, to your overall point, that while certain 
authorities had been elevated to very senior levels, I 
typically ask our force, are you empowered at the right level 
with the right ROE to do your job? I think it is turning in 
that direction.
    Senator Cotton. As that delegation occurs, do you think we 
might see a concomitant decline in the number of flag officers 
in the Pentagon who need to make those decisions for our 
company and field grade officers in the field?
    General Thomas. Senator, I would tell you, truthfully, flag 
officers in the Pentagon are not empowered to make those 
decisions because they are not in the chain of command. So I 
think the right folks in the chain of command are being 
empowered to make the decisions that you certainly experienced 
from your time in combat. We are going back in that direction 
positively.
    Senator Cotton. On a related note, last month, we deployed 
the Massive Ordnance Air Blast in Afghanistan for the first 
time. There was some media controversy about that, about why 
that bomb was deployed.
    At what decision would something like that be made?
    General Thomas. Senator, I think it was described that that 
decision was in General Nicholson's authority, so he had the 
capability, he had the discretion and decision-making to deploy 
it.
    I think you know we used it as an area denial weapon in an 
area that we have been having a protracted fight with ISIS and 
the Khorasan in Nangarhar Province in Afghanistan. So I think 
it was the right deployment of a weapon system that avoided a 
more extensive of loss of life.
    I mentioned Sergeant De Alencar and our two rangers who 
died out in the area recently.
    So, again, that decision-making authority was General 
Nicholson----
    Senator Cotton. The commander in Afghanistan.
    General Thomas. The commander on----
    Senator Cotton. Not the Chairman, nor the Secretary of 
Defense, the National Security Adviser, the President.
    General Thomas. No.
    Senator Cotton. Deciding what kind of ordnance to employ, 
would you say that is a decision for commanders in the field to 
make?
    General Thomas. I believe it is.
    Senator Cotton. They do not need to get approval from 
anyone 8,000 miles away in Washington?
    General Thomas. I think that could actually cause great 
risk to the force, if it had to go back that way.
    Senator Cotton. I hope all the rest of our bombs are 
overcoming the laws of their mother. Are they?
    General Thomas. I think they are over their grieving.
    Senator Cotton. Good.
    Another question I want to raise is the relationship 
between special operations forces and conventional forces. By 
definition, special operations forces are special. They do 
amazing things, but they are limited in numbers and focused in 
mission.
    Would you agree that you cannot simply flood special 
operations forces and expect them to be a substitute for what 
our conventional forces or what a broader strategy would do?
    General Thomas. Senator, I agree, and, more pragmatically, 
we do not have the forces, the special operations forces, to do 
that. So it is not a viable solution.
    Senator Cotton. So special operations forces are an 
important complement to conventional forces in a broader 
strategy, but they cannot be a substitute for either?
    General Thomas. Agreed, Senator.
    Senator Cotton. A related question, does that mean that if 
we expect to increase the number of special operations forces, 
or the mission sets that we provide them, or the operational 
tempo at which we deploy them, we also need to see a 
concomitant increase in the number of conventional forces as 
well to support those missions?
    General Thomas. I think that is a good assumption, Senator.
    Senator Cotton. All right. Thank you.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to our witnesses here today for your insightful 
testimony.
    General Thomas, I would like to go back to something you 
brought up in your testimony as well as to a question earlier 
from a panelist, and that is the SOFWERX effort that is 
undergoing right now to bring together academia and industry 
and some high-tech work.
    As you know as well as anyone, the nature of warfare is 
going to change dramatically in the years ahead. Technology 
focus will be greater than ever. In the past, the military has 
always been a leader in that area and will continue to do that. 
But one difference is that what we are seeing now in the 
civilian industry is accelerating in terms of new innovations.
    We have, in Michigan, TARDEC [U.S. Army Tank Automotive 
Research Development and Engineering Center], which is the 
Army's tank and vehicle research lab, which is also working on 
the model that you have mentioned. But I was just curious, I 
know your effort is only about 1.5 years old now, but what 
would you consider the major takeaway of that effort in the 
last 1.5 years? Or perhaps a lesson that you have learned in 
that 1.5 years that is going to be instructive for entities 
like TARDEC and others to emulate?
    General Thomas. Senator, I could probably on the record 
provide you a list of initiatives that have actually resulted 
in fielding capabilities to our forces, so some very specific 
dividends that have come out of that environment.
    Truthfully, our director of Acquisition Technology and 
Logistics is leveraging that platform every day. For instance, 
the Counter-Unmanned Aerial System challenge that cropped up 
recently in Iraq and Syria, which was relatively nuanced, we 
were able to pour some very directed resources at that, have 
what he calls a collision of academia, technicians, operators, 
come together on that problem, among others, to really crash on 
it in a hurry and, more importantly, leverage off-the-shelf 
technologies, things that would otherwise take an inordinate 
amount of time to get to the field.
    So if I can, I would like to provide you a list of 
specifics of what we have accomplished and, more importantly, 
what we are endeavoring to do going into the future.
    Senator Peters. I appreciate that.
    [The information referred to follows:]

    General Thomas. Through efforts at SOFWERX we have been able to 
identify and discover many new and novel technologies, capabilities, 
ideas and process to facilitate accelerating the acquisition cycle. 
These efforts begin with building a robust network across many 
spectrums of innovation in the private and academic sectors, commercial 
markets and the DOD. A representative sample includes the following:

New Products: Through rapid prototyping efforts, SOFWERX has produced 
new designs for consideration to enable more rapid follow-on 
acquisitions for:

    <bullet>  Prototype/initial design for next generation 
communication systems for SOF vehicles for consideration in future 
acquisition strategies
    <bullet>  Concept and initial design for new bow bumpers for SOF 
boats that are in prototype manufacturing for further testing
    <bullet>  Developed Casualty Evacuation modifications for MRZR SOF 
vehicles--provided to units for local build
    <bullet>  Initial design studies for weaponizing SOF surface 
combatant boats for consideration in future acquisition strategies

    SOFWERX has conducted or facilitated rapid evaluation of commercial 
off-the-shelf (COTS) products for potential SOF use, either for 
immediate needs or for future concepts:

    <bullet>  Go-Tenna: Allows use of cell phones as point to point and 
network radios; analyzed and prototyped alternative antennas for SOF 
use
    <bullet>  Open source software--enables rapid fielding of 
capabilities, especially with partner nations
    <bullet>  Commercial drones--both how to use them with COTS 
software for radically low-cost ISR, as well as how to exploit current 
drones for Counter-Unmanned Air System capabilities

    SOFWERX has proven to be a venue which attracts unique products for 
potential SOF use, which has reduced barriers to entry and has 
facilitated interaction with new and unique suppliers:

    <bullet>  Hendricks Motor Sports STEED--an electric powered cart to 
increase range of SOF tactical units
    <bullet>  Fly-board Air--Novel single-man flying machine invented 
in France
    <bullet>  Virtual Reality Demo--Enabled operators to experiment 
with next-generation Virtual Reality/Augmented Reality systems

New Ideas: SOFWERX has aided in inspiring and inaugurating new ideas 
that can transform how SOF approaches thinking and solving the most 
challenging problem sets:

    <bullet>  Use of biological models as a means to better understand 
counter-terrorism
    <bullet>  Next generation design concepts to power Light Tactical 
All-Terrain Vehicles (fuel cells, hybrid, etc.)
    <bullet>  Non-Radio Frequency communications for SOF (e.g. magnetic 
resonance) for enhanced survivability

    New Business Models: SOFWERX is a springboard for using new 
business models to reach non-traditional business partners, 
technologists, hackers/makers and other individuals with novel 
solutions:

    <bullet>  Developing a SOF-unique workflow on Amazon to potentially 
enable rapid discovery/purchase/delivery of equipment for partnered 
operations
    <bullet>  Fostering new solutions to SOF problems through prize 
challenges; 10 prize SOF prize challenges have been executed to date
    <bullet>  Fostering new solutions to SOF problems (especially in 
the data arena) with Hackathons. Hackathons have also identified a 
large pool of local talent which can be leveraged to solve SOF problems

    New Networks: SOFWERX has enabled us to establish and broaden our 
relationships with a wide spectrum of non-traditional DOD partners:

    <bullet>  SOFWERX has already established a network of over 6000 
members
    <bullet>  Academia--USF is now developing advanced payload 
solutions for SOF cubesats
    <bullet>  Hacker/Maker network--400+ non-DOD affiliated hackers and 
makers are networked in with SOFWERX. SOFWERX is being dubbed as the 
``friendly feds'' space, allowing access to ideas, products, and 
innovations
    <bullet>  Far Ridgeline Reviews--enables us to assemble world-
leading talent on specific challenges to include most recently a 
session on Machine Learning.

    More information on many other events and activities to include 
Hackathons, Science, Technology, Engineering and Math (STEM) events in 
the local community can be found on the SOFWERX website at sofwerx.org.
    SOCOM is pursuing wearable robotics technology in the form of an 
actuated exoskeleton as part of the Tactical Assault Light Operator 
Suit (TALOS). This test-ready prototype suit is currently in 
development and planned to begin operator assessment in late 2018. 
SOCOM's goal is to develop a next generation technologically advanced 
combat operator suit that provides unmatched and unprecedented 
advantage to our Special Operations Forces Operators as they execute 
the most complex and high risk mission sets. TALOS will provide the SOF 
Operator of the future enhanced survivability, capability, and 
situational awareness.
    SOCOM is partnering with the Army on plans, strategies and 
innovative research in the field of robotics and autonomous systems. 
Special Operations Forces (SOF) interdependence and interoperability 
with conventional forces remains a top priority for USSOCOM especially 
regarding emerging technologies. Earlier this year, TALOS leadership 
visited U.S. Army Tank Automotive Research Development and Engineering 
Center (TARDEC) to collaborate on investments in the field of 
autonomous robotics. SOCOM recently benefited from a visit by key 
TARDEC staff members, namely Dr. Robert Sadowski (Chief Roboticist for 
the Army), to discuss the TALOS program and the Army's robotic and 
autonomous systems strategy. USSOCOM plans to continue its integration 
with the U.S. Army in the autonomous robotics and exoskeleton fields to 
ensure the prudent investment of our finite Special Operations 
resources.
    We are collaborating with the Services on various unmanned 
underwater and ground systems. While the SOF operator will always be 
the key element to our success, we foresee robotics and autonomous 
systems playing an increasing role in support of our SOF formations to 
better enable safe, efficient and effective mission completion.
    We also use a wide range of remotely piloted aircraft and are 
experimenting with, in conjunction with the Services, various unmanned 
underwater and ground systems. While the SOF operator will also be the 
key element to our success, we foresee robotics and autonomous systems 
playing an increasing role in support of our SOF operator to better 
enable him or her to complete the mission safely and effectively.

    Senator Peters. I would also like to do a deeper dive, 
perhaps with some folks there to talk specifically about some 
of the work that they are doing and how we can replicate that 
in other places, because I think this is critically important 
in future warfare.
    As you know, and you have alluded to it in your answer 
there, autonomy and robotics will probably have some of the 
greatest potential to change how we conduct warfare.
    In fact, I was struck that, last week, the Marine Corps 
conducted an exercise at Camp Pendleton on the future of 
amphibious warfare, which included using robots as the first 
boots on the ground, resupplying troops with drones, and even 
robots providing covering fire for those marines.
    In general, how do you see autonomy and robotics changing 
battlefield tactics in some of your operations? It appears this 
is coming a lot quicker than folks may have anticipated.
    General Thomas. Senator, I would like to think we are at 
the forefront or writing all the initiatives that pertain to 
that. As you might imagine, our mission set, especially our 
direct-action mission set, entails an element of risk that we 
are trying to mitigate for literally the number one man in a 
formation that could absolutely be mitigated through robotics 
and other kind of sensory improvements over time.
    So we are pursuing that actively. I was going to ask, if 
your time allows, that maybe we can get you to come visit in 
Tampa. We have had several visitors come in and actually 
provide us other opportunities to connect with academia and 
industry to some of the other activities that you mentioned.
    Senator Peters. I would appreciate that opportunity.
    What do you consider some of the main benefits and 
tradeoffs that we need to consider as this technology moves 
forward?
    General Thomas. Right now, it is a practical challenge for 
us, because, as you might imagine, we have tried to push the 
application of robotics where just the agility, in terms of 
sensory capability, decision-making, and physical capabilities 
of robotics just are not there yet. But nonetheless, we are 
pushing in that regard. But we see some great opportunities.
    Senator Peters. Great. Thank you, General. I appreciate it.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Good morning. Welcome. Thank you both for your service to 
our Nation, particularly at this perilous time.
    General Thomas, in recent months, special operations forces 
from across the services have made the ultimate sacrifices in 
conflicts around the world. Most recently, a number of brave 
special operators lost their lives fighting ISIS in 
northeastern Afghanistan. The reduction in conventional forces 
in Afghanistan and the closure of a majority of combat outposts 
and forward operating bases in the country has left a 
considerable gap in United States presence in critical enemy 
engagement areas.
    Would special operations forces in Afghanistan be better 
supported if there were a greater presence of conventional 
soldiers in combat outposts and forward operating bases 
throughout the country?
    General Thomas. Senator, I think General Nicholson and 
others are looking at enhancing the capability in terms of 
train, advise, assist, so more conventional forces that would 
thicken the ability to advise and assist Afghan forces. That 
would absolutely be to our benefit.
    Right now, you mentioned the casualties that we recently 
incurred. Those are accompanied operations. That is where our 
special operations forces are accompanying Afghan special 
operations capabilities.
    Ultimately, we want to make them capable of doing it on 
their own, and we are certainly making some progress there. But 
I think parallel efforts to advise and assist the larger 
conventional capabilities of the Afghan forces would absolutely 
enhance the effort.
    Senator Cruz. Do the special operations forces have the 
dedicated assets and resources that they need to fight and win, 
given so many competing areas of conflict around the world? Are 
you ever put into a position where you are forced to choose 
which mission to fully support and what can be accomplished 
with less dedicated assets?
    General Thomas. Senator, to answer your first question, I 
do think we have adequate resources to task.
    The bigger challenge, which was prefaced by the Chairman at 
the beginning, is that, from a DOD standpoint, we are a 
microcosm of the DOD from a global approach, in that we are 
trying to provide the necessary special operations requirements 
to all the geographic combatant commanders at the same time 
with a relative prioritization.
    The Secretary and the Chairman are endeavoring to make sure 
that prioritization is as precise as it needs to be for us as 
service components so that we can support the effort and 
priority, but it is a challenge. We, like the Department, are 
trying to do a lot of things at the same time in a challenging 
world, so that has some inherent friction to it.
    Senator Cruz. On a different topic, I understand that the 
decision regarding which combatant command would be responsible 
for weapons of mass destruction has been decided, and that, 
starting in January, it now falls under your command at the 
Special Operations Command.
    This is obviously a critical component of our Nation's 
nuclear deterrent and counter-WMD programs that have a major 
responsibility, including nuclear, chemical, and biological 
agents.
    Could you please comment on how the addition of WMD 
responsibility has affected current and future operations?
    General Thomas. Senator, I mentioned previously that we 
absolutely embrace the enormity of this mission. It is much, 
much bigger than special operations and SOCOM, so we are 
looking to leverage as much of the rest of the interagency 
community and our international partners to accomplish our 
Government's objectives in this regard as we can.
    Right now, we have the resourcing required to embrace this 
set, and we are in discussion for what we need going forward. I 
mentioned earlier that I hope to provide an assessment to our 
Secretary of Defense in August in terms of a comprehensive 
review of what we are trying to accomplish from a U.S. 
Government policy and strategy objective, and how well we are 
doing.
    So, again, we look forward to providing that to the 
committee as well, once we brief the Secretary.
    Senator Cruz. Ms. Whelan, do you have additional thoughts 
on the impact of WMD responsibility under SOCOM?
    Ms. Whelan. Senator, thanks for the question.
    I think we fully supported the decision to shift the 
responsibility to SOCOM. SOCOM has the capabilities on that, we 
were intended to utilize to address this issue, so I think, 
organizationally, it made a tremendous amount of sense to us to 
move it from STRATCOM to SOCOM, so we fully support.
    Senator Cruz. Thank you very much.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you for being here. I just want to quickly ask about 
the importance of our nonmilitary agencies and programs to your 
mission.
    For much of the past decade, special operations forces have 
deployed around the globe 24/7, and we often think of them as 
conducting raids and taking out terrorists. But I understand 
that a big part of your mission is actually to advise and 
assist local forces to build their own capacity.
    General, how important is our State Department to that 
mission?
    General Thomas. Senator, the relationship to the State 
Department is indescribably critical, both at the State 
Department level, but I would offer, as I mentioned earlier, we 
are in 80 different countries, and we look to have the most 
enhanced relationships possible with every one of those 
countries through our country team. If that is not the baseline 
for our United States Government approach, then we are flawed 
from the start.
    Senator Warren. So at the national level and at the country 
level.
    Would a reduction in funding to the State and USAID [United 
States Agency for International Development] that conduct 
foreign assistance in diplomacy make your job easier or make 
your job harder?
    General Thomas. Senator, as you are implying, it makes 
their job harder, which I think, by extension, would make our 
job harder. So I cannot calculate the specific cost, but I know 
an already strained State Department would be more pressed to 
do their job.
    Senator Warren. Good. Thank you. That is very helpful.
    The administration is seeking a significant reduction in 
the State Department and USAID budgets. Diplomacy and 
development are critical for alleviating the very conditions 
that contribute to the security challenges that SOCOM confronts 
every single day.
    Now, if I can, I would like to return to a question that 
Senator Sullivan raised about SOCOM's responsibility as the 
lead organization for countering WMDs. I know that this 
responsibility was shifted over to you to ensure that we are 
paying enough attention to the nuclear proliferation threat and 
to ensure that we are synchronizing the WMD work with the 
counterterrorism mission so that we can prevent a terrorist 
group from ever getting a hold of a nuclear weapon.
    This mission, as I understand it, includes three lines of 
effort: preventing the acquisition of WMDs by foreign powers, 
containing and reducing WMD threats, and responding to a WMD 
crisis.
    As I understand it, you seem pretty prepared to tackle the 
first of those, given your hard-won experience using 
intelligence to track bad actors over the past 15 years. WMD 
threats and responding to WMD crises are going to require some 
new skills here.
    General, to the extent that you can in an open session, can 
you just say a word about what you see as the biggest 
challenges in taking on this new responsibility?
    General Thomas. Senator, absolutely. You mentioned that we 
were already pre-established in various aspects of this mission 
set. I think to Secretary Whelan's earlier comment, I think 
that is what made it an almost natural fit for the mission to 
transition to us, that we have a pre-existing approach and 
process, kind of an ethos to dealing with transregional 
terrorism. I think there was a natural application or kind of a 
fungible application to the WMD set.
    Going forward though, even from a first blush assessment, 
the biggest challenge for all of us is seeing and sensing the 
nature of the threat in an environment that runs the gamut from 
dual-use technology, proliferation of nefarious items in the 
same stream as things that are for the good of industry and not 
of a nefarious use.
    So I really see the major onus as we go forward is 
determining how we, both DOD and the interagency, see and 
assess the threat and obviously can enable operations to do 
what we need to do, whether it is disruption of activities or 
something else. So the most daunting challenge I think will be 
of an intelligence variety in terms of assessing the threat.
    Senator Warren. Thank you. I appreciate that.
    I understand that the committee has asked you to prepare a 
report on the resources, personnel, and authorities you are 
going to need to carry out this mission. I understand you are 
working on that. I know it will be very helpful.
    General Thomas. Yes, ma'am, we are.
    Senator Warren. Good. Can I ask you one last quick 
question? That is, Senator Sullivan asked about what you needed 
from us to carry out the mission. I just wanted to see if you 
could say a word about what you expect to receive from 
Strategic Command, who is giving up this mission, in terms of 
personnel and funding.
    General Thomas. Ma'am, we are actually still co-joined with 
Strategic Command for this mission set. So as they shifted the 
set specifically to us, there are still a number of co-related 
activities that have kept us co-joined. They did transfer an 
entity with the Defense Threat Reduction Agency that was part 
and parcel of their approach that came directly to was and is 
integral to what we are doing now. But we are also addressing 
what we think are the future requirements to enhance this 
mission.
    Senator Warren. Do you expect more transfers to occur?
    I am going to quit, Mr. Chairman, because I am over my 
time.
    General Thomas. I am hopeful that within the Department, 
not necessarily from STRATCOM, which is a busy command with a 
profound portfolio, but I am hopeful that within the 
Department, that the resources that we describe will be 
resourced.
    Senator Warren. All right. Thank you. Your job to stop the 
proliferation of nuclear weapons is powerfully important, and 
we want to make sure you have the resources you need. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Ms. Whelan and General Thomas, first of all, thank you for 
your service to our country.
    In the 2014 QDR [Quadrennial Defense Review], manpower 
requirement for Special Operations Command was approximately 
72,000. However, this number was capped at 69,000 due to budget 
constraints. It is clear the world is not any safer now than it 
was in 2014. I would expect the current demand on your 
operations has not been diminished, and, if anything, it has 
been increased.
    What is the current manpower requirement for SOCOM to meet 
its global requirements? Is additional force structure 
required?
    General Thomas. Senator, I believe our stated requirement 
is the requirement. We are working to refine, if there is any 
needed growth in the future.
    I am thankful, as you mentioned, that, in spite of the fact 
that we did not receive the growth that was prescribed and 
validated, that we have had tremendous support from across the 
Department in terms of augmentees and additional units that 
have enabled us to continue to pursue our jobs.
    So again, I am thankful that the Department has 
reapportioned to allow us to do what they have asked us to do.
    Senator Rounds. When you were not allowed or not authorized 
the amount requested, clearly, then, you have to take on 
additional risk in certain areas. Where is that risk at, at 
this time? Where did you have to take on additional risk?
    General Thomas. Senator, again, I think, without getting 
into details of specific locations and activities, there was 
curtailment in terms of some of our activities.
    Senator Rounds. Diminished operations.
    General Thomas. Diminished operations. Then, as I 
mentioned, in many cases, we merely went back to the Department 
and said, while we cannot grow it or maintain it internally, 
might we receive additional augmentation? In almost every case, 
they have afforded that to us.
    Senator Rounds. Recent testimony from both the U.S. Navy 
and the U.S. Air Force has identified a significant difficulty 
in retaining qualified pilots. How is pilot retention going for 
special operations aviation?
    General Thomas. Senator, a great question. Senator King 
asked the earlier question about recruitment and retention. I 
should have mentioned that we are experiencing similar 
retention challenges to the Air Force and others relative to 
the enticement of pilots to join industry. So it is something 
that is certainly affecting us right now, and we are trying to 
come up with creative alternatives or solutions to rectify 
that.
    Senator Rounds. So you are indicating that you do have the 
same challenges as everyone else has on it and----
    General Thomas. To a lesser degree, but, yes, we have that.
    Senator Rounds. To a lesser degree.
    General Thomas. Yes, we do.
    Senator Rounds. Okay. Does USSOCOM need service-like 
acquisition authorities for the purposes of developing, 
acquiring, and sustaining special operations technology, 
equipment, and services?
    General Thomas. Senator, we enjoy those authorities right 
now. Interestingly, we do not have all the authorities that the 
services have. They have some unique authorities. Usually folks 
think it is a flip on that, that special operations have unique 
authorities that enable us. There are actually some authorities 
inherent in the services that we are looking to gain over time.
    Senator Rounds. Could you specify?
    General Thomas. Specifically, I cannot get into the 
technical aspects of it.
    Senator Rounds. For the record, would you provide us with 
that?
    General Thomas. I would be glad to do that. But again, I 
would also emphasize that our structure with our director of 
AT&L [Acquisition, Technology and Logistics] working directly 
for me with a streamlined relationship with our program 
executive officer has enabled us to do some pretty 
extraordinary things too. So we are very well-enabled. We are 
looking to try to enhance and have all the tools that the 
services have.
    [The information referred to follows:]

    General Thomas. Yes. USSOCOM could benefit from 10 U.S.C. Sec.  
2353 Research and development projects using grants or cooperative 
agreements or 10 U.S.C. Sec.  2373 Procurement of experimental 
purposes. In addition any new flexible acquisition authorities that may 
be enacted. These authorities will ensure USSOCOM is able to leverage 
flexible, innovative acquisition methods afforded the Services. Title 
10 section 167 clearly states the Commander of USSOCOM shall be 
responsible for ``the development and acquisition of special 
operations-peculiar equipment'' with an acquisition executive 
``responsible to the commander for rapidly delivering acquisition 
solutions'' and ``subordinate to the Defense Acquisition Executive in 
matters of acquisition, subject to the same oversight as the service 
acquisition executives.'' However, authorities often flow from Congress 
directly to the Secretary of Defense and the Secretaries of the 
Military Departments without specific mention of ASD (SO/LIC) or 
USSOCOM. Without explicit authorities, ASD(SO/LIC) and USSOCOM pursue 
individual staffing actions for required authorities. Recent examples 
include approval to conduct Other Transaction Authority for Prototype 
Projects and the authority to conduct Prize Challenges. We are working 
with the Department for the authority to engage in Grants and 
Cooperative Agreements. The pursuit of each of these individual 
authorities is time consuming and contrary to the intent of rapidly 
development capability for our operators. If it is the intent of 
Congress that USSOCOM acquisition exercise the same authorities as our 
service counterparts, ASD(SO/LIC) and USSOCOM would benefit from 
overarching language that recognizes USSOCOM's acquisition authority as 
equivalent to a Military Department.

    Senator Rounds. Cyber capabilities are critical when it 
comes to your operations as well. I suspect you would agree 
with that. Can you share with us right now your ability to 
maintain a cyber superiority with regard to the operations that 
your--let me put it this way. Clearly, you have to be able to 
maintain cybersecurity when it comes to your operations. Can 
you describe for us the challenges you have, shortcomings you 
may have, or needs that you may have with regard to 
cybersecurity capabilities?
    General Thomas. Senator, I would start by expressing my 
appreciation to CYBERCOM [United States Cyber Command] for the 
great capabilities that they have provided us, much like they 
have to other combatant commands, to first and foremost protect 
our infrastructure. Again, we have some very, very valuable 
resources to do that.
    Similarly, we are working with them closely to enhance our 
offensive capabilities, the cyber capabilities that must be 
integral to our approach to the full spectrum of combat 
operations going forward. Again, I think we have endeavored to 
have some pretty nuanced approaches, again thanks to CYBERCOM 
and others who have helped enable us.
    Senator Rounds. My time has expired.
    Mr. Chairman, thank you.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you both for being here and preparing for this 
hearing today.
    I wanted to emphasize at the start that, according to the 
materials I reviewed, countering Russian aggression is the 
number two priority.
    Is that correct, General Thomas?
    General Thomas. Senator, right now, that is the number two 
priority, although I would tell you it is being challenged by 
our preparations for Korea.
    Senator McCaskill. As I look at the map that we have, the 
only place you have more deployed other than EUCOM [United 
States European Command] is, in fact, CENTCOM, correct? It is 
the number two deployment?
    General Thomas. Yes, ma'am. That is accurate.
    Senator McCaskill. You have 1,400 forces deployed to 
protect against Russian aggression right now?
    General Thomas. Ma'am, working with our partners in the 
respective countries, we do.
    Senator McCaskill. In addition to that, could you ballpark 
how many other American military personnel are we putting on 
the frontlines to counter Russian aggression?
    General Thomas. Senator, I cannot speak specifically to the 
other complementary forces that are out there, other than to 
say that we are closely linked with them in terms of----
    Senator McCaskill. Would it be thousands of American 
military in the countries on the western border of Russia?
    General Thomas. Senator, I think you would have to discern 
between those assigned to Europe and additive forces. But I do 
not have the specific numbers.
    Senator McCaskill. Okay. The point I am trying to make is, 
we are putting real resources out there in the military going 
after Russian behavior. We have determined and you have 
determined, and the military leadership has determined, that 
Russia is a problem.
    I just want to emphasize that because it is frustrating to 
me that they try to break the backbone of democracies all over 
the world, and we consider it such a threat that we are putting 
the biggest treasure we have, which are the lives of men and 
women of our military, on the frontlines of this aggression, 
but there does not seem to be a sense of urgency about Russia. 
I wanted to underline that as I began.
    The other thing I want to talk to you about today is I had 
a chance to review the GAO [Government Accountability Office] 
report that was recently released. It is a classified report. 
Have you had a chance to look at that, General Thomas?
    General Thomas. Senator, I am not aware of that specific 
GAO report. Regarding what subject, ma'am?
    Senator McCaskill. Countering ISIS and its effects?
    General Thomas. I have not seen that report, no, ma'am.
    Senator McCaskill. I highly recommend it to you. I think it 
would be very helpful to you.
    Since you are the key DOD element responsible for global 
antiterrorism operations, several of the recommended oversight 
questions seem really particularly relevant to your command. 
For example, the problems that we are having, we have spent 
billions trying to train and equip the military in both Iraq 
and Afghanistan. Would you agree with that, General?
    General Thomas. We have, Senator.
    Senator McCaskill. We continue to spend billions trying to 
do both of those things, correct?
    General Thomas. Correct, Senator.
    Senator McCaskill. I am not sure that we are getting 
adequate information about how much success we have had. I 
think that it would be helpful to know what steps have been 
taken to address the challenges to train and equip regarding 
the underlying factors that have caused the personnel shortages 
in Iraq. We continue to have insufficient numbers of soldiers 
even to round out units in Iraq.
    I think with the amount of money we are spending, it would 
be great, you may not be prepared today, but since you all are 
so involved in the train and equip, it would be helpful for us 
to get more information about, what is the problem? Are we 
adjusting what we are doing? Or are we just pouring in money 
and still having folks walk away and still have people who we 
have trained and equipped show up on the other side?
    General Thomas. Senator, I can guarantee that for every 
problem that you have identified, we are endeavoring to try to 
rectify it. I will work with General Votel, the CENTCOM 
Commander, to make sure we get you a response on the record for 
the concerns that you have, ma'am.
    [The information referred to follows:]

    General Thomas. We continue to work closely with our CENTCOM 
partners in both Afghanistan and Syria. Specifically, in Afghanistan, 
we continue to take the fight to the Taliban and retain control of both 
major population centers as well as key lines of communication. 
Additionally, the Afghan National Defense and Security Forces have 
demonstrated the ability to rapidly respond to and reverse gains made 
by the Taliban during limited engagements. In Syria, over the past 
three years our partners have taken significant strides against ISIS. 
By successfully pushing ISIS out of numerous towns and cities while 
cutting key lines of communication, we have seriously damaged ISIS 
through significant losses in people and equipment which has led to a 
decreased capability to engineer offensives in Syria as well as 
orchestrating attacks against the United States directly. I defer to 
the CENTCOM Commander for more specific operational details in both 
Afghanistan and Syria.

    Senator McCaskill. I know that DOD recently revised the 
train and equip program in Syria. As you are well-aware, we had 
a number of problems, especially the first attempt at train and 
equip that was disastrous.
    Could you tell us what have been the results of the 
revisions that occurred in the train and equip mission in Syria 
in 2016?
    General Thomas. Ma'am, there are really two different 
programs that I think you are referring to there. One was the 
one that was certainly challenged. I think we have made great 
strides. I am hesitant to get into details in an open forum in 
terms of the very, very capable surrogate forces that we are 
now leveraging in Syria and certainly with the organic forces 
in Iraq. But we have gone----
    Senator McCaskill. I learned about some of that when I was 
in Jordan.
    General Thomas. Very good.
    Senator McCaskill. But what kind of assurances do you feel 
like we have now that the individuals associated with the 
terrorist organizations of either Syria or Iran are not 
benefiting from our train and equip missions?
    General Thomas. In my particular lane, where our special 
operations are supporting CENTCOM activities, I am very 
comfortable that we are vetting them to the degree that we are 
very certain that we are not contributing to those particular 
threat organizations.
    But, again, I will get you more for the record.
    Senator McCaskill. That would be terrific.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General Thomas, it is good to see you.
    Ms. Whelan, you as well.
    I was just back down at Fort Bragg a couple weeks ago. I 
get down there frequently, probably they are sick of seeing me. 
But it is such an important part of what we do globally that I 
want to send the message there.
    I know that many of my members have asked questions about 
the stress on the force and optempo and a number of those 
things. What I would like to maybe spend my time on has more to 
do with the employment side and my capacity as Personnel 
Subcommittee chair.
    I know that, in your opening testimony, you said we must 
continue to place the greatest emphasis on selecting, 
retaining, and empowering our people and sustaining them and 
their families.
    With two-thirds of the SOCOM force married, what more do 
you think we need to do? The nature of their mission is such 
that even the relative stress level has to be higher because 
there is so much that the person back stateside does not know 
what is going on.
    What do you think we need to do to more of to provide 
better support for the families of our SOCOM forces?
    General Thomas. Senator, I mentioned earlier to a similar 
question that I am very thankful to the committee that you have 
actually given us some tools that have allowed us to put our 
money where our intent is.
    I think, for years, our approach to family readiness was 
sort of, be ready, your spouse may or may not deploy. We did 
not actually build in specific resilience to that eventuality, 
the fact that it is on the training schedule, that you folks 
will deploy.
    We have also been able to leverage, as you might imagine, 
you described our operator experience, a lot of experience, a 
lot of repetitions downrange. Our spouses have had the same 
experience. We have been able to leverage their experience for 
how we can be more thorough in our preparation to build in the 
resilience and to deal with their problems as they occur over 
time.
    So, again, I am thankful that you have given us the means 
to get after this, and I think we are doing it much more 
comprehensively every day.
    Senator Tillis. Have you given any thought, as you are 
looking at recruiting and retention side of things, are there 
any things that have arisen, other things that we should 
consider to help you retain our best and brightest?
    If you cannot answer that in specifics now, we would like 
it for the purposes of the subcommittee so they can instruct 
our recommendations for the NDAA.
    But if you have any off the top of your head, Ms. Whelan, 
or you, General Thomas?
    General Thomas. Senator, I do not have any specific 
requirements right now. We are always looking to see, if and 
when retention challenges come up, how we can mitigate those. 
But at the moment, I do not have any specific requests.
    Ms. Whelan. Sir, we do not either. However, one of the 
issues that we will be looking at within SOLIC, and as part of 
the clarified responsibilities for SOLIC oversight, is this 
issue of retention and how we might be able to work with SOCOM 
to ensure that we have the resources we need.
    Senator Tillis. We just want to make sure that we get you 
the tools that you need, because it costs a lot of money to get 
these people to the level that they can be deployed, and we 
want to make sure that we focus on retention and valuing our 
men and women and their families.
    In my remaining time, I would like to talk a little bit 
about--I know the demand is outstripping supply in terms of 
your ability to fulfill all the demands. One question that I 
have is whether you believe, in some instances, because of the 
nature of funding and the nature of the conflicts we are in, if 
there is some amount of what your command focuses on that the 
need would be better satisfied by the service lines or others.
    In other words, if we have a legitimate demand for 
additional special operations, is there a component of the 
demand that you are fulfilling now that could arguably be 
fulfilled through some other vehicle outside of SOF?
    General Thomas. Senator, I field a similar line of 
questions from our Secretary of Defense consistently. We are 
looking at that very aggressively.
    Most recently, we completed our annual process to align 
forces 2 years out, so where we think special operations forces 
are required in priority relative to that of geographic 
combatant commanders. So it literally produced a one through 
end list of what we are doing in priority and a plan to discuss 
that in detail with the Secretary in terms of here is where we 
could offramp, and here is the risk or the price to be paid in 
terms of either cessation of missions or things of that like.
    But we are looking at that very closely, on how we can 
mitigate the pressure on the force in terms of number of 
missions we are doing.
    Senator Tillis. Thank you.
    Chairman McCain. Senator Blumenthal has arrived.
    Senator Blumenthal. Thank you, Mr. Chairman.
    General Thomas, your command now has responsibility for 
countering weapons of mass destruction across all of the 
combatant commands, correct?
    General Thomas. Senator, we are the coordinator for the 
Department of Defense. That is correct.
    Senator Blumenthal. Including use of chemical agents.
    General Thomas. That is correct, all elements of weapons of 
mass destruction.
    Senator Blumenthal. You may be familiar with a new Human 
Rights Watch report this week that cites a number of recent 
incidents, including the one April 4th that triggered our 
missile attack, but others in December 2016 when there were two 
and another in March 2017. All involved with the use of nerve 
agent weaponry in Syria. Apparently, they killed at least 159 
people, they reported in the New York Times.
    The New York Times reported, in addition, use of other 
chemical agents, principally chlorine, since the April 4th 
attack that led to our missile strike.
    Are you aware of that report? Do you have information to 
corroborate those reports?
    General Thomas. Senator, I have not seen that specific 
report. I am aware of all or most of those incidents. I am 
surprised you did not mention use of VX at the Malaysia 
International Airport as another egregious use of an incredibly 
nefarious weapons system in an open area.
    Senator Blumenthal. I am sure you have information about 
the support or complicity of the Russians in these attacks, do 
you not?
    General Thomas. Senator, I am aware of the nature of all 
those attacks and the actors involved. Again, probably in an 
open session, I would probably be circumspect to discuss the 
specifics of some of the intelligence that pertains.
    Senator Blumenthal. Would you be prepared to talk about 
Russian involvement in these attacks in a different setting?
    General Thomas. Senator, I would be glad to talk about any 
actors' involvement in any of these episodes.
    Senator Blumenthal. I am not sure exactly how to ask this 
question, General, and I hope you will bear with me.
    But is there a reason why the American people should not 
know about Russian complicity and involvement in these war 
crimes? They are war crimes. If the Russians are aiding and 
abetting them, why should the American people be denied that 
information?
    General Thomas. Senator, I think the American public should 
know the extent to whoever is employing weapons of mass 
destruction and chemical weapons. As much as we understand who 
and how, that could and should be divulged to the American 
public.
    Senator Blumenthal. So the rules about your providing us 
information in this setting are made by others, not by 
yourself, obviously, so I am not meaning any disrespect to you.
    But I am absolutely perplexed as to why we should not make 
more widely known the involvement of Russians in war crimes, 
only one of them so far widely reported, that led us to launch 
a missile strike at the base where Russians currently are 
stationed. They had to know about the use of sarin in that 
attack on Assad's own people.
    So I hope that we are able to disseminate that information 
more widely to the American people. I respect your position and 
the rules that apply to you. But you do have information about, 
let's call them other actors who are aiding and abetting Bashar 
al-Assad in these criminal attacks, murderous acts on his own 
people, is that correct?
    General Thomas. Senator, we are focused on everyone who is 
inclined to use these kinds of weapons.
    Senator Blumenthal. Is there any sort of defense that can 
be provided to the people of Syria by the United States against 
these types of weapons?
    General Thomas. Senator, as you might imagine, the 
equipment required for the array of weapons that may or may not 
still be in the Syrian arsenal would be extensive, so I am sure 
it is a daunting logistics challenge to try to provide that 
kind of equipment.
    Again, I think your first point, disrupting the use or the 
employment of the weapons systems is probably the most 
effective thing you could do.
    Senator Blumenthal. General, my time has expired. I really 
appreciate both you and Ms. Whelan being here today and your 
service to our Nation and the service of every single man and 
woman under your command. Thank you very much.
    Chairman McCain. I thank the witnesses. This hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Jim Inhofe
                        interagency integration
    1. Senator Inhofe. Ms. Whelan, in response to questioning from Rep. 
Stefanik in your May 2nd hearing before the HASC [House Armed Services 
Committee] Subcommittee on Emerging Threats and Capabilities, you said 
``the challenge we are facing right now is how to achieve that level of 
exquisite integration across multiple components of--not only the 
Defense Department, but also the U.S. Government.'' Please amplify what 
concrete steps you are taking to achieve that level of integration 
across the whole-of-government?
    Ms. Whelan. Our adversaries have specifically calibrated their 
model of unconventional warfare to exploit the seams in our interagency 
process. We must bridge seams among U.S. Government departments and 
agencies in ways that go beyond mere procedural coordination, and we 
must operate with a shared purpose. For classification reasons, I 
cannot fully describe the range of these cross-functional teams in this 
document. That said, we have convened experts from across the DOD and 
other U.S. Government departments and agencies to understand our 
adversaries' strategy and operations. As we gain insight into one layer 
of the problem, we discover additional layers. After identifying the 
problem and understanding the environment, U.S. Government departments 
and agencies move to develop a solution. We have established new 
working groups to apply novel analytical capabilities, especially in 
the fields of information operations and indications and warning. We 
develop and test response options while drawing on history for operable 
models. Furthermore, many of the principles and structures developed 
during the long war against terror are applicable against other 
unconventional adversaries.
                            force structure
    2. Senator Inhofe. General Thomas, in response to my questioning 
regarding the adequacy of SOCOM force structure, you assured the 
Committee that SOCOM's force structure is adequate to maintain current 
commitments at your present operational tempo. Even still, you 
acknowledge that ``most Special Operations Forces units are employed to 
their sustainable limit.'' If an emergent situation causes demands for 
SOCOM forces to surge unexpectedly, what will be the impacts to 
existing critical SOCOM assigned missions/obligations?
    General Thomas. We believe that if called upon to surge 
unexpectedly in support of emergent situations we will sustain our 
assigned critical missions/obligations. After meeting the initial 
crisis requirement, if the contingency turns into a protracted 
engagement, SOCOM would have to re-level the battlefield in an effort 
to prevent creation of vacuums in critical Areas of Operations.

    3. Senator Inhofe. General Thomas, do you feel that you have 
sufficient Special Operations Forces available at any given time to 
respond to emerging crises?
    General Thomas. Yes, based upon our models and review of our 
required support to the most demanding current OPLAN [Operation Plans], 
we have determined that we will be able to support and meet most 
requirements under an emerging crisis. Our contingency response surge 
forces come from a combination of forces at the top end of the Train/
Ready Pool and dynamic reallocation.
                               __________
               Questions Submitted by Senator Joni Ernst
                    navy rotary wing support to sof
    4. Senator Ernst. Ms. Whelan and General Thomas, previously, the 
Navy had two dedicated special operations helicopter squadrons, HSC-84 
and HSC-85, both units part of Naval Air Forces Reserve. The Navy 
retrograded each of these squadrons from deployed positions in CENTCOM 
and PACOM respectively is order to disestablish them. After 
Congressional intervention, HSC-85 was not disestablished, and has 
returned, after more than a year recovering from diminished resources, 
to the PACOM area of operations in support of Special Operations 
Command Pacific.
    With HSC-84 disestablished, support for special operations forces 
training has drastically diminished, especially for Naval Special 
Warfare Command. Additionally, several combatant commander requests for 
forces (RFF) in support of component SOF have gone unfilled. Despite 
this reduction in rotary wing support from the Navy to SOCOM, the Navy 
has not published a plan for recapitalization of HSC-85's aging HH-60H 
helicopters. Ms. Whelan and General Thomas, are you concerned about the 
lack of attention the Navy is paying to these helicopter squadrons, on 
whom SOF forces have heavily depended for training and operational 
support since September 11, 2001?
    Ms. Whelan. USSOCOM is very dependent on Military Department 
support to enable Special Operations Forces (SOF) missions. During the 
fiscal year 2015 and 2016 budget cycles, the DOD carefully considered 
HSC-84/85 support to SOF in the program budget review. After 
discussions and deliberations between the U.S. Navy and USSOCOM during 
the fiscal year 2016 program budget review, USSOCOM decided to 
establish an internal capability to provide rotary-wing support for 
Naval Special Warfare Command training requirements. I am unable to 
speak for the U.S. Navy on its specific plans for recapitalizing aging 
HH-60H helicopters, but I support the Navy's plan to maintain the 
capability and capacity provided by its HSC 85 helicopters.
    General Thomas. Navy Rotary Wing Support to SOF is an important 
example of the necessity of support from the services to SOF. We are 
very appreciative of the tireless efforts in Congress to ensure this 
and many other critical support capabilities from the services continue 
without interruption. At this time, we are unable to speak for the Navy 
on their plan to recapitalize HSC-85's aging HH-60H helicopters. We 
have a keen interest in maintaining the capability and capacity 
provided by the Navy in the form of HSC-85 well into the future.
                               __________
              Questions Submitted by Senator Dan Sullivan
               socom cold weather training in the arctic
    5. Senator Sullivan. General Thomas, Russia has significantly 
expanded their presence in the Arctic, including two new Arctic 
brigades that regularly train and operate in the High North. Can you 
talk about the importance of cold weather training for Special 
Operators given current and emerging requirements? Given Russia's 
posture, do you see this need increasing or decreasing?
    General Thomas. Environmental training has always been and remains 
integral to USSOCOM and our Special Operations Forces. Our Special 
Operators consistently maintain and exploit movement in conventionally 
restricted operational terrain, including extreme cold weather 
environments to conduct specified Special Operations core activities. 
Arctic terrain is one of the most difficult to sustain, navigate and 
dominate but our Special Operators, at the team level (12-16 
personnel), are well trained and acclimated with the proper skills and 
equipment to infiltrate and attack line of communications, logistic 
bases, air defense sites, and command and control facilities. Given 
Russia's posture as you described it, I see this need as only 
increasing.

    6. Senator Sullivan. General Thomas, the diverse and expansive 
environment in Alaska, as well as opportunities for joint training with 
the Air Force, Army, and our National Guard--who have developed 
procedures to operate in extremely harsh Arctic conditions--makes 
training in Alaska ideal for preparing operators for cold-weather 
missions. Currently, the Naval Special Warfare Cold Weather Detachment 
on Kodiak, Alaska trains the next generation of Navy SEALs to operate 
in cold-weather, but not Arctic, conditions. Given emerging threats in 
the Arctic, are you exploring the possibility of increased Arctic 
training in Alaska to meet potential mission requirements in the High 
North?
    General Thomas. The training available to our Special Operations 
Forces at Naval Special Warfare Cold Weather Detachment Kodiak, Alaska 
is invaluable as it exposes every SEAL to the cold weather maritime 
environment during SEAL Qualification Training (SQT). The focus, 
historically, during the course was primarily cold water operations and 
was lacking in Artic terrain training, specifically the mountainous 
environment. USSOCOM has taken steps to incorporate basic 
mountaineering into the course at NSW Cold Weather Detachment Kodiak 
and NSW is presently realigning the placement of the curriculum during 
SQT to facilitate execution of SOF core activities with fully trained 
SEALs in a cold weather maritime environment.
                               __________
               Questions Submitted by Senator Bill Nelson
              u.s. marine corp reserve component of socom
    7. Senator Nelson. Ms. Whelan and General Thomas, the U.S. Marine 
Corps is the only service without a Reserve unit within SOCOM. 
Currently, Marine Special Operators are being assigned to Reserve Force 
Reconnaissance units if they want to continue uniformed service by 
transition to the Reserve after their Active Duty service. Ms. Whelan 
and General Thomas, when will it be time to establish a Reserve Marine 
Special Operations component of SOCOM?
    Ms. Whelan. Neither SO/LIC nor USSOCOM is pursuing the 
establishment of a MARSOC [Marine Corps Forces Special Operations 
Command]-like unit in the Marine Corps Reserve Component at this time.
    General Thomas. MARSOC commissioned CNA, a nonprofit research and 
analysis organization, to study this issue. Specifically, CNA was asked 
to study the feasibility of the formation of a Marine SOF Reserve 
unit--that study was completed and delivered in January 2013. The study 
concluded that such a unit was not feasible or supportable for several 
reasons: MARSOC's small size and the current/projected low density of 
0372s (MARSOC's Active Duty structure includes just 859 Active Duty 
0372s). A concern across all services of maintain SOF Training and 
skill levels among guardsmen and reservists. The study instead 
recommended that MARSOC utilize the Individual Mobilization Augmentee 
Detachment (IMA Det) as a method to tap into those few 0372s within the 
Reserves. MARSOC has done this, and the IMA Det continues to provide 
Reserve 0372 Marines an opportunity to stay connected to special 
operations and to contribute to MARSOC's operational efforts. MARSOC 
and SOCOM can certainly re-evaluate this option if the Marine Corps 
increases the size and structure of MARSOC beyond its current size.

    8. Senator Nelson. Ms. Whelan and General Thomas, has SOCOM 
examined utilizing these blended Force Recon and MARSOC units to 
alleviate the demand on Active Duty SOCOM units?
    Ms. Whelan. Neither SO/LIC nor USSOCOM is pursuing the 
establishment of a MARSOC-like unit in the Marine Corps Reserve 
Component at this time. To date, there has not been a demand signal 
from USSOCOM to the Marine Corp for the creation of a MARSOC-like unit 
under the auspices of the U.S. Marine Forces Reserve.
    General Thomas. No, this is not currently an initiative that either 
MARSOC or SOCOM are exploring. MARSOC and SOCOM have instead focused on 
advancing integration and interoperability between conventional and SOF 
capabilities in the joint operating environment. The complexities of 
`blending' conventional units and SOF units are significant, even when 
considering conventional units as capable and well-trained as Marine 
Force Reconnaissance. There are major differences between the 
individual skills of Force Reconnaissance Marines and the individual 
skills of the Critical Skills Operators of MARSOC. Each community 
trains its Marines very aggressively so they can accomplish their 
prescribed missions. The missions, however, are quite different in many 
respects and have few points of overlap. Additionally, operational 
employment at the unit level requires months of unit training prior to 
deployment; such a unified training plan and subsequent deployment can 
only be accomplished with unified command and control. The Force 
Reconnaissance unit would need to be ``chopped'' to MARSOC and then 
operate under the existing MARSOC C2 structure. This also assumes that 
the Marine Force Reconnaissance community are available and not in 
demand for conventional operational employment; instead, Force 
Reconnaissance capabilities are operating at high tempo. This is not to 
say that conventional augmentation of SOF is infeasible. MARSOC has 
been augmented with specific individuals from the larger Marine Corps 
for operational employment multiple times. These individual 
augmentations have been very successful for several reasons: The 
augmentation was for staff and command and control at the Battalion 
level or higher. The augmentees possessed MOS skills that are not 
readily available within MARSOC. The individual Marines reported to 
MARSOC far enough in advance of the deployment to receive the training 
necessary to integrate into the SOF C2 node.
                               __________
            Questions Submitted by Senator Claire McCaskill
   gao report--countering isis and its effects, key oversight issues
    9. Senator McCaskill. General Thomas, what steps has the DOD been 
taking to address challenges to our train and equip program regarding 
the underlying factors that have caused Iraqi Security Forces personnel 
shortages?
    Public reporting, in the recent past, discussed how our train and 
equip program with Syrian opposition forces has been less than 
successful. The DOD recently revised this train and equip program in 
2016.
    General Thomas. Senator McCaskill, thank you very much for this 
question. However, I respectfully defer to the CENTCOM Commander for 
the specifics on the Syria Train and Equip revision.

    10. Senator McCaskill. General Thomas, what have been the results 
of the 2016 train and equip program revisions?
    General Thomas. We continue to work closely with our CENTCOM 
partners in both Afghanistan and Syria. Specifically, in Afghanistan, 
we continue to take the fight to the Taliban and retain control of both 
major population centers as well as key lines of communication. 
Additionally, the Afghan National Defense and Security Forces have 
demonstrated the ability to rapidly respond to and reverse gains made 
by the Taliban during limited engagements. In Syria, over the past 
three years our partners have taken significant strides against ISIS. 
By successfully pushing ISIS out of numerous towns and cities while 
cutting key lines of communication, we have seriously damaged ISIS 
through significant losses in people and equipment which has led to a 
decreased capability to engineer offensives in Syria as well as 
orchestrating attacks against the United States directly. I defer to 
the CENTCOM Commander for more specific operational details in both 
Afghanistan and Syria.

    11. Senator McCaskill. General Thomas, what assurances do you have 
that individuals associated with terrorist organizations or the 
governments of Syria or Iran are not receiving the benefits of this 
train and equip program?
    General Thomas. [Deleted.]
                         counter-russia efforts
    12. Senator McCaskill. General Thomas, to the degree that you can 
do so at an unclassified level, what specific actions have Special 
Operations Forces taken over the last two to three years aimed at 
countering Russian aggression?
    General Thomas. USSOCOM remains committed to continuing to enhance 
situational understanding of the environment as it relates to Russia 
and our Allies / Partners. As an integral part of USEUCOM's Global 
Campaign Plan--Russia (GCP-R), Special Operations Command Europe 
(SOCEUR) has developed a supporting plan to meet the objectives and 
tasks laid out in USEUCOM's OPLAN in countering Russian aggression. 
Broadly, SOCEUR is currently: Building Partner Capacity with NATO 
Allies and Partners to increase capacity and capability. Increasing 
interoperability between NATO Allies / Partner SOF and conventional 
forces to increase capacity and capability. Increasing interoperability 
between NATO Allies / Partner SOF and both USSOF and U.S. conventional 
forces to increase capacity and capability.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                    navy rotary wing support to sof
    13. Senator Blumenthal. Ms. Whelan and General Thomas, previously, 
the Navy had two dedicated special operations helicopter squadrons, 
HSC-84 and HSC-85, both units part of Naval Air Forces Reserve. The 
Navy retrograded these squadrons from deployed positions in CENTCOM and 
PACOM respectively in order to disestablish them. After Congressional 
intervention, HSC-85 was not disestablished, and has returned, after 
more than a year recovering from diminished resources, to the PACOM 
area of operations in support of Special Operations Command Pacific. 
With HSC-84 disestablished, rotary wing support for special operations 
forces training has drastically diminished, especially for Naval 
Special Warfare Command. Additionally, several combatant commander 
requests for forces (RFF) for rotary wing support of component SOF have 
gone unfilled. Despite this reduction in rotary wing support from the 
Navy to SOCOM, the Navy has not published a plan for recapitalization 
of HSC-85's aging HH-60H helicopters. Ms. Whelan and General Thomas, 
are you concerned about the Navy's lack of a sustainment plan for their 
single helicopter squadron dedicated to SOF support, on whom SOF forces 
have heavily depended for training and operational support since 
September 11, 2001?
    Ms. Whelan. USSOCOM is very dependent on Military Department 
support to enable Special Operations Forces (SOF) missions. During the 
fiscal year 2015 and 2016 budget cycles, the DOD carefully considered 
HSC-84 and HSC-85 support to SOF in the program budget review. USSOCOM 
decided to establish an internal capability to provide rotary-wing 
support for Naval Special Warfare Command training requirements after 
discussions and deliberations between the U.S. Navy and USSOCOM during 
the fiscal year 2016 program budget review. I am unable to speak for 
the U.S. Navy on its specific plans for recapitalizing aging HH-60H 
helicopters, but I support the Navy's plan to maintain the capability 
and capacity provided by its HSC 85 helicopters.
    General Thomas. Navy Rotary Wing Support to SOF is an important 
example of the necessity of support from the services to SOF. We are 
very appreciative of the tireless efforts in Congress to ensure this 
and many other critical support capabilities from the services continue 
without interruption. At this time, we are unable to speak for the Navy 
on their plan to recapitalize HSC-85's aging HH-60H helicopters. We 
have a keen interest in maintaining the capability and capacity 
provided by the Navy in the form of HSC-85 well into the future.
                               __________
             Questions Submitted by Senator Martin Heinrich
                 countering weapons of mass destruction
    14. Senator Heinrich. General Thomas and Ms. Whelan, SOCOM has 
recently been entrusted with leading the important counter-Weapons of 
Mass Destruction mission for the Department. Do you anticipate any 
additional resource or personnel requirements to adequately support the 
Counter WMD mission?
    General Thomas. Yes, USSOCOM will have additional requirements to 
support the CWMD mission. However, before addressing requirements, I 
want to ensure the committee understands USSOCOM's new role with regard 
to DOD's CWMD mission. USSOCOM is not responsible for ``all things 
CWMD'' within DOD. This mission transfer from USSTRATCOM to USSOCOM is 
about advocacy and synchronization of DOD's CWMD planning efforts. 
Specifically, my charge, from the draft UCP, is to advocate for and 
synchronize DOD's CWMD efforts in support of other combatant 
commanders, Departmental priorities, and as directed, other U.S. 
Government agencies in support of the DOD CWMD Strategy. While this new 
role broadens USSOCOM's scope of responsibility, it remains separate 
and distinct from its current SOF specific CWMD roles; which it will 
maintain without change. USSOCOM anticipated additional requirements 
would be necessary to accomplish the recently assigned DOD CWMD Mission 
and is working through the Department's processes to realign resources 
to the Command. All funding and manpower currently maintained by 
USSTRATCOM will transfer to USSOCOM in fiscal year 2018. The transfer 
will be submitted to congress as part of the President's Budget 
submission. In the interim, USSOCOM has realigned operations and 
maintenance to initiate the transition. We have also executed interim 
bridge contracts to provide us manpower to facilitate the integration 
of the new mission into USSOCOM and develop the processes to execute 
the mission. It may take up to 2 years before all the necessary 
resources and validated headquarters manpower positions are in place or 
realigned (46 personnel at MacDill AFB and 58 personnel at Fort 
Belvoir). Next summer, I plan on conducting a review of our 
organizational construct, manpower, and resourcing to determine if we 
got it right. I believe we do, but I want to validate our construct and 
processes after completing several evolutions.
    Ms. Whelan. This change has been resource neutral for DOD as a 
whole. DOD continually analyzes resource and funding requirements as 
part of the normal staffing process for any planning effort. Most 
recently, during the fiscal year 2018 Program Review, some funds and 
human resources were reallocated from USSTRATCOM to USSOCOM for the 
Counter-Weapons of Mass Destruction mission in accordance with a 
jointly approved implementation plan. This has been reflected in the 
President's Budget. If General Thomas determines that there are 
additional resource requirements, he can bring those forward to DOD for 
consideration during the fiscal year 2019 Program Review.

    15. Senator Heinrich. General Thomas and Ms. Whelan, New Mexico is 
home to two national security laboratories which have a primary mission 
in nuclear weapons but also make significant contributions to chemical, 
biological, radiological and nuclear defense. I encourage you to 
partner with those laboratories when you need additional expertise and 
support. What plans, if any, do you have to partner with our national 
laboratories?
    General Thomas. USSOCOM has a long standing collaboration and 
partnership across the Department of Energy (DOE) as well as with the 
United States National Laboratories. These relationships span all 
aspects of Weapons of Mass Destruction (WMD). Our relationship and 
coordination with DOE is essential to the SOF CWMD mission; thus having 
a permanent DOE Liaison Officer on my staff. Their collective technical 
support and open collaboration is critical to our success as the nation 
addresses difficult challenges countering WMD. Specific to the DOE 
laboratory complex, USSOCOM historically executes projects with both 
Sandia and Los Alamos National Laboratories across multiple WMD 
disciplines. Additionally we have ongoing activities with Kansas City 
National Security Campus, and the Lawrence Livermore, Pacific 
Northwest, Nevada National Security Site, Savannah River, Idaho, and 
Oak Ridge National Laboratories. A recent visit to Sandia National 
Laboratory by the USSOCOM Deputy Commander further reinforced our 
partnership and showcased Sandia's ability to anticipate and resolve 
national security challenges. All that said, I see that we have a real 
opportunity in our new role to achieve two objectives with respect our 
lab partnerships: 1) achieve greater efficiency in the collaborations 
we encourage between DOD entities and our interagency (and in 
particular DOE) partners; and 2) enhance the output of knowledge, 
initial basic research, and potential new technologies to further 
strengthen our ``whole-of-government'' means to mitigate the threats 
from state and non-state actor interest and intent in development and 
acquiring WMD capabilities.
    Ms. Whelan. The DOD routinely relies on the national laboratories 
for their technical expertise in a wide range of scientific fields, 
including this area of national security concern. I defer to General 
Thomas for any specific plans that USSOCOM has for partnering with the 
national labs.
                distributed common ground system (dcgs)
    16. Senator Heinrich. General Thomas, since fiscal year 2010, SOCOM 
has spent $367 million to develop, procure, operate, and maintain its 
DCGS-SOF program. From fiscal year 2018 through fiscal year 2020, SOCOM 
is expected to spend another $168 million on the program. It is my 
understanding that this program is still not fully fielded and is said 
to have performed poorly during its most recent user testing event. It 
is also my understanding that after repeated requests from deployed 
operators, SOCOM acquired a working commercial ``bridging'' alternative 
in 2016 which is already fully fielded and meeting the needs of users 
in combat. When will all elements of the DCGS-SOF program reach fully 
operating capability (FOC)?
    General Thomas. There are four components of Distributed Common 
Ground System-Special Operations Forces (DCGS-SOF); Silent Dagger, 
providing signals intelligence Processing, Exploitation and 
Dissemination (PED), and Full Motion-Video (FMV) PED, are fielded and 
operational now. DCGS-SOF Enterprise data search and discovery has been 
accessible on operational networks since 2012, however the value of 
Enterprise will not be fully realized until integration of analysis 
capabilities provided through the All Source Information Fusion (ASIF) 
component. ASIF is planned to begin fielding initial capabilities in 
the second quarter of fiscal year 2018 and be fully fielded in the 
third quarter of fiscal year 2020.

    17. Senator Heinrich. General Thomas, have there been any changes 
to cost and schedule estimates for full fielding?
    General Thomas. The initial goal of fielding All Source Information 
Fusion (ASIF) capabilities during the first quarter of Fiscal Year 2017 
was delayed for further refinement and integration into the Enterprise. 
Integration is ongoing with an evaluation planned in June 2017, 
followed by final testing in December 2017. Current cost estimates 
remain within budgeted amounts.

    18. Senator Heinrich. General Thomas, how many users are currently 
leveraging the commercial ``bridging'' solution? How many users are 
currently using the equivalent components of DCGS-SOF?
    General Thomas. The information below aggregates data for Secure 
Internet Protocol Router Network (SIPRNet) users. The user base ranges 
from HQ USSOCOM, to Components, to Theater Special Operation Commands, 
and down to subordinate units. The commercial ``bridging'' solution 
data reflects fixed and tactical nodes, while the DCGS-SOF Enterprise 
has fixed nodes. Based on the most recent statistics from April 2017, 
commercial ``bridging'' solution users exceed 2,600 per month, and 
DCGS-SOF Enterprise are less than 100 per month. The DCGS-SOF user base 
will increase with integration and fielding of the ASIF capability.

    19. Senator Heinrich. General Thomas, if the commercial 
``bridging'' solution is already providing working capabilities in 
combat, how much consideration has SOCOM given to moving away from 
DCGS-SOF toward a commercial solution?
    General Thomas. DCGS-SOF is an integration of Commercial-Off-The-
Shelf and existing Government-Off-The-Shelf capabilities acquired 
through free and open competition and under a strategy of Government As 
Integrator (GAI). As part of the GAI strategy, SOCOM staff have 
assessed alternatives and determined the best value for the government 
at the time. Since December 2016, DCGS-SOF has had the direct attention 
of my senior level staff with bi-weekly updates to my Chief of Staff. 
SOCOM is planning an evaluation of DCGS-SOF Enterprise and ASIF 
capabilities in June 2017 with a program review at my level in July 
2017. I assure you DCGS-SOF is receiving considerable attention with 
all alternatives being considered.

    20. Senator Heinrich. General Thomas, what decision was made based 
on that consideration, and what were the rationale and justification 
behind that decision?
    General Thomas. The current DCGS-SOF strategy is Government As 
Integrator (GAI) to integrate best of breed commercial and existing 
government technologies through an open architecture. This allows the 
government to maintain control and flexibility of the solution and 
direct the evolution of capability through insertions of new and next 
generation technology. By managing the integration of multiple 
commercial capabilities, the government is not beholden to a single 
commercial entity. The bridging solution provides significant 
capabilities to SOF, however it does not meet all of our requirements 
and it is expensive. The GAI strategy can provide capabilities that 
exceed the current bridging solution while managing costs over the long 
term. I assure you we are taking a hard look at the current strategy 
and the program review in July 2017 will assess progress to determine 
if a change in strategy is warranted.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                         acquisition processes
    21. Senator Hirono. Ms. Whelan and General Thomas, the 
congressional armed services committees have brought about many 
acquisition improvements to the DOD acquisition process, including the 
Rapid Innovation Fund, which awards of $250 million in follow-on Phase 
III funding. Has SOCOM been able to benefit from some of these 
streamlined acquisition processes? Do you have recommendations for 
other segments of the acquisition process that should be reviewed or 
could be improved?
    Ms. Whelan. ASD Special Operations/Low-Intensity Conflict (SO/LIC) 
and USSOCOM have indeed benefitted from the many acquisition process 
improvements, and we appreciate congressional efforts to streamline our 
ability to develop and deliver capability to Special Operations Forces 
rapidly. In fiscal year 2017, USSOCOM received $3 million in Rapid 
Innovation Funds (RIF) and plans to use these funds to bridge the gap 
from concept/idea development resulting from its numerous innovation 
activities, such as SOFWERX, into either science and technology 
activities or, when ready, directly into a program of record. These 
funds will help ensure our special operators have the opportunity to 
take part in the development and assessment of promising technologies. 
SO/LIC also has used RIF Phase III in the Combating Terrorism Technical 
Support Office (CTTSO), which develops cutting-edge technologies for 
and with special operations forces (SOF) and all of DOD, law 
enforcement, other U.S. Government departments and agencies, and 
international partners. CTTSO will use $2.5 million of fiscal year 2016 
RIF Phase III for projects such as ``Speech Technologies in Tracking, 
Targeting, and Locating in Noisy Environments'' and ``Portable 
Petroleum Identification Device'' (fuel authentication). The speech 
technologies project will support USSOCOM, the High-Value Detainee 
Interrogation Group (HIG), and others, and we expect it to provide a 
real-time, high-performance capability to collect and process audio 
signals in noisy environments. The fuel authentication project also 
supports USSOCOM and seeks to develop a capability to identify whether 
or not petroleum products originate from a legitimate source. We are 
currently in the process of evaluating projects for fiscal year 2017 
RIF Phase III and expect to execute $3.0 million in such projects. In 
addition to the RIF, Phase III, SOF has benefitted from other 
acquisition process improvements such as the Secretary's Rapid 
Acquisition Authority (RAA). In 2012, USSOCOM used $91 million in RAA 
to upgrade much of the PC-12 light mobility aircraft fleet to highly 
capable U-28A models for intelligence, surveillance, and 
reconnaissance. We work diligently to ensure that acquisition 
authorities are as available to USSOCOM as they are to the Military 
Departments. Relevant statutes often vest acquisition-related authority 
in the Secretary of Defense and the Secretaries of the Military 
Departments without specific mention of ASD(SO/LIC) or Commander, 
USSOCOM. We then have to make a case requesting that the Department 
provide USSOCOM with those additional authorities. The DOD continually 
looks for ways to improve its requirements and acquisition processes. 
To improve its rapid acquisition capability, DOD has established the 
Quick Reaction/Rapid Acquisition Community of Interest to expedite the 
acquisition of warfighter capabilities. ASD(SO/LIC) and USSOCOM are 
active participants in this group of 20 organizations led by the 
Director, Joint Rapid Acquisition Cell, in OUSD(AT&L).
    General Thomas. Yes, USSOCOM has benefited from and is very 
appreciative of the efforts to streamline our ability to rapidly 
develop and deliver capability to Special Operations Forces. 
Specifically, USSOCOM requested and received $3 million Rapid 
Innovation Funds. Our intention is to utilize these funds to bridge the 
gap from concept/idea development resulting from our numerous 
innovation activities, such as SOFWERX, into either science and 
technology activities or, when ready, directly into a program of 
record. These funds will assist in funding projects and ensuring our 
military operators have the opportunity take part in the development 
and assessment of promising technologies. We do not seek any specific 
additional changes to other segments of the acquisition process but we 
continue to seek the same authorities as our Service acquisition 
counterparts. Title 10 section 167 clearly states the Commander of 
USSOCOM shall be responsible for ``the development and acquisition of 
special operations-peculiar equipment'' with an acquisition executive 
``responsible to the commander for rapidly delivering acquisition 
solutions'' and ``subordinate to the Defense Acquisition Executive in 
matters of acquisition, subject to the same oversight as the service 
acquisition executives . . . '' Relevant statutes often flow from 
Congress directly to the Secretary of Defense and the Secretaries of 
the Military Departments without specific mention of ASD(SO/LIC) or 
USSOCOM. Without explicit authorities, ASD(SO/LIC) and USSOCOM pursue 
individual requests through the Department for required authorities. 
Recent examples include approval to conduct Other Transaction Authority 
for Prototype Projects and the authority to conduct Prize Challenges. 
We are currently working with the Department for the authority to 
engage in Grants and Cooperative Agreements.
                     navy seal submarine equipment
    22. Senator Hirono. Ms. Whelan and General Thomas, the SEAL 
Delivery Vehicle and the dry deck shelter are projects the Navy has 
been working to facilitate Navy SEAL access to areas of operation. This 
was recently demonstrated when the Ohio-class, guided-missile submarine 
Michigan deployed to the South Korean port of Busan equipped with a dry 
deck shelter. How important is this equipment in terms of the Navy Seal 
mission? Are program requirements being met? Do you have any concerns 
with the acquisition of these two systems?
    Ms. Whelan. SOF units require specialized underwater systems that 
improve their warfighting capability and survivability in harsh 
operating environments. The SEAL Delivery Vehicle (SDV) and Dry Deck 
Shelter (DDS), when coupled with fleet support, provide the Department 
of Defense a unique capability to access denied waters and coastlines. 
These assets can fulfill critical Intelligence Community collection 
requirements and, when needed, provide the ability to engage the enemy 
successfully and conduct operations associated with SOF maritime 
missions. SOF's primary undersea mobility concern is the capability gap 
created by the scheduled decommissioning of the Ohio-class Guided 
Missile Submarines (SSGNs). SSGNs serve as SOF's Large Volume Host 
(LVH) and can support two DDSs for deployed SOF operators and command 
and control. Two DDSs enable deployed SOF to launch more frequent 
sorties and self-recover disabled SDVs. When unforeseen contingencies 
arise, launching a second SDV or quick reaction force may be the only 
way to preserve life and execute the mission. In addition, LVHs provide 
greater available capabilities and increased space for necessary 
berthing, planning, medical support personnel, and mission-critical 
materiel storage. As the four SSGNs are decommissioned between 2026 and 
2028, SOF will lose its LVH capability. This will result in a severe 
degradation of SOF maritime capabilities. Although U.S. Special 
Operations Command (USSOCOM) is working with the Navy staff to mitigate 
the risks associated with the impending LVH loss, the Navy must balance 
fiscal constraints and competing strategic priorities within the 
submarine force against SOCOM's LVH requirement. Between fiscal year 
2018 and fiscal year 2020, USSOCOM's Underwater Systems program will 
replace the SDV with the next-generation SEAL delivery platform, the 
Shallow Water Combat Submersible (SWCS). The SWCS will continue to use 
the DDS as ocean interface with submarines. USSOCOM and the Navy are 
modernizing the six DDSs in inventory and are working to outfit the 
DDSs with the ability to mate with multiple submarine hosts, improving 
the DDSs availability. These two systems are dependent on a decreasing 
number of suitable host submarines; and, due to cost constraints, fewer 
submarines will be certified to conduct Special Operations than 
originally envisioned. Finally, USSOCOM's Underwater Systems program is 
developing the Dry Combat Submersible (DCS). The DCS will better allow 
the insertion and extraction of SOF and other payloads at strategic 
distances into denied areas. As this capability becomes available, 
integrating it into the fleet will be critical. In order to do so, 
USSOCOM and the Navy must address interoperability and certification.
    General Thomas. SOF have conducted missions in the most challenging 
environments, including undersea clandestine insertion, using combat 
submersibles and SOF operators launched and controlled from specially 
configured host submarines. These missions, involving some of the more 
sensitive and important operations pursued by the U.S. military, have 
taken place across a spectrum of locations, conditions, and threats. 
The SEAL Delivery Vehicle (SDV), launched from a host submarine 
equipped with a Dry Deck Shelter (DDS) is the most capable means of 
accessing high threat and denied areas. We are concerned that the four 
SSGNs are being decommissioned in the 2020s with no plans to 
reconstitute the unique Large Volume Host Submarine (LVHS) capability. 
These four submarines are significantly more capable than existing 
Virginia-class submarine hosts and have payload and habitability 
capacity to support extended, flexible SOF operations. The dual DDS 
capability provides SOF undersea mobility redundancy, quick reaction 
forces, and personnel recovery. There is sufficient volume for special 
mission equipment, dedicated mission planning spaces, and berthing. The 
DDS has undergone a successful service life extension reaching into the 
2040s and there are 11 SDVs in Sustainment.
                      force structure requirements
    23. Senator Hirono. General Thomas, do you see the current trend to 
rely on Special Ops forces as a long-term reality? If there is a long-
term increase, do you have the force structure you need? If not, what 
is your best estimate of the force structure increase required to 
maintain sustainable dwell times, morale and effectiveness for SOCOM?
    General Thomas. There are sufficient SOF to respond to most 
emerging crises currently in the world today. The size of SOF is driven 
by the rotational base needed to meet day-to-day global operations in 
support of counterterrorism, counter-WMD, and Building Partnership 
Capacity goals. USSOCOM's force structure is deemed sufficient to meet 
National Crisis Response and Counter Terrorism requirements, but SOF is 
continually assessing the force to ensure that it will be able to 
support the national strategy. USSOCOM's Campaign Plan is designed to 
meet Steady State and Operational Plans, but all SOF operations/
deployments require the Service's Combat Support/Combat Service Support 
to provide the necessary temporary infrastructure that does not exist 
in most areas of operations. With multiple contingencies to execute, a 
risk assessment and prioritization of the specific requirements, 
capability and capacity dedicated to the operations must continuously 
be analyzed to determine the optimum force levels. SOF continues to 
relook the Component force mix and specific skill sets necessary to 
build the force of the future. Constructing the force of the future 
while maintaining the current force creates an environment of competing 
strategies to meet the possible emerging threats through 
reconstitution, training, equipping, while developing new areas of 
expertise. This effort continues to stretch the boundaries of SOF's 
creativity, flexibility, adaptability, and resiliency. Compiling all of 
these metrics will force SOF to remain adaptable as it expands its 
capability and capacity to meet any emerging threats.

    24. Senator Hirono. Ms. Whelan and General Thomas, do you think 
that we as a country are relying too heavily on the Special Ops forces 
to handle too many missions? As the Special Ops end strength grows, do 
we run the risk of hitting a point where the ``special-ness'' of the 
force begins to deteriorate?
    Ms. Whelan. The DOD is very sensitive to the demands that we place 
on USSOCOM and special operations forces to meet our national security 
requirements and objectives. We always strive to match requirements 
with the best capabilities to achieve those objectives. Our Global 
Force Management process helps us in allocating the right force, 
including special operations forces, against the highest priorities. 
Yes, we recognize special operations forces are in high demand and are 
heavily committed to multiple missions. Where and when we can, DOD 
transitions missions to other forces, as appropriate. But, considering 
the current security environment, I envision that special operations 
forces will continue to be asked to do quite a bit into the foreseeable 
future. As for end-strength growth and deterioration of the ``special'' 
in special operations forces, I defer to General Thomas to assess the 
effects on his Command's unique qualities.
    General Thomas. Although I do not think that we rely on SOF to 
perform too many missions, I recognize we are close, and have at times 
come dangerously close to doing so. I am therefore constantly vigilant 
to prevent over use of SOF. SOF is relevant against all of the threats 
facing us in this rapidly changing security environment, and we will 
remain so in the future. The seemingly ever-increasing demand for SOF 
causes us to prioritize the sourcing of the requirements the Global 
Combatant Commanders place upon us, and the Departments' National 
Military Strategy informs that prioritization. As our numbers grow, we 
do indeed risk losing that which makes Special Operations Forces truly 
special. For that reason, the vigilance that I mentioned above includes 
a special care to ensure that our standards and processes for 
recruiting, assessment, selection, and training of special operations 
personnel remain inviolate. Because our people are our most precious 
asset and that which make SOF truly special, I will continue to 
prioritize our efforts to grow, sustain, and take care of our force and 
their families.
                    navy rotary wing support to sof
    25. Senator Hirono. Ms. Whelan and General Thomas, the Navy 
previously operated two dedicated special ops helicopter squadrons, 
HSC-84 and HSC-85 as part of the Reserves. Plans were made to 
deactivate these squadrons, which supported CENTCOM and PACOM. After 
Congressional intervention, HSC-85 was not deactivated, and has 
returned to the PACOM area of operation. SOCPAC relies heavily on this 
support. With HSC-84 deactivated, support for special operations forces 
training has been reduced, especially for Naval Special Warfare 
Command. What are the impacts of the reduced level of support with the 
deactivation of one of these squadrons? Does it negatively impact 
readiness and capabilities of special operations forces which we rely 
on heavily? Are requests for support going unfulfilled?
    Ms. Whelan. USSOCOM has internally reallocated some of its rotary 
wing assets to support prioritized Naval Special Warfare Command 
training and readiness requirements. As with any limited resource, 
training support requests are prioritized and some lower priority 
requests may not be fulfilled.
    General Thomas. Navy Rotary Wing Support to SOF is an important 
example of the necessity of support from the services to SOF. We are 
very appreciative of the tireless efforts in Congress to ensure this 
and many other critical support capabilities from the services continue 
without interruption. As mentioned, the disestablishment of HSC-84 has 
had significant impact on the force. Rotary wing training requests have 
gone unfilled approximately ten percent more since their deactivation. 
This deficiency is primarily felt by the Naval Special Warfare and 
Marine Special Operations Commands. However, we are mitigating such 
shortfalls by leveraging bilateral training opportunities between the 
Special Operations Aviation Regiment and these units to the maximum 
extent possible through our Joint Air Asset Allocation Program.
                               __________
               Questions Submitted by Senator Gary Peters
                                sofwerx
    26. Senator Peters. General Thomas, thank you for your testimony on 
SOFWERX and response to my question and questions from my colleagues. 
Please provide a representative sample of solutions successfully 
developed by SOFWERX, to include context on the problem SOFWERX 
attempted to solve and how SOFWERX collaborated with individuals, the 
private sector, and academia to develop a solution.
    General Thomas. Through efforts at SOFWERX we have been able to 
identify and discover many new and novel technologies, capabilities, 
ideas and process to facilitate accelerating the acquisition cycle. 
These efforts begin with building a robust network across many 
spectrums of innovation in the private and academic sectors, commercial 
markets and the DOD. A representative sample includes the following: 
New Products: Through rapid prototyping efforts, SOFWERX has produced 
new designs for consideration to enable more rapid follow-on 
acquisitions for: Prototype/initial design for next generation 
communication systems for SOF vehicles for consideration in future 
acquisition strategies Concept and initial design for new bow bumpers 
for SOF boats that are in prototype manufacturing for further testing 
Developed Casualty Evacuation modifications for MRZR SOF vehicles--
provided to units for local build Initial design studies for 
weaponizing SOF surface combatant boats for consideration in future 
acquisition strategies SOFWERX has conducted or facilitated rapid 
evaluation of commercial off-the-shelf (COTS) products for potential 
SOF use, either for immediate needs or for future concepts: Go-Tenna: 
Allows use of cell phones as point to point and network radios; 
analyzed and prototyped alternative antennas for SOF use Open source 
software--enables rapid fielding of capabilities, especially with 
partner nations Commercial drones--both how to use them with COTS 
software for radically low-cost ISR, as well as how to exploit current 
drones for Counter-Unmanned Air System capabilities SOFWERX has proven 
to be a venue which attracts unique products for potential SOF use, 
which has reduced barriers to entry and has facilitated interaction 
with new and unique suppliers: Hendricks Motor Sports STEED--an 
electric powered cart to increase range of SOF tactical units Fly-board 
Air--Novel single-man flying machine invented in France Virtual Reality 
Demo--Enabled operators to experiment with next-generation Virtual 
Reality/Augmented Reality systems. New Ideas: SOFWERX has aided in 
inspiring and inaugurating new ideas that can transform how SOF 
approaches thinking and solving the most challenging problem sets: Use 
of biological models as a means to better understand counter-terrorism 
Next generation design concepts to power Light Tactical All-Terrain 
Vehicles (fuel cells, hybrid, etc.) Non-Radio Frequency communications 
for SOF (e.g. magnetic resonance) for enhanced survivability. New 
Business Models: SOFWERX is a springboard for using new business models 
to reach non-traditional business partners, technologists, hackers/
makers and other individuals with novel solutions: Developing a SOF-
unique workflow on Amazon to potentially enable rapid discovery/
purchase/delivery of equipment for partnered operations Fostering new 
solutions to SOF problems through prize challenges; 10 prize SOF prize 
challenges have been executed to date Fostering new solutions to SOF 
problems (especially in the data arena) with Hackathons. Hackathons 
have also identified a large pool of local talent which can be 
leveraged to solve SOF problems. New Networks: SOFWERX has enabled us 
to establish and broaden our relationships with a wide spectrum of non-
traditional DOD partners: SOFWERX has already established a network of 
over 6000 members Academia--USF is now developing advanced payload 
solutions for SOF cubesats Hacker/Maker network--400+ non-DOD 
affiliated hackers and makers are networked in with SOFWERX. SOFWERX is 
being dubbed as the `friendly feds' space, allowing access to ideas, 
products, and innovations Far Ridgeline Reviews--enables us to assemble 
world-leading talent on specific challenges to include most recently a 
session on Machine Learning. More information on many other events and 
activities to include Hackathons, Science, Technology, Engineering and 
Math (STEM) events in the local community can be found on the SOFWERX 
website at sofwerx.org.
                       homeland security and wmd
    27. Senator Peters. General Thomas and Ms. Whelan, how does SOCOM 
coordinate with the Department of Homeland Security (DHS) in countering 
weapons of mass destruction to protect the Homeland?
    General Thomas. One of my responsibilities as the DOD's 
synchronizer of CWMD planning is to ensure the Department's efforts 
support our U.S. Interagency partners. The coherent application of all 
instruments of U.S. national power is required to counter weapons of 
mass destruction and their enablers successfully. To enhance these 
linkages, I have integrated our interagency partners, to include the 
Department of Homeland Security, into DOD's CWMD Transregional 
Synchronization Process and as active participants in our community of 
action. I am establishing a User Defined Operational/Intelligence 
Picture that will allow not only all of DOD to share critical 
information but will also allow USG IA to participate. As we further 
develop CWMD User Defined Operational/Intelligence Picture, I see a 
real opportunity to use this vehicle and newly invigorated coordination 
and collaboration mechanisms to drive more cooperation, prioritization, 
and urgency of addressing as far left of event as possible the 
potential for sensitive materials or actual WMD to cross into the 
United States. Additionally, I am going to capitalize on our already 
widespread SOF network to help foster a routine battle rhythm that 
builds common understanding with the Interagency in an effort to 
further enhance effectiveness and unity of effort across the USG CWMD 
efforts This network includes Special Operations Support Teams (SOSTs) 
located throughout the interagency, to include DHS. I plan to leverage 
these resources as the DOD Synchronizer. I am committed to placing the 
right people within and around the USG interagency and with our Partner 
Nations to ensure close relationships--relationships that enable us to 
coordinate our efforts, collaborate to solve problems, and understand 
each other's roles and responsibilities.
    Ms. Whelan. As DOD synchronizer of countering weapons of mass 
destruction (CWMD) planning, USSOCOM ensures that DOD efforts support 
partners throughout the U.S. Government. In order to counter WMD 
effectively, all instruments of U.S. national power must be 
synchronized. To achieve that objective, USSOCOM is facilitating the 
integration of the Department of Homeland Security, along with other 
interagency partners, into DOD's CWMD Transregional Synchronization 
Process. Moreover, USSOCOM is building a User-Defined Operational/
Intelligence Picture that will allow U.S. Government departments and 
agencies to share critical information. Finally, the well-established 
special operations forces (SOF) network of Special Operations Support 
Teams (SOSTs) creates a liaison network throughout these departments 
and agencies that enables coordination, collaboration, and mutual 
understanding.

    28. Senator Peters. General Thomas and Ms. Whelan, does SOCOM 
notify Customs and Border Protection (CBP) and DHS of threats of WMD or 
sensitive materials that could be headed to the United States' borders 
or ports of entry?
    General Thomas. USSOCOM's new role and responsibilities as 
synchronizer of DOD CWMD planning efforts will not change how CBP or 
DHS are notified of potential threats to the United States. Those 
processes are well established through the Intelligence Community, 
USNORTHCOM, and other USG Departments and Agencies.
    Ms. Whelan. The processes for notifying CBP or DHS are well-
established through the Intelligence Community, USNORTHCOM, and other 
U.S. Government departments and agencies. USSOCOM's new role and 
responsibilities as DOD CWMD planning synchronizer will not change how 
CBP or DHS are notified of potential threats to the United States.

    29. Senator Peters. General Thomas and Ms. Whelan, what role does 
SOCOM have in informing or participating in the development of 
technology to detect proliferation threats?
    General Thomas. WARCOM maintains a 1.0 Riverine detachment 
capability. Each detachment consists of 2 x SOC-R Boats and 15 
Personnel. The SOC-R detachment is deployed under Force Tracking Number 
6170CTS3411 in support of the SOUTHCOM Theater Campaign Plan conducting 
theater security co-operation missions as well as prepared to conduct 
contingency operations and directly support the Counter-Drug/Counter 
Narco-Terrorism lines of effort in the SOUTHCOM AOR. The SOC-R 
detachment is deployed to Columbia.
    Ms. Whelan. USSOCOM enables technology development toward detecting 
proliferation threats by investing in emerging technology and informing 
technological trends. For instance, USSOCOM has played a long-standing 
role in developing SOF capabilities to detect, track, and defeat 
proliferation threats. With the participation of the Geographic 
Combatant Commands, USSOCOM will assess DOD's CWMD efforts as part of 
an overall DOD CWMD Campaign Plan. This allows USSOCOM to identify and 
prioritize gaps and seams, which in turn allows USSOCOM to synchronize 
mission demand with capabilities requirements and to advocate for 
studies and resource development.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                          TUESDAY, MAY 9, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                      UNITED STATES CYBER COMMAND

    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The committee meets today for a hearing on the posture of 
the United States Cyber Command.
    We are pleased to welcome back Admiral Mike Rogers, the 
Commander of U.S. Cyber Command, Director of the National 
Security Agency, Chief of the Central Security Service, and 
several other titles I believe. We are grateful for your many 
years of distinguished service and for your appearance before 
the committee today.
    Threats to the United States in cyberspace continue to grow 
in scope and severity. But our Nation remains woefully 
unprepared to address these threats, which will be a defining 
feature of 21st Century warfare.
    As a result, this committee has focused its attention on 
cybersecurity. We have expressed our concern at the lack of a 
strategy and policy for addressing our cyber threats. We were 
hopeful that after years without any serious effort to develop 
a cyber deterrence policy and strategy from the last 
administration, the new administration promised one within 90 
days of the inauguration. But 90 days have come and gone and no 
such policy and strategy have been provided.
    While inaction from the executive branch has been 
disheartening, this committee has not stood still. In fact, 
this committee has adopted more than 50 provisions over the 
past 4 years focused on organizing, empowering, and enabling 
the Department of Defense to deter and defend against threats 
in cyberspace.
    But cyber is an issue that requires an integrated, whole-
of-government approach. We simply do not have that now. The 
very fact that each agency of government believes it is 
responsible for defending the Homeland is emblematic of our 
dysfunction. We have developed seams that we know our 
adversaries will use against us. Yet, we have failed to summon 
the will to address these seams through reform.
    Our allies, most notably, the United Kingdom, have 
recognized the need for a unified approach. I look forward to 
hearing from Admiral Rogers his assessment of the recently 
established National Cyber Security Centre in the UK [United 
Kingdom] and whether a unified model would help address some of 
our deficiencies here in the United States.
    The Coast Guard also presents an interesting model that 
should be evaluated for addressing some of our cyber 
deficiencies. The Coast Guard has an interesting mix of 
authorities that may be just as applicable in cyberspace as 
they are in territorial waters. They are both an agency within 
the Department of Homeland Security, as well as a branch of the 
Armed Services. They can operate both within the United States 
and internationally and can seamlessly transition from law 
enforcement to military authorities. A cyber analogue to the 
Coast Guard could be a powerful tool for addressing gaps that 
impede our existing organizational structure. It could also 
serve as a much-needed cyber first response team responsible 
for immediate triage and hand-offs to the appropriate federal 
entity for further response, remediation, or law enforcement 
action.
    As for the efforts at the Department of Defense, I 
understand that Cyber Command is still on track to reaching 
full operational capability for the training of the Cyber 
Mission Force in the fall of 2018. But unless we see dramatic 
changes in future budgets, I am concerned these forces will 
lack the tools required to protect, deter, and respond to 
malicious cyber behavior. In short, unless the services begin 
to prioritize and deliver the cyber weapons systems necessary 
to fight in cyberspace, we are headed down the path to a hollow 
cyber force.
    I also am concerned with the apparent lack of trained 
people ready to replace individuals at the conclusion of their 
first assignments on the Cyber Mission Force. Unfortunately, we 
have already heard about some puzzling issues. Specifically, 
out of the 127 Air Force cyber officers that completed their 
first tour on the Cyber Mission Force, none went back to a 
cyber-related job. That is unacceptable and suggests a 
troubling lack of focus. It should be obvious the development 
of a steady pipeline of new talent and the retention of the 
ones we have trained already is essential to the success of the 
Cyber Mission Force.
    Admiral Rogers, we look to you to help us better understand 
if we should take a closer look at if the existing man, train, 
and equip models of the services are sufficient or if we should 
consider a different model. Later this week, we plan to have 
another cyber hearing with outside experts of which we plan to 
ask if we should be considering the creation of a cyber 
service.
    Admiral Rogers, welcome back. This is, I am sure, one of 
numerous pleasures you have of coming before this committee. 
Welcome.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming Admiral Rogers. As you point out, Mr. 
Chairman, the frequency with which the Admiral is called up to 
testify to the committee is a testament of not just his 
importance, but the importance of cyber in the severe 
challenges we face in this domain. So, again, thank you 
Admiral, for your service and your dedication.
    We have faced serious and growing threats in cyberspace, 
from espionage, theft of intellectual property, and destructive 
attacks on the networks and systems that support our military 
and our economy, including critical infrastructure. Now we and 
our allies in Europe are experiencing firsthand that we are 
also vulnerable to the manipulation and distortion of 
information through cyberspace, which Russia is exploiting to 
threaten the bedrock of our democracy and our shared 
international institutions.
    The Armed Services Committee has for years emphasized the 
importance of developing the means and the strategy to deter 
cyber attacks. Now the scope of what we must defend against and 
deter has expanded, and the task takes on even greater urgency.
    In just a year's time, we begin an election season once 
more, and the intelligence community has warned that Russia's 
election interference is likely to be a new normal.
    While our decentralized election system has been designated 
as critical infrastructure, we lack an effective integrated and 
coordinated capability to detect and counter the kind of 
influence operation that Russia now routinely and continuously 
conducts. We do not yet have a strategy or capability to deter 
such actions through the demonstrated ability to conduct our 
own operations of this type.
    Secretary Carter commissioned a Defense Science Board task 
force on cyber deterrence. Prominent former officials, such as 
former Under Secretary of Defense for Policy Dr. James Miller, 
served on this task force and have testified to this committee 
twice this year. They advocate rapidly developing the ability 
conduct operations for cyberspace to threaten, quote, what key 
leaders on the other side value the most, which in the case of 
Russia could included their own financial wellbeing and status 
in order to deter influence operations and cyber attacks 
against us.
    Achieving a credible deterrent requires integration of 
capabilities and focused policy development across the 
Department of Defense, as well as through the whole-of-
government involving DOD [Department of Defense], the State 
Department, the intelligence community, DHS [Department of 
Homeland Security], and the Justice Department. We have not 
seen evidence yet that the new administration appreciates these 
urgent problems and intends to address them.
    For Cyber Command, specifically the committee has heard 
concerns that our military cyber forces are almost exclusively 
focused on the technical aspects of cyberspace operations, such 
as detecting network intrusions, expelling intruders, and 
figuring out how to penetrate the networks of adversaries. The 
concern is that this focus misses the crucial cognitive element 
of information operations conducted through cyberspace. Those 
actions are designed to manipulate perceptions and influence 
decision-making.
    Admiral Rogers, these are critical issues, and there is 
much work to do, and I look forward to your testimony and your 
views on these urgent matters. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome back, Admiral.

STATEMENT OF ADMIRAL MICHAEL S. ROGERS, USN, COMMANDER, UNITED 
                STATES CYBER COMMAND; DIRECTOR,
   NATIONAL SECURITY AGENCY; CHIEF, CENTRAL SECURITY SERVICES

    Admiral Rogers. Thank you, sir.
    Chairman McCain, Ranking Member Reed, and members of the 
committee, thank you for your enduring support and the 
opportunity today to talk about the hardworking men and women 
of United States Cyber Command. I welcome the opportunity to 
describe how Cyber Command conducts efforts in the cyberspace 
domain and supports the Nation's defense against sophisticated 
and powerful adversaries.
    The Department of Defense recognized 7 years ago that the 
Nation needed a military command focused on cyberspace. U.S. 
Cyber Command and its subordinate elements have been given the 
responsibility to direct, operate, secure, and defend the 
Department's systems and networks which are fundamental to the 
execution of all DOD missions.
    The Department and the Nation also rely on Cyber Command to 
build ready cyber forces and to be prepared to employ them when 
significant cyber attacks against the Nation's critical 
infrastructure require DOD support.
    The pace of international conflict and cyberspace threats 
has intensified over the last few years. Hardly a day has gone 
by during my tenure at Cyber Command that we have not seen at 
least one significant cybersecurity event occurring somewhere 
in the world. This has consequences for our military and our 
Nation at large. We face a growing variety of advanced threats 
from actors who are operating with evermore sophistication, 
speed, and precision. At U.S. Cyber Command, we track state and 
non-state adversaries as they continue to expand their 
capabilities to advance their interests in and through 
cyberspace and try to undermine the United States national 
interests and those of our allies.
    Conflict in the cyber domain is not simply a continuation 
of kinetic operations by digital means. It is unfolding 
according to its own logic, which we are continuing to better 
understand. We are using this understanding to enhance the 
Department and the Nation's situational awareness and 
management of risk.
    I want to update you on our initiatives and plans to 
address that issue of situational awareness and risk 
management.
    Our three lines of operations are to provide mission 
assurance for DOD operations and defend the Department of 
Defense information environment; to support joint force 
commander objectives globally; and to deter and defeat 
strategic threats to U.S. interests and critical 
infrastructure.
    We conduct full spectrum military cyberspace operations to 
enable actions in all domains, ensure the U.S. and allied 
freedom of action in cyberspace, and deny the same to any 
adversaries.
    Defense of DOD information networks remains our top 
priority, of course, and that includes weapon systems, 
platforms and data. We are completing the build-out of the 
Cyber Mission Force, as you heard the chairman indicate, with 
all teams scheduled to be fully operational by the end of 
fiscal year 2018. With the help from the services, we are 
continually increasing the Cyber Mission Force's readiness to 
hold targets at risk.
    Your strong and continuing support is critical to the 
success of the Department in defending our national security 
interest, especially as we comply with the recent National 
Defense Authorization Act directive to elevate Cyber Command to 
unified combatant command status. As you well know, I serve as 
both Commander of U.S. Cyber Command and Director of the 
National Security Agency. This dual-hat appointment underpins 
the close partnership between Cyber Command and NSA [National 
Security Agency], a significant benefit in cyberspace 
operations. The institutional arrangement for providing that 
support, however, may evolve as Cyber Command grows to full 
proficiency in the future. The National Defense Authorization 
Act in a separate provision also described conditions for 
splitting the dual-hat arrangement once that can happen without 
impairing either organization's effectiveness,. This is another 
provision I have publicly stated that I support pending the 
attainment of certain critical conditions.
    Cyber Command will also engage with this committee on 
several other matters relating to the enhancement of the 
Command's responsibilities and authorities over the coming 
year. This would include increasing our cyber manpower, 
increasing the professionalization of the cyber workforce, 
building capacity, and developing and streamlining acquisition 
processes. These are critical enablers for cyberspace 
operations in a dynamically changing global environment.
    Most or all of these particulars have been directed in 
recent National Defense Authorization Acts, and along with the 
Office of the Secretary of Defense for Policy and the Joint 
Staff, we will work with you and your staffs to iron out the 
implementation details.
    Cyber Command personnel are proud of the roles they play in 
our Nation's cyber efforts and are motivated to accomplish 
their assigned missions overseen by the Congress and 
particularly this committee. They work to secure and defend 
DOD's systems and networks, counter adversaries, and support 
national and joint warfighter objectives in and through 
cyberspace. The Command's operational successes have validated 
concepts for creating cyber effects on the battlefield and 
beyond. Innovations are constantly emerging out of operational 
necessity, and the real world experiences we are having in 
meeting the requirements of national decision-makers and joint 
force commanders continue to mature our operational approaches 
and effectiveness over time.
    This, combined with agile policies, faster decision-making 
processes, increased capabilities, broader concepts of 
operations and smarter command and control structures, will 
ensure that Cyber Command attains its full potential to counter 
adversary cyber strategies.
    The men and women of Cyber Command thank you for your 
support and appreciate your continued support as we confront 
and overcome the challenges that lie ahead of us. We understand 
that a frank and comprehensive engagement with Congress not 
only facilitates the support that allows us to accomplish our 
mission, but it also ensures that our fellow citizens 
understand and endorse our efforts executed on their behalf. I 
have seen the growth in the Command's size, budget, and 
mission. That investment of resources, time, and effort is 
paying off, and more importantly, it is helping to keep 
Americans safer not only in cyberspace but in other domains as 
well.
    I look forward to continuing the dialogue of the Command 
and its progress with you in this hearing today and in the 
months to come. I look forward to answering your questions.
    [The prepared statement of Admiral Rogers follows:]

            Prepared Statement by Admiral Michael S. Rogers
    Chairman McCain, Ranking Member Reed, and Members of the Committee, 
thank you for your enduring support and the opportunity today to 
represent the hard-working men and women of United States Cyber Command 
(USCYBERCOM). I welcome the opportunity to describe how USCYBERCOM 
leads Department of Defense (DOD) efforts in the cyberspace domain and 
supports the nation's defense against sophisticated and powerful 
adversaries.
    The Department of Defense recognized seven years ago that the 
nation needed a military command focused on cyberspace. USCYBERCOM and 
its subordinate elements have been given the responsibility to direct, 
operate, and secure the Department's systems and networks, which are 
fundamental to the execution of all DOD missions. The Department and 
the nation also rely on us to build ready cyber forces and to be 
prepared to employ them when significant cyber-attacks against the 
nation require DOD support.
    USCYBERCOM has been a sub-unified command under U.S. Strategic 
Command (USSTRATCOM) since its creation in 2010. The command includes 
six operational-level headquarter elements, assisted by U.S. Coast 
Guard Cyber, a component of the Department of Homeland Security (DHS). 
USCYBERCOM's action arm is the Cyber Mission Force (CMF), which 
comprises 133 teams and is continuing to build to a total of 
approximately 6,200 military and civilian personnel. All of those CMF 
teams reached at least initial operational capability in 2016. Many 
have attained full operational capability (FOC), and I expect all of 
them will attain FOC status by 1 October 2018, just 15 months from now.
    I want to update you on our initiatives and plans for that time to 
come. Our three lines of operations are to provide mission assurance 
for DOD operations and defend the Department of Defense information 
environment; to support joint force commander objectives globally; and 
to deter or defeat strategic threats to U.S. interests and critical 
infrastructure. We conduct full spectrum military cyberspace operations 
to enable actions in all domains, ensure U.S. and Allied freedom of 
action in cyberspace, and deny the same to our adversaries. I have 
asked that our Command and its components focus their efforts in 
several areas to ensure we can accomplish missions, both now and in the 
future. Defense of DOD information networks remains our top priority, 
of course, and will move this beyond a network focus to one that 
includes weapon systems/platforms and data. We will also continue 
progress on the CMF build and attainment of FOC for all teams, while 
increasing the CMF's readiness and its ability to hold targets at risk. 
We will posture the CMF to deliver effects across all phases of 
operations; to improve operational outcomes by increasing resilience, 
speed, agility, and precision; to generate operational outcomes that 
support DOD strategy and priorities; to create a model for successful 
Reserve and National Guard integration in cyberspace operations; and 
finally to strengthen partnerships across the government, with our 
allies, and with the private sector.
    Your strong and continuing support is critical to the success of 
the Department in defending our national security interests, especially 
as we comply with the recent National Defense Authorization Act 
directive to elevate USCYBERCOM to unified combatant command status. As 
you well know, I serve as both Commander of USCYBERCOM and Director of 
the National Security Agency and Chief, Central Security Service (NSA/
CSS). This ``dual-hat'' appointment underpins the close partnership 
between USCYBERCOM and NSA/CSS--a significant benefit in cyberspace 
operations. The institutional arrangement for providing that support, 
however, may evolve as USCYBERCOM grows to full proficiency in the 
future, as I shall explain below.
                      the cyber threat environment
    The pace of international conflict and cyberspace threats has 
intensified over the past few years. We face a growing variety of 
advanced threats from actors who are operating with ever more 
sophistication and precision. At USCYBERCOM we track state and non-
state adversaries as they continue to expand their capabilities to 
advance their interests in and through cyberspace and try to undermine 
the United States' national interests and those of our allies.
    America faces multiple challenges from non-state cyberspace actors 
who impact our citizens and our economy, which now depends on trusted 
data. For instance, over the last year we have seen increased use of 
ransomware against individuals and businesses who find their data 
locked and are forced to pay in order to regain control of their files 
and intellectual property. Such threats primarily fall under the 
jurisdiction of law enforcement authorities, particularly the Federal 
Bureau of Investigation and the Secret Service. Nevertheless, criminal 
actors become a military concern when malicious state cyber actors pose 
as cyber criminals, or when cyber criminals support state efforts in 
cyberspace. This means that we take notice when cybercriminals employ 
tactics, techniques and procedures used by state adversaries.
    My main concern relates to state-based cyber actors, whose 
malicious activities have only intensified since I spoke to this 
Committee last year. As we have seen, cyber-enabled destructive and 
disruptive attacks now have the potential to affect the property, 
rights, and daily lives of Americans. We are particularly concerned as 
adversaries probe and even exploit systems used by government, law 
enforcement, military, intelligence, and critical infrastructure in the 
United States and abroad. We have seen states seeking to shape the 
policies and attitudes of democratic peoples, and we are convinced such 
behavior will continue for as long as autocratic regimes believe they 
have more to gain than to lose by challenging their opponents in 
cyberspace.
    At the operational level of conflict, states are incorporating 
cyber effects to support their military operations. As early as 2008, 
for instance, the Russian incursion in Georgia was accompanied by a 
denial-of-service attack against Georgia's government Internet services 
as well as the defacement of content on official web pages. We are not 
yet seeing true, combined-arms operations between cyber units and 
``kinetic'' missions, although we have spotted hints of this occurring 
in Syria and Ukraine as the Russians attempt to boost the capabilities 
and successes of their clients and proxies. In general, these and other 
conflicts feature cyber operations by all sides; Russian government 
sites, for example, have sporadically been attacked by sympathizers 
from Ukraine. Advanced states continue to demonstrate the ability to 
combine cyber effects, intelligence, and asymmetric warfare to maintain 
the initiative just short of war, challenging our ability to react and 
respond. Further, states clearly continue to leverage cyberspace to 
conduct significant, widespread, intelligence operations. Access to 
large volumes of data enable Insider threats; defending against these 
is a critical requirement of the current and future landscape.
    U.S. Cyber Command has seen indications that several states are 
investing military resources in mining the networks of the Department 
of Defense and its contractors. On a daily basis, state cyber actors 
coordinate and execute exploits and scans of the DOD Information 
Networks (what we now call the DODIN) as well as related governmental 
and private systems. These activities are often automated, and they can 
include well-crafted spear-phishing expeditions. We assess that the 
motivation behind these efforts is predominantly espionage, but the 
mere possibility that an adversary might establish a persistent 
presence in DOD networks is always a grave concern; such intrusions, 
when they occur, are quite disruptive and expensive to remediate.
    A still-greater concern is the persistence of adversary attempts to 
penetrate critical infrastructure and the systems that control these 
services. We assess that several countries, including Iran, have 
conducted disruptions or remote intrusions into critical infrastructure 
systems in the United States. Last year, for example, the Justice 
Department announced indictments of seven Iranians for cyber 
disruptions of U.S. financial institutions. The Attorney General 
reported that 46 U.S. companies together suffered tens of millions of 
dollars in losses as a result of the attacks. In addition, in late 2015 
a malware tool (Black Energy) identified in energy-sector systems 
worldwide was implicated in a malicious cyber attack against Ukrainian 
power systems. The Department of Homeland Security has been warning 
systems administrators at critical infrastructure sites in the United 
States and abroad about sophisticated cyber threats from malicious 
actors employing Black Energy. In December 2015, the cyber actors who 
had deployed Black Energy in Ukraine briefly cut off electricity to 
hundreds of thousands of Ukrainians, possibly in support of Moscow's 
aims in Crimea and Eastern Ukraine. Infiltrations in United States 
critical infrastructure--when viewed in the light of incidents like 
these--can look like preparations for future attacks that could be 
intended to harm Americans, or at least to deter the United States and 
other countries from protecting and defending our vital interests.
    Violent extremist organizations constitute another focus for 
USCYBERCOM. For over a decade, they have used the Internet to publicize 
their malicious actions to intimidate opponents and win sympathizers. 
As we know from the reporting and analysis of respected journalists and 
think tanks, groups like ISIS conduct sophisticated multi-media 
campaigns that spread its messages swiftly and globally. While ISIS 
uses the Internet to recruit followers and solicit contributions in the 
West, its media campaign also effects viewers closer to home in the 
Middle East, boosting morale among ISIS fighters, frightening 
opponents, and promoting the false narrative that the Arab future 
inevitably belongs to a radical Salafist brand of Sunni fundamentalism. 
This information campaign through cyberspace has directly and 
indirectly impacted Americans, inciting attacks on Americans and the 
citizens of our European allies, who have suffered even worse assaults 
than we have seen here. Legitimate Internet media outlets obviously 
have no interest in lending social spotlights to terrorists by hosting 
violence or propaganda material, and regularly remove these messages 
and advertisements when they spot them (or the content is brought to 
the companies' attention). Yet ISIS is resilient and persistent, and 
continues to spread its message. In addition, ISIS and other violent 
extremists communicate over encrypted channels to maintain command and 
control of their operatives and forces.
    Examples like these foretell an uncertain future. Several trends 
could complicate it still further, like the growing ``Internet of 
Things'' providing millions of new Internet-connected devices for 
adversaries to exploit. Today, consumers who can hardly keep up with 
patching their laptops and updating their cellphone operating systems 
are wondering how to upgrade the firmware on their home security 
cameras or Wi-Fi extenders to keep their families and homes from being 
victimized by malicious cyber actors. Technological developments are 
outpacing laws and policies, and indeed will have long-term 
implications that we have only begun to grasp.
                    u.s. cyber command in operation
    Hardly a day has gone by during my tenure at USCYBERCOM that we 
have not seen at least one significant cyber security event occurring 
somewhere in the world. This has consequences for our military and our 
nation at large. I want to reiterate what I told this Committee last 
year: every conflict around the world now has a cyber dimension. 
``Cyber war'' is not some future concept or cinematic spectacle, it is 
real and here to stay. The fact that it is not killing people yet, or 
causing widespread destruction, should be no comfort to us as we survey 
the threat landscape. Conflict in the cyber domain is not simply a 
continuation of kinetic operations by digital means, nor is it some 
Science Fiction clash of robot armies. It is unfolding according to its 
own logic, which we are continuing to better understand. We are using 
this understanding to enhance the Department's situational awareness 
and manage risk. In light of this trend, I am convinced that we as a 
nation created our own military capability in cyberspace not a moment 
too early. Our government and military have gone from wondering whether 
we have a systemic computer security problem to recognizing that the 
problem can spread in seconds.
    Let me explain how our Department of Defense cyberspace capability 
has progressed at USCYBERCOM over the last year. The Cyber Mission 
Force attained initial operational capability, with the last team 
reaching this milestone in October 2016. Our component commanders are 
moving out to ensure our people get training and certifications 
required to reach full operational capability for each CMF team. 
Achieving FOC, however, is not the ultimate goal. We must ensure the 
CMF also achieves and sustains a high level of readiness, just like any 
other military force.
    My first mission priority as Commander of USCYBERCOM remains the 
defense of the DOD information network, which encompass millions of 
network devices, hundreds of thousands of users, well over ten thousand 
network enclaves, the data they carry, and the networked technology 
embedded in weapon systems and other operational platforms. Real-world 
defensive cyberspace operations have sharpened USCYBERCOM's ability to 
detect, confine, and eradicate threats from DOD networks and systems. 
At the same time, adversary cyberspace operations have grown more 
sophisticated and assertive, resulting in intrusions that have strained 
the abilities and capacity of DOD cyber forces. With broad authorities 
to operate within DOD networks, USCYBERCOM has been able to experiment 
with operational models and tradecraft, improving the effectiveness and 
efficiency of defensive missions. Our techniques are being adopted and 
refined across the force, making intrusion response more predictable 
and effective. USCYBERCOM has improved DOD network defenses through the 
implementation of new authorities, innovative command and control 
structures, and operations informed by offensive planning and 
intelligence (particularly signals intelligence).
    USCYBERCOM executes its DODIN defense mission in part through Cyber 
Protection Teams (CPTs)--the defense-focused forces within the CMF. 
These teams have real-world experience dealing with sophisticated 
intruders in DOD systems. The CPTs conduct internal defensive measures 
to protect key DOD terrain in cyberspace, coordinating with local 
defenders in the cybersecurity service providers, including those 
aligned to USCYBERCOM under Global Force Management guidance. The CPTs 
work with system owners, administrators, and local network defenders to 
find vulnerabilities and hunt for intruders inside DOD networks. This 
approach embodies the Department's shift to an operational mindset. 
Should adversary activity be detected, CPTs track, confine, and expel 
malicious actors using time-tested doctrinal principles consistent with 
those employed in the other domains. CPTs share what they learn with 
other network defenders, offensive operations planners, and the 
Intelligence Community. USCYBERCOM's continual efforts to adapt to the 
shifting threat environment have resulted in considerable gains to 
DODIN security and resiliency.
    In addition, as the operational sponsor of the Joint Information 
Environment (JIE), USCYBERCOM is working with partners to improve the 
security of the DODIN. These efforts include implementation of Joint 
Regional Security Stack (JRSS) enterprise cybersecurity capabilities, 
integration of IT systems management into the cyberspace operations 
framework, and development of technical and operational frameworks that 
will enable establishment of comprehensive cybersecurity practices 
within DOD and mission partners.
    The Defense Information Systems Agency serves as DOD's ``Internet 
service provider'' and thus plays a vital role in securing and 
defending the DODIN. Its director is dual-hatted as the commander of 
one of USCYBERCOM's operational components, Joint Force Headquarters 
(JFHQ)-DODIN, which is tasked with directing and executing global DODIN 
operations and defensive cyberspace operations. This component oversees 
the Command Cyber Readiness Inspection (CCRI) process in collaboration 
with local network administrators. CCRIs help JFHQ-DODIN assess DODIN 
systems for compliance with cybersecurity directives and USCYBERCOM 
orders; inspections thus support USCYBERCOM and DOD Chief Information 
Officer-led efforts to improve the Department's cybersecurity 
accountability.
    USCYBERCOM works with the Services, NSA and the Defense Cyber Crime 
Center (DC3) to ensure the CPTs are optimally manned, trained, and 
equipped. This includes development and acquisition of new capabilities 
as technology advances; the building of realistic training 
environments; and resourcing and refining of new models for CPT 
deployment and operations. USCYBERCOM also seeks to enhance the 
Department's situational awareness of the status of the DODIN and 
adversary activities, to extend protection from the network level down 
to weapons systems, and to develop capabilities and common approaches 
for linking cybersecurity risk (beyond compliance) to mission assurance 
in order to inform warfighting decisions and mitigation efforts.
    USCYBERCOM's missions extend far beyond the defense of the DODIN. 
In particular, the Command supports the geographical and functional 
combatant commands in their operations and missions. This is the 
business of the USCYBERCOM's Cyber Combat Mission Force. The Cyber 
Combat Mission Force is the operational-level offensive forces of the 
CMF, comprising Combat Mission Teams (CMTs) and Combat Support Teams 
(CSTs), aligned to the combatant commands to support their execution of 
military operations. The CMTs and CSTs are manned, trained, and 
equipped by their parent services, which exercise oversight of the 
combat forces they generated through the Joint Force Headquarters 
(JFHQ) associated with each Service cyber component.
    USCYBERCOM is working to synchronize cyber planning and operations 
across the entire joint force. Since gaining the Secretary of Defense's 
approval for this proposal in early 2016, USCYBERCOM has implemented a 
process to allocate limited CMF resources among the commands as ``high-
demand, low-density'' military assets. Currently in implementation, 
this process will enable USCYBERCOM to balance national and 
operational-level priorities, enabling the Chairman of the Joint Chiefs 
of Staff to guide the former through the Command in a crisis while 
providing tailored capacity forward to support the combatant commands 
when a situation moves towards actual conflict. USCYBERCOM is also 
helping the combatant commands build cyber effects into their planning 
processes so that cyberspace missions are synchronized with operations 
in the other domains. Indeed, in some situations, USCYBERCOM is the 
supported command.
    Achieving Full Operational Capability in the Cyber Mission Force is 
our goal, but we acknowledge that reaching that milestone is only a 
capability metric and not a measure of overall readiness. CMF readiness 
is a shared responsibility between USCYBERCOM and the Services, and 
over the last 15 years of conflict we have recognized the costs of 
continuous operations and seen those costs grow the most in ``high-
demand, low-density'' units--like our CMF teams. We employ teams before 
they are FOC, which is comparable to employing fighter squadrons before 
they are fully manned or equipped. Achieving and sustaining readiness 
is going to require a comprehensive set of solutions, ranging from an 
agreed upon readiness model between USCYBERCOM and the Services, to 
ensuring the manpower depth necessary to accommodate professional 
development, technical proficiency, and career predictability. I am 
confident we will achieve Full Operational Capability by our 30 
September 2018 deadline, but I acknowledge that the true challenge will 
be sustaining the readiness of the CMF and the remarkable men and women 
who serve within the teams. We have a duty to them, and we must ensure 
that they are well trained, prepared, and mission-ready.
    USCYBERCOM is executing its missions to support operations against 
violent extremists, especially across the U.S. Central Command's area 
of responsibility (and is helping U.S. Special Operations Command's 
efforts as well). About a year ago, Secretary Carter facilitated this 
support by issuing an execute order that, among other things, helped 
USCYBERCOM by authorizing us to ``task organize'' for specific missions 
expected to last weeks, months, or longer. The result of this change 
was a new organization, Joint Task Force (JTF)-Ares, established by me 
as the Commander of USCYBERCOM in the spring of 2016 to coordinate 
cyberspace operations against ISIS. JTF-Ares' mission is to provide 
unity of command and effort for USCYBERCOM and coalition forces working 
to counter ISIS in cyberspace. The JTF model has helped USCYBERCOM to 
direct operations in support of USCENTCOM operations, and marks an 
evolution in the command-and-control structure in response to urgent 
operational needs.
    JTF-Ares has helped strengthen unity of efforts against ISIS across 
international coalition and domestic partners, reinforcing USCYERCOM's 
informal role as a hub for whole-of-government cyber planning and 
execution against terrorist organizations and targets. Cyber effects 
can be achieved at-scale and with remarkable synchronization when 
mission partners share plans, accesses, capabilities, and tactics in 
support of common objectives. USCYBERCOM, working with the National 
Counterterrorism Center (NCTC) and the various departments and agencies 
engaged in this campaign, is using opportunities such as the defeat-
ISIS campaign to build trust among operational partners.
    USCYBERCOM expects to make progress through 2018 in several key 
areas. The Command will complete the CMF build, work with DOD partners 
to equip the CMF, resource and refine command-and-control structures 
and processes, and develop policies, plans, and operational concepts 
that support national-level and joint warfighting needs. USCYBERCOM 
seeks with DOD and Intelligence Community partners to overcome 
organizational and technological challenges associated with supporting 
offensive operations at the strategic, operational, and tactical 
levels. Finally, USCYBERCOM will collaborate with allies and partners 
to enable collective defense and develop cyber ``response actions'' 
that provide options to decision makers from pre-crisis through kinetic 
operations across all phases of conflict.
    Defending the nation in cyberspace is complex in both technical and 
policy terms. Like all combatant commands, USCYBERCOM is authorized 
only on order from the President (or the Secretary of Defense if the 
President is unavailable) to defend against a threat to the nation that 
would qualify as a ``use of force'' under international law. The Cyber 
National Mission Force (CNMF) focuses on countering adversaries' 
malicious cyber activities against the United States and prepares to 
conduct full-spectrum cyber operations against adversaries when 
directed. The CNMF is building a force of National Mission Teams 
(NMTs), National Support Teams (NSTs), and National Cyber Protection 
Teams (N-CPTs). Partnering with NSA, the CNMF tracks adversary cyber 
actors to gain advantages that will enable the United States to 
preclude cyber-attacks against U.S. national interests. The CNMF is 
working with operational partners to develop and exercise the 
capabilities and operational concepts needed to enable combined and 
coalition operations (when authorized) in partnership with other 
government and appropriate private-sector partners.
    USCYBERCOM manages only a portion of the ``whole-of-Nation'' effort 
required to defend America's critical infrastructure. The Command works 
with civilian agencies under their authorities to help protect national 
critical infrastructure and to prepare for scenarios in which U.S. 
military action to defend the nation may be required. \1\ The Command 
is expanding its ties with the Reserves and the National Guard. Indeed, 
cyber response teams operating under Guard authorities can perform a 
variety of missions in support of state, local, and private entities 
(which operate independently under their own authorities). Recent 
legislation to incentivize information sharing will also help the 
Command and DOD to work more closely with the private sector in 
mitigating threats outside of government and military systems. The 
federal government has created a framework for implementing official 
channels to share information, and clarifying the lanes in the road for 
U.S. Government assistance to the private sector. Whatever USCYBERCOM's 
ultimate role in that process is determined to be, I continue to tell 
all audiences that we adhere strictly to the Constitution and law in 
guarding civil liberties and privacy.
---------------------------------------------------------------------------
    \1\ The Department of Justice (particularly the Federal Bureau of 
Investigation) is the lead for cyber-related investigations and law 
enforcement, while the Department of Homeland Security takes the lead 
for national protection and recovery from cyber incidents.
---------------------------------------------------------------------------
    The Command is increasing its efforts in the areas above in 
alignment with the 2015 DOD Cyber Strategy. The Department, as you 
know, is engaged in a broad effort to improve the security of its 
information enterprise and to build a culture of cybersecurity. Doing 
so requires measures well beyond hardening the network architecture, 
and it cannot be accomplished in just a year or two, even with 
unlimited resources. The strategy is to replace the old infrastructure, 
to harden what we are maintaining while increasing its capability, and 
to grow a workforce possessing outstanding cybersecurity awareness and 
practices. Beyond that, we must understand that determined adversaries 
can sometimes bypass even the best security, and thus we must build our 
skills, as well as an operational mindset, for defeating them in our 
own networks.
    These efforts, of course, depend on skilled, focused, and motivated 
people in a trained and ready force. USCYBERCOM tapped the expertise of 
NSA to deliver intensive training for cyber personnel, initially taking 
the lead in training operators from the Service cyber components who 
graduate to join the CMF teams. This hybrid arrangement will come to an 
end, with the Services resuming responsibility and authority for 
training CMF personnel at the end of 2018. In keeping with DOD's Total 
Force concept, the Reserve component and the National Guard will also 
help to build the force. This requires flexibility with organizational 
requirements and manning standards, but it is already helping to 
increase the manpower and expertise we can put against some of our most 
difficult challenges.
    USCYBERCOM is maturing its methods for identifying requirements and 
developing capabilities. The Command last year established a 
capabilities development team for performing this task, and that group 
has already done much good. It is doing so not only by working with 
industry, academia, and other agencies to identify promising ideas, but 
also in learning how to utilize the data we already generate from our 
own operations (particularly on DOD systems) to spot useful and/or 
anomalous patterns. The Command generally lacks NSA's authorities in 
acquiring the tools for such initiatives, but Congress recently 
authorized USCYBERCOM acquisition authority for up to $75 million each 
year through the end of fiscal year 2021 to rapidly deliver acquisition 
solutions for ``cyber operations-peculiar'' capabilities. We look 
forward to reporting to the Committee soon on how we are executing this 
authority.
    USCYERCOM has now matured to the point where it brings vital 
capabilities to the defense of American interests on a daily basis. In 
light of the increasing severity of cyber threats, Congress in the 
National Defense Authorization Act for fiscal year 2017 directed the 
President to elevate USCYBERCOM to the status of a full unified 
combatant command. Elevation implicitly recognizes the importance of 
cyberspace to our national security. I support this step, although the 
timing and process for elevation are being worked out within the 
Department, and we expect to have more details to report to the 
Committee as they emerge. We will pay particular attention to the 
implementation of the Act's provisions regarding authority for the 
acquisition of ``cyber operations-peculiar'' capabilities. As you know, 
the language in this section parallels that granted to U.S. Special 
Operations Command. USSOCOM's requirements, however, are not always 
congruent with those to support operations in the cyberspace domain, 
and thus authorities in the one field might not always be directly 
analogous to those in other. We are working with Committee staff to 
ensure that our implementation comports with Congress's intent.
    The recent National Defense Authorization Act in a separate 
provision also described some conditions for splitting the ``dual-hat'' 
arrangement, once that can happen without impairing either 
organization's effectiveness. This is another provision I have publicly 
stated I support pending the attainment of certain crucial conditions. 
I have offered this caveat because the challenges in cyberspace are 
some of the greatest facing America. Meeting tomorrow's threats 
requires leaders who can devote their time and energy to building the 
capabilities of USCYBERCOM and NSA while guarding the rights and 
liberties of U.S. persons protected by our Constitution. We have not 
yet matured the Command to a point where splitting the two hats would 
not functionally impair mission effectiveness. If that point is reached 
on my watch, I intend to keep the Committee fully informed of the 
conditions set for the split and how they are met.
    USCYBERCOM will also engage with this Committee on several other 
matters relating to the enhancement of the Command's responsibilities 
and authorities over the coming year. These would include enhancing the 
professionalization of the cyber workforce, building capacity and 
developing capabilities, and streamlining acquisition processes. Most 
or all of these particulars have been directed in recent National 
Defense Authorization Acts; and along with the Office of the Secretary 
of Defense for Policy and the Joint Staff, we will be talking with you 
and your staffs to iron out the implementation details.
                               conclusion
    Thank you for inviting me to talk with you today about U.S. Cyber 
Command and its work. The Cyber Mission Force approaching full 
operational capability, and USCYBERCOM is poised to become a mature 
unified combatant command. USCYBERCOM personnel are proud of the roles 
they play in this endeavor, and are motivated to accomplish the many 
missions assigned to them and overseen by the Congress, particularly 
this Committee. They work to counter adversaries and support national 
and joint warfighter objectives in and through cyberspace on a 
previously unattainable scale and in a sustainable manner. Innovations 
are constantly emerging out of operational necessity. These, if 
supported with agile policies, decision-making processes, capabilities, 
concepts of operation, and command and control structures, will help 
USCYBERCOM realize its potential to counter adversary cyber strategies 
in and through cyberspace. The Command's full-spectrum successes have 
validated concepts for creating cyber effects on the battlefield and 
beyond. Real-world experiences in meeting the requirements of national 
decision-makers and joint force commanders have driven operational 
advances that need time to mature. With the Cyber Mission Force now at 
initial operational capability, USCYBERCOM is demonstrating its 
contribution to comprehensive U.S. Government approaches to countering 
adversary strategies in and through cyberspace.
    The men and women of U.S. Cyber Command thank you for your support, 
both in the past and in the big tasks ahead of us. We understand that a 
frank and comprehensive engagement with Congress not only facilitates 
the support that allows us to accomplish their missions, but also helps 
ensure that our fellow citizens understand and endorse our efforts on 
their behalf. I have seen the growth in the command's size, budget, and 
mission. That investment of resources, time, and effort is paying off, 
and more importantly, is helping to keep Americans safer, not only in 
cyberspace but in the other domains as well. I look forward to 
continuing the dialogue over the Command and its progress with you in 
this hearing today and over the months to come. Now I would be happy to 
address your specific questions and concerns.

    Chairman McCain. Thank you, Admiral.
    We have seen another Russian attempt to affect the outcome 
of the election in France. Do you see any slackening, a 
reduction in Russian/Chinese efforts to commit cyber attacks 
and even affect elections?
    Admiral Rogers. No, I do not.
    Chairman McCain. Have you seen any reduction in Russian 
behavior?
    Admiral Rogers. No, I have not.
    Chairman McCain. The Defense Science Board told this 
committee, at least for the next decade, the offensive cyber 
capabilities of our most capable adversaries are likely to far 
exceed the United States' ability to defend key critical 
infrastructures. Do you agree with that assessment of the 
Defense Science Board?
    Admiral Rogers. I agree that the offensive side in general 
has the advantage over the defense, which is why the ideas of 
deterrence are so important here. How do we shape and change 
opponents' behavior?
    Chairman McCain. In order to do that, we would have to have 
a policy followed by a strategy. Right?
    Admiral Rogers. Yes, sir.
    Chairman McCain. Do we have that now?
    Admiral Rogers. No, sir, but the new team is working on 
that. I want to make sure we all understand that.
    Chairman McCain. The check is in the mail?
    So do you agree we should--we have got the Federal Bureau 
Investigation as the lead for law enforcement. The Department 
of Homeland Security is the lead for critical infrastructure 
and defending government computer networks. The Department of 
Defense is the lead for defending the Homeland, defending 
military computer networks, and developing and employing--is 
the status quo sustainable?
    Admiral Rogers. It is sustainable, but my question is: is 
it the most effective way to generate outcomes?
    Chairman McCain. Is it the most effective? That is a better 
question. Thank you.
    Admiral Rogers. Yes, sir. My recommendation, my input to 
this process has met our challenges. So we built a foundation 
with a series of very specialized and distinct 
responsibilities, and yet I think what experience has taught us 
over the last few years is our ability to respond in a much 
more integrated, focused way is really the key to success here. 
I think that is the challenge. How do we more formally 
integrate these capabilities across the Government?
    Chairman McCain. Do we need a cyber corps?
    Admiral Rogers. I am not a proponent. Within the DOD, I am 
not a proponent of the idea of a separate cyber force or 
service, and that is for the following reasons. In my 
experience, to be successful in cyber, you not only need to 
understand the technical aspects of this, but you need to 
understand the broader context in which cyber evolutions occur. 
Somewhere in the world, there is a man or woman sitting on a 
keyboard directing an operation. My concern is if we went with 
a very unique service approach to this, we would generate a 
force that was incredibly technically proficient but not 
necessarily deep in understand of the broader context. I think 
using a service-based model is a stronger way to go about doing 
this.
    Chairman McCain. Well, as I mentioned in my opening 
remarks, 127, whatever it is, in the Air Force. Not a single 
one stayed in cyber. Are you getting the kind of cooperation 
that you need to have trained people at work in your command?
    Admiral Rogers. I have talked to all the Service Chiefs 
personally over the course of the last year on this topic. I 
have one service that I am particularly highlighting to them 
saying, look, we need to change the policies here. What I have 
suggested to the services is the Cyber Mission Force, that part 
which I am responsible for, I acknowledge is only one part of 
the Department's broader cyber needs.
    Chairman McCain. Was that message received by the United 
States Air Force?
    Admiral Rogers. They are clearly still working their way 
through this. They have a broader set of challenges with 
respect to manpower at large. I personally had a chief of staff 
of the Air Force come out to Fort Meade. I sat him down and 
said here is what I am seeing. Do I have the right picture? Is 
this accurate? He has come back to me and said, no, Mike, you 
have an accurate sense that we are not where we need to be, and 
here is what I am trying to do to get there. My job is to help 
him and also to keep the pressure on to make sure we sustain 
this.
    Chairman McCain. In your job, you have to look at 
scenarios. Give us the best scenario and the worst scenario.
    Admiral Rogers. For?
    Chairman McCain. For cyber attacks on the United States.
    Admiral Rogers. The worst worst case scenario in my mind 
has a couple dimensions to it: outright destructive activity 
focused on some aspects of critical infrastructure----
    Chairman McCain. Including space?
    Admiral Rogers. It could be space, and then in addition to 
outright destruction, the other thing that concerns me--there 
are two other things. The second thing would be, in terms of 
worst consequence, do we see data manipulation on a massive 
scale. Most cyber activity data has been penetration and 
extraction.
    Chairman McCain. Like changing voting rolls.
    Admiral Rogers. Yes. So what happens if we go in and we 
change data? That is a very different kind of challenge for us.
    Then thirdly to me the other element of a worst case 
scenario, what happens when non-state actors decide that cyber 
now is an attractive weapon that enables them to destroy the 
status quo. That is kind of the worst end, if you will.
    Chairman McCain. The best.
    Admiral Rogers. The best is----
    Chairman McCain. We develop a policy followed by a 
strategy----
    Admiral Rogers. We continue to make improvements both in 
capacity, as well as the broader deterrence piece.
    Chairman McCain. Thank you, Admiral.
    Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman.
    Again, thank you, Admiral.
    As you have pointed out and I think we both pointed out, in 
terms of technical aspects of cyber, detecting intrusions, 
preventing intrusions, penetrating other networks, Cyber 
Command has been in the forefront. But this issue, which you 
allude to, of cognitive operations, information warfare, 
changing public opinion, et cetera--have you been tasked to 
conduct such operations--to prepare to conduct such operations?
    Admiral Rogers. No, we have not. That is not right now in 
our defined set of responsibilities per se.
    Senator Reed. Is it in anybody's federal responsibility to 
your knowledge?
    Admiral Rogers. I will not get into the specifics in an 
unclassified forum. There are some things we are doing right 
now, for example, in the fight against ISIS [Islamic State of 
Iraq and Syria] with combatant commanders in this regard. I do 
not want to go any deeper, if I could.
    Senator Reed. That is fine.
    Admiral Rogers. But I think one of our challenges is if 
information is now truly going to become a weapon almost in 
many ways, how are we going to optimize ourselves to deal with 
this world? We had much of this skill. If you go back to the 
Cold War, when I first started my journey in uniform, we had 
extensive infrastructure, extensive expertise. As the Soviet 
Union collapsed, we decided perhaps that expertise is not 
required. We did away with many of the institutions. Many of 
the individuals who had the skill sets are no longer with us. I 
think we need to step back and reassess that.
    Senator Reed. So I would assume if you have not been tasked 
to do that, that your expertise in cognitive warfare is rather 
limited in terms of what you just mentioned, the skill sets, 
the personnel.
    Admiral Rogers. Yes, sir. I would be the first to admit it 
is not what our workforce is optimized for.
    Senator Reed. Certainly not comparable to what we are 
perceiving from other actors around the globe.
    Admiral Rogers. Certainly not on a day-to-day basis.
    Senator Reed. Within DOD, my knowledge suggests that SOCOM 
[Special Operations Command] has been given the lead on 
information operations.
    Admiral Rogers. Broadly.
    Senator Reed. Broadly. Is there any integration with Cyber 
Command?
    Admiral Rogers. Oh, we work very--SOCOM is one of those 
partners that I mentioned. So we do work very closely, General 
Thomas and I.
    Senator Reed. I think the other issue too--and it has come 
up in the context of all of our comments this morning--is that 
this is a mission that goes across several different 
organizations. In fact, we have heard comments about how the 
State Department in some areas has--go back to the Cold War. 
They were doing the Voice of America. They were doing all the 
radio towers. It is a new world. They do not have either the 
expertise or the resources, et cetera. So no one seems to be 
doing this aggressively. Is that a fair estimate?
    Admiral Rogers. Certainly we are not where we need to be.
    Senator Reed. In terms of Russian operations, were you 
aware of the penetration of the election in 2016 in terms of 
the active involvement of Russian entities directly or 
indirectly?
    Admiral Rogers. Yes, sir.
    Senator Reed. What actions did you take? Just simply 
informing your superiors? Was that it?
    Admiral Rogers. So here is where I have to differentiate 
between my role as Commander of Cyber Command and the Director 
of the National Security Agency. As the Director of the 
National Security Agency, as I have publicly testified before 
other committees, when NSA first gained initial knowledge in 
the summer of 2015 that the Russians were engaged in an effort 
to access political institutions, we informed the Federal 
Bureau of Investigation, which has overall responsibility to 
inform those organizations. As the Director of NSA, I do not 
deal directly with them.
    In turn, I then make sure that DOD and other elements 
within the government have that awareness. That is where my 
role as Cyber Command comes in. So at Cyber Command, I become 
aware of efforts in terms of intrusions and hacks directed 
against U.S. infrastructure. I turn to myself and make sure 
that the DOD system is optimized to withstand--because they 
were coming after DOD at the same time. In addition, we 
coordinate with the Department of Homeland Security. Is there a 
requirement? Are you looking for DOD? For example, if we had 
defined the voting infrastructure as critical infrastructure, 
then under the set of duties assigned to Cyber Command, had the 
President or the Secretary of Defense determined that DOD 
needed to insert themselves in this, I would have been tasked 
to do that at Cyber Command.
    Senator Reed. If you had been tasked, you would have been 
prepared technically to try to disrupt these operations.
    Admiral Rogers. Yes.
    Senator Reed. Then again, given--I am sure we have all been 
looking back. The after-action reports are still being written 
about 2016. In your estimate, we have to be much, much better 
prepared for 2018 and beyond. Is that fair?
    Admiral Rogers. I apologize, Senator.
    Senator Reed. After looking at the experience in 2016, as 
you just described, knowledge of penetration, attribution to a 
foreign state, going after key systems in this country, some of 
which have now been designated as critical infrastructure, we 
have to be much, much better prepared for 2018, 2020, and 
beyond.
    Admiral Rogers. I agree. I apologize. I did not hear that.
    Senator Reed. No, no. That is fine, sir. Thank you very 
much.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Admiral Rogers, it would be unfair for me 
to ask you to evaluate the article I showed you this morning 
because you have not read it yet. The title pretty much says 
it. It says--it appeared this morning--are cyber crooks funding 
North Korea's nukes? How does Kim Jong-un come up the billions 
to pay for nuclear tests. Increasingly successful online bank 
heists provide a lot of the funding. Does that make sense to 
you?
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Admiral Rogers. I am not going to get into specifics in an 
unclassified forum, but we have publicly acknowledged we have 
seen the North Koreans use cyber in a criminal mechanism, if 
you will, to generate monetary resources.
    Senator Inhofe. It has to come from somewhere.
    Admiral Rogers. Yes, sir.
    Senator Inhofe. When you look at it, you kind of 
eliminate--you come down to that conclusion that they might be 
right on this.
    Admiral Rogers. Although I would highlight this is only one 
element of the North Korean broader attempts to generate 
revenue and get it back to North Korea.
    Senator Inhofe. Well, you know, when we look and see the 
growth in this thing from 2006 to 2015, the number of cyber 
attacks has climbed by 1300 percent. We have all visited about 
the policy or the lack of policy in making the decision. There 
is some thought that maybe there is too much authority at the 
top. It was General Goldfein that was quoted in December of 
last year. Actually before this committee, he said if we want 
to be more agile, then the reality is that we are going to have 
to push decision authority down to some lower levels in certain 
areas. Does that make sense?
    Admiral Rogers. Yes, sir. We have highlighted in the cyber 
arena to Secretary Mattis, as he has assumed his new 
responsibilities, I think this is an important area that we 
need to reassess particularly within the cyber arena.
    Senator Inhofe. Just a matter of a few weeks ago, we 
happened to be in Israel and we met and talked to their 
national cyber director, Dr. Eviatar Matania. For a cyber 
subcommittee meeting, he actually came over and we had--it was 
Senator Rounds who was with me at that time. Of course, he 
chairs the subcommittee, and we had a meeting that I think was 
pretty productive. Dr. Matania was pretty careful not to say 
that perhaps they might be doing something better there than we 
are doing. He said it is much more complex in the United States 
because of the size and all of that. But he also pointed out 
three things that were significant. I just wonder if you had 
any thoughts or if you studied their system and maybe some 
other countries too to see what they are doing.
    Admiral Rogers. With the case of Dr. Matania, there is a 
reason why every time I am in Tel Aviv, I see him, and every 
time he is in the United States, he sees us.
    Senator Inhofe. I knew that was the case. He said the same 
thing.
    Admiral Rogers. So we can learn from each other. In fact, 
we are talking about some potential test cases that we could 
use with a new team in place. So we will see how that plays out 
over time. But I look to him.
    One of the things that I have learned in my journey in 
cyber is there is no one single organization, group, or entity 
that has all the answers. So it is about the power of 
partnerships here and how do you create a system that enables 
you to gain insight and knowledge from a whole host of 
partners, some within the United States, outside the United 
States, within the government, the academic world, industry. He 
is one example of the power of that.
    Senator Inhofe. I kind of got that impression too.
    When General Alexander was in that position, he spent some 
time out at the University of Tulsa. I know there are many 
other schools too. The chairman asked the question, are we 
having access to the people that are going to become necessary 
to staff this new, very serious problem that we have? Is there 
an effort going back to some of these schools and to promote 
the programs as were promoted in that particular university?
    Admiral Rogers. Oh, there is. Between NSA and Cyber 
Command, we have relationships right now with over 200 academic 
institutions around the United States because that is in part 
the future workforce for us, although one thing I try to 
highlight is be leery of creating a cyber force where everyone 
is cookie cutters. We need to get a broad range of skills and 
experience here. Some people are going to be really good at 
this, and they will not necessarily have advanced education, 
but they have spent much of their personal life in this. So we 
have got to build a construct where we can get that full 
spectrum of capability.
    Senator Inhofe. We look and we see what some of these 
countries are doing. Putin, when he came in after their 
parliamentary election and they did not have any communists for 
the first time in 86 years--he started doing things in addition 
to just the coming in and declaring a level of warfare. He also 
started working. Apparently, according to Poroshenko, they have 
used cyber capabilities to attack the Ukrainian Government more 
than 6,500 times over the last 2 months. So this is something 
that is happening. It is happening all over the world, and you 
see something like the example in Ukraine that did not take any 
lead time, and all of a sudden, they are already inflicting 
that type of harm. I am sure that you are right on top of 
everything that is happening with this.
    Admiral Rogers. We are trying.
    Senator Inhofe. Thank you very much.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Thank you, Admiral, for your public service.
    In response to Senator Reed, you said that you were aware 
of Russian attempts to interfere in our election. Were you 
aware of Russian communications with members of the Trump 
campaign team?
    Admiral Rogers. Now you are into my role as NSA. I am here 
as Cyber Command. I am not going to publicly get into that, 
sir.
    Senator Nelson. I understand your reluctance, but I also 
see you not just Cyber Command. I see you as the NSA Director. 
Okay.
    The chairman mentioned and asked you is this what we see--
this behavior--is this a new normal, to which you responded I 
think somewhat regretfully yes.
    Admiral Rogers. Yes, sir.
    Senator Nelson. How should we counter these kind of cyber-
enabled information operations, and who has the responsibility 
for these kind of operations?
    Admiral Rogers. In terms of Russian execution of the 
operations or our response? I apologize. I am trying to 
understand.
    Senator Nelson. Both.
    Admiral Rogers. Both. Well, in the case of the Russians, 
again if you refer to the publicly available intelligence 
community assessment, we identified multiple Russian security 
elements that were involved in this campaign.
    With respect to what should we do, the first is I think we 
need to publicly out this behavior. We need to have a public 
discourse on this. Those nation states, groups, or individuals 
that would engage in this behavior--they need to know that we 
are willing to publicly identify them and publicly identify the 
behavior.
    Secondly, I think we have got to make this much more 
difficult for them to succeed. That means hardening our 
systems, taking a look at our election process, which is not 
Cyber Command's role, but I think broadly we need to look at 
this end to end and ask ourselves what changes do we need to 
make in this structure.
    Thirdly, I think as a society, as a Nation, we need to 
acclimatize ourselves to the idea that we are, in many ways, 
back into a time frame of disinformation, false news--it goes 
to Senator Reed's point--manipulation of media. You got to be a 
much more discerning reader, so to speak, in many ways in the 
world that we are living in right now.
    Lastly, I think we also need to make it very clear to those 
nation states or groups that would engage in this behavior it 
is unacceptable, and there is a price to pay for doing this.
    Senator Nelson. At this point, it sounds, listening to the 
answers to the previous questions, that we are really in a 
position that we cannot prevent a cyber attack on things like 
our critical infrastructure.
    Admiral Rogers. Again, when we say prevent, it is one of 
the reasons why deterrence becomes so important. The goal 
should be we want to convince actors you do not want to do 
this. Regardless of whether you could be successful or not, it 
is not in your best interest, and you do not want to engage in 
this behavior.
    Senator Nelson. In a different setting that is secure, 
would you share with us where we have either, under the threat 
of an attack or an attack, deterred, the word you just used--
``deterrence''----
    Admiral Rogers. Yes, sir. I can share with you in a 
classified setting where we have either driven them out of a 
network or----
    Senator Nelson. That would be very helpful.
    Now, would you consider a critical infrastructure voter 
registration rolls?
    Admiral Rogers. I think that one of the challenges--if you 
go back to the process we used to identify the current 16 
defined critical infrastructure areas in the private sector, we 
tended to look at that from a very industrial--is there an 
output associated with it? One of the things I think that we 
need to be thinking about now is not that an output is not 
important because an election generates an output, but does 
data and information exist in areas that is of critical 
consequence to us as a Nation. We really did not look at it 
that way in simplistic terms, and I think we need to. We need 
to reassess it.
    Senator Nelson. We sure better because if someone shows up 
to vote and suddenly they find out they are not a registered 
voter because, indeed, it has been attacked and the data has 
been manipulated and taken them off the rolls, that is pretty 
serious.
    Admiral Rogers. Yes, sir.
    Senator Nelson. That is critical infrastructure.
    Admiral Rogers. Yes, sir. We need to take a look at that 
definition.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you.
    Let me follow up on the chairman's statement with regard to 
the Air Force cyber officers not remaining in that field of 
work. Would one of the reasons be because they do not view it 
as a good career path?
    Admiral Rogers. No. If I could say when we say not in that 
field, the experience we are seeing is they are taking officers 
that are rolling out of the Cyber Mission Force, that structure 
that I am responsible for, and employing them in other areas in 
cyber in the Department. That is why I say part of the 
challenge, if you are a service, you have a wide spectrum of 
cyber requirements beyond just what Cyber Command is 
responsible for. It is why I am trying to make the argument 
with the Services what we need to do is--and I have talked to 
them and said, look, I think something on the order of a third 
should stay with us, the rest we should then look how do we put 
them elsewhere with this within this broader cyber enterprise 
to build the cyber level of expertise across the Department.
    I do not want to make it sound like what the Air Force is 
doing is just ripping people, once they finish their 3 years 
with us, so to speak, and then making them airplane mechanics, 
for example. That is not what we are seeing at all.
    Senator Wicker. Okay. For the third you would like to keep, 
do you think that is a good way to get to be a four-star?
    Admiral Rogers. Oh. Do you mean could you build a career 
over time?
    Senator Wicker. Right.
    Admiral Rogers. Clearly in the military we are moving into, 
I am not the last person who is going to be doing this as a 
four-star I do not think.
    Senator Wicker. With regard to the cyber service, which you 
are doubtful about, do I understand Britain does have such a 
cyber force?
    Admiral Rogers. No. Their structure is less a cyber service 
and more a combination of active as well as significant 
reserves.
    Senator Wicker. Is anybody trying this? Are any of our 
allies trying this?
    Admiral Rogers. There is nobody right now who has really 
gone to a single cyber service. Most are trying to take--within 
the existing service structure, can you create a dedicated work 
specialty, so to speak, where that is what you do for your 
career. That is what is being done by most nations around the 
world.
    Senator Wicker. Well, keep us posted on that.
    Now, on page 2 of your written testimony, you say advanced 
states continue to maintain the initiative just short of war, 
challenging our ability to react and respond.
    So what constitutes an act of war in your opinion or in 
terms of the policy of the agency?
    Admiral Rogers. So, first, I am not a lawyer and I am not a 
policy individual. That question at its heart is about legality 
and policy.
    It is clear that we do not--and not just the United States. 
I would argue broadly internationally we have not yet reached a 
broad consensus on how you would define in clear, actionable 
terms what an act of war within the cyber arena looks like. To 
date----
    Senator Wicker. How are we going to do that?
    Admiral Rogers. We are going to get our policy people 
together. We are trying to discuss this broadly. Again, it is 
outside my lane, but I know we are involved in broad 
discussions both internally within the U.S. Government, as well 
as with foreign partners, about how we develop a broader 
consensus on that.
    Senator Wicker. Well, help us out, though, because it may 
not be in your lane. You are not a lawyer you say. But you 
would certainly be one of the first people I would ask in terms 
of what sort of act in your judgment would go beyond this 
threshold of war.
    Admiral Rogers. Personally for me, what I look to do is 
could we define a set of criteria, intent, impact, the tactics 
or techniques that were used, for example--could we develop a 
set of very specific criteria that would help us define this 
rather than this broad--``nebulous'' is the wrong word because 
it implies people are not really focused on it, but this rather 
general kind of conversation we often tend to find ourselves 
in. I am trying to mentally work myself through how could we 
get this down to a more specific set of attributes that would 
then help us. I see those attributes that, therefore, would be 
defined as an act of war as an example.
    Senator Wicker. One other thing. You say technical 
developments are outpacing laws and policies. We certainly find 
that in the commerce area also.
    But do you need anything new in this next NDAA [National 
Defense Authorization Act] that you do not have now?
    Admiral Rogers. Specific to the NDAA in broad terms, my 
input to the process has been we need to reassess authorities 
and delegation. We need to take a look at do we have the right 
investments in manpower. Are we investing in the right 
capabilities? I am very honored that the Department has focused 
on this mission. There should not be any doubt in anybody's 
mind. There is focus on this mission set. I am the first to 
acknowledge cyber competes with a broader range of priorities 
and needs. But the argument I am trying to make is within those 
priorities, I think cyber is pretty high and we need to focus 
the investment and prioritize it and we cannot be willing to 
accept 5 to 10 years for development cycles, whether it is 
getting the right people, whether it is training them. That is 
just not going to get us where we need to be.
    Senator Wicker. To the extent that laws and policies are 
being outpaced, tell us what you need. Let us know what you 
need.
    Admiral Rogers. Yes, sir.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Following the line of questioning by Senators Nelson and 
Reed, one of the issues raised by Russian intervention in our 
election is how our government as a whole responds to cyber 
attacks and how it escalates its response. Do you believe that 
there is a coherent plan in place to allow the Federal 
Government, in coordination with state and local governments, 
to respond to major cyber attacks on the country and to 
escalate the response as appropriate?
    Admiral Rogers. To be honest, Senator, I do not know enough 
to accurately answer the question because some parts of that 
strategy would be outside my purview, and I am just not smart 
about all the--I am not trying to be a smart ass, but part of 
this is just outside my knowledge. I am just not in a position 
to say categorically yes or no.
    Senator Gillibrand. I was concerned by your earlier 
responses that your strategy is deterrence because I do not see 
how deterrence is going to work with regard to Russia since we 
have seen a continuation of an interest on their part to hack 
our systems and hack other countries' systems and their 
elections. I guess what I am looking for from you is leadership 
in coordination with other government agencies throughout the 
U.S. Government to be prepared for our next election.
    Admiral Rogers. Oh, yes, ma'am. I am part of this.
    If I could, I do not think you heard me say that I thought 
our strategy was deterrence. What I thought at least I 
communicated was deterrence should be a part of a broader 
strategy. It should not be the only thing. I am the first to 
acknowledge that.
    Senator Gillibrand. Do you think particularly the 
transition between private companies and a government 
response--are there the authorities in place to accomplish 
these transitions effectively? If not, what kind of authorities 
might you need?
    Admiral Rogers. I do not know if it is--there is certainly 
an authorities aspect to it, but part of this, I am wondering, 
is cultural. So the government comes to a private entity. You 
saw this in the Russian hack scenario, and the Government 
informs this private entity the Russians have penetrated your 
system. Here is where they are. In some cases, the responses 
are, hey, we want to work with you. That is great. Thanks. Can 
we come back? In some cases, it is thanks very much, and we 
never hear anything. In some cases, it is I do not believe you. 
In some cases, it is that is not the role of the federal--you 
saw this play out in, for example, some states' response to the 
election----
    Senator Gillibrand. Correct.
    Admiral Rogers.--where some states came back and said, hey, 
look, that is your guys' role.
    Senator Gillibrand. That is the testimony we have heard in 
a few hearings now. So I am highly concerned that if you do not 
have the authority or some aspect of the Federal Government 
does not have authority to say to a secretary of state, we 
recognize it is a state's right to run elections. We recognize 
that you chose the technology that you want to pursue. We 
recognize this is a states rights issue. But if you do not have 
a level of sophistication that has been certified as cyber-
protected, it is not adequate.
    So what I really hope you can come to this committee with 
is a list of authorities you might need to put in place before 
the next election because it is not adequate to defer this to 
any secretary of state in any given state that they think they 
are covered. We need assurances that they are covered by the 
most highly sophisticated cyber experts in our Government. I 
think a lot of that cyber expertise is being developed by the 
Department of Defense.
    Admiral Rogers. Yes, ma'am.
    Senator Gillibrand. But I think your leadership and 
coordination is so necessary.
    Admiral Rogers. Yes, ma'am. Please, I do not dispute that 
at all. Much of what you are asking me, though, really falls 
under the Department of Homeland Security, and I do not want to 
speak for DHS because Secretary Kelly should be able to speak 
for himself.
    I do acknowledge, particularly if we were to define this as 
critical infrastructure, clearly DOD has a role here.
    Senator Gillibrand. Agreed.
    Admiral Rogers. There is no doubt about that. Yes, ma'am.
    Senator Gillibrand. With regard to the most recent French 
election, we saw that in that election emails of the successful 
French candidate, Emanuel Macron, were dumped online after a 
previous hacking. There was also a rumor of campaigns launched 
against him on the Internet, and the head of the German 
domestic intelligence agency accused Russia of hacking the 
Bundestag in preparation for Germany's upcoming presidential 
elections.
    How can the United States leverage our cyber and other 
capabilities to prevent Russian interference in not only our 
elections but those of allies and partners? Should we have a 
role? What capabilities does CYBERCOM bring to the table to 
help deal with these type of threats?
    Admiral Rogers. So this is much more in my role as the 
Director of NSA than Cyber Command.
    But if you take a look at the French elections, for 
example--again in an unclassified hearing, I am not going to 
get into specifics. But we had become aware of Russian 
activity. We had talked to our French counterparts prior to the 
public announcements of the events that were publicly 
attributed this past weekend and gave them a heads-up, look, we 
are watching the Russians. We are seeing them penetrate some of 
your infrastructure. Here is what we have we seen. What can we 
try to do to try to assist?
    We are doing similar things with our German counterparts, 
with our British counterparts. They have an upcoming election 
sequence. We are all trying to figure out how can we try to 
learn from each other, and that is much more my NSA role than 
in my Cyber Command role.
    Senator Gillibrand. Thank you, Admiral.
    Admiral Rogers. Yes, ma'am.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Admiral, for being here today.
    As you know, there has been some debate about our use of a 
geographically based counterterrorism strategy where legal 
authorities to conduct operations depend considerably on where 
they take place. To what extent are your operations in 
cyberspace similarly dependent upon the declared areas of 
active hostilities?
    Admiral Rogers. So that is an issue for us. Authority is 
often granted by a defined geographic space. The point I try to 
make to policymakers is the challenge in the cyber arena, the 
infrastructure--let us take ISIS, for example--that ISIS might 
be using is not necessarily physically in Syria and Iraq, but 
is in other areas. We need to be able to have an impact on 
that. I apologize. I do not want to go into this broadly in an 
unclassified forum. But we have that challenge. Yes, ma'am.
    Senator Fischer. Are you bound then by the limitations that 
are set forward in the presidential policy guidance?
    Admiral Rogers. Oh, yes, ma'am. I have to meet PPD-20, for 
example.
    Senator Fischer. So when you are looking at that and we 
look at the interconnectedness of the nature of cyberspace, so 
what impact does that have on your operations? Do you have the 
necessary ability to meet the requirements of the combatant 
commanders, the geographic combatant commanders?
    Admiral Rogers. Not as fast as I would like. Again, I am 
not going to get into the specifics in an open forum.
    But some of the things we are doing against ISIS, this very 
issue came to a bit of a head. We were able to work it out 
through the interagency process, and we were granted the 
authorities to execute some of the ongoing activity that we are 
doing against ISIS that extends beyond the immediate physical 
environment of Syria and Iraq. But I am the first to 
acknowledge it was not the fastest process in the world. It was 
a very complete process I am the first to acknowledge that.
    Senator Fischer. Do you have suggestions for any changes 
that Congress needs to make in order for you to respond----
    Admiral Rogers. Before I go to Congress, I am trying to 
have a dialogue with my own immediate bosses about so what 
might such a framework look like, and I think I owe them time 
to come to their own conclusions first.
    Senator Fischer. I understand that that presidential policy 
from 2013 is being reviewed by the Department. Is that correct?
    Admiral Rogers. Again, it is not a Department document. It 
is a presidential document.
    Senator Fischer. Is the Department reviewing it?
    Admiral Rogers. We are broadly looking at cyber authorities 
right now at large. Again, I provided an input to the Secretary 
with, hey, sir, here are my views on what are some of the 
things that we might want to look at.
    Senator Fischer. So CYBERCOM is involved in that review. 
Based on your experience, where do you think improvements 
should be made?
    Admiral Rogers. Well, the positive side for me is 
everything I am hearing from the current team is they 
acknowledge that the structures that are in place are not fast 
enough. That is a good step for me because I am not spending a 
lot of time in a debate. Now it is, okay, so what do we do. If 
you accept that premise, what should we do?
    Again, because that is an ongoing topic of discussion, I 
would just rather not publicly get into this. I think I owe 
them the time for them to come to their conclusions, although 
they are reaching out to us. I have no complaints in that 
regard.
    Senator Fischer. Do you anticipate that the Secretary will 
be bringing forward to this committee any conclusions that are 
made then?
    Admiral Rogers. I do not know, ma'am. I do not want to 
speak for the Secretary.
    Senator Fischer. Okay.
    Admiral, in testimony before the House Armed Services 
Committee in 2015, you mentioned an unresolved question about 
applying, quote, DOD-generated capacity in the cyber arena 
outside the government in the private sector. Can you elaborate 
on this? Specifically, what type of capacities do you believe 
would be beneficial, and what kind of gaps are you trying to 
fill?
    Admiral Rogers. So it goes to some of the points that many 
of you made already this morning about, for example, if we are 
going to defend critical infrastructure, DOD is going to 
execute a mission and defend critical infrastructure. One of 
the points I am trying to make is I do not want to show up in 
the middle of a crisis for the first time I have interacted 
with some of these sectors. Just my experience as a military 
individual teaches me discovery, learning while you are moving 
in contact with an opponent is a painful way to learn. 
Increased loss. It takes so much more time, and you are not 
effective and efficient.
    The argument I am trying to make is building on the sector 
approach with critical infrastructure, which I think is very 
sound, can we not create standing mechanisms where I, the DOD, 
DHS, the private sector can operate 24/7 and operate with, hey, 
so what are we all seeing out there.
    Senator Fischer. Do you support the deployment of 
government sensing capabilities on the private sector?
    Admiral Rogers. In a perfect world, what I would probably 
prefer would be could we create a structure where the private 
sector could share the--because they are putting sensors, 
putting telemetry on their networks. Could you not share that 
with us rather than us go in and do it? My first recommendation 
would be could we not create a mechanism where we can take 
advantage of the investments and the capabilities the private 
sector is already making.
    Senator Fischer. Can we do that now?
    Admiral Rogers. In some areas, we do that now. But I want 
to make it much more institutionalized and much more real time 
for me anyway.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    The first question, Admiral, for the record. We have been 
having these hearings now for 4 years, and we talk about the 
problem and everybody is absolutely convinced that this is a 
very serious problem. I would appreciate it, given the fact of 
the depth of your knowledge and the work that you do, if you 
could supply for the record the five things you think we should 
do. Talking about it is important, but action. What are the 
five actions? If you would think about it, have some of your 
smart people think about it, whether it is legislation or 
regulation or new relationships, communication, I think all of 
us would find that helpful. This is an echo of Senator Wicker's 
question earlier.
    [The information referred to follows:]

    [Deleted.]

    Senator King. Second, we talk about this. We talk about 
this, we have got to approach this with a whole-of-government 
approach. I really think the term should be ``whole-of-
society.''
    Admiral Rogers. Yes, sir.
    Senator King. Because this is an odd situation where you 
have got government for sure, but the vulnerable elements are 
in the private sector, the electric grid, the financial system, 
the gas pipeline system. We had a situation--I think it was in 
2011--where there was a cyber bill. It was regulatory. It would 
have applied to the private sector. It failed. There was great 
resistance in the private sector to a regulatory approach.
    We do not ask the private sector to defend themselves 
against Russian bombs or missile attacks from North Korea. We 
do that. What about a system whereby we work with the private 
sector to assist them financially in installing the kind of 
defensive measures that might be important, and in exchange, 
they would get perhaps some limitation of liability. Of course, 
they would get free stuff. The question is how do we do that 
without them just taking their foot off the gas and not 
protecting themselves.
    Admiral Rogers. I mean, certainly incentivizing behavior 
generally tends to produce better outcomes in our society than 
the penalization piece. It is a much broader issue than me.
    But I think the core point you raise is the point I was 
trying to make with Senator Fischer. Traditionally in our 
society, we often have very strong walls between what is a 
private function and what is a government function. I think 
cyber shows that much of what we are seeing is a national 
security issue, and therefore, it requires a whole-of-Nation 
approach to how we are going to handle this.
    Senator King. Which involves new levels in creative 
thinking about how to interface between the government and the 
private sector because we could have a perfect government 
system, but if Wall Street goes down, it is going to be chaos.
    Admiral Rogers. I agree.
    Senator King. On the issue of policy, Senator Rounds and I 
supported an amendment that got into the National Defense Act 
last year that essentially said to the administration 180 days 
a report is due on military/non-military options available for 
deterring and responding to imminent threats. That date is 
coming, just to remind you. It is June 23rd by my calculation.
    Admiral Rogers. It is in June. Yes, sir.
    Senator King. This is a way of trying to force what Senator 
McCain has talked about about the development of a cyber 
policy, and then the President has 180 days after that to 
describe the actions carried out in cyberspace that may warrant 
a military response. We have got to get through this.
    Admiral Rogers. I know OSD [Office of Secretary of Defense] 
is working on it. They have the lead here. They will respond 
formally. We have been part of that process.
    Senator King. Well, I am just delighted that that is being 
worked on because I think one of our big gaps when we talk 
about what do we need to do, a policy and a strategy, as the 
chairman has mentioned, is absolutely critical because right 
now deterrence does not work unless there is a strategy and 
unless we know about it.
    Admiral Rogers. Yes, sir.
    Senator King. Finally, I think as we talk about this, if 
you think about what the Russians did in 2016, there were 
really three components. One was hacking and leaking. The other 
was attempted hacking in terms of the voting system, which we 
have talked about, which I think is a very serious issue. But 
the other is information and the manipulation of information. 
That is very hard to get at, especially in a place that has the 
First Amendment.
    I would suggest that one of the things we need to be 
thinking about--and this is not necessarily in your 
jurisdiction--is a heightened level of digital literacy in this 
country. People have to understand when they are being misled 
and manipulated, and perhaps they need to be given tips on how 
to do that. My wife has a sign in our kitchen that says, ``The 
most difficult thing on the Internet is to determine the 
authenticity of quotes,''--Abraham Lincoln.
    [Laughter.]
    Senator King. But we have got to be educated. Our public 
has to understand that this is a whole new level of--way of 
manipulating. There were all kinds of reports in the French 
elections that Macron had bank accounts in the Cayman Islands. 
It is not illegal to say he had them. But how do you defend 
themselves against that? I just would urge you to be thinking 
about this. How do we educate our people to be more discerning 
when they read something incredible on the Internet?
    Admiral Rogers. It is a brave new world out there in the 
information dynamic for all of us.
    Senator King. It is particularly challenging in a country 
that values free expression.
    Admiral Rogers. Right.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Admiral Rogers, first of all, thank you for your service to 
our country.
    Wearing two hats, what is the earliest date that you think 
CYBERCOM should be elevated to a combatant command? If there 
are criteria, would you share the criteria?
    Admiral Rogers. This is an ongoing policy issue, so I am 
not going to get into the specifics. I think that is not fair 
to my bosses. My input has been this is something I think we 
can do in a reasonably short period of time, make the initial 
steps.
    Senator Rounds. Is there a set of criteria that you would 
expect to be completed before such a move was made?
    Admiral Rogers. We have identified the steps within the 
Department. We have identified the steps that we would need to 
take to elevate to a combatant command. So again, that is why I 
say I am confident we could do this in a very short period of 
time.
    Senator Rounds. Could you share with the committee in terms 
of what some of those activities have to be?
    Admiral Rogers. We have identified we need to shift current 
responsibilities from STRATCOM [Strategic Command] down to us. 
We need to make changes to the unified command plan, which is a 
document signed by the President of the United States. It is 
the formal document that actually outlines what combatant 
commanders exist, what their defined responsibilities are, if 
there is a geographic aspect to those responsibilities. We have 
got to make those changes, and then we have identified 
investments in manpower as well.
    Senator Rounds. There would be an advantage in some ways to 
having two separate organizations. While the information that 
would be shared perhaps would be shared in a different manner, 
the sharing of that information could continue on, but the 
activities of the two would be different.
    Could you share a little bit about the positive side of 
making a move like that?
    Admiral Rogers. I am on record as saying that my 
recommendation to this process has been that--and I did not 
believe this when I came into the job, but after about 6 to 9 
months, I came to the conclusion, being in the two jobs, the 
right answer in the long term is to separate the two. They will 
still remain closely aligned because Cyber Command and NSA will 
still continue to work in the same battlespace in many ways, so 
to speak. It will still be a unique relationship, but in the 
long run, I think it is the right thing to do.
    I have also said, look, there is a series of steps we need 
to take to make sure that each organization, as it shifts from 
the structure we originally created, is optimized to continue 
to achieve successful outcomes. There are some things we need 
to do particularly on the Cyber Command side, but it is all 
within reason to me. It can be done within a reasonable period 
of time and a reasonable level of investment.
    Senator Rounds. How do you classify the private sector 
critical infrastructure that is vital to the DOD mission? What 
efforts is CYBERCOM undertaking to protect private sector 
critical infrastructure that is vital to the DOD mission? I am 
not talking about trying to classify all the other stuff.
    Admiral Rogers. No, no. I understand.
    Senator Rounds. But just the items that are critical to DOD 
activity.
    Admiral Rogers. So we try to partner closely with the 
Defense Security Service and the Defense Cyber Crimes Center to 
make sure that those critical businesses and infrastructure 
that we, the DOD, count on have access to information. The 
TRANSCOM [Transportation Command] commander and I spent a lot 
of time focused on this. How do we make sure that the--because 
he, in particular, his organization, not that it is unique to 
TRANSCOM. It is probably at a greater level where their mission 
execution day to day is so dependent on capabilities resident 
in the private sector. He has probably got a greater challenge 
here than most. We are talking about how can we speed up 
processes.
    I would like to see over time can we create a different 
relationship. It is hard right now to deal direct because of 
the law and the framework we have created over time. I would 
like to see if we could potentially look at how we might amend 
that so we could deal more directly with a specific set of 
companies that have a direct relationship or provide a unique 
set of capabilities or infrastructure for DOD. I am working 
that with TRANSCOM.
    We have also picked, in a couple places, Hawaii and Guam, 
for example, that are a little more isolated where it is a 
little easier, a couple test cases on how we can partner 
between the DOD and critical infrastructure on the islands, 
power and a few other things to highlight how do we work 
together very closely because there is no alternative generator 
capability, for example, off island that we are going to pipe 
in power. If we have problems with the power on the island 
distribution system, we got major problems for DOD.
    Senator Rounds. I think sometimes we forget just how 
critical these cyber aspects are, and when we talk about the 
different domains that we fight in, air, land, sea, space, and 
cyber.
    Can you think of any of the other areas that we require 
dominancy of that we would maintain dominancy in if we do not 
have dominancy in cyber?
    Admiral Rogers. Well, it is one of the comments I made in 
my verbal opening statement. We not only are our own mission 
set, so to speak, but our success helps to underpin the ability 
of the rest of the Department. I am not saying it is the only 
determinant, but it is a foundational element of the 
Department's broader ability to execute its mission sets across 
the breadth of DOD missions.
    Senator Rounds. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Welcome back, Admiral Rogers.
    It has become really evident to me as a member of both the 
Intel Committee and this committee--it has become crystal clear 
that Russia has really mastered this domain of digital 
disinformation and that they have effectively set up a 
situation where they are coordinating paid trolls, fake 
automated social media accounts, bots, as they call them, and 
state-backed news outlets to really amplify stories very 
effectively that serve their interest. That is true of what we 
would call fake news. It is also true of any real news that 
simply serves their interests or undermines U.S. policy.
    So these capabilities are proving to be just as politically 
disruptive both in our elections and day-to-day business, as 
well as what we have seen in Europe, as to the Russian hacking 
that we have seen.
    So does Cyber Command have a role to play in meeting this 
new what I would describe as a threat, not just a reality? Or 
do you see it as wholly outside your lane?
    Admiral Rogers. I would not say it is wholly outside. There 
is a broader issue to me, and information is one aspect of it. 
If you look at, for example, the way the spectrum and the 
network world are converging, if you look at the way the 
information dynamic is playing out, one of the questions that 
we are trying to come to grips with broadly within the 
Department, although I will be the first to admit I am so 
focused right now on trying to execute the missions I have been 
assigned--part of my input to this process has been let me get 
the structures set before we start throwing more stuff on the 
life raft.
    But I am trying to conceptualize in my own mind, so how are 
we going to bring together electronic warfare, cyber, and the 
information dynamic because it is all blurring in this digital 
world that we are living in. How do we do this in an integrated 
way? Right now, we are not there yet. We are still trying to 
figure out what is the right was forward.
    Senator Heinrich. Do you have people assigned to look at, 
for example, just the issue of when you have thousands and 
thousands of bots out there and they serve as a forcing 
mechanism, they look like social media accounts in Wisconsin or 
Michigan or somewhere else in the United States, but they are 
really just automated accounts that take a story that has 
interested 10 people and makes it look like it is of interest 
to 10,000. Suddenly it is on my social media feed or my news 
feed on my iPhone.
    Have we looked at capabilities for simply making it clear, 
even to the companies whose platforms those are on, that those 
accounts are not genuine accounts? Because it seems to me if 
you take that amplification piece out, even if it is on a 
constant rolling basis, you would have a dramatically 
diminished impact from this.
    Admiral Rogers. Yes, although there are couple points, if I 
could.
    First, remember much of the scenario you just went through 
is about domestic and both as NSA and Cyber Command, we are 
focused largely--NSA--we are focused externally. Cyber Command 
we are largely focused externally. So I will monitor bots 
infrastructure external to the United States. When it comes 
to----
    Senator Heinrich. Well, bot farms typically are overseas. 
However, they are appearing to be domestic accounts but they 
are not attached to actual people in the United States.
    Admiral Rogers. But one of the phenomena we are starting to 
see is you are certain to see a migration of capability from 
the external infrastructure that we have been aware of and 
observing for some period of time. The way this is going to go 
next in my opinion, you are going to start to see this in 
domestic manipulation. That is a part that for us right now, 
no, I am not really directly involved in.
    We do, as part of the broader government effort participate 
in generating insight that we share with major social media 
providers to say, hey, this is activity that we are seeing that 
we believe to be false or that we believe to be criminal or we 
believe to be supporting of particular groups that are a threat 
to the Nation.
    Senator Heinrich. So you are actually able in relatively 
real time to share information with big social media providers.
    Admiral Rogers. In some cases, and I would not argue that 
it is necessarily immediate real time because one of the things 
that I try to do is kind of get a critical center--get enough 
that I can try to show them a comprehensive effort here as 
opposed to coming to them with, hey, here is the count today, 
here is 10 the next hour because we are in the early stage of 
this. I am trying to engender a broader dialogue about, look, 
there is systematic here that both of us have got to be looking 
at. We got to stop looking at this one individual----
    Senator Heinrich. Exactly. I think it speaks to the 
relationship you were talking about. Whether you are talking 
about the financial services sector, the utility sector, or in 
this case, social media and media, we need to have those 
relationships in place to be much more responsive than we 
currently are.
    Admiral Rogers. Yes, sir.
    Senator Heinrich. Thank you.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you.
    Admiral Rogers, it is good to see you again.
    During Senator Fischer's line of questioning, you had 
answered that you do not want to show up in the middle of a 
conflict, you do not want to have to learn about the enemy on 
the move. I agree. I would also say that conversely we also 
want to know about our friendlies, and we do not want to learn 
about them on the move either.
    Going back to the National Guard, we have corresponded back 
and forth a number of times. We want to make sure that you know 
about those friendlies and the capabilities that they bring 
into your organization, should they ever be needed. So I did 
drop a bill earlier this year to ensure that DOD will start 
tracking these capabilities.
    But from your perspective, what more can we be doing to 
help CYBERCOM connect with our National Guard and their 
capabilities? What else can we do?
    Admiral Rogers. So I feel pretty good about knowledge and 
awareness. I never thought as a commander--but I can walk you 
through what Kansas is doing, Pennsylvania is doing, Delaware, 
Virginia, Washington, California. Again, it is kind of 
interesting to me. I think to myself, wow, Rogers, you are in a 
very different world here.
    The biggest challenge that I am still trying to work--and 
it is one I have outlined about six different priorities for 
Cyber Command for calendar 2017. I said, hey, these are six 
things we are going to focus on. One of the six is about 
creating a model for Reserve and Guard integration. So I am 
trying to partner with Northern Command, as well as the 
National Guard Bureau, General Lengyel and his team, about, 
okay, so we are seeing the investments that the Guard and the 
Reserve is making, which I am very supportive of and 
appreciative of. Now, how do we create the mechanisms so we can 
actually apply that in real time?
    We are doing some things now, for example, where Air Force 
is activating--and in fact, I have reviewed the activation 
sequence in the Guard out to fiscal year 2020 for the Guard 
units we are going to bring on in active status to meet the 
requirements that the Air Force has for the Cyber Mission Force 
that I command, I lead.
    But what I am trying to get to is if we have a major cyber 
event, I feel very comfortable about we understand who is going 
to do what. What I am curious about is what happens if it is 
not something catastrophic, if it is not something that 
necessarily trips a threshold where the DOD active force is 
viewed as the primary responsibility. But how do we use those 
Guard and Reserve capabilities in instances where the active 
side is not necessarily going to be the lead? How do we make 
sure the capabilities are there? How do we apply them? What is 
the command and control structure that is in place?
    We do that now in terms of defense support to civil 
authorities. That is very mature in terms of how we respond to 
natural disasters. We have got a great process there. Support 
to FEMA [Federal Emergency Management Agency], the Northern 
Command's role. I am trying to argue we got to spend a little 
more time on the cyber piece of this.
    Senator Ernst. Absolutely. I would agree wholeheartedly. 
Maybe it runs parallel to our civil support teams where they 
provide backup in case of any sort of incident, the Super Bowl, 
and things like that. We always have them on standby. As we 
look at major events and progression, whether it is elections 
or other significant events, throughout the year, we have those 
Guard capabilities.
    Admiral Rogers. Can I make one other point? I apologize. I 
did not mean to interrupt.
    One of the other challenges in the Guard construct, the 
Guard's construct is a geographic construct based on the state.
    Senator Ernst. Yes.
    Admiral Rogers. One of the challenges, again, I am trying 
to work my mind through--and I had this discussion with the 
Council of Governors and the TAGs [The Adjutant General]. In 
many instances, the infrastructure that a state is going to be 
counting on from a cyber perspective in the cyber arena does 
not necessarily physically reside in the state. How do we take 
advantage of the Guard structure more broadly and not just--I 
am not saying that the state piece is not important, but I am 
trying to figure how do we overlay a largely geographic and 
state-defined construct on something that is not always defined 
by immediate geography, if that makes sense.
    Senator Ernst. It does make sense. It absolutely does make 
sense.
    I know a number of my colleagues, moving on to a different 
topic, have talked about personnel and how do we keep personnel 
there. So there have been a lot of suggestions about bringing 
civilians in to fill in the gaps.
    But during Secretary Mattis' confirmation, he also stated 
that the warrior ethos is not a luxury. It is essential when 
you have a military. As we look at things like lateral 
accessions and flexible career paths, how do we make sure that 
warrior ethos is not being diluted?
    Admiral Rogers. I am the first to admit. It is one reason 
why I have argued be leery of creating a cyber force that is 
predominantly civilian. No disrespect to my civilian teammates. 
But we want that warrior ethos and culture. Secondly, in the 
law of armed conflict, there were things legally that a 
uniformed military member of a nation state can do that a 
civilian cannot within a legal framework.
    So civilians play an important role here. Do not get me 
wrong. That is one of the reasons why I believe that the right 
construct for us is to bring the total spectrum, Active, Guard, 
Reserve, contractor, civilian, private sector. It is our 
ability to bring it all together, not one single slice. So I 
would be leery about swinging the pendulum too far in one 
direction away from the military piece of that.
    Senator Ernst. Thank you for laying that out. I appreciate 
your time, Admiral Rogers.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    The Office of the Director of National Intelligence 
released an intelligence community assessment on Russian 
activities and intentions in recent U.S. elections. General 
Clapper testified regarding this report yesterday in the 
Judiciary subcommittee.
    So we all know that Russia interfered with our elections. 
So do you view President Putin's actions in this regard as a 
cyber attack?
    Admiral Rogers. Again, ma'am, that is a legal and a policy 
discussion. My point is it should be viewed as unacceptable. 
That is the bottom line to me. This is not a behavior you want 
to encourage. This is not a behavior we want to accept, nor is 
this a behavior I think we want to see repeated.
    Senator Hirono. I think we all share that. How to get there 
is the challenge.
    What is your opinion of the role of the military and 
intelligence agencies in preventing these types of events in 
the future?
    Admiral Rogers. So, first, from an intelligence 
perspective, our job, speaking as the Director of NSA, is to 
generate insights and knowledge that help inform potential 
response and the ability also, if we can get ahead of the 
problem, to identify it in advance, intent, a nation where 
actors intend to do something, that then alarms policymakers 
and military commanders with the ability to engage in 
operations or choices that clearly communicate to that other 
party, hey, we know what you are thinking about doing. You do 
not want to go down this road.
    On the Cyber Command side, again, if we define election 
infrastructure as critical infrastructure to the Nation and we 
are directed by the President or the Secretary, I can apply our 
capabilities in partnership with others, because we will not be 
the only ones, the Department of Homeland Security, the FBI 
[Federal Bureau of Investigation]. I can apply those 
capabilities proactively with some of the owners of these 
systems.
    Senator Hirono. It was very clear by General Clapper 
yesterday that Russia will continue these efforts. In fact, we 
know that they have been doing this since the 1960s or 1970s, 
but it is just that they have many more tools in their toolbox 
to interfere with our elections. So you are still awaiting 
direction from the President for everyone to coordinate their 
efforts to stop this kind of behavior on Russia's part?
    Admiral Rogers. No. I am saying I do not have a defined 
mission here. No one has changed that yet.
    Senator Hirono. We need to do that for everybody to come 
together. Thank you.
    The Services continue to increase cybersecurity 
capabilities and develop advanced tools to combat cyber 
attacks. PACOM [Pacific Command] has placed a focus on advanced 
cyber and anti-satellite capabilities. How does CYBERCOM work 
with the other combatant commands like PACOM to counter the 
cyber threats they face?
    Admiral Rogers. So I partner with--I was just in Honolulu 2 
weeks ago with Admiral Harris and his team sitting down and 
going, hey, because I try to get out there about--for example, 
Hawaii, just an example. I am there generally every 6 months. I 
try to do this with all the combatant commanders everywhere 
around the world, sit down face to face with where are we, are 
we meeting your requirements.
    Cyber Command in many ways--much of what we do functions to 
support others. We exist to support and enable the success of 
others. So I always tell our team much of our success is going 
to be defined by others, not by us, and that is the way it 
should be. We spend a good deal of time aligning capability to 
meet specific combatant commander requirements, working with 
the combatant commanders as to what should be the priority for 
how those capabilities are applied. In many instances, I want 
them to set the priority, not me. I have an opinion that we 
will partner together, and so, for example, that is what we are 
doing now in the Pacific from both a defensive and an offensive 
side.
    Senator Hirono. In your meetings with the other combatant 
commands, then is part of your function to encourage--to make 
sure that we do not have unnecessary duplication of effort 
across the services?
    Admiral Rogers. So I try to make the argument, cyber is a 
high-demand/low-density capability, just like ISR 
[Intelligence, Surveillance, Target Acquisition, and 
Reconnaissance], just like SOF [Special Operations Forces], 
just like ballistic missile defense. Therefore, the same kinds 
of processes that we put in place to make sure we are 
maximizing the finite capability we have, we have got to do the 
exact same thing in cyber.
    Senator Hirono. We know that we have challenges facing 
military recruiters in attempting to fill their cyber-related 
billets as other government agencies and the private sector try 
to fill their requirements as well. I would like to know 
specifically how important is it to continue non-military 
federal investments in education, particularly in the STEM 
[Science, Technology, Engineering and Math] programs, for 
American youth in order to meet the growing need of Cyber 
Command and other----
    Admiral Rogers. Right. So as I said, our workforce is going 
to be a spectrum from the Active, the Guard and Reserve, 
civilian, and contractors. For the civilian contractor and much 
of that active piece, much of this education is going to be 
done by the private sector, not by the government. So it is one 
reason why, as I said, we have relationships, if my memory is 
right, with over 200 academic institutions. It is one reason 
why I spend a fair amount of time as a senior commander going 
to universities around the United States about so how are we 
going to create the human capital of the future in this. It is 
one reason why I spend a lot of time talking to the private 
sector about so tell me how you generate a workforce. How do 
you retain it? I acknowledge that there are some differences, 
but are there some things I could learn from you about what 
works for you? Because it cannot be all about money.
    Senator Hirono. Thank you for that proactive posture.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    Admiral Rogers, it is good to see you again. You have been 
on the job about 2 years. Right?
    Admiral Rogers. 3 years, sir.
    Senator Tillis. Three.
    Admiral Rogers. Yes, sir.
    Senator Tillis. If you were to go back 3 years ago and you 
were in the same committee hearing, would the answers have 
changed substantially in terms of our current--where, in other 
words, have we made significant progress?
    Admiral Rogers. Where we made significant progress, we have 
capability. We are actually using it. We have got a good way 
ahead. We have got a commitment to that way ahead. So that is 
what I would have said as we----
    Senator Tillis. But as you go through this, Admiral, if you 
think about looking at our near-peer competitors, they too are 
3 years further along.
    Admiral Rogers. Right.
    Senator Tillis. Is the gap narrower or wider now between 
our capabilities to defend ourselves and to potentially respond 
to some attack?
    Admiral Rogers. Narrowing. The gap is narrowing.
    But to continue what I think was the point you are trying 
to make, but I would also tell myself, Rogers, you are not 
moving fast enough. We got to move faster. We got to 
prioritize. I am the first to acknowledge that. We are not 
where I want to be.
    Senator Tillis. What about over the last 3 years, the sense 
of ownership in the private sector? I for one think we are 
making a huge mistake if we leave this hearing or if the 
private sector thinks we are coming up with a solution that 
they all benefit from. They are a part of an infrastructure 
that we cannot possibly be expected to--this is sort of like, 
you know, we are the police, back to Senator King's point. We 
have to respond when an attack occurs to try and figure out who 
did it and what the consequences should be. But we all need to 
have some sort of security ourselves in our businesses, in our 
homes, and our states. How well have they really improved over 
the last 3 years since you have been in the position?
    Admiral Rogers. It is uneven by sector. Some sectors, boy, 
have really made significant improvements; others, no.
    To go to your point, the analogy I try to use, look, it is 
hard to expect the police force to stop burglaries if you are 
going to leave every one of your doors not just unlocked but 
open. You are going to turn all the lights on, and you are 
going to leave the house for an extended period of time.
    Senator Tillis. A sign saying ``not at home.''
    Admiral Rogers. Just say--right--hey, feel free. That is 
not going to get us where we need to be.
    Senator Tillis. Well, how do we move the ball? We had 
TRANSCOM in here for a hearing just last week or week before. 
How do we actually get to a point where we put pressure on the 
private sector not to mandate, but to maybe use it as a 
distinguishing factor when we are choosing between one 
potential contractor or supplier and another one in terms of 
the extent to which we believe that they are fully protected or 
protected as much as they can be in this space?
    Admiral Rogers. I think it goes to a combination of we need 
to change the basic contract language about it and set minimum 
expectations if you want to do business with the DOD.
    Senator Tillis. Is that within your current authorities?
    Admiral Rogers. I am sorry, sir?
    Senator Tillis. Is that within current authorities?
    Admiral Rogers. Yes, and we have made some across the 
Department. We have made some changes in contractual language, 
but I think the evolution has shown us we got to be more 
specific.
    Senator Tillis. To what extent is your command trying to--
in the discussion--I think it was with TRANSCOM--we were 
talking about needing some sort of third party--there needs to 
be something out there to make sure that our suppliers, maybe 
even state agencies, are adhering to some baseline standards. 
To what extent is your command involved in that or who owns 
that?
    Admiral Rogers. So we do not do that right now, but that is 
one of those changes I talked about, how do we change the 
relationship between DOD and its core private capability 
providers, infrastructure providers. Perhaps one of the things 
contractually you look at is so if you want to do business with 
us, you are signing up potentially to the idea that we can do 
an assessment, we can do an inspection. I think we need to work 
our way through that, but that is the kind of thing I think we 
need to be thinking about.
    Senator Tillis. I think it is critically important. We have 
to also look at the reality that they have got a supplier base, 
that the people that we contract with need to make sure they 
are holding their supplier base up to the same standard. I will 
just repeat what I always say in these committees. You can find 
a weaker link. All you can do is understand the supply chain 
and go after that one critical, seemingly innocuous component 
that shuts down your ability to repair a grid component or to 
repair some weapon in the supply chain.
    In my remaining time, can you tell me a--after elevation 
and the dual-hat split, how do you envision a standalone 
command operating? What are the priorities?
    Admiral Rogers. Well, again, now we are into a kind of 
``what if'' scenario. So I would rather not go down--I just do 
not like getting into ``what if'' kinds of things. That 
decision has not been made. That is a broader policy issue. I 
have had the opportunity to provide input to that process, but 
now we need to let the process play out and see what kind of 
bottom line the decision-makers come to. I just think that is 
fair and that is what we owe them.
    Senator Tillis. Thank you.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Warren, please.
    Senator Warren. Thank you.
    I want to quickly ask about the importance of our non-
military agencies and programs to your mission, which includes 
defending the United States against cyber attacks by foreign 
and non-state actors. Our State Department promotes 
international norms of responsible behavior in cyberspace, and 
it helps make our partners and allies more cyber secure--I 
think you have already talked about that some--and counters 
online radicalization and recruitment by non-state actors like 
ISIS every day.
    So, Admiral Rogers, you lead the best cyber warriors in the 
world. But I want to ask, would reductions in funding to the 
State Department's cybersecurity and counter radicalization 
programs make your job easier or harder?
    Admiral Rogers. Tougher.
    Senator Warren. I agree. I am concerned about the 
significant reductions to non-DOD departments proposed by the 
administration. These agencies provide critical support for 
your work, and I just want to make sure that does not get 
overlooked.
    What I also want to do is follow up on a question that 
Senator Hirono asked. Last year, the Russians stole private 
emails and splattered them all across the Internet to help 
their preferred American presidential candidate. Last week, the 
Russians did exactly the same thing in order to help their 
preferred French presidential candidate. The United States of 
America needs to step up its game here. I know that you are a 
key part of that.
    Now, you stated in your prepared testimony, Admiral, that 
improving DOD's network defenses and building a cybersecurity 
culture depend on skilled people. So I would like to press you 
on the question of how we recruit and retain cyber warriors. 
Admiral, let me see if I can do this the right way.
    We had a hearing recently in our military personnel 
subcommittee, and one of the witnesses said that the military 
recruiting system is so focused on filling quotas that they end 
up recruiting only for the military of today, not targeting the 
best suited to execute the missions that we are going to need a 
decade from now.
    So, Admiral, can you tell us about your recommendations to 
ensure that we are recruiting the right talent for the cyber 
jobs and threats that we will face tomorrow?
    Admiral Rogers. So my experience to date--knock on wood--
has been I am very happy with the quality of individuals that 
we are seeing.
    Senator Warren. I understand.
    Admiral Rogers. We are exceeding retention broadly on the 
uniformed side. I have got a little more concern on the 
civilian side actually right now in terms of retention, 
particularly on the NSA side of my responsibilities.
    The thing that is helping us at the moment is this 
workforce views themselves as the digital warriors of the 21st 
Century, and their self-image is we are on the cutting edge of 
something brand new and every day we are shaping the future in 
a way that nobody else gets to do. We are doing things that 
nobody else on the outside gets to do. They are empowered by 
the mission. I am not going to pretend their leadership is 
perfect. But my sense is they think we got a focus, we got a 
vision, and we are driving it.
    So I am constantly as a leader looking for what are the 
indicators if that is changing, how do I get ahead of this, and 
then what are the skill sets that I need not today but maybe 2 
years from now, maybe 5 years from now.
    Data is one area I would highlight. I am sitting here 
saying to myself right now we are probably not optimized for 
the data requirements of the near term. So what kind of data 
skills do I need? Is that a uniformed skill? Do I look at 
civilians to do that? Would a contractor make more sense? Is 
that something that the Reserves could do because they can put 
people in a skill set, and then, boy, they are going to stay 
there and do that? That is probably an example of where I am 
saying to myself maybe we need to be looking at--it is still in 
my mind. We have not developed a formal plan, so to speak.
    Senator Warren. But I am glad to hear it. You are looking 
out. I love the focus on data, you know, critically important 
here.
    In the 2017 Defense Department authorization, we gave a lot 
of flexibility on how to recruit talent specifically. So let me 
just ask, do you have all the authorities you need, or do we 
need more exemptions, for example, from federal hiring laws and 
other changes in the system to help you in your recruiting 
efforts not just today but 6 months from today and a year from 
today and a few years from today?
    Admiral Rogers. Well, right now I feel good about military 
recruitment. I find our ability to hire on the civilian side--
we are lagging. Part of this is I tell our team is this 
something we are failing to understand. Do we have a lack of 
knowledge of our own system that we are not optimizing the 
system to generate the outputs we need? I am not at a stage yet 
where I have decided the answer is I have to go ask for more 
authority, but I have told the team, look, if we come to the 
conclusion that we have to ask for more authority, guys, that 
is what we are doing. We have got to take advantage of the 
willingness of this committee, the Department to work with us 
when it comes to flexibility on the human capital piece.
    Senator Warren. Good.
    I know how much you have invested in our cyber military 
force and the mission force overall. You have made enormous 
progress. But I do hope you will let us know.
    Admiral Rogers. Yes, ma'am.
    Senator Warren. Let us know more in advance rather than 
later. It takes a little while to get things through around 
here. But let us know because if you need more flexibility, you 
should have more flexibility. Thank you, Admiral.
    Admiral Rogers. Thanks.
    Chairman McCain [presiding]. Senator Perdue?
    Senator Perdue. Thank you, Mr. Chair.
    Admiral, good to see you again. Thank you for everything.
    In testimony we heard earlier this year, the Defense 
Science Board said--and I quote--for at least the next decade, 
offensive cyber capabilities of our most capable adversaries 
are likely to far exceed the United States' ability to defend 
key critical infrastructures. Do you agree with that from the 
Defense Science Board?
    Admiral Rogers. I said broadly. Clearly things favor the 
offensive side. Part of our challenge is much of our 
infrastructure represents investments and decisions and 
priorities made decades ago, and they are not reflective of the 
digital world we find ourselves in today. The cost of replacing 
that fixed infrastructure is huge, and so it is not likely that 
we are going to replace all of that infrastructure in the 
immediate near term. Just the scale is just beyond the ability 
of our society or our Nation right now.
    Senator Perdue. So we are primarily focused on defense, 
deterrence, and detection right now from your earlier 
testimony, even today in this written testimony. My question 
is, in an open hearing like this, is there anything you can 
tell us about what we are doing on the offensive side? Are we 
developing offensive capabilities as well?
    Admiral Rogers. So we have acknowledged that we are 
developing offensive capabilities. We have acknowledged that we 
are employing those capabilities in the fight against ISIS. I 
apologize. I would just rather not get into the specifics.
    Senator Perdue. I understand.
    I would like to move over to the question of the day, and 
it is how do you stand up this force over the next few years. 
Training is a very major part of this, as you have said. 
Between 2013 and 2016, under CYBERCOM's supervision, the Office 
of the Secretary of Defense and the Joint Staff were supposed 
to come to an agreement on a joint federated training program 
funded by the Services for the training of the Cyber Mission 
Force. Can you update us on the status of that agreement and 
where we stand today on that?
    Admiral Rogers. So we will transition to that model in 
2018. The initial outfit, if you will, of the Cyber Mission 
Force, using much of NSA's infrastructure--we signed up, 
speaking now as the Director of NSA, to use much of NSA's 
structure, our schoolhouses, our National Cryptologic School, 
for example, to do much, not all, but to do much of the 
training associated with the initial build-out of the mission 
force. That build-out, full operating capability is due to be 
completed, and we are on track for September 30, 2018. The 
agreement then was at that point responsibility for training 
and development, long-term sustainment of the Force would 
transition to a Service structure. We are on track to do that 
right now.
    Senator Perdue. So does that mean that each Service would 
be responsible for developing their own cyber warriors?
    Admiral Rogers. So what happens is we have a mandated 
training standard by position, each Service then oftentimes 
partnering. For example, right now there is Navy training in 
Pensacola that all the Services use, for example, because we 
all then get together and say so given this single common 
standard, given this single, agreed-to qualification process, 
what is the best way across the Department to make this work. 
What Service has the best capacity, best capability? How do we 
manage throughput broadly? That is the only way to maximize 
this.
    Senator Perdue. You mentioned context earlier, which is why 
you do not favor a unified force.
    Admiral Rogers. Right. I was thinking about an integrated 
cyber----
    Senator Perdue. I understand. I get it.
    So having some experience in large organizations, I am 
concerned about that tradeoff. There is a balance.
    Admiral Rogers. Right. Yes, sir.
    Senator Perdue. We are in a crisis stage right now--I think 
you would agree to that--with regard to our ability to detect 
and deter at this point. I understand long-term the ideal might 
be to have the Service because of the context dimension.
    In the interim phase when we are in this crisis mode, 
though, do we have a sense that that might be counterproductive 
to our ability to stand up to the immediate threats?
    Admiral Rogers. It would be difficult to do it today in a 
short term. That would take a long-term investment, significant 
structural, cultural changes. It is another reason why I would 
argue optimize the structures and the mechanisms that are in 
place. Now, we also got to hold them accountable. Do not get me 
wrong. You just cannot turn to them and say, well, just do what 
you always do. There has to be accountability and oversight.
    But I am comfortable that the current approach is going to 
generate the outcomes we need, even as I acknowledge it is not 
moving as fast as I would like. We got a huge mismatch between 
current capacity and capability, and what I know is the 
requirement. We are always in a tail chase.
    Senator Perdue. You mentioned earlier that the history has 
been the extraction of data from the system, that hacking--the 
primary motive from Russia and China, primarily state actors, 
has been the extraction of data.
    In North Korea, we saw a little bit of a different attack 
where they went in and actually started placing what I would 
call a sleeper embedded code, whatever, for a bigger mega event 
later. Do we see a continuing growth in that type of activity? 
Have we seen any evidence of that in the U.S.?
    Admiral Rogers. You do. You see every nation state engaged. 
They will penetrate a system. They will look to not just 
extract but study it, understand it, see where it connects to. 
Can they use this as a jumping off point to get to somewhere 
else?
    One of the things we are always looking for is so if a 
system has been penetrated, has the actor manipulated, changed, 
amended a configuration so they can gain access separately now. 
That is one of the key things we always look for when we are 
trying to do mitigation once someone has penetrated a system.
    So it is the full spectrum. The simple answer is yes. It is 
the full spectrum.
    Senator Perdue. Have we seen any in the U.S., any evidence 
of that in the U.S.?
    Admiral Rogers. I have seen nation states engaged in 
activity in the U.S. where they clearly are interested in a 
long-term presence, not just extracting data.
    Senator Perdue. Thank you, Admiral.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Admiral Rogers, always a pleasure to see you and enjoy your 
testimony as always.
    My question involves the U.S. semiconductor industry, which 
right now faces some major challenges. In addition to some 
fundamental technological limits that are being reached in that 
area, there has also been a concerted strategic push by China 
to reshape the market in its favor using industrial policies 
backed by over $100 billion in government-directed funds. With 
semiconductor technology critical to the operation of critical 
U.S. defense systems, I am very concerned that China's 
industrial policies pose a real threat to U.S. national 
security.
    Although we have a range of tools, which you are very 
familiar with, to deal with this, the principal mechanism to 
manage it is the interagency Committee on Foreign Investment in 
the U.S., or CFIUS. Within the DOD, as you know as well, NSA is 
a key contributor to the CFIUS national security assessment. 
DIA [Defense Intelligence Agency], the Military Services, the 
combat commands all have a role in this process as well.
    But my question is considering CYBERCOM's leading role 
within the Department, how is the command postured to support 
the CFIUS process for potential foreign mergers and 
acquisitions that have perhaps significant implications for the 
DOD cyber mission?
    Admiral Rogers. So we predominantly interact in the CFIUS 
process on the NSA side. But one of the implications I think 
for the future--again, it is just one input I have tried to 
make to the new team is I think we need to step back and 
reassess the CFIUS process and make sure it is optimized for 
the world of today and tomorrow because I am watching nation 
states generate inside knowledge about our processes. They 
understand our CFIUS structure. They understand the criteria 
broadly that we use to make broader policy decisions about is 
an investment acceptable from a national security perspective. 
My concern is you are watching some nation states change their 
methodology to try to get around this process.
    Senator Peters. Do you feel that CFIUS is adequately 
resourced and authorized to make the kinds of changes that you 
think we need----
    Admiral Rogers. I am not smart enough because we are just 
one element in this process, and it is not something that the 
DOD at large or Cyber Command or NSA runs per se. But I do 
think we need to step back and ask that kind of question to 
ourselves. Just my gut just tells me that that is one of the 
things we need to be doing.
    Senator Peters. I would like to turn back to some of the 
discussions that we have had related to the involvement of the 
private sector, which has to be intimately involved in any kind 
of security operations. I know your teams have operated Cyber 
Guards, over the years, exercises. The most recent on you were 
involved in, simulating an attack on the Northeast, attacks on 
Gulf oil facilities, ports across California. All of these 
entities, of course, are privately owned and not part of the 
Department of Defense.
    A recent GAO [Government Accountability Office] study, 
looking at some of the prior exercises, cited concerns that 
large portions of the exercise take place in a classified forum 
which places some inherent limitations on public and private 
sector participation. Although the arrangement certainly is 
designed to protect sensitive plans and capabilities--and we 
all fully realize the importance of doing that--the approach 
also may fall short in preparing participants for a real world 
cyber emergency, which potentially could be catastrophic.
    So my question is, how are you balancing the need for 
security with the realities of a cyber threat landscape that 
may ultimately necessitate very broad support from uncleared 
citizens and entities?
    Admiral Rogers. So it is one of the reasons we changed the 
structure of Cyber Guard over time and tried to bring more in 
the private sector. So if you look at the scenario that you 
talked about that we did last year in terms of we simulated 
activity directed against the power grid in the east, the 
petroleum industry in the Gulf, and port sectors on the West 
Coast. We went to several private companies within each of 
those sectors and said, hey, we would like you to participate 
in this. What do we need to make that happen?
    We also increasingly are going to the private sector in 
terms of private sector companies that run the infrastructure 
associated with supporting those entities. We have added that 
to the Cyber Guard arena.
    So I am trying to see can we create an exercise in 
addition. We do tabletop exercises, which are not quite--Cyber 
Guard is huge. It is like a thousand individuals.
    We also do regular tabletop exercises where we talk at a 
high level so we can skirt some of the security aspects of the 
classification aspects of this and bring in the private sector. 
We do that out at the Fort Meade complex several times a year 
separately from Cyber Guard.
    Senator Peters. Thank you, Admiral.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, Admiral Rogers. Welcome back.
    I want to talk about Russia today and how they hacked into 
those emails and released them last year. I want to touch on 
that.
    Specifically Senator Warren a few moments ago continued to 
refer to the President as Russia's preferred candidate. I think 
she is referring there to the intelligence community assessment 
of January 6th, primarily written by your agency, the NSA, 
along with the CIA and the FBI.
    This brings to mind a curiosity from the report that I 
wanted to raise with you and ask about. In the key judgments, 
the report says we also assess Putin and the Russian Government 
aspired to help President-elect Trump's election chances, when 
possible, by discrediting Secretary Clinton and publicly 
contrasting her unfavorably to him. All three agencies agree 
with this judgment. CIA and FBI have high confidence in this 
judgment. NSA has moderate confidence.
    Could you explain the discrepancy for us?
    Admiral Rogers. I would not call it a discrepancy. I would 
call it an honest difference of opinion between three different 
organizations. In the end, I made that call. So if anybody is 
unhappy, Mike Rogers is the accountable individual.
    When I looked at all the data, I was struck by for every 
other key judgment in the report by multiple sources, multiple 
disciplines, and I was able to remove almost every other 
alternative rationale I could come up with in my mind for, 
well, could there be another reason to explain this. In the 
case of that one particular point, it did not have the same 
level of sourcing and the same level of multiple sources from 
different perspectives, you know, human intelligence, signals 
intelligence.
    I still believe that it made sense. I still believe that it 
fit within the context, and I still agreed with the judgment. 
But I did say from a professional analytic perspective, I am 
not quite at the same confidence level as my two counterparts 
in the form of John Brennan and Jim Comey.
    Senator Cotton. The one particular point being going from 
saying Russia wanted to hurt Secretary Clinton's chances, in 
addition help Donald Trump's chances.
    Admiral Rogers. Correct.
    Senator Cotton. Those are hard to disentangle--right--since 
in our election system we have to first pass the post as long 
as you do not have a----
    Admiral Rogers. In this case, there was some pretty 
specific intelligence that seemed to differentiate that there 
were specific thoughts on the part of the Russians on each of 
the aspects of that statement, if you will.
    Senator Cotton. Obviously, we cannot discuss those 
classified matters, but there is a lot of open source matters 
as well. President Trump, for instance, was the candidate who 
wanted to build up our defenses, expand our missile defenses, 
accelerate nuclear modernization, pump more North American oil 
and gas. None of those things seemed to be very favorable to 
the Kremlin. Did your agency take those things into account?
    Admiral Rogers. Yes, sir.
    Senator Cotton. Also if you look back over the last 8 
years, just a quick rundown of what I could recall--I am sure I 
am missing some--the Obama administration in 2009 reset 
relations with Russia 6 months after it invaded Georgia.
    The year 2010, signed New START [Strategic Arms Reduction 
Treaty], which I would say was a better treaty for Russia than 
us.
    The year 2012, in a hot mike moment with Dmitry Medvedev, 
President Obama said he would have more flexibility on 
ballistic missile defense after his election. He also mocked 
his opponent at a presidential debate saying that Russia as our 
number one geopolitical foe.
    The year 2013 was the red line fiasco in Syria with 
Russia's closest Middle East ally when President Obama accepted 
Vladimir Putin's offer to remove chemical weapons from Syria, 
which we now know was a failed effort.
    The year 2014, we stood largely idly by during the Crimea 
invasion and did not offer defensive weapons when Russian-
backed separatists started fighting in the Donbass despite 
bipartisan support from this committee. By that point, we had 
long since been ignoring INF [Intermediate Nuclear Forces] 
Treaty violations that our military now acknowledges.
    The year 2015, Russia had a massive surge into Syria and 
continued its effort to block U.N. [United Nations] Security 
Council resolutions.
    The year 2016, they pummeled Aleppo into submission. In 
private, they objected to numerous provisions that I wrote in 
the Intelligence Authorization Act that would hold Russia to 
account in its espionage effort, and they increased the amount 
of times they are buzzing aircraft and warships in Europe and 
the Arctic.
    President Trump promised to reverse those policies. 
Secretary Clinton largely campaigned on continuity. That does 
not sound to me like something that the Kremlin would be happy 
about.
    Admiral Rogers. I am just going by the intelligence. It was 
very clear in the intelligence of Russians' perceptions.
    Senator Cotton. Do you think given that 8-year history of 
the Obama administration that Russian intelligence and 
leadership felt emboldened to undertake the hacks of those 
email systems and release them?
    Admiral Rogers. Now you are into political judgment, sir, 
and that is just not my area.
    Senator Cotton. Thank you very much.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Just to follow up, Admiral Rogers, on this issue of 
moderate confidence, did you have a high degree of confidence 
that there was an effort to discredit one candidate and only a 
moderate degree of confidence that there was an effort to 
support----
    Admiral Rogers. If you read the key judgments, what it says 
is I concurred in the report in the sense that we had high 
confidence in the judgment that the Russians clearly were 
trying to undermine our democracy and discredit us broadly, 
that they wanted to specifically make sure candidate Clinton 
did not win and to undercut her effectiveness should she have 
won.
    Senator Kaine. High confidence in that.
    Admiral Rogers. Right. High confidence in that and that it 
was just the last part about--and their judgment was they 
wanted candidate Trump to win. That was one of the objectives--
--
    Senator Kaine. We had testimony in this committee probably 
a year and a half ago by General Dunford where he was asked the 
question I think by Senator Manchin which was the nation state 
that he would view as our most significant adversary. He 
testified, based on their capacity and intent, he thought that 
would be Russia.
    Just in your domain, cyber, the cyber domain, do you view 
Russia as an adversary? They have taken actions that have put 
them in the position as an adversary of the United States in 
the cyber domain.
    Admiral Rogers. I am watching them engage in behaviors that 
I think are destabilizing and not in our best interests in 
cyber.
    Senator Kaine. Would you also agree that France is an ally? 
They are a NATO [North Atlantic Treaty Organization] ally and 
they are also a coalition partner in Afghanistan.
    Admiral Rogers. Yes, sir.
    Senator Kaine. You are aware of the reports in the last few 
days that there was significant evidence tying Russia to a 
hacking effort to destabilize the French election. That is 
something we should take seriously when an adversary tries to 
destabilize the government of an ally. Would you agree?
    Admiral Rogers. Yes, sir.
    Senator Kaine. There was an article in the New York Times 
the day before the election, Saturday, the 6th, with a 
fascinating headline. ``U.S. Far Right Activists Promote 
Hacking Attack Against Macron,'' and the article was about the 
effort by groups in the United States to immediate spread the 
hacked documents in many instances before even WikiLeaks was 
able to.
    If we should take seriously an adversary's cyber attack on 
the democracy of an ally, should we be indifferent or concerned 
about efforts of Americans to work together with or in parallel 
with an adversary attacking the democracy of an ally?
    Admiral Rogers. I apologize. I am not sure I am 
understanding.
    Senator Kaine. You have testified in response to my 
question that we ought to take seriously if an adversary tries 
to cyber attack and destabilize the democracy of an ally. If 
American organizations are working together with or in parallel 
with an adversary----
    Admiral Rogers. A foreign counterpart?
    Senator Kaine.--as they are trying to attack the government 
of an ally France, should we be in different to that, or should 
we take that seriously as well?
    Admiral Rogers. We need to be concerned.
    Senator Kaine. Okay. If we are concerned about that, if the 
U.S. Government should be concerned in this case--and I will 
introduce this article for the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Kaine. If we should be concerned about the efforts 
of folks in the United States to work together with or in 
parallel with an adversary like Russia attacking an ally like 
France, where should that concern lie in the Federal 
Government? Is that a law enforcement matter? Is it a DHS 
matter? Is it an NSA matter, or is it a Cyber Command matter?
    Admiral Rogers. I would argue it depends on the specifics 
of the scenario. I am not trying to be dismissive, Senator. It 
is a very complex question.
    Senator Kaine. I will put the article in for the record, 
and there is, I think, more to come on this.
    But if individuals or organizations in the United States, 
for example, were taking hacked documents from an illegal 
Russian hack of the French system and trying to disseminate it 
to affect the French election, this is something we should be 
concerned about. Where would that concern lie within----
    Admiral Rogers. My first thought would be the FBI, but 
again, that is not necessarily a fully informed opinion, but it 
is the first thing that comes to my mind.
    Senator Kaine. All right.
    Let me ask you this. There has been some debate in the last 
couple of days about whether there is such a thing as a good 
shutdown of the United States Government. Can you see any 
circumstance under which Cyber Command's mission would be 
benefited by a shutdown of the Government of the United States?
    Admiral Rogers. No. If I could, I know you are asking for a 
yes or no. The number one issue that my workforce often raises 
with me is what we went through in 2013, and it is now 4 years 
later. I still--every time there is the merest hint in the 
media of this even potentiality, I get, sir, are we going to go 
through this again, sir? You said this was not going to happen, 
sir. I thought they were committed to us and our mission. Sir, 
I do not want to work in an environment where every couple of 
years I am just getting jerked around about am I going to come 
to work, am I going to get paid, do they value what I do. Hey, 
sir, we just want to do the mission. We just need the support 
to keep moving forward.
    Senator Kaine. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, Admiral. Thank you for your 
service.
    Director Comey said a couple of days ago--I guess it was 
last week in the hearing that I was involved in in Judiciary--
that Russia is still interfering in American politics. Do you 
concur with that?
    Admiral Rogers. Yes.
    Senator Graham. He also said that among nation states, he 
thought Russia had the most capability and the biggest intent 
in terms of interfering in the future. Do you agree with that?
    Admiral Rogers. Yes.
    Senator Graham. Do you agree that it was Democrats in 2016? 
It could be Republicans in the next election?
    Admiral Rogers. Yes. I would argue this is not about 
politics. This is not about party. This is about an effort 
against the strategic interests of every citizen of this 
Nation.
    Senator Graham. I agree with you 1,000 percent.
    Do you they agree they could do this in congressional 
races, House and Senate----
    Admiral Rogers. Yes.
    Senator Graham. Do you agree that if somebody does not make 
them pay a price, they are going to keep doing this?
    Admiral Rogers. Yes.
    Senator Graham. All right. Unmasking. A lot of talk about 
it. Are you aware of any incidental collection on 2016 
candidates on both sides of the aisle?
    Admiral Rogers. I am not going to get into specifics in an 
unclassified forum about collection at large. But I will say we 
certainly acknowledge that incidental collection occurs, but we 
also have a very strict process----
    Senator Graham. Can we build that out a bit?
    Admiral Rogers.--for what we do with it.
    Yes, sir.
    Senator Graham. The only way you can actually collect on an 
American citizen inside the country is to have a FISA [Foreign 
Intelligence Surveillance Act] warrant.
    Admiral Rogers. Get a FISA warrant. Yes, sir.
    Senator Graham. Or if an American citizen is incidentally 
in a conversation with somebody you are already following.
    Admiral Rogers. Yes, sir.
    Senator Graham. Unmasking is a request to your 
organization, I want to know who American citizen one was.
    Admiral Rogers. Yes, sir.
    Senator Graham. How many of those requests did you get in 
2016?
    Admiral Rogers. I think we have publicly acknowledged----
    Senator Graham. Around 2,000.
    Admiral Rogers. 2,000. I think it is----
    Senator Graham. How many people can request the unmasking 
of American citizens?
    Admiral Rogers. If you are an authorized recipient of the 
intelligence, we use two criteria. Number one, the requester 
must be asking this in the execution of their official duties. 
It cannot be something that would be need to know. Number one 
has to be in the execution of their official duties. Number 
two, the revealing of a U.S. person has to provide context and 
greater value for the intelligence. Again, it just cannot be I 
am just curious.
    Senator Graham. I got you.
    So within our government, are there 10 people--10 groups 
that groups that can do this? Twenty?
    Admiral Rogers. In terms of authorizing the unmasking?
    Senator Graham. Yes. No, to make the request.
    Admiral Rogers. No, it is broader than that. If you are on 
the distribution--if you are on the authorized distribution for 
our intelligence reporting, you can ask. It does not mean it 
gets approved, but you can ask.
    Senator Graham. Does the National Security Director--one of 
those--I mean----
    Admiral Rogers. The National Security Advisor? Yes, sir. 
They are normally on the distribution for most, not all.
    Senator Graham. Is there a record of every request made?
    Admiral Rogers. Yes.
    Senator Graham. So there is a record of who made the 
request to unmask the conversation involving the American 
citizen.
    Admiral Rogers. Yes, sir.
    Senator Graham. There is a record whether or not you 
granted it.
    Admiral Rogers. Yes, sir.
    Senator Graham. Is there a record of what the person did 
with the information once they got it?
    Admiral Rogers. No. There is also a record of the basis of, 
so why did we say yes. Remind every individual, if I could, 
once we unmask, once we authorize an unmasking, we authorize 
the unmasking only to that individual. What do I mean by that? 
So if we unmask a report that went to a particular individual, 
we do not unmask the report for everyone who got that report. 
Only the individual that we----
    Senator Graham. They are told not to share it with----
    Admiral Rogers. They are specifically told. This does not 
change the classification.
    Senator Graham. General Flynn was caught up in a 
conversation with the Russian ambassador. You are familiar with 
that story in the press.
    Admiral Rogers. I am familiar with the story. Yes, sir.
    Senator Graham. Assuming he did not have a FISA warrant 
allowing us to collect on him, it would be a case of incidental 
collection following the Russian ambassador. Does that sense?
    Admiral Rogers. Yes, sir.
    Senator Graham. We would know how that conversation was 
revealed and to who it was revealed through the request of your 
agency.
    Admiral Rogers. If we unmasked and it was based on an NSA 
report. Remember, NSA will not be the only agency that 
potentially could have gotten the conversation.
    Senator Graham. Got you, but you are the primary one. 
Right?
    Admiral Rogers. I would argue again it depends. If you look 
at Title 1 warrants, the FBI----
    Senator Graham. I am not talking about warrants. I am 
talking about----
    Admiral Rogers. Incidental. So I would argue there is 
probably a greater potential on the FBI side than NSA just 
generally in terms of collection.
    Senator Graham. Of incidental collection?
    Admiral Rogers. Incidental with U.S. persons.
    Senator Graham. So we could either ask the FBI or you.
    Admiral Rogers. Yes, sir.
    Senator Graham. So somebody took that information that we 
gained through collection with Flynn and gave it to the 
``Washington Post.''
    Admiral Rogers. Somehow it got to the media.
    Senator Graham. That is a crime.
    Admiral Rogers. That is a leak, and that is illegal. Yes, 
sir.
    Senator Graham. Are you concerned about people taking the 
law in their own hands no matter how noble they think the event 
would be?
    Admiral Rogers. Oh, yes, sir, which is why I have gone to 
my workforce in writing and said let us make sure we understand 
what the professional ethos of our organization is. We do not--
if I could finish, sir. We do not engage in this behavior, and 
if I catch you engaging in this behavior, I will hold you 
criminally liable and you have no place----
    Senator Graham. Mr. Chairman, can I ask for additional 30 
additional seconds?
    The bottom line here, it is possible for the Congress to 
find out who requested unmasking of American citizens, who that 
information was given to, and that is possible for us to know.
    Admiral Rogers. On the NSA side, that is part of the 
ongoing investigation with the primary oversight committees 
that we are going through right now.
    Senator Graham. Do you know if Susan Rice ever asked for an 
American citizen to be unmasked?
    Admiral Rogers. I would have to pull the data, sir. I 
apologize.
    Senator Graham. Thank you.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, Admiral Rogers, for being here again and thank 
you for your service.
    We have heard repeatedly in this room, as well as yesterday 
with Director Clapper, that the Russians will continue 
attacking the United States unless they are forced to pay a 
price. And you agree.
    Admiral Rogers. Yes, sir.
    Senator Blumenthal. Right now, are they being forced to pay 
a price?
    Admiral Rogers. Certainly nothing that is changing their 
behavior.
    Senator Blumenthal. Nothing that is changing their 
behavior, and clearly nothing that will change their behavior 
in the future because, to quote you or paraphrase you, they 
have more to gain than to lose by continuing this kind of 
attack.
    Admiral Rogers. Yes, sir.
    Senator Blumenthal. Can you recommend to us what kinds of 
measures should be taken? I know you have been asked this 
question before. In fact, you were asked when you last 
testified here. You said that tools like sanctions can be an 
effective option. But so far, the sanctions in my view are way 
less than they should be. Do you agree that sanctions can and 
should be increased to provide a price that the Russians------
    Admiral Rogers. So now you are into a policy judgment. I 
will only say sanctions I think have proven to be an effective 
tool in many scenarios. I am not going to argue that they are 
perfect and they work all the time.
    Senator Blumenthal. But there will be a point where a cyber 
response should be appropriate.
    Admiral Rogers. Potentially although I would highlight when 
we think about deterrence, we need to think more broadly than 
just cyber. Just because someone comes at us in cyber, does not 
mean we should automatically default to, well, it has got to be 
an exact response in kind. I think we need to think more 
broadly and play to our broader strengths as a Nation.
    Senator Blumenthal. There is no question that the Russians 
attacked this country through cyber. Would you agree that 
Americans who colluded or cooperated with that attack also 
should be held accountable?
    Admiral Rogers. Broadly yes, but again, now you are 
starting to get into a legal and a policy piece, and that is 
just not my lane in the road.
    Senator Blumenthal. Well, your lane includes defending this 
Nation from cyber attack.
    Admiral Rogers. Yes, sir. But not necessarily action 
against particular individuals.
    Senator Blumenthal. Well, let us talk about a group of 
Americans who may have colluded or cooperated with the Russians 
in enabling or encouraging this kind of attack. By the way, 
they violated criminal laws if they did so. Would you not agree 
that they should be held accountable and that an investigation 
of it is appropriate and necessary?
    Admiral Rogers. I agree an investigation is appropriate and 
necessary, and if they violated the law, then, yes, sir. I am 
just not an attorney. I am not a lawyer. I am not a law 
enforcement individual. It is not my area of expertise.
    Senator Blumenthal. But unless they are made to pay a price 
as well, the Russians will be enabled and encouraged in the 
future.
    Admiral Rogers. Yes, sir.
    Senator Blumenthal. They will be paying less of a price as 
well.
    Admiral Rogers. Right.
    Senator Blumenthal. I feel like we are in a time warp here 
because when you were last here, we agreed that we need a 
policy and a strategy, as the chairman has articulated so well, 
and we still do not have one. Can you tell the American people 
whose responsibility it is to develop that strategy and policy?
    Admiral Rogers. It is ultimately the executive branch. 
There are multiple components, but ultimately it boils down to 
the executive branch. As I have said, look, we have a new team 
in place. They are working their way through this. In fairness 
to them, this is not a--this is a complicated topic with a 
whole lot of complexity and nuance. I know that these 
discussions are ongoing. I have been a part of some of them. I 
am grateful that the team is willing to reach out and say, hey, 
Admiral Rogers, from your perspective, what do you think, what 
do you see, what are you thinking about. So I do not want 
anybody walking away thinking nothing is going on, no one is 
thinking, they are not attempting to proactively try to grapple 
with these very tough problems.
    Senator Blumenthal. Well, I just want to conclude by 
stressing again that forcing the Russians to pay a price for 
their attack on this country requires compelling Americans who 
colluded or cooperated with them to pay a price, but also a 
strategy and policy for knowing when there is a cyber attack on 
this Nation, when it is an act of war that should prompt a 
response in the cyber domain or in other military domains and 
economic sanctions that also may force them to pay a price. 
Right now, our policy of deterrence is in my view an abject 
failure.
    Admiral Rogers. Not achieving the desired result. That is 
clearly true. Yes, sir.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Good to see you, Admiral. Thank you for your service.
    We have heard over and over again in multiple hearings--and 
we have got our cyber hearing in Homeland Security tomorrow. So 
this is really timely for me--about poor information sharing 
and understanding the challenges of classified information.
    My staff has tried to chart the national cybersecurity 
structure for me. The one thing that sticks out to me is this 
cyber unified coordinated group. It appears to me to be really 
the only place that our structure is set up under PPD-41 where 
the private sector entities really seem to plug into the 
national structure. The interesting thing is this cyber unified 
coordinated group is supposed to be in response to a 
significant cyber event. That is the operative phrase.
    In the United Kingdom, the NCSC [National Cyber Security 
Centre] has real-time collaboration with emphasis on exchange 
of classified information on an ongoing basis.
    My first question for you is has the cyber unified 
coordinated group ever been called into a session. Has there 
ever been ongoing meetings? Have there been any meetings of 
this particular group that is laid out in PPD-41?
    Admiral Rogers. It does interact. It does operate. I would 
be the first to admit, ma'am, I have to take the question for 
the record about has it ever physically met.
    We participated in it, and I am trying to remember if it is 
done. Some of the work we do virtually. We will take an issue 
and we will do it via email and video conference. If I could, 
if you would like, I can take that for the record.
    [The information referred to follows:]

    [Deleted.]

    Senator McCaskill. Yes, because I am trying to think. It 
seems to me like to me the Russian thing is a significant cyber 
event. I guess my problem is with this, I know we have spent a 
lot of time today struggling about what our policy is. It looks 
like to me that we do not really have anywhere where there is 
an ongoing meeting structure that integrates the private sector 
into what is a pretty convoluted setup that we have right now.
    Admiral Rogers. Could I disagree slightly, if I could?
    Senator McCaskill. Sure.
    Admiral Rogers. I think it is fair to say that at a sector 
level we do have constructs that enable that to occur. But one 
of the things the hack points out--for example, the Russian 
influence effort points out is we do not have a sector labeled 
U.S. election infrastructure like we do in power, like we do in 
transportation.
    Senator McCaskill. Although DHS has named election 
infrastructure as part of their critical infrastructure----
    Admiral Rogers. Right, now.
    Senator McCaskill.--responsibility.
    Admiral Rogers. Yes, ma'am. Now.
    Senator McCaskill. That happened last year maybe in 
response to this. I hopefully will find out more tomorrow.
    I guess it seems to me that when someone is impacting our 
elections, that overlooks all because if you look at this list, 
our national policies certainly impact chemical, commercial, 
communications, manufacturing, dams, I mean everything gets 
impacted.
    Admiral Rogers. Right.
    Senator McCaskill. Forget about Russia for a minute. Are 
you familiar with the UK [United Kingdom] model?
    Admiral Rogers. Yes, ma'am, very much so.
    Senator McCaskill. So why are we not doing that? What is 
wrong with it and why are we not emulating it more?
    Admiral Rogers. So, first, let us look at what the UK model 
is. They basically--I am going to paint a simplistic picture. 
They turned to their intelligence structure, in this case, GCHQ 
[Government Communications Headquarters], which NSA's 
equivalent. They turned to GCHQ and said you have the 
preponderance of capability, insight, expertise. We would like 
you to take a portion of that capability, and we are going to 
create this National Cyber Security Centre. In fact, the 
individual who runs it, a guy I have worked with for a long 
time, is a GCHQ employee. They decided that in their construct 
they were comfortable with that.
    For us on the U.S. side, we have always been less 
comfortable with the idea of, well, do you want the 
intelligence world to be the primary interface, if you will, 
with the private sector. For our UK teammates, they are just 
very comfortable with that. Their view is it is about aligning 
the greatest expertise and capability with the private sector, 
and there is not quite the same baggage or at least history or 
tradition.
    Because of that, on the U.S. side, we have taken a very 
fundamental different approach, I am hoping with this new team 
coming in, this is opportunity for us to step back and say to 
ourselves are we happy with the way this is working. I have not 
seen your diagram, but you have heard me say for a long time we 
have got to simplify the complexity of this structure to the 
outside world because if you are in the private sector and you 
are trying to figure out so who am I supposed to be dealing 
with and why this time was it you and the last time it was that 
organization and the next time you are telling me you want me 
to go there. We have got to simplify this.
    Senator McCaskill. Well, I am down for that. I think the 
curse and the blessing is how protective we are of classified 
information. I understand that challenge. But boy, oh, boy, 
pulling this group together after a significant cyber event, 
there is going to be a lot of Monday morning quarterbacking 
over whether or not more information should have been shared.
    Admiral Rogers. If I could also make one point. I agree 
with everything you said, but I would remind people perfect 
information sharing in terms of classified in and of itself 
will not necessarily fix every problem. If you look at 
reactions to the Russian hack, there were plenty of 
organizations that were provided the specific insights who just 
opted, for a variety of reasons, not to react in the same way. 
That was not about classification. So I just want to make 
people--I just want us to think us to think about, hey, this is 
the simple cure-all.
    Senator McCaskill. I get it.
    Admiral Rogers. I am not trying to say that you are 
painting that, ma'am.
    Senator McCaskill. No. I know it is not the simple cure, 
but I know that that underlying disease about information 
sharing goes deep and it is calcified. I want to make sure that 
we are aware of that.
    Admiral Rogers. Yes, Senator.
    Senator McCaskill. Thank you, Admiral.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Shaheen, please.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Admiral, for being here and for the job that you 
do.
    Just to pick up a little bit on Senator McCaskill and the 
issue of classified versus unclassified, the challenge with, in 
this case, the Russian hack with so much of the information 
being classified is that the American public does not know what 
is going on. When the American public does not know what is 
going on on an event of this magnitude, that is a real 
challenge for our democracy.
    I was not able to hear your testimony and the questions, 
obviously, because I was in another hearing. But I know that 
there have been a number of questions about the Russian hacking 
and what that means. But have you talked about what in the big 
picture that means? What is Russia really trying to do with the 
hack of our electoral system, with the hack of France, with the 
interference in Germany, with what they have done in many of 
the Balkan countries, in Eastern Europe? What is their goal?
    Admiral Rogers. Well, I am going to talk about the U.S. 
side and then talk about it more broadly.
    So on the U.S. side, as we indicated, speaking to you now 
as the Director of NSA, as we said in the intelligence 
community assessment, three primary goals we thought.
    First was to undercut the United States and its broad 
principles of democracy and try to send a message, hey, look, 
these guys are every bit as inconsistent as everybody else. 
They are not this high-on-the-hill, perfectly white and perfect 
structure. Look, they have pettiness. They work against each 
other. So to undercut our democracy.
    Secondly, they clearly had a preference that candidate 
Clinton not win, and they also wanted to ensure if she did win, 
that she was weakened.
    Then the report talks about the third objective was to 
try--and this is where NSA has a difference confidence level 
than my other teammates. But I agree with the judgment that the 
third objective was to help candidate Trump win. If you look at 
the activity they have done in the United States, if you look 
at the activity they have done in France, in Germany, they 
clearly are trying to help ensure that leaders they believe 
might be more inclined--it does not mean that they necessarily 
are, but the Russians appear to be assessing that some leaders 
might be more inclined to be supportive of their positions, 
their views, might engage in policies more favorable from a 
Russian perspective. You saw that just play out in the French 
election where there clearly was a difference between these two 
candidates and their views of Russia and the things they were 
talking in the campaign about if they won, what would some of 
their choices be in terms of national security policies for 
France and how that might impact the Russians.
    Senator Shaheen. But is the overarching strategy not not so 
much who the winners and losers are, but it is to undermine the 
public confidence in a democracy and how it works?
    Admiral Rogers. That is why I say that is a part of it. I 
am sorry if I did not make that jump on the foreign side as 
well. It is the same thing. That is an aspect of it.
    Senator Shaheen. Right. So just as they are engaging in a 
military buildup, just as they are engaging in the cyber 
intrusions, that the other thing they are engaging in is an 
effort to undermine Western democracies. That is another way 
they are going to undermine the West.
    Admiral Rogers. Right, to weaken them, to forestall their 
ability to respond because there is no political consensus 
because they distrust their institutions as citizens, et 
cetera. Yes, ma'am.
    Senator Shaheen. So I was in Poland after the Munich 
Security Conference and met with a number of officials there. 
Some of the people that we met with suggested that they were 
very concerned that we had not responded to the Russian attack 
of our election system. One of the things that really impressed 
me was the person who said, you know, if you are not willing to 
do anything about what Russia did in the United States 
intervening in your electoral system, fundamental to your 
democracy, how should we have any confidence that you will 
defend us when the Russians come after us.
    So what does it say to our allies that we have not been 
willing to take any overarching action against Russia for what 
they did? We have not been willing to pass stronger sanctions. 
We have not been willing to do other efforts to take action 
against them because of their interference. What does that say 
to our allies?
    Admiral Rogers. So I can certainly understand why our 
allies would be perplexed. If this conduct occurred, why are we 
not seeing X, Y, or Z? I certainly can understand that.
    One of the things we try to assure our allies, though, is 
this is one aspect of a broader set of issues. You should not 
question--it depends on the relationship, but in broad terms, 
you should not call into question our long-term commitment to 
you, for Poland, for example. Do not let there be any doubt of 
that.
    Senator Shaheen. So we are more committed to Poland than we 
are to addressing Russia's----
    Admiral Rogers. That is not what I said.
    Senator Shaheen. I know it is not what you said. But it 
leaves open to interpretation that assumption. So thank you.
    Admiral Rogers. Yes, ma'am.
    Senator Reed. Thank you.
    Admiral Rogers, thank you for your testimony today. As 
always, we appreciate your service, and would you communicate 
to your colleagues our appreciation for their service also?
    On behalf of Chairman McCain, the hearing is adjourned.
    [Whereupon, at 11:48 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
      organization for security and cooperation in europe (osce) 
               cybersecurity confidence building measures
    1. Senator Wicker. Admiral Rogers, the Organization for Security 
and Cooperation in Europe's (OSCE) 57 participating states have 
developed two sets of confidence building measures (CBM) to reduce the 
risks of conflict in cyberspace. CBMs can make cyberspace more 
predictable and less prone to misunderstandings. The first CBM 
established official contact points and communications lines to better 
share information and prevent misunderstandings resulting from cyber 
activities. The second CBM focused on enhancing interstate 
cybersecurity cooperation including, for example, mitigating attacks on 
critical infrastructure.
    Do you agree that such cooperative development of CBMs is helpful 
and in the national interest? What more can Cyber Command do to support 
CBM development?
    Admiral Rogers. [Deleted].
                               __________
             Questions Submitted by Senator Michael Rounds
                         taclane trusted sensor
    2. Senator Rounds. Admiral Rogers, I understand that NSA has a 
concept to protect unclassified network systems called TACLANE Trusted 
Sensor (TTS), and that this system has been piloted a number of times 
since 2013 within the Department of Defense. Additionally, I understand 
this system is currently undergoing additional pilot projects both 
within NSA and among the defense industrial base.

    Based on the pilot demonstrations completed so far, do you believe 
the TTS approach shows promise for broader application?
    Admiral Rogers. [Deleted].

    3. Senator Rounds. Admiral Rogers, what are the current pilot 
programs intended to demonstrate?
    Admiral Rogers. [Deleted].

    4. Senator Rounds. Admiral Rogers, what is the timeline for 
completing and evaluating these pilot programs?
    Admiral Rogers. [Deleted].

    5. Senator Rounds. Admiral Rogers, if the current pilot projects 
demonstrate a significant increase in the ability to detect intrusions 
on unclassified networks and increases the ability to respond, what 
would be the logical next step to more broadly deploy this capability 
to defend Department of Defense unclassified network systems?
    Admiral Rogers. [Deleted].

    6. Senator Rounds. Admiral Rogers, are there limitations that must 
be overcome before broader deployment would be possible?
    Admiral Rogers. [Deleted].
                            cyber workforce
    7. Senator Rounds. Admiral Rogers, given the importance of 
providing an able and diverse cyber workforce with regard to skills and 
geography, what initiatives are you undertaking to leverage academic 
institutions to train a capable cyber workforce and enable these 
personnel to support your mission within the geographic vicinities of 
these institutions?
    Admiral Rogers. [Deleted].

    8. Senator Rounds. Admiral Rogers, further, how do we ensure that 
the right brick and mortar and network infrastructure is in place to 
provide education and training at these institutions in order to arm 
the workforce with the critical knowledge, skills and abilities 
required for a qualified and ready workforce?
    Admiral Rogers. [Deleted].
                               __________
             Questions Submitted by Senator David A. Perdue
              efficiencies in cyber--training and networks
    9. Senator Perdue. Admiral Rogers, during your testimony, we 
briefly discussed the prospect of a joint, federated training program 
for the training of the cyber mission force (CMF). As I stated in the 
hearing, I believe we're in a fiscal environment where we simply can't 
afford waste and a security environment where we can't afford to have 
our services out of sync on this critical issue. What synergies can be 
achieved by training our cyber warriors jointly, and would we avoid 
duplication and waste by doing so?
    Admiral Rogers. [Deleted].

    10. Senator Perdue. Admiral Rogers, we covered this in our exchange 
in the hearing, but could you more thoroughly update me on the status 
of the forthcoming agreement on a joint, federated training program 
funded by the services for the training of the cyber mission force 
(CMF)?
    Admiral Rogers. [Deleted].

    11. Senator Perdue. Admiral Rogers, which service is the furthest 
along in their training of the cyber mission force?
    Admiral Rogers. [Deleted].

    12. Senator Perdue. Admiral Rogers, in your view, would it make 
sense to have the service that's furthest along take the lead for a 
joint training program and facility?
    Admiral Rogers. [Deleted].

    13. Senator Perdue. Admiral Rogers, has any other branch invested 
the same level of resources into cultivating a pipeline for increasing 
the DOD's cyber workforce as the Army has?
    Admiral Rogers. [Deleted].
        efficiencies in cyber--joint modernization of the dodin
    14. Senator Perdue. Admiral Rogers, you are responsible for defense 
of the DOD information network (DODIN); however, each of the Services 
are responsible for modernizing their networks, and every Service 
appears to be taking a different approach. Does it make sense to have 
each of the services developing their own networks?
    Admiral Rogers. [Deleted].

    15. Senator Perdue. Admiral Rogers, does it make sense not to have 
one uniform standard or one agency responsible for providing core 
network capabilities to the entire Department of Defense?
    Admiral Rogers. [Deleted].
                               __________
                Questions Submitted by Senator Jack Reed
 constraints and issues regarding ``cognitive'' information operations 
                           through cyberspace
    16. Senator Reed. Admiral Rogers, what are the legal and policy 
obstacles to DOD conducting ``cognitive'' information operations?
    Admiral Rogers. [Deleted].

    17. Senator Reed. Admiral Rogers, in terms of shielding the 
American people from consuming Government messaging in this age of 
globally interconnected networks, has the delineation become obsolete 
between information operations and messaging conducted overseas and not 
in the United States?
    Admiral Rogers. [Deleted].
                               __________
            Questions Submitted by Senator Claire McCaskill
                   national cyber security structure
    18. Senator McCaskill. Admiral Rogers, PPD-41 was signed on July 
26, 2016, creating the Cyber Response Group and makes it responsible 
for producing U.S. Government policy and strategy. The CRG is comprised 
of federal agencies, including the DOD, and the U.S. Government's 
relevant cyber centers, including CYBERCOM's JOC.
    Has the CRG met to discuss national strategy and policy since PPD-
41 being published?
    How many times and when?
    Has CYBERCOM been a part of these meetings? How many times?
    Admiral Rogers. [Deleted].

    19. Senator McCaskill. Admiral Rogers, PPD-41 also creates the 
Cyber Unified Coordination Group (UCG), which is tasked as the primary 
method for coordinating at the operational level between and among 
federal agencies in response to a significant cyber incident. The 
operative words being ``in response to,'' meaning it is a temporary 
entity.
    Has a UCG ever been stood up since PPD-41 being published?
    If so, how many times, when, and in response to what incident(s)?
    If so, and given the ad hoc nature of a UCG, which entities were 
involved in each UCG that was stood up?
    Admiral Rogers. [Deleted].
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                role of military in protecting industry
    20. Senator Hirono. Admiral Rogers, actors that participate in the 
``cyber world'' include state and non-state actors, as well as 
government agencies, civilians, and businesses. This leads to a 
confluence of interests such as national security, consumer and privacy 
interests, and economic interests where security and openness are in 
tension. What is the correct balance of government intervention to 
ensure that personal rights are not infringed upon, national security 
interests are protected and U.S. industry can operate in the worldwide 
economy without handcuffing it with regulations and government 
developed standards?
    Admiral Rogers. [Deleted].

    21. Senator Hirono. Admiral Rogers, is the military the best entity 
to defend the public sector/private business sector against cyber-
attacks?
    Admiral Rogers. [Deleted].

    22. Senator Hirono. Admiral Rogers, is the U.S. military properly 
resourced to defend the U.S. Government and the public sector at the 
same time?
    Admiral Rogers. [Deleted].
                    legal framework for cyber issues
    23. Senator Hirono. Admiral Rogers, the Department of Defense has 
been tasked with three cybersecurity missions: 1. Defend the military's 
network; 2. Provide offensive cyber support to military commanders; and 
3. Defend the nation from a cyber-attack of significant consequence. Is 
the legal framework in place to authorize the use of force against 
cyber threats in the United States and have the appropriate rules of 
engagement been developed to ensure that the level of force is 
appropriate to the threat?
    Admiral Rogers. [Deleted].
             how cyber security affects the private sector
    24. Senator Hirono. Admiral Rogers, in the 2015 FAST Act (5 year 
highway reauthorization act), Congress designated the Department of 
Energy as the lead agency for cybersecurity in the energy sector. The 
2015 Cyber Information Sharing Act similarly designated the Department 
of Homeland Security with similar responsibility for coordinating with 
the private sector. What statutory or agency-level changes would you 
recommend to enhance the flow of information and overall cooperation 
between CYBERCOM, the Department of Energy, and DHS to enhance 
cybersecurity in the energy and broader private sectors?
    Admiral Rogers. [Deleted].
                               __________
           Questions Submitted by Senator Angus S. King, Jr.
              securing the united states from cyber attack
    25. Senator King. Admiral Rogers, after several years of hearings 
on cyber threats and the role of U.S. Cyber Command, there is no doubt 
that cyber threats against the United States are real and dangerous. 
However, the government has taken little action to counter these 
threats.
    Please describe and prioritize five actions that U.S. Government 
actors can take now to better secure U.S. networks and infrastructure 
from cyber attack. Your suggestions could be legislative or regulatory 
in nature, or they could concern relationships that should be formed, 
for example.
    Admiral Rogers. [Deleted].



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         THURSDAY, MAY 25, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                              ARMY POSTURE

    The committee met, pursuant to notice, at 9:36 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Reed, McCaskill, Gillibrand, Blumenthal, Donnelly, King, 
Heinrich, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Armed Services Committee meets this morning to receive 
testimony on the posture of the United States Army and the 
fiscal year 2018 defense budget request.
    I am pleased to welcome Robert Speer, Acting Secretary of 
the Army, and General Mark Milley, Chief of Staff of the Army. 
This committee is grateful for both of you and your many years 
of distinguished service and your continued leadership of our 
Army.
    Sixteen years of war have tested the Army, perhaps more 
than any other service. Time and again, our soldiers have met 
the test and proved their commitment, courage, and 
determination. It is the duty of this committee and this 
Congress to do their utmost to provide them with the support 
they need and deserve.
    That starts by recognizing that our Army is still at war. 
At this moment, 186,000 soldiers are deployed in 140 locations 
around the globe. They are fighting terrorists and training our 
partners in Afghanistan, supporting the fight against ISIS 
[Islamic State] in Iraq and Syria, all the while reinforcing 
the defenses of our allies from the Korean DMZ to NATO's 
eastern flank. The burden imposed on our soldiers only grows as 
threats to our Nation increase and sequestration remains the 
law of the land.
    Given current operational demands, restoring readiness must 
be the Army's first priority. The sad reality is that the focus 
on readiness issues in recent years has made little to no 
difference. For yet another year, just over one-third of the 
Army's brigade combat teams are ready for deployment and 
decisive operations. Just three of the Army's 58 brigade combat 
teams are at the highest level of readiness. The Army still 
does not plan to return to full spectrum readiness until 2021 
at the earliest.
    The President's Budget request is supposed to be focused on 
restoring readiness. The buildup, the administration says, will 
have to wait a couple of years. That ignores what Army leaders 
have testified to this committee, which is that inadequate end 
strength is forcing the Army to consume readiness as fast as it 
produces it. In other words, the Army will never truly restore 
readiness until it begins to grow. Yet the President has 
submitted a fiscal year 2018 budget request that calls for zero 
additional soldiers.
    Meanwhile, the Army is woefully behind on modernization, 
and our soldiers are increasingly unprepared to confront the 
harsh realities of 21st Century warfare. Analyses by the 
National Commission on the Future of the United States Army, 
the Office of the Secretary of Defense, and the Army itself 
have pointed to glaring capability gaps in mobility, lethality, 
and survivability. These problems will only get worse as 
adversaries such as Russia continue to modernize their forces. 
Put simply, our Army lacks both the adequate capacity and the 
key capabilities to win decisively.
    We cannot move quickly enough to modernize our Army and 
give our soldiers the advanced capabilities they need to 
prevail against a determined peer adversary. Yet today, the 
Army has still not decided upon a comprehensive Army 
modernization plan for the future. Indeed, despite the great 
potential of advanced technologies, from Active protective 
systems to reactive armor to lethal munitions, the Army does 
not have a major armored fighting vehicle under design for the 
first time in nearly a century. It is little wonder our current 
National Security Adviser, General McMaster, remarked a year 
ago that the Army is--and I quote--outranged and outgunned by 
many potential adversaries.
    The Army's modernization woes are undoubtedly connected to 
the service's disastrous acquisition record over the last two 
decades: too many underperforming of canceled programs, too few 
real capabilities fielded, and far too much taxpayer money 
wasted. Tens of billions of dollars were squandered on programs 
like the Future Combat System, the Comanche attack helicopter, 
the Crusader howitzer, the Joint Tactical Radio System, and the 
Distributed Common Ground System-Army. Most recently, the 
committee has learned of the failure of the Warfighter 
Information Network-Tactical, or WIN-T [Warfighter Information 
Network-Tacticle]. This program--I urge my colleagues, if they 
do not pay any attention to anything I say today--this program 
has cost the taxpayer over $6 billion and has yet to meet the 
requirements of our warfighters. $6 billion.
    But even with all that said, it is also true that the Army 
will never recover from this troubled acquisition history if it 
is paralyzed by fear of repeating it. This committee has acted 
in the last two defense authorization bills to empower the 
leaders of Military Services in the acquisition process. I urge 
our witnesses to use these new authorities to drive bold 
change.
    Building a modern Army that can win decisively in the harsh 
environs of 21st Century warfare will require visionary 
leadership. You will have to learn the lessons of the past, 
make tough decisions, take and manage real risks, and hold 
yourselves and those under your command accountable for 
results. When you do so, you will always have an ally in this 
committee because I believe our soldiers cannot afford the 
false choice between readiness and modernization. We can and 
must do better.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, for 
holding this very important hearing. The Army is the first 
service to testify before the full Senate Armed
    Services Committee on their fiscal year 2018 budget 
request.
    I would like to join you in welcoming Acting Secretary 
Speer and General Milley at today's hearing. We commend both of 
you gentlemen for your service to our country and for your 
steadfast leadership of the Army.
    In light of the new challenges facing the Army from 
rebuilding readiness and modernization, it underscores how 
important it is that we confirm a permanent Secretary of the 
Army.
    The President's fiscal year 2018 budget submission for the 
Department of the Army includes $166 billion in total funding, 
of which $137.1 billion is for base budget requirements, and 
$28.9 billion is for overseas contingency operations. This 
represents roughly a $5.1 billion increase over the fiscal year 
2017 request.
    As the committee considers the Army's funding request, we 
must always be mindful of our national security challenges. It 
is highly unlikely that the demand for Army forces will 
diminish in the near future. Currently more than 180,000 
soldiers, Active, Reserve, and Guard, are serving in over 140 
countries, and while we continue to field the most capable 
fighting force in the world, 16 years of sustained military 
operations, focused almost exclusively on counterterrorism, has 
taken a toll on the readiness of our soldiers. Today, less than 
one-quarter of our Nation's Army is ready to perform their core 
wartime missions, and some critical combat enabler units are in 
far worse shape. In addition, the evolving threats facing our 
Nation impacts readiness as the Army needs to train to fight a 
near-peer competitor in a full spectrum environment. 
Unfortunately, while additional funding is important, it is not 
the sole solution to restoring readiness levels. It will take 
both time to rebuild strategic depth and relief from high 
operational tempo.
    I applaud the Army for making readiness their number one 
priority, and General Milley, I look forward to your thoughts 
on the Army's progress.
    While readiness is vital, we cannot neglect investments in 
the modernization of military platforms and equipment. The 
Army's fiscal year 2018 budget request, $27.8 billion for 
modernization efforts, which includes $18.4 billion for 
procurement and $9.4 billion for research, development, test, 
and evaluation activities, is the current request. I would like 
to know if our witnesses feel confident that the funding for 
modernization is adequate.
    A recent focus of this committee has been to improve DOD 
acquisition processes, as the chairman mentioned, to help 
reduce costs and to deliver the best new technologies and 
systems for our operational forces more quickly. I hope we can 
hear more about Army's successes in improving acquisition, what 
role the Chief is playing in those changes, and what, if 
anything, this committee can do to be supportive.
    In the area of personnel, the budget requests the same 
Active Duty end strength as enacted in the 2017 NDAA while 
again seeking measures to slow the growth of personnel costs. 
The President's budget requests a pay raise of 2.1 percent; 
modernization of the military health care benefit, including 
cost sharing fees; and further implementation of the blended 
retirement system, which will begin in 2018. I hope to hear 
from the witnesses their views on the cumulative impact these 
changes will have on the Army and its ability to recruit and 
train the best for Military Service.
    I applaud the Army for its integration of women into all of 
its formations, without restriction, including combat and 
special operations units, an evolution that I believe will 
greatly enhance the Army's ability to fill the ranks with the 
very best. The Army will need to recruit from all corners to 
meet the higher end strengths, and it is imperative that the 
Army not lower standards.
    I understand there may be calls by some to increase the 
Army's Active Duty strength in 2018 above the President's 
budget request. I caution that there must be a plan in place to 
use these additional personnel and to pay for them. Training 
and readiness are important, even paramount, and maintaining 
and enhancing the fighting ability of the force we have must 
take precedence over recruiting a larger force that may not be 
ready.
    Finally, as I have stated previously, enforcing budget 
discipline through the Budget Control Act is ineffective and 
shortsighted. I believe the Senate in a bipartisan fashion 
should repeal the BCA [Budget Control Act] and establish a more 
reasonable limit on discretionary spending in an equitable 
manner that meets our domestic and defense needs. While 
sequestration is the law of the land, budget requests that 
exceed the spending caps are not useful because they allow the 
military to plan for funds that are likely not forthcoming, 
adding to the uncertainty DOD seeks to avoid.
    There are many urgent issues to discuss this morning. I 
thank our witnesses for appearing before the committee. I look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome, Secretary Speer.

STATEMENT OF HONORABLE ROBERT M. SPEER, ACTING SECRETARY OF THE 
                              ARMY

    Secretary Speer. Mr. Chairman, distinguished members of the 
committee, I speak to you on behalf of our soldiers, civilians, 
families about the current state of America's Army.
    Your Army continues to march towards increased readiness 
while gaining momentum on modernization. Over the past year, 
the Army has been rebuilding readiness to counter the threats 
to the United States and our allies. You have heard General 
Milley talk about readiness as our number one priority, and I 
have witnessed firsthand the readiness needs as I visited 
soldiers across our Army over the past 4 months. I saw the 
strain a high demand for Army forces puts on our total Army, 
their families, our civilian workforce. Frequent deployments 
and aggressive training schedules needed to prepare our units 
are taking their toll.
    The pace of operations is as high as it has been in the 
past 16 years. Units are as busy at home as they are when they 
are deployed. I have seen and heard these impacts watching 
training and learning from senior leaders, soldiers, families 
at town halls like the one I recently attended at Fort Bragg. 
Soldiers told me what they are going through and the impacts of 
constant deployments and training. I met soldiers training at 
Fort Stewart, and a month later, I saw these same soldiers at 
the National Training Center just months after returning from 
Europe, adding additional stress to Army families.
    I thank Congress for the fiscal year 2017 budget, a 
critical step of easing the strains while rebuilding readiness. 
Just a few weeks ago, I was with both regular Army and National 
Guard soldiers working shoulder to shoulder with our NATO 
partners in Europe. These forces rely upon readiness 
investments you made to organize, train and equip them, and 
make this country safe, deterring Russian aggression and 
reassuring our allies in Europe.
    Your funding stopped the decline of Army manning levels. It 
ensured deploying units like the soldiers from Fort Drum I met 
in Europe now have the increased flying hours to fund readiness 
improvements. Fiscal year 2017 funding enables us to modernize 
aircraft, armored vehicles, and air and missile defense 
systems. Your authorization has also increased investments in 
our ammunition stocks and upgraded infrastructure and 
production line capacities in the Army's organic industrial 
base. This is a good first step ensuring we have the munitions 
we need and into the future.
    Our $137.2 billion fiscal year 2018 budget request sustains 
1,018,000 total Army. This Army will be capable of meeting 
global obligations while investing in capabilities for wartime 
operations and challenges. This budget builds on the fiscal 
year 2017 by continuing readiness improvements. It begins a 
long-term effort to improve long-range fires, air missile 
defense, continues to replenish munitions stocks and provide 
advance protective systems for combat vehicle and aviation. It 
begins to fill shortfalls in transportation capabilities, and 
it will sustain increased armored brigade combat teams and 
combat aviation brigades, both in high demand across the globe.
    If we do not get the money we request, we will not be able 
to modernize our Army and thus continue to mortgage our future 
readiness. Above all, the Army needs sufficient, sustained, 
predictable funding to restore balance and reduce risk.
    The Budget Control Act and continuing resolutions cause 
uncertainty. They force us to make trades and prioritize 
readiness over other investments, raise the defense caps. It is 
far more cost effective for the Army to balance current 
operations and future modernization when we can rely upon 
predictable funding that extends beyond a single year's budget.
    We are the stewards of the funds you provide on behalf of 
our Nation. We are committed to Secretary Mattis' emphasis to 
rebuild and reform our processes and resources efficiently and 
effectively.
    To this end, the Army will conduct a financial statement 
audit on 30 September this year and will remain audit-ready. 
The Chief and I are aggressively reforming acquisition 
processes. We must deliver capabilities to warfighters quicker 
and at lower cost.
    I want to provide every soldiers, civilian and family 
members, the care and respect they deserve. The Army is making 
progress against stamping out sexual assault, sexual 
harassment, and retaliation, and other offensive behaviors. As 
a former Army officer married to a former Army officer and the 
father of four, this is a personal priority. We demand respect 
among our soldiers and civilians and will not tolerate 
destructive behavior in our formation.
    In addition, our continuing Soldier 2020 initiative of 
standards-based assignment regardless of gender is working and 
saw success at Fort Benning, Georgia.
    Thank you once more on behalf of the men and women of our 
Army. Your funding for fiscal year 2017 restored the balance to 
our Army. We are asking you to provide resources in the fiscal 
year 2018 request and provide budget predictability into the 
future. With your help, the Army will continue to build 
readiness and modernize to meet the challenge.
    Thank you and I look forward to your questions.
    Chairman McCain. Thank you.
    General Milley?

STATEMENT OF GENERAL MARK A. MILLEY, USA, CHIEF OF STAFF OF THE 
                              ARMY

    General Milley. Thanks, Chairman McCain and Ranking Member 
Reed, and all the distinguished members of the committee for 
the opportunity to testify today.
    I just want to take a moment to publicly express to our 
great ally, the British people, the condolences of the entire 
United States Army on the horrific attack against the innocent 
in Manchester. This should also serve as a stark and brutal 
reminder to all of us that our efforts against ISIS and their 
fellow terrorists are righteous and just. ISIS must be 
destroyed and ISIS will be destroyed.
    For the past 16 years, the United States Army has 
continuously provided trained and ready forces in Afghanistan 
and Iraq as we simultaneously executed a wide array of missions 
in support of the geographic commanders around the world, as 
the chairman noted earlier, in Europe, Korea, Africa, South and 
Central America, with 180,000 troops in 140 countries. About 40 
or 50 percent or so of the demand from the combatant commanders 
is met by Army forces, and about 70 percent of unexpected 
emergent demand is met by Army forces. The bottom line is the 
United States Army continues to meet all missions required of 
us and we still remain the best ground combat force in the 
world.
    However, as the chairman earlier pointed out, the United 
States is increasingly being challenged and gaps in both 
capability and capacity have emerged. You, this Congress, 
recognized that, and your support in the fiscal year 2017 
budget stopped the downward trend in readiness and capacity for 
the Army. The Army is making very, very slow and very steady 
progress but slow progress in our core warfighting skills 
across the Total Force, and we still have much, much more work 
to do to achieve full spectrum readiness and modernization.
    The most significant help we can get from Congress, 
frankly, is a steady, predictable funding line, raise the BCA 
top line, and stop using CRs from year to year. Adequate and 
predictable funding is absolutely vital to combat ISIS, fully 
recover our readiness, address capacity and capability 
shortfalls, and is a critical first step to set the conditions 
for improving future readiness that will be needed in an 
unforeseen contingency. If the BCA and the CRs continue to 
define our resourcing, then we risk reversing our readiness 
recovery that has just begun, and it will result in a hollow 
Army. That will show up in the blood of our soldiers on some 
unknown future battlefield.
    While I recognize the Code Pink protesters behind me and I 
recognize their right to protest, everyone should be mindful 
that the right to protest is purchased with a soldier's blood.
    Combat is unforgiving, and it is more unforgiving on armies 
that are not manned, trained, equipped, or well led. Advances 
by our adversaries are real. It is not fake news. Their 
advances in capability, capacity, and their increasing 
willingness to use that military instrument of power in foreign 
adventures.
    The cumulative effect of persistent and destructive budget 
instability is increasing risk not only for the Army, but for 
the Nation. Readiness, capacity, and capability to deter or, if 
necessary, to fight and win wars is very, very expensive. We 
know that. The cost of preparation is always far less than the 
cost of sacrifice and the pain of regret. The current 
battlefield against terrorists is already very lethal, but a 
future battlefield against a near-peer or regional threat will 
prove far more lethal. Our adversaries study us and they are 
rapidly leveraging technology, improving their capabilities, 
and are clearly asserting themselves in many ways both seen and 
unseen. I am telling you time is not our ally. Witness the 
almost weekly provocations by North Korea, to cite just one 
example.
    We request your support for this budget, which we recognize 
increases the defense caps imposed by the BCA, but we need this 
and we need it now before it is too late.
    Specifically, the Army requests congressional support for 
our readiness and modernization priorities. In readiness, we 
want to retain the end strength increases authorized in the 
fiscal year 2017 bill to fill the force structure to combat 
levels of manning. We want to continue investment in high 
quality home station and combat training center OPTEMPO 
[Operational Tempo] and the operations and maintenance to 
support that. We want to increase our aviation and ground 
maneuver capacity, replenish critical ammunition stocks, and 
continue supporting our efforts to maintain aging equipment. In 
modernization, our future readiness by another term, we ask for 
your support for air and missile defense, long-range fires, 
preferred munitions, mobility and lethality improvements for 
our brigade combat teams, Active protection systems for air and 
ground capabilities, assured mission command electronic 
warfare, cyber, and vertical lift.
    We recognize that the American taxpayer entrusts us with a 
significant amount of money to meet those requirements, and we 
will be diligent stewards of our resources and enforce 
accountability to make effective use of every dollar. Senator 
McCain, I commit to you that we will not make the mistakes of 
the past in the acquisition process.
    Your support the fiscal year 2018 budget will ensure our 
soldiers are ready for the missions of today, as we prepare for 
the unforeseen conflicts of tomorrow.
    I thank you for the opportunity to testify and look forward 
to your questions.
    [The prepared statement of Secretary Speer and General 
Milley follows:]

Prepared Statement by the Honorable Robert M. Speer and General Mark A. 
                                 Milley
                              introduction
    We thank Congress for the fiscal year (FY17) budget that allows us 
to improve readiness. With consistent, strategy-based funding over 
time, the Army can increase capacity, train contingency forces, close 
critical modernization gaps, and rebuild installation and training 
infrastructure--all while maintaining excellence in the execution of 
current operations. To that end, an increase in the budget caps and a 
defense budget sized to achieve the objectives in the Defense Planning 
Guidance are critical to the United States Army accomplishing assigned 
missions to a standard expected by the American people.
    Over the past 15 years of war, the Army has continuously provided 
trained and ready forces for combat operations in Iraq and Afghanistan 
to a standard of excellence equal to any in our Nation's history. 
Simultaneously, the United States Army has executed a wide array of 
combatant commander missions, providing forces to Europe, the Pacific, 
the Middle East, Africa, Latin America, and the Homeland. Today, the 
United States Army assigns or allocates over 187,000 soldiers to meet 
combatant commander requirements. However, the fiscal impacts of the 
Budget Control Act of 2011 and continuing resolutions have required the 
Army to take risk when meeting current operational requirements while 
maintaining a ready force for major combat operations.
                         strategic environment
    The United States Army forms the foundation of the integrated Joint 
Force facing several U.S. national security challenges. For almost two 
decades, the Army has provided the majority of United States forces 
fighting two prolonged counterinsurgencies in Iraq and Afghanistan. 
United States Army capabilities are key to deterring Russian, Chinese, 
Iranian, and North Korean challenges to United States national 
interests. Additionally, United States Army soldiers defend the 
Homeland against intercontinental ballistic missiles and provide 
support to civil authorities in the event of unforeseen natural and 
man-made disasters.
    Russia is likely to continue employing a mix of conventional and 
unconventional military capabilities to achieve its policy objectives. 
Russia's conventional capabilities are formidable and, in many areas, 
challenge ours and those of our allies and partners. The Army 
contributes 34,000 soldiers in support of United States European 
Command's effort to deter acts of aggression and ensure America's 
safety and security. The forward presence of United States soldiers is 
the keystone of our Nation's ability to assure North Atlantic Treaty 
Organization (NATO) Allies and non-NATO partners, deter adversaries, 
and act in a timely manner if deterrence fails. We must invest in 
strategically prepositioned equipment stocks in addition to rotational 
and permanently stationed forces on the ground in Europe today. The 
result of prepositioned stocks in conjunction with forward deployed and 
rotational forces increases assurances to our allies and deters 
potential enemies.
    The Army has about 71,000 soldiers in the Indo-Asia Pacific to 
counter a myriad of security challenges from regional adversaries, 
violent extremist organizations, and natural disasters. In South Korea, 
the Army serves alongside our Republic of Korea counterparts to deter, 
and if necessary `Fight Tonight' against an increasingly dangerous 
North Korea. China's disputed territorial claims and assertive actions 
in the South and East China Seas increase tensions with many friends 
and allies. Additionally, ISIS-inspired attacks in Bangladesh, 
Indonesia, the Philippines, and bombings in Thailand in 2016, 
demonstrate the persistent terrorist threat in South and Southeast 
Asia. Specific Army investments that provide the Joint Force a more 
comprehensive rapid response force in the Pacific include: enhanced 
joint integrated air and missile defense, offensive and defensive 
counter-electronic warfare, and cyber capabilities. Additional 
investments support rotational forces to South Korea and a robust 
training and exercise program to increase interoperability and build 
partner capacity with our friends and allies.
    The Middle East and Central Asia are rife with threats and 
challenges. Iran's growing ballistic missile activities, cyber threats, 
and interference in Syria further threaten stability in the Middle East 
and the security of our allies. Russian intervention in Syria and 
increased influence throughout the region while ISIS continues a 
campaign of terror across the Middle East, adds to instability and 
inhibits long-term progress in the region. The Army's presence in the 
Middle East assures access, builds a foundation of trust, and prevents 
the ongoing conflicts from spilling over to other regions, including 
the Homeland. Nearly 42,000 soldiers throughout the area support the 
defeat of ISIS in Syria and Iraq, deny enemy safe havens in 
Afghanistan, deter Iran, support Turkey, assist with the stability of 
Jordan, and build partner capacity with our partners.
    United States Army and African partnerships promote regional 
stability and provide increased awareness and flexibility. United 
States Africa Command employs United States Army forces in small teams 
and units that train with African security forces, assist in building 
capable defense institutions, and support counter-extremist and other 
contingency operations. These efforts assist our African partners in 
their fight against violent extremist organizations--ISIS, al-Shabab, 
and Boko Haram. During fiscal year 2016 over 9,000 soldiers deployed 
throughout Africa. These soldiers participated in over 250 security 
cooperation events, exercises, and missions in more than 30 countries; 
highlighted by Central Accord 2016 in Gabon, where over 1,000 soldiers 
participated with counterparts from 11 African nations as part of a 
peacekeeping training event.
    Approximately 4,000 soldiers support military operations in Central 
America, South America, and the Caribbean. Transregional terrorist 
organizations, transnational organized crime, and violent extremist 
networks are the principal threat to regional security and stability. 
United States Army forces, including aviation, intelligence, 
communication, special operations, and logistics units, actively 
support partner nations' efforts to disrupt, degrade, and dismantle 
these threat networks operating in the region. In October 2016, in 
response to Hurricane Matthew and at the request of the U.S. Agency for 
International Development, the first Category 5 Atlantic hurricane 
since 2007, U.S. Southern Command stood up a Joint Task Force to 
support United States Government disaster relief operations in Haiti 
and Jamaica. U.S. Southern Command deployed United States Army air 
assets, including CH-47 Chinooks, UH-60 Black Hawk utility helicopters 
and HH-60 Medical Evacuation helicopters, which provided the ability to 
quickly move heavy loads of humanitarian aid, conduct medical 
evacuation missions, transport key leaders around the area, and conduct 
early reconnaissance flights to identify the hardest hit areas. The 
efforts of these soldiers assisted in the delivery of more than 349,000 
pounds of relief to areas devastated by Hurricane Matthew.
    At home and abroad, the United States Army secures, operates, and 
defends its networks and conducts cyber operations against a growing 
array of sophisticated cyber adversaries. The Army secures and operates 
its global enterprise network through four Theater Signal Commands and 
five Regional Cyber Centers. The Army has 41 Active Component Army 
Cyber Protection Teams that conduct cyber operations against near peer 
adversaries, ISIS, and other global cyber threats. We are building an 
additional 21 Reserve Component Cyber Protection Teams giving the Army 
62 Total Force Teams. These teams deliver effects against our 
adversaries in support of ground commanders, defend military networks, 
secure Army weapons platforms, and protect critical U.S. 
infrastructure. We request congressional support of our fiscal year 
2018 budget to continue to modernize our global enterprise network and 
advance defensive and offensive cyber capabilities to safeguard the 
Nation's security interests.
    In sum, over 187,000 soldiers support combatant commander 
requirements worldwide. Our soldiers directly contribute to our 
Nation's efforts to defeat ISIS, support governance in Afghanistan, and 
deter conflict throughout Europe, Asia, and the Middle East. This 
steady demand for trained and ready Army units provides our Nation with 
the ability to defeat adversaries, assure our partners, and deter 
potential aggressors.
                     impacts of fiscal uncertainty
    For the past five years, the Army has been working to build and 
sustain a ready force. However, this has been a significant challenge 
due to the Budget Control Act of 2011, Continuing Resolutions, and 
unforeseen changes in the strategic environment that include an 
assertive Russia, an increasingly threatening North Korea, and ISIS 
controlling territory across Iraq and Syria. To respond to the current 
strategic environment, the Army has chosen to prioritize readiness.
    While the Army remains focused on accomplishing the current 
missions of the combatant commanders, the negative impacts of the 
Budget Control Act of 2011 have been significant. These impacts include 
a smaller Army, spending less on modernization, and deferring 
installation maintenance. The consequences are real and will manifest 
themselves if the Army is required to fight in a major conflict. 
Congressional support for a Base Realignment and Closure authority 
would allow the Army to invest in readiness and modernization programs 
rather than excess infrastructure.
    Over the last 8 years, the Army reduced end strength by over 
100,000 soldiers. This reduction included removing 17 brigade combat 
teams from the Army. To meet the end strength reduction targets, the 
Army reduced forward stationed forces in Europe and Korea, replacing 
them with rotational forces from the United States. The impact of this 
reliance on rotational forces is a deployment tempo that rivals the 
surge periods in Iraq and Afghanistan.
    Over the same 8-year period in which we reduced the Army by 100,000 
soldiers, Continuing Resolutions and constrained funding under the 
Budget Control Act of 2011 forced us to pay short-term bills at the 
expense of long-term investments. A consequence of underfunding 
modernization for over a decade is an Army potentially outgunned, 
outranged, and outdated on a future battlefield with near-peer 
competitors. The Army's combat platforms include tanks, helicopters, 
infantry fighting vehicles, artillery, and short range air defense 
systems that are decades old. As technology continues to advance, our 
Army risks falling further and further behind. In short, the Army's 
lack of investment in modernization is eroding our competitive 
advantage in ground combat operations.
    Additionally, the Army deferred maintenance of our installations 
for many years. The Army generates readiness on the installations where 
soldiers live, work, and train. Installations provide the platforms 
where the Army focuses on its fundamental task--readiness. Our military 
construction investment remains at historically low spending levels and 
focuses on replacement of failing and obsolete training, operations, 
maintenance facilities, and footprint consolidation. Deterioration of 
our installations adversely impacts soldier and family quality of life, 
maintenance of equipment, deployment of forces, and our ability to 
mobilize reserve components.
    Overall, the Budget Control Act of 2011, Continuing Resolutions, 
and unforeseen changes in the strategic environment have forced the 
Army to prioritize readiness. The tradeoffs were a smaller Army, 
smaller investments in modernization, and deferring installation 
maintenance. The principal negative impacts of these tradeoffs have 
been stress on the force, eroded competitive advantage, and 
deteriorating installations. Immediately increasing the defense cap and 
predictably funding the Army as requested are the most important 
actions Congress can take to address the changing needs of the global 
security environment.
                       readiness to fight tonight
    Readiness deters and wins wars. An investment in readiness is time 
consuming and expensive, but the only thing more costly than funding 
readiness is the loss of life associated with sending soldiers into 
battle unready. Ultimately, the United States Army must be prepared to 
respond to crises in sufficient numbers with sufficient training and 
equipment to fight and win with little-to-no notice. The National 
Defense Authorization Act for fiscal year 2017 end strength increase of 
28,000 soldiers over the fiscal year 2017 President Budget's proposal 
is much appreciated to ensure the Army has fully manned formations. 
With a fully resourced end strength, the Army can sustain its global 
commitments. The fiscal year 2018 budget translates into better 
training, increased equipment, installation maintenance, additional 
munitions, and increased modernization that will improve the United 
States' ability to meet the requirements in the Defense Planning 
Guidance.
    In 2014, the United States Army began the transition from training 
for a decade-long counterinsurgency campaign to training for major 
combat operations. Over the next 2 years, the Army's challenge is to 
balance the requirements of remaining regionally engaged, while 
simultaneously preparing to meet the demands of a globally responsive 
contingency force. As a result, the Army increased resources provided 
to Combat Training Centers and home station training. Throughput at 
Army Combat Training Centers increased over 10 percent--an increase 
from 17 to 19 brigade combat team rotations annually. These rotations 
challenge unit commanders at the brigade and battalion-level with 
realistic training scenarios that integrate unmanned aerial vehicles, 
cyber, intelligence, electronic warfare, communication, fire support, 
and aviation assets.
    In addition to increased training opportunities, the Army initiated 
the Associated Units Pilot in order to build readiness and 
responsiveness across the Total Force. Under this program, the Army 
associates Army National Guard and Army Reserve units with a gaining 
Regular Army unit commander and vice versa--associates Regular Army 
units with gaining Army Reserve and Army National Guard commands. The 
receiving unit commander is responsible for approving the associated 
unit's training program, reviewing its readiness reports, and assessing 
its resource requirements. Associated units also train with their 
gaining units to the maximum extent feasible, including leader 
development, field training, command post exercises, and combat 
training center rotations. Congressional support for these efforts will 
increase Army readiness by shortening the post-mobilization training 
time required for combat and combat enabling units of the Army National 
Guard and the Army Reserve.
    An adequately manned and trained Army deserves the best available 
equipment when responding to crisis. Last year, the Army established 
the Rapid Capabilities Office to acquire equipment and services quickly 
and at less cost. Targeting the mid-term time horizon, the Rapid 
Capabilities Office works with select industry partners to address 
critical modernization gaps including assured positioning, navigation, 
and timing; counter-electronic warfare; automation; and cyber 
capabilities. The Rapid Capabilities Office is already providing 
electronic warfare capabilities to Army forces in Europe and, with 
Congressional support, will provide deployed soldiers with next-
generation batteries and a supplemental positioning, navigation, and 
timing capability by 2020.
    Additionally, the Army must provide state-of-the-art equipment in 
sufficient quantities to the units responding to crisis. To respond to 
crises in a timely manner, the Army positions sets of military 
equipment around the world. These sets, Army Prepositioned Stocks, 
decrease deployment time because they place military equipment closer 
to the potential point of need. Army Prepositioned Stocks, in 
conjunction with strategic sealift and airlift, provide Joint Force 
commanders with faster access to needed combat formations and enablers 
in order to reassure our allies and, if necessary, defeat our 
adversaries. The accelerated growth of Army Prepositioned Stocks in 
Europe positions equipment for a division headquarters, two Armored 
Brigade Combat Teams, one Field Artillery Brigade, and division 
enablers for rapid access by the Joint Force Commander. Similarly, Army 
configured Prepositioned Stocks in Asia shortens the timelines 
associated with a contingency in the Pacific Command. With 
congressional support, increased investment in Army Prepositioned 
Stocks in Europe and Asia will underwrite the ability of national 
leaders to provide flexible options consistent with United States 
national interests.
    There is no greater responsibility in the Army than to lead 
American soldiers in peace or war. Leader development is critical now 
and for our future. Professional military education combined with 
practical experience in leadership positions is the principal way the 
Army builds leaders. With Congressional support, the end product of 
increased investment in leader programs is officers and non-
commissioned officers (NCO) of competence and character, fit to lead 
men and women in combat.
                    modernization: equipped to fight
    Army modernization advances materiel solutions that enable the Army 
to retain our advantage against advanced adversaries and a broad range 
of other potential threats. The Army's fiscal year 2018 budget request 
prioritizes the requirements necessary to deter and, if required, 
defeat near-peer adversaries. The Army modernization priorities are: 
air and missile defense; long range fires; preferred munitions; 
mobility, lethality and protection of our Brigade Combat Teams; active 
protection; assured positioning, navigation and timing; electronic 
warfare; cyber; assured communications; and vertical lift. The Army 
also requests congressional support to improve our soldier and combat 
service support equipment.
    The air defense and long range fires portfolios contain our most 
urgent and pressing capability need to respond to challenges we have 
not faced in decades. Our potential adversaries have substantial anti-
access and area denial capability, with many weapons and munitions 
whose quantity, range, and lethality have significantly improved. 
Specifically, we need to rapidly improve and procure our Army Tactical 
Missile System and Guided Multiple Launch Rocket System rockets, 
develop a cannon delivered area effects replacement munition, and 
improve the industrial base supporting the production of our precision 
and preferred munitions. To mitigate the increased risk to the maneuver 
force from airborne threats, such as rotary wing and fixed wing 
aircraft, Unmanned Aerial Systems, and cruise missiles, the Army is 
recapitalizing the existing Avenger systems and Stinger missiles, while 
developing the next generation of kinetic and non-kinetic short range 
air defense capabilities.
    The Army has developed a Combat Vehicle Modernization Strategy for 
our Abrams, Stryker, Bradley, Armored Multi-Purpose Vehicle, and 
Howitzer fleets. These programs are ready to go into production. Our 
request includes increased funding to reduce the currently programed 
30-year replacement timeline. It also includes funding to enhance the 
mobility and lethality of our light infantry units by providing them 
with both the ground mobility vehicle and the mobile protected 
firepower vehicle. All of our vehicles need to be protected against 
rocket propelled grenades and anti-tank missiles. However, quantities 
of armor protective technology are limited. The request includes 
funding for additional protective technology, which is currently 
available only in limited quantities. These active protection systems 
use sensors, radar, computer processing, fire control technology and 
interceptors to defeat incoming anti-tank missiles. This capability 
will save American lives.
    Similar to combat on physical battlefields, friendly and enemy 
forces fight for dominance in space, cyber, and the electromagnetic 
spectrum. The Army is developing anti-jam antennas that guard against 
attacks on our global position systems. Additionally, the Army is 
leveraging off-the-shelf hardware and software solutions to address 
shortfalls in offensive and defensive cyber capabilities. We are also 
developing the Multifunction Electronic Warfare system, to provide 
commanders the ability to plan, detect, defend, and attack in the 
electromagnetic spectrum. Vital to the success of our soldiers on the 
battlefield, we are adapting our tactical radio waveforms to protect 
our communication network. Congressional support will enable the Army 
to increase capabilities and reduce risk in space, cyber, and the 
electromagnetic spectrum.
    Our communications network is critical to enable mission command of 
ground combat operations. We request support to accelerate fielding of 
mission command network systems and increase procurement of the Joint 
Battle Command Platform to decrease software vulnerabilities and 
increase interoperability. Congressional support of the request will 
enable the Army to increase capability and reduce risk.
    The Aviation portfolio adopts the recommendation of the National 
Commission of the Future of the Army to retain more Apache units, but 
cannot support aggressive modernization under the current Budget 
Control Act of 2011 caps. To implement the Commission's 
recommendations, the Army is incrementally procuring new Apache 
aircraft by slowing the modernization of the UH-60 Blackhawk program. 
This strategy extends the modernization timeline for Apaches from 
fiscal year 2026 to fiscal year 2028 and Blackhawks from fiscal year 
2028 to fiscal year 2030. We also need to pursue a rapid solution for 
aircraft survivability given the proliferation of anti-aircraft weapons 
on the battlefield. Additionally, we are expanding the production of 
the Hellfire missile to meet current demand while transitioning to the 
Joint Air-Ground Missile to prepare for possible future contingencies. 
The Army's fiscal year 2018 budget request includes funding increases 
in aviation munitions, survivability, and modernization.
    Our soldiers remain the backbone of every Army capability, and our 
infantry units must be equipped with modern weapons. We request support 
to increase readiness by completing M4A1 Carbine pure-fleet fielding, 
developing Next Generation Squad Weapons, procuring anti-tank weapons, 
such as the Javelin and tube-launched, optically tracked, wire-guided 
(TOW) anti-tank guided missiles, and beginning procurement of the 
Lightweight Command Launch Unit for Javelin. Additionally, we seek 
congressional support for a variety of simulators and virtual training 
devices to significantly increase the repetition and experience base of 
our soldiers and leaders at the tactical level in individual, 
collective, squad, and small unit operations given intense, complex, 
combat scenarios.
    Our ability to project and sustain combat power over long distances 
and for long durations is key to winning wars. We request support for 
shortfalls in bridging, tank transport, and tank recovery that limit 
the maneuverability of the Army's Main Battle Tank on the battlefield. 
We also seek to increase procurement of our Joint Light Tactical 
Vehicle and Heavy Equipment Transporter, modernize our watercraft, and 
upgrade our medical capabilities for combat casualty care. This 
includes procuring the Maneuver Support Vessel (Light), completing the 
Landing Craft Utility 2000 service-life extension, and completing the 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance upgrades. Congressional support is 
needed to enable these initiatives for Army and Joint Force mobility 
and sustainment.
         soldiers, civilians, and families: our greatest asset
    People join the Army to defend our Nation and its people. In turn, 
we must take great care to support those who step forward and answer 
the call to the colors. We request continued support for competitive 
pay and compensation and family programs, housing, and infrastructure 
improvements. We will continue soldier 2020 initiatives' standards 
based assignments regardless of gender; Sexual Harassment Assault 
Response and Prevention (SHARP) initiatives to prevent and reduce 
harassment or assault against male or female soldiers.
    Additionally, Army Civilians as part of the Army generating force, 
ensure the readiness and availability of our formations that support 
the Joint Force commander with more than 16,000 Army Civilians serving 
overseas supporting combatant commanders. We are committed to ensuring 
quality support to our soldiers, civilians, and their families that 
strengthens the bonds within our Army team, while simultaneously 
advancing our efforts to increase readiness.
                       the army's budget request
    The Army's fiscal year 2018 base budget request is $137.2 billion, 
a 5.3 percent increase from our total fiscal year 2017 base request of 
$130.3 billion. The major budget goals for fiscal year 2018 are 
readiness to meet today's global challenges and focused modernization 
of our equipment. As part of these goals, the Army will upgrade 
aviation and ground combat platforms, while increasing investments in 
short range air defense, long range fires, aviation, network, combat 
vehicles, soldier equipment, combat service support and installations.
    Additionally, we are accountable for the resources to produce the 
outcomes required. We are also committed to the efficient and effective 
use of those resources by improving and reforming our processes. As 
mandated by Congress in the 2010 and 2012 National Defense 
Authorization Acts, the Army will be audit ready by September 30, 2017. 
We are strengthening internal controls, developing standard business 
processes, retaining supporting documentation, and improving system 
controls. The Army will continue to implement corrective action plans 
to resolve deficiencies, with an overall goal of improving a culture of 
accountability and fiscal stewardship of our Nation's resources.
                               conclusion
    We thank Congress for the fiscal year 2017 budget and their 
continued support of the United States Army and the American soldier. 
Now is the time to substantially increase readiness, improve 
modernization, and increase capacity. Readiness remains unequivocally 
our number one priority--it underpins everything the Army does. We have 
an opportunity to fix readiness losses and prepare for the future. 
However, building a professional Army takes time. To build readiness, 
soldiers require specialized and sufficient training; modern, properly 
maintained equipment; sufficient quantities of the proper munitions; 
and stability. To sustain readiness, the Army requests congressional 
support for its modernization efforts--aviation, network, combat 
vehicles, long range fires and short range air defense, soldier 
equipment, and combat service support. We request that Congress 
increase the caps in the Budget Control Act of 2011, provide sufficient 
funding to fully man and train our current formations and allow us to 
close critical gaps in modernization. These actions will ensure that 
our soldiers are ready for the missions of today, as well as for the 
unforeseen conflicts of tomorrow.

    Chairman McCain. Well, thank you, General Milley, and thank 
you, Mr. Secretary.
    Mr. Secretary, do you believe the return of the Budget 
Control Act caps for 2018 is the most critical and immediate 
threat that the Department of Defense is facing?
    Secretary Speer. Mr. Chairman, I absolutely do. The Budget 
Control Act caps for our defense puts us at tremendous risk. If 
they return, we would lose $15 billion of purchasing power, 
which would degrade readiness, it would degrade our 
modernization even further.
    Chairman McCain. OCO [overseas contingency operations] is a 
gimmick.
    Secretary Speer. The funding for OCO cannot be relied upon 
for the long run, and we need that predictable funding.
    Chairman McCain. General Milley, I was struck. You 
mentioned the words ``hollow Army.'' This committee has not 
heard that since General Shy Meyer came over and said it back 
in the 1970s. How far away are we from a hollow Army?
    General Milley. I believe, Senator, that if we continue on 
the road and we execute the BCA and go back BCA caps in 
fundings and continuous CRs, it will result in a hollow Army.
    How far away? I think right now what you did last year was 
you stopped a downward trend. You halted it, stopped the 
bleeding, so to speak. We turned the corner, and we are, in 
fact, making slow but steady progress in readiness. If that 
stops, we will eventually, in the not too distant future, have 
a hollow Army and put soldiers at risk on the battlefield.
    Chairman McCain. The trend as you see it right now?
    General Milley. For the Army's trend in terms of readiness, 
I think we have stopped it, stopped the downward trend, and I 
think we started to recover last year with the monies that you 
gave us.
    Chairman McCain. But----
    General Milley. We have a long way to go.
    Chairman McCain. The fact is that this budget may, at least 
as far as readiness is concerned, just stop the bleeding. 
Right? It does not address the urgent need for modernization. 
Is that a correct statement?
    General Milley. There is modernization, obviously, in the 
budget. We put about 26 percent or so into modernization. That 
is relative because in 2008, we had roughly speaking three 
times that amount of money into modernization. If you go back 
15 or 20 years, it is significantly more. So your assessment is 
correct. Our modernization has been sacrificed for current 
readiness.
    Chairman McCain. Can I just, again, go back to this 
acquisition? Future Combat System, $20 billion; Comanche, $5.9 
billion; Crusader, $2.2 billion; helicopter, $500 million; 
Ground Combat Vehicle, $1 billion; Distributed Common Ground 
System-Army, $3 billion; Joint Tactical Radio System, $11 
billion. Of course, now we are looking at this WIN-T debacle. 
As you know, 2 years ago, we passed legislation that gave you a 
lot more control over acquisition. What has happened since 
then? Control and input I guess is a better description.
    General Milley. I thank you for that, and we have made 
actually quite a bit of reforms in the acquisition system 
already. It is not 100 percent complete yet, but a key thing 
that we have done is reinserted the commanders into the 
acquisition process. For many years, it was staff-centric.
    I am personally inserted into it in a big way, along with 
the Vice Chief of Staff of Army. We reenergized what was called 
an AROC [Army Requirements Overnight Council] system which had 
gone fallow for a while, and that is meeting weekly and it 
determines the requirements of the systems. We have also 
initiated the Rapid Capabilities Office (RCO). The bottom line 
is what we are trying to do is through insertion of the Chief 
and others in uniform into the acquisition system, is to reduce 
the time and speed up the procurement and get the taxpayer the 
best bang for the buck, so to speak.
    Chairman McCain. Yet, it still seems to take years before--
--
    General Milley. It does. It is frustrating.
    Chairman McCain. You know, somebody told me the other day 
that the aircraft that I flew, the A-4--when they put out A-4 
Skyhawk, that it took 4 weeks. Four weeks and they were ready 
to let a contract. Now we were just discussing a new 
replacement for the incredibly failed LCS, and they said we may 
be ready for an Request for Proposal (RFP) by 2020.
    What is the difference, General? If some of us feel 
frustrated, it is hard for us to continue to fight for more 
money when we see $6 billion wasted on one program. So give me 
some comfort, either one of you?
    Secretary Speer. Well, Chairman, I think you heard some of 
it already in terms of that, and we thank you for what you have 
allowed already to push it down, the role of the Chief back 
into that pushing it back down to the services and more rapid 
decisions. A lot of that $40 billion plus you just read off are 
a disgrace.
    At the same time, we are getting after--we cannot hold the 
future mortgage notes. So we do need to modernize. The list the 
Chief gave you is a good start. We are working on a regular 
basis to push those down, involving costing, doing strategic 
portfolio analysis the Chief is heavily involved in. We have 
got to get costing and quicker decision-making processes and 
make informed rapid decisions in fielding this equipment.
    Chairman McCain. Is it of interest that 90 percent of 
defense spending is in the hands of five companies?
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    General Milley, Army readiness--the brigade combat team is, 
as I understand, now roughly 30 percent. Is that a fair 
judgment about the readiness status?
    General Milley. Roger. That is correct. The exact readiness 
I would be happy to brief you or your staffs in a classified 
session, but as an order of magnitude, sure.
    Senator Reed. We are in that ballpark.
    General Milley. Right. The goal, of course, is 66 percent.
    Senator Reed. Sixty-six percent. What are the two or three 
key steps that you have to take, you think, to get from what it 
is today to that 66 percent?
    General Milley. There are several of them, but the most 
significant right now, the drag, if you will, is manning. Many 
of these units are not at the full manning level, and that 
drags down their readiness in terms of the reporting system we 
have, but also in terms of going out to training and/or 
deployment. We have a significant amount of non-deployables 
still. We have dropped that number by two-thirds over the last 
five years. There is still a significant amount of non-
deployables. So if we fill units at 95 percent and you have 10 
percent non-deployables, it takes you to 85 percent. You take 
away the day-to-day grind. You are down to 80 percent or less 
that goes out to training. That is not a good thing. You should 
at least be 90-95 percent when you go out to training, you go 
to the Combat Training Center, JOTC [Jungle Operations Training 
Center]. So manning is a critical drag on the system.
    We have made improvements because of the money you gave us 
in terms of spare parts and making the equipment better. So 
that is a good news story there. The manning has continued to 
drag.
    So with the authorization in 2017 to take us to 476, what 
we want to do is make the existing force structure whole. There 
are some minor force structure increases in this budget 
request. We want to make the force structure that does exist 
complete, whole, and fully ready before we move on to the next 
step, which is expanding the Army.
    Senator Reed. In that regard, I understand 10 percent of 
the non-deployable personnel are non-deployed for medical 
reasons.
    General Milley. About 85 to 90 percent actually are 
medical. The rest of them are legal and other reasons.
    Senator Reed. How are you trying to get at that? Is there 
something in terms of enhanced training or lifestyle or 
anything else? That seems to be a significant problem.
    General Milley. Yes. The majority of those are orthopedic 
type injuries. Most are recoverable with some extended 
profiles. So they are non-deployable in the short term. Total 
Army, out of the 1 million-plus troops, about 20,000, about 2 
percent or so, are hard down. They will never be able to 
deploy. Those we are working through the IDEF system. The 
number of days it takes to process them has come down from well 
over a year, in the 370s-390s range of days. We got it down by 
100 days to 270. So we are trying to chip that away so that 
reduces the number of permanent, non-deployables down, and the 
VA then picks up their care. There are several things we have 
to do internal to the organization.
    Senator Reed. One thing I assume you have to do is improve 
recruitment and retention in order to just fill up the current 
existing force structure. Is that accurate?
    General Milley. Our recruitment and retention right now at 
this point are meeting the goals. Last year, we had 100 percent 
across the board. To date this year, we are about 80 percent or 
so for recruitment and we are about 75 percent to date--of 
course, the year is not finished yet--on retention. With the 
increase in the end strength authorization to 476, we 
significantly increased the recruiting and retention missions. 
I think we will be within 1 percent, plus or minus, of 
achieving that by 1 October.
    Senator Reed. In terms of modernization, there is a 
tendency to make incremental improvements in equipment. As the 
chairman pointed out, when it takes so long to develop a new 
system, that incremental improvement is, in many cases, almost 
obsolete by the time it gets to the troops. If you are looking 
for a leap-ahead system, is there one out there that you think 
would make a huge difference?
    General Milley. It depends on the category. In the area of 
shoot, there are some technologies in laser, electromagnetic 
guns. There are some things being done with powders, et cetera 
that can reduce the footprint of powder. So there are some 
significant enhancements in the S&T and R&D world that we are 
exploring aggressively, and some of those are already being 
employed by the Navy in quantities but they are not sufficient 
yet for ground combat.
    In terms of move, there are a lot of things that we are 
looking at in terms of robotics and autonomous systems. 
Chairman McCain mentioned the tank. I could not agree more. The 
M1A1 Abrams tank was commissioned when I was a lieutenant in 
1980. That would be the equivalent of someone coming in, when I 
was commissioned, training on the M4 Sherman from World War II. 
His comment about quoting H.R. McMaster about outgunned and 
outranged is accurate. We need a significant 10X level 
improvement in our ground combat vehicle, in our tank, in 
Bradley.
    Is there something on the horizon? We are going to continue 
with incremental improvements to those two systems in the near 
term while we explore the possibility for 10X improvement. 
There are some bright lights out there. Look, for example, at 
what Tesla just did. They have cars now that were $100,000 and 
$40,000, and they just beat out GM and Ford, and they do not 
have an engine. They are running on a battery. There are some 
serious possibilities in there for application to military use, 
and we are looking at that.
    There are some exploratory studies being done in materials, 
significant material development that can provide the same 
protective power at a much significantly less weight. So there 
are things in the area of move. You know, move should 
communicate sort of binning.
    For communications, Chairman McCain mentioned WIN-T and the 
others. The communications architecture of the United States 
Army--and I would argue even the United States Department of 
Defense--is a critical capability and at the same time, a 
critical vulnerability, as it is for most other nation states. 
There is some significant--and I do not want to go into too 
much on it for classification purposes. There are some 
significant changes and improvements that must be made in the 
short term on our ability to have assured communications. I 
will just leave it at that.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    We have had hearing after hearing after hearing, and we 
talk about the threat level that is there. I think we all 
agree. I want to talk about that.
    On this acquisition thing, I was 8 years in the House on 
the House Armed Services Committee before coming over here 20 
years ago. With a business background, it drives you crazy to 
see these things happen. We went through this thing, and I 
guess the figure on that, the chairman just talked about, is 
$20 billion. That was from 2001 to 2010. Then along came the 
Crusader. I was here during that time. That actually was 
terminated by Bush in his administration.
    So when you make the statement, General Milley, that you do 
not want to make the mistakes of the past, how can you do that 
unless we improve the acquisition system? You were 
complimentary of the chairman that we have made last year some 
changes where you have a greater impact on making those 
decisions. Still they were made by the administration. In fact, 
in the case of the Crusader, one of the really outstanding guys 
on the House Armed Services Committee resigned. He quit because 
of the fact that we got--you get that huge investment. Then you 
turned around and abandoned it.
    So I guess my question to you is, is what we did in 
starting to give you more latitude and helping with those 
decisions on acquisition and terminations--do we need to go 
further?
    General Milley. I believe, yes, we do. I do appreciate the 
reforms that were made in the last cycle, and they have made a 
difference. I can see that in several systems, small systems 
like the pistol--you saw that--up to larger systems that we are 
doing for like the ITEP engine for the UH-60 and several other 
programs that are out there, the PIM program for the Paladin 
and others that are out there. So there is a difference being 
made. In terms of big ticket items like a brand new tank or a 
brand new helicopter, no, not yet. Part of that is because of 
limitations in current and existing technologies.
    I do think there has been progress made, and I do think 
that the enhanced authorities that were given to the chiefs has 
made a difference and I appreciate that.
    Senator Reed. You mentioned the PIM program, which of 
course was taking an old system and upgrading it as opposed to 
a brand new system. Was that the right decision at that time?
    General Milley. I believe yes. Again, it goes back to 
technologies. My assessment is we are on the cusp, within 10 
years, of a fundamental change in the character of warfare and 
the character of ground warfare.
    Senator Inhofe. You also talked about in response to the 
question--I think it was Senator McCain--about a hollow Army. I 
chaired a committee of the Vices just 3 weeks ago, and at that 
time, it was Wilson with the Air Force, and he had said we are 
already there in the Air Force in terms of the hollow Air 
Force. A few of us up here are old enough to remember the 
Carter administration and how we tried to recover from that. I 
am sure we are trying to keep from having that happen again.
    Now, before Senator Sullivan starts talking because he is 
going to penetrate this a lot more than I will because there is 
not time, but when you look at all the threats that are out 
there, a lot of us have come to the conclusion that really 
North Korea is it for two primary reasons. One, it is run by a 
mentally deranged guy that no one can predict. Secondly, they 
are rapidly getting to the point, as came out from the 
examination by Senator Sullivan yesterday or the day before 
with that capability. I think they said it is not a matter of 
if but when.
    So just concentrate, if you would, just on North Korea for 
the remainder of my last 45 seconds here if you agree with us 
in terms of that being the greatest threat.
    General Milley. Well, Senator, we are in a current war 
against ISIS and probably the greatest capability out there 
remains Russia. Clearly North Korea is probably the most 
dangerous, close, in terms of time, threat in my view that the 
United States faces. They are rapidly developing an 
intercontinental ballistic missile with a nuclear weapon 
attached that can range the continental United States. I do not 
think that we should allow that, and I do not think that is the 
policy of this Nation. I believe the President of the United 
States, when he says that if China does not solve it, the 
United States will. So I think that is the right approach, but 
I do think it is increasingly dangerous. There is no question 
the path they are on. I do not want to go into things that we 
would do, but it is dangerous.
    Senator Inhofe. I do believe in the hearings that we have 
had, both the civilians and uniforms alike have talked about 
how great the threat is. I appreciate the fact that you are 
doing it. We do not have the credibility out on the stump to 
talk about this, and particularly when you have a media who 
does not believe you. With the military talking about it, I 
think that is significant. So I do applaud you and the others 
for not veering away from the threat that is out there and it 
is very real.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you both for your distinguished service to our 
Nation.
    I want to pursue the questioning on North Korea. You said 
close in terms of time to developing an intercontinental 
ballistic missile. How close?
    General Milley. I would rather take that into a classified 
session, Senator, with all due respect. There is a variety of 
analyses out there, and there are ranges. I would be happy to 
walk you through at least what I know from my perspective, and 
we can get some experts in to brief you as well, if you would 
like.
    Senator Blumenthal. Would the American people be well 
served by more information about this threat so that they do 
appreciate what the facts are?
    General Milley. I think that is probably an accurate 
statement, sure.
    Senator Blumenthal. In terms of the troops that the United 
States Army has at potential risk from conventional artillery, 
how many would you estimate are in harm's way?
    General Milley. Well, the United States has publicly 28,500 
troops of all branches in Korea. Roughly speaking, about 20,000 
of those are Army. North Korea tube, conventional tube, and 
rocket artillery has extensive range. It can range all Seoul. 
It can range most of the military compounds. So our troops are 
at risk in Korea.
    Senator Blumenthal. In your testimony, you mentioned the 
importance of vertical lift in the Army's modernization 
priorities. As you know better than any of us, the Blackhawk 
has served the United States Army for some 35 years. It 
continues to be the aviation backbone of the Army. Could you 
tell us what the state of negotiations are for the next 
procurement of Blackhawks?
    General Milley. We have got--I want to say--48 that we have 
put into this budget. We are also working on the ITEP engine 
which is equally as important as the airframe in order to 
enhance the capability of the Blackhawk to fly at high 
altitude, around 6,000 feet or so, and at high temperatures 
around 95 degrees. So both the procurement of additional 
helicopters and the modernization of an improved engine are 
significant for the lift capability of the Army.
    Senator Blumenthal. Was the expectation from the future 
years defense program projected for fiscal year 2018 not that 
there would be 60 not 48 helicopters in the budget?
    General Milley. I would have to go back and check that 
number, Senator.
    Senator Blumenthal. Do you believe that more than 48 are 
necessary?
    General Milley. Yes. I mean, in order to flesh out and 
replace existing aircraft. Sure. When we get past 2018, we have 
plans to do that.
    Senator Blumenthal. A number of your colleagues, heads of 
services, have said that the greatest threat or perhaps one of 
the greatest threats, if not the greatest threat, to our Nation 
is cyber. I have noted in your testimony that relatively little 
analysis has been included about cyber.
    General Milley. Cyber is a very serious threat. Others have 
testified openly that the opening shots of a large-scale 
conflict are likely to begin with cyber, and various people 
have testified to that and you see that in writings. I would 
probably concur with that. Cyber is a very serious capability 
out there.
    What we in the Army are doing is fielding 61 what we call 
cyber protection teams, and 41 of those are in the regular Army 
and 21--or correction--20 are in the--41 and 21, 62--for the 
National Guard and the United States Army Reserve. Of the ones 
in the regular Army, they should all reach full operating 
capability by the end of 2018.
    Senator Blumenthal. The chairman and I have noted--and I 
apologize for interrupting you, but I am limited in terms of 
time--that there really is no cyber strategy. Without a cyber 
strategy, there can be no cyber policy. I think I am quoting 
almost directly what the chairman said yesterday. That has been 
a failing, to be very blunt, under a number of administrations. 
Would you agree that we need a cyber strategy to determine, for 
example, what is an act of cyber war? How do we respond to a 
cyber attack in the cyber domain?
    General Milley. A fair question. I think that that needs to 
be debated. It is a question that needs to be asked and 
answered. It is not asked and answered right now. Well, what 
constitutes an act of war in cyberspace? I am certainly not in 
a position to answer that.
    In terms of capability, the Army does have a cyber strategy 
for capabilities, capability development. Our emphasis is on 
defense for the Army. The national part does offense. The 
service is doing defense. What is important for us is to 
protect our network, protect our ability in the electromagnetic 
spectrum from everything from degraded operations or a complete 
shutdown, all the way to spoofing and mimicking and so on and 
so forth.
    We have set up, as far as I know, in the world live cyber 
range at the National Training Center. So all of our tactical 
units now are cycling through the training center where they 
are being exposed to an enemy, free thinking up for out at the 
training center, that executes high end cyber operations 
against our own units. Our soldiers are learning to come to 
grips with that. It is a very interesting thing to go watch to 
see how our forces operate with the WIN-T or any of the other 
communications systems we have where they are under constant 
attack from the enemy. They are getting degraded, and we have 
to relearn how to operate with limited degraded communications 
and our connectivity to higher headquarters and the JC units.
    So we do have a strategy for capability development, but 
the national strategy you are talking about--I think that is 
fair.
    Secretary Speer. I would like to also add to that. When it 
comes also to the individuals and the people we are assessing 
and training, of the 41 Active components, cyber teams, 33 of 
them are already mission capable, fully mission capable. 
Another eight are initial capabilities. The Cyber Center of 
Excellence, as well as private industry, are working out on a 
regular basis to incorporate additional capabilities and 
understanding. We are assessing individuals on training and 
development into the Reserve components as well.
    Senator Blumenthal. Thank you, Secretary Speer. Thank you, 
General.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Secretary Speer and General Milley, let me 
start off by asking about the Lakota, the Army's primary 
training helicopter and how the situation currently affects the 
industrial base. The last production contract was awarded in 
2015. There is an ongoing legal dispute which is expected to 
remain in the courts until late this year. Absent new orders 
soon, the manufacturing plant may be forced to lay off workers.
    The fiscal year 2017 omnibus appropriated $198 million to 
purchase 28 Lakotas. There is a clear directive in the language 
the Army must obligate the funds to buy Lakotas, although this 
has not happened.
    I know this is an important program because the Army 
requested $100 million in fiscal year 2018 for 13 additional 
Lakotas.
    How are we coming on the directive to obligate the funds to 
buy the 28 Lakotas from the fiscal year 2017 omnibus bill, and 
where are our prospects for moving along on the 2015 contract?
    Secretary Speer. Senator, I think you hit it initially. We 
need the Lakotas in terms of the training base and get them 
down there in terms of Rucker to go. The 2017 funding is held 
up in that same protest. So we need to buy against that 
contract to be able to deliver on a timely basis, and that 
current contract is under protest, and we hope that will be 
resolved next quarter of this year. Then we will be able to put 
the additional funds on contract and request an additional 28.
    Senator Wicker. So that would be July, August, or 
September.
    Secretary Speer. We are hoping so, later this summer, yes.
    Senator Wicker. General, you do agree that this is a very 
important program?
    General Milley. I will be candid, Senator. It is important. 
It has utility. A Lakota aircraft will not survive a nanosecond 
in combat. It is good for administrative use. It is good for 
running soldiers around at home station, and it is very good 
for training.
    Senator Wicker. It is a training----
    General Milley. It is a training platform. So I do not want 
to overstate its importance. What we need to invest our 
aviation dollars into primarily are combat utility aircraft and 
attack aircraft. The Lakota has a purpose. It has a place in 
the system. That is why we put the money in there, but I do not 
want to overstate or elevate its importance within the pantheon 
of aviation.
    Senator Wicker. Well, let me shift to one other thing in 
the time I have remaining. I want to ask about Mine Resistant 
Ambush Protected Vehicles (MRAPs). In 2013, the Army decided to 
divest a large portion of MRAPs. Things are different now than 
they were in 2013. We are ramping back up in Afghanistan. ISIS 
is more of a threat than it was then. Is it time to take a 
fresh look at the MRAP program?
    Secretary Speer. I think in terms of the MRAPs, we did 
retain a set of MRAPs for this kind of operation and 
contingency, and I believe we have sufficient MRAPs of 
different varieties and variants to support. Now, I can go back 
and look and come back to you in terms of the latest review on 
MRAPs, but the current threat in terms of decisive action, 
training, and obligation is where the biggest risk is for the 
longer term. We do, I believe, have sufficient variants of 
MRAPs to do operations against ISIS or counterterrorism.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    I want to talk a bit about procurement to either or both. 
What lessons has the Army learned from the procurement problems 
that we have had in the past with the Comanche, the Crusader, 
Future Combat System? Are there lessons learned that we can 
apply to future acquisitions?
    Secretary Speer. We could spend all day on the lessons 
learned on those. I think we got after a lot of them. First of 
all, we took the decision-maker----
    Senator King. I only have five minutes.
    Secretary Speer. I got it Senator. Part of the decision, if 
you look at the laundry list, was we removed the decision-maker 
from where the functional decision of the requirement was. We 
have built in layers and layers of decision-making processes 
that took too long. Cost was not an informed cost. We made 
decisions at the end of the requirements after we spent a lot 
of money when we could have made discoveries much earlier on.
    So that is part of what the Chief is getting at and I am 
getting at in terms of this. We have got to get cost early in 
front. We have got a decision allowed to fail up front. We got 
to be able to prototype on those things. We have got to put the 
warfighter back into the decision process down where the 
execution of that program goes.
    Senator King. Was one of the problems expansion of 
requirements and complexity of requirements?
    Secretary Speer. I think the complexity of the requirements 
expanded and it had always been there technology-wise. Again, 
the requirement was best understood by the individuals who were 
building the requirement and have to provide feedback on how 
well they are doing with the requirement on the delivery of the 
capability.
    Senator King. Well, General Milley, on this point, we had a 
very interesting hearing in the Airland Subcommittee a couple 
weeks ago on a new rifle for the Army to replace the M-4. One 
of the things we learned was that the current M-4 caliber 
ammunition will not penetrate the newly developed body armor of 
our adversaries, which is to me a disaster in waiting.
    Your thoughts on a new weapon and how do we do the 
procurement in a timely and cost effective way and avoid some 
of these problems that we have had in the past. First, do you 
think this is an important area of attention? Second, can we 
pull it off in a reasonable amount of time at a reasonable 
cost?
    General Milley. I think yes and yes. I think it is 
critically important. Seventy percent of American casualties 
are ground forces, typically infantry, special forces type 
units, or units performing infantry missions. The small arm and 
the other equipment, to include body armor, SAPI plates, and so 
on is critical, and we ought to be providing the very, very 
best for our soldiers that our Nation can provide.
    The 5.56 round--we recognize that there is a type of body 
armor out there that it does not penetrate--we also have that 
body armor ourselves--and that adversarial states are actually 
selling that stuff on the Internet for about 250 bucks.
    So, yes, there is a need and there is an operational need, 
and we think we can do it relatively quickly.
    The key on any of these things is not so much the rifle. It 
is the bullet. It is the ballistics of the bullet. Down at Fort 
Benning, we have done some experiment and developmental work. 
We think we have a solution. We know we have developed a bullet 
that can penetrate these new plates.
    Senator King. Does this bullet require a new rifle?
    General Milley. It might but probably not. It could. The 
bullet can be chambered in various calibers. I do not want to 
get into the technicals of ballistics, but it can be modified 
to 5.56, 7.62 or----
    Senator King. Is there a possibility of an off-the-shelf, 
an existing rifle that could be an upgrade to the M-4?
    General Milley. Yes. There are several options out there.
    Senator King. That would be an option.
    General Milley. There are absolutely options.
    Senator King. I commend that option to you.
    The fiscal year budget request holds the Army end strength 
at 476,000, 343,000 National Guard, 199,000 Reserve. Are those 
numbers sufficient in your professional judgment to meet the 
challenges that we have in terms of readiness and assuming a 
higher level of training and readiness? Secondly, how long does 
it take? If we decide we need 10,000 more or 20,000 more end 
strength, how long does it take to get from decision to troops 
in the field?
    General Milley. The first part of that question, is it 
enough, so to speak. That depends on what we are asked to do. 
Secretary Mattis is leading a very rigorous and detailed 
strategic review of the defense planning guide into the 
national military strategy. That review will be done probably 
sometime in the fall. When that review is done, that will give 
us our baseline of how big and what capabilities we will need 
across the board as a military, not just the Army.
    In the meantime, we do already have a national military 
strategy and a defense planning guidance. As I testified last 
year, I thought that the capacity and the size of the force and 
the capability and the modernization of the weapons systems did 
not meet that. Four hundred seventy-six improves it, but no, it 
still does not meet the worst case requirements that are 
outlined in the national military strategy and the defense 
planning guide.
    Senator King. Second question. How long does it take to 
build up?
    General Milley. Well, to build units--to put a brigade 
together from scratch I would say would take about three years 
to get them at a reasonable level of training. Soldiers coming 
through basic training and Advanced Individual Training (AIT), 
individual replacements--they are falling in on existing force 
structure and existing units, and that takes considerably less 
time. Then one of the things we are introducing in this bill is 
security force assistance brigades which are essentially chains 
of command of an infantry chain of command, for example, an 
infantry brigade. They will be used for deployment overseas to 
do advise and assist missions, like what you see in Iraq and 
Afghanistan today. That will free up the brigades that are 
there. We will put those back together again. Then it will 
shorten the timeline for rapid expansion. We plan on 
introducing five of those. We have got two in this particular 
budget for the request.
    So it varies by type unit, but on average I would say 
between one and three years, three years being the outside to 
put together enough of the force and the collective training 
assuming you had the people and the money to support that.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Gentlemen, thank you for your appearance 
this morning.
    I want to return to an issue that Senator McCain foot 
stomped in his opening statement, WIN-T, the Warfighter 
Information Network-Tactical. It is the way the soldiers 
communicate on the battlefield. In 2003, the Army planned for 
future combat systems that would, among other things, network 
together soldiers and vehicles. That program was canceled in 
2009 at the cost of approximately $18 billion. WIN-T was part 
of the Future Combat Systems program. After Future Combat 
Systems was canceled, it was another attempt by the Army to 
conduct secure battlefield communications and networking.
    General Milley, I have seen credible reports that WIN-T has 
ineffective line-of-sight communications, is not survivable. It 
is too fragile to survive in a contested environment, and has 
an electromagnetic signature so loud that it particularly would 
call for enemy artillery on the top of its users' heads. Have 
you seen similar reports?
    General Milley. Yes. What we have done is, with the 
authorities the chairman and the committee and the Congress 
gave us a couple years ago, I and the Vice Chief of the Army, 
along with a small group of people are driving a rigorous, 
thorough, and painful review of the entire communication 
electromagnetic capabilities of the U.S. Army, which WIN-T is 
one part of, because we have the same concerns.
    Frankly, my concern is these systems may or may not work in 
the conditions of combat that I envision in the future with 
this changing character of warfare because of what you just 
cited, line-of-sight, electromagnetic spectrum, the inability 
to operate on the move, the inability to operate in large, 
dense, complex urban areas or complex terrain. There is a whole 
series of other things. It is fragile and it is vulnerable.
    So we are taking a very, very, very deep, hard, and wide 
look. We have probably got about six weeks or so because what I 
want to do is make sure I can get it into any changes to this 
cycle, the markups that we can, if we need to. There are piece 
parts of it that work very well. There are others that are not 
so good. We are taking a hard look.
    As you may or may not be aware, I have received a letter 
from the House with 176 signatures on it and a letter from the 
Senate with several signatures on it asking me to accelerate 
that program. I am not going to accelerate it until I am 
convinced it will work in combat against the enemies of our 
country that may be coming in the future.
    So that is kind of where we stand right now. I owe you and 
this committee and others a rigorous review within about 4 to 6 
weeks or so.
    Senator Cotton. Thank you, General. I am aware of those 
letters. My first priority is delivering functional systems to 
our warfighters on the front lines. My second priority is good 
value for our taxpayers. The political implications of these 
contracts in members' districts are a very low priority 
compared to those for me, as I am sure they are for you as 
well. We have spent about $6 billion so far on WIN-T. Have we 
not?
    General Milley. That is correct.
    Senator Cotton. If the program is not working, it does not 
seem, like you say, that we should be accelerating more money 
into that program until we can get it to work or we can find a 
replacement. Is that a fair assessment?
    General Milley. Correct. That is where we are at. I am 
trying to figure out exactly what parts of it could be 
accelerated or brought online, others that we need to not 
continue to put good money after bad programs, and make sure 
that the system as a whole--a holistic review of the system--is 
something that is going to be effective in what we think will 
be a dynamic, combined arms maneuver fight on a very, very 
highly contested and lethal battlefield.
    Senator Cotton. Well, I appreciate that and I appreciate 
the effort you have put into not just these kind of 
communications programs. We have discussed before the 
Distributed Common Ground System and its problems. You were 
discussing earlier some of the issues with small arms that the 
Army has had. I want to encourage you to continue to use those 
authorities. Most of these problems arose long before you took 
office. I want to encourage you to continue to try to address 
them and resolve them at the speed that our warfighters need, 
not the speed of bureaucrats in Washington.
    I want to turn briefly to the European Reassurance 
Initiative. I know you have taken it very seriously. I am 
encouraged by the heel-to-toe deployments we have seen of 
armored Brigate Combat Teams (BCTs) as part of the initiative. 
Do you think a permanent armored BCT presence would be 
preferable, though, to a perpetual state of deployment?
    General Milley. My recommendation, my preference for a lot 
of reasons is a rotational schedule, heel-to-toe rotational 
schedule, which has the effect of a permanent unit in there in 
terms of battlefield effect, but it does not come with the cost 
and overhead of a permanently stationed force. I know Chairman 
Thornberry in the House has asked us to take a look and cost 
that out. Others are interested in permanent stationing.
    At this point, my recommendation is continued rotational 
forces vice permanent station. What that gets you is 
flexibility when you are over there where you can move from one 
country to another because these forces will not be pinned down 
to a single installation. You will not have to resurrect all 
the commissaries, the PXs, and the schools, et cetera. Families 
will not be put into a potential conflict zone, and you will 
get battle focused training and increased unit cohesion for the 
unit training. I think the way to go is rotational for the 
brigade combat team, but I am willing to take a good look at 
it.
    Senator Cotton. Thank you.
    Secretary Speer. Senator, could I add to that? When I 
visited the European Reassurance Initiative (ERI) operations 
currently in Europe, I would add that the brigade commander 
said the same thing in terms of units. It is the best training 
he has had, how well he was spread across the theater of 
operations. If he were stationed in one location, he would have 
to go across and spread his organization anyhow on a recurring 
basis.
    The combat aviation brigade may be a different situation. 
There were challenges there, but I think we are working through 
this. There were tremendous lessons learned coming out of that 
kind of rotation for readiness.
    Senator Cotton. Well, thank you. I have heard similar 
things on my trips to the Baltics, an important reminder for 
the American people that we are not just deploying troops there 
for the benefit of those nations but for the very good training 
that our troops receive there as well. Thank you, gentlemen.
    Chairman McCain. General, the WIN-T program has been in 
existence for over a decade. Is that correct?
    General Milley. That is correct. Yes, Senator.
    Chairman McCain. So should we expect a decision on WIN-T on 
the part of the administration at some point after we have 
spent $6 billion?
    General Milley. Yes.
    Chairman McCain. Do the taxpayers of America not deserve 
something better than that?
    General Milley. Absolutely. That is why we began 4 months 
ago--the Vice and I and others----
    Chairman McCain. So it took nine and a half years before we 
undertake an extensive review.
    Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Secretary Speer, yesterday the Army's budget was released, 
and again there were no military construction projects to 
support the testing and evaluation missions at White Sands 
Missile Range. That actually makes 18 years in a row now, and 
certainly White Sands is not alone. So I am concerned that the 
Army is not currently prioritizing testing infrastructure, nor 
are the other services. I know that others share my concern 
that the Pentagon is not doing enough to upgrade our testing 
capabilities, which would ultimately allow us to keep our 
competitive edge over our adversaries.
    So, Secretary, do you believe that the Department is 
effectively managing and allocating resources for military 
construction projects at our test ranges?
    Secretary Speer. I think broadly as part of the overall 
situation within military construction, we still continue to 
take a little bit of risk in the military construction. What we 
do find--and I believe--and I can go back and confirm this--
within is we put additional restoration and modernization to 
upgrade facilities within the budget, which included the test 
range. We doubled that amount this year for restoration and 
modernization. We have a $10.8 billion backlog in such 
restoration and modernization requirements.
    Senator Heinrich. I would just urge you to look really 
closely at test ranges generally. I think you are taking a lot 
more risk there than you are in other places, and it is just 
absolutely critical in terms of developing the technologies 
that are going to pay off for our warfighters in the future.
    In a related issue, as you are aware, White Sands is 
managed by the Army, but it is a test range that the Air Force 
and Navy use as well. Does it make sense for the Army to be the 
only service responsible for funding major military 
construction projects on what is a tri-service testing range?
    Secretary Speer. Well, Senator, much like other 
installations, we are the executive agent or we are the owner 
of it. That is the way we prioritize. We work together with our 
sister services to identify requirements across the joint 
community, and I think we will continue to do so. I think it 
has been in the past predictable funding and level of funding 
to get at the stability to take care of things on a recurring 
basis, and we took risk over time on those things. You have my 
commitment. I will go back and review those things because I 
would agree, as part of what we talked about earlier in the 
acquisition process, earlier testing and the ability to look at 
things earlier in the testing cycle is very important.
    Senator Heinrich. I appreciate your commitment on that.
    I want to just highlight one military construction project 
at White Sands in particular because it sort of tells the story 
of what is being passed up over the course of the last two 
decades. The network communications center for the range was 
built in 1962. It actually caught fire a couple years ago, but 
it has not been a priority in recent years. I think in the era 
of big data and technology, a modern information facility is 
pretty critical for transmitting the vast amounts of data that 
pass through White Sands at this point for the data that is 
being generated during those tests. So that is just one 
particular example.
    General Milley, I really appreciated your comments earlier 
about some of the things that are on the horizon in terms of 
emerging technologies and some of the things that are really 
right in front of us. In April, Admiral Harris testified before 
this committee and stated several times that we have no defense 
against North Korean rockets, North Korea artillery, North 
Korean mortar rounds. From a defensive standpoint, does the 
Army have an effective indirect fire protection capability at 
this time?
    General Milley. Against what type of indirect fire? 
Rockets, missiles?
    Senator Heinrich. Rockets, artillery, mortar rounds.
    General Milley. We have capabilities that can shoot down 
incoming missiles, such as THAAD [Terminal High Altitude Area 
Defense] and Patriot.
    In terms of bullets, tube artillery, or close-range 
rockets, we are experimenting right now with hyper velocity 
capabilities. We think we can field those pretty shortly. I 
think you have seen some of that both in the media and have 
been briefed on it by Will Roper at DOD. That is an Army 
program he is working on and we are funding that. That will be 
important if we can make that happen, and that will increase 
significantly our capability to shoot down incoming rounds.
    Senator Heinrich. In addition to kinetics, which tend to be 
incredibly expensive on a per round basis, I was very pleased 
to see that the Army budgeted for next generation weapons 
systems by funding the 50 kilowatt high energy laser on a 
Stryker vehicle. I think that shows enormous potential, not 
just potential. I think we are at a place now where we have 
shown that we can shoot down mortars with realistically funded 
lasers and do it on a very low cost per shot capability. So I 
would urge you to continue to focus on that.
    General Milley. I do not want to mislead you. These 
programs are not ready for prime time yet in the fielded force. 
So you are talking several years there of consistent, 
predictable funding to make those real, developed, and 
distributed to the force--several years. If an event happens 
prior to then, there is significant risk to those enemy weapons 
systems that you talked about.
    Senator Heinrich. I think we may differ on just how far out 
that timeline is.
    General Milley. Okay.
    Chairman McCain. The fact is the situation today is that 
they literally have the capability to set Seoul on fire. Is 
that correct?
    General Milley. I think that North Korean capability that 
is arrayed north of the DMZ [Demilitarized Zone] is very 
significant, and it would do unbelievable damage. It would be a 
tragedy of immense proportions on the city of Seoul with 27 
million people and a population density of four times that of 
New York City. It would be huge. Their tube and rocket 
artillery alone can pump in a quarter of a million rounds a day 
into that city. It would be huge. It would be enormous.
    Chairman McCain. Thank you.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General Milley, Mr. Secretary, good to see you. General and 
Mr. Secretary, I appreciated the opportunity to visit 
yesterday.
    I wanted to follow up on Senator Inhofe's questions with 
regard to North Korea. So it has been stated a number of times 
in this committee by military experts that it is no longer a 
matter of if but when North Korea is going to have an 
intercontinental ballistic nuclear missile that can range the 
entire United States of America. Do you agree with that 
assessment? If but when.
    General Milley. Well, I would say it depends on what we do, 
Senator.
    Senator Sullivan. Well, let me actually get to that.
    By the way, I actually agree with Senator Blumenthal's 
point about allowing the American people to have a sense of 
when that may or may not be approaching. Of course, there are 
estimates, both classified and unclassified, but I think 
getting it out there will prepare the U.S. public for a really 
challenging national security issue that I do not think a lot 
of people are paying attention to.
    Yesterday in testimony or two days ago in testimony, 
Director Coats stated it was the policy of the United States to 
prevent that capability from ever being realized. Is that your 
understanding of the policy, General?
    General Milley. Absolutely, my understanding of the current 
United States Government's policy is to prevent North Korea 
from fielding an intercontinental ballistic missile with a 
nuclear weapon to strike the continental United States.
    Senator Sullivan. So that is a red line in some ways.
    General Milley. I would not use that word. I do not use any 
words like that. I believe that is the United States policy, is 
to prevent that capability from being fielded by North Korea.
    Senator Sullivan. So if we had to take action against North 
Korea to prevent that from happening, would your United States 
Army forces and the entire weight and power of the U.S. 
military dominate the battlefield to make sure we achieve that 
goal, if we had to?
    General Milley. I believe yes, but I do not go much beyond 
that. Absolutely yes. Us and the ROK [Republic of Korea] Army 
would dominate the battlefield. North Korea would not succeed, 
and North Korea would lose. The cost would be huge, but North 
Korea would lose.
    Senator Sullivan. Let me--actually two questions. Do you 
need anything more? What do you need from this committee or the 
Congress to ensure that we would dominate and prevail if that 
day, God forbid, ever came?
    General Milley. I think the priorities that we laid out in 
our opening statements and are in the budget--that is what I 
think we need. Most importantly, we need predictable funding 
over time.
    Senator Sullivan. Let me ask. General, you and I have both 
talked about the book, T.R. Fehrenbach's ``This Kind of War,'' 
a number of times, the whole issue of no more Task Force 
Smiths. Could you describe what a war with North Korea would 
look like and would it be similar to what we have seen over the 
last 15 years in Iraq and Afghanistan?
    General Milley. No, it would not look anything like the war 
in Iraq and Afghanistan.
    Senator Sullivan. What would it look like?
    General Milley. Well, it depends on, you know, our actions, 
action, reaction, counteraction. There are several different 
possibilities. I do not want to go into any great detail on any 
of them.
    Senator Sullivan. What would it likely look like?
    General Milley. If there was a full-blown war on the Korean 
Peninsula, just as Secretary of Defense Mattis said the other 
day, it would be tragic on an unbelievable scale, and the 
levels of violence would be immense and it would be the likes 
of which the world has not seen since the Second World War. It 
would be huge, and there would be huge amounts of casualties.
    Senator Sullivan. On both sides.
    General Milley. On both sides, yes. It would be horrific. I 
do not want to go into the details of what that would look 
like, and that would get into the realm of speculation of our 
contingency plans, and that would be inappropriate in an open 
hearing.
    Senator Sullivan. You emphasized in a recent interview that 
our soldiers through their training need to be able to be 
miserable again to--I do not think you used the term, but it 
was mentioned in an article in the ``War on the Rocks'' 
magazine--embrace the suck, as they say in the Marine Corps and 
the Army. Are we conducting that kind of rigorous training 
right now, do you believe, that would prepare soldiers for that 
kind of war mentioned in T.R. Fehrenbach book ``This Kind of 
War'' where we do not have logistics bases? We have miserable, 
miserable conditions. People are suffering. Are we conducting 
that kind of training to prepare our forces.
    General Milley. Yes. We have shifted back to combined arms 
maneuver on a dynamic battlefield against a high end, near-peer 
threat. We have shifted away from fixed sites, constant flows 
of--in our training constant flows of logistics. We have gone 
through 16 years of war where we conditioned as an institution 
COPs and FOBs, and some of those had pretty significant quality 
of life capabilities. Others were very austere. There were many 
COPs up in Afghanistan or Iraq that were not very well 
outfitted at all.
    By my point in saying what I said about being miserable is 
that we have got to train ourselves and condition ourselves for 
a type of war in which you are unlikely to have this steady 
stream of continued logistics beyond perhaps water, ammunition, 
food, and some medical. All these other things, you know, chew 
huts, hot showers every day, sleeping in a bed, so on and so 
forth--those will probably not be available if we fight against 
a highly competitive dynamic regional or near-peer power. The 
land battle will be unbelievably violent and units will have to 
move every hour or two just to survive. Logistics and lines of 
communications will be cut off, and units are going to have to 
be able to be independent of thought and mind. Your 
communications are going to be degraded. It is going to be 
significant, and we need to train to that. That is exactly how 
we have shifted our training in the last couple of years.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you for being here today.
    I want to quickly ask about the importance of our non-
military agencies' programs to the Army's mission. I have asked 
every combatant commander the following question, and to a 
person, they have almost all given the same answer. General 
Milley, would a significant reduction in funding to the State 
Department and other non-defense security agencies and programs 
make the Army's job of defending America easier or harder?
    General Milley. Well, Senator, I am not going to comment on 
funding levels for other agencies.
    Senator Warren. I am not asking you to.
    General Milley. I would just say that we in the Army or we 
in the military--armies do not go to wars. Nations go to wars, 
and we need and require in combat operations and most 
importantly to secure the gains of combat operations, secure 
the peace, so to speak--we need the State Department, USAID 
[United States Agency for International Development], FBI 
[Federal Bureau of Investigation], Commerce, CIA [Central 
Intelligence Agency], all these other agencies because the 
military does not do things alone. We do it as part of an 
interagency and joint team and an allied team.
    Senator Warren. Thank you very much, General. You know, I 
agree. The administration is seeking nearly a 30 percent 
reduction in the Department of State and USAID. Our military is 
critically important to our security, but we cannot forget that 
non-military programs are also critical enablers of our 
military so that you can do your job and so America can do its 
job.
    I want to ask you another question, and that is about the 
WIN-T system. I understand there has already been some 
conversation about it. I know that there were significant 
problems with the first version, delays, but that those seemed 
to be solved in the 2.0 version of this. More to the point, 
there is no obvious substitute. This is the only communications 
program that is available for the Army that works on the move.
    The question I have relates to this. General, you said 
several times that on the future battlefield, it is imperative 
that soldiers keep moving. You told the Association of U.S. 
Army at their annual meeting last year that in the Army of the 
future, if you stay in one place longer than two or three 
hours, you will be dead.
    As I understand it, under the current timeline, it is going 
to take the Army about 20 years to fully field the upgraded 
WIN-T system. In 20 years, that upgraded system is likely to be 
obsolete.
    So given your comments about the importance of constant 
mobility, the fact that this is our communications in a 
circumstance where we have got to have a lot of mobility, why 
is the Army taking so long to field this piece of equipment?
    General Milley. Well, I mean, you missed some previous 
comments. Right now, it is under a rigorous review that is 
being led by senior leadership of the Army, the Secretary and 
the Vice Chief of Staff of the Army. I have concerns about not 
only WIN-T, but WIN-T is a subset of a larger network of 
systems. I have concerns about its interoperability, line of 
sight to operate in complex terrain, it survivability and 
vulnerability to enemy systems, its ability to operate on the 
move.
    The bottom line is I have some serious hard questions that 
have not yet been satisfactorily answered as to whether this is 
going to work. I believe I will come to that resolution within 
the next six weeks or so. Like I told Senator McCain, I will be 
happy to and I intend to report out to you on the status of 
that. So I am reluctant to accelerate anything unless I know 
this thing is going to work.
    On the second part of it as to why has it taken so long, I 
mean, that is one of my concerns. A system that is not going to 
get fielded--it has already been in development for 10 years. A 
lot of this stuff is already out of date. So the entire 
acquisition approach, especially in information technologies--
we need to review that. It is one thing to build rolled 
homogenous steel and guns and tanks and vehicle systems. The 
technological speed of advance in the commercial sector on 
information technologies is far more rapid than anything that 
the government's acquisition system is capable of handling. So 
by the time we even come up with the requirements and start 
doing prototyping and experiments and tests, these systems are 
already out of date.
    So there is a fundamental issue in the IT [Information 
Technology] world--it is not just WIN-T--it is much broader 
than that causes me to be skeptical from an acquisition and 
procurement standpoint on WIN-T in particular but other systems 
involved in it as well.
    Senator Warren. Well, I appreciate that, General, and I 
appreciate our responsibility to try to make the procurement 
system work better and work better for you, particularly in an 
area where there is a lot of innovation and change over time.
    I also assume--and I am glad you are looking at this--that 
if the WIN-T system is working and we do not have another 
substitute, that we will make a decision and then try to move 
quickly on it one way or the other.
    General Milley. Right.
    Senator Warren. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I appreciated Senator King's comments talking about small 
arms and the need for modernization and the fact that our 5.56 
does not penetrate Russian body armor. I think that was a 
really important point that was brought out at my subcommittee 
hearing and one of the reasons I think many of us will agree on 
the need to prioritize small arms modernization in this year's 
NDAA.
    So, General Milley, once the Army does settle on a caliber, 
then would you rather have something that could be specifically 
built for infantry forces and the Army at large, or would you 
accept something that could be purchased off the shelf?
    General Milley. I do not know that the two of those are 
mutually exclusive. There are systems out there today on the 
shelf that, with some very minor modifications, could be 
adapted to munitions that we are developing at Fort Benning 
that could be used to penetrate these SAPI plates that our 
adversaries are developing. So it is not necessarily an either/
or proposition on that one. I think there are weapons out there 
that we can get in the right caliber that can enhance the 
capability of the infantry soldier.
    Senator Ernst. That is good and I am glad to hear you say 
that because I think there could be some potential savings if 
we are looking at systems that could be modified, taken off the 
shelf and used for our soldiers. I think that would be 
something that would be very beneficial to our forces.
    Retired General Scales testified at that subcommittee 
hearing, and he spoke about a weapon that could fill the role 
of both the machine gun and the rifle, a light machine gun and 
the basic rifle. So is the need for the machine gun a higher 
priority than that of just a basic rifle, or would they be at 
the same level of priority?
    General Milley. They are both very important. They 
complement each other. I think what he is talking about is what 
the marines are adopting is the M-27. We are taking a hard look 
at that and are probably going to go in that direction as well, 
but we have not made a final decision on it.
    Infantry squads, infantry platoons--they got to have an 
automatic weapon for suppression. They got to have the 
individual weapon as well. So you need both. It is not one or 
the other. You have to have both in order to be effective in 
ground combat.
    Senator Ernst. Absolutely. Thank you, General, very much.
    Today I am introducing a bill with Senator Gillibrand that 
would require each branch of the military to educate 
servicemembers on sexual assault prevention before they 
actually leave for boot camp and if they choose to do the 
delayed entry program, which many of our young men and women 
do. The bill also states that those classes should be conducted 
in person and cover the proper use of social media. So we would 
actually have a live human being standing in front of those 
young men and women presenting that class rather than taking a 
computer course or just reviewing PowerPoint slides on their 
own.
    Sexual assault really is a societal problem, and we really 
do need to have continuous education on that. We do do that 
once we have members in the service. We really do need to start 
as soon as possible. What more can we do to curb military 
sexual assault in the Army?
    Secretary Speer. Well, Senator, I think we are doing a lot 
and we are continuing to adapt more. We are working with 
private/public partnerships with folks within the national 
colleges. I think you may have heard already from Bob Caslen at 
West Point. He is doing the same thing to the TRADOC [Training 
and Doctrine Command] schools.
    I saw something I was very excited about. I know you talk 
about personal people in terms of teaching, but I saw some very 
immersive type leader training using synthetic training 
environments providing very real individuals who provide input 
through those systems of their life story and how to combat, 
how they respond, and what happened to them.
    So there are a lot of things that will cross either through 
individual training incorporating into the schoolhouses that we 
continually try to educate leaders on how to handle, to educate 
individuals that they need to come forth and provide that they 
have been assaulted or harassed. Anything that we find that we 
find useful and improves the situation is definitely welcome to 
look at.
    Senator Ernst. Very good. I am glad to hear that. I just 
think there is more that we can do. The point is to prevent the 
problem before it ever happens. That is the intent of this bill 
is to get the message out before they even enter into the 
service. I have often thought that it should be one of their 
peers rather than like the old lady of the battalion standing 
in front of them and lecturing them. So just having that human 
face-to-face contact I think will be very important in moving 
this forward.
    So thank you, gentlemen, very much for being here today.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Gentlemen, thank you for your excellent testimony here 
today. It has been fascinating.
    Earlier this month, Major General William Hicks, the 
Director of Strategy, Plans and Policy in the Office of the 
Deputy Chief of Staff, indicated that the Army is--and I will 
quote him--thickening our armor posture going forward and plans 
to create a 16th armored brigade team through conversion. This 
is on top of plans to create a 15th armored battalion next 
year.
    So with that, I would be interested to better understand 
the Army's plan for additional armored brigades and to equip 
those brigades with some more modern versions of both the 
Abrams tank and the Bradley fighting vehicles.
    General Milley. In short, over the last 15-16 years of 
combat, we rewickered the Army and created a highly dense 
infantry force, and we reduced our armored capability, as our 
air defense, our artillery, et cetera. As we come out of a war 
against terrorists and insurgents or we shift gears a little 
bit and start looking at near-peer regional competitors, it is 
clear to us that we need to rebalance the force structure with 
additional armored capability. So that is the logic behind it.
    Our armored brigade combat teams right now are at a less 
than a 1-to-2 deployment-dwell ratio. So we need additional 
armored capabilities. So we made a decision to go ahead and 
convert an infantry brigade combat team at Fort Stewart and put 
that back into tanks and make that an armored brigade combat 
team. We intend to do the same thing in the coming year.
    As far as equipping that, we have had to do a pretty 
sophisticated set of logistics moves that AMC and General Gus 
Perna are doing that with Forces Command and General Abrams, 
but I think we will be successful in making that transition and 
equipping those armored forces. That is a critical capability 
that we need to do to rebalance the force.
    Senator Peters. Well, having said that, General--and I 
agree that that is a critical capability particularly with the 
changing nature of some of the threats particularly in Europe. 
I appreciated your earlier comments about having a forward 
presence in Europe to help our allies as part of the European 
Reassurance Initiative. I know both of you mentioned--Secretary 
Speer you mentioned this as well in your written testimony 
about the growth of Army prepositioned stocks in Europe, which 
include both, at division headquarters, two armored brigade 
combat teams and a field artillery brigade.
    So my question is how are we doing when it comes to 
prepositioning some of this vital heavy equipment in Europe, 
and is there anything else that you may need from Congress?
    Secretary Speer. You know, I got the chance to go see that, 
and they are doing extremely well. As a matter of fact, there 
is an emergency deployment readiness exercise where we used the 
enhanced systems sets out of the prepositioned stock to train 
and show deployment capability of those. They are loading, 
bringing it between the 2017 and 2018 funding that we have 
received and are requesting, fills those position stocks that 
you just laid out. In addition to that, NATO [North Atlantic 
Treaty Organization] is adding at Povitz a NATO-funded location 
to add that part of the prepositioned stock in Poland.
    We are not fully up in terms of, I think if I recall right, 
four of the nine prepositioned stocks are fully 90 percent 
capable. Some of the funding--we need predictable, long-term 
funding to make sure we can continue to field those 
prepositioned stocks and then, in addition to that, make sure 
that we upgrade and get the most current systems being fielded 
traded out.
    Senator Peters. General, do we need additional armor 
prepositioned in Europe?
    General Milley. We are planning to do that and that is the 
update that Secretary Speer just gave, was the equipment sets 
that are over there, armored equipment sets, as far as in 
addition to a rotational brigade, so you will end up with one 
Stryker, one airborne, one armored brigade, and then there is a 
division headquarters over there, along with the enablers of 
artillery and aviation and so on.
    Is there a requirement for more? That is really a 
geopolitical question. What does it take to deter further 
aggression from the Russians? How much American ground forces 
are required in combination with air and naval forces in order 
to deter any more aggression, say, into the Baltics or anywhere 
else beyond the Ukraine? Those are under study and analysis. We 
think that is an adequate amount of force right this minute, 
but conditions can change. So I would have to update you later 
if conditions change. We think our plan right now for ERI 
[European Reassurance Iniative] is adequate to the need.
    Senator Peters. Thank you.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country.
    When we first envisioned the cyber force nearly seven years 
ago, the threat was far different than what it is today. As the 
role of cyber in military operations has matured and as we look 
towards the need to develop a cyber deterrence strategy, I am 
curious as to whether or not we should be evaluating whether 
the size or composition of the force is sufficient to meet the 
growing demand. Is there a process underway to determine if 62 
Army cyber teams is sufficient, and if not, should there be 
one?
    General Milley. There is a process, it is led by Lieutenant 
General Nakasone. He is the commander of our cyber, and as you 
recall, Army cyber is a subordinate component headquarters or 
organization to USCYBERCOM [United States Cyber Command] led by 
Admiral Rogers.
    There is a continuous evaluation in terms of need. I 
expect, frankly, in the comings years it to grow. We just made 
it a branch a short while ago. We have established an Army 
Cyber Center of Excellence down at Fort Gordon. We brought in a 
couple of thousand young soldiers that joined that branch. It 
is one of the more popular branches coming out of the military 
academy and ROTC [Recruit Officer Training Course] to seek 
commission in. I frankly think we are in the very early stages 
of the growth, significant growth, of a cyber branch within the 
United States Army and more broadly across all of the services 
within DOD. So I fully expect to grow in the coming years in 
the cyber realm.
    Senator Rounds. Section 1647 of the fiscal year 2016 NDAA 
required the cyber vulnerability assessment of all major 
weapons systems by the end of 2019, how is the Army supporting 
these assessments, and what, if anything, can you share in what 
I recognize as being an unclassified forum about the work that 
is being completed?
    General Milley. I would actually like not to do that in an 
open hearing other than to say we are actively participating in 
the vulnerability assessment and to say that Army systems, like 
every other system, in both civil society and the military--
most of them have cyber vulnerabilities, and we are working 
very, very, very hard and as fast as humanly possible to put in 
protective measures both organizational, training, doctrine, 
but also equipment, software and hardware. It is an area of big 
focus. I would like to stop there in terms of the specifics.
    Senator Rounds. Let me just ask, you have had a number of 
questions and comments today about WIN-T. Is that system WIN-T 
considered a major weapons system with regard to a 
determination of cyber vulnerability?
    General Milley. Yes.
    Senator Rounds. So the WIN-T is also undergoing the same 
cyber vulnerability tests as the other major weapons system.
    General Milley. Yes.
    Senator Rounds. Thank you.
    Let me ask. Section 1650 of the fiscal year 2017 NDAA 
required the cyber vulnerability assessment of Department of 
Defense critical infrastructure by the end of 2020. How is the 
Army supporting those assessments, and what, if anything, can 
you share in this, once again, in an unclassified forum, about 
the work?
    General Milley. I would let the Secretary answer that, but 
I would give you the same answer.
    Secretary Speer. I would give you the same answer. I think 
you have seen some anecdotal stuff, for instance, where both 
the Pentagon is using Hack the Pentagon. You have seen us doing 
Hack the Army and some cyber assessments to see how well the 
software and some of the things that we have the capabilities 
and the infrastructure to protect. I think the rest is left 
unsaid.
    Senator Rounds. Thank you.
    General Milley, you indicated earlier in your conversations 
today that--and I am going to paraphrase somewhat--within 10 
years, there will be a fundamental change in the way that we 
conduct warfare. Could you just elaborate on that a little bit, 
please, for us?
    General Milley. Sure. I separate it into two.
    One is the nature of war, which I think is immutable and is 
unlikely to change, and that has to do with war is a form 
politics by violent means. It is fog and friction and fear and 
confusion and so on and so forth. Those sort of human things 
that are out there--that is probably not going to change. It 
has not changed in 10,000 years. It is probably not going to 
change in the future.
    The character of war does change on occasion, and one of 
the drivers--not the only driver--is technology. Other drivers 
are social change, et cetera. So one of the things that led, 
for example, to Napoleon's success was a political change in 
France, a revolution, that allowed him to have a levee en 
masse, that allowed him to have an Army of the people, so to 
speak. He was fighting against other armies of monarchs whose 
soldiers were either mercenaries or draftees. They did not have 
a choice. The French people of Napoleon's army thought they 
were fighting for a country and a cause, and they bought into 
this thing. So that was an example of a political change that 
changed the character, and that enabled Napoleon to conquer 
Europe.
    Other technological changes or things like the rifle or the 
barbed wire or the introduction of the airplane, tracked 
vehicles, mechanization, the radio--and they were very 
significant in between World War I and World War II.
    Today what I perceive happening is the confluence of 
societal changes that are rapidly happening. We are moving 
beyond 6 billion people in the world, getting to 8 billion 
people in the world, and roughly speaking about 90 percent of 
them are going to be living in highly dense, complex urban 
areas. If war is about politics and politics is about people, 
wars and armed conflict, especially on the ground part of it--
they are going to be fought in urban areas, highly complex, 
dense urban areas. That is a significant fundamental societal 
change to change how the American Army fights, where we fight, 
what the doctrine is, how we train the leaders, things like the 
communications systems and so on and so forth. We are going to 
have to adapt to that change, and that is coming within, for 
sure, 10 years.
    The other technological things like the introduction of 
lasers, rail guns, robotics, autonomous systems, artificial 
intelligence--they are fast approaching very, very quickly. 
They will be, I believe, a significant introduction into both 
air, maritime, space, cyber, and ground warfare. If you combine 
all of those things together--and there are many, many more--I 
think you end up with a fundamental change in the character of 
war. What will be important is that country which connects 
those dots and applies those new technologies and those 
societal changes and adapts the best--those countries will 
prevail. Those countries that do not--they will fail. They will 
lose a war. There is nothing more expensive than that. So when 
I said time is not on our side, that is part of what I meant.
    We have got to urgently move out because our adversaries 
are moving out. Russia and China are moving out. North Korea--
we see it every week. They are moving towards the development 
of nuclear weapons. The United States of America needs to step 
up our game when it comes to these changes because we are 
facing a fundamental change, and we need to end up on the other 
end of that change in a better position than we are right now.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Perdue?
    Senator Perdue. Thank you, Chair.
    Thank you both for being here and for your service.
    General Milley, back in February--and first of all, I am 
embarrassed and I want to apologize that we are sitting here 
having to have this type of conversation. We are sitting here 
at a time when the U.S. Army is the smallest it has been since 
World War II. The disinvestment, particularly in the last 8 
years, threatens the security of our country. General Mattis 
said it best, that the national debt is the greatest threat to 
our national security. Here we see why.
    I want to talk about readiness first. I have one question 
quickly after that.
    General Allen just in February before the Subcommittee on 
Readiness told us that one-third of our BCTs, one-fourth of our 
combat aviation brigades, and half of our division 
headquarters--only half--were deemed ready at that point. He 
also went on to say that only three of our, I think it is, 58 
BCTs in total, including Guard and Reserves could be called 
upon to fight tonight.
    How does this budget proposal allow you to address that? By 
the end of 2018, if you were to get the amounts in this 
request, how many of our BCTs would be ready to fight? How 
would you assess the readiness that we just described here?
    General Milley. Our readiness objective for the regular 
Army is 66 percent of the formations are at the highest level 
of combat readiness, and our objective for the Reserve 
component, both National Guard and U.S. Army Reserve, is 60 
percent of their enabling capabilities.
    Right now, that comment about a third--that is still 
relatively true. I would rather give you a detailed--it has 
changed since General Allen has testified, and it has gotten a 
little bit better. As I briefed earlier, it is slow progress, 
not the level that I would like to see.
    With this budget, with the completion of the 2017 budget, 
we still have part of that year to go. The enactment of the 
2018 budget--I think we will see significant improvement 
because readiness is cumulative, and I think based on our 
current projections, assuming we hold constant things like 
OPTEMPO and we get steady, predictable funding, then I think 
you will see significant improvement in readiness by the end of 
2018 for sure. It will not necessarily be at the objective 
level, but it will be a significant improvement over what it is 
today.
    Senator Perdue. How much would you need to get the 
objective level?
    General Milley. Steady, predictable funding for several 
years in a row and a growth in the size of the force. We chose 
in this particular budget to flat line the end strength growth. 
If more money became available, I certainly would like to see 
that----
    Senator Perdue. So if you were to get a CR [Continuing 
Resolution] at any point in that 4- or 5-year period you are 
talking about that would tie your hands to redivert or to 
divert money from one area to another to address this 
readiness, how would that impact your ability to do what you 
are talking about doing?
    General Milley. CRs hurt. I will let Secretary Speer--he is 
a finance guy, and he knows more about how they hurt than I do, 
but I can tell you they hurt.
    Secretary Speer. One thing about the CRs, especially the 
longer term they go, but any CR,--they have a cumulative 
effect, and that is part of what we are coming out of from 
2013, 2014, 2015 on not only in terms of the ability for a 
commander to know and sustain predictability for training and 
what they are going to do, they are by nature conservative. So 
when they see the funding may run out, they react differently. 
They can be risk-averse to that. You start making bad 
purchasing decisions, and those types of things go on.
    Senator Perdue. You make shorter-term decisions is what you 
are saying.
    Secretary Speer. Correct.
    Senator Perdue. Less optimal decisions than you would make 
if you had a steady runway of dependable funding.
    General Milley. They are more expensive.
    Secretary Speer. More expensive too. I mean, they hold 
things to the very end, and you have a whole bunch of purchases 
at the end of the year that you do not get the best bargain 
for.
    General Milley. It is a crazy way to do it, this CR thing 
is--just one man's opinion I suppose, but I would say it is a 
crazy way to do it.
    Senator Perdue. Sir, I come from a different world too. I 
come from the business world. I have never seen this done 
anywhere else in the world. It is absolutely absurd that we are 
going to do that and tie your hands about allowing you to move 
money from one department to another, to even adapt to reduce 
levels of spending.
    Our procurement program--I think you mentioned just now. 
One of the competitive issues that I believe--and you just said 
it--that will make winners and losers in the future is how 
quickly we can adapt technology to the battlefield. It sounds 
to me like with what we have been doing compared to what China 
is doing particularly with the rise of their investment--they 
are spending about $826 billion a year in comparable terms on 
their military today. That compares to our $600 billion, just 
to put that in perspective. In addition, they can bring things 
to market so much quicker. Would you elaborate on that just a 
little bit and how China is outpacing us in terms of bringing 
new technologies to the battlefield?
    General Milley. Your assessment is accurate, they have made 
significant advances. We are in the 38th year I guess since 
Deng Xiaoping and the 1979 reforms. So they have made a massive 
economic improvement in their society for 37 consecutive years. 
It is the largest economic shift in global power in 5 
centuries. When that happens, inevitably throughout history, 
significant military capability follows. That is what we are 
seeing, we are seeing a significant development of Chinese 
military capability, and it is relatively rapid. They are not 
at 100 percent of our levels yet in some areas, but in other 
areas they have developed capabilities that are quite 
challenging. The specific capabilities--I would prefer not to 
talk about them in open session, but it is a significant 
capability that they are developing.
    Senator Perdue. Thank you both.
    Chairman McCain. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Just one quick follow-up question with respect to small 
arms. To what extent, if we adopted a new round, would it 
impact the interoperability of our relationship with NATO 
countries, the rounds that they have? Related to that is, what 
would it cost us to refurbish the worldwide stockpile, which 
exists now, 5.56 and 7.62?
    General Milley. Those are all part of the analysis that we 
are doing down at Benning. Just to put your mind at ease a 
little bit, what we have developed is a 7.62 bullet. So it is 
not like something that is not in the inventory anywhere. We 
have developed a pretty effective round down at Fort Benning. 
We think that we can get that into production here in a year or 
two and get that fielded out to the force. It is 7.62, not 
5.56.
    But not everybody necessarily needs a 7.62--this idea that 
the entire Army--everybody needs the same thing all the time--
is not necessarily true. There are some units, some infantry 
units, that are much more highly likely to rapidly deploy than 
others and conduct close quarters combat that we would probably 
want to field them with a better grade weapon that can 
penetrate this body armor that we are talking about.
    Senator Reed. Would this round be interoperable with NATO 
allies?
    General Milley. I probably should owe you a specific 
answer. I think yes. It is a 7.62 round. So I think the answer 
is yes. Let me get you a specific ballistics answer.
    [The information referred to follows:]

    General Milley. The Army's current 5.56mm and 7.62mm cartridges are 
all NATO standard rounds which can be chambered and fired in NATO 
standard weapons. These include:

    <bullet> 5.56mm:
      - M855A1: Enhanced Performance Round (EPR) is the primary combat 
round
      - M856A1: Tracer round
      - M995: Armor Piercing round (War Reserve)
      - M1037/M862: Short Range Training Ammunition

    <bullet> 7.62mm:
      - M80A1: EPR is the primary combat round
      - M62A1: Tracer round
      - M993: Armor Piercing (War Reserve)
      - M973: Short Range Training Ammunition Ball for use in training
      - M974: Short Range Training Ammunition Tracer for use in 
training
      - M118: Long Range is the primary round for the M110 Semi-
Automatic Sniper System

    In order to address peer and near-peer threat increases in Soldier 
protection, the Army is in the process of qualifying the 7.62mm XM1158 
Advanced Armor Piercing (ADVAP) round which is also a NATO standard 
caliber round. The XM1158 is planned for Low Rate Initial Production 
(LRIP) in fiscal year 2019 with quantities being added into the war 
reserve in fiscal year 2020. There will be 35 million rounds in the war 
reserve for contingency operations. The Army will spend a total of $420 
million to include research and development, qualification and LRIP at 
Picatinny Arsenal and Full Rate Production at Lake City Army Ammunition 
Plant (LCAAP).
    The Army is also in the process of research and development for the 
next generation squad weapon systems with anticipated fielding in 
fiscal year 2023 to replace the 5.56mm M249 SAW and M4 Carbine. This 
system will address peer and near-peer threats at greater ranges. The 
caliber is not yet selected but is anticipated to be in the range of 
5.56mm, 6.5mm, 6.8mm or 7.62mm. It is currently too early to determine 
the total cost of development and fielding of this new ammunition. The 
Army anticipates better cost fidelity upon selection of the weapon, 
ammunition type and caliber, which is projected for fiscal year 2021.

    Senator Reed. Thank you, sir.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Good morning, gentlemen. Welcome. Thank you for your 
service to our Nation particularly at this time of great 
challenges abroad and rising perils. I want to thank you both 
for your work particularly on the fiscal year 2018 defense 
budget and your commitment to rebuilding our military 
capability to keep this Nation safe, to restore our readiness, 
and make sure we are in a position to defeat our enemies and to 
defend the Homeland.
    I want to talk about several aspects of the budget. The 
first concerns Fort Hood and other Texas bases, which is we 
visited the barracks and other facilities at Fort Hood and 
other Texas bases. The bachelor enlisted quarters are currently 
at unacceptable habitable levels. I understand that MILCON 
[Military Construction] spending has been limited due to the 
operational challenges causing the services to make difficult 
budget decisions. Can you share with this committee your 
commitment to providing the necessary sustainment and 
restoration and modernization of these facilities to keep them 
functioning at a habitable level?
    Secretary Speer. So, Senator, I would agree with you. The 
past non-predictable funding, the problems of lower funding we 
had has created some strain which generates some readiness from 
the institutional base of the installations. We have--and thank 
you so much for the fiscal year 2017 budget--added additional 
resources to sustaining those installations, to include Fort 
Hood. We have asked for, inside the fiscal year 2018 budget, 
double the restoration and modernization previously. We got 
over $1 billion more than we had in fiscal year 2017. So we 
will get after both not only Fort Hood but other installations 
in terms of improving modernization and readiness of the 
facilities. MILCON has not been plused up as much. We are still 
taking some risk, and we will have to look at that in terms of 
the total infrastructure of the installations in the future.
    Senator Cruz. Thank you.
    Let me turn, General Milley, to a different topic, which is 
that prepositioned stocks in South Korea are planning to move 
back to the continental United States to equip a new armored 
brigade combat team. Could you expand on the reasons why the 
prepositioned stock has to be relocated from a forward-deployed 
location supporting rotational units to outfit an ABCT 
[Armoured Brigade Combat Team] that will be stationed in the 
U.S.?
    General Milley. Thanks, Senator. Two things. One is that 
equipment is over there prepositioned for a force to arrive for 
training or otherwise. The intent is that the armored units 
that deploy there will deploy with their equipment. As I 
mentioned earlier to one of the Senators, for the last 15-16 
years, our force--we restructured ourselves to fight an 
insurgency and counterterrorist fight, and we went with 
infantry heavy, which is appropriate for that type of fight. As 
we look at the world ahead, we need to rebalance a little bit. 
So we need to increase our armored brigade combat team 
capability. So we want to convert one infantry to an armored to 
create a 15th and then create a 16th after that. That 
equipment--the key set you are talking about--will be necessary 
to create that 16th armored brigade. Absent that, we will not 
be able to do it given the money that we have and the vehicle 
inventory that we have. So that is the logic behind it. It is 
an element of risk, but we think it is acceptable level of risk 
because that particular unit would be the one going anyway.
    Senator Cruz. Let me turn to a different question, which is 
that the President's budget keeps regular Army BCTs at 31, 
without any increases across the Active Duty National Guard or 
Reserve forces. Does this budget contain any provisions that 
would aid in the future reactivations of new BCTs?
    General Milley. Yes. It was 30, and this budget request 
keeps 31. That one is the airborne brigade up in Alaska. So 
that is where you get your 31st one.
    There are modest increases in force structure built into 
this budget. One of the ones that relates to your question is 
the security force assistance brigades. They are the chains of 
command. Think of them as the chain of command from staff 
sergeant on up of an infantry brigade. They will train 
together. They will work together, and they will deploy as 
advisors to places like Iraq, Afghanistan, and other places 
where we think advisory help for indigenous forces.
    They will not have soldiers in them, though. They will not 
have the privates and the sergeants and the corporals, et 
cetera. So if we need to expand rapidly, they do form the 
basis, the nucleus, the leadership piece of a brigade combat 
team that we could bring soldiers through basic training and 
AIT [Advanced Infantry Training] and fold them underneath that 
chain of command, and you could very quickly have an additional 
brigade must faster than building one from scratch. We plan on 
building five of those, four in the regular Army, one in the 
Guard. That would be an expansion there.
    The other part of that is what we are trying to do with 
this budget is fill the holes of the existing force structure, 
and then we are going to want to come back to you in the 2019 
budget with what we think is the optimal force structure for 
the national military strategy and the defense planning 
guidance. Secretary Mattis is currently leading us through a 
very rigorous review of that, which we expect the results--we 
will be finished with it probably in the fall. Once we are done 
with that, we come back in 2019 with here is how we think we 
make ourselves right-sized for the challenges we think we face.
    The last budget stopped the bleeding, this budget is to 
steady the ship and start the increase, as slight as it is, in 
readiness and modernization and modest increases in capacity. I 
hope that answers the question.
    Senator Cruz. Thank you, General.
    Senator Reed [presiding]. Thank you, Senator Cruz.
    Gentlemen, thank you for your testimony, for your service. 
On behalf of Chairman McCain, let me call the hearing 
adjourned.
    [Whereupon, at 11:31 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
                           army end strength
    1. Senator Inhofe. General Milley, understanding that the ultimate 
size of the Army will largely depend on the outcome of the ongoing 
National Security Strategy review, what is the correct end strength 
number for each Army component to meet present enduring Combatant 
Command requirements and contingency operations?
    General Milley. Until the National Security Strategy review is 
complete, I cannot provide exact end strength numbers by component. 
However, under the current national military strategy and defense 
planning guidance, increases above 1.018 million soldiers (476,000 
Regular Army; 343,000 National Guard; 199,000 Reserves) would enable 
the Army to better fulfill all of its requirements at more acceptable 
levels of military risk.
                         current army readiness
    2. Senator Inhofe. General Milley, you testified that the readiness 
goal for Army BCTs is roughly 66 percent. We further know from open 
testimony that we are not even close to that goal, with only about one-
third of BCTs ready currently. What practical steps can we take to 
bring us closer to the 66 percent readiness goal?
    General Milley. The additional end strength for Active and Reserve 
components provided in the fiscal year 2017 National Defense 
Authorization Act (NDAA), will improve the manning levels inside 
Brigade Combat Teams (BCTs) gaining additional readiness. In fiscal 
year 2017, we emphasized decisive action training at home station and 
at our Combat Training Centers (CTC). Building on our gains in fiscal 
year 2017, we have requested increased funding for CTC rotations and 
emergency deployment readiness exercises (EDREs) in fiscal year 2018. 
These exercises will improve readiness of forces preparing for 
deployment and contingency operations. We have also increased funding 
for BCT home station training to above 90 percent of the total 
requirement for Regular Army units and above 80 percent for Army 
National Guard units.
    Beginning this year, and increasing in fiscal year 2018, all Army 
National Guard BCTs receive additional man-days with associated pay and 
allowances. We are increasing the number of Army National Guard BCT CTC 
rotations from two to four per year.
    Additional resources for home station training, increased 
maintenance for aviation that includes the 4 AH64 Battalion's in the 
ARNG, and increased EDRE funding would all help accelerate our 
readiness. These items were included in the fiscal year 2018 UFR 
Letter.
    Army-wide, we are also aligning BCTs with ongoing missions, so that 
it builds readiness at the least risk to contingency and war plan 
demands.
    Finally, to achieve the optimal readiness of our BCT formations, 
sustained, sufficient, and predictable funding for required manning 
levels, modernization, and sustainment are critical.

    3. Senator Inhofe. General Milley, of the four pillars of readiness 
(manning, equipment, leader development, training), which are you most 
comfortable with in its current state, and which one concerns you the 
most?
    General Milley. In its current state, the manning pillar presents 
the least concerns due to recent approved increases in end strength, 
however that does not mean we are comfortable with its current state--
it is only a beginning in an area that saw reduction by 80,000 soldiers 
in the last 8 years. The increase in end strength should not be 
mischaracterized as an increase in the overall Army; it will fill gaps 
in the existing force structure. We're not increasing the brigades and 
divisions; we're filling holes in existing units.
    Most concerning is the equipment pillar. With the passing of the 
fiscal year 2017 Consolidated Appropriations Act, procurement efforts 
will begin to address known shortfalls and gaps in combat systems and 
most importantly in munitions, electronic warfare, cyber programs, air 
and missile defense, long-range fires, protection and mobility 
programs. However, this will not fully reverse the effects of 
constrained funding and multiple years of continuing resolutions. 
Without predictable steady funding in the years ahead we will be 
required to continue to leverage future modernization to achieve 
current readiness requirements.
                               __________
               Questions Submitted by Senator Tom Cotton
                  army fiscal year 2018 unfunded list
    4. Senator Cotton. General Milley and Secretary Speer, if Congress 
decides to add additional resources for a second set of up-gunned 
Stryker vehicles, would the Army find this consistent with their needs 
given the threat?
    General Milley and Secretary Speer. Yes, additional resources for a 
second set of up-gunned Stryker vehicles would be consistent with Army 
needs given the threat. Stryker lethality is included in our Fiscal 
Year 2018 Unfunded Requirements List and it will better equip our 
maneuver forces against peer and near-peer threats.
             distributed common ground system-army (dcgs-a)
    5. Senator Cotton. General Milley, ``Last we spoke, I was assured 
that the Army was on track to comply with Section 113 of the NDAA 
regarding DCGS-A and that the Army Chief of Staff was fully aware of 
that effort. As of now, the Army has 27 days to award a contract for a 
working commercial solution that will be fielded Army-wide for users at 
the division and below levels. I am concerned because it appears that 
the Army has still not defined its requirements, begun a competition, 
or made any concrete steps towards meeting those requirements. So, is 
the Army going to award a contract by June 21 that will give users from 
the division and below a working capability?''
    General Milley. The Army is complying with Section 113 of the 
National Defense Authorization Act (NDAA) regarding Distributed Common 
Ground System-Army (DCGS-A). The Army will not award a contract by June 
21, 2017. However, to comply with the NDAA, the Army has conducted 
comprehensive market research to solicit feedback on available 
commercial capabilities and will submit a waiver request to the 
Secretary of Defense to allow the Army to award a contract. To date, 
industry has provided valuable data on current commercial off-the-shelf 
and non-developmental products and their feedback has directly informed 
the requirements. U.S. Army Forces Command has also participated in the 
requirements process in order to provide input on what capabilities 
soldiers need. I will personally review and approve the final 
requirements document to support this effort. Direct industry 
engagements and well-defined requirements are necessary steps prior to 
awarding a contract for a commercial solution or non-developmental item 
that will be fielded Army-wide for users at the tactical levels.
                               __________
            Questions Submitted by Senator Claire McCaskill
                           cbrn preparedness
    6. Senator McCaskill. General Milley and Secretary Speer, please 
provide, in a classified format if necessary, current assessments on 
the timeline in which the United States believes that North Korea will 
have the capability of: Successfully launching an ICBM; Successfully 
launching an ICBM capable of ranging any portion of the continental 
United States; Successfully launching an ICBM capable of ranging the 
entire continental United States; and Successfully launching an ICBM 
with a nuclear warhead.
    General Milley and Secretary Speer. [Deleted.]

    7. Senator McCaskill. General Milley and Secretary Speer, do you 
feel confident that Army forces generally, and in the Pacific theater 
specifically, have the CBRN equipment necessary to defend United States 
troops against a potential chemical or biological attack by North 
Korea?
    General Milley and Secretary Speer. Yes, We are confident that the 
Army has broadly equipped its soldiers, and the United States Forces 
Korea, 8th Army and United States Army Pacific Command specifically, 
with the most ready and modern capabilities as it relates to defending 
themselves against a CBRN attack from North Korea.
    However, as a result of frequent provocations from North Korea, 
which is armed with chemical, biological and nuclear weapons, and given 
the advances in technology in the area of Chemical, Biological, 
Radiological and Nuclear (CBRN) defense, the Army is continuing to seek 
opportunities to improve the CBRN equipment, capabilities and capacity 
available to defend U.S. troops against a potential attack in the 
Pacific theater.
    In Fiscal Year 2018 (FY18) Army and Joint Chemical and Biological 
Defense Program budget requests, we have sought to maximize investments 
in CBRN readiness on the Korean peninsula. Additionally, the Army's 
Fiscal Year 2018 Unfunded Requirements List includes requests to 
deliver improved CBRN decontamination and radiological detection 
capabilities to the Army forces on the Korean peninsula.

    8. Senator McCaskill. General Milley and Secretary Speer, in 2016, 
the National Commission on the Future of the Army identified CBRN 
response and defense as a critical shortfall in Army capabilities in a 
major contingency operation.
    Do you agree with the shortfall identified by the Commission? If 
so, what have you done or plan to do to address the shortfall? How many 
additional soldiers should we be training?
    What are some of the potential consequences in an overseas military 
conflict of having a gap in our Chemical, Biological, Radiological and 
Nuclear response capabilities?
    What are the consequences of this gap to the Army's ability to 
respond to an attack on the Homeland?
    General Milley and Secretary Speer. The Army agrees with the 
National Commission on the Future of the Army report with regards to 
shortfalls related to Chemical, Biological, Radiological and Nuclear 
(CBRN) capabilities and modernization.
    To address these concerns, we requested additional funding in the 
President's Budget 2017 Request for Additional Appropriations which 
allows us to procure chemical protective ensembles to meet contingency 
requirements, as well as fund improved early warning to detect 
potential chemical attacks in the Central Command area of 
responsibility.
    Likewise, the Army's Fiscal Year 2018 President's Budget submission 
and our continued work with the Joint Chemical and Biological Defense 
Program are also informed by the Commission's recommendations on CBRN 
modernization.
    The Army continually seeks opportunities to improve CBRN 
capabilities and capacity within larger readiness and modernization 
efforts to ensure we have the most ready force available to address the 
broad threats of modern warfare.
    With regards to training, the Army fully recognizes the importance 
of preparing soldiers to operate in a CBRN environment and fully 
resources CBRN training executed by all units in the force structure. 
As we field modernized equipment to address emerging and advanced 
threats, we ensure soldiers receive the needed training to close the 
shortfall.
    Gaps in the Army's CBRN response capabilities, whether in a 
military conflict or in the Homeland, could increase risk to soldiers 
and delay mission accomplishment. We maximize investments in our CBRN 
force structure and training to best minimize consequences to the 
warfighter within our current capabilities. In the Homeland, the Army 
has made a concerted effort over the last few years with regards to 
CBRN defense and protection through forces, training and equipment in 
support of the CBRN Response Enterprise. Using the Total Force 
approach, 18,700+ personnel in CBRN response capable units from the 
Active Component, Reserve Component, and National Guard may be called 
upon to provide a wide range of capabilities to save lives and protect 
property. The CBRN Response Enterprise consist of 57 Civil Support 
Teams, 10 Homeland Response Forces, and 17 CBRN Enhanced Response Force 
Packages which normally respond in State Active Duty under State 
control; and one Defense CBRN Response Force and two Command and 
Control CBRN Response Elements which provide the Federal response under 
USNORTHCOM.
    Additional readiness and modernization efforts are highlighted in 
the Army's Fiscal Year 2018 Unfunded Requirements List, which seeks 
opportunities to accelerate improved radiological detection systems, 
expand decontamination capabilities to United States forces in Korea, 
increase readiness of our Stryker Nuclear, Biological and Chemical 
Reconnaissance Vehicle fleet, and deliver improved protective masks and 
ensembles to Chemical, Biological, Radiological, and Nuclear forces for 
both warfighting and Homeland defense missions.

    9. Senator McCaskill. General Milley and Secretary Speer, last year 
I had the privilege of meeting U.S. Army soldiers responsible for 
operating anti-ballistic missile weapons systems.
    Do you believe it is advantageous for the United States to deploy 
additional anti-ballistic missile capabilities to Japan?
    Do you believe THAAD is necessary?
    General Milley and Secretary Speer. Yes, it is advantageous to 
deploy additional anti-ballistic missile capabilities, where needed. 
Missile Defenses are less provocative than offensive systems, protect 
critical assets and population centers, assure our Allies, and preserve 
capabilities should deterrence fail.
    U.S Patriot and THAAD are some of the Army's most in-demand 
systems. Increasing United States missile defense in Japan must be 
balanced. Japan already has considerable defenses including Patriot 
batteries with advanced missiles.
    The Department developed the ``THAAD Global Posture'' to maximize 
strategic flexibility in order to respond to war plans and contingency 
demands. Not adhering to that Global Posture footprint would make it 
very difficult to meet other world-wide requirements.
                               contracts
    10. Senator McCaskill. General Milley and Secretary Speer, in 2015, 
the GAO found (GAO-16-46) that, in 2013, the Army reported nearly 80 
percent of the $9.7 billion it obligated for contracted services--such 
as professional and management support--were for services that were 
closely associated with inherently governmental functions. What is the 
Army doing to ensure that we are either transitioning these types of 
contracted roles to DOD permanent hires, or else ensuring that such 
contracted services result in savings to the taxpayer?
    General Milley and Secretary Speer. The Army continues to comply 
with the statutory requirements to review its inventory of contracted 
services and, to the extent possible, reduce contracted services for 
functions that are closely associated with inherently governmental 
functions. However, the existing constraints on the size of the 
civilian workforce and force manning levels impede our ability to in-
source functions deemed to be closely associated with inherently 
governmental functions. Because the Army is managing to a civilian end 
strength limit, it is difficult for Army organizations to move this 
contracted work in-house.
    Although it is possible that some of these contracted positions may 
be saving the taxpayers money, we generally have not done the cost 
comparisons to show which labor source would be most cost effective 
because, given the current civilian end strength limitations, there is 
no option to in source those positions. In fiscal year 2014 we in-
sourced 14 positions; in fiscal year 2015 we in-sourced 14 positions; 
in fiscal year 2016, 141 positions, and so far in fiscal year 2017, we 
have in-sourced 56 positions.
    In addition to transitioning from contracted services to permanent 
civilian positions, in an effort to reduce costs, the Army is carefully 
considering the extent to which contracted services in operational 
theaters may be transitioned to either DA civilian or military 
personnel. Many Army units have deployed to Afghanistan without all of 
their support personnel in order to remain within the force management 
level restrictions. Now that the administration has lifted these 
restrictions, it may be possible for the Army to shift these functions 
currently performed by contractors, such as aviation maintenance, base 
security, and UAS operators, back to the military personnel that have 
been trained in those areas.

    11. Senator McCaskill. General Milley and Secretary Speer, in 2016 
the GAO recommended (GAO-16-119) that the DOD, to the extent possible, 
revise programming guidance to collect information on how contracted 
services will be used to meet requirements beyond the budget year, but 
rather into the Future Year Defense Program. What steps has the Army 
taken to bring this recommendation into reality and practice?
    General Milley and Secretary Speer. To bring the Government 
Accountability Office's recommendation into reality, the Army first 
initiated a trial process with select commands in fiscal year 2016 
(FY16) to collect and analyze contracted service requirements and 
funding. In fiscal year 2017, the Army is continuing this effort by 
updating the existing data collected and further expanding the number 
of participating commands. The Army expects to be fully operational by 
the end of fiscal year 2018. The Army defined the contracted services 
per the Federal Acquisition Regulation 37.101--a ``contract service'' 
is one that directly engages the time and effort of a contractor whose 
primary purpose is to perform an identifiable task rather than to 
furnish an end item of supply. This includes services performed by 
either professional or nonprofessional personnel whether on an 
individual or organizational basis.
          cooperation with the department of homeland security
    12. Senator McCaskill. General Milley and Secretary Speer, the 
military has long embraced the concept of `jointness' wherein each 
branch of service works hand in hand with the others. This has made our 
military more capable and better trained to accomplish their mission.
    Do you agree the military, and the National Guard in particular, 
should closely embrace the concept of `jointness' and increase 
coordination with DHS to ensure they are prepared to respond to a 
massive CBRNE attack against the United States Homeland?
    Would you agree joint training opportunities are an effective way 
to integrate the functions of the National Guard and DHS in a disaster 
response situation?
    Will you commit to working with DHS to increase combined training, 
including training conducted by the CBRNE school at Fort Leonard Wood, 
and ensure the National Guard is fully prepared to meet this important 
mission?
    General Milley and Secretary Speer. I agree that the Army, 
including the National Guard, should work closely with DHS and other 
government agencies to ensure we are prepared to respond to any CBRNE 
attack. Title 32 and Title 10 National Guard CBRN Response Enterprise 
element leaders are currently working to forge more in depth 
relationship to ensure ``jointness'' across the Total Force. I also 
agree that joint training is one of the most effective ways to 
integrate Army and DHS functions in a disaster response scenario. There 
are already a number of opportunities for soldiers, Regular Army and 
National Guard, to train alongside DHS responders at Fort Leonard Wood. 
These include both collective and individual training. The National 
Guard also participates in the DHS National Exercise Program which 
ensures DHS and National Guard senior leaders have the opportunity to 
exercise interagency coordination procedures with OSD and DHS/FEMA.
    The National Guard leverages training opportunities at Maneuver 
Support Center of Excellence (MSCOE)/CBRNE School at Ft Leonard Wood 
and continues to work with MSCOE/CBRNE School to ensure DHS 
requirements are properly represented in Army Requirements Oversight 
Council (AROC) processes. I am committed to close coordination with the 
Services, OSD, and DHS to prepare for a whole of Government response to 
any largescale CBRNE incidents or attacks in the United States 
Homeland. We recognize the critical role Ft. Leonard Wood plays in that 
effort.
                                 cyber
    13. Senator McCaskill. General Milley and Secretary Speer, what 
types of enemy cyber effects are brigade combat teams faced with during 
their rotations at Army Combat Training Centers? How well are they 
prepared to face these effects?
    General Milley and Secretary Speer. Brigade Combat Teams (BCTs) 
face a hybrid threat, meaning Cyber Opposing Forces (OPFOR) transition 
their effects between those used by state and non-state actors, 
including organized criminal elements, in cyberspace. The intent of the 
effect is to degrade BCT mission command capabilities or to assist in 
information warfare campaigns. Examples of effects used in the last 6 
months to degrade mission command include a denial of service attack on 
the BCT network, repeatedly restarting critical domain infrastructure, 
phishing attacks, and exfiltration of operational and intelligence 
information allowing the OPFOR to conduct kinetic attacks and 
information warfare campaigns. Examples of effects used for information 
warfare campaigns include injecting false information into a mission 
command system and defacing the unit webpage with a propaganda message. 
Additionally, OPFOR frequently targets the BCT's usage of the 
electromagnetic spectrum (EMS), degrading friendly tactical 
communications and conducting local denial of GPS, affecting BCT 
positioning, navigation, and timing ability.
    The Army is continuing its efforts to grow, train and equip the 
Cyber Force through the institutional recruiting, training and 
equipping processes. In general, BCTs that have not yet been fielded 
with cyber trained and equipped manpower lack organic capability and 
capacity to effectively respond to enemy cyber effects during Combat 
Training Centers (CTC) rotations. During CTC pilot rotations where Army 
Cyber Command has provided embedded augmentation of trained and 
equipped personnel, the BCTs have been very successful in blocking and 
defeating the opposing force cyber effects. In many cases, application 
of basic cybersecurity practices (password management, log monitoring, 
and firewall configurations) would minimize the impact or ability to 
conduct an effect. Recent Cyber Electromagnetic Activities (CEMA) 
Support to Corps and Below (CSCB) supported rotations at CTCs have 
greatly improved the BCTs ability to execute cyberspace operations and 
electronic warfare to enable dominance of the cyber, electromagnetic, 
and information environments. The lessons learned from these CSCB 
rotations will inform many aspects of doctrine, organization, training, 
materiel, leadership, personnel, facilities and policies (DOTMLPF-P) 
and education initiatives going forward.

    14. Senator McCaskill. General Milley and Secretary Speer, in what 
ways is the Army coordinating with private sector owners and operators 
of critical infrastructure that is part of the defense industrial base?
    General Milley and Secretary Speer. The Army is working closely 
with prime and sub-contractors of the weapons platforms assessed in 
response to section 1647 of the National Defense Authorization Act 
(NDAA) for fiscal year 2016 requirements to help them better understand 
the threat and identify vulnerabilities in their enabling Platform 
Information Technology (PIT). The Army intends to pursue a similar 
relationship with the private sector entities involved with the 
Facility Related Control Systems and Industrial Control Systems 
assessed in response to the requirements of section 1650 of the fiscal 
year 2017 NDAA. As we evolve these assessment programs into enduring 
capabilities, the Army will maintain this reinforcing relationship with 
the private sector entities that build and maintain our systems and 
infrastructure.
    Army Materiel Command (AMC) is working to improve its critical 
infrastructure, and the cybersecurity posture of its supporting Cleared 
Defense Contractor (CDC) networks (often connected directly to Army-
owned systems) through efforts to gain better visibility (utilizing 
ARCYBER Cyber Protection Teams) of the vulnerabilities associated. The 
long term improvements, however, will be through changes to contracting 
language; AMC is currently preparing to enter into negotiations with a 
supporting CDC to modify a contract to support stricter cybersecurity 
requirements and increased visibility.
                           gender integration
    15. Senator McCaskill. General Milley and Secretary Speer, what is 
the Army's plan to continue to recruit women into the newly opened 
ground combat jobs?
    General Milley and Secretary Speer. The Army is recruiting across 
the spectrum of the eligible population. The Army Marketing Research 
Group has developed products developed to highlight diversity and to 
appeal to potential female candidates for service. The Army has 
conducted more than 40 local, regional, and national media engagements 
focusing on integration efforts and highlights many of the stories of 
female soldiers on official social media accounts as a standard 
practice.

    16. Senator McCaskill. General Milley and Secretary Speer, what is 
the Army's plan to increase inclusion of women into the special 
operations career fields?
    General Milley and Secretary Speer. The Army is actively seeking 
female candidates who can meet the physical, cognitive, and non-
cognitive qualifications for special operations career fields. Many 
female soldiers already work in Special Forces units as Civil Affairs 
officers; Special Forces units draw upon special female-only teams in 
order to meet mission requirements. Special Operations Command's 
implementation plan mirrors the Army's lines of effort (transform 
accessions, talent management, communicate and educate, and assessment 
of progress). The Army is committed to ensuring all qualified and 
interested candidates, whether male or female, have the opportunity to 
meet the rigorous standards for the special operations career fields.

    17. Senator McCaskill. General Milley and Secretary Speer, have we 
seen any harm to readiness since women began serving as leaders in the 
infantry, armor, field artillery, or other combat arms?
    General Milley and Secretary Speer. No. The integration of women 
into combat arms branches has not adversely affected the readiness of 
the Army.

    18. Senator McCaskill. General Milley and Secretary Speer, do you 
believe the success the Army has had in opening positions to the entire 
talent pool could be replicated by other services?
    General Milley and Secretary Speer. Yes. However, the Services 
differ in their missions which may drive Service specific recruiting. 
Although the Army has had success with a standards based leaders first 
strategy for integrating women, we are open to sharing this approach 
and lessons learned with the other Services.
                    european reassurance initiative
    19. Senator McCaskill. General Milley and Secretary Speer, while 
the overall budget for the European Reassurance Initiative was 
increased by 65 percent in the president's budget, the amount allocated 
to build partner capacity was cut significantly ($32 million or 63 
percent). This is even more concerning paired with State Department 
cuts in the Foreign Military Financing program and the complete 
elimination of the program to NATO states bordering Russia (Estonia, 
Latvia, Lithuania). With these cuts how are our allies and regional 
partners to be assured that the United States takes seriously the 
threat of Russian aggression and the potential harm to regional 
stability?
    General Milley and Secretary Speer. NATO allies and partners are 
assured of the United States' commitment to regional stability through 
the continuous presence of an Armored Brigade Combat Team (ABCT) and a 
Combat Aviation Brigade (CAB) along with forward stationed presence, 
that continue to partner with NATO allies and partners in bilateral and 
multilateral exercises throughout eastern Europe from the Baltics to 
the Balkans. The United States is also a framework nation in the NATO-
led enhanced Forward Presence (eFP) initiative which places battalion-
sized combined arms battle groups in the three Baltic States and 
Poland. This is a visible demonstration of the United States commitment 
to collective defense and that the United States takes the threat of 
Russian aggression seriously. Additionally, although the amount of 
funding dedicated to building partner capacity has decreased, the 
amount dedicated to exercises and training has increased. As the focus 
of Atlantic Resolve shifts from reassurance to deterrence, more 
emphasis is placed on interoperability and deterrence exercises that 
build on the capacity and capability gains achieved from previous 
efforts at building partner capacity.
                               __________
              Questions Submitted by Senator Joe Donnelly
            abram tanks and bradley fighting vehicle funding
    20. Senator Donnelly. General Milley, over the last several months, 
the Army has made clear that it wants to create additional armored 
brigades and that it wants to equip these brigades with the most modern 
combat vehicles. Please explain the Army's plan for additional armored 
brigades and what you need from Congress to resource the Army's plan to 
significantly expand the number of armored brigade combat teams.
    General Milley. The Army wants to create two additional Armored 
Brigade Combat Teams (ABCTs) and add one ABCT set of equipment to Army 
Prepositioned Stocks in Europe.
    To accelerate the creation of additional ABCTs, the Army will begin 
the conversion of a regular army Infantry Brigade Combat Team (IBCT) to 
an ABCT at Fort Stewart, Georgia, in October 2017. This ABCT will 
complete its conversion and training in June 2019. This ABCT will be 
fielded with the M1A1 AIM-SA Abrams tanks and the M2A2 ODS-SA Bradley 
Fighting Vehicles sourced from the conversion of the 81st ABCT 
(Washington Army National Guard) to a Stryker Brigade and Army stocks. 
Modernization of these Abrams and Bradleys will take place sometime in 
the future as assets become available. In addition, the Army is looking 
at opportunities to convert a second IBCT to an ABCT. The location and 
timeline for this conversion is still being determined.
    The Army is also building an additional ABCT set of equipment in 
Europe as part of the European Defense Initiative. The funding for this 
ABCT is part of the fiscal year 2017 appropriation and the fiscal year 
2018 budget request and we anticipate requesting additional funding in 
future budget requests so we can begin fielding in fiscal year 2020.
    What the Army needs from Congress is full support of the $1.16 
billion (B) in Fiscal Year 2018 Base Funding request for Army Combat 
Vehicle Modernization programs and the additional $834 million (M) that 
is included in the Fiscal Year 2018 Unfunded Requirements list. 
Further, the Army needs timely passage of the required Fiscal Year 2018 
Appropriations and Authorization. Any delay in funding will extend the 
timeline for fielding these ABCTs.
                       dfars cybersecurity issue
    21. Senator Donnelly. General Milley, in the fiscal year 2013 and 
the fiscal year 2015 NDAA, Congress included provisions requiring 
contractor reporting on network penetrations and cloud computing 
(Section 941 of the National Defense Authorization Act (NDAA) for 
fiscal year 2013 (Pub. L. 112-239) as added by Section 1632 of the NDAA 
for fiscal year 2015 (Pub. L. 113-291)). I'm told that DOD subsequently 
added several additional requirements. Commercial off the shelf 
equipment has been exempted from these new requirements, but other 
commercial equipment has not. Have you examined the impact this issue 
will have on the Army if DOD does not exempt commercial equipment from 
the DOD-added regulations? Are you aware of any plans to extend this 
exemption to commercial equipment or otherwise address this issue ahead 
of the implementation deadline of December 31, 2017 to ensure suppliers 
can meet the needs of the Army?
    General Milley. DFARS clause 252.204-7012 is required in all 
solicitations and contracts, including solicitations and contracts 
using Federal Acquisition Regulation (FAR) part 12 procedures for the 
acquisition of commercial items. The clause is not required for 
solicitations and contracts solely for the acquisition of COTS items. 
Procurements solely for the acquisition of COT items are extremely 
unlikely to involve covered defense information or operationally 
critical support.
    When the acquisition of commercial items involves covered defense 
information (i.e., any information that requires safeguarding or 
dissemination controls pursuant to and consistent with law, 
regulations, and Government-wide policies), such as cases when 
commercial items, services, or offerings are tailored to meet a 
particular customer's requirement. DFARS clause 252.204-7012 will 
apply. There is no flexibility that allows commercial equipment 
suppliers to operate outside the scope of this clause.
    It is my understanding that flexibilities within the DOD policy 
allow the Army to continue working with commercial equipment suppliers 
to ensure the needs of the Army are met, while also improving 
cybersecurity at all levels of the supply chain to prevent the loss of 
covered defense information. I am unaware of any specific issues that 
would require Army to examine the impacts of 48 CFR 204.73, 
Safeguarding Covered Defense Information and Cyber Incident Reporting.
                               __________
             Questions Submitted by Senator Martin Heinrich
                              counter uas
    22. Senator Heinrich. General Milley, I appreciated our exchange at 
the hearing regarding next generation weapon systems to counter 
rockets, artillery, and mortar. In 2013 the Army demonstrated a 10-kW 
class laser and successfully engaged over 90 mortar rounds and several 
UAVs with its High Energy Laser Mobile Demonstrators (HEL MD). At the 
time, Army officials said mortars and UAVs were representative of the 
threats faced by United States and allied forces in the battlefield. 
The Army's investment this year in a 50 kilowatt high energy laser on a 
striker vehicle is a welcome decision that will help greatly in terms 
of SWaP. I look forward to being an advocate for this program during 
budget deliberations, but I will also continue to encourage military 
leadership across services to not let perfect be the enemy of the good.
    In terms of counter UAS, adversaries continue to procure low-cost 
Unmanned Aerial Systems (UAS) and have armed them for military 
purposes. In May, 2017 at the Special Operations Forces Industry 
Conference, GEN Thomas stated that in 2016 the ``most daunting problem 
was an adaptive enemy who, for a time, enjoyed tactical superiority in 
the airspace under our conventional air superiority in the form of 
commercially available drones and fuel-expedient weapons systems, and 
our only available response was small arms fire.'' In response to such 
threats, the Marine Corps will procure and deploy five Compact Laser 
Weapons Systems (CLWS) as an urgent need to expand C-UAS capabilities 
against small UAS. Additionally, this effort will help will identify 
the future technology and policy concerns of a directed energy Ground 
Based Air Defense Program of Record.
    Significant advances in directed energy high energy lasers in 
recent years has proven that this technology is effective against the 
entire Find, Fix, Track, Target, Engage and Assess UAS kill chain. This 
technology has been demonstrated at recent DOD exercises such as live-
fire exercise at White Sands Missile Range and the U.S. Army's Maneuver 
Fires Integration Exercise (MFIX) and is ready to be operationalized. 
Does the Army intend to employ high energy lasers for C-UAS 
capabilities similar to Marine Corps introduction of CLWS?
    General Milley. The Army intends to continue to explore the 
development of high energy lasers and their uses against both unmanned 
aircraft systems (UAS) and rocket, artillery and mortar (RAM) threats 
and has conducted exercises and test events demonstrating these 
systems. Specifically, the Army is partnering with the USMC in pursuit 
of the CLWS technology for mutual benefit. The Army is also exploring 
testing configurations including the Mobile Expeditionary High Energy 
Laser (MEHEL) and the High Energy Laser Mobile Test Truck (HELMTT). The 
Army will continue testing and development of lasers and will field 
systems as soon as they are technologically ready.

    23. Senator Heinrich. General Milley, if so, please explain the 
strategy and types of systems the Army intends to utilize.
    General Milley. The Army has multiple testing configurations in 
development, including the Mobile Expeditionary High Energy Laser 
(MEHEL), which is a Stryker-based platform, and the High Energy Laser 
Mobile Test Truck (HELMTT), based on a Heavy Mobility Expanded Tactical 
Truck (HEMTT). Space and Missile Defense Command (SMDC) is the Army 
proponent for these initiatives. These platforms are used for testing 
application only in order to demonstrate developmental technology. They 
do not represent a materiel solution for the Army's current existing 
requirements to defeat air threats including unmanned aircraft systems 
(UAS), rocket, artillery and mortar (RAM), fixed-wing and rotary-wing 
aircraft, tactical ballistic missiles, and cruise missiles. Depending 
on the success of ongoing laser science and technology efforts, the 
Army intends to incorporate viable directed energy solutions to 
mitigate these threats as part of a tiered and layered approach to air 
defense.

    24. Senator Heinrich. If not, please explain the C-UAS strategy.
    General Milley. See Answer to Question 23.

    25. Senator Heinrich. General Milley, is there an Army acquisition 
strategy for high energy laser systems demonstrated at MFIX? If so, 
please explain.
    General Milley. Yes. The purpose of Maneuver Fires Integration 
Experiment (MFIX) is to partner with the Fires Battle Lab to begin 
working through tactics, techniques and procedures, gain feedback from 
and build the trust with soldiers that will be vital for the successful 
transition and employment of advanced technologies such as High Energy 
Lasers (HEL).
    The specific HEL technologies that the Army exercised during MFIX 
16 and MFIX 17 were scheduled as critical knowledge points along our 
path to demonstrating a 50kW-class capability with the Multi-Mission 
High Energy Laser (MMHEL) in fiscal year 2021 (FY21). In support of the 
Maneuver-Short Range Air Defense (M-SHORAD) future objective capability 
as well as the full 100kW-class capability for the High Energy Laser 
Tactical Vehicle Demonstrator (HEL TVD) in fiscal year 2022 in support 
of the Indirect Fire Protection Capability (IFPC) Inc 2-I Program of 
Record (POR). Program Executive Office Missiles and Space is the 
transition partner and Program Office of Record for all Army Air 
Defense capabilities, both kinetic and directed energy, including both 
the M-SHORAD and IFPC Inc 2-I PoRs.
                               dosimeters
    26. Senator Heinrich. General Milley and Secretary Speer, the 
recent rise in nuclear threats from countries like North Korea and Iran 
and non-state actors such as ISIS, who are making serious and dangerous 
attempts to obtain nuclear material to create a ``dirty bomb'', puts 
our service men and woman at increased risk for exposure to dangerous 
levels of radiation. These threats necessitate that our service men and 
women have the best and most capable radiation detection systems 
available. I am concerned that some of the currently fielded systems 
may not meet that high standard requirement. Is it true that at least 
half of the Active Army's personal dosimeters and readers, developed 
over 30 years ago with now outdated technology, do not measure and 
record the range of dose presented by radiological threats on today's 
battlefields and, in many cases, cannot be calibrated to function in 
any capacity, thus making them obsolete and non-mission capable?
    General Milley and Secretary Speer. Yes, it is true that currently 
half of the Army's Dosimeter (AN/PDR 75) readers are based on outdated 
technology.
    As a result, the requirement for the Joint Personal Dosimeter-
Individual (JPD-IND) was approved in March 2016. The Army is 
operationally testing JPD-IND in the second quarter of fiscal year 2018 
and the Full Rate Production Decision is scheduled for later in fiscal 
year 2018, with Initial Operating Capability in fiscal year 2020.

    27. Senator Heinrich. General Milley and Secretary Speer, what kind 
of risks does this pose for our nation's servicemembers and what 
readiness shortfalls does it create for the Army as a whole?
    General Milley and Secretary Speer. This does not present readiness 
shortfalls, rather it increases risk on the battlefield. The current 
Army combat dosimeters (DT-236) gather radiation exposure data but do 
not allow for `real-time' assessment and warning of soldiers' radiation 
exposure. This system requires measurements be taken manually, 
individually, with a separate reader (AN/PDR 75 or AN/PDR 75A) at the 
company level. Soldiers and leaders have no knowledge of their exposure 
until the mission is complete, risking unintended exposure to 
potentially detrimental or lethal amounts. Understanding the `real-
time' radiation exposure status of units would allow commanders to make 
informed risk decisions on troop employment operations to meet mission 
requirements.

    28. Senator Heinrich. General Milley and Secretary Speer, given 
this significant nuclear threat and low readiness level of our current 
detection systems, what is the Army's acquisition plan to rapidly 
complete fielding of a modern dosimeter system capable of detecting 
radiation on the battlefield that is not susceptible to being 
incapacitated by electromagnetic pulse?
    General Milley and Secretary Speer. The Army intends to field the 
Joint Personal Dosimeter--Individual (JPD-IND) as a personal dosimeter 
at the soldier, platoon and company level. The JPD-IND is intended not 
to be susceptible to incapacitation by electromagnetic pulse. With each 
soldier having a JPD-IND assigned to them, the exposure rate data will 
be transmitted from the soldier through the squad, platoon and company 
levels electronically. The Army is operationally testing JPD-IND in the 
second quarter of fiscal year 2018 and the Full Rate Production 
Decision is scheduled for later in fiscal year 2018, with Initial 
Operating Capability in fiscal year 2020.

    29. Senator Heinrich. General Milley and Secretary Speer, recent 
news reports have highlighted current problems facing soldiers and 
veterans seeking treatment at the Department of Veterans Affairs whose 
radiation exposure was not recorded or tracked. Unfortunately this 
spans across exposure at Pacific island nuclear test sites in the 
1950s, in Desert Shield and Desert Storm, around the Fukushima nuclear 
disaster, and via depleted Uranium use in current operations. These 
examples demonstrate the urgent need and application for modern 
personal dosimeters that provide a legal record of radiation exposure 
for each soldier. This recorded information can then be kept as part of 
the soldier's medical record and provides a soldier with a 
comprehensive record of radiation exposure over his or her entire 
career. It also provides the same information to medical professionals 
at the Army and Department of Veterans Affairs who can then treat those 
servicemembers and veterans.
    I commend the Army Reserve and Army National Guard for ensuring 
that 100 percent of their soldiers have the most modern and capable 
personal dosimeters. I understand, however, that the Active Army 
currently has a significant readiness shortfall in this area, having 
supplied only 50 percent of your soldiers with personal dosimeters that 
provide a legal record of any radiation exposure.
    Given this current readiness shortfall and the near-term nuclear 
threat in places like North Korea, Syria and Ukraine, what is the 
Army's acquisition plan to close the technology gap and complete 
fielding of cost effective modern dosimeters capable of accurately 
detecting nuclear threats and providing all servicemembers a legal dose 
of record of radiological exposure over the entire length of their 
careers?
    General Milley and Secretary Speer. The Joint Personal Dosimeter--
Individual (JPD-IND) is the Army's acquisition solution to close the 
capability gap. The JPD-IND will be fielded to every soldier and 
provide the capability to track and record the soldier's radiological 
exposure over time.
                               __________
               Questions Submitted by Senator Gary Peters
                       hmmwv rollover mitigation
    30. Senator Peters. Secretary Speer, I have been concerned about 
the issue of HMMWV rollovers and the numerous injuries and fatalities 
caused by these accidents. I understand that the Army has been moving 
toward a solution to mitigate this issue. In my most recent 
correspondence from the Army on this issue in October 2016, I was 
advised that an acquisition decision was being made for fiscal year 
2018. What are the Army's plans to install technology to mitigate 
rollovers of vehicles in the HMMWV fleet?
    Secretary Speer. The Army remains interested in improvements in our 
light tactical vehicle fleet, which will consist of both High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) and Joint Light Tactical Vehicles 
for several years to come. We continue to anticipate making a decision 
on the balance of HMMWVs and JLTVs in the fleet during fiscal year 
2018, including modernization of enduring HMMWV vehicles. Known safety 
technologies like Antilock Brake System and Electronic Stability 
Control can play an important role in reducing potential injuries and 
deaths from rollover accidents, and we will begin incorporating them in 
the upgraded M997A3 HMMWV ambulances in the first quarter of fiscal 
year 2018--which will be fielded to all components. The Army continues 
to investigate and move toward qualifying potential upgrade kits for 
existing HMMWV vehicles and we anticipate incorporating these 
technologies in future modernization efforts, consistent with available 
funding.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, JUNE 6, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                           AIR FORCE POSTURE

    The committee met, pursuant to notice, at 9:39 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, Cruz, 
Graham, Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, 
Heinrich, Warren, and Peters.

            OPENING STATEMENT OF SENATOR JOHN McCAIN

    Chairman McCain. Good morning.
    This committee meets today to consider the posture of the 
Air Force in the context of our review and oversight of the 
fiscal year 2018 defense budget request.
    I welcome our witnesses: Secretary of the Air Force Heather 
Wilson and Chief of Staff of the Air Force General David 
Goldfein.
    This committee honors the outstanding men and women of the 
United States Air Force. On this anniversary of D-Day, we 
recognize the service and sacrifice of all generations of our 
armed forces, and we are guided by their example.
    Hearings like this are an opportunity to reflect on whether 
we are meeting the highest constitutional responsibility, to 
ensure that our armed forces have the resources they need to 
provide for the common defense. The simple answer is that in 
recent years, we have not. With growing threats around the 
world, we have asked our men and women in uniform to do more 
and more, but we have not given them what they need. America's 
airmen and our other servicemembers have paid the price.
    The Budget Control Act and sequestration remain the law of 
the land. The military buildup we need and that the President 
promised remains illegal. There is still no serious progress 
being made to change that. The self-inflicted wounds of these 
budget cuts have produced the smallest, oldest, and least ready 
Air Force in our history. Currently the force is short 1,500 
pilots and 3,400 maintainers. I repeat currently the Air Force 
is short 1,500 pilots and 3,400 maintainers.
    This is a full-blown crisis, and if left unresolved, it 
will call into question the Air Force's ability to accomplish 
its mission. Americans become Air Force pilots because they 
love to fly high-performance aircraft and they become 
maintainers to work on those aircraft. If budgets do not allow 
these servicemembers to do their jobs and perform the mission 
they love, they will vote with their feet, and there is no 
retention bonus high enough to win a bidding war with the 
commercial airlines.
    At the same time, America's adversaries are developing and 
fielding new warfighting technologies: fifth generation 
fighters, advanced air defense systems, and sophisticated 
space, cyber, and electronic warfare capabilities. Taken 
together, these advances are eroding America's military 
technological advantage. The skies that America has dominated 
are once again becoming contested airspace.
    To meet this challenge, the Air Force is committed to an 
ambitious set of modernization initiatives: F-35A fighters, B-
21 bombers, KC-46A tankers, JSTARS, Compass Call, AWACS, and a 
new trainer aircraft, not to mention a modernized nuclear 
force. But there is simply no way all of these important yet 
expensive modernization programs will fit into the projected 
Air Force budget.
    Unfortunately, the President's fiscal year 2018 budget 
request does not sufficiently address the problems. It is 
only--and I repeat--only--a 3 percent increase over President 
Obama's defense plan, which explains why the Air Force has 
identified a detailed list of unfunded requirements totaling 
$10.7 billion. The budget calls for 46 F-35A's, far fewer than 
the 80 needed each year to put a dent in the Air Force's 
fighter capacity shortfall. The Air Force is expected to be 
almost 500 fighters short in fiscal year 2018, and that 
shortfall will grow to nearly 1,000 by fiscal year 2032 on the 
current program of record.
    Money alone will not address these problems. The Air Force 
must use its new acquisition authorities and avoid the mistakes 
of its many past acquisition failures.
    For example, while the F-35 is finally approaching the end 
of its long and arduous system design and demonstration phase, 
I remain concerned about the program's ability to finish on its 
latest--I emphasize ``latest''--delayed schedule and within its 
already massive budget. I am particularly concerned with the 
affordability and execution of the plan for block 4 follow-on 
modernization.
    Similarly, the B-21 will provide a much needed 
modernization of our aging bomber force. But this committee and 
the American people deserve to know more about how the Air 
Force intends to use the $2 billion in research and development 
funding for this program, as requested for the coming fiscal 
year.
    Modernization of the nuclear triad, to include a 
replacement for the air-launched cruise missile, is critical 
and has bipartisan support in Congress. Modernization is not 
cheap but it is affordable, and the reality is the costs of not 
modernizing our nuclear triad are far greater.
    On the KC-46, while I am glad that taxpayers will not foot 
the bill for the repeated delays, thanks to the use of fixed 
price contracts, I am concerned these delays will affect the 
scheduled introduction of this critical capability.
    Finally, we must confront challenges in the information 
domain. Despite some growth in this budget request, space 
program budgets are at 30-year lows and decision-making is 
fragmented across more than 60--I repeat--60--offices in the 
Department of Defense. Questions also remain about the Air 
Force's commitment to the national cyber mission. Last year, of 
the 127 Air Force officers that completed cyber basic training, 
not one--not one--was retained on the Cyber Mission Force. When 
it comes to the development of information technology, all of 
the Military Services continue with one costly failure after 
another, as seen recently in the Air Force's new Air Operations 
Center program. As the information domain of warfare becomes 
more important than ever, there is growing evidence to suggest 
that the Air Force and the Department of Defense are not 
organized to succeed in this vital national mission.
    Restoring readiness, recapitalizing our combat aircraft 
fleet, and reinvesting in modernization will require strong 
personal leadership, accountability, and a frank assessment of 
the Air Force's true warfighting requirements, not simply what 
insufficient funding can accomplish. This committee expects 
you, Secretary Wilson, and you, General Goldfein, to provide 
the leadership our airmen deserve.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming Secretary Wilson and General Goldfein. 
Thank you and welcome to the committee, and we are eager to 
hear your testimony on the plans and programs of the Department 
of the Air Force in our review of the fiscal year 2018 annual 
authorization request.
    We certainly are grateful to the men and women of the Air 
Force for their truly professional service and to their 
families for their continued support.
    Over the past 15 years, Air Force personnel and equipment 
have played a key role in supporting our national security 
goals in Iraq, Afghanistan, and elsewhere around the world. 
During this lengthy period, we have relied heavily on Air Force 
strike aircraft to take on important ground targets, Air Force 
manned aircraft and unmanned aerial vehicles to provide 
intelligence, surveillance, and reconnaissance support, and Air 
Force tankers and cargo aircraft to support coalition air 
operations.
    Our witnesses this morning face huge challenges as they 
strive to balance the need to support ongoing operations and 
sustain readiness with the need to modernize and keep the 
technological edge in the three critical domains of air, space, 
and cyberspace. The Air Force has produced a budget that, even 
with proposed budget increases, reflects tough decisions.
    The budget increases the Air Force is proposing in fiscal 
year 2018 would week to increase readiness, address shortfalls 
in munitions, address shortfalls in pilots and maintenance 
personnel, and modernize our strategic deterrent capability.
    In addition, the Air Force faces a continuing challenge in 
managing the costs and progress of its major acquisition 
programs, including the Joint Strike Fighter, the most 
expensive DOD acquisition program in history, and a new tanker 
and a new bomber.
    After considerable discussion within the Department and 
between the Department and Congress, the Air Force last year 
laid out a number of plans to improve the shortfalls within the 
remotely piloted aircraft, RPA, operator community. This was an 
area where Chairman McCain and I pressed the Department to live 
up to previous commitments to fully support RPA operations and 
avoid overstressing RPA crews and their families. I would ask 
that the witnesses give us an update on the progress the Air 
Force is making on these plans.
    Due to ongoing operations, primarily in CENTCOM, the 
Defense Department has been striving to catch up with the 
demand for munitions both for our forces and for coalition 
partners. I am pleased to see that the Air Force budget starts 
on a path to make up lost ground on our munitions inventories.
    I am also pleased that this budget request does not 
resurrect painful battles from previous years such as retiring 
the A-10 aircraft, retiring either the U-2 or the Global Hawk 
remotely piloted aircraft or retiring other high-demand, low-
density aircraft before replacements have been fielded.
    In this request, the administration is asking for an 
increase in the Department of Defense top line of roughly $54 
billion above the total budget for fiscal year 2018 prescribed 
by the Budget Control Act. Of that total, the Air Force budget 
would constitute an increase of roughly $15 billion. However, I 
must point out, as the chairman has, unless Congress can 
achieve a broad and bipartisan agreement to repeal or modify 
the BCA, any approval of the $15 billion increase for the Air 
Force will trigger sequestration of a similar amount.
    The President's budget ignores this problem by making cuts 
of roughly $54 billion in non-defense discretionary as a way of 
balancing the increases for defense. From my perspective, this 
is an untenable position, particularly as the budget reduces 
programs that contribute to national security, such as State 
Department operations.
    Mr. Chairman, I look forward to working with you and other 
members on resolving the difficult position the Defense 
Department and all federal agencies are placed in due to the 
BCA and sequestration. We simply cannot continue down this 
path.
    Secretary Wilson, General Goldfein, thank you again for 
appearing before our committee, and I look forward to your 
testimony.
    Chairman McCain. Secretary Wilson?

STATEMENT OF HONORABLE HEATHER A. WILSON, SECRETARY OF THE AIR 
                             FORCE

    Secretary Wilson. Good morning, Mr. Chairman. I would ask 
that our written statement be put into the record.
    Chairman McCain. Without objection.
    Secretary Wilson. Rather than go through the written 
testimony in detail, I would just like to summarize a few 
things and highlight a few things for the committee, and then 
ask the Chief to say a few things as well.
    The first is this. The Air Force is too small for what the 
Nation expects of it. The fiscal year 2017 budget began to 
arrest that decline and to restore the readiness of the force, 
but there is a lot more that needs to be done.
    So what does the fiscal year 2018 budget do? What are the 
big outlines of that budget? Well, there are hundreds of 
programs in there, but there are two major themes.
    The first is to continue to restore the readiness of the 
force. For the Air Force, readiness is first and foremost about 
people and their training, but also about munitions. Those two 
things are highlighted in the fiscal year 2018 budget. We have 
proposed to increase the end strength of the Air Force in this 
budget for Active, Guard, Reserve, and civilians.
    The second major theme in this budget is to continue the 
modernization, to make the force more lethal. The top three 
priorities in that are fighters, tankers, and bombers. But it 
is not limited to that. Over the next 5 to 10 years, the Air 
Force will be modernizing across the board in order to meet the 
threats that we see arrayed against us.
    The third thing that I would like to highlight is the Air 
Force role in space. My role, in addition to being Secretary of 
the Air Force, is the principal advisor to the Secretary of 
Defense with respect to space for all of the Department of 
Defense. It is a responsibility that I take quite seriously. 
The Air Force has served as the leader for space for 54 years. 
We provided GPS for the world and transformed not only the way 
we fight, but the way all of you probably navigate yourselves 
around this city. We do missile and nuclear detonation warning. 
We do weather, secure command and control, communications. All 
of those are Air Force missions.
    When the Chief and I were young officers, space was a 
benign place. In fact, we always thought of it as a benign 
place up until actually quite recently. Our adversaries know 
how heavily we depend upon it and that we are vulnerable. We 
must expect that war of any kind will extend into space in any 
future conflict, and we have to change the way in which we 
think and prepare for that eventuality.
    The budget proposal for fiscal year 2018 has a 20 percent 
increase for Air Force space. It does several things that the 
Air Force is trying to do in concert with the Army, the Navy, 
and other government agencies. We need situational awareness, 
not just keeping a catalog of what is up there, but really 
knowing what is up there and how it is moving in near real 
time.
    Secure command, control, and communications. We are moving 
towards an integrated battle management control system, which 
is funded in this year's budget where the Army, the Navy, the 
Air Force, and other government agencies will be able to have a 
clear site picture and be able to operate in space. No one-off 
science experiments anymore in the control of satellites. It 
has to be integrated for a common picture.
    Assured access to space is also something we are continuing 
in this budget. Competition is reducing the cost of launch 
services. Currently we have got two providers for medium and 
heavily launch: SpaceX, the Falcon 9, which we will be sending 
in the next Air Force payload up into space in August, and 
emerging small satellites have other launch capabilities that 
are very interesting to us, including Orbital ATK and others.
    We need to be able to defend ourselves in space, not just 
systems but also strategies and tactics, anti-jamming, GPS. We 
now have initial capability for the National Space Defense 
Center that is funded in this budget with new capabilities. 
Last year, they did exercises that led to the top 40 user needs 
across all of the services, and we are changing the way in 
which we train for space, training to prevail in space and not 
just operate in a benign environment.
    As the Air Force Secretary, I am also looking at how we 
organize the Department of Defense for space so that we 
integrate it, normalize it, and elevate it as part of the joint 
warfighting team. That means not just operations but also 
policy development and acquisition strategies.
    So this budget does not get us all--you know, we are not 
going to recover readiness in a single year. We are not going 
to modernize in a single year either. But this proposed budget 
for the next year continues recovering readiness and continues 
to modernize to make the force more lethal.
    With that, I would like the Chief to add some things.

 STATEMENT OF GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF OF THE 
                           AIR FORCE

    General Goldfein. Thank you, Madam Secretary.
    Chairman McCain, Ranking Member Reed, members of the 
committee, it is an honor to be here.
    It is an honor also to rejoin with Secretary Wilson some 40 
years after we started together at the Air Force Academy, and I 
want to thank Secretary Mattis for recommending her to the 
President, for nominating her, for this committee confirming 
her. It ought not go without notice that 24 hours after she 
became our Secretary of the Air Force, she was sitting beside 
me and two of our space warriors testifying before Senator 
Fischer and the Space Subcommittee. That gives a new meaning to 
the word ``fights on.'' So, Madam Secretary, it is an honor to 
serve with you and be on your wing once again.
    So building on Secretary Wilson's opening statement, I 
would like to spend just a few moments, because I know you are 
eager to get to questions, and briefly describe the missions 
our airmen are performing today to defend the Homeland, to own 
the high ground, and to project power with allies and partners, 
because it is a rather diverse set of missions. To understand 
the Air Force, you actually have to look through two lenses. 
The first lens is that which we do here in the Homeland to 
defend the Homeland and to project power abroad, and the second 
lens is that which we do when we are deployed and based forward 
to contribute to global campaigns.
    For the Air Force, it begins with the nuclear enterprise, 
and side by side with the United States Navy, we are 
responsible for two of the three legs of the nuclear triad. On 
our worst day as a Nation, our responsibility is to ensure that 
the President is where he needs to be when he needs to be 
there, and he stays connected through nuclear command and 
control to the nuclear enterprise. For an airman, that remains 
job one.
    To produce a common operational picture so that the 
President can make those decisions, very often, as the 
Secretary mentioned, that information comes to us from space. 
It is your United States Air Force that is responsible for 
flying 12 constellations in space from everything from 
precision navigation and timing to early warning to the 
protected and unprotected communications that we all rely on. 
We have been the stewards of space since 1954, and as you heard 
from the Secretary, we joined a long line of Secretary-Chief 
teams who take on this responsibility.
    Someone has to turn the 1's and 0's into decision quality 
information, and that lies heavily on the United States Air 
Force. Thirty-five thousand airmen that take the sensing that 
we do from the six domains, air, land, sea, space, cyber, and 
undersea, and turns that into a common operational picture and 
decision quality information for leaders to make decisions.
    Like our sister services, we are contributing cyber talent 
and building cyber mission teams to support the combatant 
commander, Admiral Rogers, in his responsibility to defend the 
Nation in cyber and to execute cyber capabilities. If you heard 
jet noise this morning driving here to work, it was probably 
two F-16's from the Air National Guard that scrambled this 
morning from Andrews Air Force Base to protect our critical 
infrastructure just as we do at bases around the United States 
as part of Operation Noble Eagle. Those missions I just 
described are only what your Air Force does here in the 
Homeland to protect the Homeland and contribute to global 
campaigns.
    Now I will shift to that second lens, which is what we do 
when we are based abroad and deployed, and it begins with air 
superiority, freedom from attack, and freedom to maneuver. We 
are proud of our track record that a soldier, sailor, airman, 
or marine on the ground has not been attacked from the air 
since 1953, and under our watch, we will continue that record. 
For an airman it is nothing short of a moral obligation. When a 
soldier, sailor, airman, or marine on the ground or at sea 
hears jet noise, we never want them to look up. We want them to 
know it us.
    Once we gain and maintain air superiority, we operate on a 
series of bases across the globe, and every two and a half 
minutes, an aircraft takes off or lands delivering critical 
supplies or equipment somewhere where it is required, whether 
for humanitarian relief operations or in combat support. Very 
often those locations are not secure, and we use our air 
commandoes, our special forces, to secure those locations so 
that we can operate.
    I cannot give you a better example of holding targets at 
risk for the President than two B-2's that took off out of 
Whiteman Air Force Base in Missouri, flew 32 hours roundtrip, 
16 air refuelings, dropped 80 munitions on two training camps 
in Libya, 10 seconds from their planned time over target.
    Then finally, in the fight against ISIS [Islamic State of 
Iraq and Syria], it is your Air Force that is leading the 
campaign when it comes to taking out the enemy. Whether you 
want to talk about command and control or personnel recovery or 
tanking or the strikes that occur, it is your Air Force that 
continues to lead the way over there working under General 
Townsend and the joint task force and General Nicholson to take 
the fight against the enemy.
    Every mission I just described for you is a growth area to 
the Secretary's point about being too small for the missions 
that we are being asked to perform. Every mission I described 
for you is a no-fail mission, and every mission I described for 
you, our adversaries are investing to take away our advantages.
    Twenty-six years of continual combat since Operation Desert 
Storm has taken a toll. As the Secretary mentioned, the fiscal 
year 2017 budget stopped the bleeding after years of budget 
instability, and this budget request begins to set the table 
for recovering and rebuilding our force. The Secretary said it 
right. We did not get here overnight, and we are not going to 
recover overnight. But with your help, with the help of this 
committee, we will give our airmen and their families the 
quality of service and the quality of life they deserve.
    Thank you, and we look forward to your questions.
    [The prepared statement of Secretary Wilson and General 
Goldfein follows:]

       Prepared Statement by The Honorable Heather A. Wilson and
                       General David L. Goldfein
                   the future of air and space power
    Air and space power are vital to our nation's security. Any 
objective evaluation of today's U.S. Air Force reaches stark 
conclusions.

    <bullet>  First, the Air Force is too small for the missions 
demanded of it and it is unlikely that the need for air and space power 
will diminish significantly in the coming decade.
    <bullet>  Second, adversaries are modernizing and innovating faster 
than we are, putting at risk America's technological advantage in air 
and space.

    The resources provided in fiscal year 2017 have begun to arrest the 
readiness decline. The Fiscal Year 2018 President's Budget request 
begins to restore readiness and increase the lethality of the force. 
Future budgets must focus on modernization and continued readiness 
recovery so that we can defend the Homeland, own the high ground, and 
project power in conjunction with allies.
An Air Force in Demand
    Today's Air Force is growing after a period of significant decline 
and we must continue to increase the size of the force. Currently, the 
Air Force includes 660,000 Active, Guard, Reserve and civilian airmen, 
compared to 946,000 just 26 years ago when we fought in Operation 
Desert Storm--a 30 percent reduction.
    The Air Force also reduced its aircraft inventory over this same 
period from 8,600 to 5,500 aircraft. We have 55 combat-coded fighter 
squadrons across the Active Duty, Guard, and Reserve, compared to 134 
squadrons during Desert Storm.
    Before 1991, the Air Force bought approximately 510 aircraft per 
year. In the past 20 years, we have averaged only 96 per year. Today, 
the average age of our aircraft is over 27 years.
    And, unlike during the Cold War, Air Force aircraft have been 
flying in combat for 26 straight years. When the Islamic State of Iraq 
and Syria (ISIS) sought to consolidate power in Syria and northern Iraq 
in 2014, the U.S. Air Force surged to the fight. Since then, airmen 
have executed over 70 sorties daily against ISIS targets. Coalition air 
forces have put over 80,000 weapons against enemy targets in over 
26,000 airstrikes in Iraq and Syria since the campaign began. Over 70 
percent of those strikes have been conducted by the U.S. Air Force.
    Last year alone, MQ-1 and MQ-9 remotely piloted aircraft crews flew 
more than 351,000 hours and employed more than 3,000 weapons, removing 
thousands of enemy combatants from the battlefield and protecting U.S. 
and coalition forces.
    Air Force intelligence, surveillance and reconnaissance provides 
warfighters over 6,000 intelligence products per day that are used to 
identify enemy targets and initiate 70 percent of Special Operations 
Forces assaults on terrorists.
    Air Force-operated space-based sensors provide around-the-clock 
global coverage for missile warning, nuclear detonations and other 
threats.
    Air Force cyber operators blocked more than 1.3 billion malicious 
connections in 2016 alone, an average of more than 40 malicious 
connections per second.
    While we continue to extend the life of old aircraft, materials 
suffer fatigue and maintaining old equipment is time consuming and 
expensive.
    We are short of maintainers and pilots. While flying hours to 
defeat ISIS overseas is a priority, training to confront near peer 
adversaries has suffered. We are at our lowest state of full spectrum 
readiness in our history. Only 50 percent of our squadrons are ready to 
conduct all of the missions assigned to them.
    The decisive warfighting advantages we hold over our near peer 
adversaries are diminishing.
    Air and space superiority--owning the high ground--is not America's 
ordained right. We cannot take it for granted. We must plan for it, 
equip for it, train for it and fight for it.
The Changing Security Environment
    Adversaries are rapidly developing new capabilities to control air 
and space. They seek to undermine the credibility of our alliances, 
contest our freedom of maneuver, and neutralize our ability to project 
power. Over the past several years, their targeted investments in 
critical capabilities have outpaced our own.
    Russia continues its aggression and malign influence in Ukraine and 
Syria while seeking to return to great power parity with the United 
States by modernizing its military.
    China is fielding new defense platforms at a startling pace and 
continues to expand its regional influence in the East and South China 
Seas.
    North Korea is accelerating nuclear and missile testing. Their 
actions in the Pacific increase risk of miscalculation and threaten the 
security of our allies and the Homeland.
    Iran continues to support international terrorist organizations and 
extend its negative influence throughout the Middle East while 
modernizing an array of military capabilities.
    Each of these state actors possesses or is pursuing advanced long-
range capabilities with the potential to strike American soil.
    At the same time, violent extremist organizations and individuals 
inspired by them are threatening America and our allies.
    Potential adversaries are quickly closing the gap in the decisive 
warfighting advantages we have held for decades. As their capabilities 
become stronger, the international order will grow more unstable and 
the strategic risks to American security and our global interests will 
increase. Staying ahead of these trends will require a concerted, 
coordinated effort.
Stopping the Decline
    The Consolidated Appropriations Act of 2017 begins to arrest the 
decline and focuses on starting to restore the readiness of the force. 
The funds for fiscal year 2017 address critical capability shortfalls, 
and enable us to start to address delayed procurement and modernization 
of our force. This is a critical first step in restoring the Air 
Force's capabilities to meet future threats. We must have stable, 
predictable budgets that include strategy-driven funding.
    We also add our voice to the chorus of concern that budget 
instability is itself a significant problem. Continuing resolutions, or 
worse, sequestration, puts at risk our ability to successfully 
accomplish what our nation asks of us.
    A failure to provide relief from the current Budget Control Act 
caps would cut $15 billion from the Air Force budget--a reduction that 
would further hollow out the force and set us back years.
Restoring the Force
    Looking ahead, we are focused on restoring readiness, cost-
effective modernization, innovation for the future, and developing 
exceptional leaders. These areas of focus will allow us to defend the 
Homeland, own the high ground, and project power in concert with our 
allies.
    Of course, there is an assumption behind our plans. As a nation, 
since the end of World War II, America has chosen to be a global power, 
capable not only of defending the Homeland, but gaining and maintaining 
dominance over areas of operation abroad. We have an Air Force that 
provides global mobility, global intelligence surveillance and 
reconnaissance, global strike, and global command and control to 
protect our vital national interests in concert with allies.
    Threat drives strategy; strategy drives force posture. America's 
national security interests continue to be global in scope, requiring 
an Air Force which goes beyond Homeland defense or regional power 
projection.
Restoring Readiness
    The Air Force budget recognizes that we cannot restore our 
readiness in a single year. When we lose an F-22 avionics specialist 
with 10 years of experience, we cannot hire another person with 10 
years of experience on the F-22. We have to recruit them, train them, 
mentor them and, most importantly, retain them.
    For the Air Force, readiness is first and foremost about people.
Personnel--Restoring Readiness
    The fiscal year 2017 budget increased Active Duty manpower to 
321,000 airmen. The Fiscal Year 2018 President's Budget request 
continues to rebuild the force to 325,100 Active Duty airmen, while 
also adding 800 reservists, 900 guardsmen, and 3,000 civilians. The 
Total Force will increase to 669,611 people from 660,707 in fiscal year 
2017. The additional personnel are focused on increasing maintainers--
particularly for the F-16 and F-35A, increasing remotely piloted 
aircraft crews, and increasing pilot training capacity by adding two 
new F-16 formal training squadrons. It also allows us to reduce 
critical gaps in our space, nuclear, cyber, and intelligence career 
fields.
    Pilot retention continues to be a significant concern. We project a 
deficit of approximately 1,500 total Active, Guard, and Reserve pilots 
at the end of fiscal year 2017 and trending further negative in the 
near term. Our fighter pilot shortage has already reached crisis levels 
and we will be approximately 1,300 Total Force fighter pilots below the 
requirement at the end of this fiscal year. There will be no single 
solution and no quick fix for the pilot shortage. This budget expands 
pilot training, continues incentive pay and bonuses, increases 
administrative support at the squadron level, improves readiness, and 
funds flying hours.
    This budget request also includes 1,168 military and civilian 
positions to support squadron commanders so that ``additional duties,'' 
which were shifted to operators, aircrew, and maintainers over years of 
personnel cuts and most recently in the wake of sequestration and the 
Budget Control Act, can be performed by dedicated support staff.
    Squadrons are where readiness is generated and sustained, and where 
airmen and families thrive. It is also where leadership matters the 
most. We are working to revitalize squadrons as the most essential 
level of command and the heart of our Air Force. Over the coming year, 
the Air Force will be reviewing leadership development, particularly at 
the squadron level.
    In order to restore readiness, the budget request includes $6.2 
billion to fund flying hours at maximum executable levels and $11.9 
billion to fund weapons system sustainment (parts, maintenance and 
logistics support) to near the maximum executable level. While the 
budget for flying hours decreases slightly from fiscal year 2017, this 
reduction is largely because of a decline in fuel costs.
    Further, the Fiscal Year 2018 President's Budget request funds a 
continuation of 641 Active, Guard, Reserve, and civilian positions 
dedicated to Sexual Assault Prevention and Response (SAPR).
    Finally, this budget request is vital for the quality of life for 
our airmen and their families--funding a 2.1 percent increase in 
military pay, a 3.2 percent increase in basic allowance for housing, 
and a 3.4 percent increase in subsistence.
Munitions--Restoring Readiness
    In addition to adding people and training, this budget request also 
addresses munitions. In the fight against ISIS in Iraq and Syria, the 
Air Force has delivered more than 56,000 direct attack munitions from 
the air. That is more than we used in all of Operation Iraqi Freedom.
    Our use of munitions in operations is out-pacing production. 
Working with industry, the Fiscal Year 2018 President's Budget request 
funds maximum factory production of the most critical munitions, 
including the Joint Direct Attack Munition, the Hellfire missile, and 
the Small Diameter Bomb.
Cost-Effective Modernization
    While restoring readiness is primarily about the size of the force, 
quality training, and munitions, for the long term the Air Force must 
modernize its weapon systems and equipment to defeat emerging threats.
    The Fiscal Year 2018 President's Budget request budget prioritizes 
our top three acquisition programs to modernize the force: the F-35A 
fighter, the KC-46 tanker, and the B-21 bomber.
    The F-35A is essential to our national security--a stealthy multi-
role fighter needed to own the high ground and project power against 
increasingly capable adversaries. This budget request funds the 
purchase of the next 46 F-35A fighters with a goal of reaching 60 per 
year in the future. The budget also focuses on restoring readiness and 
modernizing our 55 combat-coded fighter squadrons.
    We have enhanced our air refueling capability by entering initial 
production of the KC-46 Pegasus tanker. The KC-46 program modernizes 
our aerial refueling fleet, providing global mobility for the joint 
force and our allies. The Fiscal Year 2018 President's Budget request 
buys 15 more KC-46 aircraft. The Air Force expects to sustain steady 
state production of 15 KC-46 aircraft a year throughout the Future 
Years Defense Program (FYDP).
    We are rapidly developing the B-21 Raider long-range strike bomber. 
The B-21 will form the backbone of our future bomber force, ensuring 
the ability of our nation's leaders to hold targets at risk around the 
world with both conventional and nuclear weapons.
    While the F-35 fighter, the KC-46 tanker and the B-21 bomber are 
our top modernization priorities, there are a number of other 
modernization efforts supported in the Fiscal Year 2018 President's 
Budget request. These include the modernization of F-22A, F-15, and F-
16 aircraft so that they remain viable, along with B-52, B-1, and B-2 
bombers for strategic delivery of advanced munitions.
    In the realm of intelligence, surveillance and reconnaissance, the 
Air Force continues to support the MQ-9 Reaper, RQ-4 Global Hawk, and 
RC-135 Rivet Joint upgrade strategies.
    The Fiscal Year 2018 President's Budget request supports special 
operations and combat search and rescue with the purchase of two HC-
130J and five MC-130J aircraft. We also sustain our commitment to 
command and control by funding several upgrades to the E-3 Airborne 
Warning and Control System (AWACS).
Modernizing the Nuclear Deterrent
    All legs of our nuclear triad need to be modernized. The last major 
recapitalization of U.S. nuclear forces occurred in the 1980s. In the 
case of the Air Force, maintaining our aging nuclear weapons systems is 
becoming more expensive and less practical.
    Nuclear deterrence underpins national security for the United 
States and our allies. The Air Force stewards two legs of the nation's 
strategic nuclear deterrent and operates 75 percent of the nuclear 
command, control, and communications for the President and the military 
chain of command. Additionally, forward-based nuclear capable aircraft 
are a key component of the U.S. commitment to deter attack on our NATO 
allies.
    The intercontinental ballistic missile (ICBM) force represents the 
most responsive leg of the nuclear triad. The dispersed basing of our 
land-based deterrent enhances strategic stability by creating an 
extraordinarily high threshold for a large-scale conventional or 
nuclear attack on the U.S. Homeland. The air-delivered leg of the triad 
and dual-capable fighters provide a recallable, and highly visible 
force to extend deterrence, demonstrate resolve, and signal U.S. 
strategic commitment to our allies.
    In addition to the B-21 bomber, the Air Force is committed to 
modernizing the nuclear enterprise by replacing Air-Launched Cruise 
Missiles with the Long Range Stand-Off munition, modernizing ICBMs with 
the Ground Based Strategic Deterrent (GBSD), replacing the UH-1N 
helicopter, and making targeted investments in nuclear command, control 
and communication.
Meeting the Space Threat
    For decades, the United States enjoyed unimpeded freedom of action 
in space. This benign environment allowed us to operate satellites for 
intelligence collection, missile warning, weather monitoring, 
communications, and precision positioning, navigation, and timing 
without considering how to protect these systems. That environment no 
longer exists. Our adversaries understand the advantages we derive from 
space and are actively pursuing capabilities to diminish them. In 
future conflict, space will be contested.
    The Air Force has been the leading Military Service responsible for 
space systems for 54 years, and the Secretary of the Air Force is the 
principal advisor to the Secretary of Defense on space.
    Over the last several years, the U.S. Air Force has been developing 
operational concepts to ensure freedom of action in space, changing the 
way we train our space force, and integrating space with the joint 
force.
    The Fiscal Year 2018 President's Budget request increases the Air 
Force's space investment funding from $6.5 billion in fiscal year 2017 
to $7.8 billion, a 20 percent increase. This increase represents a 27 
percent increase in research, development, testing and evaluation 
(RDT&E) for space systems and a 12 percent increase in space 
procurement.
    The budget request includes a fixed price block buy of Space Based 
Infrared Systems (SBIRS) 5 and 6 satellites. The budget funds purchase 
of terminals, ground control systems, and related communications 
security for satellites and funds three launches as part of the Evolved 
Expendable Launch Vehicles (EELV) program.
    To fill a gap in weather coverage, the budget request funds a 
weather satellite through the Operationally Responsive Space (ORS) 
office.
    While our existing Global Positioning System (GPS) satellites 
remain healthy, we face increasing risk from potential adversary 
advances, and will improve anti-jamming and secure access to military 
GPS.
    The Air Force budget also funds the continuation of the Space 
Security and Defense Program and the National Space Defense Center 
where we are experimenting with concepts to ensure freedom of action in 
space and resilience in an integrated center that includes all sister-
services, as well as the intelligence community. It also funds 
improvements in space situational awareness, which is foundational for 
space control, integrated ground systems and improved training of space 
forces.
    Our budget supports the continued integration and normalization of 
space in the joint warfighting environment and places a high priority 
on space to ensure that our space systems continue to operate in a 
contested environment. We would prefer that war not extend into the 
space domain, but must be prepared to win if it does.
Modernizing Cyber
    The Fiscal Year 2018 President's Budget request funds 39 offensive 
and defensive cyber teams that are on track to be fully operational in 
fiscal year 2018. The budget anticipates an increased reliance on 
contractors for basic information technology and cloud services so that 
military members can focus on advanced threats and warfighter missions 
as part of the joint force.
Innovation for the Future
    Research, development, test and evaluation are critically important 
for a technically oriented service. The Fiscal Year 2018 President's 
Budget request includes a significant increase in funding for systems 
development and testing for the B-21, the Global Positioning System 
Operational Control System (OCX) and the Long Range Standoff weapon. 
Funding is also included for engineering and risk reduction for the 
Presidential Aircraft (PAR), Joint Surveillance and Target Attack Radar 
System (JSTARS) replacement, and the new Combat Rescue Helicopter.
    Funding for basic and applied research related to longer-term 
national security challenges remains flat in this budget request, 
although funding for long term research on air dominance is increased 
significantly. Over the next several years, the Air Force will seek to 
increase basic and applied research in areas where we must maintain the 
competitive advantage over potential adversaries, including game-
changing technologies like hypersonic vehicles, directed-energy, 
unmanned and autonomous systems, and nanotechnology.
Accelerating Procurement
    To prevail against a rapidly innovating adversary, the Air Force 
must get capability from the lab bench to the warfighter faster than 
ever before.
    In the Fiscal Year 2017 National Defense Authorization Act, 
Congress expanded acquisition authorities for the services. Taking 
advantage of this flexibility, the Air Force is sponsoring an 
experiment in August 2017 to evaluate low-cost, permissive environment 
attack aircraft. While this is an experiment, not a procurement, the 
project has gone from approval by the Chief of Staff of the Air Force 
to an operational capabilities assessment in five short months.
    The Air Force is also testing new procurement methods with early 
stage, highly innovative companies who do not normally do business with 
the Department of Defense. If successful, we will seek to replicate 
this approach. While not appropriate for large system development, 
these kinds of projects can open the pathway to rapid innovation for 
air and space dominance.
Infrastructure and Military Construction
    Constrained by the Budget Control Act, the Air Force has 
prioritized combat and not infrastructure. The Fiscal Year 2018 
President's Budget request includes $2 billion for military 
construction. The beddown of new missions, combatant commander needs, 
and strengthening the nuclear security enterprise have been given 
priority for the limited funding available.
    In addition, the Fiscal Year 2018 President's Budget request funds 
construction of improved ranges at the Utah Test and Training Range and 
Red Flag in Nevada so that we can train using the full range of 
capabilities available to our aircrews in the F-35A. The budget also 
funds additional virtual and constructive, or ``synthetic'', 
Operational Training Infrastructure (OTI). Synthetic capability 
provides opportunities to test and train against the world's most 
significant threats at reduced cost.
    The Air Force supports the Department of Defense request for 
authorization to conduct a Base Realignment and Closure (BRAC) round in 
fiscal year 2021. Completing the more detailed analysis once a BRAC is 
authorized will have value, and may highlight opportunities for some 
savings. Enduring savings from BRAC recommendations will leave more DOD 
resources available for future force structure or readiness 
requirements. BRAC also allows us, if the analysis supports it, to 
reposition forces or station new forces in locations that optimize 
their military value.
Conclusion
    The Fiscal Year 2018 President's Budget request begins to restore 
Air Force readiness with a focus on people, high quality training, 
squadron support, and critical munitions.
    The budget request also invests in top priority procurement to 
increase the lethality of the force with the F-35A fighter, KC-46 
tanker, and the B-21 bomber while also making significant investments 
in space, the nuclear deterrent, and special operations.
    As we enter our 70th year as a separate service and our 26th year 
of continuous combat operations, we have presented a budget that starts 
to turn the corner by building on the fiscal year 2017 budget that 
arrested years of decline.
    As important as program funding is, we also need budget certainty. 
A return to the current Budget Control Act caps will pose 
unmanageable--and unacceptable--risks to our ability to protect 
America's vital national interests.
    We request that Congress support this budget and provide fiscal 
predictability for the Air Force so that we can support the National 
Military Strategy by defending the Homeland, owning the high ground, 
and projecting power in conjunction with allies.

    Chairman McCain. Thank you, General. Thank you, Madam 
Secretary.
    The way we read it, there is a three percent increase in 
defense spending in this budget over former President Obama's 
number. Do you think that is sufficient, General?
    General Goldfein. Chairman, I would say it is a good start.
    Chairman McCain. Good start. So if we do three percent per 
year for the next 10 years, that is a great start.
    General Goldfein. No, sir, not at all. What this one does 
is it is arresting the decline that we have seen over the 
years. It is only a start to where we need to get to with 
stable budgets that we can plan for.
    Chairman McCain. So we need more than three percent in the 
future. Is that correct?
    General Goldfein. Sir, it is not only correct, not only do 
we need three percent, we need more than budgets that give us 
only one year of spending in which the first third of that year 
is unexecutable because of continuing resolutions.
    Chairman McCain. When do you project the Air Force to 
achieve full spectrum readiness?
    General Goldfein. Sir, we have said before and it is 
continual to say that it is going to take us approximately 8 
years to be able to get to full spectrum readiness with stable 
budgets.
    Chairman McCain. How many fighter aircraft do you need to 
fulfill a national military strategy?
    General Goldfein. One thousand nine hundred is the total 
number of combat coded aircraft required.
    Chairman McCain. How many do we have now?
    General Goldfein. We have right now--let me get that answer 
for you to make sure I have it exactly right.
    Chairman McCain. Take a guess.
    General Goldfein. Right now, we are down to about--total 
number of fighters--we have just short of about 1,500.
    Chairman McCain. 1,500 fighters short.
    How many bombers do you need to fulfill the national 
military strategy?
    General Goldfein. We predict approximately 175 is what we 
are going to need.
    Chairman McCain. How many do we have now?
    General Goldfein. Right now, in terms of B-52's, we have 
76. We have 20 B-2's, and we have 62 B-1's. While I do not have 
the total number of fighters exactly, you know, just to give 
you a rundown of the number we actually have on hand, we have--
--
    Chairman McCain. Before you go on, you state the Air Force 
will be 1,500 pilots short by the end of this fiscal year, 
1,300 of them fighter pilots. Those numbers seem to be getting 
worse and not better.
    General Goldfein. They are.
    So we are taking two approaches, Chairman, on this. First 
of all, there is a national approach because the reality is the 
Nation currently does not produce the number of pilots required 
to service military and commercial aviation requirements. I 
recently hosted a meeting with CEOs from the major airlines, 
the regional airlines, and the major industry representatives, 
and we talked about how we could partner together to find win-
win solutions to increase the supply of pilots to service those 
both.
    Chairman McCain. So this shortfall came as a surprise to 
you?
    General Goldfein. No, sir. We projected this shortfall some 
years ago. However, what did come not as a surprise but 
something that was not within our control is the fact that the 
airlines project that they are going to require 4,500 pilots a 
year for the next 10 years.
    Chairman McCain. I knew it. Why were you surprised?
    General Goldfein. Well, sir, I will tell you. I would not 
say we were surprised. I will say that the numbers that they 
were going to require we had not seen coming.
    Chairman McCain. Secretary Wilson, the planned delivery 
date for the KC-46 continues to slip. When will the first 
aircraft be delivered, and when will the 18th be delivered?
    Secretary Wilson. Senator, there is a meeting this morning 
in the Pentagon about the risk on the schedule. We think that 
there is some risk particularly in the testing schedule, and 
Boeing does not agree with that risk. The meeting is actually 
going on right now. We did an independent assessment on timing, 
and we may see a couple of months' slip is what I am hearing 
informally. But as soon as we get the readout from that 
meeting, we will let you know.
    Chairman McCain. All of this comes as a surprise?
    It is understandable to keep the B-21 specific warfighting 
capabilities classified, but it is difficult to understand why 
you should keep other aspects of the program under the veil of 
secrecy. Do the American people not deserve to understand more 
about what their dollars are being spent on such as $2 billion 
in R&D [research and development] money requested in this 
year's budget?
    Secretary Wilson. Senator, we are very open with the 
appropriate committees in the Congress about exactly what we 
are doing and what we are spending it on.
    Chairman McCain. That is not true, Madam Secretary. That is 
simply not true. The American people need to know if we are 
going to spend $2 billion on what? On R&D?
    Does the Air Force plan on releasing any further details on 
the program? If so, when will you do so?
    Secretary Wilson. Senator, there is always a balance 
between not telling our enemies what we are doing and making 
sure we are forthcoming with the representatives of the 
American people.
    Chairman McCain. I totally agree with you. But I have never 
seen anything like this one.
    What is the long-term plan for how long you will keep 
fourth generation fighter aircraft in your combat aircraft 
inventory and how the Air Force will keep them relevant in 
today's threat environment?
    General Goldfein. Chairman, we are going to keep fourth gen 
aircraft into the 2040s, and so what you will see in this 
budget, in addition to buying fifth gen aircraft, is actually 
modernizing our fourth gen.
    Here is what we found. When we talk about the fighter 
inventory, what we have found and continue to develop is the 
ability to actually fly these aircraft together in a 
complementary fashion. So the fourth gen actually makes fifth 
gen better, and fifth gen actually makes fourth gen better.
    Chairman McCain. Can you tell me a program that has been on 
time and on schedule in the last 20 years?
    General Goldfein. Yes, sir.
    Actually when you take a look at--and you called it on the 
F-35. The reality of the F-35 program is when you make a 
decision to do three things at once, which is to develop new 
technology, procure that technology simultaneously, and make it 
an international program with a number of international 
partners, those three things in concert actually I believe is 
what contributed most to the cost growth and the time frame it 
has taken us to bring that to bear.
    Chairman McCain. So we had never learned that lesson 
before?
    General Goldfein. I do not think we have learned it to the 
level of this program. Especially I do not think that in the 
new age of the cybersecurity environment that we live in, I 
think that we are learning every day what it means in the 
business of information and sharing infusion and the challenges 
that gives it. It goes to a point that you made about 
information technology and just how do we go about procuring 
it.
    Chairman McCain. Well, I can assure you it has been a 
source of great frustration on this committee because it was 
obvious to us exactly what was happening, and it happened.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, General Goldfein.
    Let me go back to the RPA [Remotely Piloted Aircraft] 
issue. There has been for the last several years great stress 
on the RPA community. Secretary Carter tried to address that by 
moving from 65 missions down to 60. Can you give me an update--
and then, Madam Secretary, you might join in--of where we are 
and what are you doing to ensure we have a very adequate RPA 
capability?
    General Goldfein. Yes, sir, Senator. So that is probably 
the most important decision that we have made in this business 
was when we stopped the exponential growth of combat lines and 
caps because, as you remember, just about the time we started 
trying to get the weapon system healthy, we would have three 
more caps added. Who can blame the soldier, sailor, airman, or 
marine on the ground who wants to have someone overhead who is 
telling them what is behind the town, what is behind the 
village, what is behind the hill before they go it?
    So when we actually stopped the growth at 60 caps, that 
allowed us to actually start building the force to a healthy 
weapon system. As you may recall, the first target we were 
shooting at was a 10-to-1 crew ratio. That begins to get to a 
healthy force, and we will achieve that this year.
    The other thing that we have done is we have built the 
instructor cadre force up so that we can actually increase the 
influx in the pipeline that is bringing the crews in that we 
need for the future.
    We are also standing up two bases now. One we have just 
announced. The preferred alternative is Shaw Air Force Base to 
actually do a mission there, and then we are going to stand up 
another base that can expand the enterprise so that you 
actually can get the mission synergy that happens when you 
actually combine an RPA squadron with another mission that it 
actually supports when it flies.
    All those things are in the works, and so my report to you 
is we are on glide slope for the plan that we laid out for you. 
There is work ahead that needs to be come. I am not declaring 
victory, but we have made some significant progress.
    Senator Reed. One element that was mentioned was not 
requiring that the lead pilot at least be a commissioned 
officer, but to look at a warrant officer or an NCO. When I was 
at Nellis last year, I saw a lot of very experienced non-
commissioned officers who could switch seats pretty quickly. Is 
that being considered?
    General Goldfein. It is. The first three have graduated. 
Our second class is going through right of enlisted operators. 
Because the MQ-19 was the most stressed, we chose the RQ-4 as 
the weapon system to begin this program. So now we are laying 
these individuals into each of our training classes, and then 
we will continue to grow the force accordingly.
    Senator Reed. Madam Secretary, any comments?
    Secretary Wilson. Senator, the only thing I would add is 
that the fiscal year 2018 budget does continue to fund the get 
well plan for the RPA pilots, and we now have about 2,200 RPA 
pilots, including that first group of enlisted operators.
    Senator Reed. Thank you, ma'am.
    Again, General Goldfein, retention is one of the critical 
issues. The chairman has mentioned it. You have mentioned it. 
The Secretary has mentioned it. Last year, we looked at this 
issue and we discovered--at least our insights were anyone who 
wanted a bonus got the maximum bonus. So the bonus was seen as 
sort of like they owe me this, rather than this is something 
that is going to affect my decision to stay or go.
    In fact, we asked you to go ahead and start allocating 
bonuses based on critical needs, not just everyone gets one, 
and we assumed that the bonus could be the most obvious and 
most immediate way to enhance retention. You seemed to--well, I 
will not put words in your mouth.
    But, one, tell us where we are with the bonus issue. Also 
tell us what types of arrangements you think you can make with 
the airlines to get additional pilots.
    General Goldfein. Yes, sir. So, first, what we are focused 
on is a combination and a balance between quality of service 
and quality of life. The aviation bonus goes in the quality of 
life category, and so we really appreciate this committee and 
Congress' support to allow us to up the number from $25,000 to 
$35,000.
    But we tiered that based on a business case analysis that 
looks at how long does it take to actually train that pilot in 
that particular career field, what is the cost associated with 
that, and what is our projections for retention. Based on that 
model and weighting, we have now come up with a tiered approach 
that now pays against that particular model.
    We are in our first year of that. I expect we will get an 
assessment of its impact and whether it is having the desired 
impact, and that we may come back to this committee for 
additions in terms of authorizations.
    But we are looking at a number of areas. You know, 
retention comes down to this balance because pilots--Chairman, 
I think you said it in your opening statement. Pilots join to 
fly high-performance aircraft. Maintainers join to maintain 
high-performance aircraft. When we do not have the readiness 
that allows them to do that, that is going to have a direct 
relation to readiness, and I would submit to you it has a 
direct relation on morale because morale and readiness are 
absolutely inextricably linked.
    So we are taking an approach where this is about 100 swings 
of the axe at the trunk of this tree, and we are not going to 
swing. It is not swinging until we continue to see the 
retention numbers go up. So this is about revitalizing the 
health of our squadrons to make sure that where we do our 
fighting from, which is in squadrons, our squadrons are 
healthy. This is making sure that we have the right support 
structure in those squadrons so the pilots are able to do the 
flying. This is about making sure that pilots have a balance in 
terms of what they are doing. Let me give you a vignette.
    I just came from Shaw Air Force Base. A young F-16 pilot at 
Shaw Air Force Base in a 4\1/2\ year tour--this is what that 
tour looks like today on this smaller force: 1 year deployed to 
the desert, 1 year remote to Korea, four 2-week deployments to 
support Red Flag or other high-end training, four 1-week 
deployments that do weapons systems kinds of specific training, 
6 weeks to squadron officer school. That 4\1/2\ year assignment 
will allow that pilot 18 months total at home in 4\1/2\ years. 
So the Secretary and I are looking at a number of things that 
we can do to bring them more balance in addition to the 
financial piece that the Congress has authorized.
    Senator Reed. Thank you very much.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    We have done a lot of talking about the size of our Air 
Force, and it seems like it might be a good idea to put it in a 
perspective. Do you happen to know what the size of our Air 
Force was during the Desert Storm related to what that size is 
today? Either one of you.
    Secretary Wilson. Senator, it is about 30 percent smaller 
than it was in Desert Storm.
    Senator Inhofe. Thirty percent smaller than it was in 
Desert Storm.
    Secretary Wilson. Yes, sir.
    Senator Inhofe. Would you say we are in a much greater 
threatened position today than we were during----
    Secretary Wilson. We have the same level of tasking today 
as we did during Desert Storm, and we have 55 squadrons rather 
than----
    Senator Inhofe. You know, I think it is important to have 
people like you and the uniforms particularly to be talking 
about this because the American people do not know that. You 
have heard me say this before. But that is a very frustrating 
thing when you go back and you are talking to real people who 
are listening to false reports from the media assuming that we 
have this great, superior power that we have historically had 
perhaps in some times of our history but do not have today.
    I had a hearing in the subcommittee I chair on readiness. 
We had the four Vices there, and it was the Vice Chief of the 
Air Force, General Wilson--no relation I guess--who made the 
statement, after we talked about it for a while, are we in the 
same situation, a similar situation, that we were facing back 
in the late 1980s when we had a hollow force? I was very proud 
of him because he said, yes, we are, and he went into some of 
the details as to what we were back at that time compared to 
where we are today.
    General Goldfein, what are your thoughts about that?
    General Goldfein. Sir, I absolutely align with that 
statement. I think it is important too for us to have a common 
understanding and a definition of what constitutes a hollow 
force because that term gets thrown around a lot. I actually 
went back and Senator McCain actually, sir, you gave a 
definition of this in 1993. I think it actually captures it 
still for today. You said readiness is not a matter of funding 
operations and maintenance at the proper level. It is not a 
matter of funding adequate numbers of high quality personnel. 
It is not a matter of funding superior weapons and munitions or 
funding strategic mobility and prepositioning or funding high 
operations tempos or funding realistic levels of training at 
every level of combat. Readiness is all of these things and 
more. A force begins to go hollow the moment it loses overall 
mix of combat capabilities in any one critical area. That 
definition in 1993 applies today.
    When we talk about the hollow force, we got to talk about 
holistically all of those things that go into producing a ready 
force, and it is training and it is personnel and it is 
equipment. They all have to come together.
    Senator Reed. That is good, General Goldfein.
    You know, I think again that is something we need to talk 
about, and while you say it is difficult to define what a 
hollow force is, the general public does know about a hollow 
force. They knew the conditions that we faced back in the late 
1980s and how similar they are today.
    Just for a minute, I want to touch on the BRAC [Base 
Realignment and Closure] recommendations. The budget, it is my 
understanding, is looking toward the years what--2021 to be 
looking at a possible BRAC and making preparations before that 
time?
    General Goldfein. Yes, sir. I think you will see from the 
Secretary of Defense a request for a BRAC, I believe in 2021 is 
what you will see coming in from the Secretary.
    You know, from our perspective, we tend to focus on the 
``C,'' closure, but I will tell you for the Air Force, it is as 
much about the ``R,'' realignment. We have got some great 
examples of how we have been able to, with the help of Congress 
and this committee, realign forces in order to become more 
combat-capable and more lethal. For me, it is as much about 
realignment as it is about closure.
    Senator Inhofe. Yes, but you have to keep in mind that one 
of the facts is that there has not been a BRAC round yet--and I 
have been involved in these BRAC rounds since 1987--where they 
have not lost money the first 3 years or so. This is one of the 
big problems.
    This is at a time that is different than most times in the 
past. We really cannot afford to be paying for something that 
we do not need, and the second thing is we do not know, once we 
start rebuilding, what our needs are going to be. I am sure 
that that probably came to their attention when they were 
making that decision not to do something until that time.
    Secretary Wilson. Senator, if I could just add.
    Senator Inhofe. Yes, of course.
    Secretary Wilson. with respect to base realignment and 
closure, one of the things that I think we really need to do is 
look at infrastructure based on the needs of the warfighter, 
and for the Air Force, that is less about square footage and 
concrete than it is airspace and capabilities to be able to 
train as we will fight not only today but into the future. Some 
of the language with respect to base closure restricts us from 
doing some of that analysis, and I think we need to do that 
analysis to be able to tell where we have excess capacity and 
of what kind.
    Senator Inhofe. Well, my time has expired, but for the 
record, General Goldfein, you said--I looked it up in your 
written statement. It was not there. But you said for every 
mission that I have described to you in your opening statement, 
you said our adversaries are advancing. I would kind of like to 
have in a written statement of where we are relative to our 
adversaries out there, something that you probably would not 
want to talk about here anyway.
    General Goldfein. Yes, sir.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Secretary Wilson, during your confirmation hearing, I asked 
you for your attention on continuing contamination issues with 
water supplies across the U.S. The Air Force, including the Air 
National Guard, is dealing with contamination as a result of 
perfluorinated chemicals (PFCs), expelled by firefighting units 
on these bases. There are two known sites in New York, one at 
the 106th on Gabreski and one of the 105th in Newburgh. Until 
recently coordination seemed to be moving forward at Gabreski, 
though not in Newburgh, though I understand that cooperation 
has now ceased.
    My staff was briefed that all mitigation work and 
negotiations on cooperative agreements has ceased because the 
Air Force is assessing whether it has the authorities to pay 
for any mitigation or cleanup on non-federal land. Are you 
aware of this issue? My staff was told that there should be a 
determination by early summer.
    Secretary Wilson. Senator, I am aware that the Defense 
Department is looking at this across all of the services and 
all of our installations. I think the Air Force was a little 
bit out in front of others in saying, all right, do we have a 
problem, do we have an issue at any of our bases. So we have 
done more assessment than perhaps the other services had. I 
know that the Office of the Secretary of Defense is looking at 
this both with respect to particular bases but also more 
generally with respect to how we move forward on any cleanup.
    Senator Gillibrand. Can I have your commitment that you 
will work with my staff to make sure that if you do need 
additional authorities, we put that in the NDAA [National 
Defense Authorization Act] so that you have the authorities you 
need?
    Secretary Wilson. Yes.
    Senator Gillibrand. Will you commit with my office to work 
with the relevant local authorities to address any adverse 
consequences resulting from the negotiations that were ongoing 
at Gabreski?
    Secretary Wilson. We will. I would say that this has now 
become something that the Office of the Secretary of Defense, 
Installations and Environment folks are also involved in, as 
well as their general counsel. So we are just one piece of the 
force on that.
    Senator Gillibrand. Thank you.
    General Goldfein, I watched the news last night about a 
leaked memorandum concerning breaches by Russia into our 
electoral infrastructure. The nature of that was about a hack 
into a vendor who does perhaps voter registration.
    I have been talking a lot about the role of our military 
and particularly the role of our National Guard and how we 
increase our cyber capabilities by using the National Guard 
specifically since you are going to have experts within the 
National Guard who work in the cyber field as part of their day 
jobs. Can you imagine any function where we can use the 
National Guard particularly to serve as a conduit between 
State, local, and the Federal Government, as well as the 
private sector because of their unique abilities? One such area 
is perhaps a way to work with the States to certify that our 
elections are cyber-protected because, obviously, the best 
cyber personnel we have--many of them are within the armed 
services as part of the Guard.
    General Goldfein. Yes, ma'am. As a matter of fact, you will 
see that as we are building up our 39 cyber mission teams, a 
significant part of that is from our Guard and Reserve. There 
are title authorities that we have got to work our way though 
in terms of when you are serving in a title 10 status, Active 
Duty, or title 32 status, working in the States. But what we 
have found, especially in the cyber business, is where we can 
really leverage industry and especially young men and women who 
are working in the cyber business in a civilian capacity that 
can then also do part-time work with the military in the Guard 
and Reserve is a powerful combination. We are leveraging that 
very heavily.
    Senator Gillibrand. If you need any additional authorities 
or have any concerns about retention, keeping the best people 
at Cyber Command, please advise this committee because we would 
like to make sure you have access to all the cyber warriors you 
need for all of these functions moving forward.
    General Goldfein. Yes, ma'am.
    Senator Gillibrand. Are there any obstacles that you see 
now for having the cyber force that you need?
    General Goldfein. No. I think our biggest challenge is that 
we have got to balance the talent between that which serves 
under Admiral Rogers and his responsibilities as the CYBERCOM 
commander, that which we require to be able to protect our 
cyber vulnerabilities, ensure that we can operate to do the 
missions I described for you in our opening statement, and that 
which has to serve the combatant commanders who have got cyber 
equities built into their campaign plans.
    We are building this force right now at the same time, and 
so we are having to now, as we build this capability, ensure 
that we fill all three of those bins simultaneously. So it is 
just going to take some time, and we are looking for all kinds 
of creative ways to build as fast as we can.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. General, we might as well settle this on 
the record. How do you pronounce your last name?
    General Goldfein. Sir, ``feen'' is fine.
    [Laughter.]
    Senator Wicker. General Goldfein then. We are 1,500 pilots 
short; by the end of this calendar year, 1,300 of those fighter 
pilots, 3,000 maintainers short. I was a little unclear about 
how many aircraft short we are going to be.
    General Goldfein. Yes, sir. I would like to clear the 
record too. I said 1,500. I actually did the math wrong. Part 
of my philosophy degree. It is 2,031 is the current number of 
aircraft that we have on the inventory.
    The number of aircraft we need relative to all of the 
missions that we perform--and this is beyond fighters and 
bombers. This is big wing command and control. This is 
intelligence, surveillance, reconnaissance. This is across all 
of those. This is Joint Stars, this is Compass Call. All of the 
missions we perform--those are the areas where we have got to 
recapitalize and modernize for the future to ensure that we 
have all of those mission areas covered.
    Senator Wicker. Well, what figure would that be? We have 
2,031 current. How many do we need?
    General Goldfein. 1,900 combat coded fighters is what we 
require. We are projecting 175 bombers. We are working right 
now a bomber road map that lays out the combination--one of the 
things that we are working hard on is that we have in the past 
rolled out plans after we have done all of our planning without 
actually including Congress in the dialogue. We are in the 
process right now of actually socializing our bomber road map 
that achieves the 175 total that we need.
    Senator Wicker. Okay. Well, if you get your budget request 
this year, how many pilots short are we going to be and 
maintainers short are we going to be at the end of next year, 
at the end of 5 years?
    General Goldfein. So if there is no change, right now we 
are projecting that we will be 1,300 fighter pilots alone short 
by the end of this year. That is just fighter pilots.
    Senator Wicker. But you are asking for a budget number that 
would improve that. Are you not?
    General Goldfein. We are.
    Senator Wicker. If you get your numbers, how are we going 
to look in 5 years?
    General Goldfein. Well, our hope, based on all the things 
that we are doing--that is why I described it as it is not one 
thing that we are doing. It is 100 things that we are going 
after that go after both quality of service and quality of life 
because we are not going to buy our way out of this with money. 
There is no way we are going to ever be able to----
    Senator Wicker. You cannot give us that number of how you 
hope to look in 5 years?
    General Goldfein. Yes.
    Senator Wicker. Are you still going to be 1,500 pilots 
short in 5 years?
    General Goldfein. I hope that we are not, and I say 
``hope''----
    Senator Wicker. Can you do that based on your budget 
request?
    General Goldfein. We can definitely get started, but we do 
not know yet, for instance, pilot bonus is a classic example--
--
    Chairman McCain. What does ``get started'' mean, General?
    General Goldfein. Sir, what it means is that we put in 
place those measures that start moving forward on increasing 
quality of service and quality of life across the pilot force. 
So the budget has the aircraft bonus in it this year. We are 
going to have to assess to see how that works relative to how 
many we retain.
    Senator Wicker. Suffice it to say, it is hard for you to 
give us specific numbers to project.
    Let me do this. I think Senator Inhofe mentioned the 
general public. Help the general public understand what we are 
not getting done now because of these shortfalls. What can we 
not do? Help the taxpayer understand why this is crucial to us.
    Secretary Wilson. Sir, one of the things that happened 
after sequester and ISIS reared its ugly head in Iraq and 
Syria, the Air Force and the rest of the services did what they 
should do, they surged to the fight. That means we have pilots 
in the desert fighting and putting, you know, 26,000 airstrikes 
on the ISIS target since 2014. Twenty-six thousand. That is 
more airstrikes than we did in Operation Desert Storm--or 
rather, Iraqi Freedom. So they are in the fight, but that is 
not a high-end, near-peer kind of fight.
    What we are most worried about is that those crews, when 
they come back, are not ready for some of the potential high-
end conflicts that we might face where there is integrated air 
defense and where we do have to fight in order to own the 
airspace over any potential adversary. That is where the risk 
is, and it is not that we would not surge to that fight, but 
the losses would be higher and it would be a harder fight.
    Senator Wicker. Are our allies and our adversaries having 
this same problem with pilot shortages?
    Secretary Wilson. Yes.
    Senator Wicker. Specifically Britain? Specifically Russia, 
China?
    Secretary Wilson. The airlines are a global industry, and 
we are seeing it in the other services in the United States, 
and we are also seeing a shortage globally of pilots. The Chief 
mentioned the number of pilots that are being hired annually by 
the airlines. It is actually higher than the airlines 
themselves predicted. So they were predicting about 3,200. I 
think last year they hired 4,500 or something like that. So it 
was higher than they initially projected. There is a demand for 
pilots and it is a global demand.
    General Goldfein. Sir, just to be clear because you had 
said allies and adversaries. We do see that our allies are 
facing--as an international air chief, I have discussions with 
all of my allies to talk about what--because this movie is 
coming to a theater near them. But I cannot say that for our 
adversaries. We have seen no indications of a slowdown for 
adversaries.
    Senator Wicker. Thank you.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    I do not want to put you on the spot now, but in terms of 
our allies, if you could provide some numbers as to how they 
are seeing the same kind of challenges, that would be very 
helpful. If you could also provide in writing, after this 
hearing, a rundown or summary of what they are doing, if they 
are doing anything different than ourselves, but exactly what 
they are doing.
    We have seen this problem coming, as you well know. I asked 
about it at the Airland Subcommittee--Lieutenant General 
Nowland was testifying in March. I asked about it last year. I 
was going to send a letter asking for more detailed 
information, and I decided not to do so on the assurance that 
this kind of information would be forthcoming. But if you could 
provide that kind of information, General Goldfein or Madam 
Secretary, I would appreciate it.
    [The information referred to follows:]

    Secretary Wilson. The U.S. Air Force does not track readiness 
statistics with regard to other nations pilot readiness issues. Some 
Foreign Military Sales programs with partners are experiencing delays 
in training, such as the F-16, due to a limited number of USAF pilots 
available to support ally and partner training. USAF's other aviation 
sales with partners are being supported. In previous discussions with 
other Air Chiefs, we understand they are also facing budget issues, 
which has an impact to their aviation readiness. We are working with 
partners to improve integration of flight activities with coalition 
partners where mutually advantageous in support of national security 
strategies.

    Senator Blumenthal. I want to focus on the UH-1N Huey, 
whose average fleet is about 40 years old and continues to 
operate under a waiver to protect our ICBM [Intercontinental 
Ballistic Missile] fleet and the National Capital Region. 
Earlier this year, the Air Force announced that the anticipated 
request for proposal for the Huey replacement would be delayed 
from February to July, which in turn will delay the delivery of 
the first operational helicopter by a year to the second 
quarter of fiscal year 2021.
    I discussed my frustration with this delay when STRATCOM 
[Strategic Command] Commander General Hyten came before this 
committee in April, and I will be understated. He was critical 
of the Air Force's inability to quickly procure a helicopter 
desperately needed to fulfill STRATCOM's requirements.
    I led a bipartisan letter to Secretary Mattis urging him to 
do everything in is power to expedite the fielding of new 
helicopters, but I have received as yet no response. I 
understand he has a lot of challenges and responsibilities. I 
am not being critical of him.
    But the plain fact is that an existing military aircraft 
already in the inventory is well suited for these missions, and 
I hope that after much delay, this acquisition process will 
proceed with a medium lift helicopter that meets General 
Hyten's needs.
    So let me ask you, Madam Secretary. As you know, during 
your confirmation process, you committed in writing to me--I am 
quoting--if confirmed, I will ensure the Air Force remains 
committed to delivering a UH-1N replacement with needed 
capabilities on schedule and within budget. Now that you are 
confirmed, what actions specifically--and I put the emphasis on 
the word ``specifically''--are you taking to fulfill this 
commitment?
    Secretary Wilson. Senator, I have been briefed on the UH-1N 
program. Initially the strategy was to try to buy something 
that is just coming down the line and get more of them that are 
coming down the line that are being bought for other purposes. 
Apparently none of the potential airframes could do that 
without some kind of a modification, and each of them had 
different kinds of modifications. So the Air Force took a step 
back, and the July RFP [Request for Proposal], as I understand 
it, is on track to be released.
    Senator Blumenthal. That is on track now.
    Secretary Wilson. That is what I have been told.
    Senator Blumenthal. There will be no slippage in that 
schedule.
    Secretary Wilson. That is what I have been told as of this 
last week.
    Senator Blumenthal. Let me turn to, if I may----
    Chairman McCain. Does that mean you will ascertain that it 
will be done on time?
    Secretary Wilson. Senator, I have been told that the RFP is 
supposed to be released in July, and I have no reason to 
question what I have been told.
    Senator Blumenthal. If there is any slippage, will you 
commit to reporting to this committee as soon as there is any 
indication--I mean, any indication--that that schedule may at 
all be delayed again?
    Secretary Wilson. Yes.
    Senator Blumenthal. The combat rescue helicopter. As you 
know, the HH-60G Pave Hawk helicopters, the most deployed 
Department of Defense rotary wing asset, has been responsible 
for saving 12,000 lives--12,000 lives. The high operational 
tempo in Iraq and Afghanistan for these helicopters performing 
personnel recovery and combat search and rescue missions means 
that the current aircraft are nearing the end of their useful 
life with declining readiness rates. It is an essential 
program. We have to be sure that it remains on track. The 
program successfully reached its critical design review just 
last week, finalizing the build plan for the Sikorsky-made 
helicopter and paving the way to begin building the first test 
helicopters.
    Let me ask you, General Goldfein. This program is critical. 
It is lifesaving. It is essential to readiness. This year's 
budget requests just $354.5 million for the combat rescue 
helicopter program. That is $100 million lower. It is a $100 
million decrease from what was anticipated last year. For a 
program that is so critical, how do you justify such a 
reduction in funding?
    General Goldfein. Yes, sir. As we do with all of the 
programs, we look at how fast we can bring on that capability 
and how do we sustain that capability over time. You said it 
exactly right. When it comes to combat rescue, we are the 
service that is responsible for fighting our way to a point of 
injury and actually providing critical combat care in that 
golden hour and being able to bring folks out. The combat 
rescue helicopter is an absolutely critical component of that. 
So the $100 million shortfall that you referred to is a 
disconnect that we continue to watch and ensure that we look at 
as we spread the program out over time.
    Senator Blumenthal. Well, General, I apologize. I do not 
mean to interrupt you but my time is expiring.
    I just want to say the word ``disconnect'' is one of the 
all-time euphemisms that I have heard in this room. It is a--
forgive me. I mean no disrespect to you. It is a disservice to 
the men and women who need that helicopter and who will be 
looking up. They are going to be looking up to see when those 
helicopters are arriving to save them from serious injury 
during that golden hour. This decrease is a disservice to our 
men and women in uniform.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you, Mr. Chairman.
    Thank you to both of you for your service to our country.
    With regard to the B-21 program, there have been 
conflicting reports and testimony from the Air Force about how 
many B-21's the service intends to buy. When is the correct 
date that we will start talking about the actual number? We 
have had reports from the generals which say 80 to 100. One 
hundred is the minimum. We will start with 100 and go from 
there. One hundred sixty-five seems like the more realistic 
number.
    Last year, we had an amendment that became part of the NDAA 
that directed a force mix study to refine what this should look 
like, and the report deadline has passed. Why is it that the 
service says it needs exactly 1,763 F-35's but has not produced 
a precise number of B-21 that it will require? Secretary 
Wilson?
    Secretary Wilson. Senator, it is my understanding that it 
is 100 B-21's. There was some confusion, and I think the Air 
Force actually corrected this yesterday in the newspaper about 
what the total number of bombers would be, and I believe that 
number is actually 165.
    Senator Rounds. It is 165 or is it 100?
    Secretary Wilson. One hundred B-21's, 165 total bombers in 
the Air Force.
    One caveat I would make is that there is a national 
security strategy review that is currently underway, and one of 
the reasons why you do not have a 5-year defense plan in the 
formal submission is because that national security strategy, 
which will drive our force structure, is underway.
    General Goldfein. Senator, I will just second that to say 
that in the bomber mix in the road map that we are socializing 
now with Congress, it is 165 total bombers, and of those 165 
bombers, it is 100 B-21's.
    We do that based on our assessment of combatant commander 
requirements and targets that they require us to hold at risk 
in their operational war plans, not only the geographic 
combatant commanders, but also General Hyten in his 
responsibility for the nuclear enterprise. So we do our troop-
to-task, if you will, assessment based on supporting combatant 
commander requirements and objectives that they are being given 
to be able to hit.
    Senator Rounds. General Goldfein, at what date in the 
future is this determined to be the day that we are shooting 
for? At what point in time are we talking about this being the 
goal, to have 165?
    General Goldfein. In terms of the total numbers that we 
will buy to?
    Senator Rounds. Yes. In other words, the B-21 we all know 
is not coming on line for a number of years yet. Are we talking 
about the year 2030, 2035, 2040? What is the number that we are 
shooting at for having 165 bombers of all sorts?
    General Goldfein. Between the 2020 and 2030 time frame. But 
the way we will manage that, because remember, right now we 
have B-52's, B-2's, B-1's, and B-21's that will come on board--
as the B-21 comes on board, then what we are socializing is 
then how do we then reduce the existing infrastructure so that 
we can keep the bomber force at a stable platform.
    We are also working to ensure that as we look at what bases 
that we look at for bomber force structure, that the bases that 
actually have current bomber capabilities will retain bomber 
force structure for the future. So all of that is coming 
together to ensure that we have a solid bomber road map going 
forward.
    Senator Rounds. Is there any question but that bomber 
number 100 is going to be less costly per copy than bomber 
number 25?
    General Goldfein. Well, we amortize those over time. So 
what we learned in the B-2 was, of course, when we did our cost 
projections and then we stopped the buy at 21 aircraft, all of 
those costs were borne by 21 aircraft. We never want to go down 
that path again. So 100 aircraft is going to have those costs 
amortized over time. If we buy 130 aircraft, it is going to be 
lower cost over time because you amortize over the cost of the 
fleet. So for us, we think the sweet spot is at least 100 
bombers when it comes to the B-21.
    Senator Rounds. Thank you.
    I am just curious. When we talk about space, I think we 
began a discussion here on it, but I just want to get into this 
a little bit more and I think it is very important that we 
emphasize how critical it is, not only air, land, and sea, but 
we do have the domains of cyber and space. You have already had 
some questions here about cyber and your commitment with cyber.
    Let me get into space just a little bit. I think it is 
critical that you share with this committee and the American 
people how serious the threats are to our ability to operate in 
space and how quickly we need to begin the process of 
strengthening our defenses for our products or our equipment, 
which is in space now and in the future. Could you elaborate on 
that, please?
    Secretary Wilson. Sir, I was on the House Permanent Select 
Committee on Intelligence in 2007 when the Chinese demonstrated 
the ability to launch a missile into space and destroy a 
satellite. They targeted and destroyed and created all kinds of 
debris from one of their old weather satellites. I think that 
got people's attention.
    But that is not the only thing that is going on with 
respect to threats to our space capabilities. There are threats 
from space itself and threats from the ground. There is also 
the issue of trying to jam space-based assets that the United 
States relies upon. So we have to assume that because we are so 
dependent on space, that our adversaries know that and they are 
developing capabilities to deny us the high ground in that way. 
We have to plan for that eventuality.
    Senator Rounds. Thank you.
    General Goldfein. Sir, where the Secretary and I are 
focused is in four key areas relative to moving forward on this 
migration or evolution of space as a benign domain to a 
warfighting domain where we have the responsibility for gaining 
and maintaining space superiority, much like I talked about air 
superiority previously.
    The four key areas that we are focused on are, first, how 
do we ensure that we have got good, solid strategy and policy 
that comes to us that then we can then build good concept of 
operations, which we are right now in the process of finalizing 
in joint publications to speak to the language of joint 
warfighting as we normalize space as a joint warfighting 
domain.
    From those concept of operations comes solid requirements 
as the joint chief that you would look at for space, and as the 
Chief of Staff of the Air Force, I am responsible for 
requirements to be able to ensure that we build solid 
requirements and we hold those firm.
    From solid requirements, then we look at how we acquire and 
how we ensure that we have acquisition authority that acquires 
at a pace that outpaces the enemy.
    Finally, as the Secretary mentioned before, it is how do we 
organize, train, equip, and present ready forces to be able to 
fight and win in space if a war extends there.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    General, the Eagle Vision system, which provides 
unclassified imagery, has proven to be very valuable in 
military operations and exercises with our allies, as well as 
in humanitarian assistance and disaster relief missions.
    Senator Graham and I have been strong proponents of this 
system, and as you know, we have a unit in the Hawaii Air 
National Guard, which has proven very useful in mil-to-mil 
exercises and HADR [Humanitarian Assistance and Disaster 
Relief] missions.
    So I want to commend you for including Eagle Vision in your 
budget request at a level which will allow program stability 
and the necessary resources to maintain important capabilities 
such as SAR [synthetic aperture radar]. I think this is a very 
good investment which will continue to produce significant 
dividends. So, again, I thank you for your attention to Eagle 
Vision.
    Secretary Wilson, I am very concerned about stability in 
the Asia-Pacific area even as we see all kinds of 
conflagrations in the Middle East, as well as in Africa and 
other parts. So peace and stability in the Asia-Pacific is 
essential and is important for the United States to project 
strength and reassure our allies, particularly in light of the 
actions of China and North Korea.
    Do you envision an expanded role for the Guard and Reserve 
components in future Asia-Pacific missions? What additional 
assets does the Air Force envision directing to the Asia-
Pacific area of operations?
    Secretary Wilson. Well, Senator, of course, we organize, 
train, and equip forces for the combatant commanders, and we 
also have tens of thousands of airmen who are stationed forward 
permanently and others that rotate through the Asia-Pacific 
theater. We also announced yesterday that as we bring KC-46's 
to McConnell Air Force Base, Kansas, that the KC-135's that are 
there are going to move up to Fairford to support the air 
bridge with tankers across the Pacific. So it is an important 
theater for us. We support the combatant commanders' 
requirements for warfighting and their operating plans.
    Senator Hirono. Are you saying that we are doing enough to 
make sure that enough resources are going toward the Asia-
Pacific theater?
    General Goldfein. Ma'am, I will just offer to you that the 
rebalance to the Pacific has actually been more about what we 
have taken risk in elsewhere to be able to maintain a steady 
presence in the Pacific region. If you take a look historically 
over time, the Air Force component has actually not changed 
significantly. We have kept forces on Guam, forces on the 
peninsula, forces in Japan, forces in Hawaii and Alaska.
    So what has happened is we have actually taken forces, as 
we have gotten smaller over time, from the European theater 
primarily, here in the Homeland, but we have kept our forces in 
the Pacific relatively stable. So I would offer to you that my 
projection, based on the size of the force we have and the 
global responsibilities we have--you will see that the Pacific 
laydown will probably remain relatively unchanged.
    Senator Hirono. I thank you for that because I think that 
the Asia-Pacific area of the world needs to remain as stable as 
we can, especially as we know with North Korea doing what it is 
doing and China's continuing buildup of their military.
    I know that the budget challenges--you often have to weigh 
readiness, modernization, and additional capabilities versus 
MILCON [military construction]. This is for you, General. What 
impact does limited MILCON funding have on the capability to 
fulfill your mission requirements, and what is the Air Force 
doing to mitigate mission impact resulting from reduced MILCON 
funding?
    General Goldfein. Yes, ma'am. As we have focused on the 
current fight and combat operations, we have taken risks in 
MILCON, and the challenge for a service that fights from its 
base--I mean, go back to that Whiteman example I gave you with 
the B-2 strike. We had to fight Whiteman before we fought the 
B-2, meaning we project power from our bases.
    So our focus on MILCON, really our priorities, has been 
first and foremost combatant commander critical needs. The 
second priority has been new mission beddown. So those bases 
that are getting KC-46's, F-35's--that is part of that program. 
So we focus MILCON efforts there, and the third that we have 
gone to is what we call worst first, and that is where we 
compete MILCON projects and there is actually very little money 
that we are able to put towards those when we look at all the 
other competing priorities. So for an Air Force, the impact is 
our being able to project power from those bases.
    One good news story, though, I will tell you is investments 
we have made in the European Reconstruction Initiative, ERI 
[European Reassurance Initiative], because it has become very 
clear to the combatant commander that our ability to push 
forward forces quickly is going to be based on our access and 
the bases we can operate on. So we do have a fair amount of 
investment to ERI that is helpful.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Secretary Wilson and General 
Goldfein, for being in front of us today.
    General, SOCOM [Special Operations Command] proved that a 
low-cost but highly lethal platform is an incredible asset to 
our current battlefield, and the Combat Dragon 2 program took 
retired OV-10's and outfitted them with commercial off-the-
shelf technology. They flew 120 combat missions and employed 63 
advanced precision kill weapon systems in an 82-day deployment.
    As the Air Force conducts its testing this summer on light 
attack aircraft, how are you leveraging the previous 
experiences that SOCOM has had?
    General Goldfein. Yes, ma'am. Having been involved 
personally in both Combat Dragon 1 and Combat Dragon 2, we are 
calling this, to a certain extent, Combat Dragon 3. We are 
leveraging all of the experience and all of the lessons we 
learned from that.
    What is important about this particular experiment, which 
aligns exactly with some of the additional authorities that 
Congress has given to the Service Chief and the service 
secretary, is it allows us to actually go out to industry and 
ask what do you have that is shovel ready, that there is not a 
lot of development costs that we could actually put into the 
fight and acquire, if we chose to very quickly.
    But equally important to that is what kind of a network 
will they be able to connect to. So as we look at the fight 
against violent extremism that extends from the Philippines to 
Nigeria and everywhere in between, how do we actually network 
this capability so that we can actually then produce the combat 
value we need? That is the next step of the Combat Dragon 
series. It is not only to look at the platform. It is actually 
to look at the network it rides on.
    We are hopeful that when we see what industry comes forward 
in the first phase of this that we are going to hold this 
summer in New Mexico, that we will be able to go on to a 
follow-on phase, which will be a combat demonstration.
    Senator Ernst. That is very good to hear.
    We know that we have seen successes in that program 
already. So if you were funded, then would you be able to move 
forward much faster in some of those trials then and actually 
see this platform through fruition sooner because of those 
proven successes?
    General Goldfein. Ma'am, actually we got the money in. It 
actually does not cost us that much, quite frankly, to run an 
experiment because for very few dollars that we have been able 
to put forward in the budget, we have got a partnership now 
with industry who have chosen to come in and show us what they 
have. So actually we do not need additional funding for the 
experiment. The question will be really, okay, what have we 
learned from the experiment and then what do want to go forward 
from there. That is the time when we will be definitely coming 
back to Congress.
    Senator Ernst. Very good. I think it is a great example of 
taking what we already have and fitting it towards the wave of 
the future with the technology, and so if we have already 
proven that--and I am sure you will see the same level of 
success in your experimentation, but we need to move quickly on 
that. I appreciate the fact that you do have knowledge of that.
    Secretary, we continue to see life support systems 
grounding entire fleets of our advanced fighters due to 
physiological episodes. We saw with the F-22 not too long ago, 
and today we are seeing that in the T-45's and F-18's.
    Surprisingly, despite multiple sensors in the generating 
systems, we do not monitor the oxygen level right before 
inhalation or right when the pilot exhales. It is my 
understanding that the same applies to the F-35.
    Would monitoring what exactly pilots are inhaling and 
exhaling not be important?
    Secretary Wilson. Senator, I will probably take that for 
the record. The aircraft that I am most familiar with most 
recently that had the problem was the Navy F-18. I will ask the 
Chief whether he is aware of any problems that we have had 
recently with Air Force aircraft. But as to what the F-35 
actually uses on inhalation and exhalation, I will have to get 
back to you.
    Senator Ernst. Okay.
    General, do you want to address that?
    General Goldfein. Yes, ma'am. We actually have a little bit 
of history with the F-22 as well. What we learned in the F-22 
was that what we train to, which was to understand the 
indications of hypoxia, which is having less oxygen than you 
would normally need at altitude--we learned in that system--the 
way it works is actually the pilots were getting too much 
oxygen. What we did not know at the time that we learned 
through that study was that too much oxygen will actually give 
you some of the same symptoms.
    So we went back and we retrofitted that in terms of how we 
operate. So now we are looking at what we learned from that 
particular test and series and applying that to what--we are 
helping the Navy with what they are doing with their F-18's. We 
are just now beginning to look at the F-35 from the same lens.
    Senator Ernst. Very good. I think monitoring throughout the 
system is important, but actually what they are taking in and 
exhaling is probably pretty smart to do as well. So I 
appreciate it.
    Thank you both for being here today.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to both our witnesses here today.
    Secretary Wilson, during your confirmation, we discussed 
the Air Force strategic basing plan for the F-35A, basing 
operations 5 and 6. I understand that site survey teams are 
visiting the five candidate bases of the summer, and we are 
expecting a decision on the preferred and reasonable 
alternatives due sometime later this year.
    You, as you always have, stressed the need for readiness, 
and the Air Force has successfully used the Active associate 
unit model to provide for increased training opportunities and 
share equipment and knowledge between the Active, Guard, and 
Reserve components.
    Does the Air Force intend for all Air Guard units receiving 
F-35's to become an Active associate unit and host Active Duty 
airmen at these bases that you are aware of?
    Secretary Wilson. Senator, I do not think that that was one 
of the requirements.
    I would also tell you that, yes, there are site surveys 
going on. I intentionally do not ask about the status of those 
surveys until they are ready to fully brief me on their 
analysis. So I keep my hands off until the analysis is ready, 
and then it is presented to me as a whole.
    Senator Peters. So that was not a requirement to your 
knowledge, but certainly that is something that would be a 
positive. Is that correct, General?
    General Goldfein. Yes, sir. We first start off in the 
basing process determining what will be the lead at that base. 
So, therefore, when we talk about ops 5 and 6 or 7, we first 
say this is going to be an Air National Guard base. This is 
going to be an Active. This is going to be a Reserve.
    We have a separate process that takes a look at the values 
of associations, and so we look at every base to determine 
where we can actually get value from an association, whether 
that be a classic or an Active association or Reserve 
association. We actually do not start down the path in the 
beginning. We establish a lead for that base, which service 
will be lead or which component will be lead, and then we look 
at it from a purpose of an association.
    Senator Peters. If I could follow up as part of some of the 
criteria, it is my understanding that close proximity to large 
airspace in this decision is very important, those that have 
advanced threat emitters. Is that accurate that that is going 
to be a significant factor as you are evaluating potential 
sites?
    General Goldfein. Yes, sir, it is.
    Senator Peters. Does the Air Force consider support or 
opposition in an installation's community as part of that 
process, the impact of potential lawsuits and others that could 
delay the basing process? I would assume you are looking for an 
active and vibrant community that is very excited about the 
basing. Would that be an accurate assessment?
    General Goldfein. Yes, sir. The community involvement 
relative to an increasingly deployed force because families of 
these airmen live in the communities, and it is the communities 
that wrap their arms around them and take care of them. It is 
the schools that the kids go to. All of that plays in when we 
are taking a look at particular bases.
    Senator Peters. Thank you.
    Secretary Wilson, the 110th attack wing of the Michigan Air 
National Guard flies the MQ Reaper, as you are aware. While the 
aircraft they fly can be anywhere in the world, we are very 
proud that the pilots are sitting in Battle Creek, Michigan.
    Their base currently has only one ground control station 
despite having space for three, and this limits the number of 
combat air patrols that the pilots and operators at the 110th 
can contribute to. If there is ever a technical issue, for 
example, with any of their existing consoles, the wing is 
unable to fly at all or they may have to reallocate their 
pilots somewhere else at additional expense. Given the demand 
for persistent ISR [Intelligence Surveillance and 
Reconnaissance] coverage, as well as strike capabilities, 
installations hosting RPA [Remotely Piloted Aircraft] wings 
should hopefully have the equipment necessary to contribute to 
the flight.
    Secretary Wilson, in response to a question for the record 
that I submitted during your confirmation hearing, you said 
that, if confirmed, you would review this high-demand program 
to ensure that we are using the resources we have to accomplish 
the mission expected of us cost effectively. To date, have you 
been able to review allocation of resources for RPA missions at 
places like Battle Creek but certainly other places around the 
country as well? What is the Air Force's plan to ensure that 
the RPA mission is properly resourced?
    Secretary Wilson. Senator, the fiscal year 2018 budget does 
fund what we call the RPA get well plan. The hardest part, as I 
understand it, for the RPA mission is the people part, and it 
is making sure that we do not take on more. There is an 
insatiable demand for intelligence, surveillance, and 
reconnaissance, and the decision to say we just cannot keep 
exponentially expanding this without getting the people trained 
and getting this right has been part of that get well plan. So 
the people part appears to be the long pole in the tent.
    Senator Peters. Thank you.
    Chairman McCain. Senator Perdue?
    Senator Perdue. Thank you, Chairman.
    Thank you both.
    I want to make one comment for the record. It is awfully 
reassuring, Mr. Chairman, that 40 years later we have two 
people leading our Air Force who are esteemed graduates of our 
beloved Air Force Academy. So congratulations to you both. 
Thank you for being here and for your careers.
    I have two quick questions. Madam Secretary, I do not have 
time. We could spend all day talking about this. The budget is 
the number one concern here. I am concerned that we are not 
funding you at the level to where you can meet the missions 
that you need to meet to protect our country and fulfill the 
missions that the General laid out earlier.
    Today we are in a different world than we were just 10 
years ago. China is spending in equivalent dollars $826 billion 
on their military. To put it in perspective, we spend about 
$600 billion in this budget. The Air Force gets about 20 
percent, a little more than 20 percent of that budget, as I 
understand it today. The threats today are probably more 
dangerous than anytime in my lifetime especially.
    What I am concerned about is we are putting arbitrary 
constraints on you guys, and we have not had a bottoms-up look 
at this thing since 2011 when Secretary Gates at that point did 
a 5-year analysis, and for 2016, his estimate was a little over 
$100 billion more than we actually spent in 2016. In 2016, we 
spent 3.1 percent of our GDP on our military. That is 100 basis 
points less than our 30-year average. That is about $200 
billion. So I can triangulate around this $200 billion number a 
number of different ways.
    My question to you today is, Madam Secretary, if we do not 
remove this Budget Control Act limit, what will that mean to 
the Air Force this year, and what will it mean to us over the 
next 5 years?
    Secretary Wilson. Senator, if the Budget Control Act limit 
is not fixed, if we have to go through sequester, that will be 
a $15 billion cut.
    Senator Perdue. Five to zero or one to five?
    Secretary Wilson. One to five billion.
    Senator Perdue. What would that mean to end strength, 
readiness, capacity----
    Secretary Wilson. That would mean we would go through 
pretty much what we did after sequester in the 2013 time frame. 
We would have to stop flying hours. We would have to ground----
    Senator Perdue. Sorry to interrupt. We are only flying 
about 150 hours a year right now for a pilot. Correct?
    Secretary Wilson. It would be devastating.
    Senator Perdue. That is devastating.
    So here is the question. If that were to happen, can you 
fulfill your mission that was laid out earlier so articulately 
by the General in terms of the mission of the Air Force today?
    Secretary Wilson. Senator, we are too small for what the 
Nation expects of us now, and sequester would further----
    Senator Perdue. Thank you. That is the answer I was looking 
for.
    I want to move on to space. General, you made a comment 
after--well, let me first put a little background in here. You 
mentioned, Secretary, that China ten years ago and just again 
in 2014 has demonstrated a capability, but Russia is also 
demonstrating capabilities today. In an unclassified 
environment, the GAO [Government Accountability Office] 
mentioned earlier this year that they have identified 60 
stakeholder organizations that get involved in the decision-
making process in our space programs.
    General, you made a comment and I agree with you 100 
percent. That is no way to run a railroad. Sixty voices cannot 
and will not produce a coherent acquisition strategy.
    Would you elaborate on that and help us understand what 
that should look like?
    The Rumsfeld Commission as early as 2001 called this out, 
and here we are 16 years later still debating just the 
institutional organization and the organization itself. We have 
a person that now is Chief of the Air Force telling us that 
this is no way to run a railroad. I agree.
    General Goldfein. Yes, sir. Without walking it back through 
those four lines of effort where we are focused where the 
Secretary and I are moving forward, this really comes down to a 
discussion about acquisition and acquisition authority and 
really decision authority. When you look at the 60 different 
folks that are in the organization now that each can say no or 
slow down the progress, the challenge we face is really one of 
decision authority. How do we actually ensure that we can make 
decisions, have the accountability in the process so we can 
move forward and acquire a capability at a pace that is faster 
than our adversaries.
    Senator Perdue. Sir, is this a little bit like the cyber 
development that we are going through as a military? Is this 
something we should look at organizationally from the military 
standpoint in terms of space and cyber? Madam Secretary, you 
may want to jump in on that as well.
    Secretary Wilson. Senator, actually in the last National 
Defense Authorization Act, this committee and the Congress gave 
instructions to the Department of Defense to move decision 
authority back to the Air Force. We are trying to move forward 
with that.
    In addition, there was a number of work done on 
organization before I arrived. I am taking a hard scrub brush 
to that as to how we organize ourselves better both for 
operations and for policy and acquisition so that we can get 
rapid decisions. There are a lot of people who have to have 
insight, but that does not mean that everybody gets a veto. So 
we will be looking at that over the spring and summer here to 
make decisions to make sure the right people are aware but the 
decision authority is clear and fast.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here.
    I want to quickly ask about the importance of our non-
military agencies and programs to the Air Force mission. 
General Goldfein, would a significant reduction in funding to 
the State Department and other non-defense security agencies 
and programs make the Air Force job of defending America easier 
or harder?
    General Goldfein. Ma'am, I will align with the Secretary of 
Defense who has clearly stated it would make it harder.
    Senator Warren. Yes. Thank you. I agree. In fact, I have 
asked every combatant commander that same question, and to a 
person, they have all given me essentially the same answer.
    So what I ask about now is about cyber defenses. We need to 
be completely sure that our aircraft and our other critical 
systems cannot be hacked by an adversary and that they are 
going to work when we really need them. Secretary Wilson and 
General Goldfein, in your 2018 budget request, you highlight 
the importance of improving the cyber resiliency of both new 
and existing weapons systems, making sure that the Air Force 
systems can stay operational or can bounce back quickly even in 
the face of aggressive cyber attacks.
    That said, a few months ago, in the Airspace and Cyber 
Conference, General Pawlikowski, the Commander of the Air Force 
Materiel Command, said it would take five to seven years for 
the Air Force to become fully cyber secure in part because the 
budget process had not yet made it a priority. Right now, the 
new Cyber Resiliency Office for Weapons Systems (CROWS), as 
only five full-time people.
    I know the Pentagon is a big bureaucracy. I know it does 
not always move as quickly as you would like. But I would like 
to ask how does the Air Force's fiscal year 2018 budget 
prioritize securing vulnerabilities in existing weapons 
systems, and what can we do right now this year to make this a 
priority?
    Secretary Wilson. Senator, let me start out by saying in 
this year's budget, the Deputy Secretary of Defense directed a 
look at how we organize ourselves with respect to cyber and set 
up cyber defense teams. The Air Force is responsible for 39 of 
those. This year, we will reach the full 39 and that is funded 
in the budget.
    Beyond that, there is the responsibility to try to make 
sure that our systems are secure, both our communications 
systems but also our weapons systems. That has to be built into 
every element of procurement that we are pursuing. As I 
understand it, it is not done by a particular center. It is 
done in every single acquisitions system, and it is a huge 
challenge.
    I would also say that it is a rapidly evolving target 
space, and so trying to maintain cybersecurity both for our 
systems and more broadly is one of the greatest challenges that 
we face as a Nation.
    Senator Warren. So I appreciate what you are saying here 
and the importance of changes in our acquisition system. So let 
me just switch over to that immediately.
    General Goldfein, what kind of changes do you believe we 
need to make to our acquisition systems in order to execute on 
your vision of multi-domain command and control?
    General Goldfein. Yes, ma'am. Thank you.
    Currently when we look at weapons systems procurement, I 
would offer that we are coming out of the industrial age where 
you think about the weapon system and the munition and the 
sensor, and then you figure out how to connect it. I think we 
are getting into an age where victory is going to go to those 
who actually can connect together capabilities in the future in 
new ways of doing business.
    What that means is you have got to focus on the highway 
before you focus on the truck, and so getting the network 
right, having common system architecture, having a common set 
of standards so that what we procure not only in the Air Force 
but in the Army, the Navy, and the Marine Corps--it is going to 
be how we connect these things up that is going to matter most 
in the future.
    For the Air Force of the future, it is going to be old and 
new, manned and unmanned. It is going to be conventional and 
unconventional. We are going to have parts that are exquisite 
that penetrate and those that stand off. It is going to have 
all of the above, and the challenge for us in the future to 
move forward is how do we connect them.
    Senator Warren. So I applaud your vision here. I am just 
asking in my few remaining seconds about how we need to change 
our acquisition system so we can accomplish that vision. I see 
the Secretary shaking her head. She is very much there on the 
vision. Do we need to make changes in the acquisition system to 
get there?
    Secretary Wilson. I would say two things.
    One is we need to take full advantage of the authorities 
which you have given us and sometimes take some risk, 
calculated risk, to do things quickly. We are actually doing a 
scrub of our existing acquisition authorities and what we are 
not taking advantage of and where we should push the envelope 
this summer.
    The second thing is--and I will just give you an example. 
The integrated battle management command and control system for 
space is in this year's budget. That came out of an experiment 
authorized by the Congress last year on space. It is a common 
architecture for all kinds of space systems, and it says if you 
cannot hook into that common architecture for the common 
picture for command and control, you are not going to build the 
next satellite system. We are not doing one-off stovepipes. It 
has to be integrated and drive that through, and we are 
actually driving that through a very rapid acquisition system.
    Senator Warren. Thank you very much, and I want to see if I 
can get you up to Massachusetts to talk to our CROWS folks up 
there too.
    Secretary Wilson. You bet you.
    Senator Warren. Okay, good. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Madam Secretary, General Goldfein, good to see you both. It 
is always impressive to me to hear about just how broad the 
mission set is for the Air Force. Please pass on our 
compliments to the professionalism in the service of the men 
and women you are leading.
    I wanted to provide one example of that professionalism. In 
the last two months in Alaska, the F-22 pilots, Guard and 
Active, and the KC-135 pilots have done missions to intercept 
Russian Bear bomber runs at America's sovereign airspace five 
times in the last two months. Five intercepts, different ones.
    General Goldfein, what are the Russians up to, and in your 
discussions and the tank and the Joint Chiefs, what should be 
our response?
    General Goldfein. Sir, we are seeing an increase in Russian 
activity when it comes to long-range aviation.
    Senator Sullivan. Are they testing our NORAD capabilities? 
I mean, what are they doing? What do we see them trying to do 
right now. That is a lot of intercepts in a two-month period.
    General Goldfein. It is. It is a combination of things that 
we are seeing relative to them reaching out with advancements 
in aviation that they have invested in. We are also seeing this 
as much in the Pacific theater as well. We see that not only 
from Russia but also from China. So we have seen long-range 
aviation increases.
    I will just give one example. I was talking to my 
counterpart in Japan, and he was telling me that Japan for this 
year will actually--they will actually exceed over 1,000 
intercepts this year, which is more than they have ever had in 
their history.
    Senator Sullivan. Are we learning something from our 
perspective on the intercepts of the Chinese or Russian bomber 
flights?
    General Goldfein. We learn something on every particular 
intercept. Yes, sir.
    Senator Sullivan. Let me ask another question. Last year's 
NDAA provided the Air Force guidance with the KC-46 OCONUS 
beddown. As you are looking to make that decision, some of the 
guidance talked about the ability to support multiple combatant 
commanders in their different warfighting capabilities. Your 
training area is collocated with other Air Force assets like 
fifth generation fighters, part of an air bridge to the Asia-
Pacific. Are you familiar with that provision of the NDAA?
    General Goldfein. Yes, sir, I am.
    Senator Sullivan. Are you, Madam Secretary?
    Secretary Wilson. Yes, sir.
    Senator Sullivan. What are the three key lessons that we 
have learned in the ongoing development and deployment of the 
F-35?
    General Goldfein. I would say overall the most important 
lesson we have learned is the importance of information fusion 
and how we can take an aircraft and be able to sense both what 
it can do on the aircraft with what it does off the aircraft to 
able to then be the quarterback for a formation.
    Very quickly let me just give you a sense of what I saw 
when I went to Red Flag recently and saw the F-35's debut.
    I flew the F-117. In the first generation of stealth, we 
actually had a switch in the cockpit called the stealth switch. 
We flipped the switch. All the antennas would stow. All the 
emissions would stop, and we would close off the world.
    The F-35 actually connects into the network before the 
pilot climbs the ladder. In Nellis Air Force Base, we have a 
cyber protection team, cyber mission teams that are engaged in 
a cyber war that are doing this on a cyber range, and the 
impacts are being fed to the cockpit and on the displays of the 
F-35 pilot.
    We had space activities and actually space capabilities 
taking place in the middle of the campaign, and the impacts of 
those were actually on the displays and on the helmet of the F-
35. He is calling audibles for the formation at 2 o'clock in 
the morning based on the impacts of the space and cyber wars 
before he even crosses into enemy territory. It is about the 
fusion of capability of information that the F-35 brings.
    Secretary Wilson. Senator, there is one other thing that I 
think is going to be--sometimes when you have vastly new 
capabilities, the people who are using those capabilities, the 
pilots that are out there, start to think of new ways of doing 
things. So I think we are only at the beginning of the 
innovation that we are going to see in the way in which we 
fight with these new tools. So I think it is just starting. It 
will change the way we fight.
    The night before I was sworn in, we had dinner at the 
Chief's house, at Air House, with the head of the Israeli Air 
Force. The Israelis still fly. The Chief of Staff still flies. 
We do not let our Chief of Staff still fly. He said something. 
As soon as he met me, he said I have had seven sorties in the 
F-35, and he said this is a game changer. There is nothing like 
it. This is an air chief who has flown the F-16, the F-15, the 
F-4 and done all of those in combat as an Israeli in the Middle 
East, and he said there is nothing like this in the world. This 
changes the game.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here and for your service to this 
country.
    Secretary Wilson, as I know you are aware, we have had 
issues in Portsmouth, New Hampshire with the water because of 
perfluorinated (PFCs) compounds, that have gotten into the 
drinking water for the City of Portsmouth because of the former 
Air Force base at Pease. The levels there are 12 and a half 
times higher than what as the provisional health advisory from 
the EPA [Environmental Protection Agency]. We have more than 
1,500 Granite Staters who have lived and worked around the air 
base who have learned that their blood contains elevated levels 
of these chemicals. I very much appreciate the Air Force's 
efforts to date to try and help address the pollution from the 
operations there at Pease.
    You provided funding to ATSDR [Agency for Toxic Substances 
and Disease Registry], which is the federal agency that 
conducted a feasibility assessment on the health study for 
those exposed to the contaminated water. But my understanding 
is that the Air Force has said it is not able to fund a follow-
on health study. Can you talk about why that is and what can be 
done to address this, which is a continuing threat to people in 
the sea coast region?
    Secretary Wilson. Senator, I am familiar somewhat with this 
issue. I think the question is whether the Air Force is the 
right entity to do--and whether we even have the authorities to 
do a human health study on a civilian population around the 
base. I think the general counsel's offices, both in the Office 
of the Secretary of Defense, as well as the Air Force, are 
taking a look at that, and then we are happy to work with you 
and others on what is the best way to do a human health study. 
That is not our core competency, honestly.
    Senator Shaheen. No. I certainly understand that the Air 
Force would not be doing the study itself. I also understand 
that the Navy funded ATSDR to do a study at Camp Lejeune, a 
similar kind of health study, and I just wondered what is the 
difference between the Navy's ability to do that and the Air 
Force's. Is that just willingness? Is there some other issue 
there?
    Secretary Wilson. Senator, we heard from your staff. In 
fact, we got from your staff the tip with respect to Camp 
Lejeune, and we have asked the general counsel to talk to the 
Marine Corps and Navy general counsel, find out how they did 
that and see if we can find you an answer.
    Senator Shaheen. Well, thank you. I very much appreciate 
that, and I know the people in New Hampshire do as well.
    General Goldfein, I want to follow up on the comments about 
the KC-46 because I understand that Senator McCain earlier 
raised his concerns about where we are with the program and 
some of the delays. But one of the other challenges with 
getting this new refueling tanker out are the changes that need 
to be made at some of the bases to address the beddowns, the 
sustainment, restoration, and modernization. Can you talk about 
those challenges as well?
    General Goldfein. Yes, ma'am. So right now in the 2018 
budget, we have funded new mission MILCON to make sure that we 
are meeting our responsibilities for the beddown because, as 
you know, you have to have some of that completed before the 
weapon system actually arrives. This morning, we are actually 
performing--our acquisition lead is actually doing a schedule 
review with the company on where we are relative to the 
schedule. As of this time, we still believe that we are going 
to be able to absorb the delays at McConnell and Altus and that 
we will be back on track by the time we actually then arrive at 
Pease Air Force Base. So the 2018 budget has MILCON in it.
    Senator Shaheen. Great. Thank you very much.
    Secretary Wilson, there has been a lot of news in the last 
2 days about what is happening in Qatar in the Middle East and 
the Arab countries who have expressed their concern about the 
way Qatar is operating a number of things with respect to Iran 
and Saudi Arabia. I wonder if you are concerned at all about 
our air base there and the operations that we need to continue 
to perform out of Qatar and the challenges that we are seeing.
    Secretary Wilson. Senator, the air operations at Al Udeid 
are continuing without interruption. Of course, the Air Force 
and the Department of Defense has a number of backup plans and 
those kinds of things. But it is our hope that this resolves 
itself with or without the assistance of the American Secretary 
of State. So from our perspective, it is largely at this point 
a diplomatic issue and our air operations continue unabated.
    Senator Shaheen. So there has been no threat that we have 
to remove our air base there.
    Secretary Wilson. No.
    Senator Shaheen. Thank you.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank both of you for being here, Ms. Wilson and 
General Goldfein.
    I want to return to an issue I have discussed with both of 
you before, which is the future of the 122nd fighter wing in 
Fort Wayne, Indiana. We have put this to bed it seems about 
three times, but it keeps coming up. I was just with our 
adjutant general and wing commander in Fort Wayne last week, 
and I can tell you they are doing an incredible job in their A-
10 mission.
    Prior to the A-10 retirement ban, the Air Force was 
planning to bring F-16's from Hill Air Force Base to Fort 
Wayne. We would have been starting that mission conversion this 
year. Just yesterday, there was an article about those Hill F-
16's now on their way to Holloman Air Force Base in New Mexico. 
I understand that given current conditions.
    But when that decision process began, General Mark Welsh 
who was then the Air Force Chief of Staff, asked for a meeting 
with me in my office, and he made a rock solid commitment that 
the Air Force would be maintaining a manned air combat mission 
in Fort Wayne.
    General Goldfein, you and I met less than a month later, 
just prior to your confirmation hearing, and you told me you 
would honor General Welsh's commitment.
    Ms. Wilson, you and I discussed the same issue in a meeting 
in your confirmation hearing March of this year, in which you 
said that if a commitment has been made, we will stand by it.
    I want to make sure that this commitment to maintaining a 
manned air combat mission at Fort Wayne will be kept. Ms. 
Wilson?
    Secretary Wilson. Senator, the A-10 is at Fort Wayne and we 
have no intention of removing it. It is there for the 
foreseeable future, and they will have that manned combat 
mission. We have no intention of changing that.
    Senator Donnelly. We have been promised a follow-on mission 
once the A-10--if and when it leaves.
    Secretary Wilson. Senator, our intention is not--we made 
the decision to keep the A-10's. So we are keeping the A-10's 
and we have no intention of taking that away from the Guard.
    Senator Donnelly. General Goldfein?
    General Goldfein. Sir, I agree with the Secretary. The 
reality is we need that wing flying the A-10 right now, and so 
we made a decision in this budget to keep the A-10.
    Senator Donnelly. Well, my question is how long does right 
now last.
    Secretary Wilson. This does not have the five-year budget 
in it, but we are keeping the A-10's for the foreseeable 
future, which is five or ten years at least.
    Senator Donnelly. Let me ask you something else.
    One of the things I have been working on is mental health 
and mental health services for our servicemembers. I appreciate 
the commitment both of you have made to improve the mental 
health and the resiliency of our airmen and military families. 
The Jacob Sexton Act, which is legislation that was passed, 
provides for a robust annual mental health assessment for every 
servicemember. The Air Force has said in the past that the 
Sexton Act requirements would be fully implemented by October 
of 2017. Are we still on track to meet that target?
    Secretary Wilson. Senator, we are on track to meet that 
target. But in my view it is more than that. Every morning when 
the Chief and I start the morning----
    Senator Donnelly. The Sexton Act there is more than that 
too, but I was just trying to find out about that in 
particular.
    Secretary Wilson. The thing to me that is heartbreaking 
about this is how many mornings we come in and the status 
report includes a suicide, Active, Guard, and Reserve. They 
come up in our morning reports, and somehow we have to get to 
that ``we man'' culture that says we try to take care of each 
other and identify problems and get people help when they need 
it.
    Chairman McCain. Could I interrupt? Madam Secretary, 
section 702 of the Defense Authorization Act required it. So 
are you going to implement the law or are you going to have 
meetings and talk about it?
    Secretary Wilson. Senator, we are implementing the law.
    Chairman McCain. All right. Thanks.
    Senator Donnelly. Thank you, Mr. Chairman.
    General Goldfein?
    General Goldfein. Sir, one of the things that we are 
looking at is the Special Operations Command has a very 
successful program called Preservation of the Force and Family 
(POTFF) for an acronym. What they have asked is an important 
question, and the question is, if we would take an aircraft off 
the line at a certain point for scheduled maintenance, check 
it, pull panels, make sure it is good, get it back on the line, 
and then later do depot maintenance, which is a heavier look, 
if we would do that for machines, what would it look like if we 
did that for people?
    Now we are following their lead on a program that looks at 
how do we take airmen off the line at a certain point and make 
sure we pull panels, if you will, and take a look at how they 
are doing, how they are doing financially, how are they doing 
with their career, how they are doing at home, how are they 
doing spiritually. Once it is scheduled maintenance, the stigma 
goes away because everyone is doing it, and then we do a later 
time and we pull them off for depot maintenance, which is a 
deeper look.
    So we have three bases now that we have started this. We 
call it Task Force True North. We are moving out on this, and 
we are going to look at that across the entire Air Force 
because I think SOCOM has got the model for success.
    Senator Donnelly. Thank you, Mr. Chairman.
    I would just like to say that I kind of felt like I got 
half an answer on the A-10's because there is a commitment for 
an ongoing manned mission, and as long as I am here, I will 
make sure that commitment is kept.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you also, Senator Donnelly. Twice I 
have kind of heard, well, yes, we see the law but we are not 
implementing it. I have to tell you, Madam Secretary and 
General, we are going to have to start imposing some penalties 
if you do not carry out the law. That is our job. That is our 
job, not to give you an option as to whether we are going to do 
something or not. If it had been entirely up to you, the A-10 
would be down in the bone yard in Tucson. So we are going to be 
looking at provisions that we put in the bill in the last 2 
years, which are reform provisions, and frankly, we are going 
to have to impose some penalty if you do not carry out the law. 
It is sort of a fundamental.
    Secretary Wilson. Senator, we will carry out the law.
    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman McCain. But so far you have not. Anyway, we will 
give you a list of those that we have mandated, and 
unfortunately, then if you do not get it done, we are going to 
have to add it to the bill that there is going to be some kind 
of penalty for not doing it. We take our jobs very seriously 
and we take the Constitution very seriously.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Madam Secretary, how many political appointments are 
available to the Department of the Air Force?
    Secretary Wilson. Senator, there are I believe six that are 
confirmable, in addition to me.
    Senator Graham. Are all of them moving forward? Are there 
names to fill these slots?
    Secretary Wilson. Senator, there are two that we are still, 
I believe, interviewing for, but the other ones--we have a 
preferred nominee that is in some point in the process.
    Senator Graham. This is June. When do you think they will 
get to the committee?
    Secretary Wilson. Sir, I do not know.
    Senator Graham. Does this impede your ability to do your 
job?
    Secretary Wilson. It is becoming difficult, yes.
    Senator Graham. Where is the problem? At the White House?
    Secretary Wilson. Senator, I am not really sure.
    Senator Graham. Could you let us know?
    Secretary Wilson. Yes, sir.
    Senator Graham. This committee--the chairman has decided, I 
think, to mark up the 640 versus 603. From the Air Force point 
of view, could you use some of that money?
    Secretary Wilson. Senator, we have a list of unfunded 
requirements.
    Senator Graham. How much is that?
    Secretary Wilson. Senator, it is a little more than $10 
billion.
    Senator Graham. I think all the unfunded requirements are 
$30 billion. So 603 plus 30 is 633. So we are not far off. So 
if you had $10 billion more on top of what the White House 
requested, that would be a good thing. Is that right, General?
    General Goldfein. Yes, sir. It absolutely would be a good 
thing.
    Senator Graham. In terms of threats, from 2011 until today 
when sequestration first kicked in, how would you describe the 
threats to the Nation in terms of more or less?
    General Goldfein. Sir, absolutely more, and I think the 
framework that the Secretary and the Chairman have laid out, 
which you are familiar with, the Four Plus One, China, Russia, 
Iran, North Korea, and violent extremism--I can say that in 
each one of those areas, the threat has increased.
    Senator Graham. In terms of the ability to deal with those 
threats, sequestration is the law of the land. It kicks back in 
this year. What would happen to the Air Force's ability to deal 
with these threats if we went back to sequestration levels?
    General Goldfein. Sir, I want to be very clear and it is 
what all the Joint Chiefs have testified before. We will be 
unable to execute the Defense Strategic Guidance under 
sequester.
    Senator Graham. Do you agree with that, Madam Secretary?
    Secretary Wilson. Senator, yes, I do.
    Senator Graham. From the Air Force's point of view, who is 
our greatest foe? Maybe you can name a couple, and does the 
budget this committee is proposing--does it give you the 
resources adequately to deal with those foes?
    Secretary Wilson. Senator, when we look at the world and 
the threats we face, there is China, North Korea, Russia, Iran, 
and violent extremism that we principally focus on. All of 
those threats are growing in different ways. I would say that 
this budget builds----
    Senator Graham. Let us just talk about the air threat, from 
a nation state air threat.
    Secretary Wilson. China is very rapidly modernizing its air 
force. North Korea, as you well know, is seeking to have an 
intercontinental ballistic missile capability and the ability 
to deliver a nuclear device. I think that concerns us all. Iran 
also is developing its missile capability and sponsoring 
terrorist organizations, and the Russians are also modernizing 
their military.
    Senator Graham. General, what advice would you give the 
Congress in terms of this dilemma? Is it better for us to allow 
the ICBM [Intercontinental Ballistic Missile] to be developed 
with a warhead on top that could reach America and have a 
missile defense system to deal with the threat with the 
assurance that if you ever launch toward us, we will destroy 
North Korea? Or is it better from a Homeland security 
perspective not to allow them to have that capability to begin 
with?
    General Goldfein. Sir, I would align with current policy 
which stated that it is better not to allow them to have it.
    Senator Graham. That means, as a last option, military 
force if diplomacy fails?
    General Goldfein. Well, sir, my responsibility is to 
provide the President options and to ensure that he has the 
options to do what he needs to do.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Madam Secretary--did you have a follow-up question, 
Senator?
    Senator Graham. No.
    Senator King. I want to follow up on Senator Shaheen's 
questions. I am concerned about Al Udeid. In the last 24 hours, 
Saudi Arabia, UAE [United Arab Emerits], Bahrain, and Egypt 
have cut off diplomatic relations with Qatar. Have you been in 
touch with any officials of those countries or in Qatar 
directly since that has taken place to guarantee, if you will, 
the continued viability of our operations at Al Udeid?
    Secretary Wilson. Senator, I am going to ask the Chief to 
follow up on this as well.
    I have not personally been in touch with them, but we have 
information from Al Udeid, as well as the combatant commander 
there, and I know the Chief has talked directly.
    Senator King. General?
    General Goldfein. Sir, so I have talked directly to the 
commander there who has assured me that----
    Senator King. Our commander.
    General Goldfein. Our commander, our air commander, who 
lives at Al Udeid, and you may know that I lived there for 2 
years from 2011 to 2013 as the Air Component Commander. I am 
very familiar with the Qataris and the region, having spent 2 
years traveling the region.
    What I will tell you is that he assured me that they are 
working right now through the ambassador and the country team, 
that this is a diplomatic lead effort, and now militarily there 
is no impact to our operations. I will tell you that we always 
build alternative contingencies to be able to continue 
operations.
    Then I will just share with you--again, this is in 
diplomatic lanes, but the military element to it--as the region 
works this out and the GCC [Gulf Coast Countries] countries 
work this out--one of my responsibilities as the Air Component 
Commander was to be the area defense commander and to build a 
collective defense of the Arabian Gulf.
    Senator King. That is what worries me is the split creates 
a new reality that we have not seen before.
    General Goldfein. We spent 2 years--and it has been built 
on since then--talking to the countries in the region to ensure 
they understood that individually, when it comes to countering 
Iranian behavior and especially Iranian missile threats--you 
know, from the UAE to Iran is about a 5- to 7-minute time of 
flight, and so we worked together to ensure that the nations 
understood that collectively they actually had what they need 
to defend themselves.
    Senator King. I do not mean to interrupt you, but I want to 
get to some other subjects. But I think the point is they have 
understood it in the past. The question is do they understand 
now and what are the implications of what happened yesterday--
--
    General Goldfein. Yes, sir. That is the point, that 
militarily they need to work through this to ensure they can 
maintain a collective defense.
    Senator King. General, let me go to the pilot shortage. I 
met with younger pilots, mid-career pilots, and they do not 
point to budget issues. They point to quality of life issues, 
and particularly as they get on in their careers, they end up 
flying desks more than they fly airplanes. What is the 
bottleneck? If you had to identify three factors to address, 
what are they, one, two, three?
    General Goldfein. I want to thank you and Senator Cotton 
for both taking the time to talk to these pilots.
    Number one, I get asked all the time--when I am home, I am 
not home. As soon as I get back from a deployment, I am going 
to go remote again or I am going to go something else. So just 
the time at home. So we are working on ways that we can create 
space in the calendar, just a basic scheduling.
    Number two is to get them airborne because pilots who do 
not fly are not going to stay and get them the flying hours.
    Senator King. Part of the problem there is we do not have 
enough maintainers. Right?
    General Goldfein. Exactly.
    Senator King. It is a shortage of a shortage.
    General Goldfein. That is why in this budget you will see 
us going after personnel as our number one readiness issue to 
ensure that we have the critical skills to get the aircraft in 
the air to get them flying.
    The number three part of this is to remove what I would 
call a series of things that are just irritating over time. As 
we have gotten smaller, the workload and the burden----
    Senator King. Paperwork----
    General Goldfein.--has come to the smaller force. I am sure 
you heard this loud and clear. So we are putting civilians into 
squadrons to take on some of that workload. We are looking at 
building healthy squadrons. We are looking at all those things 
that go into building a healthy atmosphere so we can get at 
this because it is just as much about quality of service as 
quality of life.
    Senator King. Is any one person in your organization in 
charge of this retention issue?
    General Goldfein. Yes, sir. Lieutenant General Chris 
Nowland, who is my A-3, is overall in charge. He has got the 
lead within the Air Force. I have got the lead within the Joint 
Chiefs because this affects all of the services, and my 
commander for Air Mobility Command that actually works with the 
civilian airlines every day because he has the civilian reserve 
air fleet--he has got the lead for working with industry. So we 
are working it from a national level, internal to the Air 
Force, and across the joint team.
    Senator King. Well, I appreciate that, and I hope that 
General Nowland wakes up every morning saying how are we going 
to solve this problem because we have got to solve it. This is 
not a budget issue really. This is an organizational issue.
    Finally, I am out of time. I just want to say we have 
talked a little bit about the F-35 and the B-21. If what 
happened to the F-35 happens to the B-21, I am going to find 
you. We have got to see that that does not happen. We have got 
to learn those lessons. The country cannot afford either the 
time or the money in order to field the B-21 efficiently and 
cost effectively.
    General Goldfein. Sir, you can be assured I am the chief 
requirements officer for the B-21, and I expect to be held 
fully accountable.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you and welcome, Secretary Wilson. 
Congratulations. General Goldfein, good to see you again.
    I want to build upon what Senator King was speaking about 
on pilot retention. As you know but as some members of the 
committee and the public may not know, Senator King, my ranking 
member on the Airland Power Subcommittee recently held a 
roundtable breakfast with several company grade officers, a few 
young majors as well who are pilots, unfortunately, some of 
whom have decided to leave the service already and go to the 
airlines. As Senator King says, this cannot be only a monetary 
issue. This committee offered $35,000 in bonuses last year. I 
suspect we could double or even triple that at some serious 
expense without increasing retention numbers that much because 
although these pilots found the bonuses were nice to have, when 
you amortize that out over the years of commitment they are 
taking on and some of the other, as you call them, irritants, 
General Goldfein, it simply did not make sense. Not only can 
the airlines in the long run probably pay them more, but they 
can give them a lot more stability as well. You can go to an 
airline and predict exactly which 10 or 12 days a month that 
you are going to be flying the way you cannot in the Air Force.
    I want to commend you on your efforts to try to eliminate a 
lot of those non-essential duties that are an irritant for our 
young pilots so they can get back to focus on flying. I want to 
commend you for your focus on pushing command authorities back 
down to the squadron level. I know your push to add civilians 
to the squadrons to alleviate some of this additional 
administrative workload has really made a difference in the 
morale and those pilots appreciate it.
    Senator King mentioned flight time. That is flight time in 
the short term of being able to get in the cockpit and fly. But 
we also heard an opinion on the long term as well that many of 
these young men and women join the Air Force because they want 
to fly. They do not want to sit at desks. They do not want to 
be PowerPoint warriors, and to put a fine point on it, they do 
not want to be Chief of Staff of the Air Force. They respect 
you. They admire what you have accomplished in your career, but 
they look back at what Captain or Major Goldfein was doing and 
saying I want to do that for most of my career or all of my 
career. They say they are simply not allowed to. The Air Force 
forces them to move on and up.
    They suggested we take a look at what is called a tactical 
track to allow officers who want to spend their career when 
they are at the peak of their skills to remain flying F-15's or 
F-16's or B-2's or what have you. Is this something the Air 
Force has under consideration?
    General Goldfein. Sir, we are looking at it.
    But I also want to make sure that we are clear. If you put 
a piece of paper in front of Captain Goldfein and said, listen, 
Captain, if you want to stay flying and never do anything else, 
all you got to do is sign here and you will never make it past 
lieutenant colonel, I would have signed it in a second. That is 
exactly what our young captains feel like. But them we give 
them a leadership position and they understand what it feels 
like to actually lead young men and women into combat. 
Hopefully we hook them, and so there are some things in a 
career that we want them to do. While we are looking at 
different tracks, what I do not to do is to have young officers 
who have not had the chance to actually show what they are made 
of relative to leadership, opportunities, much like I am sure 
you experienced as you were leading soldiers--once you do it 
and you realize the fact that you can actually have an impact 
on people's lives, I want to make sure that we do not close 
doors to those young officers who may find that they actually 
can be great chiefs of staff some day.
    Senator Cotton. Captain Goldfein was a pretty good pilot. 
Was he not?
    General Goldfein. He was the best pilot in the Air Force.
    [Laughter.]
    Senator Cotton. It is funny. You know, those captains and 
majors said they are the best pilots, and the colonels and the 
generals are over the hill.
    General Goldfein. Boy, if we do not have that today, then 
we got bigger problems.
    Senator Cotton. But Captain Goldfein made that decision at 
a different time in the Air Force in its size and funding. We 
are facing, as we have heard from Senator McCain, Senator Reed, 
Senator Wicker, Senator King, something of a crisis in fighter 
pilot retention. Maybe we might lose one or two candidates for 
Chief of Staff of the Air Force in 2035, but I think that we 
have to consider this option for 900 or 1,100 pilots short, 
however many pilots we are short.
    General Goldfein. Absolutely. We are continuing to look at 
that.
    Beyond this, if I can just take 30 seconds, the other part 
of this is the life in the squadron and this idea of service 
and making sure that we do not ever lose the fact because we 
have had a lot of discussions here about all the different 
issues. The Secretary and I are committed to swinging away at 
this. But there is a big part of this that is also the reason 
that you joined the Army and I joined the Air Force, which was 
to serve, to be part of something bigger than ourselves, to be 
able to make a difference in the world, to be a better version 
of ourselves. All that still occurs, and we want to make sure 
that we capture that in our young airmen we have today as we go 
forward.
    Senator Cotton. I understand. The Army and Air Force are 
different institutions, though. In the Army, it is the junior 
enlisted who are at the tip of the spear. They are driving 
vehicles. They are manning the crew-served weapons. Senior 
enlisted and officers are controlling the element. In the Air 
Force, it is your officers that are at the tip of the spear. It 
is Captain Goldfein who is out flying missions in combat and 
getting shot down in combat. It is something that we have to 
take into account when we look at the way the two services 
organize their affairs.
    One final point. A lot of issues with the level of online 
training. I know this is something both of you have looked at. 
But for the record, I just want to say that our pilots who are 
flying missions need to get the kind of basic training in 
critical issues like sexual harassment, sexual assault 
prevention. We heard reports of some of our pilots, though 
getting mandatory online training, things like preventing human 
trafficking, which is a very important and noble goal but maybe 
better suited for law enforcement or intelligence and so forth. 
So I hope you will take a careful look at all of the training 
requirements we are putting on pilots who need to get more time 
in the cockpit or more time with their families.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you to the witnesses.
    Just a point to follow up on a question or comment that 
Senator Graham made, this question about the pace of 
appointments. The President tweeted the other day that the 
hollowness was because of Democratic obstruction. I very much 
was offended by that. The President has forwarded to us by my 
counting about 20 percent of the nominations that are the 
Senate-confirmable positions. Eighty percent there has not been 
a nominee forwarded to us in June, and certainly on the 
committees that I serve that are national security committees, 
the Armed Services and the Foreign Relations Committee, the 
pace of the chair, once the nominations are here from the White 
House, has been to move them through committee pretty quickly. 
I am not aware of things slowing down on the floor on these 
positions, and so I will just make that as a statement for the 
record. I think the facts will bear that out.
    There has been some good testimony about the pilot issue, 
shortages of pilots, a great discussion with Senator Cotton. 
You mentioned the numbers on maintainers. The numbers on 
maintainers are maybe even more challenging. Could you each 
describe what you are doing to try to deal with that shortage?
    Secretary Wilson. Senator, this budget also includes an 
increase in maintainers. One of the reasons that we cannot 
recover in a single year, no matter how much money you put at 
it, is because readiness requires not just an avionics tech who 
has got 1 year of experience, but you got to have those mid-
level NCOs [Non Commissioned Officers], the supervisors, the 
experts on the job, and there is only so much you can 
accelerate experience. So one of the things that is a real 
concern on the retention side is trying to keep those 
maintainers so that you have got a balanced force across all of 
the different ranks. It is a real challenge if you have a very 
young force without that hands-on skill and that experience to 
know how to fix this problem right now. So it is a challenge.
    Senator Kaine. If I am correct, the maintainer workforce is 
an interesting mixture of Active, Guard, and Reserve, some 
civilians in that workforce. So it is an interesting human 
resources issue. But you have some breadth of talent from the 
different posts to pull from in meeting maintainer needs. 
Correct?
    General Goldfein. Yes, sir. One of the things that we are 
doing is we have shifted to civilian and contract maintenance 
for all those flying operations that are actually not 
deployable to combat. So for our training--our training is 
primarily civilian contract maintenance. So we freed up the 
blue suit, if you will, to take on that deployable piece of it.
    The challenge we find, though, is that in the smaller 
force--I will give you one vignette. When I started flying 
airplanes, I would walk out to the airplane. I would meet a 
dedicated and assistant crew chief at the airplane. We would 
walk around the airplane. I would strap it on. We would go. I 
would get to the end of the runway, and a different set of crew 
chiefs would be there to what we call last chance or end of 
runway. They would pull the pins. They would arm the bombs. 
They would make sure we were good to go, and we would take off, 
fly to a destination and there would be a different maintenance 
crew that would be there.
    Here is what it looks like today in many places. You taxi 
slow because the crew chief, the one crew chief has got to get 
in the bread van and drive to the end of the runway and be that 
same crew chief that pulls the pins and arms the bombs. On our 
worst day, you fly slow because that crew chief has got to jump 
on a C-17 with his toolkit and get to the destination to meet 
you when you arrive.
    The problem is it masks the problem because if you were to 
go to the data and said did you taxi on time, yes. Did you take 
off? Did you make your mission? Did you recover? Yes. The issue 
is we did it on the back of that smaller force, and that is 
what we cannot sustain as the threats go up and the demand 
signal goes up.
    Senator Kaine. A very good answer. That is informative.
    Let me ask you a question about one item that is in this 
budget that I thought was interesting. I do not really have an 
opinion about it. But your budget proposes to move 10,000 
civilian acquisition personnel from the O&M [Operations and 
Maintenance] account to the research, development, test, and 
evaluation account. I just thought that was interesting, and 
could you describe a little bit your thinking in terms of 
moving that amount of personnel? That is a big move.
    Secretary Wilson. Senator, I do not think their jobs are 
changing. It is just a question of----
    Senator Kaine. Right. How will they be managed and where 
they fit.
    Ms. Wilson.--where they fit and what the real work is they 
are doing, and the finance people felt that they were better 
accounted for as research, development, test, and evaluation 
rather than the O&M side.
    Senator Kaine. Is this just sort of where they are 
accounted for in the budget, not only are their jobs not 
changing, but sort of the chain of command and the reporting? 
How they report will not change either?
    Secretary Wilson. That is correct, that it is really just 
an accounting change.
    Senator Kaine. If that is not correct, I would love it if 
you could provide additional written response, but if it is 
correct, you do not need to provide an additional answer.
    The last thing is we are dealing with the new fifth 
generation aircraft, not only the Air Force, but the Navy and 
Marines as well. Their training range is off the coast in 
Virginia and North Carolina. Do you have make changes to allow 
those ranges to be fully utilized by fifth generation aircraft?
    General Goldfein. We do with some, and that is that the 
ranges that we have to train relative to certain scenarios and 
the threat laydown of emissions that allows us to actually 
collect on emissions and then fight against an adversary 
scenario--all those are investments that you have to make.
    Interesting, though. So when I grew up flying airplanes, 
you would go to the airplane for your advanced work and you 
would go to the simulator for your basic work. So you do 
emergency procedures, you know, basic capabilities in the 
simulator to prepare you for the high-end training in the 
aircraft. In fifth generation, we are seeing a bit of a 
reversal. To be able to actually train up with all of your 
capabilities against an adversary with all of their 
capabilities, very often we can replicate that the best in the 
virtual world. Now what we are looking at is how do you combine 
virtual capabilities with live and constructive, which would be 
computer generated, to actually get to the highest level of 
training. So you are going to see in this budget a fairly 
significant investment in virtual and simulation to be able to 
get our physical ranges connected with our simulators as we go 
forward.
    Chairman McCain. Senator Heinrich?
    Senator Tillis. Thank you, Mr. Chairman.
    Thank you both for being here and thank you for your 
service.
    General Goldfein, just quickly. I think you may have 
answered this briefly. But can you tell me a little bit about 
the KC-46, the delay? For States like North Carolina and 
Seymour Johnson for our planning purposes, what are we looking 
at? Is that 18-month delay real? Could we go further? Just some 
idea for planning purposes.
    General Goldfein. Yes, sir. So right now this morning, our 
service acquisition executive is actually holding a schedule 
review and looking at exactly where we are. We think that there 
may be a couple months now that we are looking at for delay. It 
is combination of the contractor not anticipating some of the 
challenges with FAA certification, a little bit in the testing 
and getting the data points that are required go into that.
    Our best estimate right now is that we are going to be able 
to absorb the delays at McConnell and Altus and that we will be 
back on track by the time we get to Pease in terms of delivery 
schedule. If that changes, we will report immediately.
    Senator Tillis. Thank you.
    Secretary Wilson, I think the chairman touched on military 
health care reform. Can you talk a little bit about how the 
component model is actually going to drive efficiencies, maybe 
break down stovepipes? How does it work?
    Secretary Wilson. Senator, all of this is being implemented 
now, and the services are looking at what kinds of pieces stay 
with the services and how do we combine this to provide more 
efficiency and honestly reduce some of the overhead in each of 
the services to run a military health care system. So all of 
the implementation is moving forward with the Office of the 
Surgeon General and the Defense Health Care Administration.
    There is a lot of pieces to this. There is a lot of 
contracting that is going on and a lot of decisions about how 
do we move forward to this new, more integrated system. So 
there is a lot of work that is going on.
    Senator Tillis. I have another question just on the 
business side of your responsibilities. It has to do with the 
audit. How are we doing for 2017?
    Secretary Wilson. Senator, I actually checked on that 
yesterday. We will declare audit readiness at the end of this 
fiscal year. Fiscal year 2018 will be the first fully audited 
year. So all of that data will be subject to audit. I think as 
you understand probably better than most, we expect in the 
first year we are going to have audit findings. We are going to 
find problems. That is why you do an audit.
    Senator Tillis. That is great.
    Secretary Wilson. So that is good. Then we start to 
routinely respond to those and improve our financial systems 
and its management.
    Senator Tillis. Talk a little bit on--now that you have 
been around for ages, a little bit on initiatives with respect 
to acquisition reform. I do not know, when you and I met in our 
office, if I brought in my 680-page prop of the next generation 
handgun, which actually started in the Air Force and then found 
its way across the lines of service. But what specific actions 
are you trying to take--either General Goldfein or Secretary 
Wilson--that give me some hope that we are going to find a way 
to right-size acquisition processes to the mission requirement?
    Secretary Wilson. Senator, we are trying to look at--and 
this summer, at the end of June, we have kind of a retreat with 
all of the senior offices in the Air Force, as well as the 
senior civilians in the Air Force. With the senior civilians, I 
have asked them to take a whole half-day chunk of time and let 
us look at what are the authorities we are currently using. 
Where are we doing this to ourselves, not driven by statute or 
regulation, but what can we do ourselves? Let us look at the 
processes and look at where we can take advantage of new 
authorities that have been given to us and how we will 
systematically do that for every procurement.
    There are some procurements that are more complex than 
others, and there are some areas where I found that we are 
being very aggressive in using authorities, particularly 
special authorities for special situations. How do we then use 
that and roll that back into the regular way in which we do 
business? We will be doing a half-day retreat on that in late 
June.
    Senator Tillis. General Goldfein?
    General Goldfein. Yes. Just to build on the Secretary's 
point, one of the areas that the Secretary and I have talked a 
lot about and we are looking at is how do we acquire 
information technology. It may be that we ought not ever put 
two acronyms in the same sentence, IT and RFP, because the 
reality is if you try to acquire information technology as a 
weapons system or as a platform, it is already too slow because 
whether we want to talk about the cybersecurity issues we 
talked about earlier or the fact that it just changes at such a 
fast pace, we are looking at a holistic view on how do we 
acquire information technology because it is so central to our 
future as we look at networking together capabilities.
    Senator Tillis. And to your spend.
    General Goldfein. Absolutely.
    Senator Tillis. Thank you, Mr. Chair.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    Secretary Wilson, General Goldfein, welcome to both of you.
    On Friday, I was very pleased to see that the environmental 
assessment was completed and found no significant impact for 
the two additional F-16 squadrons to operate at Holloman Air 
Force Base. I think this is another testament both to the 
quality of the range and the airspace near Holloman, as well as 
the support for the military in the Alamogordo area.
    Like you have both said, there is no quick fix to the pilot 
shortage we have, but I will certainly work with my colleagues 
to ensure that you have the budget and resources to help train 
more pilots. If the Air Force identifies any unfunded 
requirements as it relates to solving this problem, please seek 
our help because we are very serious about meeting your needs 
in this front.
    To both of you, in addition to pilots, we obviously have 
the shortage of maintainers for both F-16's and F-35's. You 
have heard about that from some of my colleagues this morning. 
I think we lose roughly 6,000 maintainers a year just due to 
retirements and separations.
    So I want to ask how much do you rely on the National Guard 
to help fill in some of that challenge in terms of the gap 
there? How can we strengthen that partnership? For either of 
you.
    General Goldfein. Sir, I will be really clear. We could not 
perform our mission of the United States Air Force without the 
Air National Guard in any of the areas where we have actually--
because the way we have organized, you know, we are one Air 
Force with three components. You can go onto a C-17 and walk up 
into the cockpit and say, okay, who is Guard, who is Active, 
who is Reserve, and all three hands will go up.
    So in terms of maintenance specifically, one of the things 
that the Air National Guard brings us is the experience level 
of having worked on one platform for the majority of their 
career. So I cannot tell you the number of times I go and I 
will find an Air National Guard crew chief and they can 
redesign the thing for you because they have been working all 
this time.
    So in this budget, you will see that we are looking at 
putting in a second shift of maintenance at the Air National 
Guard locations to then be able to bring more pilots into the 
Air National Guard so they can experience a young pilot more in 
the Air National Guard where I have that volume of experience 
there. So we rely very heavily on them.
    Senator Heinrich. Well, I know there is a very active 
interest in the Air Guard in New Mexico in playing a strong 
role with regard to maintainers, and if we can help facilitate 
that, please do not be shy.
    Obviously, we are seeing an increased amount of competition 
in space from Russia and China, as well as other threats in 
space. For either of you, do you believe that our satellite 
launch capabilities are responsive and resilient enough to meet 
these increasing threats?
    Secretary Wilson. Senator, we had a huge problem in this 
country in the 1990s with access to space, and the country at 
that time made a significant investment in space capability and 
the ability to launch, and it paid off and is showing results. 
The benefit now is that we are seeing competition and it is 
bringing the price down for access to space.
    One of the things that is in this budget--we faced a 
potential gap in weather coverage from satellites, and one of 
the things that is in this budget is using the Operationally 
Responsive Space force to do that satellite and get that 
satellite up as a gap-filler in coverage for weather.
    Senator Heinrich. I am very glad that you brought up 
Operationally Responsive Space, and I was incredibly pleased to 
see that this year's budget request included a significant 
increase in funds for ORS. Can you talk a little more about the 
Air Force's plans for the future of that program and how the 
office's rapid acquisition authorities can contribute to the 
Air Force's mission in space as we move forward?
    Secretary Wilson. Senator, that office, as well as a couple 
of others, particularly with respect to space, have 
demonstrated the ability to rapidly acquire things and get 
things up and on orbit. I think this weather satellite is a 
good example of where it is filling a gap. By being able to 
move quickly to look at an opportunity and fill a gap, we are 
able to serve the needs of the warfighter.
    Senator Heinrich. I am very excited about the prospects for 
Operationally Responsive Space.
    I also just want to take my last few seconds here and say I 
think there is the next generation of launch companies that are 
looking at small payloads, whether it is Virgin Gallactic or 
Vulcan Aerospace or Orbital ATK [Alliant Tech Systems]. I 
really encourage you to look at some of those ideas too. I 
think the more distributed, the more responsive, the more 
flexible and the quicker we can field some of these things, the 
quicker we will be able to meet some of the gaps we have with 
our adversaries.
    Secretary Wilson. Senator, I would say we have a couple of 
things here. One is this is the model of the X-37, which will 
be going up again. It is a reusable vehicle and it will be 
going up again on top of a SpaceX launcher in August. I think 
the Chief has a cube sat as well. So they are getting smaller, 
able to be put on multiple different platforms, and there are 
some very exciting things happening in commercial space that 
bring the opportunity for assured access to space at a very 
competitive price.
    Senator Heinrich. Fantastic.
    Thank you, Chairman.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Secretary Wilson, General Goldfein, welcome. Good 
afternoon. Thank you for your service. Thank you for your 
testimony today.
    I wanted to start by talking about the F-35. A number of 
military leaders have commented on the advantages of fifth 
generation fighters and the transformative impact that they are 
having on our fleet. In January, the Red Flag exercises--my 
understandings were that the performance of the F-35 was 
exceptional and there have been reports of kill ratios in the 
order of 20 to 1.
    Can you explain to the committee the F-35's performance at 
Red Flag and also the impact it is having both on our ability 
to defend ourselves and our allies?
    General Goldfein. Yes, thanks, Senator. Let me just 
describe for you the mission that I witnessed out there at Red 
Flag on F-35's debut.
    So the first thing is that the mission commander, who is a 
mission commander check ride--he is leading 100 aircraft into 
conflict, and it is what we call Big Dollar Night, which means 
that we put up the most adversary defenses we could both on the 
ground and in the air against him. He has got 100 aircraft. 
Before he climbs the ladder, the F-35 is already connected into 
the network and it is actually getting information fed to it on 
what is going on in the cyber war that is taken on with a full 
cyber mission team and a cyber protection team that are 
fighting in the cyber domain and actually taking out nodes that 
the mission commander, the F-35 pilot has assigned to the cyber 
teams there to take out.
    While he is flying to the tanker to get gas, the space war 
is raging, and he is getting fed information into the cockpit 
on what is going on in the space war relative to actual 
techniques that are going on at 2 o'clock in the morning on the 
Nellis range. He is calling audibles for the formation as the 
quarterback as he goes in to take out enemy targets. In the 
middle of the fight, he gets information fed to him that he has 
got a high-value convoy that he has to go find, fix, and finish 
and assess in the middle of the fight while he is taking out 
targets, and he does that through his means available.
    While that is going on, he is told an F-16 was shot down 
and he has to coordinate an entire combat search and rescue in 
the middle of the fight. While that is going on, he has got to 
do a special ops insertion.
    The fusion of information that allows him to be able to 
quarterback that formation and operate on a completely 
different level than we have enjoyed before is the networking 
capability that the F-35 brings. So we are no longer talking 
about F-35 versus J-20. We are talking about F-35 in a family 
of systems as the quarterback that can actually call audibles 
and move the formation as we go into conflict. That is the game 
changer that it brings.
    Senator Cruz. Last week, I had the opportunity to fly an F-
35 simulator, and I will say the technology on the plane is 
remarkable, so much so that in the simulator I was able to land 
on a carrier which I could promise you I lack the skills to do 
remotely, which means it truly is made idiot-proof and that I 
did not crash into the carrier and kill a bunch of people in 
the simulator. So let me commend you on that.
    The Air Force's budget submission for fiscal year 2018 
would purchase 46 F-35A's, which is two less than fiscal year 
2016 and one fewer than was enacted in the 2017 budget. But it 
appears that the Air Force believes that you require 60 F-35's 
based on an additional 14 that are listed in your unfunded 
requirements list. Can the both of you tell the committee if 
you think 46 F-35's is an accurate number and what you believe 
is necessary to meet our defense needs?
    General Goldfein. Sir, this is purely a function of 
resources available, given all the other competing priorities 
across all the other mission sets that we perform, not the 
least of which is a safe, secure, reliable nuclear deterrent, 
everything we are doing in space, everything we are doing in 
cyber. So 46 is essentially all we could get to in this 
particular budget, which is why you have seen us lean forward 
on the unfunded priority list with the additional ones.
    While not part of your question, if I could just take one 
minute, just to honestly say thank you for your work on moving 
forward on the NASA strategic plan. It is really important to 
us because we partner with them on so many things in space. So 
thank you for that.
    Secretary Wilson. Senator, I would say that the Air Force's 
objective is to try to get to 60 F-35's steady state production 
for the buy, and we are budget constrained.
    Senator Cruz. Thank you.
    Let me ask one more on the topic General Goldfein just 
raised, which is space, and the Air Force is seeking a 20 
percent increase for space systems, totaling $7.7 billion in 
the 2018 budget. Do both of you feel that a 20 percent increase 
is sufficient, given the rapidly growing threats in space and 
the dependence that so many of our systems have on maintaining 
our capabilities in space?
    Secretary Wilson. Senator, there are some items on the 
unfunded requirements list that are related to space, 
particularly space defense requirements. I think it is about 
$200 million. This budget is a significant increase in space. 
As you mentioned, it is about a 20 percent increase, and there 
are a lot of innovative new things in there, particularly 
secure, command, control, and communications, some additional 
things with ability to defend systems in space. So I think 
there is a lot of progress here, but there is no question there 
is much more to be done.
    Senator Cruz. Let me ask both of you to elaborate. This is 
a topic we have discussed in classified hearings as well. Just 
elaborate, to the extent you can in this open hearing, on the 
magnitude of the threats we face in space and what the impact 
could be if we are not prepared to deal with them.
    Secretary Wilson. Senator, you are right, that this is 
difficult to talk about in an open hearing. But we are all 
familiar with the test that the Chinese did in 2007 to show 
that they could launch a telephone pole, if you will, and 
destroy a weather satellite that was one of their dead weather 
satellites. But the ability to launch and intercept an orbiting 
satellite--they demonstrated it for the world to see and put a 
lot of debris into space as a result. So the Chinese clearly 
have that capability. The capability is not just kinetic and 
from the ground, though. We are vulnerable with respect to 
jamming satellites, with respect to trying to disconnect 
satellites and communications systems, as well as other kinds 
of threats.
    So we are very heavily dependent on space, and our 
adversaries know it. It is no longer a benign environment. We 
are going to have to fight for it.
    Senator Cruz. General?
    General Goldfein. Sir, I would just add that this is the 
primary focus for the Secretary and I as we look at this change 
from treating space historically as a benign domain from which 
you sense, monitor, and report to a domain from which we have 
to be prepared to fight and win and gain and maintain space 
superiority if a war extends into space or starts in space. I 
align with General John Hyten who has said there is no such 
thing as war in space. There is just war. But if it extends 
into space, we have got to be ready. So our focus is on making 
that shift not in terms of how we acquire but actually perhaps 
most importantly, the culture required for a warfighting 
element that actually treats space as a warfighting domain.
    Senator Cruz. Thank you very much.
    With that, this hearing is concluded.
    [Whereupon, at 12:15 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                       air force fighter aircraft
    1. Senator McCain. General Goldfein, what is your required total 
aircraft inventory level for fighter aircraft for fiscal year 2018?
    General Goldfein. Unconstrained by fiscal requirements and based on 
current strategy, the Air Force requires 2,500 total fighter aircraft.

    2. Senator McCain. General Goldfein, what is your projected total 
aircraft inventory level for fighter aircraft for fiscal year 2018?
    General Goldfein. Total fighter aircraft inventory for fiscal year 
2018 is 2031.

    3. Senator McCain. General Goldfein, what is your required total 
aircraft inventory level for fighter aircraft for fiscal year 2028?
    General Goldfein. Unconstrained by fiscal requirements and based on 
current strategy, the AF needs 2,500 fighter aircraft to field 70 
combat fighter squadrons.

    4. Senator McCain. General Goldfein, what is your projected total 
aircraft inventory level for fighter aircraft for fiscal year 2028?
    General Goldfein. Current plans support a total fighter force of 
1,943 aircraft in 2028.

    5. Senator McCain. General Goldfein, what is your required primary 
mission aircraft inventory level for fighter aircraft for fiscal year 
2018?
    General Goldfein. Unconstrained by fiscal requirements, the Air 
Force requires 81,500 primary mission aircraft inventory designated 
fighter aircraft.

    6. Senator McCain. General Goldfein, what is your projected primary 
mission aircraft inventory level for fighter aircraft for fiscal year 
2018?
    General Goldfein. By the end of fiscal year 2018 the Air Force is 
projected to have 1,135 primary mission aircraft inventory designated 
fighter aircraft.

    7. Senator McCain. General Goldfein, what is your required primary 
mission aircraft inventory level for fighter aircraft for fiscal year 
2028?
    General Goldfein. Unconstrained by fiscal requirements, the Air 
Force requires 81,500 primary mission aircraft inventory designated 
fighter aircraft.

    8. Senator McCain. General Goldfein, what is your projected primary 
mission aircraft inventory level for fighter aircraft for fiscal year 
2028?
    General Goldfein. Current plans support a total of 1,204 PMAI 
aircraft in 2028.

    9. Senator McCain. General Goldfein, based on the differences, if 
any, between your required and projected primary mission aircraft 
inventory levels for fighter aircraft for fiscal year 2018, can you 
characterize the risk the Air Force will assume in meeting the 
requirements of the National Military Strategy?
    General Goldfein. At the unclassified level, the U.S. is currently 
assuming a significant level of increased risk based upon the current 
and projected Air Force fighter force structure.

    10. Senator McCain. General Goldfein, based on the differences, if 
any, between your required and projected primary mission aircraft 
inventory levels for fighter aircraft for fiscal year 2028, can you 
characterize the risk the Air Force may assume in meeting the 
requirements of the National Military Strategy?
    General Goldfein. At the unclassified level, the U.S. is currently 
assuming a significant level of increased risk based upon the current 
and projected Air Force fighter force structure. As we look toward the 
future, the risk only increases based upon current funding levels.
    11. Senator McCain. General Goldfein, can you itemize your current 
55 combat fighter squadrons by component, mission design series, and 
primary assigned aircraft numbers?
    General Goldfein.

----------------------------------------------------------------------------------------------------------------
                                                                                   Current          FY18 Prog
                     MWS                                 Component           -----------------------------------
                                                                               CC Sqs    PMAI    CC Sqs    PMAI
----------------------------------------------------------------------------------------------------------------
A-10                                                                     AD         4       75        4       75
                                              ------------------------------------------------------------------
                                                                        ANG         4       72        4       72
                                              ------------------------------------------------------------------
                                                                       AFRC         1       24        1       24
                                              ------------------------------------------------------------------
                                                                      Total         9      171        9      171
----------------------------------------------------------------------------------------------------------------
F-16                                                                     AD        13      282       11      249
                                              ------------------------------------------------------------------
                                                                        ANG        11      207       11      207
                                              ------------------------------------------------------------------
                                                                       AFRC         2       48        2       51
                                              ------------------------------------------------------------------
                                                                      Total        26      537       24      507
----------------------------------------------------------------------------------------------------------------
F-15C                                                                    AD         3       66        3       61
                                              ------------------------------------------------------------------
                                                                        ANG         5       90        5       85
                                              ------------------------------------------------------------------
                                                                       AFRC         0        0        0        0
                                              ------------------------------------------------------------------
                                                                      Total         8      156        8      146
----------------------------------------------------------------------------------------------------------------
F-15E                                                                    AD         6      138        6      138
                                              ------------------------------------------------------------------
                                                                        ANG         0        0        0        0
                                              ------------------------------------------------------------------
                                                                       AFRC         0        0        0        0
                                              ------------------------------------------------------------------
                                                                      Total         6      138        6      138
----------------------------------------------------------------------------------------------------------------
F-22                                                                     AD         5      105        5      105
                                              ------------------------------------------------------------------
                                                                        ANG         1       18        1       18
                                              ------------------------------------------------------------------
                                                                       AFRC         0        0        0        0
                                              ------------------------------------------------------------------
                                                                      Total         6      123        6      123
----------------------------------------------------------------------------------------------------------------
F-35                                                                     AD         0       22        2       50
                                              ------------------------------------------------------------------
                                                                        ANG         0        0        0        0
                                              ------------------------------------------------------------------
                                                                       AFRC         0        0        0        0
                                              ------------------------------------------------------------------
                                                                      Total         0       22        2       50
                                              ------------------------------------------------------------------
Total                                                                    AD        31      688       31      678
                                              ------------------------------------------------------------------
                                                                        ANG        21      387       21      382
                                              ------------------------------------------------------------------
                                                                       AFRC         3       72        3       75
                                              ------------------------------------------------------------------
Overall                                                               Total        55    1,147       55    1,135
----------------------------------------------------------------------------------------------------------------

    Two Active Duty F-16 Squadrons transition to FTUS to help pilot 
production.
                       air force bomber aircraft
    12. Senator McCain. Secretary Wilson, can you detail the 
acquisitions activities you plan on executing in the B-21 Raider 
program's engineering and manufacturing development phase with the $2 
billion dollars you requested in the Fiscal Year 2018 President's 
Budget?
    Secretary Wilson. The Fiscal Year 2018 President's Budget will 
support the B-21 Engineering and Manufacturing Development phase as the 
program continues to proceed through detailed design work, software 
development, and other activities associated with this stage of 
aircraft development. Additional details can be provided to those 
appropriately cleared at a higher classification level.

    13. Senator McCain. General Goldfein, what is your required total 
aircraft inventory level for bomber aircraft for fiscal year 2028?
    General Goldfein. The Air Force currently has 158 bombers (76 B-
52s, 62 B-1, and 20 B-2). Based on current strategic guidance and the 
growing demand for long range strike airpower, the AF needs a minimum 
of 100 B-21 bombers, and a mix of legacy bombers, for a total inventory 
of 175 aircraft. General Rand from AF Global Strike Command is working 
to schedule a briefing with Senator McCain and Senator Reed on the need 
for 175 bombers, which is called the ``AF Bomber Vector''.
                                manpower
    14. Senator McCain. General Goldfein, how many pilots short is the 
Air Force today, and of those, how many are fighter pilots? What are 
the projected numbers at the end of fiscal year 2018?
    General Goldfein. At the end of fiscal year 2016, the Air Force had 
an overall Total Force pilot shortage of 1,555 pilots of which 1,211 
were fighter pilots. The projections (based on current dynamics) for 
the end of fiscal year 2018 indicates a Total Force pilot shortage of 
2,121 pilots of which 1,335 are fighter pilots.

    15. Senator McCain. General Goldfein, how many space operators is 
the Air Force short?
    General Goldfein. The question of how many space operators we are 
short is nuanced. Technically speaking, the number of space operators 
we have is higher than the number of space positions we currently have 
on the books. However, two important details must be considered when 
evaluating this. First, in the past 2-3 years the Air Force has over-
assessed space officers above the normal accession rate in order to 
replenish manning levels that were negatively affected by the Budget 
Control Act (BCA). The result is there are several hundred additional 
space personnel that have less than 3 years on Active Duty. 
Alternatively, BCA related manpower decisions are reflected in our more 
senior Field Grade Ranks (Majors and Lt Cols) where we are several 
hundred short and therefore understaffing our senior positions in the 
HQs, Combatant Commands, Joint Staff and Command and Control areas. 
Secondly, the space operations billet structure was designed before 
space became a contested environment and the work to reevaluate that 
structure has only recently begun in earnest. We are aggressively 
working to assess exactly how many more space operators are needed and 
in what kinds of units to effectively contest the space domain. In the 
very near future we will be in a better position to articulate the new 
space operator manpower requirement.
                               __________
               Questions Submitted by Senator Deb Fisher
                              lrso / gbsd
    16. Senator Fisher. Secretary Wilson and General Goldfein, is the 
Air Force committed to awarding the Technology Maturation and Risk 
Reduction (TMRR) contracts for both the Long Range Standoff missile 
(LSRO) and the Ground-Based Strategic Deterrent (GBSD) programs before 
the end of this fiscal year, and are you on track to do so?
    Secretary Wilson and General Goldfein. The Air Force is committed 
to awarding GBSD and LRSO TMRR contracts in the fourth quarter of 
fiscal year 2017. Both programs are on track to achieve this goal.
                          space force / corps
    17. Senator Fisher. General Goldfein, during the recent hearing in 
the Strategic Forces subcommittee on space policy, you commented on the 
idea of a separate space force or corps and suggested that 
administratively separating space could reduce operational integration. 
Can you elaborate on how such an action could negatively affect 
operations or create problematic stovepipes?
    General Goldfein. The Air Force's priority is to ensure the nation 
has the capabilities so urgently needed to prevail against the threat. 
As the fielding of counter-space capabilities accelerates, the United 
States cannot afford the significant resource and time disruptions a 
separate space force would create. A separate space service would incur 
significant expense for Service-specific administration and dilutes 
funding needed to pursue space superiority initiatives. As the 
enterprise matures, with the involvement of each of the other Services, 
DOD is laying the foundation for a well-defined space culture with a 
warfighter mindset for the contested domain.
                               __________
              Questions Submitted by Senator David Perdue
         joint surveillance target attack radar system (jstars)
    18. Senator Perdue. Secretary Wilson and General Goldfein, I was 
disappointed that in your written testimony, as you discussed 
procurement priorities, you failed to mention the recap for the JSTARS 
platform. Could you confirm to this committee that JSTARS still remains 
the number 4 acquisition priority for the Air Force?
    Secretary Wilson and General Goldfein. JSTARS Recap remains in the 
top tier of Air Force acquisition programs.

    19. Senator Perdue. Secretary Wilson and General Goldfein, what is 
being done to ensure there is not a JSTARS capability gap?
    Secretary Wilson and General Goldfein. To avoid a capability gap, 
the Air Force continues to make progress towards JSTARS Recap Initial 
Operational Capability in fiscal year 2024 or sooner. The Air Force 
will brief any potential options to the Congressional Defense 
Committees as directed in the Fiscal Year 2017 NDAA and Appropriations 
Act. In addition, the Air Force will continue to assess E-8C service 
life, operational availability, and sustainment costs in coordination 
with the JSTARS Recap fielding schedule to determine how and when to 
phase out the legacy fleet.

    20. Senator Perdue. Secretary Wilson and General Goldfein, is the 
Air Force currently pursuing a JSTARS recap on a faster timeline to 
ensure that there is not a capability gap? What type of resources would 
you need to do so?
    Secretary Wilson and General Goldfein. The Air Force established 
source selection criteria to emphasize meeting or beating a scheduled 
fiscal year 2024 IOC. Additionally, the program undertook a Radar Risk 
Reduction (RRR) effort to mitigate schedule and technical risk. If 
there are opportunities to accelerate after selecting the prime 
contractor and integrated solution, the Air Force will include this 
information as part of the brief/report to the Congressional Defense 
Committees as directed in the Fiscal Year 2017 NDAA and Appropriations 
Act.

    21. Senator Perdue. Secretary Wilson and General Goldfein, would 
you consider looking at an interim solution on a new frame?
    Secretary Wilson and General Goldfein. The Air Force considered a 
variety of options as part of the 2011 Analysis of Alternatives. 
However, recapitalizing the E-8C fleet on a commercial derivative 
aircraft with an enhanced radar, modern battle management command and 
control suite, and robust communications remains the best option. If a 
gap is unavoidable, the Air Force will consider all possible options to 
provide Combatant Commander's with some of the JSTARS unique 
capabilities until the fielding of JSTARS Recap.

    22. Senator Perdue. Secretary Wilson and General Goldfein, I'm 
concerned that keeping the legacy JSTARS fleet online for another 
decade will be costly, and increase aircraft time spent in depot 
maintenance. As we see the assessment from Boeing that the current 
fleet of JSTARS can be kept online longer, do the maintenance plans 
you've budgeted for ensure that there aren't lengthy depot backlogs to 
perform the overhauls needed to keep these planes flying longer than 
originally intended?
    Secretary Wilson and General Goldfein. The Air Force remains 
committed to improving E-8 depot maintenance outcomes. The Fiscal Year 
2018 Presidents Budget request allows the Air Force to continue 
implementing needed improvements for reduction of the duration and cost 
for programmed depot maintenance.

    23. Senator Perdue. Secretary Wilson and General Goldfein, given 
the backlogs that have persisted at the Lake Charles facility, have you 
given any thought to making the depot maintenance of the recapped fleet 
organic? What savings could be achieved by co-locating the flying 
mission and maintenance in the future?
    Secretary Wilson and General Goldfein. The Air Force will consider 
potential cost savings as part of our assessment during the Engineering 
and Manufacturing Development phase to determine the best operating and 
depot maintenance location(s).
                jstars and the coming acquision bow wave
    24. Senator Perdue. Secretary Wilson and General Goldfein, you 
mentioned in your written testimony that before 1991, the Air Force 
bought approximately 510 aircraft per year. But now, in the past 20 
years, we have averaged only 96 per year. After fifteen years of 
sustained combat operations, sequestration, and continued high 
operational tempo, the Air Force is the smallest, oldest, and busiest 
it has been since its inception. The JSTARS recap is really just one 
example of how we're keeping current fleets of aircraft on the job much 
longer than they were ever intended. So many of our platforms are 
coming to the end of their useful service life all at once. How you 
plan to deal with this oncoming bow wave of acquisition, and how you 
plan to balance this with readiness and ongoing maintenance issues?
    Secretary Wilson and General Goldfein. The Air Force continues to 
sequence new capabilities and current capacities to reduce or minimize 
the bow wave. In fiscal year 2018, and in accordance with the direction 
of the new administration, the Air Force focused investments on 
readiness and maintenance shortfalls at the expense of modernization 
programs. Without increased total obligation authority and the ability 
to manage force structure, to include divesting legacy systems, the Air 
Force will be challenged to effectively develop the future force 
America needs. Tough decisions will have to be made and that will 
induce risk in certain areas. The future Air Force needs Congressional 
support today that provides increased and consistent funding along with 
the authorities to manage the oncoming bow wave of acquisition programs 
to effectively balance readiness, force structure, and modernization.

    25. Senator Perdue. Secretary Wilson and General Goldfein, what is 
the Air Force doing to get our acquisition process moving in a faster, 
more efficient way? Are there additional authorities or flexibility you 
need to achieve better acquisition speed?
    Secretary Wilson and General Goldfein. The Air Force is pushing 
authorities to the lowest appropriate level, leveraging commercial and 
government best practices, and removing unnecessary reporting and 
reviews to continue to improve the efficiency of the acquisition 
process. Air Force acquisition regularly conducts process improvement 
activities to effectuate changes that enhance the cost and speed of 
acquisition.
    Reductions in statutory reporting and certification requirements 
that divert manpower, such as the acquisition scorecard 15 days 
following Milestone decisions and Secretary/CSAF certification of 
Selected Acquisition Report (SAR) reviews, would enable more efficient 
operations.
                            a-10 replacement
    26. Senator Perdue. General Goldfein, I understand that your budget 
request for fiscal year 2018 calls for keeping the A-10 in service for 
at least 5 more years and includes funding for A-10 modifications in 
coming years. General Goldfein, you said last year in an interview 
that, ``when we made the decision on retiring the A-10, we made those 
decisions prior to ISIS, we were not in Iraq, we were coming out of 
Afghanistan to a large extent, and we didn't have a resurgent Russia.'' 
Have the facts on the ground in the fight against ISIS changed the 
calculus of the Air Force in the retirement of the A-10?
    General Goldfein. Yes. The Air Force recently completed a year-long 
Combat Air Force Fighter Force Study focused on balancing capacity for 
today's fight while developing capabilities required to win against 
peer competitors. The results of the study include the necessity for 
173 A-10s to provide one training unit, six combat squadrons, and 
associated test assets for capacity for the foreseeable future.

    27. Senator Perdue. General Goldfein, what are your plans for the 
future of the A-10 fleet and ensuring we have the right platform to 
perform its vital close air support mission?
    General Goldfein. With the resources allocated in the Fiscal Year 
2018 President's Budget the entire fleet (283) is funded through fiscal 
year 2020. The F-35 & A-10 comparison is one component of the Initial 
Operational Test & Evaluation Block 3F scheduled for late fiscal year 
2019. No decision is final until we have the final IOT&E report.

    28. Senator Perdue. Secretary Wilson and General Goldfein, if money 
weren't an issue, and we were budgeting based on threat and need--would 
you keep the A-10?
    Secretary Wilson and General Goldfein. Based on forecasted threats, 
the A-10 and other 4th generation aircraft face mission effectiveness 
challenges in the contested and highly contested environments. The A-10 
is an early 1970's design that will be aged 56+ years by 2030 but still 
proves useful in the permissive environment but is becoming more 
expensive to operate. The Air Force will continue to face a capability 
gap in contested environment counter-land missions. The Air Force will 
need to keep some A-10s until a more appropriate capability can be 
delivered to mitigate contested environment counter-land capability 
gaps and additional aircraft are fielded to recapitalize our air-to-
ground capabilities.
                      current air force readiness
    29. Senator Perdue. General Goldfein, you stated in your written 
testimony that ``the Air Force is too small for the missions demanded 
of it, and it is unlikely that the need for air and space power will 
diminish significantly in the coming decade.'' How would you asses Air 
Force readiness today?
    General Goldfein. Today, we remain the finest Air Force in the 
world. We are a dominate force engaged across the world countering 
violent extremists, assuring allies and deterring foes. However, our 
relative advantage over potential adversaries is decreasing rapidly and 
in some cases it has closed. We must be prepared to win decisively, and 
that means we must ensure America's airmen are resourced and trained to 
fight alongside the Army, Navy, Marines, and Coast Guard--the joint 
military team--to meet national security obligations.
    Twenty-six years of continuous combat operations combined with 
turbulent budgets have eroded Air Force readiness to less than 50 
percent full-spectrum ready--predominantly due to insufficient manning. 
The USAF readiness recovery strategy focuses on disciplined, 
synchronized investment in readiness accounts in sequential order. The 
first priority is our longest-lead requirement: Active Duty end 
strength--up to 321,000 by the end of 2017--and eventually 350,000 over 
the next five to seven years. Next, investment in the training and 
sustainment enterprises, both of which require 3-5 years of lead time 
due to industrial and human processes. Finally, as global rotational 
demands permit, we will be ready to increase flying hour funding to 
facilitate more robust home-station training activities. In short, each 
readiness 'lever' must be engaged at the proper time and in 
coordination with the other levers.

    30. Senator Perdue. General Goldfein, how many of your squadrons 
are ready to conduct missions assigned to them?
    General Goldfein. Today, we remain the finest Air Force in the 
world. However, our relative advantage over potential adversaries is 
decreasing rapidly and in some cases it has closed. We must be prepared 
to win decisively, and that means we must ensure America's airmen are 
resourced and trained to fight alongside the Army, Navy, Marines, and 
Coast Guard--the joint military team--to meet national security 
obligations.
    Squadrons are the basic building block of combat air power. 
Currently less than 50 percent of Air Force Combat squadrons are full-
spectrum ready--predominantly due to insufficient manning. We consider 
80 percent full spectrum ready to be a historically achievable goal. 
Our readiness recovery strategy focuses on disciplined, synchronized 
investment in readiness accounts in sequential order. The first 
priority is our longest-lead requirement: Active Duty end strength--up 
to 321,000 by the end of 2017--and eventually 350,000 over the next 
five-seven years. Next, investment in the training and sustainment 
enterprises, both of which require 3-5 years of lead time due to 
industrial and human processes. Finally, as global rotational demands 
permit, we will be ready to increase flying hour funding to facilitate 
more robust home-station training activities. In short, each readiness 
'lever' must be engaged at the proper time and in coordination with the 
other levers.

    31. Senator Perdue. General Goldfein, when do you project the Air 
Force to achieve full spectrum readiness? What resources do you need to 
get there?
    General Goldfein. Given the time required to recruit and train 
airmen, the Air Force projects no substantial readiness improvement 
until fiscal year 2020 to 2021, when conditions are expected to be set 
for readiness recovery. ``Full-spectrum readiness'' means units are 
fully trained and equipped to fight and win against near-peer 
adversaries in contested environments with advanced warfighting skills. 
Unit readiness assessments are constantly monitored against the 
requirements of the National Military Strategy (NMS) for major force 
elements. The Air Force's goal will not likely be achieved by the end 
of the Future Years Defense Program (FYDP).
    The USAF readiness recovery strategy focuses on disciplined, 
synchronized investment in readiness accounts in sequential order. The 
first priority is our longest-lead requirement: Active Duty end 
strength--up to 321,000 by the end of 2017--and eventually 350,000 over 
the next five-seven years. Next, investment in the training and 
sustainment enterprises, both of which require 3-5 years of lead time 
due to industrial and human processes. Finally, as global rotational 
demands permit, we will be ready to increase flying hour funding to 
facilitate more robust home-station training activities. In short, each 
readiness 'lever' must be engaged at the proper time and in 
coordination with the other levers. The Fiscal Year 2017 NDAA and 
Fiscal Year 2018 President's s Budget begin to set the conditions for 
readiness recovery. With continued congressional support the Air Force 
will recover readiness.
                         f-15 retirement rumors
    32. Senator Perdue. Secretary Wilson, there have been reports that 
the Air Force is considering retiring the F-15C. The Air Force 
currently has a significant fighter capacity problem; retiring any 
fleet of fighters in the next decade would only exacerbate the capacity 
issue. America already has the smallest Air Force in history with only 
303 combat coded air superiority fighters (F-15C and F-22). If the Air 
Force retires the F-15C fleet in 2025, only 123 of these unique 
fighters (F-22s) would remain. How would their retirement contribute to 
alleviating the Air Force's fighter inventory shortfall?
    Secretary Wilson. Air-to-air success hinges on 5th generation, or 
better, capabilities in the future air superiority fight. By the late 
2020s the F-15C has significant survivability issues within a near-peer 
conflict with or without defensive modifications. The AF is leveraging 
the F-35's low-observable characteristics in air-to-air and Suppression 
of Enemy Air Defenses missions. Therefore, we are considering the value 
of recapitalizing F-15Cs with F-35s to ensure sufficient survivability 
within the Counter-Air mission. Budget constraints and limits on how 
quickly AF manpower can grow dictate that the AF will struggle to grow 
much beyond 55 fighter squadrons in the near-term. The more survivable 
F-35 is being procured at a rate of 2.5 squadrons per year. That 
recapitalization should focus on replacing our highest cost, single 
mission, 4th generation fighter where future, mission specific, threats 
drive the need for enhanced survivability.

    33. Senator Perdue. Secretary Wilson, why would the Air Force be 
considering the retirement of the F-15C?
    Secretary Wilson. Air-to-air success hinges on 5th generation, or 
better, capabilities in the future air superiority fight. Paired with 
the total cost of the fleet, and desired upgrades, the F-15C is less 
affordable than other options as the AF increases the ratio of 5th 
generation fighters and sustains a minimum of 55 combat squadrons. 
Additionally, the F-15C is nearing the end of its economic service life 
and the Service Life Extension Programs being considered offer limited 
return compared to the total cost of ownership. According to estimates, 
it is more affordable for the AF to maintain and upgrade F-16s to 
accomplish missions within future uncontested environments than it is 
to attempt to maintain an F-15C fleet for that need. The more 
survivable F-35 is being procured at a rate of 2.5 squadrons per year. 
That recapitalization should focus on our highest cost, single mission, 
4th generation fighter where future mission specific threats drive the 
need for enhanced survivability.
                            audit readiness
    34. Senator Perdue. Secretary Wilson, the Department of Defense and 
all the Armed Services continue to fail in their ability to achieve a 
clean financial audit. What actions have you taken to ensure the Air 
Force can achieve a clean audit opinion by the end of fiscal year 2017, 
as is required by law?
    Secretary Wilson. The Air Force is required to be ready to undergo 
an audit by an Independent Public Accounting Firm by the end of fiscal 
year 2017. The Air Force will be ready by that date and will undergo 
its first full financial statement audit in fiscal year 2018. We do not 
expect an unmodified (``clean'') opinion immediately, however, I am 
committed to addressing the findings raised by our auditors, and to 
strengthening our accounting systems environment. Consistent with other 
federal agencies who have adopted this strategy, this will best 
position us for an unmodified opinion in the future.

    35. Senator Perdue. Secretary Wilson, will you have a clean audit 
opinion for the Air Force by the end of this fiscal year? If not, why?
    Secretary Wilson. The Air Force is committed to achieving full 
financial statement audit readiness by the end of fiscal year 2017 and 
is on track to assert audit readiness in accordance with NDAA 
requirements. We do not expect to achieve an unmodified (``clean'') 
audit opinion in this audit. The audit will identify issues we will 
need to address and remediation of audit findings will become standard 
practice. Our primary barrier to an immediate unmodified opinion is the 
nature of our systems environment that didn't adequately address audit 
requirements. However, we have made significant progress in improving 
the auditability of our budgetary accounts and the reconciliation of 
our Funds Balance with Treasury. To sustain this progress, the Air 
Force is implementing its Information Technology modernization roadmap 
to sunset legacy systems, to fully automate our business processes, and 
to strengthen our internal controls. These continued actions, combined 
with responsiveness to our audit findings, will continuously improve 
financial management.
                               __________
             Questions Submitted by Senator Luther Strange
                            air guard issues
    36. Senator Strange. Secretary Wilson and General Goldfein, I know 
you are aware that Montgomery, Alabama's Dannelly Field, home of the 
Alabama Air National Guard 187th Fighter Wing, is one of five 
installations around the country under consideration by the Air Force 
for operational bases for new F-35A aircraft. I enjoyed the opportunity 
to discuss this issue with you recently and, as you know, I feel 
strongly that Dannelly Field is your absolute best choice for home 
basing these new fighter aircraft.
    That being said, my colleagues in the Senate from each of the five 
states in consideration sent a letter to the Air Force Chief of Staff 
and Acting Secretary of the Air Force just a few months back citing our 
unified support for the Air Force's Strategic Basing Process that has 
been used to determine which installations should receive the F-35. We 
commended the Air Force for the creation of this objective and 
transparent process, as a repeatable, dependable and public strategic 
basing process that is fair to all participating locations. Do you 
support the existing Air Force's strategic basing process and do you 
anticipate any changes to that process moving forward?
    Secretary Wilson and General Goldfein. Both General Goldfein and I 
support the Air Force strategic basing process and will maintain its 
core principles of transparency, repeatability, and mission driven 
selection. Additionally, we will continue to review the process to 
ensure we remain aligned to meet the warfighting demands of the Air 
Force as we make future basing decisions.

    37. Senator Strange. Secretary Wilson and General Goldfein, will 
you hold to the Air Force's current timeline of late summer to early 
fall to identify and announce its next two bases for the F-35?
    Secretary Wilson and General Goldfein. The last site survey is 
scheduled for the end of July 2017 and we are on target to announce the 
Preferred and Reasonable Alternatives decision late this summer, 
culminating in a final basing decision summer 2019 after the completion 
of the environmental assessment process.
    On November 15, 2016 the Air Force announced the five candidate 
locations for the next two operational F-35 locations which included: 
Truax Air Guard Station, Wisconsin; Gowen Field Air Guard Station, 
Idaho; Jacksonville Air Guard Station, Florida; Dannelly Field Air 
Guard Station, Alabama; and Selfridge Air National Guard Base, 
Michigan.
                            readiness issues
    38. Senator Strange. Secretary Wilson and General Goldfein, our 
military has suffered from severe neglect and the stresses of war for 
the past 8 years. This first budget request of the Trump administration 
is a good start to turning that around, but more needs to be done 
rapidly as our fighting forces are in critical need of digging out of a 
readiness hole. I understand that many issues are demanding your 
attention. Can you speak specifically to how you plan to balance the 
management of Air Force end strength with the need for procurement and 
R&D?
    Secretary Wilson and General Goldfein. Given the current topline, 
our fiscal year 2018 budget balances capability, capacity and 
readiness. That includes balancing end strength with the need for 
procurement and R&D. Although the Air Force could use more topline as 
expressed in our unfunded requirements list, we are driving forward 
with the necessary balance. Permanent relief from the Budget Control 
Act will begin to improve readiness. Although we cannot instantly 
remove the stress on the force resulting from the last 26 years of 
continual conflict, our fiscal year 2018 budget begins to undo the 
damage.

    39. Senator Strange. Secretary Wilson and General Goldfein, what is 
the current level of combat air forces readiness for full spectrum 
operations? What do you consider adequate readiness levels and when do 
you expect readiness levels achieve that mark?
    Secretary Wilson and General Goldfein. Currently the Air Force is 
less than 50 percent full spectrum ready predominantly due to 
insufficient manning. We consider 80 percent full spectrum ready to be 
a historically achievable goal. The readiness recovery strategy focuses 
on disciplined, synchronized investment in readiness accounts in 
sequential order. The first priority is our longest-lead requirement: 
Active Duty end strength--up to 321,000 by the end of 2017. Next, 
investment in the training and sustainment enterprises, both of which 
require 3-5 years of lead time due to industrial and human processes. 
Finally, as global rotational demands permit, we will be ready to 
increase flying hour funding to facilitate more robust home-station 
training activities. In short, each readiness 'lever' must be engaged 
at the proper time and in coordination with the other levers.

    40. Senator Strange. Secretary Wilson and General Goldfein, if the 
current operational tempo were to increase, what would be the effect on 
readiness?
    Secretary Wilson and General Goldfein. If operational temp 
increases, a further reduction in full-spectrum readiness will occur. 
High operational tempo substantially reduces the opportunity for units 
to train for their full mission set. The Air Force needs both time and 
resources to rebuild readiness. Currently, time available to train 
(generate readiness) is severely limited by ongoing rotational 
deployments. In short, after years of force reductions, we have a 
supply-demand mismatch. Two possible solutions exist: reduce the 
number/length of deployments to sustainable levels or increase the Air 
Force capacity to meet rotational demand to permit readiness growth.

    41. Senator Strange. Secretary Wilson and General Goldfein, what 
about AF readiness when it comes to the nuclear enterprise and 
operating in a contested space environment? Should we have concerns 
there?
    Secretary Wilson and General Goldfein. Air Force space-based 
capabilities are key enablers for the Nation's nuclear deterrent, 
providing missile warning and supporting nuclear command, control, and 
communications. The nuclear enterprise remains ready to meet combatant 
commander requirements in all environments through a combination of 
ground, airborne, and space-based capabilities.

    42. Senator Strange. Secretary Wilson and General Goldfein, please 
list your priorities among personnel end strength, procurement and 
research and development.
    Secretary Wilson and General Goldfein. The fiscal year 2018 budget 
balances capability, capacity and readiness priorities between end 
strength, procurement, and research and development in an effort to 
undo the damage of the Budget Control Act (BCA) and sequestration. 
These priorities include increasing end strength to 325,100 Active Duty 
airmen, and 669,600 Total Force airmen, continuing to fund and support 
our top three acquisition priorities, F-35, KC-46, and B-21, as well as 
continuing to invest in our key mission areas including nuclear, space, 
cyber, ISR, and legacy fighter capability.

    43. Senator Strange. Secretary Wilson and General Goldfein, how do 
you plan to overcome the deferred maintenance backlog that the Air 
Force has accumulated over the last few years?
    Secretary Wilson and General Goldfein. The Air Force will seek to 
minimize near-term risks to readiness by making tradeoffs within weapon 
system sustainment to minimize the impact to those readiness 
requirements. As was the case in previous fiscal years, the Air Force 
will make adjustments throughout the year to optimize funding to ensure 
availability of aircraft to meet mission requirements.

    44. Senator Strange. Secretary Wilson and General Goldfein, in 
broad terms, what do you think the Air Force should look like in 25 
years?
    Secretary Wilson and General Goldfein. Air and space superiority 
will continue to be paramount to national security. We must enable 
airmen to plan and direct forces for high velocity, operationally agile 
operations at a tempo no adversary can match. We must build the 
capacity for simultaneous operations, and recruit the right talent to 
operate in increasingly complex and contested environments. Enterprise 
efforts such as Air Superiority 2030 and Multi-domain Command and 
Control (MDC2) are in motion to test concepts. We are currently 
conducting Data-to-Decision experimentation to enhance how we leverage 
data to increase lethality. We are also learning from the efforts at 
the Consolidated Mission Control Center where they are pushing the 
envelope on common data standards, info sharing, and modern networks. 
The Space Enterprise Vision lays out a roadmap of future systems and 
capabilities that will provide a space force resilient to attack. From 
these initiatives we are driving new ways of acquiring our command and 
control systems so that leading edge technology is always in the hands 
of our command and control airmen. Robust networks will give the Joint 
Force the ability to sense the globe through the six domains of air, 
space, cyberspace, land, sea, and undersea, and merge data into 
decision-quality information for commanders. If the Air Force can 
achieve a networked military capability that reflects a common 
operating picture for the decision maker, we will reach decision speed 
our adversaries cannot match and produce effects the enemy will have 
difficulty countering.
                           space/lift issues
    45. Senator Strange. Secretary Wilson and General Goldfein, the Air 
Force should be commended for fostering competition in the EELV 
program. Given that legacy launch providers operate under different FAR 
requirements, please explain how the Air Force is awarding launches on 
criteria other than Price?
    Secretary Wilson and General Goldfein. For EELV launch service 
competitions, all launch providers are proposing to the same FAR 
requirements under each Request for Proposal (RFP). In addition, the 
source selection evaluation criteria for each EELV launch service 
competition is based on specific mission requirements that take into 
account a wide array of mission unique factors. For EELV launch service 
competitions, the evaluation criteria has included a number of 
evaluation factors in addition to price. Those factors include 
technical performance (mass-to-orbit, orbital accuracy, launch CONOPS, 
etc.), schedule (integrated schedule and work closure plans), and past 
performance.

    46. Senator Strange. Secretary Wilson and General Goldfein, if all 
providers are certified, is there weighted criteria being used to award 
launches and could you explain the weighted criteria (such as, 
reliability, schedule certainty and past performance)?
    Secretary Wilson and General Goldfein. Yes, the Air Force plan for 
future launch service competitions is to use a combination of source 
selection techniques from across the best value continuum that are 
tailored for each mission. The relative importance of the factors vary 
based on each mission's unique requirements. For EELV launch service 
competitions, the evaluation criteria has included a number of 
evaluation factors in addition to price. Those factors include 
technical performance (mass-to-orbit, orbital accuracy, launch CONOPS, 
etc.), schedule (integrated schedule and work closure plans), and past 
performance.

    47. Senator Strange. Secretary Wilson and General Goldfein, there 
was an agreement reached in the EELV program law suit between the Air 
Force, Department of Justice and EELV new entrant Space X. The 
agreement appears to dictate the terms of a defense procurement, 
thereby favoring one competitor. Have you been read into that 
agreement? Could you please explain to the committee why Congress has 
been blocked from understanding the terms of this secret agreement?
    Secretary Wilson and General Goldfein. I have reviewed the 
acquisition strategy for upcoming EELV launch competitions and am 
confident that the terms of the EELV procurements will be fair and 
reasonable and will not provide an unfair competitive advantage to 
either certified provider. With respect to the mediation agreement that 
settled SpaceX's 2014 bid protest, that agreement is subject to a Court 
of Federal Claims nondisclosure order. The Air Force does not have the 
authority to release the mediation agreement to anyone not admitted to 
that order.
                           space/lift issues:
    48. Senator Strange. Secretary Wilson and General Goldfein, it is 
important that we assess what authorizations are required for critical 
AF programs. It is the committee's understanding that the cost to 
develop a new rocket engine is somewhere between 1.5 and 2 billion 
dollars. Can you briefly outline the levels of private and U.S. 
Government investment in the two newest rocket engines being developed 
to replace the Russian RD-180 engine currently in use?
    Secretary Wilson and General Goldfein. The Air Force currently has 
four other transaction authority (OTA) agreements with industry for 
rocket propulsion systems, all of which require shared cost investment 
between the government and industry. These investments initiate the 
transition from the RD-180 by investing in critical Rocket Propulsion 
System technologies.
    The OTA with SpaceX is for the development of the Raptor rocket 
propulsion system prototype. The total potential investment, including 
all options, is $184.2 million. The total potential Government 
investment, including all options, is $61 million. The total potential 
investment by SpaceX, including all options, is $122.8 million.
    The OTA with Orbital ATK is for the development of prototypes of 
the GEM 63XL strap-on solid rocket motor, the Common Booster Segment 
(CBS) solid rocket motor, and an Extendable Nozzle for Blue Origin's 
BE-3U upper stage engine, all intended for use on an Orbital ATK next 
generation launch vehicle. The total potential investment, including 
all options, is $305.1 million. The total potential Government 
investment, including all options, is $180.2 million. The total 
potential investment by Orbital ATK, including all options, is $124.8 
million.
    The OTA with ULA is for the development of the Vulcan BE-4 and 
Advanced Cryogenic Evolved Stage (ACES) rocket propulsion system 
prototypes. The total potential investment, including all options, is 
$335.9 million. The total potential government investment, including 
all options, is $201.7 million. The total potential investment by ULA, 
including all options, is $134.2 million.
    The OTA with Aerojet Rocketdyne is for the development of the AR1 
rocket propulsion system prototype. The total potential investment, 
including all options, is $804,044,478. The total potential Government 
investment, including all options, is $536,029,652. The total potential 
investment by Aerojet Rocketdyne, including all options, is 
$268,014,826.
    These Rocket Propulsion Systems were proposed by industry for 
commercial launch systems that can be enhanced to meet more stressing 
National Security Space requirements. The Air Force intends to release 
a Request for Proposal (RFP) later this summer for Launch Service 
Agreements to complete the development of the replacement launch 
systems continuing the shared industry/government investment approach.
                               __________
               Questions Submitted by Senator Bill Nelson
                encroachment on test and training ranges
    49. Senator Nelson. Secretary Wilson and General Goldfein, 
encroachment of activities incompatible with military test and training 
operations on our bases and ranges remains a major problem. In 2006 
Congress established the Military Mission Line, prohibiting oil and gas 
activities, and any activities conducted in preparation for oil and gas 
activities, in the Eastern Gulf in order to protect the test and 
training range there. The Department of Defense has said that the 
``vital importance of maintaining this moratorium cannot be 
overstated.'' Secretary Wilson and General Goldfein, how important is 
it to the Air Force's test mission as well as training and readiness to 
continue to protect the Eastern Gulf Test and Training Range from this 
kind of encroachment?
    Secretary Wilson and General Goldfein. Preserving the Military 
Mission Line from encroachment of oil and gas exploration and drilling 
is critical to the current and future combat success of the joint 
warfighter. The Eastern Gulf Test and Training Range supports force 
readiness with supersonic air combat training for frontline fighters 
like the F-22 and the F-35, live-fire air-to-air and air-to-surface 
training, air-to-air missile testing, electronic warfare, drone 
targeting, and Naval sub-surface, air-to-surface and surface-to-surface 
testing, including mine and counter-mine operations.
    Safety footprints of our current weapons systems are growing with 
faster launch speeds and higher launch altitudes. Future systems with 
hypersonic speeds will increase the size of the safety footprint. Large 
cleared footprints are required to ensure debris, some extremely large, 
falls safely into the eastern Gulf of Mexico--without any underlying 
oil or gas operations. Logistics support of the oil and gas 
infrastructure will require additional maritime and air traffic, as 
well as, the potential for spectrum encroachment placing an undue 
burden on military operations. Additionally, foreign national 
involvement in energy related activities creates an opportunity for 
international, covert monitoring and/or disruption of essential 
military testing and training.
    Encroachment of the Eastern Gulf Test and Training Ranges for oil 
and gas exploration and drilling will interfere with the following test 
and training capabilities:

    <bullet>  AIM-120 and AIM-9 testing for F-15, F-16, F-22 and F-35
    <bullet>  Patriot Live-Fire training
    <bullet>  Airborne mine detection and neutralization test and 
training from helicopter towed systems
    <bullet>  Tomahawk cruise missile test and training
    <bullet>  Training for Air Force, Navy and Army aircraft to include 
the release of chaff and flares
    <bullet>  Naval Air Station Pensacola student pilot training
    <bullet>  Combined F-35 pilot training
    <bullet>  F-16 Follow-On Test and Evaluation
    <bullet>  F-15E Flight Test

    Additionally, such encroachment will curtail system development and 
testing of the following warfighter required future capabilities:

    <bullet>  Joint Air-to-Surface Standoff Missile--Extended Range
    <bullet>  Long Range Standoff Weapon
    <bullet>  Long Range Anti-Ship Missile
    <bullet>  Patriot Testing
    <bullet>  Railgun Testing
    <bullet>  Hypersonic weapons testing
                  major range and test facility bases
    50. Senator Nelson. Secretary Wilson and General Goldfein, last 
year's National Defense Authorization Act (NDAA) expressed my concern 
and the concern of this committee that our Major Range and Test 
Facility Bases are unable to maintain pace technologically with our 
advanced fifth and sixth generation weapons delivery systems and new 
hypersonic systems. Secretary Wilson and General Goldfein, how do you 
see high fidelity simulation upgrades at these ranges factoring into 
effective testing of our newest weapons delivery systems and munitions?
    Secretary Wilson and General Goldfein. The Air Force benefits from 
both open air testing and simulation data to inform the development and 
fielding decisions necessary to equip our force with advanced weapon 
systems. In the fiscal year 2017 President's Budget, the Air Force, in 
conjunction with the Office of the Secretary of Defense, allocated 
approximately $700 million to new and ongoing critical investments over 
the Future Years Defense Program in facilities and capabilities within 
the Air Force Major Range and Test Facility Base. These investments 
directly address effective testing of 5th generation and beyond 
aircraft and weapon systems. Current and planned investments include 
the following:

    <bullet>  Guided Weapons Effects Facility
      o Fourth test lane expansion provides a 33 percent increase in 
test capacity for Infrared Countermeasures hardware-in-the-loop testing 
necessary for determining performance of IR aircraft self-protection 
systems.

    <bullet>  Gulf Test Range Upgrades
      o  Gulf Range Test Expansion Package #2 doubles the width of 
Eglin instrumented water range (from 100 to 200 miles) necessary to 
evaluate large footprint air-to-air engagements.
      o  Next Generation Munitions Test Environment continues upgrading 
gun and munitions test infrastructure, developed and procured common 
data instrumentation and acquisition systems, and replaced 
environmental test chambers/facilities supporting gun and arena test 
capabilities.

    <bullet>  Benefield Anechoic Chamber
      o  Advanced Warfare Test and Evaluation Capability continues 
development, procurement, and integration of state-of-the-art 
simulators and threat signal generation capabilities.
      o  Next-generation Electronic Warfare Environment Generator 
system allows the Services to replicate high-density, modern threat 
signals in controlled environments in both laboratories and open-air 
ranges, including Eglin AFB.

    <bullet>  Hypersonics Test Infrastructure Projects
      o  Significant investment to develop and demonstrate a facility 
that closes the critical test and evaluation gaps by providing a clean 
air, variable speed up to Mach 7+ test facility with long runtime 
enabling the development and acquisition of future hypersonic systems 
and vehicle propulsion systems.
      o  Upgrades the existing Arnold Engineering Development Center 
arc heater test facility to provide a materials testing environment for 
the glide/cruise and pullout phases of hypersonic systems in the mid-
pressure range up to approximately Mach 18.
      o  Develops airborne data collection system to support hypersonic 
testing.

    Going forward the Air Force continues to pursue high fidelity 
simulation upgrades to supplement open air testing, provide high-end 
threat replication, and to provide best value to the taxpayer with 
additional government owned organic capabilities.
    To effectively test newly developed long-range and/or hypersonic 
weapons, delivery systems, and munitions in an A2AD environment, along 
with our ability to defend against near-peer competitors with similar 
offensive capabilities, it is essential that Major Range and Test 
Facilities properly simulate likely wartime scenarios. This requires 
test ranges and airspace clearances sufficient to accommodate vast 
distances and hypersonic speeds of advanced weapons. Additionally, 
recapitalization is necessary to ensure that ranges and test facilities 
have emitters, sensors, and networks that can provide high fidelity 
simulations of various A2AD environments. Without modernization of 
Major Ranges and Test Facilities, our nation cannot be sure that 
taxpayer investment in capabilities development and weapon program 
requirements will yield systems that can effectively attack or defend 
against advanced near-peer threat capabilities.'' The Air Force 
benefits from both open air testing and simulation data to inform the 
development and fielding decisions necessary to equip our force with 
advanced weapon systems.
                       space range infrastructure
    51. Senator Nelson. Secretary Wilson and General Goldfein, in 2017 
the Eastern Range in the Atlantic expects to support 35 space launches, 
with that number growing to 48 launches annually in the next few years. 
This represents tremendous growth from previous years, which saw 7 to 
18 launches annually. Not only is launch tempo increasing, the number 
of launch vehicles is growing, fulfilling the national objective of a 
competitive domestic launch industry. Much of the Air Force's range 
infrastructure on both the Eastern and Western Range is decades old. 
Secretary Wilson and General Goldfein, with assured access to space 
becoming increasingly important, what is the Air Force doing to keep 
pace with the growing need to replace and modernize space-based systems 
in terms of space launch infrastructure?
    Secretary Wilson and General Goldfein. The Air Force is continuing 
to incrementally modernize range infrastructure, safety systems, and 
tracking systems while investing in new scheduling and planning tools. 
These efforts have ensured a very high rate of Range system 
availability and performance to meet launch customer needs in the near 
term. The Eastern and Western Ranges are essential contributors to 
meeting our nation's space superiority needs and the Air Force is 
refining a long-term strategy to support the Space Warfighting 
Construct.
                      the space domain in conflict
    52. Senator Nelson. Secretary Wilson and General Goldfein, space is 
no longer a neutral domain. Secretary Wilson and General Goldfein, are 
we currently postured to be able to utilize our space-based 
capabilities in the event we are engaged in a conflict with an 
adversary capable of targeting or denying the use of these systems?
    Secretary Wilson and General Goldfein. In addition to important 
changes being implemented in the Space Mission Force (SMF) and Space 
Enterprise Vision (SEV), the Air Force is in the process of standing up 
a new Deputy Chief of Staff for Space Operations (AF/A11) and a 
supporting staff. This new organization will provide a new focus by 
providing a dedicated Lieutenant General-led organization to 
concentrate on the formulation, coordination, dissemination, 
implementation and execution of Air Force space strategy, plans, 
policy, guidance, requirements, integration and synchronization 
required to strengthen the advocacy for and stewardship of Air Force 
missions and capabilities. While these are important organizational 
steps, the overall United States space enterprise today is not 
currently resilient enough to survive a conflict extending into space. 
Our potential adversary's capabilities are continually evolving and we 
must continue to invest in the technologies and personnel necessary to 
maintain our space superiority in this increasingly contested domain. 
The Fiscal Year 2018 President's Budget addresses that reality, but 
more future investment is required in the face of advanced, 
demonstrated, and evolving threats.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                            huey replacement
    53. Senator Blumenthal. Secretary Wilson and General Goldfein, the 
Air Force's unfunded request list includes a request for yet another 
mitigation effort for the current Huey fleet--$8.5 million for a 
special mission aviator crashworthy seat. I'm concerned that we are 
forced to continue funneling funding into the ailing fleet of Hueys 
while the Air Force is delaying the procurement of new helicopters. 
What efforts are you taking to expedite the acquisition process? How is 
this year's budget working to achieve this?
    Secretary Wilson and General Goldfein. The Air Force is committed 
to a full and open competition to procure up to 84 UH-1N replacement 
helicopters as soon as possible. The Fiscal Year 2018 President's 
Budget fully supports this by requesting $108.6 million for the UH-1N 
replacement program. Until the UH-1N Replacement is fielded in the 
fiscal year 2020/2021 timeframe, we must continue to address safety 
concerns of the current fleet. The fiscal year 2018 unfunded priority 
list requirement for crashworthy seats addresses the risk of serious 
injury or death in the event of a flight accident.
                                  f-35
    54. Senator Blumenthal. Secretary Wilson and General Goldfein, your 
testimony states that the F-35A is the Air Force's top modernization 
program. How many F-35s would you ideally procure to meet our defense 
needs?
    Secretary Wilson and General Goldfein. A stable F-35A buy rate of 
60 per year will give time for effective and efficient procurement, 
basing decisions and the requisite growth in manpower that operates and 
maintains those aircraft. The program of record is 1,763 and that has 
not changed. But total numbers is not as important right now as our 
rate of procurement. We are working toward 60 per year, but 80 per year 
would be better.

    55. Senator Blumenthal. Secretary Wilson and General Goldfein, the 
Future Years Defense Program (FYDP) shows another delay for the 60 F-
35As per year procurement plan. Two years ago it was to begin in fiscal 
year 2018, last year it was pushed to fiscal year 2021, and now it has 
been delayed to an undetermined date beyond FYDP projections. How are 
we going to get to 60 F-35As per year when you continue delaying 
production increases?
    Secretary Wilson and General Goldfein. The Air Force is comfortable 
with the current glide slope to attain 60 F-35s per year (80 per year 
would certainly be better) in the out years. Investment at this rate 
provides a balanced future fighter force mix that recapitalizes the 
right 4th generation forces before Economic Service Life drives 
inefficient investment decisions. Any further delay to reaching the 60 
aircraft per year goal will put additional stress on the readiness and 
capability of our existing 4th and 5th gen aircraft and their 
personnel. A delay would also impact our ability to deliver sufficient 
capacity and capability to meet national strategic objectives.

    56. Senator Blumenthal. Secretary Wilson and General Goldfein, I am 
concerned that if we delay procurement, it will negatively impact cost 
and affordability--for us and our allies invested in the program. Are 
you concerned about the adjustments made to the long-term planned 
procurement pace for the F-35?
    Secretary Wilson and General Goldfein. The Air Force is pursuing a 
buy rate of 60 aircraft per year as quickly as possible. However, for 
industry and the service to reach this number, we need sufficient 
funding and a supply chain that can meet the demand. We are working 
aggressively with our industry partners to ensure we drive unit price 
as low as possible while demonstrating required supply chain capacity, 
resulting in an affordable and sustainable production profile. 
Investment at this rate will provide a balanced future fighter force 
mix with sufficient capacity and capability to meet national strategic 
objectives.
                             pilot shortage
    57. Senator Blumenthal. Secretary Wilson and General Goldfein, as 
discussed in the hearing, the shortage of pilots is not just a problem 
for the United States, but also our allies. Please provide a 
comprehensive list of allies that are experiencing this same challenge, 
to what degree they are short pilots, and what they are doing to 
address and mitigate risk. What can we learn from our allies' efforts 
to address our own pilot shortage?
    Secretary Wilson and General Goldfein. The U.S. Air Force does not 
track readiness statistics with regard to other nations pilot readiness 
issues. Some Foreign Military Sales programs with partners are 
experiencing delays in training, such as the F-16, due to a limited 
number of USAF pilots available to support ally and partner training. 
USAF's other aviation sales with partners are being supported. In 
previous discussions with other Air Chiefs, we understand they are also 
facing budget issues, which has an impact to their aviation readiness. 
We are working with partners to improve integration of flight 
activities with coalition partners where mutually advantageous in 
support of national security strategies.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                   niagara falls air reserve station
    58. Senator Gillibrand. Secretary Wilson and General Goldfein, I 
was so pleased that the 914th at Niagara Falls Air Reserve Station was 
chosen to convert to a KC-135 mission. I was there last year and was 
pleased with the progress. The one thing we need now is a KC-135 flight 
simulator, to serve both the 914th and other units. We currently have 
an empty building on the base, built to hold a C-130 simulator, making 
the basing of one that much easier for the Air Force. I have mentioned 
this to Air Force leadership before to express my belief that 
addressing this shortcoming will improve overall readiness for the Air 
Force and Air Reserves. Can you give me an update on any decisions 
about basing KC-135 simulators?
    Secretary Wilson and General Goldfein. The Air Force tanker 
enterprise is critical to our national security and the readiness of 
our Total Force tanker fleet is a high priority for the Air Force. The 
composition of our tanker force is changing as we anticipate deliveries 
of the KC-46A Pegasus in the coming years, but the KC-135 will remain 
the predominant element of the fleet for years to come.
    As we plan for fielding of the KC-46, we are taking action to 
reposition KC-135s and their associated training devices and support 
equipment. The conversion of Niagara Falls from the C-130 to the KC-135 
is one example.
    As additional KC-135 units convert to the KC-46, we anticipate 
there could potentially be additional aircrew training devices that may 
be available for relocation to remaining KC-135 units. If and when 
these future training device decisions are made, our focus will remain 
on maximizing support to warfighter operational requirements while 
balancing KC-135 crew force training requirements.
                            lc-130 skibirds
    59. Senator Gillibrand. Secretary Wilson and General Goldfein, the 
Arctic is becoming more and more important to our national security 
policy. New York is home to the only ski-equipped C-130s in the world. 
These four LC-130 ``skibirds'' perform vital missions on behalf of the 
National Science Foundation in Antarctica, as well as training in 
Greenland. They have also been part of joint training missions with 
Canada. However, these planes are aging, and are in need of 
modernization in order to continue their amazing work. To my 
understanding, there have been discussions as to whether the United 
States Air Force will take over responsibility for the four planes 
currently owned by the National Science Foundation. Can you please 
provide an update on these discussions concerning our LC-130s and 
whether the Air Force's proposed fiscal year 2018 budget reflects 
changes to ownership of the planes?
    Secretary Wilson and General Goldfein. The 109 AW in Schenectady, 
NY, has a total of 10 LC-130H aircraft; six are ANG-owned and four are 
National Science Foundation (NSF)-owned. Overall, there has been 
productive engagement with the NSF but a final decision regarding the 
transfer of the four NSF-owned LC-130Hs to the ANG has not been 
reached. Back in February, the Secretary of the Air Force Office of 
Manpower and Reserve Affairs (SAF/MR) received a formal request from 
the NSF to provide an estimate of the cost to transfer four NSF LC-130 
aircraft to the ANG. The ANG provided a coordinated response back to 
SAF/MR and they had a follow-on meeting with the NSF in April to 
discuss the costing details. Based on those discussions, the NSF 
indicated that they needed more time to conduct research and determine 
a way forward. To-date, the NSF has not submitted any additional 
requests for information regarding the transfer of its four LC-130 
aircraft to the ANG. Since a transfer decision is still pending, it is 
not included in the Fiscal Year 2018 President's Budget.
                               __________
              Questions Submitted by Senator Joe Donnelly
           nuclear modernization and trusted microelectronics
    60. Senator Donnelly. General Goldfein, you have stated in the past 
that the Air Force will pursue commonality and collaboration on nuclear 
modernization when and where it makes sense. An area that makes sense 
to maximize collaboration between the Air Force and Navy are the unique 
radiation-hardened microelectronics required for elements of our 
nuclear deterrent. Beyond microelectronics, what other areas do you 
view as smart candidates for expanded collaboration across the 
services?
    General Goldfein. The joint Air Force-Navy commonality assessment 
completed in March 2016 identified 47 components as commonality 
candidates between the Ground Based Strategic Deterrent (GBSD) and 
Trident D5 programs. Four specific commonality areas were prescribed in 
the request for proposal package for the GBSD technology maturation and 
risk reduction phase. Specifically, 1) guidance subsystem architecture; 
2) model-based systems engineering; 3) common electronic parts program; 
and 4) common test telemetry and termination systems.

    61. Senator Donnelly. General Goldfein, I am concerned about the 
long-term viability of our nation's fragile nuclear industrial base and 
our ability to buy trusted strategic parts in the future. How are the 
Air Force and Navy nuclear programs coordinating on acquisitions in 
order to synchronize future needs and sustain the industrial base?
    General Goldfein. The Air Force's ICBM demonstration and validation 
(Dem/Val) program ensures the infrastructure is in place to address 
both planned future efforts and emerging issues. The Navy, along with a 
significant number of our industry partners, is a participant in the 
Dem/Val program. Current Dem/Val efforts support legacy and future 
strategic system programs.
                               __________
              Questions Submitted by Senator Mazie Hirono
                           space capabilities
    62. Senator Hirono. Secretary Wilson and General Goldfein, it is 
often said that the best defense is a good offense. Following this 
rhetoric, the U.S. would we be required to dismantle space capabilities 
of foreign actors in order to defend from attacks. Are we currently 
positioned to be able to continue to operate and utilize our space-
based capabilities in the event we are engaged in a war that extends 
into space? If not what else needs to be done?
    Secretary Wilson and General Goldfein. Our priority is to ensure 
the Air Force continues to provide resilient space effects to all 
warfighters and to ensure we are fully prepared to fight and win a 
conflict that extends into space. To do this, we are adjusting how we 
organize, train, and equip through the Space Mission Force (SMF) and 
Space Enterprise Vision (SEV). The SMF is emphasizing advanced training 
of our space operators while also giving them time to develop new 
tactics, techniques, and procedures (TTPs) to protect our assets and 
mitigate adversary actions. This training and these TTPs will also 
drive the discussion of the rules of engagement and authority structure 
required to operate in a contested space environment. The SEV lays out 
a roadmap of future systems and capabilities that will provide a space 
force resilient to attack. We are also working to ensure acquisition 
authorities are held at the appropriate levels to ensure we can acquire 
appropriately resilient systems while limiting unnecessary duplication 
of effort. Finally, we have started national-level policy discussions 
to determine the messages we want to send to our allies and adversaries 
and to advance policies that allow tactical commanders the ability to 
operate in a real-time ``battlefield'' environment. While these are 
important first steps, we must continue to adjust from the paradigm of 
operating in a benign space environment to that of a contested arena 
through additional investment in resilient systems, operations 
training, and organizational design.
                     eroding competitive advantage
    63. Senator Hirono. Secretary Wilson and General Goldfein, we have 
heard testimony from all of the combatant commanders that the 
technology and capability gap is closing as the computing power, 
nuclear weapons, cruise and theater ballistic missiles, and 
sophisticated air defense systems of our enemies are becoming more 
effective. How quickly is our competitive advantage eroding? What 
additional assets are required to prevent the gap from closing that are 
not currently included in the Fiscal Year 2018 Presidential Budget?
    Secretary Wilson and General Goldfein. Our competitive advantage is 
eroding at an alarming rate. In order to reverse this trend, we need to 
strike the right balance between capability and capacity in air, space 
and cyberspace domains. This will require a significant funding 
commitment to begin rebuilding the Combat Air Force and accelerate 
development of new concepts. The Air Force currently has a plan to 
balance capability and capacity for the Combat Air Force through 4th 
and 5th generation fighter modernization, and 5th generation fighter, 
long range bomber, and preferred munitions procurement.
    Efforts that will require increased funding to maintain our 
competitive advantage include: 4th generation fighter service life 
extensions and modernization, 5th generation fighter capability 
development and procurement, multi-domain command and control, position 
navigation and timing, electromagnetic spectrum superiority, integrated 
air and missile defense, integrated intelligence, surveillance, and 
reconnaissance, airbase resilience, and adaptive basing.
                       creation of a space force
    64. Senator Hirono. Secretary Wilson and General Goldfein, there 
has been renewed debate regarding the need to create a `space force' 
separate from the Air Force, either stood up as a separate Service or 
aligned under the Department of the Air Force similar to the USMC 
relationship with the Department of the Navy. What is the Air Force's 
opinion of such proposals?
    Secretary Wilson and General Goldfein. As the fielding of counter-
space capabilities accelerates, the United States cannot afford the 
significant resource and time disruptions a separate space force would 
create. A separate space service would incur significant expense for 
Service-specific administration and dilute funding needed to pursue 
space superiority initiatives now. Since the early 1990s, the 
Department has been integrating space support into joint operations. 
Now, with space becoming a contested domain, we must shift from a 
mindset of integrating support for terrestrial forces to integration of 
space into the multi-domain war fight. Creating a separate Space Corps 
or Space Force while transitioning from a benign to a warfighting 
domain would diffuse and distract from the efforts proposed and 
underway to address gaps and shortfalls in the space enterprise.
                            energy security
    65. Senator Hirono. Secretary Wilson and General Goldfein, U.S. 
energy security is a vital component to our national security. The need 
to reduce energy consumption, use clean alternative energy sources, and 
increase U.S. security is closely tied to our overall national security 
and an important goal for all our branches of the military. How has the 
Air Force prioritized its long-term energy needs in this budget 
request? How does the request highlight efforts to increase U.S. energy 
security? Do you view these efforts as yielding long-term dividends in 
terms of budgetary savings and operational effectiveness?
    Secretary Wilson and General Goldfein. The Air Force considers 
energy security, efficiency and capability when we identify 
requirements and as we develop our budgets. In addition, we give 
favorable consideration to projects that improve energy resilience. 
Investments to enhance the efficiency and resiliency of aircraft 
platforms and critical facilities provide significant long-term 
benefits for the nation, and we will continue to pursue them.
    The Air Force prioritizes energy investments to focus on mission 
assurance. For example, for installation energy, the Air Force takes a 
holistic approach that values resilience, cost effectiveness and 
cleanliness, while primarily relying on third party financing. As 
codified in our Energy Flight Plan (http://www.safie.hq.af.mil/
Programs/Energy/), our approach translates into three lines of effort: 
defining our vulnerabilities, providing self-sufficient utility scale 
power on or near the installation, and leveraging investment in 
technologies to improve our resiliency.
    We are working closely with utility commissions, utilities, energy 
service providers, communities, and other stakeholders to improve our 
energy resilience, and taking advantage of all the authorities provided 
to us by Congress. For example, the Air Force is looking at bi-
directional microgrids to allow the Air Force to push excess power off 
base in support of civil authorities; using real estate and other 
authorities to offer utility companies battery storage opportunities on 
our installations; and developing mutually beneficial renewable and 
non-renewable on-base power generation capabilities that support both 
the defense mission and U.S. energy security.
    With respect to aviation operations, we are concentrating on three 
lines of effort. We are focusing on identifying and incorporating new 
technologies (e.g., adaptive jet engines) while also better 
understanding how these investments affect the energy posture of our 
operational plans. Additionally, we are integrating new sustainment 
techniques to improve weapons system efficiency and effectiveness. 
Finally, we are incorporating new tools and methods into operational 
processes to maximize combat capability and readiness of our forces.
    Over the long-term, we are focusing on assured operational 
effectiveness so our installations continue to provide defense for the 
nation in the face of physical attack, cyber-attack, or natural 
disaster affecting our bases or the national electric grid. 
Additionally, we continuously pursue the most cost effective methods, 
which generally result in budget savings.
                               __________
                Questions Submitted by Senator Tim Kaine
                    mid-atlantic regional spaceport
    66. Senator Kaine. Secretary Wilson, as you know, in addition to 
Air Force launch sites at Cape Canaveral and Vandenberg, State 
Spaceports like the Mid-Atlantic Regional Spaceport at Wallops in 
Virginia and the Pacific Spaceport Complex in Alaska are playing an 
increasingly important role in provide assured access to space for the 
Department of Defense. These State-owned and operated spaceports have 
provided second launch sites for the Air Force on the East and West 
Coasts, which provides a critical second point of access to key 
inclinations and orbits that are important to our national security. 
This ensures increased resiliency in the case of natural disasters or 
security threats to launch sites. They are also very affordable launch 
sites because the infrastructure development, maintenance and 
operations costs are largely covered by the state and other users. Both 
spaceports are currently working with the DOD on various missions and 
launches, but there is much more potential to take greater advantage of 
these assets to support of national launch infrastructure and access to 
space. As you look at ways to reduce launch costs and improve 
resiliency in space launch, how will the Air Force and other Defense 
launch customers make even greater use of spaceports like Wallops for 
small and medium launch opportunities, including a greater cadence of 
Operationally Responsive Space and other missions?
    Secretary Wilson. The Air Force work will with other partners such 
as NASA, the intelligence and the missile defense communities to 
leverage the benefits of non-federal spaceports when it is appropriate 
to support National Security Space requirements.
    While National Security Space launch requirements are largely met 
by EELV-class vehicles from the two federal launch sites Cape Canaveral 
Air Force Station and Vandenberg Air Force Base, state sponsored sites, 
including the Mid-Atlantic Regional Spaceport (MARS) at Wallops in 
Virginia and the Pacific Spaceport Complex in Alaska (PSCA), have 
supported launch operations and suborbital test missions for generally 
smaller classes of launch vehicles. Next summer, the Air Force plans to 
launch the NROL-111 mission on a Minotaur I, from MARS and the Missile 
Defense Agency plans to resume ballistic missile defense flight testing 
from PSCA beginning in the third quarter of fiscal year 2017. With the 
support of Congress, there are federally-funded efforts underway to 
improve Spaceport infrastructure at MARS (Wallops) and PSCA (Kodiak) to 
enhance the capabilities of these spaceports to provide resiliency 
options for small to medium-class launches.

    67. Senator Kaine. Secretary Wilson, additionally, the fiscal year 
2017 Omnibus contained a provision directing the Director of National 
Intelligence and the Department to put together a report on making 
greater access of these launch capabilities. Could you provide an 
update on the status of this report and when the Committee may expect 
to receive it?
    Secretary Wilson. This report is currently being drafted by the 
National Reconnaissance Office's (NRO) Office of Space Launch (OSL). 
OSL is working closely with the Air Force's Space and Missile Systems 
Center's Launch Enterprise Directorate (SMC/LE) to draft this report 
and coordinate it through the Intelligence Community and the Air Force. 
The NRO and the Air Force will work to meet the 3 August suspense 
stipulated in the fiscal year 2017 Omnibus.

    68. Senator Kaine. Secretary Wilson, given that the U.S. has only 
four spaceports (Cape Canaveral (FL), Vandenberg (CA), Wallops (VA), 
Kodiak (AK)) capable of launching national security, civil and 
commercial satellites to orbit--with only two launch sites on each 
coast--it's safe to say that these represent a critical element of our 
national infrastructure, resiliency and assured access to space.
    Secretary Wilson. The Air Force continues to evaluate critical 
elements of our national security infrastructure as part of the Space 
Warfighting Construct. Current federal launch infrastructure requires 
continued sustainment but is sufficient to meet comprehensive national 
security launch needs in the near term. The Air Force will continue to 
work with other partners, such as the intelligence and missile defense 
communities, to leverage the benefits of non-federal spaceports where 
appropriate to support National Security Space requirements.

    69. Senator Kaine. Secretary Wilson, given that all four of these 
launch sites, including the two State Spaceports in Virginia and 
Alaska, are used to launch DOD assets into orbit, do you consider these 
spaceports to be critical infrastructure for the United States? How 
does the Air Force and other DOD users ensure that these spaceports, 
especially the non-Federal spaceports, are maintained and upgraded to 
ensure that we maintain no less than these four points of access to 
space?
    Secretary Wilson. The Air Force continues to evaluate critical 
elements of our national security infrastructure as part of the Space 
Warfighting Construct. The Air Force will continue to work with other 
partners, such as the intelligence and missile defense communities, to 
support and leverage the benefits of non-federal spaceports where 
appropriate to support National Security Space requirements.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                    mit lincoln lab west lab project
    70. Senator Warren. Secretary Wilson, MIT Lincoln Laboratory is the 
nation's preeminent Department of Defense research and development 
Federally Funded Research and Development Center (FFRDC) focused on 
critical national defense technology problems. The current facilities 
are in an accelerating decline and a great deal of the Lab's work is 
being done in obsolete 1950s-era buildings. Unless these facilities are 
modernized in the near term, their worsening condition will prevent MIT 
Lincoln Laboratory from effectively meeting Air Force and Defense 
Department requirements for advanced research and development. I was 
greatly encouraged that the Air Force and the Department of Defense 
committed to funding a facilities modernization plan at MIT/LL in the 
Future Year Defense Program (FYDP) released with the fiscal year 2017 
Budget. That FYDP committed to constructing a Compound Semi-Conductor 
Laboratory--Microelectronics Integration Facility (CSL-MIF), currently 
programmed at $225 million in the Air Force's fiscal year 2019 Military 
Construction budget, and an Engineering Prototype Facility (EPF) 
programmed for fiscal year 2022 at $216 million. Secretary Wilson, can 
you give me your assurance that you will continue to support these 
critical projects as the Air Force builds the fiscal year 2019 Budget?
    Secretary Wilson. I agree that modernizing research facilities, 
such as MIT's Lincoln Laboratory, are critical to maintaining our 
technological advantage over potential adversaries. I will continue to 
consider these priorities as we build the fiscal year 2019 budget.
                    funding for science & technology
    71. Senator Warren. Secretary Wilson, while I was pleased to see a 
$5.2 billion increase in your budget request for Research, Development, 
Test and Evaluation, I was disappointed to see that within that amount, 
Science & Technology funding is actually being cut relative to last 
year. Secretary Wilson, during your confirmation hearing, you expressed 
support for increasing Science & Technology funding. Do you continue to 
support those increases?
    Secretary Wilson. The Air Force believes that cutting-edge science 
and technology research is a cornerstone of our Air Force, and is 
supported in the Fiscal Year 2018 President's Budget Request for Air 
Force Science and Technology (S&T), which is a $97.4 million increase 
from the Fiscal Year 2017 President's Budget.

    72. Senator Warren. Secretary Wilson, why does basic and applied 
research funding matter, and what are your priorities for early-stage 
research?
    Secretary Wilson. Air Force basic and applied research sits at the 
center of an innovation network that includes our partners in the other 
Military Services, DARPA, as well as those of the National Science 
Foundation, NASA, the Department of Energy and National Institute of 
Standards and Technology. Our Air Force S&T basic research needs to 
leverage these scientific results and transition innovative 
breakthroughs into applied research for military applications and then 
on to the acquisition community. While the Air Force identified some 
important research thrusts some time ago, I expect the Air Force will 
review that strategic look over the next year in a broad effort that 
includes labs, academia, and industry.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                  DEPARTMENT OF DEFENSE BUDGET POSTURE

    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Graham, Strange, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on the 
Department of Defense's [DOD] fiscal year 2018 budget request.
    We welcome Secretary Mattis, Chairman Dunford, and 
Secretary Norquist, and thank you for your many years of 
distinguished service and your leadership of our men and women 
in uniform.
    Before we begin, we all want to acknowledge the service and 
sacrifice of Sergeant Eric Houck, Sergeant William Bays, and 
Corporal Dillon Baldridge. These three soldiers from the Army's 
101st Airborne Division were killed this weekend in 
Afghanistan. The thoughts and prayers of this committee are 
with their loved ones.
    The sacrifice of these heroes is a painful reminder that 
America is still a nation at war. That is true in Afghanistan, 
where, after 15 years of war, we face a stalemate and urgently 
need a change in strategy and an increase in resources, if we 
are to turn the situation around.
    We also remain engaged in a global campaign to defeat ISIS 
[Islamic State of Iraq and Syria] and related terrorist groups, 
from Libya and Yemen, to Iraq and Syria, where United States 
troops are helping to destroy ISIS and reclaim Mosul and Raqqa.
    Meanwhile, threats around the world continue to grow more 
complex and severe. North Korea is closing in on the 
development of a nuclear-capable intercontinental ballistic 
missile [ICBM] that can target our Homeland. Iran continues to 
destabilize the Middle East and seeks to drive the United 
States out of the region.
    At the same time, we have entered a new era of great power 
competition. Russia and China, despite their many differences, 
are both modernizing their militaries, developing advanced 
capabilities to undermine our ability to project power 
globally, threatening their neighbors, and challenging the 
rules-based world order. Russia, in particular, continues to 
occupy Crimea, destabilize Ukraine, threaten our NATO allies, 
bolster the murderous Assad regime in Syria, and pursue a 
campaign of active measures to undermine the very integrity of 
Western democracies.
    With thousands of our soldiers, sailors, airmen, and 
marines deployed in harm's way around the globe, those of us 
who are charged with the awesome responsibility of providing 
for the common defense must ask ourselves if we are doing 
everything possible to support our brave men and women in 
uniform to meet the challenges of an increasingly dangerous 
world and succeed in their mission.
    I am sad to say that we are not. In response to rising 
threats, we have asked our military to do more and give more 
but have given less and less to them.
    Our witnesses' opening statements are a harsh indictment of 
this failure, but they are right. I implore my colleagues to 
listen carefully to their testimony and heed their admonition 
to us.
    Since 2011, spending caps mandated by the Budget Control 
Act [BCA] have led to a 23 percent cut to the defense budget. 
These reductions, compounded by growing fiscal uncertainty and 
continuing resolutions, have left our military with shrinking 
forces, depleted readiness, and aging equipment. This has put 
the lives of our men and women in uniform at greater risk, as 
this committee has heard in testimony for years from our 
civilian defense leaders and senior military officers.
    The administration's fiscal year 2018 budget request, if 
enacted, could help to arrest the decline in our military's 
readiness. But ultimately, and unfortunately, it falls short of 
the President's commitment to rebuild our military. The 
proposed defense budget of $603 billion is both arbitrary and 
inadequate--arbitrary because the topline is simply what was 
written into the Budget Control Act 6 years ago prior to the 
sequester cuts, and inadequate because it represents just a 3 
percent increase over President Obama's defense plan.
    It is hardly surprising, then, that this committee has 
received lists of unfunded requirements from the military 
services totaling over $31 billion, all of which Secretary 
Mattis testified last night in the House Armed Services 
Committee that he supports. Our military service leaders have 
testified to this committee that this budget would stanch the 
bleeding, but we owe our men and women in uniform more than 
that.
    It has been said that this budget request focuses on 
readiness, and it is true that the requested funding increases 
would make the current force more ready for the next year. But 
ultimately, readiness is more than training hours and time on 
the ranges. Real readiness requires sufficient capacity to 
enable our troops simultaneously to conduct operations, prepare 
for deployment, rest and refit, and focus on the challenges of 
tomorrow. This budget delivers no growth in capacity, which 
means that the joint force will continue to consume readiness 
as quickly as it is produced. These increases in capacity are 
reflected in each service's unfunded requirements.
    True readiness is also modernization, because if we 
mortgage future capability to pay for present commitments, we 
have achieved little, especially at a time when our adversaries 
are moving at an alarming rate to erode America's military 
technological advantage and call into question our ability to 
project power.
    Here, too, unfortunately, this budget request poses the old 
false choice between readiness and modernization. The fact is 
that $603 billion simply is not enough to pay for both 
priorities, which is why the services' unfunded requirements 
are heavy on the procurement of new and additional capabilities 
that are desperately needed.
    All of this presents this committee, and this Congress, 
with a significant choice. The administration's budget request 
is just that--a request. Ultimately, it is our independent 
responsibility to authorize and appropriate funding for our 
military at levels and in ways that we believe sufficient to 
provide for the common defense. I believe that this budget 
request is a start, but we can and must do better.
    This will not be possible, however, as long as the Budget 
Control Act remains the law of the land. This defense budget 
request and the additional funding that our military needs is 
literally illegal under the Budget Control Act. This law has 
done severe damage to our military. It has harmed the 
Department's ability to plan and execute budgets effectively 
and efficiently. It has ground the Congress' budget and 
appropriations processes to a halt. Worst of all, there are 4 
more years of BCA caps to go.
    We cannot go on like this. Our men and women in uniform 
deserve better. It is time for the Congress to reinvest in our 
military, restore readiness and capabilities, rebalance our 
joint force, and renew America's military advantage.
    To do so, we must revise or repeal the Budget Control Act. 
We must give our troops what they need to succeed, today and in 
the future.
    Will the politics of this be difficult? Yes. But the 
question all of us here must answer is: How much longer will we 
send our sons and daughters into harm's way unprepared before 
we get over our politics and do our jobs?
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, for 
holding this hearing to consider funding levels for the 
Department of Defense to maintain our Nation's military.
    I also want to welcome our distinguished witnesses this 
morning and thank them for their service to our Nation.
    I want to join with the chairman in paying tribute to the 
soldiers of the 101st who gave their lives, and their families. 
They are examples of thousands and thousands of Americans who 
serve, and their families here at home who serve here with 
them.
    Today, we consider the fiscal year 2018 Trump 
Administration budget that seeks $574 billion in base funding 
and $65 billion for Overseas Contingency Operations.
    As we all know, the Budget Control Act, the BCA, of 2011, 
and the sequester, are still law of the land, and this budget 
request for DOD exceeds the BCA defense spending cap by $52 
billion. Rather than negotiate with Congress or propose an 
outright repeal of BCA and the sequester, President Trump 
proposed to offset an increase in defense spending with a $52 
billion cut in nondefense spending. But unless the BCA is 
changed, the offset will seriously harm nondefense spending and 
fail to prevent across-the-board cuts reclaiming the $52 
billion, leaving DOD in a worse position.
    We have already held many hearings this year where senior 
civilian and military leaders have repeatedly urged us to 
remove the BCA caps and end sequestration. Like Chairman 
McCain, I believe it is time to repeal the BCA. Setting 
arbitrary thresholds on defense and nondefense spending has not 
made our country safer, and it has not fixed our broader fiscal 
problems, nor do these caps, which were set nearly 6 years ago, 
accurately reflect what our military needs in order to confront 
today's threats, or the kind of domestic investment we need to 
keep America competitive and strong.
    Let me be clear. I am not opposed to increased military 
spending. Democrats have and will continue to support robust 
defense spending. But it is the duty of this committee to 
carefully review the budget proposals presented by the 
President to ensure that the funds are allocated properly so 
that our fighting men and women have what they need to complete 
their mission and return home safely. Every member, regardless 
of party, takes this duty seriously.
    I also believe that our budget must reflect our Nation's 
core values and take care of Americans who remain at home. Our 
military personnel have a vision of the America they are 
fighting for, and it is our duty to protect that. I, therefore, 
have grave concerns about the President's Budget Request, 
because it robs from Peter to pay Paul. The President's 
proposal increases defense spending, but it also eliminates 
$17.3 billion from the State Department's efforts to prevent 
wars and foster peace, which is the very kind of spending that 
Secretary Mattis has said is so crucial to our military 
efforts. It also slashes funding for health investments like 
the NIH [National Institute of Health] and CDC [Centers for 
Disease Control], and training for health care professionals to 
fight against global public health epidemics, such as Ebola, 
before they reached the U.S. This budget request also 
eliminates programs that help vulnerable Americans here at 
home.
    Certainly, our military needs additional resources to climb 
out of the readiness hole it is in and, at the same time, deter 
conflict with near-peer competitors, but I do not believe we 
should do so at the expense of diplomacy and vulnerable 
Americans.
    I would also note that for over the last 15 years, we have 
found it important enough to send our brave men and women to 
war, but we have not had the courage to raise revenues to pay 
for these wars, as this Nation has historically done. As we 
examine what funding requirements are necessary for the safety 
and security of our country, we need to look at our federal 
budget in much more context. The BCA's delineation between 
defense and nondefense spending has had the unfortunate effect 
of pitting each category of funding against the other. Instead, 
we would be better served if we considered the needs of our 
Nation holistically.
    I also believe that it would be best if we examined the 
President's Budget Request in the context of an overall 
National Security Strategy. Such a strategy, however, has not 
clearly emerged as we enter the sixth month of this 
administration.
    We seem to careen from one foreign policy crisis to 
another, many of which are the administration's own making. 
This takes up valuable energy and attention at a time when 
there are several significant national security challenges on 
which we need to be focused.
    Secretary Mattis and General Dunford, you have been 
consummate professionals and steady hands in a tumultuous time, 
but we face many difficult decisions, both strategic and 
budgetary, that demand the kind of leadership and engagement 
that only a grounded and focused President can provide. I look 
forward to working with you and my colleagues as we address 
these important issues. I am proud that this committee has 
always worked in a bipartisan fashion during this process. I 
look forward to working with the chairman and all the committee 
members to come to a reasonable agreement again this year.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Secretary Mattis, welcome back.

 STATEMENT OF HONORABLE JAMES N. MATTIS, SECRETARY OF DEFENSE, 
 ACCOMPANIED BY DAVID L. NORQUIST, UNDER SECRETARY OF DEFENSE, 
   COMPTROLLER, CHIEF FINANCIAL OFFICER, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Mattis. Thank you, Chairman McCain, Ranking 
Member Reed, and members of the committee. I appreciate the 
opportunity to testify in support of the President's Budget 
request for fiscal year 2018. Mr. Chairman, I request the 
committee except my written statement for the record.
    I am joined by Chairman Dunford and the Department's new 
comptroller, Under Secretary of Defense David Norquist. Thank 
you, Mr. Chairman, and members of the committee for your swift 
consideration and the Senate's confirmation of Defense 
Department nominees.
    This budget request holds me accountable to the men and 
women of the Department of Defense. Every day, more than 2 
million servicemembers and nearly 1 million civilians do their 
duty, honoring previous generations of veterans and civil 
servants who have sacrificed for our country. It is my 
privilege to serve alongside them.
    We in the Department of Defense are keenly aware of the 
sacrifices made by the American people to fund our military. 
Many times in the past we have looked reality in the eye, met 
challenges with the help of congressional leadership, and built 
the most capable warfighting force in the world. There is no 
room for complacency, and we have no God-given right to victory 
on the battlefield. Each generation of Americans, from the 
halls of Congress to the battlefields, earn victory through 
commitment and sacrifice.
    For 4 years, the Department of Defense has been subjected 
to or threatened by automatic, across-the-board cuts as a 
result of sequester, a mechanism meant to be so injurious to 
the military it would never go into effect. But it did go into 
effect, and as forecast by then-Secretary of Defense Panetta, 
the damage has been severe, hollowing out our force.
    In addition, during 9 of the past 10 years, Congress has 
enacted 30 separate continuing resolutions to fund the 
Department of Defense, thus inhibiting our readiness and our 
adaptation to new challenges.
    We need bipartisan support for this budget request. In the 
past, by failing to pass a budget on time or to eliminate the 
threat of sequestration, Congress sidelined itself from its 
active constitutional oversight role. Continuing resolutions 
coupled with sequestration blocked new programs, prevented 
service growth, stalled industry initiative, and placed troops 
at greater risk.
    Despite the tremendous efforts of this committee, Congress, 
as a whole, has met the present challenge with lassitude, not 
leadership.
    I retired from military service 3 months after 
sequestration took effect. Four years later, I returned to the 
Department, and I have been shocked by what I have seen about 
our readiness to fight. While nothing can compare to the 
heartache caused by the loss of our troops during these wars, 
no enemy in the field has done more to harm the combat 
readiness of our military than sequestration.
    We have only sustained our ability to meet America's 
commitments abroad for our security because our troops have 
stoically shouldered a much greater burden. But our troops' 
stoic commitment cannot reduce the growing risk.
    It took us years to get into this situation. It will 
require years of stable budgets and increased funding to get 
out of it.
    I urge members of this committee and Congress to achieve 
three goals. First, fully fund our request, which requires an 
increase to the Defense budget caps. Second, pass a fiscal year 
2018 budget in a timely manner to avoid yet another harmful 
continuing resolution. Third, eliminate the threat of future 
sequestration cuts to provide a stable budgetary planning 
horizon.
    Stable budgets and increased funding are necessary because 
of four external factors acting on the Department at the same 
time.
    The first force acting on us that we must recognize is 16 
years of war. When Congress approved the all-volunteer force in 
1973, our country never envisioned sending our military to war 
for more than a decade without pause or conscription. America's 
long war has placed a heavy burden on men and women in uniform 
and their families.
    A second concurrent force acting on the Department is the 
worsening global security situation that the chairman spoke 
about. We must look reality in the eye. Russia and China are 
seeking veto power over the economic, diplomatic, and security 
decisions on their periphery. North Korea's reckless rhetoric 
and provocative actions continue, despite United Nations 
censure and sanctions, while Iran remains the largest long-term 
challenge to Mideast stability. All the while, terrorist groups 
murder the innocent and threaten peace in many regions while 
targeting us.
    A third force is adversaries actively contesting America's 
capabilities. For decades, the United States enjoyed 
uncontested or dominant superiority in every operating domain 
or realm. We can generally deploy our forces when we wanted, 
assemble them where we wanted, and operate how we wanted. 
Today, every operating domain--outer space, air, sea, undersea, 
land, and cyberspace--is contested.
    A fourth concurrent force is rapid technological change. 
Among the other forces noted thus far, technological change is 
one that necessitates new investment, innovative approaches, 
and new program starts that have been denied us by law when we 
have been forced to operate under continuing resolutions.
    Each of these four forces--16 years of war, the worsening 
security environment, contested operations in multiple domains, 
and the rapid pace of technological change--require stable 
budgets and increased funding to provide for the protection of 
our citizens and for the survival of our freedoms.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our 
government is to defend the American people providing for our 
security, and we cannot defend America and help others if our 
Nation is not both strong and solvent.
    So we in the Department of Defense owe it to the American 
public to ensure we spend each dollar wisely. President Trump 
has nominated for Senate approval specific individuals who will 
bring proven skills to discipline our Department's fiscal 
processes to ensure we do so.
    This first step to restoring readiness is underway thanks 
to Congress' willingness to support the administration's 
request for an additional $21 billion in resources for fiscal 
year 2017 to address vital warfighting readiness shortfalls. 
Your support put more aircraft in the air, ships to sea, and 
troops in the field. However, we all recognize that it will 
take a number of years of higher funding delivered on time to 
restore readiness.
    To strengthen the military, President Trump requested a 
$639 billion topline for the fiscal year 2018 defense budget. 
This year's budget reflects five priorities.
    The first priority is continuing to improve warfighter 
readiness begun in 2017, filling in the holes from tradeoffs 
made during 16 years of war and 9 years of continuing 
resolutions and Budget Control Act caps.
    The second priority is increasing capacity and lethality 
while preparing for future investment driven by the results 
from the National Defense Strategy we are working on now. Our 
fiscal year 2018 budget request ensures the Nation's current 
nuclear deterrent will be sustained and supports continuation 
of its much-needed modernization process.
    The third priority is reforming how the Department does 
business. I am devoted to gaining full value from every 
taxpayer dollar that is spent on defense, thereby earning the 
trust of Congress and the American people. We have begun 
implementation of a range of reform initiatives directed by the 
2017 National Defense Authorization Act [NDAA], and we are on 
track to enter into a full agency-wide financial statement 
audit, as required by statute.
    I urge Congress to support the Department's request for 
authority to conduct a 2021 base realignment and closure, or 
BRAC, round. I recognize the careful deliberation that members 
must exercise in considering this, but BRAC is one of the most 
successful and significant efficiency programs we have. We 
forecast that a properly focused base closure effort will 
generate $2 billion or more annually and, over a 5-year period, 
that would be enough to buy 300 Apache attack helicopters, 120 
F-18 Super Hornets, or four Virginia-class submarines.
    The fourth priority in the fiscal year 2018 budget request 
is keeping faith with servicemembers and families. Talented 
people are the Department's most valuable asset, but we must 
continually balance these requirements of investment in our 
people against other investments critical to readiness, 
equipping, and modernizing the force to ensure the military is 
the most capable warfighting force in the world. Investment in 
military compensation, blended retirement, the military health 
system, and family programs are essential to fielding the 
talent we need to sustain our competitive advantage on the 
battlefield.
    Our fifth priority is support for Overseas Contingency 
Operations. The Fiscal Year 2018 President's Budget requests 
$64.6 billion focusing on operations in Afghanistan, Iraq, and 
Syria; increasing efforts to sustain NATO's [North Atlantic 
Treaty Organization] defenses to deter aggression; and global 
counterterrorism operations. ISIS and other terrorist 
organizations represent a clear and present danger, and I am 
encouraged by the willingness of our allies and partners to 
share the burden of this campaign alongside us.
    Moving forward, the fiscal year 2019 budget informed by the 
National Defense Strategy will have to make hard choices as we 
shape the 2019 to 2023 defense program. The Department will 
work with President Trump, Congress, and this committee to 
ensure future budget requests are both sustainable and provide 
the Commander in Chief with viable military options that 
support America's security.
    In summation, first, I need the BCA caps lifted and a 
budget, not a continuing resolution, passed on time, and 
elimination of future sequestration cuts, so we can provide a 
stable and adequate way ahead on budgets.
    For those who are concerned we are not asking for 
sufficient dollars, please consider the following. For 2017, as 
a supplemental, we asked for $30 billion and the Congress 
provided $21 billion for our administration to address 
readiness shortfalls.
    Second, this fiscal year, President Trump has requested 
$574 billion plus $29 billion in the Department of Energy [DOE] 
budget, plus $65 billion for Overseas Contingency Operations. 
This is a 5 percent growth over what the Department had for 
2017.
    This request is $52 billion above the Budget Control Act 
defense caps. We have underway at this time a National Security 
Strategy review, and that will give us the analytic rigor to 
come back to you for the fiscal year 2019 to fiscal year 2023 
budget request when we will build up our military to confront 
the situation that the chairman and I have laid out in our 
written statements.
    I am keenly aware that each of you understand the 
responsibility we share to ensure our military is ready to 
fight today and in the future. I need your help to inform your 
fellow Members of Congress about the reality facing our 
military and the need for Congress as a whole to pass the 
defense budget on time.
    Thank you, members of the committee, for your strong 
support over many years and for ensuring our troops have the 
resources and equipment they need to fight and win on the 
battlefield. I pledge to collaborate closely with you for the 
defense of our Nation in our joint effort to keep our Armed 
Forces second to none.
    Thank you, ladies and gentlemen. Chairman Dunford is 
prepared to discuss the military dimensions of the budget 
request.
    [The prepared statement of Secretary Mattis follows:]

         Prepared Statement by Secretary of Defense Jim Mattis
    Chairman McCain, Ranking Member Reed, distinguished members of the 
committee, I appreciate the opportunity to testify in support of the 
President's budget request for fiscal year 2018.
    I am pleased to be joined by Chairman Dunford and the Department's 
new Comptroller, Under Secretary of Defense David Norquist.
    This budget request holds me accountable to the men and women of 
the Department of Defense. Every day, more than two million Service 
members and nearly one million civilians do their duty, honoring 
previous generations of veterans and civil servants who have sacrificed 
for our country. I am mindful of the privilege it is to serve alongside 
them.
    We in the Department of Defense are keenly aware of the sacrifices 
made by the American people to fund our military. Many times in the 
past we have looked reality in the eye, met challenges with 
Congressional leadership, and built the most capable warfighting force 
in the world. There is no room for complacency and we have no God-given 
right to victory on the battlefield. Each generation of Americans, from 
the halls of Congress to the battlefields, earn victory through 
commitment and sacrifice.
    And yet, for four years our military has been subject to or 
threatened by automatic, across-the-board cuts as a result of 
sequester--a mechanism meant to be so injurious to the military it 
would never go into effect. In addition, during nine of the past ten 
years, Congress has enacted 30 separate Continuing Resolutions to fund 
the Department of Defense, thus inhibiting our readiness and adaptation 
to new challenges.
    I need bipartisan support for this budget request. In the past, by 
failing to pass a budget on time or eliminate the threat of 
sequestration, Congress sidelined itself from its active Constitutional 
oversight role. It has blocked new programs, prevented service growth, 
stalled industry initiative, and placed troops at greater risk. Despite 
the tremendous efforts of this committee, Congress as a whole has met 
the present challenge with lassitude, not leadership.
    For much of the past decade, my predecessors and prior members of 
the Joint Chiefs of Staff testified that sequestration and the 
continued use of Continuing Resolutions would result in a steady 
erosion of military readiness. In 2013, then-Secretary of Defense Leon 
Panetta, former Chairman of the House Budget Committee and the former 
Director of the Office of Management and Budget, testified sequester 
was ``guaranteed to hollow out the force.''
    I retired from military service three months after sequestration 
took effect. Four years later, I returned to the Department and I have 
been shocked by what I've seen with our readiness to fight. For all the 
heartache caused by the loss of our troops during these wars, no enemy 
in the field has done more to harm the readiness of our military than 
sequestration. We have only sustained our ability to meet America's 
commitments abroad because our troops have stoically shouldered a much 
greater burden.
    It took us years to get into this situation. It will require years 
of stable budgets and increased funding to get out of it. I urge 
members of this committee and Congress to achieve three goals:

    <bullet>  First, fully fund our request, which requires an increase 
to the Defense budget caps;
    <bullet>  Second, pass a fiscal year 2018 budget in a timely manner 
to avoid yet another harmful Continuing Resolution; and
    <bullet>  Third, eliminate the threat of future sequestration cuts 
to provide a stable budgetary planning horizon.

    Stable budgets and increased funding are necessary because of four 
external forces acting on the Department at the same time.
    The first force we must recognize is 16 years of war. This period 
represents the longest continuous stretch of armed conflict in our 
Nation's history. In more than a quarter century since the end of the 
Cold War, our country has deployed large-scale forces in active 
operations for more months than we have been at peace.
    When Congress approved the All-Volunteer Force in 1973, our country 
never envisioned sending our military to war for more than a decade 
without pause or conscription. America's long war has placed a heavy 
burden on men and women in uniform and their families.
    In recognition of these demands, Congress devoted more resources to 
recruiting and retaining members of the military. As a result, 
personnel costs as a fraction of the defense budget have risen over 
time.
    Meanwhile, the war has exhausted our equipment faster than planned. 
Congress and the Department could not anticipate the accumulated wear 
and tear of years of continuous combat use. We have had to procure 
replacement gear and spend more money to keep gear serviceable and 
extend its service life. Due to this extensive use of our equipment 
across the force, operations and maintenance costs have also increased, 
rising faster than the rate of inflation during the past 16 years.
    Worn equipment and constrained supplies have forced our personnel 
to work overtime while deployed or preparing to deploy. That too has 
placed an added burden on the men and women who serve and on their 
families. This further degrades readiness in a negative spiral, for 
those not in the fight are at a standstill, unable to train as their 
equipment is sent forward to cover shortfalls or returned for extensive 
rework.
    My predecessor, Secretary Gates, stated annualized real defense 
budget increases and efficiencies of two to three percent above 
inflation are needed to sustain the All-Volunteer Force in a way that 
keeps personnel, modernization, and readiness accounts in balance. In 
the six years since the passage of the Budget Control Act, a period of 
declining, flat, or modestly increasing budgets, we have not kept this 
balance.
    Not long ago we convinced ourselves that when we pulled out of Iraq 
and ceased combat operations in Afghanistan, we would take two or three 
years to ``reset and reconstitute'' the force. Today's operations 
dictate the best we can do is ``reset and reconstitute in stride,'' a 
reality that imposes its own stress on the Force.
    A second concurrent force acting on the Department is the worsening 
global security situation. Our challenge is characterized by a decline 
in the long-standing rules-based international order, bringing with it 
a more volatile security environment than any I have experienced during 
my four decades of military service.
    The most urgent and dangerous threat to peace and security is North 
Korea. North Korea's continued pursuit of nuclear weapons and the means 
to deliver them has increased in pace and scope. The regime's nuclear 
weapons program is a clear and present danger to all, and the regime's 
provocative actions, manifestly illegal under international law, have 
not abated despite United Nations' censure and sanctions.
    We also look on the prospect of a new era, one governed by today's 
economic realities and returning once again to a balance of powers. A 
return to Great Power competition, marked by a resurgent and more 
aggressive Russian Federation and a rising, more confident, and 
assertive China, places the international order under assault. Both 
Russia and China object to key aspects of the international order so 
painstakingly built since the end of World War II. Both countries are 
making their objections known by challenging established international 
norms, such as freedom of the seas and the sovereignty of nations on 
their periphery.
    Moreover, the breakdown of the broader Mideast order has given rise 
to terrorist groups, including Al-Qaeda and the Islamic State of Iraq 
and Syria (ISIS). Security vacuums have allowed a revolutionary Iranian 
regime to sow violence, provoke wider Sunni-Shia confrontation, and 
pursue regional hegemony. More broadly, this need to preserve our 
security also requires us to sustain the international presence in 
Afghanistan to help stabilize the South Asia region and deny terrorists 
a safe haven.
    Instability in the Middle East spills over into other regions. 
Extremists and extremist ideologies have spread to Europe, Africa, and 
Asia. Numerous countries are dealing with forced migration of people 
seeking to escape violence and despair, reminding us that problems 
originating in ungoverned or combat torn areas don't remain there. The 
United States is engaged in the Middle East to help restore order and 
give the people who live there a more hopeful future, building a better 
security situation for Americans who want a safer and more prosperous 
world for our future.
    As one observer of the world has noted, we are ``faced with two 
problems: first, how to reduce regional chaos; second, how to create a 
coherent world order based on agreed-upon principles that are necessary 
for the operation of the entire system.'' That observer, Dr. Henry 
Kissinger, and his fellow members of the Greatest Generation witnessed 
first-hand the costs of military unpreparedness. They learned the 
paramount need to prevent hostile states from gaining dominance. And 
they understood that while there is no way to guarantee peace, the 
surest way to prevent war is to be prepared to win one.
    Under any circumstances, however, reducing regional chaos in tandem 
with our interagency partners and international allies to help foster a 
coherent order requires adequate diplomatic and military resources.
    Adversaries contesting the United States constitute a third force 
impacting the Department. For decades the United States enjoyed 
uncontested or dominant superiority in every operating domain or realm. 
We could generally deploy our forces when we wanted, assemble them 
where we wanted, and operate how we wanted. Today, every operating 
domain is contested.
    Outer space, long considered a sanctuary, is now contested. This 
creates the need to develop capabilities and capacities for more 
resilient satellites designed to withstand persistent kinetic and non-
kinetic attack.
    Our dominance of the air is challenged by the proliferation of 
advanced integrated air defense networks and 5th-generation aircraft. 
The F-35 Joint Strike Fighter program, longer range weapons, and 
unmanned systems will help us impose our will on potential adversaries 
while preserving our aircraft and crews in combat.
    Our command of the seas is threatened by long-range, land-based 
guided munitions battle networks designed to attack our ships at 
increasingly longer ranges. Our undersea superiority, unquestioned 
since the end of the Cold War, and a key competitive advantage, is 
challenged by both Russia and China.
    Our dominance on land in conventional, high-end combined arms 
maneuver is threatened by the introduction of long-range air-to-surface 
and surface-to-surface guided weapons, advanced armored vehicles and 
anti-tank weapons, and tactical electronic warfare systems.
    Cyberspace is now a contested operating realm at the strategic, 
operational, and tactical levels of war.
    Finally, our air, naval, ground and logistics bases are all under 
threat of accurate, all-weather, day-night guided munitions 
bombardment. This will complicate our operations and make passive and 
active base defenses more necessary and urgent.
    A fourth concurrent force acting on the Department is rapid 
technological change. Among the other forces noted thus far, 
technological change is one that necessitates new investment, 
innovative approaches, and when necessary, new program starts that have 
been denied us by law when we have been forced to operate under 
Continuing Resolutions.
    Rapid technological change includes developments in advanced 
computing, big data analytics, artificial intelligence, autonomy, 
robotics, miniaturization, additive manufacturing, meta-materials, 
directed energy, and hypersonics--the very technologies that ensure we 
will be able to fight and win the wars of the future.
    Many of these advances are driven by commercial sector demands and 
research and development. New commercial technologies will change 
society, and ultimately, they will change the character of war. The 
fact that many of these technological developments will come from the 
commercial sector means that state competitors and non-state actors 
will also have access to them, a fact that will continue to erode the 
conventional overmatch our Nation has grown so accustomed to.
    In this competitive environment, the Department must pay much more 
attention to future readiness, and regaining our Joint Force 
conventional overmatch over time. We must be willing and able to tap 
into commercial research, recognize its military potential, and develop 
new capabilities and the operational and organizational constructs to 
employ them faster than our competitors.
    We must also be prepared to deal with technological, operational, 
and tactical surprise, which requires changes to the way we train and 
educate our leaders and our forces, and how we organize for improved 
Departmental agility.
    Improving our future readiness, rapid adoption of off the shelf 
technologies, and preparing to deal with surprise are critical to 
modernization efforts, but constrained budgets and acquisition 
regulations have limited our ability to keep pace with rapid changes 
and sustain our competitive advantage.
    In response to these realities, the Department must develop new 
weapons and capabilities, adjust concepts of operations, adapt our 
training, and spend more time war-gaming and exercising to improve our 
ability to fight and win.
    Each of these four forces--16 years of war, the worsening security 
environment, contested operations in multiple domains, and the rapid 
pace of technological change--require stable budgets and increased 
funding to provide for the protection of our citizens and for the 
survival of our freedoms. Because as expensive as it is for the 
American people to fund the military, it is far less costly in lives 
and treasure than a conventional war that we are unable to deter 
because we are seen as weak.
    I reiterate that security and solvency are my watchwords as 
Secretary of Defense. The fundamental responsibility of our government 
is to defend the American people, providing for our security--and we 
cannot defend America and help others if our Nation is not both strong 
and solvent. So we in the Department of Defense owe it to the American 
public to ensure we spend each dollar wisely. President Trump has 
nominated for Senate approval specific individuals who will bring 
proven skills to discipline our Department's fiscal processes to ensure 
we do so.
    This first step to restoring readiness is underway thanks to 
Congress' willingness to support the Administration's request for 
additional resources in fiscal year 2017 to rebuild our most urgent 
needs. Your support of $21 billion in additional resources allowed the 
Department to address immediate warfighting readiness shortfalls and to 
help fund the acceleration of the fight against ISIS.
    This additional fiscal year 2017 funding addresses vital 
warfighting readiness shortfalls, a necessary investment to ensure our 
military is ready to fight today, by putting more aircraft in the air, 
ships to sea, and troops in the field. Additionally, the funding 
provided for more maintenance, spare parts, training time, flying 
hours, munition stocks, and manpower.
    We all recognize that it will take a number of years of higher 
funding delivered on time to restore readiness. To strengthen the 
military, President Trump requested a $639.1 billion topline for the 
fiscal year 2018 defense budget. Of this topline, $574.5 billion 
supports Department of Defense base budget requirements--warfighting 
readiness and critical program requirements, including intelligence 
community requirements. The balance, $64.6 billion, supports Overseas 
Contingency Operations (OCO) requirements.
    The Department's fiscal year 2018 base budget with its $52 billion 
increase above the National Defense Budget Control Act cap is the next 
step to building a larger, more capable, and more lethal joint force. 
The fiscal year 2018 budget reflects five priorities: restoring and 
improving warfighter readiness, increasing capacity and lethality, 
reforming how the Department does business, keeping the faith with 
Service members and their families, and supporting Overseas Contingency 
Operations.
    The first priority is continuing to improve warfighter readiness 
begun in fiscal year 2017, filling in the holes from trade-offs made 
during 16 years of war, and six years of continuing resolutions and 
Budget Control Act caps. This budget request, as directed by the 
National Security Presidential Memorandum ``Rebuilding the U.S. Armed 
Forces'' issued on January 27, 2017, identifies and improves shortfalls 
in readiness, specifically in training, equipment, maintenance, 
munitions, modernization, and infrastructure.
    The 30-Day Readiness Review, completed as part of the development 
of the fiscal year 2017 Request for Additional Appropriations, 
identified significant challenges to recovering readiness, including 
budget uncertainty, high operational tempo, and the time required to 
rebuild readiness properly. As a result of this review, the Department 
submitted the fiscal year 2018 budget request to enable the Joint Force 
to counter national security threats, fulfill steady-state demand, and 
implement readiness recovery plans.
    The Army remains globally engaged with more than 180,000 Soldiers 
committed to combatant command deterrence and counterterrorism 
operations. The fiscal year 2018 budget will restore a larger, more 
capable and lethal modernized force to defeat emerging regional and 
global near-peer adversaries. Combat Training Center rotations and home 
station training will help the Army develop capabilities for full-
spectrum warfare. Additional Soldiers, training, and equipment will 
enable the Army to make significant progress towards restoring and 
sustaining readiness longer.
    The Navy will continue implementation of its Optimized Fleet 
Response Plan, reduce the long-term maintenance backlog, and train to 
ensure the Fleet is ready to fight. Requested funding provides stable 
and predictable maintenance and modernization plans, and forces trained 
to a single full-mission readiness standard. Predictably building 
readiness with continued implementation of the Optimized Fleet Response 
Plan will increase aircraft carrier availability, fund ship operations 
to the anticipated level of required operational days, and improve 
quality of work and quality of life for sailors.
    The Air Force will restore funding to its Flying Hour Program, 
increase aircraft sustainment, and grow training resource availability. 
These steps will enable personnel to regain proficiency in critical 
skill areas. Investments into training ranges will increase capacity 
and modernize the simulated threats our young men and women need to 
overcome to counter adversaries. The Air Force will also invest in home 
station high-end training, reducing the requirement to deploy for 
training.
    The Marine Corps is committed to remaining capable of responding to 
crises anywhere around the globe. Fiscal year 2018 investments 
emphasize readiness for deployed and next-to-deploy forces, maintenance 
for aging platforms, and funding to maintain critical modernization 
programs. Fully integrated Combined Arms Exercises for all elements of 
the Marine Air Ground Task Forces will help recover full-spectrum 
readiness.
    The second priority is increasing capacity and lethality while 
preparing for future investment in the fiscal year 2019 budget, driven 
by results from the National Defense Strategy. The fiscal year 2018 
budget request addresses resource gaps in the capabilities, readiness, 
and capacity needed to project power globally in contested 
environments, while emphasizing preparedness for future high-end 
security challenges. The budget request supports this priority through 
investment in advanced capabilities to reassert our technological edge 
over potential future adversaries, while having more units ready to 
fight.
    The fiscal year 2018 budget request seeks to fill the holes and 
achieve program balance before beginning to significantly grow capacity 
in future years. Part of achieving a more capable force involves 
pursuing innovative ways to develop the force and concepts of operation 
to reverse unfavorable cost ratios adversaries would seek to impose on 
the United States in future warfighting environments. The fiscal year 
2018 investments include power projection capabilities, nuclear 
modernization, a stronger missile defense, space-based systems, and 
cyberspace operations. Several of these options will expand the 
competitive space to our advantage vice allowing an adversary to define 
a conflict. Our budget request also ensures that the nation's current 
nuclear deterrent will be sustained, and supports continuation of its 
much needed modernization process.
    The third priority is reforming how the department does business. I 
am devoted to gaining full value from every taxpayer dollar spent on 
defense, thereby earning the trust of Congress and the American people.
    The Department is committed to reforming the acquisition enterprise 
to improve its ability to be innovative, responsive, and cost 
effective. The Department has begun implementation of a range of reform 
initiatives directed by the 2017 NDAA, to include disestablishment of 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics, and the establishment of the Under Secretaries for Research 
and Engineering, and for Acquisition and Sustainment. Consistent with 
section 901 of the National Defense Authorization Act for fiscal year 
2017, this change will be in effect by February 1, 2018, or sooner if 
I'm able to set the necessary conditions.
    The fiscal year 2018 budget request includes notable reform 
efforts. I urge Congress to support the Department's request for 
authority to conduct a 2021 Base Realignment and Closure (BRAC) round, 
a cornerstone of our efficiencies program. The Department currently has 
more infrastructure capacity than required for operations--and 
foreseeable growth scenarios won't appreciably change this. I recognize 
the severity of BRAC's impact on communities and the careful 
consideration that members must exercise in considering it. In order to 
ensure we do not waste taxpayer dollars I would therefore greatly 
appreciate Congress' willingness to discuss BRAC authorization as an 
efficiency measure. That authorization is essential to improving our 
readiness by minimizing wasted resources and accommodating force 
adjustments. Waste reduction is fundamental to keeping the trust of the 
American people and is a key element of the efficiency/reform efforts 
that Congress and the Administration expect of us. Of all the 
efficiency measures the Department has undertaken over the years, BRAC 
is one of the most successful and significant--we forecast that a 
properly focused base closure effort will generate $2 billion or more 
annually--enough to buy 300 Apache attack helicopters, 120 F/A-18E/F 
Super Hornets, or four Virginia-class submarines.
    During fiscal year 2018 the Department is on track to enter into a 
full, agency-wide financial statement audit as required by statute. As 
part of this effort, the Department has established a Cost Decision 
Framework that leverages commercial best practices. This initiative 
will give decision makers the information they need to make a fully 
informed, cost-based decision.
    The fourth priority is keeping faith with Service members and 
families. Military and civilian personnel are the foundation of the 
Department of Defense. The Nation's commitment to these patriots 
willing to serve our country is built into the fiscal year 2018 budget 
request and is demonstrated by the number of initiatives and programs 
to support their professional development and their personal and family 
lives.
    Comprising roughly one-third of the Department of Defense budget, 
military pay and benefits are the single largest expense category for 
the Department. I believe providing competitive pay and benefits is a 
necessity to attract and retain the highly qualified people needed in 
today's military. The right people are the Department's most valuable 
asset, but we must continually balance these requirements against other 
investments critical to readiness, equipment, and modernization to 
ensure the military is the most capable warfighting force in the world. 
Balancing resources is particularly important as the Department 
reshapes the force needed to remain effective in an uncertain future. 
Investment in military compensation, Blended Retirement, the Military 
Health System, and family programs are essential to fielding the talent 
we need to sustain our competitive advantage on the battlefield.
    The fifth priority is support for Overseas Contingency Operations. 
The Fiscal Year 2018 President's Budget requests $64.6 billion, 
focusing on Operations in Afghanistan, Iraq, and Syria, increasing 
efforts to sustain NATO's defenses to deter aggression, and global 
counterterrorism operations. Specifically, ISIS and other terrorist 
organizations represent a clear and present danger. The United States 
remains united and committed with the 66 nations of the Defeat-ISIS 
Coalition--plus the European Union, NATO, Arab League, and Interpol--to 
destroy ISIS. We will continue to support partner nations' diplomatic 
and military efforts through a security cooperation approach. I am 
encouraged by the willingness of our allies and partners to share the 
burden of this campaign.
    The fiscal year 2019 budget, informed by the National Defense 
Strategy, will grow the All-Volunteer Force. The Department will work 
with President Trump, Congress, and this committee to ensure the budget 
request we present for fiscal year 2019-2023 is sustainable and that it 
provides the Commander-in-Chief with viable military options in support 
of America's security.
    Judicious spending of America's public money is critical to 
ensuring security while maintaining solvency. We already know we face a 
dilemma between increasing personnel end strength and force structure 
on the one hand, and investing in equipment as well as research and 
development on the other hand. These challenges are compounded by the 
pressing need to recapitalize the nuclear triad and the sealift fleet 
in the 2020s. The President's Nuclear Posture Review will look at all 
elements of U.S. nuclear forces to ensure that our nuclear deterrent, 
including our command, control, and communication systems, are 
appropriately tailored to deter emerging 21st Century threats.
    I know we will have to make hard choices as we develop our new 
defense strategy and shape the fiscal year 2019-2023 defense program. 
With the help of Congress, I am confident we can build a force that is 
necessarily more lethal without placing an undue burden on the American 
economy.
    I am keenly aware members of this committee understand the 
responsibility each of us has to ensuring our military is ready to 
fight today and in the future. I need your help to inform your fellow 
members of Congress about the reality facing our military--and the need 
for Congress as a whole to pass a budget on time.
    Thank you for your strong support and for ensuring our troops have 
the resources and equipment they need to fight and win on the 
battlefield. I pledge to collaborate closely with you for the defense 
of our Nation in our joint effort to keep our Armed Forces second-to-
none.
    Chairman Dunford is prepared to discuss the military dimensions of 
the budget request.

    Chairman McCain. General Dunford?

STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., U.S. MARINE CORPS, 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Dunford. Chairman McCain, Ranking Member Reed, 
distinguished members of this committee, thank you for the 
opportunity to join Secretary Mattis and Under Secretary 
Norquist with you today.
    I am honored to represent your men and women in uniform, 
and it is because of them that I can begin by saying, with 
confidence, that your Armed Forces remain the most capable in 
the world.
    However, the competitive advantage that the United States 
military has long enjoyed is eroding. A number of factors have 
contributed to the erosion. Chairman McCain, you mentioned 
several of these in your opening comments.
    Since 9/11, an extraordinarily high level of operational 
tempo has accelerated the wear and tear of our weapons and 
equipment. Meanwhile, budget instability and the Budget Control 
Act have forced the Department to operate with far fewer 
resources than required for the strategy of record.
    As a consequence, we prioritize near-term readiness at the 
expense of replacing aging equipment and capability 
development. We also maintain a force that consumes readiness 
as fast as we build it. We lack sufficient capacity to meet our 
current operational requirements while rebuilding and 
maintaining full spectrum readiness.
    The Secretary and the Service Chiefs have addressed the 
dynamic in their testimonies, and I fully concur with their 
assessments. But beyond current readiness, we are confronted 
with another significant challenge that I assess to be now near 
term. While we have been primarily focused on the threat of 
violent extremism, our adversaries and potential adversaries 
have developed advanced capabilities and operational approaches 
specifically designed to limit our ability to project power. 
They recognize that our ability to project power is a critical 
capability necessary to defend the Homeland, advance our 
interests, and meet our alliance commitments.
    As Secretary Mattis alluded to, Russia, China, and Iran 
have fielded a wide range of cyber, space, aviation, maritime, 
and land capabilities specifically designed to limit our 
ability to deploy, employ, and sustain our forces. Russia and 
China have also modernized their nuclear arsenal while North 
Korea has been on a relentless path to field a nuclear-armed 
ICBM that can reach the United States.
    In just a few years, if we do not change the trajectory, we 
will lose our qualitative and our quantitative competitive 
advantage. The consequences will be profound. It will affect 
our nuclear deterrence, our conventional deterrence, and our 
ability to respond, if deterrence fails.
    Alternatively, we can maintain our competitive advantage 
with sustained, sufficient, and predictable funding. To that 
end, the fiscal year 2018 budget is an essential step. However, 
this request alone will not fully restore readiness or arrest 
the erosion of our competitive advantage. Doing that is going 
to require sustained investment beyond fiscal year 2018.
    Specific recommendations for fiscal year 2019 and beyond 
will be informed by the forthcoming National Defense Strategy. 
However, we know now that continued growth in the base budget 
of at least 3 percent above inflation is the floor necessary to 
preserve just the competitive advantage we have today, and we 
cannot assume that our adversaries will stand still.
    As we ask for your support, we recognize the responsibility 
to maintain the trust of the American taxpayer. We take this 
responsibility seriously, and we continue to eliminate 
redundancies and achieve efficiencies where possible.
    Thank you again for the opportunity to appear before you 
this morning, and, more importantly, thank you for ensuring 
that America's sons and daughters never find themselves in a 
fair fight.
    With that, Chairman, I am prepared to take questions.
    [The prepared statement of General Dunford follows:]

          Prepared Statement by General Joseph F. Dunford, Jr.
    Chairman McCain, Ranking Member Reed, distinguished members of this 
committee, thank you for the opportunity to join Secretary Mattis in 
appearing before you today.
    The U.S. military's competitive advantage against potential 
adversaries is eroding. Over the last decade, sustained operational 
commitments, budgetary instability, and advances by our adversaries 
have threatened our ability to project power and we have lost our 
advantage in key warfighting areas. The Fiscal Year 2018 Budget Request 
will allow the Armed Forces to meet operational requirements, continue 
rebuilding warfighting readiness, and place the military on a path to 
balancing the Defense program. However, without sustained, sufficient, 
and predictable funding, I assess that within 5 years we will lose our 
ability to project power; the basis of how we defend the Homeland, 
advance U.S. interests, and meet our alliance commitments.
                         strategic environment
    In today's strategic environment, five key challenges--Russia, 
China, Iran, North Korea, and Violent Extremist Organizations--most 
clearly represent the challenges facing the United States military. 
They serve as a benchmark for our global posture, the size of the 
force, capability development, and risk management.
    Over the past several decades, each of these state actors have 
developed capabilities and operational approaches to counter our 
strategic and operational centers of gravity. The United States' 
decisive victory in Desert Storm in 1991 was a wake-up call for our 
adversaries. For Russia and China, specifically, the lessons-learned 
spurred dramatic tactical, operational, and strategic adaptations. 
Observing the power and efficacy of precision guided munitions and 
combined arms maneuver, both countries accelerated modernization 
programs to asymmetrically counter U.S. advantages. They adapted 
operational constructs to incorporate anti-access technology and 
employed new doctrines to leverage high-tech weaponry across all 
domains. These efforts sought to limit U.S. freedom of navigation, deny 
our ability to gain and maintain air-superiority, negate the capability 
of our precision munitions, and limit our ability to employ 
sophisticated command and control systems.
    Today, Russia continues to invest in a full-range of capabilities 
designed to limit our ability to project power into Europe and meet our 
alliance commitments to NATO. These capabilities include long-range 
conventional strike, cyber, space, electronic warfare, ground force and 
naval capabilities. Russia is also modernizing all elements of its 
nuclear triad and its non-strategic nuclear weapons. These capabilities 
are intended to enable Russia to counter United States and NATO power 
projection and undermine the integrity of the NATO alliance.
    Similarly, China has embarked on a significant program to modernize 
and expand strategic and conventional military capabilities. They have 
expanded their nuclear enterprise and made investments in power 
projection, space, cyber, hypersonic weapons, cruise missiles, and 
ballistic missiles--even as they continue to build out their physical 
presence in the South China Sea. China is also investing heavily in 5th 
generation fighters, air-to-air missiles, air defense systems, and sea 
and undersea anti-access technologies to limit our ability to project 
power, operate freely, and meet our alliance commitments in the 
Pacific.
    Russia and China are not alone in these pursuits. North Korea's 
nuclear weapons development, combined with efforts to develop a 
nuclear-capable ballistic missile capability, is specifically intended 
to threaten the security of the Homeland and our Allies in the Pacific. 
Over the past year, North Korea conducted an unprecedented number of 
missile tests. Moreover, North Korea has demonstrated a willingness to 
use malicious cyber tools against governments and industry. These 
actions destabilize the region and pose an increasing threat to U.S. 
and our allies.
    Iran seeks to assert itself as the dominant regional power in the 
Middle East. They continue to support international terrorist 
organizations like Hezbollah, and support proxies in Syria, Iraq, and 
Yemen to assert influence and counter the influence of the United 
States and our Allies. They actively seek to destabilize their 
neighbors, and employ naval capabilities that threaten freedom of 
navigation. At the same time, they are modernizing an array of 
ballistic missiles, missile defense, space, cyber, maritime, and cruise 
missile capabilities.
    Finally, Violent Extremist Organizations such as ISIS and al Qaida 
remain a threat to the Homeland, our Allies, and our way of life. 
Violent extremism is fundamentally a transregional threat and a 
generational struggle that requires our military to work with 
interagency and coalition partners to disrupt external attacks, and 
dismantle their capabilities wherever they emerge. Even with the 
success of our continued efforts to defeat the Islamic State in Iraq 
and Syria, the threat of Islamic terrorism will remain.
    A review of these five challenges demonstrates that the U.S. 
military requires a balanced inventory of advanced capabilities and 
sufficient capacity to act decisively across the range of military 
operations. As a nation that both thinks and acts globally, we cannot 
choose between a force that can address ISIS and other Violent 
Extremist Organizations, and one that can deter and defeat state actors 
with a full range of capabilities. Nor do we have the luxury of 
choosing between meeting our current operational requirements and 
developing capabilities that we will need to meet tomorrow's 
challenges.
    However, as a result of sustained operational tempo and budget 
instability, today the military is challenged to meet operational 
requirements and sustain investment in capabilities required to 
preserve--or in some cases restore--our competitive advantage.
    Sustained operational tempo and demand have forced the Department 
to prioritize near-term readiness at the expense of modernization. 
Additionally, a conscious choice was made to limit the size of the 
force in order to preserve scarce resources necessary for essential 
investments in immediate upgrades to critical capabilities. As a 
result, today, demand for high-demand/low-density specialties often 
outpaces supply. Particular stress is felt in specialties such as ISR, 
missile defense systems, naval expeditionary forces, special operations 
forces, global precision strike units, and cyber forces. Additionally, 
over the past 2 years, munitions expenditures in ongoing operations 
against Violent Extremist Organizations exacerbated existing 
shortfalls.
    Making matters worse, for the past five years, the Budget Control 
Act (BCA) has forced the Department of Defense (DOD) to operate with 
about $450 billion less than planned and required. These reductions 
have been aggravated by repeated Continuing Resolutions (CR) which 
hamper long-term investment and often result in increased costs. For 
nine of the last ten years, the Department of Defense has operated 
under some type of CR, delaying critical new starts, deferring 
installation and infrastructure modernization, and canceling major 
training events. A year-long fiscal year 2018 CR would cut $33 billion 
from the Department's request, further exacerbating these problems.
    Based on these factors, the Army has been forced to prioritize 
near-term readiness and now faces a shortage of critical capabilities 
and capacities in armor, air defense, artillery, and aviation. These 
deficiencies are made worse by manpower shortfalls in critical military 
specialties and training resource constraints. Consequently, the Army 
is limited in its ability to man, train, and equip fully-ready Brigade 
Combat Teams (BCT) and other critical enablers required to deploy, 
sustain, and protect servicemembers operating around the world.
    For similar reasons, the Navy faces readiness challenges in both 
ships and aircraft. Operational requirements and capacity constraints 
in shipyards and aircraft depots have increased the time and cost 
required to conduct major repairs. Maintenance delays, low stocks of 
spare parts, lack of training ordnance, and aging infrastructure impair 
the Navy's ability to conduct integrated training. As a result, the 
Navy is limited in its ability to meet operational demand for maritime 
capability and power projection, especially in contested environments.
    The Air Force is also challenged to balance operational demands and 
invest for the future. Today, the Air Force is short almost 1,500 
pilots, including 800 fighter pilots, and more than 3,400 maintainers 
across all components. They lack sufficient resources to adequately 
support both 4th and 5th generation training. And they have delayed 
investment in 4th generation aircraft modifications while limiting the 
fielding of 5th generation strike-fighters. The result is fewer trained 
pilots available to deploy, over-tasked and aging aircraft, and delays 
in modernization programs required to defeat near-peer adversaries.
    Over the last several years, the Marine Corps has been forced to 
delay planned investments in infrastructure, Command and Control, and 
ground systems required to build, train, and launch combat ready 
forces. Today, the Marine Corps lacks sufficient Ready Basic Aircraft 
for training and deployments and has delayed procurement of the F-35, 
CH-53K, MV-22, and KC-130J aircraft. These delayed investments limit 
the Marine Corps' strategic flexibility and inhibit its ability to meet 
operational demands.
    If these trends continue, and the constraints of sequestration are 
not lifted, the Department will have to cut force structure, as the 
tradeoffs required to maintain the capability and capacity of the 
current force are no longer sustainable. Going forward, the Department 
of Defense requires sustained, sufficient, and predictable funding to 
meet current operational requirements, restore readiness shortfalls, 
and place us on a path toward restoring our eroded competitive 
advantage.
impact of fiscal year 2017 request for additional appropriations (raa).
    Congress' willingness to support the Administration's request for 
additional resources in fiscal year 2017 was a necessary first step to 
reverse the impacts of under-investment over the last five years. The 
fiscal year 2017 appropriation yielded improvements in immediate 
warfighting readiness by providing funding for modest increases to end 
strength that primarily filled holes in existing units, funding full 
spectrum training, beginning to replenish depleted ammunition stocks, 
and continuing the restoration and modernization of critical systems.
    However, the fiscal year 2017 Appropriations Bill did not fully 
address the Department's modernization and procurement requirements and 
significant, long-term readiness challenges remain. The Services' 
inability to fully fund procurement of key platforms continues to 
hamper readiness by limiting the number and types of platforms 
available for initial entry training, individual proficiency, and 
collective training. Because of this, the military begins the fiscal 
year 2018 budget cycle in a less healthy position than if the fiscal 
year 2017 RAA was fully funded, making full and on-time funding of this 
budget even more critical.
        intent of the fiscal year 2018 budget: what does it do?
    The Fiscal Year 2018 Budget Request builds on the readiness 
recovery started in fiscal year 2017, starts to fill the holes created 
by the BCA, and begins to balance the program. It enables the 
Department to meet operational requirements, begin rebuilding mid- and 
long-term readiness, and begin restoring capability and capacity 
necessary to improve lethality. These are essential first steps in 
arresting the erosion of the military's competitive advantage.
    In Afghanistan, fiscal year 2018 investments will reinforce 
improvements in the Afghan National Defense and Security Forces. In 
Iraq and Syria, the Budget Request funds emerging requirements and 
provides sufficient funding and authority for the defeat-ISIS train and 
equip fund. In Europe, the Budget Request provides a 40 percent 
increase in funding for the European Reassurance Initiative (ERI) that 
sustains ongoing assurance efforts, and improve the capability of the 
United States forces and our Allies to deter potential Russian 
aggression.
    To rebuild warfighting readiness, the Army will fully man its 
combat formation, fund 19 Combat Training Center rotations in fiscal 
year 2018, and increase resources for home-station training to ensure 
units maximize full spectrum readiness. The Navy will provide flying 
hours and increase depot maintenance to enable integrated air/sea 
training. The Air Force will invest in training required to improve 4th 
and 5th generation warfighting capability. The Marines will increase 
funding for flying hours, logistics, and engineering units, and focus 
training resources on amphibious and combined arms operations.
    Maintenance resources included in the Fiscal Year 2018 Budget 
Request also improve readiness. The Army will prioritize maintenance 
for equipment coming out of theater in order to prepare it for unit 
training and refill prepositioned stocks in Europe and the Pacific. The 
Navy will add critical workforce capacity that reduces ship and 
aviation depot maintenance backlogs. The Air Force will conduct overdue 
weapons system sustainment, increase maintenance for inter-theater 
airlift, and execute recapitalization of critical systems. The Marines 
will prioritize maintenance for MV-22, rotary wing, and fighter 
aviation to improve its survivability, mobility, and lethality.
    To begin restoring capacity and lethality across the force, the 
Fiscal Year 2018 Budget makes critical investments in Tactical Air 
(TACAIR), ships, space, and cyberspace, and begins essential nuclear 
recapitalization efforts. Investments in TACAIR enable the Air Force, 
Navy, and Marine Corps to continue procurement of 5th generation 
fighters and fund upgrades to 4th generation fighters that fill 
shortfalls and begin to grow capacity. The Air Force will procure 46 F-
35As and begin upgrades to F-16s. The Navy will procure 4 F-35Cs and 14 
F/A-18E/Fs to mitigate its strike fighter shortfall. The Marines will 
procure 20 F-35Bs. These investments, coupled with investments in 
modernization of depot maintenance facilities, allow us to begin 
reversing the impact of delays in TACAIR modernization over the past 
five years.
    The Fiscal Year 2018 Budget Request supports the Navy's growth by 
supporting the procurement of 9 ships and continuing necessary 
investments to upgrade and modernize nuclear aircraft carriers, 
destroyers, littoral combat ships, Ticonderoga-class cruisers, 
amphibious assault ships, and submarines. These investments are 
essential to enabling the Navy to project power, ensure forward 
presence and deterrence, ensure access to the global commons, and 
provide ballistic missile defense.
    Continued improvement in space-based systems enables us to better 
protect satellites, improve tracking/discrimination capabilities, and 
continue domestic launch development. Cyberspace investments prioritize 
hardening information networks, defending against cyber-attacks, and 
continuing to build, train, and equip cyber mission forces and maturing 
cyberspace command and control. These advances improve both offensive 
and defense space and cyberspace capabilities and enhance the 
resiliency of our systems and networks.
    The Fiscal Year 2018 Budget Request also invests in upgrades to the 
nuclear enterprise, including inter-continental ballistic missiles, 
nuclear submarines, strategic bombers, and command and control systems. 
Continuing to maintain a secure and effective nuclear deterrent is 
essential to defending the Homeland.
    However, the Fiscal Year 2018 Budget Request alone will not fully 
restore readiness or arrest the military's eroding competitive 
advantage. Reversing the impact of the past five years of sustained 
operational tempo and budget instability requires sustained investment 
beyond fiscal year 2018.
 what fiscal year 2018 budget request doesn't do: areas for continued 
                              investment.
    Specific recommendations for fiscal year 2019, and beyond, will be 
informed by the results of the National Defense Strategy. Today, 
however, we know that continued investment is needed to execute 
responsible growth in capacity, build advanced capabilities, and 
restore the long-term readiness. These investments are essential to 
ensuring our ability to project power and maintain a credible strategic 
deterrent.
    We continue to consume readiness as fast as we build it and lack 
sufficient capacity to both meet today's operational requirements and 
rebuild the competencies necessary to defeat near peer adversaries. As 
a result, our units are training to meet their assigned missions at the 
expense of training for their designed mission. To break this cycle, we 
must increase capacity in critical areas such as C4ISR, fighter 
aircraft, armored BCTs, amphibious ships, and special operations 
forces. This additional capacity will allow us to meet today's 
requirements and prepare for tomorrow's.
    We must also invest in advanced capabilities required to defeat 
near-peer adversaries. As we have prioritized readiness for ongoing 
operations, our adversaries have prioritized investment in technologies 
that exploit our vulnerabilities and limit our ability to project 
power. To ensure our competitive advantage, we must accelerate 
investments in systems that defeat adversary anti-access capabilities 
at sea and under the sea, improve our ISR resiliency, guarantee access 
to space and cyber, and enable us to defeat integrated air defenses. 
These advanced capabilities are vital to maintaining the U.S. 
military's competitive advantage in all environments and across all 
domains.
    It is also essential that we restore Comprehensive Joint Readiness, 
the ability of the U.S. military to deploy, employ, and sustain itself 
anywhere in the world, while maintaining the flexibility to transition 
from one crisis to another, across the range of military options. This 
requires sufficient capacity, the necessary capabilities, and iterative 
training. Our Air Force must possess the right mix of 4th and 5th 
generation aircraft and have sufficient capacity to conduct integrated 
training. Our Navy must grow and modernize while preserving a globally-
present fleet, capable of sailing and operating anywhere in the world. 
The Army and Marine Corps must fill unit short-falls and upgrade ground 
tactical vehicles while expanding full spectrum training. These 
investments are essential to projecting power in contested environments 
against any adversary and operating across the spectrum of conflict.
    Additionally, we must invest in maintaining a credible strategic 
deterrent. Due to fiscal constraints, we have delayed modernization of 
all three legs of the nuclear triad and are now approaching decision 
points with no remaining schedule margins. Over the coming decades we 
must recapitalize our inter-continental ballistic missiles, ballistic 
missile submarines, strategic bombers, and many of our command, 
control, and communication systems. Recapitalization costs will be 
significant and can no longer be delayed if the United States wants to 
maintain a safe, secure, and effective nuclear deterrent.
                               conclusion
    Today, despite the challenges facing us, our military is the most 
capable military in the world. We need sustained, sufficient, and 
predictable funding to grow sufficient capacity, develop the correct 
mix of advanced capabilities, and ensure a ready force. These 
investments are necessary to ensure our ability to defend the Homeland 
and project power when and where required. With your help and 
commitment, we can preserve our competitive advantage and ensure that 
we never send America's sons and daughters in to a fair fight.

    Chairman McCain. Secretary Norquist?
    Secretary Norquist. Mr. Chairman, I have no separate 
opening remarks.
    Chairman McCain. Thank you.
    Secretary Mattis, the committee received unfunded 
requirement lists from each of the military services that 
amounted to more than $31 billion. Have you reviewed those 
unfunded requirements lists?
    Secretary Mattis. I have, Chairman.
    Chairman McCain. Do you agree these are military 
requirements that should be funded?
    Secretary Mattis. Chairman, I think we have our priorities 
right in the base budget, but I have reviewed the unfunded 
requirements. I believe it is $33 billion, and I think if we 
were to receive more money, those requests are appropriate.
    Chairman McCain. I guess my question is, is it your request 
that we give you $31 billion more?
    Secretary Mattis. Chairman, I am here to defend the budget 
as it stands because I can defend every priority there. If the 
Congress were to allocate additional funds to national defense, 
I believe the unfunded priorities lists give good priorities.
    Chairman McCain. So you are satisfied with what is 
basically a 3 percent increase in budgetary requirements?
    Secretary Mattis. Chairman, when it comes to defense, sir, 
at this point, I think that the President's Budget is allocated 
appropriate to the priorities. The priorities listed by the 
Service Chiefs, as we go more deeply into the readiness 
challenge, are certainly well-tuned to what we need.
    I would be happy to see more money, if the Congress was to 
allocate additional funds along the lines of the unfunded 
priorities lists.
    Chairman McCain. Well, I appreciate your willingness to 
cooperate. But a lot of times, we depend on your 
recommendations in shaping our authorization and 
appropriations.
    Secretary Mattis. Yes, sir. I cannot think of any 
priorities I would put in place of the unfunded priorities 
list, if we are given additional money, sir. That would be a 
decision by you. I have to represent the President's Budget, 
since he is having to deal with a wider portfolio than just 
defense.
    Chairman McCain. Let me put it this way, will this 3 
percent increase give you the confidence that we need that we 
are doing everything we can to make sure that our men and women 
serving in uniform are adequately equipped and trained and 
ready to fight?
    Secretary Mattis. Chairman, it took a good many years to 
get into the hole we are in. It will not be enough in itself to 
take us where we need to go. It is going to be a campaign, as I 
laid out, that started with our request for an additional $30 
billion during this fiscal year, the growth that we have in the 
2018 budget. When I get done with the defense strategy and 
review that, we will be coming back to you for more and 
probably along the lines of close to 5 percent growth, 3 to 5 
percent growth for 2019 to 2023.
    But, no, it will not take us the whole way. It is in the 
right direction.
    Chairman McCain. It is now mid-June. Congress has not 
passed a fiscal year 2018 budget, something that should 
embarrass every Member of the Senate and House. Neither the 
House nor the Senate has started drafting or considering 
appropriations bills, because there is no resolution of the 
topline.
    This body knows what needs to be done, a bipartisan budget 
deal to set the budget levels, but it has refused to begin such 
work. If we do not begin negotiating today, it is very likely 
the military once again will begin the fiscal year on a 
continuing resolution.
    What would be the impacts of starting this year on a 
continuing resolution at the Budget Control Act levels, or $52 
billion less than your request?
    Secretary Mattis. Chairman, it can only worsen the 
readiness situation we face now, which has been laid out 
starkly, I believe, by the Service Chiefs, if we go in with a 
continuing resolution.
    Chairman McCain. The first conversation that you and I had 
was about a strategy for Afghanistan. We are now 6 months into 
this administration. We still have not got a strategy for 
Afghanistan.
    It makes it hard for us to support you when we do not have 
a strategy. We know what the strategy was for the last 8 years: 
Do not lose.
    That has not worked. I just mentioned in my opening 
statement that we just lost three brave Americans.
    When can we expect the Congress of the United States to get 
a strategy for Afghanistan that is a departure from last 8 
years which is, do not lose?
    Secretary Mattis. I believe by mid-July we will be able to 
brief you in detail, sir. We are putting it together now, and 
there are actions being taken to make certain that we do not 
pay a price for the delay. But we recognize the need for 
urgency, and your criticism is fair, sir.
    Chairman McCain. Well, I am a great admirer of yours, Mr. 
Secretary, and so are those men and women who have had the 
honor of serving under you. But we just cannot keep going like 
this. You cannot expect us to fulfill the three requirements 
that you gave--funding increase, pass a budget, present a 
stable budget--if you do not give us a strategy.
    I hope you understand that I am not criticizing you, but 
there are problems within this administration. I was confident 
that within the first 30 to 60 days we would have a strategy 
from which to start working. So all I can tell you is that, 
unless we get a strategy from you, you are going to get a 
strategy from us. I appreciate our wisdom and knowledge and 
information and all of the great things, with the exception of 
some to my left here, but the fact is, it is not our job. It is 
not our job. It is yours.
    I have to tell you, the frustration that I feel is 
obviously palpable because it is hard for us to act when you do 
not give us a strategy, which then leads to policy, which then 
leads to authorization, which is our job. So I hope you 
understand that we are going to start getting more vocal in our 
criticism of not having a strategy for Afghanistan.
    Do you agree that we are not winning Afghanistan?
    Secretary Mattis. Sir, I understand the urgency. I 
understand it is my responsibility. We are not winning in 
Afghanistan right now, and we will correct this as soon as 
possible.
    I believe the three things we are asking for stand on their 
own merit, however, as we look more broadly at the protection 
of the country. But in no way does that relieve me of the need 
to deliver that strategy to you, sir.
    Chairman McCain. I thank you, General, and I understand 
very well, as do members of this committee, that some of this 
is beyond your control. But at some point, we have to say, 
look, the Congress owes the American people a strategy which 
will then lead to success in Afghanistan. I am sure that the 
three names that I just mentioned in my opening statement, 
their parents and their wives and their husbands and their 
families, members of their family, are very aware that we have 
no strategy.
    So let's not ask these families to sacrifice any further 
without a strategy which we can then take and implement and 
help you. I am fighting as hard as I can to increase defense 
spending. It is hard when we have no strategy to pursue. So I 
hope you understand the dilemma that you are presenting to us.
    Secretary Mattis. I do, sir.
    Chairman McCain. Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary, as we discussed in your testimony, and in 
the chairman's and in my testimony, even if you get the 
additional $52 billion, with sequestration in place, you would 
essentially have to turn around and forfeit that in across-the-
board cuts. Is that your understanding?
    Secretary Mattis. Yes, sir.
    Senator Reed. Those across-the-board cuts would be more 
disruptive than anything I could conceive, because there would 
be no prioritization. It would just be taking from the most 
sensitive program and, in fact, leaving money in programs that 
might not even need it. Is that correct?
    Secretary Mattis. That is correct, sir. It would be 
injurious. Again, it would sideline both this committee and 
myself in making wise decisions.
    Senator Reed. Did you make that point to the President, in 
terms of the ultimate consultation about this budget, in his 
role as Commander in Chief?
    Secretary Mattis. I assure you, sir, President Trump is 
keenly aware of this situation.
    Senator Reed. What is his position on sequestration?
    Secretary Mattis. I would prefer to speak to mine, sir, 
because I can speak most authoritatively there. The bottom line 
is the administration believes that the Congress has to repeal 
the Budget Control Act and the sequestration that follows.
    Senator Reed. But wouldn't it be not only appropriate but 
essential that that be incorporated in the President's Budget 
because the ramifications of sequestration are clearly played 
out in every aspect of the budget? Remaining silent, as I 
believe he did in the budget, leaves a lot of people wondering 
what is his real position or does he even understand what is 
going on?
    Secretary Mattis. Senator Reed, we are part of the 
executive branch and Article One of the Constitution gives you 
that authority to deal with that very situation. I think we all 
know what needs to be done. I have heard it from Republicans 
and Democrats on this committee for a long time.
    Senator Reed. But the interesting thing is I have not heard 
a clarion call from the President and also a practical response 
and solution as to how we not only undo the BCA but how do you 
then allocate resources between defense spending, domestic 
spending, and other spending. Without that, again, it goes in 
the same trajectory of no strategy.
    There is no budgetary strategy here either. It is just, 
``Congress do something.'' I thank the chairman's point is, it 
is very late in the game, and the ability for us just 
institutionally to rewrite a budget, to reallocate resources 
between defense and nondefense, to increase defense spending 
without any guideline or framework from the administration, it 
is not impossible, it is very difficult.
    Do you sense that?
    Secretary Mattis. Senator Reed, we have submitted a 
presidential budget for the Department of Defense. We believe 
that is guidance. We have submitted the unfunded priorities 
list from the Pentagon, in accordance with the will of 
Congress, and we believe that is guidance for what we need.
    Senator Reed. Just a final point, Mr. Secretary. I do, like 
all my colleagues, respect you immensely. But the budget that 
is submitted will not work. If nothing is done to change the 
BCA, sideline the BCA, the $52 billion we give you, we will 
take back, in fact in a more harmful fashion even if we did not 
give it to you. If we just left the BCA levels, at least you 
could prioritize.
    So let me just change gears for a moment. Have you received 
direction, you and your colleagues in the national security 
agencies, from the President to begin intense planning and 
preparation for what appears to be an inevitable renewal of 
cyberattacks by Russia against the United States, particularly 
in the context of elections? Have you received any guidance?
    Secretary Mattis. We are in constant contact with the 
national security staff on this, and we are engaged not just in 
discussing the guidance but in actual defensive measures, sir.
    Senator Reed. That guidance, the President has clearly laid 
out, in some type of authoritative way, the mission to protect 
the country in this respect? Or is it something just collateral 
to your discussions?
    Secretary Mattis. Senator, I am under no confusion 
whatsoever of my responsibilities in the organizations I have, 
the National Security Agency and Cyber Command, about what we 
are supposed to be doing right now. We are taking active steps 
that I can brief you on in a closed hearing.
    Senator Reed. So, General Dunford, I think you testified 
previously that Russia represents the most significant threat 
to the United States, not only in their new area denial systems 
that I think you alluded to, but also in their cyber 
operations. Is that still your position?
    General Dunford. It is, Senator. I included their nuclear 
capability as well as their behavior.
    Senator Reed. Again, finally, in my last few seconds, do 
you believe that is the position of the President of the United 
States, that Russia, particularly in all these new dimensions, 
is the most significant threat to the United States, Mr. 
Secretary?
    Secretary Mattis. Sir, I prefer to let him speak for 
himself on that. I can assure you that, from law enforcement to 
the intelligence agencies, and all that information is 
available and briefed to the President, we are recognizing the 
strategic threat that Russia has provided by its misbehavior.
    Senator Reed. But you recognize it. The question is, does 
he recognize it?
    Secretary Mattis. Sir, I have had full support, for 
example, for the European Reassurance Initiative [ERI], where 
we are sending more troops to Europe. They are not being sent 
there for any reason other than to temper Russia's designs. I 
have had full support on the things that we have had to do in 
order to address Russia's choices.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you, General Dunford.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you, gentlemen. Thank you for your 
service.
    Let me just say this about sequestration. When I think 
about the failure of this Congress and this government to deal 
with this, I look in the mirror and I take my share of the 
responsibility. One thing that has not been said is that the 
reason we got to sequestration to start with is that there is 
two-thirds of American spending that is on autopilot. It is 
very popular programs, the entitlement programs, Medicare, 
Medicaid, Social Security, and, of course, interest on the 
debt. Sequestration was meant to focus us on that two-thirds of 
the budget that we do not deal with every year.
    We have been unwilling politically to do that on both sides 
of the aisle. Until we do that, we are not going to really be 
able to get back to the problem that got us to sequestration to 
start with.
    But let me talk about something, Secretary Mattis, that 
might save us a good deal of money, and that is multiyear 
procurement authority, which is assumed in your budget 
proposals for destroyers, fast attack submarines, and V-22 
aircraft.
    It is my understanding that the Cost Assessment and Program 
Evaluation office, or CAPE, that the Navy and OMB all agree 
that savings would be significant if we go with multiyear 
procurement authority, but we lack at this point a preliminary 
determination to begin to implementation this. A final 
determination can come later, but we need the preliminary 
determination.
    So are you aware of this situation, Secretary Mattis? Do 
you agree that the assumption in your budget is correct, that 
this will save money? Can you help us on this?
    Secretary Mattis. Senator, I have no doubt it would save 
money to have multiyear procurement, especially of things that 
take a lot of steel, a lot of equipment to build. The economies 
of scale allow for enormous savings. We would have to have a 
repeal of the BCA Act in order to give the confidence to 
industry that they can buy that stuff and it will not sit in 
the shipyard when funding dries up the next year.
    So again, we come right back around to the very thing the 
chairman and the ranking member have been discussing about what 
BCA does to us. It removes the chance for even wise investment 
of the money you give us, sir.
    Senator Wicker. Okay, but at this point, the immediate 
situation is that I need you to commit to this committee that 
you will intervene to ensure that we get the preliminary 
determination necessary to move us forward at that point. We do 
not need to repeal BCA to get that done. Will you help us on 
that?
    Secretary Mattis. We will help you. Yes, sir.
    Senator Wicker. All right. Thank you very much.
    Now let me ask you, in the remaining time, I appreciate 
what has been said about winning in Afghanistan. Now I noticed, 
over the last few days, a group of my colleagues have advocated 
just, ``It has been too long. We need to look at the timetable. 
A decade and a half is too much. We just need to pull out and 
let Afghanistan take care of itself.''
    Let me just say I think that would be a massive mistake 
which would affect the security of Americans. I hope you agree 
with that.
    So if you could comment on that, but also define for us 
what winning in Afghanistan means. If we are successful there 
and have a follow-on force that is not involved in combat, much 
as we have had for 70 years in Europe and a long, long time in 
South Korea, that would be certainly something that I could 
live with.
    But if you would comment on that in my time remaining?
    Secretary Mattis. I believe you are correct that to walk 
away from this, we have already seen what can come out of these 
kinds of spaces, these ungoverned spaces. The problems that 
originate there do not stay there. They come out. They threaten 
all of us. They threaten the world order. They threaten our 
economy. They threaten our very country.
    As far as what does winning look like, the Afghan 
Government, with international help, will be able to handle the 
violence, drive it down to a level that local security forces 
can handle it. With our allies, it would probably require a 
residual force doing training and maintaining the high-end 
capability so that the threats, should they mature, we can take 
them down and keep this at a level of threat that the local 
government and the local security forces can handle.
    It is going to be an era of frequent skirmishing, and it is 
going to require a change in our approach from the last several 
years, if we were to get it to that position.
    Senator Wicker. Do the people of Afghanistan want us there?
    Secretary Mattis. There is no doubt the majority do, sir. 
The reason the Taliban and Haqqani use bombs is because they 
cannot win at the ballot box, and they know that.
    The people do want us there, and that is based on loya 
jirga outcome. That is the rather large assembly of local and 
provincial and national level leaders. Plus, it is based on 
polls not run by the United States but by other organizations.
    I have no doubt the majority want us there. Not all of them 
do, but the ones who do not are not the ones who are looking 
forward to Afghanistan's future as we think it ought to look, 
we and the Afghan people.
    Senator Wicker. Thank you, sir.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to continue the line of questioning started by the 
ranking member.
    I am deeply concerned about the success of Russian 
information warfare efforts in influencing the course of the 
2016 elections here in the United States, as well as its 
efforts to destabilize democracies across the globe.
    How is the Department working with other Federal agencies 
to counter Russian information warfare in the United States and 
the hacking of our electoral systems? How are you working with 
our partners and allies to fight these efforts? Secretary 
Mattis?
    Secretary Mattis. First of all, ma'am, there is constant 
information flow defining the problem as critical, because they 
try to do it in a deniable manner. So we work inside our 
interagency effort, law enforcement, everything from FBI [the 
Federal Bureau of Investigation] and any other police 
organization that gets information on this, but it mostly has 
been FBI. Our intelligence agencies work together, too.
    We have good sharing of information, and we also work with 
our allies, sharing information back and forth. You have seen 
some of that. Some of it can be released. You will see it in 
the newspaper, about what is going on in other nations' 
elections right now, for example, in Europe.
    Senator Gillibrand. This morning, Bloomberg reported that 
Russia managed to hack 39 States' electoral systems and 
attempted to alter data, though it was not successful.
    Last week, a leaked NSA [National Security Agency] document 
suggested that GRU [the Main Intelligence Directorate], 
Russia's military intelligence agency, attacked a company that 
provides software to manage voter rolls in eight States, 
including New York. The attackers then used that information 
they stole to launch targeted attacks against 122 local 
election officials just 12 days before the election.
    This information highlights the urgent need to protect our 
election infrastructure from cyberattack going forward to 
protect our democratic process. During the last election, 
several National Guard units assessed the States' election 
systems from these types of intrusions.
    Senator Gillibrand. Do you think there is a role for the 
National Guard, with its unique authorities, in assisting and 
securing election systems?
    Secretary Mattis. There may be, ma'am. I think our 
organization right now is still adapting to this new domain. 
One of the reasons we do not want continuing resolutions [CR] 
is because we have to do new things. I also assume in something 
like this that what you just outlined is not the whole problem. 
It is worse.
    Senator Gillibrand. Do you think we should consider a 9/11-
style commission to just do a deep dive on where are our cyber 
vulnerabilities, what are the 10 things we need to do to 
prevent cyberattack in the future, in the same way the 9/11 
commission made recommendations that, frankly, have subverted 
terror attacks, certainly in New York State, over the last 
decade, because those recommendations really did have an impact 
on how to protect against future terrorism?
    Secretary Mattis. Senator, I would have to look at what is 
the problem we are trying to solve. I think reorganization of 
Cyber Command [CYBERCOM] and NSA along the lines that have been 
proposed by the Congress, I think that also is part of defining 
the problem and defining the defensive measures that we need to 
take.
    But I would not be against something like that. I would 
have to look at what the specific problem is it would be 
assigned to do, but I am not against that.
    Senator Gillibrand. It would just make recommendations to 
prevent another cyber hack of our elections, just the same way 
the 9/11 commission did it, basically impaneling nonpartisan 
experts in cyber to just come up with the 10 things we need to 
do.
    Secretary Mattis. Yes, I will just tell you we have efforts 
underway to do these very things right now. But at the same 
time, I am not against what you are proposing.
    Senator Gillibrand. Okay. I want to talk a little bit about 
sort of the world order, in my last 1.5 minutes.
    President Trump's decision to withdraw from the Paris 
Climate Agreement was just one of the several signals to the 
world that the administration is repositioning the United 
States not as a global leader but as a country focused 
exclusively on its interests. Upon his return, National 
Security Adviser H.R. McMaster and Gary Cohn wrote in the Wall 
Street Journal, ``The President embarked on his first foreign 
trip with a clear-eyed outlook that the world is not a 'global 
community' but an arena where nations, nongovernmental actors, 
and businesses engage and compete for advantage.''
    Our defense strategy has been predicated on working with 
allies to maintain the stability of different regions of the 
world, and yet this op-ed suggests that we would only work with 
allies and partners when it suits us. Is the Department 
redrawing its defense strategy around this new paradigm?
    Secretary Mattis. We do work by, with, and through allies. 
We have alliances. We have bilateral agreements. I think that 
we will continue to be working alongside others.
    The Greatest Generation came home from World War II and 
said, like it or not, we are part of the world. That is a 
philosophy that guides our foreign policy, as well as our 
military policy.
    Senator Gillibrand. Admiral Mike Mullen, former Chairman of 
the Joint Chiefs, and former National Security Adviser Jim 
Jones just wrote an opinion piece on the same topic, and you 
said something similar several years ago, that the less we 
invest in diplomacy, the more we invest in bullets.
    Do you still agree with that analysis?
    Secretary Mattis. Yes, ma'am. It has to be a whole-of-
government approach to the world. Absolutely.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Good morning, gentlemen. I would like to thank you both for 
your service and for being here today.
    First, I would like to note my appreciation for this 
budget's strong support for nuclear modernization and the 
comments that both of you made on this issue in your prepared 
comments. I know, Mr. Secretary, you alluded to that in your 
opening statement as well. I was pleased to see the 
Department's request reflect the necessary prioritization for 
that nuclear modernization, so thank you for that.
    General, in your opening statement, you said that you 
assess that, within 5 years, we will lose our ability to 
project power. Can you put that in context? What does being 
unable to project power do to our ability to protect our 
Homeland and deter conflict, meet our obligations to our 
allies, article 5 under NATO, for example?
    General Dunford. I can, Senator. From my perspective, 
really since the 1990s, China, Russia, other countries, have 
studied United States capabilities from precision munitions to 
our ability to project power. We identify that as--we call it 
our center of gravity, but our source of strength, the ability 
to project power when and where necessary to advance our 
interests, to meet our alliance commitments.
    We think that plays an important role in deterrence. It 
plays an important role in assuring our allies that we can meet 
our alliance commitments.
    In the specific areas where they have invested in--anti-
ship cruise missiles, anti-ship ballistic missiles, electronic 
warfare capabilities, cyber capabilities--all focus to prevent 
us from projecting power when and where necessary to accomplish 
our objectives. So they want to keep us from getting into the 
area. This is both the case with Russia with regard to our NATO 
alliances and China with regard to meeting our commitments in 
the Pacific. They want to keep us from being able to deploy 
forces into the area and to operate freely within the area.
    So when I talk about competitive advantage, in my judgment, 
the problem that we are trying to solve is to continue to be 
able to do what we have historically been able to do, and that 
is simply to project power when and where necessary.
    Again, I mentioned the role it plays in assuring our allies 
and meeting our commitments. I also believe that source of 
strength plays a very, very important role in deterring 
potential adversaries from initiating provocation or conflict.
    Senator Fischer. You mentioned that 5-year period. Do you 
believe that it is in doubt now?
    General Dunford. It is eroding now. We have historically 
had the ability to do that, not uncontested but in a decisive 
way. I think our competitive advantage has eroded right now.
    We would be challenged in projecting power today. We have 
done some very careful analysis at a classified level looking 
function by function at our current capabilities, our 
adversaries' current capabilities, the path of capability 
development that we are on, the path of capability development 
that our adversaries are on. What we have seen is an erosion 
over the past 10 years.
    In our judgment, we will get to the point where we would 
suffer significant casualties and significant time delays in 
meeting our objectives and projecting power in 5 years.
    Senator Fischer. In 5 years. Do you think now that, 
regardless of our intent, we do not have the capability to act 
unless we change the path we are on?
    General Dunford. Senator, I do not think there is any 
question that, unless we change the path we are on, we are 
going to be at a competitive disadvantage, qualitatively and 
quantitatively.
    Senator Fischer. So that is pretty consequential, isn't it?
    General Dunford. Senator, to me, it affects our ability to 
deter conflict. It affects the confidence that our allies have 
in our ability to meet our commitments. At the end of the day, 
it makes it a more dangerous world, because both nuclear 
deterrence and conventional deterrence would be affected.
    Senator Fischer. If we are unable to meet the needs of the 
force that we have now, that they are incapable or that they 
are not ready, do you believe that any leader will send that 
force into the battle?
    General Dunford. I think it would be very difficult for a 
leader to send a force in battle when his military leadership 
would articulate the risk associated with doing that.
    I do want to make it clear, I believe we have a competitive 
advantage over any potential adversary today. What I am doing 
now is projecting into the future based on a trend line that we 
have seen over the past decade where we will be if we do not 
turn it around.
    Senator Fischer. Thank you.
    Secretary Mattis, in the last 4 weeks, the United States 
has conducted three strikes against pro-regime forces that 
threaten coalition soldiers in Syria. Do I have your assurance 
that we are going take any and all measures necessary to 
protect our forces in that area?
    Secretary Mattis. Absolutely, Senator. Those are self-
defense strikes, and the commander on the ground has the 
authority to take whatever action necessary, and I support 
that.
    Senator Fischer. Okay. During your confirmation hearing, 
you talked about how Russia had chosen to be a strategic 
competitor. With respect to engagement with Russia, you stated, 
``I am all for engagement, but we also have to recognize 
reality and what Russia is up to. There is a decreasing number 
of areas where we can engage cooperatively and an increasing 
number of areas where we are going to have to confront 
Russia.''
    Do you believe this is still an accurate characterization 
of Russia's behavior?
    Secretary Mattis. I think there are very modest 
expectations for finding areas of cooperation right now with 
Russia until they change their behavior.
    Senator Fischer. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you.
    Mr. Chair, first, I want to associate myself with the views 
of 16 former senior military leaders who submitted a letter 
today in support of foreign assistance. Specifically, they made 
the following point. ``Proactive conflict prevention strategies 
are far less expensive in terms of resources and lives expended 
than reactive use of our Armed Forces.''
    This is signed by a number of folks we will all recognize, 
from General Breedlove to Admiral Mullen to General Petraeus to 
General McChrystal. I think we should keep that in mind when we 
review the President's Budget, which I believe is particularly 
shortsighted with regard to foreign assistance.
    I want to move now, Secretary Mattis, to something you said 
at your confirmation hearing in January. I asked you for your 
assessment of the key threats to our vital interests and at 
what priority level. You said that the principal threats start 
with Russia.
    Do you still view Russia as a significant threat to the 
United States?
    Secretary Mattis. Yes, Senator, I do.
    Senator Heinrich. Can you walk us through a little bit how 
this year's budget request invests in the resource areas, the 
programs, and the initiatives that can help counter those 
threats posed by Russia?
    Secretary Mattis. Senator, I think the European Reassurance 
Initiative [ERI] alone of $4.8 billion is designed with one 
target in mind. That is to dissuade Russia from thinking that 
this is a time when they want to test NATO or the Americans.
    I would also point out that, in terms of technology, we are 
looking at specific technologies that address some of the 
maturing threats that they have--air, space, underwater, that 
sort of thing.
    I think, too, that the investment in pre-positioned 
equipment that allows us to move forces quickly into an area 
would cause a change in their strategic calculus, as far as the 
risk from their behavior, from their perspective, would go up.
    There is also a fair amount of ground munitions and 
airfield enhancements that are going on specifically targeted 
to your concerns, Senator.
    Senator Heinrich. I want to thank you for that. I think 
those are all very important investments.
    One of my concerns is that the Russians employed a set of 
hostile, highly asymmetrical tools during our election last 
year, and that for the cost of a fraction of a single ship, 
they were able to use very low-cost tools like hackers, trolls, 
and social media bots to manipulate our media and even 
penetrate our political and election structures.
    Do we have an overall strategy to meet that threat either 
in CYBERCOM or as a whole-of-government approach?
    Secretary Mattis. Sir, we have vulnerability assessments 
and analyses going on that cause us to buttress our defenses in 
different areas to shift our filtering of information and to 
shift our focus or intelligence services to define the problems 
to a level that we can figure out what to do about them.
    So is there an overall strategy? We are working on a 
broader strategy that this would be part of. But right now, we 
have enough definition that we do not have to delay taking 
steps at this time intel-wise and defenses-wise against the 
Russian threat.
    Senator Heinrich. Should there be consequences when Russia 
does this kind of thing?
    Secretary Mattis. Absolutely. I mean, that is a decision 
that has to be taken by the Commander in Chief and certainly 
with the Congress' support, involvement. I think that this sort 
of misbehavior has got to face consequences and not just by the 
United States but more broadly.
    Senator Heinrich. I could not agree more.
    I want to shift gears a little bit in my last 40 seconds or 
so.
    You know my interest in directed energy weapons systems. 
They have enormous potential to be a game-changer, the kind of 
thing that we have seen change asymmetry in the past for our 
warfighters.
    Section 219 of last year's defense bill instructs the 
Secretary of Defense to designate a senior official at the 
Pentagon to have principal responsibility for the development 
and transition of directed energy weapons systems. As of today, 
it is my understanding that this position remains unfilled.
    Secretary, can I have your commitment today to meet this 
requirement and to assign someone this critical responsibility 
at the Pentagon?
    Secretary Mattis. Yes, sir. Thank you for bringing it up. I 
did not know I had that responsibility. I am learning more 
every day. If that is a responsibility you have assigned, it 
will be done. I will tell you that, right now, I have been 
briefed on directed energy R&D [research and development] and 
advances, so I know people are working it right now. But if we 
have not filled that line number, that assignment, I will get 
onto it.
    Senator Heinrich. I appreciate that very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, gentlemen.
    I want to associate myself with the remarks about our 
budget picture that Secretary Mattis had and Chairman McCain 
had. I will say that I agree with Chairman McCain. I think the 
President's Budget is inadequate to the threats that we face.
    But the more fundamental problem is the Budget Control Act, 
and the simple solution, colleagues, is to repeal the Budget 
Control Act. From Senator Fischer all the way down to my right, 
and Senator Donnelly all the way down to Senator Peters, not a 
single one of us was here in the summer of 2011 and voted for 
that bill.
    The Budget Control Act is not the Constitution, and the 
112th Congress was not the Constitutional Convention. We should 
simply repeal it.
    Now some people say it is going to increase the deficit, 
but it is not going to go into effect. We know that. We know 
exactly what will happen. We will have a continuing resolution 
in September. We will have some kind of 2-year budget in 
October, November. We will have an omnibus in December 2017, an 
omnibus in December 2018. Then we will do it all again in 2019.
    Let's simply repeal the Budget Control Act and take our 
responsibilities seriously and own up for our annual budgeting 
cycle. I would urge all the Democrats and all the Republicans 
on this committee to work together to do so in the Senate 
itself.
    Now, off my soapbox.
    Mr. Secretary, the Open Skies Treaty allows for aerial 
surveillance of military forces. United States and Russia are 
both parties. However, according to the State Department, 
Russia has not been playing ball lately. They are denying the 
United States overflight of certain parts of their territory.
    I know that we have sought resolution with Russia on these 
matters. My understanding is those efforts have come up empty.
    Does the United States believe that Russia is in violation 
of the Open Skies Treaty?
    Secretary Mattis. We are meeting on that issue. I have been 
briefed on it, and we will be meeting with the State Department 
and the national security staff here in the very near future. 
There certainly appears to be violations of it, but I have to 
go into the meeting and figure out that I have all the 
information.
    Senator Cotton. Would you care to elaborate in a classified 
manner, in this setting, on the nature of those violations?
    Secretary Mattis. There are areas that we have been 
prevented from overflying. I think some of the other aspects of 
it, I would prefer to talk privately with you. But that is one 
of the clear, to me, violations.
    Senator Cotton. Could we get your commitment to submit a 
response on the record, classified or unclassified, as 
appropriate, once you have had those consultations?
    Secretary Mattis. I would prefer to do it even before I had 
the consultation. I can get it to you right away. I can tell 
you what we know right now, what we believe right now, and then 
we can update you later, sir.
    Senator Cotton. That is fine, if we can get that on the 
record in writing.
    [The information referred to follows:]

    Secretary Mattis. The Administration has determined that Russia is 
in violation of certain provisions of the Open Skies Treaty. First, it 
has established a limit of 500 kilometers over the Kaliningrad Oblast 
for all Open Skies flights originating from Kubinka airfield (rather 
than any portion of the 5,500 kilometer distance that Open Skies 
flights should be able to fly). Second, Russia has refused to allow 
Open Skies flights within a 10-kilometer corridor along its border with 
the Georgian regions of South Ossetia and Abkhazia. Third, Russia has 
failed to provide air traffic control facilitation during certain Open 
Skies flights and improperly invoked the doctrine of force majeure to 
require deviations from agreed flight plans. These actions violate 
Russia's obligations under provisions of articles VI, VIII, and Open 
Skies Consultative Commission Decision 3/04 of the Treaty on Open 
Skies.

    General Dunford, while we are on the topic of Russian 
treaty violations, our EUCOM [European Command] commander, 
General Scaparrotti, testified in March, saying, Russia has 
repeatedly violated international agreements and treaties that 
underpin European peace and stability, including the Treaty on 
Intermediate-Range Nuclear Forces and the Treaty on 
Conventional Armed Forces in Europe.
    Do you agree that Russia is in violation of both those 
treaties?
    General Dunford. I do, Senator.
    Senator Cotton. So let's put this plainly then. If Vladimir 
Putin wanted, he could hold United States troops in Europe at 
risk with nuclear-armed cruise missiles, and our only choices 
would be, one, we send 30-year-old F-16s with 30-year-old 
weapons against state-of-the-art Russian defenses, or we have a 
choice to escalate a tactical crisis to a strategic one by 
responding with long-range bombers or intercontinental missiles 
or submarine-launched ballistic missiles. Is that the situation 
we face in EUCOM right now?
    General Dunford. Senator, that is a good reason why we have 
argued to modernize our nuclear enterprise and make sure we 
have an effective deterrent, an effective response.
    Senator Cotton. One of the modernization priorities is the 
air-launched cruise missile, which is going on 40 years now. 
General Selva said, ``A decade from now, ALCMs [air-launched 
cruise missiles] will not be able to penetrate Russian air 
defenses, and, therefore, there is an urgency to their 
replacement.''
    Given Russia's treaty violations and the imbalance between 
American and Russian nuclear forces, and the age of ALCM, do 
you agree that it is an urgent priority to replace the ALCM 
with the long-range standoff cruise missile?
    General Dunford. Senator, as you know, we are going through 
a Nuclear Posture Review right now.
    What I would say is this, the third leg of the triad, the 
bomber, needs to be able to penetrate. It needs to be able to 
achieve effects. That is the criteria that we should have going 
into the Nuclear Posture Review.
    Senator Cotton. Thank you.
    To conclude, we had Admiral Harris from PACOM [Pacific 
Command] in a few weeks ago as well. He pointed out that 
although China is obviously not a party to the INF 
[Intermediate-Range Nuclear Forces] Treaty, if they were, over 
90 percent of their missiles would be banned by it. So the 
situation that we face is the INF Treaty gives China a lethal 
advantage over American forces in the Pacific. Russia is out-
right ignoring the INF Treaty in Europe. We have no matching 
response to either of those threats. Even if we did, it would 
be illegal because we are literally the only Nation in the 
world that restrains itself from developing intermediate-range 
cruise missiles.
    Is that right?
    General Dunford. Senator, it is. I think what is important 
about the Chinese capability is that is in that category of 
anti-access/area denial that we discussed earlier, where the 
large number of missiles and rockets that they have do present 
a challenge to us as we try to project power.
    Senator Cotton. It seems a critical strategic problem that 
we face. I know that you gentlemen are working to address it. I 
hope that we can do everything possible to help you. Thank you.
    General Dunford. Senator, there is a wide range in the 
fiscal year 2018 budget. Frankly, we started in 2017, a wide 
range of capability areas, where we requested resources 
designed specifically for those challenges that you have 
articulated.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here today.
    I want to ask about what is happening between Qatar and its 
neighbors. Last week, Saudi Arabia severed all diplomatic and 
economic ties with Qatar. Almost immediately, Bahrain, the UAE 
[United Arab Emirates], Egypt, and Yemen did the same.
    This crisis began in part because it was reported that the 
leader of Qatar gave a speech praising Iran and criticizing 
other countries in the region. Now it appears that that was 
fake news and that the leader of Qatar gave no such speech. Now 
the media has reported that the FBI believes that it was 
actually the Russians who planted the story.
    I do not want to ask a question that depends on classified 
information, so let me ask this question instead. If the news 
reports are accurate, what motive would the Russians have had 
for doing something like that?
    Mr. Secretary, might you be able to answer that?
    Secretary Mattis. I think a disruption of the international 
order is something that Russia, in a shortsighted way, thinks 
works to their benefit. I think it does not, but I cannot speak 
for them.
    I think what you are seeing here, though, is the continued 
prevalence of threats not just to our own country, not just to 
Western Europe democracies, but they are trying to break any 
kind of multilateral alliance, I think, that is a stabilizing 
influence in the world.
    Senator Warren. Good. Good, in terms of your description. 
This is very helpful, and I hope we are going to be able to get 
to the bottom of this.
    Our intelligence agencies have told us that the Russians 
conducted a successful cyberattack against our 2016 elections. 
A few months later, the Russians tried to do the same thing in 
France. Now it appears they are trying to take this to a whole 
new level.
    So I also, though, would like to ask for your help to 
clarify the U.S. policy on this current dispute. After the 
Saudis cut off diplomatic and economic ties, the President 
immediately tweeted his support for the move, saying, and I am 
going to quote here, ``So good to see the Saudi Arabia visit 
with the King and 50 countries already paying off.''
    But soon afterward, Secretary of State Tillerson called on 
those countries to ease the Qatar blockade, saying it was, 
``hindering United States military operations in the region and 
the campaign against ISIS.''
    Then, in testimony to this committee, the Air Force 
Secretary contradicted Secretary Tillerson and said that the 
dispute was, in fact, not impacting air operations at Al Udeid, 
our base in Qatar.
    Secretary Mattis, can you please clarify? What is the 
policy of the United States Government toward the current 
dispute among gulf countries in the Middle East?
    Secretary Mattis. Yes, ma'am.
    Senator, the Secretary of the Air Force was referring to 
the operations at that one airbase. There is more than that 
going on in the region. So she was quite correct in what she 
was saying about that.
    Secretary Tillerson was nonetheless correct as he looked 
more broadly at the situation where we have to work with many 
of what we call Gulf Cooperation Council states together.
    We have friends in the region, Senator, who have problems. 
They admit it. One of the issues that came up when President 
Trump visited Saudi Arabia was their effort to turn off the 
spread of rabid ideologies that undercut stability and create 
the kind of the ocean in which the terrorists swim, that sort 
of thing.
    So we have friends out there. We have to work with them. 
Our policy is to try to reduce this problem. But at the same 
time, we have to make certain that we are all working together 
and there is no funding, whether it be from a state or from 
individuals in the state, who can get away with it because 
there is a lack of oversight or law or that sort of thing.
    So there are a lot of passions at play here. It is not tidy 
as we deal with it.
    Senator Warren. I understand that Qatar needs to do more to 
fight terrorism in the field. I just want to make sure I 
clarified the point and understood it correctly.
    General Dunford, is the Qatar blockade affecting United 
States military operations?
    General Dunford. Senator, it is not.
    Senator Warren. Okay.
    General Dunford. We are watching that very, very closely, 
but we have had good cooperation from all the parties to make 
sure that we can continue to move freely in and out of Qatar 
where we have both an important airbase as well as the 
headquarters forward of the United States Central Command.
    Senator Warren. Good. Thank you very much.
    I just want to say this cyberthreat appears to be getting 
bigger and bigger, more and more dangerous, taking on multiple 
permutations. I think that means it is really important, and I 
am going to ask you later for an update on the status of trying 
to implement our Cyber Command elevation. But this is something 
we have to fight back against.
    Secretary Mattis. We are on track with elevation.
    Senator Warren. Good.
    Secretary Mattis. It is going fine. I do not see any issues 
there. There are some other things about splitting them that we 
are working through, but we will work through it.
    Senator Warren. Good. Powerfully important.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to our country.
    General Mattis, Secretary Mattis, do you see any way that 
the current budget could be operational with the Budget Control 
Act still in existence?
    Secretary Mattis. I believe Congress is going to have to 
remove the Budget Control Act in order for that to happen, so 
for this budget to go through.
    Senator Rounds. Would it be fair to say that a continuing 
resolution has never saved money with regard to any of the 
defense programs?
    Secretary Mattis. Sir, I guarantee you continuing 
resolutions cost us more money for less capability.
    Senator Rounds. Last week, Dr. Wilson and General Goldfein 
talked about the B-21 program and reiterated the importance 
that it stay on time and on budget.
    The program ramps up next year from $1.3 billion to $2 
billion requested for 2018. I also understand that a CR or a 
return to BCA funding levels could jeopardize funding for this 
and ultimately affect the timely fielding of this critical 
component of our future national security.
    General Dunford, you just mentioned the fact that we 
absolutely have to have the long-range strike bomber with 
regards to our plans for delivering any type of weapons against 
the upgraded threats of our peer competitors. Would you care to 
comment on the need for the continuation on a timely basis of 
the development of the B-21?
    General Dunford. Senator, I cannot comment on the timing. 
What I can tell you is we have done three Nuclear Posture 
Reviews since 2010 that I am aware of. All of them have 
validated the need for triad and emphasized the need for a 
bomber that had assured access.
    So completely supportive of that, and I know that General 
Goldfein and the Secretary of the Air Force have testified as 
to the challenges with the timing of the B-21. I think that 
they have assured the committee that their leadership will be 
decisive in that program.
    Senator Rounds. Thank you.
    Secretary Mattis, for more than a year now, we have talked 
about cyber and about the need to define policy with regards to 
cyberattacks within the United States. We have put within the 
NDAA, the 2017 NDAA, a directive that the administration 
deliver a policy or a proposed policy back to Congress by 
December of this year. I believe that since this is coming 
through the NDAA, it is going to fall under your purview to see 
that it gets done. This would not necessarily identify an act 
of war, but rather those acts of aggression which are of 
sufficient duration, similar to what a kinetic attack would be, 
that it would impact our country.
    Do you know if that study or that planning is ongoing at 
this time or if there is specific direction for individuals 
within the administration to comply with that NDAA directive?
    Secretary Mattis. Sir, I want to get back to you with a 
detailed answer on that one. I understand the question. I am 
not prepared to answer it right now.
    [The information referred to follows:]

    Secretary Mattis. The recently signed Cybersecurity Executive 
Order, dated May 11, 2017, requires the Department of Defense to work 
with the other Executive Branch departments and agencies to develop 
strategic options for deterrence. Completion and consideration of this 
additional work will result in a more responsive and comprehensive 
report. I anticipate delivering this report to Congress by late summer 
2017. The report requested in section 1654 subsection (b) of the 2017 
National Defense Authorization Act will be provided to Congress 6 
months thereafter.

    I know that we have an awful lot of work going on. We are 
engaged in the operations. But the specific answer to your 
question I do not have right now. But I will get back to you.
    Senator Rounds. Thank you, sir.
    General Dunford, the need for cyber superiority, I think 
sometimes when we talk about air, land, and sea, and space, 
sometimes we forget to add in the fact that cyber is connected 
in all sequences. They are all connected.
    Could you just share a little bit with the committee about 
the need to upgrade the cyber capabilities and our ability not 
only for defense but to be able to attribute the attacks, to 
defend against them but then to go back and respond? One step 
farther on that is to be able to survive the attack in such a 
fashion that we actually can respond afterwards.
    General Dunford. Senator, thanks.
    First, I would tell you that as we have analyzed today's 
conflicts and future conflicts, I would agree with you 
completely. We used to talk about multidomain. Now we talk 
about all domain. You refer to all of them: sea, land, air, 
space, and cyberspace. So we do expect cyberspace to be 
integral to any campaign that we would conduct in the future.
    The requirements start with making sure that our own 
network is protected. We provide support to the rest of 
government but our own network is defended, to include our 
command and control systems. We talked earlier about nuclear, 
our nuclear command-and-control systems.
    But our mission of defense in the Department also requires 
us to be able to take the fight to the enemy, which is an 
integral part of any campaign that we would wage. That requires 
us, as you suggested, one, to be able to attribute attacks and 
then provide the President with viable options in response.
    Although I would tell you the one thing that we emphasize 
is that just because the enemy chooses to fight in cyberspace 
does not mean our response has to be limited to cyberspace. In 
other words, we may experience a cyberattack, but we will take 
advantage of the full range of capabilities that we have in the 
Department to respond.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses for your testimony and for your 
service.
    In March, you each testified before the Defense 
Subcommittee of Senate Appropriations on a topic that I care 
deeply about, which is Authorization for Use of Military Force 
[AUMF] in the ongoing military effort against ISIS. The record 
would reflect, Secretary Mattis, you stated, ``I would take no 
issue with the Congress stepping forward with an AUMF. I think 
it would be a statement of the American people's resolve, if 
you did so. I thought the same thing for the next several 
years, I might add, and have not understood why the Congress 
has not come forward with this, at least to debate, because I 
believe ISIS is a clear and present danger we face.''
    The testimony of General Dunford on March 22nd, the same 
hearing, ``I agree with the Secretary. I think not only would 
it be a sign of the American people's resolve but, truly, I 
think our men and women would benefit from an Authorization for 
Use of Military Force that would let them know that the 
American people, in the form of their Congress, were fully 
supportive of what they are doing out there every day as they 
put their lives in harm's way.''
    Is that still an accurate reflection of both your views 
sitting here today in June?
    Secretary Mattis. Yes, it is, Senator, for me.
    General Dunford. Absolutely, Senator.
    Senator Kaine. Senator Flake and I are members of the 
Senate Foreign Relations Committee and have introduced an 
authorization trying to square some difficult circles dealing 
with these nonstate actors--ISIS, the Taliban, Al Qaeda--trying 
to appropriately exercise congressional oversight without 
micromanaging functions that are functions for the Commander in 
Chief and his staff, and I would appreciate very much both of 
you individually but also the administration generally trying 
to work with us.
    The head of Senate Foreign Relations, Chairman Corker, has 
indicated a desire to move on this, and we would very much like 
to work in tandem with you to hopefully get this to a place 
that will express the congressional resolve that you discussed 
in this testimony.
    Secretary Mattis. Happy to work in concert with you, sir.
    Senator Kaine. Great.
    General Dunford. Absolutely, Senator. Thank you.
    Senator Kaine. Great. Thank you. I do not have any other 
questions.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Perdue?
    Senator Perdue. Thank you, Chair.
    I want to clear one thing up. First of all, I have the 
utmost respect for you guys, and, God help us, we have to have 
you be successful. But there is zero chance, zero--I am on the 
Budget Committee. There is zero chance that the budget process 
is going to work. The best this year, the best we can hope for, 
is that we will--there are 43 working days left before the end 
of this fiscal year. We are headed for another CR, unless we 
have an omnibus. So the best we can hope for today is an 
omnibus.
    The budget process is broken. It is why we are sitting here 
today. It is why we are at a historic low in terms of spending 
on our military.
    We will not fix this long term. We can argue about $20 
billion, $30 billion, $50 million. I am going to tell you in a 
second I think the number is much bigger than that.
    I need help on two things.
    One, help us with an audit. You have my full support. We 
are going to try to get the money for you, but we have to have 
an audit.
    Second, we need a bottom-up analysis of mission-based need. 
We are going to hypothesize about how much you need. You have 
answered questions about it. But I want to give a little 
history today.
    In my lifetime, we have disinvested in the military three 
times--this is significant--once in the 1970s, once in the 
1990s, and once just recently in the last 8 years, such that, 
today, we are spending 3.1 percent of our GDP [Gross Domestic 
Product] on our military. The low point was 2.6 percent in 
2000. A lot of people refer back to 2000. That was prior to 9/
11, prior to ISIS, prior to all the things that have changed 
our world in the last 15 years.
    But we recapped only one time in my lifetime, and that is 
in the 1980s. We called ourselves recapping in the 2000s, but 
we chewed that up in 16 years of war, as you just said, 
Secretary. We have not built new aircraft carriers or 
submarines or airplanes.
    Here we are, where most of our major platforms are maturing 
at exactly the same time that we have to rebuild and recap. It 
is estimated that, by 2000, Russia will have--70 percent of 
their nuclear triad will be absolutely new technology. It is 
estimated it will take us 30 years to get to just 70 percent 
there.
    So we have an estimate here that says that, based on the 
historical average of 4.1 percent, that is the redline there, 
the difference between where we were last year at 3.1 percent 
and 4.1 percent, that 100 basis points on our economy is $200 
billion.
    The other way to triangulate about need is Bob Gates in 
2011 put a 5-year mission-based need requirement out. In 2016, 
estimated, his estimate for 2016 is $130 billion more than what 
we have.
    Then the last one I want to give you is this, and that is, 
General, you said our mission is to make sure our sons and 
daughters never have to fight in a fair fight. I agree 100 
percent with that. Historically, though, the country with the 
biggest economy is always the 800-pound gorilla. Today, China 
has reached us in purchasing power parity. Their economy is the 
same size as ours.
    There is every reason to believe that they are going to 
continue to outpace us with a population that is four times our 
size. There is no reason to believe that will not continue to 
happen.
    My problem is this, is that China this year will spend $826 
billion in equivalent money compared to our $677 billion. That 
is if we get everything you want. So already, they are spending 
more in equivalent terms than we are, significantly more.
    So when I triangulate this, we are somewhere between--this 
is this year--$130 billion to $200 billion. That does not count 
the real full recap that we are talking about. By the way, 
Gates did that before ISIS, Crimea, Ukraine, before a lot of 
the things that we know today.
    So what we are really looking at here is a situation where, 
over the next 30 years, just the Navy alone, just to rebuild--
this is not operations--CBO estimates it is $26 billion.
    So, Secretary, my question to you is, I know you are a 
historian, how do we, not just this year, how do we develop a 
long-term plan to make sure, in an environment where every 
dollar, where every dime we are already spending on the 
military, the VA [Department of Veterans Affairs], and all 
domestic programs is borrowed--that is our discretionary 
spending. That is 25 percent of what we spend. Every dime of 
that is borrowed, because in the last 8 years, we borrowed 35 
percent of what we spent. In the next 10 years, projected, we 
will borrow another 30 percent of what we are going to spend.
    In that environment, how do we develop a long-term 
strategic plan that helps us achieve what the general has said 
that our mission is? I agree with that mission, by the way.
    Secretary Mattis. Sir, we need to have a strategic dialogue 
with the Congress and determine what you can do. At that point, 
we will have to adapt the strategy to whatever level of 
resources you can give us to avoid a strategic mismatch and 
protect the country.
    Senator Perdue. Sir, with due respect, you mentioned one 
time before that you are working on a mission-based estimate 
now. It is going to take some time to come together, for that 
to come together. Is that correct?
    Secretary Mattis. There is a strategy review underway, sir, 
yes.
    Senator Perdue. General Dunford?
    General Dunford. Senator, there are really two pieces to 
this. We have been involved over the last 18 months in doing a 
comprehensive analysis of what we are using as benchmarks for 
the joint force. So we have looked carefully at China, Russia, 
North Korea, Iran, and then violent extremism, as not 
predictive as that being the only threats we will face but with 
the key assumption being that, if we benchmark our capabilities 
and capacities against one or combinations there of those 
challenges, we will have the right force.
    We have carefully gone through and done a functional 
analysis that we are going to share with the committee at the 
top secret level that basically takes a look at our relative 
competitive advantage or disadvantage by functional area 
against each one of those challenges and the aggregate effect 
of those competitive areas and our ability to meet our 
objectives in a conflict.
    Regardless of where the Secretary goes with the defense 
strategy, what we intend to do is provide the Secretary with 
very clear--you asked for a bottoms-up, needs-based 
prioritization. I believe we are in a position right now to 
provide the Secretary recommendations for bottom-up, needs-
based requirements.
    Again, what we have done is we have taken all the analytic 
work that has been done against each one of those problems sets 
and dissected it so we can make clear recommendations 
maintaining our competitive advantage. We have identified where 
we need to be 5 years from now and what specific programs will 
help us get there. Obviously, the latter part of that is a work 
in progress. We will continue to review that constantly.
    But I feel like for the first time in many years, as a 
result of an emphasis on that assessment, so over the last 18 
months, we are going to be in a position to have a very good, 
constructive dialogue with the Secretary, and the Secretary 
will be better empowered to have a good, constructive dialogue 
with the Congress and be able to outline our requirements, and, 
more importantly, the specific impact of either meeting or not 
meeting those requirements and our ability to achieve our 
objectives against those states that we are using as a 
benchmark.
    Senator Perdue. When can we expect that?
    General Dunford. It is available right now. We have started 
to talk to the committee about that, Senator. We are informed 
now by some detail work that has already been done on a couple 
of those problems sets. The work is actually reflected in this 
year's budget recommendations.
    Secretary Mattis. The briefs, Senator, allowed me to come 
forward with the degree of confidence I have about what it is 
we are asking for and to support the unfunded priorities lists 
that were submitted. This is where I got the background, the 
rigor, to understand the need for it, sir.
    Senator Perdue. I thank the chair.
    Chairman McCain. Let me point out again, Mr. Secretary, and 
I am not without sympathy, but unless we have a strategy, it is 
hard for us to implement a policy. It is now 6 months. Members 
of this committee, particularly Senator Reed and I, but 
everybody, we want a strategy. I do not think that is a hell of 
a lot to ask.
    I know that there are problems within the administration. 
But, honestly, what you just said is fine. But what is the 
strategy? I do not think that the last 8 years are exactly what 
we have in mind. So right now, we have a ``don't lose'' 
strategy, which is not winning.
    General Dunford, I appreciate very much what you are doing. 
I remember 2 years ago going over to the Pentagon and you 
telling me about all these studies that are going on. That is 
fine. Where is it?
    I understand that one of the problems is within the 
administration itself. But please do not tell us that we have a 
strategy when we do not.
    Secretary Mattis. Chairman, we have entered a strategy-free 
time, and we are scrambling to put it together. But anyone who 
thinks a strategy, an integrated, interagency, whole-of-
government strategy can be done rapidly is probably someone who 
has not dealt with it. It is, according to Dr. Kissinger, the 
most complex series of threats that he has ever seen in his 
lifetime, and he is a master of dealing with these kinds of 
issues.
    We are working it. As far as the strategy for Afghanistan, 
it is coming very shortly. We have broader strategies that we 
are building on, having to do with NATO and allies in the 
Pacific. You have seen us engage with those people as we make 
certain that we are drawing strength from allies, too. We are 
not putting this all on the backs of the American taxpayer, the 
American military.
    But it does take a lot of effort to walk into the level of 
strategic thinking that we found and try to create something 
that is sustainable.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you Secretary Mattis, General Dunford, Under 
Secretary Norquist, for being here this morning.
    I would like to continue to pursue the question of 
strategy. My question is about strategy in Syria. The map that 
everyone has at their place and that we just put up on the 
board is a map that was produced by the Washington Institute 
for Near East Policy. This weekend, the Russian Ministry of 
Defense announced that pro-regime forces have reached the Iraqi 
border.
    This comes as Russia-backed forces encircle United States 
troops and their partners in al-Tanf and seemed to raise 
questions about our strategy to clear ISIS along the Euphrates 
River Valley.
    So my question is, were we expecting the Russians to come 
down and make the move that they did around al-Tanf and to 
encircle our troops? What is our next move because of that?
    Secretary Mattis. Senator, as you know, we are in Syria in 
a defeat-ISIS campaign based on the President's decision of 
about a month ago now when he met with President Erdogan. We 
have chosen to arm the Syrian Democratic Forces. We had taken 
out already the Manbij area, which is where the attacks on 
Brussels and Istanbul and Paris originated. That was taken 
down. The next move is against Raqqa.
    We have shifted the operational arc to first invest or 
surround the locations where the enemy is located, so that 
their foreign fighters cannot escape and get home to Europe, to 
America, to Southeast Asia. That fight, they crossed the line 
of departure about a week ago, a little bit less than a week 
ago, going into Raqqa, and the fighting is now deep inside the 
city.
    As far as the al-Tanf situation, that was another operating 
area that we had. I did not anticipate that the Russians would 
move there. We knew it was a possibility. I did not anticipate 
it at that time, but it was not a surprise to our intelligence 
people who saw the potential for them to move out in that 
direction.
    The Middle Euphrates River Valley, clearly Assad, thanks to 
the Russians and Iranian support, is flexing his muscle. He is 
starting to feel a little more optimistic about his strategic 
situation. Certainly, they are moving to break through to their 
garrison that is surrounded at Deir Al-Zour.
    Senator Shaheen. I appreciate that. I guess the second 
question I had was, does that compromise our strategy for 
clearing ISIS in the Euphrates River Valley?
    Secretary Mattis. It certainly is complicated. Let me have 
the chairman talk about the military situation on the ground 
there.
    Senator Shaheen. Can I also ask you, General Dunford, if 
you would talk about, deconfliction aside, how we are or are 
not working with the Russians in Syria?
    General Dunford. I can, Senator.
    First, without splitting hairs, the media reports of us 
being encircled are not accurate. We still had freedom of 
movement outside of al-Tanf area, and we are not limited from 
moving up toward the Euphrates River Valley at this time.
    I talk to, as the Secretary does, our commander at the 
United States Central Command, if not daily, multiple times 
each day. So there are not large numbers of forces, pro-regime 
forces, out there. They have, in fact, moved to the border. But 
they have not restricted our movement.
    To that point, our deconfliction mechanism with the regime 
via the Russians is still effective in allowing us to prosecute 
the campaign.
    Senator Shaheen. I guess I was asking not about the 
deconfliction but about the other ways in which we are or are 
not working with the Russians. So I understand that 
deconfliction efforts are going on.
    General Dunford. Sure. The only thing that we are doing, 
Senator, with the Russians is communicating with them to 
deconflict to ensure the safety of our aircrews and our 
personnel on the ground at the military-to-military level.
    Meanwhile, Secretary Tillerson is leading an effort dealing 
with the Foreign Minister of Russia to take a look at what 
might be done to address Syria as a whole to include the 
political solution.
    But today, on a day-to-day basis, we have three main 
mechanisms to communicate with the Russians. We have a direct 
communication between our Air Operations Center and the 
Russians on the ground in Syria. We have a three-star channel 
that is on the joint staff. It is my J5 that communicates with 
his counterpart on the Russian general staff. Then I speak 
routinely to the chief of defense, General Gerasimov. In fact, 
I have spoken to him twice in the past week to ensure that we 
address the safety of our personnel and our ability to continue 
to prosecute the campaign against ISIS.
    So to the extent that we are doing more than deconfliction, 
that is a political dialogue taking place led by Secretary 
Tillerson. But right now, we are completely informed by the 
NDAA language that restricts any kind of mil-to-mil cooperation 
with the Russians limited to deconfliction in Syria. So we are 
compliant with the law at this time.
    If there is a need to do something more than that, my 
understanding is that the Secretary of Defense, for national 
security interests, purposes, can waive the requirement and 
allow us to do more with the Russians, if that meets our 
interests inside of Syria.
    Senator Shaheen. Thank you.
    Can I ask a follow-up question, Mr. Chairman?
    Chairman McCain. Yes.
    Senator Shaheen. Thank you.
    There have been reports about the political efforts that 
Secretary Tillerson is undertaking through Tom Shannon to go to 
St. Petersburg, and the news reports have suggested that that 
could involve our exchanging sanctions, the removal of the 
Russian dachas, the facilities that we seized back in December, 
in the United States.
    Secretary Mattis, have you been consulted about what is 
being proposed there? Are you troubled by the idea that we are 
going to do these exchanges without having any proof that 
Russia is changing their behavior?
    Secretary Mattis. I have not talked to Secretary Tillerson 
about that, ma'am. We have extensive talks every week, mostly 
every day. That has not been one of the issues that I have 
brought up with him or he has brought up with me. I stay more 
on the military factors, like what your map lays out here, that 
sort of thing.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    I am sure it did not go unnoticed the people coming and 
leaving. We have three hearings going on at the same time, so I 
will be very brief.
    I was here for your opening statement, Secretary Mattis. 
You said that you came back out of retirement and you were 
shocked at what you saw. You have been very upfront. You made 
the statement that, for decades, America has been uncontested, 
and that is no longer the case now.
    So times are different now. I do think it is great, very 
effective for the uniforms to be talking about this. You know, 
I cannot do that. Those of us up here do not have the 
credibility that you have when you are speaking from your vast 
experience.
    We are facing, in my opinion, the greatest threat this 
country has ever faced. So when we talk about that, and we look 
at the attention that our military has been getting, I go back 
to 1965 when 52 percent of the total Federal spending was on 
defense, and then that slowly degraded down to today when it is 
15 percent.
    So when it gets right down to it, is a lot of this the fact 
that we have just not prioritized the military budget? I mean, 
we are faced with something, the threat is great. When you have 
people like General Milley coming out and saying, as he did at 
the Army posture hearing last month, he said we are outranged 
and outgunned. We are being very honest with the American 
people.
    But do you think we have just gotten to the point over a 
period of time where we are not giving the proper priorities to 
defending America?
    Secretary Mattis. Senator, I know there were a lot of 
contributing factors, but I do not know how we can restore the 
strength that we all know that we need if we do not start with 
repeal of the BCA and at least open the door to effective 
action by the Congress oversight and funding. Right now, it is 
like we have tied ourselves up in a knot.
    Senator Inhofe. Do you agree with that, General?
    General Dunford. Senator, I do. I mean, we have to 
benchmark our military capabilities against our national 
interests and the threats that we face. I think what we tried 
to do is paint a picture where we have a disconnect. We are on 
a trend where the military capabilities and capacities we have 
are insufficient to meet our national interests in the context 
of the threat has that has grown.
    As Secretary Mattis said, Secretary Kissinger, and I have 
used this expression many times, describes this as the most 
volatile and complex period since World War II.
    Certainly, sitting where I sit, I could not agree more with 
that assessment.
    Senator Inhofe. If you just single out end-strength, and I 
was looking at a chart that you may have in front of you, I do 
not know, but you take out the Reserve and the National Guard, 
just take the Army Active, the Air Force Active, the Navy 
Active, and the Marine Active, you have made statements, or the 
administration has made statements, for example, that the Army 
Active needs to be at about 540,000, and yet this budget is 
coming up with 476,000, a steady figure from fiscal year 2017. 
Then the same thing is true with the Air Force. We talked about 
the necessity for having 361, and it is at 325, and the same 
with Navy, and the same with Marines.
    So I would just ask, we have talked about how adequate the 
budget is. Do you really think it is adequate, in terms of end-
strength? We are not meeting the goals that--apparently, you 
were in on the decisions. Both of you were somewhat in on the 
decisions as to where we should be in the four services on just 
end-strength alone.
    What am I overlooking here?
    Secretary Mattis. Senator, I believe what we face right now 
is the reality that we are already asking you to bust the BCA 
cap by $52 billion. We are trying to be informed by the reality 
of what the law says. But, at the same time, we are not being 
shy telling you where we are really at, in terms of what we 
need.
    But I think we need to work together and come up with a 
solution here, because I do not know how I would bring 
something to you that laid out a budget for what you pointed 
out here, when the BCA--I would have to completely ignore this, 
and I am ignoring it already to the tune of $52 billion. Well, 
the President is, with the budget that he submitted.
    It just seems to me that we have to have the kind of 
discussion that Senator Perdue, Chairman McCain, Senator Reed 
have brought up, and get a grip on reality here, because it is 
like we are all walking around like we are victims.
    Senator Inhofe. Yes, you are right. I appreciate the 
answer. We have to do all we can. I still think it is back to 
priorities, and a lot of people out there in the real world 
agree with me.
    Thank you, Mr. Chairman.
    Chairman McCain. Let me just point out again, Mr. 
Secretary, a 3 percent increase over the Obama proposed budget 
is not enough. So whether we do away with BCA or not, and that 
is our problem, our problem with you is that it is a 3 percent 
increase over the Obama administration. Everybody agrees that 
that is not enough.
    So if we are going to bust the BCA, then why don't we bust 
it to what we really need rather than come forward here and 
complain all about the BCA when what you are asking for is not 
sufficient? At least, that is the view of the military 
commanders that I have talked to.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here with us.
    As leaders, you both made a strong commitment to improve 
the mental health and resiliency of our servicemembers and 
their families. I appreciate your leadership on this issue.
    As we discussed before, in section 701 of the fiscal year 
2015 NDAA, Congress passed what we call the Sexton Act 
requirement, which requires every servicemember, Active, guard, 
or Reserve, receive a robust mental health assessment every 
year.
    The Department has said in the past that the Sexton Act 
requirement would be fully implemented across all services by 
October 2017.
    Secretary Mattis, will this be fully implemented by October 
2017?
    Secretary Mattis. I do not know right now, Senator. I will 
get back to you with the best estimate I can give you. As you 
are no doubt aware, that is a significant requirement. It is a 
very labor-intensive requirement for the number of mental 
health professionals that would be needed to do that. But let 
me get back to you and tell you where we are at on meeting that 
deadline date.
    [The information referred to follows:]

    Secretary Mattis. The Department's Periodic Health Assessment (PHA) 
memo tasked the Services to implement the new annual PHA, which 
includes the mandated mental health assessment by September 30, 2017. 
The current status shows that most locations will complete 
implementation by September 30, 2017. However, complete Service-wide 
implementation will be delayed until early 2018 due to information 
technology issues being worked by Navy Afloat, and some Navy Reserve 
and Marine Corps units.

    Senator Donnelly. That would be great. It is critically 
important.
    Also, Secretary Mattis, we discussed one time the 
challenges with a proper transition. General Chiarelli has 
worked on this extensively, on the handoff from Active Duty to 
the VA in regard to the formulary and in regard to making sure 
that it is a smooth transition.
    Are the Department and the VA working closely on this? Do 
you think progress is being made at this time? What has 
happened sometimes, not to get too off-script or whatever, is a 
lot of Active Duty, when they become vets, medicines that they 
are dependent on, that are critically important, are not 
available when it flips over to the VA side, or a different one 
is handed off, which causes significant problems. I want to 
make sure that, in the transition, that the DOD and the VA are 
working tightly together to get this done properly.
    Secretary Mattis. Sir, I believe that both the committees 
will be briefed very soon, both VA and this one will be briefed 
very soon. We have made significant progress on electronic 
health records. That is actually one of the contributing 
factors to how we will do this right.
    We have, I believe, right now, according to people who have 
been involved in this for many years, in one case over 2 
decades, we have never had a closer relationship between DOD 
and VA, targeted right at this transition, the records and the 
formularies.
    Senator Donnelly. I want to ask a little bit about 
Afghanistan, to follow up on what the chairman was asking. You 
both have done extraordinary work there over the years.
    Some years ago, I was with the Marine MEU [Marine 
Expeditionary Unit] out in Helmand Province and tried to figure 
out the strategy. They were doing an extraordinary job, but it 
almost seemed like a place put down in the middle of Taliban 
Highway in every other direction.
    As we look at this, I know we are waiting for the plan, but 
what does success look like a year from now, in your view? 
What, in your mind, makes the situation better?
    Secretary Mattis. Sir, I believe that the violence will be 
reduced significantly, especially in the population centers 
where most of the people live, that the Afghan Government has a 
degree of integrity in what it is contributing to its people, 
the government services, the corruption has been driven down. 
But most of all, that the Taliban no longer has the freedom of 
movement that we are seeing right now, that it has been rolled 
back.
    Senator Donnelly. General?
    General Dunford. Senator, I probably would add to that to 
the mitigation of Afghan casualties. That has been a great 
concern in 2015 and 2016, the number of casualties the Afghan 
forces have experienced. I think one of the ways that we get 
after that is by more effectively assisting them both in 
planning operations and delivering combined arms, more 
specifically the aviation capability. So continuing to grow 
their aviation capability and providing them support while they 
grow their aviation capability will be a key piece of 
mitigating casualties.
    Senator Donnelly. Do you think we are in better shape now 
than we were last year at this time? Or do you think it has 
gone backwards?
    General Dunford. I do not assess that we are in better 
shape than we were last year, Senator.
    Senator Donnelly. General Mattis?
    Secretary Mattis. I think Taliban had a good year last 
year, and they are trying to have a good one this year, sir. I 
think we may be able to, by a change in some of our concepts of 
operations, help them with air support and fire support. That 
will put the enemy on their back foot.
    Right now, I believe that the enemy is surging right now.
    Senator Donnelly. Well, we look forward to the report, and 
I would still love to talk to both of you or one of you or your 
team about Raqqa and some of the situations about some of the 
Indiana folks there.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for being here today. We 
appreciate your advice to this committee and your service to 
our great United States.
    Secretary Mattis, open invitation to ruck march with Team 
Ernst at any time--any time. The Vice Chief of Army and I 
solved most of the world's problems this morning. We just need 
you to fill in the gaps. So you are welcome at any point.
    Gentlemen, a counter-ISIS strategy in Southeast Asia is 
something that I have continued to push for, which was why I 
was excited to hear this weekend United States special 
operation forces were assisting the Government of the 
Philippines in taking back the ISIS-held town of Marawi.
    Until 2014, we used to have a sizable counterterrorism 
mission in the Philippines, and we have known about this threat 
for a very long time. Unfortunately, we have not returned to 
that area in order to counter some of ISIS's bad deeds.
    So, General Dunford, as we target a terrorist enemy that 
wishes to strike our Homeland, how does our counterterrorism 
commitment in the region also help ward off other adversaries 
like China and Russia?
    General Dunford. Senator, do you want me to hit those two 
separately?
    Senator Ernst. Absolutely.
    General Dunford. First of all, with Southeast Asia, in 
addition to our presence in the Philippines with 
counterterrorism, the Congress funded what is called the 
Maritime Domain Awareness Initiative. That helps countries in 
the region, specifically Indonesia and Malaysia in the 
Philippines, to have a common understanding of the maritime 
domain, particularly the flow of foreign fighters, criminals, 
and those kinds of things.
    The other thing that we have done is we have incorporated 
Southeast Asian nations into what we call Operation Gallant 
Phoenix. That is our intelligence and information-sharing 
architecture, which allows us to take a transregional approach 
to violent extremism.
    Separately, our forward presence in the Pacific, to include 
the fielding of our most modern capabilities, the P-8, the F-
22, F-35, and our routine Pacific presence operations, are 
designed to deter conventional conflict and specifically 
conventional conflict with China and North Korea in the region.
    Senator Ernst. Do you see that as being effective also in 
the areas of Malaysia and Indonesia?
    General Dunford. In terms of deterring conventional 
conflict, I do. I view the most dangerous threats in Malaysia 
and Indonesia to be the threat of violent extremism.
    Senator Ernst. Okay, so ISIS or----
    Secretary Mattis. Senator, if I could just add one point 
here. We have talked about the lack of strategy earlier.
    In 2014, we canceled the named operation that we had down 
there, perhaps of a premature view that we were gaining 
success. Without that, we lost some of the funding lines that 
we would have otherwise been able to offer.
    So what the chairman has brought up is completely correct, 
but it again shows the lack of strategy that we inherited 
there. I just got back from Shangri-La where the chairman and 
other Members of the Congress were. This came up, and we are 
working closely with the Philippines right now, for example, 
with both manned and unmanned aircraft as they try to retake 
Marawi there in Mindanao.
    So this is an ongoing issue. What you are bringing up I 
think is going to loom larger, if we were having this hearing a 
couple months from now. So we have to take steps to get this 
back under control and support Indonesia, Malaysia, and 
Philippines, along the lines that your questioning leads us to.
    Senator Ernst. Yes. Thank you for bringing up the Shangri-
La Dialogue, Mr. Secretary.
    While you were there, the other countries that participate 
in that dialogue, what type of support are they looking at 
coming from the United States? What can we offer them?
    Secretary Mattis. Yes, ma'am. Much of it is along the lines 
of what the chairman just mentioned with Operation Gallant 
Phoenix. It is getting the intelligence and sharing the 
information, where everything from Interpol to all the secret 
services of various nations work together, so that 
transnational threats are tracked when they go over the 
nation's borders, when they flee from one to another. Gallant 
Phoenix is critical. Also, other intelligence helps.
    I would add there that is where our strategy of working by, 
with, and through allies helps take the load off us. For 
example, Singapore has offered ISR [intelligence, surveillance, 
and reconnaissance] surveillance aircraft to the Philippines. 
That is the way we need to get everybody working together out 
there against this threat and not carrying the full load 
ourselves.
    Senator Ernst. Thank you.
    Just very briefly, because I am nearly out of time, our 
special operators have a dwell time of about a 1:1 ratio. This 
was mentioned by General Votel in one of our conversations 
recently.
    What can we do?
    I will tell you it is because they want that. I mean, they 
will not say no when they are given a mission, and I think that 
is incredibly important, that they stand up to their 
obligations. But what can we do to increase their dwell time 
beyond expanding their forces? Is there a way we can push their 
talents out to the conventional forces?
    Secretary Mattis. Some of these missions, due to our 
conventional forces capability today compared to 2001, we have 
now Army infantry, Army brigades, Marine battalions that can 
pick up some of these missions, take the load off, take the 
work off of the special operators and that sort of thing. Where 
you want relationships, we still want to use the special 
operations forces.
    Chairman, do you have anything to add?
    General Dunford. The only thing I would say, Senator, is 
the Secretary actually directed me several weeks ago to do an 
analysis of all of our special operations requirements today 
and look for opportunities to substitute with conventional 
forces for exactly the reason you are talking about. We are 
concerned about the deployment to dwell ratio, which is not 
only a factor from a human perspective, and families. It also 
precludes them from training for the full range of missions 
that we may require them for. We do not want them, as you know, 
to be singularly focused on the current fight. We want them to 
be prepared, just like the rest of the force, to be prepared to 
support us across the spectrum.
    Senator Ernst. Absolutely. Thank you, gentlemen.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you both for your extraordinary service to our 
Nation, and all the men and women under your command. Thank you 
for being so forthright and helpful in your answers today to 
our questions.
    I want to ask about the F-35s, which are on the unfunded 
priorities list. I believe there are 24 of them.
    Would you support including them, assuming that you receive 
additional funds from the Congress?
    Secretary Mattis. Do you mean the support that goes with 
the aircraft to make them fully capable?
    Senator Blumenthal. Correct, and the additional aircraft as 
well.
    Secretary Mattis. Yes, sir.
    Senator Blumenthal. Thank you.
    As to helicopters, I have written a bipartisan letter along 
with a number of my colleagues to the appropriators, asking for 
an additional $327 million to fully fund the 60 helicopters 
that are necessary to reach the state of readiness for our 
National Guard that they have asked to be. Would you support 
that as well, assuming that the Congress provides funding?
    Secretary Mattis. I would have to look at the priorities we 
place more broadly. But I mean, it sounds reasonable, sir. I 
would have to look at it, in particular.
    Senator Blumenthal. Thank you.
    Secretary Mattis. Yes, sir.
    [The information referred to follows:]

    Secretary Mattis. The fiscal year 2018 budget request supports my 
priorities to continue to improve warfighting readiness and increase 
capacity and lethality, and includes twenty-four Blackhawks at a cost 
of $493 million. While sixty additional helicopters might be 
executable, they do not represent my highest priority nor were they 
included in the Army's or National Guard's most recent unfunded 
requirements submission. The fiscal year 2018 budget request reflects 
my highest, balanced priorities, which allow the Department to continue 
to rebuild readiness while repairing damage from five years of unstable 
budgets and budget caps in preparation for future investments. 
Ultimately, the power of the purse is invested with Congress, and we 
will responsibly execute the funding that Congress approves.

    Senator Blumenthal. A number of our military leaders, past 
and present, have characterized the greatest threat to this 
Nation as being cyber warfare. There was a report in the 
Washington Post just yesterday, as a matter of fact, that 
hackers allied with the Russian Government, you may have seen 
the report, have devised a cyber weapon that essentially has 
the potential to disrupt our electronic grid, completely cause 
chaos in our electric systems that are vital to daily life in 
this country--an alarming report.
    Have you seen it? Do you agree that it is accurate?
    Secretary Mattis. I have seen it. I believe that this 
threat is real, and none of us are ignoring this threat at all. 
There is a lot more going on in this regard, sir, that I can 
discuss in a private setting.
    Senator Blumenthal. I would appreciate that opportunity.
    Would you agree with me and with others that cyber is one 
of the greatest threats, perhaps the greatest threat, in terms 
of warfare today?
    Secretary Mattis. It is certainly one of the tops, sir, 
because it cuts across all domains, air, surface. It impacts 
our nuclear command-and-control. Certainly, our very 
institutions, whether it be democratic or banking or whatever, 
are vulnerable to this sort of attack.
    Senator Blumenthal. Would you agree that the Russian 
hacking and cyberattack on our systems during the last election 
was an act of war?
    Secretary Mattis. I would leave the--I know it was a 
hostile act. Whether or not it crosses the threshold for war, 
sir, I am not a lawyer. But there is no doubt it was a hostile 
act directed against our country.
    Senator Blumenthal. Would you agree with me that we need a 
better definition and a policy? It may involve lawyers or 
others. I am not sure lawyers are the best to define it. But 
wouldn't you agree that we need a better policy defining what 
is an act of war in the cyber domain?
    Secretary Mattis. I think clarity in this regard would help 
in terms of deterrence and response. Absolutely.
    Senator Blumenthal. I want to, in my remaining time, focus 
on an area that is extraordinarily important to our Nation, 
even though it is not the kind of glamorous, shiny toy area 
that attracts most attention.
    President Trump's budget cuts the Department of Labor's 
worker training budget by 36 percent. At a time when we are 
working to modernize our military with particular emphasis on 
the nuclear triad, the Department of Defense will be relying on 
the defense industrial base to recruit and hire and train 
thousands of workers across the country: in my own State of 
Connecticut at Pratt & Whitney, thousands of workers to build 
the engines that are necessary for the Joint Strike Fighter; at 
Electric Boat, thousands of workers necessary to build the 
submarines that are so essential to our national security.
    Yet, we are cutting the funding necessary for training 
those workers, the welders, the pipefitters, the engineers, 
designers, people with real skills that are essential to our 
national defense.
    Would you agree with me that our national security really 
requires that funding be restored?
    Secretary Mattis. Sir, I believe there is a need for the 
kind of people you are referring to. There is an apprenticeship 
program I know the Department of Labor is starting. I do not 
know the details of it. But it is directed exactly at the 
skills that you have just been citing, but I cannot tell you 
more about it other than to say that would probably be the best 
place to get information about what is actually in the 
President's Budget to address this.
    Senator Blumenthal. I know the Labor Department budget is 
out of your direct jurisdiction, but it affects our military 
capability.
    My time has expired, but this subject is intensely 
important to the future of our Nation, and I hope that you will 
support efforts to increase the funding necessary for 
apprenticeship and training and other such skill-enhancement 
programs.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Senator Graham. Secretary Mattis, you famously said, as a 
Marine Corps commander, that if you cut the State Department's 
budget, you need to buy me more ammo. Do you still stand behind 
that idea?
    Secretary Mattis. That was probably a rather simplistic way 
to point out that we have to engage with whole-of-government, 
and yes, sir, I still stand by the theory.
    Senator Graham. So you believe soft power is an essential 
ingredient to winning the war on terror?
    Secretary Mattis. I think America has two powers, 
fundamental power, sir, the power of inspiration, the power of 
intimidation. You have to work together, and the State 
Department represents inspiration overseas.
    Senator Graham. Do you agree with that General Dunford?
    General Dunford. I do, Senator.
    Senator Graham. Mr. Norquist, has anybody asked you a 
question yet?
    Secretary Norquist. Senator Perdue made a reference to the 
audit, but I think the time ran out before----
    Senator Graham. I am going to give you a question, but you 
have to be quick.
    Secretary Norquist. Okay.
    Senator Graham. Where will TRICARE costs be in terms of DOD 
spending in the next decade?
    Secretary Norquist. Where will which costs be?
    Senator Graham. TRICARE costs.
    Secretary Norquist. I do not have those numbers at my 
fingertips, sir, but I know that the overall is $51 billion for 
all of the defense health costs.
    Senator Graham. Well, look at it, because I think you are 
going to find it to be really encroaching on the defense 
budget. We need TRICARE reform.
    Secretary Norquist. Correct. The health care costs of 
defense have gone up significantly year after year.
    Senator Graham. All right. Thank you.
    General Dunford, when we liberate Mosul, and I am sure we 
will, would you recommend a residual force to stay behind, of 
Americans?
    General Dunford. Senator, I do believe the Iraqis are going 
to need support after Mosul, but I would also point out that 
the end of Mosul is not the end of combat operations in Iraq. 
There is much more work to be done.
    Senator Graham. Absolutely right. So the day that we get to 
the end of combat operations, is it your testimony, as Chairman 
of the Joint Chiefs, that we would be wise as a Nation to leave 
a residual force to prevent ISIL and other radical groups from 
coming back?
    General Dunford. My assessment is that that support for the 
Iraqis would be strategically important.
    Senator Graham. To the United States.
    General Dunford. To the United States.
    Senator Graham. Do you agree with that, Mr. Secretary?
    Secretary Mattis. I do, sir.
    Senator Graham. Do you agree that, from a Homeland security 
point of view, the outcome in Afghanistan matters, in terms of 
whether it is a failed state or a stable country?
    Secretary Mattis. Yes, Senator, I do.
    Senator Graham. Do you believe that every soldier serving 
in Afghanistan today, American soldier, is an insurance policy 
against another 9/11?
    Secretary Mattis. An insurance policy?
    Senator Graham. Against another 9/11 coming from 
Afghanistan?
    Secretary Mattis. Oh, yes, absolutely, sir.
    Senator Graham. Do you agree with that, General Dunford?
    General Dunford. I do. I do, Senator.
    Senator Graham. If anybody falls in the service of the 
country in Afghanistan, they died to protect the Homeland?
    General Dunford. I do not think there is any question. I 
would also point out that I believe strongly that the pressure 
that we have put on terrorist groups inside of Afghanistan over 
the last 15 years is the reason we have not seen another 9/11 
from that part of the world.
    Senator Graham. As a matter of fact, it is one of the best 
purchases you could have, in terms of dealing with the 
international terrorism, is Afghanistan. Do you agree with 
that, both of you? It is a good place to be, in terms of 
countering international terrorism.
    General Dunford. It is a center of international terrorism, 
sir, in the number of groups there, and we have to confront 
them there.
    Senator Graham. All right, thank you very, very much.
    Saudi Arabia. Do both of you support the arms deal to Saudi 
Arabia negotiated by President Trump?
    Secretary Mattis. I do, sir.
    Senator Graham. General Dunford?
    General Dunford. Senator, that is really a policy decision. 
I will defer to the Secretary.
    Senator Graham. Okay, militarily, do you think it would be 
wise for us to help Saudi Arabia?
    General Dunford. The only military judgment consideration 
is, how does that fit into the qualitative military edge for 
the Israelis, and it has been looked at through that lens. It 
is not a challenge.
    Senator Graham. All right, let's get back to this right 
quick, General Mattis. If Congress rejects this arms deal, what 
message are you sending to Iran?
    Secretary Mattis. I believe Iran would be appreciative of 
us not selling those weapons to Saudi Arabia.
    Senator Graham. The type of weapons we are talking about 
selling would make Saudi Arabia more effective on the 
battlefield in places like Yemen, not less, because of the 
precision nature of the weapons.
    Secretary Mattis. With proper training, it can have that 
effect. Yes, sir.
    Senator Graham. Okay.
    North Korea. Is it the policy of the Trump administration 
to deny North Korea the capability of building an ICBM that can 
hit the American Homeland with a nuclear weapon on top? Is that 
the policy?
    Secretary Mattis. Yes, it is, Senator Graham.
    Senator Graham. That policy has to have all options on the 
table to be meaningful, including the military option?
    Secretary Mattis. That is correct, sir.
    Senator Graham. The military option would be devastating 
for the world at large, but the President and you have to 
balance the interest of Homeland security against regional 
stability.
    Do you think China gets it this time, that we are serious 
about stopping North Korea?
    Secretary Mattis. I have no doubt that China thinks we are 
serious about stopping North Korea, sir. It is principally a 
diplomatic-led effort right now to try to denuclearize the 
peninsula.
    Senator Graham. Last question. What signal would we be 
sending to Russia if Congress failed to act for punishing them, 
if Congress failed to push back against Russia's interference 
in our election, if we gave Russia a pass? What message would 
that send to Putin? What message would that send to our allies? 
What would you recommend that the Congress do about Russian 
aggression? Do you support more sanctions?
    Secretary Mattis. Sir, I believe that we have to make very 
clear what behavior we want to see in the international 
community and what behavior we will not stand for. We need to 
make that clear in the Congress, in the executive branch, and 
in our alliances.
    Senator Graham. Do you agree with that, General Dunford?
    Chairman Dunford. Senator, I do. Although, having spoken to 
Secretary Tillerson, I would hope that anything we do with 
regard to Russia would be done in conjunction with the State 
Department. Meanwhile, I can assure you we are preparing for 
the military dimension of the problem.
    Chairman McCain. With a 3 percent increase over the Obama 
administration's defense appropriations, we are going to take 
care of all those things. Is that right, General?
    General Dunford. Chairman, I was responding to the Russia 
challenge. I think the fiscal year 2018 budget is giving us 
some significant resources to deal with the Russia challenge.
    Chairman McCain. So 3 percent is sufficient, in your view?
    General Dunford. Chairman, all I can tell you is that the 
prioritization within the topline that we have been given is 
the right prioritization.
    As I indicated earlier, I believe the requirements that the 
services have provided over and above the budget are legitimate 
requirements.
    Chairman McCain. So 3 percent is enough?
    General Dunford. Chairman, I also stipulated that I believe 
we need a minimum of 3 percent just to maintain the competitive 
level we have right now. The Secretary and I described it, as 
indicated, we need at least 5 percent for several more years to 
come before we can be competitive.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Mr. Chairman, Senator King has to go to a 
funeral, so he asked for 2 minutes of my time, if I may give 
that to him?
    Chairman McCain. Senator King?
    Senator King. Thank you. Just a couple points, Mr. 
Chairman. I think it is important, and I hate to be bringing 
more bad news, but in thinking about our budget and the budget 
future, the looming threat that I see, in addition to all those 
we have discussed today, is interest rates.
    An easy way to think about this: 1 point of increase in the 
interest rate on our national debt equals the Air Force. The 
entire Air Force budget would be encompassed in a 1 percent 
increase in interest rates. Three percent would encompass the 
entire defense budget. Five percent would encompass almost the 
entire discretionary budget.
    I do not think there is any doubt that interest rates are 
headed up. So that is an additional factor that we have to 
think about, in terms of our development of the budget.
    Secondly, there is what I call the modernization bulge 
coming, which CBO [the Congressional Budget Office] estimates 
to be $400 billion over the next 10 years. That is for the B-
21; the Columbia submarine, the Ohio replacement; the B-21; and 
then the whole nuclear. So that is another problem that we have 
to deal with and still maintain current budget levels.
    So I think the situation is even more grim than what we 
have talked about this morning, because of those additional 
factors that are not generally discussed in terms of this.
    We have talked a lot about unconventional threats that we 
are facing. Cyber and the attack on our electrical system are 
clearly attacks. We have not talked about hybrid war, and I 
worry that Crimea is a precursor of a way, for example, to 
attack the Baltic states without tanks rumbling across the 
border.
    Finally, Mr. Norquist, I hope that you will take very 
seriously the necessity for the audit, which we have been 
hearing about for years. I think, as I recall, 2017 was 
supposed to be the year the Department of Defense was ready.
    So my folks in Maine say, how can they possibly do this 
without an audit? I hope to have a report back from you and 
perhaps we can have a hearing just on that.
    So those are the points that I wanted to make. I want to 
thank you, gentlemen, for your testimony today.
    Thank you, Mr. Chairman.
    Thank you, Senator Nelson.
    Senator Nelson. Thank you for your public service.
    I want to follow up on the quote that Senator Graham quoted 
you, with regard to the State Department. Are we giving up 
options that were previously available to us to exercise before 
we reach an armed conflict by a budget that is substantially 
cutting the State Department and other agencies of soft power, 
such as USAID [the United States Agency for International 
Development]?
    Secretary Mattis. Senator Nelson, I have not looked in 
detail at the State Department. I cannot tell you what is 
actually being cut and what is being retained. I would have to 
direct that to Secretary Tillerson, because I am not competent 
to answer it.
    Senator Nelson. Well, I would suggest that you look at it, 
because if you are supporting a budget that whacks the State 
Department and USAID, you well know you are not only a warrior, 
you are a diplomat as a commander who utilizes all those other 
agencies of government in projecting your soft power. This is a 
budget that substantially decreases the State Department and 
USAID.
    So I understand the sensitivity. You do not want to answer 
that. But that is going to be something you are going to have 
to face.
    Let me ask you, are you satisfied in your statements with 
regard to the United States support of article 5 in the NATO 
treaty? Are you satisfied that you have assured our allies that 
America supports article 5?
    Secretary Mattis. I have, sir. I believe the President has 
just recently done so right from the White House.
    Senator Nelson. Was it in his speech and he took it out 
when he was over there?
    Secretary Mattis. I think he believed that, by being there, 
that was--those actions spoke louder than any words. But he has 
put it in his speech since then, as you know, just here in the 
last couple days.
    Senator Nelson. All right, let me ask you, do you think 
that the existing sanctions are enough to deter further Russian 
aggression in Ukraine and Syria, the sanctions against Russia?
    Secretary Mattis. Sir, it is hard to tell what influences 
Putin. I think he is not acting in the best interests of the 
Russian people. As such, I think that whatever the Congress 
does, so long as it leaves us some flexibility to our Secretary 
of State and our President to negotiate as we try to get out of 
this spiral that is going downhill, make the point about where 
you stand, sir, but leave some flexibility in execution to 
those who have to diplomatically engage and try to reverse 
this.
    Senator Nelson. Would additional economic sanctions against 
Russia help, in your opinion?
    Secretary Mattis. I think if they were conditioned on 
failure of the diplomats to gain some kind of common approach 
to get out of the jam that Russia is putting everyone in.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Reed. [Presiding.] On behalf of Chairman McCain, 
Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    There has been a lot of discussion today about the budget 
and a continuing resolution. One of the issues that seems to be 
forgotten here is, last year, actually, the Appropriations 
Committee, Defense Approps, voted out of committee, almost 
unanimously, a defense budget. Unfortunately, it came to the 
floor last summer right around this time, and it was 
filibustered.
    So if we did that again, Secretary Mattis, would that be 
helpful, to have a defense budget that we worked on, voted out 
of committee, and then be filibustered? Is that helping our 
troops, if that happens again? I certainly hope it does not 
happen again, but I am just trying to get your view on it.
    Secretary Mattis. I think it would be horrible for our 
country, as well as our troops, sir.
    Senator Sullivan. You know, Secretary Mattis, I really 
appreciate your focus on the Asia-Pacific. I know it was not 
lost on our key allies in the region that that was your first 
trip as the Secretary. Your recent visit to Singapore with the 
Shangri-La Dialogue I also think was important for a whole host 
of reasons.
    I am sorry I could not have joined you. I had an event that 
was even more important than the Shangri-La Dialogue, which was 
a high school graduation of one of my daughters. Otherwise, I 
would have been with you.
    I read your speech and the Q&A [question & answer] 
afterwards. I thought it was outstanding.
    Can you succinctly state United States policy as it relates 
to freedom of navigation operations in the South China Sea and 
other areas, just so both our allies and adversaries are aware 
of it?
    Secretary Mattis. Yes, sir.
    We operate freely in international waters, and we do not 
accept unilateral inhibitions on the international waterways 
and their use, or airways.
    Senator Sullivan. Are we going to continue to do that on a 
regular basis, with our allies, if possible?
    Secretary Mattis. We will unilaterally or in league with 
our allies. Yes, sir.
    Senator Sullivan. So I read in the press that USS Dewey 
conducted a FONOPs [Freedom of Navigation Operation] near 
Mischief Reef within the 12 nautical miles, and we even 
conducted military-type training, a man overboard mission, 
according to the press reports. The Chinese, according to press 
reports, protested that.
    What was our response in response to their protest?
    Secretary Mattis. To reiterate that we operate in 
international waters, sir.
    Senator Sullivan. I also very much appreciated your focus, 
and, General Dunford, your focus on the importance of our 
allies. You highlighted that quite well in your Shangri-La 
Dialogue speech.
    Can you just touch on that again for the committee's 
benefit and the benefit of the American people, just how 
important our allies are not only in the Asian-Pacific but 
globally in terms of us securing our national security 
objectives?
    Secretary Mattis. Senator Sullivan, there is an awful lot 
of talk about asymmetric advantages and competitive advantages 
and disadvantages. I would put our allies and our alliances 
from NATO to the Pacific, bilateral, multilateral, as our 
asymmetric advantage, especially if you put a list of our 
allies alongside a list of China's allies or Russia's 
alliances. You can see the proof coming through from history 
that nations with allies thrive and those without them do not 
thrive.
    Senator Sullivan. So we are an ally-rich Nation, and our 
adversaries and potential adversaries are ally-poor. Is that 
one way to look at it?
    Secretary Mattis. That is a perfect way to look at it.
    Senator Sullivan. So we should be working to deepen those 
alliances and expand them, correct?
    Secretary Mattis. Absolutely.
    Senator Sullivan. Do you think everybody in the 
administration gets that and is doing that?
    Secretary Mattis. As you know, sir, Secretary Tillerson and 
I work very closely together exactly along these lines. He 
leads foreign policy. I provide military factors and buttress 
his efforts.
    I also know that, in terms of Homeland Security, Secretary 
of Homeland Security Kelly is working with our closer allies 
around the hemisphere but also further out to try to protect 
the country.
    So I see it being a theme that is being carried forward. 
Yes, sir.
    Senator Sullivan. Let me just finish up, maybe follow up on 
a couple questions Senator Graham asked about North Korea. I 
actually very much appreciated what the President and Vice 
President did when they invited 100 U.S. Senators over to the 
White House to get the briefing with the President there, the 
Vice President, H.R. McMaster, and all of you. I thought that 
was actually very useful, very important.
    One element that I thought was very important was that you 
were clearly trying to get the Congress, in a bipartisan way, 
to be supportive of this new strategy. I think, as you know, 
Mr. Secretary, our country is at its most powerful when the 
executive branch and the legislative branch are working 
together on difficult issues, when Democrats and Republicans 
are working closely together on difficult issues, which is why 
I thought what the President did that day, bringing everybody 
over to hear about our strategy firsthand from you and others, 
and General Dunford, was so important.
    Is a nuclear ICBM armed in North Korea the most significant 
threat we face right now as a Nation?
    Secretary Mattis. It is certainly the one that is in the 
hands of a potential rogue state that we have to consider.
    Senator Sullivan. Is it increasing? Increasing, that threat 
is increasing, heightening?
    Secretary Mattis. No doubt, every test, we assume they are 
learning from it, sir.
    Senator Sullivan. So we need more missile defense 
capabilities for our Nation?
    Senator Sullivan. Right now, I believe we can protect the 
Nation. As we look to the future, absolutely.
    Senator Sullivan. Thank you, Mr. Chairman. I might have a 
few follow-ups, if there is time.
    Senator Reed. Thank you, Senator Sullivan.
    On behalf of Chairman McCain, Senator Peters, please.
    Senator Peters. Thank you, Senator Reed.
    Thank you to our witnesses today. I appreciate this very 
interesting and informative testimony.
    Secretary Mattis, in your testimony, you describe rapid 
technological change as an important force acting on the 
Department. In fact, I believe you highlight it as one of the 
four major forces that we have to confront.
    You and I have had the opportunity in my office to talk 
about how robotics and autonomous systems, artificial 
intelligence, all these other technologies will fundamentally 
change warfare in the next 10 years, perhaps much sooner than 
that. The private sector is leading on many of these 
developments.
    For example, Ford Motor Company, General Motors, will 
likely have a production self-driving automobile in the next 4 
to 5 years out in the marketplace, which is much sooner than 
most people, I think, realize.
    Secretary Mattis, you stated in your testimony, in fact, 
that the fact that much of this technological change will come 
from the commercial sector may expose it to state competitors 
and nonstate actors.
    So I am concerned that, in recent years, China has 
strategically weaponized investment in joint ventures in the 
United States as a method of improving its capabilities and 
obtaining advanced United States technology. The Committee on 
Foreign Investment in the United States, or CFIUS, is the U.S. 
Government entity responsible for vetting foreign investment in 
the U.S. for national security risk. But I am concerned that 
CFIUS is both outdated and overburdened, and may not be really 
up to the challenges that we are facing today.
    Admiral Rogers testified last month before this committee 
that our adversaries understand our CFIUS structure and its 
limitations, and some nation-states have actually changed their 
investment methodology to get around the process that we have 
in place.
    So my question is to both of you, Secretary Mattis and 
General Dunford. Is there a national security benefit to taking 
a tougher line against certain types of investment from nations 
that pose a clear threat to our national security, like China?
    Secretary Mattis. Absolutely. There is. I completely agree 
with your view that CFIUS is outdated, sir, and needs to be 
updated to deal with today's situation.
    Senator Peters. General?
    General Dunford. I couldn't agree more, Senator. I think, 
of the many challenges that we look at very carefully, the 
theft of intellectual property, particularly as it pertains to 
defense programs, is of great concern.
    Senator Peters. If we go through some reforms of CFIUS, 
which I am in the process of working with Senator Cornyn and 
others to do that, are there any specific recommendations that 
you would have for us in changing the CFIUS process?
    Secretary Mattis. Senator Peters, let me send you a note 
that outlines some. I would tell you right up front that there 
is a lack of restrictions on investment in certain types of 
technology that we must have put in place. But I can give you a 
more inclusive list of where our thinking is at on this, if you 
just give me a couple days, sir.
    [The information referred to follows:]

    Secretary Mattis. The Department and other members of the Committee 
on Foreign Investment in the United States (CFIUS) carefully review 
each case for risks to our national security that arise from the 
transaction. The CFIUS regulations limit the transactions that the 
Committee can review. A tougher line against a broader range of covered 
transactions and intellectual property transfers would benefit our 
national security by preventing technology transfer to adversarial and 
competing nations. The Deputy Secretary of Defense recently established 
a cross-functional working group to develop policy options to address 
the risks of technology and intellectual property transfer to 
adversaries. These changes are integral to national security and we 
support the legislative efforts to strengthen the Committee.

    Senator Peters. I appreciate that. Thank you so much. That 
would be very helpful.
    In closing, given the fact that this is one of our major 
threats that we have to face, which is rapid technological 
change, and the list that you put in your opening testimony, 
are there any particular technologies that you are most 
concerned about, and ones that we need to be investing more in 
our own capabilities? This is to both Secretary Mattis and to 
General Dunford.
    Secretary Mattis. Let me come back to you again in private. 
I would prefer--these are areas that are very sensitive, and I 
do not want to let our adversaries know which ones we are 
looking at. But we will explain exactly what we are looking at, 
sir.
    Senator Peters. I understand that. I appreciate that.
    General, I assume that is your same position.
    General Dunford. Absolutely, Senator.
    Senator Peters. Good. I will look forward to working with 
both of you. Thank you.
    [The information referred to follows:]

    Secretary Mattis. The list I gave covers the majority of 
technological areas that we foresee as giving us a dramatic advantage 
in warfare. However, technology has become global and countering those 
same technologies has become a challenge. I envision the Under 
Secretary of Defense for Research and Engineering as the Department's 
champion to lead the way forward on innovation ensuring that we 
leverage our service, industry, academia, and allied partners.

    Chairman McCain. [Presiding.] Senator McCaskill?
    Senator McCaskill. I know the chairman has mentioned this 
several times, but I think repetition matters, in terms of 
getting this message out to the American people.
    The President said that he was going to have historic 
increases in defense spending. At one point, the President said 
he was going to expand the Army from 480,000 to 540,000.
    It is my understanding, as the chairman has mentioned, 
that, in fact, the President's request for the military was 
exactly 3 percent higher than President Obama's. Furthermore, I 
assume you all agree that it calls for zero additional 
soldiers. Correct?
    Secretary Mattis. That is correct, right now.
    Senator McCaskill. So does he not know that this is not a 
historic request? Does he not know--I mean, what I worry about 
is the American people are being told over and over again, 
``Well, we are going to have a really big, I mean, we are going 
to fund our military. Our military, this is a huge increase and 
request.'' The reality is so different than the rhetoric coming 
out of the White House, Mr. Secretary.
    I worry that the American people will not understand that 
we have not even begun to do what we need to do, in terms of 
bringing our combat brigades to where they need to be.
    I hate to sound like a ``me, too.'' I think I would have to 
be a mini-me to you, Mr. Chairman. But I am worried that there 
is some misrepresentation going on.
    Secretary Mattis. Well, Senator, if you look at the $30 
billion we asked for as fast as we came in to address immediate 
readiness problems, and the--I would just call it the situation 
that we have inherited that demands more, we are trying to put 
together a coherent program on the run while we are engaged 
overseas, while we have numerous crises unfolding, while we are 
still getting people approved through the Senate, nominated to 
the Senate, and get the consent of the Senate to get them in. 
There is a fair number of things going on at one time.
    That is not to say we should not continue to work along the 
lines that we are together, but I have to come to you with a 
coherent plan where I can confidently say that the money you 
throw into this is going to be spent wisely.
    Senator McCaskill. I think that is fair.
    Secretary Mattis. I did not say that we are asking for 
enough money in this budget.
    Senator McCaskill. Well, he is.
    Secretary Mattis. That is why we have a 5-year program 
coming to you.
    Senator McCaskill. I appreciate and I know you are in a 
difficult position. I just think it does not help our cause, in 
terms of adequately funding our military, if the President is 
giving the country the impression that he is. That is the point 
I was trying to make.
    In addition to the strategy the chairman is asking for 
Afghanistan, I am awaiting the strategy on ISIS, which was 
supposed to be ready 30 days after the President took office. 
We still do not have that.
    Finally, what I want to turn to is strategy on cyber. I am 
really worried. We spend a lot of time worrying about Russians 
hacking politicians. I am worried about the Russians hacking 
our military and doing the things they are doing in terms of 
planting stories and gathering information.
    Fancy Bear, who has been identified by our intelligence and 
all of the intelligence experts as one of the premier agents of 
Russia in terms of cyber warfare, of the people that Fancy Bear 
has targeted outside of the former Soviet Union, 41 percent of 
them are either current or former members of the military, 
according to a recent analysis.
    Russia hacked the Twitter account of Central Command.
    We know that Russia has co-opted a very well-known veterans 
site that originally began in America. I do not want to use the 
name of it, because it will chase people to the site, and it 
has totally been co-opted as a Russian proxy.
    In fact, the Americans who began the site, they were seen 
in video at a meeting of the folks they are working with in 
Damascus, and the big, giant, oversized pictures behind them 
were of Assad and Putin. This is a site that is asking veterans 
to--helping them find jobs, ostensibly helping them find help 
for cancer treatment. Veterans are giving personal information 
to the site.
    We know that attractive women are going on Facebook. In the 
old days, you would send a spy into a bar that the military 
frequented and try to gain relationships one drink at a time, 
as this recent article pointed out. But now, they can do it 
through a Facebook page.
    So are you all all hands on deck, as it relates to the way 
military personnel and veterans--I know General Breedlove, they 
went after him. Are you all really paying attention to the 
corrosive ability of Russia to influence our military through 
direct contact through social media with our veterans through 
these proxy sites?
    Secretary Mattis. I know that training is probably the 
number one way to armor our people against this sort of thing, 
and training is perishable. It has to be ongoing. I have no 
complacency about this.
    I will see if the Chairman has anything to offer.
    But I will just point out that we have funded Cyber 
Command. We have all sorts of things going on with NSA that 
keeps us posted, puts protections, firewalls, into place.
    We have blocked a number of times, as you have seen, 
malicious malware being used where we were not affected. That 
was not because we were lucky. That was because we were 
throwing obstacles in the path and building firewalls as fast 
as we could. All you can do is stay ahead of these. You cannot 
build one and say, ``There. I can go home now.''
    So training and constant attention to the protective 
measures, I can guarantee you, is ongoing. I am briefed weekly 
on this, and the brief itself is pages long, as I look at the 
various blocks and countermeasures we are putting in place and 
what we are finding out about what various actors are up to.
    Anything else, Chairman?
    General Dunford. Senator, I would probably say two things.
    I do believe, and I have seen it, that the Service Chiefs, 
in particular, have really changed the command climate with 
regard to cyberspace and emphasized that, and treated 
violations of the protocols associated with our information 
technology as violations of UCMJ [Uniform Code of Military 
Justice] in holding people accountable.
    So as the Secretary said, it is about training. It is also 
about accountability. I think our culture of accountability 
with regard to information technology has changed a great deal.
    I also think, with the support of the Congress, our cyber 
capabilities, while we continue to need to grow them, have 
grown quite a bit. The 133 cyber mission teams that you all 
approved, 70 percent of them now are fully operational capable. 
I think if we had this conversation 24, 36 months ago, we would 
have been talking about just getting out of the gate. Now 70 
percent of them are fully operationally capable.
    In the coming months, we will have 133 of those teams that 
are fully operationally capable and continue to identify 
requirements to make sure that we can stay out in front of the 
threat.
    But I think the Secretary used the word complacency. I 
think your fundamental question is, do we get it? Are we 
changing the culture? Are we taking effective action to deal 
with threat? I do think we have significantly changed the 
culture. None of us believe we are where we need to be.
    Senator McCaskill. Thank you, Mr. Chairman.
    I would say that one of the things that worried me the most 
in this article I read was that there was a purported story of 
a Russian soldier in Syria, and how he had been heroic in the 
way he had died fighting ISIS, and that this spread like 
wildfire through troops in various places.
    We have seen an uptick in the popularity, the approval 
rating, of Putin and Russia in this country. I just worry that 
they are really insidiously trying to insert combat-related 
stories that reflect favorably on Russian soldiers, when 
instances may not even be true. That is infecting our troops 
with maybe less than a clear eye about what Russia is and about 
what Russia is trying to do.
    I just wanted to put that on the record.
    Secretary Mattis. This is also understood throughout NATO, 
Senator. The German Minister of Defense, she was explaining to 
me how one of their soldiers deployed to Lithuania, I think it 
was, was alleged to have raped a Lithuanian girl. ``Here come 
the German bad soldiers,'' a completely made-up story, trying 
to undercut the cohesion of NATO.
    I am just pointing out that this is a military problem. It 
is accepted as a military problem. We are working it.
    But I think we have a long way to go up against this rather 
imaginative enemy that we have.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan has some additional 
questions.
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, I just wanted to follow up on the North Korea 
discussion briefly.
    Mr. Secretary, General Dunford, I know you are Korean War 
history buffs in many ways. I heard you talk about the Korean 
War, as a matter of fact, yesterday in your House Armed 
Services testimony.
    General Dunford, you talked about a potential conflict on 
the Korean Peninsula. Seoul residents would face casualties 
unlike anything we have seen in 60 or 70 years. General Milley 
had similar testimony a couple weeks ago before this committee 
about what a conflict on the Korean Peninsula could be like.
    Mr. Secretary, you just mentioned the rapidly developing 
threat that the North Koreans present in terms of an 
intercontinental ballistic missile. To Senator Graham's 
question, you stated it was the policy of the Trump 
administration to prevent them from getting that capability. I 
think you have strong support from most members of the 
committee on that.
    But it certainly does seem like those two issues are going 
to start colliding here relatively soon. I know there are a lot 
of ways to prevent them from getting that kind of capability, 
left of launch kind of activities.
    But if one of those ways was a decision to take some kind 
of preemptive military action, I believe that that would 
clearly trigger Congress' Article One authority with regard to 
declaring war, and you would need this body's authority to take 
such action.
    Do you agree with that? Has that been a discussion in the 
Trump administration? It is a very big issue that I am not sure 
has gotten enough attention.
    Secretary Mattis. I have not brought that issue to the 
President's attention, sir. Right now, as you know, from Mar-a-
Lago, where the President met with his counterpart, to 
Secretary Tillerson and I, who will be following up with our 
counterparts in the next week or 2 weeks here in Washington as 
we have strategic security dialogues, we are doing everything 
we can to avoid resorting to war, in terms of protecting 
ourselves and our allies.
    Senator Sullivan. I think it is an issue that should be on 
somebody's radar screen, not that we want that, but part of 
what the President has been trying to do, and I am fully 
supportive, is get the Congress to be supportive of his policy, 
like I mentioned. That is why I thought the briefing at the 
White House a few months ago was actually very useful.
    But to continue to have that support, we need to be 
involved. I think that is something that this committee needs 
to be cognizant of, but also the White House does as well.
    Let me ask one final question. In the past 6 weeks, the 
Russians have sent Bear bomber missions off the coast of Alaska 
that have been intercepted by our F-22s based there five times 
in the last 6 weeks.
    What do you think the Russians are up to with this kind of 
very persistent checking of our NORAD [North American Aerospace 
Defense Command] systems? That is a pretty active engagement. 
Last time, it was not just with Bear bombers but with fighter 
escorts. What do you think they are trying to do in the Arctic? 
What are they trying to achieve? Why are they so active up 
there?
    Secretary Mattis. Sir, I am not sure what they are trying 
to achieve there. When you look at the combination of their 
cyberthreats to democracies, when you look at what they are 
doing in Syria, the Bear bombers, as you put this panoply of 
activities together, it is very, very concerning, and we are 
going to have to turn this around. The cycle has got to be 
turned around.
    I think it is going in the wrong direction, in terms of 
stability and peace. This is where miscalculations can occur.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses for their patience. 
I thank them for their responses.
    I want to emphasize again, Mr. Secretary, it is not your 
fault, not yours, Secretary Norquist, General Dunford. But we 
are not going to sit still while you settle the internecine 
strife that is obviously going on, which is preventing this 
strategy from coming forward.
    We are moving forward with authorization, with 
appropriation. Without a strategy, it makes our job 10 times 
harder.
    I think we have been pretty patient with you. We are going 
to start putting pressure on, because we need a strategy. To 
sit here June 13th, 2017, and say, ``Well, don't worry. We are 
going to be coming forward with a strategy,'' things are 
happening too rapidly in the world.
    So you have my greatest respect and admiration, but we are 
not doing the job for the American people that they expect us 
to do. So it is what it is.
    I thank the witnesses, and I thank you for being here.
    The hearing is adjourned.
    [Whereupon, at 12:16 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Dan Sullivan
                        north korea provocations
    1. Senator Sullivan. Secretary Mattis and General Dunford, it is no 
longer an ``if'' North Korea gets a nuclear-capable ICBM that can reach 
cities like Chicago and New York, it is a ``when.'' From a missile 
defense perspective, how would you characterize tomorrow's threat from 
North Korea and the need to quickly address it?
    Secretary Mattis. The Department of Defense has been preparing for 
this eventuality since we began deploying the Ground-based Missile 
Defense system in 2004, and we have been continually updating and 
improving that system. The 2013 decision to increase from 30 to 44 
interceptors arose from the realization that the threat from North 
Korea was increasing. I am confident that our Homeland missile defense 
system is capable of dealing with this threat. I am overseeing the 
Department's review of our missile defense policies and programs. We 
will use the results of this review to ensure that we stay ahead of the 
threat.
    General Dunford. North Korea is aggressively pursuing nuclear-
capable ICBMs, and will undoubtedly seek to produce as many ICBMs as 
they can to directly threaten the United States Homeland. Our missile 
defense capabilities must advance to keep ahead of the North Korean 
threat. To achieve this, we must invest more now into a layered missile 
defense system that better protects the Homeland and negates the 
advantages North Korea seeks in continued development.

    2. Senator Sullivan. Secretary Mattis and General Dunford, Kim 
Jong-Un is different from his father and grandfather because he 
understands that failed in missile tests ultimately produce successful 
ones. As General Hyten stated, ``I think they [North Korea] already 
have the capability to deploy an intercontinental ballistic missile, 
the question is when will they be able to mate a nuclear weapon to it . 
. . North Korea's going fast; test, fail, test, fail, test, succeed. 
And they're learning and you can see them learning, because that's the 
way you do the rocket business.'' Does the rapid pace of his testing 
worry you, as it worried General Hyten?
    Secretary Mattis. Yes, the pace of North Korea's advance in this 
area is concerning. I take this threat very seriously.
    General Dunford. North Korea's ongoing ICBM and nuclear weapon 
development is aggressive and troubling. Since 2016, North Korea has 
conducted over 34 ballistic missile tests, including the July 4 and 28 
ICBM launches, as well two nuclear tests. This pace of development has 
increased tremendously over previous years, and I expect this pace of 
testing to continue. For this reason, we must continue to apply 
pressure to constrain resources supporting North Korean ICBM and 
nuclear development, and further strengthen our military deterrence and 
defense in conjunction with our allies to halt the pace and reduce the 
threat.

    3. Senator Sullivan. Secretary Mattis and General Dunford, 2 weeks 
ago in response to North Korea's provocations, I introduced the 
Advancing America's Missile Defense Act of 2017 and we already have 14 
bipartisan cosponsors supporting this legislation. In your respective 
personal opinions, do you support increasing the capability and 
capacity of the Ground-based Midcourse Defense (GMD) system, including 
increased GBI capacity, space-based sensors, and more missile defense 
testing?
    Secretary Mattis. We continue to expand the Ground-based Missile 
Defense system as reflected in the fiscal year 2018 budget request. 
Additionally, the Department is conducting a Ballistic Missile Defense 
Review that will address the potential need for additional Ground-based 
Interceptors, ground-based and space-based sensors, and testing. It 
would be premature to speculate on the results of that review.
    General Dunford. North Korea has expanded the size and 
sophistication of its ballistic missile forces, from close-range 
ballistic missiles to ICBMs, and has conducted an unprecedented level 
of nuclear tests and ballistic missile launches since 2016, including 
its fourth and fifth nuclear tests and two ICBM tests. Given the threat 
we face today from North Korea, I support the current GMD program of 
record. The ongoing Ballistic Missile Defense Review will further 
inform the department on enhancements that can be made to increase the 
capability and capacity of the GMD system.
                   congressional authorization of war
    4. Senator Sullivan. Secretary Mattis, given the depth of your 
knowledge of military history, would you agree that before authorizing 
any potential pre-emptive action against North Korea--an action that 
could lead to the next war--the President of the United States would 
first have to ask Congress under its ``War Powers'' authority within 
article I, section 8, clause 11 of the U.S. Constitution?
    Secretary Mattis. I understand that opinions of the Department of 
Justice Office of Legal Counsel and historical precedents establish 
that the President has the power to commit U.S. forces abroad as well 
as to take military action for the purpose of protecting important 
national interests even without specific prior authorization from 
Congress. I understand that this independent authority of the President 
derives from the President's unique responsibility as Commander in 
Chief and Chief Executive. This understanding of the Constitution 
should not be mistaken to diminish the importance of the Congress in 
such matters. Particularly in the case of major or prolonged conflicts, 
express congressional authorization is an important demonstration of 
national resolve.
                   russian activity in the high north
    5. Senator Sullivan. Secretary Mattis, what message do you think 
the Russians are trying to send us with their five recent long-range 
aviation flights near American and specifically Alaskan airspace? Are 
they testing our responses?
    Secretary Mattis. The flights did not demonstrate a serious effort 
to test our responses. Russia's repeated flights were likely designed 
to express its displeasure with a series of events that it perceives to 
be against its interests.

    6. Senator Sullivan. General Dunford, when was the last time we've 
seen activity like this? When was the last time they sent Flankers to 
accompany their bombers, and do we know if these their bombers are 
armed?
    General Dunford. [Deleted.]

    7. Senator Sullivan. Secretary Mattis and General Dunford, what are 
the next steps that you think we be taking to respond to Russia's 
continued provocative behavior? What can or should we be doing to 
respond in the Arctic?
    Secretary Mattis. Russia must be held accountable for its 
provocative and destabilizing behavior, including for its alarming 
messages regarding the use of nuclear weapons; treaty violations; the 
use of hybrid warfare tactics to destabilize countries along its 
periphery; and involvement in hacking and information warfare. We will 
counter Russian activities when Russia chooses to act contrary to 
United States interests. The United States should and will continue 
working with our Allies to increase defense spending and to enhance the 
readiness and responsiveness of our forces in the European theater. We 
will also continue to build capacity in those Allied and partner 
nations most susceptible to Russian pressure. In addition to this hard 
power defense capability, countering Russian hybrid tactics requires an 
integrated, whole-of-government effort. Where Russia employs hybrid 
tactics, Russia must face consequences that persuade it that the costs 
of engaging in cyber attacks and malign influence campaigns will be 
greater than the expected benefit. The Department of Defense recognizes 
the need for the utmost diligence in assessing the presence and 
capabilities of foreign military forces in the Arctic, including those 
of Russia. In response to these assessments, the Department will 
regularly review requirements as the threats and conditions in the 
Arctic evolve. The Department of Defense must balance having adequate 
capabilities, capacities, and readiness to execute missions in the 
Arctic against other global requirements. As in other areas where we 
confront complex challenges, the Department is working to leverage the 
capabilities of our allies and partners to complement our own 
capabilities.
    General Dunford. Russia has undertaken a significant effort to 
expand its military capabilities in the Arctic, including rebuilding 
bases and infrastructure in its northern territories, establishing 
Coast Guard facilities, and dedicating military personnel and assets to 
Arctic service. I am not aware of provocative behavior by Russia in 
this region; however, should there be in the future, we are prepared to 
defend the U.S. against any aggression, to include that which might 
originate from the Arctic region. Addressing capability gaps in key 
enablers, particularly command and control, ISR, domain awareness, and 
remote sensing and observing, must remain a priority to ensure our 
ability to conduct Arctic operations.
             dod strategy for the indo-asia-pacific region
    8. Senator Sullivan. Secretary Mattis, I know that the Department 
is currently flushing out its new strategy for the Indo-Asia-Pacific. 
Can you share some of the details of this new strategy?
    Secretary Mattis. The Department is in the process of drafting a 
National Defense Strategy that will articulate our approach to 
challenges across the globe, as well as the Department's Asia-Pacific 
strategy, in accordance with statutory reporting requirements. Without 
getting ahead of those strategy review processes, I can say that the 
Asia-Pacific is both the primary strategic theater and an area in which 
we have a deep and abiding commitment to reinforcing the rules-based 
international order. As Vice President Pence stated in April, we will 
defend that order ``upon which the region's progress, past, and future 
depends.''

    9. Senator Sullivan. Secretary Mattis, how does this strategy 
differ from the previous Administration? How is it similar?
    Secretary Mattis. Although I do not want to get ahead of the 
National Defense Strategy process that is underway, I can highlight 
some of the key challenges the Department faces in the Asia-Pacific to 
be addressed in the new strategy.
    First, the most urgent and dangerous threat to peace and security 
in the Asia-Pacific is North Korea. In addition to taking further steps 
to protect the Homeland, the United States, in close coordination and 
cooperation with the Republic of Korea and Japan, will increase 
diplomatic and economic pressure until North Korea finally and 
permanently abandons its nuclear and ballistic missile programs.
    Second, although I welcome China's economic development, the United 
States cannot accept Chinese actions that impinge on the interests of 
the international community, undermining the rules-based order. The 
Department will continue to protect the freedom of navigation and 
overflight and other lawful uses of the sea, such as the unimpeded flow 
of lawful commerce, in the vital South China Sea and beyond. The United 
States seeks a constructive, results-oriented relationship with China, 
where we responsibly manage competition and areas where we disagree.
    Third, violent extremist organizations, including fighters 
returning from the Middle East, and local individuals radicalized by 
malicious ideologies, seek to gain ground in Southeast Asia. To address 
this challenge, the Department remains committed to leading the Defeat-
ISIS Coalition and is conducting other efforts, including partnering 
with countries in the region, such as the Philippines, Singapore, 
Malaysia, and Indonesia to improve information sharing and maritime 
domain awareness.
                    freedom of navigation operations
    10. Senator Sullivan. Secretary Mattis, given the recent freedom of 
navigation operation near Mischief Reef, can this committee safely 
assume that the U.S. will resume routine and regular FONOPs in the 
South China Sea to the point where they are no longer newsworthy?
    Secretary Mattis. Yes.
                               __________
               Questions Submitted by Senator Bill Nelson
                encroachment on test and training ranges
    11. Senator Nelson. Secretary Mattis and General Dunford, 
encroachment of activities incompatible with military test and training 
operations on our bases and ranges remains a major problem. In 2006 
Congress established the Military Mission Line, prohibiting oil and gas 
activities, and any activities conducted in preparation for oil and gas 
activities, in the Eastern Gulf in order to protect the test and 
training range there. The Department of Defense has said that the 
``vital importance of maintaining this moratorium cannot be 
overstated.'' Secretary Mattis and General Dunford, how important is it 
to test operations as well as training and readiness to continue to 
prevent this kind of encroachment in the Eastern Gulf Test and Training 
Range?
    Secretary Mattis. The Eastern Gulf of Mexico operating areas and 
warning areas provide a critical national defense complex for advanced 
weapon testing and joint training exercises. The protections provided 
by the Gulf of Mexico Energy Security Act of 2006, or similar 
instrument, must remain in order to protect this unique operating 
environment.
    The Department of Defense supports the development of our nation's 
domestic energy resources in a manner that is compatible with military 
training, testing, and operations. In all areas, we work to determine 
if there is an acceptable mitigation strategy to minimize impacts, 
although the test mission in the Eastern Gulf of Mexico does present 
some unique compatibility challenges. The Department is an active 
participant in the new National Outer Continental Shelf Plan 
established by the President's Executive Order of April 28, 2017, 
``Implementing an America First Offshore Energy Strategy.'' Through 
this new forum we will work with the Department of Interior to ensure 
that our current and future combat capabilities are protected well 
beyond the 2022 expiration of the military mission line.
    General Dunford. The Joint Staff defers to the Office of the 
Secretary of Defense to provide this answer.
                  major range and test facility bases
    12. Senator Nelson. Secretary Mattis and General Dunford, last 
year's National Defense Authorization Act (NDAA) expressed my concern 
and the concern of this committee that our Major Range and Test 
Facility Bases are unable to maintain pace technologically with our 
advanced fifth and sixth generation weapons delivery systems and new 
hypersonic systems. Secretary Mattis and General Dunford, how do you 
see high fidelity simulation upgrades at these ranges factoring into 
effective testing of our newest weapons delivery systems and munitions?
    Secretary Mattis. High fidelity simulations are essential to the 
effective testing of our newest weapons delivery systems and munitions. 
The increased capability and complexity of advanced fifth and sixth 
generation weapons and new hypersonic systems under development cannot 
be adequately tested with current test capabilities. Furthermore, 
traditional test methodologies often fail to measure mission 
effectiveness of system-of-systems across an expanded, distributed 
battlespace. High fidelity simulations being developed to test our 
latest air platforms, such as the Joint Simulation Environment, are 
essential to effectively testing our newest weapons delivery systems, 
hypersonic systems, and munitions. Using the Test and Training Enabling 
Architecture, the Joint Mission Environment Test Capability links high 
fidelity simulations with test capabilities at our Major Range and Test 
Facility Base so that advanced weapons systems can be set in a more 
realistic and robust test environment. In an effort to more fully 
leverage the benefits of high fidelity simulations, we are maturing 
technologies to improve multi-level security interoperability; 
streamline our model development, integration, and validation 
processes; and expand the incorporation of cyber effects into these 
complex, distributed test events.
    The Department will continue funding ongoing efforts to: (1) 
identify test and evaluation (T&E) instrumentation requirements; (2) 
develop additional operationally realistic live-virtual-constructive 
modeling and environments; (3) manage spectrum shortfalls; and (4) 
develop additional T&E range capabilities. An ongoing initiative 
includes the development of an enterprise library of common cyber and 
electronic warfare threat capabilities and methodologies. This library 
will improve acquisition program testing for our fifth and sixth 
generation capabilities by ensuring the most current validated threat 
representations are used across the development cycle.
    General Dunford. Secretary Mattis, high fidelity simulation is 
essential to effective testing of new weapons delivery systems and 
munitions to counter near-peer competitors. It is critical that major 
range and test facilities are recapitalized to have emitters, sensors, 
networks, and telemetry capabilities that can provide high fidelity 
simulation of various anti-access area denial environments to properly 
simulate potential wartime scenarios.
                 services support to special operations
    13. Senator Nelson. Secretary Mattis and General Dunford, in your 
testimony, you both referred to some conventional forces with 
specialized missions or increased capabilities as force multipliers for 
special operations forces. The Navy Reserve has one such unit, known as 
HSC-85, which is currently continuously deployed in the PACOM theater 
of operations. HSC-85 provides dedicated rotary wing support to Naval 
Special Warfare and other SOF while deployed as well as in training. 
Their sister squadron, HSC-84, flew alongside the 160th Special 
Operations Aviation Regiment for over ten years in Operation Iraqi 
Freedom, providing support to all levels of special operations in that 
theater before being disestablished by the Navy, arguably before 
complying with the full requirements placed on the Navy as a 
prerequisite to their disestablishment in the fiscal year 2016 NDAA. 
HSC-85 and HSC-84 were previously known as Helicopter Combat Support 
(Special) Squadrons HCS-4 and HCS-5. These squadrons have been 
providing dedicated special operations support since the Vietnam 
conflict when their predecessors Helicopter Attack Squadron (Light) 
HAL-3, HAL-4, and HAL-5 protected our Brown Water Fleet operations 
there. Secretary Mattis and General Dunford, how important is it for 
the individual services to continue to man, train, and equip HSC-85 and 
other force multipliers that provide support to special operations?
    Secretary Mattis. The Department continues to invest in and focus 
on the Asia-Pacific region because of the long-term consequences of 
regional instability, the emerging regional threats, and the long-
standing U.S. role in ensuring the region's stability. The fiscal year 
2018 budget identified select investments as part of a broader effort 
in rebuilding the military to be more ready, capable, and lethal, 
particularly for forward deterrent forces. This effort included funding 
to support infrastructure investments necessary to station a fifth 
submarine in Guam by fiscal year 2020; procurement of 14 cutting edge 
F/A-18 E/F (Super Hornet) aircraft; procurement of 2 Flight III Burke-
class destroyers equipped with a new sensor suite to counter the most 
advanced weapons of near-peer competitors; funding of maintenance, 
repair, and modernization of our surge sealift ships; and other, 
targeted investments to improve resiliency; expand and diversify 
munitions; enhance intelligence, surveillance, and reconnaissance 
(ISR), undersea, and long-range strike capabilities; and demonstrate 
other advanced operational capabilities while improving force 
availability for major contingency operations. The Department currently 
is in the process of drafting a National Defense Strategy that will 
inform the fiscal year 2019 budget request, including areas for 
additional investment in capabilities suited to the challenges we face 
in the Asia-Pacific. Future investments will focus on rebuilding our 
military to be more ready, capable, and lethal, particularly our 
forward deterrent forces.
    General Dunford. The U.S. Navy is best suited to provide further 
details addressing your concerns with regards to man, train, and equip 
the HSC-85 and other force multipliers that provide support to SOF.
                               __________
            Questions Submitted by Senator Claire McCaskill
                                 qatar
    14. Senator McCaskill. Secretary Mattis and General Dunford, can 
you please outline the national security impact of the recent decision 
by a number of Gulf Cooperation Council members to sever diplomatic 
ties with Qatar from each of your perspectives, both policy and 
military?
    Secretary Mattis. The rift within the Gulf Cooperation Council has 
not affected U.S. military operations in the region. However, the U. S. 
continues to press for a resolution to this conflict. Our common 
security is a top priority, and our Gulf partners, including Qatar, 
play important roles in the region by hosting our forces and providing 
support to the Defeat-Islamic State in Iraq and Syria coalition. United 
States efforts to resolve this crisis are being led by the Department 
of State, with the Department of Defense playing a supporting role.
    General Dunford. The Gulf Dispute concerns us because the U.S. 
considers each primary party to be an important partner in the region. 
The Gulf Dispute has diminished intra-Arab trust and confidence and 
serves to distract GCC members from their collective security. Impacts 
on U.S. military operations have been negligible and the Joint Force 
continues to benefit from access, basing, and overflight permissions 
from the Gulf States. Moreover, we support the Department of State-led 
approach to resolving the dispute, and look forward to continued 
military cooperation in the region.

    15. Senator McCaskill. Secretary Mattis and General Dunford, has 
this decision had any immediate impact on our counter-ISIL campaign?
    Secretary Mattis. The rift within the Gulf Cooperation Council has 
not affected U.S. military operations in the region. U.S. military 
aircraft continue to conduct missions in support of ongoing operations 
in Iraq, Syria and Afghanistan. Qatar has also provided additional C-17 
airlift support for Defeat-Islamic State in Iraq and Syria operations 
that was previously deployed in Yemen.
    General Dunford. The diplomatic rift between Qatar and the Gulf 
Cooperation Council (GCC) remains a concern. It has had no immediate 
operational impact on our Defeat ISIS military campaign in Iraq and 
Syria.

    16. Senator McCaskill. Secretary Mattis and General Dunford, do 
either of you foresee any long-term impact on our counter-ISIL 
campaign?
    Secretary Mattis. I do not expect the rift within the Gulf 
Cooperation Council to affect the Defeat-Islamic State in Iraq and 
Syria campaign. However, the coalition is stronger when our partners 
are also working together. I encourage all our partners in the region 
to reduce tensions and work towards common solutions that enable 
regional security.
    General Dunford. If the stalemate continues, there is a greater 
chance of further escalation by Qatar or its neighbors, which could at 
the very least, distract from our long-term Defeat ISIS and 
counterterrorism efforts in the region.

    17. Senator McCaskill. Secretary Mattis, the Defense Security 
Cooperation Agency stated in a November 2016 letter certifying the 
national security rationale for the sale of defense materials to Qatar, 
including the F-15, ``This proposed sale enhances the foreign policy 
and national security of the United States by helping to improve the 
security of a friendly country and strengthening our strategically 
important relationship. Qatar is an important force for political 
stability and economic progress in the Persian Gulf region.'' Does the 
Department still believe that the proposed sale of defense items is in 
the foreign policy and national security interests of the United 
States? If not, please provide the Department's rationale for changing 
this position.
    Secretary Mattis. Qatar is a strong partner in the region and 
provides critical support to the Defeat-Islamic State in Iraq and Syria 
(D-ISIS) campaign. In addition to hosting United States forces, Qatar 
recently contributed eight C-17 aircraft to support D-ISIS operations. 
The sale of F-15 fighter aircraft will continue to increase our 
interoperability and enhance Qatar's capability to join in future 
coalition operations. I recognize that Qatar can improve in certain 
areas, and Qatar is committed to improving its counterterrorism 
efforts. The Department will continue to strengthen our partnership 
with Qatar and work together to enable regional security.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                            saudi arms deal
    18. Senator Blumenthal. Secretary Mattis, while in Saudi Arabia 
last month, the President announced a so-called $110 billion arms deal. 
Full details of this deal remain elusive. What is your assessment of 
the Saudi arms deal and its impact on Israel's qualitative military 
edge? Were you consulted?
    Secretary Mattis. The arms deal with Saudi Arabia was designed to 
augment the Kingdom of Saudi Arabia's ability to protect its borders 
and counter terrorist threats. The Department was consulted on the deal 
and supports the Department of State's determination that it does not 
adversely affect Israel's qualitative military edge. As it does with 
all sales and exports of defense articles to the Middle East, the 
Department of State conducted a significant review of the capabilities 
to ensure that they do not adversely affect Israel's qualitative 
military edge.

    19. Senator Blumenthal. Secretary Mattis, what threats are the 
weapon systems in this deal meant to counter in particular?
    Secretary Mattis. This package provides full-spectrum capabilities 
that fall broadly into five categories: border security and 
counterterrorism; maritime and coastal security; air force 
modernization; air and missile defense; and cybersecurity and 
communications upgrades. The package will significantly augment the 
Kingdom of Saudi Arabia's capabilities to help deter regional threats, 
including the growing conventional and asymmetric threats from Iran, 
and the threat from al-Qa'ida in the Arabian Peninsula. This package 
will also enhance the Kingdom's ability to protect its land and 
maritime borders and contribute to coalition counterterrorism 
operations.
                               __________
              Questions Submitted by Senator Joe Donnelly
                       mental health--sexton act
    20. Senator Donnelly. Secretary Mattis, following up on a question 
I asked during the hearing, section 701 of the fiscal year 2015 NDAA 
includes what we call the Sexton Act requirement, which requires that 
every servicemember--Active, Guard or Reserve--receive a robust, 
person-to-person mental health assessment every year. In the past, the 
Department and Services have testified to this committee that this 
requirement would be fully implemented by October 2017. What is the 
current status of the Department's efforts to move toward full 
implementation of the Sexton Act?
    Secretary Mattis. By September 30, 2017, the annual Department of 
Defense (DOD) Periodic Health Assessment (PHA), which incorporates the 
fiscal year 2015 NDAA section 701 requirements for DOD Mental Health 
Assessment (MHA), will be used to provide mental health assessments for 
all Active Duty Service members. However, since the assessment is web-
based, there will be a small number of Service members? (Navy Afloat, 
some Marine Corps and Navy Reserve) who do not have access to computers 
and will not be able to implement the DOD PHA until 2018. Additionally, 
due to the need of a contract modification, Guard and Reserve Service 
members who rely on the Reserve Health Readiness Program will not be 
able to implement the DOD PHA until early 2018.

    21. Senator Donnelly. Secretary Mattis, when do you expect the 
Department to issue regulations for the administration of the 
requirements under section 701 of the fiscal year 2015 NDAA?
    Secretary Mattis. The Department of Defense issued the revised DOD 
Instruction 6200.06, ``Periodic Health Assessment (PHA) Program'', on 
September 8, 2016. The revised instruction includes the fiscal year 
2015 NDAA section 701 requirement for Mental Health Assessment. In 
addition, the Defense Health Agency procedural instruction for the new 
requirement was published on May 9, 2017.
                               __________
              Questions Submitted by Senator Mazie Hirono
                                  dpri
    22. Senator Hirono. Secretary Mattis, as you know I have been 
closely following the Defense Policy Review Initiative and the 
relocation of Marines in the Asia-Pacific region. Between the new 
lawsuit planned by the governor of Okinawa to halt construction of the 
Futenma replacement facility, environmental issues and concerns with 
training ranges proposed for the CNMI, the pathway to accomplishing the 
current plan appears complicated. And this is with the current national 
government in Japan who agrees with the current plan. What is the 
current status on the progress of the established plan?
    Secretary Mattis. In February, President Trump and Japan Prime 
Minister Abe reaffirmed the commitment of both countries to the 
realignment plan, and to the construction of the Futenma Replacement 
Facility (FRF) and the return of Marine Corps Air Station Futenma.
    Even though the Okinawan prefectural government has submitted 
another lawsuit regarding the FRF, the Government of Japan (GoJ) is 
confident that it will prevail again in court, and has in fact not 
halted construction in the face of this lawsuit. The seawall and 
supporting shoreline road are being expanded every day. In Guam, a 
favorable biological opinion on July 19th from the Fish and Wildlife 
Service has opened the door to the potential award of more than $750 
million in construction projects by the end of this calendar year, 
including the foundational $309 million utilities and site improvement 
project for the future Marine Corps Base Guam. Approximately $500 
million of these contracts would come from Japanese-provided funding. 
On August 11, 2017, the U.S. Treasury received $235.8 million for new 
construction and design projects from the GoJ fiscal year 2017 budget. 
The total GoJ contribution to date is more than $1.5 billion of a $3.1 
billion commitment.
    The logic of the relocation, land returns and FRF remains sound. In 
order to retain a politically sustainable force posture for United 
States forces in Japan, especially Okinawa, we must reduce our 
footprint and return land to the GoJ. Because we are relocating some of 
our forces to Guam, relatively close to the current location of the 
Marines in Okinawa, the GoJ is willing to fund a substantial portion of 
the construction cost. This relocation is consistent with our overall 
Pacific posture strategy which is a more geographically distributed, 
operationally resilient, and politically sustainable force posture 
provides the United States, with flexible crisis response options to 
meet a wider range of potential regional contingencies.

    23. Senator Hirono. Secretary Mattis, are we at a point where the 
U.S. should begin to consider alternatives to the current plan to 
ensure that the relocation meets the operational requirements of the 
force?
    Secretary Mattis. President Trump and Prime Minister Abe affirmed 
their commitment to the realignment plan, and I have provided similar 
assurances to my Japanese counterpart. I assess that the plan is 
executable, and my staff will continue to monitor its progress.
                       focus on the asia pacific
    24. Senator Hirono. Secretary Mattis, is the department continues 
to focus our military forces on threats the Asia-Pacific, there are 
clearly new challenges in terms of available resources with many 
worldwide threats and challenges to address. The U.S. focus on the 
Pacific is on strengthening alliances; encouraging a more 
interconnected region and building U.S. military and allied 
capabilities. How does the fiscal year 2018 budget proposal affect the 
military focus on the Pacific region and readiness of our troops in the 
region and are sufficient resources requested in the Fiscal Year 2018 
President's Budget to accomplish these goals?
    Secretary Mattis. The fiscal year 2018 budget request reflects my 
priorities for investments within the Asia-Pacific across a range of 
capabilities, including intelligence, surveillance, and reconnaissance; 
undersea and long-range strike capabilities, and advanced technologies 
to meet evolving regional challenges. The Department is working toward 
the development of an Asia-Pacific Stability Initiative (APSI) to close 
program gaps where United States Pacific Command has unique combat 
capability, capacity, and/or readiness needs. APSI will bolster U.S. 
forces in the region, in part, by improving resiliency, expanding and 
diversifying munitions, and investing in and demonstrating other 
advanced operational capabilities. For the realignment of U.S. forces, 
the fiscal year 2018 budget request includes $262 million in military 
construction funding for the relocation of forces to Guam and $76 
million in military construction funding to support rotational 
initiatives in Australia. Japan is funding $3.1 billion of the 
estimated $8.7 billion cost to realign United States forces from 
Okinawa. The Republic of Korea is sourcing 92 percent of the total 
$10.7 billion cost for relocation of United States forces from Seoul 
and other areas.
    General Dunford. The fiscal year 2018 budget request addresses and 
prioritizes our five strategic challenges (Russia, China, North Korea, 
Iran, and violent extremist organizations) targeting investments in 
capability, capacity, and readiness. This budget includes sufficient 
funding to support our commitments in the Asia-Pacific region. However, 
our competitive advantage is eroding and without adequate and stable 
funding we will be challenged to maintain these commitments.
                                  apsi
    25. Senator Hirono. Secretary Mattis, while at the Shangri La 
Conference you stated that you ``look forward to working with them to 
develop an Asia-Pacific stability initiative that complements the 
ongoing large-scale investment in our budget to improve and reinforce 
the U.S. military's capabilities across the region.'' Chairman McCain 
proposed the Asia Pacific Stability Initiative, which suggested $7.5 
billion in funding for United States forces and their allies in the 
Asia-Pacific. In what areas (geographic and/or functional) would you 
recommend that resources be directed if such an initiative were 
authorized by Congress?
    Secretary Mattis. The Department continues to invest in and focus 
on the Asia-Pacific region because of the long-term consequences of 
regional instability, the emerging regional threats, and the long-
standing U.S. role in ensuring the region's stability. The fiscal year 
2018 budget identified select investments as part of a broader effort 
in rebuilding our military to be more ready, capable, and lethal, 
particularly for forward deterrent forces. This included funding to 
support infrastructure investments necessary to station a fifth 
submarine in Guam by fiscal year 2020; procurement of 14 cutting edge 
F/A-18 E/F (Super Hornet) aircraft; procurement of 2 Flight III Burke-
class destroyers equipped with a new sensor suite to counter the most 
advanced weapons of near-peer competitors; funding of maintenance, 
repair, and modernization of our surge sealift ships; and other, 
targeted investments to improve resiliency; expand and diversify 
munitions; enhance intelligence, surveillance, and reconnaissance, 
undersea, and long-range strike capabilities; and demonstrate other 
advanced operational capabilities while improving force availability 
for major contingency operations. The Department currently is in the 
process of drafting a National Defense Strategy that will inform the 
fiscal year 2019 budget request, including areas for additional 
investment in capabilities suited to the challenges we face in the 
Asia-Pacific. Future investments will focus on rebuilding our military 
to be more ready, capable, and lethal, particularly our forward 
deterrent forces.
                               __________
            Questions Submitted by Senator Elizabeth Warren
                       elevation of cyber command
    26. Senator Warren. Secretary Mattis, last year, this committee 
directed the Department of Defense to elevate Cyber Command to a full 
unified command, and gave Cyber Command unique ``Service-like'' 
authorities to train and equip. Please provide a status update and 
timeline for the elevation of Cyber Command.
    Secretary Mattis. The decision to elevate U.S. Cyber Command to a 
Unified Combatant Command rests with the President. The Department 
continues to prepare for elevation as directed in fiscal year 2017 
National Defense Authorization Act and is postured to implement 
elevation, should the President decide to do so.

    27. Senator Warren. Secretary Mattis, how will the organization of 
Cyber Command be changed to accomplish the functions that the military 
services currently provide?
    Secretary Mattis. Following a Presidential decision to elevate U.S. 
Cyber Command to a Unified Combatant Command, as the command matures, 
the Department will continue to evaluate opportunities to train and 
equip cyber forces in a more efficient and effective way.

    28. Senator Warren. Secretary Mattis, will additional personnel be 
required, and if so, will those personnel be military or civilian?
    Secretary Mattis. Yes, additional personnel will be required for 
the elevation of U.S. Cyber Command. The Department submitted an 
increase of 111 civilian full time equivalents in its Fiscal Year 2018 
President's Budget request to support the initial elevation of U.S. 
Cyber Command to a full Combatant Command.

    29. Senator Warren. Secretary Mattis, does the Department's fiscal 
year 2018 budget request reflect the elevation of Cyber Command, and if 
so, how?
    Secretary Mattis. The Department has requested $38 million in its 
fiscal year 2018 budget for the initial elevation of U.S. Cyber Command 
to a Unified Combatant Command. The funding will support additional 
manpower requirements for headquarters functions, facilities, 
information technology, and security needs for the new Unified 
Combatant Command.

    30. Senator Warren. Secretary Mattis, will resources for additional 
assigned mission and personnel be taken from Service budgets or does 
the Department intend to request additional funding for Cyber Command?
    Secretary Mattis. The Department continues to assess the best 
approach to fund the new Unified Combatant Command and will establish a 
working group to address issues such as these once the President 
announces his decision on when to elevate the command. In general, 
however, the Department intends to take a resource-neutral approach, 
including by shifting resources as appropriate from U.S. Strategic 
Command.
            targeting military personnel for disinformation
    31. Senator Warren. Secretary Mattis and General Dunford, on June 
12, 2017, Politico reported that the Russians have launched an 
aggressive disinformation and propaganda campaign explicitly targeting 
U.S. military personnel. According to Politico, their methods include 
``friending servicemembers on Facebook while posing as attractive young 
women to gather intelligence'' and ``targeting the Twitter accounts of 
Defense Department employees with highly customized phishing attacks.'' 
Have you seen any evidence to indicate that a Russian disinformation 
campaign is targeting servicemembers?
    Secretary Mattis. Yes, Department counterintelligence organizations 
have identified several instances of such activity directed against 
U.S. and allied personnel.
    General Dunford. Yes, we have. Russia targets both the general 
United States populace, as well as specific segments of society, to 
include military Service members, as part of their information 
operations and influence and disinformation campaigns. The cyberspace 
domain, to include electronic communication and social media, are 
relatively permissible environments for Russian state and state-
affiliated actors.

    32. Senator Warren. Secretary Mattis and General Dunford, can you 
describe what the Department is doing to educate servicemembers about 
this threat?
    Secretary Mattis. It is Department policy that Counterintelligence 
Awareness and Reporting (CIAR) training on foreign intelligence entity 
threats, methods, reportable information, and reporting procedures 
shall be provided to Department of Defense (DOD) personnel within 30 
days of initial assignment to or employment in a DOD Component, and 
every 12 months thereafter. The Military Department counterintelligence 
organizations are required to assist Department of Defense components 
in establishing a CIAR training program.
    General Dunford. Our counterintelligence officers and analysts 
closely track foreign actors' efforts to target Defense Department and 
military personnel. DOD personnel are trained regularly on 
counterintelligence awareness and reporting. They are also regularly 
briefed on how to employ best operations security practices when using 
the internet and social media.

    33. Senator Warren. Secretary Mattis and General Dunford, have you 
instructed commanders to discuss how to recognize and respond to these 
types of activities with their units?
    Secretary Mattis. Commanders receive Counterintelligence Awareness 
and Reporting (CIAR) training as required by Department policy. All 
Department personnel are required to report contacts, activities, 
indicators, behaviors, and cyber threats associated with foreign 
intelligence entities. Personnel who fail to report such matters may be 
subject to criminal penalties or administrative action.
    General Dunford. Our counterintelligence officers and analysts 
closely track foreign actors' efforts to target Defense Department and 
military personnel. DOD personnel are trained regularly on 
counterintelligence awareness and reporting. They are also regularly 
briefed on how to employ best operations security practices when using 
the internet and social media.
                          rules of engagement
    34. Senator Warren. Secretary Mattis and General Dunford, I am 
concerned about reports that the Administration will no longer publicly 
reveal how many civilian casualties were caused by U.S. forces, but 
will instead provide an aggregate ``coalition'' number. Please describe 
any changes from previous policy in how the Department of Defense 
estimates and reports civilian casualties incurred during U.S. 
operations.
    Secretary Mattis. Reporting on the number of civilian casualties 
resulting from all Coalition strikes, rather than only from strikes by 
U.S. aircraft, is meant to increase transparency of operational matters 
by reporting more and reflecting more accurately the Coalition nature 
of the Combined Joint Task Force--Operation Inherent Resolve mission. 
The Department of Defense (DOD) takes seriously reports that its 
operations have caused civilian casualties, and substantial efforts are 
made to review each report, regardless of the source of the 
information. DOD seeks to investigate each credible report as 
thoroughly as possible, subject to practical limitations. The U.S. 
military takes the greatest care in all theaters of operation to 
mitigate the risk of harm to civilians, and we recognize that 
minimizing civilian casualties furthers mission objectives, helps 
maintain the support of partner governments and vulnerable populations, 
and enhances the legitimacy and sustainability of U.S. operations 
critical to our national security. Not only do we train our forces on 
civilian harm mitigation and continually seek to improve our 
implementation of best practices, we have also developed a robust 
system of investigating credible reports of civilian harm so that we 
can take appropriate steps to address such incidents and draw lessons 
from our operations to further enhance the protection of civilians. 
U.S. Central Command's public reports and releases regarding civilian 
casualty assessments, once completed, can be found at http://
www.centcom.mil/media/press-releases.
    General Dunford. The Executive Order on Civilian Casualty reporting 
remains in effect-and applicable to the Department of Defense. 
Commander Joint Task Force Operation Inherent Resolve (CJTF OIR) is 
responsible for reporting and investigating allegations of civilian 
casualties. Since CJTF-OIR assumed responsibility from U.S. Central 
Command for this task (in October 2016) press releases referred to 
``Coalition'' air strikes, although, in reality, the information only 
related to strikes from U.S. aircraft. In order to increase 
transparency of operational matters, from May 2017, reporting of 
civilian casualties from ``Coalition'' strikes now accurately reflects 
the Coalition nature of Operation Inherent Resolve. OIR targeting and 
strike processes are not run by a single nation. While aircraft from 
numerous countries may take part in a single strike, another nation may 
be involved in the target development, and another nation in the target 
approval. We fight as a coalition and it would be impossible to say 
only one nation was responsible for an effort that takes a team to 
execute. The Department's decision to report civilian casualties using 
an aggregate ``coalition'' number is borne of the complexities in this 
modern battlespace, and reflects the high degree of importance that our 
coalition partners and allies place on their own conduct, as well as 
the high standards to which DOD holds itself. We take civilian 
casualties seriously and continue to go to extraordinary lengths to 
avoid all unintentional loss of civilian life. No force in the history 
of warfare has been as precise.

    35. Senator Warren. Secretary Mattis and General Dunford, have the 
rules of engagement for U.S. forces operating in areas of hostilities 
changed in any way from the previous Administration? If so, please 
describe these changes.
    Secretary Mattis. Since assuming office, I have not issued any 
changes to the rules of engagement. I do not anticipate any changes to 
the rules of engagement for U.S. forces that would change the 
extraordinary efforts we take to reduce the risk of harm to civilians 
in our operations, including acting in accordance with the law of war. 
The Department will keep Congress fully informed on these matters.
    General Dunford. The Rules of Engagement for U.S. forces operating 
in areas of hostilities have not changed in any way since 
Administration turnover.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2018 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                              NAVY POSTURE

    The committee met, pursuant to notice, at 9:33 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee Members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Sullivan, Perdue, Cruz, 
Strange, Reed, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The committee meets today to receive testimony on the plans 
and programs of the Department of the Navy for fiscal year 
2018.
    I want to thank each of our witnesses for their 
distinguished service to the Nation, as well as the sailors, 
marines, and civilians they lead who are serving around the 
world today.
    In recent months, our Nation's senior civilian defense and 
military leaders have testified to this committee about the 
severe threats we face around the world. They have reported 
shortfalls in readiness, that our military advantage over our 
potential adversaries is eroding, and the dire need for new, 
modern capabilities.
    And yet, as Secretary Mattis testified here on Tuesday, the 
greatest immediate threat that our military faces is right here 
in Washington: fiscal uncertainty, continuing resolutions, 
arbitrary and inadequate caps on defense spending, 4 more years 
of the Budget Control Act (BCA), and the threat of 
sequestration.
    We desperately need a new approach. Unfortunately, the 
Administration's fiscal year 2018 budget request is 
insufficient to meet the challenges we face, rebuild the 
readiness and capacity of our force, and regain our military 
technological advantage. It is no wonder then that the 
Department of the Navy submitted over $8 billion in unfunded 
priorities.
    Our Navy has been too small for more than a decade. Despite 
a requirement for more than 300 ships since 2006, the fleet has 
remained between 270 and 290 ships. These capacity shortfalls 
have largely driven present readiness challenges. Ten-month 
deployments are becoming the norm when it used to be six. 
Carrier strike group presence gaps in key regions are annual 
occurrences. More than half of Navy F-18s are not ready for 
combat. There is a backlog of more than $14 billion in afloat 
and ashore readiness.
    A Navy of 355 ships, with the right mix capabilities, is an 
appropriate goal. But this budget request makes no progress 
toward it. However, steps can be taken this year to grow the 
fleet, and this committee will consider all options.
    Similarly, this budget request only supports a Marine Corps 
of 185,000 marines and 31 amphibious ships, despite a 
requirement for 194,000 marines and 38 amphibious ships. 
Meanwhile, Marine Corps aviation is in crisis. Fewer than half 
of Marine F-18s are ready for combat. As a result, non-deployed 
Marine aviation squadrons are short of the number of aircraft 
needed to train or respond in a crisis.
    The budget request will help the Navy and Marine Corps to 
stanch the bleeding, but we can and must do better than that. 
We need to expand and modernize our maritime forces because our 
adversaries are not standing still. Indeed, as Chairman Dunford 
testified on Tuesday, ``The competitive advantage that the 
United States military has long enjoyed is eroding. In just a 
few years, if we do not change trajectory, we will lose our 
qualitative and quantitative advantage.''
    Our Navy and Marine Corps must be sufficiently sized and 
capable of projecting greater power over greater distances from 
the air, the sea, and beneath it. We need new concepts of 
operations and new programs that enable them. In particular, 
the Navy needs a carrier airwing with greater range and 
striking power, especially through unmanned platforms. And I 
continue to urge the Department of the Navy to examine how 
smaller aircraft carriers could improve current plans for super 
carriers and amphibious ships and provide a more capable, 
credible maritime force.
    At the same time, as we advocate for increased defense 
spending, all of us must remain equally committed to exercising 
rigorous oversight of acquisition programs to ensure the best 
use of limited taxpayer dollars. I assure you this committee 
will.
    Initial cost overruns more than doubled the cost of each 
littoral combat ship (LCS). Development costs for the ships and 
their modules now exceed $6 billion, and they keep rising. 
Meanwhile, key warfighting capabilities of the LCS, including 
mine countermeasures and antisubmarine warfare, have fallen 
years--I repeat--years--behind schedule and remain unproven. 
Because of long-running cost, schedule, and performance issues 
with this program, I support the Department's proposal to 
pursue, as quickly as possible, full competition in selecting a 
new frigate with greater lethality and survivability. The Navy 
should procure the minimum number of LCSs necessary to keep the 
workforce viable to compete for new frigates. Secretary 
Stackley has testified that would be one LCS in fiscal year 
2018, not more. I want to emphasize, Secretary Stackley 
testified that would be one LCS in fiscal year 2018, not more.
    On the Ford-class aircraft carrier, while it is encouraging 
to see the ship finally delivered to the Navy, the request for 
the Gerald R. Ford, or CVN-78, exceeds the cost cap by $20 
million. In addition, the Navy wants to award the construction 
contract for the third ship, the Enterprise, or CVN-80, in 
March 2018 at a cost of $13 billion, which is $1.6 billion more 
than the previous ship. This is unacceptable for a ship 
certified to be a repeat design that will deliver just 3 years 
later. Secretary Stackley and Admiral Richardson, I would like 
an explanation.
    Similarly, given the importance of replacing our aging 
Marine Corps amphibious vehicle and aircraft fleets, the Marine 
Corps must learn the lesson of past failures, such as the 
expeditionary fighting vehicle, and deliver these needed 
capabilities on time, at cost, and up to expectations.
    Some of the greatest threats and challenges of the future 
will be in the maritime domain, so it is important for this 
committee to ensure that our Navy and Marine Corps are not only 
ready for today's fight but also developing the capabilities 
for tomorrow's fights. This budget request is a start, but I am 
afraid it is not enough.
    We should not ask our military to choose between readiness 
and modernization, between present needs and future needs. We 
owe our sailors and marines and all of our men and women in 
uniform more than that, a lot more. They serve and fight and 
sacrifice for us every single day. Let us do no less for them.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. I 
want to join Senator McCain in welcoming Secretary Stackley, 
Admiral Richardson, and General Neller to the committee this 
morning to testify on the plans and programs of the Department 
of the Navy for fiscal year 2018. We are grateful to all of 
your service and particularly grateful to the men and women who 
you lead, and please express our consideration and thanks to 
them.
    I especially want to thank Secretary Stackley for his many 
years of service to the country, both in the Navy and on this 
committee. This may be your last appearance as Secretary. Thank 
you very much for a job well done.
    Chairman McCain. I am sure this is a sad moment for 
Secretary Stackley.
    [Laughter.]
    Senator Reed. He was very upbeat when speaking before. But 
thank you again, Mr. Secretary.
    Our witnesses face significant challenges as they strive to 
balance the need to support ongoing operations and sustain 
readiness with the need to modernize and keep the technological 
edge so critical to military success.
    The Department of the Navy faces serious readiness 
problems, caused by deferred maintenance, reduced steaming and 
flying hours, and canceled training and deployments. The 
continued emphasis on readiness in this year's budget will 
address some of the Navy's most serious readiness problems, and 
I am interested in hearing the witnesses' views on this matter.
    I am also interested in understanding what, if anything, 
the Navy is doing to accelerate overhaul of the USS Boise, an 
attack submarine that is prevented from operating because her 
diving certifications have expired. That is one blatant example 
of the readiness challenges that you face. The current plan 
would fail to get this boat recertified until sometime in 2019.
    All areas of our naval forces are maintaining an extremely 
high operational tempo. This high level operations tempo 
contributed in part to the conclusion in the Chief of Naval 
Operations (CNO) new force structure assessment calling for 
increases in the goal for the Navy fleet from 308 ships to a 
level of 355 ships.
    Demand is overwhelming for attack submarines, air and 
missile defense cruisers, destroyers, and strike fighter 
inventories. In addition, the Navy is now in its 5th year of 
operating with fewer than the required 11 aircraft carriers. 
And during the next decade, as a first priority, the Navy will 
need to buy a new class of strategic missile submarines to 
replace the Ohio-class submarines. I am interested in hearing 
how the Navy is managing current demands on its assets and how 
it plans to manage future modernization demands, particularly 
how it is using the National Sea-Based Deterrence Fund as we 
begin procurement funding of the Ohio replacement, the now 
Columbia-class program, as we begin that this year.
    Commandant of the Marine Corps General Robert Neller has 
stated that the ``recapitalization of our force is essential to 
our future readiness with investments in ground combat 
vehicles, aviation, command and control, and digitally 
interoperable protected networks.'' The Marine Corps continues 
to make modernization of ground vehicles a priority by 
developing the amphibious combat vehicle to replace the aging 
inventory of amphibious assault vehicles, as well as partnering 
with the Army to develop the joint light tactical vehicle. I 
would welcome an update from our witnesses on the status of 
these programs and if they believe there will be significant 
delays in fielding due to delays in the acquisition program.
    The Department of the Navy budget has its usual number of 
significant programs, some of which have issues with their 
execution. The chairman has pointed out in detail many of 
those. Last year, I raised the issue of the Navy submitting a 
budget that would leave the Navy in default on the multiyear V-
22 tilt-rotor aircraft contract, a problem that was solved for 
you when the fiscal year 2017 DOD [Department of Defense] 
Appropriations Act provided three additional aircraft. This 
year, the Navy is asking for approval of a 7-year multiyear 
contract for the same V-22 program. I would like to hear why we 
should depart from the normal 5-year multiyear contract regimen 
as established in title 10 of the United States Code and why we 
should count on the Department of the Navy to pay more 
attention to living up to the terms of multiyear contracts than 
was the case last year.
    The Defense Department's defense strategic guidance, issued 
in January 2012, followed by the 2014 QDR [Quadrennial Defense 
Review], announced a renewed strategy for U.S. military 
orientation on the Asia-Pacific. Consistent with that strategy, 
the Defense Department has been working to realign U.S. 
military forces in South Korea and Okinawa and plans to 
position Navy and Marine Corps forces in Australia, Singapore, 
and possibly elsewhere in the region. I am interested in 
hearing how the Navy is implementing these strategic decisions.
    In this request, the Administration is asking for an 
increase in the Department of Defense (DOD) topline of roughly 
$54 billion above total budget for fiscal year 2018 prescribed 
in the Budget Control Act. Of that total, the Navy budget would 
constitute an increase of roughly $12 billion. However, I must 
point out that unless Congress can achieve a broad and 
bipartisan agreement to repeal or modify the BCA, any approval 
of the $12 billion increase for the Department of the Navy will 
trigger sequestration of a similar amount.
    The President's Budget addressed the issue by making cuts 
of roughly $54 billion non-defense discretionary as a way of 
balancing the increases for defense which, from my perspective, 
is an untenable position. In fact, it will not accomplish that 
unless the BCA is modified because you will forfeit what you 
are given even in a more confusing and disorienting way. So we 
must find another way.
    I thank the witnesses and I look forward to their 
testimony.
    Chairman McCain. Thank you.
    Welcome to the witnesses. Mr. Stackley, we will begin with 
you. Welcome back.

 STATEMENT OF HONORABLE SEAN J. STACKLEY, ACTING SECRETARY OF 
                            THE NAVY

    Secretary Stackley. Yes, sir. Thank you, Mr. Chairman, 
distinguished Members of the committee. Thank you for the 
opportunity to appear before you today with the CNO and the 
Commandant to testify on the Department of the Navy's 2018 
budget request.
    We are extremely grateful for your committee's continued 
strong support for our Navy and Marine Corps, and we look 
forward to working closely with you on this budget request.
    As the Nation's forward global force, your Navy and Marine 
Corps stand ready to respond to crisis every hour of every day 
around the world from the North Atlantic to the Mediterranean, 
from the Straits of Hormuz to the Straits of Malacca and the 
vast expanses of the Pacific Ocean and on the ground in 41 
countries around the world. One hundred ten thousand sailors 
and marines and more than one-third of our fleet are deployed 
today conducting combat operations, international exercises, 
maintaining maritime security, providing strategic deterrence, 
and responding to humanitarian crisis and disaster.
    The value of our forward presence and our ability to 
conduct prompt sea-based operations is the surest deterrent to 
conflict and guarantor of our national interests. Maintaining 
the skill of these operations relies upon our ability to 
maintain a high state of operational readiness. And we have 
been increasingly challenged to do so by the growing imbalance 
between the size of the force, the operational demand placed on 
the force, and the funding available to operate and sustain the 
force. Years of combat and high operational tempo have 
accelerated the aging of our ships and aircraft, increased our 
maintenance requirements, drawn down munitions and supply 
parts, and impacted training. Budget constraints, budget 
uncertainty, and continuing resolutions have exacerbated these 
issues with the net impact being a decline in the material 
condition of our ships and aircraft. Accordingly, our priority 
in this budget request has been placed on funding maintenance, 
spares, training, and munitions and to increase steaming days 
and flying hours.
    It is critical that we make these course corrections 
without turning to our modernization and procurement accounts 
as bill payers. For maintaining our readiness, we will 
ultimately rely upon growing the force to match the challenges 
that lie ahead. So building readiness is the priority in 2018 
and building the size of the Navy and Marine Corps and the 
capability that the Nation needs will be the priority in the 
defense strategy review and our 2019 budget.
    With this budget, the Department requests your support to 
procure nine ships in 2018: the aircraft carrier Enterprise, 
two Virginia-class submarines, two Arleigh Burke-class 
destroyers, two littoral combat ships, one of which is to 
follow an amended budget proposal, a fleet oiler, and a towing, 
salvage, and rescue ship.
    The budget request also includes advanced procurement 
critical to the Navy's top shipbuilding priority, the Columbia-
class ballistic missile submarine program.
    We are committed to improving our cost on the carrier 
program while delivering this critical capability for the 
future Navy. We have held costs essentially constant on the 
CVN-78 the past 6 years, and have made significant reductions 
on CVN-79 currently in construction. We are committed to 
further improvements upon the estimated costs on the 
Enterprise, CVN-80, submitted in this year's budget.
    We are seeking your support to continue with the multiyear 
procurement strategies that have yielded substantial savings 
and provided critical stability to the highly successful 
Virginia submarine and Arleigh Burke destroyer programs.
    And we are seeking your support as we transition from the 
littoral combat ship to a frigate design that will provide 
multi-mission capability and increased survivability for our 
small surface combatant program. The three littoral combat 
ships appropriated in 2017 with the additional ships we are 
requesting this year help fill our gap with small surface 
combatants and ensure a healthy industrial base for a 
competitive frigate down-select in 2020.
    The budget request continues the steady recapitalization of 
Navy and Marine Corps aviation capability. In total, we plan to 
procure 91 manned and unmanned aircraft as we shift from large-
scale developmental efforts to mature production for most of 
our major Navy aviation programs.
    Of particular note, the budget request includes funding for 
24 F-35 and 14 Super Hornet aircraft which will help to arrest 
the decline in our strike fighter inventory while keeping us on 
target for six squadrons of fifth generation aircraft from our 
carrier decks in the 2024 time frame.
    We are requesting congressional approval for a third B-22 
multiyear procurement in 2018, which will provide the most 
affordable method to procure the final 65 aircraft of the 
program.
    This budget supports an end strength of 185,000 marines, 
the proper size for today's mission. The Marine Corps invested 
in selected ground capabilities to conduct sustained 
distributed operations and address changes in the operational 
environment, including procurement of the amphibious combat 
vehicle, a replacement of about one-third of the legacy Humvee 
fleet with a joint light tactical vehicle, and survivability 
upgrades to the amphibious assault vehicle.
    No quantity of next generation ships or aircraft will bring 
victory without the skilled, dedicated, and talented sailors, 
marines, and civilians who build, maintain, and operate our 
Navy and Marine Corps and who provide our naval forces with our 
asymmetric advantage. Despite 16 years of combat operations, 
extended deployments, and reserve mobilizations, today's force 
is the most talented and high-performing in history.
    In return, it is our responsibility to provide the 
incentives to attract and the conditions to ensure all who are 
qualified to serve in the Navy and Marine Corps can do so while 
creating a review that promotes dignity and respect for all. 
This remains a top priority for the Department.
    Our priority in this year's budget request is to rebuild 
the readiness and lay the foundation for future growth in terms 
of numbers of ships and aircraft and advanced capability of the 
force.
    To support these objectives, we will need to make certain 
reforms to the way we do business to ensure that we are being 
the best stewards possible with the taxpayers' funds. However, 
we will also need your support in breaking the cycle of 
continuing resolutions and in providing the increase, outlined 
and detailed by the President's Budget request, to the defense 
caps imposed by the Budget Control Act. Absent decisive action 
by Congress to cut the Gordian knot we know as the BCA, our 
military's ability to provide for the Nation's defense will 
decline by every dimension you choose to measure.
    I want to thank this committee for your enduring support to 
our sailors, marines, civilians, and their families, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Stackley follows:]

            Prepared Statement by Honorable Sean J. Stackley
                            i. introduction
    Mr. Chairman, distinguished Members of the Committee, thank you for 
the opportunity to appear before you today to testify regarding the 
Department of the Navy's 2018 President's Budget request.
    Having the opportunity to serve our sailors, marines, and 
civilians--a force of over 800,000 strong--as the Acting Secretary of 
the Navy is an extraordinary privilege that brings with it 
extraordinary responsibility. The Members of this Committee understand 
with full recognition the quality and dedication of our men and women 
in uniform who willingly put their Nation before themselves; who stand 
ready to respond to crisis every hour, every day, around the world; and 
who willfully sacrifice their livelihood and, if need be, their very 
life so that we here in America may enjoy the freedoms we cherish so 
deeply. The dedication, professionalism, unwavering commitment to duty, 
and sacrifice shown by our sailors and marines and their families, and 
the corps of professional civilians who support them, is the foundation 
upon which our national security is built.
    As the Nation's forward global force, the men and women of your 
Navy and Marine Corps are fully deployed, continuously present afloat 
and ashore, promoting and protecting the national interests of the 
United States. If called, they are prepared to ``fight tonight'' and 
win. But, by operating forward, by maintaining a high state of 
readiness, by participating in international exercises and providing 
assurance to our partners and allies, by securing the maritime and 
ensuring access to the global commons, by performing the full spectrum 
of missions assigned--from humanitarian assistance to strategic 
deterrence--our greater objective is to dissuade our adversaries and 
ultimately, to deter potential conflict. To this end, the Navy and 
Marine Corps operate as part of the larger Joint Force, uniquely 
providing the sovereignty and persistence of a sea-based force able to 
operate wherever the waters reach and able to rapidly maneuver ashore 
as an expeditionary force with air and ground support. It is this 
ability to operate independently for sustained periods that places 
naval forces in such a high demand that combatant commanders' peacetime 
requests for naval forces exceed the capacity of the currently sized 
force. Careful management of our training, maintenance, and deployment 
cycles, however, has ensured our presence and our readiness to meet the 
Nation's highest priority demands as directed by the Secretary of 
Defense.
                        ii. operational overview
    In the past year, from Norway to the Baltic, from the Black Sea to 
the Mediterranean, from the Horn of Africa to the Arabian Gulf, from 
the west coast of Africa to the straits of Malacca, from the Philippine 
Sea to the Sea of Japan, to the coasts of the Americas, and on the 
ground in 37 countries around the world, on any given day greater than 
100,000 sailors and marines have been continually deployed, operating 
multiple carrier-strike groups, amphibious ready groups, Marine 
Expeditionary Units, squadrons, submarines, and battle staffs. Our 
presence in regions of interest around the world demonstrates U.S. 
commitment to these regions, strengthens our alliances and 
partnerships, and ensures our readiness to respond to any provocation.
    We are a nation at war and the value of our forward presence and of 
our ability to conduct prompt, offensive sea-based operations is 
exercised every day. Throughout the course of the past year, greater 
than 2,000 strike sorties flown from the decks of the Dwight D. 
Eisenhower (CVN 69) and George H.W. Bush (CVN 77), along with 
electronic warfare support from Marine Corps squadrons based at 
Incirlik Air Base, have supported Operation Inherent Resolve in the 
fight against the Islamic State of Iraq and Syria (ISIS). More 
recently, upon the presidential order to respond to Syria's use of 
chemical weapons, USS Ross (DDG 71) and USS Porter (DDG 78) were 
present and ready to strike with their complement of Tomahawk missiles. 
While present forward in 5th and 6th Fleets aboard Makin Island and 
Bataan Amphibious Ready Groups, marines from the 11th and 24th MEUs 
[Marine expeditionary units], deployed ashore to provide time critical 
artillery and security support in Northern Syria. Marines from II MEF 
[Marine expeditionary force] established Task Force Southwest in 
Helmand Province to assist our Afghan partners in retaining control of 
that contested area. Meanwhile, our Navy SEALS [sea, air, and land], 
Marine Corps Special Operating Forces, and supporting expeditionary 
elements continue to execute counter-terrorism operations in support of 
our theater special operations commands.
    Concurrent with the high tempo of combat operations, we continue 
our heavy engagement in the conduct of international naval exercises 
and training. In June 2016; 6th Fleet units completed Exercise BALTOPS, 
a high-end joint exercise, demonstrating American and NATO [North 
Atlantic Treaty Organization] resolve in the Baltic Sea region. The 
following month, the U.S. Navy joined with our NATO, Baltic and Black 
Sea partners for the 15th iteration of Exercise Sea Breeze. In the 
following months, in the Arctic, our Marines participated in the 
Norwegian-hosted exercise Cold Response, testing warfighting skills in 
a cold weather environment. Currently, Marines are conducting the Sabre 
Strike 2017 exercise throughout the Baltic region and Poland with our 
NATO allies. In the Straits of Hormuz, 5th Fleet conducted its 
international MCMEX [mine counter mine sercurity exercise] with 30 
international partners to hone our skills and demonstrate our resolve 
to ensure freedom of navigation. Half the world away, in the Pacific 
region, the U.S. Navy and Marine Corps participated in 69 international 
exercises to strengthen our partnerships and demonstrate our 
commitment. The 25th anniversary of the Rim of the Pacific Exercise 
(RIMPAC) brought together 26 maritime nations, including China, along 
with 40 ships and submarines, over 200 aircraft, and 25,000 personnel 
for the largest international maritime exercise in the world. Seventh 
Fleet units operating alongside our Japanese and Indian partners 
conducted the trilateral Exercise Malabar in the Philippine Sea focused 
on anti-submarine warfare and search-and-rescue capabilities. In 
Thailand the Navy and Marine Corps participated in the major 
multilateral exercise Cobra Gold and in Korea we participated in 
Exercises Foal Eagle and Keen Resolve with our South Korean allies, 
showing steadfastness in the face of North Korean provocations. We 
conducted multiple Cooperation Afloat Readiness and Training (CARAT) 
engagements with countries ranging from Singapore to Brunei. On May 30, 
Pacific Partnership 2017 concluded in Nha Trang, Vietnam. In addition 
to Vietnam, Pacific Partnership 2017 conducted mission stops in Sri 
Lanka and Malaysia and was the first such mission completed solely 
utilizing an expeditionary fast transport vessel (T-EPF). This small 
sampling of our international engagements is enabled by a robust 
forward presence across the globe.
    The foundation of our naval forces' credibility as reliable 
partners and as an effective deterrent is our forward presence. From 
the vast expanses of the Pacific, to the restricted waters of the 
Arabian Gulf, to the Caribbean, the North Atlantic, the Mediterranean, 
and the Gulf of Aden, we are on watch around the clock.
    Our permanent forward presence in the Mediterranean has 
strengthened with the homeporting of four Aegis Ballistic Missile 
Defense Destroyers in Rota, Spain, and with achieving initial 
operational capability of the United States AEGIS Ashore Missile 
Defense System in Romania in 2016.
    The Marine Corps Special Purpose Marine Air Ground Task Force--
Crisis Response, based in Moron, Spain, provides regional capabilities 
to instantly respond to crises ranging from non-combatant evacuation, 
to humanitarian assistance and disaster relief, to combat operations.
    With its permanently stationed patrol craft, mine countermeasures 
ships and rotating combat forces, the United States 5th Fleet, from its 
headquarters in Bahrain, provides a clear signal of the American 
commitment to the region. Our leadership and participation in the 
Combined Maritime Forces (CMF) in the Indian Ocean, together with 31 of 
our partner nations, promotes maritime security, helps defeat 
terrorism, and combats piracy in the Arabian Gulf, Gulf of Oman, Gulf 
of Aden, and the Red Sea.
    The value of our presence is not limited to the Indian Ocean. In 
2016, a United States-led naval training maneuver in the vicinity of 
the Gulf of Guinea transformed into a counter-piracy mission where 
navies from the United States, Ghana, Sao Tome and Principe, Togo, and 
Nigeria tracked a hijacked tanker through the waters of five countries 
and successfully freed the vessel and rescued the hostages.
    Permanently present on the east coast of Africa, United States 
naval forces command and operate the United States sole forward 
operating base on that continent, Camp Lemonnier. In support of 
Combined Joint Task Force Horn of Africa and working closely with our 
African partners, our presence improves cooperation among regional 
maritime forces, builds maritime law enforcement capacity and 
capability, and strengthens maritime domain awareness in order to 
constrict operating space for maritime crime and piracy.
    The Navy and Marine Corps maintain a consistent presence across the 
vast expansiveness of the Pacific and Indian Oceans, the world's most 
rapidly growing, dynamic, and increasingly important region. With 
forces permanently stationed in Hawaii, Guam, Korea, Singapore, and 
Japan and deployed from our east and west coasts, our commitment to 
this potentially volatile region continues to strengthen. In early 
2017, the Marine Corps relocated the first operational squadron of F-
35Bs to Iwakuni, Japan from Yuma, Arizona and increased the capability 
of its rotational aviation combat element in Darwin, Australia with 
four MV-22 Ospreys. The Marine Corps continues its realignment of 
forces across the Western Pacific to enhance our deterrent posture 
while simultaneously reducing the footprint of United States bases in 
Okinawa. With our permanent stationing of 35 ships, 38,000 sailors, and 
24,000 marines in the Western Pacific to include a Carrier Strike Group 
centered on USS Ronald Reagan (CVN 76), the 31st Marine Expeditionary 
Unit and an amphibious ready group (ARG) centered on USS Bonhomme 
Richard (LHD 6); combined with a robust rotational deployment of 
carrier strike groups, amphibious ready groups, surface combatants, 
submarines, aircraft, and supporting forces, our commitment to the 
stability and security of the Asia-Pacific region is clear to all who 
would question it.
    In our own backyard, U.S. Navy surface, air, and shore-based assets 
are forward and present throughout the western hemisphere. Under 
Operation Martillo, our Cyclone-class patrol coastal ships USS Zephyr 
and USS Shamal, with embarked U.S. Coast Guard law enforcement 
detachments, seized over 5,000 kilograms of contraband in interdiction 
operations in 2016. USNS Spearhead recently concluded Continuing 
Promise 2017, visiting Guatemala, Honduras, and Colombia to conduct 
civil-military operations including humanitarian assistance, training 
engagements, and medical, dental, and veterinary support. Last October, 
in response to Hurricane Matthew and at the request of the U.S. Agency 
for International Development, 100 marines from Special Purpose Marine 
Air Ground Task Force--Southern Command, USS Iwo Jima, USS Mesa Verde, 
and elements of the 24th Marine Expeditionary Unit provided 
humanitarian assistance/disaster relief to the people of Haiti.
    These are but a few examples of the daily operations of our sailors 
and marines. Forward deployed and ready, our naval forces project our 
national values through their frequent international engagements and 
humanitarian assistance or disaster relief operations, and protect our 
national interests through their mobility, agility, and combat power.
                        iii. building readiness
    Maintaining the readiness of our naval forces is key to maintaining 
the scope and scale of operations demanded of them. We have been 
increasingly challenged in our ability to do so, however, by the 
growing imbalance between the size of the force, the operational demand 
placed on the force, and the funding available to operate and sustain 
the force. Since 2001, about 100 ships have routinely been deployed 
each day in response to operational requirements. During this same 
period, the size of the battle force has drawn down by 14 percent, 
resulting in a steady increase to deployment lengths and the 
operational tempo of the force. Schedules for training and maintenance 
have been compressed as a result. Years of high flying hour operations 
have accelerated the aging of our airframes, increased our maintenance 
requirements, drawn down available supply parts, broken the 
engineering-material-maintainers `line of balance,' and increasingly 
impacted availability of aircraft for training and surge operations. 
Budget constraints, budget uncertainty, and Continuing Resolutions have 
exacerbated these issues that stretch from the flight line to the gun 
line to our depots. Each of these factors has placed added strain on 
our ships, aircraft, tactical vehicles, and the sailors and marines who 
deploy with them.
    The budget environment throughout this period has increased the 
challenges to our sailors' and marines' ability to perform their 
mission. Since passage of the Budget Control Act, in particular, our 
increased operational tempo has been met with a decreasing budget, when 
measured in constant dollars. The net impact of this increased 
operational tempo under the pressures of a reduced budget has been a 
decline in the material condition of our ships and aircraft and 
training of our sailors and marines. In order to meet our immediate 
commitments, we have placed priority on ensuring the readiness of our 
deployed forces and our `next to deploy' forces, but we are 
increasingly challenged to meet future deployment commitments or to 
surge forces in time of need due to the steady erosion to readiness of 
the Total Force that has occurred during this period.
    Reversing this trend requires that we first rebuild the warfighting 
readiness of the current force. Accordingly, our priority in the fiscal 
year 2017 budget, including the Request for Additional Appropriations, 
and in the fiscal year 2018 budget request is to fully fund our 
maintenance and training accounts. We must do this, however, without 
turning to our modernization and procurement accounts as the `bill 
payer,' for maintaining our readiness in the long term will require 
that we grow the force in terms of capacity and lethality to match the 
demands that are placed upon it.
    The fiscal year 2018 budget request funds ship operations and ship 
depot maintenance to 100 percent of the forecast requirement to rebuild 
our readiness at the unit level. Equivalent measures are being taken to 
fund flying hours and aviation depot maintenance to rebuild aviation 
readiness.
    Funding for spare parts has been increased to reduce logistic delay 
time and ultimately to increase steaming days and flying hours. The 
planning, engineering, and maintenance support manpower at the naval 
shipyards and aviation depots has been increased in order to align the 
workforce to the projected workload. Major shipyard equipment and IT 
infrastructure is being modernized at a rate above benchmarks to 
improve workforce performance, execute maintenance more efficiently, 
and reduce work stoppages. When and where needed, we are leveraging the 
skill sets and capacity of private industry to augment our efforts. 
These investments in people, the industrial plant, and the industrial 
base are critical to improving shipyard and aviation depot throughput 
and capacity and, more importantly, to increasing the operational 
availability of our highest demand assets--our nuclear aircraft 
carriers and submarines and tactical aircraft. It is important to note, 
however, the effects of multiple years of insufficient resources cannot 
be corrected in one budget year; the Department will require stable, 
predictable funding over multiple years to achieve sustained positive 
results.
    Looking forward, we're working closely with industry on our most 
critical ship modernization and aviation programs to improve 
reliability in the near term (therefore reducing maintenance 
requirements) and to invest in planning, engineering, material, and 
facilities in support of long term maintenance and modernization 
requirements.
    Investment in ship maintenance contributes to growing the fleet in 
addition to enhancing current readiness. Ensuring each ship in our 
inventory reaches its expected service life with the possibility of 
extended service allows the Navy to grow more rapidly. The Navy is 
embarking on a detailed study of how this might be accomplished and 
where investment should be prioritized. Employment of this maintenance 
strategy does not alleviate the need for a robust shipbuilding account. 
These ships will eventually have to be retired and replaced. As 
responsible stewards of our taxpayers' dollars we believe this approach 
will allow us to grow the fleet at a faster, more economical rate.
    Alongside our depots, our operational installations are a major 
component of the Department's readiness requirements. Navy and Marine 
Corps installations provide physical environments essential for 
individual, unit, and Total Force training; force deployment; materiel 
sustainment; unit recovery; and equipment reconstitution. Fiscal year 
2018 funded the requirement for Department of the Navy facility 
sustainment nearly 10 percent above 2017 funding levels. Within this 
funding level, we are careful to preserve critical facility components 
and to perform facility maintenance that affects the health and safety 
of sailors, marines, and their families. However, we continue to carry 
risk in facility sustainment and will need to closely monitor and 
manage the material condition of our many facilities. Over and above 
facility sustainment, military construction also increased by about 10 
percent in fiscal year 2018, with priority placed on these capital 
investment projects that will preclude mission failure, increase 
facility optimization, and sustain critical power, cyber-security, and 
utility capacity.
    The Department of the Navy (DON) fully supports the Department of 
Defense request for authorization to conduct a Base Realignment and 
Closure (BRAC) round in 2021. Enduring savings from BRAC 
recommendations will leave more DOD resources available for future 
force structure or readiness requirements. Although Navy and Marine 
Corps infrastructure capacity is about right, completing the more 
detailed analysis once a BRAC is authorized will have value, and may 
highlight opportunities for some savings.
                         iv. building the force
    The naval force is confronting new challenges in the 21st Century. 
The United States is facing a return to great power competition, as 
Russia and China demonstrate both the advanced capabilities and the 
desire to act as global powers in their own discrete self-interest. The 
Russian Navy is operating at a pace and in areas not seen since the 
mid-1990s. The Chinese Navy is continuing to extend its reach around 
the world. Assertive competitors with peer-like military capabilities 
have emerged that will contest our interests globally and test the 
resilience of our alliances. Potential adversaries with less military 
power are gaining capabilities through the proliferation of advanced 
technologies that challenge our ability to ensure maritime access and 
freedom of navigation in the littorals. Our adversaries are pursuing 
advanced weapon systems at a level and pace of development not seen 
since the mid-1980s and both near-peer nations and non-state actors 
pose credible threats to our security.
    The Department of the Navy is responding by investing in capacity 
and advanced capabilities that increase the size and lethality of both 
the current and future force, providing our sailors and marines with 
what they need to fight and win a 21st Century conflict.
    The 2018 budget request continues the steady recapitalization of 
Navy and Marine Corps aviation capability. The balance has shifted from 
large scale development efforts of prior years to mature production and 
modernization of in-service aircraft for most of our major aviation 
programs; while our most advanced aircraft--from the fifth generation 
Joint Strike Fighter to the CH-53K Heavy Lift helicopter to the high 
altitude long endurance unmanned MQ-4 Triton--are rapidly transitioning 
to full rate production.
    Our shipbuilding program is informed by the Chief of Naval 
Operations' 2016 Force Structure Assessment (FSA). The larger force and 
mix of ships outlined in the FSA reflect extensive analysis regarding 
our operational cycle and the changing security environment. While 
there is general agreement that we must increase the size of our fleet, 
the potential timelines associated with fleet expansion require that we 
implement improvements in concept development, research and 
development, and rapid fielding efforts to accelerate the fielding of 
advanced capabilities that will provide our fleet a force multiplier 
effect. As well, given the budget challenges inherent to expanding our 
fleet size, we will need to further our efforts to drive down the 
cost--in terms of both time and money--associated with our major 
programs. Ultimately, the affordability challenges associated with 
building this larger fleet will need to be addressed in the context of 
the pending Defense Review.
    As the Nation's expeditionary force in readiness, the Marine Corps 
has been continuously engaged in major combat and crisis response 
missions over the past 16 years, resulting in a force that, in the 
absence of change, would be improperly structured or equipped to meet 
the demands of a future operating environment characterized by complex 
terrain, technology proliferation, information warfare, and an 
increasingly non-permissive maritime domain. This budget supports a 
Marine Corps end strength of 185,000 marines, the proper size for 
today's mission. The Marine Corps is proposing force capability changes 
to meet the demands of the future operating environment of 2025 and 
beyond. Additional analysis will address modernization and the 
acquisition of capabilities necessary for the future fight.
    From aviation to ships to tactical vehicles to trained sailors and 
marines, the immediate priority on building readiness and improving the 
wholeness of the current force paces our ability to grow force 
structure in 2018. Building the Navy and Marine Corps to the size that 
the Nation needs will require increased investment over an extended 
period of time, beginning in the future years of the Defense Plan, as 
informed by the pending Defense Strategy.
Shipbuilding
    The Fiscal Year 2018 President's Budget request invests in the 
modernization of our current platforms and weapons; supports 
procurement of seven major warships and two auxiliary ships: the 
Enterprise (CVN 80) Ford-class aircraft carrier, two Virginia-class 
(SSN) attack submarines, two Arleigh Burke-class (DDG 51) guided 
missile destroyers, two Littoral Combat Ships (LCS), one John Lewis-
class fleet oiler, and one (T-ATS) towing, salvage and rescue ship; and 
continues advanced procurement for the lead ship of the Columbia-class 
ballistic missile submarine program.
    The first new design aircraft carrier in 40 years, Gerald R. Ford 
(CVN 78) was delivered to the Navy in May. The Ford is delivering on 
promised capability, as demonstrated by land-based, pier-side, and at-
sea testing to-date. The cost for this new ship class remains of great 
concern, however, and the Navy and industry are focused on capturing 
lead ship lessons learned, refining the ship construction process, 
capitalizing on technological improvements, and enhancing shipbuilder 
facilities to drive down cost. Cost performance on CVN 79 is promising 
thus far, and we are committed to expanding ongoing cost control 
initiatives to further reduce ship cost.
    The Columbia-class ballistic missile submarine (SSBN) program, the 
planned replacement for the Ohio-class and an element of our nation's 
strategic deterrent triad is the Navy's top shipbuilding priority. The 
program is executing detailed design efforts in preparation for 
ordering long lead time material in fiscal year 2019 and starting 
construction in fiscal year 2021. The program's delivery schedule is 
tightly aligned to the retirement schedule of our current ballistic 
missile submarine inventory. Cost, schedule, and technical performance 
on this program are being thoroughly managed to ensure we deliver on 
time, on budget, and on target per our requirements.
    The Virginia-class SSN program continues to deliver submarines that 
are operationally ready to deploy within budget. On May 27, the Navy 
accepted delivery of the future USS Washington (SSN 787), the 14th 
submarine of the Virginia-class. The Block IV contract for 10 ships 
continues co-production of the class through fiscal year 2018. The Navy 
intends to build on past success with a Block V Multiyear Procurement 
(MYP) contract for 10 boats, planned for fiscal year 2019. This 
represents an increase of one submarine in fiscal year 2021, while also 
introducing two new capabilities to the fleet--the Virginia Payload 
Module and Acoustic Superiority.
    With 64 ships at sea and 12 additional ships under construction or 
on contract, the Arleigh Burke-class (DDG 51) program is the Navy's 
most successful shipbuilding program. Like the Virginia program, the 
Navy intends to build on past success with a MYP for ten DDG 51s 
beginning in fiscal year 2018. These ships will incorporate upgrades to 
integrated air and missile defense which is being introduced in the 
fiscal year 2017 ships.
    Complementing the DDG 51, the lead ship of the Zumwalt-class (DDG 
1000) delivered in May 2016, and is now in its homeport undergoing 
combat systems activation with completion scheduled for fiscal year 
2018. The remaining two ships of the class are under construction.
    The Navy is planning and executing the modernization of 11 
Ticonderoga-class cruisers (CG 63-73); critical to providing dedicated 
Air Defense Commander (ADC) capability through the 2030s. The Fiscal 
Year 2018 President's Budget requests funding to execute the ``2-4-6'' 
plan on 7 of the 11 CGs. The remaining four CGs, which have Ballistic 
Missile Defense (BMD) capability, will receive modernization to their 
hull, mechanical and electrical systems in fiscal year 2021 to support 
their operation through their engineered service life.
    The 2016 FSA revalidated the warfighting requirement for a total of 
52 small surface combatants, including the littoral combat ship (LCS) 
and a future frigate. To date, nine LCS ships have delivered and 17 are 
in construction or under contract, and all are on track to deliver well 
within the congressional cost cap. Three additional ships were 
authorized and appropriated in fiscal year 2017 which, with the 
additional ships supported by this year's budget, ensure continued 
production and will further mitigate the potential for layoffs at both 
shipyards while the Navy refines the requirements and acquisition 
strategy for the future frigate. The LCS program continues to 
incrementally field its mission systems.
    LCS 4 is currently deployed with the first instantiation of an 
over-the-horizon missile capability. The LCS surface-to-surface missile 
module with Longbow Hellfire is currently in testing and on track for 
introduction in 2018, and the mine countermeasure and anti-submarine 
warfare mission modules are in testing, targeting introduction in 
fiscal year 2019 and 2021, respectively.
    The Navy is revising its requirements for the future frigate to 
increase its multi-mission capability, lethality and survivability. The 
Navy currently assesses that adding these capabilities to the frigate's 
design will delay its procurement to fiscal year 2020. We will work 
closely with industry as we release the draft Request for Proposal for 
this new ship class; continually update our assessment of the frigate 
schedule, assess the effects of this and other shipbuilding contract 
awards on the industrial base, and make any appropriate modifications 
to our plan for fiscal year 2019 LCS procurement as necessary to ensure 
healthy competition for the future frigate program.
    This Navy continues to build toward a 34 amphibious ship force by 
fiscal year 2022. The appropriation by Congress for USS Richard M. 
McCool Jr. (LPD 29) in fiscal year 2017 supports both amphibious lift 
requirements and the industrial base. In conjunction with the Navy's 
fiscal year 2016 award for the USS Bougainville (LHA 8), the Fleet 
oiler (T-AO 206), and LX(R) design, LPD 29 provides for an effective 
transition to LX(R) in fiscal year 2020.
    To help offset challenges associated with increasing our fleet 
size, the Navy is expanding its global reach through the development of 
unmanned capabilities that will augment our manned platforms. Most 
recently, the Navy designated the Large Displacement Unmanned 
Underwater Vehicle (LDUUV) as a Maritime Accelerated Capability Office 
program to accelerate unmanned underwater vehicle capability, and 
released a Request for Proposal to industry to develop an Extra Large 
Unmanned Underwater Vehicle (XLUUV) that will have extended range and a 
modular payload capability. These UUVs will aid in the intelligence 
assessment of the operational environment as well as respond to the 
combatant commander's mission needs.
    Similarly, surface operations will be augmented through an 
integrated team of manned and unmanned autonomous capabilities and 
capacity. Ongoing investments in autonomy and mine countermeasure 
technology will continue to reduce the threat of mines in contested 
waters while also reducing the risk to our sailors while conducting 
this dangerous mission.
Aviation
    The Department is continuing the recapitalization of our aviation 
assets ranging from our strike fighter aircraft to Marine Corps heavy 
lift helicopters, and Navy maritime patrol aircraft, while continuing 
our efforts with unmanned systems. In fiscal year 2018 we plan to 
procure 91 manned and unmanned aircraft for the Navy and Marine Corps. 
Our investment prioritizes capability, capacity, and wholeness as we 
restore aviation readiness.
    Navy Carrier Air Wing composition will be a mix of 4th generation 
and 5th generation fighter aircraft squadrons (F/A-18 E/F and F-35C), 
leveraging each aircraft's strengths and capabilities to provide over-
match against expected threats while providing a cost efficient force 
structure. The fiscal year 2018 President's Budget request keeps the 
Department of the Navy on a path to have 5th generation aircraft 
comprise 50 percent of its tactical aviation assets in the Pacific 
Command Area of Responsibility by 2024.
    The F/A-18 A-D was designed for, and has achieved, a service life 
of 6,000 flight hours, performing as expected through its design life. 
In addition to the maintenance and modernization work the Navy is 
currently executing to extend the life of the F-18A-D inventory to 
9,000 flight hours, we are working to transition to the newer and more 
capable Super Hornets and F-35 as quickly as possible to eliminate the 
increasing cost, at both the flight line and depot level, of keeping 
legacy aircraft in service.
    The fiscal year 2018 budget request includes funding for 14 Super 
Hornets in fiscal year 2018 with additional aircraft required in the 
outyears to arrest the decline in our strike fighter inventory and 
enable older aircraft to be pulled from service for mid-life upgrades 
and service life extension. The F/A-18 E/F Super Hornet will be the 
numerically predominant aircraft in the Carrier Air Wing through the 
mid 2030s.
    The future of the Department's tactical aircraft relies on 5th 
generation F-35B and F-35C aircraft. The F-35 brings unprecedented low 
observable technology, modern weaponry, and electronic warfare 
capability to naval aviation. These aircraft will recapitalize some of 
our oldest aircraft--our legacy F/A-18s and AV-8Bs--which are rapidly 
approaching the end of their service lives. In 2015, Marine Fighter 
Attack Squadron 121 became the world's first F-35 squadron to achieve 
operational capability and is now forward deployed in Japan. In 2018, 
the Navy and Marine Corps team will deploy two Amphibious Ready Groups 
with embarked Marine Expeditionary Units; each with a detachment of F-
35Bs aboard ship marking the first extended at sea deployments for the 
F-35. The Navy's first F-35C squadron begins transition in 2018; 
initial operational capability is expected by early 2019, and the first 
deployment on an aircraft carrier is planned for 2021. This budget 
procures 20 F-35B and 4 F-35C aircraft in fiscal year 2018.
    The EA-18G Growler is a critical enabler for the joint force, 
bringing fully netted warfare capabilities to the fight and providing 
unmatched agility in the electromagnetic maneuver warfare environment. 
Growlers have flown more than 2,300 combat missions to-date and are 
meeting all operational commitments. Carrier-based and expeditionary 
electronic attack capabilities will increase significantly with 
introduction of the next generation jammer, which is currently 
scheduled to complete testing in 2022.
    MV-22 Osprey vertical lift capabilities, coupled with the speed, 
range, and endurance of fixed-wing transports, enables execution of 
missions that were previously unachievable. The Marine Corps' Osprey 
fleet continues to experience a high operational tempo with multiple 
MEU deployments and two Special Purpose Marine Air-Ground Task Force-
Crisis Response deployments in support of Africa Command and Central 
Command. During 2016, the 15th Active component squadron achieved full 
operational capability, with the 16th scheduled for June 2017. Fiscal 
year 2018 begins procurement of the Navy CMV-22B variant in support of 
the carrier on-board delivery mission and represents the first year of 
the next V-22 MYP contract.
    The Marine Corps CH-53E Super Stallion is the only heavy lift 
helicopter in the Department of Defense inventory. The CH-53E will 
remain in service until 2030 to accommodate transition to its 
replacement, the CH-53K, which, with 27,000lbs lift capacity at a 
mission radius of 110 nautical miles, nearly triples the lift 
capability of the legacy CH-53E. In fiscal year 2016, the Marine Corps 
initiated a CH-53E reset to ensure the remaining aircraft possess the 
longevity to complete the transition. Procurement of the CH-53K is 
ongoing, with 51 procured in the FYDP [Future Years Defense Program] in 
support of the total buy of 200. Transition will begin in 2019 and is 
forecast to complete in 2030.
    Combining the reliability of the Boeing 737 airframe with avionics 
that enable integration of modern sensors and robust military 
communications, the P-8A Poseidon recapitalizes the anti-submarine, 
anti-surface, and Intelligence, Surveillance and Reconnaissance (ISR) 
capabilities of the aging P-3C Orion. Seven (of 12) squadrons have 
completed transition, with all squadrons scheduled to complete 
transition by fiscal year 2020. The P-8A program is meeting all cost, 
schedule, and performance parameters; has achieved and surpassed 
reliability standards for operational availability and is providing 
game changing capability to the fleet. Program savings have enabled 
procurement of one added aircraft (7 total) in fiscal year 2018 with no 
increase to the budget.
    The Department continues steady progress developing and fielding 
unmanned aviation assets, building towards future air dominance through 
an integrated team of manned, unmanned, and autonomous capabilities. 
These teams of systems will conduct ISR, real-time sensor fusion, and 
electronic warfare, increasing battlespace awareness and precision 
strike capability.
    The MQ-4C Triton will be a core capability of Navy's Maritime 
Patrol and Reconnaissance Force and deliver persistent maritime ISR as 
a force multiplier for the Coalition and Joint Force, as well as the 
Fleet Commander. Triton will deploy with early operational capability 
in 2018. Fielding of the multi-intelligence configuration will enable 
retirement of EP-3 aircraft in 2020.
    The Navy is developing the MQ-25 unmanned mission tanker, the first 
carrier-based unmanned program, to extend the range and reach of the 
Carrier Air Wing and greatly reduce the need for F/A-18E/F aircraft to 
serve as mission tankers. The MQ-25 was designated a Maritime 
Accelerated Capability Office program by the Chief of Naval Operations 
and Assistant Secretary of the Navy for Research, Development, and 
Acquisition, and was also designated by the Secretary of Defense as a 
Key Performance Parameter 'Reduction Pilot Program' per National 
Defense Authorization Act (NDAA) for fiscal year 2017. The Navy plans 
to release a request for proposal for air system development in fiscal 
year 2017 and down-select to a single contractor in fiscal year 2018.
    Looking to the far future, the Department has initiated a Next 
Generation Air Dominance Analysis of Alternatives (AOA) study. The AOA 
is investigating technology and program investment requirements to 
recapitalize Navy F/A-18E/F and EA-18G tactical aviation platforms in 
preparation for their anticipated retirement beginning in the late 
2020s.
Ground Forces
    Marine Corps invested in select ground capabilities to conduct 
distributed operations and address changes in the operational 
environment. Key investments include the Ground/Air task Oriented radar 
(G/ATOR) and the Common Aviation Command and Control Systems (CAC2S) to 
enhance the ability of the Marine Air Ground Task Force to coordinate 
and synchronize distributed C2 sensors and systems. Amphibious and 
ground maneuver capability will be preserved and upgraded by 
accelerating legacy Assault Amphibious Vehicle survivability upgrades, 
procurement of 204 Amphibious Combat vehicles (ACV) and the replacement 
of about one third (6,895 vehicles) of the legacy high mobility, multi-
purpose, wheeled vehicle (HMMWV) Fleet with the Joint Light Tactical 
Vehicle (JLTV).
    The ACV program is the Marine Corps' highest ground modernization 
priority and is using an evolutionary, incremental approach to replace 
the aging AAVs with a vehicle that is capable of moving marines ashore, 
initially with surface connectors and ultimately as a self-deploying 
vehicle. ACV consists of two increments. The first increment will field 
a personnel carrier with technologies that are currently mature. The 
second increment provides mobility improvements and delivers 
specialized mission variants.
Munitions and Weapons Systems
    Standard Missile-6 (SM-6) provides theater and high value target 
area defense for the Fleet, and with integrated fire control, has more 
than doubled its range in the counter-air mission. SM-6 Block I testing 
in April 2017 successfully completed live fire requirements per the 
program of record and is on schedule to declare full operational 
capability later this year.
    The Evolved Sea Sparrow Missile (ESSM) provides another layer to 
the Navy's defended battle-space. Two ESSM Block 2 Controlled Test 
Vehicle flight tests were successfully conducted this May with IOC for 
AEGIS platforms scheduled for 2020 and Ship Self Defense System 
platforms in the 2022-2023 timeframe.
    The inner layer of the Fleet's layered defense is the Rolling 
Airframe Missile (RAM) Block 2 designed to pace the evolving anti-ship 
cruise missile threat and improve performance against complex stream 
raid engagement scenarios. In fiscal year 2017, the RAM Block 2 Program 
continued to demonstrate outstanding performance through successful 
Fleet and ship qualification firing events. The RAM Block 2 will 
proceed to a Full Rate Production (FRP) Decision Review in fiscal year 
2018.
    The Navy's Cruise Missile Strategy provides for the development of 
stand-off attack capabilities from air, surface, and undersea platforms 
against targets afloat and ashore. Key tenets are to 1) maintain and 
upgrade legacy cruise missiles; 2) pursue advanced near-term 
capabilities; and 3) plan and develop next generation integrated 
solutions.
    First, the Department's plan is to sustain the Tomahawk Block III 
and Block IV cruise missile inventory through its anticipated service 
life via a mid-life recertification program, enabling the Department to 
support Tomahawk in our active inventory through the mid to late 2040s. 
In concert with our recertification program we will integrate 
modernization and technological upgrades and address existing 
obsolescence issues. In addition, the Department is developing a 
Maritime Strike Tomahawk (MST) capability to deliver a long-range anti-
surface warfare capability.
    Second, the Department will field the Long Range Anti-Ship Missile 
(LRASM) to meet near to mid-term anti-surface warfare threats. LRASM is 
pioneering accelerated acquisition processes. Currently, the Department 
anticipates LRASM to meet all warfighting requirements, deliver on-
time, and cost within approximately 1 percent of its original program 
cost estimate.
    The Department also plans to develop follow-on next generation 
strike capabilities. We intend to develop an air-launched weapon to 
address long-term surface threats and a surface and submarine launched 
Next Generation Land Attack Weapon (NGLAW). NGLAW will have both a 
long-range land strike and maritime capability that initially 
complements, and then replaces, the Tomahawk.
    The Department is also continuing to invest in modernization of 
air-to-air weapons. The Fiscal Year 2018 President's Budget requests 
funds for upgrade and procurement of AIM-9X Sidewinder and AIM-120D 
Advanced Medium-Range Air-to-Air Missiles (AMRAAM). The AIM-9X Block 
II/ II+ Sidewinder is the fifth generation variant of the Sidewinder 
family and is the only short-range infrared air-to-air missile 
integrated on Navy, Marine Corps, and Air Force strike-fighter 
aircraft, incorporating advanced technology to achieve superior 
maneuverability and increase the probability of intercept of adversary 
aircraft. AMRAAM provides an air-to-air first look, first shot, first 
kill capability, while working within a networked environment in 
support of the Navy's Theater Air and Missile Defense Mission.
    The Department continues investments in other weapons lines, 
including the Small Diameter Bomb II (SDB II), the Advanced Anti-
Radiation Guided Missile (AARGM) and AARGM Extended Range (ER), Joint 
Air-to-Ground Missile, Advanced Precision Kill Weapons System (APKWS) 
II, and direct attack weapons and general purpose bombs.
    SDB II provides an adverse weather, day or night standoff 
capability against mobile, moving, and fixed targets, and enables 
target prosecution while minimizing collateral damage. SDB II will be 
integrated into the internal carriage of both DON variants of the Joint 
Strike Fighter (F-35B/F-35C) and externally on the Navy's F/A-18E/F.
    The AGM-88E AARGM is a medium-range air-to-ground missile employed 
for Suppression and/or Destruction of Enemy Air Defenses (SEAD/DEAD). 
The AARGM cooperative program with the Italian Air Force transforms the 
HARM into an affordable, lethal, and flexible time-sensitive strike 
weapon system. AARGM is in full-rate production and is operationally 
employed on F/A-18 and EA-18G aircraft. The AARGM-ER modification 
program was a new start in fiscal year 2016 and will increase the 
weapon system's survivability against complex and emerging threat 
systems and affords greater stand-off range for the launch platform.
    This budget continues a 5 year integration effort of JAGM Increment 
1 onto the Marine Corps AH-1Z helicopter and continues to fund JAGM 
procurement leading to IOC in fiscal year 2020. JAGM will replace the 
Hellfire and Tow II missile systems for the Department. APKWS II 
provides precision guidance capability to the Department's unguided 
rocket inventories, improving accuracy and minimizing collateral 
damage. Program production continues on schedule, meeting the needs of 
our warfighters in today's theaters of operations. Marine Corps AH-1W 
and UH-1Y helicopters achieved IOC in March 2012 and the Marine Corps 
AH-1Z platform was certified to fire APKWS II in June 2015. To date, 
these platforms have expended more than 190 APKWS II weapons during 
combat missions.
    The Fiscal Year 2018 President's Budget procures additional Joint 
Direct Attack Munition (JDAM) kits to enhance the Department's 
readiness. In 30 months of Operation Inherent Resolve, the Department's 
aircraft have expended more than three times the number of 500lb JDAM 
kits than were procured during the same period. This significant demand 
has required the Navy to reduce the number of 500lb JDAM available for 
training in order to preserve warfighting inventory. Additionally, 
fully funding the general purpose bomb line item is critical to 
sustaining the Department's inventory for ongoing combat operations and 
replenishing it for future contingencies.
Space
    The Department's Joint and Fleet space operations are vital to the 
employment of naval capabilities and provide assured command and 
control; persistent maritime battlespace awareness; maneuver to include 
physical, cyber and the electromagnetic spectrum; and integrated fires. 
However, access to space is no longer guaranteed. The National Security 
Space Strategy defined the current and future space environment as 
driven by three trends: congested, contested, and competitive. The 
Department will maximize the utility of space-based assets and assure 
continued access in the face of growing adversary space capabilities by 
increasing space-related proficiency throughout the force and with 
targeted science and technology and research and development 
investments.
Cyber
    Building our force is not limited to new platforms that operate in 
the traditional domains of sea, undersea, air and space, but also in 
the newest warfighting domain: cyber. With the exponential growth and 
ubiquitous availability of advanced computing methods and information 
technology today's highly networked environment, our Navy and Marine 
Corps must operate effectively in cyberspace. The Services require 
unconstrained access and assured capabilities in cyberspace to execute 
the full range of military missions. We must lead in both offensive and 
defensive use of this new domain and building cyber resiliency into our 
networks to allow us to ``fight through'' a cyber attack.
    Cyber resiliency ensures that when an attacker gets through our 
defenses, we rapidly detect and react to the anomalous cyber activity 
in a way that allows us to continue critical operations, or ``fight 
through,'' while we restore the integrity of that portion of the 
network. Cyber defense-in-depth is achieved by surveillance and 
reconnaissance within our networks to detect malicious activity. Navy 
and Marine Corps Cyber Commands leverage layers of sensors, analysts, 
and cyber specialists to assure maritime missions and protect data. In 
addition to defense and assured access, the Navy and Marine Corps are 
prepared to deliver cyber effects at a time and place of their choosing 
across the full range of military operations in support of Naval and 
joint commanders' objectives.
Industrial Base
    The Department of the Navy cannot accomplish its mission, maintain 
readiness, or modernize the force without its partners in industry. 
Building readiness and building the force require a strong and 
integrated relationship with our industrial base private-sector 
partners. We will continue to work closely with our prime contractors 
as procurement plans unfold to ensure our equipment, system, and 
component suppliers are equally able to support the increased demand 
associated with building a larger fleet. We have utilized contracting 
tools such as MYPs, block buy contracts, Economic Order Quantity (EOQ) 
buys, Capital Expenditure (CAPEX) incentives, and Shipbuilding 
Capability Preservation Agreements to provide a stable commitment to 
our industry partners, supporting long range planning focused on 
affordability and cost control which increases our buying power. We 
will continue these initiatives to provide stability and mitigate 
volatility at the supplier level and improve productivity, efficiency, 
and competitiveness across the supplier base. We appreciate past 
congressional support for these efforts and your continued support in 
the future. While the different industrial sectors face different 
challenges, common among all is the need for predictable and stable 
programs which are dependent on a stable budget. We also welcome 
Congress's support in providing that budget stability.
                      v. taking care of our people
    The men and women of the Department provide our naval forces and 
Nation with an asymmetric advantage. No quantity of next generation 
ships or aircraft will bring victory without the skilled, dedicated, 
and talented sailors, marines, and civilians who build, maintain, and 
operate our Navy and Marine Corps. Despite 16 years of combat 
operations, extended deployments, and reserve mobilizations, today's 
force is the most talented and high performing in history. But just as 
the American technological advantage in warfare is not something we can 
take for granted, we also cannot simply assume that we will always 
attract America's best and brightest to serve in our all-volunteer 
military and civilian workforce. With a turnover of approximately 
95,000 sailors, marines, and 60,000 civilians a year, providing the 
incentives to attract and the environment to thrive remains a top 
priority for the Department. The desire to serve remains strong in 
America and the Navy and the Marine Corps are achieving overall 
recruiting objectives. We are, however, experiencing increasing 
challenges due to an improving civilian labor market, a limited pool of 
eligible candidates, and increases in accession goals.
    The Department's civilian workforce is an irreplaceable partner in 
our naval service and one of the most technologically advanced and 
innovative workforces in the world. More than half of our civilians are 
scientists, engineers, mathematicians, and logisticians and to sustain 
that workforce into the future the Department continues to leverage 
strategic partnerships with science, technology, engineering and math 
(STEM)-related groups and educational institutions to highlight naval 
service as a rewarding career option.
    Maintaining our warfighting advantage requires diversity of 
experience, background, and ideas. The Department draws upon the widest 
pool of talent and backgrounds to maximize combat effectiveness. 
Through policy and practice, we have set the conditions to ensure all 
who are qualified to serve in the Marine Corps and Navy can do so while 
creating an environment that promotes dignity and respect for all. In 
2016, the Department of the Navy opened the training pipelines in every 
occupational specialty to women. In May 2016, two female marines 
graduated from joint Army/Marine Field Artillery Basic Officers Leaders 
Course; one graduated first in her class and the other in the top 5 
percent. In April 2017, a Marine 2nd Lieutenant graduated from the Army 
Armor Basic Officer Leaders Course to become the first female marine 
tank officer. Additionally, the first four enlisted women infantry 
marines completed training and reported to Marine infantry battalions 
in December 2016. In the Navy, female officers serve on all combatant 
platforms, and female enlisted sailors serve on all platforms where 
berthing facilities are available. The first female enlisted sailor 
earned her submarine qualification and received her Submarine Warfare 
pin in August 2016. In the recruiting arena, we are actively 
emphasizing these integration efforts on service websites and include 
images of female representatives whenever possible, aimed at 
encouraging women to enter recently opened occupational fields.
    Having invested in recruiting the best talent available, we must 
retain it. We remain watchful of an increasingly competitive 
marketplace for talent in an improving economy. While we met the 
aggregate enlisted retention goals for fiscal year 2016, we continue to 
experience challenges and shortfalls in some communities, such as 
information warfare, nuclear technical fields, special warfare, and 
advanced electronics. Officer retention remains at historically high 
levels due, in large part, to judiciously offered incentive pays and 
bonuses, improved mentoring, recent efforts to add flexible career 
options, and an increased emphasis on life-work integration 
initiatives. However, specific Active Duty officer inventory shortfalls 
remain in aviation for certain type/model/series and nuclear-trained 
surface warfare officers. We are actively addressing these shortfalls 
through targeted incentives and other retention tools.
    The Navy and Marine Corps Reserve continue to be a vital part of 
the Navy and Marine Corps team and the Total Force. Mobilizing and 
employing Reserve sailors and marines facilitates employing the Active 
component to meet other operational and warfighting requirements, 
maintain unit integrity, and ensure Fleet readiness. Twenty percent of 
the Navy Reserve conducts operational support across the globe every 
day, to include squadrons from the Maritime Support Wing flying fixed 
and rotary wing missions in the South China Sea and reserve Coastal 
Riverine Units conducting high value escort missions off the Horn of 
Africa.
    The Department is also working to ensure our personnel policies and 
programs are keeping pace with the innovative human resources 
environment of the private sector. The Fleet Scholar Education Program 
(FSEP) allows our best and brightest officers to learn at America's 
most prestigious universities. The FSEP provides a total of 30 fully 
funded full-time graduate education opportunities with participant 
selection from the highest performing officers from each community. 
Career broadening programs improve the intellectual capital of our 
officer corps, providing sought after opportunities for our best and 
brightest.
    We have focused on helping sailors and marines maximize their 
personal and professional readiness by assisting them and their 
families with the mental, physical, and emotional challenges of 
military service. Providing a holistic approach to maintaining the 
health and resilience of our force, we have made improvements to 
physical fitness and nutrition programs, enriched family support 
programs, developed financial literacy training, and prioritized mental 
wellness. Both services extended fitness center hours of operation and 
are piloting 24/7 centers in a number of locations. Morale, Welfare, 
and Recreation programs like Adventure Quest and Single Service members 
provide a variety of programs promoting physical activity and a healthy 
lifestyle. MilitaryChildCare.com, an innovative online child care 
information, request, and reservation system, which will be fully 
operational this June, will allow our families to secure critical child 
care services anywhere in the world before they execute a Permanent 
Change of Station (PCS) move. The Marine Corps and Navy expanded 
financial literacy training throughout the military lifecycle with 
topics relevant to life and career touch points, particularly important 
as we transition to the Blended Retirement System. Earlier this year 
the Navy released a financial literacy mobile app to enhance access to 
training, references, and guides as well as resources for the 
transition to the Blended Retirement System.
    Despite our commitment to providing the highest quality of life to 
our sailors and marines the tragedy of suicide continues to plague our 
institution as it does to society as a whole. The Department has made 
strides in arresting the incidence of suicide and continues to seek 
promising paths to prevention.
    During the past year, the Navy launched the Sailor Assistance and 
Intercept for Life (SAIL) program, a research-based non-clinical 
intervention strategy, modeled after the successful Marine Corps 
Intercept Program, that provides rapid assistance, on-going risk 
assessment, and support for sailors who have exhibited suicide-related 
behaviors. The Marine Corps has initiated Death by Suicide Review 
Boards to gain in depth understanding of all marine deaths by suicide. 
Although the Marine Corps and Navy have reduced military suicides from 
the peak numbers seen a few years ago, we must continue our efforts to 
increase resiliency, promote help seeking, and provide treatment and 
support for those in need.
    Among our foremost responsibilities is to provide a safe and 
supportive work place to our employees. Whether in the cockpit of an 
aircraft, the engine room of a ship, or the office of an ashore 
facility, the leadership of the Navy and Marine Corps recognize that we 
cannot be successful in our mission if our people are not secure in 
their environment.
    The occurrence of physiological episodes (PE) in our legacy 
tactical aircraft and trainers has emerged as the number one aviation 
safety priority. From senior Navy leadership to our engineers and 
maintainers, to our aircraft manufacturers and NASA [National 
Aeronautics and Space Administration] and the Mayo Clinic, a 
comprehensive review of the design, the facts, circumstances, and 
processes surrounding PEs has been launched to arrest the increase in 
PEs in our F/A-18 and T-45 aircraft. The entire naval aviation 
enterprise is focused on resolving this issue and we will keep the 
defense committees and staff apprised of our findings and progress. In 
the interim, we are taking every measure to ensure our aviators are 
afforded the highest standards of safety as they perform their 
inherently hazardous mission.
    An environment that allows our sailors, marines, and civilians to 
thrive is also one that is respectful to all, free of harassment, 
bullying, and assault. Sexual assault is a crime that is not tolerated 
within the naval service. Those who report a sexual assault are 
supported by over 240 sexual assault response coordinators, 8,000 full 
and part-time victim advocates, 252 legal personnel, 164 criminal 
investigators, and 215 medical forensic examiners. We have a robust and 
effective Sexual Assault Prevention and Response program and Victims' 
Legal Counsel that together encourage increased reporting and provide 
critical support to those who come forward. We are also taking steps to 
prevent and respond to perceptions of retaliation or ostracism on the 
part of the courageous individuals who report these crimes--whether by 
the chain of command or peers. While there is still much work to be 
done, reporting across the Department has increased twofold since 2012, 
and, based on surveys, our estimated number of assaults on 
servicemembers has almost halved during that same time. Our leaders, at 
all levels, are held accountable to ensure every member of our Navy-
Marine Corps team can excel in an environment that maximizes their 
talents and rejects those who would degrade or diminish another 
servicemember.
    A respectful environment is not limited to physical spaces but 
includes the virtual and on-line environments where so many social 
interactions occur. Discovery and investigation into the toxic and 
predatory behavior harbored by the Marines United Facebook group has 
uncovered instances of a breakdown of good order and discipline within 
our services. The discovery of this toxicity led to a comprehensive 
investigation of the non-consensual sharing of intimate images by 
sailors and marines, the extension of counseling and legal support to 
potential victims, the review and update of policy and regulations to 
cover this internet enabled scourge, and the commitment to hold 
offenders accountable.
    Finally, as a Department, we remain dedicated to strengthening our 
investment in the ethical development of our sailors, marines, and 
civilian employees to further their competence, confidence, character, 
and integrity such that their day-to-day actions and decisions are 
motivated by and aligned with the Department's core values of honor, 
courage, and commitment. We have given priority to analyzing and 
updating training curricula and educational programs across the 
Department to emphasize the importance of ethical behavior and to 
diminish instances of destructive behavior. Our people are our 
competitive advantage and we have no higher priority than to provide 
the tangible and intangible incentives that will allow us to continue 
to recruit and retain the nation's best and brightest.
                          vi. good stewardship
    In the quarter century since the end of the Cold War, the global 
threat environment has only become more challenging as multiple 
competitors seek to disrupt America's leadership role in the world. 
Ubiquitously available innovations in technology and information 
combined with increasing pressures on the Federal budget mean that we 
cannot simply outspend our competitors and expect to retain our 
advantage. We cannot just spend more, we must spend more smartly. We 
must know where every dollar is spent and incorporate innovative 
business practices to optimize the marginal value of our investment.
Auditability
    A critical step in improving stewardship of the funds the 
Department of the Navy is entrusted with is to undergo a full financial 
audit in fiscal year 2018. Over the past years the Department has been 
working to put the tools and business processes in place that will 
allow an independent auditor to assess our financial statements, 
transactions, and assets. The Marine Corps reached this milestone a 
year early in fiscal year 2017 and the Navy is leveraging lessons from 
the Marine Corps to improve its audit readiness.
    The Department of the Navy is not approaching audit as a discrete 
test of our financial reporting but rather as a continual year round 
process to improve management of the significant resources with which 
we are entrusted. Standardizing our business processes and 
strengthening our internal controls will not only ensure financial data 
accurately reflects our business activities and minimize opportunities 
for the misuse of funds, but as importantly, it will improve the 
visibility of our management of the billions of dollars that it takes 
to build, operate, and maintain our naval forces. This visibility, in 
turn, will allow us to better direct those funds consistent with the 
Nation's priorities.
    The process of preparing for audit has also improved the culture of 
accountability throughout the Department, as every senior leader across 
the Navy-Marine Corps team embraces their role in developing and 
enforcing appropriate internal controls. Senior leaders are assigned 
responsibility for the correction of identified audit deficiencies and 
their leadership and actions provide the ``tone from the top'' which 
highlights the importance of effective controls and audits to all 
business managers. Performing business processes in a standardized way 
and retaining key documentation is the new normal for all who spend 
taxpayer dollars.
    The Department of the Navy understands the value audits will 
provide in maximizing the value of every tax dollar spent. Given the 
complexity and size of our operations, we anticipate that an 
unqualified audit opinion will be several years away, but as annual 
full audits of the Department of the Navy begin in 2018, we will 
constantly assess the results for opportunities to develop and 
implement the cultural, process and system changes needed to hold 
ourselves accountable and to maintain the trust and confidence of the 
American people.
Business Reform
    The processes, tools, and systems that we use to manage the 
business of your Navy and Marine Corps have evolved over the past two 
centuries of successful naval operations. By implementing discrete 
business improvements over time, the Department, to date, has 
maintained its edge. Just as our competitors have leveraged the 
accelerating pace of technology development and absorption, however, so 
must the naval services leverage and embrace improvements in technology 
to better manage the processes that ultimately deliver our Nation's 
warfighting capability and ensure that we retain that edge.
    The Department of the Navy embraces the President and Secretary of 
Defense's initiative to reform government. Improvements in data 
collection, storage, and analysis provide abundant opportunities to not 
only reduce cost but also to improve our decision making in every 
Department activity from warfighting to personnel management to audit 
and real property management. The tremendous gains in commercial 
enterprise valuation over the past decade have not been through the 
implementation of efficiencies, but rather through rapid boosts in 
productivity enabled by information and technology. To the extent 
possible, the Department is committed to leveraging the innovations 
increasingly employed by commercial industry to improve the 
productivity of our business management processes and systems. Such 
innovations include appropriate migration of data storage and 
applications to the commercial cloud, continued consolidation and 
standardization of our data centers, and improved business intelligence 
and analysis capability.
    Opportunities for improved productivity are not limited to the 
modernization of our business IT systems. Exponential advancements in 
manufacturing processes and materials, artificial intelligence, energy 
capture, storage and transmission, and virtual and augmented reality 
offer abundant opportunities to reform and improve not only our 
business processes but also the productivity of our personnel, 
training, acquisition, and maintenance activities.
    Nor are the opportunities for improved stewardship limited to 
technology; process, policy, and leadership can also drive the agility 
and innovation that leads to a more productive enterprise. The 
Department of the Navy has welcomed the additional acquisition 
flexibilities provided through the fiscal year 2016 and fiscal year 
2017 NDAA. Consistent with congressional intent we are capitalizing on 
the flexibility inherent to mid-tier acquisition and acquisition 
agility provisions provided from Fiscal Year 2016 NDAA (Section 804) 
and Fiscal Year 2017 NDAA (Section 806), respectively. Additionally, we 
have implemented an accelerated acquisition approach with the 
Department of the Navy that encourages and enables the rapid 
development and transition of emerging technologies and engineering 
innovations to address critical Navy and Marine Corps warfighting 
needs. The Large Displacement Unmanned Underwater Vehicle and the 
carrier-based launched Unmanned Aerial Vehicle System are being managed 
as accelerated capability programs with the direct senior leadership 
involvement necessary to enable streamlined risk acceptance and 
decision making.
    The Department of the Navy is actively expanding and strengthening 
our network of partnerships, seeking further collaboration with 
traditional and non-traditional industry, laboratories, and academic 
institutions as well as international partners. In a combined effort 
between the Secretariat, the Marine Corps, the Navy, and industry, we 
recently conducted a Ship to Shore Maneuver Exploration and 
Experimentation exercise in which we demonstrated over 100 innovative 
technologies and concepts from varied industry partners, universities, 
and naval labs. Such Rapid Prototyping, Experimentation and 
Demonstration (RPED) projects will inform our concepts and requirements 
and shorten the cycle between the identification of a capability gap 
and the delivery of a suitable solution.
    Our reform efforts, focused on improving productivity, will evolve 
as new opportunities are revealed. To maintain our reform momentum we 
have invigorated a Department of the Navy Business Council to provide 
four star level oversight and support for our continual reform efforts.
                            vii. conclusion
    The Navy and Marine Corps team is organized, manned, trained, and 
equipped to assure our allies, deter aggressors, and, when necessary, 
defeat our adversaries and serve as an outward symbol of our Nation's 
resolve. Developing and maintaining globally present and operationally 
relevant naval forces that provide timely, agile and effective options 
to national leaders as they seek to advance our national security 
interests requires that we take the longer view.
    As a maritime nation, our security and prosperity is dependent upon 
our freedom of the seas in time of peace and our command of the seas in 
time of war. America's naval forces' ability to shape and influence 
events while advancing and protecting American interests around the 
world traditionally relies upon a force whose strength is measured in 
terms of numbers of ships, aircraft, and munitions; increasingly relies 
upon advanced capabilities involving unmanned systems, advanced 
sensors, stealth, electromagnetic maneuver, directed energy, and 
hypersonics; and always relies upon the quality and dedication of 
America's sailors and marines. Our future success in providing for our 
Nation's security will ultimately rely upon Congress to provide the 
resources we need to build, operate, and maintain the force; to deliver 
the necessary advanced capabilities; and to attract, train, and retain 
the best of America's young men and women to serve in our Navy and 
Marine Corps. In exchange, we are committed to being excellent stewards 
of those resources to ensure we deliver the maximum warfighting 
capability for every dollar provided by the taxpayer.
    Our priority in this year's President's Budget request is to 
rebuild the readiness and lay the foundation for future growth--
capacity and lethality--of the force. The Department fundamentally 
requires a predictable, timely budget--something that has been elusive 
throughout the years operating under the Budget Control Act--to meet 
this priority. We will also need an increase to the Budget Control Act 
caps, as outlined in detail by our President's Budget request. Timely 
passage of a full year appropriation at the requested level will 
provide for the most efficient execution of the resources provided by 
Congress, while bringing stability to our workforce and our industrial 
base, and enabling the Department to most effectively train, maintain, 
and deploy the force.
    I want to thank this Committee for your enduring support to our 
sailors, marines, civilians, and their families, and for your past 
support for our key programs that support the naval force our Nation's 
needs. The Fiscal Year 2018 President's Budget request is properly 
balanced to support the needs of the United States Navy and the United 
States Marine Corps and ensures we are better prepared to fight and win 
our Nation's battles today and in the future. I look forward to working 
with you in the furtherance of our maritime capabilities.

 STATEMENT OF ADMIRAL JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Richardson. Good morning, Chairman McCain, Ranking 
Member Reed, and other distinguished Members of the committee. 
I want to thank you for the privilege to be here today with my 
colleague, General Neller, and the Secretary of the Navy, to 
represent our Navy team, our sailors, civilians, and their 
families.
    Before I begin, I would like to take a moment to add my 
voice on behalf of the Navy to the chorus of voices who are 
hoping and praying for Congressman Scalise and the other 
victims of yesterday's brutal attack. We all admire their 
strength and toughness and send our best wishes for a quick 
recovery.
    I want to take some time this morning to briefly outline 
where your Navy stands today and where we need to go. I am 
recently back from travels to Rota, Singapore, and Guam. Our 
sailors are in harm's way around the world facing rising 
threats. They are talented. They are dedicated, and they are 
laser-focused on their mission. This is despite the growing 
challenges of the security environment and the challenges that 
we have imposed by inconsistent, delayed, and inadequate 
funding.
    Today I hope to convey a sense of urgency. Our adversaries 
are improving more quickly than we are. I agree with the 
chairman that our advantage is eroding. We must increase our 
naval power today, pick up the pace, and maintain our winning 
advantage.
    This effort starts by ensuring that we have a firm 
foundation for solid growth, restoring wholeness or balance. 
This began with the fiscal year 2017 budget, which helped 
arrest readiness declines. I thank the committee for that 
support.
    But more needs to be done. The challenges are sufficiently 
deep that it will take both predictable and sufficient funding 
and some time to fully recover. As you pointed out, sir, we 
have got hundreds of aircraft grounded due to maintenance 
backlogs and spare shortages. Our pilots do not fly enough. Our 
maintainers are struggling to keep planes that are working up 
in the air. We have not funded spare parts at the required 
levels.
    Maintaining our ships is also a struggle. Submarines and 
warships are tied up to the pier unable to submerge or get 
underway. I know that many of you are focused on adding more 
ships to the fleet, and I am focused on that too. But if I 
cannot repair a ship that has already been bought and paid for 
to go to sea, I forfeit the good, hard work of our 
predecessors. And the net effect is the same as not buying a 
ship. It is one less ship today at sea and U.S. naval power 
suffers.
    We are making strides here. As I mentioned, the 2017 budget 
was a great help to restore a lot of readiness. The fiscal year 
2018 request will capitalize on that investment and restore 
balance and wholeness so we can grow moving forward. There is 
lots we need to do to shore up the force that we have. We need 
that firm foundation.
    As articulated in a white paper about the future Navy I 
released, we also need a larger and more capable fleet. Even as 
we shore up wholeness, the budget request preserves the program 
growth for the Navy. It invests in emerging technologies for 
the future. It provides a balanced approach that starts the 
acceleration of naval power from a firm foundation.
    As I talk to our sailors who are forward deployed, 
protecting America from attack, promoting our interests around 
the world, they are as focused as ever on the mission. I know 
that you share my immense pride in them. But there is also a 
growing sense in the deployed fleet that we back here 
Washington just do not get it. It sometimes seems like we live 
in a parallel universe. And I urge that we bring these two 
realities together and close that gap quickly.
    As an example, they are already hearing that our fiscal 
year 2018 budget may not get passed in time, resulting in a 
ninth consecutive continuing resolution. It is getting harder 
to explain to our sailors and their families and to those who 
might want to join. But I am very hopeful. I pass on that 
optimism to them. We are willing to team together to do 
whatever it takes, working together with you with your support 
to get them the resources and support that they need and that 
they deserve.
    Again, I thank you for the privilege and opportunity to be 
here today, and I look forward to your questions.
    [The prepared statement of Admiral Richardson follows:]

            Prepared Statement by Admiral John M. Richardson
    Chairman McCain, Ranking Member Reed, and distinguished Members of 
the Committee, thank you for the opportunity to appear before you today 
to discuss the Navy's fiscal year 2018 budget request. This budget is 
the second step along a three-year path that started in fiscal year 
2017. In fiscal year 2017, Congress approved funding that helped to 
plug the most urgent readiness holes in the fleet. The fiscal year 2018 
request is focused on continuing to stabilize the ship--restoring 
balance that will serve as a solid foundation for next year's 
investments, which will be informed by the pending National Security 
Strategy and National Military Strategy and chart a course to growing 
our size and capabilities. We would not even be having this 
conversation were it not for passage of the fiscal year 2017 bill. 
Thank you both for the final bill, and for supporting the 
Administration's request for additional Overseas Contingency Operations 
funding.
    The Navy submits this request in a time of increasing competition. 
The world in general, and the maritime environment in particular, is 
fast-paced, increasingly complex, and uncertain. The challenges we face 
are more diverse, interconnected, and arriving more quickly than we had 
anticipated. Our maritime rivals are quickly becoming stronger. There 
is a need for urgency; we need to pick up the pace if we are to 
maintain a position of naval leadership in the world. Your sailors are 
out every day, all around the world, going into harm's way and 
undaunted by the threats that they face. Their equipment is worn. Too 
frequently, they don't have enough spare parts, and their stocks of 
munitions are lower than they need. But they are tough, dedicated, and 
proud of what they do. Back here at home, there is less evidence that 
we get it. There is little sense that our margin is shrinking, that 
time matters, and that we must take action. Again, your support in 
fiscal year 2017 is important progress, and your Navy is very grateful. 
But there is much more that still needs to be done.
    This places a growing premium on what we in the Navy often refer to 
as wholeness. For the Navy, wholeness is striking a balance of 
capabilities that are ready to meet our missions today, complemented by 
the additional investments that will enable us to sustain those 
capabilities over time.
    The heartbeat of the Navy is its people--this is where wholeness 
begins and ends. This budget request reflects increases in both 
military and civilian personnel. On the military side, we are 
requesting an additional 4,000 Active Duty and 1,000 Reserve personnel 
to man modernized cruisers and destroyers, as well as littoral combat 
ships; properly support moves for our sailors and their families; grow 
our cyber capabilities; and to implement our digital training 
initiatives. We are also adding almost 3,700 civilian personnel to 
conduct ship and aircraft maintenance, increase security at our bases, 
and provide engineering and other developmental support for new manned 
and unmanned aircraft, cyber, and tactical operations.
    The most significant investments in our fiscal year 2018 budget 
request build upon the funding provided in fiscal year 2017: the Navy 
added $3.4 billion this year and hopes to continue to achieve and 
better maintain readiness over the next 5 years. Afloat readiness 
accounts are almost all funded to either their full requirement or the 
maximum amounts that could be spent. These investments are designed to 
help reverse years of significant strain on the fleet. The funding will 
buy the gas so that our ships and aircraft can fully train and deploy. 
It will increase the stocks of spare parts to keep those platforms 
running or quickly restore them to service if something should wear out 
or break. They will also provide for increased cyber resilience and 
defense, and support modest improvements to our facilities.
    As our competitors seek areas of advantage, our modernization 
accounts will ensure our current platforms remain competitive through 
their expected service lives. The fiscal year 2018 budget request 
sustains most of our major modernization programs, across the undersea, 
surface, and air domains. We also sustained our planned investments in 
missiles, ship self-defense systems, and torpedoes in this request, and 
increased funding for additional weapons in future years.
    Even as we invested in enhancing our readiness, our fiscal year 
2018 budget request also supports moving into the future. We fully 
funded the Columbia-class ballistic missile submarine's fiscal year 
2018 program requirements, the Navy's contribution to our Nation's 
strategic nuclear deterrent and our highest shipbuilding priority. We 
support procurement of nine ships in this fiscal year, and another 33 
across the Future Years Defense Plan. We made minor adjustments to our 
planned aircraft purchases, requesting one additional P-8A maritime 
patrol aircraft in this year's request and reducing our expected 
purchases of F-35C fighters from 6 to 4.
    The final element of our efforts to strike the best balance across 
our fiscal year 2018 budget request is focused on advancing key 
technologies that will make our current platforms more capable, 
providing new ways to counter high rates of fire more effectively and 
affordably. To that end, we have developed a new strategy to accelerate 
introduction of lasers and laser-enabling technologies into the fleet, 
and increased the funding in this and future years. We have funded the 
research and development of the next generation land attack weapon, 
hyper-velocity projectile, and hypersonic defense. And this request 
sustains our investments in autonomy and unmanned air, surface, and 
undersea vehicles.
    We are adjusting our investments in tactical networks and 
supporting capabilities, and have asked for $15 million to support a 
small but empowered office to spearhead Navy digital warfare and 
enterprise efforts. As just one example, one of our most impactful 
digital efforts is the transformation of the information systems that 
support our Manpower, Personnel, Training and Education (MPTE) 
enterprise. The MPTE modernization project will consolidate information 
from over 50 different databases in order to support tailored, 
flexible, and modern talent management and human resources support for 
our sailors. Our initial steps toward implementation are leading us to 
redesign our processes; in just one area, these changes have increased 
the number of travel claims processed by 28 percent per employee, 38 
percent faster, with zero errors. Once we move claims processing fully 
online, we project manpower savings of over 80 percent. We are 
requesting $35 million this year to move these critical transformation 
efforts forward, which will extend across our MPTE enterprise.
    This budget request acknowledges the growing prominence of 
information warfare through increased investments in survivable 
networks, electromagnetic maneuver warfare, and offensive and defensive 
cyber programs. Cyber protection of critical warfighting systems will 
provide the capability to automatically harden applications on naval 
platforms, reducing vulnerability to cyber attacks. The budget request 
also recognizes that as we advance technologies we must accelerate our 
adoption of training that leverages latest educational methods and 
tools, particularly the employing a combination of live, virtual, and 
constructive (LVC) training. By increasing our investments by $217 
million, we ensure that we keep our operators at the center of our 
plans, ensuring that they will be able to most effectively fight their 
ships, submarines, aircraft, and networks. Finally, we continue to seek 
ways to exploit the advantages offered by smart manufacturing 
technologies, including tools for shipyards and depots to speed 
production, reduce maintenance and sustainment costs, and enhance 
operations and logistics. These are just some of the highlights of the 
Navy's fiscal year 2018 budget request, building upon fiscal year 2017 
readiness investments to achieve greater wholeness, both now and into 
the future. However, the perfect warfighting capability is useless if 
it arrives late to the fight. Getting a new capability to the fleet 
first, before any competitor, is decisive. As important as any specific 
capability, we also need speed. Time matters, and we are not moving 
fast enough. The Congress has a major role to play here. Becoming more 
competitive starts with stable, adequate funding--the Navy simply 
cannot stay ahead in a system in which we operate without a budget over 
30 percent of the time. Stable and reliable funding allows our 
suppliers to manage their workforce and costs more effectively, which 
in turn reduces our costs. It gives our industry partners the 
confidence to invest in advances that make their processes faster and 
more efficient. We also need to better align our strategy with our 
budgets. We cannot achieve wholeness when we continue to be asked to do 
more around the world than our funding levels can support.
    Within the Navy, we are rededicating ourselves to a single-minded 
focus on building leaders, who are building the best possible teams. In 
the past year, we have issued an updated leader development framework 
to help guide the advancement of sailors as leaders of both character 
and competence--the two necessary ingredients for professional 
leadership. We also issued a framework that is informing advancement 
strategies for our Navy civilians, to guide strategies that are 
tailored to their particular areas of expertise.
    I am grateful for the additional acquisition authorities that the 
Congress has given to me and my fellow Service Chiefs, and have learned 
a lot as I have started to execute them. Many of my colleagues in 
industry that do both commercial and Defense Department work describe 
two ways of doing business: the ``competitive way'' and the 
``government way.'' They describe their worlds as consisting of 
parallel universes that operate at vastly different speeds. In the 
``government way,'' we take over 7 years to move from starting to look 
at potential information technology systems to initial operations. The 
``competitive way'' took deep learning from an idea to GO champion in 
the same amount of time. Too often, the ``government way'' ignores the 
fact that going slow--or worse, doing nothing--incurs risks that are 
often much higher than acting imperfectly. In the ``government way,'' 
there are too many people that can say no. In the ``government way,'' 
there are layers upon layers of oversight, many of which have their 
origins decades ago, in a time when there were no computers. I am 
working with the Department and industry to examine our methods against 
the need to deliver quality in a way that is also timely and cost-
effective. Make no mistake, continuing to operate in ``the government 
way'' imposes costs and risks as real as any others we might be trying 
to avoid. To that end, right-sizing and modernizing our installations 
and facilities will be an important part of our future competitiveness; 
although the Navy believes its infrastructure capacity is about right, 
completing the more detailed analysis once a BRAC is authorized will 
have value, and may highlight opportunities for some savings.
    Within the Navy, we are taking steps to accelerate acquisition. 
There are two elements to our approach. The Rapid Prototyping, 
Experimentation, and Demonstration (RPED) process seeks to develop and 
field prototypes to find solutions to fleet problems. The Maritime 
Accelerated Capabilities Office (MACO) process streamlines and 
accelerates the acquisition decision making process so that 
capabilities can be delivered to the fleet as fast as possible.
    These new ways of doing business are enabled by engaging with 
industry much sooner in the acquisition process, both to help refine 
the requirements process and to make it more efficient. As a part of 
this, we have been increasing our outreach to small businesses, which 
are often the most agile of our performers. And I am routinely calling 
both on our own Navy team as well as our partners in industry to 
challenge assumptions that we have grown to take for granted--
assumptions about how long it takes to design or build everything from 
our most simple to most complex platforms. We are shifting our mindset 
from technological miracles that deliver in the distant future, to one 
of achievable and meaningful advances today that can be pushed forward 
into the future through faster iteration. We must design and build all 
of our future platforms with modernization in mind.
    Finally, together we must develop a more competitive approach to 
defining our future. I have been focused on getting better insight and 
control of research and development funding so that it can be 
prioritized to the areas of most decisive advantage. We need more 
targeted investments, with well understood risks, that include time to 
delivery as a critical discriminator.
    If our efforts here are going to succeed, I will need your help. I 
welcome the greater accountability you have given me, but would ask you 
to look hard at areas where oversight can be pruned back to less 
onerous levels. Which oversight functions are best performed by the 
Navy Secretariat, by the Office of the Secretary of Defense, or both? 
What steps can we take to maintain sufficient checks and balances, but 
that also recognize the competition that we cannot ignore? These are 
difficult questions, but ones that the world in which we find ourselves 
in demands that we answer. I look forward to working with you in this 
vital area, and to answering your questions.

STATEMENT OF GENERAL ROBERT B. NELLER, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Neller. Chairman McCain, Ranking Member Reed, 
distinguished Members of the committee, thank you all for the 
opportunity to appear today and answer your questions.
    I would fully endorse the comments of both Secretary 
Stackley and my shipmate, Admiral Richardson, and what they 
have said about our current situation in the Navy and Marine 
Corps.
    I would also add the best wishes of all marines and our 
families to those that were injured yesterday, wishing them a 
speedy recovery.
    I know this committee and the American people have high 
expectations for their Marines as our Nation's force in 
readiness. You expect your marines to operate forward as part 
of that Navy-Marine Corps team, engage with our partners, deter 
our adversaries, and respond to crisis. And when we fight, you 
expect us to win. You expect a lot of us and you should.
    This morning, as we hold this hearing, more than 36,000 
marines are forward deployed and engaged doing just what you 
would expect them to be doing. Our role as the Nation's 
expeditionary force in readiness informs how we man, train, and 
equip our Corps. It also prioritizes the allocation of 
resources we receive from Congress.
    Unstable fiscal environments of the past have required us 
to prioritize the readiness of that forward deployed force over 
those at home station. Those marines forward are the ones that 
immediately respond to crisis. Those marines are protecting our 
embassies around the world. Those marines are currently 
conducting air and artillery strikes in Iraq and Syria. Those 
marines are training and advising Iraqi and Afghan armies. 
Twenty-four thousand of those marines are in the Pacific, west 
of the international dateline, deterring adversaries and 
ensuring our allies.
    And I assure you that those forward-deployed marines are 
well trained and well led and well equipped. However, after 15 
years of war and budget instability, this has come at a 
compounded cost to our non-deployed marines, our ready bench 
back home. The fiscal year 2017 appropriations bill is a good 
down payment to improve the readiness of this bench and move us 
forward to further recapitalize and modernize the force.
    That said, the instability of the past 8 years and the 
continued legislative reality of budget limitations disrupt our 
ability to program long-term activities and potentially sustain 
these improvements to both our current and our future 
readiness. To continue to meet operational commitments, 
maintain a ready force, and at the same time modernize for the 
future, your Marine Corps requires fiscal stability and 
adequate resources.
    While supporting requirements abroad, we continue to 
innovate, leverage technology, invest in new systems, and 
redesign our force through two new initiatives called Sea 
Dragon 2025 and Marine Corps Force 2025. We must adapt both the 
capabilities we possess and the thought process we bring to the 
battlefield because our adversaries have continued to advance 
their capabilities and capacities. Our ability to fight and win 
into the future depends upon modernization. Modernization is 
future readiness.
    So as we look forward, priorities for this year remain 
continued readiness recovery, implementation of the beginning 
of Force 2025, and the acceleration of our modernization 
initiatives to build a more lethal Marine Corps. We do not want 
our marines to enter a fair fight, and though we remain a 
lethal and ready force, the margin between us and potential 
adversaries has closed. And with your support in addressing the 
present and future challenges and the shortfalls we have, we 
will be better postured to fight and win our Nation's battles 
now and in the future.
    I look forward to your questions.
    [The prepared statement of General Neller follows:]

             Prepared Statement by General Robert B. Neller
                                preface
    Your Marine Corps remains the Nation's expeditionary force in 
readiness, able to answer the Nation's call in any clime and place. In 
meeting that mandate, marines are forward-deployed and forward-engaged 
responding to crises around the world--managing instability, building 
partner capacity, strengthening allies, projecting influence--meeting 
the requirements of our geographic combatant commanders. At home, our 
recruiters are working hand-in-hand with local communities, recruiting 
the best and brightest Americans our Nation has to offer and 
consistently achieving our recruiting goals. We appreciate the recent 
passage of the fiscal year 2017 funding. This is a down payment to 
improve our readiness and move us forward to recapitalize and modernize 
the force. That said, the fiscal instability of the past 8 years and 
the continued reality of continued budgetary uncertainty disrupt our 
ability to program long term activities and directly challenge our 
efforts to improve current and future readiness. To continue to meet 
operational commitments and maintain a ready force, your Marine Corps 
requires fiscal stability.
    Both in training and operationally, our Marines are busy; the 
current deployment tempo is on par with the height of operations in 
Iraq and Afghanistan. While supporting requirements abroad, we also 
continue to invest time and energy in developing the Marine Corps 
operating concept and its supporting Marine Corps Force 2025 
initiative. The changes within these institutional efforts will help us 
mitigate against an increasingly volatile operating environment. Our 
potential adversaries continue to advance their military capabilities 
and build capacity; because of their advances in technology and 
information use, we must adapt both the capabilities we possess and the 
thought processes we bring to the battlefield. As we look forward, our 
priorities for this year remain: readiness recovery, implementation of 
the Force 2025 initiative, and the acceleration of our modernization 
initiatives to build a more lethal 5th generation Marine Corps.
                              your marines
    In the past year, your marines demonstrated the relevance of 
expeditionary naval forces by executing approximately 20 amphibious 
operations, 200 operations, and 70 major exercises. A strong demand 
remains for marines and tailored Marine Air-Ground Task Forces [MAGTF], 
driving an aggressive operational tempo. Marines in the operating 
forces are averaging a 2-to-1 deployment-to-dwell ratio, typically 
deploying for 6 months, then spending 12 months or less at home station 
before deploying again.
    Our Nation has marines on the ground in Iraq, Afghanistan, and 
Syria today, and our commitment is growing. We have increased the 
number of Marine advisors in Afghanistan beyond our partnership with 
the Republic of Georgia's Liaison Teams. In April, we deployed marines 
as part of Task Force Southwest training and advising the Afghan 
National Army. Additionally, Marine tactical aviation squadrons are 
supporting operations in Syria, Iraq, and Libya from forward-deployed 
locations afloat and ashore.
    Our Navy and Marine Corps teams continue to perform as a flexible, 
agile, and responsive maritime force. In 2016, the Marine Corps 
deployed more than 11,000 marines aboard Navy warships. This past year, 
five separate MEUs supported every geographic combatant commander, 
participating in exercises and executing major operations. The 31st 
MEU, our forward deployed naval force in the Pacific, performed foreign 
disaster relief (FDR) operations in Kumamoto, Japan, after a 6.5 
magnitude earthquake and 7.0 aftershock struck in April.
    Our Special Purpose Marine Air-Ground Task Forces (SPMAGTF) remain 
engaged. Our SPMAGTF assigned to USCENTCOM [U.S. Central Command] 
provides dedicated Tactical Recovery of Aircraft and Personnel (TRAP) 
support to Operation Inherent Resolve, while simultaneously delivering 
a flexible force for crisis and contingency response. Those marines 
continue to work with the 1st and 7th Iraqi Army Divisions advising and 
assisting in the fight against ISIL [Islamic State of Iraq and the 
Levant]. In United States Africa Command (USAFRICOM), our SPMAGTF 
stands ready to support embassies through reinforcement, evacuation, 
and operations as required. Last July, marines deployed to reinforce 
the U.S. embassy in South Sudan and have remained, ensuring State 
Department personnel are able to provide critical support to the people 
of South Sudan. SPMAGTF-Southern Command (SPMAGTF-SC) deployed for a 
second time to Latin America, primarily focusing on theater security 
cooperation (TSC) and training in Honduras, El Salvador, Guatemala, and 
Belize. At the request of the U.S. Agency for International 
Development, marines from SPMAGTF-SC provided FDR to more than 750,000 
Haitians in the wake of Hurricane Matthew. SPMAGTF-SC were the first 
marines on scene, arriving within 48 hours of notification, flying more 
than 250 flight hours, and distributing 290 tons of relief supplies 
over the course of 12 days.
    Marine Corps activities in the Pacific are led by Marine Forces 
Pacific (MARFORPAC) headquartered in Honolulu, Hawaii, with a forward-
stationed Marine Expeditionary Force (MEF), III MEF, headquartered in 
Okinawa, Japan. III MEF contributes to regional stability through 
persistent presence. Marines remain the Pacific Command's (PACOM) 
forward-deployed and forward-stationed force of choice for crisis 
response. The Nation has 22,900 marines west of the international date 
line, operating within the Asia-Pacific theater. This past January, the 
first operational F-35B squadron deployed to Japan, bringing extensive 
capabilities while simultaneously augmenting operational forces in the 
area. The Marine Rotational Force-Darwin (MRF-D), a 6 month unit 
rotation, based in Australia's Robertson Barracks, is in its fifth year 
of operation. More than 1,000 marines participated last year, taking 
part in three major exercises over the course of 7 months. This April, 
MRF-D returned to Australia with MV-22 Ospreys. Of note, this was the 
first ever Trans-Pacific flight by III MEF MV-22 Ospreys, displaying 
the operational reach these aircraft bring to the Marine Corps.
    The Marine Corps maintains a vital relationship with the State 
Department, providing security at our embassies and consulates. Today, 
marines are routinely serving at 176 embassies and consulates in 146 
countries around the globe. Marine Security Augmentation Unit (MSAU) 
teams deployed 62 times last year at the request of the State 
Department, executing 19 embassy/consulate and 43 VIP [President and 
Vice President of the U.S. and Secretary of State] security missions.
    Last year, the Marine Corps, in conjunction with combatant 
commanders and the Marine forces component commands, conducted more 
than 160 security cooperation activities, including exercises, training 
events, subject matter expert exchanges, formal education key leader 
engagements, and service staff talks. The relationships we forge with 
allies assure them of our commitment, deter adversaries, build partner 
capacity, and set conditions to surge and aggregate with a joint, 
coalition, or special operations force for major theater combat 
operations. Partnering also trains our marines for environments in 
which we are likely to operate. Your support has allowed the Marine 
Corps to operate globally and reap the benefits of those international 
relationships.
Marine Corps Operating Concept and Force 2025
    The challenges of the future operating environment demand that our 
Nation maintain a force-in-readiness, capable of global response. In 
the strategic landscape, we find that Nations compete fiercely for 
natural resources, extremist groups employ violence to achieve 
nefarious ends, cyber-attacks are on the rise, and advanced weaponry 
and weapons of mass destruction continue to spread across the world. 
Additionally, due to universal access to information, rapid advancement 
in robotics, and new weapons technologies, serious threats have emerged 
with increasing speed and lethality.
    In the last year, we invested considerable time and energy 
formulating the Marine Corps Operating Concept (MOC) and its supporting 
Marine Corps Force 2025 initiative. These institutional efforts were 
spurred by a critical self-assessment that revealed the Marine Corps is 
not organized, trained, equipped, or postured to meet the demands of 
the rapidly evolving future operating environment. We arrived at this 
conclusion after a close examination of the current and future impacts 
of complex terrain, technology proliferation, information warfare, the 
battle of electro-magnetic signatures, and an increasingly non-
permissive maritime domain on the Marine Corps. The MOC embraces our 
naval character, expeditionary mindset, and professional approach to 
constantly improve and build on our foundations of maneuver warfare and 
fight as a combined arms force. The challenges of the future will 
impact how we organize our Corps and ultimately fight and win our 
Nation's battles. This concept is a starting point addressing how we 
will design, develop, and field a future force. It reaffirms the 
importance of maneuver warfare and combined arms. In the past, we 
successfully conducted maneuver warfare employing combined arms from 
the air, land, and sea. Now, changes in the operating environment and 
adversary capabilities drive us to increase emphasis on maneuver in a 
cognitive sense, expanding our employment of combined arms to space and 
cyberspace.
    Concurrent with our MOC design, we conducted extensive 
collaboration, war gaming, experimentation, and analysis to design a 
balanced MAGTF optimized for the future in an effort dubbed Marine 
Corps Force 2025. We continue to identify and, when able, acquire 
practical, affordable, and effective ways to protect our networks; 
practice information environment operations; configure capable tactical 
units; recruit, educate, and train leaders on multi-domain warfare; 
increase our long-range fires capability; develop reconnaissance and 
counter reconnaissance forces; leverage automation and robotics to 
augment marines; develop innovative logistics capabilities and systems; 
and further our warfighting capabilities within the littorals. The 
Marine Corps must modernize and change to deter conflict, compete and, 
when necessary, fight and win against our adversaries.
Manpower
    The center of gravity of the Marine Corps is its people, and the 
American people trust us with this precious resource--their sons and 
daughters. Our core values of honor, courage, and commitment are 
engrained in our culture. Marine leaders have a moral obligation to 
ensure the health and welfare of the Nation's marines from the day they 
commit to serve. We take this responsibility seriously and strive to 
maintain the trust and confidence of Congress and the American people. 
Taking care of marines and their families is a key element of overall 
readiness, combat effectiveness, and warfighting.
    Our comprehensive package of services seeks the holistic fitness 
and readiness of our marines and their families--body, mind, and 
spirit. We continue to prioritize support through programs like: force 
fitness, sexual assault prevention and response, suicide prevention and 
response, behavioral health, Wounded Warrior Regiment, personal and 
professional development, and transition assistance. The Marine Corps 
remains focused on solutions to reduce destructive behaviors, 
particularly sexual assault, suicide, and hazing. We are dedicated to 
eradicating bullying, degrading, and abusive behavior committed online 
or in person. The abuse of alcohol is a known factor and contributor 
across the spectrum of force preservation issues and negatively impacts 
the readiness of our force. We have to minimize these destructive 
behaviors. We believe that preserving our commanders' ability to lead 
in this area is a vital element to reaching this objective.
    We appreciate the continued support from Congress, specifically the 
most recent end strength approval of 185,000 marines. We will create 
the most lethal, capable, and ready 185,000 marines our resources will 
permit. That said, one continuing challenge is that the Marine Corps 
operating forces are currently averaging less than a one-to-two 
deployment-to-dwell ratio. This tempo is not sustainable as it does not 
provide options to train to our full mission sets and it puts 
unreasonable strain on our marines and families. Ideally, we seek to be 
a one-to-three deployment-to-dwell force. A deliberate and measured 
capacity increase, reduction of our operational tasking, or a 
combination of the two, are solutions that would put us on the path to 
improve our deployment-to-dwell ratio. Our Marines want to deploy, 
serve our Nation, and protect our country from threats overseas. 
However, we owe our marines and their families the appropriate 
deployment-to-dwell time to allow them to learn, re-focus, reflect on 
their most recent deployment, and train for the next deployment or 
contingency.
Readiness
    Marines have a unique perspective on readiness. The congressional 
intent for marines to serve as the ``Nation's Force-in-Readiness'' 
guides who we are and what we do--being ready is central to our 
identity. As a force, we must remain ready to fight and win across the 
range of military operations within all warfighting domains. Fiscal 
reductions and budget instability has been the norm for the past eight 
years and has consequently eroded our readiness. As resources 
diminished, the Marine Corps protected near-term operational readiness 
of its deployed and next-to-deploy units to meet operational 
commitments; this has come at a compounded cost. Non-deployed units, 
our ``ready bench,'' can still deploy with minimal notice but, if 
required, would not be as ready or capable as necessary. More reliable 
funding and support of the annual budget request must be there if we 
are to improve our readiness and our ability to respond to crises.
    A lack of amphibious warships, ship-to-shore connectors (SSC), and 
mine countermeasure capabilities (MCM) puts the Nation at a severe 
disadvantage. The Navy and Marine Corps team requires 38 amphibious 
warships to support two Marine Expeditionary Brigades and to provide 
the Nation a forcible entry capability. Our current amphibious warships 
need updated, resilient and interoperable command and control systems. 
As a maritime Nation, we need to be fully capable of exploiting the sea 
as maneuver space in an age when the proliferation of anti-access 
weapons continues to increase. This includes the ability to operate 
freely in international waters and airspace. Thirty-eight amphibious 
warships offer us agility and resilience in an unpredictable and 
dangerous security environment. Along with these warships, the Navy and 
Marine Corps team requires SSC that are survivable and reliable. Our 
current Landing Craft Air Cushion (LCAC) fleet averages 25 years of 
service and our Landing Craft Utility (LCU) attained Initial Operating 
Capability (IOC) in 1959--three years prior to Senator Glenn orbiting 
the earth for the first time. MCM capabilities are continually 
underfunded. The Navy and Marine Corps team needs prudent and 
consistent funding to rectify these issues through multi-year 
procurement and block-buy of amphibious warships, SSC, and MCM.
    Marine aviation is in the midst of a focused readiness recovery 
effort. We have developed an extensive plan to recover readiness across 
every type/model/series (T/M/S) in the current legacy inventory, all 
while we continue to procure new aircraft. We are realizing steady 
improvements in aviation readiness, but the plan requires sustained 
funding, parts and supply support, flight operations, and time. Each T/
M/S requires attention and action in specific areas: maintenance, 
supply, depot backlog, and in-service repairs.
    The F-35 Lighting II is more than just the next fighter, it brings 
unprecedented low observable technology, modern weaponry, and 
electronic warfare capability to the Navy and Marine Corps team. 
Delivering this transformational capability to our front-line forces as 
soon as possible remains a priority. The accelerated procurement of 
this aircraft is essential as our legacy fleet of AV-8B, F/A-18, and 
EA-6B aircraft are rapidly approaching end of service life. Though more 
expensive than these legacy aircraft, the capabilities we receive in 
return for our cost share in the joint program make it a wise 
investment. We are aggressively seeking ways to reduce operations, 
maintenance, and sustainment costs for this program. This aircraft is 
currently demonstrating its ability to support the MAGTF and is 
expanding the capabilities of Marine aviation today.
    The CH-53E is another example of an aircraft that needs to be 
replaced--not extended--as this is the most cost effective solution. 
Entering service in 1981, the out-of-production CH-53E Super Stallion 
is 55 aircraft short of the required inventory and cannot meet the lift 
needs of today's Marine Corps. Its replacement, the CH-53K, costs 
approximately 30 percent more, but provides three times the lift 
capability under the same conditions, and is the only maritime, heavy-
lift helicopter capable of supporting current and future warfighting 
concepts. The CH-53K is capable of supporting 100 percent of the 
MAGTF's lift requirements for approximately the same projected 
operating and support (O&S) cost of the legacy CH-53E. The CH-53K will 
provide increased range, payload, interoperability, and survivability.
    The Marine Corps is executing a post-combat reset strategy to 
reconstitute and increase readiness of our ground equipment. We have 
reset 92 percent of our ground equipment, with 65 percent returned to 
the operating forces and our strategic equipment programs. Our war 
reserve includes geographically prepositioned combat equipment, located 
both afloat and ashore. We remain focused on this recovery effort and 
appreciate your support. That said, our ground equipment is old. Our 
amphibious assault vehicles were fielded in the 1970s, with many of our 
other ground systems fielded in the 1980s. Much like our aviation 
assets, our ground systems must be procured and fielded to our marines 
in a faster manner, at lower operating costs and improved capability.
    Marine Corps bases and stations support marines and their families 
and serve as training, sustainment, and deployment platforms. They 
provide the capability and capacity to support the force and are 
integral to combat training. To maintain near-term unit readiness, we 
have accepted risk in facilities sustainment. While prioritizing 
deployed readiness, our infrastructure and facilities continue to 
decline. Taking risk in Facility Sustainment, Restoration and 
Modernization (FSRM) requirements has resulted in the degradation of 
our infrastructure, creating increased long-term costs. FSRM is 
currently funded only to meet the most urgent life, safety, and health 
issues. Improving the current state of our facilities is the single 
most important investment to support training, operations, and quality 
of life. In addition to FSRM, we require investment in military 
construction to support the fielding of new platforms; facilities 
necessary to meet improved training standards and operational readiness 
enhancements; replacement of inadequate facilities; improvement of our 
safety and security posture, and relocation of forces.
    To address these challenges, we have developed an Infrastructure 
Reset Strategy (IRS). Designed to improve infrastructure lifecycle 
management and ensure infrastructure investments are aligned with 
Marine Corps capability-based requirements, IRS supports the 
warfighting mission and contributes directly to current and future 
force readiness. Additionally, under this strategy, we will sustain 
infrastructure and installations as capable, resilient, right-sized 
platforms to generate force readiness and project combat power across 
the range of military operations. The Marine Corps service 
infrastructure capacity is about right; however, the IRS does address 
reducing excess and aging infrastructure to improve readiness and 
stability. The Marine Corps supports a Department of Defense request 
for authorization to conduct a Base Realignment and Closure (BRAC) 
round in 2021 based on the needs of other services, and to reinforce 
efforts planned through our IRS to optimize facilities posture to 
support increased readiness.
    Readiness is not just about equipment supply and maintenance, but 
also the quality and challenging nature of our training through the 
mental, spiritual, and physical readiness of marines and sailors across 
the force. Readiness reflects through an organizational attitude and 
confidence, knowing that it can respond to and win in any crisis 
because it has been properly organized, led, trained, and equipped.
Modernization
    History has not been kind to militaries that fail to evolve, and 
the global change we are witnessing is rapid and dramatic. Your Marine 
Corps must be manned, modernized, and ready to meet the demands of a 
future operating environment as defined by our National Military 
Strategy. The development, procurement, and fielding of a 5th 
Generation Fighter, the F-35 Lightning II, is just one aspect of our 
modernization efforts. We are modernizing our entire aviation force, 
increasing the lethality of our infantry, and ensuring our combat 
support and logistics are the most modern and capable. The result we 
aim to achieve is a Marine Corps that is the most advanced and ready--a 
5th Generation Marine Corps. Capable of dominating the battlefield in 
all five domains--air, land, sea, space, and cyberspace--a 5th 
Generation Marine Corps will use information, an integral part of each 
domain that must be leveraged, as the thread to connect them. This 
requires transforming MAGTF command and control capabilities through a 
unified networked environment that is ready, responsive, and resilient. 
The 5th Generation Marine Corps is a modernized force required to meet 
and prevail against any adversary on the multi-domain battlefield of 
the future.
    The Marine Corps must progress to stay ahead of the current 
security environment while mitigating future conflict or face becoming 
a force unable to deter and defeat future adversaries. Budget cuts 
since the Department of the Navy top line peaked in 2008, coupled with 
fiscal uncertainty, forced us to utilize limited resources to ensure 
the readiness of deployed forces and sacrifice end strength, home 
station readiness, infrastructure sustainment, and quality of life 
programs, as well as delay critical modernization. We need to modernize 
rapidly, to replace ``old iron'' with new, reliable, sustainable, and 
affordable equipment across the MAGTF. We need the continued support of 
Congress to increase the production rate of our acquisition programs 
while funding future modernization initiatives. Further, the 
recapitalization of our force is essential to our future readiness with 
investments in ground combat vehicles, aviation, command and control, 
and digitally-interoperable protected networks. Marines will continue 
working to do what we do today better than ever, while exploring ways 
these tasks might be done differently. The Marine Corps will persist in 
developing and evolving the MAGTF through innovation and 
experimentation, ensuring it is able to operate in all domains of 
conflict.
    The Marine Corps Warfighting Lab leads our experimentation effort 
to capitalize on existing and emerging technologies and MAGTF level 
exercises. In conjunction with our coalition partners, the Navy and 
Marine Corps team has experimented with dispersed sea-based SPMAGTFs; 
integrated MAGTFs in heavily defended littoral environments; 
incorporated emerging digital technologies with aviation platforms and 
our ground forces; and conducted naval integration with interoperable 
Special Operations Forces. We will continue to emphasize 
experimentation and innovation during our exercises as a way to inform 
the development of distributed doctrine and future operating concepts. 
Exercises serve as a test bed for experimentation and innovation as we 
search for faster, cheaper, and smarter acquisition processes and 
programs. Expect the Marine Corps to continue pursuing technologies 
that enhance our warfighting capabilities such as unmanned aerial 
systems (UAS) and robotics, artificial intelligence, additive 
manufacturing, and autonomous technologies that provide tactical and 
operational advantage. We have seen success in some of these 
initiatives and require consistent funding to better plan our 
modernization efforts.
    Effective planning produces unit cohesion and leadership in our 
operating forces, and financial predictability for our modernization 
programs. The ability to properly plan achieves stability and 
predictability for our personnel and families, ensures ample time to 
train, and fosters development of our small unit leaders. Modernization 
is critical to our future readiness.
Our Challenges and Solutions
    Our most immediate challenge is resolving the significant readiness 
issues that have grown over the past 15 years. Collectively, fiscal 
inconsistency, spending cuts, and accumulating wear and tear after 
years of combat operations have depleted our readiness and delayed 
planned recapitalization and modernization efforts. Though our forward 
deployed forces are ``full up'' and ready for whatever comes their way, 
our ``bench'' has become shallow--particularly for aviation. We also 
lack sufficient amphibious lift. Our minimum requirement is 38 
amphibious warships and we presently stand at 31, getting to 34 within 
the current Future Years Defense Plan. Due to this shortage, we have 
deployed two ground-based SPMAGTFs that have added deployment tempo to 
the Force.
    Over the past year, the Marine Corps dedicated nearly every 
operational MV-22 Osprey squadron to source its global commitments, and 
the increased utilization rates on these airframes affect the longevity 
of their service life. To reduce operational tempo and continue to meet 
operational commitments, we cut MV-22 and KC-130J aircraft from our 
SPMAGTFs in CENTCOM and AFRICOM. Additionally, F/A-18 readiness 
challenges necessitated a reduction of the number of F/A-18 aircraft 
assigned to squadrons from 12 to 10. Exacerbating our concerns in 
aviation is a potential exodus of seasoned pilots and maintenance 
personnel to the commercial airline industry. We ask for your support 
for the fiscal resources we have requested to retain the talent in 
which we have invested. With the continued support of Congress, Marine 
aviation will recover its readiness by recapitalizing our aging fleet, 
while at the same time accelerating the procurement of new aircraft to 
meet our future needs and support our ground forces.
Conclusion
    The unpredictability of the security environment and unknown future 
facing our Nation today reaffirms the wisdom of the 82nd Congress--the 
vital need of a strong force-in-readiness. Marines are honored to serve 
in this role. We do not want to enter a fair fight; therefore, we must 
build a 5th Generation Marine Corps that has no peer on the 
battlefield. As we continue to innovate, leverage technology, and 
invest in new systems, our current plan includes advanced infantry 
weapons, the rapid procurement of the Amphibious Combat Vehicle and 
Joint Light Tactical Vehicle, long-range precision fires, and counter-
UAS capabilities. It also increases fielding rates of the F-35B and C, 
continues the CH-53K procurement, begins research and development of a 
Group 4/5 unmanned aerial system capable of being sea-based, and 
continues to build manned-unmanned teaming capabilities. The plan as 
described depicts a roadmap to rebuild and modernize America's Marine 
Corps. With the continued support of Congress in addressing present 
challenges and shortfalls, we will be better postured to fight and win 
our Nation's battles now and into the future. The American people 
expect and deserve nothing less from their Marine Corps.

    Chairman McCain. Well, thank you very much.
    Admiral Richardson and General Neller, what are the 
implications of returning to a Budget Control Act level of 
spending in fiscal year 2018?
    Admiral Richardson. Sir, as we have talked about, we have 
been trying to restore readiness, restore wholeness, and 
provide a firm foundation.
    Chairman McCain. Will 3 percent real growth do that for 
you?
    Admiral Richardson. Sir, we are ready to defend this 
budget, but it is clear that we need more and a Budget Control 
Act, a BCA level of funding would reverse any kind of gains----
    Chairman McCain. What about a 3 percent real growth?
    Admiral Richardson. Sir, we look forward to about a 5 
percent growth is what the projections are.
    Chairman McCain. When do you project your services will 
achieve full-spectrum readiness under the present scenario?
    Admiral Richardson. For the Navy, that looks to be in the 
early 2020s.
    Chairman McCain. General?
    General Neller. It will be about that same time, Chairman. 
Full-spectrum in a future fight, though, is going to take more 
than that because the spectrum has expanded to cyber, to space, 
the information, long-range precision munitions, electronic 
warfare. So the capabilities that we have today are adequate, 
but they are not going to be adequate for the future.
    Chairman McCain. Both of you referred to the fact that 
according to various studies, in particular one from RAND, 
although that was one from several, that showed that our 
potential adversaries are closing the potential gaps that exist 
between our capabilities and theirs. Is that your view, 
Admiral?
    Admiral Richardson. Yes, sir, it is.
    General Neller. Yes, it is, Chairman.
    Chairman McCain. You know, one of the great disasters I 
have seen recently is the LCS. The minimum operational 
capabilities necessary to meet the warfighters' needs for the 
three LCS mission modules have been delayed by a cumulative 26 
years and counting. To date, very few capabilities have reached 
IOC. Guns, boats, helicopters, parts of the mine hunting 
package without the ability to find mines or any antisubmarine 
warfare capability.
    Who is responsible and who has been held accountable? We 
will begin with you, Admiral Richardson.
    Admiral Richardson. Sir, I will be the accountable person 
for that, and I am committed to making sure that we take the 
LCS fleet----
    Chairman McCain. When you say held accountable, have you 
been reduced in rank? Have you been--in other words, you have 
been held responsible. I said not only who is responsible but 
who has been held accountable. Any change in your lifestyle 
since we have had three LCS mission modules delayed by 26 years 
and counting?
    Admiral Richardson. Well, we have taken several measures to 
make that LCS fleet more capable. We are working to rationalize 
that program both from the way we organize and operate, the way 
we man, the way we train that force, and looking to increase 
the lethality and survivability of the LCS fleet as well. I 
will be accountable for that, sir.
    Chairman McCain. Everybody agreed that we needed one. All 
of a sudden, now we need three. How did that happen? Can you 
explain that to me?
    Admiral Richardson. Sir, we are committed to, as you said, 
moving towards a more capability and more lethal and survivable 
frigate program. And the bridge between now and that program 
when we let that contract in 2020 will not only contribute to 
the small surface combatants but also contribute to the health 
of the industrial base.
    Chairman McCain. When did it happen? We were told for most 
of the year, about 364 days, that all they needed was one, and 
all of a sudden, bang, now we need three. How did that process 
transpire? Can you tell me?
    Admiral Richardson. Sir, we continue to learn about the 
industrial base and we react as we get that information.
    Chairman McCain. I see. So for most of the year, you were 
given one set of information and then in the brief week to 10 
days, we were given additional information that called for two 
additional LCSs. Is that how the system works?
    Admiral Richardson. Sir, we get the information. We learn 
in real time and we provide you information as soon as we get 
it.
    Chairman McCain. Well, I would be interested in, if you do 
not mind, for the record how we jumped from one LCS to three 
just literally in a matter of days after months of being told 
that we would only need one. There is more there than meets the 
eye, Admiral, I say with great respect.
    [The information follows:]

    Admiral Richardson. The Navy's 2016 Force Structure Assessment 
revalidated the requirement for 52 Small Surface Combatants (SSC). 
While a Littoral Combat Ship (LCS) provides valuable capability as a 
focused-mission ship, the Navy is transitioning to the more capable, 
multi-mission Guided Missile Frigate (FFG(X)). To allow adequate time 
to define the FFG(X) requirements, thoroughly evaluate design 
alternatives and mature the design, the Fiscal Year 2018 President's 
Budget (PB-18) defers the first year of FFG(X) procurement to fiscal 
year 2020 with additional LCS being procured in fiscal year 2018 and 
fiscal year 2019. Changes to LCS and FFG(X) procurement will have no 
effect on deliveries and deployments of LCS in the near term and will 
result in the FFG(X) having much greater warfighting capability and 
flexibility to meet Fleet and combatant commanders' requirements. The 
original PB-18 request included one LCS in fiscal year 2018, which, 
when combined with the LCS Congress added in the fiscal year 2017 
Appropriations Act, would allow the Navy to leverage past and current 
investments in our shipyard workforce and infrastructure. To further 
reinforce the SSC industrial base, the Navy's PB-18 request was amended 
to include two LCS. Until a force of 52 SSCs is achieved, there is 
operational risk. The Navy is also seeing challenges in meeting the 
requirements for attack submarines (51 against a requirement of 66) and 
large surface combatants (87 against a requirement of 104). Operational 
risks associated with these shortfalls can be mitigated by using 
alternate platforms, such as amphibious ships or Expeditionary Mobile 
Base ships, to deliver the capabilities necessary to conduct the 
required missions.

    Chairman McCain. Secretary Stackley, the Navy breached the 
cost cap for CVN-78. Do you believe that it has?
    Secretary Stackley. Sir, right now our estimate for CVN-
78--we are trying to hold it within the $12.887 billion number 
that was established several years ago. We have included a $20 
million request in this budget pending our determination 
regarding repairs that are required for the----
    Chairman McCain. Is that a breach of Nunn-McCurdy?
    Secretary Stackley. Not at this point in time, sir. We are 
going to continue to evaluate whether that additional funding 
will be required. We are doing everything we can to stay within 
the existing cap, and we will keep Congress informed as we 
complete our post-delivery assessment.
    Chairman McCain. The problem is we have not been informed. 
So either bust the cap and breach Nunn-McCurdy or you notify 
us. You have not done either one.
    Secretary Stackley. Sir, we have been submitting monthly 
reports regarding the carrier. We have alerted the concern 
regarding the repairs that are being required for the motor-
turbine generator set, and we have acknowledged the risk 
associated with those repairs. However, what we are trying to 
do is not incur those costs--avoid costs by other means, and as 
of right now, we are not ready to trip that cost cap.
    Chairman McCain. Well, it is either not allowable or it is 
allowable. If it is not allowable, then you take a certain 
course of action. If it is allowable, then you are required to 
notify Congress. You have done neither.
    Secretary Stackley. If we need to incur those costs, they 
will be allowable costs. We are trying to avoid that at this 
stage in time, sir.
    Chairman McCain. I agree. But we were supposed to be 
notified. I can tell you that you are either in violation of 
Nunn-McCurdy, or you are in violation of the requirement that 
we be notified. You have done neither. There are two scenarios.
    Secretary Stackley. Sir, we have not breached the cost cap. 
If it becomes apparent that we will need to go above the cost 
cap, we will notify Congress within the terms that you all have 
established.
    Chairman McCain. Okay. Well, I will get it to you in 
writing, but you still have not answered the question because 
when there is a $20 million cost overrun, it is either 
allowable and then we have to be notified one way. If it is not 
allowable, Nunn-McCurdy is breached. But anyway, maybe you can 
give us a more satisfactory explanation in writing, Mr. 
Secretary.
    [The information follows:]

    Secretary Stackley. Section 122 of the John Warner National 
Defense Authorization Act (NDAA) for Fiscal Year (FY) 2007, as 
amended, establishes a $12,887 million cost cap (in FY 2013 
dollars) on the total amount of procurement funds that may be 
made available for the CVN 78. The Navy is working diligently 
to hold costs within that cap.
    The Navy has included a $20 million request in this budget 
pending our determination regarding repairs required to the 
damaged Main Turbine Generator #1, which occurred during first-
of-class shipboard testing. We will continue to evaluate 
whether that additional funding will be required, and will keep 
Congress informed as we complete our post-delivery assessment. 
If it becomes apparent that we will exceed the cost cap, we 
will notify Congress within the terms established by Section 
122.

    The President's budget request includes a down-select for a 
new frigate. What has changed from the previous frigate 
acquisition strategy?
    Admiral Richardson. Sir, I will speak to that. I will tell 
you that the threat has changed. It has become more 
challenging. The way we operate has changed, operating the 
fleet under new concepts. We want that frigate to be relevant 
in a distributed maritime operational concept. And so the 
combination of those two, with any changes in the fiscal 
environment, have caused us to readdress the requirements for 
the frigate.
    Chairman McCain. Does it frustrate you at all that the 
President's budget request includes a down-select for a new 
frigate in 2020?
    Admiral Richardson. No, sir. It is fine. We are hunkered 
down. We want to get to that transition as quickly as we can.
    Chairman McCain. It is going to take us 2 and a half years 
to have a down-select for a new frigate. Right?
    Admiral Richardson. By the time that we define the 
requirements, which we are just about done with, I will work 
with industry to find what I will call the knees in the curves 
and what is possibly technologically on a cost and schedule and 
risk that is definable. I think 2020 is an aggressive target. 
If we can go faster, we will.
    Chairman McCain. Why is it that there is one of these every 
6 months, and it is a pretty complicated technology that we are 
talking about? Somehow it does not take 2 and a half years to 
include a down-select. Suppose we had a down-select in 2020. 
Then when would we first see the first frigate?
    Secretary Stackley. Yes, sir. Our timeline right now--the 
CNO described complete requirements. Our next step is to go out 
to industry to share those requirements with industry. They 
will start their design efforts. We will put a request for 
proposals out in 2018 to get the proposals in 2019 with an 
award in 2020. We would expect industry to complete their 
detailed design. It will take them a year, year and a half to 
complete their detailed design while they order material, about 
a 3-year build span. So we would expect the frigate to be in 
the water ready for delivery in the 2024 time frame.
    Chairman McCain. So we are talking about 7 years.
    Secretary Stackley. Yes, sir.
    Chairman McCain. Is that satisfactory to you?
    Secretary Stackley. Given that we are just now producing 
the requirements document, as the CNO said, if we can 
accelerate that, we will. But what we do not want to do is 
incur additional risk. We do not want to take on the risk that 
they took on in the LCS program where they established non-
realistic schedules and procedure when the design was not 
mature.
    Admiral Richardson. Sir, if I could add on to that. I think 
we are completely united with you to work with industry to 
accelerate this acquisition process as fast as we can. But as I 
know you know, moving into construction before you have a 
mature design is just a recipe for cost overruns and schedule 
delays that we have lived with before. And so we are working 
very closely with industry in very new ways to try and move 
this faster.
    Chairman McCain. Well, I have well exceeded my time. But 
the A-4 aircraft was--the request was 4 weeks and the aircraft 
was starting production several weeks later. Tell me what has 
changed, Admiral.
    Admiral Richardson. Sir, the process has changed quite a 
bit since the A-4 aircraft.
    Chairman McCain. Compare 7 years over a few weeks that the 
sophistication of the technology is such that it takes 7 years 
to start developing an aircraft as opposed to 4 weeks, or in 
the case of the SR-71, which in those days was not 
unsophisticated, a couple of weeks. There is something wrong 
with the acquisition process, and we have tried to put you in 
charge and engage. We have tried to get the process moved 
forward. Why should it take 2 and a half years for a 
manufacturer to come up with the technology to build an 
aircraft or a ship? Well, these are very vexing problems.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Secretary Stackley, last year in the Defense Authorization 
Act, we expanded some of the authorities under the National 
Sea-Based Deterrence Fund, including the ability to contract 
for continuous production of the common missile compartment for 
the Columbia. Can you estimate how much this has saved the 
taxpayer?
    Secretary Stackley. Sir, across the board in terms of the 
Columbia program, we are leveraging everything that you all 
provided in terms of the National Sea-Based Deterrence Fund 
with the specific regarding the continuous production. And we 
do not target just the Columbia, but what we really are looking 
at is the run of production. We have used numbers on the order 
of $1.2 billion.
    Senator Reed. Of savings.
    Secretary Stackley. Yes, sir, future savings.
    Senator Reed. Future savings.
    Do you need any additional authority for the National Sea-
Based Fund to accelerate these future savings and to increase 
them?
    Secretary Stackley. In the 2018 budget request, no. But we 
are continuing to explore opportunities. Frankly, there will be 
significant opportunities because what we have got is a very 
unique ship construction program over a period of time, and to 
the extent that the business case supports it, we are going to 
want to be able to pull work to the left as best as possible to 
drive costs down and provide the stability that we need for 
that program.
    There are going to be issues in the industrial base. Today 
we spend a lot of our time with the shipbuilders, but the 
issues that we are going to be tackling next are going to be in 
the industrial base that are layers below the shipbuilders 
where they do not have the stability. They do not have the 
large volume and they do not have the certainty that we will 
need to provide so that they can drive cost out of the material 
that they will be providing to the builders.
    Senator Reed. So essentially you are talking about the 
savings in the supplier base not the final construction phase.
    Secretary Stackley. Yes, sir. Half the cost comes through 
the supplier base, and to the extent that we can reduce their 
costs, then we get a compounded benefit.
    Senator Reed. And Secretary Stackley or General Neller, 
this year you are asking for approval of a 7-year multiyear 
contract of the V-22. And the U.S. Code is 5 years. That is the 
law. Why do we need 2 additional years for this multiyear 
procurement contract?
    Secretary Stackley. Yes, sir. We are coming to the end of 
production in this 7-year period for the V-22 program. And our 
procurement rates frankly have been stretched over a 7-year 
period. Typically aviation programs will see a tail-up at the 
end of production. So what we are trying to do is capture the 
end of production, avoid the tail-up with economic order 
quantity material procurements inside of the multiyear. We 
would be able to take care of the vendor base early and overall 
drive the cost out of the program to the extent possible. So it 
is more about affordability than any other factor, and between 
our 65 aircraft and potential FMS [foreign military sales], we 
are looking to provide as much stability as possible to the 
industrial base to drive those costs down.
    Senator Reed. So one of the primary factors here is the 
anticipated termination of procurement of the V-22. Is that 
correct?
    Secretary Stackley. Yes, sir. We reach our inventory 
objective at the end of the 7-year period.
    Senator Reed. Thank you.
    The LCS. The chairman has gone into great detail and I 
think very thoughtful detail about this vessel. Admiral 
Richardson, right now, my understanding--and correct me if I am 
wrong. It is not capable of the mine sweeping mission. It is 
not capable of the antisubmarine mission. What missions is the 
ship capable of performing?
    Admiral Richardson. It is currently capable for its anti-
surface warfare (ASW) mission. Sort of that module has been 
delivered and deployed. The ASW, antisubmarine warfare, and the 
mine countermeasure mission module's capability is on track to 
deliver in time for deployment in the early 2020s, prioritized 
the mine countermeasure mission because, as you know, we are 
running out--we are sunsetting the current capability there. 
But we are devoted to maintaining a continuous capability for 
MCM.
    Senator Reed. There have been some comments that the LCS is 
difficult to keep up with the speed with the carrier task force 
that is moving as fast as it can to avoid detection or 
engagement. Is there any validity to that?
    Admiral Richardson. I will tell you I would take the 
question and say it is not really designed as a ship that would 
operate like that, moving across vast distances with a carrier 
strike group. We would employ that ship in a different way.
    Senator Reed. But as I understand--and again, I am 
certainly not the expert on naval operations, but as we move 
towards the Pacific and particularly as we encounter rising 
adversaries, it is more likely that we be engaged in these 
types of blue water operations. Is that fair?
    Admiral Richardson. That is fair. And that is why we have 
the plan to forward deploy those in Singapore and in theater so 
that they are there providing that presence, contributing to 
that distributed fleet level maritime operation.
    Senator Reed. And, Secretary Stackley, the chairman talked 
in detail about the carrier program, and I just want to 
understand. There is an issue with the catapult system, its 
ability to launch aircraft, particularly aircraft that have all 
of their fuel tanks in place. Apparently it can launch if there 
are no fuel tanks or a few fuel tanks. Is this issue of the 
catapult system different than the issues you addressed in 
terms of the overall capability and cost overruns of the 
carrier?
    Secretary Stackley. I would not describe it that way, sir. 
What we are going through right now is developing the bulletin 
for launch and recovery of the various type model series 
aircraft in the fleet that will be operating off of the 
carrier. And so we started at Lakehurst where we have the land-
based system, and they basically start slow and build up in 
terms of launching and recovering the aircraft. In that process 
with F-18s with fuel tanks attached, a vibration was detected. 
And so now what they are doing is going back through the 
software and adjusting the system to remove that vibration. And 
so today they are renewing that testing at Lakehurst in advance 
of when we will first do launch/recovery operations on the Ford 
later this summer.
    I am going to call it a systems tuning effort that is 
taking place right now. Each aircraft is, frankly, going to be 
tuned by EMALS, the electromagnetic aircraft launching system, 
so that it optimizes the launch and recovery of those aircraft 
for that configuration.
    Senator Reed. And these problems will be--you are 
anticipating with the new ships these problems will be solved.
    Secretary Stackley. Absolutely, yes, sir.
    Chairman McCain. And how much has been the cost of that 
experiment?
    Secretary Stackley. I would have to get you the specifics 
regarding----
    Chairman McCain. A couple hundred million. Right?
    Admiral Richardson. The total system? Yes, sir.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. In the committee, we have heard repeatedly 
in recent months from all the Services about the present global 
threat environment that we are in and our lack of adequate 
readiness. At our hearing, we had Dan Coats last month, the 
Director [of National Intelligence]. He highlighted the threats 
from North Korea, China, Russia, Iran, terror networks around 
the country. And as bad as the global threat situation is, it 
does not seem likely to get better in the future.
    Now, the Navy plays a central role in American response to 
all of these threats. And it seems like--my observation is that 
we have heard less from the Navy about the threats and our 
readiness situation than we have the other Services. Would you 
like to get on record now? Do you agree with the rest of the 
Services about the level of threat and the inadequacy of our 
response? Any comments?
    Admiral Richardson. Sir, I completely agree, and I have 
been clear and consistent and on the record about the fact that 
our margin is eroding, that the threats are rising, and we need 
to move faster.
    Senator Inhofe. And you too, General Neller?
    General Neller. Sir, I think we have been maybe not as 
animated but pretty consistent in our comments on our concern 
about the closing gap between potential adversaries and 
ourselves and our need for modernization----
    Senator Inhofe. That closing gap. That is a scary thing. I 
think when you say maybe more animated, maybe we need to be 
more animated because--and I have said this several times--we 
at this table up here do not have the credibility that you guys 
in uniform have to let the American people know what this 
threat is. And so I would just encourage more.
    General Neller. Senator, I hear you. I would say if you 
read--and I will just state it. In our Force 2020, our Marine 
operational concept, the tenet is we are not currently 
organized, trained, and equipped to face a peer adversary in 
the year 2025. And that is where we need to go.
    Senator Inhofe. General Neller, the first operation of the 
F-35 squadron, VMFA-121, declared its initial operating 
capability in 2015. Earlier this year, they relocated to Japan, 
becoming the first forward-deployed permanent F-35 squadron. 
The squadron participated in joint exercises with South Korean 
partners earlier this year, and we got lots of good reports. 
Would you kind of elaborate on how well they did?
    General Neller. Yes, sir. One hundred twenty-one did some 
operations on the Korean Peninsula. They just recently went to 
Alaska and operated in an Air Force joint combined operation up 
there, kind of a version of Red Flag up there. I have not 
gotten the classified report, but from every report that I have 
received, their ability to operate, taking advantage of their 
fifth generation capabilities, be stealthy, not be seen, take 
advantage of that, and gain a high ratio of kills to losses 
over the adversary has been pretty consistent. I do not want to 
get into the specifics of that.
    And their readiness, which was something with a new 
airplane, because as the CNO said, one thing that the 
appropriations in 2017 and what 2018 does, we have underfunded 
our parts and spares, not just for ground equipment but for 
aviation equipment. And so we are working on that. And their 
readiness has been about what we expected. We have run into 
some problems. I have met with the squadron CO [commanding 
officer] in Iwakuni, and there were some things we did not know 
about getting parts and spares in through a foreign country and 
some customs things, and we are working through that. They 
actually have better readiness in Alaska, being in the United 
States, than they did because of their ability to get access to 
parts. But they are doing actually a little bit better 
maintenance-wise, and operationally they are doing everything 
that we expected.
    Senator Inhofe. Yes. Well, maintenance is another area. I 
wanted to get a couple things on the record. You know, we get 
the reports that I guess 62 percent or so, 63 percent of the F-
18s are broken, are not working properly. Fourty-seven percent 
of all of the naval aircraft are having problems. Our depots 
are critical. As chair of the Readiness Subcommittee, which I 
have been for a number of years, I understand the key role that 
depots play in sustaining our aging force. And we have an aging 
force that we have never had anything like before.
    I have been encouraged by the Air Force depot operations at 
Tinker, and I have seen firsthand how they are extending the 
service life to planes that we never thought we would have to 
be doing this at this age. And they are keeping the airmen 
flying, all the while saving about $2.4 billion. So they are 
doing a good job in the depots.
    A GAO report--I think it was in June just a couple weeks 
ago--concluded--and quoting from this--``the readiness recovery 
for the Navy is premised on the adherence to deployment and 
maintenance schedules.'' And they are critical that the Navy 
has had difficulty completing maintenance on time. Do you agree 
with that criticism, Secretary Stackley?
    Secretary Stackley. Yes, I do, sir. And we have been 
pulling every lever we can to improve upon that. But that has 
been part of the challenges that we are dealing with.
    Senator Inhofe. It is another challenge.
    Secretary Stackley. In the particular case of the aircraft, 
we are bringing aircraft that had been flying above their 
historic fly rates into the depots, trying to extend their 
service life from 6,000 hours designed up to 9,000 and greater. 
And what that all adds up to is a lot of unknowns when you are 
bringing them in the depot that result in an extended period of 
time to take care of either adding to service life or taking 
care of the necessary repairs. So we are trying to learn from 
that history, become far more predictive so when the Super 
Hornets enter that same stage, that we have a far better 
engineering understanding of what needs to be done and we are 
better postured and prepared to do the work.
    Senator Inhofe. A good clarification.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Gentlemen, I am sure all of you are acutely aware--and the 
chairman made some passing reference to it in his opening 
statement--about the atrocious level of readiness when it comes 
to F-18 Super Hornets currently in the Navy and Marine Corps. 
Recent numbers listed up to 62 percent of the F-18s and 74 
percent of the Marine F-18s as unfit to fly and grounded 
pending needed maintenance. This readiness rate puts increased 
strain on those aircraft that are still air-worthy as they pick 
up the slack, which just exacerbates the problem.
    I was heartened when I learned that a plan was being 
discussed to order 24 more of these tried and true aircraft on 
existing production lines. I was equally disheartened when that 
number arrived at our office as the number of 14.
    Since this has been the number one slot in the unfunded 
priority list for the third year in a row, I need to understand 
how that 24 number got to 14 and what those 10 fighter jets--
the money for those--what that was used to pay for.
    Secretary Stackley. Yes, ma'am. Let me start with this and 
maybe the CNO would like to join.
    We do not look at just the fiscal year 2018 column. We look 
at the total number of Super Hornets that we need to add to our 
inventory to address the challenges that we are going to be 
facing when the Super Hornet is going through the same service 
life extension program that the legacy F-18s are. And we think 
that we need a solid 80, and that number may go up. We will 
have to see our review during the POM-19 [program objective 
memorandum] process. To meet a solid 80 that we have laid in 
over the 5-year program.
    In the near year, 2018, when we look at industrial base 
considerations, we also factor in foreign military sales. So we 
are working hard on the foreign military sales side, which I 
think you are well familiar with that involves a significant 
quantity of aircraft which, in addition to the 14 that we have 
laid into the budget, gives us that front-end stability. And 
then as you look in the following years in the FYDP, the 5-year 
defense plan, we get to our ultimate 80.
    Bottom line is we believe we need a solid 80 as a threshold 
in terms of dealing with the risks associated with our TACAIR 
[tactical air] in the future. The 14 in fiscal year 2018 
reflects a balance between our budget constraints and bringing 
in foreign military sales aircraft to manage across the 
industrial base. That is kind of the crux of it.
    And one minor correction. The readiness issues that you 
cited for our strike fighters--those are our legacy F-18s that 
are suffering those numbers. Right now, the Super Hornets are 
doing well. They are doing well. They have not entered that 
stage of their service life where we are seeing the challenges 
that we are seeing today on the legacy, and we want to get out 
in front of that.
    Admiral Richardson. Ma'am I will add on to that.
    First, I agree with everything that the Secretary said. And 
these aircraft will help maintain inventory as the Super 
Hornets enter that life cycle extension program. We are working 
very closely with industry. As the Secretary said, we are 
learning the lessons of the legacy Hornets so that that process 
goes much smoother. But we are going to need about 80 aircraft 
to maintain inventory while they go into their life cycle 
extension.
    Senator McCaskill. So the number that was arrived at was 
for production stability in light of budget constraints as 
opposed to using 10 of those jets to pay for some other system.
    Admiral Richardson. The first requirement was the total 
number of aircraft we need, and then we had to figure out how 
best to buy that within our budget constraints.
    Senator McCaskill. Got it.
    Back in 2016, General Neller--and at that hearing, I 
believe General Milley was here with you. We have been briefed. 
The staff has been briefed in January where the service 
representatives responsible for monitoring and providing 
briefings on the topic stated full gender integration appears 
to be moving forward as intended and, most significantly, 
stated no measurable negative impact on readiness.
    With that briefing in January, I would like to repeat the 
question I asked of you in 2016 when I asked if you supported 
the measure to require women to register for the selective 
service. At that point in time, you indicated that you did, 
along with General Milley. I just wanted to double check and 
make sure that you still believe that it is an important step 
forward that we require all Americans to register for selective 
service, not just one gender.
    General Neller. It is my personal opinion, yes.
    Senator McCaskill. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you.
    Thank you, gentlemen, for your testimony.
    Every other member of this committee so far has spoken 
about the budget, so I will as well. I will simply reiterate 
today and maybe every time in the future, as Cato did with 
Carthage, the Budget Control Act must be repealed. The 112th 
Congress was not the Constitutional Convention. The Budget 
Control Act is not the Constitution. Congress has made it clear 
that we cannot abide by those caps, so why do we simply not 
repeal it and do our constitutional duty of appropriating money 
every single year, in particular since every Senator on this 
dais from Deb Fischer to that end and Joe Donnelly to that end 
did not even vote on the Budget Control Act.
    General Neller, I had the opportunity yesterday to attend 
the funeral of one of your marines at Arlington National 
Cemetery. Thank you for sending a representative there. Private 
1st Class Larry Roberts was a sniper. He died in November, 1943 
in the Tarawa Atoll. He, along with several others, could not 
be identified for decades, but ultimately, thanks to the work 
of Honor Flights and the Defense POW/MIA [Prisoner of War/
Missing in Action] Accounting Agency his remains were 
identified and he was laid to rest. He had a small family, 
obviously, as an 18-year-old man who sacrificed his life 74 
years ago. He did not have a wife or children. But the children 
of his parents' siblings were there to pay their respects. In 
some ways, I feel that the people who most need to know about 
that funeral are your marines and your sailors and our soldiers 
and our airmen that if they go missing or captured or are 
killed, that our country will spare no expense. We will not 
rest. We will bear any burden to find them and bring them home 
and let them rest in honor the way they deserve.
    You said earlier, General Neller, in response to a question 
from Mr. Inhofe that you were not organized to face a peer 
adversary in 2025. Could you explain more about why that is the 
case?
    General Neller. Congressman, since 9/11, we have organized, 
trained, and equipped the force to fight a counterinsurgency 
and conduct stability ops. The training that I had as a junior 
officer and then later as a regimental commander to fight 
primarily a combined arms fight against a peer ground combat 
force was not required. And so we did what we needed to do to 
meet the current threat. And we recognized several years ago--
many of my predecessors--that we had started to lose our 
capability to conduct combined arms in the more traditional 
sense.
    Now when you take the current operating environment and 
what we anticipate the future operating environment, when you 
add space, cyber, information, the long-range precision 
weapons, the use of different capabilities, active protection 
systems, unmanned aircraft, our adversaries have taken this 
time when we have been focused on CT [counter-terrorism] and 
the insurgencies to develop these capabilities. And although we 
still retain one-on-one against them, I think, an edge, the 
edge has closed. And so we need to look at our force and the 
capabilities we have.
    So our intent is, with the end strength of 185,000 we have 
been given by the appropriations, to start that process, to 
increase the number of marines that do electronic warfare, 
increase the number of marines that do command and control, 
increase the number of marines that do cyber, increase the 
number of marines that do information, that do air defense and 
those capabilities that we think are going to be important in 
that type of an environment. And if we are able to grow the 
force, we will continue to add to that capability and, at the 
same time, remodernize the legacy force and make it more 
survivable and lethal.
    Senator Cotton. To achieve decisive victory over a peer 
competitor in 2025, it sounds like you are stressing more the 
skill sets and the training that your marines have rather than 
the absolute number of marines you need?
    General Neller. You get into the question, Senator, as you 
know, of capacity and capability. So right now, the focus is on 
the capability sets. And it is going to take a long time. With 
all due respect to my own tribe, the infantry tribe, I can make 
a competent individual infantry marine in about 6 to 9 months. 
It is probably a little bit longer now because the requirements 
are much more complicated.
    But the marines and, I would say, the sailors, the airmen, 
and the soldiers we are going to need in the future to do these 
other things are going to be expensive and are going to take 
time to grow and build. You've got to recruit them. You've got 
to find them. You've got to train them, and then you have got 
to keep them. So right now, we are focused on capacity--or on 
capability over capacity, but eventually we are going to have 
to get to the capacity question.
    Senator Cotton. Admiral Richardson, you face some of the 
same challenges with personnel. You have introduced a number of 
talent management programs to recruit, train, and retain the 
best people. Could you give us an update on that and maybe 
discuss the next steps, especially as it relates to pilots 
since we have seen the kind of pressures the Air Force faces 
with their pilots?
    Admiral Richardson. Yes, sir. And I agree completely with 
the Commandant in terms of what the stressors are and how to 
achieve that balance between capability and capacity. You have 
got to be there with credible options to provide decision-
makers the options that the Navy and the Marine Corps team is 
responsible for delivering.
    In terms of talent management, we have got our Sailor 2025 
initiative which really is a bundle of about 40 different 
initiatives that get after that.
    With respect to your specific question on pilots, the very 
most urgent thing we have to do is get their aircraft ready to 
fly. Our pilots joined the Navy and the Marine Corps to fly 
high performance aircraft. That is why they came. That is why 
they want to stay, and so that is our first priority.
    Senator Cotton. Thank you.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Blumenthal, please.
    Senator Blumenthal. Thank you, Senator Reed.
    Welcome, gentlemen, and thank you for your extraordinary 
service and for your candid and forthcoming answers today.
    Admiral Richardson, you know of my longstanding support for 
our undersea warfare superiority. And I was very, very 
gratified to see that the Navy has heeded my calls and others 
and added a second Virginia-class submarine in fiscal year 2021 
where there was previously just one because of the beginning of 
the Columbia-class production. This signals that the Navy is 
confident that the industrial base has that capability and, I 
take it, ready to meet the challenge.
    I see that the budget allows for an accelerated fleet plan 
for fiscal year 2021, but it deviates from the plan in fiscal 
year 2022, which has no additional money for attack submarines. 
Can you explain that fact?
    Admiral Richardson. Sir, we continue to work very closely 
with the industrial base within the fiscal guidance that we 
have to maximize and maintain our undersea superiority. As you 
know, sir, because you are so deeply involved, many parts of 
that industrial base have really been leaned out by the sort of 
minimum production rates that we have got, particularly the 
nuclear part of that industrial base where we are in many areas 
the sole customer and there is only one provider. So I have got 
the team looking at what is the capacity, provided stable and 
consistent funding that sent that signal of confidence from the 
government that they would invest in new production lines, et 
cetera to maybe increase the rates further still.
    Senator Blumenthal. Let me just cut through what I think 
you are saying. You have doubts about the capability of the 
industrial base to produce that additional submarine in fiscal 
year 2022?
    Admiral Richardson. No, sir, no doubts. I just want to make 
sure that we are understanding the theoretical limits of that 
base to see how far we can go.
    Senator Blumenthal. Well, I want to make sure that we 
understand the practical limits and what we meet and exceed 
those limits because we need to produce that additional 
submarine in fiscal year 2022. Would you agree?
    Admiral Richardson. We will take every submarine that we 
can get right now, sir.
    Senator Blumenthal. Well, I do not know quite how to put it 
more bluntly, but I hope that we can work together because I 
will do whatever is necessary to make sure that we have both 
the funding and the capability in terms of training and skill 
education and so forth in Connecticut, which is where we 
produce submarines, to make sure that we meet that schedule 
because I consider it vital to our national security.
    Admiral Richardson. Yes, sir. I agree.
    Secretary Stackley. Sir, can I offer----
    Senator Blumenthal. Yes. I am sorry. Mr. Secretary?
    Secretary Stackley. In the defense strategy review leading 
into the 2019 budget request, we are going to be taking a very 
hard look at this. Our domination of the undersea domain is 
clear today. We have to ensure that we do not lose that grip, 
and the CNO's future fleet plan highlights the need for 
additional attack submarines.
    That all said, we are just today at the point in which we 
are producing two Virginia-class submarines per year. We are 
going to add the Ohio replacement, the Columbia 2. That will 
get us to three. Going the next step to three Virginias per 
year, commensurate with the Columbia-class, that is another 
element of risk.
    So while we are going to look at it hard and we are going 
to determine what needs to be done, we have not done that yet. 
We will do that with full collaboration with the Congress 
because we all have to be in this together. So as we go through 
the review, as we identify the risks, the steps that would need 
to be taken, we will work closely with you and the other 
interested members of committees to determine what is possible 
and then how to get there.
    Senator Blumenthal. Thank you. I look forward to working 
with you on that issue.
    General Neller, in your testimony, you note that the CH-53K 
is, quote, ``the only maritime heavy lift helicopter capable of 
supporting current and future warfighting concepts.'' I take 
that statement and others in your testimony as a strong 
endorsement of this program. Can you please explain to the 
committee why you consider this aircraft so important and why 
the funding should be authorized for the additional helicopters 
in the NDAA, please?
    General Neller. Well, Senator, we need a marinized aircraft 
to stay aboard ship so it is not affected by corrosion, and we 
have to be able to lift all parts of the ground combat element 
ashore. The CH-53K is going to lift a third more than any other 
helicopter in the world, including the CH-53 Echo we have now, 
which was fielded in 1981. So the capabilities of this 
airplane--it is a completely new airplane, composite body, 
wider, incredibly more powerful, and we believe it is going to 
be more reliable, which will drive the cost down. So we could 
put money back in the 53 Echo, but we decided several years ago 
that that just was not cost effective, and we are resetting 
those airplanes, the Echoes, now because their readiness was 
actually near that or maybe even more dramatically bad than the 
F-18s. So we need this airplane. We need new iron.
    The aircraft is on schedule. We are watching the price very 
closely because there are some price concerns, but I think we 
are in a good place. But we would ask that we get the support 
to continue to procure this airplane. And I will do my very 
best to monitor the progress and make sure it is on time and on 
schedule and on cost.
    Senator Blumenthal. Well, I just thank you and conclude by 
saying I agree strongly that the CH-53E, as you say in your 
testimony, should be replaced, not extended, and I hope the 
committee will join in that view. Thank you.
    Senator Reed. Thank you.
    On behalf of the chairman, Senator Rounds, please.
    Senator Rounds. Thank you, sir.
    Gentlemen, thank you for your service to our country.
    I would like to talk about readiness. I would like to talk 
specifically about spare parts and maintenance. General Neller, 
I think to Senator Inhofe's question, you were pushing pretty 
hard to talk about the need for spare parts and the need to be 
able to repair the equipment that you have got. I would like to 
give you an opportunity to share just how serious the situation 
is right now and the need to continue to improve the 
availability of parts for all aspects of the operations that 
you are responsible for, sir.
    General Neller. Well, thank you, Senator.
    As I have learned as we have gone through the fiscal year 
2017 and the 2018 budget, particularly the aviation but to some 
degree with the ground equipment, we have not funded parts and 
spares at our requisite level. You would think it would have 
been funded at 100 percent but it was funded well below that, 
in some cases at 75 percent. So if you fund readiness or parts 
and spares at 75 percent, the best you can expect is 75 percent 
readiness. You want 100 percent readiness, you've got to pay 
for the parts and spares and that costs money.
    So to Senator McCaskill's comment about F-18s, right now of 
the F-18s that we require, we have 75 ready basic aircraft, but 
of those that are on the line, 47 are short parts right today. 
Now I get parts. I can fix those airplanes. Now, they may be on 
a schedule of service.
    And I can say that same about ground equipment.
    So we are making it and we are making the ready force as 
forward deployed on the backs of our soldiers, sailors, airmen, 
and marines that are out there taking parts off one end item 
and putting it on another to get that one ready to go, so 
they've got to do all the work twice. I do not want them to 
have to do that because it takes extra work and then it goes 
back to what the CNO said. Okay, we are the top dog in this 
league and you are going to give me the parts to fix this 
stuff. And my aircrew want to fly, and the maintainers should 
not have to do the work twice.
    So we would ask your support, I think, in the proposed 
budget for 2018, and you will see some more of that in the 
supplemental is focused on continuing that. What we have 
started now is a beginning movement toward improved readiness. 
There is slight but consistent improvement. I mean, the number 
of ready basic aircraft that we have on the line is almost 90 
more than it was a year ago. It is still not where it needs to 
be. No one is declaring victory. But if we get continued 
support for high level parts and spares, we will continue to 
make progress.
    Senator Rounds. Admiral Richardson, I have kind of got the 
same question for you, and that is when it comes to spare parts 
but not just spare parts but also munitions. Do you have the 
munitions and the spare parts that you need to do your job?
    Admiral Richardson. Well, with respect to aviation, it is 
one team with the Marine Corps. It is naval aviation that we 
talk about. And so those problems that the Commandant 
highlighted--that is a naval aviation situation. And so we 
share that. And I would say that we both share also the 
shortfall in munitions. And so the budget request before the 
Congress now includes almost record level funding for parts 
funded to the maximum executable value there to restore those 
parts and then also includes funding for more munitions.
    Senator Rounds. Which munitions are you short today?
    Admiral Richardson. What we would call the preferred 
munitions. So these are precision munitions. Those are the ones 
that are most used and will be most useful in the fight, and 
then undersea weapons as well, torpedoes.
    Senator Rounds. Senator Inhofe also talked a little bit 
about depot and depot activity. I am just curious. You do 
depots particularly for aviation, and you operate them. You are 
having challenges right now because you have got a whole lot of 
F/A-18s that have got to undergo a lot of work, work that has 
not been done in the past but it needs to be done now because 
of their age.
    It seems to me that the Air Force would be challenged in 
the same way. They have got aircraft that they are putting 
hours on as well.
    Is there a formal avenue for Air Force and Navy depots to 
share information concerning best practices?
    Admiral Richardson. Sir, there is an avenue. I would have 
to check on exactly the formality of that. But we are 
collaborating and learning lessons back and forth in just about 
everything that regards aviation.
    Senator Rounds. Is there a formalized process to look at 
best practices at a depot in terms of where, one, the Navy or 
the Air Force are working and learning the best ways to do it 
and sharing systems analysis between the two?
    Admiral Richardson. There is.
    Mr. Secretary, do you want to----
    Secretary Stackley. Sir, that is clearly an opportunity 
where we can do better. It is an informal process. There is 
close dialogue right now between the systems commands, Navy, 
Marine Corps, Air Force. But when we look at the practices 
across the depots, they are very different. And so now we are 
informally pulling out the best practices. It is an opportunity 
that we have got to take advantage of and we are working on it.
    Senator Rounds. Thank you. Thank you, sir.
    My time has expired.
    Senator Reed. Thank you very much.
    On behalf of the chairman, Senator Donnelly, please.
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you all for your service.
    I appreciate the commitment you made to improving the 
mental health and resiliency of our servicemembers and 
families. I brought this up to every service and to Secretary 
Mattis earlier this week. As you may know, Congress passed the 
Sexton Act as a part of the fiscal year 2015 NDAA requiring 
every service provide a robust annual mental health assessment 
for every servicemember. It is the law.
    I have been told in the past that the Sexton Act 
requirements would be fully implemented in the Navy and Marine 
Corps by the date of October 2017. Admiral, can you confirm you 
are still on target?
    Admiral Richardson. Sir, we are still on target.
    Senator Donnelly. General, can you confirm you are still on 
target?
    General Neller. Yes, sir, to the best of my knowledge.
    Senator Donnelly. Thank you.
    General, I would also like to invite you, if you have the 
time. We have Naval Surface Warfare Center-Crane in Indiana. 
They do a lot of work for the Corps, do a lot of terrific work 
for the Corps. And if you can figure out a way to get there, we 
would love to have you.
    General Neller. Yes, sir. I will do that because the 
parents of this young man live in Dubois and I need to go back 
and see them anyway.
    Senator Donnelly. I will go with you.
    Admiral Richardson, one of the many areas of Crane's work 
that we have discussed is their contribution to the netted Navy 
vision. Can you tell us more about your current plans on that 
and what we can do to support that vision?
    Admiral Richardson. Sir, the netted Navy vision really is 
that we would provide a complete level of connectivity between 
our Navy and other joint service sensors, including maybe even 
private sector sensors, connect those through our platforms, 
our command centers, and into our payloads. Key to that will be 
making sure that we have the confidence in all of our systems 
down to the chip level that these things are free of tampering, 
that they are integral and cannot be hacked into or do not have 
any kind of a software in them. This is the type of work that 
Crane does for us, getting down to the microscopic level to 
make sure that we are getting what we pay for.
    Senator Donnelly. General, what is your biggest concern 
right now as the commander of the Corps, the biggest challenge 
that you face?
    General Neller. I think the overall readiness of the force, 
and that is more than just the material readiness and the 
airplanes, the helicopters, the tanks, the LAVs [light armored 
vehicles], the weaponry. I believe that that is fixable. My 
concern is the tempo that we are operating under. And we are 
going to get young men and women that want join and we are 
still recruiting, but for the first time, I am seeing that our 
career force, particularly our senior enlisted, are starting to 
show the effects of 15 to 16 years of war. And we need them to 
stay because they are the ones that keep this thing going, and 
then they teach the young marines that come in what right looks 
like.
    So I have some concerns about that, and part of that 
concern I think they have is then you want to see that there is 
commitment from leadership and commitment from the Nation to 
not just recognize what they have done the last 15 years but 
also to make sure that they have got the new equipment and the 
new gear and the new capabilities they need to be successful, 
if and when they have to go back and fight again.
    Senator Donnelly. Thank you.
    Admiral, what is your biggest concern right now?
    Admiral Richardson. Sir, very similar to the Commandant's, 
the current pace of operations and the relative pace of 
improvement, and the gap between that challenge and sort of the 
stable level of support that they need. And that has manifested 
itself in the major discussion we have today in terms of 
readiness. It will continue to manifest itself in the future in 
terms of modernization. And that will come back and start to 
affect our most valuable asset, which is our people where you 
have been focused like a laser on making sure we take care of 
the people. Once that happens in an all-volunteer force, that 
is very difficult to recover. It takes a long time to build a 
sergeant or a chief petty officer, and that is a difficult 
thing. If they leave, that is hard to recover.
    Senator Donnelly. The last question I would like to ask is 
just in the last few days, an Iranian naval vessel flashed a 
laser on a Marine helicopter. Have you and the Commandant 
worked out a scenario to make sure that our men and women are 
protected, that we take appropriate steps, and that we have 
this figured out in advance as to what we are going to do?
    Admiral Richardson. Yes, sir. All of those commanders in 
theater have the equipment, the rules of engagement, and the 
authorities they need to make sure that they and their teams 
are protected.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Reed. On behalf of Chairman McCain, Senator Ernst, 
please.
    Senator Ernst. Thank you very much.
    Thank you, gentlemen, for joining us today. We certainly 
appreciate your dedication and service.
    We have heard a number of points made about acquisition and 
the fact that we need to do this in a much more efficient 
manner. And, Secretary Stackley, I would like to start with 
you, sir.
    I was pleased to hear that the Navy has actually increased 
their outreach to small businesses as a way to speed up the 
failures that we have seen in the acquisition process. And our 
small businesses can provide the Department with a lot of much 
needed products. As a matter of fact, we have a very small 
company in Iowa, in small town Iowa, that provides a pump that 
is on every single Navy ship. And what additional authorities 
can we provide to the Department in order to speed up the 
acquisition process? And how do we increase the outreach that 
we have to those small businesses?
    Secretary Stackley. Yes, ma'am. Let me first start with the 
authorities. I believe we have tremendous authority already, 
and what we have got to do is become better practitioners in 
terms of using those authorities.
    Senator Ernst. And how do we do that?
    Secretary Stackley. I press on our acquisition team. It is 
like go use every authority that you have got, use the great 
weight of the government behind you to tackle some of these 
issues. Do not let, frankly, the bureaucracy become the 
problem. So I think we have authorities that we need, and we 
are not hesitant to come to you all to--frankly, it is not more 
authority that we need--unlock some of the burdens that we have 
got so we can speed up. And I know that the CNO and the 
Commandant and I with our acquisition team--we are trying to 
push the boundary. We want to be told to slow down and not the 
alternative.
    With regards to small business, this takes a lot of work 
and it is work that is well worth it. I can tell you that 
yesterday I walked into the office of the Acting Assistant 
Secretary of the Navy, side by side with the Commander of Naval 
Sea Systems Command. We were sitting down to talk to one small 
business on one matter that this small business had getting 
through a certification with the Naval Sea Systems Command.
    Driving to do this, because we are not going to win foxhole 
by foxhole in the small business arena, but I have got to train 
every acquisition manager, professional that small business is 
your best friend. We have a phrase that we use that small 
business is big business for the Department of the Navy. They 
bring innovation. They bring speed. They bring, frankly, a very 
friendly cost structure. But they are not well adept at dealing 
with the large government. So what we have got to do is tailor 
our processes for them, engage with them, make them a part of 
the team and not have them intimidated or otherwise blocked 
from entry.
    So, first, in terms of authorities, I think we are well 
equipped with authorities. We will not be hesitant to come and 
request additional authorities or relaxations of some of the 
existing language that encumbers us. And with regards to small 
business, we look for every opportunity, every forum. What I 
have got to get is every program manager, every acquisition 
professional to recognize that--it does not have to be a Boeing 
or a Lockheed or a Northrop Grumman or a General Dynamics that 
you are dealing with. You have to start to deal with the small 
businesses that bring the innovation and are so good for the 
Navy.
    Senator Ernst. Very good. I appreciate that, Secretary. So 
the takeaway I think for the committee is that you have the 
authorities you need. You need perhaps less of the regulation 
and rules, less burdensome oversight. Is that correct?
    Secretary Stackley. Yes, ma'am. What has happened over the 
decades is language has been added provision by provision, 
authorization act by authorization act telling us how to do our 
business. And what we are recognizing--I think what everybody 
is recognizing--is all of these interlocking requirements are, 
in fact, slowing us down. What we need is good order and 
discipline, but if we have too much prescriptive language in 
telling us how to do our job, it will slow us down. So we have 
got to work. We have got to tailor where we can within our 
authorities, and we have to work with you all to identify where 
we have what I would call dead language that requires us to do 
things that add no value but that do cost us time and money.
    Senator Ernst. Very good. Thank you. So peeling back some 
of those regulations will be important.
    And just very briefly, General Neller, while we are on 
acquisition, a question to you. Why is the Marine Corps just 
now beginning to look at the M-320 grenade launcher for the 
infantry when the Army has been using this for the past 8 
years? I might think that is a little bit of waste of money if 
the Army has successfully used this for a number of years in 
combat.
    General Neller. Senator, I saw that article today, and that 
is the first time personally. I mean, we talk about weapons. In 
fact, General Shrader was in my office. We talked about ammo, 
M-27, different types of weapons that we are looking at and 
trying to create as much commonality with the Army because they 
can buy in economy of scale. No one has ever come up to me and 
said, hey, the M-203 is not getting it done. We need a new 
grenade launcher. So I will have to get back to you. Clearly, 
though, if it is a better, more effective, more efficient way 
to deliver that particular munition, then we are all over it.
    Just real quick, I am way out of my lane on small business, 
but I will tell you that we talked a lot about stability of the 
budget. And every one of those big contractors out there you 
talked about is really made up, I have learned, of a bunch of 
small businesses. You know, the big guy can survive if there is 
inconsistency in the funding. That small business--they cannot 
because they've got to buy product. They've got to put on 
workers. And if there is a CR, you cannot go. That is what 
kills us because that is where our parts and spares come from 
in many cases, from these small businesses. So that is why it 
so important that we get budget stability.
    But I will get back to you and I owe you an answer on the 
grenade launcher.
    [The information follows:]

    General Neller. The Marine Corps is always interested in 
acquiring combat systems that will enable our marines to 
successfully execute their missions and dominate on the 
battlefield. I will certainly ask Headquarters Marine Corps to 
consider pushing forward on this new grenade launcher to take 
advantage of what the Army has already learned.

    Senator Ernst. Absolutely. Thank you, gentlemen.
    Yes?
    Admiral Richardson. If I could just pile on the acquisition 
piece. We are talking with industry, and those industries that 
do business both in the private sector and the government. I 
think I mentioned in my written statement it is almost like two 
worlds in terms of achieving quality and predictability. So 
just to Secretary Stackley's point, they estimate that that 
overhead costs us 20 percent. And that 20 percent impedance is 
often just too high for small business to get over. And so I 
think that we help the Navy, we help the government, we help 
the taxpayer, and we help small business by cutting through 
that. It is a significant amount.
    Senator Ernst. Thank you very much, gentlemen. I appreciate 
it.
    Senator Reed. Thank you, Senator Ernst.
    On behalf of Chairman McCain, Senator Kaine.
    Senator Kaine. Thank you.
    And thanks to all the witnesses for your testimony.
    I just have one question. It is kind of a long-term 
question that I would like you to address. And, Admiral 
Richardson, if you would be first.
    We are grappling with, in some of these hearings, the 
proposal to grow the Navy from 308 ships to 355. And I am on 
the Budget Committee too, and we have folks who are on the 
Budget Committee. We have folks who are appropriators as part 
of this committee. If you are growing the Navy to that level, 
there are other changes that you are going to be contemplating 
as well, depending upon the mixture of ships. Some of the ships 
have aviation support elements to them. So what might that mean 
for naval and marine aviation? Many of those ships have marine 
expeditionary units connected to them. What might that mean for 
the Marines and particularly end strength numbers?
    And I know you are probably early into the thinking about 
this, but let us look down the road a little bit. If we get 
over some of the concerns about sequester and we start to 
budget based on priorities instead of trimming our priorities 
to deal with budget uncertainty, as we grow to 355, what should 
we expect from you to us around additional changes like 
aviation, personnel, et cetera? And if you could each tackle 
that, that would be helpful.
    Admiral Richardson. Sir, I will be happy to start. You have 
hit the nail right on the head, sir. And the idea or the 
concept is wholeness. And so I would advocate that we do not--
as we grow the Navy, we have to grow it in balance. So 
certainly there is a fundamental role for capacity, more ships. 
But as we do that, we are going to have to make sure, to the 
point that has been very clearly made today, we buy the 
infrastructure to support those ships, the pier space, the 
power, everything they will need to dock those ships, the crews 
to man them, the parts to maintain them, the maintenance 
programs, if there is an aviation component to that, that we 
need to buy the aircraft. And so maintaining that balance as we 
grow will be absolutely critical, otherwise we will just have a 
large and potentially hollow Navy. We will need to maintain 
that wholeness.
    Senator Kaine. Secretary Stackley?
    Secretary Stackley. Yes, sir. I think the CNO captured it 
pretty well. Separately I can describe that the CBO 
[Congressional Budget Office] has put out a report that 
describes the cost for a 355-ship Navy. I think they have 
captured some of those additional costs so that we can go into 
this eyes wide open. In the near term, building that Navy you 
described going from a 308-ship Navy to a 355-ship Navy--we are 
not at that 308-ship Navy yet. So we do not get to 308 ships 
until about the 2022 time frame.
    So we are building out the infrastructure, building up the 
manpower, the things that we need to support a 308-ship Navy 
today. What we need to be doing is planning on those additional 
elements that would go as we continue to grow the size of the 
force. And it is not just about ships. It is going to be the 
aviation element. It will be the Marine Corps element.
    And when you take that 355 number and you say what is the 
difference between 308 and 355, the biggest elements are attack 
submarines, destroyers, or a cruiser replacement, one carrier, 
and then getting our amphibs up to the full complement. So 
rather than just talk about a number of 355, you start to look 
at those specific elements. What do we need to grow that 
capability, and what are we going to do in the interim because 
it is going to take a while to get there.
    Senator Kaine. General Neller, how about the Marines' not 
just platforms but some of the personnel that might be involved 
in growing at that level?
    General Neller. Senator, as the Secretary said, the 
majority of the growth is going to be--we get to 38 amphib 
ships. We are doing things with Marine forces now on land that 
we would prefer to be doing from the sea. So I think at our 
structure now, we could support the manning. There are some 
other things. We put combat cargo----
    Senator Kaine. So you might shift some land-based----
    General Neller. We would take people from doing things they 
are doing now. Then we would take advantage of the ships.
    Now, I will also tell you, though, that there are other 
things, as the Secretary and the CNO said. You know, every 
amphib ship--I mean, I've got to put marines on there. I've got 
to put Marine aviation on there. I've got to put Marine combat 
cargo personnel on there. But I have also got to have LCACs 
[landing craft air cushions] and LCUs [landing craft 
utilities]. I've got to have those surface connectors. And you 
look in the budget. That is something that is in the 
supplemental. That is a program. It is not a lot of money. But 
those connectors allow us to do the job and to go from over the 
horizon to put that force ashore, to exchange forces at sea at 
the sea base. So the connectors are something that would 
probably have to be grown, and certainly we would not get there 
if we do not fund the current program that we have.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses.
    Senator Reed. Thank you.
    On behalf of Chairman McCain, Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your service and testimony.
    Last year around this time, we had done essentially what 
the Joint Chiefs had requested of the Congress. Our 
Appropriations Committee moved a defense appropriations bill 
out of committee--it was very bipartisan, I think only one 
dissenting Senator--on to the Senate floor. Last summer, we 
moved to vote on it, and unfortunately it was filibustered. So 
we went to the usual playbook of a CR [continuing resolution], 
omnibus at the end.
    A number of us want to try and do that again, not 
filibuster it, but get a no-kidding budget out on the floor, 
voted on. Would that be your preferred course for the men and 
women in the military that we do that? Admiral?
    Admiral Richardson. Yes, sir, by far the preferred course 
to pass the budget using normal procedures.
    Senator Sullivan. General?
    General Neller. Yes, sir.
    Senator Sullivan. Mr. Secretary?
    Secretary Stackley. I would say it is the only acceptable 
course, sir.
    Senator Sullivan. Well, we are going to try and do that. 
And hopefully there will not be another filibuster and 
hopefully there will not be another continuing resolution. That 
is what we should be doing. It is good to hear that that is 
exactly what you want and the other courses of action are not 
helpful to our troops. Is that not correct? You are all 
nodding.
    Admiral Richardson. Yes, sir.
    Secretary Stackley. Yes, sir.
    General Neller. Senator, I think that would go back to 
reinforce what the CNO said. I think it would restore 
confidence in the rank and file of all men and women in the 
Armed Forces that they understand that what is happening in 
this city, they get it that we get it, and----
    Senator Sullivan. And they are watching. Like that 
filibuster last year, people said, oh, nobody saw that. The 
troops saw that.
    Admiral Richardson. You would be amazed, sir, at how 
insightful and tuned in your sailors and marines and soldiers 
are. They are watching this closely. The Commandant and I both 
get out around the world to talk to forward-deployed forces. At 
an all-hands call, a junior sailor will stand up and ask these 
questions. This is the sense that we do not get it that is 
arising. So I fully support that, sir.
    Senator Sullivan. Thank you.
    I wanted to just mention, you know, a number of us, the 
chairman, myself have been working with the service chiefs and 
DOD on the importance of the Pacific laydown of our forces, the 
Marines, the Navy, the Air Force. As the chairman said, we need 
to get this right. We need to make this strategic not tactical. 
If we do not get it right, we are going to be paying for it for 
the next 50 years. I have talked to Secretary Mattis about 
this.
    I just want to mention we look forward to working with you 
because I do believe it needs to be military, executive branch, 
and this committee and the Congress to make sure we get that 
right. So I just want to mention I look forward to continuing 
to working with you, the other service chiefs, and OSD [the 
Office of the Secretary of Defense] on this important 
initiative to getting our Pacific forces laydown correct 
because a lot of us do not think it is optimized right now. It, 
in some way, has been static for decades, and we want to work 
with you on that.
    Admiral Richardson, I want to talk a little bit about the 
Arctic. The Department of Defense in January this year came out 
with a new Arctic strategy. It was directed by this committee 
and the Congress. It is much better than the old one. It talks 
about FONOPS [Freedom of Navigation Operations], opening sea 
lanes, and lines of communication and commerce, transportation, 
protecting the sovereignty of the Arctic, the resources 
particularly as countries like Russia and China continue to 
build up forces and capabilities in the region.
    I read the Arctic's 2014 road map put out by the Navy, the 
Navy's Arctic road map. As we pursue 300 to 355 ships, in this 
strategy it talked about the importance of looking at ice 
hardening some of these ships. What ships would you see we 
would need to look at ice hardening? And do you believe this 
Arctic strategy needs to be updated now that the Secretary of 
Defense has put out a much more robust strategy that was 
directed by this committee?
    Admiral Richardson. Sir, I think that the answer to all 
your questions is precisely the effort that we are undertaking 
this summer as we refresh our strategy in light of the national 
defense strategy review that we are doing.
    Senator Sullivan. So are you going to update this strategy?
    Admiral Richardson. We will update that strategy, yes, sir.
    Senator Sullivan. And in terms of ice hardening ships, we 
have a 355-ship fleet that we are looking at.
    Admiral Richardson. Right.
    Senator Sullivan. What kind of ships would you believe we 
need to ice harden so we can conduct the kind of FONOPS that 
the current strategy lays out but, to be perfectly blunt, we do 
not have the capability to do it?
    Admiral Richardson. It is absolutely true, we do not. We do 
not have the capacity or the capability. And so I owe you those 
answers as an output of the strategic review, sir. I do not 
want to give you a guess right now, but it would be those types 
of ships that would have decisive impact.
    Senator Sullivan. And one final question. During your 
confirmation hearing, you mentioned the importance of working 
with the Coast Guard to cut through the red tape to work on 
upgrading and building out an icebreaker fleet. Right now, we 
have two icebreakers. One is broken. The Russians have 40. They 
are building 13 more. They are controlling what General Mattis 
called strategic terrain of the Arctic. Have you made any 
progress with the Coast Guard on that?
    Admiral Richardson. We have made some progress. We have 
formalized our arrangements in terms of acquiring icebreakers. 
We have set up an office to get started on that. We are looking 
at now the requirements for that icebreaker. We are bringing 
all of our shipbuilding expertise to make sure that we support 
the Coast Guard in executing their mission. And so we have made 
some good progress this year.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Should an icebreaker cost $1 
billion, Admiral?
    Admiral Richardson. Sir, it does not seem that way, but we 
are working with the Coast Guard to review that.
    Senator Sullivan. And take 10 years to make?
    Admiral Richardson. Sir, it goes back to you need to get 
faster in acquisition.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Welcome, all of you, and thank you for your extraordinary 
service.
    General Neller, can you give us an update on the progress 
that you have made with the Marines United misconduct?
    General Neller. Well, Senator, since I last appeared in 
front of this committee, we had a number of initiatives we have 
taken. We formed a task force of a number of marines, men and 
women, who gave us more insight into this. We have worked with 
NCIS [Naval Criminal Investigative Service]. They have gone 
through literally thousands and thousands of pictures, looking 
for individuals they could identify. We have had people come 
forward. There were eventually 65 subjects. Fifty-nine were 
sent to commands for disposition. Many of them--there was not 
sufficient evidence to forward them. To date, there were 33 
dispositions. The rest are still under investigation, resulting 
in one administrative separation, five NJPs [non-judicial 
punishments], 20 adverse administrative actions, and no action. 
There were also two other NJPs, and there is one pending a 
court martial.
    So we have not stopped. We have required every marine to 
sign an administrative acknowledgement that they understand 
what their responsibilities are on social media and that 
actions that would degrade, defame, be derogatory, discrediting 
to another marine or to the institution make them potentially 
subject to the Uniform Code of Military Justice. I know that 
the Congress has worked and we are working with the Congress on 
certain legislation about the use of someone else's picture on 
social media without their permission. I have gone personally, 
as all of my leaders have gone, and spoken to literally tens of 
thousands of marines and made them understand what their 
responsibilities are.
    And more importantly, I think--and I have said this 
publicly and I will say it here in front of this committee--the 
social media things that we have seen have been--were just 
indicative of a problem with our culture that we did not 
properly respect or value the contributions of women in our 
Corps. And that is the problem we have to fix.
    Senator Gillibrand. So out of the 65 subjects, none have 
been court martialed?
    General Neller. One is pending, ma'am.
    Senator Gillibrand. And what does that mean?
    General Neller. That they are in the process of getting the 
article 32 and whether they will end up going to a court 
martial.
    Senator Gillibrand. And were any of the people--were any of 
the 65 subjects commanders?
    General Neller. Not to my knowledge, but I would have to 
take that for the record and get back to you.
    [The information follows:]

    General Neller. No, none of the 65 subjects were commanders. Judge 
Advocate Division (JAD) reviewed all reports that have been input into 
the DASH system since the beginning of the Marines United scandal. No 
commander has been the subject of a complaint. JAD also confirmed this 
information with the Equal Opportunity and Diversity Management Branch 
(MPE) in Manpower and Reserve Affairs. JAD and MPE work together to 
track reported cases of social media misconduct.

    Senator Gillibrand. I am concerned that for those who were 
found to have been--are being held responsible that you chose 
NJPs. Why did that happen?
    General Neller. In going through this process, it became 
apparent to me and the leadership that there was some 
perception that there were not certain actions that commanders 
could take. And you know that I cannot prescribe an action to 
be taken by a commander because that would be considered undue 
command influence. But we have made it clear and we have given 
commanders a guidebook as part of this process. These are your 
options. These are the things you can do based on your 
investigation. The one thing you cannot do is nothing. You have 
to investigate this and come to some conclusion.
    So this is not over. This is not going to end. And we have 
tried to set this up, myself, the Assistant Commandant, the 
Sergeant Major, where this education process, changing our 
culture, task the human talent management, the things that we 
are doing with it for diversity in the force are going to go 
forward as we try to change the culture.
    But as far as specific actions against specific people, I 
have to be careful and I allow commanders to take their 
responsibilities as command and we follow through on these 
things and make sure there is going to be some adjudication, 
just like I can tell you any allegation of sexual assault made 
in the Marine Corps--I can tell you exactly how every single 
one of those allegations, whether substantiated or not--how 
they ended up and where they were adjudicated at.
    Senator Gillibrand. Well, I am concerned about it because 
our percentage of cases going to court martial are going down. 
Our percentages of convictions are going down. So I am very 
concerned about the judgment of the commanders when they make 
these judgments that they are not taking these crimes seriously 
enough. I mean, I am very troubled that they chose to do NJP 
instead of taking these cases to court martial. It is not an 
example of having no evidence. You know which photos are 
posted. You know where they came from. There are evidentiary 
trails to be made. So I would not say that it is likely that 
these are cases where they just could not prove their case. I 
think it sends the wrong message. If you are not taking these 
crimes seriously as an enormous disruption of good order and 
discipline, I fear that it is not going to change behavior.
    General Neller. Senator, I understand your concern. On the 
court martial I would tell you that the Marine Corps, with 
regard to sexual assault, has the highest number of cases or 
percentage of cases taken to court martial and convictions. On 
this particular social media, again, we are still in the 
process. This is not over and we will see what happens. But I 
understand your concern, and I will get back to you as we 
further progress in this process.
    Secretary Stackley. Ma'am, if I could just add one comment. 
I have been separately reviewing these side by side with the 
CNO and the Commandant. And one thing that we collectively came 
to agreement on was we need to strengthen our regulations to 
give commanders greater options and ability to prosecute 
deeper. And so we have put out an interim change to naval 
regulations that would give them greater authority to prosecute 
these cases going forward.
    And at the same time, I know that Congress is looking at an 
act that would strengthen our case. And I would ask that our 
general counsel and JAG [Judge Advocate General] continue to 
work with Members, both on the Senate and the House side, to 
ensure that it has the teeth that we are looking for so that we 
can prosecute these individuals.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    And to each of our witnesses today, thank you for your 
service and your testimony today.
    Senior leaders have stated that the littoral combat ship is 
one of the Navy's most capable platforms. The LCS continues to 
meet stated Navy requirements and operational demands--it is my 
understanding from both combat commanders--and helps us achieve 
a goal of a global presence to reassure our allies, deter our 
adversaries, and ensure our peace, freedom of navigation, and 
international maritime commerce.
    In addition, because the LCS closes critical capability 
gaps that exist in today's fleet, the continuation of the LCS 
program will also enhance the Navy's warfighting posture.
    And these are reasons that I have often looked to to 
continue to support the LCS program and was pleased to hear the 
administration has requested a second LCS in the fiscal year 
2018 budget request.
    Admiral Richardson, could you describe the Navy's 
requirement for small surface combatants and whether the budget 
request for two LCS allows the Navy to meet that requirement?
    Admiral Richardson. Sir, we are committed to making the LCS 
program as capable as possible. We are working through the 
engineering and reliability issues that we saw with the first 
few ships. We have a stated requirement for 52 small surface 
combatants, and LCSs contribute to that requirement.
    Senator Peters. Thank you.
    And, Secretary Stackley, you have previously testified 
about the importance of maintaining active shipyards and 
uniquely skilled workforce, including the need to avoid, I 
believe, ``the sawtooth effect of hiring and firing at 
shipyards.'' The Navy says it wants to ensure continued 
production of the LCS and the frigate. Could you please explain 
what that means? And is one ship through a yard every other 
year enough?
    Secretary Stackley. Yes, sir. Right now, we are 
establishing a full and open competition for the frigate in 
2020, and both of our LCS builders are strong competitors for 
that future frigate. So we want to ensure that they are a 
healthy competitor and they maintain their viability in the 
interim.
    You described one ship every other year per shipbuilder. 
When we submitted the budget, the budget that is on the Hill 
reflects one ship in 2018. Congress added one ship in 2017. So 
our strategy at the time was we would take the three ships in 
2017, combined with one in 2018, to ensure that each of the 
builders has a ship in 2017 and 2018 while we continue to look 
at 2019 and what unfolds in the industrial base in the interim.
    That is being revisited with regard to--there is a minimum 
sustaining rate, which would be one per year, and then there is 
the what we refer to as optimum or economic rate, which is the 
three ships every 2 years per builder.
    So we are straddling those numbers and the decision was to 
add another ship in 2018, and that amended budget submit is 
pending.
    Senator Peters. Thank you.
    I would like to talk a little bit about the future of 
warfare as we look out in the next 10 years and how it will 
change dramatically. I recently met with the leadership from 
the Army Capabilities Integration Center, and we discussed what 
the future battlefield will look like and the pros and cons of 
autonomous vehicles, artificial intelligence, all of these new 
cutting-edge technologies that will create opportunities but 
also some tremendous challenges for us to meet.
    So my question is, both Admiral Richardson and General 
Neller, just a broad question. How do you envision robotics and 
autonomous technology transforming both sea and amphibious 
warfare? And, General Neller, I read recently in ``Seapower'' 
about a technology demonstration at Camp Pendleton which showed 
off some futuristic applications, including drones, robots, 
mobile networks, autonomous systems, unmanned underwater craft, 
unmanned boats that can swarm, some pretty interesting things 
that you are working with in the Marine Corps. If you could 
elaborate on that for me, please. And then, Admiral Richardson, 
if you would follow up.
    General Neller. Senator, I think there is huge, huge 
opportunity here with robotics and artificial intelligence. At 
the same time, I think there is some risk. I know right now 
that we could probably have an autonomously driven vehicle, but 
then if I have that vehicle in a convoy, who is going to 
operate a weapon system on that? If that vehicle breaks down 
and has a flat tire, who is going to fix that flat tire? 
Because I have got no driver. I cannot autonomously fix a flat 
tire. The same thing with any vehicle. You start to take 
advantage of technology and you reduce the number of crew. 
Then, okay, somebody has got to fight the fire on the ship. 
Somebody has got to pull security while you repair the vehicle. 
Somebody has got to man the weapon system while somebody 
sleeps. So there are these trades. So I think that is what we 
are struggling with.
    The things we saw in California--there were a number of 
vendors out there, a lot of small businesses, a lot of people 
who have a lot of ideas that took certain things that we think 
have promise. There were about four or five of them that we are 
going to continue to work with and see if we can turn them into 
programs. And I have to get caught up in the acquisition matrix 
where it slows us down.
    So I think there is a lot of there there, whether it be 
unmanned aircraft. One of my highest priorities is to create a 
group, four or five, unmanned aircraft that can take off and 
land from the deck of a ship and to use that to replace attack 
helicopters. So I think that is something that has got to 
happen because we do not want to be tied to a long runway. We 
want to be able to come from the sea.
    So all those things. You pick an area. Whether it is under 
sea, on the land, in the air, there is a lot of opportunity 
there and we continue to work with both our marines and our 
sailors and industry to try to take advantage.
    Admiral Richardson. Sir, I will pile on and say not only 
unmanned but autonomous--I think that there are a number of 
uses. And we are pursuing with aggression unmanned undersea, 
unmanned surface, and unmanned aircraft.
    I would say in addition to unmanned and related to autonomy 
is this idea of information warfare and the role of information 
in whether it is cyber, space, or whatever. That is going to be 
a decisive difference, and so we have stood up the Digital 
Warfare Office to unite our efforts across the Navy to give us 
a coherent approach to information warfare as it pertains to 
the future of naval combat.
    Senator Peters. Thank you very much. Appreciate it.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    And thank you to our witnesses for being here.
    I heard Senator Gillibrand earlier mention the problem of 
sexual harassment online and the problem with the loophole in 
the law. Senator Sullivan and I have an amendment to close that 
loophole, and I just want to say thank you very much, Mr. 
Secretary and General Neller, for supporting that. I think we 
could make an important difference here.
    I want to quickly ask about the importance of our non-
military agencies and programs to the Navy mission. Admiral 
Richardson, would a significant reduction in funding to the 
State Department and other non-defense security agencies and 
programs make the Navy's job easier or harder to do?
    Admiral Richardson. Harder, to be blunt about it, ma'am.
    Senator Warren. I will take blunt.
    Admiral Richardson. So the lack of diplomacy and those 
sorts of other elements of national power--if those are not 
there, it makes our mission harder.
    Senator Warren. Thank you very much. I appreciate that. I 
have asked every combatant commander basically the same 
question and gotten pretty much the same answer over and over. 
And I think it is really important.
    Now, Admiral Richardson, we spend of lot of time in this 
committee talking about how many ships you need. Last year, the 
Navy conducted its own assessment and determined that the 
number was 355. But as you recently reminded us in your paper, 
``The Future Navy,'' not all ships are created equal, and 
actually some have better technology, better upgraded 
capabilities. In fact, you said that even a 355-ship Navy using 
current technology is insufficient. Admiral, can you just say a 
word more about what that means and what kind of technology you 
think the fleet is lacking?
    Admiral Richardson. First, ma'am, if I could, it was not 
just our assessments, but there is a family of assessments out 
there that talk about the size of the Navy, the future of the 
Navy, and they all converge around the mid-300s in terms of 
number of platforms. So we feel that we are on pretty solid 
ground there.
    My point was, though, that if we just continue to build 
more of the Navy we have today, that will be insufficient to be 
superior and to meet our Nation's needs in the future. And so 
not only do we have to increase capacity, but the capability of 
those platforms each has to be increased. And then, as we 
talked about, networking them together, that combined 
capability, the ability adapt and combine differently through a 
network also has to be pursued.
    Senator Warren. Right, and that makes a lot of sense to me 
that we need to be building with an eye toward the technologies 
of the future and what will give us a competitive advantage 
there.
    In the same paper, you talk about a modular approach where 
the hull of the ship is built to last for decades, but the 
sensors and systems on board can be swapped out as technology 
advances. And it seems to me that makes a lot of sense because 
we keep what still works and we upgrade the parts that do not. 
But that sure is not how we are building ships today.
    Secretary Stackley, given your prior acquisition 
experience, what changes do you think we would need to make to 
our acquisition system in order to achieve Admiral Richardson's 
vision?
    Secretary Stackley. Yes, ma'am. First, I describe that we 
are on that path. The fundamental first thing that we have got 
to do is move across the board to what we refer to as open 
systems architecture so that we are not tied to a design that 
is effectively owned by whoever the original equipment 
manufacturer was, and then we are tied to that organization to 
upgrade our ships. In an open systems design, we would be able 
to bring all of industry to bear to tackle our capability needs 
and that same design would foster a modernization approach that 
is timely and affordable. So step one is open systems 
architecture.
    Step two is we, the government, have to have access to both 
the intellectual property and the data rights, but we have to 
know what we are going to do with that so that we can upgrade 
along the way.
    But a third, critical part, which is not so much about 
acquisition, more about the way we do business, is a tighter 
link between our intel communities and our technical community 
so that we are looking far enough ahead to understand where is 
the threat going and we can technically get there faster. And 
what we want to do is we want to move at the speed of 
technology, not the speed of administration. So the question 
that we have to be continually asking ourselves is when will 
technology allow us to get us there and then drive, drive, 
drive in that direction and not let the process control our 
speed.
    And then the last--it is in line with the authorization act 
from 2017--is greater access to commercial. So you all have 
given us the ability to use alternate approaches to acquisition 
and emphasized the need to go greater commercial. We cannot 
carry the development bill on our backs. We have to look at 
where is commercial technology going and design our ships in 
this open systems approach so we can leverage that development 
on the commercial side to help our warfighting problems.
    Senator Warren. Thank you.
    I am going to try to stay close to my time limit and just 
say I am going to submit some questions for the record about 
the progress you are making toward that and also about the 
budget on research. And I will put those in the record.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you.
    Secretary Stackley, Senator Reed asked you earlier about 
the catapult issue, and you indicated that the Navy is fixing 
the problem. Can you confirm that the first Ford-class carrier 
will be ready for operations in 2020 with the first deployment 
in 2022?
    Secretary Stackley. Yes, sir. That is exactly the schedule. 
We are on path of that schedule. With specific regards to the 
electromagnetic aircraft launching system, that land-based 
testing associated aircraft by aircraft is taking place as we 
move forward, and the first launch and recovery of aircraft to 
test the shipboard system is targeted for August. And then what 
we will do is we will march through each type model series 
aircraft well in advance of the 2020 timeframe.
    Senator Wicker. So problems, yes, but it is not going to 
slow you down.
    Secretary Stackley. Correct.
    Senator Wicker. In terms of the deployment goal.
    Admiral Richardson, in January of this year, I understand 
that for the first time since World War II, there were no 
aircraft carriers deployed anywhere, none of ours. Is that 
correct?
    Admiral Richardson. There was a time earlier this year when 
we had nobody on deployment. It was a very short period of 
time.
    Senator Wicker. Well, how long of a period of time was it?
    Admiral Richardson. Like a week or something.
    Senator Wicker. How many aircraft carriers do we have?
    Admiral Richardson. We have 10 aircraft carriers right now.
    Senator Wicker. And so what was the reason for that? 
Obviously, that is unusual. What happened there?
    Admiral Richardson. A lot of it was just a matter of 
scheduling, and we have a number of aircraft carriers in 
maintenance. And so it is just the ratio of the demands to the 
supply and adhering to our OPTEMPO requirements.
    Senator Wicker. So nothing to be concerned about, not 
noteworthy.
    Admiral Richardson. Sir, this is the road to 355. That is 
the major concern is that we avoid these types of problems 
going forward, that our Navy is big enough and capable enough 
to meet all of those demands.
    Senator Wicker. So if I mentioned that on the floor later 
on today, that would be a good point to make. Is that right, 
sir?
    Admiral Richardson. That we need a larger Navy? Yes, sir.
    Senator Wicker. Now, Secretary Stackley, let me ask you 
about the V-22 and the DDG destroyers and the Virginia-class 
submarines and multiyear authority. I asked Secretary Mattis 
Tuesday about these three multiyears, and he told this 
committee there is no doubt they could save money. And he 
committed to helping us in this regard, particularly with the 
Office of Cost Assessment and Program Evaluation, or CAPE.
    What are your views on this, and can you help us in this 
regard?
    Secretary Stackley. Well, absolutely the multiyears will 
save money. That is our big push for why we want get those 
across. And with regards to the CAPE's assessment that goes 
with this budget submission, we have their assurances. I have 
seen the letters that are coming over to the Hill today to meet 
your timelines.
    Senator Wicker. So there will be letters coming over today 
for a preliminary assessment.
    Secretary Stackley. Yes, sir.
    Senator Wicker. That is excellent news. Thank you very 
much. I did not know that until now. So that is a positive 
development.
    One more thing. Secretary Stackley, on page 11 of your 
testimony, you describe two types of unmanned underwater 
vehicles (UUV), a large and an extra large UUV. Will these 
large and extra large UUVs count as ships toward the 355-ship 
goal? Why or why not? Is an intelligence assessment the limit 
of the capability of these proposed systems, and how far away 
are we from having these types of capabilities?
    Secretary Stackley. Let me first describe that we are not 
planning on counting these in our 355. They are not inside the 
355-ship force structure assessment that the CNO has 
accomplished. However, I think he has also been clear in this 
future fleet plan to describe how we have to leverage these 
capabilities because it is going to take us decades to get to 
355 ships. But these capabilities are within our reach today, 
and they do a great job in terms of filling gaps that we have 
today with our smaller size Navy and they do missions that we 
cannot do with our submarines and our surface ships. So, no, 
they do not add to the 355.
    In terms of level of maturity, I was just out on the West 
Coast a few weeks ago looking at an example of an XLUUV, 
extremely impressive capability, fairly mature technology. Now 
what we have to do is explore how we would employ such vehicle 
inside of our concept of operations and what that means in 
terms of installing capabilities on board. Right now, it is a 
platform without specific capabilities. We have to decide what 
mission, and then the installation of those.
    Senator Wicker. Do you anticipate capabilities beyond 
intelligence assessment?
    Secretary Stackley. Yes, sir. I think we are already 
working on--I think the CNO should probably answer that, but I 
think we are already working on concept of operations that go 
along that line.
    Senator Wicker. Mr. Chairman, if the CNO could respond 
briefly.
    Admiral Richardson. Sir, we could see them delivering 
payloads to different areas. The access that an undersea 
vehicle give is something--that, combined with underwater 
payload, you can conceive of a whole number of missions in 
terms of what those things can deliver well beyond 
intelligence.
    Senator Wicker. How soon?
    Admiral Richardson. How soon for?
    Senator Wicker. Might we have that?
    Admiral Richardson. We are pushing as hard as we can. I am 
looking for something in the next few years.
    Senator Wicker. Less than a decade?
    Admiral Richardson. Far less than a decade.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Mr. Chairman, thank you very much.
    Following up on this last point about the multiyear, I am 
totally in favor of multiyear contracts. It stabilizes the 
industrial base, saves the taxpayers money. I think it is a 
very sensible way to go. But, Admiral Richardson, you testified 
a few minutes ago moving into construction before you have a 
mature design is a recipe for disaster. And that has been my 
judgment from all these hearings we have had, whatever the 
weapon system is.
    My only concern about a multiyear on the flight III 
destroyers is whether we have a mature design. CRS 
[Congressional Research Service] says that a stable design is 
generally demonstrated by having built at least one ship to 
that design and concluding, through testing and operation, that 
the design does not require any substantial change during the 
contract.
    So that is what worries me about the multiyear on the new 
flight III destroyer. Admiral Richardson, if you have any 
thoughts on that. I just want to be careful. It is not a 
question of doing it. It is a question of when we do it in 
terms of the maturity of the design.
    Admiral Richardson. Yes, sir. I will start and Secretary 
Stackley can finish.
    That is a very mature design. First, it is a modification 
to an existing design. It is not a clean sheet design. We are 
at a very mature point in terms of the design aspects of that 
flight III destroyer.
    Secretary Stackley. If I could add. We measure various 
metrics and things, and the first thing you look for is that 
you complete a critical design review before you go into the 
contracting phase. And in fact, the critical design review for 
the flight III was completed last November.
    The next thing that we have been focused on is level 
completion of design, and today the flight III design is about 
86 percent complete and everything is on track for it to be 100 
percent complete prior to start of construction.
    Senator King. That would be 100 percent complete prior to 
bidding or prior to start of construction?
    Secretary Stackley. Prior to start of construction.
    Senator King. Well, those are two different things. It is 
hard to bid on something that is not fully designed.
    Secretary Stackley. Sir, I would tell you that we have 
never been in a position where we bid on a new ship program of 
any sort where it is a totally complete design.
    Design is broken down into different phases. So the phase 
of design that is necessary for the shipbuilders to complete 
their bid will be done. The next phases that they will press 
into are the details associated with taking this design and 
breaking it down to the design products that the mechanic on 
the factory floor needs.
    Senator King. When do you under this scenario--you say the 
letters are coming over today. When would you assume going 
through the steps that bids would be submitted?
    Secretary Stackley. For the multiyear?
    Senator King. Correct.
    Secretary Stackley. I would expect probably within 6 
months.
    Senator King. Within 6 months of now, by the end of this 
year. Is that what you are suggesting?
    Secretary Stackley. Yes, sir.
    Senator King. And by that time, you are presuming we would 
be beyond event the 86 percent design.
    Secretary Stackley. Yes, sir.
    Now, I would describe--I would use some other shipbuilding 
programs as examples. The Columbia program that is our number 
one priority that we are totally focused on--we were on this 
design for 10 years prior to contract award--her target is 83 
percent complete design at start of construction because she is 
a new ship design. So that is at start of construction.
    We are looking at 100 percent at start of construction and 
greater than 83 percent when they submit the bids. And the most 
recent new ship program that was competed was the Coast Guard 
offshore patrol craft, and the point in time when industry 
submitted their competitive bids for about a $2 billion-plus 
program, they were maybe 50 percent complete.
    Senator King. And I would say we do not know the outcome of 
that yet. That ship has not been built.
    Secretary Stackley. Yes, sir.
    Senator King. So we do not know where that is going.
    Let me change the subject. First, Secretary Stackley, I 
want to compliment you on the testimony you gave about small 
businesses. You are absolutely right. We had some appalling 
testimony here 2 or 3 months ago from representatives of the 
technology industry who said that the smaller Silicon Valley 
companies will not even bid. They do not want to get involved 
with the Pentagon because it is too complicated and too 
burdensome. So anything you can do to clear the way for many of 
these small, innovative companies in terms of regulations, 
time, forms, paperwork I think is to be commended.
    Secretary Stackley. I would just add two things. One, we 
have assigned every deputy program manager across the 
Department of the Navy as the small business advocate for all 
their program responsibilities. And I will give you one 
example. I got an email from a small business the other day who 
described how he can save $40 million on our carrier program, 
and the problems that he was having matching up with, as the 
CNO described, the impedance mismatch with the large 
government. So I have taken his notion. I put him side by side 
with the deputy for shipbuilding working the carrier program to 
break that logjam free. It does require that level of effort, 
but the savings, the opportunities are huge.
    Senator King. Excellent. I really appreciate it.
    Mr. Chairman, could I ask one follow-up question?
    A lot of the testimony today I think has rightfully focused 
on not only the 355-ship Navy but the deployability, if you 
will, of the Navy we have. And I would appreciate it, for the 
record--and this may exist in various documents, but it would 
be nice to see it in one document--of what is the percentage of 
readiness of all of the equipment. For example, General Neller, 
you mentioned there are 47 out of 70 F-18s that are lacking 
parts. I would like to know what that figure is for destroyers, 
amphibs, submarines.
    In other words, it does not matter what the nominal Navy 
is. The real question is what ships do we have that are ready 
to fight. And I would like to see an analysis--God forbid there 
was a two-front attack or the major problems we are 
anticipating or preparing for. If it occurred tomorrow, how 
much of the fleet and the personnel are trained and equipped, 
all of those things so we can compare, as I say the nominal 
Navy with the ready-to-fight Navy.
    Admiral Richardson. Senator, we track that, and I will get 
on your calendar and we will walk you through that.
    Senator King. I would very much appreciate that. I think 
that is important. I just think we need to fully understand 
that. And I commend you for focusing in this budget on these 
issues of getting a higher level of maintenance and repair.
    General Neller, one final question. You have 185,000 as 
your end strength, but that is at a one-to-two dwell-to-
deployment. That seems to be a high stress level on your 
people. Talk to me about the deployment-dwell ratio.
    General Neller. Senator, at 185,000, in the aggregate it is 
about one-to-two. There are some communities that are below 
that, harder than that. There are some that are better. When I 
came in the Marine Corps in the 1980s, we were a one-to-three 
force. That is the long-term sustainable I think not just for 
the maintenance of our gear and the training of our force but 
also for our families. So we have been at one-to-two. We can 
continue to sustain it, but I think now we are seeing both the 
effects on retention of senior career marines and on the wear 
and tear on the gear because if you are turning stuff a third 
faster, you are going to put more miles and hours on the stuff.
    Senator King. And if retention goes down, that is going to 
cost the taxpayers a lot of money.
    General Neller. Then so now you have to--if you cannot 
retain your experienced middle management and you have got to 
do more maintenance on gear that is already older, you start to 
get in a spiral, and then now we find ourselves where we are. 
And we are starting to dig ourselves out, but it is going to 
take time and it is going to take resources and stability in 
the budget.
    Senator King. Thank you. Thank you very much, gentlemen.
    Senator Reed [presiding]. Senator Perdue, please.
    Senator Perdue. Thank you, Chair.
    First, I want to apologize, Admiral and General Neller. I 
have only been here 2 years, but I want to apologize to you. 
Congress has defrauded the American people. And worse, it has 
defrauded in my opinion the men and women in uniform for the 
last 43 years. In the last 43 years, our budget process has 
only funded the Federal Government four times. One hundred 
seventy-eight CRs have been used in those 43 years, and the 
last time we funded the Federal Government fully was before 
1980. We have 25 work days in the United States Senate between 
now and the end of this fiscal year. Twenty-five. There is no 
chance that we are going to fund this Federal Government the 
way that budget law in 1974 prescribes that would allow us to 
debate and fully fund our military. This has got to stop. I 
want to apologize for that.
    I want to move to my question.
    Just know there are some people working to try to change 
that. I would tell you I've got your back and others have, but 
I do not know that yet because this is such an institutional 
dysfunction, and it puts our men and women at risk. It puts the 
future of this country at risk because it endangers it. We have 
talked nothing but dollars and cents today. If you had the 
money, it would not be a problem. We have got the innovation, 
the technology, the capital. It does not matter. We could 
defend our country. We are not giving you the money you need. I 
have a question about that.
    In the world, Admiral, there are about 400 submarines 
totally in the world. Is that directionally correct?
    Admiral Richardson. That sounds about right, yes, sir.
    Senator Perdue. In the Asia-Pacific, Admiral Harris tells 
there are about 230 of those are in the Asia-Pacific region, 
including the Indian Ocean as well. How many submarines do we 
have allocated to the Pacific right now--attack submarines, not 
the boomers, just the attack submarines.
    Admiral Richardson. On a neighborhood of 30.
    Senator Perdue. A little less than 30. Right? That is what 
Admiral Harris--he confirmed that.
    And our plan in 2020, say, the next 10 to 15 years--we have 
52 attack submarines in our inventory today. Our plan in the 
Navy is taking that down to 42. So we basically have 30 attack 
submarines trying to keep up with over 200 submarines in that 
area. And 160 of those, by the way, of the 230 are China, 
Russia, and North Korea.
    Sir, how are we going to mitigate that? And give us some 
confidence that those 30 boats are going to be able to protect 
us in the Pacific.
    Admiral Richardson. Sir, we are going to mitigate that in 
every way we can. That will be a combination of some of the 
unmanned undersea vehicles that we talked about. That will 
help. We are looking to increase production of submarines. And 
so the addition of the submarine in 2021 was one step in that 
direction. We are looking to see what the industrial base can 
bear with respect to taking that even higher. We are looking at 
life extensions of the current submarines. So it will help us 
through that trough. But I tell you we will be below 
requirements. The new requirement is 66 submarines.
    Senator Perdue. That is part of the 355----
    Admiral Richardson. Yes, sir.
    Senator Perdue.--long-term plan, 30-year plan. I think the 
number that CBO estimates is $26 billion a year--Secretary, is 
that right--for the next 30 years. That is $800 billion on 
those.
    Secretary Stackley. Yes, sir.
    Senator Perdue. And we do not have a capital budget in the 
Federal Government. That is one of the problems. We do this on 
cash flow year to year to year. That is the biggest problem I 
have found coming from the business world. You are buying 
multi-million dollar--billion dollar platforms. One of the 
SSBNs is what? Ten billion dollars a copy I think. Is that not 
about correct, Admiral? The SSBN, the new Columbia-class?
    Admiral Richardson. We are looking at a per unit cost about 
half that.
    Senator Perdue. That is good news.
    But we are trying to replace 14 Ohio-class with 12 
Columbia-class. What period of time is that projected over? And 
is that still in your current thinking, the current plan?
    Admiral Richardson. Yes, sir. And there is good engineering 
logic behind that. By virtue of putting a life-of-the-ship core 
into one of those SSBNs, we eliminate the need for a long 
midlife refueling overhaul. And so we get more operational 
availability of that submarine. That allows us to cover down on 
the same mission in the strategic triad with----
    Senator Perdue. By the time we get to commissioning those 
12 Columbia-class, how far past the useful life will the Ohio-
class submarines be? In other words, what kind of gap----
    Admiral Richardson. There is zero margin in that plan. It 
is end to end. We have stretched the Ohio-class out to longer 
than any other class of submarine we have ever built. And so 
there is no more margin for that transition. In fact, we go 
down to 10 SSBNs for a while in that transition period, really 
kind of banking on reliability of the submarines to get us 
through that.
    Senator Perdue. Thank you, guys, for your service. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Perdue.
    And on behalf of Chairman McCain, let me thank you for your 
testimony and your service.
    And on behalf of the chairman, I will announce that the 
committee is adjourned.
    [Whereupon, at 11:51 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Dan Sullivan
                           f-35b/c importance
    1. Senator Sullivan. Secretary Stackley, Admiral Richardson, and 
General Neller, how important is the F-35B/C program for the future of 
naval and marine aviation and would you agree that realistic training--
which requires large amounts of airspace and high-end threat 
representation--is necessary for the success of the F-35B/C?
    Secretary Stackley, Admiral Richardson and General Neller. The F-35 
with its 5th generation capabilities underpins future Navy and Marine 
Corps manned aviation, and realistic training is essential. Having 
training ranges of the right size with the right capabilities to 
conduct, monitor, and then reconstruct and debrief the exercise, along 
with maintenance and support, are all critical to effective and 
efficient training.
 joint pacific alaska range complex (jparc) importance to f-35 training
    2. Senator Sullivan. Secretary Stackley, Admiral Richardson, and 
General Neller, the Joint Pacific Alaska Range Complex (JPARC), which 
has the largest joint overland training area in the U.S. with airspace 
the size of Florida, Surface to Air Missile and Close Air Support 
Training, and a dedicated Air Force Aggressor Squadron, is an ideal 
location for Navy and Marine F-35s to train to both high-end and near-
peer threats and low-intensity operations. Can you elaborate on how the 
Navy and Marines plan on training in the JPARC, a range with unique 
characteristics that enables realistic F-35 training?
    Secretary Stackley, Admiral Richardson and General Neller. The Navy 
and Marine Corps routinely participate in training exercises based at 
JPARC, including Red Flag-Alaska and Northern Edge. The Marine Corps 
routinely conducts Aviation Combat Element coordinated training at 
ranges in Arizona and South Carolina and has recently conducted F-35 
specific training at JPARC. Navy Carrier Air Wings conduct the majority 
of their advanced pre-deployment training at the Fallon Range Training 
Complex in Fallon, Nevada. The Fallon infrastructure has been developed 
over considerable time and expense to support the coordinated 
operations and specialized training required for carrier-based 
operations. The JPARC facility has almost 5 times the training airspace 
(13,000 vs 65,000 square miles) available at Fallon. As air combat and 
strike warfare continue to evolve, with longer range intercepts and 
enhanced standoff strike capabilities, additional space for air combat 
maneuvering and training could become an important consideration in 
selecting training locations. The Navy and Marine Corps will continue 
to consider JPARC as a potential training location as the F-35 training 
plan continues to evolve.
                               __________
              Questions Submitted by Senator David Perdue
                      marine corps depot readiness
    3. Senator Perdue. General Neller, you stated in your written 
testimony that, ``We have reset 92 percent of our ground equipment, 
with 65 percent returned to Operating Forces and our strategic 
equipment programs.'' Marine Corps Logistics Base, Albany, is one of 
only two depots in the nation for the Marine Corps, and it is 
responsible for rebuilding and repairing ground combat and combat 
support equipment to support Marine installations on the East Coast and 
the ongoing conflicts in CENTCOM [Central Command]. The base in Albany 
had over $200 million of equipment damaged in a tornado in January, 
which also negatively impacted readiness and required acquisition 
strategies to be revised. How does the fiscal year 2018 budget request 
seek to remedy this damage and restore Marine Corps readiness?
    General Neller. The Marine Corps has one organic depot with two 
production plants; one located in Albany, GA and the other located in 
Barstow, CA. Marine Corps Logistics Command is on track to execute 
$33.1 million in fiscal year 2017. Future funding is planned as 
follows: Fiscal year 2018--$61.2 million; fiscal year 2019--$52 
million; and fiscal year 2020--$103.8 million. The funding plan will 
meet the immediate requirements associated with remedying the damage 
resulting from the tornado and will help restore the Marine Corps' 
readiness. In the USMC Fiscal Year 2018 Unfunded Priorities List, we 
requested $43.4 million for a combat vehicle warehouse in Albany, GA. 
We have received authorization for that amount from the HASC [House 
Armed Services Committee] and SASC [Senate Armed Services Committee]. 
HAC-M [House Appropriations Committee-Military] has also appropriated 
that amount. We look forward to continuing to work with Congress to 
fund this important project.

    4. Senator Perdue. General Neller, how does this damage impact your 
acquisition strategy for the year?
    General Neller. The January 2017 tornado has not shown any 
significant adverse impact on execution of sustainment activities for 
military equipment in accordance with acquisition strategies, 
applicable to fiscal year 2017, developed by Program Executive Officer/
Marine Corps Systems Command. To date, no military equipment has been 
identified as requiring replacement, via re-acquisition, as a result of 
damage caused by the storm. The availability of a production plant in 
Barstow, CA (one of two as part of the Marine Corps' organic depot), 
along with remote storage activities throughout the Continental United 
States, has enabled diversion of military equipment and Operating 
Material and Supplies (OM&S) for organic storage in support of 
acquisition and fielding operations.

    5. Senator Perdue. General Neller, how soon do you expect to see 
the full amount of the damage at this depot repaired?
    General Neller. The Marine Corps' strategy is to repair the all of 
the tornado related damage to military equipment over the next three 
years. Funding is planned as follows: Fiscal year 2018--$61.2 million; 
fiscal year 2019--$52 million; and fiscal year 2020--$103.8 million.
                               __________
             Questions Submitted by Senator Luther Strange
                         force structure needs
    6. Senator Strange. Admiral Richardson, the Navy is continually 
assessing force structure and has conducted its latest force structure 
assessments during the past year. Please explain what these studies 
show. In particular, without considering Washington budget politics and 
budget caps from previous Congresses, how many ships does the Navy 
really need to meet today's global threat, and within that number how 
many LCS/Frigates are realistically needed?
    Admiral Richardson. To meet today's global threats, many recent 
studies conclude that naval forces most effectively provide credible 
options to national leaders, and recommend the need for a larger and 
more capable naval fleet that can arrive more quickly to address the 
growing pace of maritime security challenges. This will require 
building more ships as well as innovation to incorporate new 
technologies and new operational concepts. The Navy's 2016 Force 
Structure Assessment identified a requirement for 355 ships to achieve 
national tasking and goals, of which 52 ships are small surface 
combatants (LCS/Frigates). While the Navy has been on a growth path in 
recent years, an exponential change will be required to reach and 
sustain sufficient numbers faster--and that change is dependent upon 
relief from the Budget Control Act, continuing resolutions, and fiscal 
uncertainty.
                       effects of budget request
    7. Senator Strange. Admiral Richardson, how can the Navy possibly 
meet growing force structure goals with a 66 percent reduction in the 
LCS/Frigate shipbuilding rate, as proposed in your budget request?
    Admiral Richardson. The Navy's 2016 Force Structure Assessment 
revalidated the requirement for 52 small surface combatants. While the 
Littoral Combat Ship (LCS) provides capability as a focused-mission 
ship, the Navy is transitioning to the more capable, multi-mission 
Guided Missile Frigate (FFG(X)). To allow adequate time to define 
FFG(X) requirements, thoroughly evaluate design alternatives and mature 
the design, the fiscal year 2018 President's Budget (PB-18) defers the 
first year of FFG(X) procurement to fiscal year 2020 with additional 
LCS being procured in fiscal year 2018 and fiscal year 2019. The Navy 
is exploring all options to grow the force, including increases in 
shipbuilding, extending the service life of current ships, and 
reactivating ships. Informed by the National Defense Strategy, the 
fiscal year 2019 budget will prioritize building a more lethal Navy. 
Increasing naval power is contingent upon stable and increased funding 
above the current Budget Control Act defense spending caps.
                    required operational capability
    8. Senator Strange. Admiral Richardson, what will be the effect on 
the fleet in terms of required operational capability to conduct combat 
operations if Congress agrees to cut the LCS/Frigate shipbuilding rate 
from the current 3 ships per year profile to only 1 ship per year? Is 
this prudent?
    Admiral Richardson. The Navy's 2016 Force Structure Assessment 
revalidated the requirement for 52 small surface combatants (SSC). 
While the littoral combat ship (LCS) provides valuable capability as a 
focused-mission ship, the Navy is transitioning to the more capable, 
multi-mission guided missile frigate (FFG(X)). To allow adequate time 
to define the FFG(X) requirements, thoroughly evaluate design 
alternatives and mature the design, the fiscal year 2018 President's 
Budget (PB-18) defers the first year of FFG(X) procurement to fiscal 
year 2020 with additional LCS being procured in fiscal year 2018 and 
fiscal year 2019. Changes to LCS and FFG(X) procurement will have no 
effect on deliveries and deployments of LCS in the near term and will 
result in the FFG(X) having much greater warfighting capability and 
flexibility to meet Fleet and combatant commanders' requirements. The 
original PB-18 request included one LCS in fiscal year 2018, which, 
when combined with the LCS Congress added in the fiscal year 2017 
Appropriations Act, would allow the Navy to leverage past and current 
investments in our shipyard workforce and infrastructure. To further 
reinforce the SSC industrial base, the Navy's PB-18 request was amended 
to include two LCS. Until a force of 52 SSCs is achieved, there is 
operational risk. The Navy is also seeing challenges in meeting the 
requirements for attack submarines (51 against a requirement of 66) and 
large surface combatants (87 against a requirement of 104). Operational 
risks associated with these shortfalls can be mitigated by using 
alternate platforms, such as amphibious ships or expeditionary mobile 
base ships, to deliver the capabilities necessary to conduct the 
required missions.
                            industrial base
    9. Senator Strange. Secretary Stackley, there are 21,000 men and 
women at two shipyards, and 1,200 suppliers in 45 States, who support 
the current littoral combat ship shipbuilding program. Should Congress 
agree to cut its shipbuilding rate by 66 percent as proposed in your 
budget, what is the impact on the shipyards, the workforce, efficiency, 
competition, and price? Are any of these factors positively affected?
    Secretary Stackley. Recognizing the criticality of the Small 
Surface Combatant industrial base, the Administration amended the 
fiscal year 2018 budget request to add a second littoral combat ship 
(LCS) after an assessment of the impact to the industrial base due to 
procuring only one LCS in fiscal year 2018. Lockheed Martin/Fincantieri 
Marinette Marine and Austal USA have each invested considerable capital 
resources to modernize and upgrade their facilities to support serial 
production, and the LCS shipyards are currently producing two ships a 
year on average. Reductions in procurement rate would increase the 
price of LCS. At lower build rates, fixed costs allocated across a 
smaller workload base will result in higher overhead rates. Impacts on 
production efficiency and competition are less predictable and it is 
incumbent upon the Department to structure its acquisition strategy for 
the remaining ships of the LCS program alongside the subsequent Frigate 
program such that these impacts are mitigated to the extent possible. 
While procuring at a less than optimal rate is undesirable, the 
Department's intent to procure LCS beyond the 32-ship objective 
previously set for the program is motivated by our intent to support 
the industrial base as we transition to the future Frigate, but 
constrained by the limitations imposed by the Budget Control Act. 
Including the fiscal year 2018 amended budget request, there are 21 
ships in the backlog across the two shipbuilders. This backlog provides 
a significant amount of workload to mitigate the impact of procuring 
fewer ships in fiscal year 2018 and fiscal year 2019, allowing them to 
maintain stability and be competitive for the Frigate award in fiscal 
year 2020.
                            effects of cuts
    10. Senator Strange. Secretary Stackley, we have all be down this 
road before. What happened to weapon system unit costs when B-2 bomber 
production quantities were cut from 100 to only 20 aircraft? Or the 
Seawolf submarine when production was cut from 30 to only 3 hulls?
    Secretary Stackley. Originally, the Seawolf submarine program was 
established to procure 29 submarines. In December 1991, the Seawolf 
construction profile was restructured due to the reduced threat 
resulting from the end of the Cold War. In January 1992, the Seawolf 
program was terminated following the procurement of the lead ship, SSN 
21. Congress later restored the second Seawolf submarine, SSN 22, in 
May 1992. Subsequently, the 1993 Secretary of Defense bottom-up review 
recommended the construction of a third Seawolf submarine in an effort 
to bridge the production gap and preserve the industrial base until 
construction of a new submarine design in 1998. The Fiscal Year 1996 
National Defense Authorization Act authorized the third Seawolf (SSN 
23) submarine. Reduced production quantities resulted in unit cost 
increase of Seawolf submarines. At lower build rates, the fixed costs 
allocated across a smaller workload base resulted in higher overhead 
rates and the loss of bulk economy procurement. The weapon system unit 
cost can be represented by the average procurement unit cost (APUC) 
which includes non-recurring costs of $672 million spread across the 
ship program. The APUC for 29 Seawolf-class ships was $1,305 million in 
1990 base year dollars. After the class reduction, the APUC for three 
Seawolf-class ships was $2,606 million in 1990 base year dollars.
                         meeting global threats
    11. Senator Strange. Secretary Stackley, if you truly want to grow 
the Navy and respond to serious emergency global threats, why would the 
Navy not expand the LCS/Frigate program rather than cut it way back at 
this time?
    Secretary Stackley. The Navy's 2016 Force Structure Assessment 
revalidated the warfighting requirement for a total of 52 small surface 
combatants. While the littoral combat ship (LCS) provides capability as 
a focused-mission ship, the Navy needs to transition to the more 
capable, multi-mission guided missile frigate (FFG(X)). To allow 
adequate time to define FFG(X) requirements, thoroughly evaluate design 
alternatives and mature the design, the Fiscal Year 2018 President's 
Budget (PB-18) defers the first year of FFG(X) procurement to fiscal 
year 2020 with additional LCS being procured in fiscal year 2018 and 
fiscal year 2019. Consistent with the Secretary of Defense's three-
phase campaign, PB-18 focuses on restoring readiness and addressing 
pressing shortfalls in fiscal year 2017-2018, in order to build a 
strong foundation for growing a larger, more capable, more lethal force 
starting in fiscal year 2019. This will ensure today's Navy is fully 
ready and that our 275 ships are properly maintained to reach the end 
of their service life. Informed by the National Defense Strategy, the 
fiscal year 2019 budget will prioritize building a larger force. 
Increasing naval power is contingent upon stable and increased funding 
above the current Budget Control Act defense spending caps.
                        lcs shipbuilding program
    12. Senator Strange. Secretary Stackley, you are in your current 
position in large part because you are widely respected for your 
abilities to manage complex weapon system acquisitions. In your 
professional opinion, would you say that the LCS/Frigate shipbuilding 
program before Congress is ``optimal''? ``Efficient''? ``Good''?
    Secretary Stackley. At the current production rate, the littoral 
combat ship (LCS)/frigate shipbuilding program is efficient and the 
ships are providing capability that fills a gap in the fleet. The 
Navy's fiscal year 2018 budget request includes two LCS, which, when 
combined with the LCS Congress added in the fiscal year 2017 Omnibus, 
would keep both LCS shipyards operating, not at their most efficient, 
but at or above a sustaining rate required to keep them competitive for 
the pending guided missile frigate (FFG(X)) program. The Navy's 2016 
Force Structure Assessment revalidated the warfighting requirement for 
a total of 52 small surface combatants. While LCS provides much needed 
capabilities as focused-mission ships, the Navy also needs to 
transition to the more capable, multi-mission FFG(X) to increase the 
operational capabilities required by fleet commanders. As maritime 
threats continue to evolve and as the operating environment becomes 
increasingly complex, the Navy is placing greater emphasis on 
distributed operations, highlighting the need for a FFG(X) with 
improved lethality and survivability as a part of the full complement 
of 52 small surface combatants (SSC). The President's Budget 2018 
submission programs the first year of FFG(X) procurement in fiscal year 
2020 to provide adequate time to define FFG(X) requirements, thoroughly 
evaluate design alternatives, and mature the design. In view of this 
potential and otherwise devastating gap to the industrial base, and 
within the constraints of the Budget Control Act and the priorities of 
the fiscal year 2018 budget, the Department's current request for two 
LCS in fiscal year 2018 reflects the best balance between requirements, 
budget, and industrial base.
                    dual source acquisition strategy
    13. Senator Strange. Secretary Stackley, the Nation has invested 
about $14 billion in the LCS program so far, achieving two successful 
and competitive production lines, which actually was your decision and 
recommendation to Congress in the first place. What are your plans to 
maintain a competitive dual source acquisition strategy, and a level 
playing field between vendors, for the LCS/frigate program?
    Secretary Stackley. As critical elements of the Navy's small 
surface combatant family of ships, the littoral combat ship (LCS) 
provides much needed capability as a focused-mission ship while the 
guided missile frigate (FFG(X)) will provide an even more capable, 
multi-mission ship to increase fleet commander flexibility in 
operations. To allow adequate time to define FFG(X) requirements, 
thoroughly evaluate design alternatives and mature the design, the 
President's Budget (PB) 2018 submission defers the first year of FFG(X) 
procurement to fiscal year 2020 with additional LCS being procured in 
fiscal year 2018 and fiscal year 2019. The Navy's fiscal year 2018 
budget request continues the competitive dual source strategy by 
including two LCS, which, when combined with the LCS Congress added in 
the fiscal year 2017 Omnibus, would keep both LCS shipyards viable 
ahead of the pending FFG(X) competition, allowing the Navy to leverage 
past and current investments in our shipyard workforce and 
infrastructure. To meet the requirements for the FFG(X), the Navy will 
conduct a full and open competition between U.S. shipbuilders for this 
future ship class. The acquisition plan calls for a competitive down-
select to a single design employing mature capabilities. This 
competitive single design approach for the 20-ship class should provide 
the best overall performance and cost, when factoring planned 
procurement rates and sustainment costs. This approach also leverages 
the investment to date in the LCS program as the two LCS shipbuilders 
have optimized their operations towards this sized ship and this 
production rate.
                               __________
               Questions Submitted by Senator Bill Nelson
                encroachment on test and training ranges
    14. Senator Nelson. Secretary Stackley, encroachment of activities 
incompatible with military test and training operations on our bases 
and ranges remains a major problem. In 2006 Congress established the 
Military Mission Line, prohibiting oil and gas activities, and any 
activities conducted in preparation for oil and gas activities, in the 
Eastern Gulf in order to protect the test and training range there. The 
Department of Defense has said that the ``vital importance of 
maintaining this moratorium cannot be overstated.'' Secretary Stackley, 
how important is it to test operations as well as training and 
readiness to continue to prevent this kind of encroachment in the Joint 
Gulf Range Complex (JGRC)?
    Secretary Stackley. The Eastern Gulf of Mexico operating areas and 
warning areas provide critical opportunities for advanced weapons 
testing, joint training exercises, and operational and unit level 
training. Emerging technologies such as advanced fighters and sub-
surface systems will require testing and training space free from 
interference in the future. It is vital to maintain our ability to 
conduct testing and training operations in the Eastern Gulf of Mexico 
without encroachment, and we support maintaining the Military Mission 
Line moratorium. The Department of the Navy supports domestic energy 
development that is compatible with the military mission, and is 
willing to explore opportunities to develop energy without encumbering 
military readiness activities.
                  major range and test facility bases
    15. Senator Nelson. Secretary Stackley, last year's National 
Defense Authorization Act (NDAA) expressed my concern and the concern 
of this committee that our Major Range and Test Facility Bases are 
unable to maintain pace technologically with our advanced 5th and 6th 
generation weapons delivery systems and new hypersonic systems. 
Secretary Stackley, how do you see high fidelity simulation upgrades at 
these ranges factoring into effective testing of our newest weapons 
delivery systems and munitions?
    Secretary Stackley. Continued high fidelity simulation upgrades at 
the Major Range and Test Facility Bases (MRTFB) are critical to keep 
pace with both U.S. advanced 5th and 6th generation weapons delivery 
systems and the threats they are intended to operate against. Navy 
MRTFB Ranges and Laboratories are working in collaboration to develop 
advanced high priority threats and threat laydowns to be utilized at 
the MRTFB to conduct effective testing of new 5th and 6th generation 
systems. The Joint Simulation Environment (JSE) is in development to 
support test and evaluation of advanced 5th and 6th generation weapons 
systems and associated warfighting tactics. The JSE combines a mix of 
immersive simulation, hardware in the loop, advanced ground test with 
aircraft installed systems, and flight test techniques to deliver a 
robust 5th and 6th generation Live--Virtual--Constructive (LVC) 
environment for test and training. The Navy and Air Force are working 
in collaboration to develop robust 5th/6th Generation Enterprise 
Modeling and Simulation (M&S)/LVC test and training solutions which 
focus on the ability to assess capability performance vice platform 
centric evaluations. Additionally, the Navy will also look to leverage 
capabilities which will be developed under the Air Force / TRMC 
Hypersonic Test Investment Program (HyTIP) established in response to a 
2016 Resource Management Decision. Beyond the MRTFB, the Navy is 
working to integrate simulation and test capabilities across the Naval 
Research & Development Establishment to create a multi-domain 
development, prototyping, assessment, and test environment to support 
5th/6th gen innovation and evaluation. As weapons and threats grow in 
complexity, it will be critical to complement live flight test/training 
on DOD Ranges with a continuum of M&S, LVC methods, and advanced ground 
test in labs and chambers to fully understand 5th/6th generation 
performance and test/train in future warfare environments. The Navy 
MRTFB is fully engaged in ensuring Ranges, Labs, Chambers, and M&S are 
prepared to support the 5th/6th generation challenges.
                         navy reserve aviation
    16. Senator Nelson. Secretary Stackley and Admiral Richardson, Navy 
Reserve aviation ``hardware units''--squadrons flying tactical air, 
maritime patrol, and rotary wing platforms--have been systemically 
disestablished over the last 5 years. With the exception of HSM-60, 
these units are all flying the oldest variants of their aircraft in the 
fleet--F/A-18A, HH-60H, and P-3--with no plan to transition them to 
more current series. This reduction severely limits opportunities for 
aviators to serve at a cost effective level of readiness, whether they 
be Selected Reserve or full time support personnel. Further reduction 
of communities limits the professional opportunities for full time 
support personnel. Secretary Stackley and Admiral Richardson, what is 
the Navy's plan to retain qualified, experienced aviators in the ready 
reserve?
    Secretary Stackley and Admiral Richardson. Navy Reserve aviation is 
an invaluable part of the Total Force. Navy Reserve provides both 
operational support and strategic depth across a broad spectrum of 
Naval Aviation mission sets. In addition to the platforms you mentioned 
above, the Navy Reserve provides 100 percent of the Navy's organic 
intra-theater cargo lift capability flying C-40 and C-130 aircraft.
    The Department of the Navy has no plans to reduce Navy Reserve 
aviation capability over the Future Years Defense Plan. The Reserve 
component has successfully affiliated separating Active Duty aviators 
at a rate of over 70 percent since 2010.
    Under the recently released officer bonus policy the Navy Reserve 
offers four aviation bonuses:
    1) Selected Reserve aviators receive a $10,000 bonus when they 
affiliate with the Navy Reserve.
    2) Full time support department head aviators are eligible for up 
to $25,000 per year based on aviation manning requirements and type, 
model, series of aircraft.
    3) Full time support commanding officer aviators are eligible for 
$18,000 per year to remain past their command tours.
    4) Selected Reserve and Full Time Support aviators are eligible for 
aviation incentive pay of up to $840 per month based on years of 
aviation service.
    Historically, aviation bonuses have proven effective in addressing 
retention problems in specific communities and experience levels in 
order to attract and retain high-quality personnel to meet fleet 
requirements. As a result, we have been highly effective in retaining 
this talented pool of officers within the current force structure.
                         strategic laydown plan
    17. Senator Nelson. Secretary Stackley and Admiral Richardson, the 
Navy has long held the belief that strategic dispersal of capital 
ships--particularly the aircraft carrier--is important. In the Pacific 
Fleet, our carriers are dispersed between Washington, California, and 
Japan. In the Atlantic Fleet, all of our nuclear carriers--including 
new carriers under construction--are stationed in Hampton Roads. Does 
the Navy still believe there is a need to disperse our carrier fleet on 
the East Coast to reduce risk from natural or man-made disaster?
    Secretary Stackley and Admiral Richardson. The Navy remains 
committed to the strategic dispersal of the CVN force. Additional East 
Coast CVN homeports would reduce risk and provide strategic flexibility 
in the event of natural disaster, man-made calamity, or attack. Current 
fiscal constraints dictate that the Navy continue to defer the 
investment to build new capacity or repurpose existing infrastructure 
to develop another East Coast CVN homeport. The Navy's current SLD Plan 
(SLD17) does not reflect another East Coast CVN homeport; however, 
SLD18 will re-evaluate the strategic dispersal of our CVN force in 
light of the fiscal and strategic environment.

    18. Senator Nelson. Secretary Stackley and Admiral Richardson, if 
cost is the issue in carrying out dispersal of our nuclear powered 
aircraft carriers are there savings to be had by reducing risk in 
dispersing our non-nuclear capital ships--namely amphibious assault 
ships, which are virtually co-located with our aircraft carriers on the 
East Coast for the most part?
    Secretary Stackley and Admiral Richardson. The Navy remains 
committed to the strategic dispersal of our force. Additional East 
Coast dispersal would reduce risk and provide strategic flexibility in 
the event of natural disaster, man-made calamity, or attack.
    Current fiscal constraints dictate that the Navy continue to defer 
the investment in another East Coast CVN homeport. Additionally, there 
are no savings from dispersing additional amphibious assault ships on 
the East Coast. For example, Mayport has limited pier space as a result 
of current homeporting of an amphibious readiness group and littoral 
combat ships. The Navy's current Strategic Laydown and Dispersal Plan 
(SLD17) does not reflect another East Coast CVN homeport or additional 
amphibious assault force dispersal; however, SLD18 will re-evaluate the 
strategic dispersal of our CVN and amphibious assault ship forces in 
light of the fiscal and strategic environment.
                      amphibious fleet operations
    19. Senator Nelson. Admiral Richardson and General Neller, the 
inherent flexibility of amphibious ships and the Navy-Marine Corps team 
is in high demand. In the past year, we have seen amphibious ships 
support everything from humanitarian support to Haiti following the 
devastation of Hurricane Matthew to delivering ordinance against ISIS 
[Islamic State of Iraq and Syria] across combatant commander areas of 
operation. Do we have enough amphibious ships and associated units to 
meet the challenges posed by our near-peer competitors?
    Admiral Richardson and General Neller. If the Navy and Marine Corps 
were to fully meet COCOM demand, we would require more than 50 
amphibious warships in the battle force inventory. Based on the best 
analysis and keeping affordability in mind, the Commandant and I have 
determined the force structure to support the deployment and employment 
of 2 MEBs simultaneously and provide surplus capacity to respond to 
contingencies with the necessary depth to conduct maintenance is 38 
amphibious warships. The 2016 Force Structure Assessment also holds the 
amphibious warship requirement as 38 ships. With the delivery of 
PORTLAND by the end of 2017, amphibious warship inventory will be 32 
and reach 33 in fiscal year 2019. To grow to and sustain 38, we will 
need relief from the Budget Control Act (BCA), and stable, predictable 
annual budgets with an end to Continuing Resolutions. The procurement 
of highly capable LPD 17 and LHA 6 ship classes coupled with increased 
investments in maintenance and modernization of legacy ships is 
critical to closing our amphibious warship shortfall. The amphibious 
warships embarked with a combination of technologically superior MV-22, 
F-35B, RQ-21, and other future autonomous/robotic systems will enable 
the Navy/Marine Corps fighting team to operate in uncertain and 
contested environments and to disperse and aggregate forces over a much 
larger area. Indeed, we are now deploying our Amphibious Ready Groups 
(ARGs) in a distributed manner, allowing a single ARG/MEU to 
concurrently meet prioritized operational requirements of multiple 
combatant commanders.

    20. Senator Nelson. Admiral Richardson and General Neller, for the 
past 16 years, the Marine Corps has focused on counter-insurgency 
operations, largely in landlocked locations. As you prepare for 
potential future conflicts, like in Asia-Pacific, the Marines are 
returning to their amphibious roots. What are you most concerned about 
in conducting amphibious assault and other maritime operations in an 
anti-access area-denial environment?
    Admiral Richardson and General Neller. Anti-ship missiles and enemy 
aircraft are a significant risk to conducting amphibious and force 
sustainment operations that enable sea control and project naval power 
ashore in a contested environment. For this reason the Amphibious Ready 
Group (ARG) or a larger Amphibious Task Force (ATF) would require 
temporary and localized battlespace superiority at the time and place 
of our choosing, realized through organic shipboard enhancements or 
holistic battle force deployment/employment (``up-gunned'' ESG's or 
SAG's) force protection measures before conducting Joint Forcible Entry 
operations in a contested area. Employing the MAGTF as the ``inside 
force'' is a critical enabler for sea control and power projection in a 
peer contested environment. The sophistication, reach and lethality of 
modern anti-ship threats dictates the need for persistent and 
integrated ISR and layered mobile defense with suppression, space 
effects, cyber, and/or electronic attack over an extended area; 
adequate point defense systems for the amphibious ships, preferably 
with the defense in depth afforded by escorts with greater anti-ship 
missile defensive capability; and fully networked/integrated organic 
embarked F-35Bs with defensive counter air capabilities, all supported 
through survivable and resilient logistical nodes. Mining is also a 
significant risk to amphibious operations, whether in the deep water, 
shallow water, very shallow water, surf zone, or beach zone, each 
present unique challenges (technology, manpower, etc.) with detection 
and neutralization. The Navy is in the process of transforming from 
legacy ship integrated organic systems to the Modular MCM Force, 
requiring a careful balance of maintaining/integrating legacy 
capability while procuring new technology and refining accompanying 
tactics, techniques, and procedures. The Navy and Marine Corps are 
working closely to address capability gaps in MCM and assault breaching 
capabilities. Regarding other maritime operations, the inherent 
flexibility of amphibious forces affords combatant commander's the 
opportunity to distribute capabilities to both enhance our 
effectiveness and complicate the enemies' problem, potentially reducing 
the risk of operating in a contested environment.
                 u.s. southern command naval operations
    21. Senator Nelson. Secretary Stackley, Admiral Richardson, and 
General Neller, transnational crime and smuggling networks pose a 
significant threat to the United States. Many of these networks access 
the U.S. via the SOUTHCOM region. Secretary Stackely, in your written 
testimony, you specifically mention successes of two patrol coastal 
ships stationed in Mayport. What more can the Navy Marine Corps Team do 
to support the operations conducted by Joint Interagency Task Force 
South and SOUTHCOM?
    Secretary Stackley and General Neller. Support to the Joint Task 
Force and SOUTHCOM is coordinated and prioritized through the Joint 
Staff and the Secretary of Defense with forces manned, trained, and 
equipped by the service chiefs and the Military Departments. The Navy 
and Marine Corps have a long history of supporting SOUTHCOM exercises 
and will continue to do so as capability and capacity allow. In the 
near term, subject to the approval of the Secretary of Defense, the 
Marine Corps plans to continue the rotational deployment of a Special 
Marine Air Ground Task Force (SPMAGTF) to conduct training and other 
Theater Security Cooperation activities.
    Admiral Richardson. Navy continues to source forces to capacity, 
however, we do not have sufficient force structure to meet all global 
combatant commander demand. Navy's annual force offering serves as the 
CNO's best military advice to the Chairman and Secretary of Defense for 
the global employment of naval forces. In addition to annual Global 
Force Management (GFM) resourcing, Navy continues to seek opportunities 
to provide increased presence to SOUTHCOM via non-GFM actions, such as 
providing presence during changes in ship homeport transits and 
littoral combatant ship (LCS) class testing Additionally, to meet 
today's global threats, many recent studies recommend the need for a 
larger and more capable naval fleet that can arrive more quickly to 
address the growing pace of maritime security challenges. The Navy's 
2016 Force Structure Assessment identified a requirement for 355 ships 
to achieve national tasking and goals, of which 52 ships are small 
surface combatants (LCS/Frigates), some of which could provide presence 
to SOUTHCOM. While the Navy has been on a growth path in recent years, 
an exponential change will be required to reach and sustain sufficient 
numbers faster--and that change is dependent upon relief from the 
Budget Control Act, continuing resolutions, and fiscal uncertainty.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                              shipbuilding
    22. Senator Shaheen. Secretary Stackley and Admiral Richardson, do 
you agree that the Navy's shipyards require significant infrastructure 
investment in order to support the increasing maintenance and 
modernization needs of the fleet and sustain operational availability? 
What challenges do you see to implementing these needed improvements 
and how do you recommend overcoming them?
    Secretary Stackley and Admiral Richardson. Significant investments 
are required to modernize naval shipyard (NSY) infrastructure. 
Requirements are being developed by the Navy in three phases:
    Phase 1: 2013 NSY Infrastructure Report to Congress (RTC)--Near 
term requirements that preserve and maintain functional capability and 
maintain safety and habitability of existing plant; includes seismic, 
dry dock certification, and flood prevention requirements. The original 
17 year plan was based on the 6 percent investment level. Funding was 
increased to support a 15 year plan as a result of the Nuclear 
Enterprise Review. Current investment levels are adequate to maintain 
existing mission-essential infrastructure functionality but do not 
provide appreciable productivity improvements across the four naval 
shipyards.
    Phase 2: Dry Dock Plan--Identifies NSY dry dock investments needed 
to support CVN 78 class, SSN 774 class, and known future class 
requirements, as well as dry dock investments needed to resolve 
flooding, seismic, and material condition/certification issues. This 
plan is currently being finalized by the Navy, and is expected to be 
completed by August 15, 2017. This study will be updated to include all 
Fleet dry dock requirements, which is expected to be issued by February 
2018.
    Phase 3: NSY Infrastructure Optimization Plan--This optimization 
plan will identify NSY infrastructure investments needed to support 
increasing maintenance and modernization needs, improve shipyard 
throughput, and return mission days to the Fleet. These requirements 
will be prioritized by return on investment and improvements to depot 
maintenance execution. Estimated completion date for initial issuance 
of this plan is February 2018.
    Challenges expected in implementing the Phase 2 and 3 
infrastructure investment plans are budget uncertainty, competition for 
funding with other warfighter requirements, de-confliction of facility 
and dry dock improvements at the public shipyards with ongoing ship 
maintenance workload, and environmental and historical constraints. 
Mitigations include identifying and planning robust infrastructure 
requirements with defendable returns on investment and mission impacts, 
robust pre-solicitation market research and outreach to private 
industry, smart scheduling of infrastructure investments to prevent 
impacts to submarine and CVN availabilities, early identification of 
environment and historical constraints and engagement with appropriate 
stakeholders during project development.
                               dry docks
    23. Senator Shaheen. Secretary Stackley and Admiral Richardson, dry 
dock capacity is a driving factor in scheduling and executing 
maintenance on our ships and submarines, and I understand the Navy is 
reviewing a plan to increase the dry dock capacity across our 
shipyards. Could you please discuss the importance of increasing dry 
dock capacity and provide an update on the plan?
    Secretary Stackley and Admiral Richardson. With the introduction of 
new ship classes, upcoming inactivation and reactor compartment 
disposals, environmental vulnerabilities, and current projected 
workloads, dry dock constraints in the public and private shipyards 
will directly impact the scheduling and execution of maintenance on 
ships and submarines.
    The dry docks at the public shipyards require investments to 
increase physical capacity, upgrade electrical equipment and utilities, 
and mitigate seismic vulnerabilities. The current workload forecasts 
indicate that private shipyard dry docks will be at capacity from 
fiscal year 2018 through fiscal year 2021. To assess the ability of 
public and private shipyard dry dock capacity to support future 
maintenance requirements, the Naval Sea Systems Command is performing 
an overarching study using a three-prong approach:
    <bullet>  A public naval shipyard study is under way to assess 
current dry dock capacity and survivability. This study is expected to 
complete by August 15, 2017.
    <bullet>  The Navy Surface Fleet Availability Scheduling Team has 
performed a study identifying steps to mitigate private shipyard dry 
dock constraints through fiscal year 2018, including use of coast-wide 
bid contracts to allow for out of homeport dry docks as required. A 
private sector dry dock review covering fiscal year 2019 through fiscal 
year 2021 is in progress. Potential options include use of dual-docking 
to reduce dry dock durations, review of frequency of docking, and use 
of out of homeport dry docks. This review is expected to be complete by 
January 2018.
    A feasibility analysis and dry dock investment study to support 
Fleet-wide maintenance availability schedules at the private shipyards 
through 2040 is expected to be complete by February 2018.
                     accelerated promotion program
    24. Senator Shaheen. Secretary Stackley and Admiral Richardson, the 
Accelerated Promotion Program (APP) allows the public shipyards to 
compete with the private sector by guaranteeing engineers hired into 
the four pubic shipyards at the GS-5 or GS-7 levels will be eligible 
for a one-time accelerated promotion to the next higher-grade after 
successful completion of a six-month training program. Do you believe 
the Accelerated Promotion Program benefits the shipyards with workforce 
retention? What other difficulties do you experience in retaining the 
workers who have received specialized training?
    Secretary Stackley and Admiral Richardson. Yes, the APP greatly 
benefits the public naval shipyards in their ability to attract and 
retain engineering talent. The largest pay differential for entry level 
engineers at the naval shipyards and the private sector exists in the 
earliest stages of a shipyard engineer's career. At the point an 
engineer typically reaches his or her full performance level at the GS-
11 or GS-12 level, their annual pay is typically comparable to job 
market levels in the area. The APP allows the naval shipyards to 
progress engineers to their full performance level earlier, assuming 
satisfactory performance and training progression is achieved. 
Retention of shipyard employees who have specialized training continues 
to be a challenge for all four naval shipyards in Portsmouth, Norfolk, 
Puget Sound and Pearl Harbor. Competition for these critical skills, 
and the leadership qualities these naval shipyard employees possess, 
are highly sought after by private industry. The ability of the private 
sector to offer higher salaries in competitive job markets like the 
Puget Sound region or the Chesapeake-Tidewater area, impacts the 
ability to retain employees. In addition to APP, the naval shipyards 
have been using the full suite of available tools to help retain these 
highly skilled personnel including, retention incentives, student loan 
repayment programs, quality step increases, performance award programs, 
child day care programs, rehired annuitants to help mentor and develop 
newer employees, and increased coaching, mentoring, and development 
programs.
                               __________
              Questions Submitted by Senator Mazie Hirono
                          shipyard maintenance
    25. Senator Hirono. Secretary Stackley and Admiral Richardson, the 
Navy's 2018 budget request includes a significant increase for ship 
maintenance. The Navy intends to increase the maintenance workforce 
from 33,850 to 34,988 at the four public shipyards. The Navy's current 
training regimen for new depot maintenance workers takes time to train 
and educate these new employees to become significant contributors to 
the team. It will take some time to train these new shipyard employees 
and for them to gain the needed experience. What is the Navy doing to 
fill vacancies for more experienced individuals? What is the current 
status of recruitment and retention at our shipyards?
    Secretary Stackley and Admiral Richardson. The Navy plans to 
increase the total naval shipyard maintenance workforce from 33,850 to 
36,100 full-time equivalent (FTE) employees by fiscal year 2020, as 
requested by the President's Budget for 2018. The four public shipyards 
recruit new employees through the use of job fairs, outreach to local 
high schools and trade skill schools in their respective areas, along 
with extensive travel to career fairs at colleges and universities 
throughout the United States in search of the best candidates possible. 
The public shipyards also actively recruit and use exiting veterans 
hiring authorities to leverage the experience and skill sets gained by 
military personnel that are leaving or have left military service. 
Since naval ship maintenance is a unique skill set, vacancies created 
by the more experienced employees leaving are normally filled by less 
senior but experienced employees progressing through their careers 
within the shipyards, and then those lower level positions which 
require less experience are typically backfilled through external 
hiring.
    Recruitment and retention of shipyard employees continues to be a 
challenge for all four naval shipyards. There is strong competition 
from the private sector for the critical skills and leadership 
qualities experienced shipyard employees possess. The ability of 
private companies to offer higher salaries, particularly in a 
competitive job market like the Puget Sound region or the Chesapeake-
Tidewater area, impacts the shipyard's ability to retain employees. The 
public shipyards have been using the full suite of available hiring 
flexibilities to meet its hiring needs within the constraints and 
limitations of budgets and local market factors. Tools such as 
relocation and recruitment incentives for its mission-critical and 
hard-to-fill positions, superior qualification appointments to try and 
meet local job market salary variations, as well as direct and 
expedited hiring authorities are being employed. To help retain 
personnel the shipyards are using Accelerated Training and Promotion 
Programs, retention incentives, Student Loan Repayment Programs, 
Quality Step Increases, performance award programs, rehired annuitants 
to help mentor and develop critical skills, and increased coaching, 
mentoring and development programs. The Navy will continue to pursue 
all available opportunities to recruit and retain employees at our 
public shipyards.
    Table 1 shows the recent hires, attritions, and onboard personnel 
at the naval shipyards.

                      Table 1: Naval Shipyard Hires and Attritions, Fiscal Years 2013-2017
----------------------------------------------------------------------------------------------------------------
                                                                                                     FY17 (June)
                                                     FY13         FY14         FY15         FY16          *
----------------------------------------------------------------------------------------------------------------
Hires..........................................        1,720        3,574        5,241        3,295        1,369
Attritions.....................................        2,071        1,959        2,245        2,339        1,533
Onboard........................................       28,932       30,610       33,545       34,508       34,344
----------------------------------------------------------------------------------------------------------------
* The Navy expects 2,975 new hires and 2,215 attritions by the end of fiscal year 2017 with a total onboard of
  approximately 35,238.

                       focus on the asia pacific
    26. Senator Hirono. Admiral Richardson and General Neller, as the 
department continues to focus our military forces on the threats faced 
in the Asia-Pacific, there are clearly challenges in terms of available 
resources with all of the competing threats around the world. The 
United States' focus in the Pacific is on strengthening alliances; 
encouraging a more interconnected region; and building U.S. military 
capabilities. How does the fiscal year 2018 budget proposal affect the 
military focus on the Pacific region and readiness of our troops?
    Admiral Richardson and General Neller. The Indo-Asia-Pacific region 
remains a key part of the defense strategy. The President's Budget for 
fiscal year 2018 (PB-18) supports development of advanced capabilities 
to pace the threats in the region and provide a quantum capability 
upgrade to the overall force posture in the Pacific. The Asia-Pacific 
rebalance was a guiding principle of our fiscal year 2018 strategic 
laydown plan, and the President's Budget 2018 investments in readiness 
and infrastructure are essential to generating the combat ready forces 
that support the Department of Defense's global posture. The Marine 
Corps continues to strategically deploy platforms with the most 
advanced capabilities to the Asia-Pacific theater.
                               corrosion
    27. Senator Hirono. Secretary Stackley, Admiral Richardson, and 
General Neller, estimates show that corrosion costs the DOD about $20 
billion per year; however, only very limited resources are spent on 
corrosion mitigation efforts to include research and development. 
Corrosion impacts all of the Services. It affects ground combat 
vehicles, ships and aircraft. Pretty much any system our military uses. 
It has been reported that over half of the Marine Corps' F-18 fleet is 
grounded due to corrosion. Is the Department of the Navy's corrosion 
prevention effort resourced and empowered to lead anti-corrosion 
efforts within the Navy? Is it important to think about and plan for 
anti-corrosion efforts in the early acquisition phases for our major 
programs such as aircraft, ships and ground vehicles? How are Navy and 
Marine Corps efforts in battling corrosion tied to the Department of 
Defense's Office of Corrosion Policy and Oversight?
    Secretary Stackley and Admiral Richardson. Is the Department of the 
Navy's corrosion prevention effort resourced and empowered to lead 
anti-corrosion efforts within the Navy?
    Yes, the Department of Navy (DON) maintains an established, 
department-wide corrosion Cross Functional Team (CFT) to address 
corrosion concerns. This program comprises the DON System Commands 
(SYSCOMS) working together to address both common and platform-specific 
corrosion issues. The program works on reducing corrosion through 
research and development efforts, adding corrosion-resistant product 
designs, training and educating the fleet on preventative and 
corrective corrosion maintenance, and developing technically sound and 
operationally viable maintenance procedures for the system life cycle.
    Each of the SYSCOMS directs engineers, scientists, and subject 
matter experts to address corrosion-related issues that occur over the 
lifecycle of all Navy assets. Over the last two years (fiscal years 
2015 and 2016), the DON has resourced and spent an average of $10.1 
billion on combating and controlling corrosion.
    Is it important to think about and plan for anti-corrosion efforts 
in the early acquisition phases for our major programs such as 
aircraft, ships and ground vehicles?
    Yes, the DON follows the guidance for acquisition laid out in 
Department of Defense Instruction (DODI) 5000.02, requiring planning 
for corrosion control of all DON acquisitions. This planning influences 
the development of the Systems Engineering Plan (SEP), Life Cycle 
Sustainment Plan (LCSP), and the Test and Evaluation Master Plan 
(TEMP). The DON has anti-corrosion efforts for aviation, ship, ground, 
space, and naval warfare, as well as facilities and infrastructure 
acquisition programs. As an example, the Virginia-class program has 
implemented numerous new construction corrosion control and corrosion 
avoidance materials, including: the use of high solids paints in tanks, 
voids, and free-floods with expanded use of powder coatings; 
nonmetallic sail coatings; and inherently corrosion resistant composite 
materials for gratings, access plates, and covers.
    How are Navy and Marine Corps efforts in battling corrosion tied to 
the Department of Defense's Office of Corrosion Policy and Oversight?
    The Navy Corrosion Control and Prevention Executive (CCPE) serves 
as the Department's primary contact with the DOD Office of Corrosion 
Policy and Oversight (CPO) as required by title 10 USC Sec. 2228. The 
DON CCPE collaborates with the DOD CPO and the other service CCPEs to 
coordinate policy and share best practices that lead to cross-service, 
force multiplier initiatives. The DOD CPO supports these initiatives 
and DON efforts by funding research and development of corrosion 
control products and processes.
    General Neller. Is the Department of the Navy's corrosion 
prevention effort resourced and empowered to lead anti-corrosion 
efforts within the Navy? The Marine Corps Corrosion Prevention and 
Control Program (CPAC) for ground combat equipment is resourced and 
empowered to lead anti-corrosion efforts within the Marine Corps 
concerning ground combat equipment. The Marine Corps has designated a 
Corrosion Executive within the CPAC Program Management Office (PMO) who 
is responsible to coordinate with the Department of the Navy's 
corrosion executive and the Department of Defense Office of Corrosion 
Policy and Oversight. This interaction allows for productive 
collaboration to leverage Department of Defense-wide corrosion 
initiatives and align them for application associated to multi-domain 
operating concepts while meeting the expeditionary nature of Marine 
Corps operating concepts.
    Is it important to think about and plan for anti-corrosion efforts 
in the early acquisition phases for our major programs such as 
aircraft, ships and ground vehicles? Yes, corrosion is not only a 
sustainment concern; it needs to be addressed from program/system/
equipment inception through disposal (i.e., ``cradle to grave''). 
Corrosion Prevention and Control (CPC) at the early stages in a system 
development can result in a reduction of Total Ownership Cost (TOC). On 
ground combat equipment, the Marine Corps has established and 
implemented a robust centralized Corrosion Prevention and Control 
(CPAC) Program that focuses on extending the useful life through up-
front research, engineering and sustainment activities within our 
Marine Corps Systems Command, Systems Engineering and Acquisition 
Logistics (SEAL) group. This approach extends to our acquisition 
professional program managers within Marine Corps Systems Command and 
Program Executive Office (PEO) staffs to reduce the down-stream 
maintenance requirements and associated readiness costs through the 
identification, implementation and development of corrosion prevention 
and control products, materials, technologies and processes throughout 
not only the acquisition of a new system, but throughout its entire 
lifecycle.
                             cyber funding
    28. Senator Hirono. Admiral Richardson and General Neller, as 
Russia, China, and other adversaries develop cyber capabilities to 
actively challenge and attack the United States and its allies, it is 
evident that we are continuing to bolster the capabilities to counter 
these attacks. The fiscal year 2018 budget request includes 
approximately $8 billion for cyber spending, which is a 16 percent 
increase from last year's amount. How does the proposed budget address 
the concern with building a capable cyber force and increasing the 
number of cyber positions in the military Services? What is the primary 
focus for your cyber forces?
    Admiral Richardson. The Navy is committed to developing a capable 
cyber force to defend Navy networks and to support Joint Cyberspace 
Operations. Navy cyber force investments in fiscal year 2018 focused on 
service specific investments in Defensive Cyber Operations (DCO) and in 
maturing and operating the Navy's contribution to the Joint Cyber 
Mission Force (CMF). The CMF conducts full-spectrum cyberspace 
operations and is a key element in protecting the fleet from cyber-
attacks while preserving America's strategic influence in key regions 
around the world.
    Navy fiscal year 2018 cyber investments are designed to improve 
cyber space situational awareness and continue to build support for key 
CMF requirements for access platforms, cyber tools to include Cyber 
Protection Team Deployable Mission Support Systems, and other critical 
CMF equipping issues, such as a persistent training environment needed 
for all CMF teams to become fully operational and maintain warfighting 
ability. Investments will also improve the CMF training pipeline, to 
include new dedicated student billets to minimize lag time spent 
awaiting training. The increase in the fiscal year 2018 cyber budget 
funding also supports positions for Cyber Tool Developers and support 
contractors, who will develop tactics and tools to improve our rapid 
capability development in the dynamically changing cyberspace domain. 
DCO investments will improve overall cyber situational awareness, by 
adding personnel to monitor and analyze cyber sensor data as well as 
Research, Development, Testing and Evaluation to deliver technical 
enhancements to support them. Together these investments will provide 
significant improvements to Navy networks resiliency, which is needed 
to counter the increasing cyber threat.
    General Neller. The Marine Corps is committed to developing a 
capable cyber force to defend Marine Corps networks and to support 
Joint Cyberspace Operations. Cyber force investments in fiscal year 
2018 focused on service specific investments in Defensive Cyber 
Operations (DCO) and in maturing and operating the Navy's contribution 
to the Joint Cyber Mission Force (CMF). The CMF conducts full-spectrum 
cyberspace operations and is a key element in protecting from cyber-
attacks while preserving America's strategic influence in key regions 
around the world. Fiscal year 2018 cyber investments are designed to 
improve cyber space situational awareness and continue to build support 
for key CMF requirements for access platforms, cyber tools to include 
Cyber Protection Team Deployable Mission Support Systems, and other 
critical CMF equipping issues, such as a persistent training 
environment needed for all CMF teams to become fully operational and 
maintain warfighting ability. Investments will also improve the CMF 
training pipeline, to include new dedicated student billets to minimize 
lag time spent awaiting training. The increase in the fiscal year 2018 
cyber budget funding also supports positions for cyber tool developers 
and support contractors, who will develop tactics and tools to improve 
our rapid capability development in the dynamically changing cyberspace 
domain. DCO investments will improve overall cyber situational 
awareness, by adding personnel to monitor and analyze cyber sensor data 
as well as Research, Development, Testing and Evaluation to deliver 
technical enhancements to support them. Together these investments will 
provide significant improvements to network resiliency, which is needed 
to counter the increasing cyber threat.
                    freedom of navigation operations
    29. Senator Hirono. Admiral Richardson, China continues to build 
out the man-made islands they have reclaimed from the South China Sea. 
What are your thoughts on the importance of Freedom of Navigation 
exercises? What is the current status of U.S. FONOPS? Are the Navy and 
PACOM still making the requests to conduct these operations?
    Admiral Richardson. U.S. national security and commerce depend upon 
the freedoms of navigation and overflight, as recognized in U.S. policy 
and international law. For decades, the U.S. has challenged 
restrictions on freedom of navigation and overflight through the U.S. 
Freedom of Navigation (FON) Program. The FON Program combines 
diplomatic action and non-confrontational, operational assertions of 
navigation and overflight rights to maintain U.S. operational 
flexibility. FON operations are conducted in an open, even-handed 
manner, challenging excessive maritime claims based on principle rather 
than identity of the coastal State asserting the claim. For example, in 
fiscal year 2016, DOD challenged the excessive maritime claims of 22 
different coastal States including allies, partners, and other 
countries. FON operations in the South China Sea are only a small 
portion of the overall program in the Asia-Pacific region and 
throughout the world. That said, we continue to regularly conduct FON 
operations in the Asia-Pacific, as we have routinely done in the past 
and will continue to do in the future. Summaries of these operations 
are released publically in the DOD annual FON Report, 2016 report, 
please see Appendix A.

                           APPENDIX A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
